<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-611]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 110-611

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                  Department of Defense

                                                         Appropriations

                                                       Fiscal Year 2009


                                         110th CONGRESS, SECOND SESSION




DEPARTMENT OF DEFENSE
NONDEPARTMENTAL WITNESSES


               Department of Defense Appropriations, 2009






                                                        S. Hrg. 110-611

       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                            SECOND SESSION

                               __________

                         Department of Defense
                       Nondepartmental Witnesses

                               __________

         Printed for the use of the Committee on Appropriations





  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               _________

                     U.S. GOVERNMENT PRINTING OFFICE

41-245 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                   DANIEL K. INOUYE, Hawaii, Chairman
ROBERT C. BYRD, West Virginia        TED STEVENS, Alaska
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
RICHARD J. DURBIN, Illinois          CHRISTOPHER S. BOND, Missouri
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        RICHARD C. SHELBY, Alabama
HERB KOHL, Wisconsin                 JUDD GREGG, New Hampshire
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas

                           Professional Staff

                            Charles J. Houy
                            Nicole Di Resta
                            Kate Fitzpatrick
                               Katy Hagan
                              Kate Kaufer
                            Ellen Maldonado
                               Erik Raven
                               Gary Reese
                              Betsy Schmid
                             Bridget Zarate
                        Sid Ashworth (Minority)
                       Alycia Farrell (Minority)
                         Brian Potts (Minority)
                        Brian Wilson (Minority)

                         Administrative Support

                             Renan Snowden





















                            C O N T E N T S

                              ----------                              

                      Wednesday, February 27, 2008

                                                                   Page

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................     1

                        Wednesday, March 5, 2008

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................    69

                       Wednesday, March 12, 2008

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   169

                       Wednesday, April 16, 2008

Department of Defense: Medical Health Programs...................   225

                       Wednesday, April 23, 2008

Department of Defense: Missile Defense Agency....................   337

                        Wednesday, May 14, 2008

Department of Defense:
    Reserves.....................................................   379
    National Guard...............................................   447

                         Tuesday, May 20, 2008

Department of Defense: Office of the Secretary...................   499

                        Wednesday, June 4, 2008

Nondepartmental Witnesses........................................   569







 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                      WEDNESDAY, FEBRUARY 27, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:25 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Mikulski, Murray, 
Stevens, Cochran, Domenici, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. PETE GEREN, SECRETARY
ACCOMPANIED BY GENERAL GEORGE W. CASEY, JR., CHIEF OF STAFF, DEPARTMENT 
            OF THE ARMY


                 statement of senator daniel k. inouye


    Senator Inouye. This morning, we welcome the Honorable Pete 
Geren, Secretary of the Army, along with General George Casey, 
the Army Chief of Staff. Gentlemen, thank you for being with us 
here today as the subcommittee reviews the Army's budget 
requests for fiscal year 2009.
    The Army's fiscal year 2009 budget request is $140.7 
billion, an increase of $12.3 billion over the last year's 
inactive budget, excluding $48.7 billion appropriated through 
the Army in the fiscal year 2008 bridge supplemental. 
Additionally, the pending fiscal year 2008 supplemental budget 
request includes $66.5 billion for the Army, and the 
subcommittee expects to receive a fiscal year 2009 supplemental 
request in the near term.
    As we review these budget requests, we are mindful of the 
fact that upward of 250,000 soldiers are deployed in nearly 80 
countries. And the Army remains highly engaged in the global 
war on terror (GWOT). There is no question of the continuous 
hard pace of current operations has taken a toll on both Army 
personnel and equipment.
    Yet, as we address current, urgent needs, we cannot lose 
sight of the future. It is imperative that we prepare for the 
diverse warfighting demands of the 21st century. It is critical 
that we strike the right balance among the sometimes competing 
priorities, and we must do this with the Army's most powerful 
weapon in mind, our soldiers and their families.
    The challenge is not easy, and we are faced with many 
difficult decisions as we address the current demands, while 
continuing to prepare the Army for the future. The Army has 
embarked on the path toward addressing the challenge in various 
ways, for instance, by rapidly increasing the end strength by 
investing in new weapons and technologies and by repositioning 
its forces around the world.
    The Army's fiscal year 2009 budget request is designed to 
strike a sensible balance among these priorities. Yet there are 
questions that should not be ignored for the sake of urgency. 
For instance, the Army proposes to accelerate its growth, the 
force initiative which began last year, and to complete it 2 
years earlier than initially planned. But are we able to 
achieve this goal without sacrificing the quality of our 
recruits?
    Additionally, several high-priced modernization programs to 
include the future combat system and the Army reconnaissance 
helicopter have been beset by repeated cost overruns, schedule 
delays, and program restructures. Are we trying to do too much 
too fast? Do we have the right personnel to manage and oversee 
these complex modernization programs? What is the Army doing to 
address these acquisition challenges? And finally, are we 
confident that the goal of repositioning of forces 
appropriately addresses our current and future needs?
    It is the subcommittee's hope that today's hearing will 
help answer some of these questions and eliminate how the 
Army's fiscal year 2009 budget request addresses these 
challenges in a responsible manner.
    And so, gentlemen, we sincerely appreciate your service to 
our Nation, and the dedication and sacrifices made daily by the 
men and women in our Army. We could not be more grateful for 
what those who wear our uniform do for our country each and 
every day. Your full statements will be included in the record.
    And now, I wish to turn to my illustrious co-chairman, 
Senator Stevens, for his opening statement.


                    statement of senator ted stevens


    Senator Stevens. Thank you very much, Mr. Chairman, and 
welcome, Secretary Geren. I'm pleased to see you back before 
the subcommittee again. General Casey, again, thank you. And 
thank you, publicly, for coming to Alaska to appear before the 
Military Appreciation Day at the dinner that night, sponsored 
by the Armed Forces YMCA.
    And this is your first appearance before this subcommittee 
as Chief of Staff, and we look forward to the hearings we're 
going to have. I commend you for your service in the past, and 
look forward to working with you in the future. You are both 
here to discuss the 2009 budget request. The chairman's 
outlined that. I don't need to repeat what he has said. We have 
total agreement with regard to this budget.
    I do think, however, that we should take into account some 
of the comments being made by the Secretary of Defense about 
really the lack of funding of the Army to prepare for the wars 
that we've entered into, and look to the future to make certain 
that we're not going to have a similar situation where we might 
have another engagement where we were not prepared or trained 
for.
    So we look forward to your testimony, and welcome you to 
the subcommittee. Thank you very much.
    Senator Inouye. Thank you very much.
    Before you begin Mr. Secretary, Senators Cochran and 
Hutchison have submitted statements that they would like 
included in the record.
    [The statements follow:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming the 
Secretary Geren and General Casey this morning.
    While we are here today to discuss the Army's fiscal year 
2009 base budget request for $140 billion, we should also hear 
from Secretary Geren and General Casey about supplemental 
appropriations funding. In your posture statement that you 
provided the subcommittee today, you note you have relied on 
supplemental funding for increasing proportions of your budget 
and are in a situation today where ``the Army's base budget 
does not fully cover the cost of both current and future 
readiness requirements.'' You go on to say ``some base programs 
would be at risk if supplemental funding is precipitously 
reduced or delayed.'' I look forward to hearing more about this 
and how next year's budget will reverse this trend and restore 
what you call ``fiscal balance'' to your budget.
    This has been a year of many challenges and successes for 
our Armed Forces and the Army remains on the front lines 
protecting the United States in the Global War on Terrorism. 
Our All-Volunteer forces and their families have performed 
remarkably and our Nation owes them a debt of gratitude for 
their sacrifices.
    Secretary Geren, General Casey, thank you for your service, 
and I look forward to your testimony.
                                ------                                


           Prepared Statement of Senator Kay Bailey Hutchison

    Secretary Geren, General Casey, thank you both so much for 
coming today, but most importantly for what you do for our 
country and the soldiers of the world's finest Army.
    The State of Texas is proud of its defense industrial base 
which does so much for national defense programs of record and 
for rapid acquisition and rapid fielding of equipment needed 
for the warfighter in theater.
    To maintain such an industrial complex, to assure a sound 
budget, and to make certain our nation's soldiers are receiving 
what they need when they need it, a strong and trusted 
relationship with the Acquisition Secretary of each of our 
Defense Department's Services is required.
    Of note, my relationship with the current Acting Army 
Acquisition Executive, Mr. Dean G. Popps, has been an 
exceptional one and one which involves mutual cooperation, 
responsiveness, and respect for our nation's common goal of 
winning this war and seeing our troops come home victoriously.
    I would like to take this opportunity to commend Mr. Popps 
and his staff, and commend the Army for positioning him as the 
service's Assistant Secretary for Acquisition. I could think of 
no better leader with the resident knowledge to fulfill this 
most demanding position as we begin to debate the fiscal year 
2009 defense budget. I very much look forward to the continued 
relationship between his office and ours for the remaining 
months of this administration.
    Thank you, Mr. Chairman.

    Senator Inouye. Secretary Geren.
    Mr. Geren. Thank you, Mr. Chairman, Senator Stevens, and 
Senator Shelby. It's a privilege to come before your 
subcommittee, and we've provided the subcommittee ahead of time 
the full posture statement. And I'd like to just summarize some 
of my comments.
    It's certainly an honor for General Casey and I to appear 
before you to discuss our United States Army. An Army that's 
built on a partnership between soldiers and this Congress, and 
it's a partnership that's older than this country.
    The President's budget for 2009 is before the Congress, 
nearly $141 billion for the Army. And as always is the case, 
the Army's budget is mostly about people, and operations and 
maintenance (O&M) to support our people. Our personnel and our 
O&M budget make up two-thirds of the entire Army budget. As 
General Abrams reminded us often, ``People are not in the Army. 
People are the Army.''
    And our budget reflects that reality. Today, we are an Army 
long at war. In our seventh year at war in Afghanistan, and 
next month we will be 5 years in Iraq. It's the third-longest 
war in American history, behind the Revolutionary War and the 
Vietnam war, and it's the longest war we have fought with an 
all-volunteer force.
    Our Army is stretched by the demands of this long war, but 
it remains an extraordinary Army. It's the best-led, best-
trained, best-equipped Army we've ever put in the field, with 
Army families standing with their soldiers as they serve and as 
they re-enlist. And it's an Army of all volunteers--volunteer 
soldiers and volunteer families. We currently have 250,000 
soldiers deployed to 80 countries around the world, and over 
140,000 deployed to Iraq and Afghanistan. Our 140,000 soldiers 
in harm's way are our top priority, and we will never take our 
eye off of that ball. This budget and the supplementals ensure 
that our soldiers have what they need, and they have it when 
they need it.
    And today, and over the last 6 years, our reserve 
component--the Guard and Reserves--they've continued to 
shoulder a heavy load for our Nation. Since 9/11, we've 
activated 184,000 reservists and 268,000 guardsmen in support 
of the GWOT, and they've answered the call here at home whether 
it was for Hurricanes Katrina or Rita, brush fires, forest 
fires, or support along our borders.
    And we truly are one army. The active component cannot go 
to war without the National Guard and Reserves. The challenge 
before us, and the challenge that's addressed in this budget, 
is to continue the transformation of the reserve component to 
an operational reserve. Match the organizing, training, and 
equipping with the reality of the role of today's Guard and 
Reserves. And this budget continues the steady investment in 
new equipment for the reserve component.
    Over the next 24 months, prior years of investment will 
bear fruit. Over $17 billion of new equipment, over 400,000 
pieces of new equipment will flow into the Guard. And this 
budget includes $5.6 billion for Guard equipment and $1.4 
billion for Reserve equipment.
    And the strength of our Army, active Guard and Reserves, 
comes from the strength of Army families. Our Army families are 
standing with their soldier loved ones, but this long war is 
taking a toll. We owe our Army families a quality of life equal 
to their service. Over one-half of our soldiers today are 
married, with over 700,000 children in Army families. Nearly 
one-half of all soldiers who deploy, deploy with children 2 
years of age or younger.
    And when a married soldier deploys, he or she leaves behind 
a single-parent household and all the challenges associated 
with that family dynamic. And when a single parent deploys, he 
or she leaves a child behind in the care of others.
    In the 2009 budget, we are doubling funding for family 
programs. We're adding 26 new child development centers to the 
35 that Congress appropriated for us last year. And over the 
past year, with your strong support, we have expanded the 
availability and we've reduced the cost of childcare for our 
Army families.
    We've asked much of our volunteer spouses who've carried 
the burden of family support programs, a burden that grows 
heavier with each successive deployment, and they need help. 
Our 2008 budget and this 2009 budget provide much-needed 
support for those spouses. We are hiring over 1,000 family 
readiness support system assistants, and nearly 500 additional 
Army community service staff to provide full-time support to 
our spouse volunteers and Army families.
    And to meet the needs of geographically displaced families, 
a great challenge with the Guard and Reserves, we are fielding 
an Internet portal to bring together the Army programs, other 
Government programs, and public and private family support 
programs together in one site.
    In the 1990s Congress launched the privatized housing 
initiative for our military, an initiative that has replaced 
Army housing with Army homes, and it's an initiative that's 
created livable communities and vibrant neighborhoods on our 
posts. This budget builds on the great success of your 
initiative. Our budget for Army homes, new and refurbished in 
2009, is $1.4 billion.
    This budget continues the programs and the progress the 
Army has made in meeting the needs of wounded, ill, and injured 
soldiers. Last year, Congress gave us resources to hire needed 
medical personnel to provide better healthcare for our wounded 
warriors and meet the needs of family members who are 
supporting their loved ones. We stood up 35 warrior transition 
units to serve our wounded, ill, and injured soldiers, with 
each soldier supported by a triad of care.
    This budget continues to advance those initiatives, 
continues to address personnel shortages, improve facilities, 
and work to accomplish the seamless transition from the 
Department of Defense to the Veterans Affairs for our soldiers 
returning to private life. And we will continue to grow our 
knowledge and improve the care and treatment of the invisible 
wounds of this war, traumatic brain injury and post-traumatic 
stress disorder (PTSD), and better meet the needs of soldiers 
who suffer these wounds and better support their families.
    The generous support of Congress last year has provided us 
resources to make great progress on this front.
    In this budget, we look to the future. We never wanted to 
send our soldiers into a fair fight. This budget continues our 
investment in the programs of tomorrow, our highest 
modernization priority, future combat systems, which not only 
will shape the future of our Army, but extending out 
technologies today into today's fight.
    The armed reconnaissance helicopter, unmanned aerial 
vehicles (UAVs), the light utility helicopter, and the joint 
cargo aircraft are part of that future, and we thank you for 
your past support of those programs.
    We want to be able to say 10 years from now what we say 
today, ``We're the best-equipped Army in the world.'' And this 
budget makes a major step forward ensuring the long-term 
strength and help for our Army by moving the cost of 43,000 
active-duty soldiers from supplemental funding to the base at 
the cost of $15 billion.
    And we've accelerated the 65,000 growth and active duty 
Army from 2012 to 2010, with a commitment that we'll maintain 
recruit quality at least at the 2006 levels. We are a Nation 
long at war, facing an era of persistent conflict. Our soldiers 
and families are stretched. We are an Army out of balance, and 
we are consuming readiness as fast as we build it.
    But our Army remains strong--stretched, out of balance--but 
strong. And those who seek parallels with the hollow Army of 
the late 1970s will not find it. Our Army is stretched, but we 
have young men and women ready to do our Nation's work around 
the world and here at home.
    Every year, 170,000 young men and women join the United 
States Army, a number that equals the size of the entire United 
States Marine Corps. And every year, 120,000 soldiers proudly 
re-enlist. They're volunteer soldiers, and they're volunteer 
families, and they're proud of what they do, and they're proud 
of who they are.
    Mr. Chairman, and members of this subcommittee, thank you 
for your support of our soldiers and their families, and for 
the resources and the support you provide every year.
    I also want to thank you individually for your travels 
across this country and around the world to meet with our 
soldiers. To meet with them in the hospital, in their 
garrisons, and on the frontlines. It means a great deal to 
them, and thank you for doing that. And thank you for your 
support, and thank you for building this United States Army, 
Mr. Chairman.
    Senator Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]
 Prepared Statement of the Honorable Pete Geren and General George W. 
                               Casey, Jr.

    ----------------------------------------------------------------

                        The Army Family Covenant
    We recognize:
  --The commitment and increasing sacrifices that our Families are 
        making every day.
  --The strength of our Soldiers comes from the strength of their 
        Families.
    We are committed to:
  --Providing Soldiers and Families a Quality of Life that is 
        commensurate with their service.
  --Providing our Families a strong, supportive environment where they 
        can thrive.
  --Building a partnership with Army Families that enhances their 
        strength and resilience.
    We are committed to Improving Family Readiness by:
  --Standardizing and funding existing Family programs and services.
  --Increasing accessibility and quality of health care.
  --Improving Soldier and Family dousing.
  --Ensuring excellence in schools, youth services and child care.
  --Expanding education and employment opportunities for Family 
        members.

    ----------------------------------------------------------------

                                                 February 26, 2008.
    Our Nation has been at war for over six years. Our Army--Active, 
Guard and Reserve--has been a leader in this war and has been fully 
engaged in Iraq, Afghanistan, and defending the homeland. We also have 
provided support, most notably by the Army National Guard and Army 
Reserve, to civil authorities during domestic emergencies. Today, of 
the Nation's nearly one million Soldiers, almost 600,000 are serving on 
active duty and over 250,000 are deployed to nearly 80 countries 
worldwide.
    We live in a world where global terrorism and extremist ideologies 
threaten our safety and our freedom. As we look to the future, we 
believe the coming decades are likely to be ones of persistent 
conflict--protracted confrontation among state, non-state, and 
individual actors who use violence to achieve their political and 
ideological ends. In this era of persistent conflict, the Army will 
continue to have a central role in implementing our national security 
strategy.
    While the Army remains the best led, best trained, and best 
equipped Army in the world, it is out of balance. The combined effects 
of an operational tempo that provides insufficient recovery time for 
personnel, Families, and equipment, a focus on training for 
counterinsurgency operations to the exclusion of other capabilities, 
and Reserve Components assigned missions for which they were not 
originally intended nor adequately resourced, result in our readiness 
being consumed as fast as we can build it. Therefore, our top priority 
over the next several years is to restore balance through four 
imperatives: Sustain, Prepare, Reset, and Transform.
    The Army's strength is its Soldiers--and the Families and Army 
Civilians who support them. The quality of life we provide our Soldiers 
and their Families must be commensurate with their quality of service. 
We will ensure that our injured and wounded Warriors, and their 
Families, receive the care and support they need to reintegrate 
effectively into the Army or back into society. We never will forget 
our moral obligation to the Families who have lost a Soldier in service 
to our Nation.
    We are grateful for the support and resources we have received from 
the Secretary of Defense, the President, and Congress. To fight the 
wars in Afghanistan and Iraq, transform to meet the evolving challenges 
of the 21st century, and to regain our balance by 2011, the Army will 
require the full level of support requested in this year's base budget 
and Global War on Terror (GWOT) Request.

                                      George W. Casey, Jr.,
                       General, United States Army, Chief of Staff.
                                                Pete Geren,
                                             Secretary of the Army.

    ----------------------------------------------------------------

    ``The U.S. Army today is a battle-hardened force whose volunteer 
Soldiers have performed with courage, resourcefulness, and resilience 
in the most grueling conditions. They've done so under the unforgiving 
glare of the 24-hour news cycle that leaves little room for error, 
serving in an institution largely organized, trained, and equipped in a 
different era for a different kind of conflict. And they've done all 
this with a country, a government--and in some cases a defense 
department--that has not been placed on a war footing.''------Secretary 
of Defense, Honorable Robert M. Gates, October 10, 2007, AUSA Meeting

    ----------------------------------------------------------------

    The Army--Active, Guard and Reserve--exists to protect our Nation 
from our enemies, defend our vital national interests and provide 
support to civil authorities in response to domestic emergencies. Our 
mission is to provide ready forces and land force capabilities to the 
Combatant Commanders in support of the National Security Strategy, the 
National Defense Strategy, and the National Military Strategy.
    While ``what'' the Army does for the Nation is enduring, ``how'' we 
do it must adapt to meet the changing world security environment. We 
are in an era of persistent conflict which, when combined with our on-
going global engagements, requires us to rebalance our capabilities. We 
do this remembering that Soldiers, and the Families who support them, 
are the strength and centerpiece of the Army. And, while our Nation has 
many strengths, in time of war, America's Army is The Strength of the 
Nation.
                           strategic context
An Era of Persistent Conflict
    Persistent conflict and change characterize the strategic 
environment. We have looked at the future and expect a future of 
protracted confrontation among state, non-state, and individual actors 
who will use violence to achieve political, religious, and other 
ideological ends. We will confront highly adaptive and intelligent 
adversaries who will exploit technology, information, and cultural 
differences to threaten U.S. interests. Operations in the future will 
be executed in complex environments and will range from peace 
engagement, to counterinsurgency, to major combat operations. This era 
of persistent conflict will result in high demand for Army forces and 
capabilities.
Trends Creating the Conditions for Persistent Conflict
    The potential for cascading effects from combinations of events or 
crises arising from the trends described below compounds the risk and 
implications for the United States.
            Globalization and Technology
    Increased global connectivity and technological advances will 
continue to drive global prosperity--yet they also will underscore 
disparities, such as in standards of living, and provide the means to 
export terror and extremism around the world. Globalization accelerates 
the redistribution of wealth, prosperity, and power, expanding the 
``have'' and ``have not'' conditions that can foster conflict. The 
scale of this problem is evident in the projection that 2.8 billion 
people are expected to be living below the poverty line by 2025. While 
advances in technology are benefiting people all over the world, 
extremists are exploiting that same technology to manipulate 
perceptions, export terror, and recruit the people who feel 
disenfranchised or threatened by its effects.
            Radicalism
    Extremist ideologies and separatist movements will continue to have 
an anti-western and anti-U.S. orientation. Radical and religious 
extremist groups, separatists, and organizations that support them are 
attractive to those who feel victimized or threatened by the cultural 
and economic impacts of globalization. The threats posed by Sunni 
Salafist extremists, like Al-Qaeda, as well as Shia extremists with 
Iranian backing, represent a major strategic challenge.
            Population Growth
    The likelihood of instability will increase as populations of 
several less-developed countries will almost double in size by 2020--
most notably in Africa, the Middle East, and South and Southeast Asia. 
The ``youth bulge'' created by this growth will be vulnerable to 
antigovernment and radical ideologies and will threaten government 
stability. This situation will be especially true in urban areas in 
which populations have more than doubled over the last 50 years.
    By 2025, urban areas with concentrations of poverty will contain 
almost 60 percent of the world's population.
            Resource Competition
    Competition for water, energy, goods, services, and food to meet 
the needs of growing populations will increase the potential for 
conflict. Demand for water is projected to double every 20 years. By 
2015, 40 percent of the world's population will live in ``water-
stressed'' countries. By 2025, global energy demands are expected to 
increase by 40 percent, threatening supplies to poor and developing 
nations.
            Climate Change and Natural Disasters
    Climate change and other projected trends will compound already 
difficult conditions in many developing countries. These trends will 
increase the likelihood of humanitarian crises, the potential for 
epidemic diseases, and regionally destabilizing population migrations. 
Desertification is occurring at nearly 50,000-70,000 square miles per 
year. Today more than 15 million people are dying annually from 
communicable diseases. The number of people dying each year could grow 
exponentially with increases in population density and natural 
disasters.
            Proliferation of Weapons of Mass Destruction
    The diffusion and increasing availability of technology increases 
the potential of catastrophic nuclear, biological, and chemical 
attacks. Many of the more than 1,100 terrorist groups and organizations 
are actively seeking weapons of mass destruction.
            Safe Havens
    States that are unable or unwilling to exercise control within 
their borders create the potential for global and regional groups to 
organize and export terror. Territories under the control of renegade 
elements or separatist factions will challenge central government 
authority, potentially creating a base from which to launch broader 
security threats. The trends that fuel persistent conflict characterize 
the strategic environment now and into the future and will require 
integration of all elements of our national power (diplomatic, 
informational, economic, and military) to achieve our national 
objectives. The implication for the Army is the need to be modernized, 
expeditionary and campaign capable, and prepared to operate across the 
full spectrum of conflict.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Challenges of Providing Forces with the Right Capabilities
    The Army recruits, organizes, trains, and equips Soldiers who 
operate as members of Joint, interagency, and multi-national teams. The 
Army also provides logistics and other support to enable our Joint and 
interagency partners to accomplish their missions, as well as support 
civil authorities in times of national emergencies. Responding to the 
strategic environment and the national security strategy that flows 
from it, we are building an expeditionary and campaign quality Army. 
Our expeditionary Army is capable of deploying rapidly into any 
operational environment, conducting operations with modular forces 
anywhere in the world, and sustaining operations as long as necessary 
to accomplish the mission. To fulfill the requirements of today's 
missions, including the defense of the homeland and support to civil 
authorities, approximately 591,000 Soldiers are on active duty 
(currently 518,000 Active Component, 52,000 Army National Guard, and 
21,000 Army Reserve). Forty-two percent (251,000) of our Soldiers are 
deployed or forward-stationed in 80 countries around the world. 
Additionally, more than 237,000 Army Civilians are performing a variety 
of missions vital to America's national defense. Of these, more than 
4,500 are forward deployed in support of our Soldiers.
    Our current focus is on preparing forces and building readiness for 
counterinsurgency operations in Iraq and Afghanistan. Despite this 
current and critical mission, the Army also must be ready to provide 
the Combatant Commanders with the forces and capabilities they need for 
operations anywhere around the world, ranging from peace-time military 
engagement to major combat operations. Examples of Army capabilities 
and recent or ongoing operations other than combat include the 
following:
  --Supporting the defense of South Korea, Japan, and many other 
        friends, allies, and partners.
  --Conducting peacekeeping operations in the Sinai Peninsula and the 
        Balkans.
  --Conducting multi-national exercises that reflect our longstanding 
        commitments to alliances.
  --Continuing engagements with foreign militaries to build 
        partnerships and preserve coalitions by training and advising 
        their military forces.
  --Participating, most notably by the Army National Guard, in securing 
        our borders and conducting operations to counter the flow of 
        illegal drugs.
  --Supporting civil authorities in responding to domestic emergencies, 
        including natural disasters and threats at home and abroad.
  --Supporting interagency and multi-national partnerships with 
        technical expertise, providing critical support after natural 
        disasters, and promoting regional stability.
  --Supporting operations to protect against weapons of mass 
        destruction and block their proliferation.
    It is vital that our Army ensures that units and Soldiers have the 
right capabilities to accomplish the wide variety of operations that we 
will conduct in the 21st century. Continuous modernization is the key 
to enhancing our capabilities and maintaining a technological advantage 
over any enemy we face. We never want to send our Soldiers into a fair 
fight.
    Future Combat Systems (FCS) are the core of our modernization 
effort and will provide our Soldiers an unparalleled understanding of 
their operational environment, increased precision and lethality, and 
enhanced survivability. These improved capabilities cannot be achieved 
by upgrading current vehicles and systems. FCS will use a combination 
of new manned and unmanned air and ground vehicles, connected by robust 
networks, to allow Soldiers to operate more effectively in the complex 
threat environments of the 21st century. Maintaining our technological 
edge over potential adversaries, providing better protection, and 
giving our Soldiers significantly improved capabilities to accomplish 
their mission are the reasons for FCS. FCS capabilities currently are 
being tested at Fort Bliss, Texas. They are proving themselves valuable 
in the current fight and are being fielded to our Soldiers in Iraq. FCS 
and their capabilities will continue to be integrated into the force 
over the next 20 years.
         two critical challenges: restoring balance and funding
An Army Out of Balance
    Today's Army is out of balance. The current demand for our forces 
in Iraq and Afghanistan exceeds the sustainable supply and limits our 
ability to provide ready forces for other contingencies. While our 
Reserve Components (RC) are performing magnificently, many RC units 
have found themselves assigned missions for which they were not 
originally intended nor adequately resourced. Current operational 
requirements for forces and insufficient time between deployments 
require a focus on counterinsurgency training and equipping to the 
detriment of preparedness for the full range of military missions.
    We are unable to provide a sustainable tempo of deployments for our 
Soldiers and Families. Soldiers, Families, support systems, and 
equipment are stretched and stressed by the demands of lengthy and 
repeated deployments, with insufficient recovery time. Equipment used 
repeatedly in harsh environments is wearing out more rapidly than 
programmed. Army support systems, designed for the pre-9/11 peacetime 
Army, are straining under the accumulation of stress from six years at 
war. Overall, our readiness is being consumed as fast as we build it. 
If unaddressed, this lack of balance poses a significant risk to the 
All-Volunteer Force and degrades the Army's ability to make a timely 
response to other contingencies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Restoring Balance
    We are committed to restoring balance to preserve our All-Volunteer 
Force, restore necessary depth and breadth to Army capabilities, and 
build essential capacity for the future. Our plan will mitigate near-
term risk and restore balance by 2011 through four imperatives: 
Sustain, Prepare, Reset and Transform.
            Sustain
    To sustain our Soldiers, Families, and Army Civilians in an era of 
persistent conflict we must maintain the quality and viability of the 
All-Volunteer Force and the many capabilities it provides to the 
Nation. Sustain ensures our Soldiers and their Families have the 
quality of life they deserve and that we recruit and sustain a high 
quality force.
    Goals for Sustain:
  --Offer dynamic incentives that attract quality recruits to meet our 
        recruiting objectives for 2008 and beyond.
  --Provide improved quality of life and enhanced incentives to meet 
        our retention objectives for 2008 and beyond.
  --Continue to improve the quality of life for Army Families by 
        implementing the Army Family Covenant and other programs that: 
        standardize services, increase the accessibility and quality of 
        health care, improve housing and installation facilities, 
        provide excellence in schools and youth services, and expand 
        spousal education and employment opportunities.
  --Continue to improve care for Wounded Warriors and Warriors in 
        Transition through a patient-centered health care system, 
        Soldier and Family Assistance Centers, and improved Warrior 
        Transition Unit facilities.
  --Continue to support Families of our fallen with sustained 
        assistance that honors the service of their Soldiers.
            Prepare
    To prepare our Solders, units, and equipment we must maintain a 
high level of readiness for the current operational environments, 
especially in Iraq and Afghanistan.
    Goals for Prepare:
  --Continue to adapt and enhance the rigor of institutional, 
        individual, and operational training to enable Soldiers to 
        succeed in complex 21st century security environments.
  --Train Soldiers and units to conduct full spectrum operations with 
        improved training ranges to operate as part of a Joint, 
        interagency, or multinational force.
  --Provide Soldiers the best equipment through the Rapid Fielding 
        Initiative, the Rapid Equipping Force, and modernization 
        efforts.
  --Partner with private industry to rapidly develop and field 
        equipment needed on today's battlefield.
  --Continue to improve the Army Force Generation (ARFORGEN) process 
        which increases the readiness of the operating force over time 
        by generating recurring periods of availability of trained, 
        ready, and cohesive units.
            Reset
    To reset our force we must prepare our Soldiers, units, and 
equipment for future deployments and other contingencies.
    Goals for Reset:
  --Develop an Army-wide reset program that repairs, replaces, and 
        recapitalizes equipment that our Soldiers need.
  --Retrain our Soldiers to accomplish the full spectrum of missions 
        they will be expected to accomplish.
  --Revitalize our Soldiers and Families through implementation and 
        full resourcing of the Soldier Family Action Plan (SFAP) and 
        our warrior care and transition programs.
            Transform
    To transform our force, we must continuously improve our ability to 
meet the needs of the Combatant Commanders in a changing security 
environment.
    Goals for Transform:
  --Help balance our force and increase capacity to provide sufficient 
        forces for the full range and duration of current operations 
        and future contingencies by growing as quickly as possible.
  --Upgrade and modernize to remain an agile and globally responsive 
        force with Future Combat Systems (FCS) as the core of our 
        modernization effort.
  --Continue organizational change through modularity and rebalancing 
        to become more deployable, tailorable, and versatile.
  --Improve expeditionary contracting and financial and management 
        controls.
  --Continue to adapt institutions and the processes, policies, and 
        procedures, including business practices, to more effectively 
        and efficiently support an expeditionary Army at war.
  --Complete the transition of the RC to an operational reserve and 
        change the way we train, equip, resource, and mobilize RC 
        units.
  --Integrate Grow the Army initiative, Base Realignment and Closure 
        (BRAC), Global Defense Posture Realignment, and the operation 
        of installations and facilities to increase readiness, improve 
        efficiency, and improve the quality of life for our Soldiers, 
        Families, and Army Civilians.
  --Develop agile and adaptive leaders who can operate effectively in 
        Joint, interagency, intergovernmental, and multi-national 
        environments.
Compelling Needs for Sustain, Prepare, Reset, and Transform
    To achieve balance through the four imperatives, the Army will 
require sustained, timely, and predictable base budget and GWOT 
funding. The Armys compelling needs for fiscal year 2009 are:
    Support and Fund:
  --Recruiting and retention incentives and benefits to enable Active 
        and Reserve Components to meet end-strength objectives and 
        achieve Army standards for recruit quality.
  --Quality of life programs to sustain our Soldiers and Army Civilians 
        commitment to serve and the continued support of our Army 
        Families.
  --Programs to help our wounded, ill, and injured Warriors in 
        Transition to return to duty or to civilian life.
  --BRAC and military construction to execute the Army's global 
        repositioning plan.
  --Operations and maintenance for air and ground operations, depot 
        maintenance, base operations, and space and missile defense 
        capabilities.
  --Leader training and development to make Soldiers culturally astute 
        and better able to integrate and complement the other elements 
        of national power (diplomatic, informational, and economic).
  --Efforts to develop technical and procedural solutions to defeat the 
        threat of improvised explosive devices.
  --The Rapid Equipping Force (REF).
  --Equipment repair, replacement, and recapitalization programs.
  --Retraining Soldiers to execute their new and future missions.
  --Programs to revitalize our Soldiers and Families as they 
        reintegrate after deployments.
  --End-strength growth of approximately 74,000 by 2010.
  --Army modernization programs including Future Combat Systems, 
        aviation, Patriot PAC-3, LandWarNet, intelligence, logistics 
        automation, and other advanced technologies.
  --Planned modular transformations in 2009--two Brigade Combat Teams 
        and 13 support brigades.
  --Transformation of the Reserve Components to an operational reserve.

    ----------------------------------------------------------------

    ``America's ground forces have borne the brunt of underfunding in 
the past and the bulk of the costs--both human and material--of the 
wars of the present. By one count, investment in Army equipment and 
other essentials was underfunded by more than $50 billion before we 
invaded Iraq. By another estimate, the Army's share of total defense 
investments between 1990 and 2005 was about 15 percent. So resources 
are needed not only to recoup from the losses of war, but to make up 
for the shortfalls of the past and to invest in the capabilities of the 
future.''------Secretary of the Defense, Honorable Robert M. Gates, 
October 10, 2007, AUSA Meeting

    ----------------------------------------------------------------

Funding Challenges
    Recruiting and retaining the most combat-experienced Army in our 
Nation's history require predictable and sustained funding. Sustaining 
this high-quality and professional All-Volunteer Force will not be 
possible without investing in and supporting our quality of life 
efforts and providing competitive pay and benefits. As a manpower-
intensive organization, we will continue to spend the bulk of our funds 
to sustain people and maintain vital infrastructure, but we also must 
maintain investment in equipment and technology required for future 
readiness.
    To support our Soldiers, the centerpiece of the Army, we must 
rebuild and recapitalize our equipment including vehicles and weapons 
systems, maintain readiness for current operational demands, and build 
readiness for future challenges. It takes years beyond the end of 
hostilities to complete rebuilding and recapitalizing equipment. The 
fact that the number of vehicles and weapon systems currently in Army 
depots are sufficient to equip five Brigade Combat Teams and one Combat 
Aviation Brigade demonstrates the importance of timely recapitalization 
and reconditioning.
The Fiscal Year 2009 President's Budget
    The fiscal year 2009 President s Budget requests $140.7 billion for 
the Army. This request and the amounts in the Global War on Terror 
(GWOT) Request are necessary to support current operations, fight the 
wars in Iraq and Afghanistan, sustain the All-Volunteer Force, and 
prepare for future threats to the Nation. This year the President 
approved accelerating the end-strength of the Army's Active Component 
to 547,000 and the Army National Guard to 358,200 by 2010.
    The Army Reserve will increase in size to 206,000 by 2013. This 
most significant increase in the fiscal year 2009 budget is the result 
of permanent end-strength increases of 44,300 Soldiers in two 
components--43,000 in the Active Component and over 1,300 in the Army 
National Guard. The Army s fiscal year 2009 budget includes $15.1 
billion for all the costs associated with Grow the Army, which is an 
increase of $7.4 billion over the costs of this initiative in fiscal 
year 2008. This growth will enhance combat capabilities, help meet 
global force demand, and reduce stress on deployable personnel. Amounts 
requested by major appropriation category in the fiscal year 2009 
President s Budget as well as the change from the amounts enacted in 
fiscal year 2008 are:
            Military Personnel
    The fiscal year 2009 budget requests $51.8 billion, a $5.5 billion 
increase from fiscal year 2008. This includes $4 billion for Grow the 
Army, an increase of $3.4 billion over fiscal year 2008. This amount 
also funds pay, benefits, and associated personnel costs for 1,090,000 
Soldiers: 532,400 Active, 352,600 Army National Guard, and 205,000 Army 
Reserve. The GWOT Request will fund special pays and incentives and the 
mobilization of Reserve Component Soldiers.
            Operation and Maintenance
    The fiscal year 2009 budget requests $40.2 billion, a $3.6 billion 
increase from fiscal year 2008. This includes $2.6 billion for Grow the 
Army, an increase of $1.9 billion from fiscal year 2008. The increase 
funds training and sustainment of Army forces and includes the 
maintenance of equipment and facilities. The GWOT Request will fund the 
day-to-day cost of the war, training to prepare units for deployment, 
and the reset of forces returning from deployment.
            Procurement
    The fiscal year 2009 budget requests $24.6 billion, a $2 billion 
increase from fiscal year 2008. This includes $4.2 billion for Grow the 
Army, an increase of $100 million from fiscal year 2008. This increase 
continues procurement of weapons systems for the Army to include the 
Non-Line of Sight Cannon, an FCS-designed system. The GWOT Request will 
fund procurement of weapon systems to improve force readiness and 
replace battle losses and the reset of forces returning from 
deployment.
            Research, Development, Test, and Evaluation
    The fiscal year 2009 budget requests $10.5 billion, approximately 
the same amount requested last year, but a $1.5 billion decrease in the 
amount appropriated in fiscal year 2008. The fiscal year 2009 request 
reflects a $100 million decrease to the FCS Research, Development, 
Test, and Evaluation as the programs transition to procurement.
            Construction, Base Realignment and Closure (BRAC), and Army 
                    Family Housing
    The fiscal year 2009 budget requests $11.4 billion, a $1.8 billion 
increase from fiscal year 2008. This includes $4.3 billion for Grow the 
Army, an increase of $1.9 billion from fiscal year 2008. The increase 
funds the construction of facilities to support the growth and re-
stationing of Army Forces. The GWOT Request will fund construction in 
and around the Iraq and Afghanistan theaters of operation.
            Other Accounts
    The Army executes the Chemical Agents and Munitions Destruction 
Program. Funding for this account is stable at $1.6 billion in fiscal 
year 2008 and fiscal year 2009. The Army also has fiscal responsibility 
for the Iraq Security Forces Fund (ISFF), Afghanistan Security Forces 
Fund (ASFF), and Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) appropriations. The Army budgets for recurring sustainment 
costs of JIEDDO with fiscal year 2009 at $500 million, an increase of 
$400 million from fiscal year 2008. The GWOT Request will fund JIEDDO 
initiatives. The ISFF and ASFF are funded entirely through the GWOT 
Request.
            Restoring Fiscal Balance
    Timely and full funding of the Army's fiscal year 2009 request of 
$140.7 billion will ensure the Army is ready to meet the needs of the 
Nation and continue the process of putting us back in balance. However, 
it is important to note that over the last six years, the Army has 
received increasing proportions of its funding through supplemental and 
GWOT appropriations. This recurring reliance on GWOT funds and a 
natural overlap between base and GWOT programs means that the Army's 
base budget does not fully cover the cost of both current and future 
readiness requirements. Because the GWOT planning horizon is compressed 
and the timing and amount of funding is unpredictable, some base 
programs would be at risk if supplemental funding is precipitously 
reduced or delayed. An orderly restoration of the balance between base 
and GWOT requirements is essential to maintain Army capabilities for 
future contingencies.
              stewardship, innovation, and accomplishments
    Our goals are to be good stewards of the resources we are provided 
by Congress and to free human and financial resources for higher 
priority operational needs. Through the use of innovations such as Lean 
Six Sigma we are improving support to our people while reducing waste 
and inefficiencies. Integral to achieving our goals is the development 
of an Army-wide cost-management culture in which leaders better 
understand the full cost of the capabilities they use and provide and 
incorporate cost considerations into their planning and decision-
making. This approach will enable us to achieve readiness and 
performance objectives more efficiently. Concurrently, we are 
strengthening our financial and management controls to improve 
contracting in expeditionary operations and ensure full compliance with 
the law and regulations. Our goal to improve long-term sustainability 
will be achieved through effective stewardship of human, financial, and 
natural resources. Some examples of our ongoing initiatives include:
  --Adjusting our national and global footprint to improve efficiency 
        and sustainability.
  --Transforming installations, depots, arsenals, and the information 
        network that connects them to become more effective, energy 
        efficient, and environmentally conscious.
  --Transforming the Army's training, structure, systems, and processes 
        to better sustain and prepare the force.
  --Adapting our activities to protect the environment.
    Our accomplishments over the past year further illustrate our 
commitment to improving efficiency and effectiveness throughout the 
Army.

    ----------------------------------------------------------------

                          Army Accomplishments
    Initiated the Army Medical Action Plan to improve medical care for 
our Wounded Warriors.
    Initiated the Soldier Family Action Plan bringing to life the Army 
Family Covenant.
    Initiated Soldier Family Assistance Centers throughout the Army to 
provide a single point of entry for Families and Wounded Warriors for 
health-care and related issues.
    Recognized with the prestigious Malcolm Baldrige Award; the Army 
Armament, Research and Development Engineering Center is the only 
organization in the federal government to have received this honor.
    Recognized for world-class excellence in manufacturing, the Army 
Materiel Command's depots and arsenals earned 12 Shingo public sector 
awards.
    Formed the Army Contracting Task Force to review current 
contracting operations and then immediately began implementing 
improvements.
    Converted approximately 10,000 military positions to civilian 
positions through the end of fiscal year 2007.
    Privatized more than 4,000 homes, bringing the total to over 75,000 
homes that are privately managed.
    Reduced energy consumption on our installations through fiscal year 
2007, achieving levels down 8.4 percent since 2003 and 28.9 percent 
since 1985.
    Reset 123,000 pieces of equipment, including 1,700 tracked 
vehicles, 15,000 wheeled vehicles, 550 aircraft, and 7,400 generators.
    Improved property accountability by providing Army-wide visibility 
of 3.4 billion items valued in excess of $230 billion.
    Destroyed over 15,000 tons of chemical agents contained in 1.8 
million chemical munitions and containers.
    Moved 10 million square feet of unit cargo in support of the GWOT 
and humanitarian aid missions.
    Merged the Joint Network Node program into the Warfighter 
Information Network-Tactical, resulting in better integration and cost 
savings.
    Began fielding Mine Resistant Ambush Protected (MRAP) vehicles to 
units in Iraq.
    Established the Army Evaluation Task Force and fielded first 
``spin-outs'' from FCS.
    Developed the Automated Reset Management Tool to provide a 
collaborative integrated tool for equipment reset planning and 
execution of the Army Force Generation process.
    Increased the rigor in training new Soldiers by requiring graduates 
of basic training to be Combat Lifesaver certified.
    Fielded Human Terrain Teams to assist commanders in gaining 
objective knowledge of a population's social groups, interests and 
beliefs.
    Employed National Guard Soldiers worldwide who aided in seizing 
nearly 4,000 vehicles, approximately a million pounds of marijuana, and 
roughly 600,000 pounds of cocaine.

    ----------------------------------------------------------------

    While we are proud of these accomplishments, we continue to 
identify and pursue additional ways to improve our stewardship, 
efficiency, and effectiveness throughout the Army.
                 preserving the strength of the nation
    The Army has been at war for over six years. Our Soldiers have 
demonstrated valor, endured countless hardships, and made great 
sacrifices. Over 3,000 Soldiers have died and many more have been 
wounded. The awards our Soldiers have earned reflect their 
accomplishments and bravery on the battlefield. Our Army Families have 
stood shoulder to shoulder with their Soldiers throughout these 
challenging times.
    Our examination of the current and future security environments 
confirms the need to restore balance and build readiness across all 
components of the Army as quickly as possible. Four imperatives--
Sustain, Prepare, Reset, and Transform--frame how the Army will restore 
balance by 2011 and begin to build readiness for the future. To 
accomplish our plan, we will continue to require timely and predictable 
resources and support.
    The Army will remain central to successfully achieving U.S. 
national security objectives, particularly in an era in which 
operations will be waged increasingly among people in urban 
environments. As the decisive ground component of the Joint and 
interagency teams, the Army operates across the full spectrum of 
conflict to protect our national interests and affirm our Nation's 
commitment to friends, allies, and partners worldwide. Our goal is a 
more agile, responsive, campaign quality and expeditionary Army with 
modern networks, surveillance sensors, precision weapons, and platforms 
that are lighter, less logistics dependent, and less manpower 
intensive.
    As we restore balance and build readiness for the future, we 
continue to invest in our centerpiece--Soldiers--and the Families that 
support them. Of the million Soldiers in uniform, over half of them are 
married, with more than 700,000 children. The Army Family Covenant, the 
Soldier Family Action Plan, and the Army Medical Action Plan are 
examples of our commitment to caring for our Soldiers, Families, and 
Army Civilians in these challenging times. With the continued support 
from the Secretary of Defense, the President, and Congress for our 
legislative and financial needs, the Army will restore balance, build 
the readiness necessary in an era of persistent conflict, and remain 
The Strength of the Nation.
                addendum a--reserve components readiness
    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum. Section 517 
requires a report relating to implementation of the pilot program for 
active component support of the Reserves under Section 414 of the NDAA 
1992 and 1993. Section 521 requires a detailed presentation concerning 
the Army National Guard (ARNG), including information relating to 
implementation of the ARNG Combat Readiness Reform Act of 1992 (Title 
XI of Public Law 102-484, referred to in this addendum as ANGCRRA). 
Section 521 reporting was later amended by Section 704 of NDAA 1996. 
U.S. Army Reserve information is also presented using Section 521 
reporting criteria.
Section 517(b)(2)(A)
    The promotion rate for officers considered for promotion from 
within the promotion zone who are serving as active component advisors 
to units of the Selected Reserve of the Ready Reserve (in accordance 
with that program) compared with the promotion rate for other officers 
considered for promotion from within the promotion zone in the same pay 
grade and the same competitive category, shown for all officers of the 
Army.

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                     \1\     Average \2\
------------------------------------------------------------------------
Fiscal year 2006:
    Major......................................        93.9         96.5
    Lieutenant Colonel.........................        68.7         90.9
Fiscal year 2007:
    Major......................................       100.0         94.9
    Lieutenant Colonel.........................       100.0         91.0
------------------------------------------------------------------------
\1\ Active Component officers serving in Reserve Component assignments
  at time of consideration.
\2\ Active Component officers not serving in Reserve Component
  assignments at the time of consideration.

Section 517(b)(2)(B)
    The promotion rate for officers considered for promotion from below 
the promotion zone who are serving as Active Component advisors to 
units of the Selected Reserve of the Ready Reserve (in accordance with 
that program) compared in the same manner as specified in subparagraph 
(A) (the paragraph above).

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                     \1\     Average \2\
------------------------------------------------------------------------
Fiscal year 2006:
    Major......................................         5.1          6.8
    Lieutenant Colonel.........................         3.2          8.1
Fiscal year 2007:
    Major......................................    \3\ 50.0          9.0
    Lieutenant Colonel.........................  ..........          9.7
------------------------------------------------------------------------
\1\ Below the zone Active Component officers serving in Reserve
  Component assignments at time of consideration.
\2\ Below-the-zone Active Component officers not serving in Reserve
  Component assignments at time of consideration.
\3\ One officer promoted below the zone out of two eligible for
  consideration.

Section 521(b)
    1. The number and percentage of officers with at least two years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units:
  --ARNG officers: 20,811 or 55.5 percent.
  --Army Reserve officers: 4,968 or 7.9 percent.
    2. The number and percentage of enlisted personnel with at least 
two years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units:
  --ARNG enlisted: 119,269 or 37.8 percent.
  --Army Reserve enlisted: 11,247 or 18.8 percent.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 111 2(a)(1) of ANGCRRA:
  --In fiscal year 2007, no graduates of a service academy were 
        released to the Selected Reserve to complete their obligation.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver:
  --In fiscal year 2007, no waivers were granted by the Secretary of 
        the Army.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
    a. The number who are serving the remaining period of their active-
duty service obligation as a member of the Selected Reserve pursuant to 
section 1112(a)(1) of ANGCRRA:
  --In fiscal year 2007, one distinguished Reserve Officers' Training 
        Corps (ROTC) graduate was released before completing his 
        active-duty service obligation.
    b. The number for whom waivers were granted by the Secretary of the 
Army under section 1112(a)(2) of ANGCRRA, together with the reason for 
each waiver: In fiscal year 2007, one waiver was granted by the 
Secretary of the Army. The reason for the waiver was personal hardship 
(i.e., a child of the service member, born with a congenital heart 
defect, must be within 10-15 minutes from a major center specializing 
in pediatric cardiology for services as required).
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) two years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
  --In fiscal year 2007, no ROTC graduates were released early from 
        their active-duty obligation. Of this number, none are 
        completing the remainder of their obligation through service in 
        the ARNG, and none through service in the Army Reserve.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported):
  --2,129 ARNG officers from units were recommended for position-
        vacancy promotion and promoted.
  --37 Army Reserve officers from units were recommended for position-
        vacancy promotion and promoted.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver:
  --In fiscal year 2007, no waivers were granted by the Secretary of 
        the Army.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. A narrative summary of information pertaining to the Army 
Reserve is also provided:
  --In fiscal year 2007, the ARNG had 61,700 Soldiers were considered 
        nondeployable because of incomplete initial entry training, 
        officer transition, medical issues, nonparticipation, or 
        restrictions on the use or possession of weapons and ammunition 
        under the Lautenburg Amendment. The National Guard Bureau (NGB) 
        maintains the detailed information.
  --In fiscal year 2007, the Army Reserve had 35,049 (AR) Soldiers who 
        were considered nonavailable for deployment for reasons 
        outlined in Army Regulation 220-1, Unit Status Reporting (e.g., 
        pending administrative/legal discharge or separation, medical 
        non-availability).
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard, Army Reserve data also reported:
  --The number of ARNG Soldiers discharged during fiscal year 2007 
        pursuant to section 1115(c)(1) of ANGCRRA for not completing 
        the minimum training required for deployment within 24 months 
        after entering the Army National Guard is 161 officers and 
        11,095 enlisted Soldiers from all U.S. states and territories. 
        The breakdown by each state is maintained by the NGB.
  --The number of Army Reserve Soldiers discharged during fiscal year 
        2007 for not completing the minimum training required for 
        deployment within 24 months after entering the Army Reserve is 
        15 officers and 436 enlisted Soldiers. Those Soldiers who have 
        not completed the required initial entry training within the 
        first 24 months are discharged from the Army Reserve under AR 
        135-178, Separation of Enlisted Personnel. Those officers who 
        have not completed a basic branch course within 36 months after 
        commissioning are separated under AR 135-175, Separation of 
        Officers.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver:
  --In fiscal year 2007, no waivers were granted by the Secretary of 
        the Army.
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8):
    a. The number and percentage who did not meet minimum physical 
profile standards required for deployment:
  --In fiscal year 2007, 155,662 ARNG Soldiers underwent a physical. Of 
        these personnel, 5,606 or 3.6 percent were identified for 
        review due to a profile-limiting condition or failure to meet 
        retention standards.
  --In fiscal year 2007, 56,384 Army Reserve Soldiers underwent a 
        physical. Of these personnel 9,073 or 16 percent were 
        identified for review due to a profile-limiting condition or 
        failure to meet retention standards.
    b. The number and percentage that were transferred pursuant to 
section 1116 of ANGCRRA to the personnel accounting category described 
in paragraph (8).
  --In fiscal year 2007, 5,821 ARNG Soldiers were transferred from 
        deployable to nondeployable status for failing to meet medical 
        deployability standards. This number includes Soldiers 
        returning from a mobilization with a new medical condition and 
        reflects an increase in the use of electronic databases.
  --In fiscal year 2007, 839 Army Reserve Soldiers were considered 
        nonavailable for deployment for failing to meet medical 
        deployability standards. This is a decrease of 784 from the 
        previous fiscal year.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1117 of ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1117 of ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA:
  --Public Law 104-106 (NDAA 1996), Div A, Title VII, Section 704 (b), 
        February 10, 1996, repealed Section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA:
  --Information on the type of training required by units during post-
        mobilization is maintained by First United States Army. The 
        data are not captured and provided by the state.
  --ARNG units are striving to train in accordance with the Army Force 
        Generation (ARFORGEN) process in order to prepare for 
        operational missions and reduce post-mobilization training 
        time. The ARFORGEN process requires increasing resources as 
        necessary for maximum company-level training proficiency prior 
        to mobilization. This training generally consists of individual 
        warrior training tasks, weapons qualification and gunnery, 
        battle staff training, and maneuver training. This is followed 
        by theater-specific tasks and higher level collective training 
        to complete the predeployment requirements for the unit's 
        specific mission. The goal for post-mobilization training time 
        for a brigade-size organization is approximately 60 days.
  --Post-mobilization training time is contingent upon the amount of 
        certified pre-mobilization training conducted, the type of 
        unit, and its assigned mission. In order to reduce post-
        mobilization training time, the ARNG has developed programs and 
        products such as the ARNG Battle Command Training Capability, 
        the eXportable Combat Training Capability (XCTC), myriad 
        training devices and range complexes for our units. The 
        combination of programs and products, provide our units with 
        the capability to accomplish more pre-mobilization training and 
        reduce post-mobilization training time.
  --The Army Reserve Training Strategy (ARTS) envisions execution of 
        both the provisions of section 1119 as well as the Office of 
        the Secretary of Defense train-alert-deploy paradigm. 
        Specifically, the ARTS requires higher levels of pre-
        mobilization readiness through completion of increasingly 
        higher levels of training as units progress through the 
        ARFORGEN cycle. Thus, the initial focus on individual and 
        leader training migrates to low-level unit and battle staff, 
        culminating in multiechelon, combined-arms exercises in the 
        Ready year. The goal is to provide trained and ready combat 
        support/combat service support platoons and trained and 
        proficient battle staffs, battalion level and above, to the 
        mobilization station. Realization of this strategy is dependent 
        upon additional resources as it requires additional active 
        training days and support funds. The majority of the additional 
        training days are currently being resourced in the base budget, 
        but the additional operational tempo is funded via GWOT 
        Requests.
  --Per January 2007 direction from the Secretary of Defense (SECDEF) 
        Reserve Component unit mobilizations are now limited to 400-day 
        periods, including a 30-day post-mobilization leave. Perhaps 
        the most significant impact of this policy change is the 
        inclusion of post-mobilization training time in the 400-day 
        mobilization period. Thus, many training tasks previously 
        conducted during post-mobilization periods of three to six 
        months have been identified for pre-mobilization training, and 
        Army Reserve units are training to standard on as many of these 
        tasks as resources permit.
  --Post-mobilization training for Army Reserve units is directed and 
        managed by the First Army. First Army conducts the theater-
        specified training required and confirms the readiness of 
        mobilized Army Reserve units to deploy to overseas theaters. 
        ARFORGEN's Ready Year 2 (the year before mobilization) is 
        particularly critical to implementation of the ARTS and SECDEF 
        policies. During the Ready Year 2, Army Reserve units complete 
        collective pre-mobilization training in a 29-day period, 
        including training on many of the theater-identified tasks 
        formerly covered by First Army during post-mobilization. Timely 
        alert for mobilization--at least one year prior to 
        mobilization--is crucial.
  --Army goals for post-mobilization training for Army Reserve 
        headquarters and combat support/combat service support units 
        range from 30 to 60 days. Post-mobilization training conducted 
        by First Army typically consists of counterinsurgency 
        operations, counter-improvised-explosive-device training, 
        convoy live-fire exercises, theater orientation, rules of 
        engagement/escalation-of-force training, and completion of any 
        theater-specified training not completed during the pre-
        mobilization period. Typical post-mobilization periods for 
        various units are outlined below.

                     POST MOBILIZATION TRAINING DAYS
------------------------------------------------------------------------
                                    Current    Bridging \1\   Objective
------------------------------------------------------------------------
Military Police (Internet                  77            60           46
 Resettlement)..................
Engineer Battalion (Route                  75            60           44
 Clearance).....................
Military Police Company.........           86            60           46
Supply Company..................           60            45           33
Postal Company..................           95            30           22
Engineering Company                        60            45           35
 (Construction).................
Transportation Company (Heavy              60            45           33
 Equip Trans)...................
------------------------------------------------------------------------
\1\ The period roughly from Training Year 2008 through Training Year
  2010, when required training enablers (e.g., dollars, training days,
  training support structure, training facilities) are resourced and
  thus support the higher levels of pre-mobilization individual, leader,
  and collective training needed to maximize boots on ground/deployed
  time.

    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve):
  --During fiscal year 2007, the ARNG continued to synchronize the use 
        of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations and simulators (TADSS) 
        programs with the training requirements of the ARFORGEN 
        training model. By synchronizing the use of TADSS with 
        ARFORGEN, the ARNG continues to improve unit training 
        proficiency prior to mobilization.
  --To support the training requirements of M1A1 Abrams and M2A2 
        Bradley-equipped Brigade Combat Teams (BCTs), the ARNG 
        continued the fielding of the Advanced Bradley Full-Crew 
        Interactive Simulation Trainer, which provides full crew-
        simulations training for M2A2 units, Tabletop Full-fidelity 
        Trainers for the M2A2 and the Conduct of Fire Trainer XXI for 
        M1A1 and M2A2. When fully fielded, these devices, in addition 
        to the Abrams Full-Crew Interactive Simulation Trainer XXI, 
        will be the primary simulations trainers to meet the virtual 
        gunnery requirements of M1A1 and M2A2 crews.
  --In order to meet the virtual-maneuver training requirements in the 
        ARFORGEN process, M1A1 and M2A2 units use the Close-Combat 
        Tactical Trainer (CCTT) and the Rehosted Simulations Network 
        (SIMN ET) XXI, in addition to the Rehosted SIMNET CCTT Core. 
        The CCTT, SIMNET XXI, and SIMNET CCTT provide a mobile training 
        capability to our dispersed units.
  --In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG is fielding 
        the Virtual Convoy Operations Trainer (VCOT). The VCOT, through 
        the use of geospecific databases, provides commanders with a 
        unique and critical mission rehearsal tool. Currently, 32 VCOT 
        systems are positioned in the ARNG force to train units on the 
        fundamentals of convoy operations.
  --In order to meet basic and advanced rifle marksmanship 
        requirements, the ARNG is fielding the Engagement Skills 
        Trainer (EST 2000).
    This system is the Army s approved marksmanship-training device. 
The ARNG is also continuing use of its previously procured Fire Arms 
Training System (FATS) until EST 2000 fielding is complete. The EST 
2000 and FATS are also used to provide unit collective tactical 
training for dismounted Infantry, Special Operations Forces, Scouts, 
Engineer, and Military Police squads, as well as combat support and 
combat service support elements. These systems also support units 
conducting vital homeland defense missions.
  --The ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The ARNG currently 
        has over 900 systems fielded down to the company level. The 
        LMTS is a laser-based training device that replicates the 
        firing of the Soldier's weapon without live ammunition. It is 
        utilized for developing and sustaining marksmanship skills, 
        diagnosing and correcting marksmanship problems, and assessing 
        basic and advanced skills.
  --The ARNG has further developed its battle command training 
        capability through the three designated Battle Command Training 
        Centers (BCTCs) at Fort Leavenworth, Camp Dodge, and Fort 
        Indiantown Gap, and the Distributed Battle Simulation Program 
        (DBSP). BCTCs provide the backbone of the program as collective 
        hubs in the battle command training strategy. The DBSP provides 
        Commanders assistance from Commander s Operational Training 
        Assistants, TADSS facilitators, and Technical Support Teams. 
        BCTCs and the DBSP collectively help units in the planning, 
        preparation, and execution of simulations-based battle staff 
        training that augments the Department of the Army-directed 
        Warfighter Exercises and greatly enhances battle staff and unit 
        proficiency.
  --In order to provide the critical culminating training event of 
        ARFORGEN, the ARNG has implemented the XCTC. The XCTC program 
        provides the method to certify that ARNG combat units have 
        achieved company-level maneuver proficiency prior to 
        mobilization. The XCTC incorporates the use of advanced live, 
        virtual, and constructive training technologies to replicate 
        the training experience until now only found at one of the 
        Army's Combat Training Centers. The centerpiece of the XCTC is 
        the Deployable Force-on-Force Instrumented Range System 
        (DFIRST). DFIRST utilizes training technologies that allow for 
        full instrumentation of the training area from major combat 
        systems down to the individual Soldier, role player, and 
        civilian on the battlefield.
  --The most important part of every training exercise is the After-
        Action Review (AAR). By full instrumentation of the units, 
        Soldiers, and training areas, units receive an AAR complete 
        with two-dimensional, three-dimensional, and video playback of 
        the actual training exercise. This allows Commanders and 
        Soldiers to see what occurred during the training exercise from 
        a different perspective, further enhancing the training 
        experience.
  --The Army Reserve continues to leverage--to extent resources 
        permit--TADSS into its training program. Implementation of Army 
        Campaign Plan Decision Point 72 continues with establishment of 
        the 75th Battle Command Training Division (BCTD) (Provisional). 
        This division, with five battle command training brigades, 
        employs legacy constructive simulations to provide battle 
        command and staff training to Army Reserve and Army National 
        Guard battalion and brigade commanders and staffs during pre-
        mobilization and post-mobilization. The concept plan as well as 
        requirements for supporting Army battle command systems and 
        simulations drivers for the 75th BCTD is pending Headquarters 
        Department of the Army (HQDA) approval.
  --The Army Reserve continues to partner with the Program Executive 
        Office, Simulations, Training and Instrumentation; Training and 
        Doctrine Command agencies; and HQDA to define TADSS 
        requirements for combat support and combat service support 
        units. During fiscal year 2007 the Army Reserve refined 
        concepts for the integration of live, virtual, and constructive 
        environments to train Soldiers and units. Most notably, during 
        the Pacific Warrior exercise in July 2007, the Army Reserve 
        attempted to integrate live and constructive environments as it 
        trained senior battle staffs in both constructive and live 
        environments while lower echelon units conducted platoon lanes. 
        The distinction between live and constructive was apparent to 
        the senior battle staff managing exercise play. The lack of key 
        TADSS enablers was identified in concept plans (e.g., 75th 
        BCTD, Army Reserve Operations Groups) awaiting HQDA approval. 
        Upon approval and subsequent fielding of the required TADSS, 
        this gap will be filled. The 75th BCTD is on the Entity-level 
        Resolution Federation (ERF) fielding plan. The ERF provides a 
        high-resolution (e.g., individual Soldier-level fidelity 
        aggregated to unit resolutions) joint constructive battle staff 
        training simulation.
  --The LMTS and EST 2000 remain essential elements of Army Reserve 
        marksmanship training. LMTS procurement continues, and 
        distribution throughout the Army Reserve force continues to 
        increase. The LMTS has also been adapted to support convoy 
        operations training. In either individual premarksmanship 
        training or convoy modes, the system allows the Soldier to use 
        an assigned weapon, as well as crew-served weapons, in a 
        simulation/training mode. EST 2000 systems have been fielded to 
        many Army Reserve Engineer and Military Police organizations to 
        enable full use of its training capabilities by units with high 
        densities of crew-served weapons their at home stations.
  --The Army Reserve also has a number of low-density simulators it 
        employs to reduce expensive ``live'' time for unique combat 
        service support equipment. For example, Army Reserve watercraft 
        units train on the Maritime Integrated Training System (MITS), 
        a bridge simulator that not only trains vessel captains but the 
        entire crew of Army watercraft. In 2007 the Army Reserve 
        invested in communications infrastructure so that the MITS at 
        Mare Island, California, can communicate and interact with 
        another Army MITS at Fort Eustis, Virginia. This will provide 
        the capability to conduct distributed multiboat collective 
        training among all the simulators. Of note, the MITS is also 
        used by U.S. Navy, U.S. Coast Guard, and harbor management 
        agencies. Other simulators include locomotive simulators used 
        by Army Reserve railroad units and a barge derrick simulator 
        for floating watercraft maintenance units. Other simulator 
        requirements have been and are being identified in requirements 
        documents.
  --To further the use of simulations and simulators, the Army Reserve 
        hosted a Functional Area 57 (Simulations Operations Officer) 
        course in Birmingham, Alabama, for 26 officers of the 4th 
        Brigade, 75th BCTD. Conducted by HQDA cadre in August and 
        September 2007, the course was a proof-of-principle effort to 
        assess the viability of exporting the resident course from Fort 
        Belvoir to Army Reserve home stations. The Army Reserve intends 
        to continue off-site delivery to the other four brigades of the 
        75th Division as well as the three Operations Groups while 
        continuing to use resident school quotas to meet formal 
        schooling requirements. Having a qualified cadre of schooled 
        training supporters is the foundation of the use of simulations 
        and simulators, as well as the authoring of requirements 
        documents conducive to the procurement of simulators and 
        simulations to meet combat support and combat service support 
        needs.
  --The Army Reserve recommendation for a low overhead driver/staff 
        trainer for brigade-battalion combat support and combat service 
        support Commanders was adopted as a Quick Win by the Total Army 
        Training Capability Study (collective training). The Army is 
        planning on procuring a solution in fiscal year 2008-fiscal 
        year 2009 to allow Commanders to conduct stressful and 
        doctrinally correct staff training at home station without the 
        need for a significant investment in facilities or support 
        technicians.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
    a. Explanations of the information: Readiness tables are 
classified. This information is maintained by the Department of the 
Army, G-3. The data is not captured and provided by state.
    b. Based on the information shown in the tables, the Secretary's 
overall assessment of the deployability of units of the ARNG (and Army 
Reserve), including a discussion of personnel deficiencies and 
equipment shortfalls in accordance with section 1121: Summary tables 
and overall assessments are classified. This information is maintained 
by the Department of the Army, G-3.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of Section 105 of Title 32, together 
with explanations of the information shown in the tables, and including 
display of:
    a. The number of such inspections.
    b. Identification of the entity conducting each inspection.
    c. The number of units inspected.
    d. The overall results of such inspections, including the inspector 
s determination for each inspected unit of whether the unit met 
deployability standards and, for those units not meeting deployability 
standards, the reasons for such failure and the status of corrective 
actions.
  --During fiscal year 2007, Inspectors General and other commissioned 
        officers of the Regular Army conducted 252 inspections of the 
        ARNG, including 672 ARNG units. The bulk of these inspections 
        (208) were executed by Regular Army officers assigned to the 
        respective states and territories as Inspectors General. Of the 
        remaining 44, 37 were conducted by First Army and the 
        Department of the Army Inspector General and the remaining 7 by 
        the U.S. Army Forces Command (FORSCOM); Training and Doctrine 
        Command (TRADOC); Communications-Electronics Command; and the 
        U.S. Army Audit Agency. Because the inspections conducted by 
        Inspectors General focused on findings and recommendations, the 
        units involved in these inspections were not provided with a 
        pass/fail rating. Results of such inspections may be requested 
        for release through the Inspector General of the Army.
  --Operational Readiness Evaluation data for the Force Support Package 
        and expanded separate brigades are unavailable, as inspections 
        there of were eliminated as requirements in 1997. Data 
        available under the Training Assessment Model (TAM) relates to 
        readiness levels and is generally not available in an 
        unclassified format. TAM data are maintained at the state level 
        and are available upon request from state level-training 
        readiness officials.
  --In accordance with AR 1-201, Army Inspection Policy, the U.S. Army 
        Reserve Command (USARC) conducts inspections of regional 
        readiness commands and direct support units within requirements 
        of the USARC Organizational Inspection Program (OIP). Per the 
        Army Regulation, OIPs at division levels and above, mainly 
        comprise staff inspections, staff assistance visits and 
        Inspectors General. Staff inspections are only one aspect by 
        which Commanding Generals can evaluate the readiness of their 
        commands. The Inspector General conducts inspections and 
        special assessments based on systemic issues and trends 
        analysis with emphasis on issues that could impede the 
        readiness of the Army Reserve.
  --The Chief, Army Reserve, directed the Inspector General to conduct 
        special assessments in fiscal year 2007 prompted by concerns 
        over systemic issues. One was the Special Assessment of 
        Property Accountability. It focused on policies and guidance 
        for, compliance with standards of, and adherence to the Command 
        Supply Discipline Program; the effectiveness of the 
        reconstitution process; and the impact of stay-behind-theater-
        provided equipment on property accountability, with emphasis on 
        transportation and communications equipment.
  --Another was the Special Assessment of the Organizational Inspection 
        Program, which evaluated the OIP to determine if Commanders 
        were using it to assess readiness and to reinforce goals and 
        standards withintheir commands. These assessments also 
        encompassed an annual regulatory review of compliance with and 
        effectiveness of, the Army Voting Assistance Program, a program 
        of special interest to the Department of the Army.
  --The Army Reserve is meeting regulatory requirements through a 
        combination of Battle-Focused Readiness Reviews (BFRRs) and 
        staff assistance visits, with the assistance visits conforming 
        to regulatory requirements of AR 1-201. The BFRR is the tool 
        used by major subordinate Commanders to provide the Army 
        Reserve Commanding General a status on resources and readiness 
        of their commands, and resolve systemic issues/trends in order 
        to achieve continuous improvements in readiness. The Army 
        Reserve conducted 16 BFRRs in fiscal year 2007. The staff 
        assistance visits were more oriented to a particular topic in 
        the staff proponent's area.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131 (b)(4) of 
ANGCRRA:
  --There are no longer ground combat active or reserve component 
        associations due to operational mission requirements and 
        deployment tempo.
  --As FORSCOM's executive agent, First Army and USARPAC (U.S. Army 
        Pacific) for Pacific based Reserve Component units, executes 
        the legislated active duty associate unit responsibilities 
        through both their pre-mobilization and post-mobilization 
        efforts with reserve component units. When reserve component 
        units are mobilized they are thoroughly assessed in terms of 
        manpower, equipment, and training initially by the appropriate 
        chain of command, and that assessment is approved by First Army 
        or USARPAC as part of the validation for unit deployment.
  --Validation of the compatibility of the reserve component units with 
        the active duty forces occurs through the mobilization 
        functions with the direct oversight of First Army, USARPAC and 
        FORSCOM at the Mobilization Centers.
  --The Army's Transformation from a division-centric to brigade-
        centric organization, execution of ARFORGEN, and acceleration 
        of modularity and rebalancing efforts in the ARNG and Army 
        Reserve, coupled with lack of available active ground combat 
        units to conduct annual assessment of reserve component units, 
        should obviate the reporting requirement stipulated in Title 
        10, U.S. Code, Section 10542, Army National Guard Combat 
        Readiness Annual Report.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 U.S.C. 261 
note), shown (a) by State for the Army National Guard (and for the US 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment:
  --As of September 30, 2007, the Army had 3,251 active component 
        Soldiers assigned to Title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act 2005 (Public Law 108-767, 
        Section 515). Army G-1, and U.S. Army Human Resources Command 
        carefully manages the authorizations and fill of Title XI 
        positions. The data are not captured and provided by state.

               TITLE XI (FISCAL YEAR 2007) AUTHORIZATIONS
------------------------------------------------------------------------
                                 OFF        ENL         WO       TOTAL
------------------------------------------------------------------------
OA-22.......................  .........          2  .........          2
U.S. Army Reserve...........         25         83  .........        108
TRADOC......................         83         80  .........        163
FORSCOM.....................      1,155      2,225        121      3,501
ESGR........................  .........  .........  .........  .........
USARPAC.....................         30         54          1         85
                             -------------------------------------------
      TOTAL.................      1,293      2,444        122      3,859
------------------------------------------------------------------------

                     addendum b--information papers
    For more information about the topics below: www.army.mil/aps/08/
information_papers/information_papers.php
Sustain
Army Career Intern Program
Army Career Tracker
Army Community Services
Army Family Action Plan
Army Continuing Education System
Army Family Housing
Army Family Team Building Information
Army Integrated Family Support Network
Army Medical Action Plan
Army Referral Bonus Pilot Program
Army Reserve Child and Youth Services
Army Reserve Employer Relations
Army Reserve Voluntary Education Services
Army Reserve Voluntary Selective Continuation
Army Retention Program
Army Spouse Employment Partnership
Army Strong
Army Suicide Prevention Program
Army Transferability of GI Bill Benefits to Spouses Program
ARNG Active First
ARNG Education Support Center
ARNG Family Assistance Centers
ARNG Freedom Salute
ARNG GED Plus
ARNG Periodic Health Assessment
ARNG Post Deployment Health Reassessment
ARNG Recruit Sustainment Program
ARNG Recruiter Assistance Program
ARNG Yellow Ribbon Program
Better Opportunity for Single Soldiers
Child and Youth School Transition Services
Commissary and Exchange Quality Of Life
Community Based Health Care Organization
Defense Integrated Military Human Resource System
Deployment Cycle Support
Diversity
Equal Opportunity and Prevention of Sexual Harassment
Exceptional Family Member Program Respite Care
Family Advocacy Program
Family Readiness Support Assistant
Freedom Team Salute
Full Replacement Value and Families First
Job Swap Program
Medical and Dental Readiness
Military Family Life Consultants
Military One Source
Military to Civilian Conversions
Morale Welfare and Recreation
MyArmyLifeToo
National Security Personnel System
Officer Retention
Privatization of Army Lodging
Residential Communities Initialization
Sexual Assault Prevention
Soldier and Family Assistance Centers
Soldier and Family Readiness Board of Directors
Strong Bonds
U.S. Army Wounded Warrior Program
U.S. CENTCOM Rest and Recuperation Leave Program
Warrior in Transition
Wellness Assessment and Education
Prepare
Add-on Armor for Tactical Wheeled Vehicles
Army Asymmetric Warfare Group
Army Asymmetric Warfare Office
Army Combat Training Center Program
Army Distributed Learning Program
Army Initiatives to Improve Irregular Warfare Capability
Army National Guard Readiness Centers
Army Training Support System
ARNG Exportable Combat Training Capability
Basic Officer Leader Course
Biometrics
College of the American Soldier
Combating Weapons of Mass Destruction
Contractor-Acquired Government-Owned Equipment
Global Force Posture
Interceptor Body Armor
Live Virtual Constructive Integrating Architecture
Mine Resistant Ambush Protected Vehicles
Multi-Source Assessment and Feedback Program
Persistent Conflict
Property Accountability
Rapid Equipping Force
Rapid Fielding Initiative
Red Team Education and Training
Robotics
Sustainable Range Program
Unit Combined Arms Training Strategies
U.S. Army Combat Training Centers
Up-Armored High-Mobility Multipurpose Wheeled Vehicle
Warrior Tasks
Western Army National Guard Aviation Training Site
Reset
360-Degree Logistics Readiness
Army Equipping and Reuse Conference
Army Sustainability
Black Hawk Utility Helicopter
Building Army Prepositioned Stocks
CH-47 Medium Lift Helicopter
Depot Maintenance Initiatives
Equipment Reset Program
Life Cycle Management Initiative
Longbow Apache
Raven Small Unmanned Aircraft System
Retained Issue
Retrograde
Shadow Unmanned Aircraft System
War Reserve Secondary Items
Transform
Accelerate Army Growth
Active Component Reserve Component Rebalance
Armed Reconnaissance Helicopter
Army Distributed Learning Program
Army Force Protection Division Initiative
Army G-4 Lean Six Sigma
Army Integrated Logistics Architecture
Army Intelligence Transformation
Army Leader Development Program
Army Modernization Plan
Army Netcentric Data Strategy
Army Officer Education System
Army Power Projection Platform
Army Reserve Facility Management
ARNG Chemical, Biological, Radiological, Nuclear and High-Yield-
Explosive--Enhanced Response Forces
ARNG Civil Support Teams
ARNG Operational Support Airlift Agency
ARNG State Partnership Program
Barracks Modernization Program
Base Realignment and Closure Program
Battle Command as a Weapons System
Campaign Quality Force
Civil Works
Civilian Education System
Common Levels of Support
Common Logistics Operating Environment
Concept Development and Experimentation
CONUS Theater Signal Command
Cultural and Foreign Language Capabilities
Cyber Operations
Defense Support to Civil Authorities
Defense Support to Civil Authorities Special Events
Defense Support to Civil Defense Coordinating Officer
Digital Training Management System
Enhancing Joint Interdependence
Every Soldier is a Sensor/Human Terrain Teams
Expeditionary Capabilities
Expeditionary Contracting
Expeditionary Theater Opening
Flat Network Intelligence Access
Full Spectrum Operations
Intelligence Training
Interceptor Body Armor
Joint Knowledge Development and Distribution
Joint National Training Capability Activities
Joint Precision Airdrop System
Joint Tactical Radio System
Lakota
LandWarNet and the Global Information Grid
Logistics Automation
Major Acquisition Programs Future Combat System
MANPRINT
Medium Extended Air Defense System
Micro Electrical Mechanized Systems with RFID
Military Construction Transformation
Military Intelligence Capacity and Rebalance
Modular Force Conversion
Next Generation Wireless Communications
Non-Commissioned Officer Education System
Pandemic Influenza Preparation
Persistent Surveillance
Restructuring Army Aviation
Revitalizing Army Human Intelligence
Science and Technology
Single Army Logistics Enterprise
Spiral Technology and Capabilities
Stability Operations Capabilities
Transform
Warrior Unmanned Aircraft System
Warfighter Information Network-Tactical (WIN-T)
Other Important Information Papers Army Medical Action Program
Army Knowledge Online--DKO
Army Direct Ordering
Army Environmental Programs
Army Values
ARNG Agribusiness
ARNG Counterdrug
ARNG Environmental Programs
ARNG Fishing Program
ARNG Youth Challenge
Building Partnership Capacity
Civilian Corps Creed
CONUS Theater Signal Command
Energy Strategy
Fixed Regional Hub Nodes
Funds Control Module
General Fund Enterprise Business System
Institutional Training
Information Assurance and Network Security
Lean Six Sigma 2007
Organizational Clothing and Individual Equipment
Real Estate Disposal
Redeployment Process
Soldier as a System
Single DOIM and Army Processing Centers
Soldiers Creed
Streamline OCIE Processes
U.S. Army Combat Training Center Program
U.S. Army North
Warrior Ethos
Western Hemisphere Institute for Security Cooperation
                          addendum c--websites
    Army Business Transformation Knowledge Center: This site provides 
information on Army Business Transformation.
      http://www.army.mil/ArmyBTKC/index.htm
    Army Center Capabilities and Information Center (ARCIC): This site 
provides background on ARC IC.
      http://www.arcic.army.mil
    Army Logistics Transformation Agency: This site provides 
information on Army logistics transformation.
      http://www.lta.army.mil
    Army Medicine: This site provides information on Army medical 
programs.
      http://www.armymedicine.army.mil
    Army Modernization Plan: This site provides a detailed overview of 
the Army's organizational and materiel modernization efforts.
      http://www.army.mil/features/MODPlan/2006/
    Army National Guard: This site provides information about the Army 
National Guard.
      http://www.arng.army.mil
    Army Posture Statement: This site provides the web-based version of 
the Army Posture Statement which includes amplifying information not 
found in the print version.
      http://www.army.mil/aps
    Army Sustainability: This site provides information on Army 
sustainability efforts.
      http://www.sustainability.army.mil
    Army Training and Doctrine Command (TRADOC): This site provides 
background on TRADOC.
      http://www.tradoc.army.mil
    Army Website: This site is the most visited military website in the 
world, averaging about seven million visitors per month or 250 hits per 
second. It provides news, features, imagery, and references.
      http://www.army.mil
    Army Wounded Warrior Program: This site provides information on the 
Army's Wounded Warrior Program which provides support for severely 
wounded Soldiers and their Families.
      https://www.aw2.army.mil/
    Chief Information Officer, CIO/G-6: This site provides information 
on Army information operations.
      http://www.army.mil/ciog6/
    Deputy Chief of Staff for Intelligence, G-2: This site provides 
information on Army Intelligence initiatives.
      http://www.dami.army.pentagon.mil
    Deputy Chief of Staff for Logistics, G-4: This site provides 
information on Army logistics.
      http://www.hqda.army.mil/logweb/
    Deputy Chief of Staff for Operations, Plans, and Policy, G-3/5/7: 
This site provides information on Army operations, policies and plans.
      http://www.g357extranet.army.pentagon.mil/#
    Deputy Chief of Staff for Personnel, G-1: This site provides 
information on personnel issues.
      http://www.armyg1.army.mil
    Deputy Chief of Staff for Programs: This site provides information 
on materiel integration.
      http://www.g8.army.mil
    Future Combat Systems: This site provides information on the Future 
Combat Systems program.
      http://www.army.mil/fcs
    My ArmyLifeToo Web Portal: This site serves as an entry point to 
the Army Integrated Family Support Network (AIFSN).
      http://www.myarmylifetoo.com
    United States Army Reserve: Provides information about the Army 
Reserve.
      http://www.armyreserve.army.mil/usar/home
    Western Hemisphere Institute for Security Cooperation (WHINSEC): 
This site provides the history and overview of WHINSEC.
      https://www.infantry.army.mil/WHINSEC/
                addendum d--acronyms and initializations
    AC--Active Component
    ACOM--Army Command
    AMC--Army Materiel Command
    APOE--Aerial Port of Embarkation
    APS--Army Prepositioned Stocks
    ARFORGEN--Army Force Generation
    ARI--Army Research Institute
    ARNG--Army National Guard
    ASC--Army Sustainment Command
    ASCC--Army Service Component Command
    ASV--Armored Security Vehicle
    AW2--U.S. Army Wounded Warrior Program
    BCT--Brigade Combat Team
    BfSB--Battlefield Surveillance Brigade
    BOLC--Basic Officer Leader Course
    BRAC--Base Realignment and Closure
    BT--Business Transformation
    CBRN--Chemical, Biological, Radiological, and Nuclear
    CBRNE--Chemical, Biological, Radiological, Nuclear and High Yield 
Explosives
    CES--Civilian Education System
    CM--Consequence Management
    COIN--Counterinsurgency
    CPI--Continuous Process Improvement
    CS--Combat Support
    CSS--Combat Service Support
    CT--Counter Terrorist
    CTC--Combat Training Center
    CWMD--Combating Weapons of Mass Destruction
    DCGS-A--Distributed Common Ground System--Army
    DMDC--Defense Manpower Data Center
    DOD--Department of Defense
    ES2--Every Soldier a Sensor
    FCS--Future Combat Systems
    FTS--Full Time Support
    GBIAD--Ground Based Integrated Air Defense
    GCSC-A--Global Combat Service Support--Army
    GDP--Gross Domestic Product
    GDPR--Global Defense Posture Review
    GFEBS--General Fund Enterprise Business System
    GWOT--Global War on Terrorism
    HMMWV--High Mobility Multipurpose Wheeled Vehicle
    HSDG--High School Diploma Graduates
    HST--Home Station Training
    HUMINT--Human Intelligence
    IBA--Improved Body Armor
    IED--Improvised Explosive Device
    ISR--Intelligence, Surveillance, and Reconnaissance
    IT--Information Technology
    JIEDDO--Joint Improvised Explosive Device Defeat Organization
    JIOC-I--Joint Intelligence Operations Capability--Iraq
    JTF--Joint Task Force
    LMP--Logistics Modernization Program
    LSS--Lean Six Sigma
    METL--Mission Essential Task List
    MFO--Multinational Force and Observers
    MI--Military Intelligence
    NCO--Non-Commissioned Officer
    NDAA--National Defense Authorization Act
    OA&D--Organizational Analysis and Design
    OEF--Operation Enduring Freedom
    OIF--Operation Iraqi Freedom
    OPTEMPO--Operational Tempo
    O&M--Operations and Maintenance
    PLM+--Product Lifecycle Management Plus
    QDR--Quadrennial Defense Review
    RC--Reserve Component
    RCI--Residential Communities Initiative
    RDA--Research, Development, and Acquisition
    REF--Rapid Equipping Force
    RFI--Rapid Fielding Initiative
    SDDC--Surface Deployment and Distribution Command
    SIGINT--Signals Intelligence
    SMS--Strategic Management System
    TPFDD--Time Phased Force Deployment Data
    QOL--Quality of Life
    UAS--Unmanned Aerial Systems
    USAR--United States Army Reserve
    VA--Veterans Affairs
    WMD--Weapons of Mass Destruction

    Senator Inouye. And now, may I call upon General Casey?

               STATEMENT OF GENERAL GEORGE W. CASEY, JR.

    General Casey. Thank you, Mr. Chairman, Senator Stevens. 
Thank you. Very good. Thank you, Senator Inouye, Senator 
Stevens, members of the subcommittee.
    It is my first appearance here, and I do welcome the 
opportunity to speak with you today and to provide some context 
for this fiscal year 2009 budget that we're presenting to you 
today.
    Our country is in our seventh year at war, and your Army 
remains fully engaged around the world and at home. I believe, 
as the Secretary mentioned, that we are in and will be in a 
decade or so of what I call ``persistent conflict.'' And I 
define persistent conflict as a period of protracted 
confrontation among state, non-state, and individual actors who 
are increasingly willing to use violence to accomplish their 
political and ideological objectives.
    And as I look to the future, that is what I see for us, and 
that's the future that I believe that we as an Army and we as a 
Nation need to prepare for. Now, on top of that, as I look at 
the international security environment, I see some trends that 
will actually exacerbate and prolong this period of persistent 
conflict.
    For example, globalization. There is no question that 
globalization is having positive impacts around the world. But 
unfortunately, those positive impacts are unevenly distributed, 
and it's creating an environment of have and have-not states. 
And if you look primarily south of the equator--South America, 
Africa, Middle East, South Asia--you see what I mean. And what 
happens is that these have-nots states create fertile 
recruiting bases for global extremist groups.
    Technology is another double-edged sword. The same 
technology that is pushing knowledge to anyone in the world 
with a computer is being used by terrorists to export terror 
around the world.
    Demographics are going in the wrong direction. But, by some 
estimates, some of these developing countries are expected to 
double in population in the next 10 to 20 years, and some 
projections are that 60 percent of the world's populations are 
going to live in these sprawling cities in 10 or 20 years. That 
will create, again, breeding grounds for extremist recruitment.
    Two trends that worry me the most? Weapons of mass 
destruction. We know there's over 1,200 terrorist groups around 
the world. Most, if not all of them, are working hard to get 
weapons of mass destruction. And there's no question in my mind 
that if they get them they will intend to use them against a 
developed country.
    And the second thing that worries me the most are safe 
havens. Ungoverned space or states that allow terrorists to 
operate from their territory that can be used to plan and 
export terrorist operations, much like we saw in Afghanistan.
    So facing that future, and having been at war for 7 years, 
we believe that our Army must be versatile enough to adapt to 
the rapidly--rapidly to the unexpected circumstances that we'll 
face. And we are building, and have been building, an agile, 
campaign-capable, expeditionary Army that we believe can deal 
with these challenges.
    Now, as the Secretary said, the cumulative effects of 6-
plus years at war have put us out of balance. Let me just 
describe what I mean by that. Basically, the current demands on 
our forces exceed the sustainable supply. And we're consumed 
with meeting our current requirements, and as a result are 
unable to provide forces as rapidly as we would like for other 
things, and we're unable to do the things we know we need to do 
to sustain this magnificent all-volunteer force.
    Our reserve components are performing magnificently, but in 
an operational role for which they were neither organized nor 
resourced. The limited periods of time between deployments 
necessitate that we focus on counter insurgency training at the 
expense of training for the full spectrum of operations. Our 
soldiers, our families, our support systems, and our equipment 
are stretched by the demands of these repeated deployments. So, 
as the Secretary said, overall we're consuming our readiness 
just as fast as we can go.
    Now, I wrestled hard to find the right words to describe 
the state of the Army. Because it isn't broken, it isn't 
hollow, it's a hugely competent, professional, and combat-
seasoned force. But, as I think we all acknowledge, we are not 
where we need to be. Now, with your help, Mr. Chairman, we have 
a plan to restore balance and preserve this all-volunteer force 
and restore the necessary breadth and depth to Army 
capabilities.
    And we've come up with four imperatives that we believe 
that we need to execute to put ourselves back in balance--
sustain, prepare, reset and transform. Let me just say a few 
words about each of them.
    First and foremost, we have to sustain our soldiers, 
families, and civilians. They are the heart and soul of this 
Army. And they must be supported in a way that recognizes the 
quality of their service. The Secretary mentioned some of the 
initiatives that we're taking, and these will continue with 
your support.
    Now, second, prepared. We cannot back away from our 
commitment to continue to prepare our soldiers for success in 
this current conflict and give them the tools that they need to 
be successful. They must have an asymmetric advantage over any 
enemy that they face.
    Third is reset. And reset is about returning our soldiers 
and their equipment to appropriate conditions for future 
deployments and contingencies. In fiscal year 2007, you 
provided us the resources to properly reset the force. And, as 
a result, we've made significant strides in putting 
capabilities and systems into the force. But resources for 
reset are the difference between a hollow force and a versatile 
force for the future.
    And last, transform. Several of you mentioned--the chairman 
and the co-chairman mentioned--that even as we're working to 
put ourselves back in balance, we can't take our eyes off the 
future, and we thoroughly agree with that. We must continue to 
transform our Army into an agile campaign-quality expeditionary 
force for the 21st century.
    And for us, transformation is a holistic effort. It's 
adapting how we train, how we fight, how we modernize, how we 
develop leaders, and how we take care of our soldiers and 
families.
    To guide our transformation, we're releasing the first 
adaptation of our Basic Operations Doctrine since September 11, 
2001--Field Manual 3 (FM3) Operations. We expect this to guide 
our transformation and it describes--one, how we see the future 
security environment, and two, how we believe Army forces 
should operate for success in that environment. Let me just 
give you five key elements that are represented here in this 
manual.
    First, it describes the complex and multidimensional 
operational environment of the 21st century. An environment 
where we think war will increasingly be fought among the 
people.
    Now, second, this manual elevates stability operations to 
the level of offense and defense. And in the core of it is an 
operational concept called Full Spectrum Operations. Army 
formations apply offense, defense, and stability operations 
simultaneously to seize the initiative and achieve decisive 
results.
    Third, it describes a commander's role in battle command 
that is an intellectual process, more designed to solving 
developing solutions for the tough, complex problems our 
commanders will face, than a military decisionmaking process to 
prepare operations orders.
    Fourth, it emphasizes the importance of information 
superiority in modern conflict.
    And last, it acknowledges that our soldiers, even in this 
21st century environment, remain the centerpiece of our 
formations.
    So we believe this doctrine is a great starting point on 
which to build on the experience of the last 7 years and to 
shape our Army for the future. So that's our plan Senators--
sustain, prepare, reset, and transform.
    In the last 2 years, you have given us the resources to 
begin this process for putting the Army back in balance. The 
fiscal year 2009 budget, the war on terrorism supplemental that 
will accompany it, and the balance of the 2008 war on terrorism 
supplemental will allow that process to continue.
    We certainly appreciate your support. And I want to assure 
you that we have worked very hard to put the resources that you 
have given us here to good use. And let me just give you a 
couple of examples.
    First, we've made great strides through the Army Medical 
Action Plan in improving care to our wounded warriors.
    Second, we've initiated an Army Soldier Family Action Plan 
to improve the quality of support for our families.
    Third, we are over 60 percent through our conversion to 
modular organizations. This is the largest organizational 
transformation of the Army since World War II, and these 
formations that we're building are 21st century formations. 
I've seen the power of them on the ground in Baghdad.
    We're also over 60 percent complete a rebalancing of 
120,000 soldiers from skills we needed in the cold war to 
skills more relevant to the 21st century. We've reset 120,000 
pieces of equipment. We've privatized more than 4,000 homes 
just last year, giving us over 80,000 privatized homes for our 
soldiers and families. And the depots of our Army Materiel 
Command have won industry prizes for efficiency. They won 12 of 
what they call Shingo Awards from commercial industry for their 
efficiency.
    So, as you can see, we are not sitting still, and we are 
working hard to give the Nation the Army it needs for the 21st 
century.
    Now, let me just close here, Senators, with a story about 
quality, because I get--and I suspect will get today--questions 
on the quality of the Army. I was up in Alaska in December 
right before Christmas, and I had the occasion to present a 
Distinguished Service Cross to a sergeant. This was Sergeant 
Greg Williams.
    He was on a patrol with his Stryker in Baghdad in October 
2006. That patrol came into an ambush. And they were taken 
under fire from three different directions and with four 
explosively formed penetrator Improved Explosive Devices 
(IEDs). And those are the armor piercing IEDs that can be very, 
very lethal to our forces. They all struck simultaneously.
    He was knocked out, eardrum burst. He awoke to find his 
uniform on fire, and his Stryker on fire. He put his uniform 
out. His first instincts? Grab the aid bag and start treating 
my fellow soldiers. He did that. He didn't realize that his 
lieutenant was still in the burning vehicle. He ran back in the 
burning vehicle, dragged the lieutenant to safety, still under 
fire.
    He was returning fire when he realized that the .50 caliber 
machine gun on the Stryker was not being manned. That was the 
most potent weapon in the squad. He ran back in the burning 
vehicle which, oh by the way, still contained about 30 pounds 
of TNT and detonating cord. He got on the .50 caliber, brought 
it to bear, broke the ambush, and the squad escaped.
    Now, that's the type of men and women that we have in the 
Army today. And you can be extremely proud of the job they're 
doing around the world, while our success in the future will 
require more than the courage and valor of our soldiers to 
ensure that we can continue to fight and win the Nation's wars 
in an era of persistent conflict.
    It will require recognition by national leaders, like 
yourselves, of the challenges that America faces in the years 
ahead. And it will require full, timely, and predictable 
funding to ensure that the Army is prepared to defeat those 
threats and to preserve our way of life.
    So thank you very much for your attention. And the 
Secretary and I will be very glad to take your questions.

                          CONTRACTOR PERSONNEL

    Senator Inouye. I thank you very much, General. And thank 
you, Secretary. Mr. Secretary, to the credit of the United 
States Army, last September commissioned a special 
investigating commission to look into acquisitions, personnel--
especially contracting personnel--the so-called Gansler 
Commission.
    And together with the Government Accountability Office 
(GAO) reports and other Army reviews that were conducted under 
your supervision, have all noted the need for more numbers of 
sufficiently trained contract oversight personnel, and the need 
for specialized training in contracting in expeditionary 
operations.
    The Gansler report, for example, highlighted that only 56 
percent of the military officers and 53 percent of civilians in 
the contracting career are certified for their current 
positions. What steps are we taking now?
    Mr. Geren. We've made great progress since that time. When 
I commissioned the Gansler report, I also commissioned a task 
force, and the job of the task force was to do everything we 
could do immediately, and not wait until the commission 
finished. And the task force and the Gansler Commission worked 
hand-in-hand over the course of the couple months that it took 
Dr. Gansler to produce his report.
    But we've taken the recommendations of that commission as a 
blueprint for building the contracting force that we need for 
the future. We've established a two-star contracting command, 
as recommended by Dr. Gansler. Unfortunately, and as we tried 
to implement many of his recommendations, we don't have the 
deep bench in contracting in order to fill these positions.
    But we created a two-star contracting command, which 
temporarily is filled by an SES two-star equivalent. We've 
created a one-star command for expeditionary contracting, and 
we've created another one-star command for installation 
contracting, and we've set up seven contracting brigades so it 
gives us seven 06 colonel-level positions.
    So we can start building a bench, so people that are in the 
contracting community in our Army have a future in the Army. We 
also have instructed our selection boards to take into 
consideration the contracting experience as they promote 
officers. We have made great progress. We also have added 400 
additional personnel into contracting, and are seeking to add 
another 800 into it, and building training programs along the 
way.
    The fact is, we have had a very empty bench in the 
contracting area. Dr. Gansler did a good job of laying out 
blueprints of where we need to go. But over the course of the 
1990s and in the early parts of this century, we allowed our 
contracting capability to wither. And when we look at the Army 
of the future, the deployable Army of the future, it is always 
going to deploy with a very significant support from 
contractors. Dr. Gansler estimated from here on it will always 
be about 50/50--50 percent uniformed military, 50 percent 
contractors.
    So we need to have in our Army people who are trained to 
supervise, trained to execute, and trained to operate the 
acquisition and contracting side. We've taken steps. It's going 
to be a multiyear process to get us back to where we need to 
be, and be something that we're starting in a hole, but we're 
making progress.
    Senator Inouye. We have been advised that the Army's 
Criminal Investigation Division has 90 ongoing investigations 
in Iraq, Kuwait, and Afghanistan, and that 24 U.S. citizens, 
including 19 civilian or military officials, have been indicted 
or convicted. And the contracts involved in the investigations 
have a potential value of more than $6 billion.
    The Army has identified more than $15 million in bribes, 
and more than $17 million levied in fines or forfeitures. Can 
you give us a current situation?
    Mr. Geren. Sir, the statistics that you cited, they are 
accurate. And last summer, it was recognition of the problem in 
Kuwait that led me to set up the task force and to establish 
the Gansler Commission.
    We have doubled the personnel over in Kuwait. We have taken 
many of the contracts that were in Kuwait, up to 18,000 of 
them, and used reach-back capabilities here in the United 
States to review all those contracts. We've already achieved 
significant savings in excess of $10 million.
    We've put new leadership over there. We have a colonel 
running the operation, who has got the operation in shipshape. 
We've given him the personnel he needs, we've given him the 
trained people that he needs, and we're providing support here 
back at home.
    The Kuwait Contracting Office was not properly staffed and 
not properly trained to accommodate--to handle the huge volume 
of contracts that were going through that office. The number of 
contracts in Kuwait quintupled, and we did not staff up to meet 
that. Last summer, in recognition of that, we completely 
overhauled the operation, put in new leadership, and supported 
it with reach-back capabilities here. I believe we have it in 
hand today.
    It's a sad day for the Army that we have seen that kind of 
criminal conduct, both by civilians and senior leaders of our 
military. It's a very black mark on our Army, but we have taken 
steps to correct it. And I believe today you would be satisfied 
with the operation we have in Kuwait.
    Senator Inouye. So you're satisfied that it's under 
control?
    Mr. Geren. Yes, sir. I am.

                        RECRUTING AND RETENTION

    Senator Inouye. I have one more question here on the DOD 
recruiting. We set a quality benchmark up until now of 90 
percent high school grads. I've been told that in fiscal year 
2007, less than 80 percent of the recruits had high school 
diplomas, which is a 2 percent decrease from 2006.
    What is the Army doing to address this problem?
    Mr. Geren. The Secretary of Defense's goal for high school 
diploma grads is 90 percent. It's important to note, though, 
every soldier that we bring into the Army has a high school 
diploma or a high school equivalent. They are either a diploma 
grad or a GED.
    But we did fall below our goals in 2007, and we've made a 
commitment that, as we work to grow the force and accelerate 
the growth of the force, that we will not fall below the 2006 
quality marks. And we're taking a number of steps in order to 
improve the quality marks. I think some of the recruiting 
initiatives that are going to help us in that regard. We are 
still above the congressional requirements in those areas, but 
we're not where we need to be.
    But I think when you look at--we try to use those quality 
indicators as predictors of whether or not a young man or young 
woman will succeed in the Army. As you see also, we've 
increased the number of waivers of young men and women that we 
bring in the Army, for a variety of reasons. We've found that 
those soldiers we bring in under waivers--and it's a very 
painstaking and labor intensive process--but every soldier that 
we bring in under a waiver is required to go through a 10-step 
approval process.
    And somebody with any sort of serious information in his or 
her past has to be reviewed by a general officer. We've found 
that those waivered soldiers--and we did a study of all 17,000 
waivered soldiers that came in from 2001 to 2006--and we've 
done a good job of picking those soldiers out of the many 
applicants that seek to join the Army.
    They've proven to promote faster than those who came in 
through the normal process. They've had more awards for valor 
than those who came in outside of the waiver process. They have 
re-enlisted at a higher rate. And even though some think, 
because they're waivers they're lesser quality, this process 
that we use to pick through all those who seek waivers and 
identify ones who are qualified to join the Army, has really 
been a success.
    So that's an area that we have had a lot of questions 
about, but when we examined it, it showed that we were finding 
soldiers that were performing well.
    But I think one of the most important things to keep in 
mind when we think about recruits, we are an Army at war. We 
are a Nation at war. And a lot of intangibles go into 
determining whether or not a young man or young woman is going 
to be a good soldier. But commitment, and commitment to 
selfless service, has to be at the top of the list.
    And every young man or woman that joins the Army today 
knows they're joining an Army at war. 170,000 of them joined an 
Army at war this last year. And we are not where we want to be 
on high school diploma grads, but that's the screening--that's 
the bottom line that everybody has to pass when they join the 
Army today. And I think that's helped us get the kind of young 
men and women that make good soldiers.
    But we're working to try to meet those quality marks. I 
can't tell you we'll do it in 2008, but I can tell you we're 
not going to let it drop below where we were in 2006.
    Senator Inouye. Thank you very much, Mr. Secretary, and 
your statement and response is most reassuring. Senator 
Stevens.

                  FACILITIES TO SUPPORT GROW THE ARMY

    Senator Stevens. Thank you very much. I do have some 
questions I'll submit for the record. But, Mr. Secretary, we're 
looking at adding 65,000 new troops within 4 years, it looks 
like, and that goal seems to be doable. But what about the 
facilities that we have to have for those people? Most of them 
now are married and they're all volunteers. Are we keeping up 
with the facilities requirement for 65,000 new people?
    Mr. Geren. We are. And we budgeted fully for all the costs 
and all the facilities for that 65,000 growth. And we've 
added--in order to speed up that growth, move it from 2012 to 
2010--we have added money in our supplemental requests. But we 
have in the base budget $70 billion over the future years' 
defense programs to cover the cost of bringing those soldiers 
and their families into the Army. And we believe that we can do 
it.
    Now, in order to accomplish that, we need to have timely 
and predictable funding. And particularly in the military 
construction area, over the last several years, the delays in 
getting the funding to the Army have made synchronization of 
some of these construction programs a challenge. And, as you 
know, a continuing resolution also fails to give us the 
authorities for new starts that we need.
    So we're having to manage a system that requires a lot of 
synchronization without having the kind of predictability in 
funding. But we do have the money in the budget to do it, and 
we're on track to do it. But, last year, also, we had a $560 
million cut from our base realignment and closure (BRAC) 
budget. So those hiccups along the way make the planning and 
the synchronization a challenge. But we do have the money in 
the budget to do it.

                           ENLISTMENT WAIVERS

    Senator Stevens. You've mentioned this problem of these 
waivers. When I was home last week, I found and sent--General 
Casey was up there--I found that the dropout rate in our high 
schools is increasing, but a large number of those people are 
going into the National Guard Challenge Program. They really 
want to get into uniform. They're the people of 17 and 18 years 
old that don't want to finish high school. They really want to 
go into the service.
    You do have an age barrier there in terms of enlistment, 
right? They have to be at least 18?
    Mr. Geren. Well, you can actually sign up when you're 17.
    Senator Stevens. You can.
    Mr. Geren. Uh-huh.
    Senator Stevens. But you have to have a GED or a high 
school diploma, right?
    Mr. Geren. Yes, sir. Uh-huh. And we----
    Senator Stevens. What do you do about these people coming 
in from the Guard's Challenge Program? Do they come in 
automatically? Is a GED automatic for that program?
    Mr. Geren. Well, as I understand the Guard program, they go 
through the Challenge and they earn a GED. The active Guard and 
Reserve, we're all working on innovative programs to try to 
provide additional educational opportunities for young men and 
women who want to join the Army. The dropout rate is a serious 
problem, and it varies across the country. There are certain 
States where we have a very high dropout rate, and many of 
those States are States where people have a high propensity to 
join the military.
    So we are coming up with plans that I think will really 
bear fruit over the next several years, where we try to get 
these young people who have good aptitude, and they want to 
serve, and help them get their GED, or in some cases, help them 
stay in school and get their high school diploma.
    As an Army, as we look to the future, and we look to large 
segments of the population that are not finishing high school, 
many of them could be contributors in our Army or other places. 
We're trying to help our society as a whole get these young 
people educated, and the Guard has been very innovative in that 
area. And the active duty has learned some good ideas from 
them, and we're implementing them.
    Other issues, too, that are going to affect the long-term--
obesity. You look at these long-term trends, young people, 
unfortunately, aren't as physically fit. And so we've got a lot 
of challenges like that. High school diploma grads in certain 
parts of the country, obesity in certain parts of the country--
they're challenges that, as the Army looks 10 years down the 
road, that we're going to have to be very creative in figuring 
out ways to identify the young people who can succeed in the 
Army that may fall outside of the metrics that we've looked at 
in the past.

                           LANGUAGE TRAINING

    Senator Stevens. General Casey, Senator Inouye--and I were 
on a trip over to the Philippines one time, at Mindanao, and we 
found your people training some of the Philippine soldiers on 
how to deal with al Qaeda and the terrorists that are 
apparently in some of those islands.
    It raised a question with me as to whether or not we ought 
to have greater training in terms of languages within the Army. 
What are we doing about preparing our people to deal with these 
languages? That was one of the stumbling blocks in Iraq, and 
certainly been a stumbling block in Afghanistan. As we go into 
this 21st century Army, are we going to emphasize language 
training anymore?
    General Casey. We absolutely have to do that. And just as 
an aside, Senator, the young man, Sergeant Greg Williams, who I 
mentioned earlier in my opening comments, I found out while I 
was up in Alaska last weekend that he's actually in the 
Philippines right now helping train some of those Philippine 
Army soldiers.
    You're absolutely right. We need to greatly increase what 
we're doing to prepare our soldiers to deal in these other 
cultures. We have several levels that we're working on now. 
First of all, our foreign area officers and our linguists who 
require a skill are about a small percentage of our force. They 
get first-rate quality training, and obviously they're getting 
a lot of experience on the ground in Iraq and Afghanistan.
    The second program that we've begun here is operational 
language testing where we take soldiers who are getting ready 
to deploy, for example, to Iraq or Afghanistan, and send a 
number of them off to Defense Language Institute for about 10 
months. And they get a good dipping in the local language.
    Third, for the bulk of the soldiers that are deploying, 
there is some basic language training in the commands and 
things they need to operate in the environment they're 
operating with. And we're working with some industries to 
develop these translators where you can just put in a phrase, 
hit a button, and it comes out in another language. But those 
are a few more years out.
    We're also looking at language requirements for officers 
and how we should adapt our policies for our, for example, ROTC 
scholarship graduates. And I have instructed my training and 
doctrine commanders responsible for these initiatives to come 
back in about the next several months here and give us a 
complete laydown on a holistic policy.
    But we are moving. We are not going as fast as I would like 
us to go, because I believe, as you do, that it's critical for 
our soldiers, if we're going to work in these other cultures, 
to have the basic understanding of the languages they are 
dealing in.
    Senator Stevens. Well, I was interested in what Secretary 
Geren just said, because if you look at these school districts 
now, I think we're teaching in high schools in Anchorage some 
40 different languages right now. I don't think we're taking 
advantage of the multicultural situation in many parts of our 
country.
    Some of those students could be trained in the language 
that you need, as easy as anything else. It is a variance 
thing. I've got to tell you, personally, I don't agree with it. 
I think we ought to teach all our kids in the English language, 
but we still have the problem of doing that in terms of some of 
the newcomers. I would hope--let me ask just one last question, 
Mr. Chairman.

                                 RESET

    It is my understanding that the reset program for the 4th 
of the 25th up there in Fort Richardson was a model. It was 
sort of a pilot project. What have you learned from the pilot 
project as far as reset is concerned? It is my understanding, 
they were reset at home. They were brought home for reset, 
instead of stopping off in someplace on the way home.
    General Casey. Right. What we're trying to do here is to 
come up with a standardized, 6-month reset model for Army 
units. So when they come back from an extended deployment, they 
have time to rest. But at the same time, they are put back in a 
deployable posture in 6 months, so they're ready to either 
begin training for whatever's next or to deploy again.
    And to do that, it requires doing our personnel and 
equipment policies differently. So, yes, what did we learn from 
the 4/25th up there in Alaska? When I went up there to talk to 
them this last week, the biggest concern they had was that we 
had some difficulty with our personnel policies.
    They needed assignment orders for about 400 or 500 folks 
they were having difficulty getting. And so I sent a team from 
the Department up there to sort that out, and they're up there 
now doing that this week.
    The other thing that we're doing is our Training and 
Doctrine Command has developed programs of instruction for our 
noncommissioned officer education programs that are about 60 
days. That took a lot of doing, because there are a lot of 
different skill sets required. But all but a handful now are 
done within about 60 days.
    And for the large populations of those skills, we're able 
to deploy teams to their home station. So it's kind of what you 
suggested, Senator, that they were reset at home. Where we send 
trainers up to Alaska, for example, they conduct the training 
that used to be conducted back in the lower United States right 
on home station. So our soldiers are coming home after being 
gone for 12 to 15 months, and don't have to pack up and go off 
for 60 days again. So we're not doing that for every skill set, 
but that's part of the overall reset program.
    The equipment side of things, they reported, was going 
pretty well. Now, they were able to send some of the equipment 
off from Iraq that went directly to depots, and will return to 
them before the 6 months is up. And we have small-armored pair 
teams, for example, that come from our Army Materiel Command, 
and they spend several weeks in the brigade fixing all the 
weapons that had been used over the time that they'd been 
deployed.
    So I'm heartened by it. I think it's going to be useful to 
us as an Army. And it will help us sustain the quality of life 
for these soldiers and families, and at the same time get us 
back to its efficient level of readiness rapidly.
    Senator Stevens. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you. Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman, Secretary Geren, 
General Casey. We all appreciate your service to the Nation.

                            PROGRESS IN IRAQ

    General Casey, could you bring us up to date on where we 
are from your perspective as Chief of Staff of the Army, former 
Commander in Iraq, where we are today, February 2008, and where 
you believe we will be at the end of the year?
    General Casey. In Iraq or here?
    Senator Shelby. In Iraq.
    General Casey. That's really a question for General 
Petraeus, and he's coming back here in April. I, like everyone, 
have been waiting to hear where he thinks he's going to be able 
to get to by April.
    Senator Shelby. Well, what do you believe? I mean, you're 
the Chief of Staff of the Army.
    We've seen progress being made.
    General Casey. We certainly----
    Senator Shelby. We've certainly seen a lot of progress. 
We've seen a lot more stability that we had. It's not a stable 
area, but a lot more than we had 1 year ago. We've seen great 
progress with the surge. So from--you're the former commander, 
you're the Chief of Staff of the Army. From your perspective?
    General Casey. I think from a security perspective----
    Senator Shelby. Uh-huh.
    General Casey [continuing]. It's difficult to predict the 
future, but I think we will see continued improvement in the 
capabilities of the Iraqi Security Forces. That's been a 
constant trend.
    Senator Shelby. That would include the Army and the police?
    General Casey. Army and the police. That's correct. I think 
our forces will continue to be successful. I mean, that has 
never been at question. Our soldiers are the best in the world 
at what they do, and their ability to provide security has 
never been in question.
    I don't have as good a view on the political side as I used 
to. I can't follow it as closely.
    Senator Shelby. I understand that.
    General Casey. And that's really where the long-term 
progress in Iraq is going to be sustained.
    Senator Shelby. It's got to have a political--ultimately, a 
big part of the equation there. Is that correct?
    General Casey. Oh, absolutely. I think we've all said, time 
and again, that there is not a strictly military solution to 
this problem or the one in Afghanistan.

                         PROGESS IN AFGHANISTAN

    Senator Shelby. Well, over to Afghanistan. A lot of us are 
concerned about the resurgence of the Taliban. It looks like 
some of our allies perhaps are getting a little soft on their 
commitments to us and others in Afghanistan. I see Afghanistan 
is possibly at risk down the road if things don't change.
    General Casey. I'm----
    Senator Shelby. I don't think they've gotten better in the 
last year, in other words.
    General Casey. When I talked to General McNeil----
    Senator Shelby. Uh-huh.
    General Casey [continuing]. The NATO commander there, and 
General Rodriguez, they both believed that they are making 
progress and have made progress over the last years. I mean, I 
think, you've heard Secretary Gates has been quite vocal about 
what our NATO allies have not provided. And I think that's 
fairly common knowledge.
    Senator Shelby. General Casey, shifting back to equipment, 
and what our troops need, and what they use--UAVs. How 
important is it to the Army to have control in the tactical use 
of UAVs? General Petraeus told me in Iraq it's of the utmost 
importance.
    General Casey. It's absolutely, absolutely critical. And I 
have met with General Mosley----
    Senator Shelby. Uh-huh.
    General Casey [continuing]. Twice here. Once with my 
training and doctrine commander and his air combat commander, 
just the four of us. And then we had the first Army/Air Force 
staff talks in 5 years, where we had all of our three stars 
together.
    And the outcome of that session was that we agreed that in 
the three levels of war--tactical, operation, and strategic--
that the Army had to have control at the tactical level, that 
the Air Force needed control at the strategic level----
    Senator Shelby. Sure.
    General Casey [continuing]. And that the level that we 
shared, the operational level, we needed to work and build a 
joint concept of operations for how we would operate 
effectively there at the operational level, which is really the 
theater level.
    Senator Shelby. Absolutely.
    General Casey. And I think we have a team working on that, 
and they'll come back to General Mosley and I here in 1 month 
or so.
    Senator Shelby. I believe the marines and the Navy share 
the same position you do on that. Right?
    General Casey. That's correct. Yeah. We've also had a 
session with the Commandant of the Marine Corps and his three 
stars where we discussed the same thing.
    Senator Shelby. I'll try to be quick on this. Secretary 
Geren, JAGM, formerly the JCM, the joint air-to-ground missile, 
I understand that the request for proposals has not come out 
yet? When do you expect that to come?
    Mr. Geren. I don't know. Let me get back to you.
    Senator Shelby. Will you get back to the subcommittee and 
to me on that?
    Mr. Geren. I sure will.
    Senator Shelby. That's a very important program for the 
future, is it not?
    Mr. Geren. It certainly is. I'll get back with you with 
that information.
    [The information follows:]

     Joint-Air-to-Ground Missile Request for Proposal Release Date

    The Joint-Air-To-Ground Missile (JAGM) Request for Proposal 
(RFP) Phase 1 (Technology Demonstration) was approved for 
release on March 5, 2008 by Major General James R. Myles, 
Commanding General of the U.S. Army Aviation and Missile 
Command (AMCOM).

                         FUTURE COMBAT SYSTEMS

    Senator Shelby. What about you had mentioned the future 
combat systems, where we're going to be in the future? How 
important is the future combat system to the Army? General 
Casey might want to pick up on that.
    General Casey. It is the core of our modernization efforts. 
As you know, it is our only modernization program in the last 
20 years. I will tell you, as I have looked at warfare in the 
21st century, the future combat system is a full-spectrum 
combat system. It's capable at the high-end at major 
conventional war.
    And because of the unmanned aerial vehicles and unmanned 
ground sensors, it gives us a great capability to collect 
precise intelligence, which is absolutely required when you're 
operating among the people in environments like Iraq and 
Afghanistan.
    Now, in conventional war, you may be looking for the second 
echelon army, which is pretty easy to--relatively easy to find. 
In Iraq and Afghanistan, you're trying to find a terrorist on 
the sixth floor of a high-rise apartment building. That 
requires very precise and persistent intelligence capabilities, 
like you said, like you have in UAVs and the sensors.
    So it is the core of our modernization efforts. It's a 
full-spectrum system. And it's the type of system we need in 
the 21st century.
    Senator Shelby. Thank you. Thank you, Mr. Chairman. Senator 
Inouye: Thank you. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman, and 
thanks to the two of you for coming and answering honestly to 
us here today.

                         AN OUT OF BALANCE ARMY

    General, I didn't write down the words, but both you and 
the Secretary used words to describe the current situation of 
our military as being out of focus.
    Mr. Geren. Out of balance, right.
    Senator Domenici. Yeah. That could be very fairly serious 
if we don't get it fixed as soon as possible. Right?
    Mr. Geren. That is correct. And it is going to take us 3 or 
4 years to put ourselves back in balance. And I think that's 
important that everyone understand that. That when we get out 
of balance, it is not an immediate fix.
    Senator Domenici. What is it that is out of balance, and 
how do you describe its impact on the military?
    Mr. Geren. Well, as I said, first, we're--the current 
demands exceed our sustainable--our ability to sustain. In 
other words, we strive to have a level where our soldier 
deploys for 1 year and is home for 3 years. We're not there. 
They're deploying for 15 months and home for 1 month.
    And as we grow, as we increase the size of the Army, and as 
the demand comes down to the 15 brigade combat teams in Iraq 
that we expect to have in by July, you will gradually see that 
ratio of boots on the ground, the time at home, improve. And 
that has to happen. That has to happen.
    Our soldiers and leaders need to see that over time they 
won't be deploying for 15 months and home for 12 months. That's 
just not the sustainable.
    Senator Domenici. All right. And, Mr. Secretary, the money 
to try to bring that balance is appropriate to fund at this 
time and it's in the budget, right?
    Mr. Geren. It is. If we can stay on track that we--and a 
lot of it, though, it depends upon what the demand from theater 
is. And we don't have any control over that, but----
    Senator Domenici. You mean if the ground changes under you, 
then you aren't going to make as much headway in this balancing 
as you might expect. Is that what you're talking about?
    Mr. Geren. That's right.

                               EDUCATION

    Senator Domenici. All right. In terms of the educational 
capacity of the military, let me talk 1 minute with you about 
the schools within the military. I understood that one thing 
you were excellent at was educating the people in new 
languages.
    Is that still correct? Are you--is the United States 
military one of the superior educators in foreign languages 
that we have in our country?
    Mr. Geren. We do have excellent language training.
    Senator Domenici. You spoke about educational needs with 
one of our Senators, and I think it was Senator Stevens. I 
didn't hear either of you say that we are dramatically 
increasing our educational capacity to make up for deficiencies 
of those of who are coming in or the needs for those coming in 
to know languages.
    Did I miss something, or are we increasing our capacity to 
be educators in the military?
    Mr. Geren. We're broadening the language instruction in the 
Army and looking at ways to incentivize language instruction in 
our ROTC students. We are not where we need to be. We're trying 
to have more soldiers, both educated in culture of other 
countries, as well as languages of other countries.
    But we recognize the need for that and are putting more 
resources into those areas, and trying to provide training to 
more soldiers in languages and in foreign cultures, as well.
    Senator Domenici. I sensed that when you were speaking with 
Senator Stevens about recruits, and whether they had to have 
GEDs, or whether they had to be high school graduates, and the 
fact that there were just a number of so-called dropouts in 
America that really wanted to be in the military.
    Do you find that if they have a high school diploma they 
are more apt to be able to meet the demands that you place upon 
them? Or does the fact that they want to be in the military 
supply for that deficiency in education?
    Mr. Geren. Well, everybody that comes in has to have either 
a diploma equivalent or a diploma. The diploma has--we consider 
it a quality mark, and also a measure of the attrition 
possibility of a young person. We have seen that if somebody 
finishes high school, they tend to show determination to stick 
with tasks.
    But we have found that in many cases, and the quality high 
school education varies a lot across the Nation, and varies a 
lot within States, that we have many young men and women who 
are high school diploma grads who don't score as well on the 
aptitude tests as some of the young people we bring in who are 
not high school diploma grads.
    So we--when we look at aptitude, our aptitude test we feel 
are good indicators of somebody's ability to succeed in the 
Army.

                       ENGINEER BATTALION AT WSMR

    Senator Domenici. Can I change to a parochial issue? And I 
hope I have time for it. And, if not, I'll just submit it. Last 
spring, the Army announced, as part of the President's Grow the 
Army Plan, an engineering battalion would be located at White 
Sands Missile Range (WSMR) in New Mexico. Do you know the 
status of that relocation?
    Mr. Geren. I do not.
    General Casey. I do. We're on track, Senator. You should 
expect to see advance parties showing up there in the June 
timeframe, and their activation will be around October. And 
there's about $71 million that's been authorized and 
appropriated to build the facilities that they need there at 
White Sands. So, I would say it's on track.
    Senator Domenici. Well, there is $70 million in Milcon for 
White Sands for that purpose, but I understand that there's no 
funding in the 2009 budget for other moves to White Sands. Will 
you check that out for me?
    General Casey. I will check that out. I know it's in 2008. 
I'll check that out.
    [The information follows:]

       Funding for White Sands Missile Range in Fiscal Year 2009

    Congress authorized and appropriated $71 million in fiscal 
year 2008 to provide permanent facilities for the 2nd Engineer 
Battalion at White Sands Missile Range. As this satisfies the 
unit's requirements for permanent facilities, we did not submit 
a construction request for fiscal year 2009. Advanced parties 
of the 2nd Engineer Battalion are scheduled to arrive in June. 
We will begin constructing permanent facilities later this 
summer and activate the unit on October 16, 2008.
    Initially the unit will be housed in, and operate from, 
renovated existing facilities and some relocatable facilities.

    Senator Domenici. Oh, and one last one. There's a very 
sophisticated system called the high energy laser system test 
facility. The high energy laser facility, commonly known as 
HELSTF, you've heard of it, I think.
    General Casey. I've visited it.
    Senator Domenici. Yeah. It is a pre-eminent laser test 
facility and a major range and test base facility. Your budget 
calls for deactivating portions of that. I wonder, how do you--
how do these cuts comply with your duty to maintain HELSTF as a 
major range and a test base facility for the good of all of 
DOD, not just for that particular function? Do you have an 
answer?
    Mr. Geren. I don't, Senator. We'll take that for the 
record.
    Senator Domenici. I would appreciate it if you'd submit 
that for the subcommittee, please. That's all I have. I thank 
you very much.
    [The information follows:]

        Deactivation of High Energy Laser Test Facility (HELSTF)

    When preparing the fiscal year 2009 President's budget, the 
Army consulted with potential users across the Department of 
Defense (DOD) regarding requirements for use of the High Energy 
Laser System Test Facility (HELSTF) megawatt laser 
capabilities. At that time, we concluded there were no firm 
requirements for either the Mid-Infrared Advanced Chemical 
Laser or the Sea Lite Beam Director. The DOD Test Resource 
Management Center (TRMC) concurred with our decision when it 
certified our fiscal year 2009 test and evaluation budget on 
January 31, 2008.
    As required by the fiscal year 2008 National Defense 
Authorization Act, the Army, with TRMC as the lead, is 
conducting a cost benefit analysis of the proposed reduction of 
funding at HELSTF. The analysis will include an updated survey 
of all DOD and Service projected requirements to determine if 
future year requirements have emerged since the initial survey 
for megawatt class chemical lasers.
    HELSTF remains operational to support laser programs. 
HELSTF will be a vital asset as the DOD moves forward with 
solid state laser development.

    Senator Inouye. Thank you very much. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you. Mr. Secretary and 
General, thanks for being here. I want to ask about two things. 
One is contracting, and the second is the issue of out of 
balance.

                          OUT OF BALANCE ARMY

    So let me take the issue of out of balance first. A 
recently retired four star gave a presentation the other day, I 
understand, in New York. I got a call from someone who was 
there. And he essentially said this. He said, ``It's 
dysfunctional to have one-third of the Army's budget funded on 
an emergency basis.'' He said, ``The way we're headed--'' he 
didn't use out of balance, but he apparently said, ``The way we 
are headed we will have great military bands, and lots of 
generals and admirals, and substantially diminished military 
capability.''
    I've heard this before from others who retire, and then 
give us a much harsher view of diminished military capability 
than we receive from those on active duty. I don't know what 
the facts are, but I only tell you that this particular one 
came from someone that I have deep admiration for, who is 
recently retired as a four star. So, I mean, when you talk 
about out of balance, is that a softer euphemism for a much 
more serious problem, General? Because others, who have just 
left the service, give us a much more aggressive picture of 
very serious problems in diminished military capability.
    General Casey. Yeah. I don't think I'm trying to soft-pedal 
anything by what I say about using the term ``out of balance,'' 
Senator. Because as I said, this is not a broken Army. When you 
visit the soldiers in Iraq and Afghanistan, I mean, I think you 
see it's a magnificent Army. There is no other army in the 
world that can touch it.
    Now, are we where we want to be? No. And we fully 
acknowledge that. Our soldiers are deploying too frequently. We 
can't sustain that. It's impacting on their families. It's 
impacting on their mental health. We just can't keep going at 
the rate that we're going.
    Our equipment is being used in these desert environments, 
mountain environments, and it's wearing out about five times 
faster than we thought. We have to focus on counterinsurgency 
training, as I said, because that's all they have time to do in 
the year that they're home. Our full-spectrum skills are 
atrophying.
    And while the risk is acceptable in the short term, it's 
not something we can sustain over the long haul. So I don't 
think I'm trying to soft-pedal this at all. We have some very 
significant challenges here. We know what we need to do. If we 
get the resources in a timely and predictable fashion, we 
believe we can fix ourselves in the next 3 or 4 years.
    Senator Dorgan. And isn't that at odds with the notion of 
funding almost one-third of the Army's budget on a continuing 
basis on an emergency basis? Wouldn't--I mean, that seems to me 
to be completely out of sync with----
    General Casey. Well, I mean, if you look at the fact that 
in the supplementals that we have gotten here over the last 
several years, about 70 percent of those supplementals go 
directly to pay for military pay and for operations and 
maintenance to support the theaters. And so that--it may sound 
like a lot, but it's going right to the war.
    Senator Dorgan. Yeah. It seems to me it's dysfunctional 
that we don't have a long-term plan without emergency 
requirements, none of which is paid for, as you know, to fit 
into our budget schematic of what we need to do for our 
country.
    And let me just say, that when I asked the question about 
what others who have recently retired are saying about the 
capacity, I think everybody on this panel is enormously proud 
of our soldiers. I mean, there's no one that I know that has 
been anything other than complimentary, enormously 
complimentary of our soldiers and our military. So I thank them 
for that.
    I do just want to ask the question about the contract end, 
because----
    General Casey. If I could, before you go there, just make 
one more point, and I think your point on supplemental versus 
base program funding, I mean, our growth this year--the $15 
billion worth of growth is exactly that. It's come from the 
supplemental into the base. So I think you're starting to see 
that.

                           CONTRACTOR ISSUES

    Senator Dorgan. I understand that. I don't understand why 
we have moved to so much contracting in the military. There's 
so much, much more than has been done in the past. And I guess 
I don't understand it, and I think, frankly, that we have been 
fleeced in an unbelievable way. Very few hearings on it.
    A guy named Henry Bunting, a quiet guy from Texas, showed 
up once and he brought this with him. They were contracted by 
the Department of Defense to do a lot of things--to buy a lot 
of things. This was towels for the troops, and he ordered his 
white towels, because he was a purchaser for Kellogg, Brown, & 
Root. He ordered the white towels.
    The supervisor said, ``You can't do that. You need to 
reorder these towels. We need KBR embroidery, the logo of the 
company on the towel.'' He said, ``But that would quadruple the 
price of the towels.'' ``Doesn't matter, it's cost plus 
contract.'' And so he brought the towel to show me what he had 
to do, because his supervisor said, ``The taxpayers will pay 
for this.''
    An example of--the same company was contracted to provide 
water to our military bases in Iraq. They provided potable and 
nonpotable water. The nonpotable water is for showering, 
shaving, brushing teeth, and so on. Turns out the nonpotable 
water provided to the military base at Ramadi, and most other 
bases, was twice as contaminated as raw water from the 
Euphrates River, because of the way they were treating it.
    And the company said that wasn't true, but then we 
discovered an internal secret memorandum from the company in 
which the person in charge of all water for the military bases 
in Iraq said, ``This is a near-miss. Could have caused mass 
sickness or death, because we weren't testing the water and 
weren't doing what we should have done with what is called 
ROWPU water.''
    The military said, ``That's not true. None of that was 
happening.'' That was the position of the Army. ``It's not 
true.'' And an army captain physician serving in a military 
base in Iraq wrote me a memo, just out of the blue, and says, 
``I read about this. It is true. I had my lieutenant go follow 
the water lines and the nonpotable water was more contaminated 
than the raw water from the Euphrates.''
    And there will be a GAO report, by the way, which is going 
to be published very soon that will say that this water was not 
tested by those that we paid to test it. The contamination did 
exist. Fortunately, we didn't have mass sickness, but the 
contamination did exist. This will be a GAO report. And the 
military, the Army, has insisted, has insisted publicly, that 
the contractor did exactly what it was supposed to be doing. 
There was no issue here of testing.
    I have never understood why there wasn't somebody in the 
Army that said, ``Wait a second. These charges, if they're 
true, then by God, they're serious and we're going to stand up 
for soldiers here.'' Couldn't get anybody to do it.
    And there will be GAO report out, General, that says that 
the Army, in suggesting that none of this was a problem, was 
wrong. Just wrong. And an army captain physician, a woman at a 
base in Iraq, knew it because she sent me an e-mail, out of the 
blue. But I knew it, as well, because I had the internal 
Halliburton documents that described the problem they had. I'm 
just telling you that--now, that happened--that's supplying 
towels, supplying water.
    I had a man named Rory come to see me. He was a food 
service supervisor, and he said we were charging for far more 
soldiers--charging for 10,000 soldiers eating when 5,000 were 
eating meals. So providing towels, providing food, providing 
water, it used to be that the military did that, and now it's 
all contracted. I think we have been stolen blind, and I think 
that this Congress has not done its job and I'm--General Casey, 
you have not been on duty during most of this description that 
I've just given here. And you can't answer this.
    I'm just telling my own concern. We have to shape up this 
contracting. And, Secretary Geren, you talked about the 
contracting some, and you think that you've got it shaped up. 
I'm telling you, I have looked at a lot of it. I've done 12 
hearings on this. What has happened there is almost 
unbelievable. And I hope we shape it up, and I hope we do a lot 
less contracting, and I hope we start doing a lot more of this 
in the military. But I thank you for listening.
    I'm not asking a question about it. I'm just telling you 
that I've spent a lot of time trying to figure out what's going 
on, on behalf of soldiers. Because, after all, the soldiers are 
what we're concerned about here. So I thank you for showing up. 
You're welcome to comment on this if you choose, but I did want 
to tell you I've had great angst about what's happening, 
because I don't think it's right, not for the soldiers, and not 
for the American taxpayers.
    [The information follows:]
     Logistics Civil Augmentation Program (LOGCAP) Contract Issues
             monogrammed towels and food service headcounts
    The allegations concerning the purchase of monogrammed towels and 
overstated headcounts in dining facilities in base camp operations have 
been reviewed by Army logistics and acquisition officials. There were 
instances where gym towels, monogrammed with the letters ``MWR'' 
(Morale, Welfare, and Recreation) as well as ``KBR'' (Kellogg, Brown, 
and Root) were purchased under the LOGCAP-III contract. These towels 
were ordered at a cost of 1KD (approximately $3 each). KBR requested 
that the towels be embroidered in an effort to prevent theft. 
Subsequent to concerns posed regarding the use of KBR monogrammed 
towels, KBR switched to embroidered towels using letters MWR, to 
designate the towels for gym use in MWR centers.
    With regard to KBR improperly charging for meals in dining 
facilities by overstating the daily headcount, the Army reached a firm, 
fixed price agreement with KBR on March 28, 2005, for food service 
costs. The agreement covered 15 LOGCAP Task Orders providing food 
services during the first 6-9 months of Operation Enduring Freedom/
Operation Iraqi Freedom. The negotiated agreement decremented the 
contract by $55 million and resolved a withholding of payment of $55 
million. The settlement implements the Department of Defense position 
that payments should be based on the actual services provided to 
patrons, while accounting for conditions that existed early in 
contingency operations. Among other things, these conditions included 
the use of government planning data during early operations where no 
experience data was available, and recognition of portion control 
issues. Since the settlement was negotiated, KBR instituted an improved 
subcontractor billing methodology which separately identifies 
individual cost elements and requires billing food costs based on 
actual meal counts. The Defense Contract Audit Agency supports the 
improved billing system as a significant improvement over the prior 
subcontract methodology which provided consistent pricing methodology 
across all sites, fixed costs that are separately identified and 
billed, and food costs that vary directly with actual headcount/meals 
served.
                            nonpotable water
    We share common goals of ensuring the health and safety of our 
Soldiers and of effective contractor performance, not only for Kellogg, 
Brown, and Root, Inc. (KBR), but for all of our support contractors.
    Regarding the quality of water provided to our Soldiers, we have 
improved internal quality control procedures and have expanded 
oversight for all water production, storage, and distribution, potable 
and non-potable. Standard Operating Procedures (SOPs) for all water-
related activities have been updated and we are continuing to look for 
ways to improve our operations toward that goal. The U.S. Army Center 
for Health Promotion and Preventive Medicine (CHPPM) is conducting a 
detailed study of water treatment processes in Iraq that will be 
completed this May.
    Before January 2006, the Army did not require water quality 
monitoring of non-potable water. Army regulations did not address the 
use of Reverse Osmosis Water Purification Units (ROWPU) to process non-
potable water for hygiene purposes. It is important to note; however, 
that potable water supply treatment and surveillance were monitored and 
tested in accordance with applicable standards and that its quality was 
never in question.
    Both the Department of Defense (DOD) and KBR responded in an 
expeditious manner to ensure water quality at Q-West and Ar Ramadi were 
safe for use by deployed forces. DOD directed KBR to take immediate 
action to super-chlorinate the storage tanks and redirect the ROWPU 
concentrate output lines. At Ar Ramadi and Victory, KBR immediately 
began monitoring non-potable water that was purified by other water 
producers. Preventive medicine officials increased monitoring of water 
quality at point-of-use shower water storage containers. As a result of 
internal quality control procedures and DOD oversight, quality 
assurance for the processes of both potable and non-potable water 
production, storage, distribution, and monitoring at point-of-use were 
deemed adequate. Since November 2006, there has not been a recurrence 
of this problem.
    Updated procedures have been put in place to emphasize that water 
quality lapses must be promptly reported and that all newcomers receive 
adequate information concerning drinking water consumption and non-
potable water usage. The Army has taken the following significant 
actions to improve water surveillance and ensure Soldier health:
  --Provided every new Soldier and civilian with standard information 
        concerning water consumption in Iraq upon arrival;
  --Issued a LOGCAP contractor SOP for water production operators that 
        designates procedures to report water quality lapses;
  --Established a board consisting of officials from Multi-National 
        Force--Iraq, Multi-National Corps--Iraq (MNC-I), Defense 
        Contract Management Agency, Preventive Medicine, LOGCAP, and 
        Joint Contracting Command--Iraq to meet quarterly and oversee 
        the quality of water operations;
  --Directed KBR to provide a list of all water containers to MNC-I 
        Preventive Medicine officials;
  --Updated MNC-I SOP 08-01, Annex Q, Appendix 6, Tab H, ``Iraqi 
        Theater-Specific Requirements for Sanitary Control and 
        Surveillance of Field Water Supplies,'' to mandate the 
        standards, controls, testing, and recordkeeping for types and 
        uses of water in Iraq;
  --Conducted an assessment as to the numbers of the adequacy of 
        Preventive Medicine sections required for testing; augmented 
        military units with LOGCAP contractors where needed; and
  --Drafted the multiservice edition of TB Med 577 which is projected 
        for publication in August 2008; it addresses the use of non-
        potable water for showers, contractor water production site 
        monitoring, military non-potable water supply monitoring, and 
        the responsibilities for contractors to report their monitoring 
        results to preventive medicine; it also directs preventive 
        medicine to provide oversight and review of contractor water 
        production, storage, and distribution procedures.
    The quality of both potable drinking water and non-potable water 
used by our service members meets all standards of Army Technical 
Bulletin 577, ``Sanitary Control and Surveillance of Field Water 
Supplies.'' Additionally, the March 7, 2008, DOD Inspector General 
Report titled, ``Audit of Potable and Nonpotable Water in Iraq'' 
concluded that processes and procedures for production and quality 
assurance of water in Iraq were adequate as of November 2006.

    Mr. Geren. Let me just speak to a couple of points quickly. 
When we shrunk the Army, as we did in the 1990s, to the size 
that it is today--the 482,000 soldiers on active duty, now 
we've got about 525,000 on active duty--we put ourselves in a 
position where we could never go to war without heavy reliance 
on contractors.
    And with this size of an Army, if we are going to have the 
soldiers we need to carry rifles, we really had no choice but 
to contract out many of those support services. And that's for 
the Army that we have, and the commitments we have around the 
world. I don't think we're going to see much change in that 
area. But we can do a better job of supervising contracting. I 
could not agree with you more.
    I will certainly follow up on all the issues that you've 
raised. And when we get evidence of any type of contracting 
abuse or fraud, I hope that I can say we follow up on it. I 
can't say that we have in every case. But it's certainly our 
commitment to do that, and this contracting task force that we 
set up last summer, under General Ross Thompson, and brought 
another SES from Army Materiel Command, their job was to get 
whatever it took to go and root out contracting fraud in our 
operations.
    And one of the things we've done is add considerable 
additional compliance officers, people that--we in Kuwait did 
not have compliance officers assigned to all of our contracts. 
We had some situations where people were just paid by volume. 
There's a soldier who has been indicted for a scheme which 
resulted in fraud of $10 million, we believe. And we didn't 
have a compliance officer checking to make sure we were getting 
what we paid for.
    So we've beefed up the number of compliance officers. Over 
the coming years, we're going to do a better job of training. 
We're going to develop officers in our Army that know, ``I can 
be in contracting, and I can have a career in contracting, and 
I can become a general officer in contracting.''
    Dr. Gansler, in his report, had a very interesting slide. 
It showed the rate of contracting going up like this, to the 
point where now the Army--when you look at dollar volume, the 
Army executes nearly one-fifth of all the contracts for the 
entire Government. And he looked at employees, civilian and 
military, in our Government went like this. So contracting is 
going up like this, trained contracting officials stay flat. So 
we're trying to correct that right now.
    We have work to do in this area, but I can assure you we 
take those allegations of fraud as seriously as you do, and 
particularly anything that threatens the health or safety of 
our soldiers. That is a core Army value.
    Senator Dorgan. Mr. Chairman, you've been very patient with 
me. I want to make one additional comment. There's a woman over 
in the Pentagon named Bunnatine Greenhouse who was demoted, 
lost her job, because she had the courage to speak out about 
the LOGCAP and the RIO contracts that were awarded. She said it 
was ``the most blatant abuse of contracting'' she'd seen in her 
lifetime, and she was the highest civilian official at the U.S. 
Army Corps of Engineers.
    For that courage, she lost her job. And now it's been 
subsumed in this--behind this big curtain of, ``Well, it's all 
being investigated.'' It's being investigated for 3 or 4 years 
and--it's over 3 years now--and it, I assume, discourages 
others from doing the right thing.
    But again, I'm saying things to you that are not on your 
watch, but I do very much hope that you all would be 
bloodhounds on these issues. Because it's under--it disserves 
the American soldier and it disserves the American taxpayer 
when we're not getting what we're supposed to be getting.
    And I hope you'll look into Bunnatine Greenhouse. I spoke 
to Secretary Rumsfeld about her, spoke to Secretary Gates about 
her, and this is a woman that has been terribly disserved by 
her Government. She had, by all accounts, outstanding reviews 
by everybody and, by the way, General Ballard, the head of the 
Army Corps of Engineers who hired Bunnatine Greenhouse, said 
she was an outstanding employee.
    And then she got in the way of the good old boys network 
that want to do separate contracting, behind the curtain, and 
do it not in conformance with contracting rules. She spoke out. 
And, for that, she paid with her career. And I hope one of 
these days maybe somebody will do some justice or provide some 
justice for Bunnatine Greenhouse. Thank you.
    Senator Inouye. Thank you very much. Senator Murray.
    Senator Murray. Mr. Chairman, Senator Mikulski is on a 
really tight timeframe, and I'm happy to yield to her first and 
follow her, if that's all right with you.
    Senator Inouye. Senator Mikulski.

                                 RESET

    Senator Mikulski. Thank you very much, Mr. Chairman. And 
thank you, Senator Murray. First of all, to both you, Mr. 
Secretary, and to you, General Casey, I think those of us at 
the table, and certainly me, personally, want to salute our 
Army. And we want to salute our armed services, those on active 
duty, those who are in the Reserve, those in the Guard, those 
in the battlefield, those that are serving here. I think we all 
agree that our military's done all that's been asked of them.
    What I think what we now see with the surge is that we 
can't sustain it, we can't sustain the level of troops, and we 
can't sustain the level of money necessary to support the 
troops.
    My colleagues have asked those questions about adequacy of 
troop level, adequacy of equipment, the need to bring those 
back into balance. My focus is going to be on another area, but 
I think we're in a crisis here. This has been a very cordial 
hearing, and I just, again, want to afford my deep respect to 
both of you. But we are in a crisis about what this country can 
do, and what this country can sustain.
    Now, I want to come back to something called reset. My 
colleague, Senator Murray, will be asking about the Guard. I'm 
very concerned about the Guard, because I feel the Guard's 
treated like a stepchild. It's certainly treated like a 
stepchild when they go and have to bring their own equipment, 
and also treated like a stepchild when they come home with 
reintegration issues.
    She's going to ask my same set of questions. But let me go 
to this, something called reset, the military family, and so 
on. I don't know what reset means. I truly don't, and I don't 
mean this with any disrespect, I don't know what the hell that 
means. And if we're talking about the family, I don't know what 
that means.
    So if you could share with me, what does reset mean? Does 
it mean when they come back--some of them bear the permanent 
wounds of war, but you've been to war. Everybody in war is 
impacted by war, and the family is impacted, the spouse is 
impacted, the children. So my question is, what does reset 
mean? And then, my other question, just in the interest of 
time, could you refresh for the subcommittee the response to 
the Walter Reed scandal. And efforts were taken, and thanks for 
appointing General Schoomaker as the Army Surgeon General. But 
my question is, refresh for the subcommittee the Dole-Shalala 
report. And where are we in accomplishing what their 
recommendations were?
    So what does reset mean? And where are we going? And then, 
where are we with the Dole-Shalala recommendations, which I 
thought was a clear path to reform and dealing with our 
military families?
    General Casey. Okay. Senator, let me take the reset 
question. As I mentioned in my opening statement, after 
soldiers deploy for the extended period, they need to recover 
personally, their organizations need to be recovered, and their 
equipment needs to be recovered. And, as I mentioned in 
response to another question, we're trying to get that done in 
an acceptable period of time.
    One, so the soldiers do have enough time, where they're not 
frenetically moving from one thing to another so they have some 
time to recover physically and mentally. And I tell folks when 
I'm going around talking to them about the need to slow down 
when they come back and to recover, it's like running a 
marathon. When you run a marathon, 2 or 3 days after you finish 
running, you think you feel pretty good.
    But you've broken yourself down inside in ways that you 
don't understand. The same thing happens in combat. And it 
takes awhile to restore that.
    The second piece of it is equipment, and you can't use 
equipment----
    Senator Mikulski. No. And I understand the equipment. I 
want to go to the personal part, which goes to reset of the 
combat veteran as he or she returns home. And that's where I 
really worry. I really worry about them recovering, but you 
just can't--with all due respect General, reset sounds like a 
button that you push and all is okay. I reset my computer. I 
reset a lot of things. That sounds like pushing the button.
    When they come back, their lives have changed. Their spouse 
has changed. They've changed. Their children have changed. We 
have children in our schools who watch TV and hear about the 
battlefield. We have children in schools that are in grief 
counseling because their mother or father are away. You know 
when some of these men or women come home, even when they go to 
a store, to a Home Depot, the kids are grabbing them by the 
legs, ``Are you leaving us again?''
    This is not something called reset. And that comes back to 
the Dole-Shalala report. How is it that we are truly helping 
the families, because I'm concerned that, once again, the 
funding is Spartan, and the understanding of the problem is 
skimpy.
    General Casey. Okay. Senator, as the Secretary and I both 
have mentioned, we have recognized the pressures and the 
stresses that these repeated deployments have placed upon 
families. And we have both restated our commitment to families 
in five key areas, and put our money where our mouth is, and 
doubled the amount of money that we're putting toward soldier 
and family programs.
    There was no question in the minds of my wife and I after 
we traveled around the Army when we first took over that the 
families were the most brittle part of this force. And we have 
a wide range of programs to help the families with the 
reintegration process.
    I will tell you, I am not as comfortable--we have not gone 
as far with the Guard and Reserve as I would have hoped, and we 
are doubling our efforts with the Guard and Reserve. We had a 
program which was well-intentioned that said you couldn't 
assemble the Guard and Reserve unit for 60 days after they got 
back. And so people, they had the time to relax. But what we 
were missing is the interaction that needs to take place among 
the people that they deployed with to help them through these 
things.
    And obviously, Guard and Reserve challenges----
    Senator Mikulski. Well, General, I think we need to work at 
this money issue here. But thank you for that answer.
    Do you want to tell me, Secretary, where we are in Dole-
Shalala?

                             ARMY FAMILIES

    Mr. Geren. Well, I'd like just real quickly add to what 
General Casey said on the investment in families. And our 
effort is comprehensive, and we've got some good ideas that are 
coming from a number of different places within the Army and 
outside of the Army.
    And up in Madigan Army Medical Center, in Senator Murray's 
State, one of the most innovative programs had to do with the 
issue that you've raised about the--you've talked about the 
children and how they cope with deployments. They had a program 
there where they studied the impact of deployment on children, 
and they developed the Child Resiliency Program that deals 
specifically with those stresses and strains that children 
suffer with, in the deployment. And they developed a program 
that we actually take to the schools to help the teachers and 
help their counselors there.
    So we're trying to reach out, understand those challenges, 
and then trying to meet them. And we've seen some great 
initiatives come from different places in the Army. We've 
empowered the Army to think, make this a high priority, and 
work through it. And I believe we've made some progress, but we 
are not where we need to be.

                        ARMY MEDICAL ACTION PLAN

    Let me, on Dole-Shalala. We really have three guiding 
documents that have helped shape our reforms in the Army, after 
what we experienced at Walter Reed. We had Dole-Shalala, we had 
the Marsh-West--Secretary Marsh and Secretary West--and we had 
an Army Medical Action Plan.
    And if you look at the Dole-Shalala, I could group it very 
roughly. One, patient care was a piece of it. And the other was 
the disability system--moving a soldier, sailor, airman, or 
marine from active duty across this handoff to the Department 
of Veterans Affairs (VA). And our--how do we improve that 
process?
    On the latter, the move of the soldier from the Army to the 
VA, we are doing a better job there. The Secretary of Defense 
appointed a working group to work that issue with the Deputy 
Secretary of Defense and the Deputy Secretary of Veterans 
Affairs working together, and met every single week for months 
on end.
    We have a pilot program out of Walter Reed that is working 
to try to figure out how we can do it better.
    Senator Mikulski. But in zero to 10.
    Mr. Geren. I beg your pardon?
    Senator Mikulski. On a scale of zero to 10, Mr. Secretary, 
with 10 we've really accomplished the recommendations of Dole-
Shalala, say, in the disability area.
    Where would you put us? At 10, we've done it. And we've 
done it the way it ought to be done.
    Mr. Geren. The pilot program is a major step forward, but 
it's just a pilot at this point. And we are just now beginning 
to bring servicemen and women through that pilot. And until we 
have the results of that pilot, I don't think we can judge it. 
Let me talk about patient care, if you would.
    Senator Mikulski. And I'm going to come back to that during 
military medicine. Because, again, that's a whole other topic, 
and I know our chairman has been certainly a leader in the 
issue of military medicine. But medicine, again, is for the 
family, it's the integration, it's the disability system. 
Walter Reed wasn't just a headline that we forgot about. So----
    Mr. Geren. Nor have we, Senator.
    Senator Mikulski. No, no. And I know that. And I know that. 
And I, again, I'm going to thank you for General Schoomaker, 
who I know has really been very aggressive in this area.
    Mr. Geren. He's doing an outstanding job. We've developed 
an Army Medical Action Plan, which advances the themes of Dole-
Shalala. The area that we learned we had failed so badly in at 
Walter Reed was in outpatient care. We've radically overhauled 
that system.
    Over 1 year ago, when this problem developed, we treated 
the Guard and Reserve. They were called medical holdover 
population. The active duty was medical hold. We've done away 
with that distinction. Across our Army, we've created 35 
warrior transition units (WTU). We've moved these soldiers into 
those warrior transition units. Every single one of those 
soldiers now has a triad of support for that soldier--a squad 
leader, ratio of 1 to 12; a nurse case manager, 1 to 18; a 
primary care physician, 1 to 200.
    We've got ombudsmen in every one of those facilities. We 
have added 2,500 staff to support those warrior transition 
units. And we're not just measuring inputs, we're also 
measuring outputs, the satisfaction of the patients that are in 
that system. And it's--we're seeing progress.
    We are doing a much better job dealing with those families. 
We've got a Soldier and Family Assistance Center at every one 
of those warrior transition units. We've taken services that 
were scattered out all across the Army and across the private 
sector, and we've brought them all together. And little things, 
like picking up the family at the airport, to bringing them in, 
meeting their economic needs, meeting their personal needs, 
their psychological needs, and in many cases, their financial 
needs.
    And we've made tremendous progress in not only the patient 
care for those soldiers wounded, ill, and injured, in 
supporting the families, and also making sure that the needs of 
those soldiers surface through ombudsmen. We have a training 
program for the people that represent them in the disability 
system.
    But fixing--we do not have--one of the primary goals of 
Dole-Shalala was one physical and one rating system, and the 
pilot out here does have one physical for them. And we take the 
results of that physical, and the VA takes results of that 
physical. So the pilot combines the two.
    But we have not, as a Government--and it's not just the 
DOD--designed the system to accomplish everything Dole-Shalala 
wants to accomplish in that regard. But in patient care, I 
believe that we have accomplished what Dole-Shalala asked us to 
do.
    Senator Mikulski. Well, thank you very much for that kind 
of update, and we're going to pursue this more in military 
medicine. But I just wanted to say to you, to DOD budgeteers, 
to this subcommittee, you know what we're welcoming back--and 
some of the injuries are so profoundly severe that we're in 
this for 30 or 40 years, in terms of this family support. This 
isn't just 30 days and 60 days and so on.
    So I think we've made a beginning, and I think we've got 
the right people in place to really move this, and we'll 
continue this discussion. Because one of the ways of 
recruitment is, ``What happens to me if something happens to 
me?'' And as you know, you not only recruit the soldier, you're 
recruiting the family of the soldier. And those are the 
questions, which is Charlie or Jane, ``What happens if 
something happens to you?''
    Mr. Geren. Right.
    Senator Mikulski. So it will be a conversation we'll 
consider. Thank you very much, Senator Murray. I know you'll 
ask questions.
    Mr. Geren. And thank you for your interest in that, 
Senator. Because you're right. It is a long-term challenge.
    Senator Mikulski. And we'll have further conversations.
    Mr. Geren. And I'd just like to mention, too, you've 
mentioned General Schoomaker, and he's done an outstanding job 
as Surgeon General. General Pollock, who was the interim 
Surgeon General, also did an excellent job of taking that 
crisis situation and helping us work through that transition. 
And I think General Pollock, General Schoomaker, General 
Tucker, and the hundreds of people who have worked with them, 
we've seen extraordinary leadership.
    Soldiers take care of soldiers. That's what they do. You 
strip away everything else about the Army, and that's what 
soldiers do. And when we learned about this problem, soldiers 
stood up, they demanded action, and they took action. And I'm 
proud of what the soldiers have accomplished. We're not where 
we want to be, but you can count on soldiers taking care of 
soldiers.
    Senator Murray. And I would say to my colleague, Senator 
Mikulski, that I recently visited Madigan in Fort Lewis, and 
there are significant--better conditions than we had 1 year 
ago. And my hat's off to all of them. The staff ratios, the 
facilities themselves, the Family Assistance Center helping 
soldiers get their way through.

                      MENTAL HEALTH PROFESSIONALS

    A warning shot, we do have a lack of professionals to be 
able to recruit, and I will submit a question for you on that, 
whether you do have or not enough people in the pipeline, 
particularly in the psychological healthcare professionals, to 
be able to fill those billets as we move forward on that, and I 
will submit that question for the record, because time is 
running out.
    But I think that we're doing good, but we better we'd 
better be looking at whether or not we have enough qualified 
people and have the resources.
    Mr. Geren. The answer is no. We do not have enough. We 
don't. It's a shortage, particularly in mental health 
professionals, and I wanted to answer it in this open session, 
because it is one of our most important needs. It's not a 
question of resources. And, in the Congress, you all have given 
us some authorities that are helping us, both with bonuses and 
direct hires.
    But particularly for the Army, many of our installations 
are in rural areas, and they're underserved by mental health 
professionals. And we depend not only on what we have in the 
Army, but TRICARE. And that is an area that we need to continue 
to grow internally, and develop externally ways to access the 
mental health professionals. It's a real challenge for us.
    Senator Murray. I agree. And we need to really be talking 
about that. Let me go back, Secretary Geren, and kind of follow 
up on a little bit of what we're hearing. I think we're still 
in--really trying to recover from a lot of the poor planning 
that went into the length of the combat operations. I mean, 
we've been 7 years in Afghanistan, coming up on 5 years in 
Iraq.
    You've both talked about the tours of duty being too long, 
the dwell time too short. We've seen the evidence of strain on 
our soldiers and our families. And I have a real concern about 
the slow change of the tide regarding the perception and 
attitude of psychological health.
    Now, I heard you talk a lot about a number of different 
programs. That's great. But I want to know what we're doing to 
really change the attitude about how we deal with psychological 
health.

                    SEEKING MENTAL HEALTH TREATMENT

    Mr. Geren. Yeah. We recognize in the Army the stigma 
associated with getting--seeking help when you have any mental 
or emotional issues is a real problem. And we have initiated a 
number of different efforts to try to address that. I think the 
most significant one of all is our program to require literally 
every single soldier in the Army, all 1 million soldiers as 
well as all Department of the Army civilians, to take a course 
on how to spot the symptoms of and seek treatment for PTSD and 
TBI. We've got a little over 800,000 of the 1 million soldiers 
who've taken that course. And I think more than any other 
single thing that we do, that is going to help us address the 
stigma issue.
    Every single soldier understands that this is a problem 
that soldiers have. It's something that you--we have a system 
in place to help you step up and deal with it. And we've seen--
we do these tests, mental health assessment tests. We just 
finished our fifth one. And, very encouragingly, we've seen 
that the stigma associated with seeking help for mental health 
problems is going down. So we've actually seen the needle move 
on this issue.
    But we've also provided ways for soldiers who--and family 
members--who don't want to identify themselves to seek mental 
health anonymously. And then we have a program that allows them 
to do that, as well.
    But we recognize that. In the private sector, the stigma of 
getting mental help is a problem, probably in a military 
culture it's a bigger problem. But I think that this chain-
teach, this million soldier chain-teach, not only is going to 
change our Army, I think it could change all of society.
    But we are seeing a different attitude. We're also moving 
more aggressively to help soldiers identify their mental health 
issues for themselves, through pre-deployment assessments and 
through post-deployment assessments. And Madigan was one of the 
first to initiate the face-to-face interviews upon 
redeployment. So you have an interview, and you ask questions 
that will draw out the possibility of some mental health 
concerns, and then we proactively deal with them. So we're 
making progress, but we're not where we want to be.
    Senator Murray. I appreciate that. We've got to stay on it. 
It's more than just saying, ``I know what the symptom is.'' It 
is actually saying, ``It's not only okay to ask for help, but 
that you must ask for help. And if you do ask for help, they're 
won't be any retribution. You won't lose your job. You won't 
lose your status. People will still respect you.'' I mean, 
it's----
    Mr. Geren. Absolutely.
    Senator Murray [continuing]. It's a large cultural issue--
--
    Mr. Geren. It certainly is.
    Senator Murray [continuing]. We have to continue to focus 
on. And I know that you've probably seen the articles, 
Washington Post had an article regarding the increasing number 
of suicides. In 2007, the number of active duty soldiers that 
took their own lives was 121, a 20 percent increase from 2006. 
A Department of Veterans Affairs analysis found that Guard and 
Reserve members accounted for 53 percent of veteran suicides 
from 2001, when the war in Afghanistan began, to the end of 
2005.
    The repeated deployments, the length of time on ground, the 
stress on the families, we know all has a contributing factor. 
Can you talk to me specifically about suicides and what you are 
doing to try and address that issue?
    Mr. Geren. We see the suicide numbers as a great challenge 
to us as an entire Army. We have what we call a balcony brief 
every week, in which we bring all of the senior leaders of the 
Army together, many of which have nothing to do with mental 
health issues or anything to do with delivery of healthcare. 
And we have the suicide statistics are in front of that entire 
audience.
    We want everybody in the Army to know that the problem of 
suicide is the responsibility of everyone in the Army.
    General Schoomaker has led efforts. We have the General 
Officer Steering Committee to deal with it, to initiate 
programs. We've been studying the problem, and try to 
understand, what are the factors that push somebody to that 
point? And the issues are the same in the Army as they are on 
the outside. It's mostly failed relationships. It's other major 
personal disappointments, coupled with depression.
    And we are trying to train our small unit leaders to 
identify those symptoms earlier, to stay close to their--the 
young--or the men and women that are below them, more education 
programs for chaplains. We are in the process of doing a study 
of all the soldiers that are in our healthcare system to try to 
identify trends that identify, before it happens, somebody 
that's inclined to harm themselves.
    And taking lessons learned from this study and applying it 
across the force so we can start spotting some of these factors 
before they become a crisis. I think the Chain-Teach Program, 
teaching people to get mental health when you start 
experiencing some of these emotional problems, will go a long 
way toward helping that.
    But we've seen the rate of suicides double since 2001. And 
I can assure you, every person in the Army--uniform and 
civilian--is charged with helping us address this and turn 
those numbers around.
    Senator Murray. Well, General Casey, maybe you can talk a 
little bit about the National Guard and Army Reserves, in 
particular. We're seeing a number of those members come home 
and needing assistance in re-integrating into civilian life. 
And oftentimes, it's onesies or twosies, it isn't a whole unit, 
that they come back by themselves and often go to rural 
communities.
    They need psychological counseling. They need healthcare. 
They need help with family issues.

                  YELLOW RIBBON REINTEGRATION PROGRAM

    I know that last year the National Defense Authorization 
Act established the Yellow Ribbon Reintegration Program. But 
there's no funds. No one asked for any money for that, for 
resources to implement it. And I wanted to know if you have 
received from the Department of Defense any implementing policy 
or funding for the Yellow Ribbon Reintegration Program.
    General Casey. Yeah. I can't answer that question about the 
Yellow Ribbon Program.
    Senator Murray. Mr. Secretary?
    Mr. Geren. Secretary England, Deputy Secretary England, 
spoke to that this past week. There were no funds attached to 
it, but he--speaking for the Department, and not just for 
individual services--said it's a commitment that we will 
embrace and we'll execute.
    Senator Murray. Have we seen any policy on how to implement 
it?
    Mr. Geren. No, I have not. No. But Secretary England spoke 
to it recently, and as we work through the many new initiatives 
from the authorization bill, we will act on them. And he 
committed the Department to do that.
    General Casey. Can I say, Senator, though----
    Senator Murray. Yes.
    General Casey [continuing]. That we're not waiting for 
that, or money, before moving out on trying to help the 
National Guard and Reserve soldiers reintegrate. It's part of 
our overall soldier and family support covenant. And, as I said 
earlier, the dispersed nature of where these young men would 
then go when they return makes it more difficult.
    And one of the programs we have is an integrated family 
support network online that allows--that will allow soldiers to 
enter a ZIP Code of a service they require and find out where 
to go. But the mental health provider problems that you raise--
--
    Senator Murray. Uh-huh.
    General Casey [continuing]. Are more difficult for the 
Guard and Reserve, again, because of the dispersed nature. And 
it's going to take a lot more focused effort to help them.
    The last thing I'd say on that is they aren't standing by 
either. There's been a great program piloted up in Minnesota, 
by the Minnesota Guard, that helped bring folks back in. And a 
lot of the other States are copying that. But we're committed 
to our Guard and Reserve soldiers.
    Senator Murray. Okay. General Casey, I just wanted to ask 
you quickly in my last minute here. You and I have talked about 
families and the importance of families. Training them to 
recognize issues, empowering them to be able to help their 
returning soldier when they come home. If we don't deal with 
the families, we are not going to be able to recruit soldiers 
in the future.
    That's the Army we have today. It's the Army we have to pay 
attention to. Magic wand, what would you do? What would you 
tell us we should be doing? A couple of things to support 
families that we're not doing today that we need to focus on to 
help them with the real challenges that they have.

                          ARMY FAMILY COVENANT

    General Casey. The main thing we need to do is to continue 
to put the resources, the money, against the family programs. 
As I mentioned, we've doubled that last year, and we're 
doubling again in this 2009 budget.
    The spouses that we went around and talked to said, 
``General, we don't need a bunch of fancy new programs. We need 
you to fund the ones you have and standardize them across the 
installations.'' And as we look into it, the reason they 
weren't standardized is because the money was distributed 
differently.
    Senator Murray. Uh-huh.
    General Casey. The second thing that comes right to the 
front is housing. And there's a significant sum of money in 
this 2009 budget for Army family housing into privatized 
additional houses. As I said in my opening statement, we're up 
over 80,000 privatized homes now. And the soldiers and their 
families love them.
    The third thing that we have to invest in and work on is 
exactly the issues you raised. It's the access to quality care, 
particularly the mental healthcare. What I'm finding myself 
doing, Senator, is going right down the five elements of the 
family covenant. And the last two are educational opportunities 
and childcare opportunities for the youth, and educational 
opportunities and jobs for spouses.
    Anything you can do in any of those areas, particularly, 
the last one, I think, also would particularly be helpful.
    Senator Murray. Okay. Thank you very much, both of you.
    Mr. Geren. Thank you, Senator.
    Senator Inouye. This discussion couldn't fail but to remind 
me of my service in World War II. And it was a different war. 
For example, in my regiment, only 4 percent had dependants, 96 
percent were 18-year-old youngsters. On top of that, we had no 
CNN that would give you live reports on action happening right 
there.
    You could see a lot of explosions. Nor did we have cell 
phones and BlackBerries. As a result the only thing we had to 
communicate with each other was the Postal Service. And it took 
anywhere from 3 weeks to 6 weeks for mail to go from France to 
Hawaii and back. And we did not have these return home every 
year.
    As a result, you didn't have someone grabbing you and 
saying, ``Honey, don't go back again.'' Or your son telling 
you, ``Daddy, stay home.'' So we were lucky. The present 
generation is beset with problems that modern America has 
created. But we have a challenge ahead of us. We've got to do 
something about that.
    But as long as wives see their husbands on CNN standing in 
harm's way, it's going to shake them up. And when men receive 
telephone calls from their sons or a little baby saying, 
``Daddy, come home,'' that will shake up anyone. So there are 
some of us who appreciate that, and we want to do something 
about it.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you, Secretary and General Casey, for the service 
to our Nation and for the testimony. And I can assure you that 
this subcommittee will be working with you in the months ahead. 
And, if we may, we'd like to submit some follow-up questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
          Questions Submitted to General George W. Casey, Jr.
               Questions Submitted by Senator Ted Stevens
                     fiscal year 2008 supplemental
    Question. I am concerned that the Army's personnel and operation 
accounts will not have the resources needed to support our troops 
without the timely passage of the remaining fiscal year 2008 
supplemental request. When is the latest you will need to have the 
supplemental funds in hand, and which accounts will be most 
significantly impacted?
    Answer. We need Congress to take action prior to the end of May. 
This will provide enough time to process and distribute funds without 
interruption to ongoing operations. We are most concerned about 
Military pay for the Active and Guard Force. These accounts will run 
out of money in mid-June. The Operation and Maintenance account for the 
Active and Guard will run out of money in early to mid July.
                      funding shortfalls for reset
    Question. Do you anticipate any production delays in items critical 
for equipment reset that will not be accomplished because of funding 
shortfalls?
    Answer. The timing of the receipt of reset funding is critical. The 
Army anticipates reset funds to be received in the May-June time frame. 
Production lead-times and deliveries are dependent upon receipt of 
these funds. Delays will be experienced if Army does receive reset 
funds as scheduled.
                         future combat systems
    Question. What efforts are you making to get Future Combat System, 
or FCS, technologies deployed sooner and what are you hearing from 
soldiers in the field on the need for FCS capabilities?
    Answer. There are more than 75 Future Combat System (FCS) hardware 
tests and evaluations ongoing across the country. The FCS Spin Out 1 
prototypes will be tested by the Army Evaluation Task Force (AETF) 
Soldiers in mid-2008 at Fort Bliss, Texas and White Sands Missile 
Range, New Mexico. The Army anticipates fielding the Spin Out 1 
technology to operational heavy brigades in 2010. The prototypes being 
tested include: Non Line of Sight (NLOS) Launch System; Urban 
Unattended Ground Sensors; Tactical Unattended Ground Sensors; CS 
Network Integration Kits for Abrams, Bradley and High Mobility Multi-
purpose Wheeled Vehicle (HMMWV) platforms. Additionally, the Small 
Unmanned Ground Vehicle (SUGV) and the Class I Unmanned Aerial Vehicle 
(UAV) will be evaluated to assess the potential for accelerated 
fielding to the current force. If the SUGV and Class I UAV are assessed 
as militarily useful, the Army anticipates deploying these systems 
during the same 2010 timeframe.
    The following FCS-like technology is currently being used in Iraq 
and Afghanistan: The Gas Micro Air Vehicle (gMAV), an early precursor 
to the FCS Class 1 UAV, has been invaluable in Navy explosive ordnance 
disposal (EOD) operations in Iraq and is planned for use by 25th 
Infantry Division Soldiers in urban warfare operations in Iraqi this 
year.
    The Packbot being used by Soldiers and Marines in Iraq and 
Afghanistan is the precursor to the FCS SUGV. This man-packable robot 
has been invaluable to Soldiers during urban warfare and EOD 
operations.
    The Excalibur artillery round that is being developed to use in FCS 
NLOS-C is currently being used by artillery units in Iraq. The units 
have had stunning success with this advanced round.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                     joint high speed vessel (jhsv)
    Question. General Casey, based on last year's budget request, 
funding was appropriated for a Joint High Speed Vessel, and I 
understand your fiscal year 2009 requests funding for procurement of a 
second Joint High Speed Vessel. I am told these vessels are highly 
flexible and can operate in shallower ports than traditional larger 
vessels. Would you share with the subcommittee how you plan to use 
these vessels and how they may assist us in the Global War on 
Terrorism?
    Answer. The Joint High Speed Vessel (JHSV) provides the Joint Force 
Commander (JFC) with an intra-theater mobility asset that enables 
rapid, flexible and agile maneuver of intact combat-ready units and 
transport of sustainment supplies between advance bases, austere and 
degraded port facilities or offload sites, austere littoral access 
points, and the Sea Base. JHSV will be capable of self-deploying 
worldwide to the theater of operations. Combatant Commands (COCOMs) 
identify high speed intra-theater surface lift as a critical gap in 
their ability to support the Global War on Terrorism (GWOT), their 
Theater Security Cooperation Program (TSCP), and current operations.
    The GWOT counters a plethora of new asymmetric threats designed to 
erode, paralyze and marginalize U.S. power. To meet these 
unconventional challenges, U.S. Joint Forces must be prepared to 
rapidly plan and execute a broad range of joint, small scale 
contingency operations, while maintaining the capability to prevail in 
major combat operations. The keys to success in many operations remains 
the ability to quickly maneuver sufficient forces into critical 
positions, and to provide sustained logistics support until a decisive 
victory is achieved. Intra-theater lift will be especially crucial in a 
future conflict in which enemies may be able to obstruct or deny 
altogether the use of fixed entry points such as airfields and 
seaports. Shore infrastructure and support such as cranes, tugs, and 
other port services will not exist or be available in many of the 
austere ports where future JFCs will need to operate. Therefore the 
JHSV's ability to access non-traditional, shallow draft ports will be 
essential for the delivery of forces and logistics support.
                       joint cargo aircraft (jca)
    Question. General Casey, there has been some discussion recently 
between the United States Air Force and the United States Army about 
the need for and the role of the Joint Cargo Aircraft. Can you 
elaborate on the Army's need for and use of the Joint Cargo Aircraft?
    Answer. The Chief of Staff of the Army and Chief of Staff of the 
Air Force have agreed to examine Intra-theater Air Lift Roles and 
Missions as part of the Quadrennial Defense Review. In the most recent 
Air Force-Army Warfighter talks, we recommitted our Services to the 
success of the C-27 program in its current format, on the current 
fielding timeline, and in accordance with the current beddown plan. 
Together, both services will work any roles and missions issues that 
may arise.
    The importance of the JCA Program to the Army cannot be 
understated. The JCA enables the Army to meet its inherent core 
logistics functions as described by Joint Publication 3-17 and Joint 
Publication 4-0. The primary mission of the Army JCA is to transport 
Army time-sensitive mission-critical (TSMC) cargo and personnel to 
forward deployed units, often in remote and austere locations, commonly 
referred to as ``the last tactical mile''. Because of the critical 
nature of this cargo to the success of the tactical ground commander's 
mission and the short-notice of its need (usually less than 24 hours), 
lift assets must be in a direct support relationship to provide the 
necessary responsiveness.
                                 lakota
    Question. General Casey, the first Light Utility Helicopter Lakota 
aircraft have been delivered, including the first ``Made in the USA'' 
airframes from the production line in Columbus, MS. Based on the budget 
request, funding was appropriated for production of 43 aircraft. I 
notice in your budget request submitted earlier this month you reduced 
your request to 36 aircraft for fiscal year 2009, and plan to make 
further reductions in fiscal year 2010 to 25 aircraft, and in fiscal 
year 2011 you make additional reduction to 18 aircraft, before you 
increase your request to 41 aircraft in fiscal year 2012 and 43 
aircraft in 2013.
    General Casey, can you share with the subcommittee how these 
aircraft have performed in the field?
    Answer. The Light Utility Helicopter (LUH) program is successfully 
executing the Army's transformation strategy. The LUH program is 
meeting all cost, schedule and performance targets and is now in Full 
Rate Production. A total of 85 LUHs are now on contract with 20 
aircraft delivered. The LUH is now in service at the National Training 
Center, Joint Readiness Training Center, and Fort Eustis, Virginia, 
performing medical evacuation, VIP and general support missions.
    Question. How has this capability benefited our National Guard and 
Reserve units?
    Answer. The Light Utility Helicopter (LUH) program greatly benefits 
our reserve components. Of the 345 aircraft we plan to procure, 200 
will be fielded to the Army National Guard (ARNG). These new aircraft 
will divest legacy, aging, and less capable OH-58s and UH-1s. The 
immediate impact will be a more ready force, that remains in the 
states, ready for response to situations in permissive environments, 
principally within the Continental United States (CONUS). This year, we 
will field aircraft to the Eastern Area Army National Guard (ARNG) 
Training Site as well as ARNG units in Mississippi and Louisiana.
    Question. Why would the Army request a production profile 
consisting of 43 aircraft last year, go down to 18 over the next three 
years and then back up to 43 aircraft in 2013? I cannot believe this is 
the most efficient way to procure this aircraft, and I am concerned how 
this might affect fielding of the platform and stability of the 
workforce.
    Answer. We acknowledge the challenging Light Utility Helicopter 
(LUH) procurement profile and we will attempt to address it within the 
fiscal means available within the Army Aviation investment portfolio. 
We appreciate your fiscal support for LUH, your efforts to rapidly 
bring this new commercial, off the shelf solution into the Army 
inventory, providing us a means to transform our aviation forces and 
retire our Vietnam-era helicopters as swiftly as possible.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
     sustain soldiers and families in an era of persistent conflict
    Question. How long can our soldiers sustain the current effort in 
Iraq and Afghanistan?
    Answer. The cumulative effects of the last six-plus years at war 
have left our Army out of balance. The impacts on Soldiers and Units of 
increasing time deployed and decreasing time between deployments are 
visible in several different areas: training, readiness, and other 
indicators. The Army has a backlog of Soldiers who have not attended 
the Professional Military Education schools commensurate with their 
rank. Units are only able to train to execute counter-insurgency 
operations rather than full-spectrum operations. Other indicators are 
worrisome: the competitive recruitment environment with a declining 
number of qualified potential recruits, the increase in the number of 
Soldiers with post traumatic stress disorder (PTSD), and an increasing 
number of suicides. However, we assess that we will continue to recruit 
and retain enough Soldiers to meet our endstrength requirements. We 
have a plan that will, with Congressional help, restore balance to our 
force. We've identified four imperatives that we must accomplish to put 
ourselves back in balance: sustain, prepare, reset and transform. 
Additionally, the Army has accelerated its planned growth of Soldiers 
and Units and we expect to complete our growth by the end of 2011. In 
this era of persistent conflict, the nation needs to field fully 
prepared and resourced forces wherever required.
    Question. What is the projected impact on our Soldiers and their 
Families?
    Answer. The long term impact experienced by Soldiers and their 
Families resulting from Global War on Terror operations will be 
significant. The Army has aggressively fielded multiple prevention and 
treatment programs in an effort to successfully transition Soldiers 
from combat experience into a continued high quality of life. We have 
developed pre and post deployment Battlemind training, as well as 
Battlemind training modules for spouses. We have produced family 
support videos targeting the full range of dependent age groups, from 
toddlers to teenagers. In 2007, the Army distributed a mild Traumatic 
Brain Injury/Post Traumatic Stress Disorder (TBI/PTSD) video as part of 
the chain teach program for the entire force, with several versions 
available to Families. Based on internal analyses, such as the Mental 
Health Advisory Teams, the Army Medical Department is hiring over 340 
additional behavioral health providers and increasing the number of 
marriage and family therapists.
    Question. Please tell this committee how soldiers can continue to 
deploy year after year with an all-volunteer force?
    Answer. Per MAJ Phil Young, the answer to this question is no 
longer necessary.
                      future combat systems (fcs)
    Question. I have been and still am a proponent of modernization, 
specifically through the Army's Future Combat System (FCS). I 
understand that near-term Army needs threaten the funding of FCS. 
Secretary Gates stated that program affordability was in question. I 
know you received several questions from my colleagues on the Armed 
Services Committee reference FCS, but I would like to know: What is 
your opinion on the importance of sustaining the funding ramp for FCS?
    Answer. Continued investment in FCS is essential to deliver needed 
capabilities to combat forces deployed today and in the future. 
Investments in FCS have produced technologies that are making a 
difference in combat today. These include advanced vehicle armor being 
used to protect Soldiers in High Mobility Multipurpose Wheeled Vehicles 
(HMMWVs); precursor FCS Unmanned Aerial Vehicles; and robotics being 
used to locate and defeat Improvised Explosive Devices.
    Stable funding for FCS is vital for keeping the Army's principle 
modernization effort on track which keeps providing increased 
capabilities to our Soldiers. Cuts to the FCS program threaten to delay 
the delivery of needed capabilities to the force. FCS is about one-
third of our equipment investment strategy and currently less than 
three percent of our fiscal year 2009 budget request, but is key to 
building the full spectrum capabilities we need in the 21st Century. We 
are leveraging this investment to provide FCS-enabled capabilities to 
the current force through Spin-outs, but we need to get these 
capabilities to our Soldiers faster.
    Question. What is the impact to today's Soldiers of cutting FCS 
funding and moving program objectives to the right?
    Answer. The impact to Army modernization and to the Soldier will be 
an ever-increasing delay in providing urgently needed modern 
capabilities while causing the Army to spend valuable resources on 
maintaining an ever-aging fleet of combat platforms.
    The immediate impact and effect of the FCS funding reductions will 
result in delaying the early insertion of FCS (BCT) SO1 capabilities 
into the hands of our Soldiers (e.g., AN/GRS-9 and AN/GRS-10 Tactical 
and Urban Unattended Ground Sensors, the XM1216 Small Unmanned Ground 
Vehicle, the XM156 Class 1 Unmanned Aerial System and the XM501 Non-
Line-of-Sight Launch System). Program funding reductions will hamper 
the maturation of these critical SO1 technologies and delay the 
fielding of the capabilities urgently requested by commanders in Iraq 
and Afghanistan for Warfighters. Developing and fielding these 
capabilities now allows our Soldiers to stay ahead of our adversaries' 
growing capabilities.
                    deploying medically fit soldiers
    Question. We spoke briefly about the physical and mental health of 
our Soldiers. The Denver Post recently reported that Fort Carson sent 
soldiers who were not medically fit to war zones in order to meet 
``deployable strength'' goals. I'm not singling out Fort Carson. As a 
matter of fact, the post Commander has taken several steps to improve 
the negative image created by these reports. I know that some soldiers 
with limited duty profiles volunteer to return to Iraq and Afghanistan 
to serve their unit in an administrative role. Others are deployed to 
neighboring countries like Kuwait in support of the War, with an 
understanding that they will continue to receive medical care at that 
site. Can you confirm that the Army is not deploying soldiers medically 
unfit for duty in order to meet their deployable strength goals?
    Answer. Soldiers who do not meet medical retention standards should 
be referred to a Medical Evaluation Board for a fitness for duty 
determination. A commander should never knowingly deploy a Soldier 
determined to be medically unfit. Not only would it endanger the 
Soldier, whose safety is entrusted to the commander, but it threatens 
the mission. If Soldiers cannot perform their duties, they would have 
to redeploy, leaving their units without their services until 
replacements could be deployed.
    Army Regulation (AR) 40-501, Standards of Medical Fitness, dated 
December 14, 2007, provides guidance for healthcare providers and 
commanders to determine if a Soldier is medically fit to deploy. The 
regulation states that some Soldiers, because of certain medical 
conditions, may require administrative consideration when assignment to 
combat areas or certain geographic areas is contemplated to ensure that 
they are only required to perform duties within their medical 
capabilities, and without creating an undue hazard to their health and 
well-being or the health and well-being of others.
    Medical standards for deployment are meant as general guides. The 
final decision is based on clinical input and commander judgment, which 
takes into account the geographical area in which the Soldier will be 
assigned and the potential environmental conditions the Soldier may be 
subjected to.
    Question. When limited profile soldiers are deployed, is there a 
guarantee that they will receive adequate care to overcome their 
medical issues?
    Answer. A Soldier with profile limitations should deploy only if 
the Commander can meet the limitations of the profile and ensure 
adequate medical care in theater. If a Soldier requires a certain level 
of medical care while deployed, the Unit Commander should contact the 
Theater Surgeon, who is the most senior physician in the combat 
theater, to ensure the required care is available. Commanders are 
charged with the care and oversight of their subordinates. Therefore, 
they have an obligation to ensure that the limitations of a Soldier's 
profile will be met in any environment to which the Soldier is 
deployed.
    The disposition of Soldiers with limited profiles in a deployed 
environment is outlined in Army Regulation (AR) 40-501, Standards of 
Medical Fitness, dated December 14, 2007, which states that profiling 
officers should provide enough information regarding the Soldier's 
physical limitations to enable the non-medical commander and Army Human 
Resources Command to make a determination on individual assignments or 
duties.
    Question. Is there pressure placed on junior commanders by senior 
level officers to meet unit strength requirements in support of a 
deployment? If so, are junior leaders taking too much liberty with 
their profile soldiers?
    Answer. It is a common misperception that a Soldier with a limiting 
physical profile is non-deployable and yes, ultimately the Commander 
decides whether or not a Soldier deploys. However, physical profiles 
that state ``non-deployable,'' ``do not deploy'', or ``no field duty'' 
are invalid. Profiles delineate physical limitations of the Soldier, 
not whether or not the Soldier is deployable.
    Deploying a Soldier that is not capable of supporting the mission 
decreases mission accomplishment. It would be counterproductive to the 
command to deploy Soldiers that cannot contribute to mission 
accomplishment.
    Question. How can the Army fix the situation?
    Answer. Educating leaders and Soldiers and improving communication 
are the best ways to manage this situation. Deploying an unfit Soldier 
endangers the Soldier and the mission. Our process for identifying 
Soldiers who should not deploy for medical reasons is sound. Problems 
can occur if Commanders deviate from the process or do not communicate 
with health care providers. Army Regulation 40-501, Standards of 
Medical Fitness, dated December 14, 2007, details the joint 
responsibility of the Healthcare Provider and Commander to ensure the 
medical fitness of deploying Soldiers.
                      mental health practitioners
    Question. An increasing number of Soldiers returning from combat 
duty have been diagnosed with varying degrees of Post Traumatic Stress 
Disorder (PTSD). There is no doubt that there is a relationship between 
suicide rates and PTSD. We must make sure that our men and women have 
access to the care they deserve when they return from combat. My staff 
has been investigating the status of behavioral health care throughout 
the military and has consistently found that behavioral health care 
assets remain in short supply. What is the Army doing to alleviate the 
shortage?
    Answer. The Army is taking action on several fronts to alleviate 
the shortage of behavioral health providers. The backbone of our 
behavioral health services are our active duty providers, both in the 
theater of operations and in our military treatment facilities. These 
behavioral health providers are among the most highly deployed of any 
of our specialties, supporting our Combat Stress Control Teams and 
other units in Iraq and Afghanistan. To encourage active duty providers 
to join and stay in the Army, we offer financial incentives such as 
accession bonuses, retention bonuses, loan repayment, and education 
scholarships. The Army also offers several programs to recruit and 
train mental health professionals in uniform. These programs include 
the Clinical Psychology Internship Program, a Masters of Social Work 
program, a Clinical Psychology Training Program and a new Adult 
Psychiatric Mental Health Nurse Practitioner Program. Participants 
remain on active duty during these programs and incur additional active 
duty service obligations.
    In 2007, we identified a significant gap between our behavioral 
health manpower requirements and the increased patient care demand. As 
a result, in June 2007, the Army authorized the hiring of 275 
additional behavioral health providers in the United States. We have 
since identified additional overseas requirements that we are working 
to fill. As of March 7, 2008, we have hired and placed 147 additional 
providers. Unfortunately, the national shortage of behavioral health 
providers poses serious challenges to our recruiting efforts. Although 
we offer salaries based on the market conditions, we are still 
struggling to find providers in some of our remote locations.
    The Army is also training primary care providers to help alleviate 
the pressure on our behavioral health providers. In 2006, we completed 
a successful pilot program at Fort Bragg, North Carolina called 
RESPECT-MIL that has been expanded to 15 installations. RESPECT-MIL is 
a program designed to decrease stigma and improve access to care by 
providing behavioral healthcare in primary care settings.
    In addition to traditional behavioral health care settings and 
primary care settings, we are also expanding other portals to 
behavioral health services. For example, we are planning to hire an 
additional 40 substance abuse counselors as well as more than 50 
marriage and family therapists. Finally, we are adding 99 social 
workers to our Warrior Transition Units.
                  national guard provisions of ndaa 08
    Question. As you know, the Congress continues to provide additional 
funds for Guard equipment. This year will be no different and I will 
join with Senator Leahy in asking our colleagues to provide funding for 
additional full time manning. Additionally Senator Leahy and I were 
successful in getting portions of our Guard Empowerment legislation 
into law. Do you have any problems supporting the legislation that was 
passed in the fiscal year 2008 National Defense Authorization Act in 
support of strengthening the role of the National Guard within the 
Pentagon? If so, please identify those portions of the legislation that 
you find problematic?
    Answer. The intent of the National Guard Empowerment provisions 
incorporated into the National Defense Authorization Act for Fiscal 
Year 2008 (NDAA 08) was to ensure that the National Guard would have a 
voice in policy and budget processes and decisions which effected the 
Guard, or which would benefit from the Guard's expertise and 
perspective. The Army has included the National Guard in its policy and 
budget processes for several years, and the Director of the Army 
National Guard and the Army National Guard staff are engaged as full 
partners in the Army's policy and budget decisions.
    The Army participated fully in the work groups the Office of the 
Secretary of Defense (OSD) established last year to address, among 
other things, revising the National Guard Bureau (NGB) Charter and 
clarifying the NGB's role in Defense Support to Civil Authorities--both 
of which are addressed in NDAA 08. Those OSD work groups were formed in 
anticipation of the NDAA 08 changes to the roles and responsibilities 
of the National Guard, and in response to the Secretary of Defense's 
instructions to implement recommendations made by the Commission on the 
National Guard and Reserves in March 2007. The Army is pleased to have 
been a part of those Department of Defense efforts.
    The Army remains confident in NGB's ability to coordinate and work 
closely with States and other agencies for non-federal and State 
missions that rely primarily on the Guard for support. Provisions of 
NDAA 08 appear to enhance NGB's ability to do so without diminishing 
its responsibilities to the Secretaries of the Army and the Air Force 
or reducing its ability to fulfill important dual-mission roles. This 
legislation further supports the Army Reserve and National Guard's role 
in the transition to an operational force. The Reserve Components are 
currently performing an operational role for which they were neither 
designed nor resourced. In order to meet the operational flexibility 
required to sustain the current conflict as well as respond to future 
conflicts, we are transforming how we train, equip, resource, and 
mobilize the Reserve Components to be available for mobilization and 
employment as cohesive units in accordance with the Army Force 
Generation cycle. We need to gain the support of the nation to 
accomplish this while preserving the All Volunteer force and the 
Citizen Soldier Ethos. Therefore, the Army supports the new legislation 
and will work closely with OSD to implement it.
                                 ______
                                 
                 Questions Submitted to Hon. Pete Geren
            Questions Submitted by Senator Richard J. Durbin
                         helmet sensor program
    Question. What is the status of the Army's helmet sensor program as 
it relates to the war's signature wound, traumatic brain injury?
    Answer. The Army has equipped two Brigade Combat Teams (BCTs) 
deploying to Operation Enduring Freedom (OEF) and Operation Iraqi 
Freedom (OIF) with a helmet sensor that mounts on the Advanced Combat 
Helmet (ACH). The combat helmet sensors will record helmet acceleration 
and pressure data in order to characterize the forces acting on a 
Soldier's helmet during events that may cause traumatic brain injury 
(TBI). The two BCTs are 4th Bde, 101st Airborne (Air Assault) (OEF) and 
1st Bde, 4th Infantry Division (OIF). Units were equipped with helmet 
sensors prior to their deployment and personnel were trained to record 
data during the rotation.
    Question. What is the plan to implement the program Army wide?
    Answer. No decision has been made to implement the helmet sensor 
program Army wide. It is too early to accurately determine the utility 
of the helmet sensor for Soldiers.
    Question. Exactly how will the data collected be used?
    Answer. The Army seeks to constantly improve the performance of all 
protection systems including individual protective systems such as the 
Advanced Combat Helmet (ACH). The Army is also seeking to develop 
improved identification and treatment for head injuries or TBI. Helmet 
sensors will capture valuable data related to the forces acting on a 
Soldier's combat helmet. A currently funded medical research project 
coordinated by the Joint Trauma Analysis and Prevention of Injury in 
Combat Program in support of Program Manager Soldier Survivability will 
assess and validate the fidelity of the helmet sensor data within the 
context of operational events. The validated data will be used in 
studies that attempt to correlate the sensor data with resulting 
injuries. These data may make it possible to develop injury criteria 
and mitigation systems, together with performance standards that are 
necessary to support the development of improved individual protection 
systems, and diagnostic surveillance.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                   contracting task force initiatives
    Question. Secretary Geren, in your 2008 Posture Statement you list 
a number of accomplishments among which are ``Improved property 
accountability by providing Army wide visibility of 3.4 billion items 
valued in excess of $230 billion'' and ``Formed the Army Contracting 
Task Force to review current contracting operations and then 
immediately began implementing improvements.'' How have these 
accomplishments or other initiatives you have undertaken addressed 
corruption, fraud or waste in Iraq and in other operations around the 
globe?
    Answer. The Army has recently taken several initiatives to address 
corruption, fraud or waste in Iraq and in other operations around the 
world.
    First, the U.S. Army Contracting Command (Provisional) has been 
established by consolidating the U.S. Army Contracting Agency and the 
various contracting organizations within the U.S. Army Materiel Command 
(AMC). The Army Contracting Command (Provisional) will eventually be a 
two-star level contracting command including two subordinate one-star 
level commands; the Expeditionary Contracting Command and the 
Installation Contracting Command. This reorganization will enhance 
warfighter support, leverage the use of resources, capitalize the 
synergy of contracting personnel, and establish uniform policies.
    Second, as a result of the Army Contracting Task Force review and 
immediate corrective actions, the Army Contracting Command--Kuwait has 
generated cost savings in the following categories: claims cost savings 
of $13.9 million this fiscal year to date; cost savings of $36.6 
million over four years on new contracts (Non-Tactical Vehicles); cost 
savings of $88.7 million year to date by negotiating undefinitized 
contract actions; cost savings of $33 million to $40 million by 
deobligating unliquidated obligations from 1,689 contracts shipped from 
Kuwait to the United States for review; and cost savings generated by 
Contracting Officer's Representatives (CORs) through improving 
surveillance methods. Example: The COR on a Fuel Storage Contract was 
able to recoup from the contractor $142,000 through enhanced 
surveillance techniques. The contractor was not delivering full loads 
of fuel. The long term solution is to place government fuel meters 
between the delivery truck and the fuel farm to measure the actual 
quantity delivered.
    Third, the Army has increased the scope and frequency of the 
Contracting Operation Reviews that look at contracting organizations to 
ensure contracting activities are following regulations and procedures 
and appropriately addressing emerging issues; including corruption, 
fraud or waste. These reviews are part of the routine examination of 
contracting activities along with audits conducted by the U.S. Army 
Audit Agency and the Army and Department of Defense Inspectors General.
    Fourth, the Army has responded by improving integrated training and 
workforce skills in the areas of expeditionary and installation 
contracting. We have distributed the Joint Contingency Contracting 
Handbook and a Commander's Guide to Contracting and Contract 
Management. We have published a Contractors Accompanying the Force 
Training Support Package. This package is focused on contracting and 
contract management for non-acquisition personnel. Expeditionary/
contingency contracting is being institutionalized in the Army through 
numerous websites and incorporation into training courses for Army 
officers, NCOs, and civilians.
                  fire scout unmanned aerial vehicles
    Question. Secretary Geren, I understand that in an effort to ``spin 
out'' technology developed as part of your Future Combat System, the 
Army stood-up the Army Evaluation Task Force in Fort Bliss, Texas to 
evaluate equipment and prototypes. This was done in an effort to 
provide your current forces enhanced capabilities instead of waiting 
for the whole Future Combat System to be field many years in the 
future.
    I have been informed that Commanders in Operation Iraqi Freedom 
cite Unmanned Aerial Vehicles (UAVs) as one of their most pressing 
needs. And as part of Future Combat System, the Army procured eight 
Fire Scout Unmanned Aerial Vehicles, seven of which have been assembled 
and are sitting in a warehouse.
    Given the creation of this new Evaluation Task Force at Fort Bliss 
and with the pressing need for Intelligence, Surveillance and 
Reconnaissance to help with force protection and other missions, why 
would the Army not load available sensors into these Unmanned Vehicles 
and evaluate this system to determine if your troops on the ground 
could benefit from these assets you already own instead of letting them 
sit in a warehouse until 2014?
    Answer. The Army is considering the feasibility of fielding Fire 
Scouts to the Army Evaluation Task Force (AETF) to conduct 
developmental and system-level testing, as well as to develop tactics, 
techniques, and procedures and concepts of operation in the construct 
of the FCS Brigade Combat Team. The Training and Doctrine Command 
Commander was briefed in March 2008 on several options to accelerate 
the Fire Scout to the AETF and the Army is assessing options to 
accelerate the Class IV to the AETF.
    Due to three consecutive years of Congressional funding cuts to the 
FCS program, the Army is carefully balancing its limited resources to 
meet both current operational requirements and prepare for future 
needs. If the plan to accelerate is approved and resourced, the Army 
will learn valuable tactics, techniques, and procedures while providing 
critical risk reduction benefits to the Fire Scout program.
    Currently, the Fire Scout Air Vehicles procured to support the FCS 
System Development Demonstration phase of the program are at Moss 
Point, Mississippi, going through FCS Class IV UAV Phase I assembly. 
Phase I is part of a two-phase final assembly process which consists of 
installing and integrating the Global Positioning System/Inertial 
Navigation System, Identify Friend or Foe System, Radar altimeter, 
vehicle management computer, and associated brackets, cables and 
equipment to receive Phase II equipment.
    FCS Class IV UAV Phase II assembly begins in 2nd quarter fiscal 
year 2010 and runs through 4th quarter fiscal year 2011. This process 
consists of integrating FCS Integrated Computing System, Airborne 
Standoff Minefield Detection System, Synthetic Aperture Radar/Ground 
Moving Target Indicator sensor, communications suites, data-links, and 
other FCS-unique equipment.
    The FCS Class IV Fire Scout milestones remain well integrated 
within the FCS program. Key milestones include the Class IV Preliminary 
Design Review scheduled for December 2008, Class IV Critical Design 
Review scheduled for November 2009, and Class IV First Flight scheduled 
for January 2011.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                          airlift requirements
    Question. The initial Army plan was to transport FCS vehicles 
aboard C-130 aircraft. Now that this is no longer an option due to 
weight growth, what is the Army doing to determine its future airlift 
requirements for FCS?
    Answer. Within the Future Combat Systems (FCS) Family of Systems, 
the Manned Ground Vehicle (MGV) is the only type not capable of 
transport on a C-130 due to weight and cube growth. The current concept 
for MGV transport for strategic and operational distances is on C-17 
and C-5 aircraft. This will stay constant as the Army fields the 15 FCS 
equipped Brigade Combat Teams.
    For future operational and tactical MGV airlift requirements, the 
Army's Joint Heavy Lift (JHL) program was being developed to support 
the concept of Mounted Vertical Maneuver. Simultaneously, the Air Force 
was developing the Advanced Joint Air Combat System (follow-on to the 
C-130) concept which is their next generation intra-theater aircraft. 
As a result of the 2008 Army-Air Force Talks, the JHL Initial 
Capabilities Document (ICD) will be merged with the Air Force Future 
Theater Lift ICD which will result in a material solution acceptable to 
both services. The Joint ICD is expected to be delivered to the Joint 
Requirements Oversight Council by fall of 2008. The ability to 
vertically lift medium weight (MGV, Stryker) loads will remain the 
principle Army requirement for future intra-theater airlift. An 
Analysis of Alternatives comparing known and projected solutions will 
likely be initiated within the next two years.
    Question. Do you believe additional C-17 aircraft are needed?
    Answer. The requirements for C-17 aircraft will be studied and 
analyzed during the conduct of the Mobility Capabilities and 
Requirements Study 2008 (MCRS 08). This study will be co-chaired by 
Office of the Secretary of Defense, Program Analysis and Evaluation, 
and the U.S. Transportation Command. The Army, through the Army Power 
Projection Program, has developed equities regarding current and future 
force projection capabilities in support of Combatant Commanders' 
requirements that must be incorporated into MCRS 08. From an airlift 
perspective, the study must address the requirements for surge airlift 
to move the modular force in accordance with current war plan 
timelines, and the appropriate C-5/C-17 fleet mix to move outsize 
cargo.
    In addition to MCRS 08, the 2008 National Defense Authorization Act 
(NDAA) directs an Airlift Fleet Study be conducted by a federally 
funded research and development corporation to be completed by January 
2009. The 2008 NDAA directs the Secretary of Defense to conduct a 
requirements based study for the proper size and mix of fixed-wing 
intra-theater and inter-theater airlift assets to meet the National 
Military Strategy. The study will focus on military and commercially 
programmed airlift capabilities, and analyze the lifecycle costs and 
alternatives for military aircraft to include the C-17 and C-5.
    Upon completion of the MCRS 08 and the NDAA Airlift Fleet Study, 
the Army will be able to make an informed decision on the number of C-
17s required to meet our strategic mobility requirements.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                       white sands missile range
    Question. I understand that there is no funding in your fiscal year 
2009 request to carry out your December announcement to relocate a 
brigade combat team to White Sands Missile Range as part the of the 
President's Grow the Army plan. What funding is needed for that 
relocation and when will the Army budget for those needs?
    Answer. In accordance with the Secretary of Defense recommendation, 
the heavy brigade will relocate to White Sands Missile Range in fiscal 
year 2013. The cost to construct facilities for a brigade combat team 
(BCT) at White Sands Missile Range is currently estimated to be about 
$506 million and will take approximately two years to complete. The 
$506 million will fund organizational facilities such as unit 
headquarters, company operations facilities, maintenance facilities, 
barracks, and dining facilities. It will also provide related 
installation infrastructure by extending road networks and utilities to 
the BCT facilities. The specific sequence for project funding will be 
determined during fiscal year 2010-2015 Military Construction program 
development.
                high energy laser test facility (helstf)
    Question. The High Energy Laser System Test Facility (HELSTF) is a 
pre-eminent laser test facility and a Major Range and Test Base 
Facility. Yet your budget calls for mothballing certain HELSTF 
capabilities that other Defense services and agencies tell me they 
need. How do those cuts comply with your duty to maintain HELSTF as a 
Major Range and Test Base Facility for the good of all of DOD, not just 
the Army?
    Answer. When preparing the fiscal year 2009 President's budget, the 
Army consulted with potential users across the Department of Defense 
(DOD) regarding requirements for use of the High Energy Laser System 
Test Facility (HELSTF) megawatt laser capabilities. At that time, we 
concluded there were no firm requirements for either the Mid-Infrared 
Advanced Chemical Laser (MIRACL) or the Sea Lite Beam Director (SLBD). 
The DOD Test Resource Management Center (TRMC) concurred with our 
decision when it certified our fiscal year 2009 test and evaluation 
budget on January 31, 2008.
    As required by the fiscal year 2008 National Defense Authorization 
Act, the Army, with TRMC as the lead, is conducting a cost benefit 
analysis of the proposed reduction of funding at HELSTF. The analysis 
will include an updated survey of all DOD and Service projected 
requirements to determine if future year requirements have emerged 
since the initial survey for megawatt class chemical lasers.
    HELSTF remains operational to support laser programs. HELSTF will 
be a vital asset as the DOD moves forward with solid states laser 
development.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The Defense Subcommittee will reconvene on 
Wednesday, March 5, at 10:30 a.m. At that time, we'll hear from 
the Department of the Navy. The subcommittee will stand in 
recess.
    [Whereupon, at 12:12 p.m., Wednesday, February 27, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 5.]











        DEPARTMENT OF DEFENSE APPROPRIATONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, MARCH 5, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:36 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Mikulski, Murray, Stevens, 
Cochran, and Shelby.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENT OF HON. DONALD C. WINTER, SECRETARY OF THE 
            NAVY

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Donald 
Winter, Secretary of the Navy, Admiral Gary Roughead, Chief of 
Naval Operations, and General James Conway, Commandant of the 
Marine Corps, to present testimony on the fiscal year 2009 
budget for the Department of the Navy.
    The President's budget request includes $149 billion to 
support the Navy and Marine Corps in fiscal year 2009. Along 
with the forthcoming request for supplemental, these funds will 
support the forward deployment of sailors and marines to the 
farthest corners of the globe. This forward presence 
contributes to our security, by deterring conflict in strategic 
regions, performing vital humanitarian relief missions, and 
carrying out combat missions in the global war on terrorism 
(GWOT).
    Many Americans may not be aware of the full role of the 
Navy and the Marine Corps in the wars in Iraq and Afghanistan. 
There are currently 25,600 marines and 7,800 sailors with boots 
on the ground in these two countries. Our Nation owes them, and 
all their fellow servicemembers, a special debt of gratitude.
    One challenge to maintaining the posture of the Navy and 
Marine Corps is to equip the forces with the tools they need to 
complete their missions. Both today and into the future, 
however high profile modernization programs, like the littoral 
combat ship (LCS), the expeditionary combat vehicle, the 
Presidential helicopter, have experienced problems with cost 
and schedule.
    The subcommittee intends to undertake a careful review of 
these and other important programs, to determine the best 
course to modernize our forces, in the most fiscally 
responsible manner possible. Not only are there important 
questions to be asked about the next generation of weapons 
systems, but there are also concerns about how funds are being 
invested to meet the immediate needs of our servicemembers.
    The recent grounding of P-3 aircraft is one such concern. 
And just recently, new questions are being asked about whether 
the bureaucracy acted quickly enough, getting mine resistant 
ambush protected (MRAPs) and other equipment to those currently 
serving in harms way.
    We look forward to our witnesses sharing their views on 
both the challenges and successes they have--they see for the 
Navy and Marine Corps, and how the 2009 budget request 
addresses those issues. But before calling on our panel for 
their opening statements, there's one other matter I wish to 
raise.
    As the subcommittee examines the fiscal year 2009 request, 
we must remember that the budget before us is based on 
recommendations made 6 months ago. And it will be several 
months before our bill may be approved and sent to the White 
House. If, for no other reason than the time it takes to 
assemble and review the budget request, as well as the 
information gleaned from these hearings, there are likely to be 
several changes warranted in your request, in order to best 
serve our national defense.
    My co-chairman, Senator Stevens, and I worked for many 
years to propose adjustments that make sense. I believe our 
country is best served when Congress and the military services 
work as partners in identifying and carrying out the 
adjustments made during the appropriations process.
    I look forward to working with each of you to continue that 
same spirit of cooperation, which is now a tradition that has 
served our Nation very well. The full statement of each of the 
witnesses this morning will be included in the record.
    And now, I'm pleased to turn to my co-chairman, Senator 
Stevens, for his opening statement.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman.
    And gentlemen, we're pleased to have you before the 
subcommittee, and I think you couldn't find a more important 
time. You--I do join in thanking you for your service and for 
your willingness to really take on these tasks that we all 
have. And we welcome you on your first appearance--I know you 
have a challenging assignment and we look forward to working 
with you in the Navy.
    The demand for money surpasses the amounts that we can make 
available, but we have to work together to make sure that we 
meet the most pressing needs of the services. I think the 
greatest thrill is the one that the five of us discussed 
yesterday, and that is, how do we look over the horizon and 
make sure we have the military of the future to meet the 
threats the future generations will face.
    Now that we know how long it takes to prepare those 
systems, we have to be really clairvoyant and work hard to make 
sure that we start the systems and find the ways to fund them, 
so that there will be a superiority for all our forces out 
there in the years ahead.
    I look forward to working with you. Thank you.
    Senator Inouye. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. I can't let this opportunity pass, to 
observe that I think the leaders we have today, of the Navy, 
the Marine Corps, and the Department of the Navy, are the best 
qualified that I can ever remember. Their personal experiences, 
their education backgrounds, their proven ability to manage the 
United States Navy and Marine Corps, reflect great credit, I 
think, on the military and our Government. It's an honor to be 
involved in helping to decide how the funding is allocated for 
the missions and the challenges that face the Navy today.
    But I think these individuals have reflected great credit 
on the process and our great country. And it's a pleasure to 
welcome them to the subcommittee for the annual review of the 
budget request that's been submitted to the subcommittee.
    Senator Inouye. Thank you very much.

                   STATEMENT OF HON. DONALD C. WINTER

    And now, Mr. Secretary.
    Dr. Winter. Thank you very much, Mr. Chairman, Senator 
Stevens, members of the subcommittee. Thank you for the 
opportunity to appear before you here today. I'm here to 
present the Department of the Navy's plan to support our 
sailors and marines in their mission to defend our Nation 
against current and future challenges.
    The President's fiscal year 2009 budget will assist the 
Navy and Marine Corps in accomplishing their complimentary and 
reinforcing missions, while building capabilities necessary to 
meet future threats. One of the primary responsibilities of our 
Government is to provide for the Nation's defense. Those 
responsibilities include the critical requirement to organize, 
train, and equip our naval forces. For that vast majority of 
citizens, the only cost imposed on us is financial.
    America is able to provide for the national defense with 
such a minimal impact on its citizenry, because we are blessed 
to have among us, a generation of people, patriots all, who 
volunteer to serve. They are the ones who bear many hardships, 
accept many risks, and go in harms way. The pay and benefit 
funding levels in our 2009 budget reflect the compensation 
levels necessary to continue to attract and retain quality 
personnel in the Navy and the Marine Corps.
    Furthermore, although we are doing well in overall 
recruiting and retention numbers, I emphasize the need for 
special pays and bonuses to meet critical sub-specialty needs, 
such as our requirements for nurses, physicians, and GWOT 
stress communities, such as explosive ordinance disposal (EOD) 
personnel.
    It is because of the hard work of our sailors and marines, 
that we are making progress, fostering maritime security, 
defeating terrorist networks, progressing toward a stable Iraq, 
supporting the Afghan Government, countering piracy and 
proliferation of deadly technology, rendering humanitarian 
assistance, and strengthening partnerships around the world. 
Our sailors and marines have responded when called, and 
superbly performed their many missions in our Nation's defense. 
It is truly an honor and a privilege to work with them and 
support them as their Secretary.
    The Department of the Navy's fiscal year 2009 budget, meets 
the challenge of resourcing the Navy and the Marine Corps team 
across a range of missions, from partnership building to combat 
operations. It invests in our ability to operate, sustain, and 
develop forces that are engaged in the GWOT, while preparing 
the force for the challenges and threats of the future. We are 
requesting a total of $149 billion, a 7 percent increase over 
the fiscal year 2008 baseline.
    This increase is driven by factors, such as rising oil 
costs, and the critical comprehensive growth of the Marine 
Corps. Our fiscal year 2009 budget reflects three key 
priorities, which are consistent with those of previous years. 
They are, first of all, prevail in the GWOT. Second, take care 
of our sailors, marines, their families, and particularly, our 
wounded. And last, prepare for a full challenge across--prepare 
for future challenges across the full spectrum of operations.
    To help meet our first priority, prevail in the GWOT, we 
are adapting our force for current and future missions, to 
include growing the Marine Corps, shaping the force by 
recruiting and retaining the right people, and addressing 
critical readiness needs. Among our most critical readiness 
needs, is the ability to train our sailors and marines for the 
threats that they may encounter. Unfortunately, our Navy has 
encountered increasing encroachments in our ability to conduct 
training. We recognize that there are, on occasion, impacts on 
the citizenry at large, associated with such training, but 
these are necessary costs that are critical to the defense of 
our Nation. We take extensive precautions to minimize the 
impact of our training. We owe it to the American people and we 
owe it to those who serve, to acknowledge that, as in all 
things in life, there are competing interests and tradeoffs, 
and that we treat the risks of sonar operation at sea or the 
impact of jet noise, the way we treat all public policy issues, 
balancing risks and costs against legitimate national security 
interests.
    I commit to you today, that I will keep you appraised of 
legal challenges in near implications for readiness that we 
face over the course of the coming year. Mr. Chairman, if in 
the future, we are unable to properly train our sailors and 
marines, we will have failed to do our duty to them and to the 
American people.
    Another critical issue I would like to highlight concerns 
doing right by those who go in harms way. As Secretary of 
Defense Gates has stated, ``Apart from the war itself, we have 
no higher priority than to take care of our wounded.'' Our 
wounded warriors and their families deserve the highest 
priority care, respect, and treatment for their sacrifices. Our 
2009 budget honors our commitment to ensure that our sailors 
and marines receive the appropriate care, training, and 
financial support that they need.
    Finally, to meet the challenges of the future, the 2009 
budget provides for a balanced fleet of ships, aircraft, and 
expeditionary capabilities, with the fighting power and 
versatility to carry out blue, green, and brown water missions 
wherever called upon.
    Furthermore, I would like to note that, consistent with our 
commitment to ensure affordability and timely delivery of 
capabilities, we have launched an acquisition improvement 
initiative to provide better integration of requirements in 
acquisition decision processes, improve governance and insight 
into the development, establishment, and execution of 
acquisition programs, and formalize a framework to engage 
senior Naval leadership.

                           PREPARED STATEMENT

    Mr. Chairman, I am grateful for the strong support this 
subcommittee and the Congress at large have given our Navy and 
Marine Corps team. I want to thank you on their behalf. Our 
Navy and Marine Corps is a strong, capable, and dedicated team. 
I appreciate the opportunity to represent them here today and I 
look forward to your questions.
    [The statement follows:]
              Prepared Statement of Hon. Donald C. Winter
 The Navy and Marine Corps Team . . . fighting today and preparing for 
                           future challenges
                              introduction
    Chairman Inouye, Senator Stevens and Members of the Committee, it 
is an honor to appear again before you representing the men and women 
of the United States Navy and the United States Marine Corps--active, 
reserve, and civilian--a force of over 800,000 strong.
    I am here to present the Department of the Navy's (DON) plan to 
support our Sailors and Marines in their mission to defend our Nation 
against current and future challenges as they conduct operations 
spanning the spectrum, from major combat to humanitarian assistance. 
The President's fiscal year 2009 budget will assist the Navy and Marine 
Corps in accomplishing their complimentary and reinforcing missions, 
while building capabilities necessary to meet future threats. The 
fiscal year 2009 budget balances capabilities to support both 
traditional and irregular warfare demands. It also continues to expand 
the Marine Corps' capacity and furthers the transformation from a blue 
water navy into one that can fight and win in the blue, green, and 
brown waters.
    As I reflect upon my time as Secretary of the Navy, nothing is more 
sobering than the experience of seeing--every single day--the 
dedication, professionalism, and willingness to sacrifice shown by our 
Sailors, Marines, civilian employees, and their families. I will attest 
to you their unwavering commitment to duty. These patriots put 
themselves in harm's way to protect our Nation. From those who have 
given the ultimate sacrifice, such as Medal of Honor recipients 
Lieutenant Michael Murphy and Corporal Jason Dunham, to those who daily 
take the pledge to support and defend our Nation, our Navy and Marine 
Corps Team is second to none. It is because of their efforts that we 
are making progress fostering maritime security, defeating terrorist 
networks, progressing towards a stable Iraq, supporting the Afghan 
government, countering piracy and the proliferation of deadly 
technology, giving humanitarian assistance to people in need after 
Tsunamis and earthquakes, and strengthening partnerships around the 
world. The men and women of the Navy and Marine Corps have responded 
when called upon. It is an honor and privilege to work with them and 
support them as their Secretary.
    Today our Nation is faced with a myriad of challenges and 
uncertainties across the globe. There have been several unexpected, and 
sometimes sudden, changes in the security environment over the past few 
years. Yet many of the strategic imperatives of the United States--
particularly with respect to the maritime environment--remain 
unchanged. It is clear the United States must have the capacity to act 
in such a fluid and unpredictable environment, and that Naval forces 
offer unique flexibility to respond swiftly and decisively anywhere in 
the world. Providing this flexibility requires that the Department of 
the Navy invest wisely across a wide range of capabilities, and that we 
take care to deliver a balanced portfolio of capabilities to the Joint 
force. Worldwide presence, credible deterrence and dissuasion, 
projection of power from naval platforms anywhere on the globe, and the 
ability to prevail at sea are the critical, most fundamental elements 
of the Navy and Marine Corps strategic posture; these are our 
indispensable contributions to the joint warfighting capability of the 
Nation.
    The United States is a maritime power, bounded by sea to the east 
and west. The health of our national economy depends on assuring safe 
transit through the seas--and the maritime dimension of international 
commerce is ever increasing. Consider that 70 percent of the earth is 
covered by water, 80 percent of the world's population lives in close 
proximity to the coast, and 90 percent of the world's international 
commerce is transported via the sea. Given our national interests, and 
the role we play in the world, it is unsurprising that our Sailors and 
Marines are constantly called upon to react to a wide range of 
challenges. I suggest that the strength of a nation's naval force 
remains an essential measure of that nation's status and role in the 
world. I also submit that maritime dominance by the United States 
remains vital to our national security, to our position in the world, 
and to our ability to defend and promote our interests.
    Last fall, the Department of the Navy, in collaboration with the 
U.S. Coast Guard, reaffirmed its emphasis on the traditional 
capabilities of forward presence, deterrence, sea control, and power 
projection in its new Maritime Strategy: A Cooperative Strategy for 
21st Century Seapower. However, the Maritime Strategy also makes clear 
that we consider our core capabilities to include maritime security and 
the provision of humanitarian assistance and disaster relief--areas of 
growing importance. The strategy emphasizes the use of soft power, and 
highlights the criticality of our foreign friends and allies, while 
reminding us that the underlying credibility for partnerships and peace 
is the United States' ability to swiftly defeat a threat with 
overwhelming and decisive combat power.
    The unique nature of our Department is such that the Navy and 
Marine Corps team is a constantly deployed force, both in peacetime and 
in war, with the further ability to surge assets worldwide, anytime 
required. As we consider the current and projected strategic 
environment, we must anticipate a steadily growing reliance on our 
unique expeditionary character. This is becoming ever more apparent. 
The challenge of resourcing our two services across such a large range 
of steadily growing global missions, from partnership building to 
combat operations, is one that we have met with the President's fiscal 
year 2009 budget.
    Reflected in the budget submittal is the fact that today's Navy and 
Marine Corps are operating in blue, green and brown waters, in the air 
and on the shore--and sometimes deep inland--facing a wide variety of 
threats. On any given day, approximately 40 percent of the fleet is 
deployed at sea or involved in pre-deployment training. Forward 
deployed carrier and expeditionary strike groups operate on the high 
seas, unencumbered by constraints facing land-based forces. They are 
providing our combatant commanders with many important and powerful 
combinations of capability: tactical aviation, land attack systems, 
SEAL and Marine special operations forces (SOF), intelligence and 
surveillance platforms, amphibious assault and forcible entry capacity, 
over-the-horizon force projection, and flexible seabasing and at sea 
logistical support. Our full spectrum of capabilities also includes 
ship-based ballistic missile defense--providing a shield that not only 
protects our maritime freedom of movement and access, but which also 
contributes to the defense of our allies and our homeland against 
missile threats. In other words, we are presenting a budget which 
supports a force in high demand across the globe.
    The President's budget does more than just fulfill our 
responsibilities in today's complex environment; it continues to evolve 
our portfolio of capabilities. This is essential to our ability to 
defend against future threats which could range from the asymmetric--
from terrorists to proliferation and/or use of weapons of mass 
destruction--to the more traditional challenges posed by nation-states 
and possible future ``near peer'' competitors.
    Evolving our portfolio of capabilities can be challenging, since 
the Navy and Marine Corps have an operational construct that emphasizes 
forward deployment and presence. Historically, while the bulk of U.S. 
forces return home after cessation of a conflict or crisis, our 
maritime forces often do not. They are continuously present in forward 
regions, and through their forward engagement they maintain familiarity 
with the environment and the characteristics of regional actors; they 
also foster and sustain trust and cooperation with friends and allies. 
Thus when a threat to our national security emerges overseas, it may 
well be encountered first by the Navy and Marine Corps. Meeting that 
threat, whether on land, in the air, on the high seas, or under the 
sea, will require our forces to be in peak fighting condition. They 
must be ready to fight and win at any time, and to do so at great 
strategic distance. We have developed a budgetary plan which addresses 
these requirements.
    We have developed the budget in the face of a demanding and rapidly 
changing security environment, and there are worrisome trends that bear 
watching. Nations are developing weapons and systems which seem 
deliberately intended to threaten our Naval assets, deny access, and 
restrict our freedom of maneuver. The proliferation of anti-access 
weapons technology to unfriendly nations is a significant concern. 
Furthermore, the Department of the Navy, like other parts of the 
Department of Defense (DOD), has been a target of aggressive foreign 
intelligence and data-collection activities. As such, we need to invest 
in the capabilities necessary to preserve our technological advantage. 
Additionally, aside from growing costs and schedule delays in some 
acquisition programs, we also struggle with regulatory encroachment and 
legal challenges that threaten to undercut our ability to effectively 
train and maintain readiness. We must address these challenges; doing 
so is fundamental to maintaining our Naval readiness and our capability 
to defend our Nation.
    In summary, the Department of the Navy's fiscal year 2009 budget 
invests in the Navy and Marine Corps to operate, sustain and develop 
forces that will remain engaged in the Global War on Terrorism (GWOT), 
while at the same time preparing the force for the challenges and 
threats of the future. The fiscal year 2009 budget requests $149.3 
billion for these purposes. This is a 7 percent increase over the 
fiscal year 2008 baseline and is driven by factors such as rising oil 
costs and the critical, comprehensive growth of the United States 
Marine Corps.
Priorities for the Department of the Navy
    The Department of the Navy is committed to finding solutions that 
allow the Navy and Marine Corps to balance our current requirements and 
operational realities with the likely needs of the future. We strive to 
maintain an agile and flexible force that cannot only contribute to 
winning our Nation's wars but also can assist in preventing future 
conflict to the extent possible--whether by dissuasion, deterrence, 
humanitarian action or disaster relief. As such, our priorities remain 
consistent with those in previous years. They are to: Prevail in the 
GWOT; take care of our Sailors, Marines, their Families and 
particularly our wounded; and prepare for future challenges across the 
full spectrum of operations.
    As in the past, for the sake of brevity, some of the key programs 
are highlighted and can be found in greater detail in the Highlights of 
the Department of the Navy fiscal year 2009 budget.\1\ This statement 
is designed to reinforce, and build upon, initiatives articulated in 
previous testimony and budget material.
---------------------------------------------------------------------------
    \1\ Highlights of the Department of the Navy Fiscal Year 2009 
Budget, February 2008.
---------------------------------------------------------------------------
                 prevail in the global war on terrorism
    The Department's top priority remains the Global War on Terrorism. 
Today, approximately 29,300 Marines and 11,300 Sailors (including 
individual augmentees) operate ashore, along with 12,000 Sailors at 
sea. They are conducting and supporting operations in Iraq and 
Afghanistan, and throughout the U.S. Central Command region, and their 
contributions are central to the progress being made.
    Naval forces provide a major part of the national worldwide 
rotational presence and an increasing portion of the required support 
for ground units in Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF). They operate across the spectrum--from low 
intensity conflict, humanitarian assistance and disaster relief, to 
high intensity conflict involving airborne strike and Marine Corps 
forces in coordinated joint and coalition ground operations. To 
illustrate the wide range of activities undertaken, it is noteworthy 
that, in 2007, five Carrier Strike Groups and five Expeditionary Strike 
Groups deployed in support of OEF and OIF. Throughout 2007 the Marine 
Corps provided three embarked Marine Expeditionary Units (MEUs) forward 
positioned in all geographic commands. Two of these MEUs were employed 
ashore in support of Multi-National Force--West and participated in 
sustained combat operations. Naval aviation, afloat and ashore, in 
concert with U.S. Air Force and coalition aviation forces, has provided 
critical strike, overland surveillance, logistical and electronic 
warfare support to the joint land forces deployed in Iraq and 
Afghanistan. The Navy has also deployed riverine forces for the first 
time since Vietnam, operating on Lake Thar Thar and the Euphrates 
River. The Marine Corps also achieved a milestone with successful 
deployment of the first MV-22 Osprey squadron in OIF operations. Naval 
Special Warfare (NSW) forces continue to be actively engaged in 
combating terrorism. The Navy SEALs and the Marine Special Operations 
Command have done outstanding work in OIF/OEF and have made critical 
progress in countering the threat of international terrorism. We will 
continue to prioritize investment and retention of our highly skilled 
special operations forces.
    In addition to traditional types of maritime activities, the Navy 
continues to support the GWOT in a variety of non-traditional areas. 
For example, Navy Sailors are leading a number of Provincial 
Reconstruction Teams in Afghanistan today. Significant numbers of Naval 
combat support and combat service support personnel are relieving the 
Army and Marine Corps in select mission areas. In U.S. Central Command, 
Navy personnel are providing base and port operations support, medical, 
explosive ordinance disposal, construction battalions, civil affairs, 
electronic warfare, mobile security forces, detainee operations, 
intelligence, and headquarters staff support. The Navy also continues 
command of the detainee mission in Guantanamo Bay, Cuba and at Camp 
Bucca, a high security prison in Iraq. Executive agent responsibilities 
are discharged by the Navy for the GWOT-related Combined Joint Task 
Force Horn of Africa (CJTF HOA) in Djibouti. CJTF HOA has transformed 
from its initial seafaring force, aimed at blocking terrorists fleeing 
Afghanistan (and preventing them from establishing new safe havens), 
into a task force that also conducts military-to-military training and 
humanitarian assistance over a large geographic expanse of eight 
countries.
    With respect to the Marine Corps, the II Marine Expeditionary Force 
Forward, augmented by Marines from around the Corps, conducted 
counterinsurgency operations in Iraq and led the Multi-National Force--
West in Al Anbar Province, supported by Army, Air Force, and Navy 
personnel. The achievements of the Marines in Al Anbar have been widely 
noted, and their success in creating a permissive environment for local 
governance and economic development--making significant inroads in 
security, training, and transfer of responsibility to their Iraqi 
counterparts--has been crucial. More broadly across the country, Marine 
Corps Transition Teams have conducted training for Iraqi military, 
police and border teams. The Marine Corps provided over 800 personnel 
across more than 50 types of Iraqi transition teams in 2007. Building 
upon these successes in Iraq, recently the President approved the 
deployment of 2,200 Marines to Afghanistan in support of the NATO-led 
International Security Assistance Force mission, and 1,000 Marines to 
assist in the training and development of the Afghan National Security 
Forces. In preparation for these overseas missions, the Marine Corps 
continues to implement comprehensive training programs at home, such as 
Mojave Viper and Desert Talon.
    At sea, the effective conduct of Maritime Security Operations is a 
critical element of the fight against terrorism. In the Northern 
Arabian Gulf, our Sailors and Marines are working with Coalition and 
Iraqi forces in a Coalition Task Group to defend the Al Basra Oil 
Terminal and the Khawr al Amaya Oil Terminal. The security of these 
platforms is provided through waterborne patrols in Rigid Hull 
Inflatable Boats, platform security personnel, and helicopter 
surveillance. Working with our NATO Allies, the Navy continues to 
provide support for Operation Active Endeavor, which is an ongoing 
maritime interdiction effort in the Mediterranean. Similarly, the 
conduct of operations to dissuade and counter piracy off the West 
African coast and the actions of the guided missile destroyers U.S.S. 
Porter, U.S.S. Arleigh Burke and U.S.S. James E. Williams off the coast 
of Somalia this past October are examples of how the Navy is working to 
provide a secure maritime environment.
    Fostering enduring foreign partnerships and friendships is yet 
another key contributor to the GWOT, as we bolster the capacity of 
nations to work with us, and to conduct counter-terrorism efforts of 
their own. The Navy is continuing to develop the concept of Global 
Fleet Station (GFS), envisioned to be a highly visible, positively 
engaged, reassuring, and persistent sea base from which to interact 
with the global maritime community of nations. The Department 
demonstrated the concept through the GFS pilot in October, using the 
HSV-2 SWIFT in the Caribbean, and again with the African Partnership 
Station in the Gulf of Guinea, using the U.S.S. Fort McHenry and HSV-2 
SWIFT. In addition to targeted outreach activities, the Navy and Marine 
Corps team extends America's diplomatic reach through the conduct of 
multinational exercises and port visits. Throughout 2007, the Naval 
force participated in over 230 bilateral and multinational exercises 
with partners around the globe.\2\ The Marine Corps also participated 
in over sixty Theater Security Cooperation events, which ranged from 
deployment of small Mobile Training Teams in Central America to MEU 
exercises in Africa, the Middle East, and the Pacific. Additionally, 
several overseas training events were held with foreign special 
operations forces to improve interoperability with Navy and Marine SOF, 
and the Department provided support to the stand-up of NATO's new SOF 
Coordination Center. The cumulative effect of these exercises and 
events is to foster trust and sustain cooperative relationships with 
our international partners. This is critical to U.S. national security.
---------------------------------------------------------------------------
    \2\ Illustrative of our global security cooperation are exercises 
involving the Japanese Maritime Self Defense Force and the Indian Navy 
during TRILAX 07 in the Northern Pacific; PHOENIX EXPRESS 07 with 
Moroccan, Algerian, and Tunisian forces west of the Gibraltar Strait; 
BALTOPS 07 in the Baltic Sea with Denmark, France, Germany, Sweden, 
Poland, Russia, Latvia, Lithuania, the United Kingdom, and NATO; AMAN 
07 with Pakistan, Great Britain, China, France, Italy, Malaysia, 
Turkey, and Bangladesh; UNITAS off of South America's Pacific coast 
with Chile, Colombia, and Peru; and MALABAR with forces from India.
---------------------------------------------------------------------------
    Outreach to foreign populations is also an important part of the 
Nation's efforts to stem the spread of terrorism. This is an important 
mission for the Navy and the Marine Corps and is a tangible way that we 
can demonstrate the compassion and values of the American people. Last 
year, the Navy and Marine Corps together were at the forefront of 
numerous humanitarian assistance and disaster relief operations. 
Sailors and Marines in the Pacific provided desperately-needed 
humanitarian support to Bangladesh in the aftermath of Cyclone Sidr. 
The Marine Corps engaged in civil-military and humanitarian assistance 
operations such as ``New Horizons'' in Nicaragua and land mine removal 
training in Azerbaijan. The joint and combined crew aboard the USNS 
Comfort gave humanitarian aid during a four month tour in Latin America 
and the Caribbean. During Pacific Partnership 2007, the joint and 
interagency crew of the U.S.S. Peleliu gave similar aid to the 
Philippines and other Pacific island nations. We hope that the support 
given during these missions, whether it was the Seabees' reconstruction 
of homes and schools devastated by a tsunami, or inoculation and 
treatment of children and the elderly by Navy and Marine medical 
professionals, helped convey a positive image of the United States with 
local populations.
    Finally, within the United States, the Department continues its 
emphasis on providing increased force protection to our Sailors and 
Marines, particularly in the area of counter-improvised explosive 
devices (IED). As lead service for the joint Mine Resistant Ambush 
Protected (MRAP) vehicle program, the Department accelerated production 
for MRAP vehicles to rapidly field this capability in Iraq and 
Afghanistan. Through the use of Lean Six Sigma activities and projects, 
the Department synchronized an effort to build and transport MRAP 
vehicles to the theater, rapidly identifying and mitigating 
deficiencies in the MRAP vehicle pipeline. Over 2,000 MRAP vehicles 
have been fielded to support the Department's joint urgent requirement, 
over 900 of which are in the hands of Marines and more than 150 fielded 
to the Navy. Also as part of the broader counter-IED effort, the 
Department is procuring Biometric Tools, the Family of Imaging Systems, 
counter-IED robotics, and Counter Radio-Controlled IED Electronic 
Warfare systems.
Adapting the Naval Force for GWOT and Future Missions
    The Marine Corps and Navy are being called upon today to conduct 
surge operations, conduct Iraq unit rotations, provide additional 
forces to Afghanistan, and prepare for other challenges. The Department 
has not only addressed these commitments, but is contributing low 
supply, high demand forces (e.g., Explosive Ordnance Disposal (EOD) 
units) to support the other services and coalition efforts. Of our 
deployed EOD teams, over 50 percent operate in support of other 
services. Additionally, over the course of 2007, the Navy provided 
12,985 Active Component Augmentees and 9,527 Mobilized Reservists in 
support of OEF and OIF globally, and filled approximately 8,000 
Individual Augmentee and 4,500 ``in-lieu-of'' requirements. The Navy 
has increased several low density, high demand specialties and units, 
such as Construction Battalions and EOD teams. In October 2007, the 
Navy commissioned its newest Construction Battalion and Construction 
Regiment, bringing them to a total of 9 active duty battalions and 3 
active duty regiments. Further, in order to relieve stress on Marines 
and their families, and to address future contingencies, the Marine 
Corps is growing the force, exceeding its 2007 target of 184,000 
Marines; the Marine Corps is on track to meet the goal of 202,000 by 
fiscal year 2011.
    Reshaping of the force is an important and evolutionary process. To 
do this, the Department is focused on three fronts: recruiting the 
right people, retaining the right people, and achieving targeted 
attrition. Recruiting objectives are focused on increasing the quality 
of the Total Force and seeking qualified Sailors to include special 
emphasis on filling the ranks of SEAL, NSW, Navy Special Operations, 
Special Warfare Combatant-Craft Crewmen, EOD, Divers, Hospital 
Corpsmen, and Women in Non-traditional Ratings (Master-at-Arms and 
Seabees). Recruiters are also focused on creating a smooth flow of 
recruits into boot camp by maintaining and mentoring a healthy pool of 
young men and women in the Delayed Entry Program.
    The Department has also implemented initiatives to increase 
visibility and incentives for medical recruitment. While we have seen 
improvement in some medical programs, such as in the Nurse Corps with 
direct accessions, numerous challenges remain in recruiting and 
retaining medical personnel. Retention challenges exist in critical 
specialties that require 3-7 years of training beyond medical school. 
In the Dental Corps, we face challenges in retaining junior officers 
between 4-7 years, and we also are experiencing high attrition rates 
for junior officer ranks in the Nurse Corps. To combat the recruiting 
challenges and continue supporting the increased demand for the OIF/
OEF, we implemented increased accession bonuses for the Nurse Corps and 
Dental Corps; funded a critical skills accession bonus for medical and 
dental school Health Professions Scholarship Program (HPSP) 
participants; increased the stipend for HPSP students, as well as 
Financial Assistance Program participants; expanded the critical skills 
wartime specialty pay for reserve component medical designators; 
recently implemented a Critical Wartime Skills Accession bonus for 
Medical and Dental Corps; and implemented a Critical Skills Retention 
bonus for clinical psychologists.
    We note that the Fiscal Year 2008 National Defense Authorization 
Act (NDAA) restricts military to civilian conversions for the medical 
community through September 30, 2012. Due to the date of enactment of 
this legislation, it is not reflected in the fiscal year 2009 
President's budget request, but the plan is now being readdressed. 
Resolution will require careful planning, and we are working closely 
with the Office of the Secretary of Defense on this matter.
    Incentive programs were a key component of our enlisted recruiting 
success in 2007. The enlistment bonus continues to be our most popular 
and effective incentive for shaping our accessions. The authority to 
pay a bonus up to $40,000 made a significant contribution to our Navy 
Special Warfare and Navy Special Operations recruiting efforts. 
Likewise, our Reserve Component success would not have been possible 
without the availability of enlistment bonuses. Extended incentive 
authorities towards some of our more specialized skill fields, 
including nuclear and aviation, will help to recruit and retain these 
critical skill sets, while renewal of accession bonuses will help to 
expand the force to newly mandated levels. The continued support of 
Congress in the creation of flexible compensation authorities affords 
the Department the tools that will help shape the force for the 21st 
Century.
    The Grow the Force mandate by the President is a long-term plan to 
restore the broad range of capabilities necessary to meet future 
challenges and mitigate global risk to national security of the United 
States. The Marine Corps will grow the force by 27,000 (from 175,000 to 
202,000) Marines over five years. This additional capacity and 
capability will enable full spectrum military operations in support of 
allies and partners as well as against potential enemies. In 2007, the 
Marine Corps added two infantry battalions, capacity to the combat 
engineer battalions and air naval gunfire liaison companies, and 
planned the training and infrastructure pieces necessary to build a 
balanced warfighting capability. The Marine Corps has achieved success 
in recruiting and maintaining quality standards. This is a remarkable 
achievement for an all volunteer force during a sustained war. The 
Marine Corps anticipates continued success in meeting recruiting and 
retention goals to achieve this planned force level. This end strength 
increase addresses more than current operations in Iraq and 
Afghanistan. It ensures that the Marine Corps will be able to deal with 
the challenges of the Long War and will reduce combat stress on Marines 
and their families by moving towards a 1:2 deployment to dwell ratio. 
Currently many Marines are on a 1:1 or less deployment to dwell ratio.
    Navy and Marine Corps Reserves continue to be vital to successfully 
fighting the GWOT and in accomplishing routine military operations. The 
Marine Corps and Navy activated, respectively, 5,505 and 5,007 
reservists to fulfill critical billets in OIF and other gaps in 
headquarters and operational units. At the close of fiscal year 2007, 
the Navy and Marine Corps Reserves end strength was 69,933 and 38,557 
respectively.
Readiness
    The Department's budget reflects a commitment to properly price and 
fund readiness to meet the demands of the Combatant Commands. For 
fiscal year 2009, the Fleet Response Plan (FRP) is funded to achieve 
``6+1''--the ability to support deployment of six carrier strike groups 
within 30 days and one additional group within 90 days. Additionally, 
the fiscal year 2009 budget funds 45 underway steaming days per quarter 
for deployed forces and 22 underway days per quarter for non-deployed 
forces. For the Marine Corps, equipment readiness accounts are focused 
on supporting the operational and equipment readiness of units engaged 
in operations in OIF. The Marine Corps has made tradeoffs in this area 
by cross-leveling equipment from units not in the fight, and while the 
force made great strides in its overall readiness to conduct 
counterinsurgency operations, this has been achieved at the expense of 
other traditional training, such as amphibious assault and jungle 
warfare.
    Carrier Waiver.--The Navy is committed to maintaining an aircraft 
carrier force of 11. However, during the 33-month period between the 
planned 2012 decommissioning of U.S.S. Enterprise and the 2015 delivery 
of the U.S.S. Gerald R. Ford, legislative relief is requested to 
temporarily reduce the carrier force to ten. Extending Enterprise to 
2015 would involve significant technical risk, challenge our manpower 
and industrial bases, and require significant resource expenditure; 
with only minor gain for the warfighter in carrier operational 
availability and significant opportunity costs in force structure and 
readiness. The Navy is adjusting carrier maintenance schedules to meet 
the FRP and ensure a responsive carrier force for the Nation during 
this proposed ten carrier period.
    Law of the Sea Convention.--It is critically important to the 
United States and our friends and allies that the seas of the world 
remain safe and open for all nations. Accordingly, the Department of 
the Navy supports U.S. accession to the Law of the Sea Convention. The 
Treaty codifies important principles of customary international law, 
such as Freedom of Navigation and rights of passage. Joining the 
Convention, with the declarations and understandings reflected in 
Senate Report 110-9 (Senate Foreign Relations Committee), will assist 
the United States to exercise its leadership role in the future 
development of open oceans law and policy. As a non-party, the United 
States does not have full access to the Convention's formal processes 
(through which over 150 nations participate in influencing future law 
of the sea developments). By providing legal certainty and stability 
for the world's largest maneuver space, the Convention furthers a core 
goal of our National Security Strategy to promote the rule of law 
around the world.
    Suppression of Unlawful Acts (SUA).--The Department supports 
expeditious U.S. ratification of the 2005 Protocol of the Convention 
for the Suppression of Unlawful Acts against the Safety of Maritime 
Navigation and the 2005 Protocol to the 1988 Protocol for the 
Suppression of Unlawful Acts against the Safety of Fixed Platforms 
Located on the Continental Shelf (``SUA Amendments''), adopted by the 
International Maritime Organization on October 14, 2005, and signed by 
the United States on February 17, 2006. The SUA Amendments 
significantly strengthen the legal regime to criminalize terrorist acts 
and combat weapons of mass destruction proliferation in the maritime 
domain making them an important component in the international campaign 
to prevent and punish such acts.
    Encroachment.--A critical readiness issue is our ability to be 
prepared to meet the full spectrum of operations that may arise 
globally. This requires that we have the ability to properly train our 
sons and daughters in a manner that effectively prepares them for the 
threats they may encounter. In order for Naval forces to be able to 
meet our operational commitments we need installations and ranges, the 
ability to continue to use them for their intended purposes, and the 
ability to augment them when necessary to respond to changing national 
defense requirements and circumstances.
    We appreciate the action taken by Congress to recognize the 
importance of protecting Naval installations from encroachment 
pressures by enacting section 2863 of the Fiscal Year 2007 National 
Defense Authorization Act that establishes prohibitions against making 
certain military airfields or facilities, including Marine Corps Air 
Station Miramar, available for use by civil aircraft. We seek your 
continued support to move forward with plans for the Outlying Landing 
Field (OLF) that is critically needed to support training requirements 
for Carrier Air Wing aircraft based at Naval Air Station Oceana and 
Naval Station Norfolk. The OLF will directly support the Department's 
ability to meet its national defense commitments under the FRP and 
provide naval aviators critical training in conditions most comparable 
to the at-sea operating environment they will face. In response to 
public comments regarding the previous site alternatives, the Navy has 
terminated the draft Supplemental Environmental Impact Statement (EIS) 
and will initiate a new EIS that examines five new site alternatives, 
three in Virginia and two in North Carolina, based upon new information 
provided by officials in those states. I ask for your continued support 
as we work with the Congress and the States of Virginia and North 
Carolina to preserve and improve the installation and range 
capabilities needed to properly train our young men and women before we 
send them into harms way.
    Marine Mammals and Active Sonar.--The most critical readiness issue 
relates to the Navy's ability to train using active sonar while 
minimizing the effect on marine mammals. One of the most challenging 
threats that our Naval forces face is modern, quiet diesel-electric 
submarines. These submarines employ state-of-the-art silencing 
technologies and other advances, such as special hull treatments, that 
make them almost undetectable with passive sonar and also reduce their 
vulnerability to detection with active sonar. A diesel-electric 
submarine so equipped can covertly operate in coastal and open ocean 
areas, blocking Navy access to combat zones and increasing United 
States vessels' vulnerability to torpedo and anti-ship missile attacks. 
Currently, over 40 countries operate more than 300 diesel-electric 
submarines worldwide, including potential adversaries in the Asia-
Pacific and Middle East areas. Naval strike groups are continuously 
deployed to these high-threat areas. Training with the use of mid-
frequency active (MFA) sonar is a vital component of pre-deployment 
training. The tactical use of MFA sonar is the best means of detecting 
potentially hostile, quiet, diesel-electric submarines. The inability 
to train effectively with active sonar literally puts the lives of 
thousands of Americans at risk.
    In January 2008, a federal district court issued an injunction 
precluding the Navy's ability to train effectively with MFA in critical 
exercises scheduled to occur in the Southern California Operating Area 
through January 2009, creating an unacceptable risk that strike groups 
may not be certified for deployment in support of world-wide 
operational and combat activities. Because the Composite Unit Training 
Exercises and the Joint Task Force Exercises off Southern California 
are critical to the ability to deploy strike groups ready for combat, 
the President concluded that continuing to train with MFA in these 
exercises is in the paramount interest of the United States and granted 
a temporary exemption from the requirements of the Coastal Zone 
Management Act for use of MFA sonar in these exercises through January 
2009. Additionally, the Council on Environmental Quality (CEQ) 
concluded that the risk that strike groups might not be certified 
constituted an emergency circumstance requiring alternative National 
Environmental Policy Act arrangements. These alternative arrangements 
were accepted by the Navy. Despite these developments, the trial court 
refused to set aside the injunction. As a result the Navy appealed the 
court's refusal to give effect to the President's and CEQ's actions by 
dissolving the injunction and the court's failure to properly tailor 
the injunction in the first place to allow the Navy to train 
effectively. On February 29, the Ninth Circuit upheld the trial court. 
Acknowledging the Chief of Naval Operations' (CNO's) concern that the 
injunction issued by the trial court in its current form will 
``unacceptably risk'' effective training and strike group 
certification, however, the Ninth Circuit also temporarily and 
partially stayed several features of the injunction. This temporary and 
partial stay should allow us to complete two training exercises this 
month, which are critical to preparing two strike groups for 
deployment.
    The Department continues to be a good steward of the environment, 
while providing the necessary training that is essential to national 
security and ensures the safety of our people. The Department is 
engaged in a comprehensive effort to ensure compliance with the 
National Environmental Policy Act, Marine Mammal Protection Act, 
Endangered Species Act, Coastal Zone Management Act, National Marine 
Sanctuaries Act, and Executive Order 12114. Twelve EISs are in 
development with associated Records of Decision (ROD) scheduled for 
issuance by the end of calendar year 2009. The Navy implements twenty-
nine protective measures developed in conjunction with the National 
Marine Fisheries Service, the Federal regulator responsible for 
oversight and implementation of the Marine Mammal Protection Act. These 
measures afford significant protection to marine mammals while 
maintaining training fidelity. The Navy has steadily increased funding 
for marine mammal research from $12.5 million in fiscal year 2004 to 
$22 million in fiscal year 2009. The Navy's financial commitment 
constitutes more that half of the world-wide funding for research on 
the effects of anthropogenic sound on marine mammals. Over the past 
several years, tremendous progress has been made in expanding the 
scientific base of knowledge, especially concerning the species 
identified as the most sensitive to mid-frequency active sonar, deep 
diving beaked whales. The Navy, working with the National Marine 
Fisheries Service, is engaged in a three-year controlled exposure study 
of sound on whales at the Navy's Atlantic Undersea Test and Evaluation 
Center in the Bahamas. This study, along with other research, 
development, test and evaluation efforts, will provide further 
information needed to understand and effectively mitigate the effects 
of active sonar on marine mammals.
                        take care of our people
    In 2007 the Department implemented a Human Capital Strategy that 
focuses on our most valuable asset, the Department's people. In the 
strategy, the Department addresses the changes in warfare, workforce, 
technologies, and processes and lays out the strategic objective to 
produce and employ the right people with the right skills to support or 
accomplish 21st Century Naval missions. The development and retention 
of quality people is vital to our continued success. The Department of 
the Navy is committed to sustaining quality of service and quality of 
life programs, including training, compensation, promotion 
opportunities, health care, housing, and reasonable operational and 
personnel tempo. The cost of manpower is the single greatest component 
in the fiscal year 2009 budget. The fiscal year 2009 budget requests 
$41.6 billion for Military Personnel and includes a 3.4 percent 
Military Personnel pay raise. This investment is critical to ensuring a 
Naval force with the highest levels of ability and character.
    Comprehensive Care.--As Secretary of Defense Gates has stated, 
``Apart from the war itself, we have no higher priority (than to take 
care of our Wounded, Ill, and Injured).'' Over the sustained combat 
operations in the GWOT, the Department has endured the loss of over 830 
Marines and 75 Sailors killed in action, and over 8,500 Marines and 600 
Sailors wounded in action. These Marines and Sailors and their 
survivors deserve the highest priority care, respect and treatment for 
their sacrifices. We must ensure our wounded warriors and families 
receive the appropriate care, training and financial support they need. 
Failing them will undermine the trust and confidence of the American 
people. Consequently, the Department of the Navy initiated a 
Comprehensive Casualty Care effort in March 2007 to ensure visibility 
of the full range of needs of service members and their family members 
and the coordination and expedient delivery of clinical and non-
clinical services throughout the continuum of care. Among the 
initiatives pursued under this effort was a Lean Six Sigma mapping of 
the casualty care process to identify areas of patient transitions, 
gaps in service, and unmet needs across key functional service areas to 
include: Medical, Pay, and Personnel, Family Support, Case Management, 
Information Technology, and the Disability Evaluation System. The 
following sections provide some specific examples of the Department's 
actions and plans for improving care for our people.
    Combat Casualty Care.--Navy Medicine provides combat casualty care 
to Navy and Marine Corps units, on Expeditionary Medical Facilities, 
aboard casualty receiving/treatment ships and hospital ships, and in 
military hospitals. Recent advances in force protection, battlefield 
medicine, combat/operational stress control, and medical evaluation 
have led to improved survival rates for wounded (approximately 97 
percent) and enhanced combat effectiveness. In September 2007 Naval 
Medical Center San Diego stood-up a Comprehensive Combat Casualty Care 
Center providing inpatient and outpatient services to all levels of 
combat casualties, including rehabilitative, mental health and 
prosthetic care. The unit is the military's first and only center for 
amputee care on the West Coast. This year the Marine Corps is 
reorganizing Medical Battalions and fielding the Family of Field 
Medical Equipment, modernizing 34 different medical systems such as the 
Traumatic Brain Injury (TBI) scanner and the Airframe First Aid Kit.
    Wounded Warrior and Safe Harbor.--In fiscal year 2007 the Marine 
Corps expanded its existing programs by establishing the Wounded 
Warrior Regiment with a Wounded Warrior Battalion on each coast to 
provide better continuity of care for wounded warriors. Specifically, 
these organizations provide wounded warriors a location to recuperate 
and transition in proximity to family and parent units. The Navy has a 
number of programs ensuring care for all wounded, ill and injured 
Sailors and their families. Those severely wounded, ill, and injured 
Sailors and their families receive non-medical case management and 
advocacy from the Navy's Safe Harbor Program. Safe Harbor provides 
assistance in dealing with personal challenges from the time of injury 
through return to duty or transition to civilian life.
    Post Traumatic Stress Disorder.--Specific improvements for post 
traumatic stress disorder include both preventive and post deployment 
care. The Marine Corps is employing Operational Stress Control and 
Readiness teams to provide early intervention, outreach, and prevention 
at the unit level in close proximity to operational missions, reducing 
stigma associated with conventional mental health care. The Navy is 
enhancing the Operational Stress Control Program and is completing 
phase two of the in-theater Behavioral Health Needs Assessment Survey 
to identify mental health needs, guide development of appropriate 
prevention and treatment programs, and ensure adequate in-theater 
mental health support. To date in fiscal year 2008, Navy Medicine 
expanded the Deployment Health Clinic (DHC) concept to a total of 17 
Centers. These DHCs logged over 30,000 visits encompassing the entire 
range of post deployment healthcare symptoms. These clinics are 
designed to be easily accessible, non-stigmatizing portals for 
effective assessment and treatment of deployment-related mental health 
issues. Three additional DHCs are planned for 2008. Specialized 
training is also being provided to the Chaplain Corps and non-mental 
health medical personnel to include mind, body and spiritual practices. 
Augmenting the ability to deliver the highest quality of Psychological 
Healthcare available, Navy Medicine committed $7 million to stand-up a 
Naval Center for the Study of Combat Stress that will support all of 
the varied and diverse mental health needs.
    Traumatic Brain Injury (TBI).--The Department is engaged in 
activities to address TBI and remains committed to the further 
expansion of TBI research and availability of services for our service 
members. Navy Medical Research Command uses new techniques to identify 
transmissibility of blast wave energy into the brain, focusing on the 
nexus between the blast wave energy transmission and the resulting 
brain pathology. Navy researchers serve on the Health Affairs Senior 
Executive Advisory Committee on TBI sensor development and coordinate 
closely with the U.S. Army Program Executive Office in the development 
of helmet mounted monitors. The National Naval Medical Center's 
Traumatic Stress and Brain Injury Program serves blast-exposed or head-
injured casualties aero-medically evacuated out of theater. Over 1,082 
blast-exposed service members have been evaluated for psychological 
health and traumatic brain injury. In May 2007, Naval Medical Center 
San Diego stood up a Traumatic Stress and Brain Injury Program, and in 
September 2007, Camp Lejeune stood up a similar program.
    Physical and Medical Evaluation Boards.--The Department refined the 
physical and medical evaluation board process to ensure timely, 
comprehensive and transparent actions balancing the rights of the 
individual and the needs of the service. Actions include upgrading the 
Council of Review Board website to provide transition services and 
links to government agencies with post-service benefits. Additional 
upgrades are underway to provide a portal for members to monitor case 
processing. The Department is also participating in the joint DOD-VA 
Disability Evaluation Pilot in the National Capital Region that is 
designed to further streamline the process and ensure a smooth 
transition to civilian life for service members leaving active duty.
    Family Readiness.--The Department remains committed to the 
readiness and resilience of Navy and Marine Corps families, including 
the spouses, children, parents, and other extended family members 
committed to caring for Sailors and Marines. To that end, the 
Department operationalized family support programs to better empower 
Sailors and Marines to effectively meet the challenges of today's 
military lifestyle. The Marine Corps is redesigning and enhancing 
family readiness programs that most directly prepare Marines and their 
families, including: Unit Family Readiness Program, Marine Corps Family 
Team Building Program, Exceptional Family Member Program, School 
Liaison Program, and Children, Youth and Teen Program. As a companion 
effort, the Marine Corps will address quality of life deficiencies at 
remote and isolated installations, expand communication connections 
between separated Marines and their families, and make needed 
improvements to quality of life facilities and equipment throughout the 
Marine Corps. The Navy increased emphasis on prevention, education, and 
counseling to Navy families undergoing frequent and often short notice 
deployments. It has created school liaison positions to work with 
school districts and Navy families to ensure teachers and other school 
officials understand the pressures and issues facing military children. 
The Navy provides brief, solution-focused clinical counseling services 
to more family members, as well as increasing home visitation services 
to new parents who have been identified as requiring parenting support. 
To better reach Individual Augmentee families who do not live near a 
military installation but who have access to a computer, the Navy has 
begun virtual Individual Augmentee Family Discussion Groups to ensure 
outreach information, referral and ongoing support.
    The Department has developed an aggressive child care expansion 
plan, adding over 4,000 new child care spaces within the next 18 
months. This expansion includes construction of new Child Development 
Centers (including facilities open 24/7), commercial contracts, and 
expanding military certified home care. Combined, these initiatives 
will reduce the waiting time for child care from 6-18 months to less 
than 3 months. To assist parents and children with the challenges of 
frequent deployments, an additional 100,000 hours of respite child care 
will be provided for families of deployed service members. In efforts 
to combat youth obesity, the Navy has implemented a new world-wide 
youth fitness initiative called ``FitFactor'' to increase youth 
interest and awareness in the importance of healthy choices in life.
    National Security Personnel System (NSPS).--The Department of the 
Navy has successfully converted 30,000 employees into NSPS, with an 
additional 30,000 scheduled to convert by 30 October 2008. The DON is 
already seeing a return on investment: an unprecedented training effort 
focused on performance management, greater communication between 
employees and supervisors, people talking about results and mission 
alignment, and increased flexibility in rewarding exceptional 
performance. While mindful of new legislative restraints, maintaining 
key human resource elements of NSPS, including pay-for-performance, is 
vital to the system's success and the Department's ability to respond 
to ever-changing national security threats.
    Safety.--Fundamental to taking care of Sailors, Marines and DON 
civilian employees is establishing a culture and environment where 
safety is an intrinsic component of all decision making, both on and 
off-duty. Safety and risk management are integrated into on and off 
duty evolutions to maximize mission readiness and to establish DON as a 
world class safety organization where no mishap is accepted as the cost 
of doing business.
    The Secretary of Defense established a goal to achieve a 75 percent 
reduction in baseline fiscal year 2002 mishap rates across DOD by the 
end of fiscal year 2008. In fiscal year 2007 the DON recorded our 
lowest number of serious operational mishaps and the lowest rate of 
serious aviation mishaps in our history.
    One particular challenge that we continue to face is loss of 
Sailors and Marines to fatal accidents on our nation's highways--111 in 
fiscal year 2007. While our rates are actually better than U.S. 
national statistics, and fiscal year 2007 was one of our best years 
ever, we find these losses untenable--we can and must do better. In 
particular, the growing popularity of sport bikes, or high powered 
racing motorcycles, represents our biggest challenge. We are 
restructuring our motorcycle training, and in partnership with the 
Motorcycle Safety Foundation, we have developed a new hands-on Sport 
Bike Rider Safety Course. We are also implementing methods and 
technology to more rapidly assess our personnel to accurately identify 
those individuals at high risk for private motor vehicle mishaps. They 
will be targeted for intervention in an effort to further reduce 
mishaps and our DON risk profile.
                     prepare for future challenges
Building a Balanced Fleet
    Today's Navy and Marine Corps must confront threats in the maritime 
domain ranging from near-peer competitors, to non-state and 
transnational actors, to rogue nations and pirates. To meet the 
challenge the fiscal year 2009 budget provides for a balanced fleet of 
ships, aircraft and expeditionary capabilities with the fighting power 
and versatility to carry out blue, green, and brown water missions on a 
global basis.
    To ensure affordability and timely delivery of capabilities will 
require improvements in the acquisition process--ensuring stable 
requirements and clarity in design criteria, better program management 
expertise, and new measures to incentivize contractors to complete 
programs on cost and within schedule, while delivering a quality 
product for military use. Military use also includes other factors such 
as habitability conditions that support quality of life, reduced 
variability of part types, and supportable logistics and sustainment. 
In addition, independent cost, schedule, and risk assessments are 
conducted and used to establish the foundation of program plans.
    The Department has launched an acquisition improvement initiative, 
planning for which has included the Secretary, Chief of Naval 
Operations (CNO) and Commandant of the Marine Corps (CMC), and which 
will enforce discipline across the Department without altering existing 
Office of the Secretary of Defense and Joint Chiefs of Staff-level 
processes. Actions comprising the acquisition improvement initiative 
include the following:
            Acquisition Governance
    Led by CNO/CMC, the requirements phase comprises three 
``requirements gates:'' (1) Approval of Initial Capabilities Document; 
(2) Approval of Analysis of Alternatives; and (3) Approval of 
Capabilities Development Document and Concept of Operations. During 
this phase the focus is on what we buy and the process ensures 
completeness and unanimity of requirements, agreed upon by top 
leadership early in the acquisition process.
    The acquisition phase, led by the Component Acquisition Executive, 
consists of three ``acquisition gates'': (1) Approval of the System 
Design Specification; (2) Approval to release the System Development 
and Demonstration Request for Proposals; and (3) A Sufficiency Review 
of the entire program. During this phase the focus is on ``how we 
buy'', emphasizing clear system design specifications, leveraging 
commonality within parts and systems, and the use of open architecture. 
During this phase CNO and CMC remain in support of the acquisition 
force to ensure stability in the requirements.
    Each ``gate review'' includes a comprehensive assessment using 
detailed metrics to determine the health of the program and ensures 
that the program is ready to proceed through the next phase of the 
acquisition process. The key benefits are (1) better integration of 
requirements and acquisition decision processes; (2) improvement of 
governance and insight into the development, establishment, and 
execution of acquisition programs; and (3) formalization of a framework 
to engage senior Naval leadership throughout the review process.
            Acquisition Workforce
    To reinvigorate the acquisition workforce the Department has 
aggressively pursued investment in several key areas. Using a model of 
our total workforce, we've identified certain imbalances and 
redundancies which Systems Commands and Program Executive Officers will 
initiate corrective action for in fiscal year 2008. Further, the 
Department will create a common business model across Systems Commands 
to allow maximum flexibility of workforce utilization while sharpening 
the skill sets of our acquisition professionals. Further, we are 
creating common templates for acquisition program leadership that will 
ensure adequate staffing of programs throughout their life cycle. 
Notably we have adjusted the programmatic leadership structure of the 
DDG 1000 and Littoral Combat ships to benefit from these common 
templates.
    Finally, to bolster our acquisition leadership, we have selected a 
Vice Admiral to serve as Principal Deputy Assistant Secretary for 
Research Development and Acquisition.
Fiscal Year 2009 Acquisition Programs
    Shipbuilding.--The fiscal year 2009 shipbuilding budget provides 
for seven new ships: one Virginia-Class (SSN-774) nuclear-powered 
attack submarine, one DDG 1000 Destroyer, two Littoral Combat Ships 
(LCS), two Dry Cargo Ammunition (T-AKE) ships and one Joint High Speed 
Vehicle (JHSV). The Navy also will procure an additional JHSV for the 
Army in fiscal year 2009. The budget also includes the next increment 
of funding for CVN-78; research and development funds for CG(X), the 
future cruiser; the first increment of funding for the Refueling 
Complex Overhaul for the U.S.S. Theodore Roosevelt (CVN-71); funding 
for an engineered refueling overhaul for an SSBN; and continued 
modernization for guided missile cruisers, guided missile destroyers, 
submarines and aircraft carriers.
    Naval Aviation.--The Department of the Navy requires a robust 
aviation capacity including attack, utility, and lift capabilities. The 
Department is in the midst of an extensive, long-term consolidation and 
recapitalization of aircraft in the Naval inventory to achieve a more 
efficient and effective warfighting force. The fiscal year 2009 budget 
requests funding for 206 aircraft. The fiscal year 2009 budget supports 
the acquisition of the F-35 Joint Strike Fighter (JSF), the EA-18G 
Growler, the MV-22B, the KC-130J, the E-2D; the MH-60, the UH-1Y and 
AH-1Z helicopters; and the continued development of the P-8A Multi-
Mission Maritime Aircraft (MMA), the CH-53K and VH-71 programs.
    The Department will continue to recapitalize our aging inventory 
with upgrades or new variants of existing aircraft where suitable and 
cost effective. For example, the Navy helicopter community is replacing 
six different aircraft with the MH-60R and MH-60S, while the Marine 
Corps is buying the UH-1Y, AH-1Z and CH-53K to replace older variants 
of those aircraft.
    Command, Control, Communications, Computers (C4).--Effective C4 
capabilities are key to ensuring that our forces have accurate 
situational understanding to enable decision superiority. The Navy and 
Marine Corps have planned several programs to deliver agile and 
interoperable network-centric capabilities to ensure success for Naval, 
Joint and Coalition forces, including naval contributions to the 
National Security Space. The Department is planning the replacement for 
the Navy Marine Corps Intranet with the Next Generation Enterprise 
Network. The Marine Corps is developing the Command and Control 
Harmonization Strategy. Capitalizing on emerging capabilities such as 
the Tactical Communications Modernization Program and the Very Small 
Aperture Terminal, the Marine Corps intends to deliver an end-to-end 
integrated, cross functional capability across the force.
    Intelligence, Surveillance and Reconnaissance (ISR).--The Navy and 
Marine Corps are in the process of reviewing current ISR capabilities 
and formulating a long-term ISR strategy. This strategy, when 
completed, will ensure the Department's current and future ISR 
capabilities are used to the fullest extent possible and will maximize 
the use of other services' and national capabilities to enhance the 
Department's variety of missions. The Marine Corps' use of Department 
of Army's unmanned aircraft system, Shadow, is an example of leveraging 
another service's capability. Shadow meets the Marine Corps 
requirements for a transportable ISR asset capable of providing 
tactical commanders with day and night, battlefield and maritime 
reconnaissance. The Navy, with unique maritime domain ISR requirements, 
is integrating manned and unmanned capabilities with the Broad Area 
Maritime Surveillance (BAMS) Unmanned Aircraft System (UAS) and the P-
8A program. The BAMS UAS will provide a persistent, multi-sensor, 
maritime intelligence, surveillance, and reconnaissance capability with 
worldwide access. Additionally, the Department of the Navy is working 
closely with the Office of the Under Secretary of the Defense for 
Intelligence to ensure the current Distributed Common Ground System--
Navy and Marine Corp family of systems meet DOD standards, share 
technology and minimize duplication.
    Maritime Domain Awareness.--The responsibility for Global Maritime 
Security lies with many departments, agencies, and organizations across 
the spectrum of our government, international partners, and industry. 
Each of these stakeholders bring a part of the solution, and taking the 
lead in establishing a global capability from those parts is one of the 
single most important new steps of the Department of the Navy. 
Protection of the global maritime domain is fundamental to our national 
security, and requires an integrated approach across the Naval forces, 
with our Federal maritime partners, with certain State and local 
authorities, and indeed with the entire global maritime community. We 
have embarked on the organizational behavior changes necessary to bring 
those disparate stakeholders together, and are investing in creation of 
an enduring operational capability for the Nation.
Infrastructure Investment
    Facilities.--The fiscal year 2009 budget requests $3.2 billion for 
military construction projects at active and reserve Navy and Marine 
Corps bases, a substantial increase over the enacted $2.3 billion in 
fiscal year 2008. Much of the funding growth is to build training and 
housing facilities to support the Marine Corps growth in end strength 
over the next five years. Both Navy and Marine Corps will sustain 
existing facilities at 90 percent of the DOD model requirement.
    Base Realignment and Closure (BRAC).--The fiscal year 2009 budget 
requests $871.5 million to continue implementation of the 2005 BRAC 
Commission recommendations. This request invests in construction 
(including planning and design) and operational movements at key 
closure and realignment locations. Fiscal year 2009 plans may require 
some adjustment to ensure consistency with the approved fiscal year 
2008 budget.
    Walter Reed National Medical Center Bethesda.--BRAC action 169 
called for closure of Walter Reed Army Medical Center, realignment of 
tertiary and complex care missions to National Naval Medical Center 
Bethesda, and establishment of Walter Reed National Military Medical 
Center Bethesda. The Department of Defense approved an expanded scope 
and acceleration of the original program. The Naval Facilities 
Engineering Command is managing the EIS for Bethesda and a ROD is 
scheduled for May 2008.
    Family and Bachelor Housing.--Privatization for housing in the 
continental United States is on its way towards completion. The 
privatization of unaccompanied housing is proceeding smoothly at our 
first pilot project in San Diego. The construction of new apartments is 
well underway with completion of the first building scheduled for 
December 2008. Moreover, the project won an industry customer service 
award in its first year of operation in recognition of the dramatic 
improvement in resident satisfaction in existing housing that was 
privatized. We have broken ground on our second pilot project in 
Hampton Roads in our effort to bring the benefits of bachelor housing 
privatization to Sailors on the East Coast. This year's budget reflects 
the continuation of the Marine Corps' quality of life initiative to 
construct additional housing to address the substantial, long-standing 
shortfall of adequate housing for single Marines. The objective is to 
provide quality bachelor housing for all sergeants and below for our 
``pre-grow the force'' end strength by fiscal year 2012 and to support 
202,000 Marines by fiscal year 2014. Our fiscal year 2009 budget 
request also includes a military construction project to replace 
bachelor housing at Naval Station San Clemente, completing elimination 
of inadequate bachelor housing in the Department.
    Wounded Warrior Housing.--The Department of the Navy completed 
inspections of all housing for wounded, ill, and injured to ensure 
quality and accessible living quarters. Annual inspections will ensure 
continued oversight by Department of the Navy leadership. In addition, 
Wounded Warrior Barracks are under construction at Camp Lejeune and 
Camp Pendleton. Both barracks will provide 100 two-person American with 
Disabilities Act compliant rooms allowing for surge capability.
    Marine Corps Relocation to Guam.--The fiscal year 2009 budget 
continues detailed studies, plans and environmental analyses for the 
U.S./Government of Japan Defense Policy Review Initiative (DPRI) to 
relocate about 8,000 Marines and their dependents from Okinawa, Japan 
to Guam by 2014. The facilities, housing, logistics and environmental 
requirements are being developed from the ground up to support mission 
requirements as well as business-case prudence. The measured investment 
in fiscal year 2009 is crucial to the five-year $10.27 billion ($4.18 
billion from the United States and $6.09 billion from the Government of 
Japan) construction program scheduled to commence in fiscal year 2010.
    Naval Station Mayport.--The Navy is preparing an EIS that examines 
several alternatives for best utilizing the facilities and capabilities 
of Naval Station Mayport after the retirement of the U.S.S. John F 
Kennedy (CV 67). The options being evaluated include: Cruiser/Destroyer 
(CRUDES) homeporting; Amphibious Assault Ship (LHD) homeporting; 
Nuclear-Powered Aircraft Carrier (CVN) capable; CVN homeporting; and 
Amphibious Ready Group (ARG) homeporting.
    Preparation of the Mayport EIS is on schedule. The draft EIS is 
scheduled for release in March 2008, with the final EIS expected in 
December 2008 and the ROD in January 2009.
Environmental Stewardship
    Energy Initiatives.--Energy efficiency is key to reducing life 
cycle costs and increasing the sustainability of installations and 
facilities. The Department has led the way in supporting the Energy 
Policy Act of 2005 (EPAct05) by adopting the Leadership in Energy and 
Environmental Design (LEED) Silver standard as a primary consideration 
for all DON military construction projects. Using the LEED Silver 
standard, new energy-efficient projects have been completed on several 
installations, including Recruit Training Center Great Lakes and Naval 
Amphibious Base Little Creek. DON also has a comprehensive energy 
program responding to the requirements of EPAct05 and Presidential 
Executive Order 13423, evidenced by an 8.85 percent reduction in fiscal 
year 2007 energy consumption and an extensive renewable energy program.
    Minimizing the overall environmental effects.--The recently-
announced Low-Impact Development (LID) policy is an example of how the 
Department is emphasizing reduction of impact to the environment. The 
goal of the policy is ``no net increase'' in the amount of nutrients, 
sediment, and storm water escaping into the watersheds surrounding 
facilities and installations. The use of cost-effective LID Best 
Management Practices such as rainwater collection systems in 
construction and renovation projects is central to achieving this goal.
    Alternative Fuels.--The Department has been a leader in the use of 
alternative fuels. The Navy and Marine Corps both reduced petroleum 
consumption in their vehicle fleets by more than 25 percent from 1999 
to 2006, and together used almost two million gallons of biodiesel in 
2006. Further gains in alternative fuel implementation will be 
supported by the Department's new Petroleum Reduction and Alternative 
Fuel Vehicle Strategy, which challenges the Navy and Marine Corps to 
build on already substantial progress to meet and exceed the 
established Federal goals contained in Executive Order 13423 and the 
Energy Independence and Security Act of 2007. We are also expanding our 
use of alternative fuels in our tactical fleet, to include ships, 
aircraft and ground vehicles. In fiscal year 2009 we will lay the 
groundwork for a testing and certification program for alternative fuel 
use. The Navy is also actively pursuing energy conservation 
initiatives, through energy conserving alterations in propulsion plants 
and conservation practices in operations.
                     management process improvement
    Complementary action to our acquisition improvement initiatives is 
our commitment to enhance process improvement across the Department of 
the Navy to increase efficiency and effectiveness and responsible use 
of resources. The Enterprise Resource Planning (ERP) program, planned 
for implementation throughout the Department, began initial 
implementation at Naval Air Systems Command in October 2007. It is an 
integrated business management system that modernizes and standardizes 
business operations and provides management visibility across the 
enterprise. The Department continues to champion the use of Lean Six 
Sigma as the primary toolset as a means toward increasing readiness and 
utilizing resources efficiently. Over 4,420 leaders have completed Lean 
Six Sigma training, and there are over 2,000 projects underway. The 
Department's Financial Improvement Program leverages ERP and 
strengthens control of financial reporting. The Marine Corps expects to 
be the first military service to achieve audit readiness.
    A major process improvement initiative to ensure that the 
Department applies fundamental business precepts to its management is 
the Secretary of the Navy's Monthly Review (SMR). The SMR is a senior 
leadership forum, involving CNO, CMC and Assistant Secretaries, 
designed to afford greater transparency across the Department and set 
into motion actions that garner maximum effectiveness and efficiency 
for the Department. The SMR reviews a portfolio of the bulk of 
Department activities and programs involving manpower, readiness, 
acquisition, infrastructure, etc. Using Lean Six Sigma tools and other 
business tools, this forum reviews the most urgent issues and discusses 
and implements appropriate solutions. Ultimately, this monthly 
interaction serves as a means to synchronize the Department's actions 
to comprehensively address complex problems, accomplish strategic 
objectives, and better position for challenges in the future.
    The Department will incorporate the Chief Management Officer (CMO) 
into the Secretariat in fiscal year 2008. The CMO will have 
responsibility for improving Department business operations to carry 
out objectives. These initiatives are all steps to make process 
improvement a way of thinking in carrying out daily business throughout 
the organization.
                               conclusion
    Thank you for this opportunity to report to you on the Department 
of the Navy. I provide the fiscal year 2009 budget to you and ask for 
your support for this plan that will enable the Department to prevail 
in GWOT, take care of our people and prepare for future challenges. The 
uniformed men and women of the Department of the Navy, and our civilian 
workforce, depend on our collective support and leadership. I 
appreciate the opportunity to set forth the President's fiscal year 
2009 budget and look forward to working with you in furtherance of our 
maritime capabilities and our national security.

    Senator Inouye. Mr. Chief of Naval Operations, do you wish 
to testify?
STATEMENT OF ADMIRAL GARY ROUGHEAD, CHIEF OF NAVAL 
            OPERATIONS
    Admiral Roughead. Chairman Inouye, Senator Stevens, 
distinguished members of the subcommittee. On behalf of our 
600,000 sailors, Navy civilians, and families, it's an honor to 
appear before you today. And together, with Secretary Winter 
and General Conway, I'm privileged to be part of this 
leadership team that provides for our Nation's safety, 
security, and prosperity.
    Today, your Navy stands ready with the agility, the 
flexibility, and the competence to do what no other Navy in the 
world can do. Three weeks ago, we successfully and temporarily 
converted a portion of our Sea-based Ballistic Missile Defense 
Program to engage a failing satellite. Sea-based ballistic 
missile defense is here, it is real, and it works, but that is 
only a part of what your Navy delivers to our Nation.
    We are exercising our new maritime strategy every day, a 
strategy that is more than just a glossy brochure. Our carriers 
are projecting power in the Arabian Gulf, our destroyers are 
demonstrating our resolve in the Mediterranean, an amphibious 
ship is engaged in counterpiracy operations on the east coast 
of Africa, and another is delivering humanitarian assistance on 
the west coast of that continent, our frigates are intercepting 
drug traffickers in the Caribbean Sea, and our Riverine Forces 
are patrolling vital infrastructure on the Euphrates River in 
Iraq, and our submarines patrol silently around the globe. We 
have 118 ships and over 58,000 people on deployment, out and 
about, doing the work of the Nation. But as you so well know, 
our operations come at a cost to our people, current readiness, 
and the future fleet, those are my three focus areas.
    Our people, our sailors, marines, and their families know 
they have your support. We must continue to invest in their 
futures, and in the young men and women of America, who will 
follow in their wake. In the context of this generational war, 
it is imperative that we continue to care for our wounded 
warriors and support the healthcare needs of all of our sailors 
and Navy civilians. Likewise, your support for the critical 
skills, re-enlistment bonuses, has enabled us to retain the 
sailors we need. Supporting our future force cannot be done 
without readiness to fight today.
    To this end, quality shore installations, responsive depot-
level maintenance facilities, an unfettered ability to train 
responsibly are necessities. Where area access and shore 
support is denied, the Commandant and I have been moving 
forward together with a sea-basing alternative. These elements 
are essential to support our fleet response plan, which has 
enabled us to meet requirements and will sustain us through the 
requested temporary carrier force level adjustment.
    Of my three focus areas, building tomorrow's Navy to be a 
balanced, appropriately sized force, is the most immediate 
imperative and challenge. Fiscal realities, however, have led 
us to assume more risk in ship building, ship operations, and 
weapons. Achieving the 313 ship floor, at current funding 
levels, will require us to improve processes, collaborate with 
industry, and make difficult decisions in the near term.
    I am pleased that the first two DDG 1000 contracts have 
been awarded. Our surface combatants are an essential element 
of our force, and it is important that we do not raid the 
combatant line as we build to 313 ships. I remain strongly 
committed to funding those programs that provide critical 
capabilities to our forces. There is no substitute for the 
littoral combat ship in closing the littoral capability gap. 
Current F/A-18 Hornets are needed to swage a 2016 strike 
fighter shortfall. Surface combatant superiority will be 
maintained through DDG 51 modernization. Multimission maritime 
aircraft will recapitalize our maritime patrol, antisubmarine 
warfare capabilities. And sea-based ballistic missile defense 
will ensure future theater and national defense and enable 
access for our joint forces.
    These critical programs for our future fleet require 
appropriate, disciplined investments now. The 2009 budget and 
its associated force-structure plans will meet our current 
challenges with a moderate degree of risk. Clearly, we have 
many challenges, of which building tomorrow's fleet is the 
greatest, but with these challenges is our opportunity to have 
a balanced and global fleet, which will defend the Nation and 
assure our prosperity for generations to come.

                           PREPARED STATEMENT

    On behalf of our sailors, our Navy civilians, and our 
families, thank you again for the opportunity to appear before 
you today, and thank you for your support of what we do today 
and what we will do tomorrow. And I look forward to your 
questions.
    Senator Inouye. Thank you very much.
    [The statement follows:]
              Prepared Statement of Admiral Gary Roughead
                              introduction
    Chairman Inouye, Senator Stevens, and members of the Committee, it 
is an honor to appear before you today representing the nearly 600,000 
men and women, Sailors and civilians of our Navy. In 2007, the Navy 
answered all bells. Surge and rotational expeditionary forces performed 
brilliantly and we responded to global contingencies and requirements. 
The fiscal year 2009 budget and its associated force structure plans 
represent the capabilities needed to meet current challenges with a 
moderate degree of risk. I appreciate your continued support as our 
Navy defends our nation and our vital national interests.
    In 2007, the Navy, Marine Corps, and Coast Guard released the 
Cooperative Strategy for 21st Century Seapower. The strategy represents 
unprecedented collaboration among the three Services. It also 
incorporates input from American citizens obtained through a series of 
``Conversations with the Country'' that included the maritime Services, 
business and academic leaders, and the general public.
    The maritime strategy is aligned with the President's National 
Strategy for Maritime Security and the objectives articulated in the 
National Security Strategy, the National Defense Strategy, and the 
National Military Strategy. It recognizes that the maritime domain is 
vital to national security and prosperity. Nearly three-quarters of the 
Earth's surface is water; 80 percent of the world's population lives on 
or near coastlines; and 90 percent of the world's trade, including two-
thirds of the world's petroleum, moves on the oceans to market. The 
oceans connect us to populations around the world and our Navy's 
presence and active engagement is vital to our collective security.
    In addition to the Navy's engagement in Iraq and Afghanistan, 
international military, political, and economic events beyond those 
borders have direct and indirect implications for the Navy. Examples 
include China's rapid build up of a blue water navy and their 
development of cyber and space warfighting capabilities. Russia's first 
Mediterranean deployment in 15 years and increased defense spending 
demonstrate their desire to emerge as a global naval power. North 
Korea's long-range ballistic missile program and their missile 
proliferation history reinforce the need for a credible, forward 
deployed ballistic missile defense capability. Militaries in Central 
and South American seek aircraft and submarines to back their regional 
and international objectives. Iran's confrontational activities at sea 
this past January, when the USS PORT ROYAL, USS HOPPER, and USS 
INGRAHAM encountered five small Iranian boats operating provocatively 
in the Strait of Hormuz, heightened tensions. Conflict is likely to 
continue into the future and the Navy's global commitments are likely 
to increase. As U.S. ground forces reset, reconstitute, and revitalize, 
the Navy will remain on station to respond to threats and crises.
    The new maritime strategy recognizes the many existing and 
potential challenges to national security and prosperity. To address 
these challenges, the strategy articulates six core capabilities our 
maritime Services provide: forward presence, deterrence, sea control, 
power projection, maritime security, and humanitarian assistance and 
disaster response (HA/DR). The first four capabilities are paramount 
because they enable the defense of our nation and its interests. 
Forward presence, deterrence, sea control, and power projection must 
remain the cornerstones of what makes our Navy a dominant global force.
    The Navy will continue to enhance cooperation with existing and 
emerging partners and build bridges of trust among the international 
community. Proactive global involvement is a strategic imperative for 
the Navy and our nation, since trust cannot be surged in times of 
crisis.
    Execution of the maritime strategy is already underway in current 
operations. As we plan and resource for the future, the maritime 
strategy will guide our efforts. The execution of our current readiness 
and force structure plans faces many challenges, but affordability is 
the most pressing. I refuse to cede our technological advantage to 
competitors; however current readiness, manpower, and escalating 
procurement costs make pacing the threat exceptionally difficult. We 
will continue to improve processes, work with industry, and maximize 
cost saving initiatives. Stable procurement plans must be affordable 
and realistic to deliver the balanced future Fleet. While I am 
satisfied that the force structure plans deliver required capabilities, 
the balance among capability, affordability, and executability in these 
plans is not optimal. This imbalance has the potential to increase 
significantly warfighting, personnel, and force structure risk in the 
future.
    Our operations, people, and equipment continue to serve our nation 
well, but it comes at a significant cost. It is my duty as CNO to 
ensure our Navy is always ready to answer our nation's call anytime, 
anywhere, now and in the future. This duty shapes my priorities and 
will influence the decisions and recommendations I will make regarding 
the future of our Navy.
                    priorities for fiscal year 2009
    My vision for the Navy is that we remain the preeminent maritime 
power, providing our country a naval expeditionary force committed to 
global security and prosperity. We will defend our homeland and our 
nation's vital interests around the world. We will prevent war, 
dominate any threat, and decisively defeat any adversary. The Navy will 
remain a powerful component of Joint warfare by exploiting cutting edge 
technology and cooperating closely with the other Services, the 
interagency community, allies, and international partners. We will 
remain a superbly trained and led team of diverse Sailors and 
civilians, who are grounded in our warfighting ethos, core values, and 
commitment to mission readiness and accomplishment.
    To achieve this vision, the Navy must address existing and emerging 
challenges and create new opportunities. My priorities are to: Build 
tomorrow's Navy, remain ready to fight today, and develop and support 
our Sailors and Navy civilians.
    I will demand that we accurately articulate requirements and remain 
disciplined in our processes. Achieving the right balance within and 
across these focus areas will provide dominant seapower for our nation, 
today and tomorrow.
Building Tomorrow's Navy
    Our Fleet must have the right balance of capability and the 
capacity. Three hundred thirteen ships represent the minimum force 
necessary to provide the global reach, persistent presence, and 
strategic, operational, and tactical effects. Our fiscal year 2009 
budget requests seven new ships: two LCS, one DDG 1000, one SSN, two T-
AKE, and one JHSV, and 47 new ships over the Future Years Defense Plan 
(FYDP) (fiscal year 2009-2013). I support a stable shipbuilding plan 
that provides an affordable, balanced force and preserves our nation's 
industrial base. I intend to develop further our Navy's relationship 
with industry to reinforce our commitment to a stable shipbuilding 
plan.
    As we pursue operational capability at reduced cost, we take into 
account several industrial factors. Level loading of ship and aircraft 
procurements help sustain appropriate employment levels, retain skills, 
and promote a healthy U.S. shipbuilding industrial base. Common hull 
forms, common components, and repeat builds of ships and aircraft that 
permit longer production runs also reduce construction costs. Our 
Navy's shipbuilding plans incorporate open architecture for hardware 
and software systems and they increase the use of system modularity. 
These initiatives reduce the cost of maintenance and system upgrades, 
and keep the Navy's Fleet in service longer.
    I seek your support for the following initiatives and programs:
            Aircraft Carrier Force Structure
    The Navy is committed fully to maintaining an aircraft carrier 
force of 11. During the 33-month period between the planned 2012 
decommissioning of USS ENTERPRISE and the 2015 delivery of USS GERALD 
FORD, however, legislative relief is requested to temporarily reduce 
the carrier force to 10. Extending ENTERPRISE to 2015 involves 
significant technical risk, challenges manpower and industrial bases, 
and requires expenditures in excess of two billion dollars. Extending 
ENTERPRISE would result in only a minor gain in carrier operational 
availability and adversely impact carrier maintenance periods and 
operational availability in future years. We are adjusting carrier 
maintenance schedules to support the Fleet Response Plan (FRP) and 
ensure a responsive carrier force for the nation during this proposed 
10-carrier period. I urge your support for this legislative proposal.
            Littoral Combat Ship (LCS)
    LCS fills critical warfighting requirements. It offers speed, 
draft, and modularity that no other ship offers. USS FREEDOM (LCS-1) 
and USS INDEPENDENCE (LCS-2) enter service soon and their performance 
at sea will enable us to decide on the appropriate acquisition strategy 
for the class. Controlling and reducing LCS costs are key to an 
affordable shipbuilding plan and we have already improved management 
oversight, implemented stricter cost controls, and incorporated 
selective contract restructuring to ensure delivery on a realistic 
schedule. Although recent changes to the LCS program resulted in the 
reduction of 13 ships across the FYDP, I remain committed to procuring 
55 LCS by fiscal year 2023. I appreciate your continued support for 
this important ship class, including our fiscal year 2009 request for 
$1.47 billion for procurement of two additional ships and associated 
modules and continued research and development (R&D).
            Joint Strike Fighter (JSF)
    The increased operational tempo (OPTEMPO) of our legacy aircraft is 
consuming service life at an accelerated rate. The recent groundings of 
high demand P-3 aircraft highlight the need to bring the next 
generation of aircraft in service and retire our aging aircraft. The 
JSF provides expanded capability that will meet the needs of our Navy, 
Joint Forces, and international partners. Because of the high OPTEMPO 
of the current strike aircraft fleet, and despite JSF's initial 
operational capability (IOC) and delivery in 2015, we anticipate a 
shortfall of strike aircraft from 2016-2025. Further delays in JSF will 
exacerbate this strike fighter gap. Navy's fiscal year 2009 investment 
of $3.4 billion includes procurement of eight aircraft and continued 
R&D for aircraft and engine development.
            CG(X)
    The next generation Guided Missile Cruiser CG(X) will be a highly 
capable major surface combatant tailored for Air and Missile Defense. 
CG(X) will provide maritime dominance, independent command and control, 
and forward presence. It will operate as an integral unit of Joint and 
Combined Forces. The CG(X) design and development program will feature 
revolutionary acquisition and spiral development practices that 
incorporate advanced technologies and next generation engineering 
systems. By replacing the TICONDEROGA (CG 47) class of ships at the end 
of its 35-year service life, CG(X) capitalizes on the developments made 
through DDG Modernization and DDG-1000. We are conducting a rigorous 
analysis to examine alternatives for CG(X) consistent with the National 
Defense Authorization Act requirement for nuclear power. Our fiscal 
year 2009 R&D request for $370 million will support CG(X) and 
associated radar development.
            DDG 1000
    Congressional approval of split funding for the dual lead DDG 1000 
ships supports an acquisition approach that motivates cooperative 
completion of detail design. Collaboration between Northrop Grumman 
Ship Systems and Bath Iron Works during the detail design process has 
enabled these shipyards to produce the two lead ships simultaneously. 
Consequently, the DDG 1000 detail design will be more mature prior to 
start of construction than any previous shipbuilding program. Our 
budget request in fiscal year 2009 will procure the third ship of the 
class.
            Ballistic Missile Defense (BMD)
    The increasing development and proliferation of ballistic missiles 
can threaten the homeland and our friends and allies. Ballistic 
missiles can also impede our military operations. Maritime ballistic 
missile defense provides protection for forward-deployed joint forces 
and regional allies while contributing to the larger defense of the 
United States through the Ballistic Missile Defense System (BMDS). 
Maritime ballistic missile defense directly contributes to the Navy's 
core capability of deterrence, and enables our core capabilities of 
power projection and sea control. The Aegis BMD directorate of the 
Missile Defense Agency has developed the Navy's BMD capability which is 
installed on 17 ships including three cruisers and 14 guided missile 
destroyers with installations continuing in 2008. These Navy surface 
ships support the BMDS by cueing ground-based sensors and intercepting 
Short to Intermediate Range Ballistic Missiles with ship-based 
interceptors (SM-3 missiles). The Near Term Sea-Based Terminal Program 
provides the ability to engage a limited set of Short Range Ballistic 
Missiles (SRBMs) with modified SM-2 Block IV missiles. The Navy will 
continue to work closely with the Missile Defense Agency to deliver 
improved capability and capacity to defend against this proliferating 
threat. While development and procurement funding is covered under the 
Missile Defense Agency budget, Navy has committed $16.5 million in 
fiscal year 2009 for operations and sustainment of Aegis BMD systems.
            Navy Networks
    Afloat and ashore networks enable warfighting command and control 
capability. Data, hardware, and applications must be arranged in a way 
that enables rapid upgrades to accommodate exponential increases in 
demand. Incorporation of open architecture and common computing 
environment in our networks will require us to redesign network 
architecture to free us from proprietary control. Open architecture 
will drive us to commonality and standardization, introduce 
efficiencies, promote better data protection, and network security. It 
will also allow our future war fighters to fight collaboratively and 
more effectively.
    The first step in achieving this new network architecture is 
putting it to sea. The Consolidated Afloat Networks and Enterprise 
Services (CANES) system achieves an open, agile, flexible and 
affordable network architecture that will move us forward. CANES 
embraces cross-domain solutions that enable enhanced movement of data. 
It is a revolutionary change in our information technology 
infrastructure and it is absolutely vital for us to excel in 21st 
century warfare. $21.6 million is aligned to CANES in the fiscal year 
2009 budget request, all of which is redirected from existing budget 
lines.
            Research and Development
    Science and Technology (S&T) give the Navy warfighting advantage. 
Last year the Secretary of the Navy, the Commandant of the Marine 
Corps, and my predecessor completed and published a combined Naval S&T 
strategy that ensures our investments accomplish the vision and goals 
of the Navy and Marine Corps. Selecting research for future Naval force 
capabilities must be balanced with fiscal realities. The S&T strategy 
identifies thirteen research focus areas and sets high-level objectives 
that guide investment decisions. S&T investments present a balance 
between applied science, focused on near term challenges, and basic 
research that advances the frontiers of science. We aggressively focus 
on transitioning S&T into programs of record and push these programs of 
record out to the Fleet through our Future Naval Capabilities program 
at the Office of Naval Research (ONR). The fiscal year 2009 budget 
requests $1.8 billion for Navy's S&T programs, an increase of 6 percent 
over the requested fiscal year 2008 level.
Ready to Fight Today
    Maintaining warfighting readiness demands a Navy that is agile, 
capable, and ready. As operational demands and Joint Force posture in 
the Middle East subside, I expect the Navy's posture, positioning, and 
OPTEMPO to increase, not decrease. OPTEMPO, as expressed in terms of 
steaming days, reflects the underway time of our conventionally powered 
ships. OEF/OIF and additional global commitments have caused a 
significant difference between budgeted and actual steaming days. The 
Navy has funded this difference with war supplemental funding. Trends 
indicate that anticipated operational requirements will continue to 
exceed peacetime levels in fiscal year 2009. Additionally, increased 
OPTEMPO drives accelerated force structure replacement and higher 
maintenance and manpower costs that must be funded.
    As the nation's strategic reserve, the Navy must be ready to 
generate persistent seapower anywhere in the world. The Navy must also 
establish and evolve international relationships to increase security 
and achieve common interests in the maritime domain.
    We generate forces for the current fight and employ our Navy much 
differently than in years past. We simultaneously provide ready naval 
forces and personnel for Joint Force Commanders, sustain forward 
presence, fulfill commitments to allies, and respond to increasing 
demands in regions where we have not routinely operated, specifically 
in South America and Africa.
    The Fleet Response Plan (FRP) has enhanced our ability to meet 
COCOM requests for forces for the last six years. FRP provides Naval 
forces that are well-maintained, properly manned, and appropriately 
trained to deploy for forward presence and surge missions. FRP 
increases operational availability and generates more forward presence 
and surge capability on short notice than was possible in the past. The 
unscheduled deployment of a second carrier to the Middle East in 
January 2007 is an example of how FRP provides the nation with options 
to defend its vital interests. FRP also allows the Navy to respond to 
global events more robustly while maintaining a structured, deliberate 
process that ensures continuous availability of trained, ready Navy 
forces.
    Balancing capacity and capability across the spectrum of warfare is 
essential. The challenge will be maintaining dominance in traditional 
roles while meeting existing and emerging threats in asymmetric and 
irregular warfare. My goal is to influence the entire range of military 
operations from large scale conflict to maritime security and HA/DR. 
Areas of particular interest to us are:
            Anti-Submarine Warfare (ASW): Sonar--The Key ASW Enabler
    Submarines remain an immediate threat and their roles and lethality 
are increasing. More countries are buying submarines; some are building 
anti-access strategies around them. Maintaining the ability to detect, 
locate, track, and destroy submarines is essential and our active sonar 
systems, particularly medium frequency active (MFA) sonar, are the key 
enablers.
    The Navy's use of sonar is being challenged in federal court by 
various lawsuits which seek to prohibit or severely limit it during 
vital combat certification exercises, such as those conducted in our 
Southern California operating areas. In more than 40 years of sonar use 
in Southern California waters, not a single injury to marine mammals 
has been linked to sonar. The Navy has worked closely with the National 
Marine Fisheries Service (NMFS) to establish effective, science-based 
mitigation measures. By implementing these measures NMFS does not 
expect adverse population level effects for any marine mammal 
populations during Fleet training exercises scheduled in Southern 
California in 2008. MFA sonar provides a robust and absolutely vital 
capability to detect submarine threats. Limiting our ability to train 
and exercise with MFA sonar will degrade operational readiness and 
place our forces at risk.
    Our measures provide an appropriate balance between good 
stewardship of the environment and preparing our forces for deployment 
and combat operations. Our Sailors must be trained to the best of their 
abilities with all of the technological tools available to fight and 
win. It is vital that our Navy be allowed to train and exercise with 
MFA sonar.
            Intelligence
    Our Navy provides a vital intelligence, surveillance, and 
reconnaissance capability around the globe. These capabilities produce 
warning and awareness in support of the planning and execution of 
maritime and joint operations. We are expanding our intelligence 
capability through development of trained human intelligence (HUMINT) 
personnel, investment in operational intelligence at our Maritime 
Operation Centers, and expanded synchronization with theater, joint, 
and national intelligence capabilities.
            Maritime Domain Awareness
    Maritime security supports the free flow of commerce for all 
nations. Maritime Domain Awareness is knowing what is moving below, on, 
and above the sea. Without a high level of Maritime Domain Awareness 
the free flow of commerce is jeopardized. The goal of Maritime Domain 
Awareness is to establish a level of security regarding vessels 
approaching our coastlines, while not infringing upon each nation's 
sovereignty or sharing inappropriate information.
    In partnership with the Coast Guard we established the Office of 
Global Maritime Situational Awareness (GMSA). GMSA works with the 
Office of Global Maritime Intelligence Integration in developing the 
national maritime picture. The first spiral of Maritime Domain 
Awareness capability arrives in the Central Command and Pacific Command 
in August 2008 with later spirals in the Atlantic and Caribbean.
            Seabasing
    Seabasing represents a critical warfighting capability. It will 
assure access to areas where U.S. military forces are denied basing or 
support facilities. In the near term, our amphibious and prepositioned 
ships (including MPF(F)) are the key ships in the seabase. They provide 
the required lift for the Marine Corps across the range of military 
operations. These ships and Marines, and the defensive and strike 
capabilities of our surface combatants and aircraft, provide 
operational maneuver and assured access for the force while 
significantly reducing our footprint ashore.
    The Navy is exploring innovative operational concepts combining 
seabasing with adaptive force packaging that will further support 
national security policy and the Combatant Commanders' objectives 
worldwide. Our 30-Year Shipbuilding Plan provides for seabasing that 
covers the spectrum of warfare from Joint Forcible Entry to persistent 
and cooperative Theater Security Cooperation.
    Future Joint Sea Basing requirements are still being defined but 
will be significantly greater than today's Navy and Marine Corps 
warfighting capabilities. The next generation long range heavy lift 
aircraft, joint logistics support system, intra-theater lift and sea 
connectors will provide these future capabilities.
            Shore Installations
    Our shore installations are extensions of our warfighting 
capabilities and among our most complex systems. Our installations must 
be ready to deliver scalable, agile, and adaptive capabilities to meet 
the requirements of our Fleet, Sailors, and families. We must reverse 
our historical trend of underinvestment in our shore establishment. I 
will leverage and expand upon the successes of our Navy Ashore Vision 
2030 and enhance the linkage between our installations, our 
warfighters, mission accomplishment, and quality of service.
    In the past, we accepted significant risk in our shore 
establishment to adequately fund Fleet readiness. As a result, the 
condition, capability, and current and future readiness of our shore 
installations degraded to an unacceptable level by industry standards. 
I directed the implementation of a systematic and consistent approach 
to assess the material condition of our shore establishments and 
develop a comprehensive investment strategy to arrest and reverse the 
decline of our shore establishment.
    We will take advantage of every opportunity to leverage the joint 
capabilities we share with other Services and the capabilities of the 
supporting communities where we work and live. The power of this 
leverage is highlighted in our new Public-Private Venture Bachelor 
Quarters at San Diego and Norfolk. With the authorities granted by 
Congress and very progressive private partners, we provide our Sailors 
the best housing I have seen during my naval career. These quarters 
will have a dramatic impact on Sailors' decisions to reenlist.
    We owe our Sailors, their families and our civilian workforce, who 
selflessly serve our Nation, world-class facilities and services to 
enhance their productivity and effectiveness and to motivate them to 
remain in the Navy. The decline in the shore infrastructure must be 
reversed by a prudent review of current capacity and a forward leaning 
investment strategy that defines our shore footprint for the 
foreseeable future. The shore establishment is a critical system for 
the Navy and provides the foundation for our training, manning, and 
equipping. It is imperative we invest and sustain our shore 
establishment at the right level to ensure a ready, mobile, and capable 
Navy.
            Depot Level Maintenance
    The increased OPTEMPO of our ships and aircraft in combat 
operations elevates the importance of performing timely depot level 
maintenance. Depot level maintenance ensures continued readiness and 
the safety of our men and women operating our ships and aircraft. 
Adequate funding for depot level maintenance ensures we do not incur 
unnecessary risk by extending our ships and aircraft well past their 
periodicity of maintenance. In addition to the challenges of 
maintaining our ships and aircraft, the capacity of the industrial base 
remains challenging. Consistent, long term agreements for the efficient 
use of shipyards are necessary to keep our ships and aircraft in the 
highest states of readiness.
            United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our armed forces. It directly supports our National 
Security Strategy. I believe strongly that the Convention furthers our 
national security interests. Our maritime security efforts necessitate 
that we become a party to the Law of the Sea Convention, the bedrock 
legal instrument in the maritime domain, to which 154 nations are 
party. Our current non-party status constrains our efforts to develop 
enduring maritime partnerships. It inhibits our efforts to expand the 
Proliferation Security Initiative and elevates the level of risk for 
our Sailors as they undertake operations to preserve navigation rights 
and freedoms, particularly in areas such as the Strait of Hormuz and 
Arabian Gulf, and the East and South China Seas. Accession to the Law 
of the Sea Convention is a priority for our Navy.
Developing and Supporting Our Sailors and Navy Civilians
    Our talented and dedicated Sailors and Navy civilians are 
absolutely essential to our maritime dominance. Attracting, recruiting, 
and retaining in a competitive workplace is increasingly more 
expensive. We must devote adequate resources and shape our policies to 
ensure our people are personally and professionally fulfilled in their 
service to our nation. We have identified a steady-state force level of 
322,000 AC/68,000 RC end strength as the optimum target for our 
projected force structure. It is critical that future funding sustains 
this level.
    Recruiting, developing, and retaining diverse and highly capable 
men and women are imperatives. The Navy must address the changing 
national demographic to remain competitive in today's employment 
market. Only three out of ten high school graduates meet the minimum 
criteria for military service. The propensity to serve is declining 
among youth and more often influencers of these youth, such as parents 
and teachers, are advising against military service.
    ``Millennials'' are the generation of youth currently entering the 
workplace and they comprise 43 percent of our Navy. Born into a 
globalized world saturated with information and technology, Millennials 
are more accomplished for their age than previous generations. They are 
a technology-savvy and cyber-connected group who may find the 
military's hierarchical command and control structure contradictory to 
the flat social networks they are used to navigating. The different 
paradigm under which this generation views the world and the workplace 
has implications for how the Navy attracts, recruits, and retains top 
talent. Additionally, to better meet the needs of the U.S. Marine 
Corps, we must increase the through-put at the U.S. Naval Academy. I 
urge your support of our legislative proposal to increase the number of 
Midshipmen at the Naval Academy.
    The Strategy for Our People ensures we have the best and brightest 
on our team. The strategy outlines six goals for achieving a total Navy 
force of Sailors and civilians that is the right size and possesses the 
right skills to best meet the needs of the Navy. These goals are: 
capability-driven manpower, a competency-based workforce, effective 
total force, diversity, being competitive in the marketplace, and being 
agile, effective, and cost-efficient. Many of the efforts currently 
underway in support of the strategy are discussed in further detail 
below.
            Recruiting Initiatives
    The Navy Recruiting Command is relentless in its pursuit of 
attracting the best young men and women in America to serve in our 
Navy. Recruiting priorities are currently focused on attracting 
personnel for the Naval Special Warfare/Naval Special Operations, 
nuclear power, medical, and chaplain communities. Recruiting Command is 
constantly searching for new ways to recruit America's talent. For 
example, the Medical Leads Assistance Program employs Navy officers as 
ambassadors for generating interest in Navy Medicine. In the NSW and 
Naval Special Operations communities, we provide mentors for recruits 
before enlistment and during training with the two-fold goal of 
improving recruiting results and ensuring applicant success at Recruit 
Training Center (RTC) and Basic Underwater Demolition/SEAL training 
(BUD/S).
    To recruit nuclear-trained officers and chaplains, we encourage our 
personnel to share their story with the American public. Through visits 
to college campuses and career fairs, nuclear-trained officers share 
their experiences of operating nuclear reactors on board carriers and 
submarines. These visits have improved short-term Nuclear Propulsion 
Officer Candidate recruiting and our officers will continue to 
cultivate personal relationships with faculty and university 
representatives to ensure long-term program health. Through the Reserve 
Officer Goals Enhance Recruitment (ROGER) program, Reserve chaplains 
use their network of ministerial relationships to share their 
experiences as Navy chaplains and provide information on how to become 
active or Reserve chaplain candidates.
    Over the past five years, Navy Reserve Junior Officer recruitment 
has declined. To encourage young officers to stay Navy, we authorized a 
mobilization deferment policy for officers who affiliate with the Navy 
Reserve within the first year after leaving active duty. Combined with 
a $10,000 affiliation bonus, we have had some success in improving the 
recruitment of Reserve officers, but this market remains a challenge. 
We established a Reserve Retention and Recruiting Working Group to 
identify near-term and long-term solutions that will achieve 
sustainable success.
            Development Initiatives
    Our people deserve personally and professionally fulfilling careers 
that provide continuous opportunities for development. We offer 
multiple programs and we partner with outside organizations so that 
Sailors and Navy civilians can pursue job-relevant training, continuing 
education, and personal enrichment. One such program is a pilot called 
``Accelerate to Excellence.'' This program provides enlisted recruits 
in specific ratings the opportunity to earn an Associate's Degree at a 
community college while undergoing specialized training after boot 
camp.
    The Navy also provides developmental opportunities for officers and 
enlisted personnel through Professional Military Education (PME). PME 
is designed to prepare leaders for challenges at the tactical, 
operational, and strategic levels of war. The PME continuum integrates 
advanced education, Navy-specific PME, Joint PME (JPME) and leadership 
development in a holistic manner. The competencies, professional 
knowledge, and critical thinking skills Sailors obtain from PME prepare 
them for leadership and the effective execution of naval missions. PME 
graduates are 21st century leaders who possess the capacity to think 
through uncertainty; develop innovative concepts, capabilities, and 
strategies; fully exploit advanced technologies, systems, and 
platforms; understand cultural/regional issues; and conduct operations 
as part of the Joint force.
    Enrollment in JPME courses is up: JPME Phase I in-residence 
enrollment is up 5 percent; JPME Phase I non-residence enrollment is up 
15 percent; JPME Phase II enrollment is up 50 percent. Congressional 
support to allow Phase II JPME to be taught in a non-residency status 
would enable Sailors to pursue professional development while 
continuing their current assignments.
    In addition to JPME courses, the Navy supports Joint training 
through the Navy Continuous Training Environment (NCTE). NCTE is a 
distributed and simulated Joint and coalition training environment that 
replicates real-life operations. NCTE integrates into the Joint 
National Training Capability (JNTC) training architecture and satisfies 
COCOM requirements at the operational and tactical level.
            Retention Initiatives
    As the Navy approaches a steady-state force level of 322,000 AC/
68,000 RC end strength, attracting and retaining Sailors with the right 
skills is critical. In fiscal year 2008, the goal is to shift our focus 
beyond numbers to ensure we have the right skill sets in the right 
billets at the right time. This approach increases opportunities for 
advancement and promotion by assigning personnel to positions that 
utilize and enhance their talents, and emphasizes continued 
professional growth and development in stages that align to career 
milestones.
    The Navy is also addressing retention through Active Component to 
Reserve Component (AC2RC) transition. This program is changing the 
existing paradigm under which a Sailor leaves the Navy at the end of 
their obligated service and is instead promoting service in the Reserve 
Component as an alternative to complete detachment. The Perform to 
Serve (PTS) program screens Zone A Sailors, who are at the end of a 
four to six year enlistment for reenlistment within their rating or for 
rating conversion. The Manpower, Personnel, Training, and Education 
(MPTE) enterprise is adding RC affiliation to Sailors' PTS options at 
the end of Zone A enlistment. Additionally, RC affiliation will become 
increasingly seamless as we shift responsibility from Navy Recruiting 
Command to Navy Personnel Command.
            Taking Care of Families
    When a Sailor or civilian joins the Navy team our commitment 
extends to their family. Mission success depends upon the individual 
readiness of our people and on the preparedness of their families. 
Supporting Navy families is critical to mission success.
    Keeping families ready and prepared alleviates some of the stress 
associated with deployments. Our continued commitment to programs and 
resources that maximize family readiness remains high. We continue to 
improve and expand child care programs and centers. Crisis management 
and response procedures coupled with enhanced ombudsman programs 
demonstrate our commitment to give deployed Sailors confidence that 
their families are in good hands.
    In 2007, Navy programs cared for 45,780 children ages six months to 
12 years and served over 70,000 youth, ages 13 to 18, in 124 child 
development centers, 103 youth centers, and 3,115 on and off-base 
licensed child development homes. In response to the needs of Navy 
families, we have launched an aggressive child care expansion plan that 
adds 4,000 child care spaces within the next 18 months and reduces 
waiting lists in most places below the current six-month average.
    At the end of fiscal year 2007, we successfully privatized 95 
percent of the continental U.S. (CONUS) and Hawaii family housing. We 
aggressively monitor the ratification of Navy housing residents and our 
Public Private Venture (PPV) efforts are clearly resulting in 
continuous improvement in the housing and services provided to our 
Sailors and their families. The ability of the private partner to 
renovate and replace family housing units at a much quicker pace than 
MILCON has positively impacted the quality of Navy housing.
    Taking care of our families includes proactively reducing financial 
stresses placed on Sailors and families. We are focused on family 
counseling in response to increased OPTEMPO as a result of OEF/OIF. We 
provided one-on-one job search coaching services to 21,730 Navy family 
members and made 10,830 military spouse employment ready referrals to 
employers. Fleet and Family Support Center (FFSC) financial educators 
provided more than 186,000 Sailors and family members seminars/
workshops focusing on financial fitness, increased our financial 
counseling services to military spouses by more than 50 percent, and 
launched a robust campaign to encourage wealth building and debt 
reduction.
            Health Care
    We have some of the best medical professionals in the world serving 
in the Navy. Health care options the Navy offers its people are 
valuable recruitment and retention incentives. Still, health care costs 
are rising faster than inflation. Operations in OEF and OIF increased 
the demand for medical services in combat and casualty care. Part of 
this demand is straight forward: our wounded need traditional medical 
care and rehabilitation services. The other part of this demand is more 
complex and addresses the increased occurrences of mental health 
disorders resulting from combat operations. Medical professionals are 
rapidly learning more about assessing and treating the effects of 
mental health issues associated with war such as post traumatic stress 
disorder (PTSD) and traumatic brain injury. We are implementing these 
lessons to more effectively treat these Sailors.
            Wounded Warrior/Safe Harbor Program
    Care for combat wounded does not end at the Military Treatment 
Facility (MTF). The Navy has established the Safe Harbor Program to 
ensure seamless transition for the seriously wounded from arrival at a 
CONUS MTF to subsequent rehabilitation and recovery through DOD or the 
Department of Veterans Affairs (VA). Since its inception, 162 Sailors 
including 143 Active and 19 Reserve members have joined the program and 
are being actively tracked and monitored, including 126 personnel 
severely injured in OEF/OIF. Senior medical staffs personally visit and 
assist seriously injured Sailors and their families to ensure their 
needs are being met.
                               conclusion
    We are truly a ready, agile, and global Navy. To ensure that we 
maintain our naval dominance, we must achieve the optimal balance of 
building the Navy of tomorrow as we remain engaged and ready to fight 
today while fully supporting our people.
    I will continue to work closely with the Secretary of the Navy, the 
Commandant of the Marine Corps, Congress, and industry to build the 
levels of trust and collaboration necessary to resource, acquire, and 
effectively manage a Fleet of the right size and balance for our 
nation.
    Despite the challenges, I am very optimistic about our future and 
the many opportunities ahead. The dedication of our Sailors and Navy 
civilians is inspiring. They are truly making a difference and it is an 
honor to serve alongside them. I thank you for your continued support 
and commitment to our Navy and for all you do to make the United States 
Navy a force for good today and in the future.
                     annex i--2007--year in review
Operations
    In 2007, the U.S. Navy deployed the USS ENTERPRISE, DWIGHT D. 
EISENHOWER, JOHN C. STENNIS, RONALD REAGAN, and NIMITZ Carrier Strike 
Groups (CSGs) as well as the USS IWO JIMA, BOXER, BATAAN, BONHOMME 
RICHARD, and KEARSARGE Expeditionary Strike Groups (ESGs) with their 
embarked Marine Expeditionary Units (MEUs). In January 2007, when the 
President called for the surge of two carriers to the Central Command 
(CENTCOM) area of responsibility, we responded. Within weeks we 
positioned two CSGs in the North Arabian Sea and deployed a third CSG 
to fulfill our Western Pacific commitments while our forward deployed 
carrier in Japan completed a maintenance availability. Throughout 2007, 
our globally postured seapower kept the homeland and our citizens 
secure from direct attack and advanced our interests around the world.
    Our expeditionary forces gave our leaders options for responding 
not only to emerging threats but to natural disasters as well. Our 
forward-deployed posture enabled the Navy and Marine Corps to rapidly 
respond and provide aid following three natural disasters last year. 
USNS GYSGT FRED W. STOCKHAM provided relief to the victims of the 
tsunami that struck the Solomon Islands in April 2007. In September 
2007, USS WASP and USS SAMUEL B. ROBERTS participated in Central 
American relief efforts following Hurricane Felix. USS KERSARGE/22nd 
MEU and USS TARAWA/11th MEU responded to the cyclone that devastated 
Bangladesh in November 2007.
    In 2007 we contributed to the Joint Force with expert planning and 
execution across the spectrum of operations. When the Air Force 
grounded its F-15 aircraft, Navy F/A-18 aircraft from USS ENTERPRISE 
assumed Air Force missions in Afghanistan. This flexibility and 
continuity allowed our NATO forces and the International Security 
Assistance Force to continue their missions without degradation in air 
cover.
    Our Navy also contributed high-demand, highly-qualified 
expeditionary units to OEF and OIF through accelerated deployments of 
SEABEES, Explosive Ordinance Disposal teams, and SEALs. The Naval 
Expeditionary Combat Command (NECC), established in 2006, has already 
deployed RIVRON ONE (March 07) and RIVRON TWO (October 07) in support 
of OIF. Our riverine capability is growing; RIVRON THREE has been 
organized, trained and equipped, and will deploy in the spring of 2008. 
NECC's mission enables our Navy to better balance its force across the 
blue, green, and brown-water environments, ensuring effective Navy 
expeditionary warfighting, closing capability gaps, and aligning seams 
in global maritime security operations. Combatant Commander (COCOM) 
demand for NECC capabilities remains high. New and evolving 
expeditionary capabilities are becoming operational and supporting 
ongoing operations.
    Last year the Navy deployed Coast Guard Law Enforcement Detachments 
(LEDETs) on board our ships and together we disrupted illegal 
trafficking of more than 188,907 pounds of cocaine. This accounted for 
more than 53 percent of the total cocaine removed by the Coast Guard in 
fiscal year 2007 (a record year at 355,755 total pounds). These LEDETs 
also detained 68 suspected smugglers, seized five vessels, and sunk 13 
vessels engaged in illicit traffic.
    Our Navy and Coast Guard also worked together in CENTCOM maritime 
security operations. In the Northern Arabian Gulf we are protecting 
Iraqi oil platforms, maintaining Iraqi territorial sea integrity, 
assisting in local policing of the offshore waters, and training Iraqi 
naval forces. We are working together in OIF, conducting Maritime 
Interception Operations, high-value asset escorts, and coastal security 
patrols with coalition and Iraqi naval forces. LEDETs deployed aboard 
Navy ships have trained hundreds of Iraqi navy and marine personnel in 
security and law enforcement, boarding procedures, self-defense, small 
boat tactics, and small boat maintenance. The Navy's African 
Partnership Station (APS) ship, USS FORT MCHENRY, has coordinated 
training sessions with the Coast Guard and has embarked Coast Guard 
Auxiliary members as interpreters for country visits.
    In 2007, USNS COMFORT and USS PELELIU conducted two proactive 
humanitarian assistance missions in South America and the Western 
Pacific, respectively. The results were extraordinary. Navy personnel 
embarked on COMFORT and PELELIU, together with Joint, NGO, and foreign 
medical officers, visited 20 countries; treated more than 130,000 
medical patients, 29,000 dental patients, and 20,000 animals; conducted 
more than 1,400 surgeries; completed more than 60 engineering 
endeavors; and spent over 3,000 man-days in community relations 
projects. These missions of support, compassion, and commitment are 
enduring and they are codified in our maritime strategy.
    We continue to meet COCOM Theater Security Cooperation (TSC) 
objectives with well-trained, combat ready forces. We are developing 
the concept of Global Fleet Stations (GFS), which will allow the Navy 
to coordinate and employ adaptive force packages within a regional area 
of interest. The pilot GFS, carried out by the High Speed Vessel SWIFT 
and closely coordinated with the State Department, conducted bilateral 
engagement activities in seven Latin American nations. This effort 
enhanced cooperative partnerships with regional maritime services and 
improved operational readiness for the participating partner nations. 
We conducted bi-lateral and multi-lateral exercises with navies in the 
Gulf of Guinea, the Mediterranean Sea, the Arabian Gulf, and waters in 
Latin America, and the Atlantic, Pacific, and Indian Oceans. The most 
notable exercises include MALABAR 07-2 with Indian, Japanese, 
Australian, and Singaporean navies; FRUKUS with French, Russian, and 
British navies; and PHOENIX EXPRESS with European and North African 
navies. Meanwhile, Exercise VALIANT SHIELD 2007 brought together three 
CSGs, six submarines, and many Navy and Joint capabilities to validate 
our effectiveness in multi-dimensional, full-spectrum, joint warfare. 
We remain the most dominant and influential Navy, globally and across 
all maritime missions.
    Our engagement with other nations last year included cooperation 
through our foreign military sales (FMS) program. FMS is an important 
aspect of our security cooperation program which improves 
interoperability, military-to-military relations, and global security. 
The Navy's FMS program builds partner nation maritime security 
capabilities through transfers of ships, weapon systems, communication 
equipment, and associated training programs. The sale of USS TRENTON to 
India, USS HERON and USS PELICAN to Greece, and USS CARDINAL and USS 
RAVEN to Egypt are recent examples of our FMS program. Other countries 
remain interested in our mine sweepers, our frigates, and newer 
technologies coming online in the near future. We pursue these 
opportunities but never at the expense of our own needs.
Manpower
    The men and women of the United States Navy are the core of every 
successful operation we conduct. I am impressed and inspired by our 
Sailors' ability to perform exceptionally well under all circumstances. 
Our Sailors are engaged globally: in special operations and combat 
support in Iraq; in flying combat sorties in support of OEF and OIF; in 
providing security protection for oil platforms; in conducting civil 
affairs missions; in participating in TSC activities in the Horn of 
Africa; and in ships and submarines deployed worldwide. Additionally, 
over 17,000 individual augmentees (IAs) were trained and deployed to 
support OEF and OIF missions.
    Last year we met recruiting and retention goals and exceeded our 
active enlisted accession goal for the ninth consecutive year. We 
achieved 100 percent of our reserve enlisted accession goal. We met 
97.9 percent of our active officer goal, with shortfalls residing 
primarily in medical and chaplain accessions. New and enhanced special 
and incentive pay authorities enacted in both the fiscal year 2006 and 
fiscal year 2007 National Defense Authorization Acts helped our Navy 
attain its goals in key mission areas and improve performance in 
others. Our Navy continues to aggressively recruit the best talent our 
nation has to offer. This is a demanding task considering an 
increasingly challenging recruiting environment.
    Our AC and RC remain aligned through Active Reserve Integration 
(ARI). As demonstrated through force generation, deployment and 
redeployment, it is clear that RC forces meet two significant needs of 
our Navy. First, reservists deliver capability and capacity in support 
of major combat operations, and second, reservists provide operational 
augmentation to meet routine military missions. To use the full 
potential of our RC effectively, we continue to capitalize on RC 
involvement in operational support missions. This builds on ARI 
successes to date and will lead to the institutionalization of our 
operational Navy Reserve. We continue to monitor AC strength reductions 
and evaluate the impact of our force shaping programs with respect to 
the RC.
    Our Navy continues to pursue diversity. We are in the final phase 
of a three-phase diversity campaign. In Phase III, we hold senior Navy 
leadership personally accountable for ensuring that we build the most 
diverse organization possible. We also instituted a mentoring regimen 
focused on developing and retaining top talent from all demographics.
Equipment
    Our Navy's mission in projecting power and presence overseas 
depends upon a modern, technologically advanced Fleet. The quality, 
condition, and capabilities of our ships and aircraft are critical.
    In 2007, we christened six ships: the aircraft carrier GEORGE H. W. 
BUSH, the guided missile destroyers STERETT and TRUXTUN, the dry cargo/
ammunition ships ALAN SHEPARD and RICHARD E. BYRD, and the fast attack 
submarine NORTH CAROLINA. We also commissioned four ships: the guided 
missile destroyers KIDD and GRIDLEY, the amphibious transport dock NEW 
ORLEANS, and the fast attack submarine HAWAII.
    Despite these accomplishments, decommissionings resulted in a net 
gain of only two ships in 2007. We reluctantly, but prudently, 
cancelled construction of the third and fourth LCS due to challenges in 
controlling cost and schedule. The rate at which we are growing our 
Fleet will challenge our ability to fulfill the core capabilities of 
the maritime strategy. I am committed to taking the steps necessary to 
build the future Fleet and re-establish the vital trust needed among 
the Department, Congress, and industry to get our Navy above a 313-ship 
floor.
    Building the future Fleet is also about aircraft. In 2007, we 
rolled out the first E-2D Advanced Hawkeye. Despite several successes 
in aircraft delivery, the high demand for air assets in OEF and OIF 
expended a significant portion of the limited service life remaining on 
our EA-6B electronic attack aircraft, MH-60 multi-mission helicopters, 
F/A-18 C/D strike-fighter aircraft, and P-3 maritime patrol aircraft. 
The accelerated depletion of service life could translate into aircraft 
shortfalls if the expended aircraft are not replaced.
     annex ii--programs and initiatives to achieve navy priorities
Surface Warfare
            LCS
    Designed to be fast and agile, LCS will be a networked surface 
combatant with capabilities optimized to assure naval and Joint force 
access into contested littoral regions. No other ship can deliver what 
LCS offers in terms of flexibility. LCS will operate with focused-
mission packages that deploy manned and unmanned vehicles to execute a 
variety of missions, including littoral anti-submarine warfare (ASW), 
surface warfare (SUW) and mine countermeasures (MCM). LCS will employ a 
Blue-Gold multi-crewing concept for the early ships. The crews will be 
at a ``trained to qualify'' level before reporting to the ship, 
reducing qualification time compared to other ships.
    The LCS program has experienced significant cost overruns for the 
lead ships in the class. After a series of increases in contractor-
estimated costs of completion, the Navy and industry initiated a 
thorough analysis of the program. The Navy revalidated the warfighting 
requirement and developed a restructured program plan for LCS that 
improves management oversight, implements more strict cost controls, 
incorporates selective contract restructuring, and ensures delivery 
within a realistic schedule.
    Construction progress on LCS #1 and LCS #2 is on track to support 
delivery of these ships in 2008. By exercising active oversight and 
strict cost controls in the early years, the Navy will ensure delivery 
of LCS to the Fleet over the long term. Our fiscal year 2009 request 
for $1.47 billion will continue R&D and construction of LCS and 
associated modules.
            DDG 1000
    DDG 1000 introduces valuable technological advances that will 
provide essential risk reduction. This multi-mission surface combatant 
will provide independent forward presence and deterrence and it will 
operate as an integral part of joint and combined expeditionary forces. 
DDG 1000 will capitalize on reduced signatures and enhanced 
survivability to maintain persistent presence in the littorals. Our 
fiscal year 2009 request for DDG 1000 is for $3.0 billion in 
shipbuilding and research funds.
            CG(X)
    CG(X) will be a highly capable major surface combatant tailored for 
joint air and missile defense and joint air control operations. CG(X) 
will provide airspace dominance and protection to Joint forces 
operating in the Seabase. CG(X) will replace the CG-47 Aegis class and 
improve the Fleet's air and missile defense capabilities against 
advancing threats, particularly ballistic missiles. IOC will be in 
2019. $370 million in research and development for fiscal year 2009 
supports CG(X) development to include radar development. The Navy is 
conducting a rigorous analysis to examine alternatives for CG(X), 
understanding that the National Defense Authorization Act requirement 
for nuclear power applies to CG(X).
            Aegis Ballistic Missile Defense (BMD)
    Aegis BMD is the seabase component of the Missile Defense Agency's 
(MDA) Ballistic Missile Defense System (BMDS). It enables surface 
combatants to support ground-based sensors and provides a capability to 
intercept short and medium-range ballistic missiles with ship-based 
interceptors (SM-3 missiles). The Gap Filler Sea-Based Terminal Program 
provides the ability to engage a limited set of short range ballistic 
missiles with modified SM-2 Block IV missiles from Aegis BMD capable 
ships. While development and procurement funding is covered under the 
MDA budget, the Navy has committed $16.5 million in fiscal year 2009 
for operations and sustainment of Aegis BMD systems.
    Since 2002, Navy and MDA have executed twelve successful intercepts 
in fourteen flight tests (11 Exo-atmospheric SM-3 engagements and one 
Endo-atmospheric SM-2 Block IV engagement). Operational ships have 
capability today with Aegis BMD program and components installed on 17 
ships, including three cruisers (engagement capable) and 14 DDGs (nine 
engagement capable and five Long Range Surveillance and Track (LRS&T) 
capable). Additional installations are planned for 2008 to provide a 
total of 18 engagement-capable ships. In addition to these hardkill 
capabilities, the Navy is focused on delivering a robust capability 
against ballistic missiles across the enemy kill chain to include 
softkill and counters to Intelligence, Surveillance, and Reconnaissance 
(ISR), detection, cueing, and tracking prior to the launch of anti-ship 
ballistic missiles. The development of future capability will be 
informed through robust modeling and simulation to evaluate trade-offs 
among capabilities across the kill chain as well as the BMD capacity 
required to prevail in various geographic areas of concern.
            Aegis Cruiser Modernization
    AEGIS cruiser modernization is vital to achieving the 313 ship 
force structure. A large portion of total surface force modernization 
(including industrial base stability) is resident in this program, 
which includes both Combat System and Hull, Mechanical, and Engineering 
(HM&E) upgrades. $426.5 million in fiscal year 2009 supports this 
program.
            DDG 51 Modernization
    The DDG 51 modernization program is a comprehensive 62 ship program 
that will upgrade hull, mechanical, electrical, and combat systems. 
These upgrades support reductions in manpower and operating costs, 
achieve 35+ year service life, and allow the class to pace the 
projected threat well into the 21st century. Our fiscal year 2009 
budget request includes $325.7 million for this effort.
            Surface Ship Torpedo Defense (SSTD)
    Torpedo defense must keep pace with the increasing torpedo threat 
to our ships. The AN/SLQ-25A ``Nixie'' is the Navy's fielded SSTD 
system. We will counter the future torpedo threat with an Anti-Torpedo 
Torpedo (ATT) System now in development. Increment I will deliver 
improved Torpedo Detection, Classification, and Localization (TDCL) and 
ATT salvo capability to cruisers and destroyers. Increment II will 
expand this capability beyond surface combatants. Increment I IOC is 
planned for fiscal year 2017. We are currently assessing these plans to 
deliver Increment II. The fiscal year 2009 budget provides $59.3 
million to support this program.
            Standard Missile-6 (SM-6)
    The Navy's next-generation Extended Range, Anti-Air Warfare 
interceptor is the SM-6. It will be used by legacy and future ships, 
and with its active-seeker technology it will defeat anticipated 
theater air and missile threats well into the next decade. The fiscal 
year 2009 budget of $345.4 million in research, development, and 
procurement will support an IOC in fiscal year 2010.
            Long Range Land Attack Projectile (LRLAP)
    Long Range Land Attack Projectile (LRLAP) is the primary munition 
for the DDG 1000 Advanced Gun System (AGS). AGS and LRLAP will provide 
Naval Surface Fire Support (NSFS) to forces ashore during all phases of 
the land battle. All program flight test objectives have been met 
including demonstration of threshold range (63nm), in-flight guidance, 
gun launch survival, and repeatability. $97 million in fiscal year 2009 
supports continued development.
            Harpoon Block III Missile
    Harpoon Block III meets requirements for an all weather, precision, 
ship and air launched, anti-ship missile capability. $68 million in 
fiscal year 2009 supports development of an upgrade to existing Harpoon 
Block IC missiles that will add data link and GPS capability to improve 
accuracy and target selectivity.
            Extended Range Munition (ERM)
    The Extended Range Munition (ERM) is a five-inch, rocket-assisted, 
guided projectile providing range and accuracy superior to that of 
conventional ammunition. The program includes modifications to existing 
five-inch guns and fire-control systems. The projectile uses a coupled 
GPS/INS guidance system and unitary warhead with a height-of-burst 
fuse. A 20-round reliability demonstration in September 2008 is planned 
prior to land-based flight and qualification testing. $39 million in 
fiscal year 2009 supports this program.
            Cooperative Engagement Capability (CEC)
    CEC is an advanced sensor netting system enabling real-time 
exchange of fire-control quality data between battle force units. CEC 
provides the integrated, precision air defense picture required to 
counter the increased agility, speed, maneuverability, and advanced 
design of cruise missiles, manned aircraft, and (in the future) 
tactical ballistic missiles. $123.3 million in fiscal year 2009 
supports this program.
    CEC's acquisition strategy implements open architecture based 
hardware with re-hosted existing software. A critical element is the 
P3I hardware that reduces cost, weight, cooling, and power 
requirements. The Integrated Architecture Behavior Model (IABM) will be 
implemented as a host combat system software upgrade. IABM will replace 
the cooperative engagement processor functionality and enable joint 
interoperability with common track management across the Services.
            Tomahawk/Tactical Tomahawk (TACTOM)
    TACTOM provides precision, all-weather, and deep-strike capability. 
TACTOM provides more flexibility and responsiveness at a significantly 
reduced life cycle cost compared to previous versions. Additionally, it 
includes flex-targeting, in-flight retargeting, and two-way 
communications. Tomahawk Block IV is in a full-rate, multi-year 
procurement for fiscal year 2004-2008. The fiscal year 2009 budget 
provides $357 million which will support a new sole-source firm fixed-
price contract to continue TACTOM development and procurement.
Submarine Warfare
            VIRGINIA Class Fast Attack Nuclear Submarine (SSN)
    We must maintain an SSN force structure to meet current operational 
requirements and face potential future threats. The VIRGINIA class 
emphasizes affordability and optimizes performance for undersea 
superiority in littoral and open ocean missions.
    The fiscal year 2009 budget requests $3.6 billion for submarine 
construction, technical insertions, and cost reduction developments. 
Navy has worked closely with industry to reduce the cost per submarine 
and increase the build rate to two submarines per year starting in 
fiscal year 2011. The Multi-Year Procurement (MYP) authority received 
in the fiscal year 2008 NDAA supports an fiscal year 2009-2013 MYP 
contract that will mitigate future force level deficiencies and achieve 
cost reduction goals through Economic Order Quantity savings and better 
distributed overhead costs.
            ASW Programs
    The Navy continues to pursue research and development of 
Distributed Netted Sensors (DNS); these are rapidly deployable, 
autonomous sensors that provide the cueing and detection of adversary 
submarines. Examples of technologies included in our fiscal year 2009 
request of $46 million are:
  --Reliable Acoustic Path, Vertical Line Array (RAP VLA).--A passive-
        only distributed system exploiting the deep water propagation 
        phenomena. In essence, a towed array vertically suspended in 
        the water column.
  --Deep Water Active Distributed System (DWADS).--An active sonar 
        distributed system optimized for use in deep water.
  --Deployable Autonomous Distributed System (DADS).--A shallow water 
        array, using both acoustic and non-acoustic sensors to detect 
        passing submarines. DADS will test at sea in fiscal year 2008.
  --Littoral ASW Multi-static Project (LAMP).--A shallow water 
        distributed buoy system employing the advanced principles of 
        multi-static (many receivers, one/few active sources) sonar 
        propagation.
    Further developing the Undersea Warfare Decision Support System 
(USW-DSS) will leverage existing data-links, networks, and sensor data 
from air, surface, and sub-surface platforms and integrate them into a 
common ASW operating picture. This networked approach will allow our 
forces to plan, conduct, and coordinate ASW operations in near real 
time. We are requesting $19.75 million in fiscal year 2009 for USW-DSS.
    To effectively attack the threat, the Navy has continued a robust 
weapons development investment plan that includes $127 million 
requested in the fiscal year 2009 for capabilities, such as:
  --High-Altitude ASW Weapons Concept (HAAWC).--Since current maritime 
        patrol aircraft must descend to low altitudes to deliver ASW 
        weapons on target, they often lose communications with 
        sonobuoys or distributed sensor fields. HAAWC will allow the 
        aircraft to remain at high altitude and conduct effective 
        attacks while simultaneously enabling the crew to maintain and 
        exploit the full sensor field. This capability supports the P-
        8A Multi-mission Maritime Aircraft.
  --Common Very Lightweight Torpedo (CVLWT).--The Navy is developing a 
        6.75-inch torpedo suitable for use in surface ship and 
        submarine anti-torpedo torpedo defense.
    Platform Sensor Improvements.--To counter the threat of quieter, 
modern diesel-electric submarines, we are continuing to work on both 
towed array and hull-mounted sonar systems. Our $512 million request in 
fiscal year 2009 includes the following:
  --TB-33 thin-line towed array upgrades to forward-deployed SSNs 
        provide near-term improvement in submarine towed array 
        reliability over existing TB-29 arrays. TB-33 upgrades are 
        being accelerated to Guam-based SSNs.
  --Continued development of twin-line thin-line (TLTL) and vector-
        sensor towed arrays (VSTA) are under development for mid to 
        far-term capability gaps. TLTL enables longer detection ranges/
        contact holding times and it improves localization and 
        classification of contacts. VSTA is an Office of Naval Research 
        project that would provide TLTL capability on a single array 
        while still obviating the bearing ambiguity issue inherent in 
        traditional single line arrays.
            21'' Mission Reconfigurable Unmanned Underwater Vehicle 
                    System (MRUUVS)
    21'' MRUUVS is a submarine launched and recovered, reconfigurable 
UUV system that will provide robust, clandestine minefield 
reconnaissance and general ISR in denied or inaccessible areas. The 
MRUUVS program has been restructured, moving IOC from fiscal year 2013 
to 2016, when clandestine mine countermeasure capability from LOS 
ANGLES class submarines will be delivered. ISR capability and VIRGINIA 
class host compatibility could occur in follow-on increments 
approximately two years after IOC. Fiscal year 2009 funds $30.1 million 
to support the MRUUVS program.
Expeditionary Warfare
            Maritime Prepositioning Force (MPF) (Future)
    MPF(F) provides a scalable, joint-seabased capability for the 
closure, arrival, assembly, and employment of up to a Year-2015-sized 
Marine Expeditionary Brigade force. MPF(F) will support the sustainment 
and reconstitution of forces when required. MPF(F) is envisioned for 
frequent utility in Lesser Contingency Operations, and when coupled 
with Carrier or Expeditionary Strike Groups, MPF(F) will provide the 
nation a rapid response capability in anti-access environments.
    The MPF(F) program was shifted one year to allow the Navy and 
Marine Corps to better define requirements prior to awarding the 
initial Mobile Landing Platform contract. The fiscal year 2009 budget 
provides $42 million in research and development and $348 million in 
advanced procurement for MPF(F) LHA(R).
            LEWIS & CLARK Dry Cargo/Ammunition Ship (T-AKE)
    T-AKE will replace aging combat stores (T-AFS) and ammunition (T-
AE) ships. Operating with an oiler (T-AO), they can substitute as a 
station ship, which would allow us to retire four fast combat support 
ships (AOE 1 Class). $962 million in fiscal year 2009 funds the 11th 
and 12th T-AKE. The lead T-AKE ship was delivered in June 2006 and has 
completed operational evaluation (OPEVAL).
            LPD 17
    LPD 17 functionally replaces LPD 4, LSD 36, LKA 113, and LST 1179 
classes of amphibious ships for embarking, transporting and landing 
elements of a Marine landing force in an assault by helicopters, 
landing craft, and amphibious vehicles. $103 million in the fiscal year 
2009 budget request supports the LPD 17 program.
            Joint High Speed Vessel (JHSV)
    The Joint High Speed Vessel (JHSV) program is an Army and Navy 
joint program to deliver a high-speed, shallow draft surface ship 
capable of rapid transport of medium payloads of cargo and personnel 
within a theater to austere ports without reliance on port 
infrastructure for load/offload. The fiscal year 2009 budget provides 
$175 million to procure the first JHSV vessel.
            Remote Minehunting System (RMS)
    RMS uses a diesel-powered, high-endurance, off-board, semi-
submersible vehicle to tow the Navy's most advanced mine hunting sonar, 
the AN/AQS-20A. The system will be launched, operated, and recovered 
from surface ships. RMS will provide mine reconnaissance, detection, 
classification, localization, and identification of moored and bottom 
mines. $49.86 million in fiscal year 2009 supports this program.
Air Warfare
            CVN 21
    The CVN 21 program is designing the next generation aircraft 
carrier to replace USS ENTERPRISE (CVN 65) and NIMITZ-class aircraft 
carriers. The lead ship has been designated as the USS GERALD R. FORD 
(CVN 78). These ships will provide improved warfighting capability and 
increased quality of life for our Sailors at reduced acquisition and 
life cycle costs. $2.8 billion in shipbuilding funds for fiscal year 
2009 supports acquisition of CVN-78 scheduled for delivery in late 
fiscal year 2015.
            F-35 Joint Strike Fighter (JSF)
    JSF program will develop and field a family of multi-mission strike 
fighter aircraft using mature/demonstrated 21st century technology to 
meet warfighter needs of the Navy, Marine Corps, Air Force, and 
international partners, including the United Kingdom, Italy, 
Netherlands, Denmark, Turkey, Norway, Australia, and Canada (with 
ongoing foreign military sales discussions with Israel, Singapore, and 
Spain). Navy's fiscal year 2009 investment of $3.4 billion includes 
procurement of eight aircraft and continued research and development 
for aircraft and engine development.
            P-8A Multi-mission Maritime Aircraft (MMA)
    The P-8A will replace the P-3C Orion aircraft and will recapitalize 
the Maritime Patrol ASW, Anti-Surface Warfare, and armed ISR 
capabilities that currently reside in P-3 squadrons. The P-8A is the 
only aircraft with this operationally agile capability set. It will 
fulfill COCOM requirements for combat and theater security operations, 
and homeland defense. IOC is planned in fiscal year 2013. $1.1 billion 
in funding is included in the fiscal year 2009 budget.
            EA-18G Growler
    The EA-18G Growler will replace the EA-6B aircraft and provide 
carrier-based Airborne Electronic Attack (AEA). The inventory objective 
of 85 aircraft will support 10 operational carrier air wing squadrons 
and a Fleet Replacement Squadron. IOC will be in fiscal year 2009. $1.8 
billion supports development and procurement of 22 aircraft in fiscal 
year 2009.
            MV-22B Osprey
    MV-22 Osprey is the Marine Corps medium-lift assault support 
aircraft that will replace legacy CH-46Es and CH-53Ds. Current 
operational projections hold CH-46Es in service through fiscal year 
2018, and CH-53Ds through fiscal year 2013. The CH-46Es are playing a 
critical role in the War on Terror, flying more than four times their 
peacetime utilization rate making delivery of the MV-22 more critical. 
The MV-22's improved readiness, survivability, and transformational 
capability (twice the speed, three times the payload, and six times the 
range of the airframes it is replacing) will vastly improve operational 
reach and capability of deployed forces. The aircraft is approved for 
Full Rate Production and entered a Congressionally-approved, Joint, 
five-year, multi-year procurement in fiscal year 2008. The fiscal year 
2009 budget of $2.2 billion procures 30 aircraft. The total requirement 
is 360 MV-22s for the Marines, 48 MV-22s for the Navy, and 50 CV-22s 
for Special Operations Command.
            F/A-18E/F Super Hornet
    The Navy's next generation, multi-mission Strike Fighter provides a 
40 percent increase in combat radius, a 50 percent increase in 
endurance, a 25 percent increase in weapons payload, three times more 
ordnance bring-back, and five times more survivability than F/A-18C 
models. Approximately 65 percent of the total procurement objective has 
been delivered (317 of 493). F/A-18E/F is in full rate production under 
a second five-year multi-year contract (fiscal years 2005-2009). $1.9 
billion in fiscal year 2009 procures 23 aircraft as part of that 
contract.
            F/A-18A/B/C/D Hornet
    The F/A-18 Hornet is naval aviation's principal strike-fighter. It 
serves the U.S. Navy and Marine Corps, as well as the armed forces of 
seven countries. This multi-mission aircraft has maintained its combat 
relevance through improvements and upgrades to weapons, communications, 
navigation, and defensive electronic countermeasure systems. Although 
the F/A-18A/B/C/D are out of production, the existing inventory of 667 
Navy and Marine Corps aircraft will continue to comprise half of the 
carrier strike force until 2013. These aircraft are scheduled to remain 
in the inventory through 2022. $322 million in fiscal year 2009 
supports improvements to the F/A-18 A/B/C/D variants.
            E-2D Advanced Hawkeye
    The E-2D Advanced Hawkeye (AHE) program will modernize the current 
E-2C weapons system by replacing its radar and other aircraft system 
components to improve nearly every facet of tactical air operations. 
The modernized weapons system will maintain open ocean capability while 
adding transformational littoral surveillance and Theater Air and 
Missile Defense capabilities against emerging air threats in the high 
clutter, electro-magnetic interference, and jamming environments. AHE 
is one of four pillars of the Naval Integrated Fire Control-Counter Air 
capability. The fiscal year 2009 budget of $1.1 billion procures three 
aircraft and funds continued research and development.
            MH-60R/S Multi-Mission Helicopter
    The MH-60R multi-mission helicopter program will replace the 
surface combatant-based SH-60B and carrier-based SH-60F with a newly 
manufactured airframe and enhanced mission systems. The MH-60R provides 
forward-deployed capabilities, including mine sweeping, surface warfare 
(SUW), and ASW, to defeat area-denial strategies, which will enhance 
the ability of the Joint force to project and sustain power. Full Rate 
Production was approved in March 2006. $1.2 billion in fiscal year 2009 
procures 31 aircraft.
    The MH-60S supports: Carrier and Expeditionary Strike Groups in 
Combat Logistics, Search and Rescue, Vertical Replenishment, Anti-
Surface Warfare, Airborne Mine Countermeasures, Combat Search and 
Rescue, and Naval Special Warfare mission areas. Armed Helicopter 
capability achieved IOC in fiscal year 2007. The Airborne Mine 
Countermeasures capability will achieve IOC with the AWS-20 Sonar in 
fiscal year 2008. $550 million in fiscal year 2009 procures 18 
aircraft.
            C-40A Clipper
    The C-40A Clipper is a replacement for legacy DC-9/C-9B and C-20G 
aircraft. It provides flexible, time-critical, and intra-theater 
logistical support. It will serve as a connector between strategic 
airlift points of delivery to Carrier Onboard Delivery and Vertical 
Onboard Delivery locations. The inventory objective is 17 aircraft, and 
nine have been purchased. $155 million in fiscal year 2009 procures two 
aircraft.
            CH-53K
    The CH-53K Heavy Lift Replacement (HLR) is the follow on to the 
Marine Corps CH-53E Heavy Lift Helicopter. The CH-53K will more than 
double the CH-53E lift capability under the same environmental 
conditions. The CH-53K's increased capabilities are essential to 
meeting the Marine Expeditionary Brigade of 2015 Ship-to-Objective 
Maneuver vision. Major systems improvements of the new helicopter 
include larger and more capable engines, expanded gross weight 
airframe, better drive train, advanced composite rotor blades, modern 
interoperable cockpit, external and internal cargo handling systems, 
and survivability enhancements. The procurement objective of 156 
aircraft has increased to 200 due to Marine Corps end strength growth 
to 202,000. fiscal year 2009 provides $571 million for research and 
development.
            EPX (EP-3E Replacement)
    EPX will replace the EP-3E as a transformational multi-intelligence 
platform capable of providing strike targeting to warfighters. Fiscal 
year 2009 provides $75 million in research and development to 
recapitalize the EP-3 airborne electronic surveillance aircraft. The 
Navy had originally partnered with Army's Aerial Common Sensor (ACS) 
program on this aircraft until the contract was terminated in fiscal 
year 2006. After conducting further mission analysis, the Navy 
recognized it required significantly higher performance than that of 
the Army ACS program. The Navy developed the EPX program to respond to 
its requirement.
            Broad Area Maritime Surveillance (BAMS)
    BAMS is an unmanned aircraft designed to enhance Maritime Domain 
Awareness. It will be forward deployed, land-based, autonomously 
operated, and unarmed. Along with P-8A, BAMS is integral to the Navy's 
airborne ISR recapitalization strategy. $480 million in research and 
development funding in fiscal year 2009 continues the Navy's commitment 
to provide a persistent multi-sensor (radar, Electro-Optical/Infra Red, 
Electronic Support), maritime intelligence, surveillance, and 
reconnaissance capability with worldwide access.
            Navy Unmanned Combat Air System (UCAS)
    The Navy UCAS will develop and demonstrate low observable (LO), 
unmanned, air vehicle suitability to operate from aircraft carriers in 
support of persistent, penetrating surveillance and strike in high 
threat areas. $276 million in fiscal year 2009 research and development 
funds advance UCAS objectives.
            MQ-8B Fire Scout Vertical Takeoff UAV (VTUAV)
    The Navy's Vertical Takeoff and Landing Tactical UAV (VTUAV) is 
designed to operate from all air capable ships, carry modular mission 
payloads, and operate using the Tactical Control System (TCS) and 
Tactical Common Data Link (TCDL). VTUAV will provide day/night real 
time reconnaissance, surveillance and target acquisition capabilities, 
communications relay, and battlefield management to support the LCS 
core mission areas of ASW, Mine Warfare, and SUW. In May 2007, the 
program successfully completed a Milestone C review and was approved 
for Low Rate Initial Production. IOC moved from the fourth quarter of 
fiscal year 2008 to the first quarter of fiscal year 2009 due to a 
combination of software development delays and the availability of LCS 
to complete Fire Scout OPEVAL on schedule. $65 million in development 
and procurement funding in fiscal year 2009 supports engineering 
manufacturing development, operational testing and achievement of IOC.
            Joint Standoff Weapon (JSOW)
    JSOW is a low-cost, survivable, air-to-ground glide weapon designed 
to attack a variety of targets in day/night and adverse weather 
conditions at ranges up to 63 nautical miles. All variants employ a 
kinematically efficient, low-signature airframe with GPS/INS guidance 
capability. A Block III improvement effort will add anti-ship and 
moving target capability in fiscal year 2009. The $172 million in 
fiscal year 2009 funding supports this development and continues 
production to build to our inventory objectives.
Decision Superiority/Networks
            Consolidated Afloat Networks Enterprise Services (CANES)
    CANES is evolving from the existing Integrated Shipboard Networking 
System (ISNS) program of record. It consolidates and enhances the 
requirements for five existing afloat network programs into a single 
support framework for all C4I applications that currently require 
dedicated infrastructure. The operational need for CANES has been well 
defined in existing network requirements documents and in the Global 
Information Grid Enterprise Services/Mission Area Initial Capability 
Documents. CANES will capitalize on industry best practices of common 
hardware, unified fielding, and ``plug and play'' software capability 
to produce fiscal savings, operational flexibility, and enhanced 
agility to warfighting applications. $21.6 million is aligned to CANES 
in the fiscal year 2009 budget, all of which was redirected from 
existing budget lines.
            Next Generation Enterprise Network (NGEN)
    NGEN Block 1 is the follow-on to the Navy Marine Corps Intranet 
(NMCI) and replaces the services currently provided by NMCI. Future 
NGEN Blocks will upgrade services provided by NMCI and the OCONUS Navy 
Enterprise Network. NGEN will also integrate with shipboard and Marine 
Corps networks to form a globally integrated, Naval Network Environment 
to support network operations. NGEN will leverage the Global 
Information Grid (GIG) and, where possible, utilize DOD enterprise 
services. The fiscal year 2009 budget provides $60 million to support 
the NGEN program.
            Information Assurance (IA)
    We are tailoring our approach to IA to concentrate our personnel 
and resources on protecting the Navy information battlespace. Navy 
Information Systems Security Program (ISSP)/Computer Network Defense 
(CND) are the Navy's IA programs that procure secure communications 
equipment for Navy ships, shore sites, aircraft, the Marine Corps, and 
U.S. Coast Guard. ISSP and CND will defend our Navy networks in depth. 
This will enhance the warfighter confidence in using the network as a 
weapons system. Navy Information Assurance uses a layered protection 
strategy, using Commercial Off-The-Shelf (COTS) and Government Off-The-
Shelf (GOTS) hardware and software that collectively provides an 
effective network security infrastructure. Our fiscal year 2009 Budget 
request includes $101 million for these IA efforts.
            Mobile User Objective System (MUOS)
    MUOS is the next generation Ultra High Frequency (UHF) narrowband 
satellite communications (SATCOM) system, replacing UHF Follow-On. MUOS 
supports Communications-On-The-Move (COTM) to small and less stable 
platforms (handhelds, aircraft, missiles, UAVs, remote sensors) in 
stressed environments (foliage, urban environment, high sea state). 
MUOS will provide the communications infrastructure to facilitate 
command and control of a netted, distributed force with delivery of IOC 
in 2010. $1.03 billion in the fiscal year 2009 budget funds the MUOS 
program.
            COBRA JUDY Replacement (CJR)
    $101.4 million funds the acquisition of a single ship-based radar 
suite for world-wide technical data collection against ballistic 
missiles. This replaces the current COBRA JUDY/USNS OBSERVATION ISLAND, 
which is scheduled to be removed from service in 2012. Upon achieving 
IOC in 2012, the Navy will transfer the CJR to the U.S. Air Force for 
operation and maintenance. The CJR program has entered the production 
stage.
            Distributed Common Ground/Surface Systems (DCGS)
    DCGS-N is the Navy's Intelligence, Surveillance, Reconnaissance, 
and Targeting (ISR&T) system. Funded at $124 million in fiscal year 
2009, DCGS-N will receive and process multiple data streams from 
various ISR sources to provide time-critical aim points and 
intelligence products. This program will enhance the warfighter's 
Common Operational Picture (COP) and is being fielded afloat and 
ashore.
            Deployable Joint Command and Control (DJC2)
    DJC2 is a Secretary of Defense and Chairman of the Joint Chiefs of 
Staff priority transformation initiative providing Combatant Commanders 
(COCOM) with a standardized, deployable, and scalable Joint C2 
headquarters capability tailored to support Joint Task Force (JTF) 
operations. DJC2 enables a COCOM to rapidly deploy and activate a JTF 
headquarters equipped with a common C2 package with which to plan, 
control, coordinate, execute, and assess operations across the spectrum 
of conflict and disaster relief missions. This budget request of $35 
million provides for operations and sustainment for the six existing 
systems, as well as continued research and development.
            Maritime Headquarters with a Maritime Operations Center 
                    (MHQ/MOC)
    The MHQ/MOC program creates a network of Navy headquarters that are 
trained and accredited to command Navy and Joint forces at the 
operational level of war. It transforms Navy operational headquarters 
into fully functional and scalable Command and Control Joint Task 
Force-capable Headquarters. It also automates and links key Navy and 
Joint planning processes in a globally networked environment.
    Since the initiative began in fiscal year 2008, we have validated 
the MHQ/MOC concept and developed architectures, processes and tasks to 
support its implementation. U.S. Fleet Forces Command is establishing 
an accreditation process and metrics. The 5th Fleet Prototype is 
providing operational verification of common tasks, processes and 
systems. The fiscal year 2009 budget provides $35 million to support 
MHQ/MOC.
            Cyber Asset Reduction and Security (CARS)
    The Cyber Asset Reduction and Security (CARS) initiative improves 
network security and optimizes resources by reducing legacy networks, 
applications, and systems to the minimum necessary for the Navy to 
conduct its business. CARS has reduced the Navy's total network 
inventory. From January 2006 until December 2007, the Navy has reduced 
its networks from 1,200 to 625, a 43 percent reduction. We intend to 
reduce them to approximately 200 by September 2010, an 83 percent 
reduction. Network reduction, in conjunction with efforts for data 
center, web site, and portal consolidation, will reduce the Navy's 
physical IT servers, external circuits, and applications.
            TRIDENT
    TRIDENT is a maritime intelligence production capability within the 
Office of Naval Intelligence that provides tailored, focused, timely 
intelligence support to Naval Special Warfare (NSW) and Joint special 
operations forces operating in the maritime domain. For $9.7 million in 
fiscal year 2009, TRIDENT production directly supports OEF/OIF and 
responds to ongoing initiatives to improve intelligence support to NSW. 
TRIDENT has deployed four Tactical Intelligence Support Teams (TIST) in 
Iraq since April 2006.
            Automatic Identification System (AIS)
    AIS leverages commercially available technology to provide a 
shipboard Very High Frequency (VHF) maritime band transponder system 
capable of sending and receiving ship information, including 
navigation, identification, and cargo data. AIS improves significantly 
the Navy's ability to distinguish between legitimate and suspicious 
merchant ships. Navy warships using AIS have dramatically increased 
situational awareness, safety of ship, and intelligence gathering. $16 
million in fiscal year 2009 will support continued fielding of AIS to 
the Fleet.
            Navy Enterprise Resource Planning System (Navy ERP)
    Navy ERP is an integrated business management system that 
modernizes and standardizes Navy business operations, provides 
management visibility across the enterprise, and increases 
effectiveness and efficiency. The program will align Navy to DOD's 
business enterprise architecture and provide real-time, end-to-end data 
to enable informed decisions. The current program of record delivers 
functionality in three releases: financial management and acquisition, 
wholesale and retail supply chain management, and intermediate-level 
maintenance support. The fiscal year 2009 budget provides $145 million 
for the Navy ERP program.
Infrastructure/Environment
            Undersea Warfare Training Range (USWTR)
    The proposed USWTR is a 500-square nautical mile instrumented 
underwater training range in shallow littoral waters on each coast. 
USWTR will support undersea warfare (USW) training exercises for the 
Atlantic and Pacific Fleet. Undersea hydrophones will provide real time 
tracking and a record of participants' activities to evaluate tactics, 
proficiency, and undersea warfare combat readiness. The instrumented 
area will be connected to shore via a single trunk cable.
    Pending signature of the environmental Record of Decision (ROD) for 
the East Coast USWTR in May 2009, the Navy will commence hardware 
procurement in fiscal year 2010. The west Coast Shallow Water Range is 
being analyzed as part of the Environmental Impact Statement for the 
Southern California Range Complex and the ROD is scheduled for 
signature in January 2009. The shallow water ranges for both coasts 
will be completed in fiscal year 2015. The Navy has requested $17.6 
million in fiscal year 2009 for the program.
            Facilities Recapitalization and Sustainment
    Facilities Recapitalization is comprised of modernization and 
restoration. Modernization counters obsolescence by renewing a facility 
to new standards or functions without changing the facility size. 
Restoration includes efforts to restore degraded facilities to working 
condition beyond design service life or to fix damage from natural 
disaster, fire, etc. While MILCON is the major contributor to the 
Navy's recapitalization program, O&M Restoration and Modernization (RM) 
remains a critical contributor to recapitalizing our existing 
infrastructure. The fiscal year 2009 Restoration and Modernization 
funding request of $300 million provides targeted investment in 
critical facilities.
    Facilities sustainment includes those maintenance and repair 
activities necessary to keep facilities in working order through their 
design service life. The fiscal year 2009 funding request of $1.7 
billion is a funding level that maintains our facilities and retains 
mission capability in the short term. While the Navy has historically 
taken significant risk in shore infrastructure investment, we intend to 
reduce this risk by aggressively validating requirements through an 
enterprise approach based on capacity, configuration, and condition of 
the infrastructure and by identifying and demolishing excess 
infrastructure.
            Marine Mammal Research/Sound in Water Effects
    The Navy is committed to proactive compliance strategies to meet 
legal requirements. The Navy also identifies and funds marine mammal 
research, especially research related to mid-frequency active sonar. 
The Navy has requested $18.1 million for its proactive compliance 
efforts in fiscal year 2009. Filling in gaps in scientific data through 
continued acoustic research, enhances Navy compliance with the Marine 
Mammal Protection Act (MMPA), Endangered Species Act (ESA), Coastal 
Zone Management Act (CZMA), and National Environmental Policy Act 
(NEPA). This research is especially important considering the 
increasing pressure placed on the Navy to restrict its use of active 
sonar, even when it adversely impacts training and readiness. In 
addition to MMPA standards, the Navy firmly believes that science must 
both define the effects of active sonar on marine mammals and also 
serve as the appropriate basis for mitigation measures that ensure a 
proper balance between national security and protection of natural 
resources.
            NIMITZ-Class Refueling Complex Overhaul (RCOH)
    RCOH subjects NIMITZ-class aircraft carriers to comprehensive 
modernization upgrades, maintenance, and nuclear refueling to extend 
the service life of NIMITZ-class carriers to approximately 50 years. 
This is nearly 20 years longer than the originally planned service 
life. Execution of RCOH is required to maintain an 11 aircraft carrier 
force. A notional RCOH consists of 3.2 million man-days and a 36-month 
industrial period conducted at Northrop Grumman Newport News, Virginia. 
USS CARL VINSON (CVN 70) is on track to complete RCOH in March 2009. 
Fiscal year 2009 funding of $628 million primarily supports RCOH for 
USS THEODORE ROOSEVELT.
            Utilities Privatization (UP)
    The Navy and Marine Corps have 645 utilities systems that are 
eligible for privatization on 135 activities/installations worldwide. 
Five hundred and seventeen (80 percent) of these systems have reached 
Source Selection Authority (SSA) decisions. Of the 517 systems, 410 
have been determined to be exempt, 28 have been awarded for 
privatization and 79 are being processed for exemption or award. 128 
systems are still being reviewed for an SSA decision. $1.3 million 
requested in our fiscal year 2009 budget supports these ongoing 
initiatives.
            BRAC 2005
    The DON BRAC Program Management Office (BRAC PMO) manages and 
oversees the DoN prior BRAC and BRAC 2005 actions and budget. The BRAC 
PMO oversees the efforts of Commander, Navy Installation Command (CNIC) 
and Commandant of the Marine Corps (CMC) realignment and closure 
efforts, and is responsible for completing property disposal and 
environmental remediation actions. The Navy is coordinating with other 
Services and agencies to support implementation of Joint actions.
    The DoN BRAC program provides $871 million in fiscal year 2009 to 
continue implementation of BRAC actions. The fiscal year 2009 program 
finances construction (including planning and design), operational 
movements at key closure and realignment locations, and the necessary 
environmental studies at receiving locations to fulfill National 
Environmental Policy Act (NEPA) requirements.
            U.S.-Japan Realignment Roadmap on Guam
    On May 1, 2006, the U.S. Japan Security Consultative Committee 
(SCC) approved the relocation of approximately 8,000 personnel for 3rd 
Marine Expeditionary Force and their 9,000 dependents from Okinawa 
Japan to Guam by 2014 as outlined in the U.S.-Japan Realignment 
Roadmap. The Roadmap stipulates that Japan will pay up to $6.09 billion 
of the estimated $10.3 billion cost for Guam facilities. The Secretary 
of Defense directed the Secretary of the Navy to work with the 
Secretaries of the Air Force, Army, Chairman of the Joint Chiefs of 
Staff, and PACOM, to establish a Joint Guam Program Office (JGPO) to 
facilitate, manage, and execute requirements for rebasing the Marines 
from Okinawa to Guam. The fiscal year 2009 budget request of $33.8 
million continues planning and development for a National Environmental 
Policy Act (NEPA)-required Environmental Impact Statement (EIS).
            Family Housing
    Family housing supports readiness by providing Sailors and their 
families suitable, affordable, and safe housing. The Navy's housing 
strategy includes reliance on private sector housing, public/private 
ventures, and military construction. By the end of fiscal year 2007, 95 
percent of CONUS family housing had been privatized. Eighteen 
privatization projects have been awarded for 40,355 homes. To date, 
Navy has secured $4.9 billion in private sector investment from $277 
million of Navy funds; a leverage ratio of 18:1. The agreements now in 
place will result in the elimination of the last inadequate house by 
2011. The fiscal year 2009 budget provides $462 million to support 
family housing.
            Global Force Posture Review
    As part of the Navy's ongoing contribution to the Defense 
Department's initiative to transform the U.S. global defense posture, 
the Navy conducted its own agility assessment of the strategic 
placement of its aircraft carrier force. This assessment is aligned 
with the Quadrennial Defense Review (QDR) decision to build a Fleet 
that includes 11 CSGs. It is also consistent with the movement of other 
Service capabilities away from an Atlantic focus. As indicated in the 
2006 QDR, the principle move for the Navy will be to assure the 
availability of six operational nuclear-powered aircraft carriers in 
the Pacific theater ``to support engagement, presence, and 
deterrence.'' The Navy continues to review current and alternate 
carrier ports to ensure the strategic Navy force disposition will 
promote a forward-leaning nuclear-powered carrier force that will 
strengthen our engagement and shaping capabilities, reassure our 
allies, and deter potential conflicts.
            Child Development Centers
    Navy Child Development and Youth Programs provide quality care for 
over 98,000 children through 131 Child Development Centers, 103 Youth 
Development Programs, 3,021 Child Development Homes, and 86 School Age 
Care Programs. The average waiting time for childcare is six months in 
non-Fleet concentration areas and up to 12 months in Fleet 
concentration areas. Fiscal year 2009 budget request increases the 
number of child care spaces by 5,270 to provide service to 80 percent 
of potential need. The fiscal year 2009 funding supports the 
construction of new Child Development Centers, the use of interim 
modular classrooms, the expansion of Child Development Home program, 
and additional contract civilian spaces.
Manpower
            Human Intelligence (HUMINT)
    The Navy continues to revitalize its HUMINT capability. The Navy's 
goal is to field a professional cadre of HUMINT collectors and to 
support personnel capable of executing the full range of HUMINT source 
operations in support of naval and national requirements. In 
conjunction with the Naval Criminal Investigative Service, the Navy 
continues to move forward with establishing a world-wide HUMINT program 
capable of successfully meeting the emerging threats in the 21st 
century. In the past year, Navy has successfully deployed its first 
tactical HUMINT teams into Iraq and experienced a very high success 
rate in the Al-Anbar province. Meanwhile, elements of the Office of 
Naval Intelligence continue to facilitate the exchange of Maritime 
Domain Awareness information between U.S. Navy and regional security 
partners. These elements provide maritime-focused collection capability 
that can capitalize on regional opportunities to further prosecute OEF/
OIF and carry out other important missions. Naval Maritime Interdiction 
Operations Intelligence Exploitation Teams (MIO-IET) continue to 
increase on-scene intelligence collection and exploitation during MIO 
boardings. The fiscal year 2009 budget provides $17 million to support 
HUMINT and MIO-IET efforts.
            AFRICOM
    On December 15, 2006, the President directed the establishment of a 
Unified Command for Africa no later than October 1, 2008. The Secretary 
of Defense issued follow-on AFRICOM Implementation Guidance (AIG) 
outlining the necessary requirements and details to include stand up of 
a Sub-Unified Command under USEUCOM by October 1, 2007. The primary 
roles of the command are non-kinetic missions for security cooperation; 
humanitarian relief; stability, security, transition, and 
reconstruction activities (SSTR); partnership capacity; and MIL-to-MIL 
activities.
    The Navy has filled the IOC requirement of 33 Navy billets. We also 
intend to fill our portion of the FOC manpower requirements for 
USAFRICOM in addition to approximately 100 billets for the associated 
Naval Component Command.
            Language, Regional Expertise & Culture (LREC)
    Achieving Navy's maritime strategy depends in part on our ability 
to communicate with and comprehend adversaries, allies, and partners. 
Consistent with the Defense Language Transformation Roadmap and the 
Navy Strategic Plan (NSP), the program incentivizes language 
proficiency, increases regional content in Navy Professional Military 
Education (NPME), and provides non-resident language instruction to all 
Sailors and delivers in-residence training to more officers. $51.1 
million requested in fiscal year 2009 continues existing efforts and 
begins new initiatives of enhanced non-resident and resident language 
training.
            Navy Education
                Professional Military Education (PME)
    Our fully fielded PME continuum provides career-long educational 
opportunities for professional and personal development that support 
mission capabilities. It contributes significantly to the development 
of 21st century leaders who have the capacity to think through 
uncertainty; develop innovative concepts, capabilities, and strategies; 
fully exploit advanced technologies, systems, and platforms; understand 
cultural/regional issues; and conduct joint operations.
    Navy PME (NPME), with Joint PME embedded at every level, provides a 
common core of knowledge for all Sailors. A primary level program was 
implemented via distance learning in June 2006. The initial targeted 
audience is junior unrestricted line officers and senior enlisted 
Sailors. Introductory and basic level PME courses for more junior 
Sailors were fielded in January 2008. Our fiscal year 2009 request of 
$180.2 million allows the continuation of career-long educational 
opportunities for our Sailors.
                Joint Professional Military Education (JPME)
    JPME teaches the principles of Joint warfare and prepares leaders 
to conduct operations as a coherent Joint force. Our path enhances our 
belief in the value of jointness and systematically develops Navy 
leaders who are strategically minded, capable of critical thinking, and 
skilled in naval and Joint warfare. PME completion is linked with 
career progression. For example, intermediate-level PME with JPME Phase 
I is required for screening unrestricted line officers for command 
beginning in fiscal year 2009. In August 2006, the Naval War College 
implemented in-residence instruction of JPME Phase II into the senior-
level course. To support Maritime Component Commanders, the Naval War 
College has also implemented the Maritime Staff Operations Course to 
strengthen maritime and joint planning and war fighting.
                The Naval Reserve Officers Training Corps (NROTC)
    The NROTC program comprises 59 active units at 71 host institutions 
of higher learning across the nation. With $178 million requested in 
fiscal year 2009, the program is adequately funded to provide four and 
two year scholarships to qualified young men and women to help prepare 
them for leading increasingly technical Navy and Marine Corps 
organizations as commissioned officers. The program continues to be a 
key source of nuclear power candidates and nurses and it increases 
officer corps diversity. We are increasing strategic foreign language 
skills and expanding cultural awareness among NROTC Midshipmen as well.
                The United States Naval Academy
    The Naval Academy is our naval college and it prepares young men 
and women morally, mentally, and physically to become professional 
officers of competence and character in the U.S. Navy and Marine Corps. 
Midshipmen attend the academy for four years. They graduate with a 
Bachelor of Science degree from one of 21 subject areas and are 
commissioned as Ensigns in the Navy or Second Lieutenants in the Marine 
Corps. The Naval Academy offers one of the most socially diverse 
educational experiences in America. Midshipmen come from all fifty 
states, forty-eight countries, and represent a mix of races, socio-
economic groups, and religions. Naval Academy graduates serve at least 
five years in the Navy or Marine Corps. Renowned for producing officers 
with solid technical and analytical foundations, the Naval Academy is 
expanding its capabilities in strategic languages and regional studies. 
The $128.6 million requested in the fiscal year 2009 budget supports 
the Naval Academy mission.
                The Naval Postgraduate School (NPS)
    NPS is the Navy's principal source for graduate education. It 
provides Navy and defense-relevant, degree and non-degree, resident and 
nonresident, programs to enhance combat effectiveness. NPS provides 
essential flexibility for students to satisfy Navy and DOD emergent 
research needs. The flexibility also helps develop warfighters whose 
demanding career paths and deployment cycles can make graduate 
education opportunities difficult to achieve. NPS supports Navy 
operations through naval and maritime research and maintains an expert 
faculty capable of working in, or serving as, advisors to operational 
commands, labs, systems commands, and headquarters. The $92.3 million 
requested in fiscal year 2009 sustains this unique national asset, 
provides lab upgrades, and increases opportunities for distance 
learning.
                The Naval War College (NWC)
    The Naval War College provides professional maritime and joint 
military education, advanced research, analysis, and gaming to educate 
future leaders. Its mission is to enhance the professional capabilities 
of U.S. and international students to make sound decisions in command, 
staff and management positions in naval, joint, and multinational 
environments. The College also contributes to the evolution and 
establishment of international relationships and building Global 
Maritime Partners. The faculty, staff, and students support combat 
readiness through developing expertise at the operational level of war. 
The $63 million requested in fiscal year 2009 supports increased 
support of Joint Forces Maritime Component Command/Coalition Forces 
Maritime Component Command analysis and gaming capability, the China 
Maritime Studies Institute, initial investment for MHQ/MOC, support for 
JPME I and JPME II accreditation, funding for JPME I at the Naval 
Postgraduate School, and for NWC Maritime Staff Operations curriculum 
development.
            Enlisted Retention (Selective Reenlistment Bonus)
    Sailors are the Navy, and retaining the best and brightest Sailors 
has always been a Navy core objective and key to success. We retain the 
right people by offering rewarding opportunities for professional 
growth, development, and leadership. With reenlistment rates returning 
to historic levels after peaking in fiscal year 2003, current 
reenlistment efforts are focused on shaping and stabilizing the force. 
Selective Reenlistment Bonuses (SRBs) are a key tool enabling us to 
offer attractive incentives to selected Sailors we want to retain. 
$359.6 million requested in fiscal year 2009 will provide for over 
76,000 new and anniversary payments and ensure the Navy will remain 
selective in fiscal year 2009.
            Sexual Assault Victim Intervention (SAVI)
    SAVI has three major components: awareness and prevention 
education, victim advocacy and intervention services, and collection of 
reliable data on sexual assault. Per the fiscal year 2005 National 
Defense Authorization Act requirements, the Navy SAVI Program was 
transitioned from a program management to case management focus. 
Existing installation program coordinator positions were increased and 
became Sexual Assault Response Coordinators (SARCs), which is a 
standard title and position across the Department of Defense. SARCs are 
accountable for coordinating victim care/support and for tracking each 
unrestricted sexual assault incident from initial report to final 
disposition. Navy also provides 24/7 response capability for sexual 
assaults, on or off an installation, and during deployment through the 
use of Victim Advocates who report to installation SARCs. The $6.2 
million requested in the fiscal year 2009 budget enables us to maintain 
this expanded SAVI program fleet-wide.
            Family Advocacy Program (FAP)
    The FAP addresses prevention, identification, reporting, 
evaluation, intervention, and follow-up with respect to allegations of 
child abuse/neglect and domestic abuse involving active duty and their 
family members or intimate partners. Maintaining abuse-free and 
adaptive family relationships is critical to Navy mission readiness, 
maintenance of good order and discipline, and quality of service for 
our active duty members and their families.
    RC Sailors, when activated or in a drill status, fall under the 
guidelines of DON Family Advocacy Program policy and have access to 
Navy programs until 18 months after deactivation. They also have access 
to Fleet and Family Support programs, which include new parent support 
and other prevention programs. FAP ensures proper balance for our 
Sailors' physical and mental health.
            Sea Warrior Spiral 1
    Sea Warrior comprises the Navy's training, education, and career 
management systems that provide for the growth and development of our 
people. The first increment, or ``Spiral 1'', of Sea Warrior is 
Interactive Detailing. This system allows Sailors to have greater 
insight and involvement in identifying and applying for Navy positions 
of interest to them professionally and personally. Spiral 1 Sea Warrior 
is a funded Navy program and its development follows a standard, 
rigorous acquisition engineering and program management processes. 
Additional Sea Warrior spirals will be developed in accordance with 
future capability needs and as clear requirements are defined.
    In 2007 we fielded the first version of the Career Management 
System (CMS) with Interactive Detailing. This new system allows Sailors 
ashore to review their personal and professional information, view 
available jobs, and submit their detailing preferences through their 
career counselors. The next step is to provide the same to Sailors on 
ships. This portion of the system has been tested in the laboratory and 
is in the process of being installed and tested on selected ships.
    The successful development and testing of these increments of 
additional functionality to the CMS system are the first steps in 
achieving our vision of enabling all Sailors to review available jobs 
and submit their own applications for their next assignment (consistent 
with policy and access) by June of 2009.
Health Care
            Combat Casualty Care
    Combat casualty care is provided by Navy medical personnel assigned 
to and serving with Marine Corps units in Expeditionary Medical 
Facilities, aboard casualty receiving/treatment ships and hospital 
ships, and in military and VA hospitals. A full range of health 
services to support the war fighter is provided in this integrated 
continuum of care, from the battlefield to our CONUS hospitals. We are 
redesigning Expeditionary Medical Facilities to become lighter, more 
mobile, and interoperable in a Joint environment.
    Recent advances in force protection, battlefield medicine, combat/
operational stress control, and medical evacuation have led to improved 
survival rates and enhanced combat effectiveness. Since the start of 
OEF/OIF the Marine Corps has fielded new combat casualty care 
capabilities, including: updated individual first aid kits with 
QuikClot and advanced tourniquets, robust vehicle first-aid kits for 
convoy use, and Combat Lifesaver training. Navy Medicine leads advanced 
technology research for the development of new systems to provide 
forward resuscitative surgery, en route care, and the use of innovative 
technologies.
            Post Traumatic Stress Disorder (PTSD)
    Though there has been a slight increase in new cases since fiscal 
year 2003, the prevalence of PTSD remains about one percent of the 
total Navy active duty population. The number of cases of PTSD in 
active duty Sailors was 1,046 in fiscal year 2003, 964 in fiscal year 
2004, 1,221 in fiscal year 2005 1,280 in fiscal year 2006, and 1,399 
thru September 12, 2007. To reflect recent advancements in prevention 
and treatment of stress reactions, injuries, and disorders, the Navy/
Marine Corps Combat/Operational Stress Control (COSC) doctrine is under 
revision and becomes effective in April 2009.
            Quality Medical Care
    Navy Medicine provides high quality, compassionate, cost-effective 
care. This care is a worldwide continuum from those wounded in battle 
to those operationally deployed, to those in garrison support, and to 
those who have retired from the uniformed service. Navy Medicine is 
continuously assessing its medical capabilities to improve and has 
adjusted to ensure the right health care capabilities are deployed as 
far forward as possible. These improvements are based on experience, 
lessons learned, and on requirements mandated by the warfighter. 
Changes have been made in the training of the physicians, nurses, and 
corpsmen who first encounter injured service members and in treatment 
methods. Recruitment and retention of health professionals remains a 
major focus.
            Post-Deployment Health Care
    Navy Medicine has developed new delivery models for deployment-
related concerns and is working with the Office of Seamless Transition 
to improve coordination with the VA. Navy Medicine has established 17 
Deployment Health Centers (DHC) as non-stigmatizing portals of care for 
service members and their families in areas of Fleet and Marine 
concentration. These centers support operational commands in ensuring 
medical care for those returning from deployment.

    Senator Inouye. Commandant.
STATEMENT OF GENERAL JAMES T. CONWAY, COMMANDANT, 
            UNITED STATES MARINE CORPS
    General Conway. Mr. Chairman, Senator Stevens, and 
distinguished members of the subcommittee, I pledge to always 
provide you with forthright and honest assessments of your 
Marine Corps, and I bear that in mind today as I report to you 
on the posture of our service.
    In a written statement, I provided you a list of priorities 
that would enable your Corps to best serve our Nation's 
security interests, both today and in the uncertain future. But 
in brief, our young warriors in combat are my number one 
priority. Those magnificent patriots have been extremely 
effective in disrupting insurgents and the al Qaeda in the al-
Anbar province. In the spirit of jointness, I must note that it 
hasn't been just marines, rather marines, sailors, and 
soldiers, a composite effort over time, that has brought 
success to the al-Anbar.
    Quiet in their duty and determined in their approach, your 
marines are telling us loud and clear that wherever there is a 
job to be done, they'll shoulder that mission with enthusiasm. 
They're tough, and they'll do what it takes to win.
    We are still supporting the surge in Iraq and have already 
shifted from population protection to transitioning security 
responsibilities to Iraqi security forces. They're actively 
stepping up to the task. What may not be our core competency, 
marines have addressed the nation-building aspect of our duties 
with enthusiasm and determination.
    And as to the most recent call from the Secretary of 
Defense, we are also deploying more than 3,400 marines to 
Afghanistan. Your marines will assist a joint force in either 
gaining or maintaining momentum there. We fall on our 
expeditionary ethos of living hard and fighting well, as part 
of an air-ground team.
    I just returned from a visit to Iraq and Afghanistan and, 
ladies and gentlemen, I'm pleased to report to you that your 
marines are demonstrating an amazing resiliency in the face of 
multiple deployments to dangerous lands. In spite of a one-to-
one deployment to dwell regimen, that has virtually no chance 
of getting better until the fall, the factors that we track 
monthly to determine health of the force, those include 
desertion and UA rates, suicide, divorce, child and spousal 
abuse, retention and re-enlistment rates, are all as good or 
better than they were in 2001.
    We do have a significant issue with our families, simply 
put, they're proud of their contributions to this war, but 
they're tired. We owe it to those families to put our family 
service programs on to a war time footing. For too long our 
programs have been born on the backs of volunteers, acceptable 
perhaps during peace time, but untellable during a protracted 
conflict. The Congress has been exceptionally supportive in 
enabling us to make good on our promises to do more.
    Of course, we look beyond today in our obligation to the 
Nation, and we have learned lessons in trying to build the 
force as we fight. In response to a clear need, we are growing 
the Corps to 202,000 marines. We do this without lowering our 
standards, and we're ahead of our goals. During the last fiscal 
year we need to bring aboard or retain 5,000 additional 
marines. We actually grew 7,000 additional troops, over 96 
percent of them, high school graduates.
    But more than just manpower, this growth requires training, 
infrastructure, and equipment to meet the needs of the country. 
You've helped us meet those requirements with steady support 
and encouragement, and for that, we certainly thank you.
    The Marine Corps retains the mission to provide a multi-
capable force for our Nation, a two-fisted fighter, if you 
will, able to destroy enemy formations with our air-ground 
teams and major contingencies, but equally able to fall back on 
our hard earned, irregular warfare skills, honed over decades 
of conflict. By far, the most complex of our congressionally 
mandated missions, amphibious operations, require deliberate 
training and long-term resourcing to achieve high levels of 
proficiency. The operational expertise, special equipment sets, 
and amphibious lift are not capabilities that we can rapidly 
create in the face of a threat.

                           PREPARED STATEMENT

    Finally, on behalf of your marines, I extend a great 
appreciation for your support thus far, and I thank you in 
advance for your efforts on behalf of your brave servicemen and 
women in harms way. I assure you, that the Marine Corps 
appreciates the increasing competitions for the Nation's 
discretionary resources and will continue to provide a tangible 
return for every dollar spent.
    Thank you, Mr. Chairman.
    [The statement follows:]
             Prepared Statement of General James T. Conway
                           executive summary
    Chairman Inouye, Senator Stevens, and Distinguished Members of the 
Subcommittee; I have pledged to always provide you forthright and 
honest assessments of your Corps. I bear that in mind today as I report 
to you on the posture of your Corps.
    Your Marine Corps is fully engaged in what we believe is a 
generational struggle against fanatical extremists; the challenges we 
face are of global scale and scope. This Long War is multi-faceted and 
will not be won in one battle, in one country, or by one method. Your 
Marines are a tough breed and will do what it takes to win--not only in 
these opening battles of Iraq and Afghanistan, but also in the 
subsequent conflicts which we endeavor to prepare for today.
    In the face of great hardship, your Marines have made a positive 
and selfless decision to stay resolved. More than 332,000 Marines have 
either enlisted or re-enlisted since September 11, 2001; more than 
208,000 have deployed to Iraq or Afghanistan--a telling number for a 
force of less than 200,000 Marines. Make no mistake, they joined or 
decided to re-enlist knowing they would go into harm's way.
    They have answered the Nation's call and are fully engaged in this 
fight--serving with distinction as the professionals they are. It falls 
on us, then, to fully support them--we owe them the full resources 
required to complete the tasks ahead. Now more than ever, they need the 
sustained support of the American people and the Congress to provide 
them the help they need to fight today's conflict, prepare for 
tomorrow's, and fulfill our commitment to our Marine families.
    Without question, Marines in combat are our number one priority. 
Taken as a whole, combat operations are indeed stressing our forces and 
families. That said, the Marine Corps will not fail her country when 
called. In fact, in answer to the most recent call to provide ready 
forces to serve our Nation, the Marine Corps is deploying more than 
3,200 Marines to Afghanistan in addition to supporting ongoing surge 
operations in Iraq and other force requirements worldwide.
    It is with these great men and women in mind that the Marine Corps 
has shaped its priorities--which are enduring and serve not only the 
conflict of today, but also the inevitable crises that will arise in 
our Nation's future. Through this budget request, we seek to:
    Right-size the Marine Corps for today's conflict and tomorrow's 
uncertainty.--To fulfill our obligations to the Nation, the Marine 
Corps will grow its personnel end strength to 202,000 Active Component 
Marines by the end of fiscal year 2011. This increase will enable your 
Corps to train to the full spectrum of military operations and improve 
the ability of the Marine Corps to address future challenges of an 
uncertain environment. Our growth will enable us to recover our ability 
to respond in accordance with timelines outlined in Combatant Commander 
war plans--thereby, reducing operational risk. More than just manpower, 
this growth will require training, infrastructure, and equipment to 
meet the needs of our Nation.
    Reset the force and prepare for the next contingency.--To meet the 
demands of this war, we must reset the force so that we can 
simultaneously fight, train, and sustain our Corps. The Long War is 
taking a considerable toll on our equipment, and we continue to make 
tough choices on how best to apply the resources we are provided. 
Congress has responded rapidly and generously to our requests for 
equipment and increased protection for our Marines and Sailors. We are 
committed to fulfilling our responsibility to manage these resources 
prudently as we modernize our force.
    Modernize for tomorrow to be ``the most ready when the Nation is 
least ready''.--Congressionally-mandated to be ``the most ready when 
the Nation is least ready,'' your multi-capable Corps is committed to 
fulfilling this responsibility. We remain focused and steadfast in our 
responsibility to be the Nation's premiere expeditionary Force-in-
Readiness. To do so, we continue to adapt our organization and 
equipment to provide our country the best Marine Corps in the world.
    Provide our Nation a naval force that is fully prepared for 
employment as a Marine Air Ground Task Force across the spectrum of 
conflict.--The newly published Maritime Strategy reaffirms our naval 
character and reemphasized our enduring relationship with the Navy and, 
now, Coast Guard. Current operations limit our ability to aggressively 
commit forces to strategy implementation at this time. However, as we 
increase our end-strength to 202,000 Marines and as security conditions 
continue to improve in Iraq, the Marine Corps will transition our 
forces to other battles in the Long War. The most complex mission in 
the Maritime Strategy is the Congressionally-mandated mission of 
amphibious forcible entry. Such an operation requires a high level of 
proficiency and long-term resourcing and is not a capability that we 
can create on short notice.
    Take care of our Marines and their families.--Our most precious 
asset is the individual Marine. Our Marines and families have been 
steadfast and faithful in their service to our country, and we have an 
equally enduring obligation to them. As such, we are committed to 
putting our family programs on a wartime footing--our Marines and 
families deserve no less.
    Posture the Marine Corps for the future beyond the horizon.--The 
United States faces a complex mix of states who sponsor terrorism, 
regional and rising peer competitors, failing states that undermine 
regional stability, and a variety of violent non-state actors--all 
serving to destabilize legitimate governments and undermine security 
and stability of the greater global community. We see this global 
security context as a persistent condition for the foreseeable future.
    The Marine Corps continues to create a multi-capable force for our 
Nation--not only for the current operations in Iraq and Afghanistan, 
but also for subsequent campaigns of the Long War. We are committed to 
ensuring we remain where our country needs us, when she needs us, and 
to prevail over whatever challenges we face.
    On behalf of your Marines, I extend great appreciation for your 
support thus far and thank you in advance for your ongoing efforts to 
support our brave service men and women in harm's way. I promise you 
that the Corps understands the value of each dollar provided and will 
continue to provide maximum return for every dollar spent.
       marines and sailors in combat are our number one priority
    Marines in the operating forces have been pushed hard by the tempo 
and frequency of operational deployments; yet, their morale has never 
been higher--because they believe they are making a difference. Thanks 
to the Congress, your Marines know that the people of the United States 
and their Government are behind them. Your support has been 
exceptional--from the rapid fielding of life-saving equipment to the 
increase of Marine Corps end strength. With your continued support, 
your Marines will continue to make progress in their mission.
USMC Commitments in the Long War
    Over the past year, your Marines deployed to all corners of the 
globe in support of our Nation. With more than 24,000 Marines deployed 
throughout the U.S. Central Command's Area of Responsibility, 
Operations IRAQI FREEDOM (OIF) and ENDURING FREEDOM (OEF) remain our 
largest commitment. The Marine Corps continues to support surge 
operations in Iraq in the form of two additional infantry battalions 
and the enabling forces that accompany them. As part of the Marine Air 
Ground Task Force in Iraq, these forces have proven extremely effective 
in the disruption of insurgent activities in the Al Anbar province.
    As part of these forces, Marine Corps provides more than 250 
personnel to OEF--Afghanistan. Approximately 100 of these Marines are 
members of a Marine Special Operations Company that routinely engages 
in combat operations with partnered Afghan and U.S. Special Forces 
units. The remaining Marine complement to Afghanistan forms the nucleus 
of seven Embedded Training Teams (ETTs); these detachments provide 
strong mentorship to Afghan National Army units in the continuing fight 
against the Taliban.
    Taken as a whole, these recurring commitments of Marine forces in 
support of combat operations is indeed a stressing challenge on our 
forces and families. That said, the Marine Corps is fully cognizant of 
the regional and global effects of progress in Iraq, Afghanistan, and 
the Middle East. In fact, in answer to the most recent call to provide 
ready forces to serve our Nation, the Marine Corps is deploying a 
Marine Expeditionary Unit (MEU)-sized Marine Air Ground Task Force and 
an additional Battalion to conduct combat operations in Afghanistan. 
These 3,200 Marines are in addition to surge operations in Iraq and 
other force requirements worldwide.
    The Marine Corps also deployed forces to participate in over sixty 
Theater Security Cooperation events, which ranged from small Mobile 
Training Teams in Central America to Marine Expeditionary Unit 
exercises in Africa, the Middle East, and the Pacific. The Marine Corps 
also took part in civil-military and humanitarian assistance operations 
such as New Horizons events in Nicaragua, land mine removal training in 
Azerbaijan, and disaster relief in Bangladesh after a devastating 
cyclone.
    right-size the marine corps for today's conflict and tomorrow's 
                              uncertainty
    To meet the demands of the Long War, as well as the unforeseen 
crises that will inevitably arise, our Corps must be sufficiently 
manned, well trained, and properly equipped. Like the Cold War, the 
Long War is a long-term struggle that will not be measured by the 
number of near-term deployments or rotations; it is this long-term view 
that informs our priorities and plan for growth.
    To fulfill our obligations to the Nation, the Marine Corps will 
grow its personnel end strength to 202,000 Active Component Marines. 
This increase will enable your Corps to train to the full spectrum of 
military operations and improve the ability of the Marine Corps to 
address future challenges of an uncertain environment. Our growth will 
enable us to recover our ability to respond in accordance with 
timelines outlined in Combatant Commander war plans--thereby, reducing 
operational risk.
    Current wartime deployment rates dictate an almost singular focus 
to prepare units for their next rotation and counterinsurgency 
operations. This focus and the deployment rate of many units threaten 
to erode the skills needed for Marine Corps missions such as combined-
arms maneuver, mountain warfare, and amphibious operations. Our 
deployment cycles must not only support training for irregular warfare, 
but also provide sufficient time for recovery and maintenance as well 
as training for other contingency missions. By increasing dwell time 
for our units, we can accomplish the more comprehensive training needed 
for the sophisticated skill sets that have enabled Marine Air Ground 
Task Forces to consistently achieve success in all types of operations.
    Just as importantly, this growth will relieve strain on those 
superb Americans who have volunteered to fight the Nation's battles. We 
must ensure that our personnel policies, organizational construct, and 
training enable our Marines to operate at the ``sustained rate of 
fire.'' This means that we must have sufficient dwell time, equipment 
for training, and resources for our Marines and their families to 
sustain their efforts over time. Our recently begun growth to 202,000 
Marines will significantly enhance our ability to operate at the 
``sustained rate of fire.''
    Our goal, during the Long War, is to achieve a 1:2 deployment-to-
dwell ratio for all of our active forces; for every seven months a 
Marine is deployed, he or she will be back at home station for fourteen 
months. Right now, many of our forces are at a 1:1 deployment-to-dwell 
ratio or less--which cannot be sustained in the long-term. We also aim 
to implement a 1:5 deployment to dwell ratio for our reserve forces 
and, eventually, achieve a peacetime deployment-to-dwell ratio goal is 
1:3 for our active forces.
    As we grow, we will develop all the elements of our Marine Air 
Ground Task Force in a balanced manner to meet the diverse challenges 
of an uncertain future. This growth includes:
  --An increase in our end strength to 202,000 Marines;
  --Adequate expansions of our infrastructure to provide for our 
        Marines, their families, and their equipment; and
  --The right mix of equipment for the current and future fight.
    This additional end strength will result in three Marine 
Expeditionary Forces--balanced in capacity and capability. The 
development of Marine Corps force structure has been the result of a 
thorough and ongoing process that supports the Combatant Commanders and 
accomplishes our Title 10 responsibilities. The process addresses all 
pillars of combat development (Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, and Facilities) and 
identifies our required capabilities and the issues associated with 
fielding them. The most recent assessment revealed a requirement to 
front-load structure for recruiters and trainers to support our 
personnel growth and a phased introduction of units balanced across the 
Marine Air Ground Task Force.
    In fiscal year 2007, we stood up two infantry battalions: 1st 
Battalion, 9th Marines and 2nd Battalion, 9th Marines. We also added 
capacity to our combat engineer battalions and air naval gunfire 
liaison companies. Our plan will gradually improve the deployment-to-
dwell ratio of some of our other habitually high operational tempo 
units--such as military police, unmanned aerial vehicle, helicopter, 
air command and control, combat service support, and explosive ordnance 
disposal units.
    Growing the Marine Corps as we simultaneously fight the Long War is 
a challenge, but we are committed to being the best stewards of the 
Nation's resources and working with the Congress to achieve these 
important goals.
Growing to 202,000 Marines
    The Marine Corps surpassed its fiscal year 2007 authorized end 
strength goal of 184,000 and is on track to meet the goal of 189,000 
Marines for fiscal year 2008 as well as our target end strength of 
202,000 Marines by fiscal year 2011.
    Recruiting.--A vital factor in sustaining our force and meeting end 
strength goals is continuing to recruit qualified young men and women 
with the right character, commitment, and drive to become Marines. With 
over 70 percent of our end strength increase comprised of Marines on 
their first enlistment, our recruiting efforts are a critical part of 
our overall growth.
    While exceeding Department of Defense quality standards, we 
continue to recruit the best of America into our ranks. In fiscal year 
2007, the Marine Corps achieved over 100 percent of the Active 
Component accession goal necessary to grow the force as well as 100 
percent of our reserve recruiting goals. We reached this goal without 
compromising the high quality standards the American people expect of 
their Marines.
    We forecast that both active and reserve recruiting will remain 
challenging in fiscal year 2008, particularly given the increased 
accession missions needed to meet our end strength growth. We will need 
the continued indispensable support of Congress to sustain our existing 
programs and other incentives essential to achieving our recruiting 
mission.
    Retention.--Retention is the other important part of building and 
sustaining the Marine Corps. As a strong indicator of our force's 
morale, the Marine Corps has achieved unprecedented numbers of 
reenlistments in both the First Term and Career Force. The expanded 
reenlistment goal, in which we sought to reenlist over 3,700 additional 
Marines, resulted in the reenlistment of 31 percent of our eligible 
First Term force and 70 percent of our eligible Career Force--compared 
to the 22 percent first term and 65 percent career force reenlistments 
in fiscal year 2006. This achievement was key to reaching the first 
milestone in our end strength increase--184,000 Marines by the end of 
fiscal year 2007--without sacrificing our high quality standards. In 
fact, a recent Center for Naval Analyses study concluded that the 
quality of our First Term force who reenlist has improved steadily 
since fiscal year 2000.
    For fiscal year 2008, our retention goals are even more aggressive, 
but we fully expect to meet them. Our continuing success will be 
largely attributable to several important enduring themes. First, 
Marines are motivated to ``stay Marine'' because they are doing what 
they signed up to do--fighting for and protecting our Nation. Second, 
they understand our culture is one that rewards proven performance; our 
Selective Reenlistment Bonuses are designed to retain top quality 
Marines with the most relevant skill sets.
    There is no doubt that your Marines' leadership and technical 
skills have rendered them extremely marketable to lucrative civilian 
employment opportunities. To retain the most qualified Marines, we must 
maintain Selective Reenlistment Bonus (SRB) funding. In fiscal year 
2007, the Marine Corps spent approximately $460 million in SRB and 
Assignment Incentive Pay (AIP) to help achieve our end strength goal. 
With a reenlistment mission of 17,631 in fiscal year 2008--compared to 
an historical average of 12,000--the Marine Corps expects to spend 
approximately $500 million in reenlistment incentives during fiscal 
year 2008.
    This aggressive SRB plan will allow us to retain the right grade 
and skill sets for our growing force--particularly among key military 
occupational specialties. The continued support of the Congress will 
ensure we have the necessary combat-trained Marines for the Long War 
and other contingency operations.
    Reserve Component End Strength.--Our fights thus far in Iraq and 
Afghanistan have been a Total Force effort--our Reserve forces continue 
to perform with grit and determination. Our goal is to obtain a 1:5 
deployment-to-dwell ratio within our Reserve Component. As our active 
force increases in size, our reliance on our Reserve forces should 
decrease--helping us achieve the desired deployment-to-dwell ratio. We 
believe our current authorized end strength of 39,600 Selected Marine 
Corps Reserves is appropriate. As with every organization within the 
Marine Corps, we continue to review the make-up and structure of our 
Reserve in order to ensure the right capabilities reside within the 
Marine Forces Reserve units and our Individual Mobilization Augmentee 
program.
    Military-to-Civilian Conversions.--Military-to-civilian conversions 
replace Marines in nonmilitary-specific billets with qualified 
civilians, enabling the Corps to return those Marines to the operating 
forces. Since 2004, the Marine Corps has returned 3,096 Marines to the 
operating force through military-to-civilian conversions. We will 
continue to pursue sensible conversions as this will aid in our 
deployment-to-dwell ratio goals for the force.
Growing to 202,000: Infrastructure
    Military Construction is one of our keys to success in increasing 
the Marine Corps to 202,000 Marines by 2011. We have determined the 
optimal permanent locations for these new units and have generated 
estimates for the types and sizes of facilities needed to support these 
forces. Because our end strength will increase before final 
construction is complete, we are providing interim support facilities 
that will include lease, rental, and purchase of temporary facilities. 
Our plan will ensure adequate facilities are available to support the 
phase-in and Final Operating Capability of a 202,000 Marine Corps while 
meeting our environmental stewardship responsibilities.
    Military Construction--Bachelor Enlisted Quarters Initiative.--
Housing for our single Marines continues to be our top military 
construction focus. Barracks are a significant quality of life element 
in taking care of our single Marines. We have put ourselves in extremis 
with regards to new barracks as we have degraded their priority for 
decades in lieu of operational requirements. We are now committed to 
providing adequate billeting for all of our existing unmarried junior 
enlisted Marines and non-commissioned officers by 2012--and for our 
increased end strength by 2014. To do that, we doubled the amount of 
our bachelor housing funding request from fiscal year 2007 to 2008; we 
will more than triple the 2008 amount in fiscal year 2009. We are also 
committed to funding replacement of barracks' furnishings on a seven-
year cycle and prioritizing barracks repair projects to preempt a 
backlog of repairs.
    Public Private Venture (PPV) Housing.--Our efforts to improve 
housing for Marines and their families continue. The housing 
privatization authorities are integral to our efforts to accommodate 
both current housing requirements and those resulting from our planned 
force increases. Thanks to Congressional support, the Marine Corps had 
business agreements in place at the end of fiscal year 2007 to 
eliminate all of our inadequate family housing. However, we need to 
continue our PPV efforts to address the current insufficient number of 
adequate housing units as well as the deficit being created by the 
increase in end strength to 202,000 Marines.
    Training Capacity.--Marine Corps Training & Education Command is 
increasing its training capacity and reinvigorating our pre-deployment 
training program to provide support to all elements of the Marine Air 
Ground Task Force (MAGTF) across the full spectrum of potential 
missions. In accordance with the Secretary of Defense's Security 
Cooperation guidance, we are developing and coordinating training and 
education programs to build the capacity of allied and partner nations. 
We are also developing the capability to conduct large-scale MAGTF 
exercises within a joint, coalition, and interagency context to 
maintain proficiency in core warfighting functions such as combined 
arms maneuver, amphibious operations, and maritime prepositioning 
operations. Finally, we are ensuring our training and education 
programs and training ranges accommodate the 27,000 Marine Corps end 
strength increase.
Growing to 202,000: Equipment
    Our assessment of the materiel requirements for our growth has been 
significantly enhanced through cooperation between the Marine Corps and 
industry partners. Through this effort, the units we created in fiscal 
year 2007 were provided the equipment necessary to enter their pre-
deployment training cycle. By prioritizing Marines in combat and 
redistribution of some of our strategic stocks, these new units were 
able to meet training and deployment requirements for combat. With the 
Congress' continued support, the numerous equipment contracts required 
to support our growth were met during fiscal year 2007 and will be met 
through fiscal year 2008 and beyond.
       resetting the force and preparing for the next contingency
    To meet the demands of this war, we must reset the force so that we 
can simultaneously fight, train, and sustain our Corps. The Long War is 
taking a considerable toll on our equipment, and we continue to make 
tough choices on how best to apply the resources we are provided--
either to replace our rapidly aging equipment with similar platforms or 
to modernize with next generation equipment. Additionally, we have 
routinely drawn additional equipment from strategic stocks, which need 
to be replenished in order for us to remain responsive to emerging 
threats. The Congress has responded rapidly and generously to our 
requests for equipment and increased protection for our Marines and 
Sailors. We are committed to fulfilling our responsibility to manage 
these resources prudently as we modernize our force.
Costs of Resetting the Force
    Reset funds replenish the equipment necessary to keep the Marine 
Corps responsive to emerging threats. Costs categorized as ``reset'' 
meet one of the following criteria: maintenance and supply activities 
to restore and enhance combat capability to unit and pre-positioned 
equipment; replace or repair equipment destroyed, damaged, stressed, or 
worn out beyond economic repair; and enhance capabilities, where 
applicable, with the most up-to-date technology.
    Our current reset estimate is $15.6 billion. To date, Congress has 
appropriated a total of $10.9 billion for Marine Corps GWOT reset 
costs. As the nature of the Long War evolves, ``reset the force'' cost 
estimates evolve as well. We not only need to ``Reset'' the force to 
support current readiness, but we also need to ``Reconstitute and 
Revitalize'' the force in preparation for future challenges. We are 
coordinating with other Services and the Joint Staff to refine 
estimates, and we are aggressively executing funding to ensure the 
Marines in the fight have the proper equipment in a timely manner.
Equipment Readiness
    While the vast majority of our equipment has passed the test of 
sustained combat operations, it has been subjected to more than a 
lifetime's worth of wear stemming from increased vehicle mileage and 
operating hours as well as harsh environmental conditions--resulting in 
an escalated maintenance effort. This maintenance requirement is a 
consequence of not only operational tempo and operating environments, 
but also the sheer amount of equipment employed in operations. 
Approximately 26 percent of all Marine Corps ground equipment is 
currently engaged overseas. Most of this equipment is not rotating out 
of theater at the conclusion of each force rotation; it remains in 
combat, used on a near-continuous basis at a pace that far exceeds 
normal peacetime usage.
    For example, in Operation IRAQI FREEDOM, crews are driving Light 
Armored Vehicles in excess of 8,700 miles per year--3.5 times more than 
the programmed annual usage rates of 2,480 miles per year. Our tactical 
vehicle fleet is experiencing some of the most dramatic effects of 
excessive wear, operating at five to six times the programmed rates. 
Many weapon systems have been modified during this conflict; some of 
these modifications have led to further wear and tear due to additional 
weight--for example, armor plating has been added for protection 
against improvised explosive devices. These factors, coupled with the 
operational requirement to keep equipment in theater without 
significant depot repair, has tremendously decreased the projected 
lifespan of this equipment. As a result, we can expect higher than 
anticipated reset costs and more replacements than repair of equipment. 
The depot level maintenance requirements for the equipment that is 
repairable will continue beyond the conclusion of hostilities in Iraq 
and Afghanistan.
    Our priority for equipment is to support Marines serving in harm's 
way. Therefore, we have drawn additional equipment from the Maritime 
Prepositioning Ships and prepositioned stores in Norway; we have also 
retained equipment in theater from units that are rotating back to the 
United States. The operational results of these efforts have been 
outstanding--the average mission capable rates of our deployed forces' 
ground equipment remain above 90 percent--but there is a price.
    The cost of this success is a decrease in non-deployed unit 
readiness as well as an increase in the maintenance required per hour 
of operating time. Equipment across the Marine Corps is continuously 
cross-leveled to ensure that units preparing to deploy have sufficient 
equipment to conduct our rigorous pre-deployment training programs. 
Because the stateside priority of equipment distribution and readiness 
is to units preparing to deploy, there has been a trade-off in unit 
training for other types of contingencies. The timely delivery of 
replacement equipment is crucial to sustaining the high readiness rates 
for the Marines in theater, as well as improving the rates for the 
forces here at home. While additional equipment has been purchased, 
long lead times and production rates mean that, although funded, much 
of this equipment is still many months from delivery.
Aviation Equipment & Readiness
    The operationally demanding and harsh environments of Iraq, 
Afghanistan, and the Horn of Africa have highlighted the limitations of 
our aging fleet of aircraft. In order to support our Marines, sister 
Services, and coalition partners successfully, our aircraft have been 
flying at two to three times their designed utilization rates.
    Despite this unprecedented use, our maintenance and support 
personnel have sustained a 79 percent aviation mission-capable rate for 
deployed Marine aircraft over the past twelve months. Maintaining the 
readiness of our aviation assets while preparing our aircrew for their 
next deployment is and will continue to be an enormous effort and 
constant challenge for our Marines. To maintain sufficient numbers of 
aircraft in deployed squadrons, our non-deployed squadrons have taken 
significant cuts in available aircraft and parts as they prepare for 
deployment--resulting in a 30 percent decrease in the number of non-
deployed units reporting ``deployment capable'' over the last five 
years. Reset funding has partially alleviated this strain, but 
continued funding is needed as we are simply running short of aircraft 
on our flight lines due to age, attrition, and wartime losses.
    Reset programs have helped us mitigate degradation of our aircraft 
materiel readiness through aircraft modifications, proactive 
inspections, and additional maintenance actions. These efforts have 
successfully bolstered aircraft reliability, sustainability, and 
survivability; nevertheless, additional requirements for depot level 
maintenance on airframes, engines, weapons, and support equipment will 
continue well beyond the conclusion of hostilities.
Prepositioning Programs
    Comprised of three Maritime Prepositioning Ships Squadrons (MPSRON) 
and other strategic reserves, the Marine Corps' prepositioning programs 
are a critical part of our ability to respond to current and future 
contingency operations and mitigate risk for the Nation. Targeted 
withdrawal of equipment from our strategic stocks has been a key 
element in supporting combat operations, growth of the Marine Corps, 
and other operational priorities; these withdrawals provided necessary 
equipment from the existing inventory while industry catches up to our 
new requirements in the long-term. Generous support from the Congress 
has enabled the long-term solution, and as a result, shortfalls within 
our strategic programs will be reset as equipment becomes available 
from the manufacturer.
    Maritime Prepositioning Ships Squadrons (MPSRON).--Our MPSRONs will 
be reset with the most capable equipment possible, and we have begun 
loading them with capabilities that support lower spectrum operations 
while still maintaining the ability to generate Marine Expeditionary 
Brigades capable of conducting major combat operations. Since 2007's 
report, all three squadrons have completed the Maritime Prepositioning 
Force (MPF) Maintenance Cycle eight (MMC-8). MPSRONs 1 and 3 were 
reconstituted to 91 percent and 100 percent respectively. The near-term 
reduction of MPSRON-1 was required to outfit new units standing up in 
fiscal year 2007 and fiscal year 2008 as part of our end strength 
increase. MPSRON-1 will complete MPF Maintenance Cycle-nine (MMC-9) in 
June 2008, and we anticipate it will be loaded with roughly 80 percent 
of its full equipment set as a result of our requirement to support end 
strength increase to 202,000 Marines. MPSRON-2 was loaded to 54 percent 
of its equipment requirements; much of MPSRON-2's equipment remains 
committed to Operation IRAQI FREEDOM. With projected deliveries from 
industry, our intent is to fully reset and modernize MPSRON-2 and 
MPSRON-3 when they return for maintenance beginning in May 2008 and 
April 2009 respectively.
    We are actively working with the Navy and Transportation Command to 
incorporate newer, more flexible ship platforms from the existing 
Military Sealift Command fleet into our aging legacy Maritime 
Prepositioning Force program. As we reset MPF, these changes are 
necessary to ensure we incorporate hard fought lessons from recent 
combat operations. Two decades of equipment growth and recent armor 
initiatives have strained the capability and capacity of our present 
fleet--that was designed to lift a Naval Force developed in the early 
1980s.
    We plan to incorporate three of Military Sealift Command's nineteen 
large, medium-speed, roll-on/roll-off ships (LMSR) as replacements for 
five of our older leased platforms. The LMSR significantly expands MPF 
flexibility and will allow us to reset and optimize MPF to meet current 
and emerging requirements.
    Marine Corps Prepositioning Program--Norway.--The Marine Corps 
Prepositioning Program--Norway (MCPP-N) was also used in support of 
current operations, growth of the Marine Corps, and resetting other 
Marine Corps shortfalls with a higher operational priority. The Marine 
Corps continues to reset MCPP-N in concert with our operational 
priorities while also exploring other locations for geographic 
prepositioning that will enable combat and theater security cooperation 
operations for forward deployed Naval Forces.
Depot Maintenance
    The Marine Corps has aggressively worked to stabilize the 
conditions that affect our depot maintenance. These conditions include: 
the uncertainty of the timing of reset, asset availability, timing of 
funding, equipment condition, and evolving skill requirements. One area 
we focus on is the in-theater identification of equipment and scope of 
work to be performed; this effort enables better planning for parts, 
manpower resources, funding requirements, and depot capacity. Triage 
assessments made in theater and relayed back to the sources of repair 
have helped to ensure efficient repair preparation time. These efforts 
reduce the repair cycle time, returning the mission capable equipment 
to the warfighter as soon as possible--improving materiel readiness.
    Depot capacity is elastic; productivity is not constrained by money 
or capacity; the limiting factor is asset (carcass) availability. We 
increase capacity to support surge requirements through a variety of 
means--overtime, additional shifts, and additional personnel. 
Performing work on over 260 product lines, our depot workforce 
currently has multiple trade skills ranging from laborers to engineers. 
Much of the equipment in theater today includes items not previously 
repaired by any depot facility--organic or non-organic. As a result, 
the existing workforce may require additional training. New personnel 
and continued supplementation through contractor support may also be 
required. We continue to leverage state and local institutions, such as 
the technical colleges and universities, which can provide valuable 
assistance in training our workforce in skills such as welding, 
environmental science, and engineering.
    Future challenges to meeting the increasing workload requirements 
include leveraging depot capacity, lessening the impact on our labor 
force, and ensuring parts are available. Continuing to partner with 
other Services and industry, we will enhance execution of reset using 
organic and non-organic sources of repair. We will continue to work 
with the Congress to anticipate the evolving depot maintenance funding 
requirements.
Equipment Retrograde Operations from Central Command Area of Operations
    During 2006, in a continued effort to support the Commander, United 
States Marine Forces, Central Command, Marine Corps Logistics Command 
took the lead as the Service Executive Agent for the retrograde of 
equipment in theater determined to be excess. In addition to receiving, 
preparing, and shipping excess equipment within theater, Marine Corps 
Logistics Command (Forward) coordinates strategic lift requirements and 
manages the redistribution of principle end items in accordance with 
the Commandant of the Marine Corps' sourcing priorities. Since June 
2006, over 15,731 principle end items have been processed at the 
retrograde lot in Al Taqaddum and approximately 11,799 items have been 
shipped back to Blount Island Command for disposition. Once disposition 
is received, assets are sent to Marine Corps Logistics Command for 
induction into the Master Work schedule, placed In-Stores, used to fill 
requisitions, or sent to the Defense Reutilization Marketing Office if 
deemed uneconomical to repair. The repair and return of items to In-
Stores will enable us to better address the many demands for equipment. 
This, in turn, will keep us moving forward towards our goal of 
continued readiness improvement.
    Operation IRAQI FREEDOM has led to a conceptual change in the way 
we provide operational-level logistics to the warfighter. Due to 
changing operational and mission requirements, Marine Corps Logistics 
Command is implementing capabilities extending beyond traditional 
boundaries, creating a more mobile and agile organization. The Marine 
Corps Logistics Command (Forward) was established to satisfy 
operational logistics requirements using competitive, comprehensive, 
and integrated solutions obtained from ``the best'' strategic 
Department of Defense and commercial providers. While continuing to 
execute its strategic-level responsibilities, Marine Corps Logistics 
Command has transformed from a garrison-centric organization to one 
capable of deploying operational-level logistics solutions to augment 
the sustainment requirements of Marine Forces in combat.
modernize for tomorrow to be ``the most ready when the nation is least 
                                ready''
    We know we have tough choices ahead of us to meet equipment demands 
across the Corps. As we reset, we are making prudent assessments on 
when it is more effective to replace aging and worn out equipment with 
similar equipment or to buy new equipment. We remain focused and 
steadfast on our responsibility to be the Nation's premiere 
expeditionary Force-in-Readiness.
Experimentation
    Our Marine Corps Warfighting Laboratory conducts experiments to 
support operating force requirements and combat development. We 
continually seek to improve the capabilities of the operating forces by 
focusing on the needs of our lower-level ground combat and ground 
combat support units engaged in current and potential near-term 
contingencies. Some examples of current projects include:
  --``Combat Hunter,'' a project aimed at enhancing observation and 
        hunting skills of individual Marines operating in a combat 
        environment;
  --Company Level Intelligence Cell experiment, designed to provide us 
        with a ``best practices'' model and to standardize infantry 
        battalion intelligence processes;
  --Squad Fires experiment, enhancing close air support to squad-level 
        units;
  --Combat Conditioning project, examining advances in physical fitness 
        training to best prepare Marines for the demands of combat; and
  --Lighten the Load initiative, an effort to decrease the amount of 
        weight carried by Marines in the field.
Enhancing Individual Survivability
    The Marine Corps continues to pursue technological advancements in 
personal protective equipment--our Marines in combat deserve nothing 
less. Fully recognizing the limiting factors associated with weight, 
fatigue, and movement restriction, we are providing Marines the latest 
in personal protective equipment--such as the Modular Tactical Vest, 
QuadGard, Lightweight Helmet, and Flame Resistant Organizational Gear.
    Body Armor.--Combat operations in Iraq and Afghanistan have 
highlighted the need to evolve our personal protective vest system. In 
February 2007, we began transitioning to a newly-designed Modular 
Tactical Vest (MTV). This vest is close to the same weight as its 
predecessor, the Outer Tactical Vest, but it integrates more easily 
with our other personal protection systems. It provides greater comfort 
through incorporation of state-of-the-art load carriage techniques, 
which better distributes a combat load over the torso and onto the hips 
of the Marine. The MTV also incorporates our combat-proven Enhanced 
Small Arms Protective Inserts (E-SAPI) and Side SAPI plates. These 
plates are provided to every Marine in the Central Command theater of 
operations. The E-SAPI provides the best protection available against a 
wide variety of small arms threats--to include protection against 7.62 
mm ammunition. The initial acquisition objective for the MTV was 60,000 
systems, with deliveries completed in October 2007. We are procuring 
additional MTVs during this fiscal year to ensure our Marines continue 
to deploy with the best body armor system available.
    QuadGard.--The QuadGard system is designed to provide ballistic 
protection for a Marine's arms and legs when serving as a turret gunner 
on convoy duty. This system, which integrates with other personal 
ballistic protection equipment, such as the MTV ESAPI and Lightweight 
Helmet, provides additional protection against ballistic threats--
particularly improvised explosive device fragmentation.
    Lightweight Helmet.--We are committed to providing the best head 
protection available to our warfighters. The Lightweight Helmet (LWH) 
weighs less than its predecessor and provides a high level of 
protection against fragmentation threats and 9 mm bullets. We now 
require use of a pad system inside the helmet as multiple independent 
studies and tests demonstrated that it provides greater protection 
against non-ballistic blunt trauma than the sling suspension system. We 
are retrofitting more than 150,000 helmets with the pad system and have 
already fielded enough helmet pads for every deployed Marine. Since 
January 2007, all LWHs produced by the manufacturer are delivered with 
the approved pad system installed. In October 2007, we began fielding 
the Nape Protection Pad (NAPP), which provides additional ballistic 
protection to the occipital region of the head--where critical nervous 
system components, such as the cerebellum, brain stem, occipital lobe, 
and spinal cord are located. The NAPP is attached to the back of the 
LWH or the Modular Integrated Communications Helmet (MICH), which is 
worn by our reconnaissance Marines. Final delivery of the initial 
69,300 NAPPs is scheduled for April 2008. That said, we continue to 
challenge industry to build a lightweight helmet that will stop the 
7.62 mm round fired from an AK-47.
    Flame Resistant Organizational Gear (FROG).--In February 2007, we 
began fielding FROG to all deployed and deploying Marines. This 
lifesaving ensemble of flame resistant clothing items--gloves, 
balaclava, long-sleeved under shirt, combat shirt, and combat trouser--
is designed to mitigate potential injuries to our Marines from flame 
exposure. These clothing items provide protection that is comparable to 
that of the NOMEX combat vehicle crewman suit/flight suit, while adding 
durability, comfort, and functionality. We have recently begun fielding 
flame resistant fleece pullovers to our Marines for use in cooler 
conditions, and we are developing flame resistant varieties of cool/
cold weather outer garments and expect to begin fielding these to 
Marines in late fiscal year 2008. With the mix of body armor, 
undergarments, and outerwear, operational commanders can determine what 
equipment their Marines will employ based on mission requirements and 
environmental conditions. Through ongoing development and partnerships 
with other Services, we continue to seek the best available flame 
resistant protection for our Marines.
    Sustained funding for the development and procurement of individual 
protective equipment has had a direct impact on our ability to reduce 
or mitigate combat injuries. Continued Congressional support is needed 
to ensure that our Marines and Sailors receive the best equipment 
available in the coming years.
    Counter Improvised Explosive Devices (CIED).--Responding to urgent 
warfighter needs, we are providing the most capable force protection 
systems available. We are upgrading our Counter Remote-controlled IED 
Electronic Warfare Chameleon systems to meet rapidly evolving threats 
while remaining engaged with the Joint Program Board to develop a joint 
solution. We are enhancing our ability to combat the effects of weapons 
of mass destruction as well as protecting our Marines worldwide by 
fielding eighteen consequence management sets using the best available 
commercial off-the-shelf technologies. These sets complement the 
capabilities of our Family of Incident Response Systems and the 
Chemical Biological Incident Response Force. Our Family of Explosive 
Ordnance Disposal Equipment has undergone significant modernization 
through enhancement of technician tool kits and greater counter IED 
robotics capability and availability.
Marine Aviation Plan
    Resetting Marine Aviation means getting more capable and reliable 
aircraft into the operational deployment cycle sooner--not merely 
repairing and replacing damaged or destroyed aircraft. Daily, your 
Marines rely on these aircraft to execute a wide array of missions 
including casualty evacuation for our wounded and timely close air 
support for troops in contact with the enemy. Legacy aircraft 
production lines are no longer active--exacerbating the impact of 
combat losses and increasing the urgency for the Marine Aviation Plan 
to remain fully funded and on schedule.
    The 2007 Marine Aviation Plan (AvPlan) provides the way ahead for 
Marine Aviation over the next 10 years as it transitions 39 of 71 
squadrons from 13 legacy aircraft to 6 new aircraft; it incorporates 
individual program changes and synchronizes support of our end strength 
growth to 202,000 Marines.
    Joint Strike Fighter (JSF).--F-35B Lightning II development is on 
track with the first flight of BF-1 Short Take-Off/Vertical Landing 
(STOVL) variant scheduled for 2008. The F-35B STOVL variant is a fifth 
generation aircraft that will provide a quantum leap in capability, 
basing flexibility, and mission execution across the full spectrum of 
warfare. The JSF will act as an integrated combat system in support of 
ground forces and will be the centerpiece of Marine Aviation. The 
manufacture of the first nineteen test aircraft is well underway, with 
assembly times better than planned and exceptional quality demonstrated 
in fabrication and assembly. The first Conventional Take-Off/Landing 
(CTOL) aircraft flew in December of 2006 and accumulated nineteen 
flights prior to a planned technical refresh. The JSF acquisition 
strategy, including software development, reflects a block approach. 
The Marine Corps remains committed to an all-STOVL tactical aircraft 
force--which will enable future Marine Air Ground Task Forces (MAGTFs) 
to best fulfill its expeditionary warfighting responsibilities in 
support of the Nation and Combatant Commanders.
    MV-22 Osprey.--The MV-22 brings revolutionary assault support 
capability to our forces in harm's way; they deserve the best assault 
support aircraft in the world--without question, the MV-22 is that 
aircraft. The MV-22 is replacing the CH-46E aircraft. The CH-46E is 
over forty years old, with limited lift and mission capabilities to 
support the MAGTF. In September 2005, the V-22 Defense Acquisition 
Board approved Full Rate Production. Twenty-nine Block A and twenty-
four Block B aircraft have been delivered and are based at Marine Corps 
Air Station New River, North Carolina; Patuxent River, Maryland; and Al 
Asad Air Base, Iraq.
    Much like the F-35, the MV-22 program uses a block strategy in its 
procurement. Block A aircraft are training aircraft, Block B are 
operational aircraft, and Block C aircraft are operational aircraft 
with mission enhancements that will be procured in fiscal year 2010 and 
delivered in fiscal year 2012. One V-22 Fleet Replacement Training 
Squadron, one test squadron, and three tactical VMM squadrons have 
stood up. MV-22 Initial Operational Capability was declared on June 1, 
2007 with a planned transition of two CH-46E squadrons per year 
thereafter.
    VMM-263 is deployed to Al Asad Air Base, Iraq, and the significant 
capabilities of the Osprey have already been proven in combat. A brief 
examination of the daily tasking of the MV-22 squadron in Iraq tells a 
compelling story: a flight of MV-22s are doing in six hours what would 
have taken twelve hours in CH-46s. In addition, the aircraft easily 
ranges the entire area of operations and flies a majority of the time 
at altitudes beyond the range of our enemy's weapons. The Marine Corps 
asked for an aircraft that could take us farther, faster, and safer; 
and Congress answered.
    KC-130J.--KC-130Js have been continuously deployed in support of 
Operation IRAQI FREEDOM since February 2005--providing state-of-the-
art, multi-mission, tactical aerial refueling, and fixed-wing assault 
support. The KC-130J is the workhorse of the MAGTF; its theater 
logistical support reduces the requirement for resupply via ground, 
limiting the exposure of our convoys to IEDs and other attacks.
    The introduction of the aerial refuelable MV-22 combined with the 
forced retirement of the legacy KC-130F/R aircraft due to corrosion, 
fatigue life, and parts obsolescence requires an accelerated 
procurement of the KC-130J. In addition, the Marine Corps will replace 
its twenty-eight reserve component KC-130T aircraft with KC-130Js, 
simplifying the force to one Type/Model/Series. The Marine Corps is 
contracted to procure a total of forty-six aircraft by the end of 
fiscal year 2013; twenty-nine new aircraft have been delivered and four 
KC-130J aircraft requested in the fiscal year 2008 budget.
    H-1 Upgrade.--The H-1 Upgrade Program (UH-1Y/AH-1Z) resolves 
existing operational UH-1N power margin and AH-1W aircrew workload 
issues--while significantly enhancing the tactical capability, 
operational effectiveness, and sustainability of our attack and utility 
helicopter fleet. The Corps' Vietnam-era UH-1N Hueys are reaching the 
end of their useful life. Due to airframe and engine fatigue, Hueys 
routinely take off at their maximum gross weight with no margin for 
error. Rapidly fielding the UH-1Y remains a Marine Corps aviation 
priority, with the first deployment of UH-1Ys to Operation IRAQI 
FREEDOM scheduled for the spring of 2009.
    Due to significant operational demands and aircraft attrition in 
the existing attack and utility helicopter fleet, the Marine Corps 
adopted a ``build new'' strategy for the UH-1Y in fiscal year 2006. 
Similarly, the Marine Corps began investing in Non-Recurring 
Engineering (NRE) in fiscal year 2007 for the production of a limited 
number of AH-1Z ``build new'' aircraft; these AH-1Zs will augment those 
existing AH-1Ws that will be remanufactured. This combined ``build 
new'' and remanufacture strategy will enable the Marine Corps to 
rapidly increase the number of AH-1s available, support the Marine 
Corps' growth to 202,000 Marines, and alleviate inventory shortfalls 
caused by aircraft attrition. Ten production aircraft have been 
delivered. Operation and Evaluation (OPEVAL) Phase II commenced in 
February 2008, and as expected, showcased the strengths of the upgraded 
aircraft. Full rate production of the H-1 Upgrade (and the contract 
award of Lot 5 aircraft) is scheduled to take place during the fourth 
quarter fiscal year 2008.
    CH-53K.--In operation since 1981, the CH-53E is becoming 
increasingly expensive to operate and faces reliability and 
obsolescence issues. Its replacement, the CH-53K, will be capable of 
externally transporting 27,000 lbs to a range of 110 nautical miles, 
more than doubling the current CH-53E lift capability. Maintainability 
and reliability enhancements of the CH-53K will significantly decrease 
recurring operating costs and will radically improve aircraft 
efficiency and operational effectiveness over the current CH-53E. The 
program passed Milestone B (System Development & Demonstration [SDD] 
initiation) in December 2005. The SDD Contract was awarded to Sikorsky 
Aircraft Corporation in April 2006. Initial Operational Capability 
(IOC) is scheduled for fiscal year 2015, and is defined as a detachment 
of four aircraft, ready to deploy.
Unmanned Aerial Systems (UAS)
    The Marine Corps is taking aggressive action to modernize and 
improve organic UAS capabilities. The Marine Corps' UAS are organized 
into three echelons, appropriate to the level of commander they 
support. Tier III UAS serve at the Marine Expeditionary Force (MEF) 
level. Tier II UAS support Regimental Combat Team and Marine 
Expeditionary Unit operations, and Tier I UAS support battalion and 
below operations. At the Tier III level, we have simultaneously 
transitioned Unmanned Aerial Vehicle Squadrons (VMU) to the RQ-7B 
Shadow; started reorganizing the squadrons' force structure to support 
detachment-based flexibility (operating three systems versus one for 
each squadron); and initiated the stand up of a third active component 
VMU squadron.
    With the significant support of the Army, the Marine Corps has 
completed the transition to the RQ-7B Shadow in less than nine months. 
The transition to the Shadow provides a mature and modern--yet basic 
and readily available--Tier III platform upon which to baseline Marine 
VMU reorganization. A detachment-based concept of operations for the 
VMU will give Marine Expeditionary Force commanders flexibility to 
task-organize based on mission requirements. The addition of a third 
VMU squadron is critical to sustaining current operations by decreasing 
our current operational deployment-to-dwell ratio--currently at 1:1--to 
a sustainable 1:2 ratio. This rapid transition and reorganization, 
begun in January 2007, will be complete by the fourth quarter fiscal 
year 2009, significantly improving organic Marine Corps UAS capability 
while increasing joint interoperability and commonality.
    The Marine Corps is using an ISR Services contract to provide Scan 
Eagle systems to Multi-National Forces--West, Iraq to fill the Tier II 
void until future fielding of the Tier II/Small Tactical UAS (STUAS), a 
combined Marine Corps and Navy program beginning in fiscal year 2008 
with planned fielding in 2011. At the Tier I level, the Marine Corps is 
transitioning from the Dragon Eye to the joint Raven-B program, also 
common with the U.S. Army.
    When fully fielded, the Corps' Unmanned Aerial Systems will be 
networked through a robust and interoperable command and control system 
that provides commanders an enhanced capability applicable across the 
spectrum of military operations.
Ground Mobility
    The Army and Marine Corps are leading the Services in developing 
tactical wheeled vehicle requirements for the joint force. Our efforts 
will provide the joint force an appropriate balance of survivability, 
mobility, payload, networking, transportability, and sustainability. 
The Army/Marine Corps Board has proven a valuable forum for 
coordination of development and fielding strategies; production of 
armoring kits and up-armored HMMWVs; and response to requests for Mine 
Resistant Ambush Protected vehicles. The Ground Mobility Suite 
includes:
    Expeditionary Fighting Vehicle (EFV).--The Marine Corps provides 
the Nation's joint forces with a unique and flexible forcible entry 
capability from the sea. The EFV is specifically suited to maneuver 
operations conducted from the sea and sustained operations in the 
world's littoral regions. Its inherent capabilities provide utility 
across the spectrum of conflict. As the Corps' largest ground combat 
system acquisition program, the EFV is the sole sea-based, surface-
oriented vehicle that enables projection of combat power from a seabase 
to an objective. It will replace the aging Assault Amphibious Vehicle--
in service since 1972. Complementary to our modernized fleet of 
tactical vehicles, the EFV's amphibious mobility, day and night 
lethality, enhanced force protection capabilities, and robust 
communications will substantially improve joint force capabilities. Its 
over-the-horizon capability will enable amphibious ships to increase 
their standoff distance from the shore--protecting them from enemy 
anti-access weapons.
    The Marine Corps recently conducted a demanding operational 
assessment of the EFV. It successfully demonstrated the most critical 
performance requirements, but the design complexities are still 
providing challenges to system reliability. To that end, we conducted a 
comprehensive requirements review to ensure delivery of the required 
capability while reducing complexity where possible. For example, the 
human stresses encountered during operations in some high sea states 
required us to reevaluate the operational necessity of exposing Marines 
to those conditions. Based upon this assessment, along with subsequent 
engineering design review, we will tailor final requirements and system 
design to support forcible entry concepts while ensuring the EFV is a 
safe, reliable, and effective combat vehicle.
    Joint Light Tactical Vehicle (JLTV).--The Army/Marine Corps Board 
has been the focal point for development of joint requirements for a 
Joint Light Tactical Vehicle--which will provide protected, sustained, 
networked, and expeditionary mobility in the light tactical vehicle 
weight class. Throughout 2007, Army and Marine Corps combat and 
materiel developers coordinated with the Joint Staff, defining 
requirements and acquisition planning for the replacement for the up-
armored HMMWV. In December, the Defense Acquisition Board approved JLTV 
entry into the acquisition process at Milestone A, designating the Army 
as lead Service and initiating competitive prototyping during the 
technology development phase. Prototypes will be evaluated to 
demonstrate industry's ability to balance survivability, mobility, 
payload, network enabling, transportability, and sustainability. The 
program is on track for a Milestone B in early 2010.
    Marine Personnel Carrier (MPC).--The MPC is an expeditionary 
armored personnel carrier--ideal for irregular warfare--yet effective 
across the full range of military operations. Increasing armor-
protected mobility for infantry battalion task forces, the MPC program 
balances vehicle performance, protection, and payload attributes. 
Through 2007, we completed both joint staffing of an Initial 
Capabilities Document and, a draft concept of employment. Additionally, 
the Analysis of Alternatives final report was published in December 
2007. The program is on track for a Milestone B decision in the second 
quarter of fiscal year 2010 and an Initial Operational Capability in 
the 2015 timeframe.
    Internally Transported Vehicle (ITV).--The ITV is a family of 
vehicles that will provide deployed Marine Air Ground Task Forces with 
ground vehicles that are transportable inside the MV-22 and CV-22 tilt-
rotor aircraft, as well as CH-53 and MH-47 aircraft. There are three 
variants of the ITV, the Light Strike, the Prime Mover-Weapon, and the 
Prime Mover-Trailer. Both prime mover variants are components of the 
Expeditionary Fire Support System designed to support the M327 120 mm 
mortar. In conjunction with testing of our Expeditionary Fire Support 
System, we conducted an operational assessment of the ITV Light Strike 
variant during which it met all key performance parameters. We expect 
to begin fielding this variant the Light Strike Variant of the ITV in 
June 2008.
Vehicle Armoring
    Our goal is to provide the best level of available protection to 
100 percent of in-theater vehicles that go ``outside the wire.'' Our 
tactical wheeled vehicle strategy pursues this goal through the 
coordination of product improvement, technology insertion, and new 
procurement in partnership with industry. The Marine Corps, working 
with the other Services, is fielding armored vehicles such as: the Mine 
Resistant Ambush Protected Vehicle (MRAP), the Medium Tactical Vehicle 
Replacement Armor System, the Logistics Vehicle System (LVS) Marine 
Armor Kit, and the Up-armored HMMWV.
    Medium Tactical Vehicle Replacement (MTVR) Armor System (MAS).--MAS 
provides an integrated, armor enclosed, climate-controlled cab 
compartment and an armored troop carrier for our MTVR variants. These 
vehicles are also being upgraded with an improved blast protection 
package consisting of blast attenuating seats, five-point restraint 
harnesses, and improved belly and fender-well blast deflectors. Basic 
MAS has been installed in all of the Marine Corps' MTVRs in the Central 
Command's theater of operation. Additionally, we are installing blast 
upgrade, fuel tank fire protection kits, and 300 AMP alternators; 
target completion for in-theater vehicles is Fourth Quarter fiscal year 
2008.
    Logistics Vehicle System (LVS) Marine Armor Kit (MAK) II.--The LVS 
MAK II provides blast, improvised explosive device, and small arms 
protection. It has a completely redesigned cab assembly that consists 
of a new frame with armor attachment points and integrated 360-degree 
protection. The new cab will also have an air conditioning system that 
cools from 134 degrees Fahrenheit to 89 degrees Fahrenheit in twenty 
minutes. Additional protection includes overhead and underbody armor 
using high, hard steel, rolled homogenous armor, and 2.75 inch 
ballistic windows. The suspension system has been upgraded to 
accommodate the extra weight of the vehicle. We estimate the LVS MAK II 
armoring effort will complete fielding by February 2009.
    M1114 Highly-Mobile Multi-Wheeled Vehicle (HMMWV)--Upgrade--
Fragmentation Kit 2 and Kit 5.--Fragmentation Kit 2 enhances ballistic 
protection in the front driver and assistant driver wheel-well of 
HMMWVs. Fragmentation Kit 5 reduces injuries from improvised explosive 
devices as well as armor debris and fragmentation. Installation of both 
fragmentation kits was completed in fiscal year 2007. We are continuing 
to evaluate the U.S. Army's objective kit development and work with the 
Army and Office of Naval Research to assess new protection-level 
capabilities and share information. The Marine Corps has adopted a 
strategy of a 60 percent fully up-armored HMMWV fleet. All new Expanded 
Capacity Vehicles will have the Integrated Armor Package. Of those, 60 
percent will be fully up-armored to include the appropriate ``B'' kit 
and Fragmentation kits during production. The Marine Corps will 
continue to work with the Army to pursue the development of true bolt-
on/bolt-off ``B'' kits and fragmentation kits to apply as needed to 
post-production vehicles.
    Mine Resistant Ambush Protected (MRAP) Vehicles.--MRAP vehicles 
have a V-shaped armored hull and protect against the three primary kill 
mechanisms of mines and improvised explosive devices (IED)--
fragmentation, blast overpressure, and acceleration. These vehicles 
provide the best currently-available protection against IEDs. 
Experience in theater shows that a Marine is four to five times less 
likely to be killed or injured in a MRAP vehicle than in an up-armored 
HMMWV--which is why Secretary Gates made the MRAP program the number 
one acquisition priority for the Defense Department. MRAP vehicles come 
in three categories: Category I designed for use in urban environments 
and carries by up to six personnel; Category II for convoy escort, 
troop transport, and ambulance evacuation, which transports up to ten 
personnel; and Category III for route clearance/explosive ordnance 
disposal vehicles.
    The total Department of Defense requirement for MRAP vehicles is 
15,374--of which 3,700 are allocated for the Marine Corps. However, the 
Marine Corps requirement has been revalidated to 2,225, pending Joint 
Requirements Oversight Council approval. The Navy is the Executive 
Agent for the program and the Commander, Marine Corps Systems Command 
is the Joint Program Executive Officer. As an example of our adaptation 
to evolving threats, the Joint MRAP Vehicle Program Office has recently 
selected qualified producers of a new MRAP II vehicle for the Marine 
Corps and other forces. Vehicles procured through this second 
solicitation will meet enhanced survivability and performance 
capability required by field commanders.
    The Marine Corps is very pleased with the overwhelming support of 
Congress on the MRAP program, both financially and programmatically. We 
ask that Congress continue their support for these life-saving vehicles 
and support us as we transition to the sustainment of these vehicles in 
future years.
MAGTF Fires
    In 2007, we initiated a study entitled ``The Major Combat 
Operations Analysis for fiscal years 2014 and 2024.'' This study 
scrutinized the current organic fire support of the Marine Air Ground 
Task Force (MAGTF) to determine the adequacy, integration, and 
modernization requirements for ground, aviation, and naval surface 
fires. The study concluded that the MAGTF/Amphibious Task Force was 
unable to adequately address moving and armored targets 24/7 and in all 
weather conditions. This deficiency is especially acute during the 
Joint Forcible Entry Operation phase of combat operations. The study 
also reinforced the critical importance of both the Joint Strike 
Fighter and AH1Z in minimizing the fires gap. With this information, we 
then developed a set of alternatives for filling these gaps--using 
either MAGTF reinforcing or joint fires. We also performed a 
supplemental historical study using Operation IRAQI FREEDOM data to 
examine MAGTF Fires in the full spectrum of warfare. These studies 
reconfirmed the requirement for a mix of air, naval surface, and 
ground-based fires as well as the development of the Triad of Ground 
Indirect Fires.
    Our Triad of Ground Indirect Fires provides for complementary, 
discriminating, and nondiscriminating fires that facilitate maneuver 
during combat operations. The Triad requires a medium-caliber cannon 
artillery capability; an extended range, ground-based rocket 
capability; and a mortar capability with greater lethality than current 
models and greater tactical mobility than current artillery systems. 
The concept validates the capabilities provided by the M777 lightweight 
155 mm towed howitzer, the High Mobility Artillery Rocket System, and 
the Expeditionary Fire Support System, a 120 mm rifled towed mortar.
    M777 Lightweight Howitzer.--The new M777 lightweight howitzer 
replaces our M198 howitzers. It can be lifted by the MV-22 Osprey and 
the CH-53E helicopter and is paired with the Medium Tactical Vehicle 
Replacement truck for improved cross-country mobility. Through design 
innovation, navigation, positioning aides, and digital fire control, 
the M777 offers significant improvements in lethality, survivability, 
mobility, and durability over the M198 howitzer. The Marine Corps began 
fielding the first of 511 new howitzers to the operating forces in 
April 2005 and expects to complete fielding in fiscal year 2011.
    High Mobility Artillery Rocket System (HIMARS).--HIMARS fills a 
critical range and volume gap in Marine Corps fire support assets by 
providing twenty-four hour, all weather, ground-based, indirect 
precision and volume fires throughout all phases of combat operations 
ashore. We will field forty-six HIMARS--eighteen to the Active 
Component, eighteen to the Reserve Component, four to the Supporting 
Establishment, and six to the War Reserve Material Readiness--Forward. 
When paired with Guided Multiple Launch Rocket System rockets, HIMARS 
will provide a highly responsive, precision fire capability to our 
forces. We will reach Initial Operational Capability this August and 
expect to be at Full Operational Capability by fiscal year 2010.
    Expeditionary Fire Support System (EFSS).--The EFSS, a towed 120 mm 
mortar, will be the principal indirect fire support system for heli- 
and tiltrotor-borne forces executing Ship-to-Objective Maneuver as part 
of a Marine Air Ground Task Force. When paired with an Internally 
Transportable Vehicle, EFSS can be transported aboard MV-22 and CH-53E 
aircraft. EFSS-equipped units will have immediately responsive, organic 
indirect fires at ranges beyond current infantry battalion mortars. 
Initial operational capability is planned during fiscal year 2008, and 
full operational capability is planned for fiscal year 2010.
Infantry Weapons
    Based on combat experience and numerous studies, we are developing 
infantry weapons systems with the following goals: increased 
effectiveness, lighter weight, improved modularity, and integration 
with other infantry equipment. The Marine Corps and Army are co-leading 
joint service capabilities analysis for future developments.
    Individual Weapons.--The M16A4 is our current service rifle and 
makes up the majority of our assigned individual weapons. It is 
supplemented by the M4 Carbine, which is assigned to Marines based on 
billet and mission requirements. We are participating in several Army 
tests which will evaluate the capabilities and limitations of our small 
arms inventory. In conjunction with the Army and Air Force, we will use 
these results to determine priorities for a future service rifle with 
focus on modularity, ergonomics, balance, and lethality. We also have 
executed a two-pronged strategy for a larger caliber pistol: supporting 
the Air Force's effort to analyze and develop joint capabilities 
documents for a new pistol and examining the Army's recent 
consideration of personal defense weapons.
    Multi-Purpose Weapons.--The Shoulder-Launched Multipurpose Assault 
Weapon (SMAW) is an aging, heavy weapon that is nearing the end of its 
service life. We are seeking ways to reduce weight, increase 
reliability, and improve target identification as well as develop a 
``fire from enclosure'' capability that will enable Marines to fire the 
weapon from within an enclosed space.
    Scout Sniper Capability.--We are conducting a holistic assessment 
of our Scout Sniper capability to identify shortfalls and develop 
recommended solutions--concurrently integrating the doctrine, training, 
weapons, equipment, and identified tasks with a Marine sniper's 
professional development and career.
    Non-lethal Weapons Technology.--The complexities of the modern 
battlespace often place our Service men and women in challenging 
situations where sometimes, lethal force is not the preferred response. 
In these environments, our warfighters need options for a graduated 
escalation of force. As the Executive Agent for the Department of 
Defense Non-Lethal Weapons Program, we see the need for long-range, 
directed-energy systems. Marines and Soldiers in Iraq are already using 
non-lethal directed energy weapons; green laser warning devices have 
reduced the requirement to use lethal force at checkpoints against 
wayward, but otherwise innocent, Iraqi civilians. We continue to pursue 
joint research and development of promising non-lethal weapon 
technologies, such as the millimeter wave Active Denial System. We 
thank the Committee for its support of these vital capabilities for 
modern warfare.
    Counter-Sniper Technology.--We are leveraging the work of the 
Defense Advanced Research Projects Agency, our sister Services, the 
Marine Corps Intelligence Activity, and the National Ground 
Intelligence Center in an effort to increase our ability to counter 
enemy snipers. We are examining different obscurant technologies as 
well as various infrared detection/location sense and warn 
capabilities. We are experimenting with advanced equipment and improved 
tactics, techniques, and procedures. The ability to detect enemy optics 
will provide our Marines warning of impending sniper or improvised 
explosive device attacks and the ability to avoid or engage the sniper 
before he can fire. Ongoing joint and interagency cooperation, coupled 
with industry collaboration, will shape our future experiments.
    Infantry Battalion Enhancement Period Program (IBEPP).--We are 
fielding additional equipment to infantry battalions to better enable 
Marines to fight and win on the distributed and non-linear battlefield. 
This equipment encompasses communications, optics, weapons, and 
vehicles, at a cost of approximately $19 million per battalion. Key 
elements of the IBEPP include a formal squad leader course for every 
rifle battalion squad leader, a tactical small unit leaders' course for 
prospective fire team leaders, and a ``Train the Trainer'' mobile 
training team to teach junior tactical leaders the skills required to 
more effectively train their own Marines.
Command and Control (C2) Harmonization
    The Marine Corps' Command and Control Harmonization Strategy 
articulates our goal of delivering an end-to-end, fully-integrated, 
cross-functional capability to include forward-deployed and reach-back 
functions. We envision seamless support to Marines in garrison and in 
combat--taking the best of emerging capabilities to build a single 
solution that includes the Common Aviation Command and Control System 
(CAC2S), Tactical Communications Modernization (TCM) program, Very 
Small Aperture Terminal (VSAT), and training.
    The CAC2S fuses data from sensors, weapon systems, and command and 
control systems into an integrated display, assisting commanders in 
controlling organic, joint, and coalition efforts while operating as a 
joint task force. Delivered in a common, modular, and scalable design, 
CAC2S reduces the current systems into one hardware solution. The TCM 
and VSAT programs fuse data on enemy forces into the Common Operating 
Picture and increase our ability to track friendly forces. Lastly, our 
C2 Harmonization Strategy increases capability to train our staffs 
through Marine Air Ground Task Force Integrated System Training 
Centers.
Information Operations
    The ability to influence an adversary through information 
operations has been a critical capability our current operations and 
will be of even more importance as we continue to engage in security 
cooperation efforts around the globe. To better support our Information 
Operations (IO), we are standing up the Marine Corps Information 
Operations Center at Quantico, VA--our primary organization to 
integrate and deliver IO effects throughout the Marine Corps.
Marine Corps Intelligence, Surveillance, and Reconnaissance Enterprise
    We are increasing the quality of our Intelligence, Surveillance, 
and Reconnaissance (ISR) capabilities through the use of an enterprise 
approach known as the Marine Corps ISR Enterprise (MCISR-E)--resulting 
in a fully-integrated architecture compliant with joint standards for 
data interoperability. MCISR-E will provide networked combat 
information and intelligence down to the squad level across the range 
of military operations. To ensure Marines have access to these new 
capabilities, our MAGTF Command and Control systems feed combat 
operation centers with information from wide field of view persistent 
surveillance systems such as Angel Fire, traditional ISR systems such 
as our family of Unmanned Aircraft Systems (UAS), and non-traditional 
collection assets such as Ground Based Operational Surveillance System 
(GBOSS). Intelligence sections down to the company level are equipped 
with ISR fusion systems as well as applications such as MarineLink that 
enable rapid discovery, data mining, analysis, and most importantly 
incorporation of Intelligence into tactical planning for operations and 
intelligence reporting down to squad level and up to higher 
headquarters.
Marine Corps Operational Logistics
    Operating Force Sustainment Initiatives.--We have aggressively 
moved forward on several forward-deployed initiatives that have 
improved our support to our Marines in combat. Our Marine Corps 
Logistics Command is working with our Marine Expeditionary Forces on 
extending heavy intermediate maintenance support within the continental 
United States. Maintenance Center contact teams at Camp Lejeune and 
Camp Pendleton are extending the service life of equipment through 
corrosion control and maintenance programs that enhance pre-deployment 
readiness.
    Improving Combat Readiness Through Innovation.--To assure optimum 
use of the resources provided by Congress and the American taxpayers, 
we are making innovations in how we equip, sustain, house, and move our 
war-fighters. We are aggressively applying the principles of continuous 
process improvement to these enabling business processes across the 
Corps. In just the past year we have cut costs and repair cycle time at 
both aviation and ground maintenance depots, revamped and speeded up 
the urgent universal needs statements process, and instituted regional 
contracting for materiel and services that is proving more cost 
effective. Such improvements are expected to increase as training and 
experience proliferate.
Urgent Universal Needs Statement (UUNS) Process
    The UUNS process enables deployed commanders to request equipment 
based on their recent experience. Designed to procure equipment more 
expediently than if submitted in the regular budgeting process, the 
Marine Corps' UUNS process uses a secure, web-based system that 
provides full stakeholder visibility from submission through 
resolution. Through continuous process improvement, we have reduced our 
average processing time by 58.8 days. Our goal is responsive support to 
commanders in the field by providing a rational, disciplined, and time-
sensitive process that fulfills their validated urgent requirements in 
the fastest, most logical way. We continue to review the system for 
opportunities to increase efficiency and timeliness. For example, as a 
result of a February 2006 Lean Six Sigma review, several improvements 
were implemented including standardization, on-line tracking, and 
streamlined approval. Typically, UUNS are funded by reprogramming funds 
from approved programs or through Congressional supplemental funding. 
They are funded with regard for current law, their effects on 
established programs of record, or other initiatives in the combat 
capability development process.
Information Technology Enablers/Global Combat Support System--Marine 
        Corps
    Global Combat Support System--Marine Corps continues to make 
strides toward delivering a modernized information technology system 
that will enhance logistics support to the warfighter. As the primary 
information technology enabler for the Marine Corps' Logistics 
Modernization efforts, the system's primary design focus is to enable 
the warfighter to operate while deployed and provide reach back 
capability from the battlefield. At the core is modern, commercial-off-
the-shelf enterprise resource planning software that will replace our 
aging legacy systems. The Global Combat Support System--Marine Corps 
Block 1 focuses on providing the operating forces with an integrated 
supply/maintenance capability and enhanced logistics-chain-management 
planning tools. Field User Evaluations and Initial Operational Test & 
Evaluations are scheduled for 1st Quarter fiscal year 2009, followed by 
fielding of the system and Initial Operating Capability during fiscal 
year 2009. Future blocks will focus on enhancing capabilities in the 
areas of warehousing, distribution, logistics planning, decision 
support, depot maintenance, and integration with emerging technologies 
to improve asset visibility.
Secure Internet Routing Protocol Network (SIPRNET)
    The Secure Internet Routing Protocol Network (SIPRNET) is our 
primary warfighting command and control network. The asymmetric nature 
of current attacks combined with future threats to our networks demand 
a greater reliance on the SIPRNET to ensure the security of Marine 
Corps warfighting and business operations. The Marine Corps is 
aggressively upgrading our existing SIPRNET capabilities and an 
expansion of our SIPRNET in the future will be necessary to meet 
operational demands. The resources required for this expansion will 
enable wider use of the SIPRNET across the Marine Corps as we 
transition more warfighting and business operations into a highly 
secure and trusted network.
Infrastructure Energy Considerations
    The purchase of electricity, natural gas, petroleum fuels, and 
potable water to operate our facilities is a significant expense. 
Through proactive Facilities Energy & Water Management and 
Transportation Programs to reduce consumption, we are achieving 
substantial cost avoidance and environmental benefits including 
reduction of greenhouse gas emissions and other pollutants. Our program 
provides the direction, actions, and metrics necessary for commands to:
  --Reduce rate of energy use in existing facilities;
  --Improve facility energy efficiency of new construction and 
        renovations;
  --Expand use of renewable resources;
  --Reduce water usage rates on our installations;
  --Improve security and reliability of energy and water systems; and
  --Decrease petroleum use through increased efficiency and alternative 
        fuel use.
    Marine Corps conservation efforts have been substantial, but 
installation energy and water requirements continue to increase as we 
increase our end strength and adjust to rising energy prices.
  provide our nation a naval force fully prepared for employment as a 
                 magtf across the spectrum of conflict
    The enduring value of naval expeditionary forces in protecting our 
homeland, preventing crises, and winning our Nation's wars is a key 
theme of the recently signed maritime strategy entitled ``A Cooperative 
Strategy for 21st Century Seapower,'' the Naval Operations Concept, and 
the Marine Corps Operating Concepts for a Changing Security 
Environment. These documents acknowledge the uncertainty of the 
strategic environment and that winning the battle for influence--and 
thus preventing wars--is as important as our Nation winning wars. 
Influenced by a variety of geographic, diplomatic, and geographic 
factors, our country's access to strategic basing is in decline. Our 
strategies address the requirement to maintain a robust forcible entry 
capability: the ability to maneuver from the sea, gain and maintain 
access anywhere in the littorals as well as transition to operations 
ashore and sustain the force from the seabase. They provide a template 
for Maritime Service capability and capacity and underscore our Marine 
Corps-Navy warfighting interdependence.
    These concepts and strategies also incorporate hard-fought lessons 
from our current battles in Iraq and Afghanistan. Combat casualties 
have in a very real sense become a center of gravity for America--no 
matter what the cause or conflict. Therefore, ``increased risk'' and 
``slower response times'' must always be calculated in terms of their 
real costs--loss of life and materiel on the battlefield and then, 
potentially, the loss of support of the American people.
    Seapower is a distinct asymmetric advantage of the United States. 
For Marines, that asymmetric advantage includes Joint Seabasing, which 
allows us to maximize forward presence and engagement while ``stepping 
lightly'' on local sensitivities, avoiding the unintended political, 
social, and economic disruptions that often result from a large 
American presence ashore. It allows us to conduct a broad range of 
operations in areas where access is challenged, without operational 
commanders being forced to immediately secure ports and airfields. 
Given diplomatic, geographic, and infrastructure constraints, Seabasing 
is absolutely critical to overcoming area denial and anti-access 
weapons in uncertain or openly hostile situations. The combination of 
capabilities that allows us to influence events ashore from over the 
horizon--amphibious warfare ships, innovative Maritime Prepositioning 
Force (Future) ships, Joint High Speed Vessels, surface connectors, MV-
22s, and Expeditionary Fighting Vehicles--play a key role in 
surmounting access challenges.
    Seabasing is not exclusive to the Navy and Marine Corps--it will be 
a national capability. In fact, we view Joint Seabasing as a national 
strategic imperative. Just as the amphibious innovations championed by 
the Navy-Marine Corps team during the 1920s and 1930s were employed by 
all U.S. and Allied forces in every theater during World War II, we 
believe that the Seabasing initiatives currently underway will expand 
to become joint and interagency capabilities. Our control of the sea 
allows us to use it as a vast maneuver space--365 days a year. 
Seabasing allows us to project influence and expeditionary power in the 
face of access challenges, a distinct asymmetric advantage. These 
capabilities allow maritime forces to support our partners and to deter 
and defeat adversaries in a complex and uncertain future. Today, 
another generation of Naval planners continues to envision how our 
amphibious capabilities can evolve into more fully sea-based operations 
and better meet the Combatant Commanders' varied and competing 
requirements.
Amphibious Ship Requirements
    The maritime strategy advocates credible combat power as a 
deterrent to future conflict. The Marine Corps supports this capability 
through the flexibility and combat power of the Marine Air Ground Task 
Force embarked on amphibious warfare ships. By far the most complex of 
our congressionally-mandated missions, amphibious forcible entry 
requires long-term resourcing and a high-level of proficiency. It is 
not a capability that we can create in the wake of a threat.
    The characteristics of amphibious ships (their command and control 
suites, flight decks, well decks, air and surface connectors, medical 
facilities, messing and berthing capacity, and survivability) merged 
with the general-purpose nature of embarked Marines, make them multi-
mission platforms--unbeatable in operations ranging from humanitarian 
assistance to amphibious assault. These forces have brought hope and 
assistance to peoples ravaged by tsunamis, earthquakes, and cyclones--
even hurricanes in our own country. They have provided a powerful 
combat force from the sea as evidenced by the opening days of Operation 
ENDURING FREEDOM when Marines provided the first conventional forces 
ashore in Afghanistan. An equally powerful force assaulted from 
amphibious ships up the Al Faw peninsula in early weeks of Operation 
IRAQI FREEDOM. In spite of the proliferation of anti-access 
technologies among state and non-state actors, Navy-Marine Corps 
amphibious capabilities have answered our Nation's ``9-1-1 call'' over 
85 times since the end of the Cold War. Many international navies have 
recognized the value of amphibious warfare ships--as evidenced by the 
global renaissance in amphibious ship construction.
    Based on strategic guidance, in the last several years we have 
accepted risk in our Nation's forcible entry capacity and reduced 
amphibious lift from 3.0 Marine Expeditionary Brigade (MEB) assault 
echelons to 2.0 MEB assault echelons. In the budgetary arena, the value 
of amphibious ships is too often assessed exclusively in terms of 
forcible entry--discounting their demonstrated usefulness across the 
range of operations and the clear imperative for Marines embarked 
aboard amphibious ships to meet Phase 0 demands. The ability to 
transition between those two strategic goalposts, and to respond to 
every mission-tasking in between, will rely on a strong Navy-Marine 
Corps Team and the amphibious ships that cement our bond. The Navy and 
Marine Corps have worked diligently to determine the minimum number of 
amphibious ships necessary to satisfy the Nation's needs--and look 
forward to working with the Committee to support the Chief of Naval 
Operation's shipbuilding plans.
    The Marine Corps' contribution to the Nation's forcible entry 
requirement is a single, simultaneously-employed two Marine 
Expeditionary Brigade (MEB) assault capability--as part of a seabased 
Marine Expeditionary Force. Although not a part of the Marine 
Expeditionary Force Assault Echelon, a third reinforcing MEB is 
required and will be provided via Maritime Prepositioning Force 
(Future) capabilities. Each MEB assault echelon requires seventeen 
amphibious warfare ships--resulting in an overall ship requirement for 
thirty-four amphibious warfare ships. However, given current fiscal 
constraints, the Navy and Marine Corps have agreed to assume greater 
operational risk by limiting the assault echelon of each MEB by using 
only fifteen ships per MEB--in other words, a Battle Force that 
provides thirty operationally available amphibious warfare ships. In 
that thirty-ship Battle Force, ten aviation-capable big deck ships 
(LHA/LHD/LHA(R)) and ten LPD 17 class ships are required to accommodate 
the MEB's aviation combat element.
    In order to meet a thirty-ship availability rate--based on a Chief 
of Naval Operations-approved maintenance factor of 10 percent--a 
minimum of eleven ships of each of the current types of amphibious 
ships are required--for a total of thirty-three ships. The Navy has 
concurred with this requirement for thirty-three amphibious warfare 
ships, which provide the ``backbone'' of our maritime capability--
giving us the ability to meet the demands of harsh environments across 
the spectrum of conflict.
    Amphibious Assault Ship (Replacement) (LHA(R)).--The legacy Tarawa 
class amphibious assault ships reach the end of their service life 
during 2011-2015. The eighth Wasp class LHD (multi-purpose amphibious 
assault ship) is under construction and will replace one Tarawa class 
ship during fiscal year 2008. To meet future warfighting requirements 
and fully capitalize on the capabilities of the MV-22 and Joint Strike 
Fighter, two LHA(R) class ships with enhanced aviation capabilities 
will replace the remaining LHA class ships. These ships will provide 
enhanced hangar and maintenance spaces to support aviation maintenance 
and increased jet fuel storage and aviation ordnance magazines. We are 
investigating the feasibility of incorporating the reduced island 
concept and well-deck capabilities in future, general-purpose assault 
ship construction.
    Amphibious Transport Dock (LPD).--The LPD 17 San Antonio class of 
amphibious warfare ships represents the Department of the Navy's 
commitment to a modern expeditionary power projection fleet that will 
enable our naval force to operate across the spectrum of warfare. It is 
imperative that eleven of these ships be built to meet the minimum of 
ten necessary for the 2.0 MEB assault echelon amphibious lift 
requirement.
    The Navy took delivery of the first LPD 17 in the summer of 2005 
and operational evaluation is scheduled for Spring 2008. The LPD 17 
class replaces four classes of older ships--LKA, LST, LSD 36, LPD 4--
and will have a forty-year expected service life. LPD 17 class ships 
will play a key role in supporting the ongoing Long War by forward 
deploying Marines and their equipment to better respond to crises 
abroad. Its unique design will facilitate expanded force coverage and 
decreased reaction times of forward deployed Marine Expeditionary 
Units. In forcible entry operations, the LPD 17 will help maintain a 
robust surface assault and rapid off-load capability for the Marine Air 
Ground Task Force and the Nation.
The Maritime Prepositioning Force
    Capable of supporting the rapid deployment of three Marine 
Expeditionary Brigades (MEB), the Maritime Prepositioning Force is an 
important element of our expeditionary warfighting capability. MPF is a 
proven capability and has been used as a force deployment option in 
selected contingencies, to close forces on accelerated timelines for 
major combat operation, and in combination with amphibious forces to 
rapidly and simultaneously react to crises in more than one theater.
    The next and necessary evolution of this program is incorporation 
of the Maritime Prepositioning Force--Future (MPF(F)) Squadron into the 
existing MPF Program. MPF(F) is a key enabler for Seabasing and will 
build on the success of the legacy Maritime Prepositioning Force 
program. MPF(F) will provide support to a wide range of military 
operations with improved capabilities such as at-sea arrival and 
assembly, selective offload of specific mission sets, and long-term, 
sea-based sustainment. From the sea base, the squadron will be capable 
of prepositioning a single MEB's critical equipment and sustainment for 
delivery--without the need for established infrastructure ashore.
    While the MPF(F) is not suitable for forcible entry operations, it 
is critical for the rapid build up and sustainment of additional combat 
forces once our entry has been achieved by our assault echelon--
launched from amphibious assault ships. The MPF(F), along with two 
legacy MPF squadrons, will give the Marine Corps the capacity to 
quickly generate three MEBs in support of multiple Combatant 
Commanders. The MPF(F) squadron composition decision was made in May 
2005. That squadron is designed to consist of three aviation-capable 
big-deck ships, three large medium-speed roll-on/roll-off ships, three 
T-AKE supply ships, three Mobile Landing Platforms, and two dense-
packed container ships. All of these will be crewed by civilian 
mariners and, as stated earlier, are not designed to conduct forcible 
entry operations. The program is currently in the technology 
development phase of acquisition, with a Milestone B decision planned 
in fiscal year 2008.
    Mobile Landing Platform (MLP).--The MLP is perhaps the most 
flexible platform in the MPF(F) squadron. Designed to be the ``pier in 
the ocean,'' the MLP is an interface platform for other surface lift 
ships and vessels. Instead of ships and lighters going to a terminal on 
shore, they could transfer vehicles and equipment to and from the MLP. 
The ship is being designed to interface with MPF(F) Large Medium-Speed 
Roll-on/Roll-off ships through sea state four and accommodate Landing 
Craft Air Cushion operations in sea state three at a minimum. 
Additionally other service platforms could leverage the ship as an 
interface. In concert with the Navy, the MLP capabilities development 
document was delivered to the Joint Requirements Oversight Counsel in 
January 2007.
    Dry Cargo/Ammunition Ship (T-AKE).--The T-AKE is a selectively off-
loadable, afloat warehouse ship, which is designed to carry dry, 
frozen, and chilled cargo; ammunition; and limited cargo fuel. Key 
holds are reconfigurable for additional flexibility. It has a day/night 
capable flight deck. These ships can support the dry cargo and 
compatible ammo requirements of Joint forces and are the same ship 
class as the Combat Logistics Force T-AKE ships.
    Large Medium-Speed Roll-on/Roll-off (LMSR) Ship.--The LMSRs were 
designed to accommodate the Department of Defense's largest vehicles--
such as the Abrams Tanks, Rough Terrain Cargo Handler, and tractor 
trailers; this capacity is being leveraged to support Marine Corps 
vehicles and equipment. These ships, modified for MPF(F), will be very 
large, afloat equipment staging areas with additional capabilities 
including vehicle maintenance areas, berthing, ammunition breakout 
areas, two aviation operating spots, underway replenishment equipment, 
MLP interface, and a 113-ton crane capable of lifting vehicles or 
shipping containers. Importantly, they will also reduce strategic 
airlift requirements associated with our fly-in echelon.
Ship-to-Shore Mobility
    Historically, Marine Corps amphibious power projection has included 
a deliberate buildup of combat power ashore; only after establishment 
of a beachhead could the Marine Air Ground Task Force begin to focus 
its combat power on the joint force's operational objective. Advances 
in mobility, fires, and sustainment capabilities will greatly enhance 
operations from over the horizon--by both air and surface means--with 
forces moving rapidly to operational objectives deep inland without 
stopping to seize, defend, and build up beachheads or landing zones. 
The ability to project power inland from a mobile sea base has utility 
across the spectrum of conflict--from humanitarian assistance to major 
combat operations. The Expeditionary Fighting Vehicle, MV-22 Osprey, 
and CH-53K heavy lift helicopter are critical to achieving necessary 
capabilities for future expeditionary operations.
    High Speed Connectors.--High-speed connectors will facilitate 
sustained seabased operations by expediting force closure and allowing 
the necessary sustainment for success in the littorals. Coupled with 
strategic airlift and sealift assets, the Joint High Speed Vessel and 
Joint Maritime Assault Connector provide an intra-theater capability, 
which enables rapid closure of Marine forces and sustainment ashore. 
These platforms will link bases and stations around the world to the 
sea base and other advanced bases, as well as provide linkages between 
the sea base and forces operating ashore.
              taking care of our marines and our families
    Our most precious asset is the individual Marine. Our Marines and 
families have been steadfast and faithful in their service to our 
country, and we have an equally enduring obligation to them. As such, 
we are committed to putting our family programs on a wartime footing--
our Marines and families deserve no less.
Putting Family Readiness Programs on a Wartime Footing
    Last year, we directed a rigorous assessment of our family programs 
and have aggressively moved forward to improve them at every level. We 
continue our assessments--targeting younger Marines and their families 
to ensure that we are fully addressing their needs. We request that 
Congress continue to support these initiatives so that we can advance 
these reforms to meet the evolving requirements of our warfighters and 
their families.
    Our Marine Corps Family Team Building Program and unit Family 
Readiness Programs, the centerpiece to our family support capability, 
was based on a peacetime model and 18-month deployment cycles. It was 
also largely supported on the backs of our dedicated volunteers; our 
volunteers have been performing magnificently while shouldering the 
lion's share of this program--but it is time to dedicate sufficient 
resources in light of the demands of our wartime operations.
    We have recently initiated a sustained funding increase to 
implement Marine Corps family readiness reforms in fiscal year 2008. 
These reforms include:
  --Formalizing the role and relationship of process owners to ensure 
        accountability for family readiness;
  --Expanding programs to support the extended family of a Marine 
        (spouse, child, and parents);
  --Establishing primary duty billets for Family Readiness Officers at 
        regiment, group, battalion, and squadron levels;
  --Improving the quality of life at remote and isolated installations;
  --Increasing Marine Corps Family Team Building installation 
        personnel;
  --Refocusing and applying technological improvements to our 
        communication network between commanders and families;
  --Dedicating appropriate baseline funding to command level Family 
        Readiness Programs; and
  --Developing a standardized, high-quality volunteer management and 
        recognition program.
    The Marine Corps continues its proud heritage of ``taking care of 
its own'' and ensuring family programs sustain our families and our 
Marines for the Long War.
Casualty Assistance
    Your Marines proudly assume the dangerous, but necessary, work of 
serving our Nation. Some Marines have paid the ultimate price, and we 
continue to honor them as heroes for their immense contributions to our 
country. Our casualty assistance program continues to evolve to ensure 
the families of our fallen Marines are always treated with the utmost 
compassion, dignity, and honor.
    Our trained Casualty Assistance Calls Officers provide the families 
of our fallen Marines assistance to facilitate their transition through 
the stages of grief. Last year, Congressional hearings and inquiries 
into casualty next-of-kin notification processes revealed deficiencies 
in three key and interrelated casualty processes: command casualty 
reporting, command casualty inquiry and investigation, and next-of-kin 
notification. These process failures were unacceptable. Instantaneous 
with discovery of the process failures, we ordered an investigation by 
the Inspector General of the Marine Corps and directed remedial action 
to include issuing new guidance to commanders--reemphasizing 
investigation and reporting requirements and the importance of tight 
links between these two systems to properly serve Marines and their 
families. We will continue to monitor our processes, making every 
effort to preclude any future errors and to ensure Marines and families 
receive timely and accurate information relating to their Marine's 
death or injury.
Wounded Warrior Regiment
    In April 2007, the Wounded Warrior Regiment was activated to 
achieve unity of command and effort in order to develop a comprehensive 
and integrated approach to Wounded Warrior care. The establishment of 
the Regiment reflects our deep commitment to the welfare of our 
wounded, ill, and injured. The mission of the Regiment is to provide 
and facilitate assistance to wounded, ill, and injured Marines, Sailors 
attached to or in support of Marine units, and their family members, 
throughout all phases of recovery. The Regiment provides non-medical 
case management, benefit information and assistance, and transition 
support. We use ``a single process'' that supports active duty, 
reserve, and separated personnel and is all inclusive for resources, 
referrals, and information.
    There are two Wounded Warrior Battalions headquartered at Camp 
Lejeune, North Carolina, and Camp Pendleton, California. The Battalions 
include liaison teams at major military medical treatment facilities, 
Department of Veterans Affairs Polytrauma Rehabilitation Centers and 
Marine Corps Base Naval Hospitals. The Battalions work closely with our 
warfighting units to ensure our wounded, ill and injured are cared for 
and continue to maintain the proud tradition that ``Marines take care 
of their own.''
    The Regiment is constantly assessing how to improve the services it 
provides to our wounded, ill, and injured. Major initiatives of the 
Regiment include a Job Transition Cell manned by Marines and 
representatives of the Departments of Labor and Veteran Affairs. The 
Regiment has also established a Wounded Warrior Call Center for 24/7 
support. The Call Center both receives incoming calls from Marines and 
family members who have questions, and makes outreach calls to the 
almost 9,000 wounded Marines who have left active service. A Charitable 
Organization Cell was created to facilitate linking additional wounded 
warrior needs with charitable organizations that can provide the needed 
support. Additionally, The Regiment has also strengthened its liaison 
presence at the Department of Veterans Affairs Central Office. These 
are just some of the initiatives that reflect your Corps' enduring 
commitment to the well-being of our Marines and Sailors suffering the 
physical and emotional effects of their sacrifices for our great 
Nation.
    We are at the beginning of a sustained commitment to care and 
support our wounded, ill and injured. As our Wounded Warrior Program 
matures, additional requirements will become evident. Your continued 
support of new legislation is essential to ensure our Wounded Warriors 
have the resources and opportunities for full and independent lives.
    Thank you for your personal and legislative support on behalf of 
our wounded warriors. Your personal visits to them in the hospital 
wards where they recover and the bases where they live are sincerely 
appreciated by them and their families. Your new Wounded Warrior Hiring 
Initiative to employ wounded warriors in the House and Senate 
demonstrates your commitment and support of their future well-being. We 
are grateful to this Congress for the many wounded warrior initiatives 
in the 2008 National Defense Authorization Act. This landmark 
legislation will significantly improve the quality of their lives and 
demonstrates the enduring gratitude of this Nation for their personal 
sacrifices. I am hopeful that future initiatives will continue to build 
upon your great efforts and further benefit the brave men and women, 
along with their families, who bear the burden of defending this great 
country.
Traumatic Brain Injury (TB I)
    With the frequent use of improvised explosive devices (IEDs) and 
improved protective measures that reduce mortality rates, more Marines 
are exposed to possible traumatic brain injuries. As with other poorly 
understood injuries, there is sometimes a reluctance by individual 
Marines to seek medical attention at the time of the injury. Education 
is the best way to reduce this stigma, and it is to be the most 
effective treatment for those suffering a mild injury. TBI awareness 
and education is part of pre-deployment and routine training. All 
Marines are being screened for TBI exposure during the post-deployment 
phase and those identified as injured receive comprehensive evaluation 
and treatment. A pilot program for baseline neurocognitive testing is 
being implemented to improve identification of TBI and maintain 
individual and unit readiness in the field. The Marine Corps continues 
to work closely with DOD's Center of Excellence for Psychological 
Health and Traumatic Brain Injury to continue to advance our 
understanding of TBI and improve the care of all Marines.
Post Traumatic Stress Disorder (PTSD)
    The Marine Corps Combat Development Command, Marine Corps Training 
and Education Command, Naval Health Research Center, and others are 
studying ways to identify risk and protective factors for Post-
Traumatic Stress Disorder (PTSD) and to increase our resilience to 
stress. By improving the awareness of both individuals and our leaders, 
we can provide early identification and psychological first aid for 
those who are stress-injured. Better screening and referral of at-risk 
Marines are underway via pre- and post-deployment standard health 
assessments that specifically screen for mental health problems. The 
Department of Veterans Affairs has established comprehensive guidelines 
for managing post-traumatic stress, which are available to all 
services.
    The Marine Corps is grateful for the effort Congress has put into 
making TBI, PTSD, and other-combat-related mental illness issues a top 
priority. We will continue to do the same so that we can further 
improve our knowledge and treatment of these disorders.
Combat and Operational Stress Control (COSC)
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our Marines, Sailors, and family members. Our 
commanders bear responsibility for leading and training tough, 
resilient Marines and Sailors, and for maintaining strong, cohesive 
units. Unit commanders have the greatest potential for detecting stress 
occurrences and assessing impact on warfighters and family members. Our 
leaders establish an environment where it is okay to ask for help and 
that combat stress is as deserving of the same respect and care as any 
physical wound of war. With the Navy's medical community, we are 
expanding our program of embedding mental health professionals in 
operational units--the Operational Stress Control and Readiness (OSCAR) 
program--to directly support all elements of the Marine Air-Ground Task 
Force. We also continue our collaboration with sister Services, the 
Department of Veterans Affairs' National Center for Post-traumatic 
Stress Disorder, and external agencies to determine best practices to 
better support Marines and their families.
Family Member Pervasive Developmental Disorders
    The effectiveness of Marines and Sailors during deployment is 
dependent upon the adequacy of support provided to family members at 
home. Children of Service members with special needs, to include 
pervasive developmental disorders, have additional medical, 
educational, and social needs that are challenging to meet even when 
both parents are available. The TRICARE Enhanced Care Health Option has 
not been able to provide sufficient support. To address this issue, the 
Marine Corps is working with the Department of Defense Office of Family 
Policy Work Group on examining options to expand its Educational & 
Developmental Intervention Services (EDIS), a program that delivers 
Early Intervention Services to eligible infants and toddlers in 
domestic and overseas areas as well as through Medically Related 
Service programs in Department of Defense schools overseas.
Exceptional Family Member Program (Respite Care)
    Parental stress can be heightened for families that are not only 
impacted by the current operational tempo but are also caring for a 
child with special needs. To focus on this need, we offer our active 
duty families enrolled in the Exceptional Family Member Program up to 
40 hours of free respite care per month for each exceptional family 
member. We seek to provide a ``continuum of care'' for our exceptional 
family members. In this capacity, we are using our assignment process, 
working with TRICARE and the Department of the Navy Bureau of Medicine 
and Surgery to expand access and availability to care, and providing 
family support programs to ease relocations and ensure quality care 
transitions.
Water Contamination at Camp Lejeune
    Past water contamination at Camp Lejeune has been and continues to 
be a very important issue for the Marine Corps. Our goal is, using good 
science, determine whether exposure to the contaminated water at Camp 
Lejeune resulted in any adverse health effects for our Marines, their 
families, and our civilian workers.
    The Marine Corps continues to support the Agency for Toxic 
Substances and Disease Registry (ATSDR) in their health study, which is 
estimated to be completed during 2009. With the help of Congress, the 
highly respected National Academy of Sciences is now helping us develop 
a way ahead on this difficult issue.
    The Marine Corps continues to make progress notifying former 
residents and workers. We have established a call center and 
notification registry where the public can provide contact information 
so that we can keep them apprised of the completion of these health 
studies.
     beyond the horizon--posturing the marine corps for the future
    History has proven that we cannot narrowly define the conditions 
for which our military must be ready. With little warning, our Nation 
has repeatedly called its Corps front and center. In the southern 
Pacific after Pearl Harbor, in Korea after the communist invasion in 
1950, in the mountains of Afghanistan after 9/11, and southern Asia in 
the wake of the catastrophic tsunami of 2004--to name a few. These 
strategic surprises demonstrate the broad range of possibilities for 
which the Marine Corps must be prepared.
    The United States faces a complex mix of states who sponsor 
terrorism, regional and rising peer competitors, failing states that 
undermine regional stability, and a variety of violent non-state 
actors--religious extremists, insurgents, paramilitary forces, pirates, 
and other criminals--all serving to destabilize legitimate governments 
and undermine security and stability of the greater global community. 
We see this global security context as a persistent condition for the 
foreseeable future.
    Our Nation and its international partners are engaged in a global 
struggle for influence at the same time our access to many areas is 
acutely challenged--diplomatically, militarily, and geographically. In 
the past, the United States has maintained large forces on a 
significant number of permanent bases beyond our shores. Today, 
however, we have far fewer installations overseas. When conflict is 
imminent or crises occur, which may require land-based forces, we must 
conduct extensive diplomatic negotiations to acquire basing rights. 
Because of local and regional political, social, or economic pressures, 
even countries friendly to the United States decline to host or place 
conditional restrictions on basing U.S. forces. Furthermore, 
proliferation of anti-access technology among state and non-state 
actors further diminishes access opportunities.
    Our national interests increasingly require us to operate in 
remote, developing regions of the world where infrastructure is either 
insufficient or rendered useless by natural disasters. The growing 
trend of violent, transnational extremism is especially prevalent in 
many of these remote areas. In addition to ethnic and religious 
intolerance, many developing regions are troubled with economic 
challenges and infectious diseases. These problems are especially 
severe in the densely populated urban centers common to the world's 
littorals, resulting in discontented populations ripe for exploitation 
by extremist ideologues and terrorist networks. We estimate that by the 
2035 timeframe, more than 75 percent of the world's population will 
live within just 120 miles of the ocean; alternative energy sources 
will not be mature, so industrial and, increasingly, developing nations 
will depend on the free flow of oil and natural gas. Fresh water will 
be as equally important as petroleum products; during the 20th century, 
while the global population increased 300 percent, the demand for water 
increased 600 percent. Demographics and the aging of the population in 
industrial countries, accompanied by a youth bulge in developing 
countries, will literally change the face of the world as we know it. 
The U.S. technological advantage, economic power, and military might 
still exceed that of other nations, but will not be nearly as dominant.
    Given these strategic conditions, the requirement for maritime 
forces to project U.S. power and influence has increased--and will 
continue to increase. With its inherent advantages as a seabased and 
expeditionary force, the Marine Corps can quickly reach key areas of 
the globe in spite of challenges to U.S. access. The Marine Corps and 
its naval partners will expand the application of seapower across an 
even wider range of operations to promote greater global security, 
stability, and trust--key objectives for winning the Long War. Our 
seabased posture will allow us to continue to conduct ``Phase 0'' 
operations with a variety of allies and partners around the world to 
ease sources of discontent and deter conflict. We must increase our 
capacity for these operations without forfeiting our warfighting 
prowess in the event of a major regional conflict. As a forward-
deployed force, we are able to achieve familiarity with various 
environments, as well as behavioral patterns of regional actors--
contributing to our significant advantage in speed and flexibility.
    Recently combat-tested in the Middle East and historically engaged 
in the Pacific, the Marine Corps will seek to further enhance its 
operational capabilities in the Pacific theater. Some areas like Africa 
offer unique challenges and opportunities for significant U.S. 
engagement. The shear breadth and depth of that great continent present 
their own challenges, but given the operational flexibility afforded by 
Seabasing and the extended reach of the MV-22 and KC-130J, the future 
bodes well for the ability of dispersed units of Marines--with 
interagency partners--to extend our partnerships within the continent 
of Africa.
Security Cooperation Marine Air Ground Task Force (MAGTF)
    The linchpin of future Marine efforts to support the engagement 
requirements of combatant commanders to build partnership capacity will 
be the Security Cooperation Marine Air Ground Task Force. Similar to a 
Marine Expeditionary Unit but regionally-focused and task organized for 
security cooperation, Security Cooperation MAGTFs will provide training 
and assistance to partner nations--shaping the environment and 
deterring irregular adversaries.
    The units comprising the Security Cooperation MAGTF are general 
purpose forces, which will maintain a foundation of excellence in 
combined arms and the full range of military operations. Additional 
training in culture, language, and foreign internal defense will 
further prepare these units for the unique tasks needed to train 
foreign militaries. Able to aggregate and dis-aggregate based on 
mission requirements, elements of the Security Cooperation MAGTFs will 
be capable of operating for sustained periods and will help prepare the 
militaries of partner nations to disrupt irregular adversaries and 
reduce the requirement for U.S. forces to be committed to these 
regions.
Defense Policy Review Initiative (DPRI) /Guam
    Our recent force posture agreement reached under the auspices of 
the Defense Policy Review Initiative with Japan is facilitating an 
opportunity to more effectively employ Marine Corps forces while 
mitigating the effects of encroachment around United States facilities 
in Japan. The most significant DPRI action is completion of the Futenma 
Replacement Facility on Okinawa. Its completion is a prerequisite for 
realignment of Marine units north of Kadena Air Force Base on Okinawa, 
shifting KC-130s from Futenma to Iwakuni, Japan, and movement of 
approximately 8,000 Marines and their family members from Okinawa, 
Japan, to Guam. The Government of Japan is prepared to bear much of the 
cost associated with the planned changes, but there are still 
significant remaining military construction and other infrastructure 
needs that require United States financial support. For the past two 
years, the Marine Corps has worked with numerous stakeholders to shape 
the eventual basing of forces onto Guam. The Department of Navy-led 
Joint Guam Program Office is leading the detailed facility-level 
planning effort to support the force buildup on Guam. The Marine Corps 
is working with Joint Guam Program Office, the Secretary of the Navy, 
and Commander, United States Pacific Command to ensure plans meet 
operational requirements.
Law of the Sea Convention
    To be able to maneuver from the seas in a timely and reliable 
manner, and in concert with the U.S. Navy, we support joining the Law 
of the Sea Convention. Joining the Convention will best preserve the 
navigation and overflight rights that we need to reliably maneuver and 
project power from the sea.
The Future of Training and Education
    With Marine forces so heavily engaged in counterinsurgency 
operations, we will have to take extraordinary steps to retain the 
ability to serve as the Nation's shock troops in major combat 
operations. Continued congressional support of our training and 
education programs will enable us to remain faithful to our enduring 
mission: To be where the country needs us, when she needs us, and to 
prevail over whatever challenges we face.
    The Long War requires a multi-dimensional force that is well 
trained and educated for employment in all forms of warfare. 
Historically, our Corps has produced respected leaders who have 
demonstrated intellectual agility in warfighting. Our current 
deployment tempo increasingly places our Professional Military 
Education (PME) programs at risk. No level of risk is acceptable if it 
threatens the steady flow of thinkers, planners, and aggressive 
commanders who can execute effectively across the entire spectrum of 
operations.
    Marine Corps University (MCU).--We have made substantial 
improvements in our Officer and Enlisted Professional Military 
Education (PME) programs and have significant improvements planned for 
the future. Marine Corps War College was the first senior Service 
college to be certified as Joint PME II and will soon undergo 
accreditation as part of the process for joint education accreditation 
by the Joint Staff. The Command and Staff resident and non-resident 
programs are scheduled for Joint PME I re-accreditation in September 
2008. We have integrated irregular warfare instruction throughout all 
levels of PME; at the same time, balance between irregular and 
conventional warfare has been maintained so as not to lose sight of our 
essential core competencies, including amphibious operations. 
Additionally, MCU has led the way for integration of culture and 
language by continually refining their curricula to provide proper 
balance among PME, culture, and language.
    Last year we conducted a comprehensive assessment of the health of 
PME. The assessment examined six areas: students, curriculum, 
educational programs, staff, infrastructure, and policy. We are working 
diligently to improve our information technology and infrastructure by 
developing a facility master plan to accommodate needed growth. We must 
develop an aggressive plan and commit resources for additional faculty, 
facilities, and resources. The assessment was informative--we have 
world-class students, curricula, and faculty as evidenced by Marines' 
performance on today's battlefields. With continued Congressional 
support, we can build our information technology and facility structure 
to match.
    Marine Corps Center for Lessons Learned.--Our Marine Corps Center 
for Lessons Learned applies lessons from operational experiences as 
well as those of the Joint Staff, other Services, and Joint Forces 
Command to guide efforts for ``fine tuning'' and transforming our 
force. This rapid, continuous process ensures the latest enemy and 
friendly tactics, techniques, and procedures are used in training and 
are part of the decision-making for institutional changes. In 2007, as 
result of these lessons learned, the Marine Corps implemented changes 
in pre-deployment training in such areas as detention operations; 
transition teams; interagency coordination of stability, support, 
transition, and reconstruction operations; irregular warfare; and the 
role of forensics in counterinsurgency operations.
    Center for Irregular Warfare.--In 2007, we established the Center 
for Irregular Warfare as the primary Marine Corps agency for 
identifying, coordinating, and implementing irregular warfare 
capability initiatives. The Center reaches out through the Center for 
Advanced Operational Culture Learning (CAOCL) and Security Cooperation 
Education and Training Center (SCETC) to other military and civilian 
agencies. Last year, the CAOCL expanded beyond pre-deployment unit 
training by offering operational culture, regional studies, and limited 
language courses for officer professional military education programs. 
Thus far, approximately 2,100 new lieutenants have been assigned 
regions for career long-term study through the regional learning 
concept, which will be expanded this year to include sergeants, staff 
sergeants, and captains. Both officer and enlisted Marines will receive 
operational culture education throughout their careers. We plan to have 
Language Learning Resource Centers at the eight largest Marine Corps 
bases and stations to provide local, on-call, operational language 
training. Congressional support, to include recent supplemental 
funding, has been invaluable.
    Since early 2006, our SCETC formalized our military advisor 
training process and trained over thirty transition teams in fiscal 
year 2007. In fiscal year 2008, the SCETC is scheduled to train over 
100 teams (over 2,000 Marine advisors) as well as stand up a Marine 
Corps Training Advisory Group to manage the global sourcing of future 
transition and security cooperation teams.
    Foreign Area Officers.--The Marine Corps has begun an expansion of 
its Foreign Area Officer (FAO) program in response to the wide-spread 
demand for language and cultural expertise for worldwide service with 
the Defense Attache System and combined, joint, and Service 
headquarters. As a result, the training of Marine FAOs will more than 
double in the near term. In addition to our traditional emphasis on 
Arabic, Russian, and Chinese, FAOs selected this year will learn more 
than a dozen different foreign languages, including Pashto, Hindi, 
Thai, French, and Indonesian.
Training Marine Air Ground Task Forces
    Operations in support of the Long War have significantly increased 
our training requirements. To meet deployment requirements and remain 
skilled in the full spectrum of operations, Marines must now train to a 
broader range of skills. However, due to high operational tempo, we 
face ever-decreasing timetables for Marines to achieve mastery of these 
skills. Our first major initiative to maximize effective use of limited 
time for training was the establishment of a standardized and well-
defined Pre-deployment Training Program. Subsequently, we have 
instituted two additional training efforts: the Marine Combat 
Operations Training Group and the Infantry Battalion Enhancement Period 
Program.
    Marine Corps Tactics and Operations Group (MCTOG).--We recently 
established the MCTOG to provide standardized training and instructor 
qualifications for ground combat elements, similar to our exceptionally 
successful Marine Aviation Weapons and Tactics Instructor Course in 
Yuma, Arizona. The MCTOG is developing and implementing a Ground Combat 
Element Operations and Tactics Training Program to provide advanced 
training in MAGTF operations, combined arms training, and unit training 
management and readiness at the battalion and regimental levels. We 
will improve unit preparation and performance by:
  --Providing focused, advanced instruction for key battalion and 
        regimental staff personnel, and
  --By assisting with the identification and vetting training 
        requirements and deficiencies for our ground combat elements.
    Located at Twentynine Palms MAGTF Training Center, the MCTOG will 
reach an Initial Operating Capability by Spring 2008 and a Full 
Operating Capability by Spring 2009.
    Marine Aviation Training Systems Program (ATS).--Marine Aviation, 
through Aviation Training Systems (ATS), is pursuing the development of 
fully integrated training systems at the post-accession aviation 
officer and enlisted level, to greatly enhance operational readiness, 
improved safety through greater standardization, and to significantly 
reduce the life cycle cost of maintaining and sustaining aircraft. ATS 
will plan, execute, and manage Marine Aviation training to achieve 
individual and unit combat readiness through standardized training 
across all aviation core competencies.
    29 Palms Land Expansion.--The Marine Corps currently lacks a 
comprehensive training capability to exercise all elements of a Marine 
Air-Ground Task Force (MAGTF) in an environment that replicates 
operational conditions with our current equipment--as our new weapons 
systems have greatly increased ranges over legacy systems. As a result, 
we are conducting planning studies for expansion of our range complex 
at the Marine Corps Air Ground Combat Center in Twentynine Palms, 
California. Implementing this action will involve acquiring land and 
seeking assignment of airspace by the Federal Aviation Administration 
in support of large-scale MAGTF live fire and maneuver training. This 
will give us the maneuver space to simultaneously train three to four 
battalions in the range complex and train with our current equipment. 
Our proposed complex will further facilitate the use of the Western 
Range Training Complex and lead to the capability for future large-
scale MAGTF, Coalition, and Joint National Training Center training.
    Modernization of Training Ranges.--In 2001, we activated a Range & 
Training Area Management Division, and in 2004, we began a 
comprehensive investment program to sustain, upgrade, and modernize our 
training infrastructure. This modernization effort provides tools for 
better planning and execution of live training. The four principles of 
our program are:
  --Preserve and enhance our live-fire combined arms training ranges. 
        The full development of our doctrine and the integrated 
        employment of air and ground weapons will continue to require 
        access to the volume of land and air space available at these 
        larger installations.
  --Recapture the unit-training capabilities of the Nation's two 
        premier littoral training areas, Camp Lejeune and Camp 
        Pendleton. The transition of expeditionary combat power from 
        sea to shore remains among the most challenging of military 
        tasks, and we must reorient and update our training 
        capabilities.
  --Provide timely and objective feedback to Marines who are training. 
        Proficiency with individual weapons and in combined-arms 
        requires that we provide venues that have the air and land 
        space to allow realistic employment and the instrumentation and 
        targetry to provide objective, actionable feedback.
  --Ensure our complexes are capable of supporting joint forces. Common 
        range infrastructure and systems architecture to support the 
        joint national training capability are requirements of our 
        modernization program.
  --The range modernization program is a program of record and has 
        successfully programmed the resources to continue operating and 
        maintaining the many investments made with supplemental and 
        congressional-add funds.
Core Values and Ethics Training
    As part of our ethos, we continually seek ways to improve ethical 
decision-making at all levels. In 2007, we implemented the following 
initiatives to strengthen our Core Values training:
  --Tripled the amount of time Drill Instructor and recruits conduct 
        ``foot locker talks'' on values;
  --Institutionalizing habits of thought for all Marines operating in 
        counterinsurgencies, the message of the importance of ethical 
        conduct in battle, and how to be an ethical warrior is being 
        strengthened and re-emphasized at all levels of the Marine 
        Corps;
  --Published pocket-sized Law of War, Rules of Engagement, and 
        Escalation of Force guides;
  --Increased instruction at our Commander's Course on command climate 
        and the commander's role in cultivating battlefield ethics, 
        accountability, and responsibility;
  --Educated junior Marines on the ``strategic corporal'' and the 
        positive or negative influence they can have; and
  --Re-invigorated the Values component of our Marine Corps Martial 
        Arts Program, which teaches Core Values and presents ethical 
        scenarios pertaining to restraint and proper escalation of 
        force as the foundation of its curriculum.
    We imbue our Marines with the mindset that ``wherever we go, 
everyone is safer because a U.S. Marine is there.''
                               conclusion
    The Marine Corps continues to create a multi-capable force for our 
Nation--not only for the current operations in Iraq and Afghanistan, 
but also for subsequent campaigns of the Long War. We are committed to 
ensuring we remain where our country needs us, when she needs us, and 
to prevail over whatever challenges we face. Your continued support has 
been critical to our readiness for today and adaptation for tomorrow. I 
promise you that the Corps understands the value of each dollar 
provided and will continue to provide maximum return for every dollar 
spent.
    Perhaps most importantly to keep in mind as we develop our force 
for the future, everything we read about the future indicates that 
well-trained, well-led human beings with a capacity to absorb 
information and rapidly react to their environment have a tremendous 
asymmetric advantage over an adversary. Ladies and gentlemen, that 
advantage goes to us. Our young Marines are courageous, willing to make 
sacrifices and, as evidenced by our progress in Al-Anbar, capable of 
operating in complex environments. Quiet in their duty yet determined 
in their approach, they are telling us loud and clear that wherever 
there is a job to be done, they will shoulder that mission with 
enthusiasm. On behalf of your Marines, I extend great appreciation for 
your support thus far and thank you in advance for your ongoing efforts 
to support our brave service men and women in harm's way.

    Senator Inouye. I thank you very much, Commandant. I'd like 
to begin my questioning with you, sir.

                           MARINE CORPS FORCE

    At the present time, there are 350 marines and marine 
reservists in Afghanistan, and you recently announced that 
you'll be adding 3,200 marines to Afghanistan. In addition to 
this, there are 25,300 marines and marine reservists deployed 
in Iraq, and added to that, you have your commitments in the 
Horn of Africa, Kuwait, and other locations. And this from a 
small number of 189,000. How will this additional 3,200 
deployed in Afghanistan impact your organization?
    General Conway. Sir, the impact is significant, and I would 
add, just in recent days, that number of 3,200 has actually 
grown to some 3,400 because of requirements that we see with 
regard to the battalion, the marine battalion, 2d Battalion, 
7th Marines. It will be dropped down into some very bad-guy 
country. And to that regard, we saw the need for a couple of 
more people--a couple hundred more people--with special 
capabilities.
    But, to get at the essence of your question, it will keep 
us at what we call surge capacity, that is one-to-one 
deployment to dwell, or worse, in some cases through October of 
this year. It's not something that we like to do. We have told 
the Secretary, in his judgment, that we need that force to 
respond to the request for forces that came from both 
Afghanistan and CENTCOM, that in a very real sense, we're 
taking one for the team because we were not able to raise the 
force elsewhere. But the fact is, we believe that there's an 
important time window there. I think my marines feel like it is 
a very worthwhile mission, they said as much when I spoke to 
them in Afghanistan. And through October, I think we'll be able 
to bear up under that increased stress that the service will 
experience.
    Senator Inouye. How much more do you think you'll be adding 
to your force?
    General Conway. In terms of--in what, capacity, sir? If I 
could ask for a clarification?
    Senator Inouye. The number of marines. You have plans to 
add an additional 27,000.
    General Conway. Yes, sir.
    Senator Inouye. Through 2011.
    General Conway. Yes, sir. Sir, we will grow to 202,000 
marines, as I referenced in our opening statement, we are ahead 
of our program.
    We thought we would originally grow to about 189,000 this 
year, that's roughly 5,000 for each of the first couple of 
years. We're ahead of that schedule, and we think we can stay 
ahead of it this year.
    So, our target is actually something closer to 192,000 
marines. And, of course what that means on the deck, is the 
creation of new units to put against, especially, some of our 
low-density, high-stressed organizations, to be able to do 
something about this deployment-to-dwell.
    Senator Inouye. Thank you very much.

                                DDG 1000

    I'd like to ask the CNO, the DDG 1000 program that you 
spoke of has been in development in one form or another since 
the 1990s, to address the land attack requirements. The number 
of ships the Navy plans to buy has declined to seven. The cost 
estimates of the first of these new destroyers have increased 
to at least $3 billion apiece. Can you explain where the DDG 
1000 fits into the future of the surface Navy, and do you 
believe this is the right ship?
    Admiral Roughead. Senator, the DDG 1000, as you've said, 
has been some time in coming. But what the DDG 1000 brings to 
our Navy and the two ships that we put on contract recently, is 
the introduction of new technologies that will be very 
important to how we go forward.
    In most instances, when we introduce a new class of ship, 
there are only a couple of new advances on those ships. In the 
case of the DDG 1000 there are about 10.
    The one that is most important, I believe, for the future 
of our Navy, is the effort that has been put into the design, 
that brings the crew size of these very complex ships down to 
numbers that we have never seen before. So, I believe that is 
absolutely a critical step forward for us, in the DDG 1000.
    With regard to the reduced number of ships that we have in 
this year's proposed budget, that's really being driven by not 
having four littoral combat ships in there, because of some of 
the issues we've been facing with that program.
    But I do believe that both of these ships portend the Navy 
of the future. In the case of the littoral combat ship, it's 
not as if we're replacing a capability we already have. We have 
gaps in our ability to operate in the littoral areas, and that 
is something that we must have for the future, in my 
professional opinion.
    The DDG 1000 will bring the longest-reach shore-fire 
support gun that we've ever had, but most importantly, the DDG 
1000 brings the technologies that will shape our Navy for the 
future.
    Senator Inouye. Mr. Secretary, I presume you agree with 
that?
    Dr. Winter. Most definitely, sir. I think that the addition 
of the DDG 1000 has been well-thought out. As you pointed out, 
it's been under development for a number of years. We've made 
significant investments in the technology developments that 
underpin this new vessel. We've had more engineering 
development models on this particular vessel than we've ever 
had before, we've also gone, to a much greater degree, of 
detailed design prior to the signing of the contract and start 
of construction than we ever have before. So, I'm comfortable 
that we're proceeding on a well-thought out process here.
    At the same time, as the CNO pointed out, DDG 1000 by 
itself does not solve the future surface Navy issues. There 
were many other issues--not the least of which--is the littoral 
combat ship.

                          LITTORAL COMBAT SHIP

    We have adjusted the pace of acquisition there, from one 
that proved to be too aggressive and too fast, to one that I 
believe is more appropriate to the development of a new class 
of vessel. That development is now proceeding along a well-
established route. We have good progress being made on both of 
the individual vessels, the hulls. And we're also having 
exceptionally good development on mission modules that will 
support that particular activity.
    We will, even with this slower acquisition of the LCS, 
still have the desired number, 55, as part of the target 313 
ships that we will achieve in the 2019 time period. So, I'm 
very comfortable with the acquisition process, and the budget 
that's been laid out for that.
    Senator Inouye. So, you're comfortable and you're pleased 
with the present progress of the LCS?
    Dr. Winter. I look at it very carefully. I'm never pleased 
by any of these development activities, but I think that 
recognizing the amount of new development that is associated 
with this new vessel, that we're making good progress there, 
and I'm pleased to see that progress continuing to be made.
    I'm also particularly pleased, I will note, to see that 
we're able to bring along the mission modules, as well. We have 
taken delivery already on the first of those modules, the mine 
warfare module, the first of the mine warfare modules, and we 
expect to take delivery of the first of the surface warfare in 
the first of the ASW modules later this year.
    Senator Inouye. Thank you very much.
    Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman.

                     NNMC BETHESDA AND WALTER REED

    Secretary Winter, we've been told that the Navy has 
announced now its award to rebuild Walter Reed at Bethesda. You 
will be in charge of that, right?
    Dr. Winter. Yes, sir.
    Senator Stevens. Do you know what the total cost of that 
is?
    Dr. Winter. The current estimate cost is a little over $900 
million, sir. I can get you the exact figure if you'd like.
    [The information follows:]

    The current estimate to rebuild Walter Reed at Bethesda is 
$939.6 million. Detailed cost information follows:

                        [In millions of dollars]
------------------------------------------------------------------------
                   Construction Description                       Cost
------------------------------------------------------------------------
Medical Center Addition, Alteration, and Parking Garage......      697.5
Warrior Transition Unit Administrative and Building 17             101.0
 Renovation for non-clinical administration..................
Warrior Transition Clinical Space............................        3.2
Facilities for the Warrior Transition Unit/Brigade (including      134.4
 renovation of Comfort Hall BEQ, Parking, a Fitness Facility,
 Dining Facility, and other Billeting).......................
Additional Planning and Design costs in fiscal year 2008.....        3.5
                                                              ----------
      Total Estimated Cost...................................      939.6
------------------------------------------------------------------------

    Senator Stevens. There's a base realignment and closure 
(BRAC) deadline on that, is there?
    Dr. Winter. There is a BRAC deadline, there is also an 
acceleration of the activity that we have committed to. The 
cost growth is, in part--a small part--due to the acceleration 
process. There are also additional costs associated with the 
significant expansions that we have made to the plans for the 
integration of these two great facilities, to ensure that they 
truly represent a world-class medical treatment facility for 
all of our servicemembers.
    Senator Stevens. Well, the subcommittee will probably be 
disturbed with me, because I felt the same way about moving the 
installations from Germany to Italy. We moved two massive 
installations out of Germany, down to Italy, now we're going to 
replace Walter Reed--which is still functioning--all during 
wartime. Do you think this is the right time to be doing that?
    Dr. Winter. Sir, we've made a priority to ensure that the 
continuity of care for all of those who are treated at Bethesda 
is maintained during this process. That has been a major 
priority that has been established for the architects and 
engineers that are going through the overall development 
process.
    Senator Stevens. Well, respectfully, Walter Reed has been 
considered an Army facility.
    Dr. Winter. Yes, sir.
    Senator Stevens. But the Navy is going to take it over?
    Dr. Winter. Well, sir, it's going to be worked as a joint 
activity. We have the responsibility for the facilities 
implementation of the joint activity, here.
    Senator Stevens. All right, well put me down as one who 
disagrees, but it doesn't do any good. I just think that it's 
the wrong time to be doing that, and that the Army ought to 
have its facility, just as the Navy has had its, over the 
years.

                                  V-22

    General Conway, the V-22 Osprey squadron was deployed last 
year, as you know, I had the honor to be the first member of 
the Congress to fly that--how did it do?
    General Conway. Sir, they're about 2 months from coming 
home from that 7-month deployment, I've made it a point to 
visit with them both times that I've been in-theater while 
they've been over.
    I will tell you, sir, you're asking the question because we 
have purposefully suppressed information coming out of the 
theater until such time as the deployment is over. But the fact 
is, they're performing very, very well. They've flown over 
2,700 hours with the aircraft without incident, they're 
performing all manner and function of missions of the aircraft 
that the Osprey is replacing--the venerable old CH-46 and the 
CH-53 Delta.
    It cruises at 13,000 feet, well above the small arms and 
the rocketry that have taken down other of our aircraft. It 
cuts the time one-half to one-third, that it takes to transit 
in and around the theater. It's performing very, very well, 
sir, on the first-time deployment of an aircraft in combat, to 
a very austere environment.
    Senator Stevens. Well, the chairman and I caught a little 
hell over that--keeping that alive, as you recall. And so many 
people--after the instance occurred in its initial operation, 
wanted to retire it. I'd just put in a request that when they 
do get back that we can get a de-brief from those guys as to 
how it really functioned. I thought--we thought--that was 
absolutely a necessary system for the marines, and I'm glad to 
hear that.
    General Conway. Appreciate your support, sir. And we have 
that as a takeaway.

                      MARINE CORPS GROW THE FORCE

    Senator Stevens. Tell me, you're trying to accelerate 
growth, and I hope that you understand what I'm saying--this is 
to appear to continue the engagement, now how does that work 
out? It takes some period of time before you can deploy those 
people, doesn't it?
    General Conway. Yes, sir, it does. And what happens, sir, 
is that as we grow the force, our initial targets were, again, 
those low-density, high-use MOS fields that are being most 
stressed in our Corps. It takes time to get those marines 
recruited, through their entry-level training, into their MOS 
schools, mated with the right equipment and so forth.
    But, in the case of two of the three infantry battalions, 
Senator, that we have grown--those people are already scheduled 
to go to Iraq.
    So, the process is underway, it is working very well. As I 
mentioned in my opening statement, we're seeing no diminution 
in terms of quality of the marines that are joining us, and 
it's working very much like we would have hoped, again, or even 
in excess of goals, compared to where we thought we would be 
today.
    Senator Stevens. Do you have the resources to do that, 
while the war is going on?
    General Conway. Sir, we have had augmentation through 
supplementals, in terms of resources required. We hope that for 
this year, for 2009, that it will go into a baseline budget, so 
that we will have that money--that available money, then--to 
continue to work as we continue to grow the force.
    We are somewhat behind, as you might imagine, with regard 
to the infrastructure. The infrastructure has not caught up to 
the increased growth, or even the advanced pace of our growth, 
and in a coarse sort of way, the fact that we have so many 
marines deployed is helping us in that capacity, because we 
don't have to create so many temporary structures.
    Senator Stevens. You're talking about facilities here, at 
home, to house them, when they come home?
    General Conway. Precisely, sir. Facilities, ranges, 
equipment--those types of----
    Senator Stevens. I've got to get you up to Alaska, and let 
you look around.
    General Conway. I'd love to do that, sir.
    Senator Stevens. Secretary Winter, is that right? Is the 
money in here to handle the scope for the marines?
    Dr. Winter. Yes, Senator. And, in particular, just to 
parlay on with the Commandant's comments about the facilities, 
we have put additional resources into the budget to accelerate 
the construction of the new barracks. We expect to be able to 
have all of the barracks for the previous force by 2012, with 
the additional force being accommodated by 2014.
    In the interim, we're doing two things to accommodate the 
additional personnel, one of which has to do with the use of 
temporary facilities, which are being constructed rapidly at 
the required locations, and there is also some activity going 
on to retrofit and improve some of the older facilities to 
ensure they're able to accommodate the marines.

                                  GUAM

    Senator Stevens. Is part of that at Guam?
    Dr. Winter. Not yet, sir. But, in Guam, we have a major 
activity going on associated with the planning of the move from 
Okinawa to Guam of the marines, about 8,000 marines there.
    Right now, the activity is focused in two areas, one of 
which is the Military Master Plan for Guam, and the other is 
the associated environmental impact statement (EIS) that needs 
to be established prior to the start of construction in Guam.
    Senator Stevens. Thank you.

                            MARITIME PATROL

    Admiral Roughead, you mentioned, I think, your top unfunded 
priority for 2009 is for critical maritime patrol improvements. 
I don't quite understand--what is that funding and how does it 
relate to the maritime domain awareness initiative?
    Admiral Roughead. Senator, the top unfunded requirement 
applies to our P-3 maritime patrol airplanes, which have been 
used extensively in the Central Command area of operations, 
because of their very, very good intelligence, surveillance, 
and reconnaissance capability.
    Senator Stevens. Is that in the drug area?
    Admiral Roughead. No, sir. They're being used in combat 
operations in Iraq and Afghanistan.
    Senator Stevens. You have a replacement P-3 coming yet?
    Admiral Roughead. Yes, sir, we do. We have the new P-8, 
which is moving along quite nicely, that program is doing well, 
and it will make its initial operational capability (IOC) in 
2013. But going back to the P-3s, we have detected cracking in 
the wings, because they have been flown far in excess of what 
their flight life was projected to be. And the additional 
funding that we will seek is for repairs to those wings.
    We've grounded 39 airplanes, 28 of which are deployed, 
which represents about----
    Senator Stevens. P-3s, or----
    Admiral Roughead. These are the P-3s that we've had to 
ground. That represents about one-quarter of our Maritime 
Patrol Force.
    Senator Stevens. When will the nines be delivered?
    Admiral Roughead. I'm sorry, sir?
    Senator Stevens. When's the replacement?
    Admiral Roughead. Replacement will IOC in 2013. Their 
initial operational capability will be in 2013.
    Senator Stevens. Are these going to get you through to that 
time?
    Admiral Roughead. Yes, sir, we will--we have a plan for the 
re-winging of the affected airplanes, and they--we will 
diminish our inventory as we work our way through that. It is a 
rather lengthy process to make the repairs on the P-3s, but 
that's why I've placed it so high on the priority list.
    Senator Stevens. Well, thank you very much. I manage a bill 
on the floor, I'm going to have to leave. I'll tell you, to us 
from the World War II era, we are really honored to be able to 
work with you in this generation as we've got now. They are all 
volunteers, they're the new greatest generation. They'll go 
down in history, I think, in a way that will be very favorable 
to them. They've taken on every task and done well.
    And despite the horrors of some of these engagements, their 
enlistments are increasing. So, I think we really owe a debt of 
gratitude, the whole country, to this new generation.
    Thank you very much, Mr. Chairman.
    Dr. Winter. Thank you, sir.
    Admiral Roughead. Thank you, sir.
    Senator Cochran. Mr. Chairman.

                                 LPD-17

    Mr. Secretary, we noticed that the LPD-17 amphibious ship 
is at the top of the Marine Corps unfunded program list, and 
it's also on the Navy's unfunded list. And this, I guess, in 
parlance means these are important. These are some of the most 
important requests being made for funding.
    And I wonder if you would agree that if LPD-26 was to be 
funded in fiscal year 2009 would it provide the needed war 
fighting capability to the fleet at the earliest opportunity? 
And would it take advantage of the learning curve effect found 
in continuous production?
    Dr. Winter. Thank you for your interest, sir, in our 
shipbuilding activities, and LPD, in particular.
    I think as you noted, appropriately, the LPD requirement 
has become a significant issue, both for the Marine Corps, and 
for the Navy. We accept the established requirement now for 11 
operational LPDs, and recognize that it has got to be part of 
what we eventually develop as our integrated fleet plan.
    At that point in time, we have nine LPDs in the fleet. We 
have six of the older Austin class, and three of the new San 
Antonio class, that have all been commissioned.
    We also have six additional LPD-17s, the San Antonio class, 
that have been ordered. Four of those six are under 
construction. The two that have been more recently ordered, the 
ones in the last 1\1/2\ years, have not yet started 
construction, which is to say, their keels have not been laid.
    We have several mechanisms of ensuring that we're able to 
get to, and maintain, 11 LPDs over the period of interest 
associated with the 30-year shipbuilding plan. We're currently 
going through an evaluation of that, as part of our POM 2010 
evaluation, and I think we'll be able to lay out an appropriate 
course of action, here as part of the 2010 build that will 
establish an appropriate mechanism of ensuring that we get to 
the desired fleet.
    Senator Cochran. Thank you.
    Admiral Roughead, I know that you are aware that cost 
increases and delays in scheduling in several programs have had 
an impact--adverse impact--on Navy shipbuilding plans, and 
adjustments are necessary. But it's a concern that's been 
brought to my attention that $1.6 billion has been moved away 
from new ship construction for fiscal year 2009 and that could 
have been used to fund the 10th LPD-17 requirement. What is 
your observation?
    Admiral Roughead. Well, Senator, when we put together the 
plan for our current shipbuilding plan for the future, 
balancing all of the other requirements that the Navy is doing, 
and other future needs that we have, the decision was to submit 
the plan as it is currently constructed--with the seven ships 
in there--and to hold off on the 10th LPD.
    I believe that is the best way forward to apportion the 
resources that we have and still fulfill the needs of building 
the fleet for tomorrow.
    Senator Cochran. Thank you.

                     JOINT HIGH SPEED VESSEL (JHSV)

    General Conway, the Navy's budget request includes the 
first procurement of the joint high speed vessel. I understand 
these vessels are highly flexible and adaptable to a variety of 
missions, they're faster and can operate in shallower and more 
austere ports than larger vessels. Would you advise us how you 
plan to use these vessels, and how important is funding this 
program to the global war on terrorism?
    General Conway. Sir, we see a significant use for these 
joint high-speed vessels. Senator Stevens referenced Guam a 
moment ago--when we move to Guam--assuming that negotiations 
work out and that it happens in the vicinity of 2014 or so, 
Guam will not offer the training opportunities that we 
currently have on Okinawa, so as part of the planning that the 
Secretary of the Navy spoke to was looking elsewhere in the 
Pacific basin, immediately in the vicinity of Guam, the 
Marshall and Palau Islands, to determine what training 
opportunities exist there.
    And we're also in discussion with the Australians--of 
course, we have some training opportunity in Korea, we have 
training opportunity on mainland Japan, we'd like to expand the 
opportunities with the Philippines--all of that requires inter-
Pacific transit kind of capability. And we think the JHSV, in 
addition, perhaps, to some amphibs, could very well satisfy 
those types of requirements.
    That's just one potential use. The qualities of the vessel 
that you mentioned open up another whole panorama of 
opportunities to getting to locations we might not otherwise be 
able to go with small numbers of marines aboard those high 
speed vessels.
    We have some concern about their ability to operate in 
rough seas, and we hope that engineering and so forth, will 
overcome some of those shortfalls, and make them fully capable 
over a wide spectrum of sea states.
    Senator Cochran. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Mikulski.
    Senator Mikulski. Mr. Chairman, General Conway, Admiral, 
Secretary.

                     NNMC BETHESDA AND WALTER REED

    First of all, we feel very close to the Navy. We have the 
Naval Academy in our State, we have Bethesda Naval which has 
been talked about, Patuxent River, and of course the marines, 
the marines that are a favorite everywhere.
    My question is going to go to family readiness and the 
family support services, but first, one quick word about 
Bethesda Naval.
    I understand the concern of Senator Inouye, but as I 
understand, the intellectual underpinnings of merging Bethesda 
with Walter Reed is, the marines are an expeditionary force. 
The kinds of wounds of war that they endure parallel what our 
Army also endures from improvised explosive devices (IEDs) to 
traumatic brain injury, to those permanent wounds of war. So 
there's a symmetry now. And I think that's the intellectual 
underpinning of working together.
    What I'm excited about, Mr. Chairman, and I'm sorry that 
Senator Stevens had to go, is that Bethesda Naval-Walter Reed 
is directly across the street from the National Institutes of 
Health (NIH). It's right across the street, too, from the 
Institute of Medicine, and then you have the military medical 
school in the same campus as this. So, we have the possibility 
for incredible new thinking, new ideas, the training of the 
next generation of physicians, doctors, nurses, with the best 
ideas coming out of military medicine, as well as civilian 
medicine.
    Am I right about what you anticipate as the symmetry of 
this? Knowing Walter Reed is an icon, world-known, did not seek 
this, but what it is, is that we think it could be really of 
stunning quality to serve our marines and our naval forces.
    Dr. Winter. Yes, Senator, I believe that the structure that 
we're building right now at Bethesda is intended to provide the 
Centers of Excellence that really are critical, that have been 
defined, recognizing the types of injuries that we see amongst 
all of our servicemembers that have been deployed overseas.
    There are some unique issues, traumatic brain injuries, and 
post-traumatic stress disorders (PTSD) that really require some 
new developments, and require the integration, if you will, of 
a diverse set of clinical and nonclinical specialists. Having 
that all together at one location at Bethesda, gives us the 
ability to leverage the totality that's available within the 
growing medical community of Maryland. And I look forward to 
the ability that the conglomeration, that integrated capability 
will be able to provide for our medical service personnel.
    Senator Mikulski. Well, we want to continue to work with 
you. What we're concerned about is the ability for State and 
local infrastructure, namely that with all those geniuses I 
just described, they could all be at the same traffic light at 
the same time, on Wisconsin Avenue, all calling me. And I'm 
going to say, but they do call me when they're all at the 
traffic light at the same time. So, we look forward to our 
physical infrastructure.
    Dr. Winter. Senator, we're taking the issues there 
associated with the road, and access, very seriously. It's a 
major part of the environmental impact study that we are 
working through right now, and I fully expect that we will be 
able to provide appropriate mechanisms of mitigating all of 
those----
    Senator Mikulski. And I'd like to talk with you more about 
it, if I may.
    Dr. Winter. I'd be pleased to, ma'am.

                        FAMILY SUPPORT SERVICES

    Senator Mikulski. If I could change to both the Marine 
Corps and the Navy and the family support services.
    General Conway, I was so pleased to hear what you said 
about the Family Readiness Programs, and the reliance of the 
marines on volunteers. You've all been very creative, and 
whether it's the young marine--I've heard anecdotal information 
about how in California you're in something called ``Boot Camp 
for Dads,'' it's a weekend program for new fathers, to learn 
what to do with a baby, and you even do, kind of manly things 
like, you hold a baby like a football, just don't toss him or 
run with them--but really, in ways that help these modern men, 
who need to be involved with their families.
    But then when you get that pre-deployment and post-
deployment program--we cannot do this on volunteers. We note 
that you've added about $400,000 to a $30 million program--
could you share with us, now, with the intensity of the 
deployments, certainly the Marine Corps rest time is better 
than the Army--how you see what you need to do to keep that 
spirit of volunteerism that's been a characteristic of 
supporting a marine and his family, or her family, and what you 
need to bring to this to really help them in pre-deployment, 
and also the reintegration when they come back home, with 
spouses, with children, ironing out what might have been 
financial wrinkles that have developed--things along those 
lines.
    General Conway. Yes, ma'am, I'd be happy to.
    Senator Mikulski. As well as the very crucial, important 
medical services.
    But, as you know, the social fabric, often, of a family has 
been worn and tattered during deployment time.
    General Conway. Yes, ma'am.
    I would highlight one thing, ma'am. We're very proud of our 
contribution to this war, and it equates to, essentially, what 
the U.S. Army is doing, as well. In a 28-month period, a 
soldier will be deployed for 15 months, home for 12--that's a 
27-month period. In a 28-month period, a marine will be gone 
for 14, home for 14. So, it balances out over time, even though 
you are correct, our deployment cycle is very different. And 
the marines prefer the 7-month deployments, quite frankly.
    In terms of what we've done with our family programs, we 
have had some global war on terrorism monies as sort of a 
windfall for this year, and we hope now, for next year. We're 
using those monies to enhance our child care, which is the 
number one demand coming from our families--in really, all of 
our bases and stations. We're including some respite care in 
that as well, in some of our exceptional family member 
programs.
    But, what we're doing, essentially, is trying to 
professionalize where we have relied on volunteers in the past. 
That is, in no way, demeaning what our volunteers have given.
    Senator Mikulski. What does that mean?
    General Conway. Well, ma'am, every unit, battalion size, 
squadron size, or larger has a family readiness officer. That 
family readiness officer has been a volunteer in seasons past, 
and that person normally was a spouse from the deploying 
battalion or squadron. Their duties were all-encompassing--
create the organization, create the notification chains, stay 
current with information, do the socials, take care of 
families----
    Senator Mikulski. And they did it on their own time?
    General Conway. Absolutely.
    Senator Mikulski. And in many instances, their own--I mean 
the families, where the families raised money----
    General Conway. Absolutely.
    Senator Mikulski. You know, we'll call it the ``bake sale'' 
way of----
    General Conway. Yes, it was very much a bake sale kind of 
operation. And we have simply now been able to one, put more of 
our own budget against that, but also, again, through the 
benefit of some of the GWOT monies, enhance those efforts to 
where--we still have volunteers, and it's still an absolute 
requirement for some of what we do. But not nearly on the scale 
that we have previously relied on, over the past 4 years.

                            FAMILY READINESS

    Senator Mikulski. So, now--is this true, then, in every 
marine base, you will have, then, someone in charge of these 
efforts, whose full-time duty is that?
    General Conway. Yes, ma'am.
    Senator Mikulski. And it will be a paid person? Because 
volunteer, you still--we know this even from the nonprofits 
sector. Volunteers are great, but you need paid professional 
staff to know how to organize--first of all, to create, 
develop, and organize what is needed.
    General Conway. I would asterisk your comment, ma'am, with 
just a couple of things.
    It still is the Commander's program. He has, at his 
discretion, the opportunity to hire someone, or if he chooses, 
if you have, say, a staff non-commissioned officer that's been 
deployed three or four times in that unit, and he wants to 
leave that person back, he can name that person as his family 
readiness officer. So, it's the Commander's option, but 
certainly he didn't have those options before.
    Senator Mikulski. Well, I know my time is moving along, I'd 
like to have a real, a more complete description of what this 
Readiness Program is, and moving along in this, because you 
have families, you have families there with special needs, 
which--we're so glad you even named, because quite frankly, the 
Army doesn't--and the National Guard, quite frankly, the 
Director of Personnel for the Army didn't think enough to put 
it in the Guard.
    So, we want to help you, because behind every marine is a 
family and its morale.
    But, we know, for example, on one base, they organized a 
group called ``Grannies for the Marines.'' These were people 
who were grandparents in an area that would volunteer 5 hours, 
say, a month, to help a Marine Corps spouse, be able to take 
care of some things. You can't organize volunteers with a 
volunteer. It just takes too much to do it. But beyond that, 
you have to have pre-deployment counseling, when they come back 
home it takes an organized effort for reintegration in the 
family--spouse, children and if there's intense medical needs, 
that could go on for a long time--we really have to have a 
program.
    General Conway. Yes, ma'am.
    And, ma'am, to the credit of the Navy Medical Services, a 
marine who deploys will typically, before he goes and after he 
gets back, will have four such counseling periods. And the Navy 
has also established a forward footprint, with teams actually 
in the theater, who are able to respond if a marine has a 
traumatic incident and needs counseling on the way.
    Senator Mikulski. Could we hear, then, from the Navy, and 
that'll be the summary of my questions.
    Admiral Roughead. Yes, ma'am.
    As you know, we've been a deploying force for centuries, 
but even with that, we've made enhancements to what we are 
providing for our families in our fleet and family readiness, 
or support centers.
    We, too, like the marines, have also expanded our child 
care, which is a very important dimension of our families' 
interests. But, we have also deployed our Navy differently in 
this war. We've deployed our sailors as individual augmentees. 
In fact, many don't realize that the United States Navy has 
more people on the ground in the Central Command area than we 
have at sea.
    And so, what we've done is we've created an organization 
and a separate element within that organization that deals with 
the welfare of those individual deployers, and the ability to 
support the families of those who have been individually 
deployed.
    And I can tell you, in the time that I've been in the Navy, 
there has been no more focus provided by senior leadership, 
than that which we are providing for our individually deployed 
sailors and their families.
    Senator Mikulski. Well, I know this is also a keen interest 
of all members of the subcommittee, but I know, Senator Murray 
and I are trying to see from pre-deployment to battle 
assignment to coming back home, to also, then, as they come 
back for medical care or move back into the VA, that we really 
are developing this system that the family needs, as well as 
the warfighter.
    Our position is that even though the warfighter might not 
be literally wounded, with shrapnel or from an IED, they are 
permanently impacted. And we need to stick with them all the 
way through.
    So, starting with pre-deployment all the way through is 
what we're interested in, so we can help you, and behind every 
great soldier, seaman, marine, is a family that supports them, 
but a mission that supports the family.
    So, thank you, and we look forward to more conversation on 
this.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, thank you, Mr. Chairman.

                                  LCS

    Secretary Winter, this may--I stepped out a few minutes, 
and this may have been asked, and it may not have.
    The littoral combat ship that you alluded to earlier is 
vitally important to the future of our Navy, and I think you've 
said that many times. And I believe it represents an important 
capability for the Navy, and will give our forces a new 
transformational system with the maneuverability to operate 
anywhere, especially in shallow waters, is that correct?
    Dr. Winter. Yes, sir.
    Senator Shelby. While I know there have been issues that 
we've talked about with the LCS acquisition program, can you 
discuss the way forward on the littoral combat ship program?
    Dr. Winter. Thank you very much, Senator, for your interest 
in this area. I think that we've restructured the LCS program 
into an acquisition process now which is appropriate for the 
development of a new class of vessel, and still gets us to the 
desired fleet size of 55 LCS ships as part of the 313 that 
we're targeting for in 2019.
    What we've done right now is, I believe you're aware, is to 
focus on the first two individual vessels--one of each type--so 
as to ensure that we can get through the initial construction 
phase there, understand any issues in construction, take them 
out to sea, be able to go through the initial sea trials, and 
be able to take benefit from all of that as part of the next 
procurement.
    We have approval and funding for one additional vessel in 
2008, and we are requesting funding for two additional vessels 
in 2009. Our desire there is to go out on the acquisition of 
three additional vessels with the idea that we would have a 
competition--one contractor getting two, one contractor getting 
one--providing some motivation for the contractors but 
maintaining the competitive base through that period of time.
    That would lay the groundwork for the future, full-scale 
acquisition process, which would be informed by the full 
benefits of the sea trials, as well as the development 
activities that have taken place.
    Senator Shelby. Would you just take a minute and tell us 
again for the record, how important the littoral combat ship 
program is to the Navy, and the future capability, and how we 
deal with the threats in the shallow water?
    Dr. Winter. I will touch lightly on three specific items 
there, and then ask the CNO to add specifically from an 
operational point of view.
    What we've stressed on the design and development of the 
LCS, is really three things. Number one, having speed, speed 
consistent with the evolving threat that we're seeing out in 
the Middle East and elsewhere around the world. Second of all, 
shallow draft--the ability to operate safely and effectively in 
the littoral regions, which is becoming more and more of a 
focus for our Navy. And last, having the capability to use what 
we call mission modules, the ability to switch the mission 
capability to adapt to the challenges that we see at any given 
point in time.
    This provides us with a huge increase in flexibility, of 
responding to the threat, whether that's a surface threat, 
submarine threat, or mine threat. And also gives us the ability 
to continue to evolve this class of vessels to deal with 
future, perhaps unidentified threats, that we may need to deal 
with in many years to come.
    And with that, I'd like the CNO to comment on the 
operational aspects.
    Admiral Roughead. Sure, thank you, Mr. Secretary.
    And----
    Senator Shelby. How important is it, Admiral?
    Admiral Roughead. It is extraordinarily important. And in 
my perspective, as based on being fortunate to come into this 
job as one of two officers who has commanded the Pacific Fleet 
and the Atlantic Fleet. And from my experiences, and the types 
of operations that we are involved in now, and the fact that we 
do not have a capability that allows us to work in close to 
shore, work in the larger archipelagos that are in the world 
today, the LCS gives us that flexibility--the speed, the 
shallow draft which expands the amount of ocean we can operate 
in, and the flexibility to change mission capabilities in that 
ship rapidly.
    There is nothing on the books now, or on the boards now, 
that fulfills that need, and that is why that ship is so 
important to us.

                                 LPD-17

    Senator Shelby. Thank you, this question may have been 
asked, Admiral--I understand the Navy's fiscal year 2009 budget 
that LPD-17 production will conclude after nine ships. It's my 
understanding that the Marine Corps top-funded priority for 
this year is acquiring another LPD. Do you feel that the future 
amphibious fleet should include 11 LPDs? What are your 
thoughts, here?
    Admiral Roughead. Yes, sir, I do agree with that.
    General Conway and I have had several discussions about the 
future of where we are going. I believe that the world that we 
will live in, in the future, the Navy and Marine Corps will be 
a force of choice, because of our ability to move quickly, to 
be able to move into areas where access may be denied, and our 
amphibious fleet, the assault echelon, as well as the maritime 
pre-position force of the future, will give the Navy and Marine 
Corps that flexibility.
    I support his requirement of 11 LPDs, and that's why it 
also appears on my unfunded program list.
    Senator Shelby. General, you want to comment? You just 
agree with the--do you agree or disagree?
    General Conway. Sir, I agree wholeheartedly. We've had some 
very productive discussions, and both the Navy and the Marine 
Corps agree upon the requirement of the ships.
    We have accepted some risk already, with the idea of 30 
amphibious ships to satisfy a two-brigade requirement. The Navy 
has been forthcoming in trying to sort of stretch the rubber 
band to satisfy our needs, they have agreed to potentially 
extend some of the older amphibious ships. But even with their 
best effort, that leaves us another 9 percent, or so, short of 
being able to project those brigades, so a 30 percent 
shortfall, or so, roughly, is still not something that we're 
comfortable with, so we have asked for newer ships, larger 
ships, really, that allow us to put more aboard.
    Senator Shelby. Thank you, gentlemen.
    Chairman, thank you.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Thank you to all of you for your service and for being here 
today.

                             MENTAL HEALTH

    Secretary Winter, I want to follow up on a little about 
what Senator Mikulski talked about. I think we're still playing 
catch-up for the poor planning that took place after very long 
operations--7 years in Afghanistan, almost 5 years in Iraq.
    A large concern I have is the slow change of tide regarding 
the perception and attitude about psychological health. And 
wanted to ask--I know you talked a lot about the programs 
themselves. But what about--what are we doing to really change 
the attitude, all the way down to the bottom levels, about 
sailors, marines, feeling comfortable talking about needing 
help with psychological issues?
    Dr. Winter. I think, ma'am, the stigma issue, if you will, 
is I think a very critical issue. We recognize it, I think it's 
been recognized at all levels within both the Navy and the 
Marine Corps, and has been attacked from the very senior 
levels, all the way on down.
    The issue there, I think, is to first of all make clear 
what the leadership position is on this, to make sure people 
understand the view. To provide mechanisms of facilities 
access, so that people can access medical care.
    This has gone to the point of including forward-deployed 
mental health professionals, as part of our OSCAR Program, the 
operational stress combat--I'm trying to remember the details 
of the acronym, there--program in which we are actually 
deploying mental health professionals with the forces, to be 
able to provide close proximity and access.
    We're also providing training for many people who have 
peripheral access to such issues--our chaplains and religious 
professionals--who have the ability to guide individual 
servicemembers to seek medical care when it is needed and 
appropriate.
    We're also trying to get marines and sailors to help each 
other. And this has been a longstanding tradition, and I think 
some of the ways in which we are able to get that message out, 
and have individual marines recognize, and be able to go 
marine-to-marine, I think, has a huge benefit.
    Last, we're trying to work with the families, and one of 
the issues that keeps on coming up is, how do you deal with 
this issue post-deployment, and post-discharge? We try to do 
the normal checkups and all the reviews and things of that 
nature, and we're looking to be able to reevaluate----
    Senator Murray. It's oftentimes the spouse that recognizes 
PTSD or other----
    Dr. Winter. Exactly.
    Senator Murray. And I know you talked about some of the 
programs you have for spouses--they're great. But you need 
professionals who are helping the families understand what to 
look for, too. How are you doing with that?
    Dr. Winter. What we're trying to do there, ma'am, is to 
first of all, help the spouses and the families recognize the 
issues, and then ensuring that they understand how to get help. 
And that includes a series of outreach activities, as well as 
resources that they can draw upon, by phone, by Internet, and 
by visiting personnel--whether they're at fleet concentration 
areas, major bases, and operations, or out in the economy. And 
so, we're trying to facilitate that access so that they know 
where they can turn and understand the resources that are 
available to them.
    Senator Murray. General.
    General Conway. If I could augment a very complete answer 
just a little bit, I agree with you that we need professionals 
and we need programs, but we can also help ourselves, and we're 
endeavoring to do that.
    First of all, you get at why a marine feels like there may 
be some stigma associated with it, and quite frankly, Sergeant 
Major and I, when we go and visit, and in publications are 
saying, ``You don't get PTSD unless you're a warrior. You have 
had experiences that, in some cases, no one else has had. So, 
you don't start out being weak or a wimp in this business, 
PTSD, to begin with.''
    Second, some of our most senior people are experiencing it. 
We have a couple of sergeants major, or master gunnery 
sergeants out there who are experiencing these kinds of things, 
and it's just as true for them that we want to help you with 
this injury, because we consider it an injury, just as 
certainly as an external wound, we want to help you with this, 
and we want to get you through it, because you can recover.
    We want to change the name, from ``disorder'' to something 
else. Because, it has, I think, a negative connotation with it.
    And the last thing is--you're right--spouses sometimes 
recognize it even before the servicemember does, and sometimes 
the dialogue is, ``Well, don't report it or they'll toss you 
out.'' Well, we're not doing that. We want to get people 
through it, and we want to keep them as productive members of 
our Corps, and----
    Senator Murray. And you're giving that message to----
    General Conway. Absolutely.
    Senator Murray [continuing]. All the way down?
    General Conway. Absolutely.

                      INDIVIDUAL AUGMENTEES (IAS)

    Senator Murray. And what about the IAs, in particular?
    Admiral Roughead. We have a screening process for our IAs 
and not just our active force. I think the greatest challenge 
we have are for IAs who are Reservists who come back, and then 
go back into their communities. So, at the operational support 
centers, we're paying particular attention to that.
    We also, in the Navy, have taken about 1,300 positions that 
involve medical providers, chaplains and other individuals, and 
have spent some additional time and resources on them to make 
sure that they too are familiar with the types of things that 
they must be aware of.
    And similarly with the Marine Corps, the effort to de-
stigmatize the PTSD issue. And I do believe we're making some 
good progress in this regard.

                      MENTAL HEALTH PROFESSIONALS

    Senator Murray. So we have enough resources to hire the 
mental health professionals that you need?
    Dr. Winter. I think, ma'am, we have the resources, the 
issue is in actually being able to hire.
    Senator Murray. To fill them?
    Dr. Winter. The availability of mental health 
professionals, particularly psychologists and psychiatrists, 
has been a challenge. We've done a little bit better with the 
mental health nurses, we've done very well with social workers 
that we've been able to use in certain, limited, mental health 
capacities, but for psychologists and psychiatrists, this is a 
national challenge.
    Senator Murray. Okay.
    Admiral Roughead. Mr. Secretary--if I may.
    Senator Murray. Absolutely.
    Admiral Roughead. Senator, that's why the provisions that 
you have provided us, in the form of the incentives and the 
bonuses is so very important, particularly in the mental health 
area, so we thank you for that.
    Senator Murray. Okay, well I can assure you that a number 
of us on this subcommittee really want to continue not only to 
work with you to get that message all the way down to the man 
or woman at the bottom, but also to provide the services we 
need. And certainly, I think, we do have to worry about the 
capability of hiring enough professionals out there, and want 
to continue to work with you on that.
    Dr. Winter. Greatly appreciate the support, ma'am.
    Senator Murray. Thank you.

                           ELECTRONIC WARFARE

    To change the topic a little bit, I wanted to ask you about 
the military's ability to jam and use electronic warfare in 
Iraq and Afghanistan--certainly critical as we all know. But 
historically, as we've seen threats decrease, our electronic 
warfare capability has decreased, and we have not invested in 
platforms and technologies and communities.
    Can you give me a current assessment of where we are on 
that?
    Dr. Winter. Well, right now, ma'am, our principal activity 
is the development of the Growler, which is the replacement for 
the EA6B Prowler aircraft. The EA6B is being used extensively 
in the theater right now. It is also the only mechanism we have 
of prosecuting electronic attack at this point in time.
    It is being used extensively, and we are starting to get 
concerned about the life-limiting features associated with it.
    Our analyses suggest that we--an 84-aircraft Growler fleet 
is what we need to build to. We have requested funds for 22 
Growlers in this budget as part of that. That's in addition to 
five Growlers that are pending from the supplemental request 
from 2008. We believe that it is a proper course toward 
providing satisfaction of the 84 aircraft requirement.
    I will note that the sizing of 84 aircraft presume that the 
aircraft would also participate in the development of 
additional electronic attack capabilities----
    Senator Murray. Are you concerned that other agencies 
aren't investing?
    Dr. Winter. We will be looking at that, ma'am, as part of 
the 2010 POM evaluation, and determining whether or not we're 
still comfortable with that assumption, and if that assumption 
is in need of revisitation, we will take a look at the 
implications of that.
    Senator Murray. Thank you.

                         NAVAL STATION EVERETT

    I also want to ask you, as you know, Naval Station Everett 
is one of the three west coast locations under consideration as 
home port for the DDG 1000 that we talked about earlier. My 
understanding is that three of these ships will be stationed at 
a selected location--and with all respect to my chairman--I 
think Naval Station Everett, obviously, is an ideal location.
    Barring that, can you give us a quick assessment of where 
we are in the process and criteria that will be used to develop 
that? Admiral.
    Admiral Roughead. Senator, what we are doing is looking at 
what the lay down of our force should be. When I came into this 
position a few months ago, I wanted to have a very thoughtful 
approach to where forces should be, my staff is working on 
that, and I look forward to having that presented to me, and 
then making the appropriate recommendations.
    Senator Murray. Okay, we look forward to hearing that, very 
much.

                           BREMERTON CVN PIER

    And finally, Mr. Chairman, if I could, I just wanted to 
mention that the Navy is preparing a major overhaul of an 
existing maintenance pier at Naval Base Kitsap in Bremerton, 
I'm sure you're aware of it. It's a $160 million project, and 
very important to all of us--there's no doubt that we all know 
how critical it is.
    But, I was just recently made aware that there are several 
concerns that have been raised at the local level about the 
Navy's consultation with some of the impacted parties, and I 
was hoping that you could just work with us later, and make 
sure we're working with those local constituencies.
    Admiral Roughead. Yes, ma'am, we are, and----
    Senator Murray. Are you aware of the problems?
    Admiral Roughead. I'm aware of that, and the meetings that 
we've been having--I'm committed to continuing to address the 
issues that have been put on the table. And as you pointed out, 
it is very critical that it get resolved, because of the 
availabilities that will be coming into the shipyard and that 
will need that facility there.
    Senator Murray. Okay. Thank you very much, I appreciate 
that.
    Senator Inouye. Thank you very much.

                    AEGIS BALLISTIC MISSILE DEFENSE

    Admiral Roughead, the subcommittee wishes to congratulate 
you and the men and women of your command for the very 
successful interception of the failing NRO satellite, 2 weeks 
ago.
    However, I note that there are many aegis ships deployed 
with long-range surveillance and tracking capabilities, but 
very few equipped with the missile itself. When are you going 
to have this transition from the Missile Defense Agency (MDA), 
so you can take over?
    Admiral Roughead. Thank you for the question, Senator.
    I believe that what our, what we demonstrated 3 weeks ago 
showed that our capability is one that is very valuable to the 
Nation, even though we had to modify significant portions of 
it, to be able to go after a satellite as opposed to ballistic 
missiles.
    But, over the years, as we have demonstrated at Barking 
Sands, at the range in Hawaii, the success of our program, I 
believe is a function of having some great capability that was 
purchased without the intent of what we're using it for now.
    But most importantly, it shows that our capability is in 
the operational Navy. It has grown up in the operational Navy, 
the tests that have been performed, the engagement of the 
satellite were done by sailors, in their ships, using systems 
that they use every day.
    I believe that the investment that MDA makes in the Navy, 
which is roughly 10 percent of their budget, is an investment 
well spent. I also believe that it is an appropriate time to 
consider the migration of what is referred to as the fielding 
wedge for the capability, for that to migrate to the Navy, so 
we can move forward quickly and robustly in maritime ballistic 
missile defense.
    Senator Inouye. So, you plan to equip the aegis vessels 
with missiles?
    Admiral Roughead. Yes, sir, I believe that we will have to 
increase the inventory of missiles. As I look around the world 
today, the proliferation and the sophistication of ballistic 
missile development in many places in the world will be 
important for us to ensure access, to protect our forces, and 
also to support our partners and allies.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Mr. Secretary, I have a lot of questions 
I'd like to submit to you and your colleagues for their 
responses.
    And Senator Cochran, do you have any questions?
    If not, I'd like to thank you, Mr. Secretary, Admiral 
Roughead and General Conway for your testimony this morning 
before the subcommittee. And we appreciate your continuing 
service to our country.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Donald C. Winter
            Questions Submitted by Senator Daniel K. Inouye
    sustaining current aircraft versus investing in future programs
    Question. Secretary Winter, as budget pressures rise there is often 
a dilemma in balancing the maintenance of current or legacy systems 
versus developing new capabilities. How is Navy addressing this balance 
in the aviation community? Are sufficient funds being invested in the 
reliability of current systems--like the P-3C, the E-2C, and the H-3--
to avoid capability gaps should new systems be delayed? Secretary 
Winter, given that delays and cost growth in the development and 
fielding of new aircraft are so common, how confident are you that 
plans to accelerate procurement of various new aircraft to address 
deficiencies in the current fleet is the right strategy?
    Answer. December's grounding of 39 P-3Cs impacted our ability to 
meet COCOM requirements. To mitigate capability gaps and sustain the P-
3C force until the arrival of the P-8A, fiscal year 2008 and fiscal 
year 2009 funding is being separately requested for P-3C wing panels, 
supporting hardware and installation, and acceleration of the Fatigue 
Life Management Program. The fiscal year 2009 budget also reflects a 
systems sustainment and modernization budget to continue to address a 
multitude of mission essential efforts to replace obsolete components, 
integrate open architecture technology, and leverage commonality.
    In addition, we are requesting funding to accelerate the 
introduction of the P-8A. Even with our current efforts, the remaining 
unknowns in the fatigue life of the P-3C airframe continue to present 
significant risk in our ability to sustain the force. I am confident 
that a combination of sustainment of the P-3Cs and acceleration of the 
introduction of the P-8A provides the best balance of mitigating risk, 
minimizing costs, and providing safe and highly effective platforms to 
the warfighters.
    The E-2D Advanced Hawkeye program is currently in flight test and 
building pilot production aircraft. The Navy is planning on reaching a 
production milestone next year. As we procure the E-2D, we continue to 
maintain the Navy's E-2C capability. The Naval Aviation Enterprise, led 
by Commander Naval Air Forces, periodically reviews the sustainment of 
our aircraft using a Cost Wise Readiness model. As with any older 
platform, some investments in the E-2C are required to keep the weapon 
system performing well. As an example, these have addressed reliability 
of replaceable components for the APS-145 radar system--which is the 
key reason we are buying the E-2D and the APY-9 radar in that aircraft. 
These strategic investments also keep our industry base active as we 
ramp up the new production line. E-2Cs are also being modified to 
enable an Open Architecture computing environment, which will make 
sustaining software on this platform more affordable. I believe this 
strategy of modest investments for targeted sustainment, while 
delivering a new platform that will be effective well into this 
century, meets the goals of the Maritime Strategy.
    In regards to Presidential Helicopter Programs, sufficient funds 
have been allocated to sustain both the VH-3D and VH-60 through the VH-
71 Increment 2 restructure. Those gaps associated with the delayed 
fielding of VH-71 Increment 2 will be addressed where feasible and 
funds have been set aside for service life issues and essential 
communication requirements for support to the President. Additionally, 
the five Increment 1 aircraft, with an estimated initial operational 
capability of September 2010, will also mitigate the capability gap 
until fielding Increment 2. The Department will continue to ensure that 
the legacy Presidential fleet maintains viability throughout the 
transition to the VH-71.
                       littoral combat ship (lcs)
    Question. Secretary Winter, there have been many changes in the 
acquisition strategy for the Littoral Combat Ship. What is your current 
plan for proceeding with this program? Secretary Winter, do you have 
confidence that the cost growth in the LCS program is under control and 
that the Navy can execute additional ships within the existing cost cap 
of $460 million per ship?
    Answer. An updated acquisition strategy for fiscal year 2008 and 
fiscal year 2009 procurements has been approved by the Under Secretary 
of Defense (Acquisition, Technology and Logistics). The Navy will award 
one ship in fiscal year 2008 using the funding appropriated by 
Congress, along with material from one of the ships terminated in CY 
2007. The fiscal year 2009 President's budget requests two additional 
LCS.
    The Navy believes that additional design maturity, production 
progress on LCS 1 and 2, and a competitive contract award between 
incumbent suppliers will enable the use of fixed price incentive terms 
for the fiscal year 2008 ship appropriated by Congress and the two 
fiscal year 2009 ships that the Navy is requesting. When these ships 
are delivered, the Navy will be able to better evaluate their costs and 
capabilities, and to make decisions regarding the best manner to 
procure the remainder of the class.
    Acquisition strategies for fiscal year 2010 and later ships have 
not yet been formulated.
    The Navy's restructured program contains more informed cost 
estimates that include: incorporation of lessons learned with each lead 
ship contract execution; a more refined estimate of the cost of known 
required changes to the designs; and a higher allowance for program 
management costs to provide for the government oversight expected by 
Congress.
    The Navy has worked diligently with the industry teams to identify 
and evaluate program cost, schedule and technical risk.
    Execution within the cost cap will be a challenge as the initial 
Navy estimate of $460 million end cost was predicated on two ships 
being appropriated in fiscal year 2008. This would have allowed sharing 
of some program costs between seaframes. Moreover, the cap is based on 
the total limitation of the government's liability, which requires the 
Navy to keep the contract's ceiling value below the cap. The basis of 
the Navy's $460 million estimate was contract target price, which is 
lower than the ceiling value.
                     vh-71 presidential helicopter
    Question. In December, the Navy issued a stop-work order on the VH-
71 Presidential Helicopter as costs continued to spiral higher and 
schedules have failed to be met. However, the fiscal year 2009 budget 
request includes $1 billion to continue development and produce four 
helicopters. I am told that the Navy analyzed 22 alternatives before 
deciding on the plan presented in the request. Secretary Winter, could 
you comment on why the plan reflected in the budget request was found 
to be the best of all those options? Secretary Winter, the Navy's 
budget justification contains no information on the VH-71 program 
beyond fiscal year 2009. When will Congress receive additional details 
on this program?
    Answer. We have taken a very hard and deliberate look at this 
program reviewing over 35 options and have determined that there are no 
other viable alternatives for the VH-71. The options considered were 
both inside and outside of the VH-71 program and all came to the same 
conclusion: to meet the operational requirements and technical scope of 
the program we have the right helicopter. The VH-71 full program of 
record is the best option to meet the full set of White House 
requirements.
    The fiscal year 2009 plan reflected in the President's budget 
request is a restructured program and allows execution to meet the full 
set of White House requirements. As reported recently in the media, a 
decision between the Department and the White House was made on March 
5. Details of this decision are presently being briefed to Professional 
Staff Members. Funding details beyond fiscal year 2009, however, are 
dependent upon the Department's Planning, Programming, Budgeting and 
Execution Process and will not be finalized until the President's 
fiscal year 2010 submission.
                           nuclear engineers
    Question. Secretary Winter, the demand for qualified nuclear 
engineers in the civilian sector appears to be rising as Baby Boomers 
begin to retire and the energy industry is taking another look at 
nuclear power. As is so often the case, private industry is able to 
lure talent from the public sector by offering better wages and 
benefits. What is the Navy doing to make sure that our shipyards will 
have access to the engineers we need to design, build, and maintain our 
nuclear powered ships?
    Answer. The Navy has been working proactively to understand the 
demand for nuclear engineers and to develop strategies to retain the 
necessary number of nuclear engineering professionals to accomplish 
Navy missions. Senior nuclear engineering managers have been actively 
reviewing common issues and problems affecting the recruitment, 
development and retention of nuclear engineers. These efforts will 
identify best practices and long-term actions that will help to ensure 
a stable cadre of nuclear engineers for the Naval Nuclear Propulsion 
Program. The Navy continuously reviews incentives and benefits to 
promote a rewarding work environment that affords opportunities and 
challenges. Examples include: positively influencing new engineers with 
immediate responsibility; providing a stable work environment; 
providing continuous employee training and development; offering 
competitive pay incentives and other benefits; and encouraging 
engagement in the local community.
                        virginia class submarine
    Question. Admiral Roughhead, last year the appropriations 
conference added $588 million above the budget request to accelerate 
the procurement of two submarines per year. I understand the Navy now 
plans to begin procuring two submarines per year in fiscal year 2011. 
What effects will this have on the Navy's overall shipbuilding plan? 
Secretary Winter, would you comment on the procurement plan for the 
Virginia Class?
    Answer. Procuring two submarines per year one year earlier (fiscal 
year 2011 vice fiscal year 2012), will reduce the number of years the 
SSN force structure is below 48 from 14 (per fiscal year 2008 
shipbuilding plan) to 12 years.
    The 30 year Shipbuilding Plan is the best balance of anticipated 
resources to the Navy's force structure requirements. Having less than 
48 attack submarines (from 2022 through 2033) is not ideal, but the 
long-term risk is manageable as part of a stable, properly balanced 
shipbuilding plan.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein
                      t-ake ship procurement plan
    Question. The recent Navy Long Range Report on Vessel Construction 
noted: ``The current budget does not include the 13th or 14th T-AKEs 
required to meet the MPF(F) structure described above, pending 
completion of an ongoing MPF(F) concept of operations study.'' The 
report further confirms that ``it is expected that the assessment will 
show that the MPF(F) will need those two T-AKEs.'' Can you comment on 
the Navy's plans for procuring the 13th and 14th T-AKEs and will this 
be done in a way to bring greater stability to the shipbuilding budget 
in order to make ship procurement more affordable?
    Answer. The Joint Requirements Oversight Council (JROC) is 
currently reviewing requirements for the 13th and 14th T-AKE ships. 
Pending JROC approval, the Navy's contract with the T-AKE shipbuilder, 
NASSCO, includes fixed priced contract options for T-AKE 13 and T-AKE 
14. These pre-priced contract options provide stability to the 
shipbuilding budget and make ship procurement more affordable.
                                 ______
                                 
               Questions Submitted by Senator Judd Gregg
                      comparative cost of ddg 1000
    Question. In a February 27, 2008 report to Congress, the 
Congressional Research Service provided a comparison of the cost of 
procuring and maintaining a DDG 51 class destroyer to that of the new 
DDG 1000 class destroyer. The report indicates the Navy argues that 
when life cycle operation an support costs were taken into account, it 
would cost roughly the same amount of money to procure and maintain one 
DDG 51 as it would a DDG 1000. Can you elaborate on why this would be 
the case, to include providing comparative cost data supporting this 
assertion?
    Answer. The Navy has not stated that it would cost roughly the same 
amount of money to procure and maintain one DDG 51 ship as it would a 
DDG 1000 ship. The unit costs for the final ships of the DDG 51 class 
(procured in fiscal year 2005) are lower than the projected unit costs 
for the follow ships of the DDG 1000 class. However, the Navy does 
expect that a DDG 1000 class ship will have a lower annual total 
operating and support (O&S) cost per ship than a DDG 51 class ship. 
This comparison is based on the Navy service cost estimate for DDG 1000 
O&S costs compared to a composite across all ships of the DDG 51 class 
based on reported O&S cost data. The overall lower DDG 1000 per ship 
annual O&S cost is primarily due to the decreased ship manning for DDG 
1000 as compared to DDG 51. This decreased manning affects both direct 
Mission Personnel costs and indirect support costs (such as 
installation and personnel support costs). The Navy is currently 
updating the O&S cost estimate for DDG 1000 based on the current design 
and life cycle support strategy.
                   comparative capability of ddg 1000
    Question. Can you address the requirement and capability 
differences between DDG 51 and DDG 1000? What kind of added capability 
will the DDG 1000 ship class deliver to the Fleet and Joint Commanders 
that is currently not available?
    Answer. DDG 1000 is optimally designed to operate in the littoral 
environment where as DDG 51 was designed for an open ocean environment.
    The DDG 1000 will deliver the following capabilities that are not 
currently available:
  --Advanced Gun System and Long Range Land Attack Projectile will 
        provide guided 155 mm Naval Surface Fires Support out to 74 nm 
        with the capability of multiple rounds simultaneous impact 
        versus the 13 nm range of the current 5 inch rounds of the DDG 
        51.
  --Dual Band Radar incorporates S-Band Volume Search Radar and X-Band 
        Multi-Function Radar (MFR), and provides better sensitivity in 
        clutter and greater firm track range to increase AAW 
        capability. MFR provides periscope detection in the ASW 
        environment.
  --Dual-frequency bow mounted sonar and Multi-Frequency towed array 
        are integrated and provide significantly enhanced littoral ASW 
        capability, and in-stride mine avoidance.
  --Integrated Power System that provides 78 MW of power for use 
        throughout the ship (propulsion and electrical). Dual power and 
        electrical paths increase survivability and decrease 
        probability of power loss.
  --Signature Reductions:
    --Significant reduction in radar signature compared to a DDG 51, a 
            50 fold reduction; stealth disrupts an adversary's detect-
            to-engage chain and allows missions to be performed not 
            achievable by current ships.
    --Significant improvement in infra-red signature.
    --Significant acoustic and magnetic signature reductions that 
            enhance survivability against littoral diesel submarine and 
            mine threats.
  --Enhanced survivability and damage control capability. DDG 1000 can 
        withstand a USS COLE-like event and keep fighting. DDG 1000 has 
        more robust armor than DDG 51. All DDG 1000 spaces have 
        automated fire fighting and flooding systems. Additionally, a 
        resilient power system allows for automatic electric plant 
        isolation and reconfiguration.
                                 ______
                                 
              Questions Submitted to Admiral Gary Roughead
            Questions Submitted by Senator Daniel K. Inouye
                           p-3 ``red stripe''
    Question. Admiral Roughead, last December the Navy issued a ``red 
stripe'' bulletin grounding 39 of the 123 mission-ready P-3 Orion 
aircraft. The problem, found by modeling and simulation, was unexpected 
fatigue damage leading to possible cracks in the wing. What is the 
operational impact of losing these aircraft? Admiral Roughead, what is 
the Navy's plan to get the aircraft back to mission-ready status?
    Answer. The grounding of the 39 aircraft had significant 
operational impact. While the details of the impact are classified, ten 
deployed aircraft were affected. The Navy will continue to work with 
the Joint Staff and Combatant Commanders using Global Force Management 
Allocation Plan to optimize P-3 allocation as inventory constraints 
permit.
    To recover the P-3C mission-ready inventory, fiscal year 2008 and 
fiscal year 2009 funding is being separately requested for P-3C wing 
panels and outer wing box assemblies, supporting hardware and 
installation, and acceleration of the Fatigue Life Management Program. 
A dual path approach of targeted wing repairs and outer wing 
replacements will be implemented to ensure P-3 flight safety through P-
8A transition and to maximize industrial depot capacity. The Navy's 
sustainment approach to P-3 operations will include the strict 
management of requirements and flight hour use and continued 
installation of Special Structural Inspection Kits to address fatigue 
concerns.
                           navy end strength
    Question. Admiral Roughead, the Navy has reduced its end strength 
by nearly 40,000 Sailors since fiscal year 2005 and continues to draw 
down personnel. These reductions have come through military to civilian 
conversions and technology-based efficiencies aboard ships. Are you 
still comfortable with the Navy's planned end strength level? Are you 
concerned that these manning reductions are having a negative impact on 
the Navy's operational capabilities? Admiral, as the Navy introduces 
new technology aboard ships, extensive training will be required to 
operate these increasingly complex vessels. More time for training will 
mean more time away from ships for many Sailors. Has the Navy taken the 
additional training requirements into account in its manning plan?
    Answer. I am comfortable with the current plan for the Navy's end 
strength level. The planned steady-state end strength level is based on 
our ability to shed non-essential functions, continue to leverage 
advances in platform and system design, and maintain war fighting 
readiness. The Navy is moving toward a capability-based workforce by 
refining the shape and skill-mix of the force to provide the 
specialized skills needed to respond to new technology and expanded 
missions.
    Reductions are targeted to ensure that we retain the skills, pay 
grade, and experience mix necessary to provide mission ready forces. 
Our steady-state end strength target of 322,000 active and 68,000 
reserve Sailors and Officers is based on analysis of current and future 
force structure plans. Our personnel distribution system is intended to 
assign the right Sailor, to the right job, at the right time. 
Therefore, changes to force structure, capability demands, and capacity 
and/or limitations on manpower and personnel systems necessitate a 
continual reassessment of the proper force size of the Navy.
    The Navy accounts for additional training requirements and 
continually evaluates requirements for both initial and follow-on 
training for our Sailors. The alignment of our Learning Centers to the 
Warfare Enterprises has greatly improved the dialogue between our Fleet 
operators and our training organization. Navy training is fundamentally 
driven by the skill requirements of the jobs and positions Sailors 
hold. As new developments and technologies transform job requirements 
training is updated and adapted. Many Sailors proceed directly from 
their accession level basic school into advanced specialized skill 
training designed to prepare them for their specific assignment at sea. 
When they arrive at their ship with the required training the amount of 
additional training they will need is significantly reduced during 
their time assigned onboard.
    Similarly, Sailors proceeding from one command to another are 
scheduled for any new, intensive technical training required to operate 
equipment within their specialty while en route to their new command. 
Our ultimate goal is to provide effective and meaningful job training 
through a continuum of learning that enables our Sailors to obtain and 
maintain competency, while minimizing time away from their job and 
their ship.
                         nuclear surface ships
    Question. Admiral Roughead, some have suggested that rising oil 
prices and the development of energy-intensive combat systems could 
mean that it may make sense to include nuclear propulsion on future 
surface combatants. Others have argued that adding nuclear power to a 
next-generation surface combatant would add a large up-front cost to 
building new ships and may present other problems for training, 
maintaining, and operating a ship that does not operate on conventional 
power. Admiral Roughead, what are your views on the question of using 
nuclear power for future surface combatants? Admiral Roughead, if the 
Navy continues to build conventionally powered surface combatants, how 
will our future fleet meet the power demands of increasingly power-
hungry combat systems, such as the next-generation Aegis radar or 
futuristic directed energy weapons?
    Answer. The decision whether nuclear power propulsion will be 
incorporated in future surface combatants will be based on a thorough 
examination in compliance with statute. The ongoing analysis of 
alternatives (AoA) for the Maritime Air and Missile Defense of Joint 
Forces capability, which includes an assessment of CG(X) alternatives, 
examines both fuel efficient conventional power plants and nuclear 
power alternatives.
    The AoA addresses the power architecture options for CG(X), 
including the expectation for increased electrical power requirements 
in CG(X) for both the nuclear and fossil-fueled alternatives for future 
technologies such as high energy weapons and radars. The ability to 
accommodate higher electric energy demands associated with future 
weapon and sensor systems is a function of electrical generation 
capacity, and is independent of fuel type (nuclear vs. fossil fuel). 
Flexibility in accommodating increased electric loads can be introduced 
into either nuclear or fossil fuel propulsion plant designs.
          amphibious ship balance between pacific and atlantic
    Question. Admiral Roughead, we are all aware of the growing 
importance of the Asia-Pacific region to the security of the United 
States. In fact, the 2006 Quadrennial Defense Review recommended a 
shift of a number of submarines from the Atlantic to the Pacific. 
Currently, about 55 percent of Marines are stationed within Marine 
Forces Pacific. Considering this and the renewed emphasis on 
maintaining a stable balance of power in the Pacific, are there plans 
to shift more amphibious ships to the region to support the Marines?
    Answer. The present laydown of amphibious ships in San Diego and 
Japan is sufficient to meet current response times for Department of 
Defense contingency and steady state presence requirements. However, 
with the impending move of Marines from Okinawa to Guam and Hawaii, and 
in conjunction with the planned growth in Marine end strength, the Navy 
is assessing laydown possibilities that support alignment with the 
Marines.
                                 ______
                                 
             Question Submitted by Senator Dianne Feinstein
                        t-ake ship requirements
    Question. The Navy fiscal year 2009 Unfunded Priorities identified 
as your 4th highest unfunded priority requirement $941 million to 
``fund procurement of final 2 T-AKEs (13 and 14) to accelerate and 
support Maritime Prepositioning Force Requirements and leverage hot 
production line at NASSCO shipbuilding and allow Navy to maintain 
support of existing production contract without renegotiation.'' Do you 
believe there remains a strong military requirement for completing the 
planned and already contracted buy of all 14 T-AKE ships?
    Answer. The Navy has committed to procuring 12 T-AKEs, the minimum 
necessary to meet the Combat Logistic Force requirement.
    The Joint Requirements Oversight Council is currently reviewing 
requirements for the 13th and 14th T-AKE ships. The T-AKE contract 
includes a latest option exercise date for the 13th T-AKE Long Lead 
Time Material of January 2010 and the 14th T-AKE Long Lead Time 
Material of January 2011.
                                 ______
                                 
             Questions Submitted to General James T. Conway
            Questions Submitted by Senator Daniel K. Inouye
                  up-armored hmmwvs and mrap vehicles
    Question. General Conway, in response to urgent theater needs, we 
are rapidly procuring Mine Resistant Ambush Protected Vehicles, known 
as M-RAPs, which provide superior protection against IEDs. At the same 
time, you are requesting funds to procure modernized up-armored 
Humvees. Can you please explain to the Committee the need to continue 
the procurement of up-armored Humvees when the M-RAP requirement has 
been fully funded?
    Answer. The MRAP Vehicle was never intended as a replacement for 
the HMMWV. MRAP vehicles were procured and fielded to meet a special 
in-theater requirement. While the MRAP has performed well, it is too 
large to conduct missions in tight built-up areas and too heavy to 
conduct missions in rough offroad terrain. The Marine Corps requires a 
light tactical vehicle to perform these missions.
           joint light tactical vehicle and up-armored hmmwvs
    Question. General Conway, the Joint Light Tactical Vehicle is 
designed to replace the Humvee. If you go ahead with your planned 
purchase of new up-armored Humvees, do you still need the Joint Light 
Tactical Vehicle?
    Answer. The HMMWV/ECVs future replacement, the Joint Light Tactical 
Vehicle (JLTV) will not achieve Initial Operational Capability (IOC) 
until fiscal year 2014. In order to bridge the gap until JLTV is in 
full production and counteract the degraded useful life of current 
HMMWVs (due to weight and usage) the Marine Corps will need to buy more 
ECVs.
            mine resistant ambush protected vehicle strategy
    Question. General Conway, the M-RAP has been characterized as a 
``niche'' capability. What will we do with these vehicles when we pull 
out of Iraq?
    Answer. We have identified an enduring requirement for some of 
these vehicles from the 2,225 total number required. Explosive Ordnance 
Disposal units, combat engineers, and other units responsible for route 
clearance will use these vehicles. We are considering several options 
for the remaining vehicles such as placing them forward in stores, 
embarked aboard Maritime Prepositioning Ships or a mix of both options. 
The Combat Tactical Wheeled Vehicle strategy, that will be completed 
this summer, will provide additional details.
                tactical wheeled vehicle strategy update
    Question. General Conway, when will you be able to provide the 
Committee an update on your Tactical Wheeled Vehicle Strategy?
    Answer. The Marine Corps will provide a comprehensive Combat 
Tactical Wheeled Vehicle (CTWV) strategy that will include a detailed 
``way ahead'' for the current and future Marine Corps tactical wheeled 
vehicles to the President's Office of Management and Budget (OMB) and 
the Secretary of Defense (SECDEF) in July 2008.
    Prior to the final briefing to OMB and SECDEF, the Joint 
Requirements Oversight Council and the Deputy's Advisory Working Group 
will review our strategy. Additionally, an internal progress review 
with OMB and Office of the Undersecretary of Defense Comptroller is 
scheduled for April 18, 2008.
          expeditionary fighting vehicle--program improvement
    Question. General Conway, the Expeditionary Fighting Vehicle has 
encountered reliability problems which have delayed the program by four 
years, reduced by nearly half the number of vehicles the Marine Corps 
intends to buy, and added significant costs to the program. Given that 
this program is a high priority for the Marine Corps, how is the 
program going to be turned around while containing further cost growth?
    Answer. The Expeditionary Fighting Vehicle (EFV) program was 
certified by the Secretary of Defense to Congress as vital to national 
security in June 2007. The program was restructured to provide the 
necessary engineering support to achieve the reliability requirement 
and to provide the procurement funding necessary for the approved 
acquisition objective of 573. The restructured program is utilizing a 
rigorous systems engineering approach to execute a Design for 
Reliability effort aimed at the redesign of mission essential 
components of the EFV. During the certification process the Cost 
Analysis Improvement Group developed an independent cost estimate for 
the restructured program. In order to minimize the risk of cost growth 
the Marine Corps funded the program to that estimate even though it was 
higher than the program's estimate.
    The Marine Corps is actively working to manage cost using multiple 
approaches. The current contract's award fee structure was renegotiated 
to utilize objective criteria for cost, schedule and performance. The 
three cost criteria are aimed at managing vehicle, development, and 
operations and support costs. Through the conduct of a thorough 
Integrated Baseline Review by the Program Office and a compliance 
review by DCMA, the earned value system is on a path to become a vital 
management tool to help manage cost and schedule. The Marine Corps will 
continue to assess available trade-space in the engineering design and 
requirements through yearly reviews with the requirements owners in 
order to achieve the necessary EFV performance characteristics while 
maintaining cost and schedule.
    Finally, the Acquisition Decision Memorandum (ADM) issued after 
certification established a significant increase in government 
oversight. The increased oversight includes a Quarterly Program Review 
with USD (AT&L). Senior acquisition leadership from the Department of 
the Navy (DON) and Department of Defense (DOD) and top management from 
General Dynamics participate in the reviews. Additionally, the ADM 
established three additional DAB reviews for the program prior to 
Milestone C. These provide off-ramps for the government if necessary.
       expeditionary fighting vehicle--key performance parameters
    Question. General Conway, has the Marine Corps given consideration 
to revisiting the key performance parameters of the Expeditionary 
Fighting Vehicle?
    Answer. Requirements are reviewed on a recurring basis by the 
Marine Corps Combat Development Command (MCCDC). In addition to Key 
Performance Parameters (KPP), Operational Requirements, Specification 
Requirements, and Derived Requirements are looked at on a regular basis 
whenever trade space is needed.
    After a thorough review of all requirements, the Marine Corps 
recently reduced the Wave Height requirement associated with the High 
Water Speed KPP with minimal operational impact. The USMC also recently 
reduced the follow-on land range requirement and removed the smoke 
grenades providing weight saving trade space resulting in cost control.
    Some additional requirement changes such as removal of the NBC 
system and repackaging of the Auxiliary Power Unit have been identified 
as potential future changes to preserve cost and schedule if deemed 
necessary.
    expeditionary fighting vehicle--amphibious assault vehicle plans
    Question. General Conway, the original plan for the EFV was to 
replace the Amphibious Assault Vehicle on a one-for-one basis. But now 
the planned purchases of EFVs has been reduced by nearly half. Does the 
budget include adequate funds for sustaining the AAV into the future? 
What is the impact on the Marine Corps' amphibious assault capability 
due to the reduction of the planned purchases of EFVs?
    Answer. The present level of funding is sufficient to sustain 
Amphibious Assault Vehicles (AAV) at the current capability level. If 
necessary, the Marine Corps is positioned to apply vehicle upgrades and 
enhance current capabilities as required. Additionally, the AAV is 
subjected to a regular cycle of depot level maintenance via the Inspect 
and Repaired Only As Necessary program with funding provided to the 
Marine Corps Logistics Command.
    We are balancing our two missions of amphibious assault and 
participation in long-term, irregular warfare by shifting from an 
emphasis on amphibious forcible entry to a mix of platforms that have 
application across the range of military operations. We have tailored 
our EFV investment to be consistent with strategic guidance and have 
offset EFV reductions with investments in the Marine Personnel Carrier 
and the Joint Light Tactical Vehicle. In the near term, our investment 
in Mine Resistant Ambush Protected vehicles will afford Marines 
operating in Iraq and Afghanistan with significantly enhanced 
protection tailored specifically for Central Command operations.
    The reduction of the EFV requirement will not limit our ability to 
conduct surface-borne ship-to-objective forcible entry from a distant 
sea-base nor constrain our ability to conduct amphibious operations and 
subsequent maneuver ashore in support of national objectives. We will 
continue to pursue a balance of vehicles that will enable our Navy-
Marine Corps team to increasingly provide a persistent and flexible 
forward presence, both afloat and ashore, to meet combatant commanders' 
growing requirements for general purpose forces. Our future mobility 
systems will enable us to more effectively engage in low-end shaping, 
deterrence, and security missions while also positioning us to respond 
to high-end combat and forcible entry amphibious operations.
            guam relocation--impact of misconduct incidents
    Question. General Conway, tensions are high in Okinawa in the wake 
of the alleged rape of a 14 year-old girl by a Marine. Unfortunately, 
this is not the first time U.S. military personnel have been accused of 
violence and misconduct in this area, and these incidents have added to 
the resentment of the United States military presence there. I 
understand that the charges have been dropped, but what, if any, impact 
will this incident have on the relocation of Marines from Okinawa to 
Guam?
    Answer. The Marine Corps does not anticipate a major impact on the 
relocation of Marines from Okinawa to Guam as a result of the alleged 
incident. We are working with leaders in both locations to improve 
relationships between the military and local civilians.
    All units and installations in Japan have recently conducted 
education and training that reinforces and encourages the high 
standards of professionalism and conduct expected of U.S. forces living 
in Japan. We also implemented a ``Period of Reflection'' after the 
alleged incident to remind Marines that we are guests and must 
represent our country in a professional manner.
     guam relocation--personnel measures for positive relationship
    Question. General Conway, what measures will the Marine Corps 
institute in order to assure the people of Guam that every effort is 
being taken to have a positive relationship with the local people?
    Answer. We continue to review the procedures and orders that govern 
the discipline and conduct of all U.S. service members serving 
overseas. Concurrent with our reviews, we are meeting with local 
officials to discuss ways to work together toward the common goal of 
reducing off-base misconduct incidents, and to address their concerns 
in our relocation plans.
                     mv-22--performance in theater
    Question. General Conway, at the end of last year, the MV-22 Osprey 
faced one of its biggest tests ever by flying combat missions for the 
first time in Iraq. This was a major milestone in the Osprey's long 
history of triumphs and challenges. How is this aircraft performing in 
theater?
    Answer. The successful combat deployment represented a significant 
milestone for the MV-22. The aircraft and the Marines and Sailors who 
deployed with it have exceeded expectations. Aircraft development 
continues as well as refinement of Tactics, Techniques, and Procedures 
employed by Marine aircrews that are flying MV-22s. The first combat 
deployment of the aircraft has been a success.
                 mv-22--lack of mounted weapons systems
    Question. General Conway, recent media criticism of the MV-22 
included the concern that it has no side- or front-mounted weapons 
systems, leaving it vulnerable to attack. How much of a limitation has 
this proven to be during the Osprey's deployment?
    Answer. Marine Corps assault support aircraft do not have forward 
firing weapons. The weapons on assault support platforms are designed 
for defensive suppressive fires only, thus the lack of side- or front-
mounted weapons systems has not limited MV-22 operations to date. The 
Ramp Mounted Weapon System (RMWS) provides the MV-22 aircrew a 
defensive capability sufficient for its current operations. A defensive 
weapons system that provides 360 degree coverage is currently in 
development.

                          SUBCOMMITTEE RECESS

    Senator Inouye. This subcommittee will reconvene on 
Wednesday, March 12, at 10:30 a.m., when we will receive 
testimony on the fiscal year 2009 budget request from the 
Department of the Air Force.
    We will stand in recess.
    [Whereupon, at 11:57 a.m., Wednesday, March 5, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 12.]

















       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, MARCH 12, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Murray, Stevens, 
Domenici, Bond, and Shelby.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY OF THE 
            AIR FORCE

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Today we welcome the Honorable Michael 
Wynne, Secretary of the Air Force, and General T. Michael 
Moseley, the Air Force Chief of Staff. Gentlemen, thank you for 
being here today as the subcommittee reviews the Air Force's 
budget request for fiscal year 2009.
    The Air Force's fiscal year 2009 base budget requests $117 
billion, an increase of $8.6 billion over last year's enacted 
bill.
    The subcommittee recognized the priorities of the Air Force 
of fighting and winning the long war on terror, taking good 
care of the airmen and their families, and preparing for 
tomorrow's challenges. We also recognize the challenges 
associated with recapitalizing or trying to modernize the 
existing fleet and maintaining readiness at the same time. With 
the average age of the fleet being 24 years old and the 
aircraft recapitalization rate approaching 50 years, it is 
imperative to find the correct balance among these competing 
priorities in order for the Air Force to posture itself for the 
future.
    Another challenge that I am hoping to learn more about in 
today's testimony is the personnel drawdown of our airmen. The 
Air Force is projecting that there will be an end strength of 
316,000 by fiscal year 2009, which is a reduction of 40,000 
airmen since 2005. We are all aware that the environment in 
which the decision was made to draw down Air Force personnel 
has changed significantly, and according to the unfunded 
requirements submitted by the Air Force, you need an additional 
$385 million in fiscal year 2009 in support of the Air Force's 
86 combat wings, also referred to as the required force.
    The unfunded requirements list submitted by the Air Force 
contains 150 items and totals to a staggering $18 billion. And 
this is in an environment where funding for the Department of 
Defense is at historically high, unprecedented rates, if 
intended or not. The message that I take away from such a 
document is that something is wrong. The services should not 
have to depend on the Congress to fund basic needs such as 
personnel requirements to sustain the force. To many in 
Congress, an $18 billion unfunded requirements list says our 
budget process is broken.
    Another matter that is likely to be a topic of discussion 
this morning is the recent decision of the new tanker being 
awarded to Northrop-Grumman Corporation. We hope that Air Force 
officials involved in the decisionmaking process can provide 
more details on why they selected the Northrop-Grumman-EADS 
team over Boeing. As soon as the factors affecting the decision 
are known, people will be better informed to decide whether the 
award was appropriate.
    Finally, as the subcommittee examines the fiscal year 2009 
request, we must remember that the budget before us is based on 
recommendations made 6 months ago and it will be several months 
before a bill will be approved and sent to the White House. 
Between now and then, there are likely to be changes 
recommended for your requests in order to best serve our 
national defense. This subcommittee works hard to propose 
adjustments that makes sense. I believe it is the duty of 
Congress and the military services to work as partners in 
identifying and executing adjustments made during the 
appropriations process. And so I look forward to working with 
each of you to continue that spirit of cooperation which is a 
tradition that has served our Nation well.
    Gentlemen, we sincerely appreciate your service to our 
Nation and the dedication and sacrifices that are made daily by 
the men and women in the United States Air Force. We could not 
be more grateful for what you do.
    Your full statements will be included in the record, and 
now it is my pleasure and honor to turn to my co-chairman, 
Senator Stevens for his opening remarks.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman.
    I'm glad to see you here, Mr. Secretary and General.
    This is a difficult time because I think we all know there 
is not enough money available right now to meet all the demands 
for every service, and we have some tough choices to make. I 
look forward to your testimony.
    I will say right up front I am currently a little worried 
about how we can handle, even get involved in this tanker 
dispute because of the briefing we had yesterday where we were 
told that so much of it is tied up in an area that is 
considered to be classified and particularly because of the 
fact that there is a protest that has been filed against the 
selection.
    Having said that, I think that we are permitted to talk 
about one problem that I see which is paramount and that is, 
the production that takes place in 21 countries is considered 
the production in the United States. And that has caused 
concern in my home State--I do not know about the rest of the 
members. We are getting overwhelming mail on both sides of this 
issue about the question of the propriety of the foreign 
involvement in a critical program such as the tanker program.
    I look forward to the chance to discuss this with you, but 
I do hope that we can understand--I do understand the 
parameters that we must operate in because of the situation of 
the protests and because of the classification of the basic 
information we received yesterday. But we still have to have 
some way to satisfy our constituents as to whether this 
decision was right or wrong. So I look forward to your 
testimony.
    Mr. Chairman, Senator Cochran could not be here today, but 
asked that his statement be inserted into the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming 
Secretary Wynne and General Moseley this morning.
    The Air Force is playing an important role in the global 
war on terrorism both on the ground and in the air. Its 
aircraft and forces have been guarding the skies over the 
United States since 2001, not to mention the support provided 
in Iraq, Afghanistan, and many other areas around the world.
    In Mississippi, we are proud to host bases at which airmen 
are trained for a wide range of jobs from pilots to electronics 
technicians. This training provides the foundation for many of 
the brave men and women of the Air Force who contribute to our 
nation's air and space superiority. They operate or support the 
fighters, bombers, gunships, tankers, unmanned aircraft and 
space assets that are so vital to the success of our forces 
worldwide.
    Mr. Secretary and General Moseley, we look forward to 
hearing your testimony to help us determine how best to address 
the needs of the Air Force, so you can accomplish the important 
missions assigned to you in support of our national security. 
Thank you, and the service members you represent, for your 
service.

    Senator Inouye. Thank you.
    Senator Murray.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Mr. Chairman, I also look forward to the 
testimony today. I share the concern that Senator Stevens just 
voiced. I do know that there is proprietary information in the 
protest, but I will have some questions regarding both the 
impact on national security, questions that we as policymakers 
really have to look at when we are coming to this, and the 
issue of a company that has illegal subsidies that does have an 
impact on their price, as well as our decisions as policymakers 
on the fact that we have a contract going to a company that we 
do as a country have a case against because of those illegal 
subsidies. So I do think it is important for us to explore 
those and to understand as policymakers what decisions we have 
to make in terms of foreign-owned companies and its impact on 
our military and military procurement. I will be raising those 
questions as well.
    And I thank you for the hearing today.
    Senator Inouye. Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, thank you very much. Let me 
welcome General Moseley and Secretary Wynne. I have been here 
through a lot of Secretaries and Chiefs, and I think both of 
you do a really outstanding job. I appreciate your service a 
lot.
    There are now, I believe, 26,000 airmen and women serving 
from the Air Force in Iraq and Afghanistan and the region.
    The chairman raised the point about funding. I think he is 
right. I think our funding system is broken. We cannot keep 
deciding we are going to fund a substantial portion of our 
military based on emergency supplementals, and we have got lots 
of problems on these funding issues and we are going to need to 
confront them.
    I do not know that I can stay for the entire hearing 
because I have to be on the floor on the budget, but I am very 
interested in when the bomber study that our subcommittee 
required of the Air Force will be completed and where you think 
this is headed, General Moseley.
    I too am interested in the tanker issue. I expect this 
issue is going to get a lot of attention both in this 
subcommittee and outside of the subcommittee.
    I am also very interested in what you are learning these 
days and what you are experiencing with respect to retention 
because retention will determine what kind of an Air Force we 
have, and I am very interested in what happens to the young men 
and women who join the Air Force and how able we are to retain 
their services in the Air Force.
    But having said all of that, let me thank both of you. I 
think you both do a terrific job and I am pleased that you are 
where you are.
    Senator Inouye. Thank you.
    Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. I will 
wait for my observations and questions until my turn. Thank 
you.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I have an opening statement. 
I would ask that it be made part of the record.
    Senator Inouye. Without objection.
    [The statement follows:]

            Prepared Statement of Senator Richard C. Shelby

    Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, thank you for testifying 
today on the Air Force's fiscal year 2009 budget priorities. I 
also appreciate you being here to answer the inevitable 
questions that will come up regarding your recent tanker 
contract announcement. While there has been a lot of rhetoric 
about the Air Force's decision, I believe the controversy 
surrounding the tanker award is not based on the facts.
    From the very beginning, it appeared clear that the Air 
Force's mission was to select the best tanker for the 
warfighter at the best price for the taxpayer. In a lengthy, 
full, fair and open competition, it was determined that the KC-
30 was superior to the KC-767. The KC-30 has more fuel offload, 
carries more passengers, and transports more cargo, thereby 
giving the Air Force more capability, availability, flexibility 
and dependability. The KC-30 outperforms Boeing's KC-767 not 
only by industry standards, but most importantly, by the Air 
Force's standards. It is clearly the best tanker to meet the 
Air Force's needs.
    However, the recent debate has not surrounded these issues. 
Instead, it has focused on inaccurate job claims and which 
U.S.-based company is ``more American.''
    Mr. Chairman, according to the Department of Commerce's 
job-forecasting tool, the industry standard, Northrop Grumman 
will employ approximately the same number of American workers 
on the tanker contract that Boeing would have employed. The 
prime contractor of the team that won, Northrop Grumman, is 
headquartered in Los Angeles. It is no less an American company 
than is Boeing.
    It is also important to note, neither of these issues were 
factors used by the Air Force when making their selection. If 
the U.S. Air Force and Members of Congress wanted the tanker to 
be a job creation program for Boeing, they would have scrapped 
a competition and sole sourced the contract in the first place. 
Instead, the intent was to provide our men and women in uniform 
with the best air refueling aircraft in the world, at the best 
value for the American taxpayer.
    Finally, it is important to note that according to the 
Congressional Research Service, Congress has never intervened 
to overturn the outcome of a competitive source selection. For 
Congress to do as some Members suggest would be counter to 
longstanding law, require the taxpayer to pay for an aircraft 
that provides less value for the money, and would undermine the 
very integrity of our military acquisition process. Congress 
must remain as objective as possible and let the merits of this 
decision speak.
    Thank you, Mr. Chairman.

    Senator Shelby. I too will be very interested in what you 
have to say about the award of the tanker contract because I 
think some of us had a briefing on it yesterday. We know there 
is a regular order here, that Boeing is going to protest it to 
the Government Accountability Office. That is my understanding. 
And we have a due process. But we would like to hear what you 
and the Secretary say about it because we have more than a 
passing interest in it.
    Thank you.
    Senator Inouye. Thank you very much.
    Mr. Secretary.
    Mr. Wynne. Senator Inouye, Senator Stevens, members of this 
subcommittee, thank you for the opportunity to testify on 
behalf of America's Air Force. Thank you as well for your 
support to our improved readiness via retirement and 
recapitalization. We are working hard to see it through.
    Today we also urge you to pass the pending supplemental, as 
it will help.
    Across the Total Force of Active, Guard, Reserve, and 
civilians, we are America's strategic shield in air, in space, 
and in cyberspace. We are contributing to today's fight with 
increasing ordnance drops and we stand watch at the missile 
fields. We stand ready in the nuclear field, and we are an 
effective air superiority and strike force to both deter and 
dissuade any opponent who may consider our forces to be 
stretched in the global war on terror (GWOT). We are gratified 
to hear that role reaffirmed by the Chairman of the Joint 
Chiefs in a deliberate message to those who might seek to 
dissuade or deter us from our own options in the future.

                   RECAPITALIZATION AND MODERNIZATION

    This is why we seek to move forward, and not backward, into 
fifth generation fighters, into new expeditionary tankers, and 
into new long-range strike assets. We recently awarded the new 
KC-45A air refueling tanker. We believe we accurately followed 
the laws and arrived at a decision selecting the better of two 
very qualified competitors to a published criterion, a major 
step in the Air Force's critical recapitalization and 
modernization effort.
    It is why we seek to modernize space assets as the 
executive agent for space and not see further fragmentation of 
the management of this now vulnerable area. It is why we have 
established the Provisional Cyberspace Command and we see this 
as a warfighting domain in which we need to dominate to remain 
a net centric force for the future.
    Clearly, beyond the global war on terror, we must not lose 
America's asymmetric advantage in strategic forces. Your Air 
Force has been in the fight for 17 years and yet has over the 
same 17 years seen underfunded modernization. We thank you for 
the initiatives to restore fleet management to the United 
States Air Force, a responsibility we do not take lightly.
    When General Moseley and I came to our posts, we set about 
a strategy to restructure our Air Force, to truly develop a 
lean and efficient Air Force in order to husband the resources 
for investment. We do worry about the industrial base and the 
need to look after open lines.
    I am pleased to report to you that the Department and the 
Air Force had indicated a desire to not close the F-22 line and 
to develop the long-range strike asset. It is to these that we 
would like to apply the saved resources over the near term 
while the F-35 proves itself through rigorous tests and is 
effectively capped on production. We ask that you agree with an 
approach for the F-22 aircraft while we work to restore our 
readiness with younger aircraft. The F-35 and the F-22 are 
complementary aircraft. The F-22 is bigger, faster, planned to 
fly higher, and can carry more air-to-air weapons internally.
    Also, with 20 penetrating bombers in our current fleet, it 
is time to develop an alternative there as well. We have talked 
about being underfunded, but here we have worked hard to offer 
a balanced budget, prioritized to best defend America, and we 
will continue to do that over the future years defense 
planning.
    The Air Force Research Laboratory is well engaged in 
technology development, expanding the opportunity for energy 
alternatives while reducing our demand in our fleet and in our 
bases, also in unmanned flight and propulsion, in material 
science, as well as in human effectiveness. In regard to space, 
at Kirtland Air Force Base, New Mexico, a branch of the Air 
Force Research Laboratory is creating inherently defensive 
space assets. In cyberspace, we are focused on career 
development and recruiting at the Air Force Institute of 
Technology and also warfighting schools that we believe are 
key. Combatant commanders and agencies partner with us in this 
increasingly contested domain.
    I have worked in space for almost two decades and have 
worked in commercial and classified space as a supplier and a 
customer. We need consolidated leadership to maintain our 
current strategic advantage. Congress asked for a relook at 
responses to the Space Commission, and we should really 
consider what is in their report. The Air Force is undergoing a 
back to basics, as well as a back to blue, complementary 
efforts to restore a steady demand and a knowledge base. I 
recommend we keep the executive agency where it is.
    I have engaged airmen in both theaters of operation and 
they have asked about the continuation of our presence and the 
continuation of the ground force tasking referred to as in lieu 
of tasking. My answer is they performed so well that, frankly, 
our Army colleagues do not want to give them up. And they do 
perform well, many winning bronze and silver stars. Your Air 
Force is currently protecting the air sovereignty of these 
fledgling nations, and until their air forces can do that, I 
would not be surprised to see our Air Force remain. As a 
result, we are reconsidering force cuts, although we are 
currently continuing to give top priority in our budget request 
to recapitalization.

                           PREPARED STATEMENT

    I again thank you for the privilege of leading the best air 
force in the world. Every day our airmen earn the respect of 
our friends and enemies. We do worry for their quality of life, 
as we seek efficiency and as we implement joint basing, but we 
never worry about the sense of mission that they bring to the 
task. I will not have the privilege to represent them in this 
setting for the force posture again, and I hope I have 
reflected their pride in service as I have felt myself.
    I am prepared to take your questions.
    Senator Inouye. Thank you very much.
    [The statement follows:]
  Prepared Statement of Hon. Michael W. Wynne and General T. Michael 
                                Moseley
                         the nation's guardians
    The United States Air Force provides the Nation with a powerful 
deterrent force in times of peace, and it sets the conditions for Joint 
and Coalition victory in times of war. For over 17 years, since 
Operation DESERT SHIELD, the United States Air Force has been engaged 
in continuous combat operations. Our Airmen have maintained constant 
watch, deployed continuously, engaged America's adversaries directly, 
responded to human crises around the world, and provided the Global 
Vigilance, Global Reach, and Global Power to secure our Nation.
    Global Vigilance.--The ability to gain and maintain awareness--to 
keep an unblinking eye on any entity--anywhere in the world; to provide 
warning and to determine intent, opportunity, capability, or 
vulnerability; then to fuse this information with data received from 
other Services or agencies and use and share relevant information with 
the Joint Force Commander.
    Global Reach.--The ability to project military capability 
responsively--with unrivaled velocity and precision--to any point on or 
above the earth, and provide mobility to rapidly supply, position, or 
reposition Joint forces.
    Global Power.--The ability to hold at risk or strike any target 
anywhere in the world, assert national sovereignty, safeguard Joint 
freedom of action, and achieve swift, decisive, precise effects.
    Global Vigilance, Global Reach, and Global Power constitute 
America's edge--America's asymmetric advantage that shapes the global 
security environment. Global Vigilance, Global Reach, and Global Power 
are vital to our National Security Strategy, as conveyed through the 
decision superiority they allow, the military options they provide, and 
the influence they command. However, in a world of increasing 
uncertainty, volatility, and accelerating technology, America's edge 
will become a fleeting advantage if we fail to maintain and hone it.
    The United States Air Force executes its missions globally. Its 
warfighting domains cover the entire planet, offering a unique 
perspective. Every day, America's Airmen demonstrate a non-negotiable 
commitment to offer and deliver sovereign options for the United States 
in, through and from air, space, and cyberspace.
    Our Air Force strategic imperatives articulate why these sovereign 
options are necessary to maintain and strengthen our national security 
and global stability. The Air Force is redefining air, space, and cyber 
power through cross-domain dominance--our effort to integrate all of 
our capabilities to exploit the natural synergies across these 
warfighting domains.
    This Statement articulates the major elements of our Air Force 
Posture--our strategy for fulfilling our role in defending the Nation 
and its interests; our contributions to winning the Global War on 
Terrorism; our most critical efforts and concerns; and our top priority 
programs. We will continue to pursue specific programs and initiatives 
to safeguard and strengthen America's military advantages and to 
address major concerns and risks.
    Three overarching Service priorities serve as the organizing 
principles for all of our efforts: Winning Today's Fight; Taking Care 
of Our People; and Preparing for Tomorrow's Challenges. The Air Force's 
top acquisition priorities specifically begin to address our critical 
recapitalization and modernization needs--the new Tanker (KC-X); the 
new Combat Search and Rescue Helicopter (CSAR-X); modern space systems 
to provide capabilities vital to our Joint warfighters; the F-35A 
Lightning II; and a new Bomber we intend to field by 2018.
    We will continue our efforts to modernize and protect America's 
vital air, space, and cyberspace capabilities. We strongly recommend 
extending the existing C-130J production line. We are also concerned 
with preserving America's aerospace industrial base. Additionally, we 
seek relief from restrictions on the retirement of aging, worn-out 
aircraft which are increasingly unsafe, unreliable, and obsolete. The 
Air Force is highly engaged in national efforts to assure sustainable 
energy, and we will continue to push the performance envelope on fuel 
efficiency and renewable energy technologies. We are committed to the 
Joint Basing initiative and want to work through the transfer of total 
obligation authority and real property control without impacting 
command authorities, reducing installation service support, or 
negatively affecting quality of life. Finally, we will continue our 
practice of recruiting and retaining the world's highest quality 
Airmen. We will build upon our successes in achieving Total Force 
Integration of our Regular, Guard, Reserve, and Civilian Airmen.
    America looks to its Airmen to provide dominance that spans the 
air, space, and cyberspace warfighting domains. They need your support 
today to defend the Homeland and to prepare for tomorrow's threats and 
challenges. Full funding and support for America's Airmen will ensure 
America's continued freedom of action; reassure our allies; strengthen 
our partnerships; reinforce our sovereign Homeland defenses; dissuade 
and deter adversaries; and set conditions for Joint and Coalition 
success across the entire spectrum of conflict and crisis.
    We guard the Nation--providing the Global Vigilance, Global Reach, 
and Global Power that underwrite the security and sovereignty of our 
Nation.
                          strategic imperative
    The mission of the United States Air Force is to deliver sovereign 
options for the defense of the United States of America and its global 
interests--to fly and fight in Air, Space, and Cyberspace.
    Today the United States stands at a strategic crossroads. This 
junction is characterized by a global economy accompanied by a 
diffusion of technology, new and increasingly complex economic and 
international relationships, competition for resources and influence, 
and the changing conduct of warfare. From the early days of the 20th 
Century, the United States has played a leading role in preserving and 
protecting international stability, particularly as the number of 
democratic nations grew. This leadership led in large part to the 
current world order and provided the backdrop against which countries 
like Japan, India, and China initiated their unprecedented economic 
growth. We cannot abdicate our position of political and military 
leadership without grave consequences.
Challenges
    Today's confluence of global trends already foreshadows significant 
challenges to our organization, systems, concepts, and doctrine. We are 
at an historic turning point demanding an equally comprehensive 
redefinition of American air power. The future strategic environment 
will be shaped by the interaction of globalization, economic 
disparities, and competition for resources; diffusion of technology and 
information networks whose very nature allows unprecedented ability to 
harm and, potentially, paralyze advanced nations; and systemic 
upheavals impacting state and non-state actors and, thereby, 
international institutions and the world order. The following are 
salient features of this increasingly complex, dynamic, lethal, and 
uncertain environment:
  --Violent extremism and ethnic strife--a global, generational, 
        ideological struggle;
  --Proliferation of weapons of mass destruction and empowering 
        technologies;
  --Predatory and unpredictable regional actors;
  --Increasing lethality and risk of intrusion by terrorist and 
        criminal organizations;
  --Systemic instability in key regions (political, economic, social, 
        ideological);
  --Unprecedented velocity of technological change and military 
        adaptation;
  --Availability of advanced weapons in a burgeoning global 
        marketplace;
  --Exponential growth in volume, exchange, and access to information;
  --Surging globalization, interconnectivity, and competition for 
        scarce resources; and
  --Dislocating climate, environmental, and demographic trends.
    The consequences of not being adequately prepared for a conflict 
should a military peer arise would be severe and potentially 
catastrophic. We must maintain our focus on deterring potential peer 
adversaries from using military threats to narrow our diplomatic 
options, or from embarking on militarily risky courses of action. The 
rapid development and proliferation of high-technology weapons, 
combined with innovative operational concepts, is likely to make these 
global and regional engagements particularly challenging, since power 
balances will be dynamic and the risks of miscalculation and 
misperception high. Therefore, maintaining deterrence will require a 
sophisticated, competitive strategy that assures we maintain required 
military capabilities for today and make sustainable, affordable 
investments for tomorrow.
    Even if we continue to successfully dissuade and deter major 
competitors, their advanced equipment is proliferating worldwide. We 
are bound to confront these weapons systems wherever America engages to 
promote and defend its interests. We must also vigilantly monitor 
adversary breakthroughs and maintain leading edge research and 
capabilities in fields such as cybernetics, nanotechnology, 
biotechnology, electromagnetism, robotics, energy conversion 
technology, and advanced propulsion. We cannot assume the next military 
revolution will originate in the West. Indeed, the hub of innovation in 
science and engineering education has shifted eastward. Therefore, we 
must anticipate innovative combinations of traditional and new 
concepts, doctrines, weapons systems, and disruptive technologies.
    Given this spectrum of threats, the United States must field an Air 
Force capable of assuring our allies, dissuading and deterring 
potential adversaries, and, if necessary, defeating those who choose to 
become our enemies.
The Role of the United States Military
    It is always better to deter hostile intent or win without having 
to fight. Today, the United States military does this by shaping the 
international environment with the potent tools of assurance, 
dissuasion, and deterrence. The principal role of the United States 
military is to defend our Nation and our national interests. Rooted in 
overwhelming capabilities and plainly linked to the national will, two 
powerful tools we exercise in this role are our assurance to allies 
that they need not bow to violent threats and our deterrence of 
potential adversaries. Our armed Services accomplish this role by 
providing a solid foundation of military strength to complement the 
tools of peaceful diplomacy. None of these tools alone can sustain our 
position of international political and economic influence. However, we 
must be prepared to provide our leaders with critical elements of 
United States military power to use in proper combination and in an 
integrated manner to address potential threats to our Nation and our 
interests.
Sovereign Options
    In response to current and emerging threats, the Air Force has 
implemented a strategy based on providing policy makers with sovereign 
options for our defense, covering the spectrum of choices that air, 
space, and cyberspace capabilities offer for solving problems. We use 
this strategy for sovereign options to guide how we organize, train, 
and equip our forces. In peacetime, these options include such 
expedients as: supporting the containment of aggressive states or 
usurping elements of their sovereignty as a means short of war to 
compel positive behavior; signaling opponents of our commitment by 
moving forces into contested regions; and providing humanitarian aid--
to both our allies and potentially hostile populations--to assure them 
of friendly United States intentions. In war, Air Force capabilities 
provide decision makers with a range of options, from supporting Joint 
and Coalition actions in conjunction with allied land and sea forces to 
direct strikes against enemy centers of gravity to accomplish strategic 
and tactical objectives. These options provide the country with 
credible and scalable counters to the full range of potential enemy 
actions and support our goals of assurance, dissuasion, and deterrence. 
These sovereign options are enabled by the asymmetric advantage the 
United States possesses in air and space technology and the way our 
preeminence in air, space, and cyberspace increases the power of all 
United States and Coalition forces.
    Through aggressive development of technology and operational 
concepts, the United States enjoys leadership in space, and in recent 
decades has achieved the ability to gain air supremacy against enemy 
air forces and air defense systems. The history of warfare, however, 
shows such advantages to be fleeting and fragile. Air and space 
preeminence is the key to the ability to accurately strike targets 
within enemy states or enable friendly ground or maritime forces to 
rapidly dominate their respective domains. While United States air and 
space preeminence has transformed the way the United States fights, 
allowing Joint and Coalition forces unprecedented freedom of action in 
all domains, the Nation cannot rest on its laurels. Future preeminence 
is not guaranteed; instead, it must be planned, paid for, developed, 
and fielded.
    More than the ability to win wars, sovereign options increase the 
Nation's strategic flexibility in determining when, how, and where to 
engage an enemy. War is not a matter of convenience. When war is thrust 
upon us, we must have the strategic depth to shape the conditions of 
conflict. From 1991 to 2003, the use of no-fly zones allowed the United 
States to contain the aggressive actions of Saddam Hussein. When his 
aggressive acts drew us into open conflict, the determined use of air 
power as part of a Joint force crushed Iraq's conventional armies. A 
similar fate met the forces of Al Qaeda in Afghanistan. When the 
Taliban were removed from power in 2001 by a combination of air power 
working with Special Forces and indigenous Northern Alliance troops, we 
disrupted Osama bin Laden's plan to operate his global terrorist 
network from the relative sanctuary of the Afghan frontier. In the 
insurgencies that followed these operations, air, space and cyberspace 
power continued to prevent insurgents from massing into guerrilla 
armies, thus diminishing their power and providing friendly forces time 
and territory to establish stability.
    The Air Force's ability to be simultaneously dominant in air, 
space, and cyberspace, has formed the foundation from which we provide 
sovereign options to policy makers. Our ability to operate across these 
domains and defeat our adversaries in each allows the Air Force the 
ability to multiply the power of Joint and Coalition forces or to act 
alone to achieve national objectives. Our Air Force combines 
capabilities in the domains of air, space, and cyberspace to deliver 
Global Vigilance, Global Reach, and Global Power to the Joint force.
Cross-Domain Dominance
    No future war will be won without air, space, and cyberspace 
superiority. Accordingly, the Air Force must be better postured to 
contend with both today's and tomorrow's challenges. To promote and 
defend America's interests through Global Vigilance, Global Reach, and 
Global Power, the Air Force must attain cross-domain dominance.
    Airmen appreciate the interdependence of the air, space, and 
cyberspace domains--actions in one domain can lead to decisive effects 
in any and all domains. Cross-domain dominance is the ability to 
maintain freedom of action in and through the air, space, and 
cyberspace despite adversary actions. It permits rapid and simultaneous 
application of lethal and non-lethal capabilities in these three 
domains to attain strategic, operational, and tactical objectives in 
all warfighting domains: land, sea, air, space, and cyberspace.
    Through cross-domain dominance, the Air Force contributes to Joint 
freedom of maneuver in all warfighting domains. This, in turn, allows 
the Joint Force Commander to achieve desired outcomes across the full 
range of military operations, from humanitarian relief to preventing 
war via dissuasion and deterrence to inflicting strategic paralysis on 
implacable opponents. Without the Air Force's ability to present this 
spectrum of capabilities to the Joint Team in peace, crisis, and war, 
United States national security would be at risk.
Implementing the Strategy
    The Air Force currently provides Joint and Coalition forces with an 
air bridge to the rest of the world and dominance on the battlefield. 
This hard-won capability to dominate air and space will only persist in 
coming decades if carefully nurtured.
    The technology race continues. Today, opponents are studying our 
operations in Iraq and Afghanistan and are rapidly developing counters 
to aging United States air and space superiority technology. These 
adaptive competitors are translating lessons from recent conflicts into 
new warfighting concepts, capabilities, and doctrines specifically 
designed to counter United States strengths and exploit 
vulnerabilities. They are advancing in all domains. For example:
  --``Generation 4-plus'' fighter aircraft that challenge America's 
        existing ``4th Generation'' inventory--and, thus, air 
        superiority--with overwhelming numbers and advanced weaponry; 
        sophisticated integration of electronic attack and advanced 
        avionics; emerging low-observable technologies; and 
        progressive, realistic, networked training.
  --Increasingly lethal integrated air defense systems (IADS) that 
        threaten both our Airmen and aircraft, and could negate weapons 
        used to suppress or destroy these systems.
  --Proliferation of surface-to-surface missiles with growing range, 
        precision, mobility, and maneuverability that are capable of 
        delivering both conventional and non-conventional warheads.
  --Proliferation of unmanned aerial systems (UAS) capable of 
        conducting low observable, persistent, intrusive missions in 
        both lethal and non-lethal modes.
  --Resurgence of offensive counterspace capabilities, including anti-
        satellite (ASAT) weapons, jamming, and blinding.
  --Increasing ability of even marginal actors to surveil the 
        disposition of United States and allied assets through widely-
        accessible, commercially-available means.
    In the coming years our advantage will significantly diminish if we 
do not keep pace by fielding new 5th Generation fighters, modern 
bombers, and modern satellites in sufficient numbers to counter the 
development of advanced anti-air and anti-space technologies and the 
inevitable export of those capabilities to potentially hostile states 
and non-state actors. We must provide our Airmen with the most 
exceptional tools for battle in order to sustain a durable and credible 
deterrent against our adversaries.
    Equally worrisome is the rapidly shrinking aerospace industrial 
base. Historically, America's strength and ability to capitalize on 
advances in air and space technologies hinged largely on its vibrant 
and diverse aerospace industry. This advantage has deteriorated over 
the last decade.
    Beyond advantages in technology and operational concepts, America's 
commitments abroad require an expeditionary Air Force that can engage 
forward in peacetime and fight forward in wartime. While long-range 
bombers and missiles are the ultimate guarantor of United States 
security and power, expeditionary presence reflects United States power 
and is the indispensable source of local and regional assurance, 
dissuasion, deterrence, and, ultimately, sovereign options. Engaging 
forward in times of peace and fighting forward in times of war are 
hallmarks of United States national security strategy. Therefore, the 
Air Force must have sufficient resources and capability to continue to 
maintain a sustainable, rotational base. We must retain sufficient 
manpower and force structure to project influence.
    The mechanism to accomplish this is the Air and Space Expeditionary 
Force (AEF) that provides Joint Force Commanders with a trained and 
ready air, space, and cyberspace force to execute their plans. United 
States influence flows from permanent and expeditionary basing and 
serves to assure allies of United States commitment while deterring our 
adversaries from threatening United States national interests. The Air 
Force works with Combatant Commanders and partner air forces to secure 
basing and counter potential anti-access strategies. We continue to 
develop new ways of projecting power without exposing vulnerabilities, 
and we design systems that facilitate reach-back, thus maximizing 
forward capability while minimizing forward footprint.
    The Air Force can provide Global Vigilance, Global Reach and Global 
Power only so long as it possesses robust capabilities in such areas as 
air dominance; global strike; space superiority; intelligence, 
surveillance, and reconnaissance (ISR); missile defense; special 
operations; air mobility, and cyberspace superiority. Today, electronic 
communications constitute and connect all Joint and Coalition 
capabilities. In an information age, this network allows us to find our 
opponents, process the information, route it to where it is needed, and 
guide our munitions to their targets. Cyberspace vastly increases our 
capabilities but also presents a potential vulnerability our 
adversaries could exploit. Our enemies also increasingly use and depend 
on cyberspace systems. Safeguarding our own capabilities while engaging 
and disrupting the use and purpose of our opponents' capabilities is 
thus increasingly critical to modern warfare.
    If the Air Force is to fulfill its crucial role, we must develop 
and maintain technological leads in the areas of air-superiority, anti-
access penetration, and long-range reconnaissance and strike 
capabilities to hold at risk targets around the world. We must also 
field sufficient strike and full-spectrum mobility assets to assure 
dominance for the Joint Team. We must continue treating space as an 
operational domain by creating architectures and systems that allow us 
to provide the appropriate situational awareness and communications 
capability, giving strategic and tactical advantage to leadership at 
all levels. We must design and develop a force structure to operate in 
cyberspace to our benefit while holding adversaries at risk. While 
doing so, we will continue our series of cross-Service initiatives to 
enhance interoperability and avoid unnecessary duplication of 
acquisition, manning and operations.
                           win today's fight
    We remain committed, first and foremost, to fighting and winning 
the long Global War on Terror (GWOT), sustaining our current 
operations, and providing strategic defense of our Nation. We also 
continue to adapt our ability to deter adversary activities, detect 
enemy locations, and defeat them through direct or indirect actions 
when required--anywhere and at any time.
    America's Airmen are key to Joint success and have proven their 
capabilities applicable and adaptable across the entire spectrum of 
conflict. They are the most battle-tested force in our history. Today's 
GWOT missions are only the latest in a succession of over 17 years of 
continuous combat and expeditionary operations, beginning with our 
initial Operation DESERT SHIELD deployments in August 1990; continuing 
with years of persistent conflict in Southwest Asia, Somalia, the 
Balkans, and Haiti; and through ongoing operations in Iraq, 
Afghanistan, and around the world. The past 17 years have clearly 
demonstrated success at any point along the spectrum of conflict 
requires air, space, and cyberspace superiority.
Maintain Global Vigilance, Global Reach, and Global Power for America
    We are the Nation's premier multi-dimensional maneuver force, with 
the agility, reach, speed, stealth, payload, firepower, precision, and 
persistence to achieve global effects. Dominance of air, space, and 
cyberspace provides the essential bedrock for effective Joint 
operations.
    Today's Air Force provides the Joint Force Commander a range of 
capabilities that set conditions for success. Our Airmen currently fly 
an average of over 300 sorties daily as part of Operations IRAQI 
FREEDOM and ENDURING FREEDOM (OIF/OEF). These sorties include 
Intertheater and Intratheater Airlift; Aeromedical Evacuation (AE); 
Aerial Refueling; Command and Control (C2); Intelligence, Surveillance, 
and Reconnaissance (ISR); Close Air Support (CAS); and pre-planned 
Strike.
    Our Airmen operate on a global scale every day; Air Force 
engagement in the Central Command (CENTCOM) area of responsibility 
(AOR) is only the ``tip of the iceberg.'' The complete picture of Air 
Force engagement includes Airmen deployed to contingencies outside of 
the Continental United States (OCONUS), forward deployed in Europe and 
the Pacific, and employed from their home stations as they execute 
global missions.
    Furthermore, the Air Force is the only Service flying Operation 
NOBLE EAGLE (ONE) missions, which have been continuous since September 
2001. America's Airmen fly fighters, tankers, and Airborne Warning and 
Control aircraft during daily Air Sovereignty Alert operations. 
America's Airmen also command and control these aircraft, maintaining 
vigilance and protection of America's air corridors and maritime 
approaches in defense of our Homeland.
    Since 2001 the Active Duty Air Force has reduced its end-strength 
by almost 6 percent, but our deployments have increased over 30 
percent--primarily in support of GWOT. Approximately 26,000 Airmen are 
deployed to over 100 locations around the world to fight in the GWOT at 
any given moment--fighting our enemies in their own backyard so they 
cannot come to ours. In addition, approximately 208,000 Airmen--178,000 
Regular Air Force Airmen plus 30,000 Guard and Reserve Airmen--fulfill 
additional Combatant Commander (CCDR) requirements, missions and tasks 
24 hours a day, 7 days a week. In other words, approximately 41 percent 
of our Total Force Airmen--including 54 percent of the Regular force--
are globally contributing to winning today's fight and are directly 
fulfilling CCDR requirements everyday.
    Whether controlling satellites, flying unmanned aerial vehicles 
(UAVs), standing strategic missile alert, or analyzing intelligence 
information, Airmen directly engage America's adversaries and affect 
events worldwide every day.
            Intelligence, Surveillance, and Reconnaissance
    Intelligence, surveillance, and reconnaissance (ISR) is the 
foundation of Global Vigilance, Global Reach, and Global Power. It cuts 
across all domains and affects almost every mission area. Today, ISR 
efforts make up the majority of the operations required to achieve our 
security objectives. These operations range from finding the enemy, to 
deconstructing its network and intentions, to making it possible to 
deliver weapons or other effects on target, to subsequently assessing 
the results of those efforts.
    Intelligence, Surveillance, and Reconnaissance is the linchpin of 
our Effects-Based Approach to Operations (EBAO). It is impossible to 
accurately predict the effect of operations on an enemy system without 
good intelligence; nor can one assess the outcome of delivered effects 
without detailed surveillance and reconnaissance. Intelligence 
requirements for an effects-based approach to operations and effects-
based assessment (EBA) are much more demanding than the old attrition-
based model. The increased intelligence detail necessary for EBAO/EBA 
makes focused reconnaissance and persistent surveillance operations 
ever-more crucial.
    The Air Force has demonstrated its commitment to the importance of 
ISR by establishing a 3-star Deputy Chief of Staff for ISR, the Air 
Force ISR Agency, and formed a global organization for the processing 
of ISR data from a variety of sources. These initiatives demonstrate 
the Air Force has shifted the way it manages ISR capabilities from a 
Cold-War platform perspective to a 21st Century holistic capability-
based approach.
            Strike
    In addition to our ONE missions over the Homeland, America's Airmen 
fly daily OIF and OEF missions, keeping a watchful eye on America's 
adversaries and providing lethal combat capabilities that take the 
fight to our enemies. In 2007, America's Airmen conducted nearly 1,600 
strikes in Iraq and Afghanistan. In Iraq alone, Air Force strikes 
increased by 171 percent over the previous year, while in Afghanistan 
strikes increased by 22 percent. These increases clearly demonstrate 
the applicability, flexibility, and prevalence of Air Force combat 
options in ongoing OIF and OEF counterinsurgency operations.
    Engaging directly is only a small portion of what the Air Force 
provides. To meet current and future challenges, we must maintain a 
credible deterrent that convinces potential adversaries of our 
unwavering commitment to defend our Nation, its allies and friends. One 
prominent example is our ICBM force--the United States nuclear arsenal 
continues to serve as the ultimate backstop of our security, dissuading 
opponents and reassuring allies through extended deterrence. Besides 
continuing the re-capitalization of our fighter force, we must also 
modernize our bomber and ICBM forces.
            Space
    Space superiority, like air superiority, has become a fundamental 
predicate to Joint warfighting. Indeed, America's space superiority has 
completely transformed the way America fights. America's Airmen 
currently operate 67 satellites and provide command and control 
infrastructure for over 140 satellites in total, providing the Nation 
persistent global communications; weather coverage; strategic early 
warning; global Positioning, Navigation and Timing (PNT); signals and 
ISR capabilities--all vital to Joint success.
    Space superiority relies on assured access to space, and Air Force 
launch programs continue to provide this capability. In 2007, we 
extended our record to 56 straight launch successes, including 
deployment of two new Global Positioning System (GPS) satellites. Also 
in 2007, we successfully launched the first operational Evolved 
Expendable Launch Vehicle (EELV) heavy lift rocket. This rocket 
deployed the final satellite in the Defense Support Program (DSP) 
constellation of ballistic missile warning satellites.
            Airlift
    Airlift is an Air Force core competency, and our Airmen prove it 
everyday. Air Force airlifters--both Intertheater and Intratheater--
have become absolutely indispensable to Joint Forces in Iraq and 
Afghanistan as well as to crisis response planners and responders in 
the wake of natural disasters both at home and abroad. The Air Force 
gives America an air bridge--a strategic asset providing operational 
reach--making possible the deployment and employment of Joint combat 
power and humanitarian relief.
    Airmen provide the Nation's ground forces with the tactical, 
operational, strategic, and logistical reach to rapidly deploy, 
deliver, supply, re-supply, egress, and evacuate via air anywhere in 
the world. In Iraq, Air Force airlift delivers approximately 3,500 
equivalent truckloads of cargo in an average month, taking more than 
8,600 people off dangerous roads and providing the Army and Marine 
Corps the flexibility to re-assign those vehicles and associated 
support troops to alternate missions and safer routes.
            Aeromedical Evacuation
    Air Force Aeromedical Evacuation (AE) is a Total Force, combat-
proven system contributing a unique, vital capability to the Joint 
fight. AE and enroute care are built on teamwork, synergy, and Joint 
execution, providing Soldiers, Sailors, Marines, Coast Guardsmen, and 
Airmen the highest casualty survival rates in the history of warfare. 
Casualties treated in our deployed and Joint theater hospitals have an 
incredible 97 percent survival rate.
    Since late 2001, we have transported more than 48,500 patients from 
the CENTCOM AOR to higher levels of care. We continue to refine this 
remarkable capability and the enroute care system built upon our 
expeditionary medical system.
            Joint Force Land Component Tasks
    Of the approximately 26,000 Airmen currently deployed in the 
CENTCOM AOR, over 6,200 are performing tasks and missions normally 
assigned to the Land Component--also known as ``In Lieu Of'' (ILO) 
tasks. Airmen currently fill other Services' billets in some of their 
stressed skill areas and are taking on tasks outside Air Force core 
competencies. Since 2004 we have deployed approximately 24,000 Airmen 
in support of such ILO tasks, and we expect a steady increase in that 
total.
    In addition to the 6,200 Airmen currently deployed supporting ILO 
taskings, over 1,000 Airmen are ``in the pipeline'' for ILO Task 
training at any given time. Within the Joint Team, Airmen provide the 
Joint Force Commander distinctive skills. While complementary, these 
skills are not interchangeable amongst the team, thus Airmen require 
ground-centric combat training to accomplish ILO taskings. This 
training increases personnel tempo (PERSTEMPO) for our Airmen, but, 
more importantly, ILO tasks and training consumes critical training 
time, resources, manpower, and in some cases reduces overall 
proficiency in Air Force core mission areas. In many cases, Air Force 
career fields already at critical manning levels are further affected 
by unit deployment rates of as high as 40 percent, primarily filling 
ILO taskings. Such high deployment rates from units cannot be absorbed 
without putting at risk the critical missions and capabilities the Air 
Force provides our Nation. This situation creates additional risk to 
the critical missions the Air Force performs and capabilities the Air 
Force provides our Nation.
Strengthen Global Partnerships
    Fighting and winning the GWOT requires commitment, capability, and 
cooperation from our allies and partners around the world. We depend on 
them to secure their territory, support regional stability, provide 
base access and overflight rights, and contribute a host of air, space, 
and cyber power capabilities as interoperable Coalition partners.
    So America's strategic partnerships are more important than ever. 
Our Air Force will strengthen and broaden international relationships, 
capitalizing on the global community of like-minded Airmen while 
attending to interoperability between allies and partners. Building 
these relationships not only expands, extends, and strengthens Global 
Vigilance, Global Reach, and Global Power, but also leverages the Air 
Force's value as an engine of progress and, thus, as a potent 
instrument of America's diplomacy in an increasingly interconnected 
world.
    The Air Force strives to develop synergistic, interoperable air 
forces utilizing a capabilities-based approach. Foreign Military Sales 
and Direct Commercial Sales allow our partners to operate common 
systems with the Air Force while providing a vehicle to expand 
relationships with our international partners. Some recent examples of 
mutually beneficial agreements include Australian, Canadian, and 
British selection of C-17 Globemaster III airlifters; international 
participation in the F-35A Lightning II Joint Strike Fighter (JSF) 
program and the Advanced Extremely High Frequency (AEHF) satellite 
communications program; British Royal Air Force procurement of MQ-9 
Reaper UAVs; and Australian participation in the Wideband Global SATCOM 
(WGS) system. Future opportunities for partnerships--with platforms 
such as UAVs, C-17s, C-130Js, and the new C-27--can open doors for 
greater interoperability, personnel exchanges, common doctrine, and 
training.
    In addition to integrating international partners into the most 
robust combat training scenarios, we maintain our commitment to the 
pursuit of partnerships for greater global cooperation, security, and 
stability. We recently held the 3rd Global Air Chiefs Conference in 
Washington, DC, which gave over 90 international Air Chiefs the 
opportunity to learn, understand, and share concerns and issues with 
fellow Airmen from around the world. We are also making strides to 
improve language expertise and cultural understanding through 
deliberate development of Airmen in the International Affairs 
Specialist program, expanding Military Personnel Exchange Program, and 
cultivating skilled and knowledgeable attache.
    The Air Force's approach to operations, interoperability and 
training exemplify our global, international, and expeditionary 
perspective--built on the shared traditions of airmanship that 
transcend geographic boundaries.
                        take care of our people
    Any organizational renaissance begins with people. We must prepare 
our Airmen for a future fraught with challenges, fostering their 
intellectual curiosity and ability to learn, anticipate, and adapt. 
Because our expeditionary Airmen must be prepared to deploy and ready 
to fight, we are revitalizing the world's most advanced training system 
and expanding their educational opportunities. While we enrich our 
Airmen's culture, leadership, training, education, and heritage, we 
will also continue to care for their families and provide for their 
future.
    Our Airmen are our most precious resource. They must be well-
trained and ready for expeditionary warfighting responsibilities. 
Fiscal constraints dictate that we continue to carefully shape the 
force. Additionally, within the context of rising costs, we remain 
committed to providing the highest possible quality of life standards 
and charting out a career full of education and training for each 
Airman. We will continue our emphasis on recruiting and retaining the 
world's highest quality Airmen. Additional Air Force high priority 
efforts serve to reinforce a warrior ethos throughout our Service, 
provide proactive force health protection, and encourage Air Reserve 
Component (ARC) volunteerism.
    Spanning six decades of Air Force history, particularly over the 
past 17 years, our Airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundations for this well-deserved reputation are the quality and 
frequency of the training and education we provide and our commitment 
to the highest possible safety and quality of life standards.
Shape the Force
    Ultimately, we must produce a Total Force that is sized and shaped 
to consistently meet current and future requirements--balanced against 
the compelling need to maintain high quality of life standards--to meet 
the global challenges of today and tomorrow.
    During the 1990s, while engaged in continuous combat, the Air Force 
suffered a seven year ``procurement holiday.'' Today, fiscal 
constraints have tightened as energy and health care costs have 
continued to increase dramatically.
    In late 2005, the Air Force reduced its end strength by 40,000 
Active Duty, Guard, Reserve and civilian Full-time Equivalents (FTEs) 
in order to self-finance the vital re-capitalization and modernization 
of our aircraft, space, and missile inventories. End strength reduction 
by 40,000 FTEs over a 3-year period was our only viable alternative to 
preserve the required investment capital.
    Our Force Shaping efforts have placed us on a path to meet our end 
strength targets. However, personnel changes of this magnitude come 
with a degree of uncertainty and difficulty for our Airmen and their 
families. We are making every effort to use voluntary measures to shape 
the force with the right skills mix, increase manning in stressed 
career fields, leverage new technologies, and refine our internal 
processes to reduce workload and reduce or eliminate unnecessary work 
through Air Force Smart Operations 21 (AFSO21).
    We have reduced our Air Force end strength using a methodology that 
has preserved a strong expeditionary capability. Our AEF construct 
provides an enterprise view of Service risk that synchronizes our 
resources and assets to support our global requirements. However, 
reducing Air Force end strength further, coupled with ILO taskings for 
the foreseeable future, carries considerable risks of ``burning out'' 
our Airmen in several critical expeditionary career fields as well as 
limiting our future national options to meet global mission 
requirements in an increasingly volatile world.
Ensure Highest Quality of Life Standards
    Our ``People'' priority demands we ensure the quality of life we 
offer our Airmen meets the highest possible standards. Because the 
nature of our Air Force mission demands a highly educated, trained, and 
experienced force, we recognize the direct linkages between quality of 
life issues and their impact on our recruiting, retention, and, 
ultimately, our mission capability.
            Housing and Military Construction
    Air Force investments in housing underscore our emphasis on 
developing and caring for Airmen. Through Military Construction 
(MILCON) and housing privatization, we are providing higher quality 
homes faster than ever. With the fiscal year 2009 funding, we will 
revitalize more than 2,100 homes through improvement or replacement. We 
are on track to meet our fiscal year 2009 goal of eliminating 
inadequate housing at overseas locations.
    MILCON is an essential enabler of Air Force missions; however, due 
to fiscal constraints, we must reduce funding and accept greater risk 
in facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment. However, 
our new construction projects are state of the art, incorporating 
energy efficient features and sustainable designs. We have prioritized 
the most critical requirements to support the Air Force and DOD 
requirements. Our MILCON plan supports these priorities by focusing on 
new mission beddowns, training, and depot transformation, as well as 
dormitory and child care center upgrades.
Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in a Joint environment without compromising Air Force 
principles and the well-being of our people. Joint Basing initiatives 
are no exception. To guarantee success, each Joint Base should be 
required to provide a suitable setting to all of its assigned 
personnel, their families, and other customers within the local 
communities our bases support.
    To accomplish this, we advocate establishment of a common Joint 
Base quality of life standard. Our Airmen, Soldiers, Sailors, Marines, 
DOD Civilians and their families will benefit from efficient, 
consistent installation support services. Such standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of installation support services they deserve. As we 
work with the Office of the Secretary of Defense and our sister 
Services, we will ensure all Joint Basing initiatives contribute to the 
DOD's ability to perform its mission. We will also safeguard against 
potential negative impacts to the Joint and Air Force approach to 
mission performance.
    To do this, we will have to work through the transfer of TOA and 
real property without eroding the local installation commander's 
prerogatives relative to satisfying mission and training requirements, 
optimizing installation resources, tailoring installation services to 
local needs, and prioritizing MILCON funding. We will also have to work 
through the transfer without reducing the combat capability our bases 
generate, installation service support standards, or the quality of 
life for Service members, their families, and other customers of these 
services.
    We look forward to establishing a BRAC-envisioned executive agency 
agreement involving local leaders and the local unit commander. Such an 
agency, combined with elimination of duplicate offices and 
administration of centrally agreed standards, would improve efficiency 
while safeguarding mission requirements and quality of life for 
families and Service members. We believe the natural, direct feedback 
and tension between a service provider and a paying customer is the 
best model to drive efficiency and cost savings.
    The Air Force remains committed to ensuring that all bases, Joint 
or otherwise, maintain their capability to perform their missions and 
meet our quality of life standards. We want Joint Bases to be so 
efficient and effective that an assignment to a Joint base would be a 
highlight for every Service member.
Recruit, Train, and Retain Highest Quality Airmen
    The Air Force is the ``Retention Service''--we recruit, train, 
develop, and retain the best America has to offer. Our emphasis on 
retention stems from the high technical and operational expertise 
required of our personnel. The high morale, cohesiveness, and 
capability of the Air Force are due to our efforts to retain a highly 
experienced, educated, and skilled force.
    The Air Force has never lowered its recruiting standards. We 
continue to recruit and choose the best America has to offer from our 
diverse population. Our recruiting and retention figures remain 
impressive, clearly indicating our success to date and the 
effectiveness of the Air Force's holistic approach to quality of life, 
recruiting, and retention. This success reaffirms our commitment to 
long-term family support efforts, education, and training.
    While we recruit Airmen, we retain families. We believe our Airmen 
should never have to choose between serving their country and providing 
for their families. Quality of life and family support are critical 
elements of our overall effort to retain high quality Airmen. As part 
of our efforts to maintain high quality of life standards, we are 
concerned with the hardships facing our Air Force families resulting 
from the frequent moves our Airmen and other Service members make 
throughout their careers. We applaud ongoing Congressional and 
interstate efforts addressing such issues as transfer of educational 
credits for military members and dependents, professional 
certifications for military spouses, and economic support for military 
families coping with spousal income disadvantages.
    Additionally, Air Force training initiatives continue to evolve, 
improving our ability to develop and retain the world's best air, 
space, and cyberspace warriors. We are concentrating our efforts to 
reprioritize Air Force professional education opportunities to reflect 
a balance between winning today's fight and preparing for tomorrow's 
challenges.
    Tuition assistance continues to be a strong incentive that helps 
ensure we meet our recruiting and retention goals. We believe voluntary 
education, facilitated with tuition assistance, not only aids in 
recruiting and retention, but further reinforces national strength and 
richness by producing more effective professional Airmen and more 
productive American citizens for the Nation, both during their 
enlistment and their eventual return to civilian life.
    Within the last 2 years we have taken several initiatives to 
``intellectually and professionally recapitalize'' our Airmen. We are 
developing leaders with the management acumen, cultural sophistication, 
international expertise, and language skills to successfully lead a 
diverse, globally engaged force. Air Education and Training Command and 
Air University are leading our efforts to reinvigorate the world's most 
advanced educational system for Airmen by expanding our full-spectrum 
educational opportunities.
    Finally, we optimized and expanded our training regimes to take 
advantage of more modern methods and broader scope in our live 
exercises. RED FLAG exercises now offer two venues, Nevada and Alaska, 
with varied environments; take advantage of Distributed Mission 
Operations technologies; include Total Force Airmen from the Regular 
and Reserve Components; and offer the full range of integrated 
operations, offering realistic training for warriors from across the 
Services, Components, and our international partners.
                   prepare for tomorrow's challenges
    In addition to taking care of our Airmen and training them for the 
full-spectrum challenges we expect this Century, it is also our 
responsibility to ensure our Airmen have the weapons and equipment 
necessary to provide for our Nation's defense.
    The United States cannot take advantages in air, space, and 
cyberspace for granted. Today, we are already being challenged in every 
warfighting domain. The Air Force is actively formulating innovative 
operational concepts to anticipate, adapt to, and overcome future 
challenges. We are transforming our thinking from considering the space 
and cyber domains as mere enablers of air operations to a holistic 
approach that recognizes their interdependence and leverages their 
unique characteristics. We will continue to push this conceptual 
envelope and expand the boundaries of existing tactics, techniques, and 
procedures to fully exploit the synergies of cross-domain dominance.
    But we cannot hone America's edge without modernizing the Air 
Force's air, space, and cyberspace capabilities. We are therefore 
pursuing the biggest, most complex, and most important recapitalization 
and modernization effort in Air Force history. These programs will gain 
and maintain militarily important advantages for our Nation for the 
coming decades.
Top Acquisition Priorities
    The Air Force's top acquisition priorities begin to address our 
critical recapitalization and modernization needs--the new Tanker (KC-
X); the new Combat Search and Rescue helicopter (CSAR-X); modern space 
systems to provide capabilities vital to our Joint warfighters; the F-
35A Joint Strike Fighter; and a new Bomber we plan to field by 2018.
    Additional high-priority acquisition programs include F-22 5th 
Generation fighter production; C-17 production; continued production of 
the C-130J and introduction of the C-27 intratheater airlifter; and 
expansion of the MQ-1 Predator, MQ-9 Reaper, and RQ-4 Global Hawk UAV 
inventories.
            New Tanker (KC-X)
    The KC-X is our highest procurement priority. It is critical to the 
entire Joint and Coalition military team's ability to project combat 
power around the world, and gives America and our allies' unparalleled 
rapid response to combat and humanitarian relief operations alike. KC-X 
tankers will provide increased aircraft availability, more adaptable 
technology, more flexible employment options, and greater overall 
capability than the current inventory of KC-135E and KC-135R tankers 
they will replace. It is imperative we begin a program of smart, steady 
reinvestment in a new tanker--coupled with measured, timely retirements 
of the oldest, least capable KC-135E tankers--to ensure future 
viability of this unique and vital United States national capability.
            New Combat Search and Rescue Helicopter (CSAR-X)
    The Air Force organizes, trains, and equips dedicated forces for 
the Combat Search and Rescue (CSAR) mission. The Air Force must 
recapitalize our CSAR forces to maintain this indispensable capability 
for the Nation and the Joint Team. Purchasing the entire complement of 
programmed CSAR-X aircraft will relieve the high-tempo operational 
strain placed on the current inventory of aging HH-60G Pave Hawk 
helicopters.
    The CSAR mission is a moral and ethical imperative. Airmen are 
responsible for safely securing and returning our Airmen and members of 
the Joint and Coalition team. The CSAR-X helicopter will provide a more 
reliable, more responsive capability for rapid recovery of downed, 
injured, or isolated personnel in day or night, all weather and adverse 
conditions, as well as support non-combatant evacuation and disaster 
relief operations.
            Space Systems
    Air Force communications, ISR, and geo-positioning satellites are 
the bedrock of the Joint Team's ability to find, fix, target, assess, 
communicate, and navigate. While many of our satellites have outlived 
their designed endurance, they are generally less durable than other 
platforms and sensors. Over the next 10 years we must recapitalize all 
of these systems, replacing them with new ones that enhance our 
capabilities and provide mission continuity, maintaining the asymmetric 
advantages our space forces provide our Nation.
    The WGS system, AEHF, and the Transformational Satellite 
Communications (TSAT) program will assure a more robust and reliable 
communications capability designed to counter emerging threats and meet 
expanding Joint communications requirements.
    The GPS II-F and III programs will add a more robust PNT capability 
to America's established GPS constellation. GPS III will utilize a 
block approach to acquisition and will deliver enhanced civil and 
military PNT capabilities to worldwide users.
    The Space Based Infrared System will enhance the Air Force's early 
warning missile defense, technical intelligence, and battlespace 
awareness capabilities through improved infrared sensing, missile 
warning, and data processing.
    The Air Force will continue to develop space situation awareness 
(SSA) capabilities to help protect space assets from future threats. We 
are also pursuing more robust space protection measures to warn of 
attacks, provide redundant command and control, harden electronics, and 
defend against direct attacks. The Space Based Space Surveillance 
(SBSS) system will be the first orbital sensor with a primary mission 
of SSA. This system, along with other developments such as the Rapid 
Attack Identification Detection and Reporting System will improve our 
ability to characterize the space environment--the friends and foes 
operating in it, and the objects traversing it.
            F-35A Lightning II (Joint Strike Fighter)
    The F-35A Lightning II will be the mainstay of America's future 
fighter force, providing an affordable, multi-role complement to the F-
22 Raptor. In addition to fielding advanced combat capabilities, the 
Lightning II will also strengthen integration of our Total Force and 
will enhance interoperability with global partners.
    The F-35A Lightning II boasts 5th Generation, precision engagement, 
low-observable (stealth), and attack capabilities that will benefit not 
only the Air Force, but also the Navy, Marines, and our international 
partners involved in the program. The F-35A is the Conventional Take-
off and Landing (CTOL) variant, and it will replace, recapitalize, and 
extend Air Force F-117, F-16, and A-10 combat capabilities. The F-35A 
also serves as the recapitalization program for our international 
partners' aging F-16s, F-18s, and other 4th Generation fighter 
aircraft.
    Complete dominance of the air and freedom of maneuver for the 
entire Joint force demand the complementary capabilities of the F-22 
and F-35A 5th Generation of fighters. Together, they promise the 
ability to sweep the skies, take down the enemy's air defenses, and 
provide persistent, lethal air cover of the battlefield. The leading 
edge capabilities of the F-35A, in development and low rate production 
now, will provide an affordable, Joint Service, international 
complement to the F-22.
            New Bomber
    Range and payload are the soul of an Air Force. These capabilities, 
along with precision, lethality, survivability, and responsiveness are 
fundamental to modern strategic military deterrence, and apply across 
the full range of military operations--from tactical to strategic, 
kinetic to non-kinetic. And yet our Nation has just 21 bombers 
currently capable of penetrating modern air defenses. Even these B-2 
Spirit stealth bombers have limitations and will become relatively less 
capable and less survivable against advanced anti-access technologies 
being developed and fielded around the world. Furthermore, our current 
bomber inventory is becoming more costly to operate and maintain. 
Indeed, some suppliers for spare parts no longer exist.
    The Air Force is therefore pursuing acquisition of a new Bomber by 
2018 and in accordance with Quadrennial Defense Review goals for long 
range strike capability. This next generation bomber will feature 
stealth, payload, and improved avionics/sensors suites, and will 
incorporate highly advanced technologies. It will also bring America's 
bomber forces up to the same high standard we are setting with our F-22 
and F-35A 5th Generation fighters, and ensure our bomber force's 
ability to fulfill our Nation's and the Combatant Commanders' global 
requirements.
Improve our Global Vigilance, Global Reach, and Global Power
    Because Global Vigilance, Global Reach, and Global Power constitute 
America's edge, we must continually hone our ability to provide them. 
Our acquisition programs aim to broaden Global Vigilance, extend Global 
Reach, and strengthen Global Power advantages for America.
            Broaden Global Vigilance
    The Air Force provides the global eyes and ears of the Joint Team 
and our Nation. Using a vast array of terrestrial, airborne, and 
spaceborne sensors, we monitor and characterize the earth's sea, air, 
space, land, and cyberspace domains around the clock and around the 
world. The information collected through surveillance and 
reconnaissance, and converted into intelligence by exploitation and 
analysis, is used to formulate strategy, policy, and military plans; to 
develop and conduct campaigns; guide acquisition of future 
capabilities; and to protect, prevent, and prevail against threats and 
aggression aimed at the United States and its interests. It is relied 
upon at levels ranging from the President and senior decision makers to 
commanders in air operations centers to ground units engaged with the 
enemy to pilots dropping precision-guided munitions.
    The future vision of all the United States military Services is 
information-driven. Success will hinge on America's integrated air, 
space, and cyberspace advantages. Air Force assets like the E-8C Joint 
Surveillance Target Attack Radar System, E-3 Airborne Warning and 
Control System, RC-135 Rivet Joint, RQ-4 Global Hawk, MQ-1 Predator, 
and our constellations of satellites contribute vital ISR capabilities 
and networking services that are integral to every aspect of every 
Joint operation. Our recapitalization and modernization plan aims to 
dramatically increase the quantity and quality of ISR capabilities, 
products, and services available to the Joint Team and the Nation. Our 
recapitalization efforts are focused on extending the lifespans and 
capability sets of our workhorse platforms, such as the RC-135 Rivet 
Joint and several space-based assets. We are also working to find and 
leverage previously untapped ISR capabilities such as those on fighters 
carrying targeting pods. Finally, we have made a concerted effort to 
ensure the viability of Air Force space communications, PNT, early 
warning missions, and SSA capabilities to provide uninterrupted mission 
continuity for America and our allies.
            Extend Global Reach
    America's Airmen provide the long legs and lift for Joint 
warfighters' rapid global mobility as well as the long arms for global 
strike and high endurance for global persistence and presence. On a 
daily basis, Air Force intertheater and intratheater airlift and 
mobility forces support all DOD branches as well as other Government 
agency operations all over the world. Yet the increased demand for 
their capabilities and their decreased availability underscore the 
critical need for tanker recapitalization and investment to ensure the 
long-term viability of this vital national capability.
            Strengthen Global Power
    The United States Air Force provides the ability to achieve 
precise, tailored effects whenever, wherever, and however needed--
kinetic and non-kinetic, lethal and non-lethal, at the speed of sound 
and soon at the speed of light. It is an integrated cross-domain 
capability that rests on our ability to dominate the air, space, and 
cyberspace domains.
    The Global Power advantages the Air Force provides the Joint Team 
ensure freedom of maneuver, freedom from attack, and freedom to attack 
for the Joint Team. However, failure to invest in sufficient quantities 
of modern capabilities seriously jeopardizes these advantages and risks 
the lives of our Soldiers, Sailors, Airmen, and Marines.
Retire Aging, Worn-Out Aircraft
    The Air Force has been in continuous combat since 1990--17 years 
and counting--taking a toll on our people and rapidly aging equipment. 
While we remain globally engaged, we recognize the imperative of 
investing in the future through recapitalization and modernization. 
Beyond fielding new aircraft, we must also retire significant portions 
of our oldest, most obsolete aircraft if we are to build a modern, 21st 
Century Air Force. Our aircraft inventories are the oldest in our 
history, and are more difficult and expensive to maintain than ever. 
They require a larger footprint when deployed, and are significantly 
less combat-capable in today's increasingly advanced and lethal 
environment. In the years ahead they will be less and less capable of 
responding to or surviving the threats and crises that may emerge.
    Since 2005, we have attempted to divest significant numbers of old, 
worn out aircraft. However, legislative restrictions on aircraft 
retirements remain an obstacle to efficient divestiture of our oldest, 
least capable, and most costly to maintain aircraft. Lifting these 
restrictions will alleviate considerable pressure on our already 
constrained resources that continue to erode our overall capabilities.
Preserve America's Aerospace Industrial Base
    America's public and private aerospace industrial base, workforce, 
and capabilities are vital to the Air Force and national defense. The 
aerospace industry produced the brainpower, innovations, technology, 
and vehicles that propelled the United States to global leadership in 
the 20th Century. The aerospace sector gave birth to the technologies 
and minds that have made the information age a reality. This key 
industrial sector continues to lead and produce the technologies and 
capabilities America needs to safeguard our future.
    Yet this vital industry has deteriorated over the last decade. We 
have witnessed an industry consolidation and contraction--from more 
than ten domestic United States aircraft manufacturers in the early 
1990s to only three prime domestic aircraft manufacturers today. 
Without funding, in the coming decade production lines will 
irreversibly close, skilled workforces will age or retire, and 
companies will shut their doors. The United States aerospace industry 
is rapidly approaching a point of no return. As Air Force assets wear 
out, the United States is losing the ability to build new ones. We must 
reverse this erosion through increased investment.
    We must find ways to maintain and preserve our aerospace industrial 
capabilities. We must maintain national options for keeping production 
lines open. Complex 21st Century weapons systems cannot be produced 
without long lead development and procurement actions. Additionally, we 
must continue our investment in a modern, industrial sustainment base. 
Air Force depots and private sector maintenance centers have played 
vital roles in sustaining our capabilities and have become models of 
modern industrial transformation. We are fully committed to sustaining 
a healthy, modern depot level maintenance and repair capability.
    Furthermore, we must recognize that these industry capabilities 
represent our national ability to research, innovate, develop, produce, 
and sustain the advanced technologies and systems we will continue to 
need in the future. This vital industrial sector represents a center of 
gravity and single point vulnerability for our national defense.
Extend C-130J Production Line
    Acquisition programs set the stage to field future capabilities. So 
we must make prudent decisions to maintain current production of 
advanced systems in order to reach required force structure goals and 
provide a hedge against future uncertainty. We must maintain and extend 
the existing production lines for C-130J intratheater airlifters. This 
aircraft represent America's best technology and capability.
    We strongly recommend taking action to ensure these vital 
production lines remain open. Maintaining current production lines will 
be critical to revitalizing our force structure, setting conditions for 
future success, and providing America with the option--should 
conditions dictate--to produce additional modern, advanced technology 
aircraft without having to start from square one.
Strengthen Total Force Integration
    The Air Force is dedicated to ensuring our States and Nation get 
the most combat effective, most efficient force possible to accomplish 
our mission faster and with greater capacity, around the world and at 
home. We believe integrating our Total Force is the best way to do 
that.
    America's Airmen set the DOD standard for Reserve Component 
integration. The Air Reserve Component (ARC)--comprised of the Air 
National Guard (ANG) and the Air Force Reserve Command (AFRC)--is an 
operational reserve and an essential element of the United States Air 
Force. We are developing concepts, strategies, force management 
policies and practices, and legal authorities to access sufficient ARC 
forces without the need for involuntary mobilization. Though the Air 
Force is already the model for melding its Guard, Reserve, and 
civilians with its Regular Air Force elements, we can and will push 
this synergy to new levels.
    A distinguishing hallmark of the Air Force is the ease with which 
Total Force Airmen work seamlessly together at home and abroad. From 
the first Reserve Associate unit in 1968 to the full integration of 
Guard and Reserve units into the AEF in the 1990s, the Air Force has a 
well-established history of employing Airmen from all components in 
innovative and effective ways.
    Total Force Integration (TFI) represents a long-term Air Force 
commitment to transformation. TFI maximizes the Air Force's overall 
Joint combat capability, forming a more cohesive force and capitalizing 
on the strengths inherent within Regular, Guard and Reserve elements. 
Including the ARC in emerging mission areas increases the Air Force's 
ability to retain critical skills should Airmen decide to transition 
from the Regular Air Force to the ARC. We will continue to review 
policies and practices--through our Continuum of Service initiative--to 
optimize sustainment support to the warfighting force and further 
integrate personnel management across the Total Force. TFI will be 
critical to meeting the challenges of competing resource demands, an 
aging aircraft inventory, and organizing, training, and equipping for 
emerging missions.
    We are leveraging our Total Force to the greatest extent ever. We 
expect the Total Force to produce the vanguard elements we will need as 
we expand our leading role in cyberspace and explore new cyber 
technologies. Many of our most experienced cyber warriors, having 
attained the high level of expertise required to excel in this domain, 
are found in our Guard, Reserve, and Civilian ranks.
            Total Force Roadmap
    As an integral element of our procurement efforts, we have built a 
global Total Force Roadmap for acquiring and basing new aircraft and 
equipment. Just as our AEF construct seamlessly draws upon all of the 
Total Force components, the beddown of future Air Force aircraft and 
equipment integrates Regular, Guard and Reserve Airmen beginning with 
the first phases of production and basing through Full Operational 
Capability.
    The Roadmap represents a more efficient and flexible force 
structure. Although the Air Force will have a smaller total aircraft 
inventory compared to our current inventory of aircraft, overall Air 
Force capabilities will increase with each next-generation weapons 
system. In numerous instances, the potential locations will capitalize 
on Total Force Integration efforts, creating innovative organizational 
arrangements among Regular, Guard, and Reserve components. This effort 
takes advantage of the inherent strengths of each component.
    The Air Force Roadmap provides a planning construct for the future 
which, if adequately resourced, will result in the required force 
structure that will give our Nation the best capability for Global 
Vigilance, Global Reach, and Global Power across the globe; to reassure 
allies, to dissuade, deter, and defeat adversaries; and to protect the 
Homeland.
Secure the Future
    To maximize the potential advantages of our programs in the future, 
the Air Force is engaging in multiple initiatives to better organize, 
train, and equip our forces. Whether harnessing the complementary 
capabilities of the F-22 and F-35A programs to provide Air Dominance 
for the Joint Team; strengthening our National Security Space 
Enterprise; leading efforts to acquire interoperable Unmanned Aerial 
Systems (UAS); developing Cyber Warriors; or pursuing alternative 
energy solutions with environmentally safe production processes, the 
Air Force continues to investigate and embrace opportunities to secure 
Global Vigilance, Global Reach, and Global Power for our Nation's 
future.
            Strengthen Joint Air Dominance
    America's Airmen are understandably proud of their contributions to 
the Joint fight. Airmen have prevented enemy aircraft from inflicting 
any United States ground force casualties for over 50 years, and our 
Nation must maintain the required capability advantages to continue 
this record in the future. With advancing technology and proliferating 
threats, the Nation also needs the right equipment for the Homeland 
Defense mission to protect civilians on American soil.
    The F-22 Raptor and the F-35A Lightning II JSF are leading-edge, 
modern, 5th Generation fighters. They are not modernized versions of 
old designs. These aircraft reap the benefits of decades of advanced 
research, technology development, open architecture design, and 
operational experience. These fighters are furthermore designed to be 
complementary--the F-22 being superior in speed and maneuverability, 
and the F-35A being optimized for ground attack and multi-role 
capabilities. These fighters will provide the advanced warfighting 
capabilities, aircraft system synergies, and the flexibility and 
versatility required in future environments and engagements.
    Currently in production and fully operational with Total Force 
units in Virginia and Alaska, and with units planned for New Mexico and 
Hawaii, the F-22 is the newest member of the Air, Space, and Cyber 
Expeditionary Force. Airmen are putting the Raptor through its paces--
flying and deploying the world's first and only operational 5th 
Generation fighter. Its attributes of speed, stealth, maneuverability, 
internal weapons carriage, advanced sensors, and adaptable, integrated 
avionics will meet our Nation's enduring national security requirements 
to gain and maintain Joint air dominance in anti-access environments; 
provide powerful sensing capabilities and battlespace situational 
awareness; and precisely engage a broad range of surface targets.
    It is vital to our national interests that 5th Generation fighter 
production capability be preserved. This year the F-35A will continue 
development and begin its ramp-up to full rate production in 2014. 
Continuing production ensures the aerospace industry keeps its 
technical edge, maintains an able workforce to respond to 
uncertainties, and preserves critical skills and production suppliers. 
Uninterrupted production in sufficient numbers of 5th Generation 
fighters remains the lowest risk strategy and best future guarantee for 
homeland air sovereignty and Joint air dominance.
            Lead Joint Unmanned Aircraft System Operational Development
    The Air Force is the world leader for successful, innovative, and 
effective development, acquisition, and operation of Unmanned Aircraft 
(UA) and the UAS that incorporate UAs and the command and control (C2) 
networks and equipment to employ them. Future successful Joint UAS 
acquisitions and operations hinge upon execution of three critical 
elements, which align cohesively with Joint doctrine:
    Develop Joint UA CONOPS.--UA operators serve the global Joint 
mission through interoperability and interdependence. Globally- and 
Jointly-integrated UAS operations and capabilities--from strategic to 
tactical--are necessary for Joint success. CONOPS development must 
focus on accomplishing the Joint mission as opposed to serving 
functional components.
    Standardize and Streamline UAS Acquisitions.--We must develop an 
affordable Joint acquisition strategy for future UAS development, 
organization, and employment. Air Force acquirers and operators 
pioneered UAS development and application in Joint warfare, and have 
established best practices for organizing, training, standardizing, and 
equipping the world's most effective UAS operations squadrons.
    Ensure Airspace Control and Awareness.--Presentation of UA forces 
and capabilities must meet Joint Commander requirements and objectives. 
``Organic ownership'' of UAS capabilities is irrelevant in the context 
of the Joint fight and the Joint Forces Air Component Commander's 
authority and responsibility to control Joint airspace. Homeland 
operations are also becoming increasingly important. We are working 
with all the Services and the Department of Transportation to establish 
Federal Aviation Administration Certifications for UA operations within 
approved civil airspace.
            Lead the National Security Space Enterprise
    Our Nation depends on its space capabilities as an integral part of 
its military strength, industrial capability, and economic vitality. As 
DOD Executive Agency for Space, the Air Force will continue to ensure 
mission continuity in critical areas of communications, PNT, early 
warning, SSA, and ISR. We will also continue efforts to strengthen 
National Space integration and collaboration across DOD, with the 
intelligence community, our interagency partners and our international 
partners.
    Of particular note are our efforts to strengthen America's space 
professionals and science and engineering workforce. These 
professionals will form the fundamental corps who will lead our space 
efforts to success in the future by integrating enterprise level 
architectures; designing, developing, acquiring, and fielding new 
systems; and operating in a dynamic and potentially contested 
environment.
    Additionally, the Air Force is developing capabilities to quickly 
respond to the urgent needs of Combatant Commanders. Operationally 
Responsive Space (ORS) is a tiered capability consisting of spacecraft, 
launch vehicles, and terrestrial infrastructure employed in concert to 
deliver a range of space capabilities to responsively meet Combatant 
Commander requirements in times of war, conflict, or crisis.
    Finally, the Air Force is committed to improving its space 
acquisitions, focusing on flexibility and affordability. Success in 
this endeavor depends on achievable requirements, appropriate 
resources, disciplined systems engineering, and effective program 
management. We focus all of these efforts through a disciplined block 
delivery approach tying together basic Science and Technology (S&T), 
technology development, systems development, and system production 
efforts so concepts first evaluated in S&T will enable a systematic 
transition from development to operations.
            Lead Cyberspace Operational Development
    Current and potential adversaries already operate in cyberspace, 
exploiting the low entry costs and minimal technological investment 
needed to inflict serious harm in and through cyberspace. State and 
non-state actors are already operating within cyberspace to gain 
asymmetric advantage.
    In April 2007, Estonia was the victim of a barrage of cyber attacks 
which brought its technologically sophisticated government to a virtual 
standstill. Insurgents in Iraq, Afghanistan, and elsewhere exploit 
electronics and the electromagnetic spectrum to kill and maim through 
improvised explosive devices (IEDs) and propagate their message of hate 
to the world. Thus, the ability to inflict damage and cause strategic 
dislocation no longer requires significant capital investment, superior 
motivation and training, or technological prowess.
    We seek to deny our adversaries sanctuary in cyberspace while 
assuring our access to and freedom to operate in this domain. Our 
Nation's ability to achieve effects in air, in space, on land, and at 
sea depends on control of and freedom of maneuver in the cyber domain.
    As part of a larger effort to address this need, the Air Force 
stood up a Provisional Air Force Cyberspace Command (AFCYBER) on 18 
September 2007. Our current plan is to activate the AFCYBER MAJCOM on 1 
October 2008. The newly designated AFCYBER will consolidate and 
integrate Air Force cyber capabilities to prepare them to function 
across the spectrum of conflict. These capabilities will include, but 
are not limited to: electronic warfare; network warfare; global command 
and control (C2) integration, and ISR enhancement.
    We will continue to develop and implement plans for maturing cyber 
operations as an Air Force core competency. Our objective is to provide 
flexible options to national decision-makers to deter, deny, disrupt, 
deceive, dissuade, and defeat adversaries through destructive and non-
destructive, lethal and non-lethal means.
            Assure Sustainable Energy
    We are pursuing an aggressive energy strategy and are committed to 
meeting and surpassing the energy goals mandated by the Energy Policy 
Act of 2005 (EPAct 05) and other national policies. We continue to 
pursue a variety of programs aimed at reducing our use of fossil fuels 
and controlling cost growth. Our vision emphasizes a culture in which 
all Airmen make energy conscious decisions. We aim to implement our 
vision with solutions that include alternate sources of domestic energy 
as well as an aggressive drive for greater efficiency in our 
facilities, vehicles, and aircraft.
    Following Presidential direction to reduce dependence on foreign 
oil, the Air Force is aggressively pursuing a broad range of energy 
alternatives. As the DOD's leading consumer of jet fuel, we are 
currently engaged in evaluating alternative fuels and engine 
technologies leading to greater fuel efficiency. We have certified the 
B-52 to fly on a synthetic fuel blend, and are on track to certify the 
C-17 and B-1 in 2008, the F-22 in 2009, and the remainder of all of our 
aircraft expected to be certified by early 2011. In fact, on December 
17, 2007--the 104th anniversary of the Wright Brothers' first flight at 
Kitty Hawk, NC--a McChord AFB, Washington-based C-17 flew the first 
transcontinental flight on synthetic fuel (a 50/50 blend). The Air 
Force goal is to acquire 50 percent of its CONUS aviation fuel via a 
synthetic fuel blend utilizing domestic sources. Our intent is to 
require synthetic fuel purchases be sourced from environmentally-
friendly suppliers with manufacturing facilities that engage in carbon 
dioxide capture and effective reuse. In addition, the Air Force is 
testing renewable fuel resources that will lower CO<INF>2</INF> 
emissions significantly compared to petroleum. Other Air Force 
technology efforts continue to explore high-efficiency aerodynamic 
concepts, advanced gas turbines, and variable cycle engines providing 
higher performance and greater fuel efficiency.
    The Air Force is the renewable energy leader, and we seek to expand 
our portfolio through innovative public-private partnerships and 
evaluations of a wide range of energy proposals at several bases. Last 
year, the Air Force received the Presidential Award for Leadership in 
Federal Energy Management. The Air Force also continued to lead the 
Federal Government in green power purchases, with 37 bases meeting some 
portion of their base-wide electrical requirements from commercial 
sources of wind, solar, geothermal, or biomass. We reached full 
operating capacity--14.5 megawatts--of the largest solar photovoltaic 
array in the Americas at Nellis AFB, Nevada. At Edwards AFB, 
California, Kirtland AFB, New Mexico, and Luke AFB, Arizona, we are 
exploring additional commercial-scale opportunities for solar power. On 
under-utilized land at Malstrom AFB, Montana, we are exploring the 
potential for a privately financed and operated coal-to-liquid plant. 
Finally, as a result of Congressional interest, we have begun 
considering the potential for small-scale nuclear power production on 
Air Force property. As energy leaders, the Air Force is engaging with 
allied and Coalition air force partners to share best practices, 
identify common issues and concerns, and ensure future, sustainable 
energy interoperability.
            Maintain Science and Technology Leadership
    True to our heritage over the past century of powered flight, the 
Air Force continues to maintain the most complex, diverse, and 
ambitious S&T portfolio of all the Services. History clearly 
demonstrates the broad benefits to America of our S&T efforts, in terms 
of military power, industrial capability, economic growth, educational 
richness, cultural wealth, and national prestige. Examples of these 
efforts include aerospace technology and propulsion, materials science, 
advanced computing and communications, atmospheric science, remote 
sensing, medicine, precision timing, weather forecasting, and satellite 
navigation. What has been good for the Air Force has been great for 
America. We are committed to building upon this heritage.
    The Air Force S&T program develops, demonstrates, and tests 
technologies and advanced warfighting capabilities against the spectrum 
of 21st Century threats. As we continue to adapt to a volatile and 
uncertain world, today's focused investment in our S&T program will 
produce the future warfighting capabilities needed to ensure America's 
continued technological preeminence and military flexibility. Major Air 
Force S&T efforts include hypersonics, composites, propulsion, 
nanotechnology, small satellite technology, directed energy, and 
cybertechnology
    Additionally, Air Force S&T organizations work closely with the 
other Services, the Defense Advanced Research Projects Agency, 
Intelligence Community, and other Federal agencies, such as the 
National Aeronautics and Space Administration, as well as partner 
nations. Through these partnerships we leverage efforts, share 
information, and advance state-of-the-art technologies.
    The Air Force S&T Program provides the necessary leadership and 
foundation for future Joint warfighting capabilities, focusing on 
dominance of the air, space, and cyberspace warfighting domains. 
Continued Air Force S&T leadership will be critical to maintaining the 
asymmetric military advantages and broad national benefits our Joint 
Team and the Nation have come to expect and enjoy.
                            america's airmen
    United States security and prosperity are best assured when all the 
instruments of national power are orchestrated to work with other 
states to promote a stable and prosperous international system. The Air 
Force directly contributes to United States security by providing a 
unique array of sovereign options for decision makers. These options 
maximize our ability to assure friends and to dissuade and deter 
threats, large and small, across the spectrum of conflict. When 
opponents cannot be deterred, these options magnify the combat 
capability of Joint and Coalition forces and provide a variety of 
alternatives for our political leaders to choose from in pursuit of 
national objectives. We provide the Nation with its most lethal and 
proven force for defeating enemies across the broad range of threats we 
face.
    By exploiting the synergies of air, space, and cyberspace, the Air 
Force provides our Nation with the capability to dominate across 
domains and expand the options available for our sister Services to 
dominate their respective domains. Implementing our strategy requires 
fielding a force of highly trained Airmen with a commanding edge in 
technology and a force structure with sufficient capacity to provide 
the assurance of United States presence. So long as Airmen maintain a 
global presence and hold significant advantages over potential 
opponents, we will continue to provide our Nation with the means to 
lead the fight for global stability and prosperity.
    Our emphasis on assurance, dissuasion, and deterrence reflects our 
conviction that it is far better to convince potential adversaries to 
refrain from the use of military force than to have to defeat them in 
battle. Our success will be measured by conflicts averted as well as 
conflicts fought and won. But we must never forget that our ability to 
assure and deter ultimately flows directly from our unambiguous ability 
to overwhelm swiftly and decisively any adversary who elects to test 
us.
    We are today honing America's edge. Our Airmen have sworn an oath 
to serve their country, and they are meeting and exceeding their 
wartime commitments. We remain focused on our Air Force priorities of 
winning today's fight, caring for our people, and preparing for 
tomorrow's challenges. We are assessing threats in an uncertain world, 
balancing our requirements within fiscal constraints, and managing 
risks as we endeavor to strengthen the asymmetric advantages our Nation 
and the Joint Team currently enjoy.
    We will have neither the buffer of time nor the barrier of oceans 
in future conflicts. The Air Force's Regular component is smaller in 
February 2008 than the United States Army Air Forces was in December 
1941. The character, tempo, and velocity of modern warfare already 
severely test our ability to adapt. Therefore, redefining the Air Force 
for the 21st Century is an urgent national security requirement--not a 
luxury we can defer.
    America looks to Airmen to provide dominance that spans the air, 
space, and cyberspace warfighting domains. Our Airmen are fighting 
today's fight, while standing watch across the frontiers of technology 
and the future. They need your support today to defend the Nation from 
tomorrow's threats. Full funding and support for America's Airmen will 
ensure America's continued freedom of action; increase global 
awareness; reassure America's allies and strengthen our partnerships; 
reinforce our sovereign homeland defenses; and set conditions for Joint 
and Coalition success across the entire spectrum of human conflict and 
crisis.
    We imperil our security, our people, and our way of life if we fail 
to maintain and sharpen America's Edge--the Air Force-provided Global 
Vigilance, Global Reach and Global Power advantages which underwrite 
the defense and sovereignty of our Nation.

    Senator Inouye. General Moseley.
STATEMENT OF GENERAL T. MICHAEL MOSELEY, CHIEF OF 
            STAFF, UNITED STATES AIR FORCE
    General Moseley. Mr. Chairman, Senator Stevens, 
distinguished subcommittee members and staff. Sir, if you would 
allow me to take my time for a verbal statement and introduce 
six great Americans who wear Air Force uniforms to put a face 
on your United States Air Force.
    But first, sir, to this subcommittee, thank you for the 
opportunity for Secretary Wynne and I to discuss the posture of 
the United States Air Force and about our vision for the future 
and strategy to achieve it.

                          SIX AMERICAN AIRMEN

    We brought these six airmen with us today, again, as a face 
on your United States Air Force and a mix of what this United 
States Air Force does every day. Sir, I would like to begin 
with Lieutenant Colonel Brian Turner, a University of Virginia 
graduate. He is a Virginia Air National Guardsman, classic Air 
National Guardsman who flies F-22As at Langley Air Force Base, 
Virginia, in our relationship with the Active and the Guard in 
the 1st Fighter Wing. He is part of the first Raptor Classic 
Association. He is a symbol of that ironclad commitment that we 
have to Total Force integration and to maximizing the strengths 
of the Guard, Reserve, and Active components. He is part of the 
149th Fighter Squadron. He is the assistant director of 
operations, and he has logged over 3,600 hours in the F-16A, B, 
C, and D and the F-22A. He has flown over 300 combat hours in 
Operations Desert Storm, Allied Force, and Iraqi Freedom. One 
of his roles at Langley is flying the F-22A in Operation Noble 
Eagle mission tasking which is over Washington, DC, New York, 
and the east coast to defend the air space of the United 
States.
    Next is Captain Kari Fleming. She is in the 15th Airlift 
Squadron. She is a C-17 pilot at Charleston Air Force Base, 
South Carolina. She is a 2003 graduate of the United States Air 
Force Academy, and Charleston is her first assignment. Still, 
she has amassed 1,200 total flying hours, including 900 in the 
C-17, 124 combat missions, 278 combat hours since 2005 in both 
Operation Enduring Freedom and Operation Iraqi Freedom, 
missions that include air drop, operational air drops, 
aeromedical evacuation, and resupply in sustainment of forward 
bases, as well as main operating bases. She has just returned 
from a deployment to the United States central command area of 
responsibility (AOR), and she was telling me the other day that 
she has landed the strategic airlifter six times in the dirt on 
either dirt airfields or unprepared surfaces. Mr. Chairman, who 
would have thought a few years ago that we would be taking a 
strategic airlifting asset and landing it in the dirt? She has 
done it six times and makes it look easy.
    Next is Captain Scott Nichols. He's an HH-60 combat search 
and rescue pilot of the 55th Rescue Squadron at Davis-Monthan 
Air Force Base, in Arizona. Like Kari, Scott is a United States 
Air Force Academy graduate and he is also a distinguished 
graduate from the Air Force Weapons School. Since May 2002, he 
has been deployed five times, three times to Kandahar in 
Afghanistan and two times to Balad Air Base in Iraq for 
Operation Iraqi Freedom and Operation Enduring Freedom. He has 
logged 2,000 flying hours, including 158 combat hours and 53 
combat support hours. During his combat missions, he has 
recovered special operations aircraft and special operations 
people. He has recovered the remains of fallen comrades and he 
has been credited with saving multiple lives. He is a ``Jolly 
Green'' combat search and rescue guy.
    Sir, as an aside, as a fighter pilot, it is an article of 
faith that the Jolly Green Giants will come and get you, and 
this is the face of our combat search and rescue and what we 
hold so dear inside the United States Air Force as a core 
competency.
    Next is Technical Sergeant Jim Jochum. He's an aerial 
gunner in the Special Operations AC-130 in Hurlburt Field, 
Florida, the 4th Special Operations Squadron. He joined the Air 
Force in August 1989 and spent 5 years as an aircraft 
maintainer before he joined Special Operations. Since November 
1995, he has logged over 4,300 flying hours, 2,500 combat hours 
on 367 combat sorties in the AC-130, in fact, more than anyone 
else in Air Force Special Operations Command. Since October 
2001, he has accrued 892 days deployed, over 3 years. He wears 
an air medal with 16 oak leaf clusters. Mr. Chairman, this is 
the face of Air Force Special Operations.
    Next is Technical Sergeant Michelle Rochelle. She is a lead 
operator in this joint team in cyberspace. She is under the 
tactical control of U.S. Strategic Command's Joint Functional 
Component Command for Network Warfare. She executes combatant 
commander-tasked computer network attack missions and National 
Security Agency-tasked computer network exploitation missions. 
Thus, she has direct involvement in the global war on terrorism 
in supplying strategic intelligence to America's political and 
military leaders. She represents the vanguard of the forces we 
are organizing, training, and equipping to operate in 
cyberspace in this domain for the Nation's combatant 
commanders. She is a reminder that we believe the cyber domain 
is critical and the nexus of all warfighting domains for the 
future.
    Last is Technical Sergeant Michael Shropshire, currently 
the acting Operations Superintendent of the 12th Combat 
Training Squadron at Fort Irwin, California. This is our 
interface with the United States Army's National Training 
Center and our Air Warfare Center at Nellis Air Force Base, 
Nevada. He enlisted in July 1992 as a battlefield airman, and 
he has spent his entire career associated with the United 
States Army. Multiple deployments from Operation Joint 
Endeavor, Bosnia to Operation Iraqi Freedom and Operation 
Enduring Freedom. He has a silver star and a bronze star. The 
silver star was awarded for individual heroic actions while 
surrounded, cut off under a hail of enemy gunfire, in the 
largest sandstorm in four decades in the Middle East. While 
engaged, he coordinated close air support with the delivery of 
12 joint direct attack munitions, or JDAMs, on 10 Iraqi T-72 
tanks while constantly switching from his radio headset to his 
weapon, in fact, killing three enemy soldiers at close range 
while engaged with his Army brothers. He wears a bronze star 
for exceptional performance as a tactical air control party 
member during the 3rd Infantry Division's push on Baghdad.
    So, Mr. Chairman, distinguished subcommittee members and 
staff, I am proud to introduce these airmen to you today 
because they are manifestations of 670,000 Total Force airmen, 
from the Air National Guard, the Air Force Reserve, from our 
air-breathing aviators, and from cyberspace. Everything that we 
hold dear is manifested in these six airmen.
    Thank you again for this subcommittee's strong, consistent 
support for our country's men and women in uniform, soldiers, 
sailors, airmen, marines, and Coast Guardsmen. Mr. Chairman, 
thank you for the opportunity to testify. We look forward to 
your questions.
    Senator Inouye. Thank you very much, General, and to the 
men and women who were just introduced, we are humbled by your 
dedication, your skill, and your courage, and we are extremely 
grateful for the service you have rendered to the people of the 
United States. Thank you very much.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Secretary, General, what the chairman did not say was 
``jealous,'' particularly the F-22.
    I do think your statement really shows the impact of the 
Total Force. We all remember the days when the National Guard 
was flying World War II weary planes when everyone else was 
getting the F-14s or other planes that were modern, and you 
have now transitioned to the Total Force. And I am delighted to 
see that the premier plane of the world is shared by the 
National Guard, and I am sure that they know how lucky they are 
to have it. Isn't that right, General?
    Let me go to the C-17. We are pleased to have a C-17 pilot 
here with us today. But there is no funding in this bill for 
the C-17 this year. It is the third year in a row there has 
been no funding. We have added money in last years, and it is 
going to be very difficult to do this year. And I am not being 
critical. I just want you to help us understand the situation.
    You have indicated that you do not plan to re-engine the 60 
C-5A aircraft that are in your inventory. You will re-engine 49 
C-5Bs and two C-5Cs. But we have, I think, an overwhelming need 
for more C-17s.
    Now, this subcommittee remembers the C-17 too well because 
on three occasions, three other committees of Congress 
literally voted to terminate the C-17, and we insisted that it 
keep going. We have sort of had a paternalistic feeling for the 
C-17, and I wonder why are we in the position that we are in. 
And we discussed this between us, Mr. Secretary and General, 
the other day, but I think it ought to be on the record.
    What are we going to do with regard to the C-17? And in 
particular, the future combat system vehicles will not fit in 
the C-130. What is their future in view of the limitation on 
the C-17s?
    Mr. Wynne. Thank you very much, Senator, for the question. 
What I would like to do is follow through on what I think are 
the budget implications, and I would ask the Chief of Staff of 
the Air Force to talk about the movement of the operational 
goalposts that we have encountered.

                              C-5 AIRCRAFT

    But first, I will tell you, when we assembled the budget, 
there was a lot of uncertainty around the C-5 program. They 
were going through a Nunn-McCurdy breach. The stipulation was 
that we were still subject to the laws, that we cannot retire 
the C-5s. So we had no way to push beyond the 300 aircraft that 
we were subjected to. So from a perspective of the Department, 
the program was essentially run out.
    We felt that the impact to the industrial base would be too 
great, but we did not get a hearing on that regard. We simply 
were told, look, of all of the things that you want, this does 
not come to the top of the list.
    Over the time--and I will let the chief go through the 
operational impact--this airplane has been an incredible 
workhorse. This airplane is doing magnificent work, and so as a 
result of the Nunn-McCurdy finding, we would upgrade only the B 
aircraft to the 52 C-5M, and we would not do anything other 
than bring the C-5A up to international standards with the 
Avionics Modernization Program (AMP). We added to the unfunded 
requirements list, which yourself and the chairman both 
referred to, a quantity of C-17s to indicate that times were 
changing. And the circumstances now merited a relook at this 
system. And we felt that on the unfunded requirements list, you 
all should know that your Air Force is worried that we need to 
make sure that we have this available to us in the future.
    Chief.
    Senator Stevens. Well, before you start, if we do not put 
up some money for C-17s, will that shut down the line?

                                 C-17S

    Mr. Wynne. I will have to take that for the record because 
we have been really working hard to get some international 
customers to extend that line, but as of yet, many of them are 
still on hold-out status. What they want to do is they want to 
have the United States show enough empathy or stick-to-
itiveness that they will come on board and they will be 
supported for the next 20 years. We are trying to be convincing 
to them that they can do that. I believe that was 14 units that 
we have so far, and we are getting indications there are around 
six more out there. If they all come together, it could hold 
off the closure of the line a little bit.
    Senator Stevens. Thank you.
    [The information follows:]

                                 C-17s

    Production Line Status.--With no additional Air Force 
procurement above 190 aircraft, the Boeing C-17 production line 
will begin to shutdown in 2008. The last contracted foreign 
customer aircraft delivery is scheduled for June 2008 and the 
final production line C-17 (Air Force's 190 aircraft) delivers 
in August 2009. The C-17 aircraft have a 34 month build time. 
Boeing is currently at risk protecting long lead items for 10 
aircraft. Without commitment for more procurement, Boeing may 
halt production on protected aircraft.
    Foreign Sales Status.--Australia was on contract for four 
C-17s. The final Australian aircraft was delivered in January 
2008. Canada is on contract for four aircraft; their fourth 
delivery is scheduled for April 2008. The United Kingdom is on 
contract for a fifth and sixth aircraft. The sixth United 
Kingdom C-17 delivery is scheduled for June 2008. There are no 
other orders for C-17s; however, United Kingdom, NATO Strategic 
Airlift Capability, and Qatar (2 aircraft each) are potential 
remaining foreign customers.

    Senator Stevens. General.
    General Moseley. Senator Stevens, thanks for that question.
    First off, we support the President's budget request. Sir, 
as you know from watching this, this is an affordability issue, 
and as we fit the priorities that we have tried to work inside 
the Department inside of that budget, some things just cannot 
be bought. That doesn't change the operational side of it, but 
it is an affordability issue, and in supporting the President's 
budget request, we put those additional aircraft in the 
unfunded requirements list as an open discussion item that if 
we had another dollar, where would we spend it.
    Sir, on the operational side, I will tell you since we have 
done the mobility capability study in 2005, we have effectively 
had some of the goalposts moved on us. We have had the Army and 
the Marines grow by close to 100,000. We have had the Africa 
Command (AFRICOM) in the business of being stood up, which will 
be a direct mobility command requiring mobility assets no 
different than the Pacific Command because of the size.
    We are told that the Army's future combat systems vehicle 
likely will not fit in a C-130, which means we will have to fly 
it in C-17s to be able to support the Army deployed.
    And, sir, most mine resistant ambush protected vehicles 
(MRAP's), of course, will not fit in C-130s. Only the MRAP 
version RG31, category 1 can be transported in a C-130. This 
MRAP is used by special forces and is currently being produced 
by the Army and Marine Corps. We are having to fly those in a 
variety of assets, C-17 as well as C-5.
    And then, of course, C-5 reliability piece that the 
Secretary mentioned on what we are going to be able to afford 
to modify the C-5s takes us to a lower reliability number on 
the C-5s.
    And then, of course, we are utilizing the C-17s at a much 
higher rate. I am told that we take about 3,500 or so convoys 
off the road every month, and we fly close to 9,000 to 10,000 
folks off the roads every month in C-17s and C-130s to avoid 
improvised explosive devices (IED's), to avoid insurgent 
snipers, et cetera.
    So, sir, I think the operational goalpost has moved a bit, 
but this is still an affordability issue with us, and it is 
hard to fit all of that into the top line we have got.
    Senator Stevens. Well, I do not know. I was critical of the 
move from Germany, moving the Air Force down to Aviano. That 
cost $6 billion. I would have rather seen that put into assets 
we need for the continuing warfighters. But it does seem to me 
that we are going to have to find some money to keep that line 
open.
    Will you keep us informed about the foreign purchases, Mr. 
Secretary?
    Mr. Wynne. Yes, sir, we certainly will.

                           ELMENDORF HOSPITAL

    Senator Stevens. Let me ask sort of a question related to 
our own State. The Elmendorf Hospital is now responsible not 
only for care of the Air Force units that are coming back from 
the war zones, but they are also now taking on the duty of 
taking care of people coming back that have been stationed in 
Fort Richardson. This has resulted in a shortage of medical 
specialists to meet the needs of the hospital.
    Now, we talked a little bit yesterday about this jointness 
situation, and Elmendorf and Richardson are really one piece of 
real estate, and they share that area. I am worried, however, 
about the Air Force having the money to take care of the Army's 
soldiers and to give them the care they need. Are you aware of 
that situation up there, Mr. Secretary?
    Mr. Wynne. Well, sir, first, I want to compliment the 
people at the Elmendorf Hospital because they have really tried 
to get Alaskan people to return to the Alaskan area, thinking 
that it was much easier on the families for them to be taken 
care of there at Elmendorf than it would be to have the 
families travel anywhere else. So, first of all, I stand 
somewhat in awe of the miracles that they can pull off and do.
    Second, I am worried about the retention and the 
recruitment of medical specialists really throughout the 
services. I think we need to pay some more attention there. I 
think as this goes on, we will have some stresses and we have 
tried to address those stresses.
    But my first response is I think it was a great idea to put 
some stress on the hospital to get those Alaska Natives, the 
people who are assigned up to Alaska, back so their families do 
not have to be dislocated.
    Senator Stevens. Well, we applaud the decision because, 
obviously, if they were here at Walter Reed or out at the naval 
hospital, they are going to be 3,000 to 4,000 miles away from 
their family and no way to adjust, particularly those who are 
in a wounded situation.
    We applaud the integration of the Fort Richardson care with 
the Elmendorf Hospital, and I think it is cost effective to do 
that for the military.
    The problem is that it does not seem that the Army is 
putting in the additional amounts of effort, and you are 
limited on what you have got. I really think this is a project 
that has a lot of merit because the Elmendorf Hospital is 
supposedly the Air Force hospital of the Pacific. Fort 
Richardson does not have that standing, and it does not have a 
hospital. I would hope that we find some way to maybe add a 
wing or something to Elmendorf Hospital so the Army people will 
feel that they are part of it. We talked about that yesterday 
too. They welcome the assistance of the Air Force, but they are 
not putting in much money to help. I think that they definitely 
need more assistance there. Ms. Ashworth and I visited those 
people several times now.
    Mr. Chairman, instead of having those people come in and 
get evaluated here and stay here for 2 or 3 weeks or months, 
whatever it might be, they are taken home and their people can 
have access to them. But we need the adjunct facilities that 
will represent the same type of care and analysis that they 
would get here, if this is going to work.
    I hope you will really pay some attention to that, Mr. 
Secretary, because I think it is a critical need right now. We 
have the largest number of individuals per capita in the 
military today that have served overseas. We are a small 
population, obviously, but it is a statistic that I think 
merits an understanding of the need of these people who are 
coming home that need critical care.
    Mr. Wynne. Sir, care of our wounded warriors is a primary 
goal of the Secretary of Defense and of myself. What I can do 
is perhaps have the Elmendorf folks do a patient load forecast 
that gives you some basis for a look at whether the assets are 
sufficient.
    Senator Stevens. Senator Inouye points out they have that 
same situation at Tripler, but there it is the Navy working 
with the Air Force. I think that this combination of the Army 
and the Air Force right now is not working that well.
    I do want to submit for the record a question about the 
combat search and rescue helicopter and ask each of you to 
answer that question. It seems to me that the delay there is 
something we ought to know about, and what is causing it. I 
appreciate your concern.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.

                   TANKER REPLACEMENT CONTRACT AWARD

    Secretary Wynne, I have many questions regarding the 
decision on the aerial refueling tanker, but before I get to 
that, I must raise a related item with you that I am concerned 
about.
    The week of the announcement of Airbus winning the tanker 
competition, there was a paper released by Loren Thompson of 
the Lexington Institute extolling the benefits of the Airbus 
platform and indicating somehow that the Boeing plane was a 
lesser plane. That was right after the decision was made. It 
was prior to Boeing being debriefed and prior to Congress' 
getting debriefing.
    How do you defend the information leaks on this decision 
from the Air Force?
    Mr. Wynne. I cannot defend it. I have inquired and 
conducted an inquiry. I would say that I thought it was a 
travesty for anybody to talk to anybody before we talked to the 
winning and losing candidates.
    Senator Murray. Well, what it looked like from our end was 
that the Air Force was engaging in an ad campaign to fill the 
papers with misinformation that no one could refute because no 
one had been debriefed.
    Mr. Wynne. I actually apologized to the Boeing folks about 
this. It was sort of an unfair, certainly preemptive press 
article.
    Senator Murray. Do you believe a violation occurred?
    Mr. Wynne. Ma'am, I do not know that.
    Senator Murray. I know you stated something similar to that 
yesterday before the House. It leads me to ask how many other 
violations have occurred, who else was talked to, what 
information was given out, who had it, and are there any other 
leaks?
    Mr. Wynne. I would have to say that we try very hard to 
hold a very tight hold. I would say that Loren Thompson seems 
to have sources that are not willing to come forward and say 
that they were the ones.
    Senator Murray. So there are sources within the Air Force 
that were talking to----
    Mr. Wynne. I have no idea.
    Senator Murray. Clearly, I mean, obviously, there had to 
be.
    Mr. Wynne. I have no idea where he got his information 
from.
    Senator Murray. So how are you going to find out?
    Mr. Wynne. I have no means or mechanisms to force a 
subpoena on anybody.
    Senator Murray. Well, that is very troubling because not 
only am I worried about what appears to be a big ad campaign 
before anybody could defend anything or have another story that 
lasted for 1\1/2\ weeks, but if someone is talking to Loren 
Thompson, the question has to be asked who else are they 
talking to. Were they talking to either of the companies? What 
was occurring throughout this process? It leaves a big question 
out there.
    No response?
    Mr. Wynne. No, ma'am. I have told everybody that it is 
improper, and you can only expect that upholding the integrity 
of the process is foremost in everybody's mind.
    Senator Murray. Well, I think it leaves a question for all 
of us on the integrity.
    I have to say I am very perplexed by the outcome of this 
process. After all, the competition was for a replacement of a 
medium-sized KC-135 tanker, but the Air Force selected an 
aircraft larger than the KC-10. I mean, what it looks like from 
my end is that you put out an RFP for a pickup truck to carry 
three-quarters of a ton, and what you selected, at the end of 
the day, was an 18-wheeler. It does not get great gas mileage, 
cannot park where we have parking garages today, and it is a 
completely different concept. So the decision is surprising, I 
think, to everyone.
    But let me ask you, now that you have selected a much 
larger aircraft, what will be the associated cost for our 
military construction budget? Can these Airbus planes fit in 
the hangars that we have today?
    Mr. Wynne. Ma'am, I have done very little work in where it 
goes. I will tell you that it is all part of the evaluation 
that is currently under protest. I will tell you that in the 
request for proposal (RFP) there was no indication of size, and 
I will tell you that in the analysis of alternatives for 
replacing the KC-135, the 330, the 340, the 767, the 777, and 
the 787 were all cited as potential candidates. Every one of 
these suppliers knew the competitors' offerings.
    Senator Murray. Well, Mr. Chairman, in terms of Milcon, I 
think we have to look at longer runways and larger aircraft 
hangars. What is the cost of that? And I hope that we will be 
able to do that.
    Mr. Secretary, I have had a lot of conversations about 
this. I have listened to all the press conferences. I have got 
to tell you I am left with more questions than answers. It has 
become very clear that there were many factors that the Air 
Force did not consider. These include: The pending WTO case 
that the United States now has against the EU regarding the 
illegal subsidies that are provided for the development of the 
Airbus commercial aircraft, the total cost to our Government 
for military construction, the impact of a subsidized R&D on 
the cost for aircraft, potential national security implications 
of outsourcing the backbone of our air superiority to a foreign 
country.
    You know, I have listened to all the Air Force officials 
like Sue Payton and yourself, and I keep hearing the same 
phrase again and again. You said it in your opening remarks. 
``We followed the law and we went by the book.'' Well, the Air 
Force seems to be acknowledging, it seems to me, that there are 
factors of concern that were outside what was required by the 
law to be considered, like national security. And that leads me 
to a very important question.
    Do you feel the procurement process, as it currently 
exists, takes into account all of the factors that should be 
considered when fielding critical defense platforms?
    Mr. Wynne. I will say that the acquisition laws have been 
layered and layered and layered over the years. They are 
extraordinarily complex. It goes to alliances. It goes to 
coalitions. It goes to many aspects of procurement. As you 
know, the Presidential helicopter is, in fact, an international 
offering. The combat search and rescue helicopter (CSAR) has 
international offerings. The C-27 is an international offering. 
It goes to how much of the industrial base of America is 
dedicated. You might not know, but you should know that the 
MRAP's are currently being airlifted by Russian Antonov 
airplanes from Charleston Air Force Base, South Carolina, 
because we believe that is the most efficient way to do it.
    I think if there is a consideration, it has to go very deep 
into how much is America willing to invest in its industrial 
base.
    Senator Murray. Well, is the current process out of line 
from your viewpoint with what is necessary to give a complete 
and accurate picture to meet our defense needs?
    Mr. Wynne. No, ma'am. I think we have gone through this 
over the last several years, and the laws are very clear in who 
they allow to be a competitor.
    Senator Murray. The law is very clear, but I am asking you 
if you think the current procurement process reflects the needs 
of our defense.
    Mr. Wynne. I think right now I worry about the industrial 
base of the future. I think we started to decay our industrial 
base in 1990, and I think our market does not support a large 
industrial base right now.
    Senator Murray. Does the current process put American 
companies at a disadvantage when competing with subsidized 
companies?
    Mr. Wynne. I do not know that. I cannot measure that.
    Senator Murray. Well, Mr. Secretary, this concern is not 
just about utilizing American ingenuity to meet the needs of 
the warfighter. I think we have to consider what an R&D 
investment in a foreign company could lead to. Airbus and EADS 
have already given us plenty of reasons to worry about how hard 
they are going to work to protect American security interests. 
In 2005, EADS was caught trying to sell military helicopters to 
Iran. In 2006, EADS tried to sell transport and patrol planes 
to Venezuela which is a circumvention of U.S. law. They do not 
have to follow our laws, and that really is a concern for me as 
a United States Senator.
    Do you have similar concerns?
    Mr. Wynne. Ma'am, I will tell you from the standpoint of an 
ex-official in the acquisition process, I follow the laws of 
the United States of America to the best of my ability.
    Senator Murray. I have heard you say that many times, and I 
think, Mr. Chairman, that is what gives me pause, that the Air 
Force is following the letter of the law. I think we as 
policymakers have to think whether, to quote a famous author, 
``the law is ass.'' And I think we have to think about whether 
or not our laws are protecting our national security interests, 
our economic interests, and our military infrastructure.
    I have several other questions, but I will wait for the 
next round.
    General Moseley. Senator, might I add a parallel thought to 
my Secretary? Ma'am, I would also say this is about fielding 
capability. This is about being able to field systems on time 
and being able to field systems to replace close to a 50-year-
old airplane that has served us very, very well. To be able to 
look at guardsmen, reservists, or active duty crews, pilots, 
copilots, boomers, or crew chiefs that maintain old airplanes 
and tell them that we will wait while we have the technology 
and the capability to field a new system is something that is 
not a good feeling for a chief of staff. So this is about 
fielding capability to be able to fight this country's wars and 
win.
    Senator Murray. General, I have fought for a long time to 
get these refueling tankers built. I represent men and women in 
my State who fly these. I know they are very old. But I also 
think we as policymakers have to make sure that we are making 
the right policy for future decades about our national security 
and our economic interests for the future and not make a 
mistake in doing that. I want to get those planes up there. I 
want my men and women flying the best, but I do not want my 
national security interest to be at stake as well.
    Senator Inouye. Senator Dorgan.

                             B-52 AIRCRAFT

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me just put in a good word for old airplanes, if I 
might. The B-52 has been around for decades. It is expected to 
last, by your account, by the Defense Department's account, two 
to three more decades. Compare it and the cost to fly it as a 
bomb truck to the B-1 or the B-2 bomber, it is one-third of the 
cost to fly it of the B-2, for example, and much less costly 
than the B-1. Yet, the Air Force's submission to us is to say 
we want to continue to put more of them in Davis-Monthan. We 
want to go down to 56 bombers, B-52s.
    We are funding the F-22 because we are told by the military 
that the F-22 will go in front of everything and knock down all 
the air defenses, and they will do it before anybody ever sees 
them. At that point, with no air defenses, the question is 
which bomb truck do you move in there? Why not the least-cost 
bomb truck if we are short of money? So that raises this 
question of the B-52.

                         NEXT GENERATION BOMBER

    I am in support of the next generation bomber. The 
earliest--earliest--possible date would be 2018, but I think 
all of us understand that is probably not the date that we have 
the next generation bomber. That is what we hope to have. But 
between now and then, what do we do?
    The Air Force has consistently said to this subcommittee we 
want you to go from 94 B-52s down to 56. There are 18 of the B-
52s that are now attrition reserve B-52s, and they are not at 
Davis-Monthan because we are waiting for a bomber study that 
this subcommittee has asked you to do to make sure that we are 
not headed toward a bomber gap if we stick all of these B-52s 
at Davis-Monthan.
    So having that as a background, having said at least one 
kind word about old airplanes here, let me ask you, General, 
what is going to happen with the Air Force and its 
determinations about B-52s? I think the bomber study was 
supposed to have been done last fall. I think it is now 
expected to be out in the next month or two. Can you brief us 
on that?
    General Moseley. Sir, my data says the bomber study is 
undergoing a security review. The Institute for Defense 
Analyses accomplished this independent study as directed by the 
Congress. The Air Force only provided assistance by offering 
factual data and facilitated access to subject matter experts.
    Sir, I will tell you 2018 is a timeline that is doable on 
the new bomber. We have got the plans and programs in place to 
make that happen, and if we can stick to that, if we can let 
the industrial base develop and integrate--because in this 
capability which, of course, we cannot talk much about in this 
forum, we are asking to integrate existing systems, not 
necessarily invent new systems. So 2018 is a doable date.
    You know from watching bombers for as long as you have, the 
B-1, the B-2, and the B-52 are wonderful airplanes, but at some 
point, we have got to have a survivable, penetrating, 
persistent platform that we can go into any airspace and be 
able to persist for the combatant commanders. So I am holding 
to 2018. That is my story.
    Sir, on the B-52s, we have had a couple of things that have 
happened along the way as we submitted the fiscal year 2009 
President's budget request. We are now looking, as we discussed 
before, on taking a squadron of the B-52s and tasking them in 
the nuclear role, unique away from conventional missions, and 
we would rotate that tasking like we do with any of the other 
squadrons in our air expeditionary force (AEF) rotation model.
    General Corley, Commander of Air Combat Command, has not 
come to full detail on this, but I envision taking one of the 
squadrons for a 6-month or a 1-year effective tasking, either 
at Minot Air Force Base, North Dakota, or at Barksdale Air 
Force Base, Louisiana, and making them exclusively nuclear, 
taking the other two squadrons and rolling them into the 
conventional side of this because we still need the ability to 
go to the western Pacific or into the Middle East.
    So, Senator Dorgan, that takes us above 44 combat coded B-
52s. Sir, I do not have the total aircraft inventory (TAI) 
numbers yet because General Corley and I have not been able to 
sit down and flesh out that rotation.
    Senator Dorgan. General, thank you. These bombers are fully 
paid for. They are, again, one-third the cost to fly on an 
hourly basis than the B-2. So I think that is good news in the 
sense that the Air Force has been asking to go to 56, which 
would leave you at 44 combat coded. I understand what you have 
just said.
    I think all of us will await the bomber study because we 
want to have good capability. When I said I want to say a good 
word about old planes, that does not mean--we need new tankers 
and we need a next generation bomber. I understand that, and 
this subcommittee I think will work on it.
    I want to mention two other quick items. Number one, with 
the increase in end strength for the Army and the Marine Corps, 
that raises the question, it seems to me, of whether the Air 
Force has the capability for airlift, close air support, fire 
support for the increases in the Army and the Marine Corps. 
Have you looked at that? What is the situation there?

                         AIR FORCE END STRENGTH

    General Moseley. Senator Dorgan, we have, and that is our 
assessment of the 330,000 end strength. Of course this is like 
the B-52 question. This is an affordability issue, and while we 
support the President's budget request, we are working hard 
inside those fiscal limits to be able to fit all of this 
together. So more to follow on the B-52 side. It is how we put 
that together and rotate those units at Minot Air Force Base 
and Barksdale Air Force Base.
    On the people side, when you look at our plus-up of 
unmanned aerial vehicle (UAV) wings, when you look at our plus-
up of UAV squadrons and wings inside the Air National Guard, 
when you look at our battlefield airmen wing that we have stood 
up, the Army and Marine Corps growth and, of course, the 
attendant Air Force assignments inside the United States Army, 
the brigade combat teams, as that grows, our combat search and 
rescue growth to 141 aircraft, our continued in lieu of 
tasking, which we have about 6,200 folks deployed under that, 
and about 20,000 or so total in the pipeline working either 
going to training or coming back, and then you look at the 
options on a provisional cyberspace command to be able to look 
at that as a force provider for U.S. Strategic Command, sir, 
that takes us to 86 wings to meet the national military 
strategy, the combatant commanders demands, our rotation and 
sustainment model of our 10 AEF's and our abilities to provide 
the capabilities and the capacity forward. That takes us to the 
86 wings and it takes us to that number of about 330,000.

                  UNMANNED AERIAL VEHICLE ACQUISITION

    Senator Dorgan. Is your UAV acquisition on track? We have a 
Grand Forks submission for the UAV. Is the acquisition for 
Predators and Global Hawks on track?
    General Moseley. Sir, with the existing funding, it is. We 
have asked in the unfunded requirements list not only for the 
money for the B-52s, we have asked for a consideration for the 
growth in our end strength, and there is also growth in there 
for additional UAV purchases.
    Senator Dorgan. Mr. Chairman, I want to just make one other 
comment that I want to talk to you about that is not in this 
hearing. I have been taking a look at what has been happening 
with privatization in the military, more in the Army, for 
example, than in the Air Force, but the Air Force is moving, I 
think, rather aggressively now. The hundreds and hundreds--
well, billions of dollars of new housing stock, for example, at 
air bases. My understanding is that there is a proposition to 
privatize and that we will take new housing stock that has been 
built on air bases and we will give them, free of charge, to a 
private contractor who will sign a contract and agree to 
maintain them for 50 years. As I began, my first thought was, 
well, that cannot possibly be the case. I mean, that is 
preposterous.
    But as I began looking into what has been happening on the 
Army side and what the proposals are on the Air Force side, I 
want to have a longer conversation than we would be able to 
have here about this issue of privatization of housing on 
military bases whereby we have new stock that has cost us a lot 
of money and we will turn that over, free of charge, to a 
company who will sign a contract for 50 years. A whole lot of 
companies are not in business after 20 or 30 or 40 years, and 
we are going to give them the free housing stock.
    I will not ask you to answer that, but it is something I 
have become interested in trying to understand to determine 
does this really meet any kind of common sense test in my 
hometown cafe. So, Mr. Secretary, if you and I and General 
Moseley can at some point meet and I can better understand 
what----
    Mr. Wynne. I think we need to bring you the entirety of the 
business plan and we would just have to explain it, and you can 
certainly take a judgment from that.
    General Moseley. Senator Dorgan, one last reminder. Those 
86 wings are Total Force wings. That is a mix of Air National 
Guard, Air Force Reserve, and Active Duty because you know from 
watching us, we do not do anything that we do not do as a Total 
Force.
    Senator Dorgan. Let me just finally say, before my 
colleagues are called on, it is inspiring for you to bring some 
of your airmen along. And to think of landing a C-17 on a dirt 
track someplace in the world--we have got young men and women 
who do extraordinary things all around the world. You inspire 
this committee by bringing them to us. Thank you very much.
    Senator Inouye. Thank you.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, thank you.
    General Moseley, it is great to see you. I am very sorry in 
your new job and in my new role here I do not see you as often 
as I used to. But I can see you and hear about things that are 
taking place in the Air Force, and I am very proud of your 
regime and hope that things are going as well as you had hoped 
and planned for.
    I do want to make an observation with reference to 
infrastructure for manufacturing or the manufacturing 
capability in America and just to give you the benefit of my 
own observation, which leads me to conclude that it must be 
very difficult for you people who serve us to try to get large 
manufacturing contracts issued in a timely manner, then live up 
to expectations, because the United States is not what we were, 
contrary to what our people think and what a good face you put 
on. We have substantially lost our manufacturing capability, 
and we are not doing very well at getting it back. In fact, it 
is getting worse.
    And I will tell you one thing that is contributing 
immensely to it, General. We got by with it before, but $100 a 
barrel oil is ripping America right to the bone. We are getting 
poorer with every passing week as we pay $100 a barrel for oil. 
It is destroying America in ways we do not know right now, but 
it is happening. We are truly getting poorer as a Nation every 
day of the week, every week of the month, and every month of 
the year.
    How could we not when we were dependent for so many years? 
Well, it is one thing to be dependent at $20 and it is another 
thing to be dependent at $100.
    Now, having said that, I am not going to talk about the 
macro problems. I will let the other Senators who have just 
done that do so. I am going to talk about New Mexico a little 
bit with you because we have some exciting things happening 
there.
    Holloman Air Force Base is scheduled to become home to two 
F-22A Raptor Squadrons. Right? I appreciate the Air Force 
budget request for Milcon for Holloman associated with the new 
squadrons. If funds are appropriated by Congress, when will 
that construction be completed?
    General Moseley. Sir, I believe that is about 2011, but if 
you will allow me to take that for the record, I will get that 
information to you.
    Senator Domenici. I would appreciate it if you would give 
that to us.
    [The information follows:]

             F-22 Military Construction at Hollomon AFB, NM

    Construction completion dates for the five fiscal year 2009 
F-22 military construction projects for Holloman AFB, NM are 
shown below:

                          [Dollars in millions]
------------------------------------------------------------------------
                                   Programmed      Estimated Completion
         Project Title               Amount                Date
------------------------------------------------------------------------
F-22 Add/Alter Flight Simulator            $3.2  March 2010
 Facility.
F-22 Add/Alter Aircraft                     1.1  October 2009
 Maintenance Unit.
F-22 Add/Alter Jet Engine                   2.2  January 2010
 Maintenance Shop.
F-22 Alter Hangar Bay for Lo/              14.5  September 2010
 Composite Repair Facility.
F-22 Aerospace Ground Equipment             4.6  March 2010
 Facility.
------------------------------------------------------------------------

   F-22 MILITARY CONSTRUCTION AT HOLLOMAN AIR FORCE BASE, NEW MEXICO

    Senator Domenici. Are the F-22s still slated to begin 
arriving at Holloman the first quarter of 2009?
    General Moseley. Sir, I believe so. We have not changed any 
of the delivery dates. But also, let me take that for the 
record to get you an exact time.
    Senator Domenici. Would you do that?
    [The information follows:]

               F-22 Delivery Schedule to Holloman AFB, NM

    The first F-22A should actually arrive at Holloman Air 
Force Base, New Mexico in the third quarter of fiscal year 
2008. Maintenance training begins at Holloman in June 2008. 
Current plans show additional aircraft begin arriving in 
December 2008 at a rate of approximately two per month. The 
final contract delivery date of the 40th F-22A for Holloman is 
the second quarter of fiscal year 2011.

    Senator Domenici. Will you tell us a little bit about the 
plan to utilize the Air Force Reserve at Holloman as part of 
this new mission?

                        TOTAL FORCE INTEGRATION

    General Moseley. Sir, we believe that of all of our new 
systems, when we field a new tanker, the C-17, the F-22, the F-
35, everything that we do we do as a Total Force. The Virginia 
guardsman sitting behind me here is a lieutenant colonel who 
flies the F-22 at Langley Air Force Base in the 149th Squadron, 
which is a Virginia Guard squadron.
    Also, the Air Force Reserve will fly the airplane at 
Elmendorf Air Force Base in Alaska and at Holloman Air Force 
Base in New Mexico, and the Air National Guard will have the 
lead on the squadrons in Hawaii at Hickam Air Force Base. And 
as we flesh those wings out, we will have better capability in 
the Total Force with a lot more access to a lot more talent and 
skill. So, sir, of the four operating locations that we have 
now, we have two Air National Guard and two Air Force Reserve 
embedded alongside the Active.
    We have been in some discussions with the Air National 
Guard also on some other options for beddown of the airplane. 
Those are exciting, but we are still facing affordability 
challenges and affordability issues which gets us to the 
numbers of airplanes and the capacity. Sir, we continue to work 
that.

                                 F-22A

    Senator Domenici. Well, I understand the Air Force needs 
more F-22s. Would you tell us about that either for the record 
or now?
    General Moseley. I will speak for me and then let my boss 
parallel. But we support the President's budget request, and 
the numbers that we have now are 183. And those are 
affordability issues, and the affordability piece of this is to 
continue to try to balance our allowance inside the Department.
    Mr. Wynne. Sir, we were very pleased that the Secretary of 
Defense and the President determined that they could allow the 
next administration to make the judgment call and that they had 
said by letter to the Congress that they were intending to put 
four additional airplanes in the fiscal year 2009 supplemental 
request. We worry and have personal views on that, but we 
support the President's budget request as submitted.
    Senator Domenici. My last question has to do with something 
that I think is dear to your heart, and that is Cannon Air 
Force Base because that is the home of the new Air Force 
Special Operations Wing. That is something brand new and you 
are dedicated to making it work. We are dedicated to help you, 
if we can, make it work.
    From an Air Force perspective, how is this new mission 
proceeding so far?

    AIR FORCE SPECIAL OPERATIONS--CANNON AIR FORCE BASE, NEW MEXICO

    General Moseley. Sir, this is very exciting for us. We have 
a base now with an attendant range which is Melrose, with an 
attendant association with the White Sands Missile Range, an 
attendant association with the New Mexico Air National Guard on 
a variety of levels, an attendant relationship with the 49th 
Wing at Holloman Air Force Base and in the restricted airspace, 
with an attendant with the Army at Fort Bliss, Texas. So from 
Melrose Range through the restricted areas, all the way to the 
White Sands Missile Range and Fort Bliss through Holloman Air 
Force Base to Cannon Air Force Base, we now have some 
opportunities to do some very, very creative training. We have 
the open airspace, the training ranges, and the gunnery and 
bombing ranges that we need out of Holloman and Cannon Air 
Force Base. But I think equally important, it gives us an 
incredible capability to marry Guard, Reserve, Active, as well 
as partnerships with the Army.
    And so, sir, we have been very, very pleased that we have 
had a chance to work with the community and get those ranges 
certified so we can fire our 105 millimeter and all the guns 
that we have on the AC-130s and perhaps even the new potential 
on an AC-27 with a 30 millimeter gun that we will be able to 
use there. So, sir, this has got some real exciting 
opportunities ahead of us.

       CONSOLIDATED COMMUNICATION FACILITY--CANNON AIR FORCE BASE

    Senator Domenici. General, I know I have passed over my 
time by a bit, but the Air Force needs a consolidated 
communications facility at Cannon. We know it is needed. Can 
you tell us when does the Air Force intend to budget for it?
    General Moseley. Sir, we have talked to our communications 
folks about that, and if you will let me take that for the 
record, I will get you a funding line and an operational 
capability date.
    [The information follows:]

         Consolidated Communications Facility at Cannon AFB, NM

    The Air Force plans to program/budget for this 
communications facility in fiscal year 2010. Given no delays 
due to award protests, modifications, or weather, the Air Force 
estimates the initial operating capability for the facility 
will be in the spring of 2013.

    Mr. Wynne. Sir, if I can add. We are very excited about the 
integration effort, and that is the area where the simulation 
facility and the communications facility is targeted to make 
the most out of all of these assets that the Chief of Staff has 
enumerated.
    Senator Domenici. Mr. Secretary, I want to tell you that 
this base becoming a completely different kind of Air Force 
base is exciting, and I think it is exciting that you got it 
started. It got started under your leadership. It is something 
the Air Force will be looking at and lauding for quite some 
time in my opinion. Thank you.
    General Moseley. Senator, it also lets us wrap up that unit 
at Albuquerque, New Mexico, which is such a historically 
capable unit. As you know, we are looking at the follow-on 
capabilities, the follow-on opportunities for that unit, but 
when you think about Albuquerque, you think about Kirtland, 
Cannon, and Holloman Air Force Bases, and the White Sands 
Missile Range, and Fort Bliss, Texas. There are some wonderful 
opportunities out there because of the communities, but also 
because of the ranges and the size and expanse of the ranges, 
which is exactly why we put the F-22 at Holloman Air Force Base 
and we are looking at the Special Operations wing at Cannon Air 
Force Base.
    Senator Domenici. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.
    A few observations and then a couple of questions to you, 
General and Secretary Wynne.

                   TANKER REPLACEMENT CONTRACT AWARD

    Regarding the tanker situation, in competition there are 
always winners and losers. Some States win, some States lose. I 
understand that well. In this case, if this goes through, as I 
hope it will, Mobile, Alabama will become an industrial base 
for the assembly of these tankers and probably other things. 
Today we only have, as I understand, Toulouse, France and the 
Seattle, Washington area that are capable of doing this. We 
will have more capability.
    But I also believe that if the Air Force and Members of 
Congress wanted the tanker program to be a job creation program 
for a particular company, they would have scrapped competition. 
We all benefit from competition. The Air Force benefits from 
competition. Instead, the intent, as I understand it, General 
Moseley, was to provide our men and women, the warfighters, 
with the best air refueling aircraft in the world at the best 
value for the American taxpayer. Is that correct?
    General Moseley. That is correct, sir.
    Senator Shelby. It is also important to note, according to 
the Congressional Research Service, Congress has never--never--
intervened to overturn the outcome of a competitive source 
selection.
    Now, you alluded to it, Mr. Secretary. We do have a regular 
order here. The Air Force made a selection after looking at the 
criteria. I understand that Northrop-Grumman-EADS plane was 
judged superior in four out of five of the main measurements 
and tied, I think, for one. But there is a due process here. I 
understand that Boeing, as they have a right to, has protested. 
That goes to the Government Accountability Office. They have 
100 days, I understand, to evaluate all aspects of this bidding 
process, and they can--and correct me if I am wrong--ratify the 
process that went on, the selection process, amend it, or 
reject it and recompete. General Moseley, do you want to talk 
about that?
    General Moseley. Sir, that is my understanding.
    Senator Shelby. It is due process. Is it not, Mr. 
Secretary?
    Mr. Wynne. Yes, sir. Boeing has exercised that right.
    Senator Shelby. And we will await that. That is something 
that we have set up for the Government Accountability Office, 
an arm of Congress, to look at this objectively. Is that 
correct?
    Mr. Wynne. Yes, sir, and we have asked the tanker program 
office to work closely with the GAO and answer every question 
that they are asked.
    Senator Shelby. Is that right, General Moseley?
    General Moseley. That is my understanding, sir.
    Senator Shelby. Thank you.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    Thank you, Secretary Wynne and General Moseley, for 
appearing before the subcommittee today.

                    AIR FORCE MODERNIZATION STRATEGY

    As I discussed with you last year and the year before, I 
remain extremely troubled and concerned about Air Force 
management, its current modernization strategy, and its 
unwillingness to consider alternative courses of action to meet 
current and future threats. The current Air Force strategy 
fails to address sufficiently the impact on the industrial 
base, particularly that of the fighter industrial base in St. 
Louis, which on its current path will be out of fighter 
production business in 2013. And through sole-sourcing of the 
F-35 Joint Strike Fighter, a stupendously bad decision I warned 
against before it was made, it has diminished competition, 
resulting in significant delays and resulted in tremendous cost 
growth because there was no competition.
    Just today, the GAO has released a report indicating that 
the F-35 costs are going to hit $1 trillion--trillion with a T. 
And they say the costs went up $23 billion last year alone. GAO 
found that the program has been dogged by delays, manufacturing 
inefficiencies, and price increases. That comes as no surprise 
when there is no competition. The GAO said costs have gone up 
by $23 million and the auditors said they expect development 
and procurement costs ``to increase substantially and schedule 
pressures to worsen based on performance data.''
    Now, I am also told that there will most likely be a Nunn-
McCurdy breach on the F-35, but somehow the Defense Acquisition 
Board is claiming scheduling delays which delays the 
announcement of what I believe is inevitably a Nunn-McCurdy 
breach and possibly delays our taking action in this 
subcommittee to deal with the problems of a Nunn-McCurdy 
breach.
    Now, the F-22, the F-35, and the C-5 RERP program all have 
tremendous cost growth and/or delays to various degrees as 
well. Yet, the Boeing St. Louis industry team has consistently 
delivered to its Navy and Air Force customers platforms that 
pound for pound and dollar for dollar are the best in this 
fiscal environment and are the most effective at defeating the 
current threats.
    Air Force costs for major programs are depleting the highly 
skilled and difficult-to-replace workforce necessary to build 
the next generation of manned and unmanned aircraft. These high 
costs result in the inability of the Air Force to equip fully 
the future force which usually results in much fewer flying 
missions for the Air National Guard as well. With the cost 
overruns and the lid on the purchase of F-22s, we all know 
there will never be enough F-22s to supply the Air Guard with 
those planes and continuing to purchase those unduly expensive 
planes will make it impossible to fill the gaps with other 
aircraft that are needed.
    We saw this coming in the BRAC 2005 process, again, flawed 
process, regrettably. I think major mistakes were made.
    And recently, of course, as my colleague from Washington 
has pointed out, the Air Force made the decision to award a 
large portion of a $40 billion contract to a Government-
subsidized European company, and it now looks like the Air 
Force's entire analysis may be half-baked. The Air Force has a 
lot of explaining to do about the waste of taxpayer dollars on 
excessive base construction at Air Guard bases to accommodate 
the European model, and I do not believe that was ever taken 
into account. We cannot find anybody in the Air Guard who was 
asked about how much construction, how much Milcon costs would 
go into making their facilities large enough, strong enough to 
handle the European model. And there was a total lack, as far 
as I have been able to find out, of coordination with the Air 
National Guard during consideration of these costs.
    Not only did the Air Force make the decision to award that 
contract to a Government-subsidized European company, but the 
more we hear about it, it sounds like the entire selection 
process has raised serious questions and will, undoubtedly, add 
many hundreds of millions of dollars to Milcon.
    Flawed Air Force policy is going to put the jobs of hard-
working American men and women at risk, as well as further 
diminishing--and it is important--further diminishing the long-
term U.S. competitive capacity, workforce skills, and supplying 
the aircraft we need to meet the ongoing missions. In the 
current fight against terrorism, we need capable, proven 
platforms to accomplish those missions. I think everybody here 
knows we need more C-17s to push cargo into the theater, to 
conduct all the tasks that you outlined. And we have to rely on 
Russian-made Antonov AN-124 transport aircraft to transport 
MRAP's overseas? To me that is inexcusable and a little bit 
embarrassing. And the C-5 RERP program is confronting 
significant costs in scheduled programs.
    Now, if you take a look at what is available and what the 
needs are, I continue to believe that we need F-15 Strike 
Eagles with significant payload and range to put bombs on 
targets in places like Afghanistan and Iraq. F-22s may defeat 
high-tech enemy fighters, but they cannot deliver ordnance on 
caves and bunkers in those countries. We need modernized F-15s, 
F/A-18s, and F-16s with AESA radars and integrated electronics. 
These are the ideal platforms for putting bombs on the target, 
defeating the enemy. Additional, more modernized F-15s and F-
16s are needed for the air sovereignty alert mission, paramount 
to defending U.S. airspace. Continuing to put all the emphasis 
on buying F-22s is not going to get the job done for our 
homeland security.
    Now, on the other side, the Navy's acquisition strategy has 
recognized that an expected shortfall in modernization dollars 
may require an adjustment in the mix of aircraft necessary to 
equip the future force. They have adopted a plan B. Why has the 
Air Force not? I know the figure of 383 F-22s is based on your 
required force model, and we all know that that is what the Air 
Force's plan A is. However, plan A is unrealistic. We do not 
need F-22s to hunt terrorists or perform air defense missions 
over the homeland, and it is unsustainable in the current 
fiscal environment. Where are we going to come up with $20 
billion a year to recapitalize the Air Force?
    The Air Force has been told this by civilian leadership 
repeatedly, from Secretary Gates to civilian leaders in DOD and 
the Congress, and yet, it does not appear, at least to me, that 
you have a plan B. The Air Force, like the Navy, needs to come 
up with a plan B that addresses the reduced number of F-22s.
    And after today's report, the reduction in F-35s due to 
continued cost growth and delays in fielding, such a plan B, I 
would suggest to you, for TACAIR looks like something like a 
mixture of F-22s and modernized legacy platforms like the F-15 
and the F-16. Failure to do so is going to leave a huge gap in 
our force structure, creating unacceptable risk, and I would 
regret to tell my friends in the Air Guard that they are likely 
to be history unless you start buying airplanes that we can 
afford and they will be able to fly.
    There are significant challenges before the Air Force that 
I look forward to working with you on to address. I share your 
commitment to ensuring our Air Force continues to maintain air 
dominance, but I hope you will be more receptive to discussing 
realistic alternatives.
    I will submit my questions for the record. We have had 
these question and answer sessions in the past, but my 
statement today reflects my grave concern that we have not 
gotten from plan A, which is not going to happen, to plan B, 
which could happen.
    I thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    Working toward common goals in a joint environment without 
compromising service-specific principles, culture, and 
tradition makes good sense. However, I question whether it is 
realistic, and I would like to get your thoughts on how you 
think this can be successful. Or do you see potholes on the 
way?
    Mr. Wynne. Well, sir, I would say it this way, that there 
are always economies to be done by doing things together where 
you can have a service provider in a region. Much like Senator 
Stevens talked about on the hospital, if you would get to the 
right size at Elmendorf Hospital, you can service the patient 
load up there. That does not mean that you should not have a 
ready clinic on Fort Richardson, for example.
    But I think at the local level, I would like to see the 
local commanders come to an agreement. I think they have the 
best perspective and the best view as to where the savings 
could accrue in a joint service environment, and I believe 
there is a need for that. And I think the services should 
remain in the organize, train, and equip functions.
    And we should not lose sight of the local level because I 
believe that is where our morale is. Many times that is where 
our culture exists. It does not really exist here in 
Washington, DC, although we are surrounded by culture. It 
really exists at the local level in the field, whether it is 
Shaw Air Force Base, Charleston Air Force Base, or McGuire Air 
Force Base. All of that is where the Air Force culture is, and 
I know my colleagues in the other services feel precisely the 
same way. The Navy reveres Pearl Harbor. We revere Hickam Air 
Force Base.
    Senator Inouye. Does the joint basing agreement permit this 
type of localized control?

                              JOINT BASING

    Mr. Wynne. At the present time, I think the decisions look 
to me like they are going to be made very centrally. We have a 
decision that has been rendered that takes away some of the 
control that the service secretaries might have in the process. 
It is done with the thought that economics should rule over 
culture.
    I would say that at present I worry about the impact as we 
proceed down that road, and I particularly have concerns where 
the Air Force has made investments and now we will be forced to 
essentially petition through another service. I worry that it 
might be confusing to the subcommittee as to why is it that the 
Air Force hangars are being pursued by the Army or the Navy. 
Why is it that the Army barracks or ranges are being pursued by 
the Air Force? I am not concerned today because today the 
mission is overwhelming. I am concerned about 3, 4, or 5 years 
from now.
    Senator Inouye. Am I to gather from your response that we 
should set this joint basing agreement aside for at least 1 
year to give the service chiefs and service Secretaries time to 
reflect upon it?
    Mr. Wynne. Well, as a believer of the BRAC, as you remember 
from the Government side, I had a vision for joint basing that 
would be concluded by 2011 on an agreement basis. I do not 
think a year delay would affect us. However, I understand 
everybody has got a good sense of trying to get on with it. I 
would in the year, rather than put it on a hold basis, ask to 
generate local agreements to see what could be done and what is 
appropriate to be done because I do think that there are some 
savings out there, and I know doing it properly, there is some 
money to be saved.
    Senator Inouye. General Moseley.
    General Moseley. Sir, I think it is well understood in the 
services that we organize, train, and equip by service, by 
domain. The United States Army is the finest army in the world 
and it operates to dominate the land domain. The same with the 
Navy for the maritime domain. We have Special Operations, and 
for the Air Force, we live to dominate air and space, as we are 
all looking together at a cyberspace domain. We recruit, we 
train, and we develop, and we promote, and we command as 
services. We fight jointly but we operate and organize training 
and equip functions under the title 10 of the U.S. Code.
    My competencies are not land or maritime, nor is my 
service. If the Joint Chiefs were all standing here together, 
we would say that we bring together the things that matter for 
a combatant commander. I have listened to and learned from an 
Army Chief and a Chief of Naval Operations and a Marine Corps 
Commandant relative to their domains. And so anything that 
begins to fuzz those lines or anything that begins to inhibit 
the ability to organize, train, and equip, sir, I think we have 
to take a look at.
    And I believe joint basing is a good idea. I believe 
looking at the services capability--and I do not mean services 
as Army, Navy, Air Force, Marine Corps, but base operating 
support and services to look at synergies to be able to save 
money, save resources is a wonderful idea and we should pursue 
that. But as we begin to look at things that impact command 
authority or execution of the command, then I think we have to 
be very careful.
    Senator Inouye. I personally think you have made your case 
and we are going to work toward that.
    May I ask another question? What is the latest status of 
the combat search and rescue helicopter?

                  COMBAT SEARCH AND RESCUE HELICOPTER

    Mr. Wynne. It has, as you know, also been subject to a GAO 
review on a couple of occasions. We hope to get resolution by 
August or September of this year. Once it gets into a process 
like this, we are asking for resolicitations. Those have been 
in. Now we are in the process of reevaluating the outcome.
    General Moseley. Mr. Chairman, I would like to add an 
operational piece to this also. This is about being able to go 
pick people up in combat. The United States Air Force does this 
for the entire joint team. It is a core competency for us, and 
I believe it is a moral imperative to be able to go pick up a 
downed person or a party. That is what we do for combatant 
commanders in the Pacific and combatant commanders in Europe 
and in Southern Command and also in Central Command. And this 
captain sitting behind me has dedicated his life to be able to 
do that.
    So the notion of being able to get on with this and field 
the capability and give it to our squadrons so we can get into 
a much more capable, survivable, penetrating platform is my 
desire. And that is why the two of us have made that the number 
two acquisition priority in the United States Air Force.
    Senator Inouye. I concur with you, sir. I have had some 
experience. It took me 9 hours to be evacuated from my point of 
combat to the field hospital, and with this new combat search 
and rescue helicopter, you might be able to do it in 15 
minutes. That is the difference between life and death. You 
have my vote.
    Mr. Wynne. Yes, sir.
    Senator Inouye. Senator Murray.
    Senator Murray. Thank you, Mr. Chairman. I appreciate the 
time.
    Mr. Secretary, despite the leaks that have apparently 
occurred that allowed a spin to be created out there for some 
amount of time, I do want, for the record, to ask you, because 
I know you have said this already. Both planes were good planes 
in the competition.
    Mr. Wynne. We would have been proud to fly in either one.
    Senator Murray. Thank you, Mr. Secretary.
    For the record, on behalf of myself--and I know that the 
Senator from Alabama has good reason to be excited about the 
potential for some jobs in his State. We have worked hard 
together on many, many issues--I would say that I think 
competition is great, and I encourage competition.
    But I think we all ought to give great pause to the fact 
that this is not a level playing field when one of the 
companies is heavily subsidized and, therefore, can offer a 
contract at much less cost, to the detriment of a United States 
company. So I think that is a question that really should give 
us all pause, and I know that I will be pursuing that in other 
places as well.
    Mr. Secretary, I wanted to ask you. I know you cannot 
answer any questions about the contract itself. I understand 
the process that we are in and I understand the proprietary 
information. So let me go away from that and ask you a 
philosophical question that I wonder if you have pondered: Is 
the United States Air Force ready for another country's air 
force to have the same capabilities that we do?
    Mr. Wynne. Well, it very much depends upon the character of 
the device or airplane that it is. I would say the Air Force 
would prefer to be the dominant air force in the world in 
probably all of its aspects.
    That having been said, the way that the competition is 
rendered, I think that we husband now a lot of the inner 
technologies that allow us to be the most lethal air force in 
the world, and we have----
    Senator Murray. But does it concern you?
    Mr. Wynne [continuing]. Front-loaded some of the logistics.
    Senator Murray. You mentioned earlier that you are worried 
about our military complex. Does that concern you?
    Mr. Wynne. I am very much concerned about the industrial 
base in air, the industrial base in space, and we have an 
emerging industrial base in cyberspace, and I hope they stay 
with us.
    Senator Murray. Well, let me talk about national security 
for a minute. I think we all know that the Air Force is the 
finest in the world, exemplified by the amazing men and women 
behind you. And I congratulate and thank each one of them. The 
all-volunteer force has been flying nonstop in defense of our 
Nation. They have done an incredible job. I am extremely proud 
of the two Air Force bases in my home State and the men and 
women who serve there.
    But what really perplexes me is that when we procure new 
assets for the Air Force, the leadership does not take into 
account the wider view to include the preservation of our 
domestic aerospace industry when it outsources contracts. My 
understanding is that the Navy, in fact, does, Mr. Chairman, 
have rules regarding domestic production of our assets. Why 
does the Air Force not have the same requirements?
    Mr. Wynne. Ma'am, I would say it this way, that the 
shipbuilding industry is a powerful force in our economy and in 
our marketplace, and we would actually like a similar caucus to 
appear as with the aerospace industrial base to focus on the 
aerospace industrial base. And I am not really just talking 
about the prime level, but at the third tier and the fourth 
tier, people that are essentially ignored when we come even to 
questions like long lead and we do not realize that the landing 
gear manufacturer down in the fourth tier or the supplier to 
the landing gear manufacturer cannot make a market with a very 
low or ignored long-lead funding.
    So I would tell you that where I am it is very hard to 
essentially structure a competition after the competition has 
concluded. It would have been much better to structure the 
competition in advance.
    Senator Murray. Well, we are where we are, and the reality 
of what we have not done in the past is now in our face, and I 
think it is something we seriously need to look at. I think you 
would share that concern.
    Mr. Wynne. I think the way that our industrial base is 
shrinking, especially in the aerospace and space industry, is 
something that the Congress should take a look at.
    Senator Murray. I am hearing from a lot of my constituents 
and people across the country who--obviously, the economic 
times when our economy is headed toward a recession, if not 
there, the fact that we are spending $40 billion, maybe more, 
for jobs that will be mostly overseas is, I think, particularly 
distressing to a lot of Americans.
    But let me leave that aside for a minute and focus really 
on the national security implications of a contract like this. 
If this contract is carried out and goes to Airbus, France, 
Germany, others, Russia, what happens in the future if one of 
those governments disagrees with us on foreign policy? What if 
they decide they want to slow down our military capability for 
whatever reason? What is the Air Force's plan if Airbus pushes 
back deliveries?
    Mr. Wynne. Well, right now we have an agreement among 
allies. You are reaching into policy areas where I really have 
no knowledge. I can only tell you that the agreements and the 
suppliers that we have on that particular airplane have been 
loyal to American policy for decades and decades and decades. 
So I really cannot go out there and now declare somehow that 
because they have been judged winners and they intend to 
provide 25,000 jobs here in America, that somehow they are, 
downstream, going to be bad.
    Senator Murray. Though we cannot predict the future, what 
if they decide they are not going to do replacement parts 
because of some policy that we have that they disagree with; 
whether it is our policy in the Middle East or elsewhere?
    Mr. Wynne. I really hesitate to go anywhere near that.
    Senator Murray. And these were not questions that you 
mulled about in going through in awarding this contract at all?
    Mr. Wynne. No, ma'am. They were not aspects of the law that 
we followed.
    Senator Murray. And I keep hearing you go back to that 
darned law.
    Okay. Well, let me ask you about another issue because from 
what I have been reading in the press, the main shareholders of 
EADS, France and Germany, have been working to usurp the 
authority to deny investment in Airbus by other foreign 
entities and countries. And that effort has been stymied by the 
EU, therefore adding the possibility that holdings by Russia 
and the UAE could be increased from their current levels. It 
also adds the possibility that other foreign governments could 
become part owners of Airbus.
    Was this instability of EADS considered at all, and if so, 
was it factored into the aggregate risk associated with the KC-
45A bid?
    Mr. Wynne. I do not believe that was a consideration. It is 
not a consideration in any competition that we are in.
    Senator Murray. So when we talk about risk and we are 
looking at those kinds of risks, you do not take into account 
that entire----
    Mr. Wynne. We assess the financial capability of the 
company as a part of a manufacturing look. This is a very 
stable financial company, a lot of sales around the world, 
competing, going to compete for, I believe, 25,000 airplanes 
over the course of the next 20 years. They looked very stable 
to us.
    Senator Murray. Well, Mr. Chairman, I know I have taken 
considerable amount of time here. It seems to me that this 
hearing for me has raised as many questions, if not more, than 
I came in with. I obviously have serious concerns about our 
national security. I think every Member of Congress should. I 
have serious concern about awarding a contract to a company 
with which we are in a trade dispute, a serious trade dispute, 
at the WTO over illegal subsidies. I have serious concerns 
about economic impact in the infrastructure. I hope that we can 
meet again in the near future to talk about this competition 
not only to focus on some of the questions I have raised here, 
but on the contracting process as well.
    And I will submit some questions for the record.
    But I think these are serious issues that we as 
policymakers at this incredibly important moment, when we are 
going to decide something that will impact us for not just a 
few months or a few years, but really for decades to come. We 
have to think about that as we move forward, and I urge this 
subcommittee to look into those concerns. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you.
    Senator Shelby.
    Senator Shelby. Mr. Chairman, I will be brief.
    General Moseley, Mr. Secretary, do you believe that the Air 
Force did the right thing in making the award, and do you 
believe that they selected the best plane for your mission? 
General Moseley.
    General Moseley. Sir, I believe with the rule set that we 
have and the competition and the offerings we had, we got us a 
good airplane, and I am willing to fly it.
    Senator Shelby. Mr. Secretary.
    Mr. Wynne. Sir, we went through a very rigorous 
examination. We had a lot of interchange with the clients. I 
recognize that Boeing has asserted their right to protest, but 
we did, at the time, believe we bought the right airplane for 
the right price.
    Senator Shelby. Thank you.
    Senator Inouye. I have tried my best to stay out of this 
controversy, but in order to clarify certain things, we have 
been told that the Northrop-Grumman contract involves a foreign 
country or foreign countries providing certain supplies of 
parts. Does Boeing have any foreign involvement, or is it all 
American-made?
    Mr. Wynne. I believe that Boeing does have some 
international suppliers.
    Senator Inouye. May I ask from what countries?
    Mr. Wynne. Sir, I would have to get you that for the 
record, but it would not surprise me to think they were 
similar.
    General Moseley. Sir, please let us take that for the 
record. We will have to do some research on specifically what 
countries produce what subassembly and what parts. Sir, I do 
not know that right now.
    Senator Inouye. But you are certain that both companies 
have foreign involvement.
    General Moseley. Yes, sir. That is my understanding.
    [The information follows:]

    The details of the 767 tanker Boeing proposed are 
proprietary and source selection sensitive. Since a protest has 
been filed with the Government Accountability Office, we cannot 
include such information in this written response. However, we 
can provide it verbally in a closed briefing, if requested.
    According to the February 26, 2008 Assessment of FAA's 
Risk-based System for Overseeing Aircraft Manufacturers' 
Suppliers by the Department of Transportation (Report Number 
AV-2008-026), parts of the commercial 767 airframe are built in 
Japan and Italy.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Mr. Secretary, General, I will be 
submitting several questions for your consideration, and I hope 
you will respond to them. And I wish to thank you for your 
testimony this morning and your service to our Nation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Michael W. Wynne
            Questions Submitted by Senator Daniel K. Inouye
                              end strength
    Question. Secretary Wynne, the Air Force has reevaluated its 
planned personnel drawdown. Instead of drawing down to 316,000 airmen 
by the end of fiscal year 2009, you would like to grow to 335,000 
airmen by fiscal year 2015. This revised plan will cost $385 million in 
fiscal year 2009 and is not included in the budget request. If these 
additional personnel are vital to carrying out the Air Force's mission, 
why are they not included in the President's request?
    Answer. Due to fiscal constraints, the Air Force will reduce our 
active duty end-strength to 316,600 in fiscal year 2009. This level 
clearly falls short of our required force of 330,000 active duty end-
strength for fiscal year 2009, which increases to 335,000 by fiscal 
year 2015 due to force structure growth in CSAR-X, Predator and Global 
Hawk, KC-X, Distributed Common Ground Systems, and Battlefield Airmen.
    The Air Force's required force--``what's needed per the 2006 
Quadrennial Defense Review''--is 86 modern combat wings with 330,000 
Active Duty Airmen in fiscal year 2009 growing to 335,000 by fiscal 
year 2015. However, without additional resources, the Air Force has to 
balance risk within its portfolio.
    With fiscal year 2007 Program Budget Decision 720, the Air Force 
planned to reduce 40,000 Active Duty, Guard, Reserve, and civilian 
full-time equivalents in order to submit a balanced budget and self-
finance the critical recapitalization and modernization needed to 
preserve America's air, space, and cyber superiority. An end strength 
of 316,600 seeks to balance the risk of deferring recapitalization and 
modernization with the risk of maintaining an end strength below our 
required force.
                          c-5 reliability/rerp
    Question. Secretary Wynne, the reported mission capable rate for 
the C-5 aircraft in fiscal year 2007 was about 52 percent. We 
understand that the primary factors for the low rate are inadequate 
maintenance and lack of investment in spare parts. Rather than 
investing an additional $6 billion to re-engine the aircraft, why not 
put additional funding into maintenance and spare parts?
    Answer. As opposed to the marginal utility offered with increases 
in sustainment funding, C-5 RERP will provide a significant increase in 
C-5 fleet availability by replacing the propulsion system and over 70 
unreliable systems and components, eliminating the need for additional 
peacetime manpower requirements in the reserve components, which is the 
primary cause of the aircraft's currently low MC rate. Moreover, the 
new engines will improve aircraft performance, allowing the modified 
aircraft to carry more weight longer distances while burning less fuel. 
RERP for the C-5B is a smart investment from the standpoint of both 
reliability and performance.
    (Additional funding for aircraft spares only provides a marginal 
improvement in C-5 mission capable (MC) rates. Aircraft spares have 
historically been funded to 100 percent of the MC rate standard (75 
percent for Active Duty and 50 percent for Reserve Components) so 
additional sustainment funds may add little or no benefit to MC rate 
improvement. There are different MC rate standards for the reserve 
components because they serve as our strategic reserve for airlift 
capacity. In time of war, their manpower and sustainment footing is the 
same as the active duty and they have the same wartime MC rate 
standard.)
                             unfunded list
    Question. Secretary Wynne, a recent Congressional Research Service 
report states that between fiscal year 1998 and fiscal year 2009, the 
budget of the Department of Defense has grown by forty-four percent. 
The Air Force budget has obviously been a part of the total growth over 
those years. Despite the exponential growth of the budget, the Air 
Force has submitted an Unfunded Requirements List totaling over $18 
billion. What is the message that the Air Force is trying to convey to 
this Subcommittee with a list of 150 items that are current 
requirements but not included in the budget request?
    Answer. Global trends over the last decade have presented 
significant challenges to our organization, systems, concepts and 
doctrine. Would-be adversaries are developing asymmetric approaches to 
attack vital levers of U.S. power and ascendant powers are posturing to 
contest U.S. superiority with ``Generation 4-plus'' fighter aircraft, 
increasingly lethal air defense systems, proliferation of surface-to-
surface missiles and a resurgence of counter space capabilities. 
Demands for Intelligence, Surveillance, and Reconnaissance (ISR) and 
space capabilities, that simply did not exist a decade ago, as well as 
a renewed emphasis on modernization and emerging cyberspace threats to 
meet existing and expected challenges have placed significant stress on 
our baseline budgets.
    The Air Force fully supports the fiscal year 2009 President's 
budget request and is appreciative of the increased funding over the 
last decade. These funds have given us the resources to win today's 
fight, take care of our people, and slowly modernize for tomorrow's 
challenges. While the fiscal year 2009 budget provides a moderate 
increase over the fiscal year 2008 budget and enables us to meet 
today's global commitments, additional funding is necessary to ensure 
Air, Space and Cyberspace dominance for the 21st Century. The fiscal 
year 2009 Unfunded Requirements List (URL) identifies our most critical 
needs should additional funding be made available. The majority of the 
URL is tied to the weapon systems, personnel, and support necessary to 
equip our Required Force of 86 modernized combat wings.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                           kirtland afb brac
    Question. Among other things, Kirtland Air Force Base is home to 
the Nuclear Weapons Center, 58th Special Operations Wing, and two Air 
Force research laboratories. Where is the Air Force at in transitioning 
AFRL's Space Weather work to Kirkland, as required by the 2005 BRAC?
    Answer. The Air Force intends to transition AFRL's Space Weather 
work from Hanscom AFB, MA to Kirtland AFB, NM in time to meet the BRAC 
mandated deadline of September 15, 2011. The estimated $42.7 million 
military construction project to support the transition has an 
estimated contract award date of May 30, 2008.
                        joint new mexico efforts
    Question. New Mexico offers a number of assets of critical 
importance to the Department of Defense, and I'm pleased the Department 
is taking advantage of those assets by locating F-22 at Holloman, 
Special Operations Forces at Cannon, research and space work at 
Kirkland, and a variety of test and evaluation work at White Sands 
Missile Range (WSMR). Additionally, Fort Bliss often does work in New 
Mexico, either on its own land or on WSMR land.
    What are you doing to coordinate joint training and testing 
initiatives among these groups? Will you work with the Secretary of the 
Army to ensure that the Army's and the Air Force's work in New Mexico 
and Texas are coordinated and cooperative whenever possible?
    Answer. U.S. Joint Forces Command's Joint National Training 
Capability (JNTC) provides the overarching policy and guidance for 
coordinating joint training. Joint training activity involving the New 
Mexico facilities and Fort Bliss, TX will include Fort Bliss Patriot 
batteries and Special Operations forces participating in JNTC 
accredited and certified exercises.
    The Air Force and Army continuously seek opportunities to improve 
joint operations and activity. The Air Force is working closely with 
the Army to expand the use of the White Sands Missile Range and 
Holloman AFB, NM airspace for F-22 training. Joint Air Force-Army 
activities are addressed at the highest levels including the recent 
2008 Army-Air Force warfighter talks conducted by both Services' Chiefs 
of Staff. The Air Force and the Army are both capitalizing on local 
joint training and exercise opportunities for joint intelligence, 
surveillance, and reconnaissance assets, conventional Army forces, and 
Air Force close air support units.
    The Distributed Mission Operations Center (DMOC) at Kirtland AFB, 
NM remains the hub for connecting the Air Force and other Service 
participants, in a live-virtual-constructive arena. The DMOC Army Air 
and Missile Defense units have been habitual training partners and 
serve as both Red and Blue air defense in these exercises.
    There is an initiative to develop a coordinated range scheduling 
and utilization system to help improve range space utilization on 
Holloman AFB, NM and White Sands Missile Range. The Air Forces ranges, 
Edwards and Eglin Air Force Bases, along with White Sands Missile Range 
are participating in the Common Range Integrated Instrumentation System 
managed out of Eglin AFB, FL--a Central Test and Evaluation Investment 
Program (CTEIP) initiative. Another CTEIP initiative that may involve 
test and training in the future is the Unmanned Aerial Vehicle System 
Operations Validation Program being managed at Holloman AFB, NM. 
Another CTEIP space initiative is the Space Threat Assessment test bed 
at Kirtland AFB, NM managed by the Space Development and Test Wing.
                             new mexico ang
    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty forces to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
will soon be retired.
    What is the Air Force doing to develop a new mission for the Air 
National Guard at Kirtland Air Force Base? Has the Air Force considered 
giving Block 40 or 50 F-16s to the 150th to enable them to continue 
providing their outstanding service to New Mexico and the United 
States?
    Answer. As the Air Force, Air National Guard and Air Force Reserve 
Command continue to plan for programmed retirements of the legacy 
fighter fleet of A-10, F-15, and F-16 aircraft, we are analyzing ways 
to expand our Total Force capability in the fiscal year 2010 budget by 
considering building more classic and active associate units at Regular 
Air Force and Reserve Component locations, respectively. As we work 
through this Total Force Integration analysis, we will review all Air 
National Guard (ANG) and Air Force Reserve Command unit locations, to 
include the 150th Fighter Wing at Kirtland AFB, NM to support a 
potential future active association or to participate in a classic 
association. In the Chief's Roadmap released on January 16, 2008, 
Kirtland AFB, NM is a potential beddown location for the F-35 and CSAR-
X. All future beddown locations will be impacted by Total Force 
Integration efforts and Environmental Analysis/Impact Study results. 
Currently there are no Block 40 aircraft available to transition the 
New Mexico ANG. However, the Air Force in coordination with the 
National Guard Bureau, is constantly reviewing aircraft allocations and 
adjusting aircraft beddown locations as the missions of the Air Reserve 
Component and the Regular Air Force evolve. The 150th Fighter Wing 
assigned aircraft will continue to be an important part of a 
comprehensive force structure optimized for national defense.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                              cost overrun
    Question. What is the amount of the current cost overrun for the F-
22 program? What is the amount of the current cost overrun for the F-35 
program and are reports that the program will result in a Nunn-McCurdy 
cost breach accurate? What is the amount of the current cost overrun 
for the C-5 modernization program? How many Nunn-McCurdy cost breaches 
has the Air Force experienced in the past 10 years? With a concern that 
these questions may be related, I am interested in knowing if the Air 
Force has an industrial base strategy and policy--and if so to explain 
to members of the committee the policy's goals and successes if any?
    Answer. There is currently no cost overrun on F-22 since the last 
Selected Acquisition Report (SAR) baseline. This baseline adjustment in 
2007 was only in military construction due to cost growth for bed-down 
of new F-22 squadrons. The F-35 is experiencing normal cost and 
schedule pressures but is not at risk for a Nunn-McCurdy breach in 
fiscal year 2009. The December 2006 SAR reflects approximately 38 
percent unit cost growth since Milestone B. Contrary to the GAO report, 
the preliminary data for the December 2007 SAR shows no growth in Nunn-
McCurdy measures from SAR 06 to SAR 07. The F-35 prime contractor is 
currently updating their estimated cost at completion. Preliminary 
estimates reflect increased costs between $1.2 and $1.5 billion over 
the remaining development contract. The Department has kicked off a 
joint independent government cost assessment which is supported by a 
team of Air Force, Navy, and OSD cost experts to support the 2010 
President's budget request, which will be reflected in the December 
2008 SAR. With respect to the cost overrun for the C-5 Reliability 
Enhancement and Re-engining Program (RERP), it is $4.4 billion. The 
overrun is based upon a comparison of the approved February 2005 
Acquisition Program Baseline and the January 2008 independent cost 
estimate accomplished by OSD in support of the RERP Nunn-McCurdy 
certification process.
    The Air Force has experienced a total of 25 Nunn-McCurdy unit cost 
breaches in the past 10 years (1998-Present). A significant portion is 
attributable to the additional criteria established in the fiscal year 
2006 National Defense Authorization Act (NDAA). The following breakout 
is provided for clarification: There were 15 breaches prior to the 
fiscal year 2006 NDAA, four breaches due to the fiscal year 2006 NDAA 
Section 802 directing initial implementation of the Original Baseline 
Estimate, and six breaches since implementation of fiscal year 2006 
NDAA (breaches against both Original and Current Baseline Estimate).
    Air Force leadership recognizes a healthy industrial base as an 
essential element of successful acquisition. As such, the Service has 
developed a comprehensive policy contained in Air Force Policy 
Directive 63-6, Industrial Base Planning. The goals of this policy are 
consistent with the Department of Defense's desired attributes for an 
industrial base; namely, one that is reliable, cost-effective, and 
sufficient. The Air Force is laying the groundwork for an industrial 
base strategy to support this policy and recently stood-up an Air Force 
Industrial Base Council as a forum to identify and address emerging 
industrial base issues.
    Examples of Air Force industrial base successes include efforts to 
provide a domestic source for specialized batteries and to improve 
industrial capability to produce large-scale composite structures. 
Under the authority provided by Title III of the Defense Production 
Act, the Air Force began a three-year, $8.7 million effort with Enser 
Corporation for thermal battery production in 2005. In 2006, a combined 
Air Force, Office of the Secretary of Defense, National Reconnaissance 
Office, Missile Defense Agency, and National Aeronautics and Space 
Administration four-year, $84 million program was initiated under Title 
III to ensure domestic supply and production of space-qualified Lithium 
Ion batteries. Finally, in 2007, the Air Force initiated a three-year, 
$15 million effort to increase the production rate of large-scale 
composite structures by making improvements in manufacturing equipment 
and processes. A new Integrated Automated Advanced Fiber Placement 
Machine replaces the current time-consuming operation with the 
capability to automatically and precisely control placement of the 
fiber required to produce complex, large-scale composite structures, 
such as aircraft wingtips, control surfaces, inlet ducts, and engine 
nacelles, resulting in increased production rates and cost 
efficiencies.
                              f-22 plan b
    Question. Your boss Secretary Gates, DOD civilian leadership, and 
elected civilian leaders in the Congress, have all stated that 183 is 
the number of F-22s. The Navy's acquisition has recognized that an 
expected shortfall in modernization dollars may require an adjustment 
in the mix of aircraft necessary to equip the future force. I know the 
383 is based on your ``Required Force'' model and we know what your 
Plan A is. However, Plan A is unrealistic and unsustainable in the 
current fiscal environment and to meet the current threat. You have 
been told this by civilian leadership repeatedly and yet, you don't 
appear to have a Plan B? What Plan B are you seeking to ensure AF fills 
the delta of 200 tactical fighter aircraft in the likely event that 
only 183 F-22's are procured and we see less than the projected number 
of F-35 aircraft because of continued cost growth and delays in 
fielding?
    Answer. The Air Force is committed to the strategic imperative of 
providing Global Vigilance, Global Reach, and Global Power through 
cross-domain dominance to underwrite the security and sovereignty of 
the nation. The Air Force plans to implement this imperative by 
developing the QDR-directed 86 combat wing capability. Key to providing 
the air dominance element is a healthy recapitalization and 
modernization plan for replacing aging, less capable legacy platforms, 
but affordability of necessary capability is a major challenge to 
successfully achieve the Air Force's recapitalization objectives. The 
Air Force is encouraged by President Bush's and Secretary Gates' 
position to defer a decision on the F-22A line shut-down and ultimate 
numbers to the next administration. From a strategic perspective, the 
Air Force plans to increase the operational capability of some legacy 
air superiority platforms (e.g., F-15 Golden Eagles) while examining 
other future force structure alternatives to provide additional air 
dominance capacity.
                      four-corner basing plan f-22
    Question. How many aircraft must the Air Force procure in order to 
establish a four-corner basing plan for F-22 aircraft and establish a 
roadmap that provides for the substantive involvement of the Air 
National Guard in the air supremacy and homeland defense missions?
    Answer. 460 F-22s are needed to fully bed down F-22s at active duty 
and at the ``Four Corner'' Air National Guard locations. This provides 
all Air National Guard combat-coded bases with 24 primary aircraft 
authorizations. In this proposed plan, F-22s deliver to Four Corner Air 
National Guard bases in calendar year 2014.
                           retirement of c-5
    Question. What is the current Air Force position on the retirement 
of C-5 aircraft? If USAF is provided the authority to retire older C-5 
aircraft will the Air Force POM for more than the (15) C-17 aircraft in 
the current UFR list? Does the Air Force UFR take into account the 
Army's requirement to transport the future family of Army ground 
vehicles in C-17 transports and the projected growth in Army and USMC 
ground forces?
    Answer. We are conducting internal analyses to determine the future 
of the C-5As, including the number and mix of aircraft necessary to 
meet future requirements. Within current budgetary constraints we are 
unable to program for additional C-17s. A fiscal year 2008 procurement 
provided by a Global War on Terror Supplemental, as well as the 15 C-
17s on the fiscal year 2009 Unfunded Requirements List, offer the 
ability to keep the C-17 production line open while we continue to 
evaluate emerging airlift requirements. Those requirements include the 
92,000 person increase in ground forces, future combat system (FCS) and 
Mine Resistant Anti-Personnel (MRAP) transport and U.S. Africa Command 
stand-up.
                     kc-x and military construction
    Question. I recently received reports that the Air National Guard, 
which manages 41 percent of the air tanker assets at 20 facilities 
across the nation (three of which will be closed due to BRAC) was not 
consulted on the KC-X tanker solicitation. Additionally, concerns have 
been conveyed to my office that there are significant MILCON costs 
associated with the Airbus-KC45 because of the size differential 
between the Airbus-KC45, Boeing-767 and the KC135 tanker variants. 
Reports indicate that the MILCON costs associated with the Airbus-KC45 
will be significantly higher than the costs associated with the Boeing-
767, a factor that in the longer term may prohibit the future 
participation of the Air National Guard in the tanker mission.
    (1) Can the Air Force explain why it would not consult with its 
strategic partner in the Air Force tanker mission on what is clearly 
the most important tanker decision the service will make in the next 50 
years? (2) What are the projected MILCON costs associated with the 
Airbus-KC45 basing plan to include new hangar facilities, support 
equipment, ramp and runway upgrades if required and how will weight and 
size restrictions of the Airbus-KC45 impact operational effectiveness 
in comparison to the Boeing-767? (3) How did projected MILCON costs for 
the Airbus-KC45 and Boeing-767 factor into the final decision?
    Answer. (1) The Air Force did consult with the Air National Guard 
regarding the KC-X program. A member of the National Guard Bureau 
participated in the development of the requirements and supported the 
KC-X source selection as a subject matter expert.
    (2) MILCON costs include new buildings, modifications to existing 
buildings, new hangars, ramp expansions, and relocation of fuel 
hydrants. Specific costs for the KC-45 are source selection sensitive, 
and since a protest has been filed with the GAO, they cannot be 
included in this written response.
    Aircraft characteristics such as size and weight were accounted for 
in the Integrated Fleet Aerial Refueling Assessment, one of the five 
evaluation factors. The comparison of this assessment for the two 
aircraft is source selection sensitive; we can provide this information 
verbally in a closed briefing, if requested.
    (3) One of the five source selection evaluation factors was Most 
Probable Life Cycle Cost (MPLCC). MILCON is one component of the MPLCC. 
It was not weighted or considered separately.
                                 ______
                                 
           Questions Submitted to General T. Michael Moseley
             Question Submitted by Senator Daniel K. Inouye
                              cyber domain
    Question. General Moseley, the Air Force appears to be staking out 
new territory with the recognition of cyber warfare as a separate 
domain and the stand-up of the new Air Force Cyber Command in October 
of last year. Your recent White Paper on the 21st Century Air Force 
asserted that cyberspace superiority is essential for success and is 
the enabler for air, land and sea warfare. Could you elaborate on what 
you mean by cyberspace superiority and what steps are needed to attain 
it?
    Answer. We define Cyberspace Superiority as the degree of dominance 
in cyberspace of one force over another that permits the conduct of 
operations by the former and its related land, air, sea, space, and 
special operations forces at a given time and place without prohibitive 
interference by the opposing force. [taken from Draft AFDD 2-X: 
Cyberspace Operations (version pending)]
    To achieve cyberspace superiority, the Air Force must take these 
steps:
  --Develop an organized, trained, and equipped force capable of 
        integrating, synchronizing, and executing cyber operations 
        across the full spectrum of conflict.
  --Field diverse capabilities to hold our adversaries at risk in and 
        through cyberspace across the globe.
  --Foster strong ties with other Services, government agencies, 
        industry, and academic institutions to share intelligence, 
        strategy, technology, and intellectual capital.
  --Develop a globally networked command and control capability able to 
        coordinate extensive and simultaneous regional and trans-
        regional effects, and able to operate in and through a 
        contested cyberspace environment while maintaining data 
        integrity and able to recognize loss of integrity.
  --Develop and sustain the supporting technical, intelligence, and 
        command infrastructures needed to plan, conduct, and assess 
        cyber operations.
                                 ______
                                 
           Question Submitted by Senator Christopher S. Bond
                      foreign military sales f-22
    Question. General Moseley, are you aware of congressional concerns 
and the law prohibiting foreign military sales of the F-22? If so, can 
you explain your position in support of opening up discussions on FMS 
for the F-22? This again, is counter to civilian leadership and current 
law.
    Answer. I am aware of Congressional concerns about foreign military 
sales of the F-22, and understand the Obey Amendment. I would welcome 
the opportunity to discuss export of the F-22 should Congress and the 
Secretary of Defense wish to do so in the future. Just as we require 
airpower capabilities to defeat adversaries, our allies have similar 
requirements for appropriate airpower capabilities.

                          SUBCOMMITTEE RECESS

    Senator Inouye. This subcommittee will reconvene on 
Wednesday, April 2, at 10:30 a.m., and at that time we will be 
in closed session to receive testimony on the space programs. 
Until then, we will be in recess.
    [Whereupon, at 12:09 p.m., Wednesday, March 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]





















       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:41 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Feinstein, Mikulski, Murray, and 
Stevens.

                         DEPARTMENT OF DEFENSE

                        Medical Health Programs

STATEMENT OF LIEUTENANT GENERAL ERIC B. SCHOOMAKER, 
            SURGEON GENERAL, UNITED STATES ARMY AND 
            COMMANDER, UNITED STATES ARMY MEDICAL 
            COMMAND

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I'd like to welcome all of the witnesses as 
we review the DOD medical services and programs. There will be 
two panels. First we'll hear from the Service Surgeon General, 
General Eric Schoomaker, Admiral Adam Robinson, Jr., and 
Lieutenant General James G. Roudebush.
    Then we'll hear from our Chiefs of the Nurse Corps, General 
Gale Pollock, Admiral Christine Bruzek-Kohler, and Major 
General Melissa Rank.
    While many of our witnesses are now experts at these 
hearings, I'd like to welcome the General, and Admiral Robinson 
to our subcommittee for the first time. I look forward to 
working with all of you to ensure the future of our military 
medical programs and personnel.
    Over the past few years, decisions by leaders of the 
Department forced the military healthcare system to take 
actions which are of grave concern to many of us in this 
subcommittee.
    For example, in 2006, DOD instituted the efficiency wedge, 
cutting essential funding from our military treatment 
facilities. These funding decreases were taken from the budget 
before the service could even identify potential savings, 
raising numerous concerns over the proper way to budget for our 
military health system, especially during a war.
    To help alleviate this shortfall, Congress provided relief 
to the services in fiscal year 2007 and 2008, and directed that 
the Department of Defense reverse this trend in future years. 
And we are encouraged to hear that the Department of Defense is 
making a concerted effort to restore these funding shortfalls 
in the next fiscal year.
    A military to civilian conversion was another alarming 
directive established by DOD. As we saw in the so-called 
``efficiency wedge,'' adjustments were forced upon the services 
without the necessary research into short-term and long-term 
feasibility and affordability. Since DOD had no plans to 
reverse this course, Congress directed it to halt 
implementation.
    I'm aware of the difficulties this presents to the service 
medical accounts, and the service military personnel accounts, 
and so I look forward to working with all of you to address 
these issues during our deliberations on the fiscal year 2009 
DOD appropriations bill.
    For the third year in a row, the Department is requesting 
the authority to increase fees for retired military in order to 
decrease the exponential growth in military healthcare costs. 
While I recognize the Department's dilemma, the approach must 
not cause undue financial burden on our military retirees.
    To compound the problem, DOD's fiscal year 2009 budget 
request assumes that $1.2 billion requests--comes out in 
savings associated with this authority, which will likely be 
rejected, once again, by this Congress.
    These are some of the challenges, I think, we will face in 
the coming year. We continue to hold this valuable hearing with 
service Surgeons General and the Chiefs of the Nurse Corps as 
an opportunity to raise and address these and many other 
issues.
    And so I look forward to your statements and note that your 
full statements, all of them, will be made part of the record, 
and it is now my pleasure to call upon the senior member of 
this subcommittee, my vice chairman, Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman, again, 
my apologies for being late.
    I welcome General Schoomaker and Admiral Robinson, and of 
course, I'm happy to see General Roudebush here again. I would 
ask that my statement along with a statement from Senator 
Cochran be placed in the record, in view of the fact that I've 
already delayed this hearing.
    Senator Inouye. Without objection, so ordered.
    [The statements follow:]
               Prepared Statement of Senator Ted Stevens
    Thank you, Mr. Chairman.
    I also want to welcome the Surgeons General and the Chiefs of the 
Nurse Corps today, who are here to testify on the current state of the 
military medical health system and the medical readiness of our armed 
forces.
    General Schoomaker and Admiral Robinson, I welcome both of you in 
your first appearance before this subcommittee. We look forward to 
working with you in the future on the tough medical issues that face 
our military and their families.
    General Roudebush, it is nice to see you here again.
    This past year has shown great progress in addressing the health 
needs of our soldiers, sailors, marines and airmen, whether it be 
mental and psychological counseling after deployments, or more enhanced 
prosthetics that gets our servicemembers back into the fight. I 
experienced a prime example of how joint our medical health care system 
can be, when the Air Force stepped up at Elmendorf Hospital and 
provided quality care for the returning Army brigade at Fort Richardson 
this past November. To my knowledge, it is the only Air Force hospital 
taking care of an Army brigade.
    It is amazing how the medical corps of each service are always 
willing to step up and deliver the highest quality of care to those who 
are constantly putting their lives on the line, no matter what uniform 
they wear.
    There will be many more challenges that will face the future of 
military healthcare, and I look forward to working with all of you in 
the future to ensure that we continue to make progress. Thank you for 
your testimony.
                                ------                                

               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, I am pleased to join the members of the committee in 
welcoming our witnesses this morning.
    I think it is important to note that while each of the service 
secretaries and chiefs testified before this committee on separate 
occasions over the last few weeks, the medical leadership of all the 
services join us today as a group, representing the truly joint effort 
that they have undertaken to care for our military members, veterans, 
family members. The efforts of the men and women you represent, from 
the battlefield, to the hospitals and clinics, have been nothing short 
of heroic.
    I look forward to discussing medical care for our forces and to 
hearing how this year's request ensures the necessary resources are 
provided so our servicemembers and their families receive the best care 
possible.

    Senator Inouye. And now may I call upon one who is looked 
upon by the medical Services as the angel, Senator Mikulski.
    Senator Stevens. Angel?

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. I don't know--even Senator Stevens was 
taken aback.
    Thank you very much, Mr. Chairman. I just want to welcome 
both the Surgeons General, as well as the head of the military 
Nurse Corps here.
    I want our military to know that many of our colleagues are 
over on the White House lawn welcoming the Pope. They're in 
search of a miracle, and I'm here in search of one, too.
    But, we look forward to your testimony today, to talk about 
the momentum and achievements that we've made to move beyond 
the initial Walter Reed scandal, to look at the shortages of 
healthcare providers in the military, because the ops tempo is 
placing great stress on physicians, nurses and other allied 
healthcare, and also the clear relationship between the 
military and the Veterans Administration (VA)--essentially the 
implementation of the Dole-Shalala report, and how we're moving 
forward on that.
    The rest of my comments will be reserved for, actually, in 
my questions, and I'll just submit the rest of my statement 
into the record.
    Thank you very much, Mr. Chairman.
    Senator Inouye. I thank you.
    [The statement follows:]
           Prepared Statement of Senator Barbara A. Mikulski
    Our military health care system must be reformed to focus on 
people. It is not enough to have the right number of doctors, if there 
are not enough nurses and not enough case managers or other allied 
professionals to support both the wounded warrior and the military 
health care workers that care for the wounded warrior.
    Technology won't solve these problems. Meaningful health care 
reform must address the underlying organizational problem to ensure we 
have a system that serves. We must recruit and retain first-rate health 
care professionals. We must break down the stovepipes between the DOD 
military health system and the VA long-term care system to ensure our 
wounded warriors a fast and effective transition between systems.
    Over 30,000 troops have been wounded in Iraq and Afghanistan. Our 
troops shouldn't be wounded twice. We know that acute care for our 
injured troops has been astounding. We have historic rates of survival 
and we owe a debt of gratitude to our military medical professionals. 
While we have saved their lives, we are failing to give them their life 
back. I have visited Walter Reed and met with outpatients. I'm so proud 
of their service and sacrifice for our Nation, and so embarrassed by 
the treatment they have received.
    I'm grateful to the Dole-Shalala commission for their excellent 
report. Their report should be the baseline for reforming our military 
health system. To ensure our military health system serves our wounded 
warriors and their families, supports their recovery and return, and 
simplifies the delivery of care and disabilities.
    We need our Surgeons General and the heads of our Military Nurse 
Corps to fight hard to achieve this reform. To fight hard to break down 
stove pipes between DOD and the VA, to recruit and retain first-rate 
doctors, nurses, case managers, and other allied health professionals 
that support them, to ensure a fast and effective path from DOD to VA 
systems, and to think out of the box on solutions to address the 
nursing shortage.
    Our soldiers have earned the best care and benefits we can provide. 
They should not have to fight another war to get the care they need.

    Senator Inouye. And now our first witness, Lieutenant 
General Eric B. Schoomaker, Surgeon General of the United 
States Army.
    General.
    General Schoomaker. Thank you, sir. Chairman Inouye, 
Senator Stevens, Senator Mikulski, and other distinguished 
members of the subcommittee, thank you for providing me this 
opportunity to discuss Army medicine, and the Defense Health 
Program. I truly appreciate the opportunity to talk to you 
today about the important work that's being performed by the 
dedicated men and women, both military and civilian, of the 
United States Army Medical Department, who personify the AMEDD 
value of selfless service.
    Sir, as you mentioned in your opening comments, this is 
about taking care of people, this is about taking care of 
soldiers and their families and members of the uniformed 
services as a whole, and so let me start by talking about how 
we, in the AMEDD, are working to promote best practices in 
care, and addressing some of the concerns about rising costs.
    In the Army Medical Department, we promote clinical best 
practices by aligning our business practices with incentives 
for clinicians for our administrators and commanders. We simply 
don't fund commanders with what they received last year with an 
added factor for inflation which rarely, in past years, has 
covered the true medical inflation, anyway.
    We also don't pay, simply, for productivity, we are not 
just about building widgets of care--we focus on quality and 
best value for the efforts of our caregivers. At the end of the 
day, that's what our patients and that's what my own family 
really wants, they want to remain healthy, and they want to be 
better for their encounters with our healthcare system. And we 
address that through the emerging science of evidence-based 
medicine, and focusing on clinical outcomes. We want to be 
assured that we're just not building widgets of healthcare, 
that don't relate, ultimately, to improvement in the health and 
well-being of our people, and ultimately I think this is what 
they deserve.
    We've used a system in Army medicine of outcomes-based 
incentives for almost 4 years now. It was implemented across 
the entire medical command last year after the initial trial of 
several years in the Southeast Regional Medical Command where I 
was privileged to command. I believe very strongly in this 
approach, it promotes our focus on adding value to people's 
lives through our efforts in health promotion and healthcare 
delivery, and frankly what this has resulted in the Army, in 
the last 3 to 4 years, has been a measurable improvement in the 
health of our population, and the delivery of more healthcare 
services, every year, since 2003.
    As Army medicine and the military health system move 
forward, I have three principal areas of concern that will 
require attention over the course of the next year, and 
probably the next decade.
    These concerns relate to, first of all, our people. I think 
as you've so aptly pointed out, sir, the people are the 
centerpiece of the Army, and they're the centerpiece of Army 
medicine.
    Second, we're focused upon--I'm focused upon the care that 
we deliver, and our distributed system of clinics and 
hospitals, what we call ``the direct care system,'' the 
uniformed healthcare system.
    And finally, I'm concerned about our aging facility 
infrastructure.
    Let me begin with our people--the professionalism, the 
commitment and the selfless service of the men and women in 
Army medicine really, deeply impresses me, whether they're on 
the active side in the Reserve component, or civilians. And 
frankly, throughout this 5 or 6 years of conflict, without the 
Reserve components, we could not have survived. I've been in 
hospitals, and in commands in which as many as one-half or two-
thirds of our hospitals have been staffed by Reserve component, 
mobilized nurses and physicians, administrators who are back-
filling their deployed counterparts.
    Nothing is more important to our success than a dedicated--
our dedicated workforce. I've charted our Deputy Surgeons 
General, Major General Gale Pollock, whom you'll hear from in a 
few minutes. Also, dual-hatted as our Chief of the Army Nurse 
Corps, and our new Deputy Surgeon General I brought with me 
today, David Rubenstein, Major General David Rubenstein, to 
develop a comprehensive human capital strategy for the Army 
Medical Department that's going to carry us through the next 
decade, and make us truly the employer of choice for healthcare 
professionals.
    An effective human capital strategy is going to be a 
primary focus of mine for the duration of my command. 
Recruiting and retaining quality professionals cannot be solved 
by a one-size-fits-all mentality. Rather, we need to address 
our workforce with as much flexibility and innovation, and 
tailored solutions as possible, specific to corps, specific to 
individuals, specific to career development.
    Your expansion of our direct hire authority for healthcare 
professionals in last year's appropriations bill was a clear 
indicator to me of your willingness to support innovative 
solutions in solving our workforce challenges. And as our human 
capital strategy matures, I will stay closely connected to you 
and your staff to identify and clarify any emerging needs or 
requirements.
    Second, I'd like to emphasize the importance of the direct 
care system, in our ability to maintain an all-volunteer force. 
One of the major lessons that has been reinforced throughout 
the global war on terror (GWOT) over the last several years, is 
that the direct care system is the foundation for caring for 
wounded, ill, and injured soldiers, sailors, airmen, marine, 
Coast Guardsman.
    All of our successes on the battlefield, through the 
evacuation system, and in our military medical facilities, 
derives from this direct care system that we have. This is 
where we educate, where we train, where we develop the critical 
skills that we use to protect the warfighter and save lives. 
Frankly, the success of combatants on the battlefield to 
survive wounds is a direct relationship--direct reflection--of 
what skills are being taught and maintained in our direct care 
system, every day.
    As a foundation of military medicine, the direct care 
system needs to be fully funded, and fully prepared to react 
and respond to national needs, particularly in this era of 
persistent conflict. The Senate--and this subcommittee in 
particular--has been very supportive of our direct care system, 
and I thank you for recognizing the importance of our mission, 
and providing the funding that we need.
    Last year, in addition to funding the direct care system in 
the base budget, you provided additional supplemental funding 
for operations and maintenance, for procurement, for research 
and development and I thank you for providing these additional 
funds. Please continue this strong support of Army facilities 
and our system of care, and for the entire joint medical direct 
care system.
    My last concern is that we maintain a medical facility 
infrastructure that provides consistent, world-class healing 
environments. We need environments that improve clinical 
outcomes, patient and staff safety, that recruit and retain 
staff, and I think those of you who are familiar with some of 
our newer facilities know that instantly, it sends the message 
to staff and patients alike, that we as a nation, are invested 
in their care and in their development.
    The quality of our facilities, whether it's medical 
treatment, research and development, or support functions, is a 
tangible demonstration of our commitment to our most valuable 
assets--our military family, and our military health systems 
staff.
    In closing, I want to assure the Senate that the Army 
Medical Department's highest priority is caring for our wounded 
ill and injured warriors and their families--I'm proud of 
Army--of the Army Medical Department's efforts for the past 232 
years, and especially over the last 12 months. I'm convinced 
that, in coordination with the Department of Defense, the 
Department of Veterans Affairs, we've turned the corner on 
events over the last year.
    I greatly value the support of this subcommittee, and I 
look forward to working with you closely over the next year. 
Thank you for holding this hearing today, and thank you for 
your continued support of the Army Medical Department and 
warriors that we are most honored to serve.
    Thank you, sir.
    Senator Inouye. I thank you very much, General.
    [The statement follows:]
      Prepared Statement of Lieutenant General Eric B. Schoomaker
    Chairman Inouye, Senator Stevens, and distinguished members of the 
subcommittee, thank you for providing me this opportunity to discuss 
Army medicine and the Defense Health Program. I have testified before 
congressional committees three times this year about the Army Medical 
Action Plan and the Army's care and support for our wounded, ill, and 
injured warriors. It is the most important thing we do and we are 
committed to getting it right and providing a level of care and support 
to our warriors and families that is equal to the quality of their 
service. However, it is not the only thing we do in Army medicine. In 
fact, the care we provide for our wounded, ill, and injured warriors 
currently amounts to about 9 percent of the outpatient health care 
managed by Army medicine. I appreciate this opportunity to talk with 
you today about some of the other very important work being performed 
by the dedicated men and women--military and civilian--of the U.S. Army 
Medical Department (AMEDD) who personify the AMEDD value ``selfless 
service.''
    As The Surgeon General and Commander of the U.S. Army Medical 
Command (MEDCOM), I oversee a $9.7 billion international healthcare 
organization staffed by 58,000 dedicated soldiers, civilians, and 
contractors. We are experts in medical research and development, 
medical logistics, training and doctrine, health promotion and 
preventive medicine, dental care, and veterinary care in addition to 
delivering an industry-leading health care benefit to 3.5 million 
beneficiaries around the world.
    The MEDCOM has three enduring missions codified on our new Balanced 
Scorecard:
  --Promote, sustain, and enhance soldier health;
  --Train, develop, and equip a medical force that supports full 
        spectrum operations; and
  --Deliver leading-edge health services to our warriors and military 
        family to optimize outcomes.
    In January of this year I traveled to Iraq with a congressional 
delegation to see first-hand the incredible performance of Army 
soldiers and medics. I was reminded again of the parallels between how 
the joint force fights and how the joint medical force protects health 
and delivers healing. I have had many opportunities over the last year 
to meet wounded, ill and injured soldiers, sailors, airmen and marines 
returning from deployments across the globe. On one occasion, I spoke 
at length with a young Air Force Non-Commissioned Officer--an Air Force 
Tactical Air Controller in support of ground operations in Afghanistan 
who had been injured in an IED explosion. His use of Effects Based 
Operations to deliver precision lethal force on the battlefield and in 
the battle space was parallels the use of precision diagnostics and 
therapeutics by the joint medical force to protect health and to 
deliver healing. We strive to provide the right care by the right 
medic--preventive medicine technician, dentist, veterinarian, community 
health nurse, combat medic, physician, operating room or critical care 
nurse, etc.--at the right place and right time across the continuum of 
care.
    Effects Based Operations are conducted by joint forces in the 
following manner:
  --Through the fusion of intelligence, surveillance, and 
        reconnaissance;
  --Through the coordinated efforts of Civil Military, Psychological, 
        and Special Operations capabilities to include the combined 
        efforts of Coalition & host-nation forces;
  --Through precision fires from appropriate weapon systems with 
        coordinated mortar, artillery, and aerial fires in an effort to 
        reduce collateral damage to non-combatants and the surrounding 
        environment;
  --By going beyond the military dimension--it also involves nation 
        building through humanitarian assistance operations which are 
        worked in close coordination with Non-Governmental 
        Organizations (NGOs) and Other Government Agencies (OGAs). I 
        should note here that Army, Navy and Air Force medicine play an 
        increasing role in this aspect of the U.S. military's Effects 
        Based Operations through our contributions to humanitarian 
        assistance and nation-building.
    The Army Medical Department and the joint military force do the 
exact same thing as the warfighters but for a different effect--our 
effect is focused on the human being and the individual's health. The 
parallel to our warfighting colleagues is apparent and the consequences 
of success in this venture are equally important and critical for the 
Nation's defense.
    The Joint Theater Trauma System (JTTS) coordinated by the Institute 
for Surgical Research of the U.S. Army Medical Research and Materiel 
Command (USAMRMC) at Fort Sam Houston, Texas, provides a systematic 
approach to coordinate trauma care to minimize morbidity and mortality 
for theater injuries. JTTS integrates processes to record trauma data 
at all levels of care, which are then analyzed to improve processes, 
conduct research and development related to trauma care, and to track 
and analyze data to determine the long-term effects of the treatment 
that we provide.
    The Trauma Medical Director and Trauma Nurse Coordinators from each 
service are intimately involved in this process and I can't stress 
enough how critical it is that we have an accurate and comprehensive 
Electronic Health Record accessible at every point of care--this is our 
fusion of intelligence from the battlefield all the way to home 
station.
    We also help shape the outcomes before the soldiers ever deploy 
through our Health Promotion and Preventive Medicine efforts. We 
continue to improve on our outcomes by leveraging science and lessons 
learned through Research & Development and then turning that 
information into actionable items such as the Rapid Fielding Initiative 
for protective and medical equipment, improved combat casualty care 
training, and comprehensive and far-reaching soldier and leader 
training.
    We make use of all of our capabilities, much as the warfighter 
does. We use the Joint Medical Force--our Combat Support Hospitals & 
Expeditionary Medical Support, our Critical Care Air Transport teams, 
Landstuhl Regional Medical Center, and a timely, safe medical 
evacuation process to get them to each point of care. We fully 
integrate trauma care and rehabilitation with far forward surgical 
capability, the use of the JTTS, establishing specialty trauma 
facilities and rehabilitation centers of excellence, and treating our 
patients with a holistic approach that we refer to as the Comprehensive 
Care Plan.
    It is important to understand that the fusion of information about 
the mechanisms of injury, the successes or vulnerabilities of 
protective efforts, the results of the wounds and clinical outcome can 
be integrated with operational and intelligence data to build better 
protection systems for our warriors--from vehicle platform 
modifications to better personal protective equipment such as body 
armor. We call this program Joint Trauma Analysis and Prevention of 
Injury in Combat (JTAPIC) and it is comprised of multiple elements of 
data flow and analysis. The JTAPIC Program is a partnership among the 
intelligence, operational, materiel, and medical communities with a 
common goal to collect, integrate, and analyze injury and operational 
data in order to improve our understanding of our vulnerabilities to 
threats and to enable the development of improved tactics, techniques, 
and procedures and materiel solutions that will prevent or mitigate 
blast-related injuries. One way this is accomplished is through an 
established, near-real time process for collecting and analyzing blast-
related combat incident data across the many diverse communities and 
providing feedback to the Combatant Commanders. Another example of 
JTAPIC's success is the process established in conjunction with Project 
Manager Soldier Equipment for collecting and analyzing damaged personal 
protective equipment (PPE), such as body armor and combat helmets. 
JTAPIC partners, to include the JTTS, the Armed Forces Medical 
Examiner, the Naval Health Research Center, and the National Ground 
Intelligence Center, conduct a thorough analysis of all injuries and 
evaluate the operational situation associated with the individual 
damaged PPE. This analysis is then provided to the PPE developers who 
conduct a complete analysis of the PPE. This coordination and analysis 
has led to enhancements to the Enhanced Small Arms Protective Inserts, 
Enhanced Side Ballistic Inserts and the Improved Outer Tactical Vests 
to better protect our soldiers.
    These efforts have resulted in unprecedented survival rates from 
increasingly severe injuries sustained in battle. Despite the rising 
Injury Severity Scores, which exceed any experienced by our civilian 
trauma colleagues in U.S. trauma centers, the percentage of soldiers 
that survive traumatic injuries in battle has continued to increase. 
Again, this is due to the fusion of knowledge across the spectrum of 
care that results in better equipment, especially personal protective 
equipment like body armor; better battlefield tactics, techniques, and 
procedures; changes in doctrine that reflect these new practices; and 
enhanced training for not only our combat medics but the first 
responder--typically non-medical personnel who are at the scene of the 
injury.
    One of our most recent examples involves the collection of data on 
wounding--survivable and lethal. Careful analysis of the information 
yielded recommendations for improvements to personal protective 
equipment for soldiers. This is a combined effort of the JTTS and their 
partners coordinated by the Institute of Surgical Research. Another 
combined effort being managed by USAMRMC is the DOD Blast Injury 
Research Program directed by Congress in the 2006 National Defense 
Authorization Act. The Program takes full advantage of the body of 
knowledge and expertise that resides both within and outside of the DOD 
to coordinate medical research that will lead to improvements in the 
prevention, mitigation or treatment of blast related injuries. The term 
``blast injury'' includes the entire spectrum of injuries that can 
result from exposure to an explosive device. Most of these injuries, 
such as penetrating and blunt impact injuries, are not unique to blast. 
Others, such as blast lung injury are unique to blast exposure.
    The chitosan field dressing, the Improved First Aid Kit, the Combat 
Application Tourniquet, and the Warrior Aid and Litter Kit are a 
sampling of some of the advances made in recent years through the 
combined work of providers, researchers, materiel developers, and 
others. These protective devices, treatment devices, and improvements 
in tactics, techniques and procedures for initial triage and treatment 
through tactical evacuation, damage control, resuscitation, and 
resuscitative surgery, strategic evacuation are all illustrative of the 
results of this application of ``Effects Based Operations'' to a 
medical environment. These advances directly benefit our soldiers 
engaged in ground combat operations.
    The concept of Effects Based Operations extends to our work in 
healthcare in our garrison treatment facilities as well. There are many 
substantial benefits from focusing on the clinical outcome of the many 
processes involved in delivering care and in harnessing the power of 
information using the Electronic Health Record. In the AMEDD, we 
promote these clinical best practices by aligning our business 
practices with incentives for our clinicians, administrators and 
commanders. We don't simply fund our commanders with what they received 
last year with an added factor for inflation. This would not cover the 
real escalation in costs and would lead to bankruptcy. We also don't 
just pay for productivity. Although this remains a key element in 
maximizing the resources of a hospital or clinic to care for the 
community and its patients, quality is never sacrificed. Like the Army 
and the joint warfighting force, we aren't just interested in throwing 
a lot of ordnance down-range. We--like the Army--want to know how many 
targets were struck and toward what positive effect. At the end of the 
day, that is what our patients and what my own family wants: they want 
to remain healthy and they want to be better for their encounters with 
us, which is best addressed through an Evidence Based Medicine 
approach. Ultimately, this is what they deserve.
    We have used a system of outcomes-based incentives for almost 4 
years now--it was implemented across the entire MEDCOM last year after 
an initial trial for several years in the Southeast Regional Medical 
Command. I believe strongly in this approach. It promotes our focus on 
adding value to peoples' lives through our efforts as a health 
promotion and healthcare delivery community. Last year alone we 
internally realigned $112 million to our high performing health care 
facilities. Our efforts have resulted in the Army being the only 
service to increase access to healthcare by delivering more services 
every year since 2003.
    A robust, sustainable healthcare benefit remains a critical issue 
for maintaining an all volunteer Army in an era of persistent conflict. 
Increased health care demand combined with the current rate of medical 
cost growth is increasing pressure on the defense budget and internal 
efficiencies are insufficient to stem the rising costs. Healthcare 
entitlements should be reviewed to ensure the future of our high 
quality medical system and to sustain it for years to come.
    I've talked a lot about joint medicine and our collaborative 
efforts on the battlefield, and I strongly believe it represents future 
success for our fixed facilities as well. In the National Capital 
Region (NCR), Walter Reed Army Medical Center will close and merge with 
the National Naval Medical Center to form the Walter Reed National 
Military Medical Center. The DOD stood up the Joint Task Force Capital 
Medicine to oversee the merging of these two facilities and the 
provision of synchronized medical care across the NCR. The process 
starts this fiscal year and is on track to end in mid-fiscal year 2011. 
Transition plans include construction and shifting of services with the 
goal of retaining current level of tertiary care throughout.
    San Antonio is the next location that will likely see a lot of 
joint movement with establishing the Defense Medical Education Training 
Center and combining the capabilities of the Air Force's Wilford Hall 
Medical Center and the Brooke Army Medical Center into a jointly-
staffed Army Medical Center. I see potential for great value in these 
consolidations as long as we work collaboratively and cooperatively in 
the best interests of all beneficiaries. We have proven that joint 
medicine can work on the battlefield, and at jointly-staffed Landstuhl 
Regional Medical Center. I have no doubt that Army medicine will 
continue to lead DOD medicine as we reinvent ourselves to define and 
pursue the distinction of being world-class through joint and 
collaborative ventures with our sister services.
    As Army medicine and the Military Health System (MHS) move forward 
together, I have three major concerns that will require the attention 
of the Surgeons General, the MHS leadership, and our line leadership. 
The continued assistance of the Congress will also be helpful. These 
concerns relate to the role of the direct care system, the aging 
infrastructure of our medical facilities, and the importance of 
recruiting and retaining quality health care professionals.
    One of the major lessons reinforced over the last year is that the 
direct care system is the foundation for caring for our wounded, ill, 
and injured service members. All of our successes on the battlefield, 
through the evacuation system, and in our military medical facilities 
spring forth from the direct care system. This is where we educate, 
train, and develop the critical skills that we use to protect the 
warfighter and save lives. As the foundation of military medicine, the 
direct care system needs to be fully funded and fully prepared to react 
and respond to national needs, particularly in this era of persistent 
conflict. As proud as we are of our TRICARE partners and our improved 
relationship with the Department of Veterans Affairs, we must recognize 
that the direct care system is integral to every aspect of our 
mission--promoting, sustaining, and enhancing soldier health; training, 
developing, and equipping a medical force that supports full spectrum 
operations; and delivering leading edge health services to optimize 
outcomes. Congress--and this Committee in particular--has been very 
supportive of the direct care system. Thank you for recognizing the 
importance of our mission and providing the funding that we need. Last 
year, in addition to funding the direct care system in the base budget, 
you provided additional supplemental funding for operations and 
maintenance, procurement, and research and development--thank you for 
providing these additional funds. We are ensuring this money is used as 
you intended to enhance the care we provide soldiers and their 
families. Please continue your strong support of the direct care 
system.
    The Army requires a medical facility infrastructure that provides 
consistent, world-class healing environments that improve clinical 
outcomes, patient and staff safety, staff recruitment and retention, 
and operational efficiencies. The quality of our facilities--whether 
medical treatment, research and development, or support functions--is a 
tangible demonstration of our commitment to our most valuable assets--
our military family and our MHS staff. Not only are these facilities 
the bedrock of our direct care mission, they are also the source of our 
Generating Force that we deploy to perform our operational mission. The 
fiscal year 2009 Defense Medical MILCON request addresses critical 
investments in DOD biomedical research capabilities, specifically at 
the U.S. Army Medical Research Institutes of Infectious Disease and 
Chemical Defense, and other urgent health care construction 
requirements for an Army at war. To support mission success, our 
current operating environment needs appropriate platforms that support 
continued delivery of the best health care, both preventive and acute 
care, to our warfighters, their families and to all other authorized 
beneficiaries. I respectfully request the continued support of DOD 
medical construction requirements that will deliver treatment and 
research facilities that are the pride of the department.
    My third concern is the challenge of recruiting and retaining 
quality health care professionals during this time of persistent 
conflict with multiple deployments. The two areas of greatest concern 
to me in the Active Component are the recruitment of medical and dental 
students into our Health Professions Scholarship Program (HPSP) and the 
shortage of nurses. The HPSP is the major source of our future force of 
physicians and dentists. For the last 3 years we have been unable to 
meet our targets despite focused efforts. The recent authorization of a 
$20,000 accession bonus for HPSP students will provide another 
incentive to attract individuals and hopefully meet our targets. In the 
face of a national nursing shortage, the Army Nurse Corps is short over 
200 nurses. We have increased the nurse accession bonus to the 
statutory maximum of $30,000 for a 4-year service obligation. The Army 
Reserve and National Guard have also encountered difficulty meeting 
mission for the direct recruitment of physicians, dentists, and nurses. 
We have increased the statutory cap of the Reserve Component (RC) 
Health Professions Special Pay to $25,000 per year and have increased 
the monthly stipend paid to our participants in the Specialized 
Training Assistance Program to $1,605 per month and will raise it again 
in July 2008 to $1,905 per month. As you know, financial compensation 
is only one factor in recruiting and retaining employees. We are 
looking at a variety of ways to make a career in Army medicine more 
attractive. A 90-day mobilization policy has been in effect for RC 
physicians, dentists and nurse anesthetists since 2003; this policy has 
had a positive impact on the recruiting and retention of RC healthcare 
professionals. In October 2007, U.S. Army Recruiting Command activated 
a medical recruiting brigade to focus exclusively on recruiting health 
care professionals. It is still too early to assess the effectiveness 
of that new organization, but I am confident that we will see some 
progress over the next year.
    The men and women of Army medicine--whether Active Component, 
Reserve Component, or civilian--impress me every day with their 
professionalism, their commitment, and their selfless service. Nothing 
is more important to our success then our dedicated workforce. I have 
established Major General Gale Pollock as my Deputy Surgeon General for 
Force Management so that she can focus her incredible talent and energy 
on a Human Capital Strategy for the AMEDD that will make us an 
``employer of choice'' for healthcare professionals interested in 
serving their country as either soldiers or civil servants. Your 
expansion of Direct Hire Authority for health care professionals in 
last year's appropriations bill was a clear indicator to me of your 
willingness to support innovative solutions to our workforce 
challenges. As this strategy matures, I will stay closely connected to 
you and your staff to identify and clarify any emerging needs or 
requirements.
    In closing, I want to assure the Congress that the Army Medical 
Department's highest priority is caring for our wounded, ill, and 
injured warriors and their families. I am proud of the Army Medical 
Department's efforts over the last 12 months and am convinced that in 
coordination with the DOD, the Department of Veterans Affairs, and the 
Congress, we have ``turned the corner'' toward establishing an 
integrated, overlapping system of treatment, support, and leadership 
that is significantly enhancing the care of our warriors and their 
families. I greatly value the support of this Committee and look 
forward to working with you closely over the next year. Thank you for 
holding this hearing and thank you for your continued support of the 
Army Medical Department and the warriors that we are most honored to 
serve.

    Senator Inouye. May I now recognize Admiral Robinson?
STATEMENT OF VICE ADMIRAL ADAM M. ROBINSON, JR., 
            SURGEON GENERAL, DEPARTMENT OF THE NAVY
    Admiral Robinson. Good morning, and thank you.
    Chairman Inouye, Senator Stevens, Senator Mikulski, 
distinguished members of the subcommittee, it is a pleasure to 
be before you, to share with you my vision for Navy medicine in 
the upcoming fiscal year.
    You have been very supportive of our mission in the past, 
and I want to express my gratitude, on behalf of all who work 
for Navy medicine, and those we serve.
    Navy medicine is at a particularly critical time in history 
as the military health system has come under increased 
scrutiny. Resource constraints are real, along with the 
increasing pressure to operate more efficiently, while 
compromising neither mission, nor healthcare quality. The 
budget for the Defense Health Program contains fiscal limits 
that continue to be a challenge. The demands for wounded 
warrior care continue to steadily increase due to military 
operations in Iraq and Afghanistan.
    At the same time, Navy medicine must meet the requirement 
of a peacetime mission of family and retiree healthcare, as 
well as provide humanitarian assistance and disaster relief, as 
needed around the globe.
    Our mission is Force Health Protection, and we are capable 
of supporting the full range of operations, from combat support 
for our warriors throughout the world to humanitarian 
assistance. As a result, it is vitally important that we 
maintain a ready force, and we achieve that by recruiting, 
training and retaining outstanding healthcare personnel and 
providing excellence in clinical care, graduate health 
education, and biomedical research, the core foundations of 
Navy medicine.
    We must remain fully committed to readiness in two 
dimensions--the medical readiness of our sailors and marines, 
and the readiness of our Navy medicine team to provide health 
service support across the full range of military ops.
    Navy medicine physicians, nurses, dentists, healthcare 
professional officers and hospital corpsmen, have steamed to 
assist wherever they have been needed for healthcare. As a 
result, it has been said that Navy medicine is the heart of the 
U.S. Navy, as humanitarian assistance and disaster relief 
missions create a synergy--an opportunity for all elements of 
national power: diplomatic, informational, military, economic, 
joint, inter-agency and cooperation with non-governmental 
organizations.
    As you know, advances in battlefield medicine have improved 
survivability rates, and these advances--leveraged together 
with Navy medicine's patient and family-centered care 
philosophy, provide us with the opportunities to effectively 
care for these returning heroes and their families.
    In Navy medicine, we empower our staff to do whatever is 
necessary to deliver the highest quality, comprehensive, and 
compassionate healthcare.
    For Navy medicine, the progress a patient makes from 
initial care to rehabilitation, and in support of the lifelong 
medical requirements drive the patient's care across the 
continuum. We learned early on that families displaced from 
their normal environment, and dealing with a multitude of 
stressors, are not as effective in supporting the patient, and 
his or her recovery. Our focus is to get the family back to a 
state of normalcy, as soon as possible, which means returning 
the patient and their family home to continue the healing 
process.
    In Navy medicine, we have a comprehensive, multi-
disciplinary care team which interfaces with all partners 
involved in the continuum of care. These partners include Navy 
and Marine Corps line counterparts, who work with us to 
decentralize care from a monolithic structure with one person 
in charge, to a disbursed network throughout our communities 
nationwide.
    Moving patients closer to home requires a great deal of 
planning, interaction, and coordination with providers, 
caseworkers, and other related healthcare professionals to 
ensure care is a seamless continuum.
    Families are considered a vital part of the care team, and 
we integrate their needs into the planning process. They are 
provided with emotional support by encouraging the sharing of 
experiences with other families--that's family-to-family 
support--and through access to mental health services.
    Currently, Navy medicine is also paying particular 
attention to de-stigmatizing psychological health services. 
Beginning in 2006, Navy medicine established deployment health 
clinics to serve as non-stigmatizing portals of entry in high 
fleet, and Marine Corps concentration areas, and to augment 
primary care services offered at the military treatment 
facilities, or in garrison.
    Staffed by primary care providers, and mental health teams, 
the centers are designed to provide care for marines and 
sailors who self-identify mental health concerns on the post-
deployment health assessment and re-assessment. The center 
provides treatment for other service members, as well, we now 
have 17 such clinics, up from 14 last year.
    Since the late 1990s, Navy medicine has been embedding 
mental health professionals with operational components of the 
Navy and the Marine Corps. Mental health assets aboard ship can 
help the crew deal with the stresses associated with living in 
isolated and unique environments.
    For the marines, we have developed OSCAR teams, operational 
stress control and readiness, which embed mental health 
professionals as organic assets in operational units. Making 
these mental health assets organic to the ship and the Marine 
Corps unit minimizes stigma, improves access to mental 
healthcare, and provides an opportunity to prevent combat 
stress situations from deteriorating into disabling conditions.
    We continue to make significant strides toward meeting the 
needs of military personnel, their families and caregivers, 
with psychological health needs, and traumatic brain injury-
related diagnoses. We are committed in these efforts to improve 
the detection of mild to moderate traumatic brain injury (TBI), 
especially those forms of traumatic brain injury in personnel 
who are exposed to blast, but do not suffer other demonstrable 
physical injuries.
    Our goal is to continuously improve our psychological 
health services throughout the Navy and the Marine Corps. This 
effort requires seamless programmatic coordination across 
existing line functions, in programs such as the Marine Corps' 
Wounded Warrior Regiment, and Navy's Safe Harbor, while working 
numerous fiscal contracting and hiring issues. Your patience 
and persistence are deeply appreciated, as we work to achieve 
solutions to long-term care needs.
    We have not met our recruitment and retention goals for 
medical and dental corps officers for the last 3 years. This 
situation is particularly stressful in war-time medical 
specialties. Currently, we have deployed 90 percent of our 
general surgeons, and 70 percent of our active duty 
psychiatrists in our inventory. From the Reserve component, 85 
percent of the anesthesiologists, and 50 percent of our oral 
surgeons have deployed.
    While we are very grateful for your efforts in support of 
expanded and increased accession and retention bonus--and these 
have made a difference--these incentives will take 
approximately 2 to 5 years to be reflected in our pipelines.
    Additionally, the stress on the force due to multiple 
deployments and individual augmentations has had a significant 
impact on morale across the healthcare communities. Personnel 
shortages are underscored by Navy Medical Department 
scholarships going unused, and the retention rate of 
professionals beyond their initial tour falling well below 
goal.
    By using experienced Navy medicine personnel to assist 
recruiters in identifying prospective recruits, we're 
developing relevant opportunities and enticements to improve 
retention. We are demonstrating to our people how they are 
valued as individuals, and how they can achieve a uniquely 
satisfying career in the Navy, and in Navy medicine.
    Navy medicine's research efforts are dedicated to enhancing 
the health, safety, and performance of the Navy-Marine Corps 
team. It is this research that has led to the development of 
the state-of-the-art armor, equipment and products that have 
improved our survivability rates, to the highest levels 
compared to all previous conflicts.
    In addition, our research facilities are a critical 
component, ready to respond to worldwide biological warfare 
attacks, and are making significant strides in tracking injury 
patterns in warfighters through the joint trauma registry. We 
are breaking new ground in the identification of pattern of 
injury resulting from exposure to blast.
    Navy medicine's medical research and development 
laboratories are playing an instrumental role in the worldwide 
monitoring of new, emerging infectious diseases, and the three 
Navy overseas laboratories have been critical in determining 
the efficacy of all anti-malarial drugs used by the Department 
of Defense to prevent and treat disease.

                           PREPARED STATEMENT

    Chairman Inouye, Senator Stevens, Senator Mikulski, thank 
you, again, for your support, and for providing me this 
opportunity to share with you Navy medicine's mission, what we 
are doing, and our plans for the upcoming year. It has been my 
pleasure to testify before you today, and I look forward to 
answering your questions.
    Senator Inouye. All right, thank you very much, Admiral.
    Thank you very much.
    [The statement follows:]
          Prepared Statement of Vice Admiral Adam M. Robinson
    Chairman Inouye, Ranking Member Stevens, distinguished members of 
the Committee, I am here to share with you my vision for Navy medicine 
in the upcoming fiscal year. You have been very supportive of our 
mission in the past, and I want to express my gratitude on behalf of 
all who work for Navy medicine--uniformed, civilian, contractor, 
volunteer personnel--who are committed to meeting and exceeding the 
health care needs of our beneficiaries.
    Navy medicine is at a particularly critical time in history as the 
Military Health System has come under increased scrutiny. Resource 
constraints are real, along with the increasing pressure to operate 
more efficiently while compromising neither mission nor health care 
quality. The budget for the Defense Health Program contains fiscal 
limits that continue to be a challenge. The demands for wounded warrior 
care continue to steadily increase due to military operations in Iraq 
and Afghanistan. Furthermore, Navy medicine must meet the requirement 
to maintain a peacetime mission of family and retiree health care, as 
well as provide Humanitarian Assistance/Disaster Relief as needed 
around the globe.
    The current rate of medical cost growth is adding increased demands 
on the defense budget and internal efficiencies are insufficient to 
stem the rising healthcare costs. Benefit adjustments should be 
considered to ensure the future of our high quality medical system and 
to sustain it for years to come.
                 force health protection and readiness
    Our mission is Force Health Protection. Navy medicine is capable of 
supporting the full range of operations from combat support for our 
warriors throughout the world to humanitarian assistance. As a result, 
is it vitally important that we maintain a fully ready force, and we 
achieve that by recruiting and retaining outstanding healthcare 
personnel and providing excellence in clinical care, graduate health 
education, and biomedical research, the core foundation of Navy 
medicine.
    Navy medicine must ensure that our forces are ready to go when 
called upon. We must remain fully committed to readiness in two 
dimensions: the medical readiness of our sailors and marines, and the 
readiness of our Navy medicine team to provide health service support 
across the full range of military operations. We place great emphasis 
on preventing injury and illness whenever possible. We are all 
constantly looking at improvements to mitigate whatever adversary, 
ailment, illness, or malady affects our warrior and/or their family 
members. We provide care worldwide, making Navy medicine capable of 
meeting our military's challenges, which are critical to the success of 
our warfighters.
    The Navy and Marine Corps team is working to improve a real-time, 
standardized process to report individual medical readiness. Navy 
medicine collaborates with the line to increase awareness of individual 
and command responsibilities for medical readiness--for it is as much 
an command responsibility as it is that of the individual.
        humanitarian assistance/disaster relief missions (ha/dr)
    Since 2004, the Navy Medical Department has served on the forefront 
of HA/DR missions which are part of the Navy's Core Elements of 
Maritime Power. Navy medicine physicians, nurses, dentists, ancillary 
healthcare professional officers, and hospital corpsmen have steamed to 
assist wherever there has been a need for health care. As a result, it 
has been said that Navy medicine is the heart of the U.S. Navy.
    HA/DR Missions create a synergy and opportunity for all elements of 
national power--diplomatic, informational, military, economic, joint, 
interagency, and cooperation with non-governmental organizations 
(NGOs). Most recently the USNS COMFORT (TAH-20) sent a strong message 
of U.S. compassion, support and commitment to the Caribbean and Central 
and South America during last summer's mission. Military personnel, as 
well as officers from the U.S. Public Health Service, trained and 
provided HA to the people of the partner nations and helped enhance 
security, stability and cooperative partnerships with the countries 
visited. NGOs participated in this deployment and brought value, 
expertise and additional capacity to the mission. According to 
President Tony Saca of El Salvador, ``This type of diplomacy really 
touched the heart and soul of the country and the region and is the 
most effective way to counter the false perception of what Cuban 
medical teams are doing in the region.''
    Last fall during the San Diego fires, the Navy engaged as an 
integral member of the community and provided assistance in several 
ways, including providing medical care to civilian evacuees. The Naval 
Medical Center in San Diego (NMCSD) accepted patients due to civilian 
hospital evacuations. In addition, NMCSD replenished medical supplies 
for community members who evacuated their homes without necessary 
medications. In addition, medical personnel from Naval Hospital Twenty-
Nine Palms and aboard ships in the area were helping civilian evacuees 
at evacuation centers across the county.
    It is important to note, that if not planned for appropriately this 
emerging part of our mission will prove difficult to sustain in future 
years. We must balance the requirements of sustaining the Global War on 
Terror with HA/DR requirements.
     patient and family centered care and wounded, ill and injured 
                             servicemembers
    Navy medicine's concept of care is always patient and family 
centered, and we will never lose our perspective in caring for our 
beneficiaries. Everyone is a unique human being in need of 
individualized, compassionate and professionally superior care. As you 
have heard, advances in battlefield medicine have improved 
survivability rates so the majority of the wounded we are caring for 
today will reach our CONUS facilities. This was not the case in past 
conflicts. These advances, leveraged together with Navy medicine's 
patient and family centered care, provide us with the opportunities to 
effectively care for these returning heroes and their families. In Navy 
medicine we empower our staff to do whatever necessary to deliver the 
highest quality, comprehensive health care.
    The Military Healthcare System is one of the most valued benefits 
our great Nation provides to service members and their families. Each 
service is committed to providing our wounded, ill and injured with the 
highest quality, state-of-the art medical care, from the war zone to 
the home front. The experience of this health care, as perceived by the 
patient and their family, is a key factor in determining health care 
quality and safety.
    For Navy medicine the progress a patient makes from initial care to 
rehabilitation, and in the support of life-long medical requirements is 
the driver of where a patient is clinically located in the continuum of 
care and how that patient is cared for. Where a particular patient is 
in the continuum of care is driven by the medical care needed instead 
of the administrative and personnel issues or demands. Medical and 
administrative processes are tailored to meet the needs of the 
individual patient and their family--whatever they may be. For the 
overwhelming majority of our patients, their priority is to locate 
their care as close to their homes as possible. We learned early on 
that families displaced from their normal environment and dealing with 
a multitude of stressors, are not as effective in supporting the 
patient and his or her recovery. Our focus is to get the family back to 
``normal'' as soon as possible, which means returning the patient and 
their family home to continue the healing process.
    In Navy medicine we have established a dedicated trauma service as 
well as a comprehensive multi-disciplinary care team which interfaces 
with all of the partners involved in the continuum of care. These 
partners include Navy and Marine line counterparts who decentralize 
care from a monolithic continuum with one person in charge to a 
dispersed network where patients and families return to their 
communities; once returned home they can engage with friends, families, 
traditions, peers and their communities in establishing their new life. 
To move patients closer to home requires a great deal of planning, 
interaction and coordination with providers, case workers and other 
related health care professionals to ensure care is a seamless 
continuum. We work together from the day of admission to help the 
patient and the family know we are focused on eventually moving the 
patient closer to home as soon as their medical needs allow. The 
patient's needs will dictate where they are, not the system's needs.
    Our single trauma service admits all OEF/OIF patients with one 
physician service as the point of contact for the patient and their 
family. Other providers, such as orthopedic surgery, oral-maxillofacial 
surgery, neurosurgery and psychiatry, among others, serve as 
consultants all of whom work on a single communications plan. In 
addition to providers, other key team members of the multi-disciplinary 
team include the service liaisons at the military treatment facility, 
the Veterans Affairs health care liaison and military services 
coordinator.
    Another key component of the care approach by Navy medicine takes 
into consideration family dynamics from the beginning. Families are 
considered as part of the care team, and we integrate their needs into 
the planning process. They are provided with emotional support by 
encouraging the sharing of experiences among other families (family-to-
family support) and through access to mental health services.
    Currently, Navy medicine is also paying particular attention to de-
stigmatizing psychological health services, the continuity of care 
between episodes, and the hand-off between the direct care system and 
the private sector. We are developing a process to continuously assess 
our patient and their families perspectives so that we may make 
improvements when and where necessary.
    Beginning in 2006, Navy medicine established Deployment Health 
Centers (DHCs) to serve as non-stigmatizing portals of entry in high 
fleet and Marine Corps concentration areas and to augment primary care 
services offered at the military treatment facilities or in garrison. 
Staffed by primary care providers and mental health teams, the centers 
are designed to provide care for marines and sailors who self-identify 
mental health concerns on the Post Deployment Health Assessment and 
Reassessment. The centers provide treatment for other service members 
as well. We now have 17 such clinics, up from 14 since last year. From 
2006 through January 2008, DHCs had over 46,400 visits, 28 percent of 
which were for mental health issues.
    Delays in seeking mental health services increase the risks of 
developing mental illness and exacerbating physiological symptoms. 
These delays can have a negative impact on a servicemember's career. As 
a result, we remain committed to reducing stigma as a barrier to 
ensuring servicemembers receive full and timely treatment following 
their return from deployment. Of particular interest is the recognition 
and treatment of mental health conditions such as PTSD. At the Navy's 
Bureau of Medicine and Surgery we established the position for a 
``Combat and Operational Stress Control Consultant'' (COSC). This 
individual, who reported on December 2006, is a combat experienced 
psychiatrist and preventive medicine/operational medicine specialist. 
Dedicated to addressing mental health stigma, training for combat 
stress control, and the development of non-stigmatizing care for 
returning deployers and support services for Navy caregivers, this 
individual also serves as the Director of Deployment Health. He and his 
staff oversee Post Deployment Reassessment (inclusive of Deployment 
Health Centers), Substance Abuse Prevention and Treatment, Traumatic 
Brain Injury diagnosis and treatment, and a newly created position for 
Psychological Health Outreach for Reserve Component Sailors.
    As you know, in June 2007 Secretary Gates received the 
recommendations from the congressionally mandated Department of Defense 
(DOD) Mental Health Task Force. Additionally, the Department's work on 
identifying key gaps in our understanding and treatment of TBI gained 
greater visibility and both DOD and the Department of Veterans Affairs 
began implementing measures to fill those gaps. Positive momentum has 
resulted from the task force's recommendations, the Department of 
Defense's work on TBI, and the additional funding from Congress. This 
collaboration provided an opportunity for the services to better focus 
and expand their capabilities in identifying and treating these two 
conditions.
    Since the late 1990s Navy medicine has been embedding mental health 
professionals with operational components of the Navy and the Marine 
Corps. Mental health assets aboard ships can help the crew deal with 
the stresses associated with those living isolated and unique 
conditions. Tight quarters, long work hours, and the fact that many of 
the staff may be away from home for the first time, presents a 
situation where the stresses of ``daily'' life may prove detrimental to 
a sailor's ability to cope so having a mental health professional who 
is easily accessible and going through many of the same challenges has 
increased operational and battle readiness aboard these platforms.
    For the Marines, Navy medicine division psychiatrists stationed 
with marines developed OSCAR Teams (Operational Stress Control and 
Readiness) which embed mental health professional teams as organic 
assets in operational units. Making these mental health assets organic 
to the unit minimizes stigma and provides an opportunity to prevent 
combat stress situations from deteriorating into disabling conditions. 
There is strong support for making these programs permanent and 
ensuring that they are resourced with the right amount of staff and 
funding.
    At the Navy's Bureau of Medicine and Surgery and Marine Corps 
headquarters, two positions for Combat and Operational Stress 
Consultants have been created. These individuals are dedicated to 
addressing mental health stigma, training for combat stress control, 
and the development of non-stigmatizing care for returning deployers 
and support services for Navy caregivers.
    In addition, we are developing and strengthening training programs 
for line leadership and our own caregivers. The goal is for combat 
stress identification and coping skills to be part of the curriculum at 
every stage of development of a sailor and/or marine. From the Navy's A 
Schools, to the Marine Corps Sergeant's course, and in officer 
indoctrination programs, we must ensure that dealing with combat stress 
becomes as common as dealing with any other medical issue.
    Recently Navy medicine received funding for creation of a Navy/
Marine Corps Combat and Operational Stress Control (COSC) Center at 
Naval Medical Center San Diego (NMCSD). The concept of operations for 
this first-of-its-kind capability is underway, as is the selection of 
an executive staff to lead the Center. The primary role of this Center 
is to identify best COSC practices, develop combat stress training and 
resiliency programs specifically geared to the broad and diverse power 
projection platforms and Naval Type Commands, establish provider 
``Caring for the Caregiver'' initiatives, and coordinate collaboration 
with other academic, clinical, and research activities. As the concept 
for a DOD Center of Excellence develops, we will integrate, as 
appropriate, the work of this center. The program also hopes to reflect 
recent advancements in the prevention and treatment of stress 
reactions, injuries, and disorders.
    We continue to make significant strides towards meeting the needs 
of military personnel with psychological health needs and TBI-related 
diagnoses, their families and their caregivers. We are committed in 
these efforts to improve the detection of mild-to-moderate TBI, 
especially those forms of TBI in personnel who are exposed to blast but 
do not suffer other demonstrable physical injuries. Servicemembers who 
return from deployment and have suffered such injuries may later 
manifest symptoms that do not have a readily identifiable cause, with 
potential negative effect on their military careers and quality of 
life.
    Our goal is to establish comprehensive and effective psychological 
health services throughout the Navy and Marine Corps. This effort 
requires seamless programmatic coordination across the existing line 
functions (e.g., Wounded Warrior Regiment, Safe Harbor) while working 
numerous fiscal, contracting, and hiring issues. Your patience and 
persistence are deeply appreciated as we work to achieve long-term 
solutions to provide the necessary care.
        recruitment and retention and graduate medical education
    We have not met our recruitment and retention goals for Medical and 
Dental Corps officers for the last 3 years. This situation is 
particularly stressful in wartime medical specialties. Currently, we 
have deployed 90 percent of our general surgery active duty medical 
corps officers, a specialty that is only manned at 87 percent. For 
psychiatrists, who are 94 percent manned, 72 percent of the active duty 
inventory has deployed. From the reserve component, 85 percent of the 
anesthesiologists and 50 percent of oral surgeons have deployed. While 
we are very grateful for your efforts in support of expanded and 
increased accession and retention bonuses, these incentives will take 
approximately 2,095 years to reflect in our pipeline.
    We in Navy medicine are increasing our efforts and energy in the 
recruitment and retention of medical personnel. We must demonstrate to 
our personnel how they are valued as individuals and they can achieve a 
uniquely satisfying career in the Navy. We are using experienced Navy 
medicine personnel to assist recruiters in identifying perspective 
recruits and developing relevant opportunities and enticements to 
improve retention.
    A challenge to meeting our recruitment and retention efforts is the 
impact of future increase in Marine Corps personnel. The Navy personnel 
needed in support of the increase will largely be medical officers and 
enlisted personnel. This situation, coupled with the stress on the 
force, needs to be addressed so that we can shape the force to meet the 
needs of the warfighter in the future.
    Also, the stress on the force due to multiple deployments and 
individual augmentation has had a significant impact on morale across 
the health care continuum. Personnel shortages are underscored by Navy 
medical department scholarships going unused and the retention rate of 
professionals beyond their initial tours falling well below goal.
    Graduate Medical and Health Education (GME/GHE) programs are a 
vital component of Navy medicine and of the Military Health System. 
These programs are an integral part of our training pipeline, and we 
are committed to sustaining these efforts to train future generations 
of health care providers. GME/GHE programs are required to fulfill our 
long-term goals and maintain the ever-changing health care needs of our 
beneficiaries. In addition, these programs are a critical part of our 
recruitment and retention efforts for new medical professionals and 
those involved in educating them.
                    research and development efforts
    Research is at the heart of nearly every major medical and 
pharmaceutical treatment advancement, and that is no different for Navy 
medicine. Our research efforts are dedicated to enhancing the health, 
safety, and performance of the Navy and Marine Corps team. It is this 
research that has led to the development of state-of-the art armor, 
equipment, and products that have improved our survivability rates to 
the lowest rates from any other conflict.
    Navy medicine research and development efforts cover a wide range 
of disciplines including biological defense, infectious diseases, 
combat casualty care, dental and biomedical research, aerospace 
medicine, undersea medicine and environmental health.
    The Naval Medical Research Center's Biological Defense Research 
Directorate (BDRD) is one of the few laboratories in the United States 
ready to detect over 20 biological warfare agents. In addition, the 
BDRD, located in Bethesda, MD, maintains four portable laboratories 
ready to deploy in 18 hours in response to worldwide biological warfare 
attacks.
    The Naval Health Research Center (NHRC) has a significant 
capability to track injury patterns in warfighters through the Joint 
Trauma Registry and is the leader in identifying patterns of injury 
resulting from exposure to blast. This ongoing assessment of injury 
patterns provides researchers and source sponsors key information in 
order to base decisions on programmatic issues. These decisions are 
used to develop preventative and treatment technologies to mitigate the 
effects of blast on the warfighter.
    Navy's medical research and development laboratories also play an 
instrumental role in the worldwide monitoring of new emerging 
infectious diseases, such as avian influenza, that threaten both 
deployed forces and the world. The three Navy overseas laboratories 
have also been critical in determining the efficacy of all anti-
malarial drugs used by the Department of Defense to prevent and treat 
disease. Our personnel at those facilities, specifically Jakarta and 
Lima, were participants in the timely and highly visible responses to 
natural disasters in Indonesia (Tsunami of December 2004 and Central 
Java Earthquake of 2006) and Peru (Earthquake in August 2007).
    Our research and development efforts are an integral part of Navy 
medicine's success and are aimed at providing solutions and producing 
results to further medical readiness for whatever lies ahead on the 
battlefield, at sea and at home.
    Chairman Inouye, Ranking Member Stevens, distinguished members of 
the Committee, thank you again for providing me this opportunity to 
share with you Navy medicine's mission, what we are doing and our plans 
for the upcoming year. It has been my pleasure to testify before you 
today and I look forward to answering any of your questions.

    Senator Inouye. And now, General Roudebush.
STATEMENT OF LIEUTENANT GENERAL JAMES G. ROUDEBUSH, 
            SURGEON GENERAL, DEPARTMENT OF THE AIR 
            FORCE
    General Roudebush. Thank you, sir.
    Mr. Chairman, Senator Stevens, Senator Mikulski, 
distinguished members of the subcommittee, it's truly my honor 
and privilege to be here today to talk with you about the Air 
Force Medical Service. But before I make any remarks, first I 
must thank you for your support. The Senate, and this 
subcommittee in particular, have been absolutely key in helping 
us work through some very turbulent times, in terms of fiscal 
challenges, personnel challenges, facility challenges--all the 
while meeting a very demanding operational mission. So first, I 
must say, thank you.
    Your Air Force is the Nation's guardian of America's force 
of first and last resort to guard and protect our Nation. To 
that end, we Air Force medics--and I use medics in a very broad 
sense--officer, enlisted, all-corps, total force, active Guard 
and Reserve, and our civilians, allies, and counterparts that 
come together to make up Air Force medicine.
    So, when I say we Air Force medics, I mean that in the very 
broadest and most inclusive sense. We, Air Force medics, work 
directly for our line leadership in addressing our Air Force's 
top priorities--win today's fight, taking care of our people, 
and prepare for tomorrow's challenges.
    The future strategic environment is complex and very 
uncertain. Be assured that your Air Force, and your Air Force 
Medical Service, are fully executing today's mission, and 
aggressively preparing for tomorrow's challenges. It's 
important to understand that every Air Force base at home 
station, and deployed, is an operational platform, and Air 
Force medicine supports warfighting capabilities at each of our 
bases.
    It begins with our Air Force military treatment facilities 
providing combatant commanders a fit and healthy force, capable 
of withstanding the physical and mental rigors associated with 
combat and other military missions. Our emphasis on fitness and 
prevention has led to the lowest disease and nonbattle injury 
rate in history.
    The daily delivery of healthcare in our medical treatment 
facilities is also essential to maintaining critical skills 
that guarantee our medical readiness capability, and our 
success. Our Air Force medics--working with our Army and our 
Navy counterparts, care for our families at home, we respond to 
our Nation's call supporting our warriors in deployed 
locations, and we provide humanitarian assistance and disaster 
response to both our friends and allies abroad, as well as our 
citizens at home.
    To execute these broad missions, the services--the Air 
Force, Navy and Army--must work interoperably and 
interdependently. Every day, together, we earn the trust of 
America's all-volunteer force--airmen, soldiers, sailors, 
marines and their families--and we hold that trust very dear.
    Today I'm here to address the health needs of our airmen 
and their families. The Air Force Medical Service is focused on 
the psychological needs of our airmen, and in reducing the 
effects of operational stress. We thank Congress for the fiscal 
year 2007 supplemental funding, which strengthened our 
psychological health, and traumatic brain injury (TBI) program 
research, surveillance, and treatment. It has directly improved 
access, coordination of care, and the transition of our 
patients to our allies and counterparts in the VA when that's 
appropriate.
    We're fully committed to meeting the health needs of our 
airmen and their families, and will continue to execute and 
refine these programs, again, working within the Air Force, but 
very closely with our Army, Navy, VA and private sector care 
allies and counterparts.
    In meeting this demanding mission, we must recruit the best 
and the brightest, prepare them for the mission, and retain 
them to support and lead the Air Force Medical Service in the 
years to come. The demanding operations tempo at home and 
deployed requires finding a balance between these demanding 
duties, personal recovery and family time.
    We are undertaking a number of initiatives to recapitalize 
and invest in our most precious resource--our people. Enhancing 
both professional and leadership development, ensuring 
predictability in deployments and offering financial incentives 
are all important ways we improve our overall retention, and 
thank you for your support in helping us do that.
    In closing, Mr. Chairman, I am humbled by, and intensely 
proud, of the daily accomplishments of the men and women of the 
United States Air Force Medical Service. The superior care 
routinely delivered by Air Force medics is a product of 
preeminent medical training, groundbreaking research, and a 
culture of personal and professional accountability, all 
fostered by the Air Force's core values.

                           PREPARED STATEMENT

    With your continued help, and the help of this 
subcommittee, the Air Force will continue our focus on the 
health of our warfighters and their families. Thank you for 
your enduring support, and I look forward to your questions.
    Thank you, sir.
    Senator Inouye. I thank you very much, General Roudebush.
    [The statement follows:]
      Prepared Statement of Lieutenant General James G. Roudebush
    Mr. Chairman and esteemed members of the Committee, it is my honor 
and privilege to be here today to talk with you about the Air Force 
Medical Service. The Air Force Medical Service exists and operates 
within the Air Force culture of accountability wherein medics work 
directly for the line of the Air Force. Within this framework we 
support the expeditionary Air Force both at home and deployed.
    We align with the Air Force's top priorities: Win Today's Fight, 
Take Care of our People, and Prepare for Tomorrow's Challenges. We are 
the Nation's Guardian--America's force of first and last resort. We get 
there quickly and we bring everyone home. That's our pledge to our 
military and their families.
                           win today's fight
    It is important to understand that every Air Force base is an 
operational platform and Air Force medicine supports the war fighting 
capabilities at each one of our bases. Our home station military 
treatment facilities form the foundation from which the Air Force 
provides combatant commanders a fit and healthy force, capable of 
withstanding the physical and mental rigors associated with combat and 
other military missions. Our emphasis on fitness, disease prevention 
and surveillance has led to the lowest disease and non-battle injury 
rate in history.
    Unmistakably, it is the daily delivery of health care which allows 
us to maintain critical skills that guarantee our readiness capability 
and success. The superior care delivered daily by Air Force medics 
builds the competency and currency necessary to fulfill our deployed 
mission. Our care is the product of preeminent medical training 
programs, groundbreaking research, and a culture of personal and 
professional accountability fostered by the Air Force's core values.
    In support of our deployed forces, the Air Force Medical Service 
(AFMS) is central to the most effective joint casualty care and 
management system in military history. The effectiveness of forward 
stabilization followed by rapid Air Force aeromedical evacuation has 
been repeatedly proven. We have safely and rapidly moved more than 
48,000 patients from overseas theaters to stateside hospitals during 
Operations ENDURING FREEDOM and IRAQI FREEDOM. Today, the average 
patient arrives from the battlefield to Stateside care in 3 days. This 
is remarkable given the severity and complexity of the wounds our 
forces are sustaining. It certainly contributes to the lowest died of 
wounds rate in history.
                        total force integration
    Our Air Force Medical Service is a model for melding Guard, Reserve 
and civilians with active duty elements. Future challenges will mandate 
even greater interoperability, and success will be measured by our 
Total Force and joint performance.
    A story that clearly illustrates the success of our Total Force and 
joint enroute care is that of Army SGT Dan Powers, a squad leader with 
the 118th Military Police Company. He was stabbed in the head with a 
knife by an insurgent on the streets of Baghdad on July 3, 2007. Within 
30 minutes of the attack, he was flown via helicopter to the Air Force 
theater hospital at Balad Air Base, Iraq. Army neurosurgeons at the 
Balad Air Force theater hospital and in Washington DC reviewed his 
condition and determined that SGT Powers, once stabilized, needed to be 
transported and treated at the National Naval Medical Center, Bethesda, 
MD as soon as possible. The aeromedical evacuation system was activated 
and the miracle flight began. A C-17 aircrew from Charleston Air Force 
Base, SC, picked up SGT Powers with a seven-person Critical Care Air 
Transport Team and flew non-stop from Balad Air Base, to Andrews Air 
Force Base, MD. After a 13-hour flight, they landed at Andrews AFB 
where SGT Powers was safely rushed to the National Naval Medical Center 
for lifesaving surgery.
    As SGT Powers stated, ``the Air Force Mobility Command is the stuff 
they make movies out of . . . the Army, Navy, and Air Force moved the 
world to save one man's life.''
    We care for our families at home; we respond to our Nation's call 
supporting our warriors, and we provide humanitarian assistance to 
countries around the world. To execute these broad missions, the 
services--Air Force, Navy and Army--must work jointly, 
interoperatively, and interdependently. Our success depends on our 
partnerships with other Federal agencies, academic institutions, and 
industry. Our mission is vital. Everyday we must earn the trust of 
America's all-volunteer force--airmen, soldiers, sailors and marines, 
and their families. We hold that trust very dear.
                        take care of our people
    We are in the midst of a long war and continually assess and 
improve health services we provide to airmen, their families, and our 
joint brothers and sisters. We ensure high standards are met and 
sustained. Our Air Force chain of command fully understands their 
accountability for the health and welfare of our airmen and their 
families. When our warfighters are ill or injured, we provide a wrap-
around system of medical care and support for them and their families--
always with an eye towards rehabilitation and continued service.
Wounded Warrior Initiatives
    The Air Force is in lock-step with our sister services and Federal 
agencies to implement the recommendations from the President's 
Commission on the Care for America's Returning Wounded Warriors. The 
AFMS will deliver on all provisions set forth in the fiscal year 2008 
National Defense Authorization Act and provide our warfighters and 
their families help in getting through the challenges they face. I am 
proud today to outline some of those initiatives.
Care Management, Rehabilitation, Transition
    When a service member is ill or injured, the AFMS responds rapidly 
through a seamless system from initial field response, to stabilization 
care at expeditionary surgical units and theater hospitals, to in-the-
air critical care in the Aeromedical Evacuation system, and ultimately 
home to a military or Department of Veterans Affairs (VA) medical 
treatment facility (MTF). With specific regard to our airmen who are 
injured or ill, Air Force commanders, Family Liaison Officers, airmen 
and Family Readiness Center representatives, in lock step with Federal 
Recovery Coordinators, and medical case managers, together ensure 
``eyes-on'' for the airman and family throughout the care process. For 
injured or ill active duty airmen requiring follow-up medical care, 
they will receive it at their home station MTF. If no MTF is available, 
as is often the case for our Guard and Reserve airmen, the TRICARE 
network provides options for follow-on care with case managers at the 
major command level overseeing the care. If transition to care within 
the VA is the right thing for our airmen--Active, Guard, or Reserve--we 
work to make that transition as smooth and effective as possible. For 
those airmen medically separated, care is provided through the TRICARE 
Transitional Health Care Program and the VA health system. The Air 
Force Wounded Warrior Program, formerly known as Palace Hart, maintains 
contact and provides assistance to those wounded airmen who are 
separated from the Air Force for a minimum of 5 years.
    The AFMS provides timely medical evaluations for continued service 
and fair and equitable disability ratings for those members determined 
not to be fit for continued service. We will implement DOD policy 
guidance on these matters and all final recommendations from the pilot 
programs to improve the disability evaluation system. We have processes 
in place to ensure healthcare transitions are efficient and effective. 
Briefings are provided on VA benefits when individuals enter the 
Physical Evaluation Board process. Discharged members, still under 
active treatment, receive provider referral and transfer of their 
records. A key component of seamless transfer of care is a joint 
initiative by the VA and DOD, called the VA Benefits Delivery at 
Discharge (BDD) Program. Air Force MTFs provide the BDD Program advance 
notice of potential new service members and their health information 
through electronic transfer.
    The Air Force Medical Hold Program is very different from our 
sister services. In the Air Force, those undergoing disability 
evaluation stay in their units. We work closely with wing commanders to 
ensure that our personnel receive timely disposition. The key to 
success in this process is comprehensive case management. Outpatients 
are managed by the home unit and major command case managers. The Air 
Force does not use patient holding squadrons for Air Force Reserve 
personnel in medical hold status since the majority of reserve members 
live at home and utilize base and TRICARE medical services. If members 
are outside the commuting area for medical care, they are put on 
temporary duty orders and sent to military treatment facilities for 
consultations for as long as needed for prompt medical attention. We 
are teaming with our Air Force Personnel counterparts to initiate 
efforts to further reduce administrative time without downgrading the 
quality of medical care.
Psychological Health and Traumatic Brain Injury
    Psychological health means much more than just the delivery of 
traditional mental health care. It is a broad concept that covers the 
entire spectrum of well-being, prevention, treatment, health 
maintenance and resilience training. To that end, I have made it a 
priority to ensure that the AFMS focuses on these psychological needs 
of our airmen and identifies the effects of operational stress.
Post Traumatic Stress Disorder and Traumatic Brain Injury
    The incidence of Post Traumatic Stress Disorder (PTSD) is low in 
the Air Force, diagnosed in less than 1 percent of our deployers (at 6 
months post-deployment). For every airman affected, we provide the most 
current, effective, and empirically validated treatment for PTSD. We 
have trained our behavioral health personnel to recognize and treat 
PTSD in accordance with the VA/DOD PTSD Clinical Practice Guidelines. 
Using nationally recognized civilian and military experts, we trained 
more than 200 psychiatrists, psychologists, and social workers to equip 
every behavioral health provider with the latest research, assessment 
modalities, and treatment techniques. We hired an additional 32 mental 
health professionals for the locations with the highest operational 
tempo to ensure we had the personnel in place to care for our airmen 
and their families.
    We recognize that Traumatic Brain Injury may be the ``signature 
injury'' of the Iraq war and is becoming more prevalent among service 
members. Research in Traumatic Brain Injury (TBI) prevention, 
assessment, and treatment is ongoing and the Air Force is an active 
partner with the Defense and Veterans Brain Injury Center, the VA, the 
Center for Disease Control, industry and universities. To date, the Air 
Force has had a relatively low positive screening rate for TBI--
approximately 1 percent from Operation IRAQI FREEDOM (OIF) and 
Operation ENDURING FREEDOM (OEF)--but maintains our clear focus on this 
injury because of the impact it has on each individual and family 
affected.
Prevention
    Several years ago the AFMS shifted from a program of head-to-toe 
periodic physical examinations for all active duty members and moved to 
an annual focused process, the Preventive Health Assessment (PHA), that 
utilizes risk factors, exposures and health history to guide the annual 
assessment. Through the use of the PHA, we identify and manage 
personnel readiness and overall health status, to include preventive 
health needs.
    In addition, there are separate pre- and post-deployment health 
assessment/reassessment processes. Before deployment, our airmen are 
assessed to identify any health concerns and determine who is medically 
ready to deploy. The Post-Deployment Health Assessments are completed 
at the end of their deployment and again at 6 months post-deployment. 
Of note, questions are embedded in the post-deployment assessments to 
screen for Traumatic Brain Injury. These cyclic and focused processes 
allow us to fully assess the airmen's overall health and fitness. This 
allows commanders the ability to assess the overall fitness of the 
force.
           department of veterans affairs sharing initiatives
    Our work with the VA toward seamless care and transition for our 
military members is a high priority, particularly as we treat and 
follow our airmen redeploying from Operations OEF/OIF.
    An important lesson learned from the care of our returning warriors 
is the need for a seamless electronic patient health record. After 
assuming command and responsibility for the Bagram and Balad hospitals, 
the Air Force successfully deployed a joint electronic health record 
known as Theater Medical Information Program Block 1. This 
revolutionary in-theater patient record is now visible to stateside 
medical providers, as well as those within the battlefield. 
Additionally, clinicians can access these theater clinical data at 
every military and VA medical center worldwide using the joint 
Bidirectional Health Information Exchange. This serves to improve the 
overall delivery of healthcare home and abroad for wounded and ill 
service members.
    We are expanding our sharing opportunities with the VA, 
establishing a fifth joint venture at Keesler AFB Medical Center and 
the Biloxi VA Medical Center in Mississippi. This new Center of 
Excellence will optimize and enhance the care for DOD and VA patients 
in the area.
    Our joint venture at Elmendorf AFB, Alaska, is another Air Force/VA 
success story. In 2007, the 3rd Medical Group at Elmendorf increased 
their access by more than 200 percent for veterans in areas such as 
orthopedics and ophthalmology. This effort enhanced readiness training 
for 3rd Medical Group medics, and increased the surgery capacity by 218 
percent for the 3rd Medical Group and 239 percent for the VA. Sharing 
our medical capabilities not only makes fiscal sense and improves 
access to care for our patients; it helps to sustain our medics' 
clinical skills currency so we remain prepared for tomorrow.
                   prepare for tomorrow's challenges
Our Medics
    The demanding operations tempo at home and deployed locations also 
means we must take care of our Air Force medical personnel. This 
requires finding a balance between these extraordinarily demanding 
duties, time for personal recovery and growth, and time for family. We 
must recruit the best and brightest; prepare them for the mission and 
retain them to support and lead these important efforts in the months 
and years to come. We work closely with the Air Force Recruiting 
Service and the Director of Air Force Personnel to maximize the 
effectiveness of the Health Professions Scholarship Program (HPSP) and 
recruitment incentives. HPSP is our primary avenue of physician 
recruitment accounting for over 200 medical student graduates annually. 
Once we recruit the best, we need to retain them. The AFMS is 
undertaking a number of initiatives to recapitalize and invest in our 
workforce. Enhancing both professional and leadership development, 
ensuring predictability in deployments, and offering financial 
incentives, are all important ways in which we will improve our overall 
retention.
Graduate Medical Education
    Our in-house Graduate Medical Education (GME) programs offer 
substantial benefits and are a cornerstone for building and sustaining 
our AFMS. The Air Force has 35 residencies in 18 specialties, and 100 
percent of these are fully accredited compared to a national civilian 
average of 85 percent accreditation. This caliber of quality and 
commitment translates to a 95-98 percent first-time board pass rate for 
Air Force, Army and Navy program graduates which meets or exceeds the 
civilian national average for each of our specialties. Two of our GME 
programs, the Emergency Medicine and the Ophthalmology Residency 
Programs at Wilford Hall Medical Center TX, are rated among the top in 
the Nation.
Centers for Sustainment of Trauma and Readiness Skills
    Training our Expeditionary Airmen to be able to respond to any 
contingency is critically important. The Centers for Sustainment of 
Trauma and Readiness Skills (C-STARS) provides hands-on clinical 
sustainment training for our physicians, physician assistants, nurses, 
and medical technicians in the care of seriously injured patients. Our 
medics learn the latest trauma techniques and skills from leading 
medical teaching facilities, including the University of Maryland's R. 
Adams Cowley Shock Trauma Center in Baltimore, MD; the Cincinnati 
University Hospital Trauma Center; and the St. Louis University Trauma 
Center. These C-STARS sites offer an intense workload coupled with 
clinical experience that sharpens and refreshes our medics' trauma 
care. This training increases our knowledge and helps us care for the 
most critical injuries. We are developing plans to enhance training for 
our oral and plastic surgeons to better respond to facial trauma.
Medical Treatment Facility Recapitalization
    Our recent experience re-emphasizes that America expects us to take 
care of our injured and wounded in a quality environment, in facilities 
that are healthy and clean. I assure you that the Air Force is meeting 
that expectation. All 75 Air Force medical treatment facilities are 
regularly inspected (both scheduled and unannounced) by two nationally 
recognized inspection and accreditation organizations. The Joint 
Commission inspects and accredits our Air Force medical centers and 
hospitals, while the Accreditation Association for Ambulatory Health 
Care inspects and accredits our outpatient clinics. These inspections 
focus on the critical areas of quality of patient care, patient safety, 
and the environment of care. All Air Force medical facilities have 
passed inspection and are currently fully accredited.
Telehealth
    Telehealth applications are another important area of focus as we 
seek improvements and efficiencies in our delivery of healthcare. 
Telehealth moved into the forefront with the Air Force Radiology 
Network (RADNET) Project. This project provides Dynamic Workload 
Allocation by linking military radiologists via a global enterprise 
system. RADNET will provide access to studies across every radiology 
department throughout the AFMS on a continuous basis. Its goal is to 
maximize physician availability to address workload, regardless of 
location. Our partnership with the University of Pittsburgh Medical 
Center in this endeavor started over 6 years ago. Together we built 
telemedicine programs across the AFMS through the development of the 
Integrated Medical Information Technology System. This effort is 
providing teleradiology and telepathology to the AFMS. We are 
aggressively targeting deployment of this capability in fiscal year 
2009 to all Air Force sites.
    Also scheduled for fiscal year 2009 deployment is the Tele-Mental 
Health Project. This project will provide video teleconference units at 
every mental health clinic for live patient consultation. This will 
allow increased access to, and use of, mental health treatment to our 
beneficiary population. Virtual Reality equipment will also be 
installed at six Air Force sites as a pilot project to help treat 
patients with post traumatic stress disorder. This equipment will 
facilitate desensitization therapy in a controlled environment.
Benefit Adjustments
    Increased health care demand combined with the current rate of 
medical cost growth is increasing pressure on the defense budget, and 
internal efficiencies are insufficient to stem the rising costs. 
Healthcare entitlements need to be reviewed to ensure the future of our 
high quality medical system and to sustain if for years to come.
                               conclusion
    In closing, Mister Chairman, I am intensely proud of the daily 
accomplishments of the men and women of the United States Air Force 
Medical Service. Our future strategic environment is extremely complex, 
dynamic and uncertain, and demands that we not rest on our success. We 
are committed to staying on the leading edge and anticipating the 
future. With your help and the help of the committee, the Air Force 
Medical Service will continue to improve the health of our service 
members and their families. We will win today's fight, and be ready for 
tomorrow's challenges. Thank you for your enduring support.

    Senator Inouye. Before I proceed with my questions, I 
believe I speak for the subcommittee in thanking all of you, 
and the personnel you command for the service you render us. 
You make us very proud of what you're doing for us.
    If I may, I'd like to be a bit personal about this 
question. A few weeks ago, the men of my regiment got together 
to celebrate their 65th anniversary. And at that time one of 
the fellows piped up and said, ``You know, we're lucky, we were 
in an easy war.''
    By ``easy war'' he meant that the aftermath wasn't as 
stressful and demanding as today's war. Take my case, for 
example. It took me 9 hours, from 3 o'clock in the afternoon, 
to midnight, to be evacuated from the combat zone to the field 
hospital. Today, I suppose, I'd be picked up by helicopter, and 
I'd be in a field hospital within 30 minutes. And that alone 
has made one dramatic difference.
    Today when you look at photographs and go to Walter Reed, 
you will notice that double amputations are commonplace. In my 
regiment, there isn't a single surviving double amp. They 
either died of loss of blood, or shock, or something like that. 
But today, since, well, evacuation is so speedy, and the 
medical technology is so refined, they survive. In my day, 
whenever there's a huge battle, and stretchers are lined up in 
a tent, teams of doctors would go down the line and decide who 
to care for, and who will rest in peace. I was one of those 
selected to rest in peace, because the chaplain came by and 
said, ``Son, God loves you.'' And I had to tell him, ``You 
know, I'm not ready to see God, yet.'' And they changed my 
designation, and put me in surgery.
    That brings me to my question. I note that there's a 
proportionately greater number of those with brain injuries, 
with stress problems, psychiatric problems, than I can remember 
in World War II. Are we making a special effort?
    General Schoomaker. Sir, let me, if I could start by making 
a comment from the standpoint of the Army.
    First of all, I'd be very reluctant to compare the 
sacrifices and challenges facing your generation of soldiers or 
any generation of soldiers, sailors, airmen and marines in any 
war--I think those comparisons are very difficult, and probably 
not for people like me to make. I think we're all struck by the 
sacrifices and the courage that your generation demonstrated on 
the battlefield in defense of this country.
    I would venture to say that many of the challenges that 
your generation of soldiers faced, and marines and others, 
faced, continue to face all soldiers, in all conflicts. And one 
of the things that I think distinguishes this conflict is that 
we, as an Army, and I think we as a joint force are stepping up 
and acknowledging, really, what have been generational 
challenges to all combatants.
    The challenges of post-traumatic stress, which have 
attended every battlefield, probably, since the beginning of 
war, but have not been well documented, well acknowledged, and 
well understood--we're in an era of invention and discovery, 
and of appropriate training for resilience, screening for early 
emergence of symptoms and prevention of longstanding effects of 
combat exposure. In that respect, sir, I would say that we are 
making great headway.
    There's much to be gained, and much to be learned, yet, 
about the overlap between post-traumatic stress symptoms that 
attend a deployment, and especially in an active combat zone, 
and exposure to the horrors of war, and coexisting symptoms 
that may attend, for example, a concussive injury that is 
received as a consequence of blast.
    The second point I would make, is the one that you've made. 
We have made--as Admiral Robinson and Admiral--excuse me, 
General Roudebush have referred to--extraordinary strides in 
breaking what we thought was an unbreakable limit on survival 
of battlefield. In Afghanistan and Iraq today, and conceivably 
in every conflict that we're going to face in this era of 
persistent conflict with an adaptive enemy that uses blast very 
effectively--I've said in many fora that the signature weapon 
of this war is blast. The signature wounds are many, but the 
weapon is blast.
    We are encountering a constellation of injuries, and 
psychological challenges that are heretofore unprecedented in 
terms of survival. No, even civilian trauma center, sees the 
degree, and we know that because we bring civilian 
traumatologists to Landstuhl, and we take them into Baghdad. We 
take them into Balad, and we take them into Evensina, and we 
let them operate with us, and we let them observe what our 
soldiers and marines and sailors and airmen are exposed to. And 
they come away saying, ``We don't see this degree of trauma.'' 
And yet, at the same time, ``We don't see this survival.''
    And that is the consequences, as Jim Roudebush has said, of 
this enormous cooperation across the services, in our joint 
theater trauma team, and our registry and in real-time revision 
of our practices and our procedures and our devices that have 
kept soldiers from the point of injury to the VA hospitals or 
civilian network hospitals, or military hospitals back home, 
improving all along the way.
    So, yes, sir--we are making great strides--it's an era of 
discovery.
    Senator Inouye. Well, I'm glad we've recognized that 
there's such a thing as stress disorder. I can still remember, 
because I'm old enough to--when in the ancient war, World War 
II, a well-known general slapped a soldier because he was 
afraid, and after the Vietnam war, we looked down upon those 
who said, ``I've got stress disorder,'' that they were just 
moaning and squawking and lazy.
    But, I'm glad you realized the real thing, now I hope we 
can do something about it, because in that ancient war, at 
least we knew who'd be shooting us--they were in uniform. 
Today, there's no one in uniform on the other side. Somebody 
who may be the friendliest-looking fellow, may be the most 
violent enemy you have.

                        RECRUITING AND RETENTION

    So, my second question is, in light of the changes in 
medical service, are you having a terrible time in recruiting 
and retaining? Because I know the, on the outside world they're 
having the same thing, there are not enough nurses, there are 
not enough specialists--how about the Navy?
    Admiral Robinson. Senator Inouye, we are having difficulty 
in recruiting and retaining in that we are in the competitive 
market of the entire Nation, and we have a few things that the 
entire Nation doesn't have, and that is a volunteer force 
that's fighting a war. So, there are challenges that do present 
themselves from a medical recruitment and retention 
perspective.
    Second, the optempo that we have and the repeated trips 
into war zone or repeated trips into operational environments 
become a stressor, not only on the individual--which probably 
has a direct effect in the amount of psychological stress that 
occurs--but additionally it has a huge effect on the families.
    If you take generations of servicemembers in the past, most 
were unmarried. If you take our present generation of 
servicemembers, most are married. So, therefore, there is a new 
dynamic that has been introduced into the recruitment and into 
the retention calculus, which includes that family.
    So, there are lots of factors that are making it a little 
bit more difficult to attract people and bring them in. But I 
would say that we've made significant advances in the last 
several years on the Navy side, by making sure that we, medical 
professionals, are directly involved in going to medical 
schools, and going to professional organizations, and actually 
talking about what we do, and what we need, and what people can 
get from service to the country. Because, as an all-volunteer 
force, there are a lot fewer people today in the recruitment 
pool than in years past, but certainly the necessity of making 
sure that people understand what we need, and their obligations 
to the country, is huge.
    I think that we are slowly making turns, and I would also 
say that the retention and the bonus systems that you have 
applied for our medical officers--for our medical service Corps 
officers, our psychologists, our licensed clinical social 
workers, has made--our dentists, also, and our nurses--has made 
a tremendously positive impact in becoming more competitive in 
the job market.
    So, that's a mixed answer. I think there are some trends 
that are hopeful, but there are also challenges, particularly 
with families and with some of the new dynamics of optempo that 
we'll have to take into account.
    Senator Inouye. General--General Roudebush--do you believe 
that the personnel, in the medics--I'm talking about the 
family--doctors and physicians and nurses--do you believe that 
they are appropriately recognized by the people of the United 
States?
    To put it another way, is their morale high, or low?
    General Roudebush. Sir, the morale is good. I would share 
the concerns of General Schoomaker and Admiral Robinson, in 
that as we work to recruit the best and the brightest from a 
rather diminishing group of willing candidates in the United 
States, it is more challenging to bring these individuals on.
    But the things that we need to provide them, one, in terms 
of proper compensation, we have a special pays process and 
foundation that has not been changed drastically over the last 
10 to 12 years. In the last year or two, we have made a lot of 
progress--and thank you for helping us do that--in order to 
move that forward, and to make the compensation more 
competitive.
    But it goes beyond that. It goes to the working 
circumstances, the environment of care. As General Schoomaker 
pointed out, many of our facilities are aging. It is difficult, 
in some circumstances, to provide the quality of care that we 
need to because of aging infrastructure, but we are working 
through that.
    I will tell you that what underpins the morale most firmly, 
however, is the services that these individuals provide. Quite 
often, a deployment will be--it always is--a very challenging 
opportunity, but it's not uncommon for it to be a life-changing 
opportunity. And I'll talk to physicians or nurses or 
technicians at Balad or Kirkuk, or Bagram, and they will tell 
me, ``This is what I am trained to do. This is one of the most 
meaningful moments in my life.'' Being able to use their 
talents, use their skills, in a way that truly makes a 
difference--and come home and continue to do that. Because the 
care and the rehabilitation and the ongoing care of these men 
and women who go in harm's way, is a challenge. We are 
certainly working through that.
    But, the fact is, the morale is good. But, we need to pay 
attention to all of those factors, in terms of operations 
tempo, our facilities, our compensation system, and our 
graduate medical education in order to remain competitive and 
retain these folks. There is a high demand for our military 
medical professionals in the private sector. These are folks 
who come out with skills, a demonstrated sense of purpose, and 
ethics, and they are incredibly valuable, and are compensated 
appropriately in the private sector.
    So, it's a demanding environment, but sir, the bottom line 
is morale is good.
    Senator Inouye. Thank you very much.
    Senator Stevens.
    Senator Stevens. Thank you very much.

                    RECRUITMENT FROM MEDICAL SCHOOLS

    Admiral, you mentioned, the recruitment is fairly low, now, 
from medical schools. Do you have any idea what percentage of 
medical school graduates entered the military services?
    Admiral Robinson. Sir, I could not tell you the number of 
medical school graduates that enter military service.
    I can tell you, that in our HPSP--the Health Professions 
Scholarship Program--that we have--we have not met our goals 
for the last several years, as I mentioned in my opening 
statement, but we have increased the numbers, and we are 
probably at the--in the 60 to 70 percent range of making goal, 
and that seems to be trending upward. But total numbers of 
physicians coming out of medical school, coming into military 
services, is going to be a very, very low number. But I cannot 
give you that number. I will try to get it--unless someone else 
has it.
    General Roudebush. We have looked at that, in terms of the 
percentage of individuals in medical school classes that are 
willing to consider the military, and it's less than 10 
percent. It's probably more on the order of 7 or 8 percent. So, 
it's relatively low.
    Senator Stevens. Some time ago, I proposed that those 
people to receive a financial assistance from Federal taxpayers 
for graduate education, be compelled to provide service to some 
form of our Federal Government--not necessarily the medical 
side.
    But I'm disturbed to hear that, because I think the bulk of 
those people that are going through graduate schools today are 
receiving substantial Federal assistance. And it does seem to 
me that there's an obligation to serve, to deal with the great 
problems of those people who are in harm's way right now.
    Let me ask you this, General Roudebush. I'm sure you know, 
and you just gave the 3rd Medical Group at Elmendorf, I 
believe, we have a situation there where the Air Force is 
caring for the 4/25th Combat Brigade, and the combat team 
that's come back to our State--and doing very well. Is there 
any other place where we're taking care of the returning 
veterans of one service in the hospital of another service?
    General Roudebush. Oh, yes, sir. And I would begin with the 
wonderful care that our airmen receive at Walter Reed and 
Bethesda, in terms of care of their injuries, and as we 
transition and take care of soldiers and sailors at our 
facility--whether it's Elmendorf in Alaska or Wright-Patterson 
in Ohio, or Wilford Hall in Texas--we do see each other's 
soldiers, sailors, airmen and marines.
    I think it's important to note that one of the key values 
of our military healthcare system is that we have developed 
centers of excellence, and I'll let General Schoomaker and 
Admiral Robinson talk about that. But in terms of amputee care, 
there is no place better than Walter Reed, or Brook Army 
Medical Center, in terms of head injury care, there's no place 
better than Bethesda Naval Hospital.
    The Center of Excellence for Psychological Health and 
Traumatic Brain Injuries is a joint endeavor, and actually as 
we move toward the base realignment and closure (BRAC) 
implementation, these large platforms will, in fact, be joint.
    I have Air Force physicians, nurses, technicians, working 
at Walter Reed, for example. We certainly share the platform at 
Brooke Army, and we work very closely with our allies in Alaska 
to take care of the folks there in Anchorage, as well as in 
Fairbanks.
    So, it's a very collaborative environment that allows us to 
serve our servicemen of whatever service, close to their home, 
or in the best circumstances possible.
    Senator Stevens. Well, I would hope that there would be a 
better integration--particularly of knowledge of the expertise 
of particular areas, as you've mentioned, for dealing with some 
of these specific cases of people who are coming back who have 
a really different problem than the bulk of those who are 
returning. And I think that's true for those people who have 
been involved in units such as the Stryker units, where if they 
have any problems, they really have pretty severe problems. I 
would hope that there would be further integration.
    General Roudebush. Sir, I might add that the Air Force is 
very proud of our ability to both be critically centered in the 
saving of these lives, forward, in the joint theater trauma 
system, but then through the aeromedical evacuation system, our 
critical care, our medical transport teams, to bring these 
severely injured servicemen and women back home to their 
families and definitive care, where it's best applied. Whether 
it's at one of our military centers of excellence, or one of 
our VA polytrauma centers, which are superb in treating some 
very, very significant and very complex injuries.
    So, it really is an interdependent and interoperable system 
that's providing care that heretofore has never been seen.
    Thank you.
    Senator Stevens. General Schoomaker, and Admiral Robinson, 
I'm interested in the comment that General Roudebush just made, 
concerning Walter Reed and Bethesda. We have a BRAC deadline 
for completing the integration of these facilities now, and 
some of us are--I'm one of them--are not too happy to see a 
total integration of those two facilities--what is going on out 
there, and will they meet the deadline?
    General Schoomaker. Well, first of all, sir, let me just 
quickly echo what General Roudebush commented about, about the 
jointness of care. You know, the color and type of a uniform 
really makes no difference when it comes time to taking care of 
a warrior.
    Senator Stevens. It's not that--not that. I was concerned 
about whether or not there was access to these various 
entities, without regard to uniform.
    General Schoomaker. Oh, yes, sir, there's--I mean if you go 
to Landstuhl today, it's very hard to tell a Navy corpsman from 
an Air Force critical care doc, from an Army nurse----
    Senator Stevens. I'm not talking about them, I'm talking 
about people coming in.
    General Schoomaker. Exactly, sir. We are mixing the joint 
force to care for them, and we ecumenically care for the 
combatant, independent of what uniform they have. And I think 
one of the strengths as Admiral Robinson has mentioned, is that 
we are a disseminated system of direct care that can provide 
access to all of these.
    As far as the integration and co-location of facilities in 
the National Capital Region, integration of the National Naval 
Medical Center, Bethesda, and Walter Reed Army Medical Center 
has been ongoing, now, for a number of years. It's--full 
integration is very close, at this point. The Departments of 
Orthopedics and Rehabilitative Services, Departments of 
Obstetrics and Gynecology, medicine, surgery, these are all--
and neurosurgery--these are all integrated programs now. We 
have a single chain of clinical command and directorship for 
Navy and Air Force--excuse me, Army services between, and the 
National Naval Medical Center, Bethesda, and Walter Reed, and 
have been working on that for a number of years. When Admiral 
Robinson commanded Bethesda, and I commanded Walter Reed, we 
worked very closely in this.
    Co-location of the two facilities is what's going to be 
culminated in the final building of the Walter Reed National 
Military Medical Center, and the closing of Walter Reed, and 
the coalescence of the two facilities in one. But integration 
is ongoing, and it's very--being very aggressively pursued, and 
very successfully so, sir.
    Senator Stevens. And what's the use of the old Walter Reed 
going to be? What is the plan for that?
    General Schoomaker. Sir, that's not for me to say that. 
Under BRAC law, that's going to be turned over to other 
elements of the Federal Government, I understand the General 
Service Administration, Department of State have put a claim on 
that. But I don't have any notion of how it's going to be used.
    Senator Stevens. We have been looking at the conversion of 
medical to civilian activity as far as the treatment is 
concerned. Is there a plan in place for the conversion of these 
people over a period of time who are getting training and care, 
in your military medical facilities, is there a plan for, and 
do you follow a plan with regard to conversion over civilian 
treatment?
    General Schoomaker. Yes, sir. That's been ongoing from the 
beginning. Whether it's in the VA system, or whether it's in a 
network of private care, in partnership with our management 
care support contractors--all of the services--Admiral Robinson 
referred earlier to the Navy model of a more distributed, 
disseminated model that puts care closer to the home, and the 
home unit of the marine or the sailor. The Army uses a more 
centralized model, but still promotes getting the soldier and 
his or her family as close to home--or the parent unit--as 
possible, as close as possible and----
    Senator Stevens. Well, I'm taking too long. But my main 
concern is bringing these people--our people that have been 
assigned to Alaska, they're bringing back to Alaska, they're 
going to the Elmendorf hospital, regardless of what service 
they're in, and then there's a transition. Normally if they 
were at--in what we call the outside, the South 48--the 
transition would be to the VA. We don't have a VA facility.
    General Schoomaker. Yes, sir.
    Senator Stevens. We have to transition automatically to 
civilian operations for civilian care. And civilian care in our 
State is limited--just as you are competing for doctors, we're 
competing for doctors, and they're not there right now.
    General Schoomaker. Yes, sir.
    Senator Stevens. So, what is the plan for people in those 
circumstances--will they be moved back to Washington to 
somewhere else, if there's not a VA hospital?
    General Schoomaker. Exactly, sir. I mean, we try to target 
the care, especially for a persistent wound or injury or 
illness to where they can best receive that service--civilian, 
VA, or military direct care system, and in compliance with the 
needs and requirements of the family and the soldier. And 
that's a very, very individuated decision.

                          VETERANS HEALTHCARE

    Senator Stevens. Well, that worries me, because our State 
has the highest level of volunteers, per capita, in the 
country. And as they're coming back, they're going to the 
military hospital in Anchorage, the Air Force hospital. Some of 
them are going to Bassett up in Fairbanks, but not many. And 
once they're through that care, it looks like they're going to 
be shifted back outside, and their families are still in 
Alaska.
    I would hope that somehow we would work out some kind of a 
VA--a concept for Alaska--so they don't have to be moved back 
outside to go through VA, and then moved back into Alaska when 
they finally transition into civilian care. Most of these are 
very long-term care we're talking about.
    Admiral Robinson. Senator Stevens, one aspect that probably 
is also helpful in the continuum of care as a member, is 
transition from active duty, goes through a disability 
evaluation process--and it does depend on how that process goes 
in percent--that member and family often are then able to 
obtain TRICARE benefits which would be directly usable in any 
of the treatment facilities in Alaska, in the sense that 
TRICARE would then become one of the methods that could be 
utilized.
    It's not completely satisfactory--I understand your dilemma 
in Alaska--but it certainly is one of the other aspects of care 
of our returning warriors.
    Senator Stevens. Well, in our State that would be 
transition in many of the rural areas, Indian Health Service 
hospitals. I don't know whether you've ever worked out any 
arrangements with them, but I'd encourage you to do so.
    Thank you very much, I've taken too much time already.
    Senator Inouye. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman, and gentlemen 
for the excellent testimony.
    All of us recall where just a very short time ago, this 
room was jam-packed for a hearing on military medicine because 
of the press accounts on the Walter Reed scandal. We want to 
thank you for what you've done to clean that up, and that's 
going to be, really, my line of questions.
    We want you to know, we're on your side. For those of us 
who've never worn a uniform, know that we feel that the best 
way to support our uniformed services, is not only in the 
battlefield, but with military medicine. And the opstempo that 
you face, the challenges of a war that's gone on for so long, 
the volume of injury, the new kinds of injury, and the old 
kinds of injury. And what we see is almost a 50-year war, in 
the sense of, not over there, but when we look at these men and 
women who've come back, some bear the permanent wounds of war, 
all will bear the permanent impact of war, and we need to know 
what that means--from stress to terrible injuries like 
amputation.
    So, what I want to follow in my line of questions today is, 
what did we do in response to Walter Reed, and I'd like to 
refer in my questions to the Dole-Shalala report, which I think 
was a definitive report, and gave us benchmarks and guidelines 
about where to go.
    I'd like to thank General Pollock, General Schoomaker, 
who--during the interim of change from one Surgeon General to 
the other, really stepped up to the plate and, I think we owe 
her a debt of gratitude, and we'll be talking to them about the 
nursing shortage later.
    But here's what Dole-Shalala said, ``We need to serve those 
who were injured, support their recovery and their 
rehabilitation, and simplify the complex system that frustrates 
soldiers and families.'' Their very first recommendation was, 
create a patient-centered recovery plan. And with that, I 
believe you've established something called the warrior 
transition units (WTUs)--that, in other words, it was not only 
the brilliant work done on the battlefield, at Lundsfeld and 
the hospital here--or even at Walter Reed itself--but it was 
what happened when they transitioned from acute care to 
outpatient care, that people began to fall between the cracks.
    Could you tell us what you've done to implement Dole-
Shalala, to create a patient-centered recovery plan? Where are 
we on the warrior transition units--do we have enough of them? 
Do we need more people? Do you need more money? What do we need 
to do to implement Dole-Shalala?
    General Schoomaker. Yes, ma'am, thanks for that question--
and you're absolutely right, we owe a great debt of gratitude 
to Major General Pollock, who stepped into the breach as the 
acting Surgeon General during that time, and really took the 
bull by the horns, as we were working at the operational level 
to make changes.
    Probably, in a nutshell, I would say that what the Army 
did, almost immediately, was to stand up a program we call the 
Army medical action plan. And a commission chartered by the 
Chief of Staff of the Army, the Secretary of the Army, and 
overseen very, very closely by the Vice Chief of Staff of the 
Army, Dick Cody.
    The Army medical action plan, overseen by Brigadier General 
Mike Tucker, who served as my Deputy Commander at the North 
Atlantic Regional Medical Command, and then later was elevated 
to an Assistant Surgeon General, the first Assistant Surgeon 
General for Warrior Care and Transition. The Army medical 
action plan began immediately to identify problems, to work 
closely with the Independent Review Group, chaired by former 
Secretaries of the Army----
    Senator Mikulski. Please, General, I have limited time.
    General Schoomaker. Yes, ma'am.
    Senator Mikulski. Tell me what we're doing for patients, 
rather than military bureaucracy and acknowledging the 
wonderful people who did it.
    General Schoomaker. Ma'am, the answer was intended to 
describe that, as Dole-Shalala stood up, we took every idea and 
every recommendation of Dole-Shalala on the fly, and applied 
that. And the Army today has created that patient-centered 
program that is described, is working very closely with the VA 
and the other services to provide the care that Dole-Shalala--
--
    Senator Mikulski. But how many do you have?
    General Schoomaker. I have 35 warrior transition units, we 
currently have 11,280 soldiers, warriors in transition that 
have been taken out of a variety of units in the Army with 
wounds, illnesses or injuries--many non-battle related--and are 
now cared for in a patient-centered focus around a triad of 
care. A squad leader at the small unit leader level, a nurse 
case manager, and a primary care physician.
    Senator Mikulski. General, let me go to the case managers, 
because in February 2007, besides the fragmented senior 
leadership--which obviously, from your description, has been 
corrected--there was a lack of integrated casework. There were 
no, really, primary care managers. The nurse case managers had 
been eliminated, in yet one other DOD reorganization plan years 
ago. There were no advocates, forgotten families, complaints 
fell on deaf ears--you know them, I don't need to give the 
laundry list.
    Can you tell us now where we are in the case management? 
And do you really have enough of these warrior units--I think 
the military action plan is a great way for implementing the 
Dole-Shalala recommendations. But, where are we on the care 
managers? What is the ratio? The nurse case managers, with the 
nursing shortage? Do you have enough? Is there an ombudsman in 
every unit?
    General Schoomaker. Yes, ma'am. It's very, very closely 
monitored--thanks for that question--it's very closely 
monitored----
    Senator Mikulski. Because it goes to your human capital 
needs.
    General Schoomaker. Yes, ma'am.
    Senator Mikulski. These are not meant to be, ``Are you 
doing your job?'' it's how do we all do our job?
    General Schoomaker. Well, I think what the Walter Reed 
experience taught was that we had drifted over the last two 
decades to a model of pure inpatient and outpatient medicine, 
and we'd forgotten much of what Senator Inouye's generation was 
exposed to, which is an intermediate rehabilitation capability 
that had transition from one to the other. We've recreated 
that. And we've partnered with the VA and with the private 
sector, now, to have a very comprehensive handoff--we call it a 
comprehensive care plan--that begins almost from the point of 
injury, and throughout the acute phase, the recovery phase, and 
the rehabilitation phase, even into the VA or the private 
sector, we have a system of administrative leaders, of 
clinicians, and of nurse case managers, working in close 
relationship with VA coordinators, as well, to ensure that 
we've got this warm handoff taking place.
    Senator Mikulski. Well, that's the plan, but let me go 
again. Do you have enough nurse case managers?
    General Schoomaker. Ma'am, we've managed--we manage that 
very closely, we monitor it, our ratios--our expected ratios of 
nurse case managers to warriors in transition is 1 to 18. We 
closely monitor that to ensure that we've--we are safe in all 
regards.
    I would have to say, as the population continues--as we 
identify more soldiers that are better cared for in the WTUs, 
we bring them in and bolster the----
    Senator Mikulski. And remember, these are not accusatory 
questions----
    General Schoomaker. No, ma'am.
    Senator Mikulski [continuing]. These are how do we get to 
make sure?
    General Schoomaker. And there's probably no group in that 
triad of care right now that is more challenging to recruit 
than our nurse case managers.
    Senator Mikulski. And we're going to come back to that.
    Does every unit have an ombudsman?
    General Schoomaker. We have 29 ombudsman across the 35 
units, some of them are regional in their focus, but they have 
access to an ombudsman in every warrior transition unit. And in 
the large ones, we have assigned one or two ombudsman directly.
    Senator Mikulski. And we asked that a hotline be 
established, so that if you had a problem----
    General Schoomaker. Yes, ma'am.
    Senator Mikulski [continuing]. You could dial 100, 1-800, 
Hi Army, I need help.
    General Schoomaker. We have a 1-800 line, I'd be happy to 
pass a card to you. We pass these cards out to every family 
member and soldier and members of the community. Any question 
about any aspect of anything, from pay to housing to nonmedical 
attendants, we've got a hotline that solves the problem. We've 
taken about 7,000 to 8,000 calls in the last year to this 
hotline.
    Senator Mikulski. Well, I just have one other area of 
questioning and come back, because this is really digging into 
it.
    Coming again back to Dole-Shalala in our own conversations, 
it says to restructure the disability systems, and we need to 
have a seamless effort between VA and DOD. One, the transition 
of the warfighter from military to VA, and that goes to the 
transition of care, and then this whole issue of reorganizing 
the benefit structure.
    Both you and, also our other Surgeons General, how do you 
think that's working? The feedback I get anecdotally in my own 
State is that it is enormously uneven, that the real problem--
one of the real problems here in implementing the 
recommendations from Dole-Shalala is that the connect between, 
I'll call it DOD medicine, and then VA--both particularly in 
the areas of disability benefits and handoff--can be 
disjointed.
    General Schoomaker. Ma'am, the current system of 
disability, the VA and DOD systems, was developed 50 to 60 
years ago, in an era in which, as Admiral Robinson said, our 
soldiers, sailors, airmen, marines were largely single, we did 
not have a TRICARE healthcare benefit, and we did not have the 
complex wounds that we see today.
    In 2008, what we're now faced with is a system of 
disability adjudication in the DOD that largely focuses on 
whether you're fit for duty or not, and then adjudicates 
disability based upon that single unfitting condition, even if 
you've got a variety of other injuries or problems, and even 
using the same tables of disability that the VA uses.
    The VA then turns to the same soldier and says, ``I will 
now assess disability based upon the whole person concept, and 
your employability and your quality of life.'' The military 
attaches to the disability adjudication for that single 
unfitting condition, whether or not you have access to lifetime 
benefits for TRICARE. And for a family who is seeking, and a 
soldier who is seeking disability at a threshold, 30 percent, 
that then gets them access to TRICARE, they see the military as 
being stingy for them, while the VA does not.
    Until we have a single system of disability adjudication, 
and a national debate about what service and injury or illness 
in-service warrants that soldier, sailor, airman, marine, we 
will not resolve the flashpoint injury--the problem of the 
physical disability evaluation system.
    Senator Mikulski. Well, there's an 18-month backlog in 
getting evaluated for VA disability. That is the subject of 
another hearing, General, and not your responsibility, but it 
is.
    But it goes to what Senator Stevens raised about the Alaska 
soldiers. What I hear from my own--a lot of my own military 
that have suffered injuries, is the reason they seek a 30 
percent or more disability, it's not for the money or 
commissary privileges, because they'll stay in TRICARE. And in 
TRICARE they feel that they have a medical home, and they know 
the rules of the game. And that medical home means they can 
have access to military facilities, where those academic 
centers of excellence or others in their own community, but 
they know they will have a home.
    When they worry that if they go to VA, the disability 
ascertainment is prolonged, there's enormous stress on them, 
you have to go to the VA facilities. They feel that they're 
going into a black hole that they don't know from which they're 
going to emerge.
    So, what they like about the military and TRICARE, is they 
feel it's been their one-stop shop, even as they might be 
transitioning to civilian life.
    And, what we worry about, then, because it's really been 
the Walter Reed scandal, and then these excellent commission 
reports that was to drive, pretty strongly, that there be this, 
really, seamless connection between DOD, military medicine, and 
the transition. So my question is, do you feel--in addition to 
the need for a national debate, and I agree--do you feel that 
this is really happening? Do you feel that there is this same 
sense of urgency when this was all over CNN?
    General Schoomaker. Ma'am, I think there's a great sense of 
urgency, and we have a pilot program right now in the National 
Capital area in which we're looking at a large number of 
soldiers, marines, and others to see if we can't smooth out and 
reduce the bureaucratic hurdles and hassles associated with the 
physical disability system in--under current law.
    But I want to say that I think we all recognize that we 
still have this 500-pound gorilla in the room, and that is the 
threshold of disability and a single adjudication of disability 
that access----
    Senator Mikulski. And who would make those decision?
    General Schoomaker. Ma'am, that has to--that is--that is in 
law, and without changing the law----
    Senator Mikulski. But who makes the recommendations to 
change the law?
    General Schoomaker. I think right now the Senior Oversight 
Committee that is meeting between the VA and the DOD and is in 
a position to help make----
    Senator Mikulski. But we're looking for the 
recommendations. Do we ask that of Secretary Gates, the 
Secretary of the VA, do we ask for a conversation with the 
President, how do we get these changes?
    General Schoomaker. I think that at the Secretary level is 
probably where it needs to begin.
    General Roudebush. Ma'am? I agree. I think it does get to 
the secretarial level and above, because what you're--you are 
doing is you are making a decision based on both medical and 
administrative pay and benefit issues that encompass the entire 
benefit for that individual. So I think it does rightfully 
accrue to the leadership positions, and I would echo General 
Schoomaker.
    At the Senior Oversight Committee, which is co-chaired by 
Deputy Secretary of Defense Mr. England, and Deputy VA 
Secretary, Mr. Mansfield, there is a sense of very important 
urgency to get this right, in order to be able to do that 
across the entire spectrum of activities to include medical.
    Senator Mikulski. Well, I've exceeded my time and we'll go 
to this.
    First of all, know that I believe real progress has been 
made. So, I believe that real progress has been made, and we 
thank all who were involved in that. I think there's still much 
to be done, because these military warriors--these warriors are 
going to be with us a long time and we have an obligation. And 
not only where there's been these severe injuries.
    Then there's this whole impact on the families. You said 
they were mostly single. Well, they also had a mother. When I 
visited these bases, it's either the spouse or the mother 
that's there. We viewed them as unpaid attendants, and if we 
get an opportunity for a second round, we'll be talking about 
the family. But, I think we're looking forward to regular 
reports and conversations on how to implement this, and we have 
to ask the Secretaries about this.
    And, Mr. Chairman, I think it might be the subject of 
another hearing, particularly also with our colleagues in VA.
    Anyway, thank you very much.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    And thank you all for being here today, for your testimony, 
and for the work that you do for the men and women who serve 
our country. It's an honor for me to follow the angel on our 
subcommittee, and thank her for all of her work, as well as our 
chairman.
    We were here 1 year ago under a lot of stress and looking 
at a system that was literally broken. And we have made a lot 
of progress, not just at Walter Reed, but across the country, 
out in my State at Madigan and other facilities. I've been 
there, I've been on the ground, I know that we're making 
changes, but I also agree with Senator Mikulski, we still need 
a sense of urgency. There are big questions left remaining. It 
is about how we work our way through this, but also how we have 
the resources to do it. And it's making sure that we have the 
commitment from this administration and from Congress to back 
them up. I know the American people are there, that when we ask 
someone to serve our country, we have to be there to follow up 
with the money to take care of what we--what their needs are, 
and I think that's part of what the challenge is that we face.
    Senator Mikulski asked a number of questions about the 
whole process. Let me focus on a very real concern that I still 
have that really still needs a sense of urgency, and that is 
the invisible wounds of war, the psychological needs of our 
soldiers when they come home. I know I've talked to soldiers 
and airmen and, of all of our components who feel like they're 
a left behind because the American people can't see their 
physical wounds of war.
    And we still have tremendous challenges in front of us. The 
MHAT 5, that was recently released, illustrated the 
psychological stress that our deployed servicemembers are 
under. I was concerned because this study only focused on the 
active duty. We have a large Reserve component, and 
particularly the National Guard that has really unique 
concerns. They've been deployed and redeployed, and it seems to 
me that there are no near-term plans to discontinue the use of 
our Reserve component. So I wanted to ask you, do you think 
it's important to evaluate their overall health, as well?
    General Schoomaker. Yes ma'am, I think MHAT 5, the Mental 
Health Advisory Team 5th iteration, fifth year, really focused 
on two active component brigades only because of the force mix 
that was in-theater at the time, Afghanistan and Iraq. In past 
MHATs, they've also studied Reserve component brigades.
    And this is one Army, ma'am, we are as concerned about the 
mental health challenges for the National Guard and Reserve as 
we are for our active component. In fact, as is pointed out by 
their leadership and by their State's representatives, they 
frequently have to go back into parts of America, as Senator 
Stevens has said, where we don't have access to the direct----
    Senator Murray. That's correct.
    General Schoomaker [continuing]. System, the VA system is 
even sometimes not readily available.
    Senator Murray. Do you intend to do an evaluation?
    General Schoomaker. Yes, ma'am, we're following that very 
closely, we're working with the Reserve component to look at 
the best solutions for those soldiers as they----
    Senator Murray. I would like to be kept up to date on what 
your--what your evaluations are and your recommendations from 
those.
    General Schoomaker. And, ma'am, you need to understand, 
too, they're held to the same standard that--upon return and 
reintegration, 90 to 180 days after being redeployed, they have 
to go through a post-deployment health reassessment that 
screens for the symptoms of post-traumatic stress.
    Senator Murray. Right. I am told that in the first part of 
the war, the ratio of servicemember to psychological healthcare 
provider in-theater was close to 800 to 1. We've been working 
on this and trying to improve it, but it's back up to 740 to 1 
and rising. What is being done to reverse that trend?
    General Schoomaker. Ma'am, we've always stayed below what 
our target was, which was better than one behavioral health 
specialist to 1,000 soldiers.
    We've--our biggest problem, I would have to say--and we've 
revised this on the fly--is the distribution of our soldiers. 
Many of our soldiers, especially in Afghanistan and other parts 
of Iraq, work in very distributed teams that are not accessible 
to our forward-operating bases and places where we have a 
density of--of mental health workers.
    What we've done is to try to redistribute mental health 
workers. We work closely with the Air Force at Bagram, for 
example, which has got the lead on much of the healthcare in 
the Bagram area, to get care out to the individuals.
    We're also----

                        MENTAL HEALTH PROVIDERS

    Senator Murray. Is the--is there a challenge in filling the 
billets for healthcare, mental health?
    General Schoomaker. Oh, yes, ma'am. Our behavioral health 
specialists, psychologists, social workers, psychiatrists are 
some of the most frequently deployed.
    Senator Murray. Is that true across the services?
    General Roudebush. Yes, ma'am, it is.
    Admiral Robinson. Yes, it is.
    General Roudebush [continuing]. We have Air Force providers 
in support of Army units and other distributed units. So it's a 
very joint approach to that. And I would emphasize that it also 
goes beyond, although it focuses appropriately on the mental 
health and behavioral health professionals, we are sure that 
our other providers--both our critical care and our primary 
care providers--are also trained in detecting and treating 
issues relative to behavioral or mental health concerns, and to 
be able to trigger and get the individual to more definitive 
care, if required.
    So, it's a broader system than just the mental health 
professionals, but obviously that's a key and critical part of 
it.
    Senator Murray. I think it's one that we do need to focus 
on. And interestingly, I have a member of my staff who is a 
psychiatrist and he tried to volunteer his time to help 
servicemembers and their families who have TBI and PTSD, and 
was told that he couldn't volunteer. And I know, if he's one 
psychiatrist who's willing to do that, there are others. Any 
idea how someone can volunteer?
    General Schoomaker. Actually, the American Psychiatric 
Association has come forward with an offer of individual 
volunteers. What we try to do is provide that knowledge to 
patients.
    Our problem is, we cannot certify thousands of voluntary 
psychologists or psychiatrists, under our system, but we can 
certainly give our patients----
    Senator Murray. But if they are certified----
    General Schoomaker [continuing]. Access to the----
    Senator Murray [continuing]. Psychiatrists, is there a way 
for them to provide a service, at a time when we need----
    General Schoomaker. We can get back to your staff and talk 
to you.
    Senator Murray. I would like to know that. I mean, I'm sure 
there are other people in the country today----
    General Schoomaker. Yes, ma'am.
    Senator Murray [continuing]. Who feel very strongly----
    General Schoomaker. The APA has been forthcoming.
    Senator Murray [continuing]. About supporting our soldiers 
when they come home. They are certified and it seems to me 
that, you know, we ought to be using them.
    General Roudebush. Yes, ma'am, in fact we do some of that 
through the auspices of the Red Cross, we do have medical 
professionals who volunteer, both home and we've had 
individuals at forward locations, at Landstuhl, for example, in 
that regard, so I really appreciate your interest in that.
    Senator Murray. Okay.

                                SUICIDES

    Let me ask specifically about suicides. Because the suicide 
rate is very disturbing--as it should be--to all of us. And I 
know the military says that personal and family problems 
contribute to the increase, but it's also apparent that there 
are other significant contributors--increased lengths of 
deployment, repeated deployments, decreased dwell times--I 
think we all have to agree have had a huge impact on the 
psychological health of the men and women who are serving us.
    I know that there are several initiatives in the military 
to reduce the stigma of seeking mental health, and to providing 
professional mental health care. I'd like to ask you all how 
you see the efficacy of those initiatives today?
    General Roudebush. Ma'am, I can speak to the Air Force 
Suicide Prevention Program, which was initiated in 1996, which 
is a broad-spectrum, community-based program which focuses on 
both the individual de-stigmatizing the act or the request for 
getting help, but also leverages all of the capabilities--
whether it's mental health, family support----
    Senator Murray. Do you see it working?
    General Roudebush. Our suicide rate is 28 percent lower now 
than it was in 1996 when this was implemented. And the program 
has been reviewed by the fact and outcome-based entities within 
the United States, and has been found one of the few that 
truly, substantively works.
    Senator Murray. Admiral.
    Admiral Robinson. I think there are a couple of factors 
that are very important in the suicide rate. First of all, it 
is the number of exposures to stress, the number of exposures 
to the types of things that will create destabilizing, 
psychological events in one's life. And so, therefore, you need 
to look at who's, in fact, going forward, fighting, and being 
exposed to that repeatedly, as you're looking at the total 
psychiatric, psychological health and emotion health of an 
individual, and their family.
    The second factor is, there has to be embedded--and I think 
that I will emphasize embedded--mental health professionals--
not always psychiatrists, but social workers, psychiatric nurse 
practitioners, psychologists, psych technicians--that are with 
the units so that the stigmatization and other things become 
much less because that person, those team of people, become a 
lot less.
    Senator Murray. And you have that?
    Admiral Robinson. We have OSCAR units, we have seven. We 
think we need 31, so to your question of numbers--yes, we do 
not have enough, we need more, and it is exceptionally 
difficult. And then if you take into consideration that those 
psychologists, psychiatrists and mental health professionals 
are deploying at about the same rate as my general surgeons, 
you will see that trying to get people to stay under those 
types of circumstances becomes problematic. So, those are 
issues that need to be considered.
    And third, there has to be training and teaching that 
occurs at all levels--it has to be from the recruit to the war 
college, it has to be the lowest level, and it has to have line 
leadership that is involved with it. It is not a medical issue, 
per se, it is actually a line and a leadership issue. Medical 
takes the lead on the education, line takes the lead on the 
implementation, and utilizing it, and getting it out to the 
people that need it.
    So, those factors, I think, when you consider them, will 
reduce some of the issues with suicide, and with psychological 
issues----
    Senator Murray. But I'm hearing you say we still don't have 
enough of that, across-the-board professionals on the ground, 
and that's a concern.
    General Roudebush. That is correct. We do not have enough.
    Senator Murray. General.
    General Schoomaker. We are greatly concerned about--the 
Army is greatly concerned about the trends in suicide, and we 
are looking very carefully at this. We have a general officers 
steering committee that has met several times, and is 
recommending expansive changes to the leadership of the Army.
    I go back to what Admiral Robinson just said--suicide 
prevention ultimately is a commander's responsibility, and it 
revolves around small unit leadership, NCO and officer 
leadership. We in the medics are in support--along with the 
chaplains and others--and we are looking at a comprehensive 
program within the Army of education and reaching out to change 
the behaviors of small unit leaders and fellow soldiers, to 
identify the behaviors that will predict this impulsive act, 
frequently around the rupture of a relationship--either with 
the Army, or with a loved one--that seems to trigger this 
within the Army.
    Senator Murray. Do you know what the wait time is for a 
soldier to see a mental health professional?
    General Schoomaker. In an urgent situation, there is no 
wait time, ma'am.
    Senator Murray. How do you know if it's urgent?
    General Schoomaker. I mean, if it's identified as an urgent 
issue----
    Senator Murray. Sometimes, somebody just comes to a door 
and says, ``I need some help.'' If somebody just comes to the 
door and says, ``I want to talk to somebody,'' what's the wait 
time, do you know?
    General Schoomaker. Again, if it in any way relates to 
suicidal behavior, ideation, or fear of----
    Senator Murray. I'm not asking from an aggressive point of 
view, I--because our job is to provide the resources, so that 
you all can provide the people out on the ground. And my 
question in asking about the wait time is, that's critical 
knowledge for us to know whether we're providing enough 
resources for people.
    General Schoomaker. I think I would have to answer that it 
would be highly variable based upon the community. In some 
communities it may be as long as a week or 10 days. In other 
communities, it may be nearly instantaneous.
    And it really is a function--in Fort Drum, New York, for 
example, where we're constrained to get the mental health 
resources that are needed, it might be a little more 
difficulty. In the National Capital Region, or in San Antonio, 
it might be a completely different matter.
    Senator Murray. Okay, well, that is disconcerting to hear. 
And obviously we need to, I think, make sure we are dealing 
with those invisible wounds of the war, and providing the 
personnel and the support and all of the right processes.
    I have a number of other questions that I'll submit for the 
record, but thank you very much, Mr. Chairman.
    Thank you, to all of you.
    Senator Inouye. Thank you very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Good morning, gentlemen.

                            DEPLOYMENT TIME

    Now that troop deployment time has been reduced from 15 
months to 13 months, I wanted to ask you for your reflection--
from a medical point of view--on the length of a deployment, as 
it relates to health, and particularly stress. It seems to me 
that the unpredictability of the kind of war that this is for 
an individual, makes long deployments very difficult. And I 
wonder if there is any medical recommendation as to what the 
deployment should be--and by should be, I mean, a deployment 
that makes sense, that gives the individual the best, optimum 
time, without some of the adversities that long deployments 
seem to bring about. Is there any medical advice as to what 
that length should be? General Schoomaker.
    General Schoomaker. Ma'am, that's a difficult question--
there's actually three variables, I think. The length of the 
deployment, the frequency of redeployment, and the dwell time 
between deployments. All three variables are critical.
    Senator Feinstein. But how would you--what would you say 
would be a model system which would minimize health impacts?
    General Schoomaker. It would be a system that probably 
reduces deployment length to the 6 to 9 month range. It would 
include a dwell time that exceeds 1\1/2\ years, or resets 
around 1\1/2\ years, at best, in the minimum, and reduces 
redeployment, obviously, to the minimum. And I think all of 
those things are focuses of the Army leadership.
    Senator Feinstein. Thank you.
    General Schoomaker. The MHAT studies, ma'am, have 
documented, in terms of stress--self-reported stress--what the 
effects of the longer deployments have done.
    Senator Feinstein. Admiral.
    Admiral Robinson. Yes, Senator Feinstein.
    The last thing General Schoomaker said about the studies--
there's no question that repeated exposures to stress, repeated 
exposure to traumatic situations, will increase emotional and 
psychological health issues. The inability to get proper dwell 
time, to come back and to recalibrate, has a devastating 
effect.
    I think what General Schoomaker outlined is very 
reasonable, I think the marine model of, probably, 6-, 7-month 
timeframe is optimum, ideal. And if that could occur within a 
dwell time that would exceed that amount, and come back to 
recalibrate, to reset, as it were, would be very good.
    Senator Feinstein. General, would you like to comment?
    General Roudebush. Yes, ma'am. Of course, in the Air Force, 
our deployment times have traditionally been shorter--we've 
moved from a 120-day, for example, Air Expeditionary Force 
(AEF) rotation, but depending on the availability of a 
capability, the deployment time may be longer than that, maybe 
180 days, maybe 1 year.
    I agree with my colleagues that the 6 months, plus or 
minus, is probably a goal to approach, however, there are 
operational issues. If you're on the ground, building 
relationships, 6 months may be inadequate to really build the 
kind of relationships and become mission effective. So, there 
are going to be those times when perhaps operationally, the 
deployment would appropriately be longer.
    But, I can tell you that my leadership pays very close 
attention to the rotational dwell time. The policy looks to 
optimize that for the weapons system that we're utilizing. We 
are also working to assure to take care of the families, as 
well. With an all-volunteer force, the individual chooses to 
join, but literally, the family chooses to stay.
    Senator Feinstein. Right.
    General Roudebush. So, it's important that we consider all 
of those factors as we look at our rotational and deployment 
policies.
    Senator Feinstein. You mentioned--if I just might follow-up 
with the General for a minute--you mentioned, dependent upon 
the weapons that are used--are you saying the more 
technologically developed those weapons are, the shorter the 
time should be?
    General Roudebush. No, ma'am. We have weapons systems that 
are very highly, technologically capable, but are in limited 
quantities, and high demand. So, those systems tend to stay 
deployed for longer.
    Senator Feinstein. I see, I see.
    General Roudebush. We also have individuals, for example, 
operating Predators who live in Las Vegas, drive to Creech Air 
Force Base, Nevada every day, perform that critical mission, 
and then come home. But those folks require care, as well, 
because psychologically, and from a mission operations tempo, 
that's a very demanding mission. And you have to be able to 
balance a family life with an operational life, that, for some 
of our airmen, is a very demanding issue.
    This war has created scenarios that we need to pay very 
close attention to.
    Senator Feinstein. General, you wish to----
    General Schoomaker. Ma'am, I just wanted to make sure--I 
want to qualify my comments earlier. You asked me for a medical 
assessment----
    Senator Feinstein. That's correct.
    General Schoomaker. Not an operational assessment.
    Senator Feinstein. That's correct.
    General Schoomaker. There are obviously operational 
imperatives that dictate length of deployments and redeployment 
and dwell times between. But, from the standpoint of what we 
empirically observe are the stresses upon individuals and 
families, the model that I depicted probably begins to approach 
what we think is sustainable.
    And we have models, for example, in the special operations 
community, special operations soldiers, airmen, SEALS, will 
deploy multiple times--eight, nine times--but for a shorter 
duration, with longer dwell times, that allow them to reset and 
prepare for the next deployment.
    Senator Feinstein. Do you think operations like that, the 
shorter deployment, the longer dwell time, is really the 
formula that we should seek for the future?
    General Schoomaker. Ma'am, I think that's really a mixture 
of operational and other considerations, that I'm really not 
prepared to answer.
    Senator Feinstein. I think, because one of the things that 
comes into this, this war has gone on for so long, and could 
conceivably continue on. And the kinds of injuries require 
long-term care. I'm thinking, particularly, because battlefield 
medicine is so good today--fortunately--that people who would 
have died from traumatic brain injury are saved, and they go 
on.

                             VETERANS CARE

    But what I'm finding in areas, is that they really need 
more than the system out there gives them to sustain their 
relationships and their lives over a substantial period of 
time. And one of the things that I've just been thinking about, 
because when I visit the VA--particularly in Los Angeles, the 
big campus on Wilshire Boulevard, it's over 300 acres--the 
thought occurs, if this could be a kind of residential 
community where families that really need help, because 
somebody is damaged to the point that they can't really operate 
really well, receives the kind of nurturing that's going to be 
necessary for the rest of their life.
    I think on a young family, this is a very hard thing to 
come to grips with. And I don't know if you all kind of at the 
top of the medical infrastructure has given it much thought. 
But, if you have, I'd sure like to know your thinking on that, 
whether it makes sense for us, as part of the VA, then, to 
build some real--some communities for families, where they can 
come and live. If the wife needs to work, she can work, but if 
the husband has a brain injury that's really going to suspend 
his effectiveness for the rest of his life, they get some 
additional care, on site.
    Admiral Robinson. Senator Feinstein, I think that approach 
is very good. I have given this thought from a surgeon's 
perspective--I mean a clinical surgeon, not Surgeon General, 
also from a commander, and not the Surgeon General perspective. 
Military medicine has traditionally been acute care medicine, 
we are a victim of our own success, now. You're absolutely 
right, TBI and many other injuries that we have now, we have 
only because we have such an incredibly wonderful survivability 
rate.
    Systematic rehabilitative care, has been traditionally the 
purview of VA. We now have a morphing of that, because we now 
have the acute care, active duty, or the military side, that 
has gotten involved in systematic rehab care. We also have had, 
through the years, between Vietnam and this war, disconnects--
those disconnects between DOD, between military medicine and VA 
are much, much, much, much less now. But there was a ramp-up, 
and there were learning curves, there were issues. They are not 
over.
    And the issue, then, becomes, because the issue that I 
think about a lot, is the sustainment of the care----
    Senator Feinstein. Yes.
    Admiral Robinson. Senator Mikulski said the 50-year war, 
that is absolutely correct. Because we know that many of the 
individuals that we have coming back are going to need a 
lifetime of care.
    So the goal is--how do we get to a sustainment of the care 
needed by the members and families, that we now have? And that 
is a huge problem, and burden, on us from a military 
perspective, because you are a soldier for life, you are an 
airman for life, you are a sailor for life, you are a marine 
for life, you are a Coastie for life--we have an obligation to 
care for you. The key is, how? And again, systematic 
rehabilitative care has traditionally been the VA.
    Your thoughts as to a possibility of how, seem very 
innovative and creative and, I think, should be explored. But 
we need to even take a deeper look as to how we're going to 
meld the DOD, the direct care, and the VA, the systematic 
rehabilitative care.
    Senator Feinstein. Thank you, Admiral.
    General.
    General Schoomaker. The Admiral has echoed my thoughts. I 
know that what you are discussing is of great interest and 
focus of Secretary Peake, and the VA. And I think we're in an 
unprecedented era of urgency about cooperating between the 
military services and the VA. We have very, very good relations 
and exchange of thoughts, ideas, people and the like.
    I would--this may be a good point to insert--there have 
been several truly miraculous events, if any war has a good 
side. One, we've talked about this unprecedented survival of 
wounds. The fact that we have an Air Force medical system that, 
in cooperation with the Army and the Navy, has evacuated now 
50,000 patients and strategic evacuation has not lost a single 
patient. Is running intensive care units (ICUs) in the air, and 
has not lost a single patient.
    But the other thing that's important here, is that in the 
first year, our system returns to duty two-thirds of the 
wounded, ill and injured soldiers. So, it's not a one-way 
street into rehabilitation and disability. It's a process of 
renewing the force, and retaining--in the Army alone--up to two 
brigades worth of voluntary soldiers, who want to remain in 
uniform. And that's one of our key goals.
    Senator Feinstein. Right, right.
    Well, I've been thinking--I've been out there twice now, 
and looked at it--it's, we've got 300 acres in the heart of Los 
Angeles, with neighbors around them not wanting commercial 
office high-rises. And the opportunity to do something truly 
innovative, right in the middle, with a first-rate hospital 
there, all of the amenities that you need to provide the kind 
of living circumstance for families--because there's enough 
property to do it--I think is really exciting. And I think 
we've got to start to think that way.
    I mean, I know of families where there has been traumatic 
brain injury, and they go back to a very rural community where 
they're isolated. And it's very difficult for them. Because 
they can't get the daily help they need to sustain that family.
    So, if you gentlemen wanted to take an interest in that, 
I'd be happy to show you around the L.A. VA facility, because I 
think something truly innovative ought to be done there for 
veterans.
    Well, right.
    General Roudebush. Ma'am, your point is very well taken, 
and as we look at the continuum from the care within the active 
duty construct to include both rehabilitation and return to 
duty, the transition to the VA, where that's appropriate. But, 
for many of our guardsmen and reservists that live in 
communities that are not near a VA, I think we also need to be 
thinking beyond how we approach that continuum of care, and we 
don't have the answer yet.
    But that is a concern, and something that I think we need 
to look at within our Nation in the more rural areas, where 
many of our reservists and guardsmen live--how we care for 
them, how we care for their families, and how we approach this.
    But I would offer one thought as we look at how we position 
ourselves very well to take care of those men and women who are 
ill or injured as a result of this conflict. With your help in 
this subcommittee, it also keeps us looking over the horizon, 
to look at what the next conflict may be, or the next set of 
challenges, to be sure that we're appropriately positioned, 
resourced, trained and equipped to meet that challenge, as 
well.
    So, it is a daunting task, and one that I know my work with 
the staff and with the members of this subcommittee--we very 
correctly focus on today's fight, but we also look over the 
horizon to see what might be next, to assure that we're able to 
meet that mission, as well. And it may be rather different than 
the fight we're fighting today.
    Senator Feinstein. Exactly.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you very much.
    In about 35 minutes, the Appropriations Committee will be 
meeting to consider the President's supplemental appropriations 
request. It's a very important hearing, and therefore, if we 
have further questions to ask, may we submit them to you? For 
your consideration and response?
    I thank you very much.
    Our next panel, Major General Gale Pollock, Chief of the 
U.S. Army Nurse Corps, Rear Admiral Christine M. Bruzek-Kohler, 
Director of the Navy Nurse Corps, Major General Melissa A. 
Rank, Assistant Air Force Surgeon General for Nursing Services.
    May I first call upon General Pollock?
STATEMENT OF MAJOR GENERAL GALE POLLOCK, CHIEF, ARMY 
            NURSE CORPS, UNITED STATES ARMY
    General Pollock. Of course.
    Mr. Chairman, Senator Stevens, Senators Mikulski, Murray, 
and Feinstein, thank you very much for joining us today, and 
it's a pleasure to appear before you today representing the 
Army Nurse Corps--107 years of Army strong.
    Through the unwavering support of this subcommittee, we're 
able to serve soldiers--past and present--their families, and 
the strategic needs of this great Nation.
    The total Army nursing force encompasses the officers and 
enlisted personnel on active duty in the Army National Guard 
and in the U.S. Army Reserve. We are a truly integrated and 
interdependent nursing care team. In that spirit, it has been 
my distinct pleasure to serve with Major General Deb Wheeling, 
of the Army National Guard, and Colonel Etta Johnson of the 
U.S. Army Reserve, who have been my senior advisors for their 
respective components over the past year.
    I would also be remiss if I failed to highlight the 
exceptional work of Colonel Barbara Bruno, my Deputy Corps 
Chief. Without her total support and attention, I would not 
have been able to move the Army Nurse Corps forward over the 
last 4 years. She will retire this summer, and I wanted you 
each to know of her dedication and support of the Army Nurse 
Corps and our Nation.
    Despite long and repeated deployments to combat zones, Army 
nurses remain highly motivated and dedicated to both duty and 
one another. They serve in Iraq, Afghanistan, and along every 
route that wounded warriors travel to get home.
    They're serving across Asia, Europe, and Central and South 
America, preparing and protecting our force. They're serving in 
every time zone, and at home, caring for those who need us.
    Since 2003, we have activated Reserve component Army Nurse 
Corps officers, re-aligned active duty Nurse Corps officers, 
and recruited civilian registered nurses, to serve as nurse 
case managers to support the continuity of healthcare for our 
wounded warriors. Nurse case managers also help the soldiers 
and their families navigate the complex healthcare system 
within military hospitals, our civilian TRICARE network, and 
the transition to the Department of Veterans Affairs.
    Recognizing the critical role of the nurse case manager in 
support of our wounded warriors, we now have 181 military and 
216 civilian nurse case manager positions authorized for the 
warrior transition units. These authorizations establish a 
staffing ratio of 1 to 18 at our medications centers, and 1 to 
36 at smaller medical activities.
    Not only does this support our wounded warrior healthcare 
mission today, the establishment of authorized, documented 
positions ensures that we maintain a robust nurse case 
management program supporting our healthcare beneficiaries in 
the future, whether we are at peace or in conflict.
    To ensure that our nurse case managers have the knowledge 
and skills necessary for this essential role, we standardize 
nurse case management training, using the military healthcare 
system, and the U.S. Army Medical Center and School, distance 
learning programs. Our next step is establishing a civilian 
university-based nurse case manager program for our military 
and civilian nurse case managers.
    Recognizing the significant behavioral health issues 
associated with deployment and combat, we are reshaping the 
advanced practice psychiatric nurse role, from that of a 
clinical specialist, to a psychiatric mental health nurse 
practitioner role. In collaboration with USUHS and our sister 
services, we now have a new psychiatric mental health nurse 
practitioner program, scheduled to begin in May 2008. Nurses 
graduating from the program will function as independent 
behavioral health providers, with prescriptive authority and 
practice both in our fixed healthcare facilities, and in 
deployed combat stress units.
    The Army Nurse Corps is also instituting an internship 
program scheduled to begin later this spring. This program 
bridges the gap between academia and practice for officers who 
are new to the profession. The anticipated outcome is better 
educated, and trained, medical surgical staff nurses, 
functioning independently.
    Army Nurse Corps studies focus on the continuum of military 
healthcare needs, from pre- and post-deployment health, to 
nursing-specific practices necessary to best care for the 
warriors in theater. Today, we have 33 doctorally prepared 
researchers working around the world. In addition to four well-
respected, and well-established research cells at our regional 
medical centers, we're establishing five new cells at our other 
medical centers.
    And finally, we have one doctorally prepared nurse 
researcher, two Army public health nurses, and one medical 
surgical nurse deployed to Iraq as part of the deployed combat 
casualty research team, conducting both nursing and medical 
research activities in-theater.
    The competitive market conditions and current operational 
demands continue to challenge us as we strive to ensure we have 
the proper manning to accomplish the mission. The Army Nurse 
Corps used incentives to assist in improving both recruitment 
and retention of Army Nurses. We have a Professional Nurse 
Education Program, the Army Enlisted Commissioning Program, the 
Army Nurse Candidate Program, the Funded Nurse Education 
Program, incentive specialty pay, nurse anesthesia specialty 
pay, nurse accession bonuses, critical skill retention bonuses, 
and a health professional loan repayment program.
    We will continue to refine our retention strategies. A 
recent review of personnel records by the Department of the 
Army indicated that the Army Nurse Corps had the highest 
attrition of any officer branch in the Army. Ongoing research 
indicates that Army nurses leave the service, primarily because 
of less than optimal relationships with their supervisors, the 
length of deployments, and inadequate compensation.
    I'm pleased to inform you that we now offer a Registered 
Nurse Incentive Specialty Pay Program, that recognizes the 
professional education and certification of Army nurses. 
Numerous studies have demonstrated the link between certified 
nurses and improved patient outcomes. These include higher 
patient satisfaction, decreased adverse events and errors, the 
improved ability to detect early signs or symptoms of patient 
complications, and the initiation of early intervention. 
Certified nurses also report increased personal and 
professional satisfaction, and improved multidisciplinary 
collaboration.
    For our Reserve component nurses, the issue is primarily 
the imbalance of professionally educated officers in the 
company grades. Many Reserve component nurses do not have a 
bachelor's degree. Only 50 percent are educationally qualified 
for promotion. This creates a concern for the future force 
structure for the senior ranks of the Reserve components. We're 
grateful that the Chief of the Army Reserves is focusing 
recruiting incentives on those nurses who already have a BSN, 
and funding the specialized training and assistance programs, 
to allow both new accessions and existing Army Reserve nurses 
without a BSN, to complete those degrees.
    The Army Nurse Corps continues adapting to the new 
realities of persistent conflict, but remains firm on providing 
the leadership and scholarship required to advance the role of 
professional nursing. We will maintain the focus on sustaining 
readiness, clinical competencies, and sound educational 
preparation, with the same commitment to serve those 
servicemembers who defend our Nation now, that we have 
demonstrated for the past 107 years.
    I appreciate this opportunity to highlight our 
accomplishments, and discuss the issues we face.

                           PREPARED STATEMENT

    Thank you very much for your support of the Army Nurse 
Corps and of me, over the 4 years in which I've had this 
position.
    Thank you.
    Senator Inouye. Thank you very much, General Pollock.
    [The statement follows:]
          Prepared Statement of Major General Gale S. Pollock
    Mr. Chairman, Senator Stevens, members of the committee: it is a 
pleasure to appear before you today representing the Army Nurse Corps. 
Today, the Army Nurse Corps is 107 years Army Strong. Through the 
unwavering support of this committee, we are able to serve soldiers, 
past and present, their families, and the strategic needs of this great 
Nation. The Total Army Nursing Force encompasses the officers and 
enlisted personnel on Active Duty, in the Army National Guard, and in 
the U.S. Army Reserve. We are a truly integrated and interdependent 
nursing care team. In that spirit, it has been my distinct pleasure to 
serve with Major General Deborah Wheeling of the Army National Guard, 
and Colonel Etta Johnson of the U.S. Army Reserve, who have been my 
senior advisors for their respective components over the past year.
    The Secretary and the Chief of Staff of the Army have set four core 
objectives for the Army: maintain the quality and viability of an all-
volunteer force; prepare the force by training and equipping soldiers 
and units to maintain a high level of readiness for the current 
operations in Iraq and Afghanistan; reset our soldiers, units, and 
equipment for future deployments and other contingencies; and transform 
the Army to meet the demands of the combatant commanders in a changing 
security environment. Each of the respective components of the Army 
Nursing Force is actively engaged in working the ways and means to 
these strategic ends. In so doing, we are achieving our vision of a 
quality transforming force through the advancement of professional 
nursing practice, and we are maintaining our superiority in research, 
educational innovation, and effective healthcare delivery.
                               deployment
    Army Nursing remains an operational capability fully engaged in the 
support of the Nation's soldiers, sailors, airmen, Coast Guardsmen, and 
marines--both at home and abroad. The Army Nurse Corps also operates as 
a strategic force with the capability to win hearts and minds through 
the provision of vital healthcare and humanitarian aid. This is a 
significant challenge in our various operational environments. Today, 
this group of nurses is the best trained in the history of operational 
nursing. Despite long and repeated deployments to combat zones, Army 
nurses remain highly motivated and dedicated to both duty and each 
other. They serve in Iraq, Afghanistan, and along every route Wounded 
Warriors must travel to get home. They serve across Asia, Europe, and 
Central and South America preparing and protecting the force. They 
serve in every time zone, and at home caring for Wounded Warriors on 
the long road to recovery.
    There are currently three forward deployed hospitals serving in 
Iraq--the 31st, the 325th and the 86th Combat Support Hospitals. The 
115th Combat Support Hospital is deploying to Iraq to conduct a relief 
in place with the 31st after a long 15-month deployment. The nurses 
serving in these units make an incredible difference in the lives of 
our Warriors and the Iraqi people.
    Army nurses make no distinction among their patients; they provide 
all patients the highest quality care. On February 1, 2008, a 10-year-
old Iraqi girl was brought to the 86th Combat Support Hospital (CSH) 
after sustaining 50 percent total body burns from a fire in her home. 
The fire left her with massive disfigurement from the waist down and a 
progressive infection. During the 10 days she remained at the 86th CSH, 
the nursing staff of the Intensive Care Unit and Intermediate Care Ward 
put tremendous effort into the care of both the young girl and her 
mother. She was transferred to Shriners Hospital for Children in Boston 
for extensive care of her burns on February 10th. As a testament to the 
quality of care this young girl received in Iraq, Shriners Hospital 
commented that the young girl arrived in far better condition than they 
had expected given the severity of injuries she had sustained. They 
said that the care provided by the 86th clearly saved her life, and she 
survived because of the extraordinary efforts made by the team. The 
young Iraqi girl and her mother have expressed endless thanks for the 
team's work and compassion; because of their excellent care, a mother 
continues to smile upon her only daughter.
             transformation/advancing professional nursing
    The Army Nurse Corps continues the process of self-examination and 
transformation to maintain the competencies required to face the 
complexities of healthcare in the 21st century. Last year, I described 
a few of the initiatives that we have pursued, and I want to provide 
you an update.
    The role of the Nurse Practitioner (NP) in the Army Medical 
Department continues to adapt and evolve to meet dynamic mission 
requirements. NPs continue to provide excellent healthcare and 
leadership, whether serving on the home front or deployed in support of 
the global war on terror. The following experiences highlight some of 
the important contributions made by Army NPs in 2007.
    Warrior Transition Units (WTUs) were developed at many 
installations across the Army Medical Department to enhance the 
excellent care provided to soldiers returning from deployments. Colonel 
Richard Ricciardi, Lieutenant Colonel Reyn Mosier and Lieutenant 
Colonel Mary Cunico are three NPs who were instrumental in training 32 
active duty and reserve nurses from across the country as case 
managers. These three individuals helped establish the first WTU at 
Walter Reed Army Medical Center in a compressed timeframe. Lieutenant 
Colonel Cunico managed the design, development and remodeling of the 
Warrior Clinic and now serves as the Officer in Charge providing care 
to over 700 wounded, recovering and rehabilitating military personnel.
    Lieutenant Colonel Jean Edwards is a primary care provider for the 
WTU at Vicenza, Italy, which was launched in June 2007. Her success 
includes new clinical skills in the areas of caring for skin grafts, 
the removal of bullets and shrapnel fragments, and the preparation of 
narrative summaries for medical boards.
    Lieutenant Colonel Kathleen M. Herberger served as a staff officer 
on the President's Commission on Care for America's Returning Wounded 
Warriors. She was selected as the nurse representative on the staff due 
to her experience as a Family Nurse Practitioner. While on the 
commission, she was assigned as the Care Management Analyst. Lieutenant 
Colonel Herberger served on the Continuum of Care Subcommittee and as 
the clinical consultant for the Information Management and Technology 
Subcommittee. She provided research and analysis on issues related to 
Continuum of Care and the clinical care pathway that is necessary for 
the severely Wounded Warrior. The team visited over 23 sites to gather 
information from soldiers, their families, and healthcare providers on 
the challenges presented by the severely wounded. Lieutenant Colonel 
Herberger evaluated and recommended ways to ensure access to high 
quality care and analyzed the effectiveness of the processes through 
which we deliver healthcare services and benefits. She provided 
research information, and developed the background paper used to 
formulate the recommendations for the Federal Recovery Coordinator 
concept for the severely wounded.
    Three Nurse Practitioners added to the success of the 7th Special 
Force's Group (Airborne) mission in support of Operation Enduring 
Freedom. Lieutenant Colonel Tamara LaFrancois, and Majors Jennifer 
Glidewell and Stacy Weina provided excellent care in very austere 
conditions at Fire Base Clinics and on Medical Civil Action Program 
(MEDCAP) missions in over 30 locations in Afghanistan. Using female 
providers to care for female local nationals and children opened up an 
entirely new perspective for the Special Operations Community. Helping 
Special Operations Forces (SOF) units with important non-kinetic 
missions by reaching a population of women who are not normally 
accessible not only allowed the local women to obtain healthcare for 
the first time, but enhanced the SOF unit's ability to develop good 
rapport with the local national population in their areas of operation. 
It led to many High Value Individuals who had important information 
being turned over by the locals and even joining forces with Coalition 
troops in fighting terrorism. This mission was so successful that a 
request for four NPs in fiscal year 2008 was submitted.
    Major Amal Chatila from Fort Bragg was the first NP to be assigned 
to a Civil Affairs unit. She was requested based on her outstanding 
work in reestablishing the medical infrastructure in Iraq and her 
excellent care of Iraqi nationals on two separate deployments. Major 
Maria Ostrander is currently assigned in Iraq as a Civil Affairs 
Officer and works with the Baghdad Provincial Reconstruction Team as a 
Health Advisor for the State Department.
    Efforts in providing medical care to the battle injured or those 
located far-forward is an ongoing concern for the military. In a war 
where there is no designated frontline, any setting can be the scene of 
a combat engagement. Some of these locations are situated where medical 
assets are readily available, but there are many distant locations 
where soldiers are isolated from general logistics, including 
healthcare assets. Placing advanced healthcare practitioners in Forward 
Operating Bases (FOB) plays a significant role in conserving the 
fighting strength of our soldiers. The forward healthcare element in 
this case consisted of one NP and one medic, along with a comprehensive 
range of pharmaceuticals and medical equipment. The construction of a 
new Aid Station took approximately 3 days, although the team was 
functional almost immediately upon their arrival at the FOB. By placing 
healthcare teams far forward in areas prone to injury or illness, we 
can obviate the risk of sending ill or injured soldiers to distant 
locations on dangerous roads for non-urgent/non-emergent treatment of 
disease and non-battle injury. By putting prevention into practice, we 
improved and maintained our soldiers' health throughout their 
deployment.
    In collaboration with senior Army Family Nurse Practitioners 
(FNPs), physician colleagues in family practice and various 
specialties, and the staff of the Uniformed Services University of the 
Health Sciences (USHUS), a FNP Residency Program was developed which 
provides a standardized program plan, required and optional rotations, 
rotation guides, and program evaluation tools. This residency program 
was developed in response to a long-standing request by FNPs and 
nursing leaders for a standardized NP residency program. The residency 
program was based on the recommendation of the National Council of 
State Boards of Nursing's ``Vision Paper 2006,'' a 10-year plan for 
standardizing core curriculum, licensure, certification, and scope of 
practice for Advanced Practice Registered Nurses and a requirement for 
a residency program after completion of education at the master's level 
or above. The intent of the FNP Residency Program is to provide a 
structured role transition for the newly graduated FNP working within 
the Army healthcare system and a refresher program option for the FNP 
returning to clinical practice after a lapse of greater than 3 years. 
This program allows FNPs to be introduced to the Medical Treatment 
Facility staff, policies, and services in their newly acquired provider 
role. It facilitates orientation, as well as privileged practice in 
specialty and ancillary areas, and acquaints the FNP with the staff 
members and procedures for those specialty clinics with which the FNP 
consults.
    Since 2003, we have activated reserve component Army Nurse Corps 
officers, realigned active duty Army Nurse Corps officers and recruited 
civilian registered nurses to serve as Nurse Case Managers to support 
the continuity of healthcare for our Wounded Warriors. These dedicated 
nurses have provided great support to our soldiers through their 
efforts to individualize care to the soldier. Nurse Case Managers also 
help soldiers and their families navigate the sometimes complex 
healthcare system within military hospitals, our civilian TRICARE 
network, and the transition to the Department of Veterans Affairs (VA). 
Recognizing the critical role of the Nurse Case Manager in supporting 
our Wounded Warriors, we now have 181 military and 216 civilian nurse 
case manager positions authorized for the Warrior Transition Units. 
These authorizations establish a staffing ratio of 1:18 at our medical 
centers and 1:36 at our medical activities. Not only does this support 
our Wounded Warrior healthcare mission today, the establishment of 
authorized, documented positions ensures that we maintain a robust 
Nurse Case Manager program supporting our healthcare beneficiaries in 
the future, whether in peacetime or during conflicts.
    To ensure that our Nurse Case Managers have the knowledge and 
skills necessary for this essential role, we have standardized Nurse 
Case Management training using the Military Healthcare System and U.S. 
Army Medical Department Center and School (AMEDDC&S) distance learning 
programs. Our next step is to establish a civilian university-based 
Nurse Case Manager program for our military and civilian nurse case 
managers.
    Within the Army Nurse Corps, we established a process that takes 
lessons learned from our support of the war effort to help shape Corps 
programs. Recognizing the significant behavioral health issues 
associated with deployment and combat, we are reshaping the Advanced 
Practice Psychiatric Nurse role from the previous clinical specialist 
to a Psychiatric Mental Health Nurse Practitioner role. In 
collaboration with the USUHS and our sister services, we now have a new 
Psychiatric Mental Health Nurse Practitioner program scheduled to begin 
in May 2008. Our Army Nurse Corps psychiatric nurse consultant, Colonel 
Kathy Gaylord, and our first faculty member, Major Robert Arnold, were 
actively engaged in the program development. This program provides an 
advanced practice degree and incorporates military unique behavioral 
healthcare issues into the curriculum. Nurses graduating from the 
program will function as independent behavioral health providers with 
prescriptive authority and practice both in our fixed healthcare 
facilities and in deployed combat stress units.
    Late last year, the AMEDDC&S opened a new $11.1 million, 55,000 
square foot building, named in honor of Brigadier General Lillian 
Dunlap, who was the 14th Chief of the Army Nurse Corps. The new 
academic building houses all four branches of the Department of Nursing 
Science; the U.S. Army Practical Nurse Branch, the Operating Room 
Branch, the Army Nurse Professional Development Branch, and the U.S. 
Army Graduate Program in Anesthesia Nursing Branch. The Department of 
Nursing Science, Army Medical Department Center and School is 
responsible for nearly all specialty-producing courses for the Army 
Nurse Corps. In addition, we provide leadership courses for nurses, and 
three enlisted programs. I would like to share the highlights of our 
program.
    The U.S. Army Graduate Program in Anesthesia Nursing is rated 
number two in the Nation by U.S. News and World Report. This program 
trains an average of 35 Army, 5 Air Force and 3 VA Certified Registered 
Nurse Anesthetists (CRNAs) per year. Students score, on average, 37 
points above the national average on the certification exam. The first-
time pass rate for the certification exam is nearly 100 percent. These 
students' performance exceeds civilian community scores relative to 
trauma, regional blocks, and central line placement. The program 
faculty members are in constant communication with the field, 
especially the deployed CRNAs, to rapidly incorporate changes into this 
program to meet the needs of the Warriors we serve. Simulation 
enhancements in this program allow students to be more comfortable with 
various techniques, and therefore better prepared to function in the 
clinical Phase 2 clinical training environment. The faculty and student 
program of research investigate the effects of various complementary 
and alternative medication preparations on anesthesia--the only well-
established program of research of this kind in the country.
    The Licensed Practical Nurse (LPN) Program is highly successful in 
producing LPNs who can function in a variety of assignments, to include 
critical care in fixed facilities or deployed environments, a specialty 
not taught in most civilian LPN programs. This program produces 550-600 
active and reserve component LPNs per year, with a first-time pass rate 
on the National Certification Licensure Exam of 94.4 percent compared 
to the national average of 88 percent. Half of the students serve in 
the reserve component, thus, we are also producing excellent LPNs that 
benefit the civilian community.
    The Critical Care Nursing Course trains a total of 70 nurses 
annually, and the Emergency Nursing Course trains 15. These courses 
provide Army nurses with the knowledge, experience, and certifications 
necessary to function independently in these specialties following 
several months of structured internship. Graduation requirements 
include certifications in trauma, advanced life support, pediatric life 
support and burn care. We are working toward incorporating flight 
nursing concepts in these courses. The OB/GYN Course produces 30 
trained professionals per year, who can function as post-partum and 
labor and delivery nurses. The Psychiatric Nursing Course produces an 
average of 8 specialists in psychiatry per year who are encouraged to 
advance to graduate level education in this much needed specialty. The 
Perioperative Nursing Course trains an average of 48 perioperative 
specialists per year. This particular specialty program is in its final 
stages of institutionalization at the AMEDDC&S and will include an 
option that allows students to become Registered Nurse First Assists 
(RNFA). Approximately 10 Army nurses have been through the RNFA 
Program.
    The Department of Nursing Science also manages the nursing 
components of the officer leadership courses. To improve readiness we 
have added the Trauma Nursing Core Course and Acute Burn Life Support 
Courses and their respective certifications to these courses. Because 
our nurses are preparing patients for medical evacuation (MEDEVAC) 
flights, we have incorporated such content into these programs to 
better prepare patients for flight. The two nursing-specific leadership 
courses, the Head Nurse Course and Advanced Nurse Leadership Course, 
train approximately 400 nurse managers and supervisors per year.
    The Department of Nursing Science manages the 150 students 
currently in the Army Enlisted Commissioning Program. Through close 
monitoring, we can identify potential problem students early in their 
academic programs and have substantially decreased the extensions in 
the program. The Army Nurse Corps is instituting an internship program 
scheduled to begin in spring 2008. This program, like many in the 
civilian sector, will bridge the gap between academia and practice for 
officers who are new to the profession. The anticipated outcome of this 
initiative is better educated and trained medical surgical staff nurses 
who can function independently.
    Finally, the Dialysis Technician Program trains 7-8 dialysis 
technicians each year to perform hemodialysis, hemofiltration, and 
other similar procedures in our facilities. Additionally, we train 
about 400 surgical technicians each year, and we are currently 
investigating national program certification for this specialty.
                         leadership in research
    The TriService Nursing Research Program (TSNRP), established in 
1992, provides military nurse researchers funding to advance research 
based health care improvements for the warfighters and their 
beneficiaries. TSNRP actively supports research that expands the state 
of nursing science for military clinical practice and proficiency, 
nurse corps readiness, retention of military nurses, mental health 
issues, and translation of evidence into practice.
    TSNRP is a truly successful program. Through its state-of-the-art 
grant funding and management processes, TSNRP has funded over 300 
research studies in basic and applied science and involved more than 
700 military nurses as principal and associate investigators, 
consultants, and data managers. TSNRP-funded study findings have been 
presented at hundreds of national and international conferences and are 
published in over 70 peer-reviewed journals.
    Army Nurse Corps studies focus on the continuum of military health 
care needs from pre- and post-deployment health to nursing-specific 
practices necessary to best care for the Warrior in theater.
    The Army Nurse Corps has a long and proud history in military 
nursing research established more than 50 years ago. Nurse researchers 
continue to contribute to the scientific body of knowledge in military-
unique ways to advance the science of nursing practice. Today we have 
33 doctoral-prepared nurse researchers working around the world. There 
are four well established nursing research cells at Walter Reed Army 
Medical Center, Brooke Army Medical Center, Madigan Army Medical 
Center, and Tripler Army Medical Center. Five additional research cells 
are being established at Womack Army Medical Center, Eisenhower Army 
Medical Center, Darnell Army Medical Center, William Beaumont Army 
Medical Center, and Landstuhl Regional Medical Center.
    The focus of these research cells is to conduct funded research 
studies to advance nursing science and to conduct small clinical 
evaluation studies to answer process improvement questions. They also 
assist Hospital Commanders and Deputy Commanders for Nursing analyze 
and interpret data, resulting in improved patient care and business 
processes. These research cells are instrumental in assisting staff 
members and students in developing and implementing evidence based 
nursing practice.
    Additionally, the Nurse Corps currently has one doctoral-prepared 
nurse researcher, two Army Public Health Nurses, and one medical-
surgical nurse deployed to Iraq as part of the Deployed Combat Casualty 
Research Team who conduct both nursing and medical research activities 
in theater. The ongoing nursing studies in theater cover a broad range 
of acute and critical care nursing issues, to include pain management 
practices at the Combat Support Hospital, hand hygiene in austere 
environments, ventilator-acquired pneumonia prevention, use of 
neuromuscular blocking agents during air transport, women's health, 
sleep disturbance, compassion fatigue, and providing palliative care in 
the combat environment.
    Thanks to the initiative and motivation of the nursing staff, 
Evidence-Based Practice is in full swing at Tripler Army Medical 
Center. In 2007, the nursing staff at Tripler completed 12 evidence-
based practice projects that changed nursing practices to prevent 
ventilator-acquired pneumonia, improve the management of diabetic 
patients, and screen patients with depression for cardiovascular 
disease. Other successful projects included preparing children for 
surgery, improving postpartum education for new parents, and providing 
depression screening to family members of deployed soldiers. They 
initiated a competency training program for nurses preparing to deploy 
in support of Operation Iraqi Freedom and Operation Enduring Freedom. 
The robust evidence-based practice initiative at Tripler has improved 
nursing care to a variety of patients, including soldiers and family 
members, and enhanced the professional practice of nursing at Tripler. 
These evidence-based practice initiatives were spearheaded by 
Lieutenant Colonel Debra Mark and Lieutenant Colonel Mary Hardy, 
Tripler Army Medical Center Nursing Research Service and supported by 
the TriService Nursing Research Program.
    Two evidence-based practice guidelines, Pressure Ulcer and Enteral 
Feedings, have been implemented at WRAMC and post-implementation data 
is being collected and analyzed. A third guideline, Deep Vein 
Thrombosis and Pulmonary Embolism Risk Assessment has been piloted and 
is ready for hospital-wide implementation at WRAMC. A fourth guideline 
regarding medication administration is currently in the initial stages 
of protocol development and funding acquisition. Once complete, the 
evidenced-based practice guidelines will be posted to the TriService 
Nursing Research Program's website for implementation across all 
Medical Treatment Facilities within the Department of Defense.
    We acknowledge and appreciate the faculty and staff of the USUHS 
Graduate School of Nursing for all they do to prepare advanced practice 
nurses to serve America's Army. They train advanced practice nurses in 
a multi-discipline, military-unique curriculum that is especially 
relevant given the current operational environment. Our students are 
actively engaged in research and the dissemination of nursing knowledge 
through the publication of journal articles, scientific posters, and 
national presentations. In the past year alone there have been over 21 
research articles, publications, abstracts, manuscripts, and national 
presentations by faculty and students at USUHS.
                   collaboration/innovative delivery
    The AMEDD team's collaboration with Government and non-Government 
organizations around the world has helped streamline care where it was 
otherwise fragmented, and has introduced innovations in the delivery of 
care. I would like to share with you some examples of these innovations 
and collaborative partnerships.
    Tripler Army Medical Center is in the process of implementing a new 
nursing care delivery model called Relationship Based Care under the 
guidance of Lieutenant Colonel Anna Corulli. This model of care's core 
principals are: patient and family centered care; registered nurse led 
teams with clearly defined boundaries for all nursing staff based on 
licensure, education, experience, and standards of practice; and 
primary nursing to promote continuity of care and ensure patient 
assignments are made to align the patient's needs with the competencies 
of the registered nurse. This is a resource driven model that 
necessitates a pro-active mindset regarding staffing, scheduling, skill 
mix and professional nurse development.
    The Relationship Based Care program has resulted in improved 
communication among engaged nursing staff members who are part of the 
problem resolution process on the nursing ward/unit. The program has 
restored the personal relationship between the nursing staff and the 
patients, and among the individual nursing unit staff members; it has 
also promoted continuity of care and patient education. The model 
asserts the baccalaureate-trained Registered Nurse as team leader 
cognizant of the competencies and functions other members of the 
nursing care team bring to successful and safe patient outcomes.
    Despite a sustained upswing in enrollments in baccalaureate nursing 
programs, the need for nurses continues to outpace the number of new 
graduates. Baccalaureate programs continue to turn away tens of 
thousands of qualified applicants each year due to faculty shortages. 
We remain committed to partnering with the civilian sector to address 
this and other issues contributing to the worldwide shortage of 
professional nurses. We are currently researching ways to encourage our 
retired officers to consider faculty positions as viable second career 
choices.
    Professional partnerships are a vital way in which to promote 
professionalism and collaboration. The Army Nurse Corps is engaged in 
these partnerships across the country and around the world. Colonel 
Patricia Nishimoto, (Ret.), Colonel Princess Facen, and Major Corina 
Barrow, in collaboration with Dr. ReNel Davis, Associate Professor of 
Nursing at Hawaii Pacific University (HPU) and Director of the 
Transcultural Nursing Center at HPU, planned and organized the very 
first Transcultural Nursing Conference for the State of Hawaii in 
Honolulu in April 2007. The Transcultural Nursing Advisory Board is 
currently planning the next conference.
    The University of Hawaii (UH) at Manoa School of Nursing and Dental 
Hygiene is in the planning stage of a formal partnership with Tripler 
Army Medical Center to establish resource sharing potential for faculty 
and student clinical practicum venues to strengthen the nursing 
profession in both the academic and clinical areas. In a first step 
toward this partnership, Lieutenant Colonel Patricia Wilhelm recently 
served as an acting UH faculty member to teach a pediatric clinical at 
Kapiolani Medical Center, filling a critical need for clinical faculty. 
The second major focus is to expand the graduate program by matching UH 
graduate students with Tripler's masters-prepared nursing staff serving 
in clinical faculty roles.
    In December 2005, U.S. Army and Air Force nurses assessed military 
nursing in Vietnam and recommended short and long-term plans for the 
development of professional military nursing in Vietnam. A delegation 
from Vietnam then visited the U.S. in April 2007 to review bachelor's 
level curricula at the University of Hawaii, nursing education and 
practice at Tripler Army Medical Center, and Army Nurse Corps training 
at the AMEDDC&S. Allowing several months for the Vietnam team to 
incorporate changes in their administrative, clinical, and educational 
processes and curriculum, the next step is for four U.S. Army Nurse 
Corps officers and one UH faculty member to follow up with 2 weeks in 
Hanoi, Vietnam, in September 2008. They will help Vietnam educators 
develop a bachelor-level curriculum for Vietnam Army Nurses, as well as 
troubleshoot, clarify, and problem-solve with hospital-based military 
nurses and the Vietnam Military Medical Department team. This exchange 
will enhance a positive U.S. influence and presence in Vietnam, improve 
readiness and interoperability in the Asia-Pacific region, and create 
competent coalition partners.
    Colonel Debbie Lomax-Franklin and Colonel Nancy K. Gilmore-Lee have 
established a first ever Memorandum of Agreement with the Joseph M. 
Still Burn Center in Augusta, Georgia, to provide intensive burn care 
training to Army Nurse Corps officers throughout the region who are 
preparing to deploy. The Still Burn Center is the largest burn 
treatment center in the Southeast, serving Georgia, South Carolina, 
Florida, and Mississippi. This civil-military partnership has vastly 
improved the readiness of Army Nurse Corps officers and contributed to 
the quality of care delivered in theater.
                        recruiting and retention
    The future of the Army Nurse Corps depends on our ability to 
attract and retain the right mix of talented professionals to care for 
our soldiers and their families. In addition to the shortage of nurses 
and nurse educators, competitive market conditions and current 
operational demands continue to be a challenge as we work to ensure we 
have the proper manning to accomplish our mission.
    We access officers for the Active Component through a variety of 
programs, including the Senior Reserve Officers' Training Corps (ROTC), 
the Army Medical Department Enlisted Commissioning Program, the Army 
Nurse Candidate Program, and direct accession recruiting. However we 
must develop a range of recruiting options to ensure we remain 
competitive to diverse applicants. We have a number of programs to 
achieve this end. The Army Nurse Corps utilized the following 
incentives to assist in improving both recruitment and retention of 
Army Nurses: the Professional Nurse Education Program, the Army 
Enlisted Commissioning Program, the Army Nurse Candidate Program, the 
Funded Nurse Education Program, Incentive Specialty Pay, Nurse 
Anesthetist Specialty Pay, Nurse Accession Bonus, Critical Skills 
Retention Bonus, and Health Professional Loan Repayment Program.
    The first of these is the Professional Nurse Education Program. In 
an effort to minimize the impact of faculty shortages, the Army Nurse 
Corps is piloting a strategy to leverage its resources on this 
important issue. This pilot program serves as a retention tool, as well 
as provides an additional skill set for the Officer. Six mid-grade Army 
Nurses with clinical master's or doctoral degrees have been detailed to 
a baccalaureate nursing program to serve as clinical faculty for 2 
years. The University of Maryland is the pilot site for this program. 
The presence of these officers in the Bachelor of Science in Nursing 
programs serves as an excellent marketing tool for Army Nursing. The 
University of Maryland was able to expand its undergraduate nursing 
program by 151 additional seats. In addition, the University is 
developing a clinical placement site at Kimbrough Ambulatory Care 
Center located at Fort Meade, Maryland.
    The Army Enlisted Commissioning Program allows enlisted soldiers 
who can complete a Bachelor of Science in Nursing (BSN) degree within 
24 months to do so while remaining on active duty. This program has 
provided a successful mechanism to retain soldiers, while ensuring a 
continuous pool of nurses for the Army. The number of seats available 
was increased from 75 to 100 per year for fiscal year 2008. 153 
students are enrolled in the program; 52 students graduated in fiscal 
year 2007; and 26 students have graduated to date in fiscal year 2008.
    The Army Nurse Candidate Program targets nursing students who are 
not eligible to participate in ROTC. It provides incentives to nursing 
students to serve as Army Nurses upon graduation from a BSN program. A 
bonus of $5,000 is paid upon enrollment, and another $5,000 is paid at 
either the start of the second year, or upon graduation for those 
enrolled for only 1 year. It also provides a stipend of $1,000 for each 
month of full-time enrollment. Individuals incur a 4- or 5-year active 
duty service obligation (ADSO) in exchange for participation in this 
program. For fiscal year 2008, 15 graduates accessed onto active duty 
took advantage of this incentive.
    The Funded Nurse Education Program (FNEP) provides an additional 
accession source for the Army Nurse Corps. It gives active duty Army 
officers serving in other branches the opportunity to obtain, at a 
minimum, a BSN or higher level nursing degree and continue to serve as 
Army Nurse Corps officers. For both fiscal year's 2008 and 2009, 25 new 
starts were funded. Six individuals started nursing school in fiscal 
year 2008 under FNEP, and a recent FNEP board filled all 25 seats for 
starts in the fall of 2008.
    The Active Duty Health Professional Loan Repayment Program is 
offered as an accession incentive. As participants in this program, 
nurses can receive up to $38,300 annually for 3 years to repay nursing 
school loans. In fiscal year 2008, 28 direct accession Nurse Corps 
officers were brought into the Army under this program.
    The Accession Bonus remains attractive to direct accessions. In 
fiscal year 2008, 19 officers accepted an accession bonus of $25,000 
and were accessed into the ANC in exchange for a 4-year ADSO, and 9 
officers accepted an accession bonus of $15,000 and were accessed into 
the ANC in exchange for a 3-year ADSO. A combination of the Accession 
Bonus and Active Duty Health Professional Loan Repayment Program is 
also offered in exchange for a 6-year ADSO. In fiscal year 2008, 20 
officers accepted these combined incentives and were accessed into the 
ANC.
    We continue to scrutinize retention closely and we work constantly 
to refine our retention strategies. A recent review of personnel 
records by the Department of the Army indicated that the Army Nurse 
Corps had the highest attrition rate of any officer branch in the Army. 
Ongoing research indicates that Army Nurses leave the service primarily 
because of less than optimal relationships with their supervisors and 
hospital leadership and the length of deployments. Those who stay do so 
because of our outstanding educational opportunities, the satisfaction 
that comes with working with soldiers and their families, and 
retirement benefits.
    We are pleased to note that we offer a Registered Nurse Incentive 
Specialty Pay (RN ISP) program that recognizes the professional 
education and certification of Army Nurses. This program, approved in 
August of 2007, is now fully implemented. The RN ISP offers eligible 
officers a payment schedule of $5,000 for a 1-year ADSO, $10,000 a year 
for a 2-year ADSO, $15,000 a year for a 3-year ADSO, and $20,000 a year 
for a 4-year ADSO. In order to be eligible for the active duty RN ISP, 
Registered Nurses must complete both post baccalaureate training and be 
certified in their primary clinical specialty. Certification is the 
formal recognition of the specialized knowledge, skills and experience 
demonstrated by achievement of standards identified by nursing 
specialties to promote optimal health outcomes. However, the real value 
of certification is in the numerous positive outcomes for our patients.
    Numerous studies have demonstrated the link between certified 
nurses and improved patient outcomes. These include higher patient 
satisfaction, decreased adverse events and errors, the improved ability 
to detect early signs or symptoms of patient complications, and 
initiate early interventions. Certified nurses also reported increased 
personal and professional satisfaction and improved multidisciplinary 
collaboration.
    The following clinical nursing specialties are eligible for the RN 
ISP: Perioperative Nursing (66E), Critical Care Nursing (66H8A), 
Emergency Nursing (66HM5), Obstetrics/Gynecological (OB/GYN) Nursing 
(66G), Psychiatric/Mental Health Nursing (66C), Medical-Surgical 
Nursing (66H), Community/Public Health Nursing (66B), Nurse Midwife 
(66G8D), and Nurse Practitioners (66P). Although only implemented in 
August 2007, the RN incentive specialty pay proved to be an excellent 
retention tool.
    The total nursing population eligible for this incentive is 
currently 669 personnel. To date, 577 nurses have applied for incentive 
specialty pay which amounts to approximately 74 percent of the eligible 
population. Out of this population, the majority opted for the 4-year 
RN ISP.
    Nurse anesthetists can also receive special pay in the amount of 
$40,000. Of the 170 nurse anesthetists that were eligible for this 
specialty pay, there were 161 on active duty that took advantage of 
this incentive. Nevertheless, I remain very concerned about our 
certified registered nurse anesthetists (CRNAs). Our inventory is 
currently at 66 percent--down from 70.8 percent at the end of the last 
fiscal year. The U.S. Army's Graduate Program in Anesthesia Nursing has 
been rated as the second best in the Nation; however, we have not 
filled all of our available training seats for the past several years. 
Additionally, many of these outstanding officers opt for retirement at 
the 20-year point. The restructuring of the incentive special pay 
program for CRNAs in 2005, as well as the 180-day deployment rotation 
policy have helped slow departures in the mid-career range. This coming 
June, we start one of the largest classes in the history of the 
program. However, there is still much work to be done to ensure there 
are sufficient CRNAs to meet mission requirements in the future. We 
continue to work closely with The Surgeon General's staff to closely 
evaluate and adjust rates and policies where needed to retain our 
CRNAs.
    The Army is also concerned with retention of company grade 
officers, and recently announced the implementation of a Critical 
Skills Retention Bonus (CSRB) for regular Army captains, including Army 
nurses. This is a temporary program to increase retention among 
officers with specific skills and experiences. Qualified officers 
received a one time payment of $20,000 for a 3-year ADSO and 288 Army 
Nurse Corps officers have taken advantage of the CSRB to date.
    For Reserve Component (RC) nurses, the issue is primarily the 
imbalance of professionally educated officers in the company grades. 
Many RC nurses do not have a BSN degree. As a result, only 50 percent 
have been educationally qualified for promotion to major over the past 
few years. This creates a concern for the future force structure of the 
senior ranks of the RC in the years to come. For this reason, we are 
grateful that the Chief, Army Reserve is focusing recruiting incentives 
on those nurses who already have a BSN degree and funding the 
Specialized Training and Assistance Program to allow both new 
accessions and existing Army Reserve nurses without a BSN to complete 
their degrees. These strategies will assist in providing well-educated 
professional nurses for the Army Reserve in the years ahead.
    As we continue to face a significant Registered Nurse shortage, it 
is essential that I address the civilian nursing workforce. We also 
face significant challenges in recruiting and retaining civilian 
nurses, particularly in critical care, perioperative, and OB/GYN 
specialties. This results in an increased reliance on expensive and 
resource exhausting contract support. We must stabilize our civilian 
workforce and reduce the reliance on contract nursing that impinges our 
ability to provide consistent quality care and develop our junior Army 
Nurses.
    The AMEDD student loan repayment program for current and new 
civilian nurse recruits has had an outstanding impact on recruiting and 
retaining civilian nurses. Over 185 civilian nurses have already 
elected to participate in the loan repayment program in exchange for a 
3-year service obligation. The program has been so successful that the 
AMEDD will continue the education loan repayment program. We must 
sustain such initiatives in the future if we are to maintain a quality 
nursing work force.
    More than ever, the Army Nurse Corps is focused on providing 
service members, retirees, and their families the absolute highest 
quality care they need and deserve. We continue adapting to the new 
realities of this protracted war, but remain firm on providing the 
leadership and scholarship required to advance the practice of 
professional nursing. We will maintain our focus on sustaining 
readiness, clinical competency, and sound educational preparation with 
the same commitment to serve those Service members who defend our 
Nation that we have demonstrated for the past 107 years. I appreciate 
this opportunity to highlight our accomplishments and discuss the 
issues we face. Thank you for your support of the Army Nurse Corps.

    Senator Inouye. May I now call upon Rear Admiral Christine 
M. Bruzek-Kohler.
STATEMENT OF REAR ADMIRAL CHRISTINE M. BRUZEK-KOHLER, 
            DIRECTOR, UNITED STATES NAVY NURSE CORPS
    Admiral Bruzek-Kohler. Thank you, good morning, Chairman 
Inouye, Ranking Member Stevens, Senator Mikulski, and 
distinguished members of the subcommittee.
    As the 21st Director of the Navy Nurse Corps, I am honored 
to offer testimony in this, the centennial anniversary of the 
Navy Nurse Corps. My written statement has been submitted for 
the record, and I'd just like to highlight a few key issues.
    Senator Inouye. Without objection.
    Admiral Bruzek-Kohler. In the past, the stigma of seeking 
medical attention for mental health issues hindered 
servicemembers from getting the full complement of care that 
they needed. The treatment of post-traumatic stress and 
traumatic brain injury are at the forefront of our caring 
initiatives. We have added a psychiatric mental health clinical 
nurse specialist to the Comprehensive Combat and Complex 
Casualty Care Program, and anticipate assignment of psychiatric 
mental health nurse practitioners with the marines in the 
operational stress control and readiness teams. These assets 
will expedite delivery of mental health services to our 
warriors.
    Today's Navy nurses, especially those who have served for 
less than 7 years, know firsthand of the injuries and illnesses 
borne from war. This is the only world of Navy nursing they 
have known. This ``normal'' world of caring is oftentimes a 
heavy cross to bear. Our Care of the Caregiver Program assists 
staff with challenging patient care situations by offering 
attentive listeners in the form of psychiatric mental health 
nurses who make rounds of the nursing personnel to assess for 
indications of increased stress. Another caring initiative, 
Operation Welcome Home, founded by a Navy nurse, and widely 
recognized at the Expeditionary Combat Readiness Center, has 
ensured that over 5,000 soldiers, sailors, airmen and marines 
return from operational deployments, and receive a ``Hero's 
Welcome Home''.
    For a second consecutive year, I am proud to share with you 
that the Navy Nurse Corps has met its active duty direct 
accession goal. Our nurses' diligent work and engagement in 
local recruiting initiatives have contributed to these positive 
results.
    But while I boast of this accomplishment, I fully realize 
that my losses continue to exceed my gains. These losses, and 
the continued challenge we face in meeting our Reserve 
component recruiting goals, mean fewer Navy nurses to meet an 
ever-growing healthcare requirement.
    The Registered Nurse Incentive Special Pay Program is a new 
retention initiative designed to incentivize military nurses to 
remain at the bedside providing direct patient care. Wartime 
relevant undermanned specialties with inventories of less than 
90 percent are eligible for this specialty pay.
    Additionally, we have deployed innovative approaches to 
retain nurses. For the first time since 1975, Navy nurses 
within their initial tour of duty may apply for a master's 
degree in nursing via the Duty Under Instruction Program. The 
Government Service Accelerated Promotion Program has also been 
successful in retaining our Federal civilian registered nurses 
and reducing RN vacancy rates.
    We are proud of the partnerships we have established in 
enhancing the education of our nurses. At the Uniformed 
Services University, our Nurse Corps Anesthesia Program, ranked 
third in the Nation among 108 accredited programs by the U.S. 
News & World Report, will merge with the Graduate School of 
Nursing to form one Federal program. We have also contributed 
faculty to the university's newly developed psychiatric mental 
health nurse practitioner track.
    Tri-service nursing research is critically important to the 
mission of the Navy Nurse Corps, and I am committed to its 
sustainment. Our nurses are engaged in research endeavors that 
promote health, improve readiness and return our warriors to 
wellness.
    Aligned with the Chief of Naval Operations maritime 
strategy, Navy nurses supported global humanitarian missions 
aboard USNS Mercy and Comfort, and will be critical crewmembers 
in future operations. The versatile role of advanced practice 
nurses, especially family and pediatric nurse practitioners, 
make them particularly well-suited for these missions. Other 
specialties such as obstetrics and pediatrics deployed 
infrequently in the past are now critical to the support of 
missions focused on the care of women and children. Navy nurses 
serve in operational roles in worldwide medical facilities in 
Africa, Europe, Southwest and Southeast Asia, the Middle East, 
and also aboard various naval ships. Among our ``firsts'' in 
operational billets, a Navy nurse is now assigned to Fleet 
Forces Command in Norfolk, Virginia.
    One of my family nurse practitioners served for 1 year as 
the medical officer of a provincial reconstruction team in 
Afghanistan where he provided care to civilians, Afghan 
military and police, as well as coalition forces. In this role 
he participated in over 100 ground assault convoys facing both 
direct and indirect fire. This depicts only one example of the 
challenging environments in which Navy nurses deliver care 
daily.
    In the past year, I have had the opportunity to see my 
nurses at work in military treatment facilities ashore and 
afloat. They are indeed a different type of nurse than those I 
have seen in the past. They are seasoned by war, confident, 
proficient and innovative and fully recognize why it is they 
wear this uniform. It is said that the eyes are the mirror to 
the soul, and the eyes of my nurses yield more than words can 
ever impart. They truly love what they do, and they want to be 
no place other than where they are, caring for America's 
heroes.

                           PREPARED STATEMENT

    I appreciate the opportunity to share some of the 
accomplishments of my nurses, and I look forward to continuing 
our work together as I carry on as Director of the Navy Nurse 
Corps.
    Thank you.
    Senator Inouye. I thank you very much, Admiral.
    [The statement follows:]
     Prepared Statement of Rear Admiral Christine M. Bruzek-Kohler
                            opening remarks
    Chairman Inouye, Ranking Member Stevens and distinguished members 
of the subcommittee, I am Rear Admiral (upper half) Christine Bruzek-
Kohler, the 21st Director of the Navy Nurse Corps and privileged to 
serve as the first Director at this rank. I am particularly honored to 
offer this years' testimony in this, the centennial anniversary of the 
Navy Nurse Corps. It has indeed been a century hallmarked by courageous 
service in a time-honored profession, rich in tradition and unsurpassed 
in its commitment to caring.
    Today I will highlight the awe-inspiring accomplishments of a Navy 
Nurse Corps that is 4,000 nurses strong. Just like our nursing 
ancestors, today's Active and Reserve Component nurses continue to 
answer the call of duty whether it be at the bedside of a patient in a 
Stateside military treatment facility, aboard an aircraft carrier 
transiting the Pacific, in a joint-humanitarian mission on one of our 
hospital ships, in an Intensive Care Unit (ICU) at Landsthul Regional 
Medical Center, or in the throes of conflict in Iraq. Navy nurses stand 
shoulder to shoulder, supporting one another in selfless service to 
this great Nation.
    We are a Nation in a continuing war and the true mission of the 
Navy Nurse Corps both today, and in 1908 when we were first established 
by Congress, has remained unchanged: caring for our warriors as they go 
into harm's way. Nurses play an invaluable role in Navy medicine. We 
are relied upon for our clinical expertise and are recognized for our 
impressive ability to collaborate with a host of other healthcare 
disciplines in caring for our warriors, their families and the retired 
community.
    In the past year, nurses at the National Naval Medical Center 
(NNMC) have treated, cared for, cried with, laughed and at times 
mourned for, over 500 casualties from Operation Iraqi Freedom and 
Operation Enduring Freedom. The professionalism and humanity of this 
profoundly talented and dedicated nursing team, as well as all my 
nurses throughout Navy medicine, have made all the difference in the 
world to the wounded warriors and their families.
                              warrior care
    The Comprehensive Combat and Complex Casualty Care (C5) Program at 
the Naval Medical Center San Diego (NMCSD) was developed in 2006 to 
provide the highest quality of care for wounded warriors and their 
families. It now includes the addition of a psychiatric clinical nurse 
specialist and a Family/Emergency Room Nurse Practitioner. The nurse 
practitioner serves as the C5 medical holding company's primary care 
manager. The psychiatric clinical nurse specialist works in 
collaboration with one of the command chaplains. Together, they 
facilitate bi-weekly support groups for Operation Iraqi Freedom/
Operation Enduring Freedom vets who are undergoing medical treatment at 
NMCSD. The focus of these groups is to facilitate discussions related 
to challenges and experiences servicemembers face and future outlooks 
for them.
    The Balboa Warrior Athletic Program (BWAP) encompasses mastery of 
previous skills patients engaged in prior to sustaining a life-altering 
injury. Cooking classes, swimming, water and snow skiing outings, yoga 
clinics, strength, and conditioning training, have culminated in an 
unintended, yet positive consequence as these warriors begin to 
willingly disclose Post Traumatic Stress Disorder (PTSD) issues, 
medical challenges, and the effects of war on their current lifestyle.
    Project Odyssey was initiated in November 2007 by the Wounded 
Warrior Project at NMCSD. This 3-day program focuses on self-
development, knowledge and challenges recently returning warriors face 
from their PTSD using sports and outdoor recreational opportunities. 
The goal of this program is to reestablish structure and routine, 
enforce team work and decrease isolation among returning warriors.
    At Naval Medical Center Portsmouth (NMCP), Wounded Warrior 
Berthing, also known as the ``Patriot Inn,'' was developed in August 
2007. It provides easily accessible accommodations, monitoring, and 
close proximity to necessary recovery resources for active duty 
ambulatory patients in varying stages of their health continuum within 
NMCP. The Patriot Inn staffing now include a case manager, recreation 
therapist, and clinical psychologist. A future construction plan 
includes reconfiguration of an existing site on the compound to 
increase capacity.
                         nurse case management
    Case managers are members of multi-disciplinary teams and integral 
in the coordination of care for our servicemembers as they transition 
from military treatment facility to a VA facility closer to home, or 
another civilian or military treatment facility. Our case managers work 
in conjunction with the staff of the Wounded Warrior Programs, Navy 
Safe Harbor, and United States Marine Corps (USMC) Wounded Warrior 
Regiments. They have been assigned to the Traumatic Brain Injury (TBI) 
and PTSD patient populations specifically to ensure continuity of care 
and point of contact for ongoing coordination of services and support 
for C5 patients at NMCSD.
    Efficacy of case managers' efforts may be best reflected in the 
following examples from some of our commands. A staff nurse assigned to 
the Camp Geiger Branch Medical Clinic serves as a case manager for the 
injured marines in the Medical Rehabilitation Platoon (MRP) at the 
School of Infantry-East. The number of marines in this platoon was 
maintained at 70-80 members over the past year with half of them 
returning to duty or training within 30 days. The nurse was able to 
expedite primary and specialty care appointments, ensure clear lines of 
communication with the Marine Corps leadership through weekly meetings 
and met with all the MRP marines on a regular basis to review and 
update their plan of care. Utilization of a case manager for the MRP 
improved compliance with the required care regimen and decreased the 
overall length of stay for marines in MRP.
    Nurses in other military treatment facilities have also become 
active in case management. At Naval Healthcare New England, the nurses 
work in conjunction with Army points of contact to coordinate care for 
soldiers' recovery at home. Two case managers at Naval Health Clinic 
Corpus Christi co-manage cases with Brook Army Medical Center for the 
Wounded Warrior Program, coordinating care for Fort Worth enrolled 
Soldier/Warriors in the Transition Program. Nurses assigned to Naval 
Hospital (NH) Great Lakes work collaboratively with the North Chicago 
VA Medical Center in tracking their wounded warrior population. Nurse 
case managers in the Pacific Rim (Hawaii) are following 120 patients to 
ensure they receive continuity of care throughout the Military 
Healthcare System.
                 psychiatric and mental health nursing
    Mental health care is a national concern, and we, in the Navy and 
Navy Nurse Corps, recognize our tremendous responsibility and 
accountability to ensure our patients receive the best possible mental 
health care. With this responsibility comes the realization that we 
have an ever increasing need for psychiatric mental health nurse 
practitioners and clinical nurse specialists. A pilot program of 
embedded staff with the Marines, the Operational Stress Control and 
Readiness (OSCAR) teams, is composed of Navy psychologists or 
psychiatrists, psychiatric technicians, chaplains or social workers. 
The goal of the pilot program is to establish permanently staffed teams 
that train and deploy with each regiment group. Psychiatric Mental 
Health nurse practitioners are being considered as potential providers 
for this requirement.
    The requirement to fill OSCAR teams, combined with the increased 
Marine medical requirement and the growing need for dependent care, 
pose a significant impact to an already overburdened community of 
mental health nurses. I am presently undertaking a full review of the 
manning requirements for mental health nursing to ensure that Navy 
medicine has the right number and level of expertise in concentrated 
areas of patient mental health care needs.
                          family-centered care
    Our mission involves not only the care of the active duty member, 
but also their family, their dependents, and America's veterans who 
have proudly served this country. Such care is not delivered in a 
single episodic encounter, but provided over a lifetime in a myriad of 
locations here and abroad.
    Obstetrical (OB) service continues to be one of our largest product 
lines. It can be challenging to find enough experienced labor and 
delivery nursing staff during peak periods. In some of our regions, 
this has required an increase in resource sharing agreements to 
supplement our military staff. As needed, our regional medical 
commanders utilize active duty nurses from low volume labor and 
delivery units to provide temporary additional duty at treatment 
facilities that are experiencing peak numbers of births.
    In some of our pediatric departments, nurses manage the well-baby 
clinics and see mothers and babies within days after discharge to 
provide post-partum depression screening and education. Babies receive 
a physical exam, weight and bilirubin check. Thus the couplet is 
assessed independently, and as a unit, further reinforcing the Surgeon 
General's concept of family-centered care.
    Naval Hospital Bremerton (NHB) offers the Centering Pregnancy model 
of group prenatal care which brings women together to empower them to 
control their bodies, their families and their pregnancies. Facilitated 
by a nurse practitioner, Centering Pregnancy was initially a Tri-
Service funded research project conducted by NHB and the 1st Medical 
Group Langley with data collection concluding in 2007. The application 
of this model on military family readiness and military health care 
systems showed greater satisfaction and participation in care with the 
Centering Program, reduction in waiting time to see providers and 
participants had significantly less expression of guilt or shame about 
depression. Navy medicine is currently assessing ways to expand this 
program.
    Four of our nurses (military and civilian) recently had an article 
published in Critical Care Nursing Clinics of North America. It spoke 
poignantly of lessons learned in caring for wounded warriors. It 
depicted the sacrifice and dedication required in coordinating 
sophisticated and multi-disciplinary care for these patients and their 
families. This further elucidates how family-centered care makes a 
tremendous difference for the recovery of the injured by including care 
of the family and their involvement in the overall care of the wounded 
warrior.
    Lastly there is the care of the family by Navy nurses that no one 
sees: the lieutenant junior grade who travels to New York on his day 
off to attend the funeral of one of his patients and is immediately 
recognized by the family and invited to their home for dinner after the 
service; the nurse who held the hand of a blind and injured soldier, 
crying and praying with him on a night in which he is unable to wake 
himself from flashbacks and nightmares--who attributes the soldier's 
perseverance through the highs and lows of his recovery as a source of 
inspiration to her; the soldier who sustained TBI and an amputation of 
one of his legs and can recall nothing of his prolonged 
hospitalization, but his father remembers and escorts his son on a 
visit to the ward so the staff can witness his healing and hear tales 
of his snowboarding adventures in Colorado; the soldier who lost both 
of his legs and suffered multiple life threatening injuries and was in 
complete isolation until the nursing staff was able to assist him in 
safely holding his new baby daughter without worry of transferring 
infections to her. It is indeed this type of selfless and compassionate 
care that has been embraced by my nurses in the integral role they play 
in both patient and family-centered services.
                         care of the caregiver
    Today's Navy nurses, especially those who have served for less than 
7 years, know firsthand the injuries and illnesses borne from war. This 
is the only world of Navy nursing they have known. This is their 
``normal'' world of caring. And this new ``normal'' may oftentimes be a 
heavy cross to bear. At NNMC, our psychiatric mental health nurses and 
others with mental health nursing experience make rounds of the nursing 
staff and pulse for indications of increased staff stress. They then 
provide to the identified staff, education on ``Care for the 
Caregiver.'' They are available to help staff with challenging patient 
care scenarios (increased patient acuity, intense patient/family grief, 
and staff grief) and offer themselves as attentive, non-judgmental 
listeners through whom the staff may vent.
    In addition to the classes on `Compassion Fatigue' offered by 
command chaplains to our nurses and hospital corpsmen, some commands 
host provider support groups where health professionals meet and 
discuss particularly emotional or challenging patient cases in which 
they are or have been involved. Aboard the USNS Comfort, Psychiatric 
Mental Health Nurses and Technicians were located at the deckplate in 
the Medical Intensive Care Unit, Ward and Sick Call to help members 
that might not report to sick call with their complaints of stress.
    In many of the most stressful deployed locations, our senior nurses 
are acutely attuned to the psychological and physical well-being of the 
junior nurses in their charge. They ensure that staffing is sufficient 
to facilitate rotations through high stress environments. Nurses are 
encouraged to utilize available resources such as chaplains and 
psychologists for guidance and support in their deployed roles and 
responsibilities.
    Our deploying nurses have been asked to hold positions requiring 
new skill sets often in a joint or Tri-Service operational setting. As 
individual augmentees, they deploy without the familiarity of their 
Navy unit, which oftentimes may pose greater stress and create special 
challenges. Our nurses who fulfill these missions require special 
attention throughout the course and completion of these unique 
deployments. I have asked our nurses to reach out to their colleagues 
and pay special attention to their homecomings and re-entries to their 
parent commands and they have done exactly that.
    At U.S. Naval Hospital Okinawa, nurses ensure that deploying staff 
members and their families are sponsored and assisted as needed 
throughout the member's deployment. A grassroots organization, 
Operation Welcome Home, was founded by a Navy nurse in March 2006 with 
the goal that all members returning from deployment in theater receive 
a ``Hero's Welcome Home''. To date over 5,000 sailors, soldiers, airmen 
and marines have been greeted at Baltimore Washington International 
Airport (BWI) by enthusiastic crowds who indeed care for them as 
caregivers.
                             force shaping
    In January 2008, Navy Nurse Corps Active Component manning was 94.5 
percent and our Reserve Component manning was nearly the same at 94.4 
percent. Our total force is 4,043 strong. For the second consecutive 
year, I am proud to share with you that the Navy Nurse Corps has met 
its active duty direct accession goal. Yet as I boast of this 
accomplishment, I fully realize that my losses each year continue to 
exceed my gains, by approximately 20-30 nurses per year. These losses, 
and the continued challenge we face in meeting our recruiting goals in 
the Reserve Component, culminate in fewer nurses to meet an ever-
growing healthcare requirement.
                               recruiting
    So what has made the difference in our recruiting success? Our 
nurses' diligent work and engagement in local recruiting initiatives 
have yielded positive results. We are ahead of our recruiting efforts 
this year, more than where we were at this same time last year. The top 
three programs working in our favor toward this successful goal 
achievement include the increases in Nurse Accession Bonus (NAB) now at 
$20,000 for a 3-year commitment and $30,000 for a 4-year commitment; 
Health Professions Loan Repayment Program (HPLRP) amounts up to $38,300 
for a 2-year consecutive obligated service; and the Nurse Candidate 
Program (NCP), offered only at non-ROTC Colleges and Universities, 
which is tailored for students who need financial assistance while in 
school. NCP students receive a $10,000 sign-on bonus and $1,000 monthly 
stipend. Other contributors to our success include location of our duty 
stations and the opportunity to participate in humanitarian missions.
    We created a Recruiting and Retention cell at the Bureau of 
Medicine and Surgery (BUMED) with a representative identified from each 
professional corps. These officers act as liaisons between Navy 
Recruiting Command (CNRC), Naval Recruiting Districts (NRD), Recruiters 
and the MTFs and travel to and or provide corps/demographic specific 
personnel to attend local/national nursing conferences or collegiate 
recruiting events. In collaboration with the Office of Diversity, our 
Nurse Corps Recruitment liaison officer coordinates with military 
treatment facilities to have ethnically diverse Navy personnel attend 
national conferences and recruiting events targeting ethnic minorities.
    The Nurse Corps Recruitment liaison officer has created a speaker's 
bureau of junior and mid-grade Nurse Corps officers throughout the 
country and they are reaching out to colleges, high schools, middle and 
elementary schools. Our nurses realize that each time they talk about 
the Navy and Navy nursing they serve as an emissary for our Corps and 
the nursing profession. Unique platforms such as USNS Comfort and Mercy 
are phenomenal recruiting venues. Officers provide ship tours to area 
colleges and civilian organizations (Schools of Public Health, Medicine 
and Nursing from Johns Hopkins University, Montgomery College School of 
Nursing, Boy Scouts of America, United States Coast Guard Auxiliaries), 
hospitals, recruiting centers, and sponsor speakers' bureau 
representatives from the ships to present at local civic and health 
groups about the rewards and lessons learned of serving on a 
humanitarian mission.
    NMCP participated in Schools of Nursing Transition Assistance 
curricula for future Nurse Corps Officers by offering a 120-hour 
preceptor guided clinical externship. NMCP also developed the 
Coordination of Nursing mentorship experience which offers ``Job 
Shadowing'' of a Nurse for both enlisted staff and high school students 
who are considering the nursing profession as a career. U.S. Naval 
Hospital Yokosuka encourages seamen and corpsmen from area ships to 
``shadow'' nurses to see if a career in the Nurse Corps is for them.
    Our Reserve Component recruiting shortfalls particularly impact 
their ability to provide nursing augmentation in some of our critical 
wartime specialties. In addition to reserve accession bonuses and the 
stipend program, our reserve affairs officer has initiated telephone 
calls to Active Component nurses who are leaving active duty and shares 
information with them related to opportunities that exist in the Ready 
Reserve.
                               retention
    Naval Hospital Camp Pendleton (NHCP) has cross-trained their nurses 
for utilization during periods of austere manning secondary to 
increased op-tempo and deployments. Last year, several Outside 
Continental United States (OCONUS) military treatment facilities 
received ten Junior Nurse Corps (NC) officers who attended our new 
Perinatal Pipeline training program, designed for medical-surgical 
nurses who expect to work in Labor and Delivery or the Newborn Nursery 
at OCONUS military treatment facilities. This program has increased 
clinical quality for these commands and increased the knowledge and 
preparation of these junior NC officers. This year we will expand the 
training to geographically remote Continental United States (CONUS) 
facilities as well.
    The Officer Career Development Board developed at Naval Hospital 
Oak Harbor for officers in the grade of lieutenant and below provides 
for career progression opportunities as both an officer and nurse 
professional. The board also offers guidance and mentoring for optimal 
career development.
    The Registered Nurse Incentive Special Pay (RN-ISP) program is a 
new retention initiative begun in February 2008. This program is 
designed to encourage military nurses to continue their education, 
acquire national specialty certification, and remain at the bedside 
providing direct care to wounded sailors, marines, soldiers and airmen. 
In the Navy Nurse Corps, we selected critical wartime specialties 
manned at less than 90 percent for this incentive special pay. The 
specialties and their respective manning levels are perioperative 
nursing (86 percent), critical care nursing (62 percent), pediatric 
nurse practitioner (82 percent) and family nurse practitioner (82 
percent). Since the program has only recently been implemented, there 
is not sufficient data to determine its efficacy in retaining nurses.
    Among Navy nursing's retention tools are the Certified Registered 
Nurse Anesthesia (CRNA) Incentive Special Pay, Board Certification Pay 
for Nurse Practitioners, and the new Registered Nurse Incentive Special 
Pay. Service obligations are incurred in proportion to the amount of 
special pay received in the Certified Registered Nurse Anesthesia 
Incentive Special Pay and the Registered Nurse Incentive Special Pay. A 
recent increase in the Certified Registered Nurse Anesthesia Incentive 
Special Pay has encouraged many Navy CRNAs to stay on active duty.
    The fiscal year 2008 Nurse Corps Health Professional Loan Repayment 
Program (HPLRP) was awarded to 42 nurses with an averaged debt load of 
$27,361. The selected officers' years of commissioned service spanned 3 
to 10 years and most will incur service obligations through 2010. 
Selected nurses were in the grades of Lieutenant Junior Grade to 
Lieutenant Commander and the majority of the loans incurred were from 
their baccalaureate education.
    Military treatment facility nurses are actively involved in 
partnering with local universities to recruit NC officers, and they are 
serving as mentors with area Medical Enlisted Commissioning Program 
(MECP) students. Our facilities also serve as clinical rotation sites 
for many Schools of Nursing (SONs). NC officers serve both as affiliate 
faculty at Universities across the country and as clinical preceptors 
to students. Naval Health Clinic Cherry Point nurses act as preceptors 
to high school students in Certified Nursing Assistant programs.
    We are challenged to retain nurses due to on-going deployment 
cycles, Individual Augmentee roles, intensive patient care 
requirements, and low inventories of critical war time specialties. The 
fiscal year 2007 Nurse Corps continuation rate after 5 years, which is 
the average minimum obligation, is 67 percent. Our 5-year historical 
average is 69 percent. Thus, further consideration must be given to 
initiatives that mitigate mid-grade Nurse Corps attritions.
    In February 2007 the Accelerated Promotions Program for Civilian 
Registered Nurses was approved by the Chief, Bureau of Medicine and 
Surgery for implementation throughout Navy medicine. NHCP joined NMCSD 
in adjusting their nursing salaries for the first time in over 15 
years, increasing the Navy's ability to compete for experienced nurses 
in the local community.
    At NNMC, the Government Service (GS) accelerated promotion program 
has been tremendously successful and will be expanded. It helped reduce 
the Registered Nurse (RN) vacancy rate from 13 percent to <4 percent 
and increased continuing education training opportunities for all 
nurses. GS nurses hired under the accelerated promotion plan are 
integrated into the Nurse Intern Program, enhancing their transition 
into a military nursing milieu.
                   readiness and clinical proficiency
    In order to meet nursing requirements at home and in forward 
deployed settings, nurses must maintain clinical proficiency and 
competence. Our readiness and clinical proficiency team recently 
launched core competencies for medical/surgical, psychiatric, critical 
care and emergency nursing. These will be integral in standardizing 
nursing competency assessments throughout Navy medicine and, once 
initiated in a nurses' orientation to a clinical specialty, would then 
follow the nurse across the career continuum, thus eliminating rework 
of subsequent competency packets at each duty station.
    An off-shoot from this group was the Tri-Service Nursing Procedures 
Standardization workgroup, which identified a web-based nursing 
procedure manual for acquisition and utilization in all military 
treatment facilities. This tri-service proposal was briefed and 
approved by my fellow Service Corps Chiefs at the Federal Nursing 
Service Council meeting. Navy members are now engaged in identifying 
contract vehicle and consolidated funding sources.
                              operational
    The Navy Nurse Corps continues to be one of the largest deploying 
groups among all professional corps (Medical, Dental and Medical 
Service Corps) in Navy medicine. From January 2006 to March 2008, 232 
Active and Reserve Component Navy nurses have deployed.
    Our nurses served admirably in operational roles in Kuwait, Iraq, 
Djibouti, Afghanistan, Bahrain, Qatar, Indonesia, Thailand, Southeast 
Asia, Pakistan, Guantanamo Bay, Cuba, Germany and aboard both hospital 
ships USNS Mercy and Comfort and on many other grey-hulls. They are 
part of Provincial Reconstruction Teams (PRTs), Flight Surgery Teams, 
participate in the Sea Trial of the Expeditionary Resuscitative Surgery 
System (ERSS) and perform patient movement via Enroute Care at or near 
combat operations.
    The nurses who perform Enroute Care have clinical experience in 
either critical care or emergency room nursing and prior to deployment 
attend specialized training at Naval Operational Medical Institute in 
Pensacola, Florida or Fort Rucker, Alabama. Their training includes 
physiologic changes of patients at various altitudes, airframe and 
equipment familiarization.
    The nursing ``footprint'' is still essential and evident at 
Expeditionary Medical Facility (EMF) Kuwait. In a 6-month period (July 
2007-December 2007), a total of 3,564 casualties were received and 
treated. Other activities supported by Navy nurses at EMF Kuwait 
include the coordinated, joint support of immunizations for Japanese, 
British and Korean troops and a Kuwait-staged mass-casualty/interagency 
drill and Advanced Cardiac Life Support programs with the American 
Embassy in Kuwait.
    At Landstuhl Regional Medical Center, 98 Navy Reserve Component 
nurses work alongside their colleagues from the Army and Air Force. 
During the past 2 years, Navy nurses from this contingent have also 
worked in the warrior management center and made great strides in the 
provision of optimal care to the wounded as they transit on flights 
from Landstuhl Regional Medical Center to military treatment facilities 
in the CONUS.
    The top five deploying specialties in the Navy Nurse Corps include 
medical/surgical, perioperative, emergency/trauma, critical care and 
CRNAs. By the summer of 2007, 25 percent of all Active Duty CRNAs were 
deployed, from recent graduates with 1 year of experience to seasoned 
officers at the rank of captain. The CRNA community has held roles in 
every aspect of Operational Medicine: humanitarian missions, special 
warfare operations, routine ship trials and movements, deployments with 
the Marines. and as multiservice and international security force PRTs.
    Though not identified among the ``top five deploying specialties'', 
our Family Nurse Practitioner (FNP) community is one in which 60 
percent of current billets have associated deployment platforms. FNPs 
are integral to Family Practice residency training programs, continuing 
to provide access and deliver health care wherever they are assigned. 
Solidly grounded in disease prevention and health promotion, the FNP 
brings these tenets of nursing care to every patient encounter--
positively impacting population health in our communities and reducing 
the disease burden and associated costs of chronic disease management. 
A study undertaken by the Center for Naval Analysis in 2007 will 
provide a comprehensive assessment of the emerging roles of the FNP, as 
well as the Pediatric Nurse Practitioner communities.
    The preparation of our forward deployed nurses could not be as 
effectively accomplished without the support of Navy Individual 
Augmentee Combat Training (NIACT). Prior to deploying, personnel are 
sent to NIACT at Fort Jackson, South Carolina, where the training 
consists of combat, survival, convoy, weapons handling and firing, and 
land navigation. Nurses also wear the entire ensemble of Kevlar and 
Interceptor Body Armor (IBA) daily which in one nurse's words 
``sensitizes you to the hardships of wearing the gear everyday, every 
hour as those in Iraq do. I felt prepared when I arrived to 
Expeditionary Medical Facility Kuwait.''
    Proactive nursing leaders have front-loaded staff training with 
operational relevant topics. At Naval Hospital Great Lakes, Tactical 
Combat Casualty Care Course was taught to 98 staff members for 
deployment readiness. At NMCSD and NHCP nursing leaders are directing 
staff attendance at other war-fighting support programs such as Fleet 
Hospital training, Combat Casualty Care Course, Enroute Care Training, 
Military Contingency Medicine/Bushmaster Course offered at the 
Uniformed Services University of the Health Sciences, Joint Forces 
Combat Trauma Management Course, and Naval Expeditionary Medical 
Training Institute.
    The Navy Trauma Training Course, developed in 2002 and hosted in 
conjunction with Los Angeles County/University of Southern California, 
continues to be an integral training platform for forward deploying 
nurses. Since the course inception, 241 nurses have received this 
training prior to reporting to their operational billet. This course, 
in which 39 Navy nurses were trained in 2007, combines didactic, 
simulation labs and clinical rotations in the main operating room, ICUs 
and the emergency department.
                        humanitarian assistance
    My precepts for Navy nursing align with the Chief of Naval 
Operations' Maritime Strategic Plan. Based upon successes of past 
global humanitarian missions in which Navy nurses were embarked aboard 
USNS MERCY and COMFORT, we will be critical crewmembers once again in 
upcoming dual missions planned for 2008.
    The USNS COMFORT (T-AH 20) was deployed from June 2007-October 2007 
to participate in a humanitarian training mission for the ``Partnership 
for the Americas''; visiting 12 countries and seeing 98,650 patients in 
the Caribbean and South America including Belize, Guatemala, Panama, 
Nicaragua, El Salvador, Ecuador, Peru, Columbia, Haiti, Trinidad/
Tobago, Guyana and Surinam. The COMFORT and its teams of multiservice 
healthcare professionals, military, reserve, civilians and Non-
Government Organizations (NGOs) from various fields of study (Nursing, 
Public Health, Dentistry, Pediatrics, Infection Control, etc) provided 
a total of 1,197 classes to 28,673 students in 12 countries during the 
Partnership for the Americas cruise. Many of our nurses would later 
remark that while the days were long, the interactions with patients 
and feeling of having truly made a difference in someone's life would 
be lasting memories.
    Even while deployed at sea on humanitarian missions, the necessity 
for discharge planning programs became quite evident. Two Nurse Corps 
officers with experience in community/public health and case management 
were provided with two other hospital personnel familiar with MEDEVAC 
procedures to coordinate plans for the development and implementation 
of a new nursing discharge planning team on the COMFORT. Utilizing a 
multidisciplinary approach, the team integrated services of 11 
divisions and capitalized on host nation assets which included private 
physicians, Ministries of Health and NGOs to assure post-operative 
follow up care for over 2,200 patients in their homelands. This team 
initiated over 20 process improvements that streamlined admission to 
discharge care for 7,500 inpatients.
    The USNS MERCY (T-AH 19) is slated for its next humanitarian 
mission, ``Pacific Partnership,'' visiting regions of the Western 
Pacific and Southeast Asia in 2008. Augmenting crew members are 
expected to include joint, multinational and interagency personnel. In 
preparation for this mission, the senior nurse on board the ship has 
attended the Joint Operations Medical Managers Course and Military 
Medical Humanitarian Assistance Course.
    Navy nursing's altruistic spirit and readiness to help were 
demonstrated in our own country during the horrific wildfires that 
ravaged Southern California coastlines in October 2007. Amidst 
evacuating their own families and ensuring their safety was preserved, 
Nurse Corps officers were rallying to support the needs of their 
command and any impending requirement to augment civilian health care 
delivery services that were severely taxed during this massive natural 
disaster.
    During the subsequent evacuation of many civilian healthcare 
facilities due to imminent danger posed by the smoke and fire, 28 
patients from a local skilled nursing facility were relocated to NMCSD 
on a rapidly deployed contingency ward jointly staffed by NMCSD and 
Naval Hospital Twenty-nine Palms personnel. The nursing staff 
impressively responded to this call for assistance and conducted 
expeditious patient assessments to determine patient acuity and how to 
best meet patient needs.
    An additional ten patients were evacuated to NMCSD from Pomerado 
Hospital and were safely absorbed into the Medical/Surgical wards and 
the ICU. During and after this state emergency, 12 Nurse Corps officers 
from this hospital volunteered at the local stadium which became a 
temporary shelter, providing aid and assistance to hundreds of 
dislocated and homeless San Diego citizens.
    During this same wild fire disaster, the Nurse Corps officer 
department head at Camp Pendleton evacuated the 52 Area Branch Clinics 
(School of Infantry) in less than 90 minutes. A temporary clinic was 
established and 24-hour medical coverage was available to wildfire 
evacuees which included approximately 400 patients. This officer 
further embedded a medical contingent of eight hospital corpsmen and 
one independent duty corpsman to ensure continuous medical support was 
available to 4,000 marines that were evacuated from their barracks and 
were living in a field environment.
    The Nurse Corps officer department head from the 31 Area Branch 
Clinic (Weapons Training Area) evacuated his clinic and relocated his 
staff to another base clinic and provided round- the-clock medical care 
to 1,000 evacuees in the Del Mar area of Marine Corps Base Camp 
Pendleton.
                     education program and policies
    Continuation of a Navy nurses' professional development via 
advanced educational preparation is necessary to better serve our 
beneficiary population, fortify their respective communities of 
practice and for promotion. My education program and policy team works 
to identify educational opportunities to Navy Nurses, expand the 
utilization of dual certified advanced practice nurses and formulate a 
mentorship program for entry-level nurses who are accessioned via the 
Nurse Candidate Program, Medical Enlisted Commissioning Program and the 
Reserve Officer Training Corps.
    This year marks the first time since 1975 that nurses within their 
first tour of duty may apply for a master's degree in nursing via the 
Duty under Instruction (DUINS) out-service training program. Our long-
term goal for this initiative is to increase service retention at 
critical junctures in a young officer's career and facilitate earlier 
entry into specialty communities of their choice. Over 70 new graduates 
with Masters of Science in Nursing will be assigned to new duty 
stations in 2008.
                               mentorship
    The role that Navy Nurses hold as mentors to our corpsmen and 
junior officers also serves to bolster recruiting efforts in our 
pipeline programs for enlisted members through the Medical Enlisted 
Commissioning Program (MECP) and the Seaman to Admiral Program (STA-21) 
and supports the retention of subordinate colleagues who perhaps once 
pondered a career outside of Naval service.
    Navy nurses enthusiastically embrace their role as mentors and 
activities involving such are pervasive throughout our treatment 
facilities. At NMCSD, 12 Nurse Corps option ROTC midshipmen spent 4 
weeks in clinical rotation on medical/surgical wards. These ``fledgling 
nurses'' became proficient with venipuncture and had exposure to 
operational nursing roles at NHCP and aboard USNS MERCY.
    NMCP promotes active mentoring roles with local MECP candidates. 
Navy Nurses assigned here also visit local job fairs as hosted by 
regional SONs and provide candid answers to queries from nursing 
students who are interested in service to their country.
                collaborative/joint training initiatives
    Many commands, perhaps not routinely affiliated with SONs, serve as 
practicum sites for students. At BUMED, senior nurse executives are 
preceptors for college juniors or seniors as they study nursing 
leadership. At U.S. Naval Hospital Naples, Italian nursing students are 
mentored by Navy nurses as they compare and contrast the medical 
systems of the two countries.
    The Navy Nurse Corps Anesthesia Program, ranked third in the Nation 
among 108 accredited Certified Registered Nurse Anesthesia programs by 
U.S. News and World Report, will unite with the Uniformed Services 
University of the Health Sciences (USUHS) Graduate School of Nursing 
nurse anesthesia program to form one Federal Nursing anesthesia 
program. The first class matriculates in May 2008.
    Additional partnerships with USUHS include the provision of a 
Psychiatric Mental Health Nurse Practitioner as faculty member to the 
newly developed Psychiatric Mental Health Nurse Practitioner Program. 
This nurse will join other colleagues from the Armed services who serve 
on faculty at the Graduate School of Nursing.
    Home to a robust, state-of-the-art ICU, NNMC became a training site 
for our Air Force nursing colleagues who require rigorous exposure to 
critically ill patients in preparation for their role on Critical Care 
Air Transport Teams. Internationally recognized as a site of clinical 
excellence, each year the Greek Navy sends three active duty nurses to 
Bethesda for training in critical care, medical/surgical and oncology 
nursing.
    Since July 2006, NMCP, in collaboration with Langley Air Force Base 
(AFB), has provided a comprehensive Perinatal Training Course for Air 
Force, Navy and civilian service RNs. Current Perinatal Training 
Programs provided at NMCP include a 6-week perinatal training 
consisting of a 2-week didactic curriculum at Langley Air Force Base 
and a 4-week clinical practicum with assigned preceptor. Collaboration 
among Perinatal Training Program Managers from NMCP and Langley AFB, 
Navy Medicine Manpower Personnel Training and Education Command and the 
BUMED Women's Health Specialty Leader led to proposed curriculum 
changes that will align with NMCSD's new program. NMCSD hosted and 
developed the Navy's 1st Perinatal Pipeline Training Program for Navy 
Nurses in receipt of orders for assignment to maternal-infant care 
units in overseas military treatment facilities.
    In December 2007, two senior Nurse Corps officers from NMCSD 
participated in a project with the University of Zambia to develop a 
Masters degree in Community and Public Health Nursing with an emphasis 
on infectious disease (HIV/AIDS) surveillance, prevention, care and 
treatment. These officers will be returning to Zambia in the summer of 
2008, where they will continue to assist the University with the 
development of this program as well as a Physician Assistants 
equivalent school, lab technology and medical assistant schools.
    Despite their geographic remoteness, our OCONUS military treatment 
facilities are very actively engaged in activities with U.S. facilities 
and host nation communities. Naval Hospital Guam participated in a 
nationwide exercise conducted simultaneously in multiple states in 
which various disaster scenarios were enacted, requiring involvement of 
both military and civilian resources to achieve a safe and successful 
outcome. U.S. Naval Hospital Yokosuka offers annual training for Sexual 
Assault Nurse Examiner, Trauma Nurse Casualty Care, Perinatal 
Orientation and Education Program, Neonatal Orientation and Education 
Program and Neonatal Resuscitative program for tri-service and Japanese 
military Self-Defense Force participation. U.S. Naval Hospital Okinawa 
supports local nursing education via a clinical intercultural nursing 
experience hosted semi-annually with the Hokobu Nursing School.
                                research
    The Tri-Service Nursing Research Program (TSNRP) is critically 
important to the mission of the Navy Nurse Corps and I am committed to 
its sustainment. Our nurses are engaged in research endeavors that 
promote health, improve readiness and return our warriors to wellness. 
An ongoing study conducted by a Navy Nurse, ``Evidence-Based Practice 
Center Grant (2002) Study'' provided training to nurses and funded 
initiatives from multiple military treatment facilities to translate 
evidence to practice. Another study entitled, ``Clinical Knowledge 
Development of Nurses in an Operational Environment (2003)'', uses 
information gleaned from interviews with nurses from Army, Navy, Air 
Force and Public Health Service who had deployed either in theatre or 
to natural disaster areas and identified subsequent knowledge necessary 
to this setting. ``The STARS Project: Strategies to Assist Navy Recruit 
Success (2001)'' culminated in BOOT STRAP Intervention which changed 
the policy of how Commanders approached recruits. The number of 
recruits separated from the Navy before completing basic training was 
reduced from a high of nearly 30 percent to <15 percent. A Navy nurse 
directed study on ``The Lived Experience of Nurses Stationed Aboard 
Aircraft Carriers (2000)'' changed policy about assigning new Ensigns 
to aircraft carriers.
    In addition to TSNRP endeavors, our doctorally prepared Navy nurses 
assigned throughout our military treatment facilities have actively 
engaged many nurses in a plethora of robust research initiatives that 
include areas of maternal/neonatal care, pediatrics, anesthesia, 
critical care and military populations deployed on ships. One of the 
graduates of the Navy Nurse Corps Anesthesia Program competed against 
both medical and nursing colleagues and won the 2007 Navy-wide Academic 
Research Competition staff category for his study.
                              publications
    Navy nurses are prolific authors whose works encompass all 
specialty areas of nursing and have appeared in nationally recognized 
publications as follows: Critical Care Nursing Clinics of North 
America; AORN Journal; Nursing Spectrum; Advance for Nurse 
Practitioners; Journal of Nursing Education; The Nurse Practitioners 
Journal; Journal of Wound, Ostomy & Continence; Journal of Pediatric 
Healthcare; Journal of Obstetric, Gynecologic and Neonatal Nursing; 
Dimensions of Critical Care Nursing; Military Medicine.
                        educational partnerships
    While all of our nurses do not teach every day in traditional brick 
and mortar SONs, they are still teachers in their service as clinical 
preceptors and as guest faculty/lecturers to our corpsmen, military and 
Government service nurses. They are also role models and recruiters to 
civilian nursing students who seek an opportunity to gain a lifetime of 
personal satisfaction in service to humanity and our Nation.
    One of our nurses teaches in an undergraduate nursing program at 
Hawaii Pacific University and another has precepted over 850 clinical 
hours for nurse practitioner students. Medical/surgical nurses are 
precepting civilian nursing and graduate students from Georgetown, 
Johns Hopkins, University of Guam, University of North Florida and the 
University of California at San Diego in our treatment facilities 
located in proximity to their SONs.
    Staff Nurse Anesthetists (CRNAs) assigned to the NNMC serve as 
clinical and didactic instructors for student nurses from the Nurse 
Corps Nurse Anesthesia programs at Georgetown University and USUHS.
    At Naval Hospital Beaufort, the nurse anesthesia staff established 
a memorandum of understanding (MOU) with the Medical University of 
South Carolina, College of Health Professions, and Anesthesia for 
Nurses program in September 2006. The first student arrived in December 
2006 and Navy Nurse Anesthetists have precepted 14 students to date. 
The MOU critically supports this region's anesthesia program and hands-
on training for nurse anesthetists. A senior Navy CRNA was selected 
Clinical Instructor of the Year for 2007 and was honored at the 
graduation ceremony in Charleston last May.
    Because of the size and scope of clinical specialties found at our 
medical centers at Bethesda, Portsmouth and San Diego, they have 
multiple MOUs with surrounding colleges and universities to provide 
clinical rotations for nurses in various educational programs from 
licensed practical/vocational nursing (including Army LPNs at the 
Bethesda site), Bachelor of Science in Nursing, Master of Science in 
Nursing, to Nurse Practitioner and Certified Nurse Anesthetist 
Programs.
    Our mid-sized MTFs are also actively engaged in training America's 
future nurses. Naval Hospital Twenty-nine Palms has developed a MOU 
with the California Educational Institute to serve as a clinical 
rotation site in support of developing the LPN to RN Bridge Program, 
while simultaneously maintaining current agreement with Copper Mountain 
College LPN and RN Nursing programs. Naval Hospital Great Lakes 
provides clinical sites for Family Nurse Practitioner clinical training 
and offers classes in Basic Life Support, Advanced Cardiac Life 
Support, Pediatric Advanced Life Support, and Neonatal Resuscitation 
Program to staff from the North Chicago VA Medical Center.
    It is not only the nurses of America that Navy nurses willingly 
teach, but also our own novice accessions. The Nurse Internship 
Program, available at each of our medical centers is a structured 
didactic and clinical curriculum involving a variety of nursing 
specialties which uses mentorship to transition the graduate nurse from 
the role of student to staff nurse. In 2007, we have cumulatively 
trained over 250 nurses. This program is also availed to our new 
civilian graduate nurse employees.
                               leadership
    The goals of the Nurse Corps leadership team include development 
and mentoring of future Nurse Corps leaders using identifiable 
leadership competencies across their career continuum.
    This year we celebrated two firsts: A Nurse Corps officer as the 
first Navy nurse assigned to a Fleet Forces Command role and another as 
the first to command a surgical company in Iraq. In September 2007, the 
first Nurse Corps Officer was assigned to U.S. Fleet Forces Command to 
provide analysis and recommendations on all professional and technical 
matters relating to nursing policy and practice throughout the fleet. 
As a senior staff officer, she also provides recommendation for health 
services support programs and policies related to health protection 
initiatives.
    CDR Maureen Pennington was awarded the Bronze Star in April 2007, 
for her role as the first Nurse Corps officer to serve as Commanding 
Officer of Charlie Surgical Company, Combat Logistics, 1st MLG, 1st 
MEF. CDR Pennington oversaw treatment of over 1,700 casualties. Despite 
increased numbers of patients with blast wounds from Improvised 
Explosive Devices, she and her team maintained an unprecedented 98 
percent combat wounded survival rate. In October 2007, she was 
recognized by California's First Lady with the Minerva Award, which 
honors women who have ``changed the State of the Nation with their 
courage, strength and wisdom.''
    Navy nurses are members and leaders not only at their military 
treatment facilities, but also in their community civic groups, non-
profit organizations, local, State and national civilian nursing 
associations and Federal nursing organizations. A Senior CRNA served 
for the 5th consecutive year on the Board of Directors for the Virginia 
Association of Nurse Anesthetists and served on the Public Relations 
Committee for the AANA National organization. Other Navy nurses hold 
the following leadership roles: President-elect of Sigma Theta Tau at 
The Catholic University of America, Director-Federal Nurses Association 
and Board of Directors-American Association of Critical Care Nurses. 
Our junior nurses have embraced a sense of community volunteerism and 
often work off-hours to support local area homeless shelters by 
preparing and serving meals, collecting and distributing clothing and 
assisting with facility renovations.
                              productivity
    The Nurse Corps Productivity Team developed a tri-service business 
strategy for inpatient and ambulatory care patient acuity assessment 
and staff scheduling system. The team which now includes the Tri-
Service Patient Acuity Staff Scheduling Working Group has met with 
Health Affairs and individual service representatives and are meeting 
with their respective Chief Information Officers to garner support as 
team activities move forward.
    Naval Hospital Beaufort's nurse-managed clinics decreased the 
pneumonia rate by 45 percent, GABHS (Group A & B Hemolytic 
Streptococcus) strep throat by 51 percent, febrile response syndrome by 
27 percent, and MRSA (Methicillin-Resistant Staphylococcus aureus) by 
26 percent through preventive medicine interventions with USMC recruit 
populations. Nurses at Naval Hospital Camp Lejeune assigned to Camp 
Geiger Branch Medical Clinic at the School of Infantry-East engaged in 
a collaborative effort with the Medical Clinic at Parris Island Recruit 
Depot to improve tracking and documentation of health care provided for 
recruits from accession to training. In a 6-month period these efforts 
culminated in significant cost savings by eliminating unnecessary 
duplication of lab work and immunizations.
    Nurse-run clinics established in four barracks at the Recruit 
Training Command (RTC) in Great Lakes facilitated triage and medical 
care of 200 recruits per day. The availability of these clinics 
decreased wait time in the main clinic from 3 hours to 20 minutes, 
recaptured 13,000 hours of previously lost recruit training time, 
provided for daily nursing rounds in ship compartments to monitor the 
status of Sick in Quarters/Limited Duty Recruits, and generated 
substantial cost avoidance for the RTC.
    Navy nurses at NMCSD were pivotal in developing an innovative model 
for tele-health nursing using the Armed Forces Health Longitudinal 
Technical Application (AHLTA) computer system. This project was 
developed with the goal of becoming a reliable system to provide 
documentation of patient calls which will improve continuity of care, 
while capturing nursing workload and improving nursing documentation. 
This project received the Access Award at the Healthcare Innovations 
Program Awards at the 2008 Military Health System Conference.
    Naval Health Clinic Hawaii collaborated with Hickam Air Force 
Base's 15th Medical Group on an evidenced-based practice project in 
caring for adult patients with Diabetes Mellitus (DM), showing an 
increase patient compliance as evidenced by their improving HbA1C and 
LDL values.
                             communication
    The overarching goal of the Nurse Corps Communication team is to 
develop two-way communication plans to optimize dissemination of 
official information that is easily accessible, current and understood. 
This has been accomplished via monthly ``Nurse Corps Live'' video tele-
conferences on a variety of topics relevant to our nursing communities, 
monthly electronic publication of ``Nurse Corps News'' newsletter which 
offers a venue to share information, events and articles with all 
nurses and the Nurse Corps webpage. The webpage serves as a portal to 
the Navy Nurse Corps detailers, policy and practice guidelines, 
advanced education offerings, career planning and messages from the 
Director of the Navy Nurse Corps. In the future, communication team 
members will be conducting surveys on webpage users to determine new 
requirements to improve accessibility and better meet user needs.
                            closing remarks
    The practice of nursing has changed over the last 100 years with 
research and technology, but the basic tenets of the profession are 
unchanged and timeless. We volunteered to wear the uniform, to practice 
our profession in a different environment and through this we have 
unlocked the secrets to our humanity and what is most important about 
caring for those willing to make the supreme sacrifice. Thanks to the 
generations of Navy nurses who moved us forward through other wars, we 
have a solid foundation upon which to meet the challenge of tomorrow. 
Our junior officers are our future and based on the passion and 
competence I see daily, our future looks bright indeed. We exist 
because we were and ARE mission essential. They needed us then; they 
need us now. We can be proud of what we have done and should be 
inspired and humbled by what we have left to do in the next 100 years.
    I appreciate the opportunity to share with you the remarkable 
accomplishments of my nurses. I look forward to continuing our work 
together as I carry on as Director and lead Navy nursing into its next 
century of excellence.

    Senator Inouye. And now may I recognize Major General 
Melissa Rank. General Rank.
STATEMENT OF MAJOR GENERAL MELISSA A. RANK, ASSISTANT 
            AIR FORCE SURGEON GENERAL NURSING SERVICES 
            AND ASSISTANT AIR FORCE SURGEON GENERAL 
            MEDICAL FORCE DEVELOPMENT
    General Rank. Mr. Chairman, and distinguished subcommittee 
members. It is an honor and great privilege to again represent 
your Air Force nursing team. The total nursing force is 
comprised of active duty, Guard, and Reserve officers, enlisted 
and civilian personnel.
    I am honored to have served with Brigadier General Jan 
Young, Air National Guard, Colonel Laura Talbot, Air Force 
Reserves, and Chief Master Sergeant David Lewis, Aerospace 
Medical Service, Career Field Manager.
    I look forward to serving with my new Reserve Mobilization 
Assistant, Colonel Anne Manly, and Chief Master Sergeant Joseph 
Potts, the newly appointed Aerospace Medical Career Field 
Manager. Together we represent a powerful total nursing force, 
directly supporting the Air Force's Secretary and Chief of 
Staff's top priorities.
    Whether at war or home station, our medics are providing 
world-class care. I offer this amazing act of heroism by one of 
our independent duty medical technicians, Staff Sergeant Jason 
Weiss.
    He's assigned to the 36th Rescue Flight, Fairchild Air 
Force Base, Washington. He and his fiance, Holly, were to be 
married on December 4, but he could not be there. Instead, his 
team was busy rescuing three injured, and nearly frozen, hikers 
trapped in an avalanche. Sergeant Weiss had to get the hikers 
to the extraction point before the chopper ran out of fuel. 
There would be no second chance.
    Low crawling, near exhaustion, Sergeant Weiss dragged the 
patient through 80 yards of waist-deep snow, to lifesaving 
treatment. Sergeant Weiss was married 4 days later, and Holly 
explained, ``He does such amazing things, that I have to share 
him.''
    The total nursing force is the backbone of deployed Air 
Force medical operational capability. A heightened demand has 
been placed upon us for advanced, highly complex clinical 
skills, and we are meeting the challenge.
    The 332nd Expeditionary Medical Group in Balad Air Base, 
Iraq continues to meet the mission with incredible success. 
This Air Force theater hospital is the hub for Operation Iraqi 
Freedom polytrauma and burn cases, and sustains a 98 percent 
survival rate, the best in history.
    From the moment a patient arrives into the Balad Air Base 
emergency room, until they reach definitive care at Landstuhl 
or stateside, an Air Force nurse and technician provide 24/7 
expert, compassionate care.
    On my recent trip to Balad Air Base and Bagram Air Base, 
Afghanistan members of our total nursing force related that 
their deployment has been the most personally and 
professionally rewarding experience of their lives.
    I was particularly moved by the story of Major Linda 
Stanley from the 31st Medical Group in Aviano, Italy. 
Paraphrasing her journal, ``I took care of a patient tonight, 
and I know I will never forget him. He had been on patrol, and 
lost his foot to an improvised explosive device (IED). For some 
reason, his bloody boot symbolizes all of the trauma patients 
that I'm taking care of--the vision of his boot, the sound of 
painful cries, and the smell of death are my senses side of 
war. I find life in these senses, and it reminds me of what is 
truly important in my own life. I am still glad that I 
deployed, and I hope I will always remember these feelings.''
    These are the heart-wrenching realities of war, and my team 
is committed to addressing the unique combat stress of 
caregivers. Our initiative is called R3--readiness, resilience, 
and rejuvenation. Our nursing team needs a high level of 
personal and professional readiness, an inner resilience, and 
the ability to rejuvenate after returning from deployment.
    As we develop our R3 programs, we will leverage our unique 
military nursing experience and commitment to care for 
ourselves and each other. Lieutenant Colonel Susan Jano, 
nursing supervisor at Balad Air Base, described it best, ``We 
saw mass casualties that training never quite prepared us for. 
We reached deeper into ourselves than we ever thought possible, 
and we cared for one another because we were all we had. 
Together, we made a difference.''
    We also are making a difference in Afghanistan, where the 
humanitarian mission is particularly robust. Zach was a child 
who had been hit by a bus. When he arrived at the Bagram 
emergency room, he had no pulse, his temperature was 91 
degrees, and he had astounding major abdominal injuries. 
Amazingly, after receiving extensive operations and nursing 
care, he went home with his family in just 30 days.
    The rewards of these efforts are highlighted by Major Daisy 
Castricone, currently deployed to Bagram Air Base, when she 
stated, ``You can see the appreciation and the love in their 
eyes for what we do, and you can feel the sincerity in the 
handshake--it's like electricity.''
    Thanks to the efforts of the 332nd Expeditionary Medical 
Group, and Expeditionary Civil Engineering Squadron, a piece of 
our nursing history will be preserved. On April 1, 2008 Trauma 
Bay 2, and a portion of the tent from the old Balad Air Base 
theater hospital were shipped to the National Museum of Health 
and Medicine, here in Washington, DC. Major Jody Ocker, 
Emergency Department Nurse Manager, related, ``Every medic had 
their own personal experience. As a team, we had a profound 
collective experience. In these tents, we witnessed tragedy 
beyond comprehension, and rose to challenges unimagined. We 
sweated, cried, and laughed together, most importantly, we 
saved lives.''

                           PREPARED STATEMENT

    Mr. Chairman, and distinguished members, the preservation 
of the theater hospital's trauma bay is a testament to the 
Department of Defense nurses, and medics, who have held the 
hands of wounded warriors, said goodbye to the fallen, and 
offered their blood, sweat and tears to save our Nation's sons 
and daughters. United, we will win today's fight, provide 
world-class care, and prepare for tomorrow's challenges.
    Thank you, sir, for your continued support.
    Senator Inouye. I thank you very much, General Rank.
    [The statement follows:]
          Prepared Statement of Major General Melissa A. Rank
    Mr. Chairman and distinguished members of the Committee, it is an 
honor and gives me great pleasure to again represent your Air Force 
Nursing team. As we vigorously execute our mission at home and abroad, 
Air Force nurses and enlisted medical technicians are meeting the 
increasing challenges with notable professionalism and distinction. The 
Total Nursing Force is comprised of officer, enlisted, and civilian 
nursing personnel with Active Duty, Air National Guard (ANG), and Air 
Force Reserve Command (AFRC) components. Serving alongside Brigadier 
General Jan Young of the ANG and Colonel Laura Talbot of the AFRC has 
been my distinct pleasure. I look forward to serving with Colonel Anne 
Manly who was recently appointed in the AFRC Corps Chief position 
replacing Colonel Laura Talbot. Together we are a powerful total force 
nursing team directly supporting the Secretary and the Chief of Staff 
of the Air Force's top priorities to Win Today's Fight, Take Care of 
our Airmen, and Prepare for Tomorrow's Challenges.
                         expeditionary nursing
    Air Force Nursing is an operational capability and Air Force 
Nursing Services remain at the forefront in support of the warfighter. 
A heightened demand has been placed upon military nursing for highly 
complex clinical skills and our total nursing force is meeting this 
challenge. Every member of the Total Nursing Force team has told me 
that their deployments, caring for America's most precious sons and 
daughters, has been the most professionally rewarding experience of 
their lives. For instance, Captain Shelly Garceau is an emergency room 
nurse at the 332nd Expeditionary Medical Group (EMDG) in Balad Air 
Base, Iraq, one of the busiest trauma centers in the world. The 
emergency room treats 23 patients a day on average, 11 of which are 
trauma cases. In a 24-hour cycle, the facility's operating room staff 
typically handles more than a dozen cases and performs more than 60 
procedures. In the past year, nursing was critical to the successful 
treatment of over 10,000 injuries. The hospital currently holds a 98 
percent survivability rate for wounded Americans who arrive at the 
332nd EMDG. Colonel Norman Forbes, 332nd EMDG Chief Nurse, states, ``In 
a four-month period, the facility's statistics match or exceed 
activities at the R. Adams Cowley Shock Trauma Center in Baltimore, 
where many of our staff nurses were trained.''
    Behind every case and helping every patient who arrives at their 
doorstep, is the nursing staff of the 332nd EMDG. From the moment a 
wounded soldier arrives at the hospital to the time the patient lands 
in Germany or is medically evacuated to the United States, a nurse and 
technician are there to care for the wounded patient. The pride that 
erupts from the members of this medical group is felt and seen when you 
look at even just one situation: Two Marines were transferred out of 
the Balad Air Base emergency room with partial thickness burns to the 
face as a result of an explosion; Captain Garceau (332nd EMDG) stated, 
``That guy couldn't even see me. He wouldn't be able to show you who I 
am if he saw me. But he'd recognize my voice. And when he said thank 
you to me, it was like nothing else. There's nothing like the `thank-
you's' you get here--nothing at all.''
    Bringing wounded warriors home is mission #1 for our fixed-wing 
aeromedical evacuation (AE) system. AE is a unique and significant part 
of our Nation's renowned mobility resources. Its mission is to rapidly 
evacuate patients under the supervision of qualified AE crewmembers by 
fixed-wing aircraft during peace, humanitarian, noncombatant evacuation 
operations, and joint/combined contingency operations. The Air Force 
Reserve Component owns approximately 88 percent of the total AE force 
structure, with the remaining 12 percent distributed among four active 
duty AE squadrons. During November 6-7, 2007, active duty and reserve 
subject matter experts met to hold a capabilities review and risk 
assessment on the AE system. As a result of this meeting, the Air Force 
AE patient care information management and in-transit visibility 
modernization plan evolved. The recommendations for a new electronic 
patient medical record and the ability for combatant commanders to know 
where, when, and how their injured troops are doing, will bring AE to 
the leading edge of technology.
    A major advancement in aeromedical evacuation system of the Afghan 
National Army (ANA) Air Corps is the work being done by individuals 
like Major Mical Kupke, Captain Marilyn Thomas, Master Sergeant Brian 
Engle, and Technical Sergeant Janet Wilson who opened a flight medicine 
clinic in Kabul, Afghanistan. These airmen are using all local 
resources available to perform work, including loading patients onto 
MI-17 helicopters, coordinating with the Czech Republic field hospital 
and working with the medevac unit located nearby at Bagram Air Base, 
Afghanistan. As Sergeant Engle stated, ``The ultimate goal is for us to 
be able to step away as the ANA becomes self-sustaining.'' Sergeant 
Wilson stated, ``The fact that we're able to bring something to their 
Air Corps and help the Afghan National Army build up their structure is 
very positive; it makes me proud that I can contribute just a tiny 
portion to that.''
    Our aeromedical staging facilities (ASF) provide critical support 
to the aeromedical system. The 79th ASF at Andrews AFB, Maryland is the 
busiest in the continental United States. Since January 2007, the staff 
has launched and recovered 699 missions, and facilitated the transport 
and care of 7,895 patients to Andrews, Walter Reed Army Medical Center 
and the National Naval Medical Center. The 79th ASF staff includes 31 
permanent and 33 deployed active duty and reserve nursing and 
administrative nursing personnel. Army, Navy, and Marines liaisons also 
work in the ASF assisting their patients with transition back to the 
United States. The patients have a wide variety of injuries and 
illnesses, including those from improvised explosive device (IED) 
blasts, gunshot wounds, traumatic brain injuries, post-traumatic stress 
disorder, and extremity fractures.
    In this calendar year, the 79th ASF received a $4.8 million grant 
to renovate and expand, increasing the bed capacity from 32 to 45. 
Nutritional Medicine from the 79th Medical Group implemented ``The 
Burlodge,'' a program that provides every patient returning from 
theater a homemade hot meal. Dedicated American Red Cross volunteers 
are on hand to welcome every patient upon their return. These 
volunteers offer their assistance in many ways to meet the needs of the 
patients, providing toiletries, clothing, email assistance, and more. 
Major Leslie Muhlhauser and Captain Christopher Nidell of the ASF staff 
recall these patient encounters:
  --One of the administrative technicians sat with a patient all night 
        talking and watching movies, because the patient expressed not 
        wanting to be alone and not being able to sleep.
  --A security forces patient wanted to take a hot shower and wash her 
        hair and was unable to do so on her own due to leg and arm 
        injuries. Three of the ASF staff worked together to protect her 
        wounds and help her shower.
  --One of the nurses sat with a 19-year-old soldier from Kentucky 
        suffering from migraines related to an IED blast exposure. He 
        stayed with the soldier to help him relax until the medication 
        he received began to relieve his pain.
  --The staff coordinated with veterinary services for the care and 
        lodging of two canine battle wounded heroes, one who received a 
        Purple Heart.
  --On one mission, the wind and weather prevented a C-17 and C-130 
        from landing at Andrews AFB Maryland. The ASF flightline crew 
        quickly realigned the organizational plans and met the aircraft 
        at a commercial airport in the National Capital Region (NCR).
  --The nurses watched a mother's face as she and her family waited for 
        the arrival of her son; seeing them together was a privilege.
                           skill sustainment
    Nursing skill sustainment has never been more important than it is 
during our steady state of deployment. Air Force critical care nurses 
have played an instrumental role in the care of wounded and ill 
patients in Operations IRAQI FREEDOM and ENDURING FREEDOM. Critical 
care nursing is a nursing specialty and both civilian and military 
sectors are dealing with a shortage of experienced critical care 
nurses. In an effort to ensure the needs of the critically ill are met, 
the Air Force Nurse Corps partnered with our sister services and 
initiated a fellowship training program in the NCR. During this 
fellowship nurses develop critical care skills at the National Naval 
Medical Center at Bethesda, Maryland, where many wounded patients are 
admitted to the intensive care unit. This fellowship program began in 
January 2007, and recently graduated the first qualified critical care 
nurses. The program produces deployment-ready nurses in 8 months. 
Captain (select) Jonathan Criss joined his fellow classmates Lieutenant 
Amy Tomalavage and Captain Dillette Lindo for graduation via video-
teleconference from Iraq, where he deployed in November. Lieutenant 
Colonel Loreen Donovan, Balad Air Base Intensive Care Unit flight 
commander, praised the preparedness and skills of Captain (select) 
Criss. Lieutenant Colonel Donovan has since taken over as the director 
of the fellowship program, and will incorporate her deployment and 
clinical experiences into the curriculum. The program is designed to 
graduate 10 nurses annually and complements a similar program initiated 
by the Air Force in San Antonio, Texas, in collaboration with the Army.
    The Critical Care Technician Course (CCTC) began in early 2007, as 
a result of the high demand for our critical care technicians. The 
program is conducted at Eastern New Mexico University-Roswell and 
presents 40 hours of didactic and hands-on education. The 59th Medical 
Wing, Wilford Hall Medical Center, located at Lackland Air Force Base, 
Texas, took the lead with this program, holding three classes in fiscal 
year 2007 for 36 technicians. The program has now been expanded for 
fiscal year 2008 into a 5-year contract anticipating four classes for 
56 technicians per year. The 96th Medical Group, located at Eglin Air 
Force, Florida, has contracted with
    ENMC-R for the CCTC and has two classes scheduled in fiscal year 
2008 educating a total of 60 medical technicians. We anticipate pushing 
the possibilities of teaching over 400 critical care medical 
technicians over the next 5 years.
    Whether at war or home station, these critical clinical skills 
remain relevant. Consider this story told by the 39th Medical Group 
Chief Nurse, Lieutenant Colonel Rebecca Gober, from Incirlik Air Base, 
Turkey. ``Staying late catching up on access due to an increased 
exercise schedule, the personnel of the 39th Medical Group at Incirlik 
Air Base, Turkey, suddenly found themselves with four local national 
gunshot victims at their doorstep! Shouts of ``Code Blue'' were heard 
throughout the building. Within a matter of minutes, this small, 
outpatient clinic staff transformed into an emergency triage/treatment 
team rivaling a large trauma medical center. Past training kicked in 
and many were grateful for their recent training at the Center for 
Sustainment of Trauma and Readiness Skills. While lives were being 
saved by the clinical staff, ancillary support teams coordinated 
administrative needs to help identify patients, secure personal 
effects, and arrange transport to outside medical facilities. 
Resuscitative efforts were successful for three of the four victims. 
Only 4 hours passed from the entry of the first victim until every 
supply item was replaced, every cart returned and every room was ready 
for normal operations again. With the number of staff present at that 
time of day, training and teamwork truly were keys to their success.'' 
I am so proud of our nursing team for their performance that day!
                          operational currency
    In response to BRAC integration, additional opportunities to 
maintain operational currency in complex patient care platforms is 
critical. This year we gained 25 training affiliation agreements 
specific to officer and enlisted nursing personnel. This number is 
triple what we reported last year, a fact that assures me of the 
continued clinical readiness of our great Total Nursing Force. Our 
biggest gains were in agreements with civilian facilities. I am pleased 
to inform you that we partnered with nine civilian facilities to pursue 
skills sustainment in critical care, complex medical-surgical care, 
emergency/trauma, and ambulance services. Our Medical Treatment 
Facilities (MTF) remain an ideal training platform for many civilian 
nursing programs as well. In 2007, we added 33 training affiliations 
for civilian nursing programs awarding degrees at baccalaureate, 
masters, and doctoral levels.
    In addition to our civilian training affiliations, I recently sent 
a team to conduct a site visit at the University Hospital in 
Cincinnati, Ohio. This visit was initiated to examine the possibility 
of centralizing an internship Nurse Transition Program (NTP). The 
program allows new graduates the opportunity to transition into 
clinical care with nurse preceptors closely at their side. NTP is 
currently offered at nine Air Force MTFs, but centralizing the program 
into one site would optimize clinical education. The University 
Hospital offers a larger patient population, diverse illnesses, and 
medical/surgical cases including an increased opportunity to care for 
higher level trauma patients. Time management and complex inpatient 
nursing are the number one skill sets required for deployment. NTP is 
currently a 12-week program, but with the offerings at this facility, 
the program may be pared down to 9 weeks. The University Hospital 
offers an ideal environment for a successful civilian NTP program and 
we look forward to the possibility of partnering with them to enhance 
Air Force NTP education.
    We now face the emergence of a new set of issues specifically 
related to our current ``steady state'' of deployment. These include: 
(1) The need to maintain a high level of personal and professional 
readiness; (2) The inner resilience to sustain the mission despite 
daily wartime tragedies and prolonged exposure to secondary trauma; and 
(3) The ability to rejuvenate oneself upon return from deployment, and 
ultimately regain a sense of personal and professional balance. 
Readiness--Resilience--Rejuvenation (R3): Acknowledging and 
understanding the need to address the complexities these three concepts 
represent will pave the way to a vital, stable future for our Total 
Nursing Force. Our military nurse researchers are advancing 
understanding of issues related to R3. Their research data shows a 
common emerging theme: the positive impact of strong wing and unit 
reception upon return from deployment and periodic team debriefings. We 
look forward to additional data and findings in the very near future.
                         research and education
    Through your ongoing support of the TriService Nursing Research 
Program (TSNRP), Air Force Nurse Researchers continue to conduct 
innovative research with wide-ranging implications for the care of 
troops injured on the battlefield. Not only are these Nurse Researchers 
at the forefront of state-of-the-art-military research, they are 
involved in initiatives ensuring their research is translated into 
practical application, improving the clinical care delivered to our 
wounded warriors.
    Since the start of Operation ENDURING FREEDOM in 2001, over 48,000 
patients have been transported by the United States Air Force 
Aeromedical Evacuation system. Critical Care Air Transport Teams 
(CCATT) provide care for 5-10 percent of the injured or ill service 
members who are transported on military cargo aircraft to definitive 
treatment facilities. Through Air Force Institute of Technology 
sponsorship, Colonel Peggy McNeill attended the University of Maryland 
doctoral program in nursing and conducted research to determine the 
effect of two stressors of flight--altitude-induced hypoxia and 
aircraft noise. COL McNeill also examined the contributions of fatigue 
and clinical experience on cognitive and physiological performance of 
CCATT providers. This was accomplished using a simulated patient care 
scenario under aircraft cabin noise and altitude conditions. The 
findings from this research demonstrated that the care of critically 
ill patients is significantly affected by aircraft cabin noise and 
altitude. Safety and quality of care may be positively impacted with 
training and equipment better designed to assist in monitoring and 
assessment during aeromedical transport.
    Air Force Nurse Researchers play a critical role in deployments as 
well. Lieutenant Colonel Marla De Jong, Director of Nursing Research at 
Wilford Hall Medical Center, deployed to Baghdad, Iraq, for 10 months. 
As the first Air Force Program Manager for the Joint Theater Trauma 
System (JTTS), Lieutenant Colonel De Jong used her research and 
leadership expertise to manage data from 15 separate locations for 
9,000 battlefield casualties, author clinical practice guidelines, 
launch a new electronic joint trauma registry, improve trauma 
documentation and the electronic medical record, direct process 
improvement initiatives, educate clinicians, and promote in-theater 
research, pioneering contributions that transformed care on the 
battlefield. Clinical focus areas included administration of 
recombinant coagulation factors, fresh frozen plasma, and fresh whole 
blood; resuscitation of patients with severe burns; assessment for 
traumatic brain injury; use of tourniquets and HemCon bandages; and 
prevention of hypothermia and ventilator-associated pneumonia. Of 
particular importance, Lieutenant Colonel De Jong authored an 
intratheater air transport guideline that improved safe MEDEVAC 
transport of critically injured casualties. Finally, she helped infuse 
JTTS priorities into a North Atlantic Treaty Organization led hospital 
in Kandahar Airfield, Afghanistan. Collectively, these activities have 
saved lives and limbs and improved trauma care throughout the joint 
combat theater of operations.
    Air Force Nurse Researchers are also on the cutting edge of putting 
research into practice on the battlefield. In collaboration with 
colleagues from the Army, Navy and civilian professional nursing 
community, Colonel (Select) Elizabeth Bridges, U.S. Air Force Reserve 
Nurse Corps, IMA Director at the Clinical Investigations Facility at 
Travis Air Force Base, California has developed a Battlefield and 
Disaster Nursing Pocket Guide. This guide was funded by a grant from 
the TSNRP Resource Center. In the coming months, this guide will be 
shared with the Department of Veterans Affairs and Public Health 
Service colleagues. It is a goal of the services to provide a copy of 
this guide to all military nurses and enlisted personnel who deploy in 
support of the war.
    We are making incredible progress with our Center for Sustainment 
of Trauma and Readiness Skills (CSTARS). One of our 3 teaching 
affiliations is with the University of Cincinnati College of Medicine. 
This University is a tertiary referral center for a three-state region 
and is a verified level I trauma center. It is a 495-licensed bed 
facility holding 90 adult critical care beds, 51 of which are surgical. 
In 2007, the University trauma registry volume was 2,464 patients, with 
an average injury severity score (ISS) of 15.73 percent. This ISS is a 
measure of acuity and is used as a standard in all trauma centers. The 
ISS is to ensure our personnel are training to the level of care they 
would be providing during a deployment. The course provides 92 
continuing education contact hours in just 11 training days. This 
consists of 30 hours of lecture material, 5 hours of lab, 48 hours of 
clinical time, 8 hours of simulator time, and 22 hours in flight 
operations. In addition to the Cincinnati site, we have CSTARS located 
in Baltimore, Maryland and St. Louis, Missouri. The CSTARS program is 
open to Active Air Force, ANG, AFRC, Navy, Army, and Department of 
Defense medical employees. In fiscal year 2007, the CSTARS program 
graduated 685, a 10 percent increase from fiscal year 2006 (614), and 
we are actively engaged in increasing that percentage in fiscal year 
2008.
    Recently, I had the opportunity to visit our medical readiness 
training center located at Sheppard Air Force Base, Texas. This site 
provides primary deployment preparation for over 5,000 students 
annually. Approximately 3,400 enlisted personnel receive their basic 
medical readiness training as part of their initial skills curriculum. 
This provides consistent baseline knowledge for all subsequent 
deployment preparation training they will receive throughout their Air 
Force careers. Another 1,600 medics are trained in one of the four 
advanced courses:
  --Contingency Aeromedical Staging Facility (CASF);
  --Aeromedical Evacuation Contingency Operations Training (AECOT);
  --Expeditionary Medical Support (EMEDS); and
  --Medical Readiness Planners Course.
    These courses provide training for Air Force Medical Service (AFMS) 
deployment unit type codes. The CASF, AECOT, and EMEDS courses are 5-
day field-condition, scenario-based training platforms that simulate 
the actual environment medics will live and function in during their 
deployment. Students attending one of these medical readiness courses 
are certified deployment ready with AFMS knowledge and skills required 
to be fully functional upon arrival in theater. The site's 32 
instructors cover a total of 12 Air Force Specialty Codes.
    During my visit to this incredible training center, I received 
overwhelming positive feedback from previous deployed airmen attesting 
to the value of this unique, realistic training opportunity that now 
exists and the profound impact it will make on future deployers.
                            joint endeavors
    Air Force nurses have a unique opportunity to participate in a 
historical Military Health System process directly shaping health care 
delivery for future generations. On September 14, 2007, it was 
announced that the Department of Defense (DOD) would establish the 
Joint Task Force National Capital Region Medical Command (JTF/CAPMED) 
in Bethesda, Maryland, to oversee healthcare delivery services for the 
Air Force, Army and Navy. This new medical command is tasked with the 
responsibility for world-class military healthcare in the NCR, 
integrating healthcare services across the entire region reporting 
directly to the Secretary of Defense. This is the first Command of its 
kind in the history of DOD! The NCR is the most complex area the 
military has due to the number of military services, medical facilities 
and patients, many of whom are casualties returning from the war. As 
America's primary reception site for returning casualties, the number 
one priority of this new Command is casualty care. This new medical 
establishment has several senior leadership positions ranging from 
specialties such as manpower and personnel to clinical operations, 
plans and policy, and education, training and research. Colonel Sally 
Glover and Chief Master Sergeant Joey Williams of the 79th Medical Wing 
are vital members of the JTF/CAPMED J3 nursing cell that is currently 
chaired by Air Force Nurse Corps Colonel Therese Neely. Partnering with 
the senior nursing leadership from all the MTFs in the NCR, this group 
has made tremendous strides in creating a joint nursing platform that 
will apply not only to the Walter Reed National Military Medical Center 
but to all the MTFs in the NCR. The perioperative nursing group was the 
first to integrate adopting national Operating Room Nursing standards 
across the board. In addition, clinical ladder development, clinical 
leadership position selection, and clinical performance metrics are 
being established with a focus towards Magnet Status. Chief Williams' 
leadership in the enlisted group has been critical to ensure the 
appropriate scope of practice for our medical technicians in this joint 
environment. He provides a strong focus on clinical skills sustainment 
for wartime readiness. Most recently, we announced Colonel Barb Jefts 
and Major Raymond Nudo to join the Joint Task Force for DOD in the 
Washington D.C.
    We participate in international joint endeavors every day. One 
example of this occurred at Hickam Air Force Base, Hawaii. Five airmen 
from the 18th Aeromedical Evacuation Squadron (AES) at Kadena Air Base, 
Japan, teamed up with 11 members of the Royal Australian Air Force's 
(RAAF) Health Services Wing in Hawaii. The training focused on how the 
Air Force utilizes the C-17 Globemaster III for medical evacuations. 
Wing Commander Sandy Riley (RAAF) stated, ``We've got expertise in AE, 
but not on the C-17. The C-17 was rapidly introduced into the 
Australian service so this is invaluable training for us to see the 
expertise of the Pacific Air Forces and the 18th AES.'' This small 
investment is likely to yield tremendous results. Bolstering the RAAF's 
AE capability means one of America's staunchest allies in the Pacific 
is now equipped with expanded latitude.
    The Air National Guard provided five medical groups for 
humanitarian events throughout the world including Panama, Guatemala, 
Nicaragua, Bolivia, and El Salvador. State Partnership Programs link 
the United States with partner countries' defense ministries and other 
Government agencies for the purpose of improving international 
relations. Under this program, three medical groups combined efforts 
with the State Partnership Program to provide humanitarian support to 
the partner countries. The medical personnel provided assistance in 
Azerbaijan, Morocco, and Armenia working and exchanging knowledge with 
each country's counterparts. Recently the 144th Medical Group sent 
approximately 30 medics to Santa Teresa, Nicaragua for the Medical 
Readiness Training Exercise (MEDRETE) for New Horizons Nicaragua 2007. 
This program was a joint military humanitarian and training exercise 
which provided new medical clinics and schools to rural communities in 
Nicaragua. Other locations assisted were in Huehuete, Roman Esteban, 
and Nandaime, Nicaragua. The last exercise took place in Diriamba, 
Nandaime, and La Conquista. The total number of patients cared for by 
medics was 7,899. According to the Camp Commander, Lieutenant Colonel 
Aaron Young, the team ``did an outstanding job.'' He went on to say, 
``It was a great joint training opportunity to work with our good 
friends in the Nicaraguan military and the Ministry of Health.'' At the 
final day of the MEDRETE, a ceremony was held with the Mayor of Thomas 
Umana, Nicaragua, Mr. Augustine Chavez. He presented the troops 
certificates in appreciation of their medical care. Mr. Chavez 
commented, ``I could never repay you for the gift you've provided to 
our community.'' This heartfelt expression of gratitude is exactly why 
we do what we do.
    Our Air Force Reserve is doing incredible work as well. In 2007, 
Air Force Reserve nurses and technicians showed a continued zest in 
volunteerism as airmen. A total of 144 reserve nurses and 230 medical 
technicians deployed in support of the Global War on Terrorism which 
included a combination of nurses specializing in flight nursing, mental 
health, critical care, emergency care and medical/surgical nursing. The 
reserve clinical training platforms trained 752 medics in sustainment 
of critical wartime nursing skills. One of our Reserve nurse deployers, 
a very experienced obstetrics nurse, Colonel Laura Saucer, participated 
in a Provincial Reconstruction Team teaching 57 midwives and midwifery 
students in a rural Afghanistan town. The team commented, ``the courage 
of the students was inspiring.'' The team reported that female 
providers in rural areas of Afghanistan are in critical demand, and 16 
of every 1,000 women die in childbirth largely due to no access to 
healthcare. Colonel Saucer described the students as ``wonderful.'' 
After years of oppression, they are so excited to learn and are like 
sponges soaking everything up. This is only one story of good will 
among many from our deployers. Additionally, 133 multi-discipline 
airmen were key participants in the Air Force International Health 
Specialist (IHS) Program over the past year. The organization of IHS 
medical staff journeyed around the world in support of humanitarian 
missions and exercises to include the countries of Vietnam, Morocco, 
Guatemala, Belize, El Salvador, Senegal, Oceania, and Sri Lanka. An 
impressive 34,000+ patients were treated. These small teams of 
healthcare professionals delivered expert medical care and brought good 
will to disenfranchised people of the world while building on their own 
expert skill level. As you can see, our ANG and AFRC are providing 
world-class care, leadership and mentoring across the globe.
                              quality care
    Our Air Force Inspection Agency (AFIA) ensures our patient care is 
first-rate. AFIA conducted over 62 inspections covering active duty 
medical treatment facilities, aeromedical evacuation and clinics served 
by the Air Force Reserve and Air National Guard. Nursing programs were 
evaluated by the Joint Commission and the Accreditation Association for 
Ambulatory Health Care. All programs were reviewed to meet compliance 
with national standards in conjunction with Air Force directives for 
Air Force MTFs and units in fiscal year 2007. We have engaged with our 
Chief Nurses and Senior Aerospace Medical Service Technicians to lead 
the way, ensuring continued world-class medical care is provided to all 
of our DOD beneficiaries. Overall, our nursing programs did 
exceptionally well and will continue to do so in years to come with 
your continued support.
              recruiting, retention, and force development
    Just as with the civilian sector, at the top of our list of 
concerns is what has become a chronic struggle with increasing nursing 
requirements and the growing national nursing shortage. Human resources 
are the single greatest influence on health care. The latest estimates 
developed by the Bureau of Labor Statistics indicate that the United 
States will require an additional 587,000 registered nurses (RNs) by 
2016 to meet the nursing needs of the country
    The Air Force is not immune to these statistics. Over the next 3 
fiscal years, 28.6 percent (953) of our nurse inventory will be 
eligible to retire. Over the last 10 years, 54 percent of the Nurse 
Corps separated as Captains and 19 percent left as Majors. In fiscal 
year 2006, 161 nurses retired and 195 separated for a total loss of 356 
(10.4 percent total attrition rate). Our loss rate has increased 
slightly in fiscal year 2007, with a total loss of 404--178 to 
retirement and 226 to separation (12 percent total attrition rate). 
Almost half of Nurse Corp officers who have separated have less than 8 
years of military service.
    In fiscal year 2006, Air Force nurse recruiting was reported at 62 
percent of 357 with a slight increase in fiscal year 2007 to 63 
percent. Our recruiting services forecast places our risk for nurse 
recruiting at ``high'' for fiscal year 2008 and ``severe'' for fiscal 
year 2009. We are currently offering an accession bonus to our nurse 
recruits in exchange for a 4-year commitment; this bonus will increase 
fiscal year 2009. In addition to our recruiting services, we also bring 
novice nurses into the Air Force through several programs. Utilizing 
the Air Force Reserve Officers' Training Corps (AFROTC), Airmen 
Education & Commissioning Program (AECP), and the Enlisted 
Commissioning Program (ECP), we brought in 47 nurses in fiscal year 
2006 and 61 in fiscal year 2007.
    In fiscal year 2009, we plan to support the nurse incentive special 
pay with $12.5 million. We anticipate that offering the nurse incentive 
special pay will retain approximately 31 percent (1,000 nurses of 3,262 
as of January 11, 2008) of our current inventory for an additional 2 to 
4 years beyond their current active duty service commitment. 
Additionally, we currently offer incentive special pay to Certified 
Registered Nurse Anesthetists (CRNAs) at variable rates dependent on 
active duty service commitment. The annual average for this incentive 
special pay is approximately $35,000 per CRNA. Air Force Nurse 
Practitioners receive board certification pay at varying rates that are 
dependent upon the amount of time served in the specialty. Both the 
CRNA incentive special pay and the Nurse Practitioner board certified 
pay will continue to be offered in fiscal year 2009.
    In this time of increasing nursing shortages, the need to grow our 
own has become evident. Since my last testimony, we have launched our 
Nurse Enlisted Commissioning Program (NECP). NECP is an accelerated 
program for enlisted airmen to complete a full-time Bachelors of 
Science in Nursing (BSN) at an accredited university while on active 
duty. This program will produce students completing their BSN and 
obtaining their nursing license in just 24 months. Airmen who 
successfully complete this program will be commissioned as second 
lieutenants. Our goal is to select 50 candidates per year by fiscal 
year 2010 for this new commissioning opportunity. On a recent trip to 
Ramstein Air Base, Germany, I spoke with Staff Sergeant ``Rae'' Amaya 
who is stationed at Ramstein with the 86th Aeromedical Evacuation 
Squadron. She has been serving her country for nine years and expressed 
her desire of becoming a nurse with this statement, ``The vision of 
getting back to the ``True North'' (which is bedside nursing) was 
inspiring, especially since I'm trying to become a nurse. I have been 
fortunate to be mentored by some very awesome nurses who have made me 
the technician I am today. When I become a nurse--whenever that might 
be--I will do my best to remember, pass on and enforce this vision.'' 
With the NECP program in full swing, we can make dreams like this come 
true.
    In addition, we have continued robust advanced practice nursing 
educational programs through the Uniformed Services University in 
Bethesda, Maryland Graduate School of Nursing, the Air Force Institute 
of Technology, Civilian Programs and the Army-Baylor Master's Program. 
This year we anticipate the graduation of 49 advanced practice degrees 
such as, Family Nurse Practitioners, CRNAs, and PhDs. Enrollment for 
fiscal year 2008 includes 45 advanced practice nurses. Opportunities 
such as advanced degrees foster an environment of professional growth 
and leadership. This further supports retention, recruitment and a 
bolstered force development.
                              recognition
    General T. Michael Moseley, our Air Force Chief of Staff, developed 
the ``Portraits in Courage'' series to highlight the honor, valor, 
devotion, and selfless sacrifice of America's airmen. Two of our 
medical technicians were highlighted this last year, one in each 
category. The first was Staff Sergeant David Velasquez, a technician 
from Langley Air Force Base, Virginia. Sergeant Velasquez was one of 13 
airmen recognized in the ``Portraits in Courage.'' He volunteered for a 
365-day tour to Afghanistan as a medical technician and completed more 
than 90 convoys and numerous missions with the Provincial 
Reconstruction Team and Quick Response Forces. His team was fired upon 
virtually every mission and survived eight serious attacks to their 
convoys. In one instance, Sergeant Velasquez's convoy was enroute to 
the U.S. Embassy when it was hit by an improvised explosive device. The 
vehicle directly in front of his was heavily damaged and two of its 
passengers were killed. His vehicle's turret gunner fell into the 
vehicle on fire and suffered severe shrapnel wounds to his left arm. 
Sergeant Velasquez quickly extinguished the flames, stopped the 
bleeding, and administered life-saving medical aid. This was just one 
of his many heroic acts. He was quoted as saying, ``I was only doing my 
job, nothing special.'' Those who have received life-saving medical 
attention in the heat of battle from him would argue otherwise.
    Six airmen received the new Air Force Combat Action Medal on June 
12, 2007. This medal was created to recognize Air Force members who 
engaged in air or ground combat off base in a combat zone. This 
includes members who were under direct or hostile fire, or who 
personally engaged hostile forces with direct and lethal fire. One of 
those six warriors was Staff Sergeant Daniel L. Paxton, an aeromedical 
technician school instructor, who was assigned to the 42nd Aeromedical 
Evacuation Squadron at Pope Air Force Base, North Carolina at the time. 
He is now assigned as a flight instructor using his critical 
experiences from March 28, 2003. Sergeant Paxton was part of a mission 
to establish a series of tactical medical units along the border of 
Kuwait and Iraq. His convoy came under enemy fire from mortars, rocket-
propelled grenades, machine guns and small-arms fire. Without the 
benefit of intra-vehicle communications, Sergeant Paxton and his team 
reacted to the ambush and returned fire, successfully defending their 
assets as they executed a coordinated withdrawal. Under the cover of 
darkness and using night vision devices, the convoy embarked and the 
enemy again opened fire. During the next 18 hours, the convoy came 
under fire five subsequent times and Sergeant Paxton successfully 
engaged the enemy with return fire, defending himself and the convoy as 
they progressed on their mission.
    In addition, I offer these amazing acts of heroism by our 
Independent-Duty Medical Technicians (IDMT): Staff Sergeant Jason Weiss 
smiled as he thought of Holly. It was just a year ago he had asked her 
to marry him. On December 4th they were to be wed. There was only one 
problem--he was not going to be there. As an IDMT, from the 36th Rescue 
Flight out of Fairchild Air Force Base, Washington, he was going out to 
search for three individuals who had been hiking in the mountains when 
the weather made a sudden change causing an avalanche. Two of them were 
swallowed up by the snow and the third hiker sustained a shattered limb 
and had the onset of hypothermia (body core temperature of 93.5 
degrees). Weiss and his team arrived to find a critical situation. 
``Visibility was so poor that I couldn't see a thing out of my side of 
the Huey,'' said Sergeant Weiss. The Huey crew found a hole in the 
trees and lowered Weiss to the ground, roughly 80 yards from the 
victim. ``When I stepped off the rescue hoist, I sank up to my chest in 
snow. I then crab-crawled for about 40 yards and was able to walk the 
last 40 yards in waist deep snow.'' Sergeant Weiss knew before he left 
the helicopter that there was no time to waste. Low on fuel, with the 
weather worsening, Sergeant Weiss raced to the victims and placed the 
176-pound man over his shoulders in a fireman's carry, and trudged 40 
yards through waist deep snow pushing himself to his limits. He then 
dragged his patient across the snow like a sled for another 40 yards, 
finally reaching the extraction point. On his hands and knees, huffing 
and puffing, with steam rising from his sweaty brow, Weiss's head and 
shoulders suddenly slumped. He could hear the distinctive whir of the 
Huey's engines, indicating his crew was leaving them behind to refuel. 
By this time Sergeant Weiss and the victim were in a full-blown 
whiteout blizzard, and then suddenly he heard the rhythmic sound of 
``whop, whop, whop,'' denoting the Huey was returning for another pass. 
The crew skillfully placed the forest penetrator (hoist) right next to 
Weiss. He then secured his patient for the ride up to the Huey, and 
once inside the helicopter, began treating the 38-year-old man for 
hypothermia, dehydration and a broken leg. He then went on to spend the 
next 3 days on alert, but on December 7th, Sergeant Weiss and Holly 
finally exchanged vows. Holly said admiringly, ``He does such amazing 
things that I have to share him.''
    During a recent outing on the lake with his family, Senior Master 
Sergeant Michael Stephenson-Pino, Superintendent of the IDMT Course, 
witnessed a father and son launched 10-12 feet in the air as the cigar 
shaped tube they were being pulled on behind the boat buckled. This 
situation was further complicated with both of them being launched in 
opposite directions 20 feet apart and disappearing simultaneously under 
the water. As Sergeant Stephenson-Pino immediately sprang into action 
swimming towards the victims, the 10-year-old boy surfaced screaming as 
the father laid motionless face down in the water. Upon reaching the 
father, Sergeant Stephenson-Pino rolled the victim over onto his back, 
opened and maintained the airway effectively restoring his breathing. 
With the unconscious adult in tow, he swam towards the child who was 
panicked and struggling to stay afloat in a life preserver which was 
too large for him. Without losing control of the unconscious adult, 
Sergeant Stephenson-Pino positioned himself behind the child and 
neutralized him as a drowning hazard. Now finding himself stranded in 
30 feet of water and with two near drowning victims in tow, Sergeant 
Stephenson-Pino started swimming towards shore. After having traveled 
30 yards while swimming on his back to the point of near exhaustion 
with both victims, he succeeded in loading them into the boat and then 
utilized his 11 years as an IDMT to stabilize their injuries. He put 
into action what he and his staff teaches our enlisted physician 
extenders and through his advanced training, a humanitarian effort was 
instrumental in preventing the loss of life for the father and child.
    These are just a few stories of many, reflecting the versatility of 
our medical technicians and the dynamic energy they bring to every 
situation.
                             our way ahead
    Nursing is the pivotal health care profession, highly valued for 
its specialized knowledge, skill and care of improving the health 
status of the airmen in our charge and ensuring safe, effective, 
quality care. Our profession honors the diverse population we serve and 
provides officer, enlisted and civilian leadership and clinical 
proficiency that creates positive changes in health policy and delivery 
systems within the Air Force Medical Service. Our 5-year top priority 
plan includes, first and foremost, delivering the highest quality of 
nursing care while concurrently staging for joint operations today and 
tomorrow. Secondly, we are striving to develop nursing personnel for 
joint clinical operations and leadership during deployment and in-
garrison, while structuring and positioning the Total Nursing Force 
with the right specialty mix to meet the requirements. Last, but not 
least, we aim to place priority emphasis on collaborative and 
professional bedside nursing care.
    Mr. Chairman and distinguished members of the Committee, it is an 
honor to be here with you and to represent a dedicated, strong Total 
Nursing Force of nearly 18,000 men and women. United we will Win 
Today's Fight, provide world-class care for our airmen, and Prepare for 
Tomorrow's Challenges.

    Senator Inouye. As one who has served in the military, over 
2 years in hospitals, I'm especially grateful to nurses. 
Without them, I don't suppose I would be sitting here.
    But because of time constraints, I have many questions on 
recruiting and retention, also questions on incentive pay and 
bonuses. Also questions on the school of nursing, because I've 
been told there's some opposition to the establishment of that 
program, and others. But I will be submitting them to you, if I 
may, for your response.
    And with that, may I recognize Senator Stevens.
    Senator Stevens. Mr. Chairman, I, too will submit my 
questions. I'm delighted to see you all here, and you do bring 
back memories for both of us from our days in the service.
    So, thank you all for what you do.
    Senator Inouye. And, our special angel.
    Senator Mikulski. Please, Mr. Chairman, I'll never live 
this down.
    I just don't want the voters ever to clip my wings.
    I just really have one question, but a comment. First of 
all, again, General Pollock, we want to, again, express our 
gratitude, the way you stepped in, at the request of Secretary 
Gates, during a very troubled time in military medicine. And 
we're so pleased to hear that you're heading up the human 
capital effort. Because it goes to physicians, nurses, social 
workers, other allied health--I'm sure you and General 
Schoomaker and others could talk about the need for x-ray 
technicians, and so on, so we look forward to that.
    I found the testimony of all three of you so poignant, and 
the case examples that you gave, you know, were pretty 
powerful. And I would hope that my colleagues, as well as our 
staff, read them.

                        RECRUITING AND RETENTION

    My question--and I've heard the list, now, of programs, and 
we've talked about this--in a nutshell, what more can we do to 
crack the nursing retention and recruitment? But the first one 
is, retain those that we've got and have them as part of the 
leadership team, and then--what more can we do, what creative 
ideas, or do I wait for yet one more report?
    And just know, Senator Byrd has us at noon, as much as our 
regrets are with the time.
    Admiral Bruzek-Kohler. I think we are finding that the 
incentive plans that we have put in place over the past years 
have been extremely successful for accessions and the loan 
repayment for retention has been dramatic. As we are seeing 
with the incentive specialty pay, that too may have dramatic 
effects.
    Our nurses need to be competitively rewarded financially, 
as well as through improvements in the quality of life and 
through educational programs that we offer. We will continue to 
pursue these kinds of packages through the proper channels.
    Senator Mikulski. So, can I say in a nutshell that, number 
one, stay the course in what we've done. That, in other words, 
we have some great ideas now, we don't need new ideas, what we 
need to do is stay the course, and don't fiscally wimp out on 
what we have underway, would that--and that would also go for 
retention, and also recruitment. Would that be number one? Make 
sure we stay the course?
    Admiral Bruzek-Kohler. Yes, ma'am.
    Senator Mikulski. The second thing is, and this would be 
another conversation. I believe that one of our ways to 
promote--first of all, the whole idea, for those who already 
know the military, to stay and also those to move up--do you 
feel that this Troops to Nurses, as well as perhaps, getting 
additional training in an accelerated way with the LPNs would 
help us crack the code that--because they know, they're in the 
military. They've served in the military. And for those who are 
ready to sign up for the culture of the military, as well as 
the challenges of the military, they would know what they were 
getting into. In a good way.
    General Rank. I'd like to take first crack at responding to 
that.
    I have been supportive of Troops to Nurse Teachers (TNT), 
and I've been supportive of it because of our retiring nurses, 
who are at that 20-year juncture, and there is as part of the 
pick list in TNT that they would go out on a scholarship 
program, and be able to get their next advanced academic degree 
and teach on faculty. That is extraordinary and I know we have 
retiring and retired nurses who are waiting for TNT.
    You would be surprised to learn that there are over 855 
nurses with time in service of greater than 15 years that never 
took the Montgomery G.I. bill.
    Senator Mikulski. And I believe that was something that 
General Pollock had discussed with us--that you use the nurses 
who are about to retire to essentially teach the other nurses, 
which in and of themselves would be role models, mentors, et 
cetera, to recruit and be a magnet for military medicine. Is 
that----
    General Rank. Ma'am, that is my perspective, and that may 
differ from my sister service corps chiefs, and I would also 
like to add to the second portion of your question, where 
Uniformed Services University of the Health Services (USUHS) is 
concerned, I believe it is time for the Air Force Nurse Corps, 
and hopefully our sister services, to offer a Bachelor of 
Science in Nursing (BSN) program to those that have an 
associates and diploma degree.
    I am a diploma nurse and went out for my own bachelor's 
working at Baltimore City Hospital. We need this program to 
open the aperture, and allow an associates degree, and diploma 
nurses to come to USUHS, get their bachelor's and then assess 
them as a bachelor's, with a commitment of time out there.
    They're out there. They want to join our services.
    Senator Mikulski. Well, perhaps, then, Mr. Chairman and 
Senator Stevens, we can follow up on this. What essentially our 
head of the Nurse Corps are talking about is that if you have a 
3-year program----
    General Rank. Two or three, ma'am.
    Senator Mikulski. Or you've been to a community college----
    General Rank. Yes, ma'am.
    Senator Mikulski. You need to move up to a bachelor's 
level. There is wide experience in civil nursing programs in an 
accelerated way. Perhaps we could talk now about USUHS, you 
know, it's in my State, we're very familiar with it. But this 
could be one of the tools we could use, and work on.
    I have other questions, but again, I'll submit them for the 
record. Thank you.
    General Pollock. And I know we'll look forward to providing 
written responses, or coming down to meet with any of your 
staffs on your questions.
    Thank you very much.
    Senator Inouye. I asked the doctors the question as to 
whether personnel under their command felt appreciated. Well, I 
want you to know that in the Army infantry, the person we 
admire the most and adore the most is the medic. He's the one 
who keeps us going and live.

                     ADDITIONAL COMMITTEE QUESTIONS

    But unfortunately, the way they give out medals, they give 
it out for courage, and shooting ability and all of that 
nonsense. And as a result, nurses and doctors and medics don't 
get recognized. I hope you will take it upon yourselves to give 
recognition to the men and women in your command. Because they 
need a little boost.
    [The following questions were not asked at the hearing but 
were submitted to the Department for response subsequent to the 
hearing:]
      Questions Submitted to Lieutenant General Eric B. Schoomaker
            Questions Submitted by Senator Daniel K. Inouye
                       recruiting for specialists
    Question. General Schoomaker, the Army continues to have critical 
shortages in areas like family practice physicians, preventative 
medicine, emergency medicine, and dentists. These specialists are not 
only critical for our GWOT efforts, but make an enormous difference to 
the families of our service members. How is the Army addressing these 
shortfalls in recruiting and retention?
    Answer. We continue to explore ways to provide significant 
incentives to recruit and retain our health care providers. We are 
currently working with Army leadership to develop the appropriate 
implementation guidance for the Critical Wartime Skills Accession Bonus 
for Medical and Dental officers. This bonus will enable us to offer new 
appointees a significant monetary incentive in exchange for an Active 
Duty Service Obligation. We are confident that this bonus will bring 
positive gains to our recruiting efforts. Additionally, we are 
aggressively utilizing the Health Professions Loan Repayment Program to 
attract those individuals who have incurred a debt while undergoing 
training. Finally, we are evaluating the proposed fiscal year 2009 
special pay rates and considering potential increases in special pay 
for certain specialties.
    Equally important, the Army continues to explore ways to improve 
quality of life for our health care providers. As an example, we 
recently expanded our 180-day provider deployment policy, extending 
this popular policy to a broader range of health care professionals. 
This policy reduces the length of deployment for providers, minimizing 
clinical skill degradation and eliminating the deployment length 
disparity that existed between medical personnel of the Army and the 
other Services, resulting in improved morale and quality of life for 
our providers and their Families.
                               recruiting
    Question. General Schoomaker, the Army recently restructured its 
recruiting command, forming a special brigade tasked to provide for the 
five medical recruiting battalions. Do you feel that the restructuring 
of the recruiting command is helping to improve recruiting efforts 
within the medical field?
    Answer. MG Bostick's decision to stand up and resource the Medical 
Recruiting Brigade has proven to be one of the most significant 
administrative decisions to benefit medical recruiting in the past 
decade. I fully support his decision and will continue to assist in 
ensuring its success is sustained.
    Establishment of the Brigade has enhanced medical recruiting by 
strengthening ownership of the recruiting mission and triggering 
positive changes in business practices. This new level of mission 
ownership is characterized by a direct chain of command and a one 
focus-one voice strategy for health care recruiting. MG Bostick's 
decision to supplement the recruiting force with 50 direct military 
overhires has also enhanced the recruiting force, providing more 
individuals focused on the mission.
    The recruiting effort this year continues to improve over the same 
period last fiscal year. The Medical Recruiting Brigade is currently 
461 contracts ahead in comparison to the same time period last fiscal 
year (249 in Regular Army and 212 in Reserves). For the past four 
years, recruiting for the Army Reserve Veterinary Corps has fallen 
short; however, we are postured to exceed the Veterinary Corps mission 
at an earlier point than any previous fiscal year this decade. The Army 
Nurse Corps continues to have sustained success in comparison to last 
fiscal year (ahead 74 Regular Army contracts and 145 Army Reserve 
contracts). The Brigade is ahead by 84 Medical Corps Health Professions 
Scholarship Program (HPSP) scholarships and 11 Dental Corps HPSP 
scholarships compared to this time last year.
                              scholarships
    Question. General Schoomaker, I am always told that the Health 
Professions Scholarship Program is one of the military's most valuable 
recruiting tools for health care professionals. However, I am told that 
the number of applicants per scholarship has substantially dropped over 
the years. To what do you believe this is attributed to and how can it 
be improved upon?
    Answer. I believe that the drop in the number of applicants is a 
result of multiple influences. Obviously, the current Global War on 
Terrorism, coupled with the operational tempo associated with it, has 
had an effect. The availability of funding for school from other 
sources has had an impact also.
    There have been a number of actions taken which seem to be helping 
in turning around the downward trend. In the past several years we have 
increased the monthly stipend we pay the student; it is currently at 
$1,605, and will increase on July 1, 2008 to $1,906. The authority 
provided in the National Defense Authorization Act of Fiscal Year 2008 
to offer up to a $20,000 bonus to Health Professions Scholarship 
Program (HPSP) students will also be helpful. The current use of the 
Critical Skills Accession Bonus in this dollar amount has proven to be 
very effective, and has enabled us to increase the number of students 
we have recruited into the program this fiscal year. Continued support 
and funding for this program are extremely critical.
                    warrior transition units (wtus)
    Question. General Schoomaker, it is our understanding that the WTUs 
are almost serving at full capacity. What are some of the solutions 
you're looking at to ensure that the WTUs are fully equipped and 
staffed to address our soldiers' needs in the future?
    Answer. Achieving the optimal staff-to-patient ratios for the 
Warrior Transition Units (WTUs) has been a challenge for the Army 
Medical Department (AMEDD). Army-wide manpower challenges affect our 
aggressive measures to staff some of the key positions at many of our 
WTU locations. Despite the challenges, however, we are making strides 
toward achieving full capacity. As the WTUs have achieved full 
capacity, we are reducing the level of borrowed military manpower.
    The Medical Command is working closely with the Army Human 
Resources Command and civilian personnel to attract the very best 
Soldiers and civilians to staff the WTUs. The Medical Command and its 
subordinate commands are also utilizing multiple recruitment and 
relocation incentives to staff difficult-to-fill positions. We offer 
civilians recruitment incentives of up to 25 percent of their basic 
pay. We also offer a relocation incentive up to 25 percent of the basic 
pay to current employees willing to relocate to fill critically short 
positions. Given the critical importance of attracting the very best 
Soldiers to fill the squad leader's positions in the WTUs, the Army 
recently approved special duty pay.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                    walter reed army medical center
    Question. (a) The Dole/Shalala report recommended that the Army 
ensure top quality care at Walter Reed Army Medical Center up till the 
day it closed. Approximately 1 in 5 wounded soldiers go to Walter Reed. 
What is the Army doing to ensure continued high quality care at Walter 
Reed?
    (b) What is the Army's plan to maintain civilian medical, 
administrative and maintenance staff until the last day?
    (c) How will the Army maintain staff who cannot count on being 
reassigned to another DOD facility but are critical to ensuring high 
quality care?
    Answer. (a) Over the past year, Walter Reed staff has very 
carefully and honestly reviewed every aspect of health care delivery. 
Where there was room for improvement, the staff quickly developed 
corrective action and programs to set a new standard for care, 
compassion and healing. The entire team was very proud last year when, 
at the height of the controversy generated by media coverage of 
outpatient problems, Walter Reed was inspected by the Joint Commission 
and fully accredited for health care delivery. With the core practices 
intact and validated, they set out to improve other support services 
that can make a huge difference in the hospital experience of their 
patients.
    Walter Reed initiated action to improve housekeeping, hospitality, 
and responsiveness to all types of patient comments and issues. They 
improved in nutrition care, with room service meals and healthier menu 
choices. They enhanced the handoff with Warriors coming out of Theater 
by reaching forward with an air evacuation cell here to coordinate 
movement and receipt of patients. Walter Reed staff designed and 
purchased and will soon accept delivery of three vastly improved 
patient evacuation vehicles for transporting patients from Andrews Air 
Force Base to Walter Reed.
    Walter Reed tightened up discharge planning, and the handoff from 
the ward to the Warrior Transition Brigade. They improved facilities 
for Warriors and their Families across the Walter Reed campus. To 
improve the coordination and tracking of Warrior in Transition care, 
the Walter Reed team developed the Military Medical Tracking System 
(MMTS). The MMTS automates data pulls from several existing computer 
systems and securely presents that data to case managers and other 
health care team members. This homegrown system has enabled them to 
more closely monitor and coordinate the Warrior healing process and is 
now set for deployment across the Army Medical Department. They also 
installed wireless connectivity throughout Heaton Pavilion and will 
begin deployment early next month of over 1,100 Tablet PCs to enhance 
provider-patient interaction throughout the medical center.
    Recent accreditation site visits by the Accreditation Council of 
Graduate Medical Education (ACGME) resulted in 5 year accreditation 
cycle awards to several Walter Reed programs. Resident and fellowship 
training programs in Neurology, Physical Medicine and Rehabilitation, 
General Surgery, National Naval Medical Center Internal Medicine, and 
the internal medicine subspecialties of Gastroenterology, Hematology/
Oncology, and Endocrinology have all received the maximum accreditation 
cycle of 5 years. In addition, Walter Reed and the National Capitol 
Consortium have an unprecedented 5 physicians on the national Residency 
Review Committees of ACGME.
    Finally, Walter Reed was recognized at the Military Health System 
Conference for Excellence in Customer Service for 2007, outpacing all 
other large medical centers in the Continental United States. Walter 
Reed's current patient satisfaction is above 90 percent according to 
the Army Provider Level Satisfaction Survey (APLSS).
    (b) As a result of Walter Reed Army Medical Center being identified 
on the Base Realignment and Closure (BRAC) list and given the direction 
by the Deputy Secretary of Defense in August 2007, the Army has 
improved its plan to maintain civilian medical, administrative, and 
maintenance staff until closure. The Army is using all existing 
authorities to recruit and retain civilian employees. A majority of the 
authorities have been used in the past successfully, as was a robust 
incentive awards program directed at the civilian workforce. In order 
to ensure that management had full knowledge of the available 
incentives, the Army Medical Command developed and delivered a 
comprehensive supervisor training module on the use of the incentives. 
The Commander will develop a sound business case to seek additional 
funding to support a more robust implementation plan for the use of the 
incentives. A foundation for the business case will come from an 
employee survey that was distributed in mid-April. The survey asked the 
Walter Reed employees what incentive(s) would cause them to stay 
through the BRAC period. To date, nearly 2,000 surveys were completed 
and returned, nearly an 80 percent response rate. The Command is in the 
process of analyzing that data.
    In mid-December, the Walter Reed Army Medical Center and Garrison 
leadership conducted a comprehensive review of their manpower 
authorizations and requirements. The review demonstrated the broad 
scope of Walter Reed's mission. The review also revealed the 
identification of new and expanded missions, which are in direct 
correlation with the needs and requirements of the Warrior in 
Transition Brigade located on the Walter Reed campus. These new 
missions emerged since the installation was listed as a BRAC activity. 
The Walter Reed Army Medical Center Commander started more than one 
year ago to recruit and fill positions associated with these new and 
expanded missions; however, additional resources are required. The 
manpower study that is now underway will validate critical human 
resource requirements and this will allow Walter Reed to increase the 
recruitment targets to fill these vital positions.
    Recruiting new employees and retaining current workforce are top 
priorities for the Walter Reed Commander. A robust marketing effort, in 
combination with a strategic recruitment plan, will ensure a dynamic, 
targeted and focused recruitment effort is maintained. The recruitment 
plan is continually reviewed and revised as needed to meet the changing 
recruitment needs that directly support the new and expanded missions 
of the Walter Reed Army Medical Center.
    (c) In August 2007, the Deputy Secretary of Defense directed that 
the employees at Walter Reed Army Medical Center receive an incentive 
entitled the Guaranteed Placement Program. The employees will be 
guaranteed a position at either the new Walter Reed National Military 
Medical Center or the new DeWitt Army Community Hospital at Fort 
Belvoir. The Army is coordinating with the Joint Task Force Capital 
Medicine on the provisions and details of this program. The Commander 
will brief the Walter Reed civilian workforce on the details as soon as 
guidelines are finalized.
    The Commander will request funding for incentives and personnel 
overhires through fiscal year 2011. The Army is currently working with 
the Senior Oversight Committee program on the fiscal year 2010-15 
Program Objective Memorandum (POM) submission for civilian medical 
health authorities and incentives. The Walter Reed civilian employee 
retention survey is the primary vehicle to obtain specific information 
regarding the incentives that will cause the workforce to remain until 
closure. The Commander intends to follow up in about six months with 
another survey focused on the issues of job satisfaction and 
communications within the organization.
    The Walter Reed commander is aggressively pursuing efforts to 
ensure current and future Walter Reed employees are retained through 
the BRAC. On March 14th, the Commander hosted three very well attended 
and successful Town Hall meetings, which is a component of her ``Care 
of People Plan.'' This plan reflects a comprehensive approach to the 
issue of employee retention. A key component of the plan is a very 
robust communications plan that ensures the flow of information to the 
workforce. Town Hall meetings, an up-to-date website, the Commander's 
BLOG and the employee survey are just a few examples of the Commander's 
efforts to ensure information flow to and from the workforce. The 
Commander has also hired a communications consultant to ensure that all 
possible lines of communication are open and functioning at all times 
and that directed attention is given to the issue of communicating with 
the workforce through this time of uncertainty.
                       wounded soldiers' families
    Question. (a) The Dole/Shalala report recommended enhancing care 
for the families of wounded soldiers throughout the soldier's recovery 
process. It noted that family members are vital parts of the patient's 
recovery team. What has the Army done to enhance care for family 
members of wounded soldiers?
    (b) Who on a soldier's care team is primarily responsible for 
helping families? What training have they received?
    (c) What has DOD done to leverage the help the private sector can 
provide?
    Answer. (a) The Army Medical Action Plan (AMAP) represents a total 
transformation of the way the Army cares for wounded, ill, and injured 
Soldiers (Warriors in Transition) and their family members. Basic to 
this transformation is the recognition that an integral part of caring 
for the Soldier is the need to also care for and support the Soldier's 
family. As part of the execution of the AMAP, the Army has established 
Soldier Family Assistance Centers at installations with Warrior 
Transition Units to provide both Warriors in Transition and their 
Families a ``one-stop shop'' for many services, including: Military 
personnel processing assistance; Child care and school transition 
services; Education services; Transition and employment assistance; 
Legal assistance; Financial counseling; Stress management and 
Exceptional Family Member support; Substance abuse information and 
referral; Installation access and vehicle registration; Management of 
donations made on behalf of Service Members; Coordination of federal, 
state, and local services; Pastoral care; Coordination for translator 
services; Renewal and issuance of identification cards; and Lodging 
assistance.
    The AMAP also established a ``Triad of Care'' concept to manage the 
care and support of each Warrior in Transition and his or her family. 
For Soldiers undergoing a Medical Evaluation Board or Physical 
Evaluation Board proceeding, dedicated physicians, Physical Evaluation 
Board Liaison Officers, and Legal Counselors are available to help 
Soldiers and Families navigate the process. Additionally, Ombudsmen are 
available at Warrior Transition Units to provide Soldiers and Families 
an individual advocate to assist in resolving concerns.
    (b) Under the ``Triad of Care'' concept, a physician who functions 
as the Primary Care Manager, a Nurse Case Manager, and a Squad Leader 
work together to manage the care and support needs of each Soldier and 
his or her family. These three individuals, like all Warrior Transition 
Unit staff, complete a tailored training course which prepares them to 
deal with the issues and concerns of Warriors in Transition and their 
Families. This training ranges from understanding how to identify 
behavioral health needs of Warriors in Transition to assisting with 
transportation and other needs. Additionally, Medical Evaluation Board 
physicians, Behavioral Health professionals, Physical Evaluation Board 
Liaison Officers, Legal Counselors, and Ombudsmen receive targeted 
training to enable them to effectively care for Warriors in Transition 
and their Families as an integral unit.
    (c) As part of the development of the Army Medical Action Plan 
(AMAP), as well as with the development of performance standards for 
all Warrior Transition Unit staff, best practices were incorporated 
from a variety of disciplines, including private practitioners and 
accreditation bodies. The Comprehensive Care Plan developed by the 
multi-disciplinary team caring for each Warrior in Transition for the 
purpose of providing a holistic approach to recovery, rehabilitation, 
and reintegration was developed in collaboration with the National 
Rehabilitation Hospital to leverage industry expertise in order that 
the integral unit of Warriors in Transition and their Families benefit 
from the most up-to-date approaches possible.
                      comprehensive recovery plan
    Question. (a) Dole /Shalala recommends that every wounded soldier 
receive a comprehensive recovery plans to coordinate recovery of the 
whole soldier, including all: Medical care and Rehabilitation, 
Education and Employment Training, Disability Benefits Managed by a 
single highly-skilled recovery coordinator so no one gets ``lost in the 
system. Do all patients get a comprehensive recovery plan?
    (b) What steps have you taken to train and hire skilled recovery 
coordinators?
    (c) Do soldiers have the single coordinator to provide continuity? 
What training do recovery coordinators receive?
    (d) Are they trained as soldiers, or as case managers?
    Answer. (a) Warriors in Transition assigned to Warrior Transition 
Units have received dedicated planning and management of their care by 
the care Triad of Primary Care Manager, Nurse Case Manager, and Squad 
Leader. Warriors in Transition assigned to Warrior Transition Units 
since March 1, 2008 have further benefited from the development of 
Comprehensive Care Plans (CCPs). The CCP represents a holistic approach 
to managing care that addresses physical, mental, spiritual, and 
emotional healing and provides an integrated approach to recuperation.
    (b) The Army Medical Action Plan (AMAP) established the Triad of 
Care concept for managing care which assigns each Warrior in Transition 
to a team comprised of a physician who functions as each assigned 
Soldier's Primary Care Manager, a Nurse Case Manager, and a Squad 
Leader. Nurse Case Managers are experienced Registered Nurses assigned 
to manage the care of 18 to 36 Warriors in Transition, depending on the 
complexity of care required. As with all Warrior Transition Unit staff, 
these Nurse Case Managers receive specific training in care management.
    (c) The Care Triad manages the care of assigned Warriors in 
Transition throughout their recovery, rehabilitation, and reintegration 
either back to duty or prepared to be productive civilians. This 
approach ensures maximum familiarity by the members of the Triad with 
each Warrior in Transition for which they are responsible. In the event 
Warriors in Transition must transfer to a different Warrior Transition 
Unit to continue their recovery, the Triad at the losing Warrior 
Transition Unit coordinates the transfer with the Triad receiving the 
Soldier at the new location to ensure a smooth transition.
    (d) Each member of the Triad receives specific training in the care 
needs of Warriors in Transition and the processes in place at Warrior 
Transition Units for accomplishing this care. Specific certification 
training is provided to all Warrior Transition Unit staff to ensure a 
common understanding within and between Warrior Transition Units in how 
to care for Warriors in Transition. The Nurse Case Manager members of 
the Triad are Registered Nurses with considerable experience in 
developing and executing care plans. Their mission is to ensure that 
the care and support Warriors in Transition receive is carried out in 
the most effective manner possible. This mission both relies on 
professional training and experience as well as knowledge of the 
military and how to manage Soldiers.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                             grow-the-army
    Question. The Army is accelerating their Grow-the-Army initiative, 
and hopes to reach their goal of 547,400 personnel as soon as possible. 
Is the Army medical community also growing in personnel to address the 
increased need for combat medics? Do you have the resources to support 
this growth?
    Answer. Each Brigade Combat Team (BCT) includes approximately 250 
medical personnel, approximately 200 of which are enlisted health care 
specialists. With the acceleration of the ``Grow-the-Army'' initiative 
and the increase in BCTs, medical structure in the Operational Army 
will increase. In addition, the ``Grow-the-Army'' also includes 
increases in Army medical manpower in the Institutional Army.
    In the absence of significant retention incentives, it will take 
several years to fully man these additional spaces. Our request for 
additional military medical manpower to support ``Grow-the-Army'' 
requirements is still being assessed within Headquarters Department of 
the Army. Depending on the results of this assessment, additional 
accession and retention incentives may be required to support this 
growth. These incentives would need to be developed in coordination 
with our Sister Services using the authorities provided to the Office 
of the Secretary of Defense in the fiscal year 2008 National Defense 
Authorization Act with regard to restructuring Medical Special Pays.
                             brac deadline
    Question. The Navy has announced an award for the design-build of 
the new Walter Reed National Military Medical Center at Bethesda. Do 
you believe this project is still on track to be completed by the BRAC 
deadline of 2011?
    Answer. The Naval Facilities Engineering Command (NAVFAC) announced 
on March 3, 2008 the award of a design and construction contract 
required to establish the new Walter Reed National Military Medical 
Center (WRNMMC), Bethesda, MD. The construction contract was awarded to 
Clark/Balfour Beatty, Joint Venture in the amount of $641.4 million. 
The environmental planning process guided by the National Environmental 
Policy Act is still ongoing and the final issue of the Record of 
Decision is pending for May 2008.
    The design and construction phases for the new WRNMMC, Bethesda 
have been closely coordinated between NAVFAC, TRICARE Management 
Activity and the Joint Task Force, Capital Medical and appears to be on 
track for completion by September 2011 pending any unforeseen 
complications. The design build contract allows for the greatest 
flexibility as we move forward with this project.
    Question. What challenges still need to be addressed in completing 
the build out of this facility by the BRAC deadline?
    Answer. The design, construction, and transition into the new 
Walter Reed National Military Medical Center, Bethesda poses many 
challenges. The Environmental Impact Study and subsequent signing of 
the Record of Decision must be completed on time. Delays in either of 
these areas will push back the construction schedule.
    The design phase of the new Walter Reed National Military Medical 
Center is an iterative process requiring ongoing adjustments to the 
blue prints to ensure the functionality of all clinical areas moving 
from Walter Reed to the new Walter Reed National Military Medical 
Center. We must ensure that adequate space has been provided to meet 
the mission and deliver world-class care to all beneficiaries entrusted 
to our care.
    Walter Reed's Centers of Excellence must be included in the new 
Walter Reed National Military Medical Center. These world-class 
research, teaching, and clinical centers must maintain the same 
capability and capacity in their new facilities.
                       medical center realignment
    Question. Are there Service specific concerns or issues with 
regards to this realignment that you are working through with your Navy 
counterpart? What are they?
    Answer. The Army and the Navy have separate organizational 
structures for Walter Reed Army Medical Center (WRAMC) and the National 
Naval Medical Center (NNMC). Each command contributed to the design of 
a common organizational structure for the new Walter Reed National 
Military Medical Center. The newly created organizational structure 
combines the best of both WRAMC and NNMC and will greatly facilitate 
the integration of clinical, clinical support and administrative 
processes.
    The Army and Navy have strong health profession education programs. 
Most of Walter Reed's and National Naval Medical Center's Graduate 
Medical Education (GME) programs have functioned as fully integrated 
joint programs since 1997, under the National Capital Consortium. We 
have worked together to continue to integrate the three remaining GME 
programs (Transitional Internship, Internal Medicine Residency, and 
General Surgery Residency programs). Some health profession education 
programs are unique to the Army (e.g., Licensed Practical Nurse 
training for medics). We are concerned about the future of these 
programs in the National Capital Region after realignment.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                behavioral health specialists shortages
    Question. Thank you for appearing here today. I'd like to start by 
commending all the services for their selfless service on the front 
lines of the War on Terror. Our Military, young men and women, young 
Soldiers, Marines, Sailors and Airmen have performed admirably on an 
asymmetric battlefield and against an irregular enemy. Thank you.
    We are obligated to provide the best support available to our 
service men and women. Many in our Active and Guard ranks are deploying 
to Iraq and Afghanistan for the 3rd and 4th times. An increasing number 
of military personnel are returning from combat duty with varying 
degrees of Post Traumatic Stress Disorder (PTSD). There is also an 
alarming spike in military suicide rates. It is clear that there is a 
relationship between suicide rates and PTSD. We must make sure that our 
men and women have access to the care they deserve when they return 
from combat. My staff has been investigating the status of behavioral 
health care throughout the military and has consistently found that 
behavioral health care assets remain in short supply. Of those 
specialists, few have experience working with soldiers returning from 
combat deployments. I'm also told that the military has had a 
challenging time trying to convince prospective specialists to relocate 
to a relatively desolate outpost. Twenty Nine Palms is a great example. 
If given a choice between working at a military base near an urban area 
with attractive living conditions, and a base off the beaten path, I 
believe a potential employee would choose the more lucrative living 
area 90 percent of the time.
    What are you doing to alleviate the shortage?
    Answer. The Army Medical Command (MEDCOM) is diligently working to 
fill 266 new behavioral health positions identified in the continental 
United States, and has currently filled 168 of those positions for a 63 
percent fill rate. MEDCOM will also fill 64 new behavioral health 
positions in Europe and 8 behavioral health positions in Korea.
    The military is competing in a market that suffers from a shortage 
of qualified mental health professionals. Additional incentives 
specific to behavioral health providers are needed to recruit and 
retain these professionals in the Army. Currently, Licensed Clinical 
Psychologists are offered the Critical Skills Retention Bonus (CSRB) at 
a rate of $13,000 per year for 2 years or $25,000 per year for 3 years. 
The Health Professions Loan Repayment Program (HPLRP) is available for 
the accessions of 5 Clinical Psychologists and the retention of 20 
Clinical Psychologists per year at the rate of $38,000 per year. The 
Health Professions Scholarship Program is available to students 
pursuing a doctorate in Clinical Psychology in exchange for an active 
duty service obligation. Social Workers in the grade of Captain are 
offered the Army CSRB at the rate of $25,000 per year for a 3-year 
active duty service obligation. The HPLRP is available for the 
accessions of 5 Social Workers and the retention of 20 Social Workers 
per year at the rate of $38,437 per year. A Masters of Social Work 
program has been established at the U.S. Army Medical Department Center 
& School in affiliation with Fayetteville State University. The program 
will accommodate up to 25 students per year starting in Academic Year 
2008. Psychiatric Nurses and Psychiatric Nurse Practitioners are 
authorized to receive Registered Nurse Incentive Special Pay (RNISP) at 
a rate of $5,000 per year for 1 year, $10,000 per year for 2 years, 
$15,000 per year for 3 years and $20,000 per year for 4 years. The 
Uniformed Services University of Health Sciences has introduced a new 
Adult Psychiatric Mental Health Nurse Practitioner (PMH-NP) program. 
The PHM-NP program is a 24-month, full-time program beginning in 
Academic Year 2008; Army allocations are to be determined. 
Psychiatrists who execute a multi-year special pay contract (extending 
their active duty service obligation) are paid at the rates of $17,000 
per year for a 2-year contract, $25,000 per year for a 3-year contract 
and $33,000 per year for a 4-year contract. The Critical Wartime Skills 
Accession Bonus is approved and programmed for future use as a lump sum 
bonus of $175,000 for 10 Psychiatrists in return for a 4-year active 
duty service obligation.
                      behavioral health resources
    Question. Thank you. To follow up, I'd ask Army leaders to consider 
a proposal to allow active duty forces to access the behavioral health 
care resources available at the nation's Vet Centers. These facilities 
provide care for PTSD and are manned by veterans and specialists 
familiar with the needs of veterans and our active duty forces. It 
seems a tremendous waste in resources to limit eligibility to our Vet 
Centers to veterans only if there are soldiers who require care but 
have limited or no assets available to them.
    Would you support legislation that allowed active duty forces 
access to behavioral health resources at the nation's Vet Centers?
    Answer. Any proposal that increases a Soldier's ability to access 
needed care is always welcomed, and we believe this may be a useful 
option over time.
                               eye trauma
    Question. Switching gears, I'd like to talk about the Centers of 
Excellence recently developed by the Department of Defense. Congress, 
in the Wounded Warrior section of the NDAA enacted January 2008, 
included three military centers of excellence, for TBI, PTSD, and Eye 
Trauma Center of Excellence. The two Defense Centers of Excellence for 
TBI and Mental Health PTSD are funded, have a new director and are 
being staffed with 127 positions, and are going to be placed at 
Bethesda with ground breaking in June for new Intrepid building for the 
two centers. I'm sure you are aware that there have been approximately 
1,400 combat eye wounded evacuated from OIF and OEF.
    Does DOD Health Services Command have current funding support and 
adequate staffing planned for the new Military Eye Trauma Center of 
Excellence and Eye Trauma Registry? If not, when can the committee 
expect to be provided specific details on implementation?
    Answer. The Assistant Secretary of Defense for Health Affairs 
recently directed the Army to take the lead in the joint effort to 
develop an implementation plan for a Center of Excellence in 
Prevention, Diagnosis, Mitigation, Treatment, and Rehabilitation of 
Military Eye Injuries. Currently, no funds are dedicated to the Center 
of Excellence or the Eye Trauma Registry. The Department of Defense 
Health Affairs Steering Committee for this Center of Excellence is 
still finalizing the concept, staffing requirements, central office 
location, agenda, and timeline. Specific details on implementation 
should be available by the end of the third quarter, fiscal year 2008.
                      joint military health system
    Question. There has been a lot of discussion in recent years about 
making military medicine more joint. Do you believe changes in the 
governance of the Military Health System are needed to make military 
medicine more effective and efficient?
    Answer. Absolutely. Our experiences in Operations Iraqi Freedom and 
Enduring Freedom highlight the necessity for jointness, coalition 
partnerships, and an appropriate mix of active and reserve component 
personnel. A Unified Medical Command has the potential to improve 
delivery of military medical support across the full spectrum of 
conflict, from combat operations to peacetime family member health 
care.
    The Army Medical Department has looked hard at governance of the 
Military Health System (MHS) and developed a proposal for a Unified 
Medical Command that we believe provides the following advantages: a 
more effective and efficient governance; improved delivery of health 
care to the beneficiary population; efficiencies gained through 
elimination of Service stovepipes; a single accounting system; and a 
single point of accountability. It also ensures the Service medical 
departments retain their individuality where appropriate, as there are 
some differences in mission and skill sets that do need to remain.
    However the governance ultimately evolves, it is important that it 
maintains a military command and control structure and that the chain 
of command be streamlined to maximize responsiveness and optimize 
outcomes. The recent activation of the Joint Task Force National 
Capital Region is an opportunity to help inform our efforts and shape 
the future transformation of MHS governance.
                                 ______
                                 
          Questions Submitted to Major General Gale S. Pollock
            Questions Submitted by Senator Daniel K. Inouye
                        specialty pay for nurses
    Question. General Pollock, the Army initiated a specialty pay (IPS) 
to retain highly skilled, certified nurses. However, only 50 percent of 
nurses eligible for the bonus have accepted. Is this due to a 
difficulty in communicating incentives, or is it just another strong 
sign at the difficulty to retain Army nurses?
    Answer. Since last reported, the Army Nurse Corps is pleased to 
convey that the percentage of nurses who are eligible for Registered 
Nurse Incentive Special Pay (RN ISP) and have taken the bonus is up to 
74 percent. Additionally, in response to this new incentive program, 
many Army Nurses are actively pursuing national certification in order 
to qualify for RN ISP. Therefore, we fully expect both the eligible 
population and the acceptance rate to steadily increase. In order to 
help facilitate certification, many Army Medical Treatment Facilities 
are offering review courses and study groups to assist nurses in 
preparing for certification exams. In addition, the Federal Nursing 
Chiefs have partnered with the American Nursing Association and 
American Nurses Credentialing Center to reinstate certification in 
several specialties. The RN ISP program has already proven to be an 
essential retention tool, as evidenced by the surge in Army Nurses 
pursuing certification to qualify.
                           nurse/pandemic flu
    Question. General Pollock, Northcom and Department of Defense 
Health Affairs office drafted the Department's plan to respond to a 
pandemic flu, but there is no mention of nurses. What role do you see 
nurses taking in a pandemic flu scenario?
    Answer. The Army Nurse Corps recognizes that, in order for the 
Department of Defense's plan to be successful, human resources will be 
necessary to respond to and sustain any pandemic flu scenario. Nurses 
are an integral part of providing the medical services required in the 
event of an outbreak. From pre-hospital care, hospital/acute care, 
palliative care, and alternative care sites, the role of the registered 
nurse in responding to a pandemic emergency is critical and 
significant. The strategies for building surge capacity within the 
health care system to meet the significantly increased demand that a 
pandemic event would place on the system must include nurses in order 
to be successful.
                           school of nursing
    Question. General Pollock, the National Defense Authorization Act 
for Fiscal Year 2008 directed the Secretary of Defense to establish a 
school of nursing within the Uniformed Services University of Health 
Science. Is the Nurse Corps supportive of this effort and what is the 
timeline for establishing the school?
    Answer. The Army Nurse Corps does not support the creation of an 
undergraduate nursing program at the Uniformed Services University of 
Health Science (USUHS). The nursing mission of USUHS is to prepare and 
educate students as advanced practice nurses, scientists, and scholars 
for service as future leaders in military operational environments, 
federal health systems and university settings. The Army Nurse Corps 
recommends that baccalaureate level education remain in the civilian 
sector, and that the Army continue to improve scholarship opportunities 
for all accession sources.
    A Department of Defense School of Nursing is expected to produce 50 
nurses for the first class graduating in fiscal year 2012. However, the 
Army would only receive approximately 10-20 new accessions from the 
program, yet the Army Nurse Corps requires 250-450 accession per year. 
Therefore, an increased investment in existing civilian Bachelor of 
Science in Nursing (BSN) completion programs would help us recruit and 
access a greater number of nurses much faster.
    Establishing a BSN degree completion program at USUHS would be more 
beneficial to the Army. Currently, there are a significant number of 
junior Army Nurse Corps officers in the U.S. Army Reserves who have not 
completed their BSN degree. To be promoted and serve in leadership 
roles, those officers will need to complete their education.
                          promotion selection
    Question. General Pollock, the Army has promoted retention of 
clinical nurse specialists. Do the clinicians have the same promotion 
selection as nurses on the administrative track?
    Answer. All Army Nurses have the same promotion opportunity rate 
through Lieutenant Colonel (LTC). Army Nurses are given the opportunity 
to progress in rank as they demonstrate nursing proficiency and 
effective leadership traits. However, the promotion opportunity to 
Colonel (COL) is very limited for all Army Nurse officers, regardless 
of specialty. Some specialties have a better promotion rate to COL 
because we have requirements-driven promotions for those groups.
    The Army Nurse Corps is seeking more LTC and COL authorizations. 
COL authorizations with emphasis on clinical and leadership acumen are 
needed to better develop junior and mid-grade Nurse Corps officers to 
serve in a variety of complex clinical roles. We have a greater demand 
for more senior officers with a progressive clinical career pathway 
background to serve as mentors and coaches much like the Medical and 
Dental Corps now have under Defense Officer Personal Management (DOPMA) 
exemption. Current retention initiatives have increased retention 
significantly among field grade clinical nurses who are retirement 
eligible, despite limited opportunities to serve as a COL in a DOPMA-
constrained promotion model. DOPMA exemption for the Army Nurse Corps 
would provide greater structure at the LTC and COL ranks to meet the 
needs of more senior and experienced clinicians at the bedside while 
improving retention rates among officers seeking a progressive clinical 
career pathway.
                       nurse psychological health
    Question. General Pollock, the Army has instituted a number of 
programs to address the increase of psychological health issues among 
service members. However, nurses are also deploying and are responsible 
for treating psychological health issues. Are there any specific 
psychological health programs targeted at our military nurses?
    Answer. The Army psychological health programs target all military 
members. Pre and Post deployment psychological screening, one component 
of health surveillance, has been used extensively to predict job or 
illness-related outcomes and to determine risk indicators. In addition, 
``Battlemind'' training has been implemented throughout the Army. The 
goal of this training is to develop a realistic preview, in the form of 
a briefing, of the stresses and strains of deployment on Soldiers. Four 
training briefs have been developed and are available for Soldiers, 
Leaders, and Families.
    The Army Medical Department (AMEDD) recognizes the impact of 
deployments on our staff, as well as the impact of the high-operational 
tempo on staff members who are not deployed, but who are taking care of 
the same injured OEF/OIF patients. Accordingly, AMEDD has implemented 
Compassion Fatigue and Resiliency program initiatives to target AMEDD 
staff. All medical treatment facilities have access to a centralized 
web-based program entitled, ``Provider Resiliency Training.'' The Army 
Medical Department has also instituted an assessment, education, 
intervention and treatment program for Provider Fatigue and Burnout. 
Centralized products for Provider Resiliency Training have been 
developed, resulting in standardized, efficacy-based education and 
training that has enhanced resiliency of care providers who have 
participated and provided attendees who are experiencing Provider 
Fatigue and Burnout the tools necessary to mitigate their condition. 
Additionally, Behavioral Health Clinicians, hospital-level Provider 
Resiliency Champions and Care Team personnel have been trained and 
certified as Provider Fatigue Educators and/or Therapists. The Army 
Medical Department (AMEDD) is also establishing Care Teams at our 
Medical Centers and larger Medical Facilities to focus on provider 
compassion fatigue intervention. These Care Teams will use a community 
health model of intervention, taking services to the wards and clinics 
for providers and other staff in our hospitals.
                         contracting for nurses
    Question. General Pollock, in order to facilitate optimal nurse 
staffing, contract staffing support companies have been used. Have 
these companies met your needs for recruiting contract nurses in a 
timely manner, and providing quality nurse?
    Answer. In order to compensate for the nursing deficit and the 
current operational tempo, we have expanded contract nursing support 
considerably. For fiscal year 2007, we contracted for 717.6 full-time 
equivalents in registered nursing across the U.S. Army Medical Command 
(MEDCOM) at a cost exceeding $53.6 million. The advantage of contract 
nursing is the ability to bring an individual on board quickly and 
provide flexibility to meet both short-term and long-term needs. 
Contract nurses can do this in a matter of a few days as opposed to the 
weeks/months it takes us to bring a General Schedule (GS) nurse 
onboard. The educational and credentialing requirements are the same 
for contract nurses and the overall quality of contract nurses is good.
    While contract nursing supports operational needs, it is not a 
sound long-term strategy. Contract nurses pose additional 
complications, such as: (1) variance with nursing competencies and 
training backgrounds affects performance in a military hospital; (2) 
lack of loyalty to the organization; (3) a ``short horizon'' mindset; 
and (4) constant turbulence requires resources to train and orient. 
Wherever possible, medical treatment facilities throughout MEDCOM are 
replacing contract nurses with General Schedule (GS) nurses.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                partnership with university of maryland
    Question. The Defense Appropriations subcommittee asked each branch 
to report on the nursing shortage and efforts in which you are 
currently engaged or see potential.
    In your response, you discussed the faculty augmentation program or 
the Army's partnership with the University of Maryland. In this 
partnership, you argue that DOD received no direct incentive to begin 
the partnership, yet the Army still benefits from the project. Can you 
please speak to these benefits and the future of the partnership?
    Answer. The partnership program with the University of Maryland 
provides the opportunity for detailed Army Nurse Corps officers to 
acquire unique educational, training, and supervisory skills that 
better prepare these officers to serve in a variety of positions. 
Appropriate utilization of these officers could include a variety of 
educator positions within medical treatment facilities, in a number of 
phase II clinical training sites, clinical nurse specialists in large 
teaching facilities, and clinical head nurses who are pivotal in the 
training and development of junior civilian and military staff nurses. 
The skills these officers are expected to acquire through this program 
include developing and implementing curricula, supervising clinical 
skills of baccalaureate students, building partnerships with academia, 
evaluating collegiate-level students, developing testing and evaluation 
instruments, developing evidence-based clinical practice, developing a 
methodology evaluating critical thinking, integrating medical 
simulation into the education process, and evaluating scholarly 
writing.
    A significant outcome expected from this program is improved 
recruiting for Army Nursing. The Army Nurse instructors are in uniform 
and demonstrate on a daily basis the quality and professionalism of the 
Army Nurse Corps. They serve as indirect recruiters and are readily 
available to answer questions from potential accession candidates, not 
only from the nursing school, but within the clinical settings of area 
hospitals.
                            nursing shortage
    Question. The United States is currently facing one of the most 
severe nursing shortages in its history. While nursing schools have 
been making a concerted effort to increase enrollments to meet current 
and projected demand, 40,285 qualified applicants were turned away in 
2007 according to the American Association of Colleges of Nursing. The 
top reason cited was a lack of qualified nurse faculty.
    The legislation I introduced earlier this year, The Troops to Nurse 
Teachers Act of 2008 (S. 2705), creates several avenues by which 
military nurses can become nurse educators. The subsequent increase in 
the number of nurse faculty would allow schools of nursing to expand 
enrollments and alleviate the ongoing nursing shortage in both the 
civilian and military sectors. Considering the military has a 
significantly higher percentage of Masters and Doctorally prepared 
nurses than in the civilian population--ideal for vacant faculty 
positions--how does the Army view this program as part of a successful 
strategy to address the military nurse shortage?
    Answer. The Army Nurse Corps supports the Troops to Nurse Teachers 
Act of 2008 and believes that using the expertise of our retired 
military nurse population to teach in civilian nursing education 
programs will help alleviate the national nursing shortage by 
increasing the civilian nurse instructor pool. Additionally, it will 
expose nursing students to the benefits of a military career. Finally, 
programs that detail qualified active duty nurses into collegiate 
nursing instructor positions could benefit military nurse recruiting 
and retention efforts. However, since this program addresses the 
national nursing shortage, the Department of Defense is not the best 
federal funding partner.
                           nursing education
    Question. The Army recruits, in particular, nurses with a 
baccalaureate degree in nursing. The Agency for Healthcare Research and 
Quality has found that baccalaureate nurses are the key to providing 
safe, high quality care that leads to improved patient outcomes. What 
benefits do these nurses bring to military health care?
    Answer. The Army Nurse Corps (ANC) has continued to recognize the 
quality of clinical care associated with higher-level preparation and 
seeks to maintain an all professional Corps with a standard entry-level 
education requirement. Bachelor of Science in Nursing (BSN) programs 
provide a uniform and standard curriculum accredited by certifying 
bodies under the auspices of the Department of Education. This 
accreditation process assures uniformity in the educational and 
clinical preparation of ANC accessions without significant variance. 
The BSN is also the minimum educational entry for advanced degree 
eligibility, professional certification, and post-baccalaureate 
training.
    The research literature strongly supports the conclusion that 
nursing care provided by nurses with a BSN or higher-level degree 
results in improved patient outcomes, shorter hospitalization, greater 
patient satisfaction, and reduced patient mortality. These benefits are 
brought to the military health care system because all of our Active 
Component ANC officers have at least a baccalaureate degree in nursing. 
The Reserve Component has recently adopted this professional nursing 
model. All officers in the Army are required to have or attain a 
bachelor's degree, and it is imperative that Nurse Corps officers are 
educated to this standard to provide both top-quality care and required 
professional leadership.
    Question. In your written testimony, you also emphasize the 
important role of Nurse Practitioners. Can you elaborate on the 
importance of Advanced Nursing degrees for the military and the 
importance of partnering with accredited schools of nursing?
    Answer. As the Global War on Terrorism continues, the Army requires 
greater flexibility to meet the primary health care needs of Soldiers. 
These needs occur primarily at the operational unit level and at troop 
medical clinics on forward operating bases. Nurse practitioners have 
provided the Army with highly-qualified primary care providers who are 
able to offer their expertise at brigade and higher levels while 
helping to relieve some of the critical shortages faced by the 
physician and physician assistant communities. Soldiers and leaders are 
highly satisfied with the care provided by nurse practitioners, which 
has resulted in increased requests for nurse practitioners on the 
battlefield.
    Health care delivery practices and theory continue to evolve and 
change. To address this dynamic environment, the Army Nurse Corps has 
forged professional partnerships with accredited schools of nursing. 
These partnerships focus on educating nurses and enhancing their 
ability to practice in a changing environment. Army nursing leaders 
believe that these formalized cooperative efforts have helped dissolve 
the traditional barriers between military and civilian education and 
practice. The partnerships also provide new education and practice 
opportunities that are vital in promoting nursing professionalism.
                            nursing shortage
    Question. Can you speak to the increasing demand for nurses in your 
branch as a result of the ongoing war in Iraq?
    Answer. The persistent conflicts in Iraq and Afghanistan have 
placed increased demands on all military nurses. They serve in clinical 
and leadership roles in medical treatment facilities in the United 
States and abroad, in combat divisions, forward surgical teams, combat 
stress teams, civil affairs teams, combat support hospitals (CSHs), and 
coalition headquarters.
    The Army Nurse Corps' high attrition rates can be attributed to the 
frequency and length of deployments. Nurses with high-demand 
specialties deploy more frequently. Based on exit survey results over 
the past four years, officers choose to leave the Army Nurse Corps 
after a deployment, rather than potentially deploy again. As a result, 
more nurses are needed to lower the frequency of deployments and help 
the Army Nurse Corps' retention efforts.
    In addition, our re-deployed nurses are caring for the same 
Soldiers they cared for on the battlefield--Soldiers who have complex 
injuries that require more nurses with a higher skill level than ever 
before. The emotional toll from caring for these severely injured 
patients in both deployed and non-deployed settings creates a need for 
more nurses to ameliorate this effect.
                           nursing recruiting
    Question. One of the major recruitment strategies for the Army and 
other Military Nurse Corps is the Reserve Officers' Training Corps or 
ROTC. In recent years, how effective has this program been in 
recruiting and preparing nurses for a career in the Army Nurse Corps? 
How well does this program recruit underrepresented populations to the 
Army?
    Answer. The Army Nurse Corps accesses officers for the Active 
Component through a variety of programs, including the Reserve 
Officers' Training Corps (ROTC), the Army Medical Department Enlisted 
Commissioning Program, the Army Nurse Candidate Program, and direct 
accession recruiting, with ROTC being the primary accession source. 
Over the past four years, we have not achieved our annual ROTC mission 
for 225 nurses; however, each year shows improvement. In an attempt to 
resolve continued strength shortfalls within the Army Nurse Corps, 
overproduction of the direct accession mission has been authorized and 
encouraged.
    Demographic data provided by U.S. Army Cadet Command indicate that 
ROTC nurses are a more diverse population than the national nurse 
population. 68 percent of ROTC-contracted nurses are Caucasian, 12 
percent are Asian-American, 7 percent are African-American, 7 percent 
are Hispanic, 2 percent are American Indian, and 4 percent are unknown. 
By comparison, national nursing statistics indicate that 88.4 percent 
are Caucasian, 3.3 percent are Asian-American, 4.6 percent are African-
American, 1.8 percent are Hispanic, and 0.4 percent are American-
Indian. Additionally, men represent about one-third of the Corps' 
strength compared to about 7 percent of civilian nursing professionals.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                            integrated care
    Question. (a) The Dole/Shalala Report recommends DOD and VA develop 
integrated care teams with physicians, nurses, health professionals, 
social workers, and vocational rehabilitation professionals. The Army's 
Warrior Training Unit has physicians, nurse case managers, and squad 
leaders?
    (b) Are we asking our nurses to do the job of social workers?
    (c) What training do they receive to do this?
    Answer. (a) Each Warrior in Transition (WT) Soldier is now assigned 
or attached to a Warrior Transition Unit (WTU), with an assigned 
military squad leader, nurse case manager, and primary care manager 
(physician). Commonly referred to as the ``Triad of Care'', this team 
forms the core of the WTU which is exclusively dedicated to overseeing 
and managing the healing process for each WT Soldier. At 35 Army 
hospitals around the world, each WTU serves with the singular purpose 
of helping each Soldier transition to productive lives, either within 
the Army as successful Soldiers or outside of the military as respected 
members of their communities, equipped with all of the Veterans 
benefits they are entitled.
    (b) Nurse Case Managers (NCM) are not being asked to assume the 
duties normally associated with social workers. In the WTUs, case 
management is a collaborative process under the population health 
continuum which assesses, plans, implements, coordinates, monitors, and 
evaluates options and services to meet each Soldier's health needs 
through communication and available resources to promote quality, cost-
effective outcomes. Clinical case managers are licensed health care 
professionals with varying levels of education and credentials who 
practice without direct supervision. All Warrior Transition Unit Case 
Managers are Registered Nurses. Social Workers are participants of the 
multi-disciplinary team, but their role and responsibilities are 
clearly established and distinct from those of nursing personnel. Each 
WTU has priority access or even exclusive use in some cases to licensed 
social workers, behavioral health providers such as psychiatrists and 
counselors, and vocational rehabilitation professionals such as 
occupational therapists.
    (c) Case Managers are required to complete nine Distance Learning 
Training Modules and 40 hours of classroom training during their 
orientation. The Army Medical Department (AMEDD) Center & School (C&S) 
sponsors this training. The AMEDD C&S is finalizing an agreement with a 
well known University to offer a 80-hour comprehensive CM training 
course for the Army's military and civilian NCMs. Completion of the 
course will prepare the NCM for National Certification in Case 
Management. As a matter of standing regulation, we require all medical 
professionals serving within the AMEDD to maintain their respective 
professional credentials.
                       nurse psychological health
    Question. (a) The Army nurse corps has the highest attrition of any 
officer branch of the Army. What are you doing to monitor the stress on 
our nurses?
    (b) What service are we providing them to help deal with that 
stress?
    (c) How many additional nurses do you need to recruit to ensure we 
can meet our commitment to our wounded soldiers?
    (d) What is your plan to meet the growing need?
    (e) What are the major obstacles?
    Answer. (a) Army Nurse Corps (ANC) leaders monitor stress on nurses 
in a variety of ways. Supervisors and Deputy Commanders for Nursing, as 
well as ANC Branch Career Managers talk with officers on a regular 
basis to address their individual and collective stressors. Deployment 
equity, length of deployment, shift work, career progression tracks and 
retention programs have all been modified to alleviate the stress on 
Army nurses. In addition, the ANC instituted an exit interview in order 
to study and address attrition variables from the view of those who 
decided to leave Army service.
    (b) Several services have been implemented as part of the Army 
Medical Department Care Giver Support Program at Walter Reed Army 
Medical Center (WRAMC), Landstuhl Regional Medical Center (LRMC), and 
Brooke Army Medical Center (BAMC). BAMC has a formalized stand-alone 
program for dealing with Provider Fatigue, and BAMC's Department of 
Behavioral Health responds to staff requests for assistance and 
provides training and sensing sessions. WRAMC, LRMC and BAMC each have 
access to a centralized web-based program entitled, ``Provider 
Resiliency Training.'' The Army Medical Department has also instituted 
an assessment, education, intervention and treatment program for 
Provider Fatigue and Burnout. Centralized products for Provider 
Resiliency Training (PRT) have been developed, resulting in 
standardized, efficacy-based education and training that has enhanced 
resiliency of care providers who have participated and provided 
attendees who are experiencing Provider Fatigue and Burnout the tools 
necessary to mitigate their condition. Additionally, Behavioral Health 
Clinicians, hospital-level Provider Resiliency Champions and Care Team 
personnel have been trained and certified as Provider Fatigue Educators 
and/or Therapists. The Army Medical Department (AMEDD) is also 
establishing Care Teams at our Medical Centers and larger Medical 
Facilities to focus on provider compassion fatigue intervention. These 
Care Teams will use a community health model of intervention, taking 
services to the wards and clinics for providers and other staff in our 
hospitals.
    The Army's Institute of Surgical Research (ISR) received $1 million 
and is in the process of creating a Compassion Fatigue program with a 
respite room for staff. It will be a prototype. We are already 
providing services and have a roster of experts who will come to teach 
and train staff. We have also had an Advanced Practice Psychiatric 
Nurse working with staff for a year.
    (c) In order to meet our commitment to our wounded Soldiers, the 
Army Nurse Corps recently identified a need for additional budgeted end 
strength of 300 Army Nurses. The current mission shortfall is 184, and 
the ANC needs an additional 116 nurses to meet ``Grow-the-Army'' 
requirements.
    (d) An analysis of current shortfalls has been incorporated into 
the plan to grow the Army Nurse Corps. The analysis indicates that the 
following mission areas require additional assets: Warrior Transition/
Case Management; Psychological Nursing; Rehabilitation; Intensive Care 
Mission; Emergency Nursing; Residency for New Graduates; and Training. 
The plan to meet these needs will be carried out over the next four 
years and include requests to expand all Army Nurse accession and 
retention programs.
    (e) There are several major obstacles impeding retention of Army 
Nurses. These include competition with the civilian job market, rising 
civilian salaries, and poor promotion opportunities for ANC officers. 
Other factors include the operational tempo, frequency of deployments, 
and the emotional burnout of caring for Wounded Warriors.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                            nursing shortage
    Question. With a shortage of nurses to recruit from, and as the 
Army continues to grow their end strength by 65,000, how do you 
maintain the Army Nurse Corps to support a larger force?
    Answer. We anticipate that the size of the Army Nurse Corps will 
grow. The increase in forecasted end strength is based on force 
projection models that take into consideration current and future 
workload. In addition, as the Army Nurse Corps increases in size, our 
civilian nurse work force will also grow to support the expanded 
medical requirements a larger force will bring. To maintain this Army 
Nurse force, growth is required throughout the structure to ensure 
junior clinicians receive appropriate mentoring and coaching, and to 
allow senior nurses to organize and lead the very dynamic trends in 
both the Army and nursing.
                                 ______
                                 
     Questions Submitted to Rear Admiral Christine M. Bruzek-Kohler
            Questions Submitted by Senator Daniel K. Inouye
                       nurse corps age exemption
    Question. Admiral Bruzek-Kohler, I have been informed that the 
Nurse Corps is one of the only medical fields without the ability to 
recruit individuals who are older than 42 because of a Title 10 
restriction which requires a person to be able to complete 20 years of 
active commissioned service before their 62nd birthday. Currently the 
Medical Corps, Dental Corps, and Chaplain Corps are exempt from this 
age requirement. Are there efforts to exempt Nurse Corps officers to 
also be exempt from this age requirement?
    Answer. There are currently no efforts to seek this age exemption 
for the Nurse Corps. The Nurse Corps met its recruiting goal for fiscal 
year 2007 for the first time in four years and with recent increases in 
the Nurse Accession Bonus (an increase to $20,000 for a three-year 
commitment and $30,000 for a four-year commitment), Navy is projecting 
to meet its fiscal year 2008 recruiting accession goal within the 
current age limitations of Title 10.
    The Nurse Corps Community Manager closely monitors the changing 
demographic of individuals entering into the nursing profession, and 
will consider legislative relief as a possible course of action should 
the requirement arise.
                         humanitarian missions
    Question. Admiral Bruzek-Kohler, what role does the Nurse Corps 
have in drafting the Pandemic Flu plan or other humanitarian missions?
    Answer. Navy nurses have been involved in a myriad of activities 
related to Pandemic Flu (Influenza) Plan at both at the Bureau of 
Medicine and Surgery (BUMED) level and their local military treatment 
facilities in which they work.
    For example, one of our nurses went to Hawaii to assist a six 
person planning group for Pacific Fleet Pandemic Influenza plans, 
carrying over concepts for the Pacific Command Pandemic Influenza plan 
(some of which originated at the BUMED's Homeland Security code). Navy 
nurses have availed assistance with the review of the Navy Medicine 
Pandemic Influenza instruction and offered recommendation on equipment, 
logistical requirements and medication (Tamiflu) shelf life extension 
programs in coordination with the Navy Medicine Logistics Command.
    Our nurses have also been engaged in Pandemic Influenza planning 
and training sessions hosted by the Guam Department of Homeland 
Security.
    Navy nursing specialties with backgrounds and training expertise in 
disaster relief and emergency management are particularly well-suited 
to assist with planning responses for pandemic influenza and 
humanitarian missions. These nurses can readily serve as leaders in 
planning and surveillance issues surrounding patient care and force 
protection. Navy nurses may also be called upon to serve in the role of 
Public Health Emergency Officer (based on location of the treatment 
facility and availability of other health professional resources). 
Additionally, our nurses may be representatives on command Emergency 
Management Committees, participating in local Pandemic Influenza 
tabletop training and exercise.
    There are Navy nurses on both of our hospital ships as well as on 
grey hulls located around the world. While their jobs are more directly 
aligned with the provision of nursing care in humanitarian missions, 
they may be involved in the planning stages to ascertain the numbers 
and types of nursing specialties necessary to meet mission objectives 
and patient care requirements.
                          usuhs nursing school
    Question. Admiral Bruzek-Kohler, the National Defense Authorization 
Act for Fiscal Year 2008 directed the Secretary of Defense to establish 
a school of nursing within the Uniformed Services University of Health 
Science. Are the Nurse Corps supportive of this effort and what is the 
timeline for establishing the school?
    Answer. The Navy Nurse Corps would welcome the exploration of the 
following possible student populations for admission to a School of 
Nursing at USU:
  --Associate Degree Nurses (ADN) who could pursue BSN or even bridge 
        to MSN. The ADN pool holds an ``untapped'' recruiting 
        opportunity that has not been fully explored as accessions to 
        the Navy Nurse Corps must hold a BSN. Additionally, this 
        population of candidates possesses greater clinical experience 
        and offers a more mature, dedicated student with finite 
        professional goals.
  --Students who have completed liberal arts prerequisites and are 
        seeking admission into programs that are focused on core 
        curriculum leading to degree conferral of BSN/MSN.
  --Opportunities for distance education/on line degree completion 
        programs would also be appropriate for the two aforementioned 
        groups and are of interest to the Navy Nurse Corps.
  --Non-nursing degree holders (BS or BA) who seek BSN or MSN degrees. 
        The Navy Nurse Corps Community Manager has received calls from 
        officers in the Unrestricted Line Community (Surface Warfare 
        and Nuclear) who were interested in staying in the Navy and 
        acquiring their BSN.
    The Navy Nurse Corps understands that the timeline for 
establishment of the school of nursing will be reported in a report to 
Congress that is being prepared by the DOD/Uniformed Services 
University of Health Science in response to Sec. 955 of the fiscal year 
2008 National Defense Authorization Act.
                         nurse promotion rates
    Question. Admiral Bruzek-Kohler, do you see low promotion rates for 
nurses as a reason for Navy nurses to separate?
    Answer. No, I do not see low promotion rates as a reason for Navy 
Nurses to separate. Navy nursing is DOPMA constrained in the controlled 
grades and over the last six years from 2002 to 2008 have met DOPMA 
constraints. Active plans are underway to adjust grade strength to meet 
promotion needs.
                    mental health treatment research
    Question. Admiral Bruzek-Kohler, what role do Navy nurses have in 
research for post war mental health treatment?
    Answer. A Navy Nurse Corps officer has a trajectory of research 
looking at the mental health needs of Navy Service members--from 
assimilation at Boot Camp to reintegration. His latest study is 
developing methods for both the patients and caregivers to cope with 
anxiety-stress to PTSD. These studies are conducted across the 
branches. Several Navy nurses are co-investigators on his studies as 
well as the Army. It is funded via the Tri-Service Nursing Research 
Program
    We also join our colleagues from sister Services in the support of 
nursing research endeavors related to Stress, and Post Traumatic Stress 
Disorder vs. Mild Traumatic Brain Injury through the Tri-Service 
Nursing Research Program. Studies funded in fiscal year 2007 and future 
fiscal year 2008 studies will be conducted on topics of Deployment and 
Coping.
                      contract nurse requirements
    Question. Admiral Bruzek-Kohler, the entry requirement for active 
duty Navy nurses is a bachelor's in nursing. To provide consistent, 
quality care, is the same standard applied when hiring contract nurses?
    Answer. With rare exception, Navy Medicine contracts allow for 
Bachelors of Science in Nursing degrees (BSNs), associates degrees, or 
nursing school diplomas. This is a long standing practice. All of the 
aforementioned levels of academic preparations meet the requirement for 
taking the registered nurse licensing exam. We have not had any issues 
with ``consistent, quality care'' that are attributable to the 
educational experience of any one of those groups versus any other. We 
face an extremely tight labor markets for nurses at many of our 
hospitals and do not wish to decrease our overall level or quality of 
care by trying to limit our recruitment to only BSN nurses at this 
time.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                military nurse recruitment and retention
    Question. What do you consider the most challenging aspects to 
military nurse recruitment and retention? Can you discuss your most 
successful nurse recruitment and retention initiatives?
    Answer. Last fiscal year, we met our active duty direct accession 
goals and are on track to do so this fiscal year. Our top three 
programs which yield the greatest success in recruiting include the 
Nurse Accession Bonus (NAB), Health Professions Loan Repayment Program 
(HPLRP) and Nurse Candidate Program (NCP).
    The Nurse Accession Bonus is targeted towards civilian nurses who 
hold bachelors or masters degree in nursing from an accredited school 
of nursing and avails $20,000 for a three year commitment and $30,000 
for a four year commitment.
    The Health Professions Loan Repayment Program assists nurses with 
accumulated nursing school tuition costs. While primarily a retention 
tool, HPLRP has been used in conjunction with the NAB as a recruiting 
incentive to yield a five year active commission service obligation.
    The Nurse Candidate Program offered only at non-ROTC Colleges and 
Universities, is directed at students who need financial assistance 
while in school. NCP students receive a $10,000 sign-on bonus and 
$1,000 monthly stipend.
    The establishment of a Recruiting and Retention cell at the Bureau 
of Medicine and Surgery (BUMED) with a representative from each 
professional corps has also been helpful to our recruiting endeavors. 
These officers act as liaisons among Commander Naval Recruiting Command 
(CNRC), Naval Recruiting Districts (NRD), recruiters and our military 
treatment facilities. They also travel to local/national nursing 
conferences or collegiate recruiting events.
    Student Pipeline Programs are very successful in attracting future 
candidates and ensure a steady supply of trained and qualified Nurse 
Corps officers. These pipeline programs include Nurse Candidate 
Program, Medical Enlisted Commissioning Program, Naval Reserve Officer 
Training Corps (NROTC) Program and the Seaman to Admiral Program.
    We have also established mentorship programs to cultivate 
professional growth while enhancing retention of our Nurse Candidate 
Program and NROTC students, who are our best recruiters. Other factors 
contributing to recruiting success: location of duty stations and the 
opportunity to participate in humanitarian missions.
    We have implemented a number of retention initiatives to offset 
this attrition. Our critical juncture appears to be among nurses at the 
6 to 10 year length of service.
    The Health Professions Loan Repayment Program Scholarship assists 
Navy Nurse Corps officers with accumulated nursing school tuition 
costs. In fiscal year 2008, 42 active duty nurses were selected with 
average debt load of $27,300 with two years of obligated service. 
Interest in this program typically exceeds available funding.
    Additionally, the Duty under Instruction Program for Nurse Corps 
Officers provides the Nurse Corps Officer the opportunity for advanced 
educational degrees in nursing at the Masters and Doctoral levels. For 
the first time since 1975, this program was made available to nurses 
within their first tour of duty.
    A Tri-Service Registered Nurse Incentive Special Pay (RN ISP) Plan 
was released for Navy Nurses in February 2008 to target retention of 
undermanned critical wartime specialties as identified by the Chief, 
Bureau of Medicine and Surgery. For the Navy Nurse Corps this included: 
perioperative, critical care, family and pediatric nurse practitioners. 
This program offered tiered bonuses $5,000/1 year of obligated service, 
$10,000/2 years of obligated service, $15,000/3 years of obligated 
service and $20,000/4 years of obligated service. This program requires 
the nurses to work in their specialty area full-time, maintain national 
specialty certification and possess either a Masters of Nursing in the 
concentrated area of practice or have completed a Surgeon General's 
approved course.
                        troops to nurse teachers
    Question. If the Troops to Nurse Teachers program were authorized 
and funds were appropriated, how do you think it would impact the Navy 
Nurse Corps' recruitment and retention efforts?
    Answer. For the second consecutive year, the Navy Nurse Corps is on 
track to meet direct accession goals.
    The Navy Nurse Corps views this program primarily as a retention 
incentives program that gives Nurse Corps Officers an ``off ramp'' 
opportunity to teach for two to three years. They would then accrue 
obligated service back into the Medical Department with the hope that 
they would continue a 20 year or longer career.
    Should the program be funded, the most appealing provision would be 
the ``off ramp'' that gives nurse corps officers the opportunity to 
teach for two to three years. As a retention tool, it would accrue 
obligated service back into the Medical Department with the hope that 
they would continue a 20 year or longer career. It would essentially 
provide another way to retain nurses who might otherwise be disinclined 
to remain on active duty.
                            case management
    Question. In your written testimony, you discuss the importance of 
case management and how the Navy works in conjunction with other 
branches to coordinate care for soldiers' recovery at home. For 
example, you discussed the Naval Hospital Great Lakes work with the 
North Chicago VA Medical Center. Can you elaborate on this partnership 
and how the nursing shortage is affecting the ability to expand the 
program?
    Answer. The collaborative efforts initiated between Naval Hospital 
Great Lakes and the North Chicago VA Medical Center began in 
anticipation of the integrated federal health care center. Meetings 
involving Utilization Management/Case Management departments have 
occurred and have been most helpful in aligning and coordinating 
patient services in other parts of the Midwest (particularly in other 
Veterans Integrated Service Networks--VISNs). These early meetings have 
also fostered shared use of training resources, enhanced rapport and 
identified system unique (VA and Navy Military Treatment Facility) 
processes that must be reviewed and reconciled during the move towards 
the integration.
    At Naval Hospital Great Lakes, there are presently three personnel 
working in case management roles (two are registered nurses and one is 
a licensed clinical social worker). They anticipate that by October 
2008, they will have two more case managers on board. Case management 
at Naval Hospital Great Lakes is available not only to returning 
warriors, but also to their families. Naval Hospital Great Lakes 
indicated that there should be no challenges with program expansion if 
the anticipated positions are acquired as planned.
                      increasing demand for nurses
    Question. Can you speak to the increasing demand for nurses in your 
branch as a result of the ongoing war in Iraq?
    Answer. The Navy Nurse Corps Psychiatric mental health nursing 
community estimates it will need six additional Psychiatric Mental 
Health Nurse Practitioners to meet the expected demands of Marine Corps 
Operational Stress Control and Readiness (OSCAR) teams, but is allowing 
for up to 18 nurses in this specialty to facilitate rotations. This 
growth is being built into our future out service training program 
plan.
    We anticipate a requirement for at least 24 critical care nurses 
(with likely ``plus-up'' to 36 critical care nurses) based on 
modifications in USMC growth calculations. These assets will reside in 
the ICUs of our Military Treatment Facilities during non-deployed phase 
of rotation cycles. The Registered Nurse Incentive Specialty Pay 
program will help fortify the inventory of critical care nurses and 
perhaps actually draw some nurses from our communities of Medical/
Surgical or General Nursing to Critical Care. Our ER/Trauma inventory 
is presently manned at 109 percent, and this specialty group may also 
avail support to the growing critical care need.
                         mous with universities
    Question. In your written testimony, you discuss the Memorandums of 
Understanding that the Navy Nurse Corps has with neighboring 
universities. You talk about the role of nurses as clinical preceptors, 
guest lecturers, and the importance of naval medical centers serving as 
sites for clinical rotations. Can you discuss the benefits that the 
Navy Nurse Corps Officers receive from these MOUs?
    Answer. Teaching has long been a role associated with Navy Nursing. 
We teach our patients, hospital corpsmen, novice nurses in our Corps, 
and at times even young interns. Navy nurses serving as faculty, guest 
lecturers and preceptors for local nursing students via our MOUs reap 
countless, albeit non-tangible rewards. They have the opportunity to 
engage with civilian students and faculty, provide a wealth of clinical 
and operational experiences to nurses who perhaps have never been 
exposed to nursing in a wartime environment and serve as ambassadors of 
the United States Navy. Our young nurses are not too far removed from 
the days in which they too were going through clinical rotations, thus 
they are often readily ``identified with and looked up too'' by 
students.
    Likewise, our nurses are encouraged and mentored by the faculty 
from these schools of nursing we partner with. The faculty challenges 
them to pursue advanced education and research opportunities as they 
recognize the scope of their clinical experience in the military 
greatly supersedes that of their civilian colleagues.
                                  rotc
    Question. One of the major recruitment strategies for the Navy and 
other Military Nurse Corps is the Reserve Officers' Training Corps or 
ROTC. In recent years, how effective has this program been in 
recruiting as well as preparing nurses for a career in the Navy Nurse 
Corps? How well does this program, or other recruitment programs, 
recruit underrepresented populations to the Navy?
    Answer. Board review of eligible applicants for NROTC scholarships 
are held throughout the year. Each application is thoroughly reviewed 
and presented to the board members. In fiscal year 2008 Commander, Navy 
Recruiting Command (CNRC) was tasked with providing 220 applications 
for the NROTC Nurse Corps option and attained 250 applications. Of 
these, 126 were selected and offered a scholarship, equaling a 50 
percent selection rate. In fiscal year 2007 the application goal was 
220 and 264 applications were attained. Of these, 123 were selected and 
offered a scholarship, equaling a 46 percent selection rate. The show 
rate at the schools that year was 75 students (61 percent of those 
selected).
    The NROTC Program has been very effective in attracting applicants 
for the Nurse Corps. We have a production goal of 60 Nurse Corps 
officers yearly and with that in mind we select approximately 120-125 
applicants each year to meet this goal. Successful preparation for 
applicants is assured through a strong nursing program at affiliated 
schools. The programs prepare the Midshipman or Officer Candidate to be 
successful when taking the National Council Licensure Examination--
Registered Nurse (NCLEX-RN). Our pass rate is very high for our nursing 
graduates, until we achieve nearly all of our production goals.
    The NROTC Nurse Corps option does a good job in attracting 
underrepresented populations. The CNO benchmark for diversity is that 
36 percent of the Officer corps in 2037 should be diverse. Applicants 
for the Nurse Corps option for the 2007-2008 program year were 41 
percent diverse. As a comparison, applicants to the four-year NROTC 
program were 28 percent diverse in 2007-2008. The current board year 
(fiscal year 2008) data indicates that 50 percent of the diversity 
nursing applicants were selected for NROTC nursing scholarship offers. 
We have also placed two Candidate Guidance Officers at the Naval 
Service Training Command, Pensacola, Florida, for the express purpose 
of reviewing and assisting diversity applicants with successful 
application completion and selection for NROTC scholarships.
    The Nurse Corps option of the NROTC Program is sought after by 
applicants, selects and enrolls diverse students, and produces 
outstanding officers to the Navy's Nurse Corps.
                            nursing shortage
    Question. The United States is currently facing one of the most 
severe nursing shortages in its history. While nursing schools have 
been making a concerted effort to increase enrollments to meet current 
and projected demand, 40,285 qualified applicants were turned away in 
2007 according to the American Association of Colleges of Nursing. The 
top reason cited was a lack of qualified nurse faculty.
    The legislation I introduced earlier this year, The Troops to Nurse 
Teachers Act of 2008 (S. 2705), creates several avenues by which 
military nurses can become nurse educators. The subsequent increase in 
the number of nurse faculty would allow schools of nursing to expand 
enrollments and alleviate the ongoing nursing shortage in both the 
civilian and military sectors. Considering the military has a 
significantly higher percentage of Masters and Doctorally prepared 
nurses than in the civilian population--ideal for vacant faculty 
positions--how does the Navy view this program as part of a successful 
strategy to address the military nurse shortage?
    Answer. While retired military nurses as faculty could help assuage 
the nursing faculty shortage, the impact of military nurse recruiting 
is difficult to predict. One might hypothesize that by virtue of having 
a former military nurse as an instructor, the students would be more 
receptive to military careers.
    The most appealing provision of the Troops to Nurse Teachers 
program is the ``off ramp'' that would give nurse corps officers an 
opportunity to teach for two to three years. As a retention tool, it 
would accrue obligated service back into the Medical Department with 
the hope that they would continue a 20 year or longer career. It would 
essentially provide another way to retain nurses who might otherwise be 
disinclined to remain on active duty.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                            stress on nurses
    Question. Military nurses are more stressed than they have been in 
40 years, with multiple deployments, heavy loads of wounded soldiers, 
and time away from their own families and communities? What are you 
doing to monitor the stress on our nurses? What service are we 
providing them to help deal with that stress? How many additional 
nurses do you need to recruit to ensure we can meet our commitment to 
our wounded soldiers? What is your plan to meet the growing need? What 
are the major obstacles?
    Answer. At the National Naval Medical Center, our psychiatric 
mental health nurses and others individuals with mental health nursing 
experience make rounds of the nursing staff and pulse for indications 
of increased stress. They then provide to the identified staff, 
education on ``Care for the Caregiver.'' They are available to help 
with challenging patient care scenarios (increased patient acuity, 
intense patient/family grief, and staff grief) and offer themselves as 
attentive, non-judgmental listeners through whom the nurses may vent.
    In addition to the classes on ``Compassion Fatigue'' offered by 
command chaplains to our nurses and hospital corpsmen, some commands 
host provider support groups where health professionals meet and 
discuss particularly emotional or challenging patient cases in which 
they are or have been involved. Aboard the USNS Comfort, Psychiatric 
Mental Health Nurses and Technicians were located at the deckplate in 
the Medical Intensive Care Unit, Ward and Sick Call to help nurses that 
might not report to sick call with their complaints of stress.
    In many of the most stressful deployed locations, our senior nurses 
are acutely attuned to the psychological and physical well-being of the 
junior nurses in their charge. They ensure that staffing is sufficient 
to facilitate rotations through high stress environments. Nurses are 
encouraged to utilize available resources such as chaplains and 
psychologists for guidance and support in their deployed roles and 
responsibilities.
    Our deploying nurses have been asked to hold positions requiring 
new skill sets often in a joint or Tri-Service operational setting. As 
individual augmentees, they deploy without the familiarity of their 
Navy unit, which oftentimes may pose greater stress and create special 
challenges. Our nurses who fulfill these missions require special 
attention throughout the course and completion of these unique 
deployments. I have asked our nurses to reach out to their colleagues 
and pay special attention to their homecomings and re-entries to their 
parent commands and they have done exactly that.
    At U.S. Naval Hospital Okinawa, nurses ensure that deploying staff 
members and their families are sponsored and assisted as needed 
throughout the member's deployment. A grassroots organization, 
Operation Welcome Home, was founded by a Navy Nurse in March 2006 with 
the goal that all members returning from deployment in theater receive 
a ``Hero's Welcome Home''. To date over 5,000 Sailors, Soldiers, Airmen 
and Marines have been greeted at Baltimore Washington International 
Airport (BWI) by enthusiastic crowds who indeed care for them as 
caregivers.
    The Navy Nurse Corps Psychiatric mental health nursing community 
estimates it will need six additional Psychiatric Mental Health Nurse 
Practitioners to meet the expected demands of Marine Corps Operational 
Stress Control and Readiness (OSCAR) teams, but is allowing for up to 
18 nurses in this specialty to facilitate rotations. This growth is 
being built into our future out service training program plan.
    We also anticipate a requirement for at least 24 critical care 
nurses (with likely ``plus-up'' to 36 critical care nurses) based on 
modifications in USMC growth calculations. These assets will be 
maintained in the ICUs of our Military Treatment Facilities during non-
deployed phase of rotation cycles. Our ER/Trauma inventory is presently 
manned at 109 percent, and this specialty group may also avail support 
to the growing critical care need.
                                 ______
                                 
               Question Submitted by Senator Ted Stevens
               navy nurse corps support to army and usmc
    Question. I am told that the Navy has stepped in to take on 
additional missions to support the Army and Marine Corps in theater. 
What ways have the Navy Nurse Corps stepped up to support our deployed 
service members.
    Answer. Navy nurses continue to support joint missions at 
Expeditionary Medical Facilities (EMFs) in Kuwait and Djibouti, 
Landstuhl Regional Medical Center and with deployed units in 
Afghanistan and Iraq.
    At EMF Kuwait, our nurses provided care for 3,564 casualties 
(received and treated over six month period from July-December 2007). 
They additionally coordinated and supported immunizations for Japanese, 
British and Korean troops and a Kuwait-staged mass-casualty/interagency 
drill and Advanced Cardiac Life Support programs with the American 
Embassy in Kuwait. In addition to EMF Kuwait, Navy nurses serve on a 35 
member team at EMF Djibouti, providing medical services to more than 
1,800 personnel assigned to Combined Joint Task Force-Horn of Africa 
and care for an average of 315 patients any given week.
    At Landstuhl Regional Medical Center, 98 Navy Reserve Component 
nurses work alongside their colleagues from the Army and Air Force. 
During the past two years, Navy nurses from this contingent have also 
worked in the warrior management center and made great strides in the 
provision of optimal care to the wounded as they transit on flights 
from Landstuhl Regional Medical Center to military treatment facilities 
in the Continental United States.
    The preparation of our forward deployed nurses is accomplished with 
the support of the Navy Individual Augmentee Combat Training (NIACT). 
Prior to deploying, personnel are sent to NIACT at Fort Jackson, South 
Carolina, where the training consists of combat, survival, convoy, 
weapons handling and firing, and land navigation.
    The Navy Nurse Corps Psychiatric mental health nursing community 
requires six additional Psychiatric Mental Health Nurse Practitioners 
to meet the Operational Stress Control and Readiness team, but is 
allowing for up to 18 nurses in this specialty to facilitate rotations. 
This growth is being built into our future out service training program 
plan.
    We anticipate a requirement for at least 24 critical care nurses 
(with likely ``plus-up'' to 36 critical care nurses) based on 
modifications in USMC growth calculations. These assets will be 
maintained in the ICUs of our Military Treatment Facilities during non-
deployed phase of rotation cycles. The Registered Nurse Incentive 
Specialty Pay program will help fortify the inventory of critical care 
nurses and perhaps actually draw some nurses from our communities of 
Medical/Surgical or General Nursing to Critical Care. Our ER/Trauma 
inventory is presently manned at 109 percent, and this specialty group 
may also avail support to the growing critical care need.
    Navy nurses at U.S. Naval Hospital Okinawa ensure that deploying 
staff members and their families are sponsored and assisted as needed 
throughout the member's deployment. A grassroots organization, 
Operation Welcome Home, was founded by a Navy Nurse in March 2006 with 
the goal that all members returning from deployment in theater receive 
a ``Hero's Welcome Home''. To date over 5,000 Sailors, Soldiers, Airmen 
and Marines have been greeted at Baltimore Washington International 
Airport (BWI) by enthusiastic crowds who indeed care for them as 
caregivers.
                                 ______
                                 
          Questions Submitted to Vice Admiral Adam M. Robinson
            Questions Submitted by Senator Daniel K. Inouye
                          safe harbor program
    Question. Admiral Robinson, the Navy operates the Safe Harbor 
program to provide case management for injured sailors and marine. Are 
there lessons learned from the Army WTUs that should be incorporated in 
the Navy and vice versa for the Army?
    Answer. The Department of the Navy operates two programs, Navy Safe 
Harbor for wounded, injured and ill Sailors, and the Marine Corps 
Wounded Warrior Regiment to care for wounded, injured and ill Marines. 
The Bureau of Medicine & Surgery provides medical case management for 
all members of the Department of the Navy but relies on Safe Harbor and 
the Wounded Warrior Regiment to provide effective and timely non-
clinical case management for its members. These two tightly aligned 
programs also work very closely with the Army's Warrior Transition Unit 
(WTU)/Army Wounded Warrior (AW2) programs, as well as the Air Force 
Wounded Warrior program. Through numerous venues, the Services 
collaborate on new initiatives and institutionalizing best practices, 
including: Wounded, Injured and Ill Senior Oversight Committee Lines of 
Action Working Groups; Quarterly Wounded Warrior Program Commanders 
meetings; Working Group meetings on the fiscal year 2008 National 
Defense Authorization Act; and Joint/Interagency Federal Recovery 
Coordinator Training Sessions.
    While the focus of these forums are primarily non-medical case 
management issues there is an inextricable link between the medical and 
non-medical needs of a recovering service member and their family. 
Although the delivery mechanisms and organizations providing service 
and support are different among the services the commonality across the 
DOD enterprise is to ensure the most consistent level of high quality 
of care and assistance to those recovering.
                        recruiting and retention
    Question. Admiral Robinson, what are your top constraints to 
recruiting and retaining the appropriate levels and quality of military 
medical personnel? Is legislative or financial relief being sought to 
address these concerns?
    Answer. The top constraint to Medical Recruiting is, generally, 
medical professionals do not consider military service as a first 
option for employment. Civilian salaries are more lucrative than 
military pay and continue to outpace the offer of financial incentives 
(bonuses and loan repayment) to our target market. We are also limited 
by the size of the pool of Medical and Dental School graduates. Over 
the last ten years the percentage of females in Medical school has 
increased. Females tend to have a lower propensity to join the 
military. Other challenges include concerns over excessive deployments 
and mobilizations, both of which impact on Navy's ability to meet 
Reserve Medical Officer Recruiting goals. Some Medical Professionals 
fear the potential loss of their private practices.
    Navy Recruiting continually evaluates areas where we need help 
meeting recruiting requirements for health professionals, and as we 
identify new tools and incentives, we would request new legislative 
and/or financial relief.
    All services work with Assistant of Secretary of Defense (Health 
Affairs) to develop compensation levels for all Health Service 
professionals in the military.
    The medical communities work within the Navy's budgetary process to 
address financial issues related to compensation.
    Navy has implemented significant increases in retention bonuses 
across all Medical and Dental specialties in recent years.
    The top constraint for retention for medical department officers is 
pay disparity between military compensation and civilian compensation. 
Military compensation, especially for the certain specialties, lags 
their civilian counterparts.
    Recently enacted legislation in NDAA fiscal year 2008 consolidating 
the special and incentive pays of the health care field will provide 
the Navy flexibility for special and incentive pays.
    The Medical and Dental Corps was approved for a Critical Skills 
Retention Bonus (CSRB) in February 2007, and received an increase to 
their special pays in October 2007.
    The Medical Service Corps enacted CSRB in September 2007 for 
clinical psychologists at the first retention decision point.
    Several Nurse Corps undermanned specialties were recently granted 
an incentive special pay to boost retention. This is the first time the 
Nurse Corps received a special pay to increase retention in undermanned 
specialties.
    For non-monetary issues, the Navy has a Task Force looking at 
qualitative retention initiatives (i.e., sabbatical, telecommuting and 
increasing child care availability).
                            specialist pool
    Question. Admiral Robinson, all three Services are having 
difficulty recruiting and retaining in medical fields such as 
psychology and psychiatry because you are competing for the same 
individuals in many instances and because there is a national shortage 
in these specialties. Is there anything that the military can do to 
increase these pools of specialists?
    Answer. To improve recruiting success, the Navy can either improve 
our penetration into the existing pool of specialists or try to 
increase the pool. We can improve our penetration by offering accession 
bonuses to attract existing mental health providers, and we can 
increase the pool of specialists by offering scholarships, internships, 
fellowships or collegiate programs as an incentive for new students to 
enter these fields with a military commitment. Furthermore, section 604 
of the 2009 National Defense Authorization Request contains a provision 
for an accession bonus for fully trained clinical psychologists.
    The Navy has developed the following initiatives to increase the 
number of mental health specialists.
  --The Navy has recently developed a Post-doctoral Clinical Psychology 
        One Year Fellowship program to reduce the inventory deficit by 
        tapping the demand for post-doctoral training in the civilian 
        community. This program provides the opportunity to obtain 
        supervised training hours, and become licensed within their 
        first year of active duty. The Navy has also increased the 
        number of clinical psychology internship seats for 2009, and is 
        in the process of further expanding the clinical psychology 
        internship program at Naval Medical Center, Portsmouth VA.
  --The Navy recently implemented a Critical Skills Retention Bonus for 
        Clinical Psychologists. The incentive is $60,000 ($15,000/year) 
        for 4-year contract at MSR. Clinical Psychology Officers with 
        3-8 years of commissioned service are eligible.
  --The Navy has recently established a Critical Wartime Skills 
        Accession Bonus for accessing fully trained Psychiatrists, and 
        has increased the number of psychiatry residency seats for 
        training new Psychiatrists.
  --In order to retain Psychiatrists on active duty the Navy increased 
        the 4 year Psychiatry Multi-Year Special Pay (MSP) from 
        $17,000/year in fiscal year 2006 to $25,000/year in fiscal year 
        2007 and increased it again to $33,000 in fiscal year 2008. 
        There is discussion at DOD Health Affairs to increase this 
        retention bonus again in fiscal year 2009.
  --The Navy has also initiated a Nurse Corps graduate program at the 
        Uniformed Services University of the Health Sciences (USUHS) to 
        educate psychiatric/mental health nurse practitioners to 
        support mental health requirements.
                                  hpsp
    Question. Admiral Robinson, I have been made aware that the Navy 
has had difficulty utilizing the HPSP as a recruiting vehicle. If this 
program doesn't work for the Navy, what will?
    Answer. In fiscal year 2008, Navy funded a $20,000 accession bonus 
for Health Professions Scholarship Program (HPSP) participants in 
addition to the scholarship and stipend. Additionally, DOD increased 
the HPSP monthly stipend amount significantly from $1,349 to $1,605. 
The stipend will increase again effective July 1, 2008 to $1,907. 
Together, with a renewed focus on medical recruiting, these monetary 
incentives have positively impacted interest in the HPSP program. To 
date, in fiscal year 2008, we recruited 38 percent of our annual goal 
compared to 27 percent at this point last year. Also, an increase of 
tuition for Dental School has helped in recruiting of HPSP. 
Additionally, in fiscal year 2008 and fiscal year 2009 we are offering 
the Health Services Collegiate Program (HSCP) for the Medical Corps for 
the first time. We will evaluate the impact of this new program and 
determine if we should continue it in fiscal year 2010 and beyond.
    We will continue to evaluate areas where we can improve this 
program or identify other programs to meet our recruiting requirements 
for health professionals.
                    military to civilian conversions
    Question. Admiral Robinson, Navy medicine has been hardest hit by 
the military to civilian conversions. I understand that the 
Department's guidance is still under review and the Navy had planned 
additional conversions in fiscal year 2009. What are your anticipated 
personnel and financial shortfalls in fiscal year 2009?
    Answer. Navy Medicine is not planning to convert additional billets 
in fiscal year 2009, as per section 721 of the fiscal year 2008 
National Defense Authorization Act which prohibits the conversion of 
military medical and dental positions to civilian positions. Under this 
section there are 4,216 military medical positions that will be 
restored during the period 2010 to 2015. The Navy's projected fiscal 
year 2009 Mil-Civ plan, which is dependant on our access to military 
personnel funds, calls for 282 restorations (200 enlisted, 42 
physicians and 40 nurses) at a cost of approximately $26.75 million. 
The Navy's recruiting accession plans have been modified to accommodate 
these increases.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                      integrated health care teams
    Question. The Dole/Shalala Report recommends DOD and VA develop 
integrated care teams with physicians, nurses, health professionals, 
social workers, and vocational rehabilitation professionals. What is 
the Navy doing to implement this recommendation? Are we asking our 
medical personnel to do the job of social workers? To the extent that 
medical personnel are assigned in case manager or social worker, what 
training do they receive to do this?
    Answer. Per Navy Medicine's policy, the multi-disciplinary teams 
meet each week for inpatients and every other week for outpatients to 
discuss the care and coordination services for all severely injured or 
ill service members. The multi-disciplinary team consists of 
physicians, nurses, discharge planners/social workers, clinical and 
non-clinical case managers, therapists, chaplains, VA representatives 
to include Federal Recovery Coordinators, medical board and wounded 
warrior program personnel.
    The role of the social worker may overlap with other members of the 
health care team, for the identification of needs and referrals to 
appropriate resources; this process is multidisciplinary. Clinical case 
managers may be either nurses or social workers. Each individual must 
have 2-3 years of experience in the related field. Certification in 
case management is expected within 3 years of hire. Each individual 
receives orientation and training on case management at that facility 
before engaging with a patient. Training opportunities via 
teleconferencing are also provided on a biweekly basis. Non-clinical 
case managers are involved in the planning, formulation, 
administration, evaluation, consultation and coordination of actions 
and services dealing with the continued care and support of wounded, 
ill and injured Sailors and their families. They are trained and have 
significant experience in assisting injured Sailors and family members 
in understanding and dealing with current life events through 
information and referral, as well as, guiding them through the maze of 
bureaucracy during a time of stress and transition.
                      families of wounded warriors
    Question. The Dole/Shalala report recommended enhancing care for 
the families of wounded soldiers throughout the soldier's recovery 
process. It noted that family members are vital parts of the patient's 
recovery team. What has the Navy done to enhance care for family 
members of wounded service members in its care? Who on a service 
member's care team is primarily responsible for helping families? What 
training have they received? What has DOD done to leverage the help the 
private sector can provide?
    Answer. Navy military treatment facilities (MTF) use social 
workers, health benefit advisors (HBA) and administrative support 
personnel to provide assistance and answer questions to all 
beneficiaries, particularly families, about healthcare benefits and 
medical support services available as a TRICARE benefit or in the 
civilian sector. Multidisciplinary teams consisting of medical 
providers, nurses, clinical case managers, non-clinical case managers 
from the Navy's Safe Harbor Program and the USMC's Wounded Warrior 
Regiment, ancillary service personnel, pastoral care personnel, social 
workers and patient administration officers assist family members of 
wounded, ill and injured service members in understanding treatment 
regimens, administering after-care requirements and providing 
appropriate/timely disability evaluation counseling throughout the 
continuum of care. Management and coordination of the service member's 
care is a ``team'' effort which includes the treating provider, MTF 
support personnel (i.e. social workers, patient administration) and the 
family. Clinical and non-clinical case managers and social workers are 
responsible for helping families. DOD and Navy Medicine is committed to 
providing resources and programs for families of all wounded, ill and 
injured services members. There are a number of family support programs 
that are successfully contributing to the well-being of the family.
    Navy's Fleet and Family Centers provides comprehensive, 24/7 
information and referral services to family members through the 
Military One Source links and center support programs.
    Navy Safe Harbor Program provides proactive non-clinical case 
management to Sailors and their families in dealing with personal 
challenges from the time of injury through transition from the Navy and 
beyond. The Navy's commitment is to provide wounded, ill, and injured 
Sailors personalized non-medical support and assistance and guide them 
through the existing support structure. This is accomplished through 
addressing the non-medical needs and reinforcing the message that they, 
our heroes, deserve the very best attention and care of a grateful 
nation.
    The Ombudsman Program promotes healthy and self-reliant families. 
The Ombudsman serves as a critical information link between command 
leadership and Navy families. They are trained to disseminate 
information both up and down the chain of command, including official 
Department of the Navy and command information, command climate issues 
and local quality of life (QOL) improvement opportunities. The 
Ombudsman provides the family a command level advocate to ensure the 
family understands and is engaged in determining best course of medical 
care and recovery for the service member.
    The Navy Morale, Welfare and Recreation (MWR) administers a varied 
program of recreation, social and community support activities on U.S. 
Navy facilities worldwide. Their mission is to provide quality support 
and recreational services that contribute to retention, readiness and 
mental, physical and emotional well-being of Sailors and their family 
members. Many of these programs provide recreational relief for family 
member responsible for the long-term rehabilitation and recovery of 
wounded, ill and injured service members.
    Naval Service Family Line is a volunteer, non-profit organization 
dedicated to improving the quality of life for every Sea Service 
family. This is achieved by answering questions form spouses about the 
military lifestyle, referring spouses to organizations which may be 
able to assist them, publishing and distributing free booklets and 
brochures which contain very helpful information, and developing 
successful educational programs for the Sea Service spouse.
    Marine Corps Community Services (MCCS) exists to serve Marines and 
their families wherever they are stationed. MCCS programs and services 
provide for basic life needs, such as food and clothing, social and 
recreational needs and even prevention and intervention programs to 
combat societal ills that inhibit positive development and growth.
    Wounded Warrior Regiment currently has Patient Affairs Teams (PATs) 
located at strategic Medical Treatment Facilities to assist and support 
families of wounded, injured, and ill Marines and Sailors with any 
requirements they may have. These teams are located at the following 
sites: Landstuhl Regional Medical Center, Germany; National Naval 
Medical Center, Bethesda, MD; Walter Reed Army Medical Center, 
Washington, DC; Portsmouth Naval Hospital, Portsmouth, VA; Richmond VA 
Polytrauma Center, Richmond, VA; Tampa VA Polytrauma Center, Tampa, FL; 
Minneapolis VA Polytrauma Center, Minneapolis, MN; Camp Lejeune Naval 
Hospital, Camp Lejeune, NC; Brooke Army Medical Center, San Antonio, 
TX; Balboa Naval Hospital, San Diego, CA; Camp Pendleton Naval 
Hospital, Camp Pendleton, CA; Naval Hospital Twenty-nine Palms, Twenty-
nine Palms, CA; Tripler Army Medical Center, Honolulu, HI; and Palo 
Alto VA Polytrauma Center, Palo Alto, CA.
    These PATs assist family members with numerous administrative and 
logistic issues such as: lodging, travel arrangements, in-and-around 
travel, Invitational Travel Orders, Bed-side Orders, charitable 
organizations support, travel advances, travel claims, service 
intermediaries with hospitals, benefits assistance, Department of 
Veterans Affairs liaison, Social Security Administration Claims 
processing, and any other requirements they may have.
    Military One Source provides both a web site and toll-free number 
for service members and their families to locate information and 
resources dealing with deployment planning, family support resources 
and referral to private sector agencies supporting the military family.
                      comprehensive recovery plan
    Question. Dole/Shalala recommends that every wounded soldier or 
Marine receive a comprehensive recovery plan to coordinate recovery of 
the whole soldier, including all Medical care and Rehabilitation, 
Education and Employment Training, and Disability Benefits Managed by a 
single highly-skilled recovery coordinator so no one gets ``lost in the 
system.''
    Do all patients get a comprehensive recovery plan?
    Answer. The Senior Oversight Committee, Co-Chaired by Deputy 
Secretary of Defense (DEPSECDEF) and Deputy Secretary of the Veterans 
Administration (DEPSECVA), Line of Action (LOA) #3 (Case Management), 
is currently working to address Recovery Care Coordinator functions, 
responsibilities, workload, and resources. DON Representatives from 
Navy Safe Harbor, Marine Corps Wounded Warrior Regiment and Navy 
Medicine are actively engaged in this LOA 3 effort. LOA #3 is 
identifying Recovering Service Members based on a tiered approach by 
acuity of wound, illness, or injury and psychosocial needs that would 
benefit from a comprehensive recovery plan.
    Question. What steps have you taken to train and hire skilled 
recovery coordinators?
    Answer. LOA #3 is working towards a unified training solution with 
standardized curriculum modules for all services, allowing for some 
service unique required training.
    Question. Do service members in the Navy's care have the single 
coordinator to provide continuity?
    Answer. The identification of a recovery care coordinator who will 
oversee the completion of a comprehensive recovery plan as recommended 
by Dole/Shalala, will be a further enhancement to the Navy's already 
robust care management program. The Navy's comprehensive casualty care 
program provides support and assistance to all wounded, ill and injured 
Sailors and their family members throughout their phases of recovery to 
reintegration or to transition from the service.
    Question. What training do recovery coordinators receive?
    Answer. Standardized training is currently under development.
    Question. Are they trained as soldiers, or as case managers?
    Answer. Training will focus on non-medical case/care management 
with modules on how to access medical support if presented with 
clinical issues.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
                         support to usmc growth
    Question. The Marines are growing an additional 27,000 personnel in 
end strength, while the Navy has planned a reduction in forces. What 
steps are you taking to try and meet the need of a larger Marine Corps 
ground force for deployments while maintaining the right size force in 
the Navy?
    Answer. President's Budget 2008 included a top line funding and 922 
end strength increase for Navy in support of the USMC's growth of 
27,000 personnel. The Navy increase includes approximately 800 discrete 
billets, with the remainder comprised of student training billets. Out 
of the 800 specific billets, the majority are Hospital Corpsmen and 
medical officers. The billet requirements were provided by USMC Total 
Force Structure Division, Deputy Commandant for Combat Development and 
Integration.
    In addition to the manpower funding, Navy was also allocated a 
funding increase for general skills and flight training.
    Sailors and Naval Officers are being assigned to the new billets in 
a phased manner in parallel with the ramp up of the USMC growth. The 
assignment of the first several hundred personnel is underway, and Navy 
foresees no obstacles in filling the remaining billets.
                        wrnmmc bethesda deadline
    Question. The Navy has announced an award for the design-build of 
the new Walter Reed National Military Medical Center at Bethesda. Do 
you believe this project is still on track to be completed by the BRAC 
deadline of 2011?
    Answer. Barring any unforeseen site conditions or major design 
changes, the Navy believes that the schedule for this project is on 
track to meet the BRAC 2005 deadline of September 2011.
                       wrnmmc deadline challenges
    Question. What challenges still need to be addressed in completing 
the build out of this facility by the BRAC deadline?
    Answer. Challenges can arise from several areas including the 
timely receipt of funding, completion of traffic flow improvements, 
equipment installation, unforeseen conditions found during building 
renovation work and unknowns encountered in the field such as lead, 
mercury, and asbestos. The coordination of several contractors 
concurrently working on site and the movement of staff from Walter Reed 
to Bethesda will also be challenging. All these challenges must be 
successfully managed in order to meet the deadline of September 2011.
                           wrnmmc realignment
    Question. Are there Service specific concerns or issues with 
regards to this realignment that you are working through with your Army 
counterpart? What are they?
    Answer. There are issues of governance and operational efficiencies 
that are presently being worked by Navy and Army for the new Walter 
Reed National Military Medical Center. I am diligently working with the 
Commander, Joint Task Force National Capital Region Medical and the 
Surgeon General of the Army to ensure that the planning, construction 
and future governance of the state of the art military medical center 
in the National Capital Region fully complies with the BRAC 
requirements, best serves our warriors and military beneficiaries and 
is an icon for world class medical care when completed in 2011.
               military to civilian conversion standstill
    Question. I understand that all medical military to civilian 
conversions are at a standstill as directed by the fiscal year 2008 
Defense Authorization Act that was signed into law this past January. 
Can you tell us how this will impact care in the Medical Treatment 
Facilities? Do you have a plan in place to fill the slots that were 
originally supposed to be converted?
    Answer. There will be some shortfalls in staffing for the next 
several years. However, the reversal of the military to civilian 
conversions is not the sole reason for the shortfalls. Certain health 
professional specialties are very difficult to access and retain for 
both military and civilian positions.
    Depending on our access to military personnel funds, the Navy is 
planning to restore 282 military billets in fiscal year 2009, with the 
remaining military positions being bought back between fiscal year 2010 
and fiscal year 2015. The plan is to use contract personnel and term 
government service employees to alleviate this gaps caused by the time 
lag until the military endstrength can be completely restored and 
filled.
    military to civilian conversion--benefits of military personnel
    Question. What are the benefits to having military personnel in 
these medical professions?
    Answer. More medical professionals in uniform increases Navy 
medicine's ability to surge when necessary during extended conflicts. 
The increased uniform medical personnel reduces the stress on the force 
during high-tempo periods of operations thus causing a trickle down 
effect increasing retention and allowing a healthy operational rotation 
of medical professionals.
                military to civilian reversal challenges
    Question. Despite funding challenges, what other challenges do you 
foresee in the coming year with regards to a reversal of Military to 
Civilian conversions?
    Answer. The recruiting and retention of medical professionals will 
be increasingly difficult for the foreseeable future. There is a 
growing national shortage of medical professionals in the United States 
and there will be an increased competition to recruit health care 
professionals in both the military and civilian sector. The military's 
best strategy to recruit and retain medical specialists is to grow our 
own specialists through strong graduate and resident education programs 
coupled with competitive incentive packages after training obligations 
have expired.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond
                     behavioral health care assets
    Question. Army and Navy Surgeon General Question. What are you 
doing to alleviate the shortage?
    Answer. Currently the Services have numerous incentives to attract 
and retain behavioral health specialists. Some have been recently 
enacted from the fiscal years 2007 and 2008 NDAA and we are monitoring 
the effects on recruiting and retention.
Psychiatry (Medical Corps)
    Eligible for the following entitlements: Variable Special Pay, 
Additional Special Pay, and Board Certified Pay.
    Eligible for the following discretionary special pays: Incentive 
Special Pay (ISP) $15,000/year and Multiyear Special Pay (MSP) 2 year--
$17,000/year, 3 year--$25,000/year, and 4 year--$33,000/year. The 4 
year MSP for Psychiatrist has increased from $17,000/year in fiscal 
year 2006 to $25,000/year in fiscal year 2007 to $33,000 in fiscal year 
2008. The Health Professional Incentive Work Groups (HPIWG), a tri-
service work group run by DOD Health Affairs, is contemplating another 
increase in fiscal year 2009.
    The NDAA 2008 allows up to $400,000 Critical Wartime Skills 
Accession Bonus (CWSAB) for board certified direct accessions. DOD/HA 
has authorized $175,000 accession bonus for psychiatrists who accept a 
4 year commitment. The HPIWG will be increasing the CWASB amounts in 
fiscal year 2009.
    Psychiatrists are eligible for the Health Profession Loan Repayment 
Program (HPLRP) if they meet eligibility requirements. HPLRP can be 
used as an accession incentive and as a retention incentive. This 
program provides up to $38,300 per year to repay qualified school 
loans. HPLRP obligation runs consecutively with other obligations.
Clinical Psychologists (Medical Service Corps)
    The Navy recently implemented a Critical Skills Retention Bonus for 
Clinical Psychologists. The incentive pays $60,000 ($15,000/year) for 
4-year contract at MSR. Clinical Psychology Officers with 3-8 years of 
commissioned service are eligible.
    Psychologists are eligible for the Health Profession Loan Repayment 
Program (HPLRP) if they meet eligibility requirements. HPLRP can be 
used as an accession incentive and as a retention incentive. This 
program provides up to $38,300 per year to repay qualified school 
loans. HPLRP obligation runs consecutively with other obligations.
    Clinical Psychologists are eligible for Board Certified Pay.
    The HPIWG is currently working on implementing an accession bonus 
and retention bonus for Clinical Psychologists in fiscal year 2009 
using the new consolidated medical special pay authority in NDAA 2008.
Social Workers
    Social Workers are also eligible for Health Professionals Loan 
Repayment Program (HPLRP) as an accession and retention tool.
    Social Workers are eligible for Board Certified Pay.
    The HPIWG is currently working on implementing an accession bonus 
and retention bonus for Social Workers in fiscal year 2009 using the 
new consolidated medical special pay authority in NDAA 2008.
Mental Health Nurse Practitioners
    Nurse Corps recently recognized Registered Nurse Mental Health 
Nurse Practitioners with subspecialty code.
    Once approved by Assistant Secretary of Health Affairs Mental 
Health Nurse Practitioners will be eligible for board certified pay.
    Mental Health Nurse Practitioners are eligible for the Health 
Profession Loan Repayment Program (HPLRP) if they meet eligibility 
requirements. HPLRP can be used as an accession incentive and as a 
retention incentive. This program provides up to $38,300 per year to 
repay qualified school loans. HPLRP obligation runs consecutively with 
other obligations.
    Fully qualified Mental Health Nurse Practitioner entering the Navy 
would qualify for the Nurse Accession Bonus (NAB), $20,000 for a 3 year 
commitment or $30,000 for a 4 year commitment. This bonus can be 
combined with the HPLRP as a 3 year NAB accession incentive requiring a 
5 year commitment.
    Starting in fiscal year 09 Mental Health Nurse Practitioners will 
be eligible for the Registered Nurse Incentive special Pay. This is a 
multi-year special pay up to $20,000 per year for a 4 year contract.
                              vet centers
    Question. Thank you. To follow up, I'd ask Army leaders to consider 
a proposal to allow active duty forces to access the behavioral health 
care resources available at the nation's Vet Centers. These facilities 
provide care for PTSD and are manned by veterans and specialists 
familiar with the needs of veterans and our active duty forces. It 
seems a tremendous waste in resources to limit eligibility to our Vet 
Centers to veterans only if there are soldiers who require care but 
have limited or no assets available to them.
    Would you support legislation that allowed active duty forces 
access to behavioral health resources at the nation's Vet Centers?
    Answer. Yes, Navy Medicine would support legislation for this; 
however, we already have authority to share resources and have some 
agreements in place where mental health services are exchanged, 
primarily the VA providing the mental health services to DOD. Our main 
concern would be whether the VA has the capacity to provide mental 
health services to active duty service members.
    military eye trauma center of excellence and eye trauma registry
    Question. Switching gears, I'd like to talk about the Centers of 
Excellence recently developed by the Department of Defense. Congress, 
in the Wounded Warrior section of the NDAA enacted January 2008, 
included three military centers of excellence, for TBI, PTSD, and Eye 
Trauma Center of Excellence. The two Defense Centers of Excellence for 
TBI and Mental Health PTSD are funded, have a new director and are 
being staffed with 127 positions, and are going to be placed at 
Bethesda with ground breaking in June for new Intrepid building for the 
two centers. I'm sure you are aware that there have been approximately 
1,400 combat eye wounded evacuated from OIF and OEF.
    Does DOD Health Services Command have current funding support and 
adequate staffing planned for the new Military Eye Trauma Center of 
Excellence and Eye Trauma Registry? If not, when can the committee 
expect to be provided specific details on implementation?
    Answer. The Office of the Secretary of Defense (Health Affairs) is 
coordinating the implementation of the Military Eye Trauma Center of 
Excellence.
                   military health system governance
    Question. There has been a lot of discussion in recent years about 
making military medicine more joint. Do you believe changes in the 
governance of the Military Health System are needed to make military 
medicine more effective and efficient?
    Answer. Navy Medicine supports a governance structure where the 
three Surgeon's Generals participate collaboratively. The current 
governance structure allows for services to address issues in a 
``joint-like'' environment thereby ensuring effective and efficient use 
of resources. The structure also recognizes unique service 
requirements, such as health services training to support the future 
agility of the Marine Corps, where there may be no overlapping service 
capability. There is no need to change the governance structure at this 
time, however, Navy Medicine will continue to foster participation in 
Joint requirements and acquisition projects to ensure interoperability 
between services.

                          SUBCOMMITTEE RECESS

    Senator Inouye. And with that, I thank you very much for 
your testimony, and the subcommittee will stand in recess until 
April 23, and at that time, we'll receive testimony on the 
Missile Defense Agency.
    Thank you very much.
    [Whereupon, at 11:48 a.m., Wednesday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]











       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 23, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:33 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Stevens, Cochran, Domenici, and 
Shelby.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL HENRY A. OBERING III, 
            UNITED STATES AIR FORCE, DIRECTOR

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. On behalf of the subcommittee, I'm very 
pleased to welcome Lieutenant General Obering, Director of the 
Missile Defense Agency, and Lieutenant General Campbell, who 
wears three hats, Commanding General of the U.S. Army Space and 
Missile Defense Command, the U.S. Army Forces Strategic 
Command, and the Joint Functional Component Command for 
Integrated Missile Defense.
    These distinguished gentlemen are here before the 
subcommittee to discuss the fiscal year 2009 budget request for 
missile defense.
    General Obering, I've been informed that this will very 
likely be your last time to testify before this subcommittee as 
Director of the Missile Defense Agency, and I wish to thank you 
for your tireless service and dedication to the mission and 
congratulations on the many accomplishments achieved during 
your tenure as head of the agency.
    This has been a good year for missile defense. After 25 
years and over $100 billion spent, the United States finally 
has a system in place that could be operational, if necessary.
    Now that systems like the terminal high altitude area 
defense (THAAD) the aegis sea-based missile defense, and the 
ground-based system (GMD) are showing promise, it is time to 
get these missile defense capabilities fielded and operational. 
It's time to move from research and development to fielding 
systems that are fully tested and capable.
    We have the pillars in place to do this with GMD, aegis and 
THAAD. These programs require our full attention. They'll start 
as the basis of our missile defense capability for decades to 
come.
    There are many issues that I hope you'll address today 
regarding the $9.3 billion budget request before the 
subcommittee, including the status of negotiations for the 
European Third Site, shortfalls in the target inventory, and 
progress in overcoming countermeasures.
    And I wish to thank you both for appearing before the 
subcommittee and I look forward to hearing your remarks.
    May I now call upon the vice chairman of the subcommittee?

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman. I join 
you in welcoming our witnesses this morning and look forward to 
their testimony.
    This gives us an opportunity to really catch up and be up 
to date with regard to the missile defense policies and changes 
in the program. The threat continues to increase and I think 
that providing combatant commanders with the defensive weapons 
they need to deter an attack against our homeland deployed 
forces is absolutely essential to our national security.
    Our subcommittee has consistently supported missile defense 
programs with an emphasis on development, testing, fielding and 
improvement of effective near-term missile capability, and 
missile defense capabilities. I believe the subcommittee will 
continue to support these near-term capabilities as well as 
enhancing our Nation's ability to defeat the future missile 
threats. So we look forward to your testimony and I understand 
there may be a small video.
    Thank you.
    Senator Inouye. Thank you very much. Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you. I'm pleased to 
join you and Senator Stevens in welcoming General Obering and 
General Campbell to this hearing.
    We're all well aware of the fact that ballistic missiles 
pose an increasing threat to our Nation, to our military forces 
and to our interests throughout the world. It is a disturbing 
reality that North Korea and Iran continue to pursue mobile 
solid fuel missiles capable of being launched on short notice 
and capable of carrying warheads with the potential for mass 
destruction. North Korea continues its efforts to export 
missiles and missile technology.
    In the face of these realities, it is imperative that we 
provide the Department of Defense and the Missile Defense 
Agency in particular the resources necessary for the defense of 
our country and our interests against these threats.
    We deeply appreciate General Obering's and General 
Campbell's leadership in this effort and we welcome you to the 
hearing.
    Senator Inouye. Senator Shelby.
    Senator Shelby. Mr. Chairman, I'd just like to echo what 
you've been saying here.
    Welcome, General Obering, General Campbell, and tell them I 
believe you're on the right track. You're working hard and 
you've got a lot to share today and I look forward to hearing 
it.
    Senator Cochran. Thank you, sir.
    Senator Inouye. Senator Domenici.
    Senator Domenici. Mr. Chairman, I have no comments.
    Senator Inouye. Thank you, sir. And now it's my pleasure to 
introduce General Obering.
    General Obering. Thank you very much, sir.
    Good morning, Mr. Chairman, Senator Stevens, distinguished 
members of the subcommittee.
    I want to thank this subcommittee personally for the 
tremendous support that we have indeed received from you over 
the years. As the Director of the Missile Defense Agency, it is 
my role to develop, test, and initially field an integrated 
layered ballistic missile defense system.
    For 2009, we are requesting $9.3 billion for this mission. 
I want to point out that approximately 75 percent is for near-
term capabilities with the remainder budgeted for longer-term 
elements that we think are prudent to address an uncertain 
future.
    To lay the foundation for our budget request, I would like 
to point out why missile defense is so critically needed. There 
were approximately 120 foreign missile launches last year 
around the world. Two countries in particular, North Korea and 
Iran, continue to be very troubling with their pace of missile 
development, testing and proliferation.
    Iran's pursuit of missiles with ranges exceeding what they 
would need in a regional conflict, coupled with their 
continuing uranium enrichment, emphasizes why it's so important 
that we field and integrate long-range defenses with shorter-
range North Atlantic Treaty Organization (NATO) capabilities in 
the European Theater.
    Our request for 2009 builds on our record of continuing 
success. I am happy to report that 2007 was the best year ever 
in missile defense and it reflects the hard work of thousands 
of men and women around the country. We have now fielded two 
dozen interceptors between Alaska and California to address the 
long-range threat. We've modified 17 aegis ships for the long-
range tracking mission, 12 of which are also capable of 
launching the 25 standard missile (SM-3) sea-based interceptors 
to address short-range threats that we've deployed.
    We've expanded our center network and deployed additional 
command and control capabilities to the combatant commanders, 
and with NATO's recent recognition of the emerging missile 
threat, its endorsement of our long-range defense proposals and 
its tasking to propose options for shorter-range protection, we 
will be able to defend our deployed forces and allies in that 
important theater in the future with your support.
    Our success is also reflected in our increasingly complex 
and realistic test program. With the 10 of 10 successful 
intercepts in 2007, we have now achieved 34 of 42 successful 
hit-to-kill intercepts since 2001. We have not had a major 
system failure in our flight test program now in over 3 years.
    Two relatively recent milestones are also worth 
highlighting. One was the success of our allied partner Japan 
in their first intercept flight test off the coast of Hawaii in 
December of which we and the Japanese are extremely proud; and 
two, we were able to modify our sea-based element to shoot down 
the errant satellite in February with just 6 weeks' notice. 
While this was not a test of our missile defense system, it 
does powerfully demonstrate why we need tools for an uncertain 
future.
    Now, sir, with your permission, I would like to show you 
video of our test and our satellite intercept, if that's okay. 
What you're going to see, first of all, is the test, the 
terminal high altitude air defense test (THAAD), that we 
conducted off the coast of California--I mean, off Hawaii. Go 
ahead.
    This occurred in April 2007 and what you're going to see is 
the target missile here is launched from a ship off the coast, 
about 250 miles off the coast of Hawaii. This was done very 
easily, in terms of being able to do this off a ship and that's 
something I'd be happy to address in questioning, and then we 
launched the interceptor from the island of Kauai and, Senator 
Inouye, I know you're very familiar with that.
    This is our land-based mobile that can operate just inside 
and just outside the atmosphere. Here's a close up of the 
interceptor as it egresses the canister. Now this interceptor 
consists of a kill vehicle and a single booster and you'll see 
the fly-out of the interceptor here, a couple of different 
angles, and then you'll also see the separation between the 
booster and the kill vehicle in this next frame.
    Now I want you to see how energetic this is. There's the 
separation and the debris. There goes the kill vehicle on its 
way. If you look very closely, you'll see two pieces come off 
the kill vehicle which are the shroud that protects its sensor 
and then next you'll see the kill vehicle rockets that are 
adjusting as the target comes into the picture from the left.
    Now this intercept occurred just on the edges of space and 
we totally destroyed that unitary target.
    Now if you go back, the next one I want to show you is our 
long-range test that we conducted last September. In this 
situation, we're trying to replicate a long-range shot from 
North Korea into the United States and an intercept from 
Alaska.
    So to replicate that, we launch a target from Alaska, from 
Kodiak Island, that I know Senator Stevens is very familiar 
with, and then we launch the interceptor from California. That 
gives us the replication of the operational conditions that 
we're looking for.
    This is a camera that's mounted on the aft of the target as 
we launch. It's part of our data collection opportunities. Now 
in this case, we had an operationally realistic target. We had 
an operational radar that gave us the initial weapons control, 
fire control plan. We used soldiers at the console that were 
not connected to the test net and we used an operationally 
configured interceptor that we flew out of California.
    In the next shot, you're going to see the location of the 
interceptor on the west coast. This is identical to the 
configuration that we have deployed in Alaska as well as in 
Vandenburg. You'll notice in the close up, there's the clam 
shell doors of the silo opening and the egress of the 
interceptor.
    Now this is a three-stage interceptor. It is the largest 
that we have in our inventory and it is the only interceptor 
capable of engaging the long-range missiles because of the 
speed involved.
    We propose a two-stage version of this in which we just 
remove the third stage for the Poland and the European 
environment.
    Here's the staging of the first stage and the altitude of 
this intercept will be hundreds of kilometers in space and, of 
course, that is also important when you're trying to minimize 
any effects on the ground.
    The first thing you're going to see is the infrared of the 
intercept in both real and slow motion and then, very 
interestingly, you're going to see exactly what the kill 
vehicle sees and I'll walk you through that and that is, you're 
going to see three boxes come up and those are sensors on the 
kill vehicle and it's going through and if you remember that 
debris from the interceptor separation, we get that also with 
the target.
    So little boxes will come up and start tracking those 
objects. They could be debris. They could be a third stage, et 
cetera. It's going through and determining what is the warhead 
invading on it and then you'll see the warhead come up in these 
two frames just before we intercept right there and right 
there.
    So that demonstrates the ability, for example, to sort 
through different objects it sees and go after the warhead as 
part of the logic.

                         SATELLITE INTERCEPTOR

    If you go back and then finally to the next slide, I just 
want to walk you through this. About 7 to 10 days before 
Christmas, I was called by the National Reconnaissance Office 
Director Scott Large and he asked for help in destroying the 
satellite that they had lost communication with and was coming 
back in with a very toxic payload that could have been 
potentially hazardous to humans.
    It took us a couple weeks to analyze and it turned out that 
both the ground-based midcourse and aegis all had capability--
if they were modified to go do this mission. The aegis was the 
easiest to modify and also represented the most flexibility and 
the minimum impact to our program overall, so that's why we 
chose that.
    We didn't modify the ship system, the radar and the kill 
vehicle to be able to do this mission, and then on the 20th of 
February we launched one just north of Hawaii on the U.S.S. 
Lake Erie.
    Now what I want to point out here at the bottom, we had to 
hit that tank. We had to hit and destroy that hydrazine tank on 
the satellite and so we ran through our modeling simulation, we 
wanted to see what happened, what were the risk of that, what 
were the potential possibilities of being successful.
    What you see in the bottom left is a picture of the radar 
image. If we hit the satellite but did not hit that tank, that 
would not have been a success, and then if you see this, this 
is the prediction from our modeling and simulation of what it 
would look like if we hit the tank.
    Now if you go ahead and click, Steve, that's the real 
picture that we got. So our models and sims did a pretty good 
job of predicting what it would look like were we successful, 
and if you go ahead and click on it, I'll show you very 
quickly, this is the video.
    This was done by aegis. It was a Lake Erie sea-based 
interceptor that we had modified. One thing that's important to 
point out, the ship could not do this by itself. We had to feed 
it offboard information because the satellite was traveling too 
fast for that ship to be able to engage it. So we had a whole 
sensor network that we were using data from to inject it 
offboard, from offboard the ship.
    There's the staging of the interceptor and then you'll see 
the video that we have. The first one is a Halo aircraft. 
That's focused on the satellite and there's the intercept and 
the next one is another Halo aircraft that was focused on the 
interceptor and I'll show you one of the real tell-tale signs 
we were looking for in the intercept was the presence of 
hydrazine right here.
    This is focused on the interceptor and as you see, there 
will be a half-moon shape that comes up here and that was 
exactly what we were looking for in terms of the atmospheric 
interaction with the hydrazine. So from different 
phenomenology, we confirmed that we were successful.
    Now concerning closing, I just wanted to point out that 
we've been able to put all of this critical capability into the 
hands of the warfighters so effectively and so quickly over the 
past several years because of the authorities that have been 
given to the Missile Defense Agency and the nontraditional 
defense acquisition approach that you have allowed us to 
pursue.

                           PREPARED STATEMENT

    I want to thank you and all of you and I look forward to 
your questions.
    Thank you.
    Senator Inouye. I thank you very much, General Obering.
    [The statement follows:]
     Prepared Statement of Lieutenant General Henry A. Obering III
    Good morning, Chairman Inouye, Senator Stevens, distinguished 
Members of the Committee. Thank you for this opportunity to discuss the 
Department of Defense's fiscal year 2009 Missile Defense program and 
budget. As Director of the Missile Defense Agency (MDA), I have the 
privilege of leading an outstanding group of thousands of men and women 
who are working hard every day to develop, test and field an 
integrated, layered ballistic missile defense system to defend the 
United States, our deployed forces, and our allies and friends against 
ballistic missiles of all ranges in all phases of their flight. I want 
to thank this Committee for the support we have received for this 
critical defense program.
    We are requesting $9.3 billion in fiscal year 2009 for missile 
defense. Roughly 75 percent of this request, or $7 billion, will be 
allocated to the near-term development and fielding of missile defense 
capabilities. Of this amount, $715 million is for sustaining the 
capabilities we already have in the field today. I also want to 
highlight that, as has been the pattern for several years now, we will 
be spending about $2 billion of the funding in fiscal year 2009 (more 
than 20 percent of the missile defense budget) on test activities.
    The Ballistic Missile Defense System (BMDS) is daily becoming more 
integrated, robust, and global. The BMDS already includes fielded 
assets operated by Air Force, Army, and Navy units under the integrated 
control of Combatant Commanders. Our current, limited homeland defense 
against long-range ballistic missiles will soon be bolstered by 
additional interceptors in Alaska and the upgrade of an existing radar 
in Greenland to protect against enemy launches from the Middle East.
    The defense of deployed forces, allies, and friends against short- 
to medium-range ballistic missiles in one region/theater will be 
buttressed by additional Standard Missile (SM)-3 interceptors, more 
Aegis BMD engagement-capable warships, the initial Terminal High 
Altitude Area Defense (THAAD) fire units, and additional sea-based 
terminal interceptors. Tying these assets together will be a global 
command, control, battle management and communications capability.
    In the near future, MDA's capability development program is 
expected to yield enhanced capabilities to discriminate between enemy 
warheads and countermeasures and options for ``multiple kill'' 
capabilities to meet future challenges. In the longer term, we will 
complete the development of a boost phase defense capability.
    Recent flight tests are confirming technological progress and 
operational effectiveness for short-, medium-, and long-range defensive 
capabilities. In 2007, MDA and the military services executed 10 of 10 
successful intercepts across all ranges of our missile defense 
elements.
    As missile defense capabilities expand worldwide, international 
cooperation with allies and friends is dramatically increasing. Earlier 
this month the United States and the Czech Republic completed 
negotiations on a missile defense agreement to station a midcourse X-
band radar in the Czech Republic to track ballistic missiles. Assuming 
we conclude an agreement with Poland and obtain congressional approval 
to proceed with the European Site Initiative, MDA intends to begin site 
construction for additional long range interceptors and the fixed-site 
radar to defend allies and deployed forces in Europe and expand the 
U.S. homeland defense against limited Iranian long-range threats. On 
April 3, 2008, in recognition of the increasing threat posed by 
ballistic missiles, all 26 nations of the North Atlantic Treaty 
Organization (NATO) formally endorsed the deployment of the European-
based U.S. missile defense assets. NATO also committed to working with 
the United States to link this capability to any future NATO-wide 
missile defense architecture.
    Also, we have undertaken substantive cooperative efforts with 
European, Middle Eastern, and Asian nations. With the purchase of Aegis 
BMD and Patriot Advanced Capability-3 assets, and with our fielding of 
a transportable X-band radar at Shariki, Japan is in the process of 
fielding a multilayered system interoperable with the U.S. system. 
Further, with MDA's support, the Department of Defense participated 
with Israel to develop an Israeli missile defense architecture that can 
meet threats expected in the next decade. We also held meetings with 
senior Russian officials and technical experts to discuss both threat 
perceptions and missile defense cooperation, including the potential 
for partnering with Russia in a joint regional architecture.
    Mr. Chairman, one last point before I continue. In February the 
Department of Defense called on our country's missile defenses to 
destroy a large tank of toxic fuel onboard an out-of-control U.S. 
satellite about to reenter the Earth's atmosphere. The uncertainty of 
when and where the satellite would reenter, and the near certainty that 
the fuel tank would survive reentry and possibly break up on Earth, 
drove the urgency of this mission. Using an extensively modified SM-3 
interceptor and a modified Aegis Weapon System onboard the U.S.S. Lake 
Erie, the Navy successfully destroyed the tank. The Department 
undertook this operation, carefully choosing an intercept altitude that 
would not add to the debris currently in orbit, to protect against the 
possible risk to life that a natural reentry of the satellite could 
have posed. After engagement, the toxic hydrazine dissipated in space, 
and, by now, most of the debris from the satellite body has burned up 
in the Earth's atmosphere.
    This was a very successful joint mission involving the Navy, U.S. 
Strategic Command, the Missile Defense Agency, the National Aeronautics 
and Space Administration, the National Reconnaissance Office, and other 
national security offices. Missile Defense Agency engineers worked 
closely with the Navy to modify the interceptor and the Aegis weapon 
system for this one-time engagement. This was a case where the missile 
defense system was unexpectedly pushed into service and performed 
exceptionally well. While this stands as an example of what the nation 
received for its investment in missile defense, I want to be clear that 
it does not represent an operational anti-satellite capability. The 
time and level of technical expertise it took to plan and orchestrate 
this mission, the split-second fragility of the once-per-day shot 
opportunities, and the relatively low altitude of the satellite's 
decaying orbit did not approach the responsive and robust capability 
that would be needed to attack enemy space assets in wartime.
                             threat update
    To lay the foundation for our budget request, let me review why 
missile defense is so critically needed. There remains intense interest 
in several foreign countries to develop ballistic missile capabilities. 
In fact, there were over 120 foreign ballistic missile launches in 
2007, significantly exceeding what we observed in previous years. This 
comes on the heels of a very active 2006, during which time both North 
Korea and Iran demonstrated an ability to orchestrate campaigns 
involving multiple and simultaneous launches using missiles of 
different ranges. Currently, North Korea has hundreds of deployable 
short- and medium-range ballistic missiles and is developing a new 
intermediate-range ballistic missile and a new short-range, solid-
propellant ballistic missile, which it test-launched in June 2007. Iran 
has the largest force of ballistic missiles in the Middle East (several 
hundred short- and medium-range ballistic missiles), and its highly 
publicized missile exercise training has enabled Iranian ballistic 
missile forces to hone wartime skills and new tactics.
    North Korea's ballistic missile development and export activities 
remain especially troubling. Pyongyang continues to press forward with 
the development of a nuclear-capable ICBM. While the firing of the 
Taepo Dong 2 in July 2006, launched together with six shorter-range 
ballistic missiles, failed shortly after launch, North Korean engineers 
probably learned enough to make modifications, not only to its long-
range ballistic missiles, but also to its shorter-range systems. North 
Korea's advances in missile system development, particularly its 
development of new, solid fuel intermediate-range and short-range 
ballistic missiles, could allow it to deploy a more accurate, mobile, 
and responsive force. North Korea's nuclear weapons program makes these 
advances even more troubling to our allies and the commanders of our 
forces in that region.\1\
---------------------------------------------------------------------------
    \1\ Oral Statement by the Director of the Defense Intelligence 
Agency, Lieutenant General Michael D. Maples to the Senate Select 
Committee on Intelligence Annual Threat Assessment Hearing, 5 Feb 2008 
http://www.dia.mil/publicaffairs/Testimonies/Statement29.pdf; Current 
and Projected National Security Threats to the United States, 
Lieutenant General Michael D. Maples, U.S. Army, Director, Defense 
Intelligence Agency, Statement for the Record, Senate Armed Services 
Committee, 27 February 2007 http://www.dia.mil/publicaffairs/
Testimonies/statement28.html.
---------------------------------------------------------------------------
    In addition to its uranium enrichment activity, Iran continues to 
pursue newer and longer-range missile systems and advanced warhead 
designs. Iran is developing an extended-range version of the Shahab-3 
that could strike our allies and friends in the Middle East and Europe 
as well as our deployed forces. It is developing a new Ashura medium-
range ballistic missile capable of reaching Israel and U.S. bases in 
Eastern Europe.\2\ Iranian public statements also indicate that its 
solid-propellant technology is maturing; with its significantly faster 
launch sequence, this new missile is an improvement over the liquid-
fuel Shahab-3.\3\ Iran has reportedly bought a new intermediate-range 
ballistic missile (IRBM) under development by North Korea; \4\ this 
underscores the urgent need to work with our allies in the North 
Atlantic Treaty Organization (NATO) to field and integrate long-range 
missile defenses in Europe. Moreover, Iran's development of a space 
launch vehicle using technologies and designs from its ballistic 
missiles means Iran could have an ICBM capable of reaching the United 
States by 2015.\5\
---------------------------------------------------------------------------
    \2\ Statement of Lieutenant General Michael D. Maples, 5 February 
2008.
    \3\ Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January to 31 
December 2005, Central Intelligence Agency, http://dni.gov/reports/
CDA%2011-14-2006.pdf.
    \4\ Statement of Lieutenant General Michael D. Maples, 5 February 
2008.
    \5\ Current and Projected National Security Threats to the United 
States Vice Admiral Lowell E. Jacoby, U.S. Navy Director, Defense 
Intelligence Agency Statement For the Record Senate Armed Services 
Committee, 17 March 2005 http://www.dia.mil/publicaffairs/Testimonies/
statement17.html.
---------------------------------------------------------------------------
    Syria is working to improve its ballistic missile capabilities and 
production infrastructure. Today Syria is capable of striking targets 
in Israel and Turkey, our southern NATO partner, using rockets and 
ballistic missiles. Syria can produce longer-range Scud variant 
missiles using considerable foreign assistance from countries such as 
North Korea and Iran.\6\ So our vigilance must extend well out into the 
future, when the threats we face today have grown and new threats may 
have emerged.
---------------------------------------------------------------------------
    \6\ Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January to 31 
December 2005, Central Intelligence Agency.
---------------------------------------------------------------------------
                 new missile defense program structure
    We have established a new block structure to organize our program 
of work and present our budget. The Agency has made this change to 
address concerns about transparency, accountability, and oversight and 
to better communicate to Congress and other key stakeholders. The new 
approach has several key tenets:
  --Blocks will be based on fielded missile defense capabilities that 
        address particular threats and represent a discrete program of 
        work--not on biennial time periods.
  --When MDA believes a firm commitment can be made to the Congress, 
        the Agency will establish schedule, budget, and performance 
        baselines for a block. Block schedule, budget, and performance 
        variances will be reported.
  --Once baselines are defined, work cannot be moved from one block to 
        another.
    Based on the above tenets, MDA has currently defined five blocks 
(see figure 1). Blocks 1.0, 3.0, and 4.0 deliver capabilities for long-
range defenses, while Blocks 2.0 and 5.0 deliver capabilities to 
address the short- and medium/intermediate-range threats.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Future blocks (Block 6.0, etc.) will be added when significant new 
capabilities are expected to be fielded based on technological 
maturity, affordability, and need. For example, a new Block 6.0 might 
include enhanced defense of the United States against complex 
countermeasures, drawing on volume kill capabilities from the multiple 
kill vehicle (MKV) program, improved discrimination capabilities on our 
integrated sensor, command and fire control network as well as upgraded 
hardware and software on our weapon systems.
    MDA's budget is organized through the period of the Future Years 
Defense Program based on the new block structure. Also, program funding 
that does not fit into Blocks 1.0 through 5.0 is assigned to four 
general categories:
  --Capability Development.--Technologies such as the Airborne Laser, 
        Multiple Kill Vehicle, Kinetic Energy Interceptor, Far-Term Sea 
        Based Terminal, Project Hercules and the Space Tracking and 
        Surveillance System, which address future challenges and 
        uncertainties.
  --Sustainment.--Operations and support of weapon systems, sensors, 
        and command and fire control components.
  --Mission Area Investment.--Activities that support multiple efforts 
        and cannot be reasonably assigned to a specific block or 
        capability development program (e.g., intelligence and 
        security; modeling and simulation; systems engineering and 
        testing cores; safety, and mission assurance).
  --MDA Operations.--Activities that support the Agency, such as 
        Management Headquarters and Base Realignment and Closure 
        (BRAC).
          highlights of budget submission for fiscal year 2009
    Our priorities in the fiscal year 2009 budget submission include 
near-term development, fielding, integration and sustainment of Blocks 
1.0 through 5.0; increasingly robust testing; and a knowledge-based 
Capability Development program.
Block 1.0
    We are nearing completion of the work in Block 1.0. We are 
requesting $59 million for fiscal year 2009, mostly to conduct 
additional system ground and flight tests to support a final Block 1.0 
capability declaration.
    This past year we saw an unprecedented pace of fielding of an 
integrated missile defense capability, much of it related to Block 1.0. 
In 2007 we emplaced 10 additional GBIs, for a total of 24 interceptors 
in missile fields at Fort Greely, Alaska, and Vandenberg Air Force 
Base, California. In 2008 we plan to increase interceptor inventories 
up to a total of 30 at the two sites. By the end of 2008, we will 
complete work installing the Long-Range Surveillance and Track (LRS&T) 
capability on 18 Aegis BMD ships. These ships will contribute to long-
range defense by passing early detection, cueing, and tracking data 
across communications lines into BMD system communication and battle 
manager nodes located at Fort Greely and in Colorado Springs.
    This past year we transitioned the transportable forward-based X-
band radar at Shariki Air Base, Japan, from the interim site to a 
permanent location. This radar provides precise early detection and 
tracking to increase the probability we will destroy any lethal target 
launched by North Korea. The Sea-Based X-band radar (SBX) completed 
crew training and testing off the coast of Hawaii and transited to the 
North Pacific to conduct a cold weather shakedown off Adak, Alaska, 
where it will be home-ported in 2009. The SBX participated in system 
flight tests this past year, including the September 28 long-range 
intercept test and the December 17 engagement of a medium-range 
separating target at sea by our ally, Japan. This summer the radar will 
again participate in a long-range intercept test.
    In 2007, we completed the fielding of C2BMC infrastructure to 
improve our ability to operate with Japan and receive direct feed from 
the Space-based Infrared System. We moved communications equipment and 
shelters to support the forward based X-band radar at Shariki and 
installed a second server suite at U.S. Pacific Command. We also began 
fielding enhanced C2BMC displays and improvements to our communications 
capabilities. The Parallel Staging Network we installed at U.S. 
Strategic, Northern, and Pacific Commands as part of the Concurrent 
Test, Training and Operations (CTTO) capability, will be completed this 
year. Without impeding the operational readiness of the system, CTTO 
allows the warfighter to conduct training and the Missile Defense 
Agency to continue with spiral upgrades, testing and development.
    By 2009 we plan to install additional planning and situational 
awareness capabilities to facilitate executive decision-making in the 
European Command. C2BMC capabilities also provide our senior Government 
leadership situational awareness of hostile ballistic missile 
activities and updates on the performance of the ballistic missile 
defense system.
Block 2.0
    Since 2002 we have expanded and improved terminal and midcourse 
defenses to defeat short- and medium-range threats from land and sea. 
We are requesting about $1.3 billion for fiscal year 2009 for Block 2.0 
fielding, development, and integration. This block represents the 
foundation of the capabilities required to protect forces we deploy 
abroad and our allies and friends, initially in a single region or 
theater of combat.
    We began fielding SM-3 interceptors in 2004. Block 2.0 comprises 71 
SM-3 Block I and IA interceptors (we will have 38 in inventory by the 
end of 2008). To date, we have converted 12 Aegis BMD LRS&T ships to 
engagement-capable ships. By year's end, we will have 18 Aegis BMD 
ships--15 destroyers and 3 cruisers--all of which will have 
surveillance and track as well as engagement capabilities. For the past 
three years, the Navy and MDA have collaborated on plans for a Sea-
Based Terminal defensive layer. We are upgrading the Aegis BMD weapon 
system, and the Navy is upgrading the SM-2 Block IV missile, the goal 
being to deploy up to 100 interceptors to provide a near-term terminal 
engagement capability on 18 Aegis BMD ships beginning in 2009.
    We are working closely with the Army to begin developing and 
fielding in 2009 two Terminal High Altitude Area Defense fire units, 
with full delivery in 2010 and 2011. THAAD is uniquely designed to 
intercept targets both inside and outside the Earth's atmosphere. 
Consisting of 48 interceptors and the associated radars and C2BMC, 
THAAD will provide transportable terminal protection from short- to 
medium-range ballistic missiles for our troops and our allies.
Block 3.0
    We are requesting about $1.7 billion for fiscal year 2009 to expand 
the defense of the United States to include limited Iranian long-range 
threats. Block 3.0 builds on the foundation established by Block 1.0. 
Block 3.0 provides 14 additional GBIs above what we plan to deploy by 
2008, along with two key radars needed for protection of the United 
States--the upgraded early warning radars at Fylingdales in the United 
Kingdom and at Thule in Greenland.
    This past year we completed operational testing of the Royal Air 
Force Fylingdales radar and made the radar available to the warfighter 
for emergency situations. In 2007 we began upgrades to the Thule radar 
and will continue to integrate it into the system by 2009. Together 
with the early warning radars in California, Alaska, and the United 
Kingdom, the Thule radar will ensure coverage of the United States 
against threats from the Middle East. In the Pacific theater, we will 
continue to enhance additional forward-based X-band radar capabilities 
in Japan and at other operating locations to meet warfighter needs.
    Block 3.0 also provides capabilities to defeat more sophisticated 
midcourse countermeasures. We are pursuing two parallel and 
complimentary approaches to counter complex countermeasures: first, 
more sophisticated sensors and algorithms to discriminate the threat 
reentry vehicle in the presence of countermeasures; and second, a 
multiple kill capability to intercept the objects identified by the 
discrimination systems as potential threat reentry vehicles. Block 3.0 
will focus on the first of these approaches. It includes upgrades to 
the Ground-Based Interceptors, sensors, and the C2BMC system. The full 
implementation of this approach will be conducted in phases, with the 
first phase referred to as ``Near Term Discrimination'' and the second 
phase as ``Improved Discrimination and System Track.''
Block 4.0
    We are requesting about $720 million for fiscal year 2009 for Block 
4.0 fielding, development, and integration. Block 4.0 fields sensors, 
interceptors, and the C2BMC infrastructure needed to improve protection 
of the United States and, for the first time, extend coverage to all 
European NATO allies vulnerable to long-range ballistic missile attack 
from Iran. This block focuses on deployment of the midcourse X-band 
radar, currently located at the Kwajalein test site, to the Czech 
Republic and the establishment of an interceptor field in Poland. By 
devaluing Iran's longer-range missile force, European missile defenses 
could help dissuade the Iranian Government from further investing in 
ballistic missiles and deter it from using those weapons in a conflict. 
We believe that the long-range defense assets we are planning to deploy 
to Central Europe offer the most effective capability for defeating 
this threat.
    The European Midcourse Radar would complement sensor assets 
deployed in the United Kingdom and Greenland and provide critical 
midcourse tracking data on threats launched out of the Middle East. The 
radar also would operate synergistically with the planned forward-based 
transportable X-band radar, jointly providing early threat detection 
and discrimination of the reentry vehicles.
    A European Interceptor Site will consist of up to 10 interceptors, 
the two-stage configuration of our flight-proven 3-stage GBI. A 2-stage 
interceptor has less burn time than the 3-stage version, which allows 
it to operate within the shorter engagement timelines expected. Nearly 
all of the components used in the 2-stage interceptor are identical to 
those already tested and fielded in the 3-stage interceptor, which 
means modifications required to design, develop and produce a 2-stage 
variant are minimal. Nor are such modifications unprecedented. In fact, 
the first 10 Ground-based Midcourse Defense integrated flight tests, 
conducted between January 1997 and December 2002, successfully utilized 
a 2-stage variant of the 3-stage Minuteman missile. As we do with all 
system elements and components, we have planned a rigorous 
qualification, integration, ground and flight testing program for the 
2-stage interceptor.
    Several countries in southern Europe do not face threats from 
Iranian long-range missiles. Yet these same countries are vulnerable to 
the shorter-range ballistic missiles currently fielded by Iran and 
Syria. Mobile system sensors for Aegis BMD, THAAD, and Patriot are 
designed to be augmented by other sensors, like the European Midcourse 
Radar, and their interceptors are designed to engage slower short- to 
medium-range ballistic missiles systems. Together with other NATO 
missile defense assets, these missile defense forces will protect 
European countries vulnerable to short- and medium-range ballistic 
missiles when integrated into the NATO command and control structure.
Block 5.0
    We are requesting $835 million for Block 5.0 for fiscal year 2009. 
This block builds on Block 2.0 to expand the defense of allies and 
deployed U.S. forces from short- to intermediate-range ballistic 
missile threats in two theaters. Block 5.0 will increase the number of 
SM-3 and THAAD interceptors and improve the performance of the Aegis 
BMD Weapons System and the SM-3 interceptor.
    The SM-3 Block IB interceptor, a critical Block 5.0 development 
effort, will have major modifications to include a much improved seeker 
and a Throttleable Divert and Attitude Control System (TDACS). When 
combined with processing upgrades to the Aegis BMD Weapons System, the 
more capable Block IB interceptor will more readily distinguish between 
threat reentry vehicles and countermeasures. The Block IB expands the 
battle space and enables more effective and reliable engagements of 
more diverse and longer-range ballistic missiles. This year we look 
forward to completing design and testing for the two-color seeker and 
TDACS and commencing the element integration of the SM-3 Block IB 
missile in 2009.
    Block 5.0 includes delivery of 23 SM-3 Block IA interceptors, 53 
SM-3 Block IB interceptors, 2 additional THAAD fire units with an 
additional 48 interceptors, one X-band transportable radar for forward 
deployment, and the associated C2BMC support.
            Development/Operational Testing
    Testing under operationally realistic conditions is an important 
part of maturing the BMDS in all five blocks. We have been fielding 
test assets in operational configurations in order to conduct 
increasingly complex and end-to-end tests of the system. Our testing to 
date has given us confidence in the BMD system's basic design, hit-to-
kill effectiveness, and operational capability. While the system is 
developmental, it is available today to our leadership to meet real 
world threats.
    Our flight tests are increasing in operational realism, limited 
only by environmental and safety concerns. Each system test builds on 
knowledge gained from previous tests and adds increasingly challenging 
objectives. The Director, Operational Test and Evaluation, the 
Operational Test Agencies, and the warfighting community are very 
active in all phases of test planning, execution, and post-test 
analysis. Using criteria established by the war fighter and the 
Agency's system engineers, all ground and flight tests provide data 
that we and the operational test community use to anchor our models and 
simulations and verify system functionality and operational 
effectiveness.
    In 2007, we conducted many system ground and flight tests. As 
stated earlier, last year we executed successfully a long-range ground-
based intercept, six SM-3 intercepts of separating and unitary targets, 
and three THAAD intercepts of unitary targets. As of today, we have 
demonstrated hit-to-kill in 34 of 42 attempts since 2001.
    After a legacy target failure in May 2007, we successfully 
completed Ground-based Midcourse Defense Flight Test-03a on September 
28, 2007. In this test, an operationally configured GBI launched from 
Vandenberg Air Force Base engaged a threat representative intermediate-
range target fired from Kodiak Island, Alaska, using sensor information 
from the operational upgraded early warning radar at Beale Air Force 
Base in California. Trained crews manning fire control consoles reacted 
within a specified window under limited-notice launch conditions. This 
test leveraged fielded hardware and fire control software as well as 
operational communications, tracking, and reporting paths. The Exo-
atmospheric Kill Vehicle successfully collided with the target near the 
predicted point of impact, destroying it. This was our most 
operationally realistic, end-to-end test of the long-range defenses to 
date. Though they were not official participants of the test, the Sea-
Based X-band radar and an Aegis BMD ship using its onboard SPY-1 radar 
also tracked the target and gathered data for post-test analysis.
    We also had enormous success with our integrated ground tests, 
which involve the operational long-range defense elements and employ 
the actual operational hardware. We test the system end-to-end by 
simulating engagements. These ground tests, conducted in a lab 
environment and in the field, involve the wider missile defense system 
community, to include the National Military Command Center, the 
Operational Test Agencies, and U.S. Northern Command. They teach us a 
great deal and give us confidence to move forward with our intercept 
tests. The most comprehensive to date, these tests demonstrated the 
ability of the system to execute multiple, simultaneous engagements 
using operational networks and communications and fielded system 
elements in different combinations. The war fighter also was able to 
evaluate tactics, techniques and procedures. In 2008 and 2009 we will 
continue our integrated ground test campaigns.
    We completed four U.S. sea-based tests and one allied sea-based 
intercept test in 2007. In all Aegis BMD tests, we do not notify the 
ship's crew of the target launch time, forcing crew members to react to 
a dynamic situation. This past year we successfully used Aegis BMD 
cruisers and destroyers to engage threat-representative short-range 
ballistic missiles and medium-range separating targets. We conducted a 
test with the U.S. Navy involving simultaneous engagements of a short-
range ballistic missile and a hostile air target, demonstrating an 
ability to engage a ballistic missile threat as the ship conducts self-
defense operations. In November, we simulated a raid attack on an Aegis 
BMD cruiser using two short-range ballistic missiles. The cruiser 
destroyed both targets.
    The December 2007 test off the coast of Kauai in Hawaii marked the 
first time an allied Navy ship successfully intercepted a ballistic 
missile target with the Aegis BMD midcourse engagement capability. The 
SM-3 successfully intercepted the medium-range separating target in 
space, verifying the engagement capability of the upgraded Japanese 
destroyer. It also marked a major milestone in the growing missile 
defense cooperative relationship between Japan and the United States.
    Terminal High Altitude Area Defense completed three intercept 
flight tests against threat-representative short-range unitary targets 
in the atmosphere and in space. In addition, the THAAD radar and fire 
control participated in two Aegis BMD flight tests to demonstrate 
THAAD-Aegis interoperability. These initial THAAD intercept tests at 
the Pacific Missile Range Facility in Hawaii demonstrated integrated 
operation of the system, including radar, launcher, fire control 
equipment and procedures, and the ability of the interceptor to detect, 
track and destroy the target. Soldiers of the 6th Air Defense Artillery 
Brigade stationed at Fort Bliss, Texas, operated all THAAD equipment 
during the tests, which contributed to operational realism.
    In 2007, the Missile Defense Agency conducted 25 major tests and 
successfully met our primary test objectives in 18 of 20 flight tests. 
In doing so, we used the test ranges available to us today to maximum 
capacity. These totals include three Patriot tests, two Arrow tests, 
and the U.S.-Japan cooperative test. Our test plans for 2008 and 2009 
will continue to use more complex and realistic scenarios for system-
level flight tests and demonstrate interceptor capabilities against 
more stressing targets.
    In 2008, we are planning two system-level long-range intercept 
tests, and two more in 2009, all of which will push the edge of the 
envelope in testing complexity. The tests in 2008 will involve targets 
launched from Kodiak, Alaska, and missile defense assets separated by 
thousands of miles. We are expanding the number of sensors available to 
cue the system and engage targets. In our next long-range test, we will 
involve the early warning radar at Beale and the forward-based X-band 
radar, temporarily sited at Juneau, Alaska. This test also will 
demonstrate integration of the Sea-Based X-band radar into the sensor 
support system. The intermediate-range target will have 
countermeasures. Later in 2008 Ground-based Midcourse Defense will 
attempt to defeat a longer-range threat-representative target and 
demonstrate the ability of the SBX to send tracking and discrimination 
data through Ground-based Midcourse Defense Fire Control and 
Communications to the Exo-atmospheric Kill Vehicle prior to engagement.
    We plan three Aegis BMD intercept tests in 2008 and 2009. In 2008 
we will demonstrate an intercept of a unitary, short-range ballistic 
missile target in the terminal phase of flight using a SM-2 Block IV 
interceptor. Later this year we will conduct the second Japanese 
intercept test against a medium-range target warhead. And in 2009 we 
will conduct an intercept flight test against a medium-range target to 
demonstrate an expanded battle space.
    The first test of THAAD this year will involve engagement of a 
separating target low in the atmosphere. In the fall we plan to 
demonstrate THAAD's salvo-launch capability against a separating 
target. In late spring 2009 THAAD will engage a complex separating 
target in space. And in 2009 we will increase test complexity by 
demonstrating THAAD's ability to destroy two separating targets in the 
atmosphere.
    In addition to our system flight- and ground-test campaigns, the 
Missile Defense Agency will continue to participate in Patriot combined 
developmental/operational tests as well as Air Force Glory Trip flight 
tests.
            Knowledge-Based Capability Development
    The proliferation of ballistic missile technologies and systems 
means we will face unexpected and more challenging threats in the 
future. We are requesting about $2.5 billion in fiscal year 2009 for 
capability development work to deliver advanced capabilities that will 
help ensure America's ballistic missile defense system remains 
effective and reliable and a major element in our national defense 
strategy well into this century.
    Destroying ballistic missiles in boost phase will deprive the 
adversary of opportunities to deploy in midcourse multiple reentry 
vehicles, sub-munitions, and countermeasures, thereby reducing the 
number of missiles and reentry vehicles having to be countered by our 
midcourse and terminal defenses. Success in the boost phase will 
increase the probability we will be successful in defeating an attack 
in the other defensive phases. As part of this layered defense 
strategy, we are developing the Airborne Laser (ABL) and Kinetic Energy 
Interceptors (KEI).
    ABL is being developed to destroy ballistic missiles of all ranges. 
In 2007, the ABL program met all of our knowledge point expectations 
and cleared the way for the installation of the high-power laser on the 
aircraft by the end of 2008. We completed in-flight atmospheric 
compensation demonstrations and conducted low power systems integration 
testing, successfully demonstrating ABL's ability to detect, track, 
target, and engage non-cooperative airborne targets. Next we will 
integrate the high power systems and gear up for a series of flight 
tests leading to a full demonstration and lethal shoot-down in 2009 of 
a threat-representative boosting target.
    The KEI program will provide mobile capabilities to intercept 
ballistic missiles in the boost, ascent or midcourse phases of flight. 
This multi-platform, multi-payload, rapidly deployable capability could 
not only extend the reach of the missile defense system, but it also 
will add another defense layer. In 2007, we completed hypersonic wind 
tunnel testing of the booster and successfully conducted static firings 
of the first- and second-stage motors. This year we are focusing on 
preparations for the 2009 flight test of the KEI booster, which, if 
successful, will demonstrate we are ready to proceed to intercept 
testing and integration into the system.
    We are pursuing parallel and complementary efforts to counter 
complex countermeasures. Project Hercules is developing a series of 
algorithms to exploit physical phenomenology associated with threat 
reentry vehicles to counter on-the-horizon advanced threats and 
counter-countermeasures for employment in system sensors, kill 
vehicles, and C2BMC. The algorithms will improve sensor and weapon 
element tracking and discrimination via data integration and multi-
sensor fusion data integration.
    In the years ahead we expect our adversaries to have midcourse 
countermeasures. The MKV program is developing a payload for 
integration on midcourse interceptors to address complex 
countermeasures by identifying and destroying all lethal objects in a 
cluster using a single interceptor. This past year we delivered the 
initial models and simulation framework for testing sophisticated 
battle management algorithms and developed the liquid fuel divert and 
attitude control system.
    Our strategy is to manage all future kill vehicle development under 
a single program office and acquire MKV payloads using a parallel path 
approach with two payload providers pursuing different technologies and 
designs. This strategy will allow us to better leverage industry 
experience and talent. The MKV approach leverages commonality and 
modularity of kill vehicle components on various land- and sea-based 
interceptors, to include KEIs, GBIs, and a Block IIB version of the SM-
3. The goal is to demonstrate a multiple kill capability in 2011 
through a series of component development and test events.
    We are undertaking significant upgrades to the BMD Signal Processor 
in the Aegis BMD weapons system. Through our cooperative program with 
Japan, we are upgrading the SM-3 Block I interceptor with the SM-3 
Block II to engage longer-range ballistic missiles. This faster 
interceptor will feature an advanced kinetic warhead with increased 
seeker sensitivity and divert capability. We also will implement 
upgrades to the Aegis BMD Weapons System. The first flight test is 
scheduled for 2012. The Far-Term Sea-Based Terminal program will expand 
upon the near-term capability provided by the SM-2 Block IV blast-
fragmentation interceptor by engaging longer-range threats. This year 
and next we will define weapons system requirements as we work toward 
initial fielding as early as 2015.
    We are developing the Space Tracking and Surveillance System (STSS) 
to enable worldwide acquisition and tracking of threat missiles. 
Sensors on STSS satellites will provide fire control data for 
engagements of threat reentry vehicles and, when combined with radar 
data, will provide improved threat object discrimination. In 2008 we 
will deliver two demonstration satellites scheduled for launch later in 
the year and a common ground station. We plan to use both targets of 
opportunity and dedicated targets to demonstrate STSS capabilities from 
lift-off through midcourse to reentry. The knowledge gained from these 
demonstrations will guide our decisions on the development of a follow-
on space sensor constellation.
    I believe the performance of the BMD system could be greatly 
enhanced someday by an integrated, space-based interceptor layer. Space 
systems could provide on-demand, near global access to ballistic 
missile threats, minimizing limitations imposed by geography, absence 
of strategic warning, and the politics of international basing rights. 
I would like to begin concept analysis and preparation for small-scale 
experiments. These experiments would provide real data to answer a 
number of technical questions and help the leadership make a more 
informed decision about adding this capability.
    We have had to restructure some development activities and cancel 
others as a result of reductions in our fiscal year 2008 budget. 
Reductions in funding for the European Site Initiative, STSS, ABL, and 
MKV programs will result in some schedule delays. Cuts in the system 
engineering work, including modeling and simulations, undermine our 
ability to develop and field an integrated system, which requires a 
collaborative effort by MDA and our industry partners that cuts across 
many disciplines and specialties. The ability to do this cross-cutting 
engineering work will become increasingly important as we move, for 
example, towards developing common kill vehicles and common 
interceptors.
    I remain deeply concerned about the future threat environment, and 
consequently believe each one of these efforts is critical to 
maintaining our defenses in the uncertain years ahead.
                            setbacks in 2007
    With our unprecedented success in 2007 came several setbacks. We 
experienced a target failure in our first attempt for FTG-03 as 
mentioned earlier. While this was only the second complete target 
failure in 42 intercept flight tests, it was a signal that we needed to 
revamp our target program, which is underway. We are at a critical 
juncture in the target program transitioning from the legacy booster 
motors to the more modern Flexible Target Family, and I intend to make 
this a high priority in 2008.
    In addition, we are investigating a nozzle failure that occurred in 
the second static firing of the KEI second stage. While investigation 
is underway, we plan to execute the first booster flight in 2009.
    We also experienced some cost growth in the THAAD, Aegis and GMD 
programs which is being addressed within the overall missile defense 
portfolio. The THAAD cost growth was due to test delays, additional 
insensitive munitions testing and its deployment to the Juniper Cobra 
09 exercise in Israel. Aegis cost growth was generated from extended 
work on the SM-3 Third Stage Rocket Motor and the Divert and Attitude 
Control System. This work also delays the delivery of the Block 1B 
interceptors by 1 year. GMD cost growth was due to the modifications 
required for the 2-stage version, the additional missile field in 
Alaska, and repair of the water damage silos.
                retaining integrated decision authority
    I would now like to turn to a topic very near and dear to me. I 
urge the Committee to continue its support of the integrated decision 
authority that the MDA Director has been given for the missile defense 
portfolio. As you know, working with the USSTRATCOM Commander, I have 
the ability to propose the evolution of the missile defense system 
based on all relevant requirements, acquisition, and budget 
information. This authority was necessary in light of the President's 
2002 directive to begin deployment in 2004 of a set of missile defense 
capabilities that would serve as a starting point for improved and 
expanded missile defense capabilities later.
    I present to you two telling quotes from the 2006 Defense 
Acquisition Performance Assessment (DAPA) report chartered by the 
Department.

    ``[T]he budget, acquisition, and requirements processes are not 
connected organizationally at any level below the Deputy Secretary of 
Defense. This induces instability and erodes accountability. 
Segregation of requirements, budget and acquisition processes create 
barriers to efficient program execution.''
    ``Acquisition programs need to deliver timely products. Our 
assessment is that the culture of the Department is to strive initially 
for the 100 percent solution in the first article delivered to the 
field. Further, the ``Conspiracy of Hope'' causes the Department to 
consistently underestimate what it would cost to get the 100 percent 
solution. Therefore, products take tens of years to deliver and cost 
far more than originally estimated.''

    Well, the DAPA report could have cited the one place in the Defense 
Department below the Deputy Secretary where requirements, acquisition, 
and budget authority comes together--the Missile Defense Agency. This 
authority has given me the trade space to make a balanced 
recommendation to the Deputy Secretary that has paid dividends for 
defense of our homeland, deployed forces, allies, and friends.
    MDA has fielded an initial capability consisting of 24 Ground-Based 
Interceptors; 17 Aegis BMD warships capable of long-range surveillance 
and tracking, of which 12 are also capable of missile intercepts; 25 
Standard Missile-3 interceptors for Aegis BMD warships; 18 SM-2 Block 
IV interceptors; an upgraded Cobra Dane radar; two upgraded early 
warning radars; a transportable X-band radar; a command and control, 
battle management, and communications capability, and a sea-based X-
band radar. None of this capability existed as recently as June 2004. 
This rapid fielding would never have been possible unless I had the 
integrated decision authority over requirements, acquisition, and 
budget. I think it is fair to say that this capability would have taken 
2 to 3 times longer to field under standard Department practices--if 
not the ``tens of years'' cited by DAPA.
    Should this integrated decision authority be continued now that we 
have successfully met the President's injunction to quickly field an 
initial capability where no capability had previously existed? I would 
make four key points in favor of retaining this authority.
    First, the Director of MDA is in the best position to know the 
program's progress and challenges. This does not mean that I make 
decisions in a vacuum. We work closely with the intelligence community, 
the war fighter, and the Services on the threat, capability needs, and 
available resources. In addition to the external oversight from your 
committee and others in Congress and, of course, the Government 
Accountability Office, I also receive significant Department-level 
oversight from Under Secretary AT&L, the Office of the Secretary of 
Defense Comptroller, and the Missile Defense Executive Board. However, 
it does mean that I have a degree of control and trade space that is 
not available to the managers of other major defense acquisition 
programs.
    Second, because the ballistic missile threat is always evolving, we 
need to be as agile as possible in getting the latest capabilities to 
the war fighter. The integrated requirements, acquisition, and budget 
authority granted MDA's Director inevitably enables us to deliver a 
capability more quickly to meet the evolving missile threat.
    Third, while some see MDA's flexibilities as undeserved special 
treatment, others view MDA's integrated decision authority as, in 
effect, a ``test lab'' for the Under Secretary of Defense AT&L to 
examine alternative, creative approaches to acquiring joint 
capabilities.
    Fourth, ballistic missile defense is and always will be the 
quintessential joint program. No one Service could easily or naturally 
take responsibility for developing, testing, integrating, and fielding 
the BMDS. The trade space offered me as portfolio manager of the entire 
BMD program is considerably wider than it would be if MDA were wedded 
to one Service or merely an advocate within the Office of the Secretary 
or joint staff who is trying to negotiate with a myriad of individual 
program managers protecting their own turf.
    On a personal level, I take my stewardship responsibilities very 
seriously. I will not be in this position forever, and I know how 
vitally important it is to put my successor in the best position to 
give the war fighter the capabilities needed to negate the threats to 
our homeland, deployed forces, allies and friends. The integrated 
decision authority granted me as MDA Director does just that, and I 
urge your continued support.
                      organizational reengineering
    MDA's reengineering goal is to transform the organization into a 
single, integrated high-performance team capable of sustaining its 
development and test successes and maximizing its efficiency and 
effectiveness in acquiring, fielding, and supporting an integrated, 
operational BMDS. To accomplish this goal, I have established policies 
and defined responsibilities for providing qualified matrix support to 
the program directors/managers (PD/PM) responsible for delivering BMDS 
capabilities to the COCOMs. Matrixing is an organizational concept that 
consolidates skills and resources under a functional manager who, in 
turn, allocates persons and resources among executing organizations 
needing these skills. Matrixed support includes such functions as 
engineering, contracts, business/financial management, cost estimating, 
acquisition management, logistics, test, safety quality and mission 
assurance, security, administrative services, information assurance, 
and international affairs. The matrix management process aims to 
strengthen PD/PM capabilities by assuring their accessibility to all 
expertise available to MDA; increasing accountability for quality of 
functional staff work; and allocating personnel resources according to 
the Agency's needs.
    MDA has established the following objectives to focus the 
reengineering efforts:
  --Implement a full matrix management construct to strengthen 
        functional responsibilities at both the BMDS and element level 
        of program execution
  --Establish key new or restructured organizations and centers to 
        strengthen the implementation of an integrated system
  --Establish key knowledge centers to focus MDA resources on and 
        within critical mission technical areas \7\
---------------------------------------------------------------------------
    \7\ Knowledge centers for Interceptors, C2BMC, and Sensors were 
established in January 2008. Centers for Space and Directed Energy will 
be established later in 2008.
---------------------------------------------------------------------------
  --Complete an organizational alignment assessment to improve agency 
        efficiency and effectiveness through elimination of redundancy 
        of functions and infrastructure, multiple layers of management 
        and non-critical functions, and a verification that resources 
        are aligned with MDA priorities
  --Relocate MDA offices from the National Capital Region (NCR) to 
        Huntsville and selected other locations to realize the benefits 
        of a centralized control/decentralized execution strategy, 
        facilitate leveraging all resources available in MDA and 
        propagate better cross-flow of expertise and information.
                  base realignment and closure (brac)
    The 2005 Defense Base Realignment and Closure Commission approved 
recommendations directing the realignment of several MDA directorates 
from the NCR to Government facilities at Fort Belvoir, Virginia, and 
the Redstone Arsenal in Huntsville, Alabama. Specifically, a 
Headquarters Command Center for MDA will be located at Fort Belvoir, 
while most other MDA functions will be realigned to Redstone Arsenal. 
The transfer of Government and contractor personnel from the NCR is 
already in progress; by the end of 2008, we will have transitioned some 
1,100 personnel positions to the Arsenal. Also, construction will start 
in fiscal year 2008 on additional facilities to be opened in two phases 
in fiscal year 2010 and fiscal year 2011. Construction of the MDA 
Headquarters Command Center (HQCC) is also scheduled to begin in late 
fiscal year 2008, with occupancy in fiscal year 2010.
        missile defense agency engineering and support services
    Consistent with the Agency's reengineering, MDA has undertaken the 
task of improving how it procures contractor support services (CSS). 
The objectives of the change are to improve oversight, enable matrix 
management so the Agency can benefit more from cross-flow of 
information among different offices, enhance efficiency and 
transparency, and more accurately account for our cost of doing 
business. I have determined that the best path forward is to develop a 
new Agency-wide procurement; the designation for this procurement is 
Missile Defense Agency Engineering and Support Services (MiDAESS).
    We currently receive contractor support through a variety of 
different avenues, such as contracts, other Government agencies, and 
General Services Administration orders. Over the next few years, the 
MiDAESS procurement will allow us to consolidate the CSS into a more 
efficient procurement, focused on the primary areas of technical, 
administrative, financial, and other support that our agency requires.
    Beginning in March 2007, we began discussions with our industry 
partners regarding MiDAESS. Throughout 2007, MDA has received industry 
feedback and continues to refine the details of how competition and 
contracting within MiDAESS will function. We plan to begin initial 
contract awards under MiDAESS in 2008.
                                closing
    Mr. Chairman and members of the Committee, in closing, I again want 
to thank you for your strong support of our program. Since 2002 we have 
achieved dramatic program efficiencies and effectiveness because we 
have been able to consolidate missile defense expertise and integrate 
all missile defense elements into a single, synergistic system. We have 
made tremendous progress deploying missile defenses to protect our 
homeland, our troops deployed and our allies and friends. I also 
believe we have the right program in place to address more advanced 
threats we may face in the future.
    Our investment in missile defense is significant, but our 
expenditures would pale in comparison to the overwhelming price this 
nation could pay from a single missile impacting America or one of our 
allies. We need your continued support to carry on the tough 
engineering and integration task of developing and enhancing worldwide 
ballistic missile defenses.
    This concludes my statement. I look forward to your questions.

    Senator Inouye. We now recognize General Campbell.
STATEMENT OF LIEUTENANT GENERAL KEVIN T. CAMPBELL, 
            UNITED STATES ARMY, COMMANDING GENERAL, 
            UNITED STATES ARMY SPACE AND MISSILE 
            DEFENSE COMMAND, UNITED STATES ARMY 
            STRATEGIC FORCES COMMAND AND JOINT 
            FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED 
            MISSILE DEFENSE
    General Campbell. Mr. Chairman, Senator Stevens, 
distinguished members of the subcommittee, thank you for your 
ongoing support to missile defense.
    Today, I'll give you the user's perspective of these 
capabilities. I'm able to report with confidence the combatant 
commanders' input into the ballistic missile defense system 
(BMDS) continues to expand.
    Last year I outlined a process named the warfighter 
involvement process. As a result of the continued maturity of 
the program, we're seeing substantial warfighter-requested 
modifications incorporated into the ballistic missile defense 
system.
    The operators remain fully integrated into the Missile 
Defense Agency's test program. Our involvement spans from the 
development of test objectives to operators sitting at the 
consoles and executing the engagements that you just witnessed 
in Trey's film.
    The flight tests attract the most attention but they are 
only one aspect of a comprehensive testing campaign. Our 
operators also participate in frequent ground testing and 
hardware in-the-loop testing. The warfighters are able to 
identify more effective methods for employing the systems and 
assist the testing cadre and developers in identifying problems 
long before we move to flight test. These tests in turn 
influence further program developments.
    The operational commands clearly recognize the threat we 
face today from both short- and medium-range missiles. Today we 
can't meet all of the combatant commanders' needs. We must 
continue our close coordination with the Missile Defense Agency 
to ensure the missile defense portfolio addresses the 
warfighter needs for the near-term threats as well as the mid- 
to the far-term threats.
    Maintaining a balanced investment portfolio is critical. 
Although we understand the potential adversaries' inventories 
of short- and medium-range missiles today are significant, we 
cannot lose sight of the qualitative improvements nations are 
making in their ballistic missile systems.
    Our investments for both the near and far term must be 
informed by both the quantitative and qualitative advancements 
our adversaries are making in their programs.

                           PREPARED STATEMENT

    Mr. Chairman, provided congressional support, we will 
continue to develop, field and improve an integrated missile 
defense for our Nation and our deployed forces and our friends 
and allies.
    I look forward to your questions.
    Senator Inouye. Thank you very much, General Campbell.
    [The statement follows:]
       Prepared Statement of Lieutenant General Kevin T. Campbell
                              introduction
    Chairman Inouye, Ranking Member Stevens, and Members of the 
Committee, thank you for your ongoing support of our military and for 
the opportunity to appear again before this panel. As I shared last 
year, I do believe that this Committee is a strong supporter of the 
Army and the missile defense community. This is especially important as 
we continue to field missile defense capabilities and to continue 
development of future capabilities for the Nation and our allies. Along 
with those testifying today, I am an advocate for a strong global 
missile defense capability.
    The Committee is no doubt familiar with my duties and 
responsibilities as the Army's senior commander for space and missile 
defense as well as my position as the Commander of the Joint Functional 
Component Command for Integrated Missile Defense, a part of the U.S. 
Strategic Command (USSTRATCOM). In this role, I serve as the Joint user 
representative working closely with the Missile Defense Agency (MDA), 
other services, and Combatant Commanders to ensure that our national 
goals of developing, testing, and deploying an integrated missile 
defense system are met in an operationally sound configuration.
    Mr. Chairman, please rest assured that America's Army stands on 
point to defend our Nation against an intercontinental ballistic 
missile attack. Our soldiers continue to be trained and ready to 
operate the Ground-based Midcourse Defense (GMD) Element of the 
Ballistic Missile Defense System (BMDS) at Fort Greely, Alaska, 
Vandenburg Air Force Base, California, and the 100th GMD Brigade's 
Missile Defense Element at Schriever Air Force Base, Colorado. These 
soldiers, as part of the Joint team, continue to serve as our Nation's 
first line of defense against any launch of an intercontinental 
ballistic missile toward our shores. I am proud to represent them along 
with the other members of the Army and Joint integrated missile defense 
community.
  united states strategic command jfcc-imd: planning, integrating and 
                      coordinating missile defense
    The Joint Functional Component Command for Integrated Missile 
Defense (JFCC-IMD), U.S. Strategic Command's global missile defense 
integrating element, has been operational for 3 years. The JFCC-IMD 
continues to be manned by very capable Army, Navy, Air Force, Marine 
Corps, and civilian personnel.
    USSTRATCOM, through the JFCC-IMD, continues to aggressively execute 
its mission to globally plan, integrate, and coordinate missile defense 
operations. Through a deliberate training and exercise program, the 
JFCC-IMD has improved our collective ability to defend this Nation. 
While the organization is still maturing, JFCC-IMD continues to lead 
the Department's transformation toward more robust integrated missile 
defense capabilities. The soldiers, sailors, airmen, marines, and 
civilians of this Joint warfighting organization execute our mission to 
plan, integrate, and coordinate global missile defense operations and 
support by operationalizing new capabilities from MDA, developing 
global missile defense plans in collaboration with the Geographical 
Combatant Commanders, and conducting cross-geographical combatant 
commander exercises to eliminate seams and gaps in order to maintain a 
strong defense against advancing threats. In summary, JFCC-IMD 
continues to build operational competence and warfighter confidence in 
the execution of our mission.
Continued Ballistic Missile Defense System Progress
    This past year has been another year of operational achievement for 
integrated missile defense. Since the last time I addressed this 
Committee, the Global Ballistic Missile Defense System has gone from 
test-bed operations to a system configured to support continuous 
defensive operations. Whether a test bed with a residual operational 
capability, or an operational system that supports research and 
development activities, it is understood that our efforts and decisions 
must be entirely focused along two lines--operational capability and 
spiral development of the BMDS system. We balance both fielding of 
near-term and development of long-term capabilities to meet the 
evolving threat to the homeland. This balance cannot be achieved 
without comprehensive dialogue between MDA, the services, and the 
warfighters--dialogue that is ongoing today and dialogue that must 
continue in the future.
    We are continuing to expand the current ballistic missile defense 
operational configuration. This past year, the early warning radar at 
Fylingdales Royal Air Force Base was upgraded to perform the missile 
defense mission. This radar is a key element of the BMDS for providing 
the initial limited defense capabilities to counter the emerging 
ballistic missile threat from Southwest Asia. The radar will also 
continue to perform its traditional role as an early warning radar. The 
addition of this radar marks the beginning of the integration of BMDS 
capabilities across five Combatant Commands to counter simultaneous 
ballistic missile threats from two ends of the globe. We expect the 
warfighting capability provided by such integration of platforms, 
doctrine, and personnel to continue to grow in the coming years to 
address emerging threats.
Continued Warfighter Contributions to BMDS System Development
    As warfighters, we continue to participate in key BMDS tests to 
build confidence in the system's capabilities and provide input to 
future capabilities. For example, the 100th Missile Defense Brigade 
provided a trained and certified crew in support of a successful GMD 
flight test on September 28, 2007. Their support started with 
participation in pre-mission training conducted in both Huntsville, 
Alabama, and at their GMD Fire Control (GFC) consoles at the Missile 
Defense Element (MDE) at Schriever Air Force Base, Colorado. The crew 
provided critical expertise that enhanced system performance, assisting 
the engineers with validation of pre-mission parameters. These pre-
mission events culminated with the conduct of the flight test, where 
the crew provided the Human-In-Control actions necessary for a 
successful launch and intercept. The Brigade will also support the 
upcoming GMD flight test. For this flight test, the AN/TPY-2 Forward 
Based X-Band and Sea Based X-band (SBX) radars will be integrated into 
the GMD system to validate their operational utility and to provide 
data for anchoring our modeling and simulation efforts.
    Since last year's testimony to this Committee, we successfully 
intercepted ballistic missiles at low and high altitudes; in midcourse 
and terminal phases; and in endo- and exo-atmospheric environments with 
our long-range ground-based interceptor, the Terminal High Altitude 
Area Defense (THAAD), and several AEGIS Standard Missile-3s (SM-3s). We 
supported an International BMD Partner with a successful exo-
atmospheric intercept from a Japanese Maritime Self Defense Force 
Destroyer. Conducting these system-level flight and ground tests 
required the use of operational assets, the same assets that would be 
used to defend this Nation and our allies against a possible rogue 
state missile attack. JFCC-IMD worked closely with the Combatant 
Commanders and MDA to coordinate the availability of these assets to 
ensure sustained operational readiness during the conduct of the 
system-level tests.
    The JFCC-IMD was able to balance the requirements of both 
operations and tests. This period of robust achievements underscored 
the warfighter's requirement to expedite development and deployment of 
a concurrent testing, training, and operations (CTTO) capability. We 
have made strides but we still have a ways to go. CTTO will permit 
developers and operators to maintain an operational capability of the 
BMDS while simultaneously developing, testing, or training on the 
system. Absent a mature CTTO capability, JFCC-IMD aggressively conducts 
an asset management process to ensure the highest level of operational 
readiness during the conduct of materiel development and tests.
Continued Advancements in System Capability
    JFCC-IMD, in partnership with MDA and the services, has integrated 
additional missile defense sensors and shooters to enhance theater and 
strategic mission capabilities. We have institutionalized the 
Operational Readiness and Acceptance (OR&A) process to deliberately 
activate capabilities by baselining the known capabilities and 
limitations. Through this process, activation criteria, which are 
critical to establishing and maintaining capabilities, are clearly 
defined to ensure sustainable systems are provided to the warfighter.
    We continue to refine our processes to ensure the warfighters' 
desired operational capabilities are considered by the materiel 
developer. Since I last appeared, the Warfighter Involvement Process, 
known as the WIP, has matured significantly. Warfighter inputs and 
subsequent changes to the overall BMD system of systems started slowly 
but are steadily increasing in effectiveness. After 2 years of operator 
generated input, we are now seeing changes incorporated in the BMDS. 
More significantly, capability requests are being reflected in 
USSTRATCOM's Prioritized Capability List submissions and in MDA's 
corresponding Achievable Capabilities List.
    A success story in the WIP process is our partnership with MDA, the 
services, and the Combatant Commanders in the expansion of the BMD 
capability into the European theater. In my role as the JFCC-IMD 
Commander, I have held discussions with the European Command to build 
stronger partnerships with our Allies should our Government conclude 
agreements for hosting a midcourse radar and interceptor site in 
Europe. If approved, the expansion of the BMDS into Europe will greatly 
increase the security of the United States as well as provide a measure 
of protection to our forward deployed forces and European allies that 
currently does not exist.
    Looking forward, we are engaged with the Department to balance the 
missile defense portfolio to ensure we are addressing both the threats 
of today and tomorrow. With more than 20 countries, several of which 
have an adversarial relationship with the United States, now possessing 
ballistic missile capability and technology, the threat to the United 
States and our allies is growing. The missile defense investment 
portfolio must address the warfighter needs for the near-term threats 
from these countries while developing new technologies to deter 
potential adversaries from their continued investment in ballistic 
missile technologies.
    To guide the planning of a near-term and long-term investment 
portfolio, the Department is conducting a number of studies, including 
the latest iteration of the Joint Capability Mix (JCM) Study. The 
intent of the JCM II Study was to explore and assess aggregate BMDS 
capabilities and provide analysis in support of determining the 
appropriate BMDS weapon and sensor mix to address the ballistic missile 
threat for two near simultaneous major combat operations in the 2015 
timeframe. The results of the recently completed study indicate a 
future need for additional THAAD and SM-3 inventory. With the 
warfighter analysis, MDA is seeking to identify and allocate sufficient 
resources to address the requirement during the upcoming Program 
Objective Memorandum cycle. In addition to the JCM effort, JFCC-IMD is 
also coordinating an employment strategy of the AN/TPY-2 (aka Forward 
Based X-Band Radar) to enhance global and regional missile defense 
capabilities. This employment strategy considers various aspects of 
military utility and geopolitical concerns to inform leadership toward 
a decision. Other efforts that impact force structure and inventory 
requirements include various wargames and exercises to define the 
future operational concepts, including wargames with our allies.
Taking Care of our Warfighters
    If we receive approval to proceed with a European capability, we 
need to ensure we provide quality facilities and services to our 
soldiers. If built, the European capability will most certainly be an 
enduring mission. The mission support infrastructure (barracks and 
morale and welfare facilities) is just as important to mission success 
as the hardware the soldiers will operate. We believe that the mission 
support facilities ``outside the wire'' are an integral part of the 
overall system. The investment in mission support infrastructure 
contributes immensely to the overall reliability of the system and the 
cost represents a very low percentage of the overall system 
construction and fielding cost.
    We should continue to work to improve the quality of life at our 
missile defense garrison at Fort Greely, Alaska. Soldiers in the 49th 
Missile Defense Battalion of the Alaska Army National Guard continue to 
defend the United States from ballistic missile attack from the 
remoteness of Fort Greely, Alaska. They continue to do so in an 
outstanding manner, without complaint, in an environment with 
infrastructure that does not meet current standards. While the Army is 
taking proactive steps to improve the quality of life at Fort Greely, 
the isolation of this remote location cannot be overstated. On the 
positive front, the Army recently awarded a contract to privatize the 
family housing at Fort Greely--soldiers and their families should start 
to realize significant housing improvements in the near future. Also, 
the Army is currently planning to replace an existing substandard fire 
station with one that will provide adequate coverage for Fort Greely's 
population and infrastructure. Challenges still remain as there is very 
limited support in the local community with respect to medical and 
dental care, special education needs, higher education opportunities, 
restaurant establishments, and other services that the vast majority of 
us take for granted. For example, the nearest medical specialist is 
over 2 hours away. This is very problematic, especially when one 
considers the extreme weather during the winter months. Our soldiers 
and their families deserve more--we need to provide the adequate 
facilities and the services they need. The Army will continue to 
address these challenges to ensure better living conditions are 
realized for our soldiers and their families.
                   army infrastructure contributions
    The Army also provides key test range assets for BMDS research and 
development. In addition to providing other vital Department 
capabilities, these unique facilities continue to serve as key BMDS 
system enhancers for MDA. The United States Army Kwajalein Atoll/Reagan 
Test Site (USAKA/RTS) in the Republic of the Marshall Islands has been 
instrumental in the development and testing of the GMD system. USAKA/
RTS will continue to serve as a significant test bed for future BMDS 
technology development. Also, within the BMDS arena, the High Energy 
Laser Systems Test Facility on White Sands Missile Range, New Mexico, 
is serving as a key lethality test bed for MDA's Airborne Laser 
Program. We ask for your continued support to ensure these vital 
testing ranges are postured to perform necessary BMDS testing.
   air and missile defense--an overview of the fiscal year 2009 army 
                           budget submission
    In addition to deploying the BMDS, MDA, the services, and the 
Combatant Commanders continue to focus on improving theater air and 
missile defense capabilities. GMD and Theater Air and Missile Defense 
Systems are vital for the protection of our homeland, deployed forces, 
friends, and allies. Air and missile defense is a key component in 
support of the Army's core competency of providing relevant and ready 
land power to Combatant Commanders.
    As the Secretary and Chief of Staff of the Army have previously 
testified, the Army is stretched after years of operating at war. To 
relieve the stress on the force, the Army is embarking on a path to 
restore balance. The Army's plan centers on four imperatives--sustain, 
prepare, reset and transform. As we have seen with other Army combat 
capabilities, the requirement for air and missile defense units 
continues to grow, stretching the force. Operation Iraqi Freedom 
consumes significant quantities of our key missile defense 
capabilities, leaving other worldwide commitments under-resourced.
    Already well underway, the Army has created composite air and 
missile defense battalions to transform the Air Defense Artillery into 
a more responsive and agile organization. These battalions address 
capability gaps, permitting us to defeat cruise missiles and unmanned 
aerial vehicles while maintaining our ability to defend critical assets 
from the ballistic missile threat. Composite air and missile defense 
battalions will capitalize on the synergies of two previously separate 
disciplines--short-range air and missile defense and high-to-medium 
altitude air and missile defense. Additionally, the Army has pooled air 
defense artillery battalions at the theater-level to provide air and 
missile defense protection based on the situation and mission 
requirements. This pooling concept supports the Army's effort to move 
to modular designs that allow force tailoring of units better sized to 
meet the Combatant Commander's needs.
    With that as a brief background, let me now focus on the Army's 
fiscal year 2009 budget submission for air and missile defense systems. 
The recently submitted President's Budget includes approximately $2.23 
billion with which the Army proposes to execute current Army air and 
missile defense responsibilities and focus on future development and 
enhancements of both terminal phase and short-range air and missile 
defense systems. In short, the Army is continuing major efforts to 
improve the ability to provide warning, acquire, track, intercept, and 
destroy theater air and missile threats.
Army Integrated Air and Missile Defense (IAMD) System of Systems (SoS)
    In order to enhance its ability to destroy theater air and missile 
threats, the Army is continuing to transform its air and missile 
defense force from its traditional system-centric architecture to an 
integrated, component-based, IAMD SoS. The Army IAMD SoS Program 
provides full, network-centric, plug-and-flight integration of existing 
and future air and missile defense systems and enables their full 
technical, functional, and procedural integration into the Joint IAMD 
arena. This modularization of air and missile defense capabilities will 
allow Joint Force Commanders to scale and tailor air and missile 
defense components functioning interdependently to deliver operational 
capabilities not achievable by the individual elements of the system. 
Given the diversified air and missile threat set and the limited 
resources to address the threat, development of IAMD SoS is the Army's 
top air and missile defense priority.
    In addition to the IAMD SoS interdependent capabilities, the Army's 
air defense community has initiated plans to meet the future challenges 
and demands, taking steps to sustain, prepare, reset, and transform our 
forces and equipment. These plans entail three main component areas of 
the Army's air and missile defense construct--terminal phase ballistic 
missile defense, cruise missile defense, and force protection.
Terminal Phase Ballistic Missile Defenses
    The PATRIOT/Medium Extended Air Defense System (MEADS) capability 
is designed to counter theater ballistic missile threats in their 
terminal phase in addition to cruise missiles and other air-breathing 
threats. Combining these systems with the soon to be deployed Terminal 
High Attitude Area Defense (THAAD) system brings an unprecedented level 
of protection against missile attacks to deployed U.S. forces, friends, 
and allies well into the future.
PATRIOT/PATRIOT Advanced Capability-3 (PAC 3) Overview
    PATRIOT is the world's only battle-proven theater AMD system and 
will be a key AMD element for the next two decades, providing Combatant 
Commanders with modular, scalable, mission-tailored capabilities to 
greatly enhance operational force protection in support of the Joint 
team. The PATRIOT is the Nation's only deployed, land-based, short-to-
medium range BMDS capability.
    The Army recognized that the PATRIOT force was heavily stressed and 
therefore developed a strategy to Grow-the-Force through a combination 
of pure-fleeting the existing PATRIOT force to PAC-3 capability and 
standing up two additional PAC-3 battalions. This strategy will 
increase our capacity to handle today's threat and alleviate logistical 
and training challenges of maintaining two separate PATRIOT 
configurations. Pure-fleeting of the PATRIOT force with PAC-3 will 
allow for improved capability and higher lethality against the Theater 
Ballistic Missile (TBM) and non-TBM threat as well as enable 
commonality across all Doctrine, Organization, Training, Materiel, 
Leadership and Education, Personnel and Facilities (known as DOTMLPF) 
domains in the PATRIOT force. Also, the additional two battalions of 
PATRIOT PAC-3 capability will meet the growing demands of the Combatant 
Commanders to provide global AMD against the entire threat set. Fiscal 
year 2007 reprogramming actions and fiscal year 2008 funding initiated 
this strategy--funding in the amount of $492.8 million in the fiscal 
year 2009 budget request will complete these initiatives and continue 
PATRIOT modifications.
    Last year, my statement addressed the ongoing PATRIOT fixes to 
operational deficiencies that were deemed necessary as a result of 
friendly fire incidents. The Army has taken steps to address lessons 
learned and correct the deficiencies. Based on the current fielding 
schedule, all Operation Iraqi Freedom fixes will be completed during 
fiscal year 2009.
Medium Extended Air Defense System (MEADS) Overview
    A top Army priority system for defense against short- and medium-
range tactical ballistic missiles and air breathing threats, the MEADS 
system will be an integral part of the Army Integrated AMD System of 
Systems and capable of operating within a Joint and coalition 
operational environment. The system will provide wide-area protection 
at strategic, operational, and tactical levels.
    MEADS, a cooperative development program with Germany and Italy, 
will provide a lighter, more deployable, maneuverable, lethal, network-
centric AMD capability. The program also includes development of the 
PAC-3 Missile Segment Enhancement (MSE) as the objective tri-national 
MEADS missile. The PAC-3 MSE is currently under development and will be 
integrated into the MEADS program. The MSE missile will provide a more 
agile and lethal interceptor that expands the engagement envelope of 
this system. The fiscal year 2009 budget request includes funding for 
MSE initial production facilities--production of the MSE is scheduled 
to begin in 2010. Fielding of MEADS is scheduled to begin in 2015 and 
be completed by 2028. We are confident that this path will provide our 
forces, allies, friends, and our Nation with the most capable air and 
missile defense system possible.
Terminal High Attitude Area Defense System Overview (THAAD) Overview
    The Department of Defense is committed to fielding an advanced 
capability to defend against tactical ballistic missiles as soon as 
possible. THAAD is designed to provide a layered theater ballistic 
missile defense in support of the short and medium range ballistic 
missile threat. MDA is funding and manufacturing four THAAD batteries 
for the Army in an accelerated fielding that will commence in 2009. 
THAAD capabilities will begin to transfer to the Army in 2009. 
Synchronization between the Army and MDA is crucial in both the 
development and funding areas in order to ensure that the transition 
delivers a supportable warfighting system.
    To fully optimize the performance of the PATRIOT, MEADS, and THAAD 
defense systems, effective personnel training and development is 
essential. The United States Army Fires Center of Excellence at Fort 
Sill, Oklahoma, will provide our Nation with the best trained, 
organized, and equipped Air Defense Artillery leaders and units in 
response to current operational needs and future force warfighting 
concepts.
Joint Tactical Ground Station (JTAGS)
    JTAGS is a transportable information processing system that 
receives and processes in-theater, direct down-linked data from Defense 
Support Program satellites. JTAGS provides our commanders with early 
warning of ballistic missile attack and essential information to defeat 
TBMs. The system disseminates warning, alerting, and cueing information 
on TBMs, and other tactical events of interest throughout the theater 
using existing communications networks. JTAGS determines the TBM source 
by identifying missile launch point and time and provides an estimation 
of impact point and time. Since the system is located in-theater, it 
reduces the possibility of single-point-failure in long-haul 
communication systems and is responsive to the theater commander. JTAGS 
also fulfills the in-theater role of USSTRATCOM's Theater Event System 
(TES). It is imperative that JTAGS be funded to integrate and evolve to 
use the next generation of Space Based Infrared System sensors. This 
will significantly enhance warning accuracy and timeliness while 
improving all aspects of theater missile defense. We request your 
continued support of this essential capability.
Cruise Missile Defense
    Our adversaries understand the value of cruise missiles. They are 
inherently very difficult targets to detect, engage, and destroy, and 
when armed with a weapon of mass destruction warhead, the effects from 
a cruise missile are catastrophic. The Army's Cruise Missile Defense 
Program is an integral element of the Joint cruise missile defense 
architecture. We are also working closely with the Joint community to 
assure development of doctrine that synchronizes our military's full 
capabilities against the cruise missile threat. Critical Army 
components of the Joint cruise missile defense architecture are 
provided by the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System (JLENS), the Surface-Launched Advanced Medium 
Range Air-to-Air Missile (SLAMRAAM), and the PATRIOT MSE missile. These 
systems are on schedule to provide an initial operational capability by 
2012. Additionally, these systems will be networked within the IAMD SoS 
architecture, have an integrated fire control capability and operate 
within a common command and control system. Initial operational 
capability is planned for 2014.
Force Protection
    In the conduct of Operation Iraqi Freedom, insurgents continue to 
pose serious dangers by employing indirect-fire tactics of quick-
attack, low-trajectory, urban-terrain-masked rocket, artillery, and 
mortar (RAM) strikes against U.S. forward operating bases in Iraq. To 
combat this threat, the Army developed a Counter-Rocket, Artillery, 
Mortar (C-RAM) capability--an integrated set of capabilities to provide 
warning and intercept of RAM threats. The primary mission of the C-RAM 
project is to develop, procure, field, and maintain a capability that 
can detect RAM launches; warn the defended area with sufficient time 
for personnel to take cover; intercept rounds in flight, thus 
preventing damage to ground forces or facilities; and enhance response 
to and defeat of enemy forces. C-RAM utilizes a system of systems 
approach and is comprised of a combination of multi-service fielded and 
non-developmental item sensors, command and control elements, and a 
modified U.S. Navy intercept system. The system utilizes a low cost 
commercial off-the-shelf warning system and a wireless local area 
network. Advances in the C-RAM capability will continue with funding 
that is requested in the fiscal year 2009 budget submit.
    Efforts are also underway to use the benefits of directed energy to 
potentially counter the RAM threat. Developmental work by joint 
entities within the Department is producing results that are promising. 
Within the next few years, through the Army's High Energy Laser 
Technology Demonstration Program, we are very hopeful we will produce a 
mobile solid state laser weapon system that will serve as a 
complementary resource to the present and future kinetic energy 
capability in countering RAM projectiles. Your continued support in 
this area will ensure we advance indirect fire protection capabilities.
                               conclusion
    Mr. Chairman, the Army is a member of the Joint team fighting an 
adaptive enemy in a persistent conflict while transforming to meet 
future threats. We have responsibility for GMD, THAAD, PATRIOT, and 
MEADS and will continue developing and fielding an integrated missile 
defense for our Nation, deployed forces, friends, and allies. 
USSTRATCOM, through the JFCC-IMD, will continue to develop a Joint BMDS 
capability to protect our Nation, deployed forces, friends, and allies. 
The fiscal year 2009 budget proposal supports the transformation of the 
Army's air, space, and missile defense force to support the Army's 
future force, the Joint Integrated AMD System, and our global BMDS. We 
will continue to work with MDA, the services, and Component Commanders 
to define the characteristics of the emerging air, space, and missile 
defense force and determine how it can best support the warfighter and 
our Nation.
    I appreciate having the opportunity to speak on these important 
matters and look forward to addressing any questions you or the other 
Committee members may have.

    Senator Inouye. I'd like to now recognize for questioning 
our in-house expert on missiles, Senator Stevens.
    Senator Stevens. You're very gracious. Thank you very much, 
Mr. Chairman.
    General Campbell, you've been up to Fort Greely several 
times and we've got the Alaska Guard taking over additional 
roles there on that site.
    Are you satisfied with the progress that's being made, and 
can you tell us, do you have any change in plans in mind?
    General Campbell. Senator Stevens, I'm satisfied that we're 
moving in the right direction in terms of progress.
    The missile defense system itself is a great system, a lot 
of significant investment has been put into the missile system, 
and I pay a lot of attention to the mission support 
infrastructure; that is, Fort Greely itself, it supports our 
soldiers.
    With your help, we've made some significant improvements 
but there's still more to be made in the future to support the 
spouses and the children that are at Fort Greely, but I'm 
satisfied that we're moving in the right direction.
    Senator Stevens. Well, I'm worried about this new paradigm 
on earmarks, General. We've got a situation and Fort Greely was 
subject to base realignment and closure (BRAC), and then we 
decided to put the missile defense system right adjacent to it 
and now we have the Guard and their families living at the old 
Fort Greely, but that has not really been upgraded to meet the 
situation of a permanent facility for those people.
    Are you going to be able to make a request through the 
budget process to get that or are we going to be forced to have 
an earmark again?
    General Campbell. Well, I think it may be a mixture of 
both, but we have programs already in place. For example, on 
the mission support side, recently it was approved that we'll 
go ahead and privatize all the housing at Fort Greely, along 
with Fort Wainwright. So that is a major step forward, sir, 
that solves one of the most pressing problems at Fort Greely.
    The Installation Management Command is also helping us with 
the community activities center that they're going to build for 
us over the next couple years.
    So I think we have the major programs in place. I'm not 
saying we don't need additional help, but we're pushing on the 
right programs to get them into the budget so Fort Greely can 
be modernized.
    Senator Stevens. Well, I'm worried about the adequacy of 
medical facilities not only for the eventuality of any kind of 
emergency there but also for family medical care. That clinic 
has really, you know, never been upgraded.
    Are you looking into that?
    General Campbell. Yes, sir, we are. In fact, my chief of 
staff just returned Friday night. We had the medical command 
with us in Alaska. In fact, Lieutenant General Eric Schoomaker 
will visit next month. They have already initiated a contract 
to actually improve the Delta Junction Family Medical Clinic 
which our spouses and children will be able to use. So that's 
an initial step which will put new equipment into his facility. 
We'll be able to conduct telemedicine out of his facility.
    And the Fort Wainwright medical commander also sends a 
physician to Fort Greely once a month. It's a different type of 
specialist, based on the needs. So we're making progress. I 
don't think we're at the end state yet, but we've made the 
right moves immediately to solve some of that pressure on the 
families.

               EUROPEAN MISSILE DEFENSE SITE NEGOTIATIONS

    Senator Stevens. General, we've got in this request, I 
understand, $712 million to develop the area for 10 ground-
based interceptors in Slupsk, Poland, and a missile tracking 
radar in the Czech Republic.
    Can you tell us how are those negotiations going on? Will 
you be able to spend that money this year, fiscal 2009?
    General Obering. Yes, sir. First of all, the negotiations 
with the Czech Republic have basically come to a conclusion and 
we do expect an agreement to be signed in the very near future 
with the Czech Government and then that will go into their 
parliamentary ratification process.
    When the Polish Government changed out several months ago, 
there was a pause in the discussions with the Poles as the new 
government basically got in place. We resumed negotiations with 
the Poles. That's been lagging behind the progress that we made 
with the Czechs, but I believe that at this point, I'm still 
optimistic that we will get an agreement that we can work 
through by the end of this year and then that will set us up to 
where in 2009, we're able to go through all of the contractor 
selections and that type of thing to begin the construction in 
late 2009 for the missile field and for the radar site.

                     EUROPEAN MISSILE DEFENSE SITE

    Included in the $712 million, just to make sure that we're 
encompassing, is the request for the money for the radar site, 
the money for the interceptor site, as well as the long lead 
that we would need for a portable radar that is part of this 
overall construct.
    Senator Stevens. Will that new site provide any protection 
for the United States from Poland?
    General Obering. Yes, sir, it will. The reason that we 
selected Poland and the Czech Republic as the primary midcourse 
radar and the interceptor sites was very simple. We looked at 
all the trajectories from Iran, all the launch points and all 
the possible impact points in Europe and in the United States 
that forms a trajectory of fans, a fan trajectory, and in order 
to cover those, Poland the Czech Republic provided the optimum 
solution for that coverage.
    In addition, you have to worry about being too close or 
being too far back. If you're too close to the launch point, 
since we don't have a boost phase capability today, then you 
would not be able to engage all of the threats that we would 
need to, and also if you're too far back, you begin to roll 
back the coverage that you need for some nations that could be 
put at risk from a longer-range threat.
    So the range considerations as well as the azimuth is why 
we selected Poland and the Czech Republic. That means we can 
engage threats from Iran to Europe obviously as well as from 
Iran into the United States.
    Senator Stevens. Well, Mr. Chairman, I think we ought to 
have a classified briefing on that in terms of the interface of 
that system with our side. I don't think many Members of 
Congress realize that there is that collateral benefit for this 
location and it's something we should maybe even take a group 
over to look at and understand.

                             AIRBORNE LASER

    My last question would be about the airborne laser. We have 
had, you know, total confidence in that system and it seems to 
be on track, but are you going to be able to demonstrate that 
system soon and how soon?
    General Obering. Sir, the airborne laser has met all of its 
knowledge points to date and the tremendous success last year, 
was that we demonstrated the capability that we need to shoot 
down a ballistic missile.
    Now that means that we were able to fire the high-energy 
laser for a total of over 70 times in a 747 fuselage at Edwards 
Air Force Base. In parallel, we took the heavily modified 747 
that also has a tracking laser and an atmospheric compensation 
laser on board, along with a surrogate of that high-energy 
laser. We fired the tracking laser, and the atmospheric 
compensation laser last year and the surrogate and we were able 
to track a target in the atmosphere, a boosting fighter as well 
as the big crow target that we used to emulate an early version 
of a target of a boosting missile.
    We achieved all of those knowledge points, as I said, which 
means that today the aircraft is down on the ground. We have it 
opened up. We have installed all six of the large laser modules 
onboard the aircraft now. We're in the process of finishing up 
the installation, the plumbing and all of that. We're doing 
some refurbishment on the optical train and making some 
adjustments that we learned from our testing and then we plan 
to get back in the air early next year and shoot down, about 
midyear, a boosting missile.
    Senator Stevens. And when will that have emergency boost 
phase capability?
    General Obering. Well, sir, the aircraft itself, in an 
absolute emergency, could provide that, we would be 
demonstrating that next year. But then what we would anticipate 
is that we're going to take all of our lessons learned and put 
that into a transition period, continue to fly the aircraft and 
continue to learn from it and then determine how we can make 
the second and third and fourth aircraft affordable and as 
operationally affordable as we can make it.
    Senator Stevens. Thank you very much. I'll have some 
additional questions I'll submit for the record, Mr. Chairman.
    Senator Inouye. Senator Cochran.

                  MISSILE DEFENSE SYSTEM CAPABILITIES

    Senator Cochran. Mr. Chairman, we understand that there are 
critics of our missile defense efforts. Some say it costs way 
too much, more than is necessary to spend, that the systems 
we're deploying or developing are vulnerable to decoys and 
other interference that would cause them to not work properly, 
and that it really spurs an international missile race and 
missile defense race, provoking other nation states to try to 
deal with the reality of threats that they may face.
    I know that there's always going to be somebody, a 
naysayer, with criticism. From the very beginning, missile 
defense has been controversial in that regard because there's 
always more than one witness available to testify at hearings 
and cast doubt upon our capabilities.
    But it seems to me that this recent experience we just had 
and the video you showed us is very strong and compelling 
evidence that we have developed a sophisticated and capable 
system to defeat missile attacks, even though that wasn't what 
we were trying to defeat then, but it's very clear it was quite 
similar.
    Is it an overstatement or an exaggeration to say that this 
is good solid evidence of the capability of missile defense 
systems that we are now developing and deploying?
    General Obering. Sir, I would tell you that I'm confident 
in the capabilities of the systems that we've deployed to 
address the threats that we anticipate we would face.
    I will tell you that what most of the critics ignore, 
frankly, if I could zero in on a couple of things, number one, 
they ignore the fact that we are building an integrated layered 
system. They overlook that and so there are a lot of facets to 
this that allow us to handle increasing complexity as we move 
to the future.
    For example, when you often talk about can you handle 
decoys or countermeasures, and I tried to point out in the 
video that we have an inherent ability on the kill vehicle 
itself, just by itself, to handle what we call simple 
countermeasures, and in fact we have flown against simple 
countermeasures in our past test program with a prototype of 
that kill vehicle.
    But they ignore the other components that we're bringing 
into this fight, the very powerful X-band radars, similar to 
what we have now in test off the coast of Hawaii, the sea-based 
X-band radar. They ignore the forward-deployed X-band radar, 
like we have in Japan. They ignore the combination of sensors 
that we can bring to bear with all the advanced algorithms to 
help us sort through what those threats would be.
    And then for the future, we are bringing two other critical 
components. One is to be able to track these threats from the 
very birth to their intercept and that's what we want to use 
with our space tracking and surveillance system that we plan to 
launch with two different satellites this year, and the second 
critical component is once we sort through these threat sweeps 
to be able to kill more than one object and we do that with our 
multiple kill vehicle program.
    So when you take that in combination, it is, I think, 
prudent to think that we can keep up with the emerging threats 
that we may face for the future.
    In terms of costs, if I could, and you've probably heard me 
say this, it is expensive, but it is certainly not as expensive 
as withstanding an impact of a weapon of mass destruction on an 
American city or one of our allied cities. That would be far 
more expensive and far more tragic and far more devastating.
    So if we can prevent just one of those, we will have paid 
for this program many, many times over for every penny that's 
been appropriated for it, and it's even better than insurance 
because it actually prevents the event from occurring as 
opposed to being reimbursed for it.
    And finally, in international, there is already a missile 
race, so to speak. That's for offensive missiles. We've seen 
that spreading across the world for these past several years 
and decades, and it's gotten to the point now where access is 
getting easier and easier to these missiles.
    Frankly, I would like to see a missile defense race because 
what I'd like to see us do is join together between United 
States, NATO, Russia and others to field effective missile 
defenses because I think that would have an effect on the 
proliferation of the offensive missiles, because I think one of 
the reasons they've been so proliferated is--historically 
there's been no defense against them.
    If we can show there is a defense against them, that we can 
destroy them, it may make countries think twice about heavily 
investing in those systems.

                        MISSILE DEFENSE AND NATO

    Senator Cochran. One concern is whether or not our NATO 
allies are cooperating and helping as part of our agreement for 
joint defense activities, whether they're doing enough.
    I'm aware of the fact that we're trying to deploy a radar 
system and I think the discussions are ongoing with the Czech 
Republic and others on that subject.
    What is the level of cooperation and support that we have 
among our NATO and other allies?
    General Obering. Well, sir, just recently, there's been a 
couple of significant major milestones.
    Number one, the most important probably is that at the 
recent NATO Summit in Bucharest, there was a communique that 
was signed by all NATO members that strongly endorsed the idea, 
the concept that there is an emerging missile threat that we 
have to concern ourselves with; second, that the United States 
proposals bring merit and are valid and useful in addressing 
that threat; and third, they tasked their own NATO members to 
come back with options as to how they build shorter-range 
defenses to integrate with the longer-range capabilities that 
we're proposing.
    Now NATO has what they call an active layer theater missile 
defense program, they've had for several years, in which 
they're building the backbone of the command and control 
network that would then integrate the various member nations' 
components and several of the member nations are pursuing 
missile defense efforts from Patriot PAC-3 to sea-based to 
different sensors and other capabilities.
    If they're doing enough, that's not my call in terms of the 
policy determination, but they certainly are stepping up to the 
plate, based on the recent developments, and the last thing I 
want to tell you very quickly is in January, we did a 
demonstration of taking U.S. information from our command and 
control and battle management system and running that on the 
NATO system, the NATO command and control system for missile 
defense and we did vice versa.
    We took NATO data and ran that on the U.S. system and we 
showed how we can begin to integrate these capabilities to form 
basically a regional architecture in that theater.
    Senator Cochran. Thank you very much. Thanks, Mr. Chairman.
    Senator Inouye. Senator Shelby.

                       KINETIC ENERGY INTERCEPTOR

    Senator Shelby. Thank you, Mr. Chairman. General Obering, 
the kinetic energy interceptor (KEI) received a funding boost 
in 2008 with Congress, I thought, demonstrating that this 
program should move forward.
    What steps are you taking to ensure that the KEI is 
restored to a fully mobile weapon system, and do you have 
adequate resources to achieve this?
    General Obering. Well, sir, first of all, yes, sir, the 
Congress did appropriate and plussed-up the KEI Program. We 
view that as a very, very critical and valuable program to the 
overall portfolio. Not only does it serve as an alternative if 
the airborne laser trips up in its technical risk, but it also 
provides an option for a mobile midcourse capability.
    Now, just like all of our programs, though, we hold them to 
our knowledge points that they have to meet. What they have to 
specifically meet is a very high acceleration booster flight in 
2009 because that is the critical component of what they bring 
to the table.
    Senator Shelby. They have to perform, in other words?
    General Obering. Yes, sir, they have to perform, and so we 
are measuring that program's progress in being able to achieve 
that.
    Now this year, there's a couple of setbacks; while we had 
successful static fires in the past, we were going to an 
optimized design for flight, and we had a couple setbacks in 
the second stage static fire. We had burn-throughs in the 
nozzle. We think that we do have root cause for that, what 
occurred and why, and the folks are working to correct that.
    Senator Shelby. Think you can fix that?
    General Obering. Yes, sir, and that should put us or keep 
us on track for that flight in 2009. I've already given them 
the direction to begin to expand their system engineering work 
and they're to begin that ramp-up in anticipation of that 
success, but we are going to still hold them to that knowledge 
point.

                       ADVANCED HYPERSONIC WEAPON

    Senator Shelby. Sure. General Campbell, advanced hypersonic 
weapon (AHW). Last year Congress appropriated, I believe, $41.7 
million for the advanced hypersonic weapon. Shouldn't AHW, the 
advanced hypersonic weapon, continue to be included as part of 
the prompt global strike (PGS) initiative? In addition to 
working with the Air Force, what is the Army and the Space and 
Missile Defense Command (SMDC) doing to ensure that the 
advanced hypersonic weapon continues to receive congressional 
backing? In other words, where are you on this?
    General Campbell. Yes, sir. We're working closely with U.S. 
Strategic Command and General Chilton and the U.S. Air Force's 
Space and Missile Center. We're trying to reach agreement, 
particularly with the Air Force, where the technologies we're 
working on AHW, would be used in their particular program. 
Their PGS, their Precision----
    Senator Shelby. How do you feel about that? Is that good?
    General Campbell. I feel that's very good, and I think 
there's technologies there that are valuable in the development 
of their system. So that's the path we've taken with General 
Chilton and the Air Force, is to contribute to the development 
of their particular program.
    Senator Shelby. Do you think that weapon system is very 
important then?
    General Campbell. I think that the technologies are going 
to be very important for a prompt global strike weapon system 
in the future.
    Senator Shelby. General Obering, the Missile Defense Agency 
Engineering and Support Services (MiDAESS)--is that what we 
call it--contract, the MDA Engineering Services, I think, is 
very important.
    A number of small businesses have expressed concern that 
they were not being afforded the opportunity to compete for a 
lot of the technical work. I've mentioned this to you in our 
last meeting.
    What are you doing to ensure that small businesses will be 
able to compete for this work, and when do you expect a final 
RFP to be released? You're very familiar with this.
    General Obering. Oh, yes, sir. For context, the reason 
MiDAESS is so important is that as we move those nearly 2,300 
people from the Washington area into Huntsville, and as we 
consolidate and integrate more and more of our capabilities 
across the agency, it became obvious to us that we had an 
unnecessary overhead burden, so to speak, in contract 
management. We had many, many, many contracts of engineering 
and support services from a variety of locations that, when we 
consolidate, we can streamline and be able to eliminate some of 
that.
    We issued a draft request for proposals because we wanted 
industry engagement on that. We are--we want and encourage 
small business to participate in that and we will ensure that 
occurs, and I believe that after this next round of comments 
that we get from industry, we can anticipate the request for 
proposal (RFP) to be released in the next several months.
    Senator Shelby. Thank you. Thank you, Mr. Chairman.
    Senator Inouye. Senator Domenici.
    Senator Domenici. Thank you very much, Mr. Chairman. I 
wanted to tell you, I haven't publicly been able to 
congratulate you, and I do that today, on your recent marriage 
and I look forward to meeting your spouse. We're going to have 
her up here pretty soon, right?

                      AMERICAN TECHNICAL EXPERTISE

    Senator Inouye. I'll be having her here.
    Senator Domenici. We hope so. Thank you. Well, let me--I 
have a parochial question regarding the High-Energy Laser 
System Test Facility (HELSTF), but let me ask General Obering a 
general question regarding the status of the American economy 
and economic potential as it applies to your work.
    I'm involved right now in my waning months as a Senator in 
trying to finish up some of the things that we need to do to 
make sure that the nuclear powerplants and nuclear power gets 
really firmly placed and that we have a civilian waste disposal 
recycling program. You probably understand that because it's 
part of general science.
    But what we're finding as we get new proposals to build, 
there are seven full applications for nuclear powerplants and 
we had 27 years without any. We passed a new law with the help 
of everyone. I was chairman when we did it. A great law. That's 
what brought seven. It looks like we'll have 25 within a year--
new applications at the Nuclear Regulatory Commission.
    General, what they're finding as they look at the very 
first one and second one is that America has lost its manpower 
base and they can't find 2,600 workers, steelworkers and 
ironworkers, to go work on a powerplant, even at $40 an hour, 
which is what they're starting.
    The whole build-up of nuclear powerplants is now looking at 
the fact that American industry doesn't have the capability of 
providing the infrastructure that it used to. So we have to go 
overseas and wait in line and we don't have anybody that makes 
the steel things that we need, believe it or not. We used to be 
the giant and it looks like we're hurting.
    Now as the overseer of what you do for the Air Force and 
therefore for America in space, could you give us a quick 
assessment? Is there ample supply of--are there ample people 
qualified and trained to do the kind of sophisticated work that 
you're doing in behalf of the American people or are you 
finding it more difficult to find scientists, engineers and the 
like out of college and women and the like to join you? Could 
you address that for us, please?
    General Obering.  Yes, sir. First of all, what we have 
noticed is that do we have enough people to accomplish what we 
need to get accomplished, the answer is yes. However, is it an 
ongoing task to make sure that we are continuing to find 
trained people and that we are continuing to pass on, frankly, 
information from generations of my age or older to the younger 
generations and that's what's become problematic, is making 
sure that has been occurring because there was a period in 
which we lost the recipe in some of that transformation and 
we're beginning to see some of the--I think some of the 
initiatives that many companies have taken to try to readdress 
that.
    I'll give you a couple of examples. As you remember, we 
suffered from some mission assurance problems in late 2004/
early 2005 in our long-range program, and we discovered that 
the ability to bring to bear the adequate systems engineering 
resources to that problem was one of the contributing factors 
leading up to that.
    We made adjustments and Boeing made adjustments to be able 
to address that and they really imported some of the knowledge 
from some of the graybeards, so to speak, and some of the other 
areas of their particular company.

                       DIRECTED ENERGY AND LASERS

    There are areas that we're on the edge. I think the 
directed energy is one of them and being able to have and 
continue to concentrate enough talent to be able to keep that 
ongoing and that's why I think the airborne laser is also one 
of the reasons it's such an important program to focus their 
talents and their capabilities.
    Senator Domenici. What is directed energy? Tell me.
    General Obering. Directed energy is the use, for example, 
of lasers.
    Senator Domenici. Yes.
    General Obering. There's other applications, but that's the 
primary one that we use. Products----
    Senator Domenici. So you're not alone in using that. That's 
used--lasers are used by the Department of Energy in----

                        MISSILE DEFENSE PRODUCTS

    General Obering. Yes, sir. But the megawatt class that 
we're using and we're pushing the state of the art in terms of 
beam control, fire control, being able to control the jitter in 
these and the power itself.
    Senator Domenici. Okay.
    General Obering. Products, we have to concern ourselves in 
some areas. For example, batteries has always been a major 
concern. The thermal batteries and to get the battery 
efficiency that we need. We monitor that all the time, being 
able to address that in our industrial base.
    The thermal coatings and protections for our nozzles is 
another major problem in terms of rayon has always been the 
material of choice but we are running out of the supplies of 
rayon across not only the defense but the space industry as 
well and so we concern ourselves with how we address that.
    So we have--I have a group that's solely dedicated to 
monitoring the production and the industrial base for missile 
defense so that we can try to lead turn those problems and try 
to address those.

                        HIGH ENERGY LASER SYSTEM

    Senator Domenici. Thank you very much. Let me ask, General 
Campbell, with reference to High Energy Laser System Test 
Facility, HELSTF. On page 10 of your statement, I found it 
here, you mention that ``within the Ballistic Missile Defense 
System, BDMS, arena, the high-energy laser system on White 
Sands Missile Range is serving as a key lethality test bed for 
MDA airborne laser program.''
    Those are your words. What's the Army current 2009 spending 
plan for HELSTF, and, second, if HELSTF is conducting key 
tests, why have you proposed budget cuts of almost $13 million?
    General Campbell. Yes, sir. The budget for 2009 will look 
as the budget is in 2008. It was approximately $2.9 million.
    In our discussions that we had more than 1 month ago, sir, 
you know my sense of this, that it's an important national 
facility. The issue became affordability for us and having 
customers pay for some indirect costs.
    Since our meeting, I've worked with the Missile Defense 
Agency on specific tests and the Missile Defense Agency has 
invested some dollars into the continuation of HELSTF, and I've 
addressed this back with the testing personnel at OSD, that we 
have to take a relook at this for continuing that particular 
contract.
    But the bottom line, even if the contract were to go away, 
we want to preserve the facility. We'll have to mothball the 
MIRACL laser, but we see value as the solid state lasers come 
on to use that facility for the development of those tactical 
level systems.

                       MDA NEED FOR MIRACL LASER

    Senator Domenici. All right. General Obering, in your memo, 
you gave me a memo on March 5 related to MDA and using a mid-
infrared advanced chemical laser, MIRACL, at HELSTF for high-
energy laser testing for our airborne laser program.
    The Army's decision to close HELSTF adversely affects our 
ability to conduct testing that will ultimately increase 
program costs and risks.
    Can you elaborate on this need in this setting, and you 
also wrote of a potential requirement to use HELSTF in the 
fiscal year 2010? Would you please explain that?
    General Obering. Yes, sir. We really need to be able to use 
that MIRACL laser as part of a parallel testing effort to 
continually look at the effectiveness of what different modes 
of lethality that we can employ to understand the phenomenology 
of the interaction between the laser and various materials, 
that type of thing. That is the instant requirement and it is a 
program in the near term that we need to get wrapped up this 
year for our testing and I think we just released an additional 
$2 million, if I recall, to the facility.
    I'm to the point, sir, where I will fund that to get that 
testing done because it's that critical to us and so that is my 
intent for this year.
    As we look to the future, as General Campbell said, it 
would be nice to have that option available, should we have to 
revisit some of this testing and ongoing evaluations of 
lethality, and I think that's important.
    Senator Domenici. Should we consider transferring HELSTF to 
the Missile Defense Agency since it seems to me they're 
interested in all of HELSTF's capabilities?
    General Obering. Sir, I get accused of taking too much 
stuff under our wing enough, but it is part of a larger 
national range structure that General Campbell alluded to in 
his comments, and I'd like to be able to work with those folks 
to see if we can't do better in supporting that overall.
    Senator Domenici. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Inouye. Thank you, sir. General Campbell, I'm 
encouraged and impressed by the success of the Aegis Program.
    Assuming that the program continues to enjoy successes, 
when do you believe more interceptors will be deployed to aegis 
ships, and when will the program be turned over to the Navy?
    General Campbell. Let me first address the missiles and 
it's difficult for me to speak for the Navy when the aegis 
system itself is in the Navy today and Trey may be able to talk 
to that with a little more detail.
    But in terms of missiles, as you know, we completed a joint 
capabilities mix study recently and that study suggested that 
we should double the number of SM-3 missiles for our deployed 
forces.
    The Missile Defense Agency has taken that recommendation 
and they're now putting those numbers into the program 
objective memorandum (POM) so that we can purchase those 
missiles in the out-years. So I don't see it occurring over the 
next 2 or 3 or 4 years. That will be later in the POM period 
for doubling, nearly doubling the SM-3s.

                       MDA JOINT PROGRAMS--JAPAN

    Senator Inouye. General Obering, Japan is a significant 
partner in missile defense and we've been advised that they 
appropriated $6.7 billion since 2004 for these cooperative 
programs.
    Can you provide us with an update on the status of these 
joint programs and assure us that the agency's committed to 
full development of the standard missile block 2-A with the 
Japanese?
    General Obering. Absolutely, sir. They are among the 18 
nations that we have some type of relationship around the 
globe. They are clearly the most energetic and also the one 
nation that is bringing as much as they can to bear with 
respect to their own resources.
    We have a program in which we are developing and delivering 
the current version of the aegis missile, the block 1-A that we 
talk about, that's what was used in the recent test in December 
off the Hawaii coast, to be able to be deployed eventually on 
four Japanese ships. They are in the process also of procuring 
and have deployed the PAC-3 in their country.
    We have ongoing efforts with respect to the ability to 
share information between our systems and their systems by 
being able to connect our command and control systems so that 
we can provide, for example, radar data from the radar in 
Shariki to the Japanese systems and then vice versa some of 
their radar data. We'd like to have access to some of the 
radars they're developing around their nation.
    Of course, the cornerstone going into the future is this 
very solid cooperation between the Japanese and ourselves on 
the block 2-A. We've had a series of reviews this year on the 
U.S. side as well as on the Japanese side. We get together for 
the combined system review this year as well. So that program 
is well on its way. They have my commitment to be able to meet 
our schedule for that program, to be able to develop a unitary 
kill vehicle for what we call the block 2-A version, and so 
far, I think that we're doing very well.
    Now, there will be challenges because there's challenges 
with any major development program. You're going to have 
setbacks here and there. You're going to have unforeseen events 
that are going to happen as we go through this development, but 
I feel very strongly and I feel very good that we have good 
working relationships on both sides of the Pacific and good 
processes by which we can evaluate these trades as we move 
forward.

                   MDA TARGETS SHORTFALL AND FAILURES

    Senator Inouye. General Obering, the availability of 
targets seems to be the pacing element for missile defense 
tests. Take for example the THAAD Program. It slipped, I 
believe I've been told, by 6 months because of shortage of 
targets.
    What are you doing to respond to the target shortfalls?
    General Obering. Yes, sir. First of all, if I can again put 
this in perspective, in our 42 flight intercept tests that I 
referred to earlier since 2001, we've had target failures in 
two of those. One of those was a THAAD target. That was a HERA 
target that THAAD was to fly against. We also had two other 
target failures in what we call radar characterization flights.
    Now, it is not a substantial percentage but it is worrisome 
enough that I wanted to take a look to understand what was 
going on in the targets program, and we discovered several 
things.
    Number one, we discovered that we had management 
inexperience on the Government side and, frankly, we had 
inexperience on the contractor side. So we have since changed. 
We changed out the Government side, the contractor has changed 
out their side.
    In addition, we had a requirements process that was driving 
too much variability to go into a single target. So it was 
causing a swirl of requirements that was increasing costs and 
causing some of the schedule delays.
    We have since imposed a much more disciplined and rigorous 
requirements process between our engineering and our element 
program folks and the targets folks and so I believe that with 
these steps that we've taken that will address the issue that 
you referred to.
    The THAAD Program, along with the aegis and GMD, they 
always are a challenge with respect to the cost growth, things 
that we are asking them to do, in addition to what they had 
baselined or cost growth that they get from within their 
program, and all of that for the THAAD Program also went into 
that delay in terms of the flight tests.
    But I feel pretty good that we have this now back in hand 
and with your help, and we may need some help, by the way, sir, 
in 2009 with respect to the monies, additional monies that we 
may want for targets, I think we'll be back on track.

                             AIRBORNE LASER

    Senator Inouye. If I may ask a question, General Campbell, 
on the airborne laser program.
    How is this program going to be used in warfare, and how 
many platforms would you require to perform this mission, and 
do you have any idea as to the cost of developing and fielding 
these systems?
    General Campbell. To the developmental costs and the 
fielding, I leave that to General Obering, but some of the 
initial work that I've seen from the Missile Defense Agency, if 
you look at maintaining it in orbit, say, to protect from a 
North Korea shot, you're going to have multiple aircraft to 
maintain one orbit.
    Now I don't know what it costs to maintain one orbit over 
time. It's threat-dependent as to how long it would have to 
have these aircraft in the air.
    In terms of operationally how we would employ them, right 
now we would see them being under the control of a regional 
commander working back with Strategic Command and Northern 
Command in support of the continental United States, but in 
terms of overall costs or operationally, I don't know what the 
cost is per hour at this point to keep one orbit, but it is 
multiple aircraft to just maintain an orbit.
    Senator Inouye. One--multiple aircraft for one?
    General Campbell. Multiple aircraft to maintain an orbit.
    General Obering. Sir, if I may address that as well? That 
is, by the way, having the ability to maintain a 24-hour orbit 
is what you would require two or three aircraft to be able to 
do. That is not unlike what we do today with AWACs and Joint 
Stars. It's the same type of construct.
    The other thing to remember is that with the airborne 
platform, the airborne laser, you are shooting down multiple 
missiles with the single platform, whereas in our other 
programs, we're having to shoot in some cases multiple 
interceptors to take out the single missile and so there's a 
multiplication factor there that goes into play when you start 
thinking about cost affordability.
    Finally, that's also what I alluded to earlier about going 
into this period of transition, not unlike, by the way, what we 
did with THAAD, to make sure that as we look at our successes 
in our test program and look at all the lessons learned and 
then factor that into can we get this to be operationally 
affordable for the forces and for the warfighter and that's 
part of the calculation that we have to do in that period.
    Senator Inouye. So you're not ready to give us numbers?
    General Obering. No, sir, not yet. I can tell you what it 
would take to get us to shoot down which is the tail end of 
about a $4.5 billion effort that we've been underway for many 
years, but in terms of what the overall life cycle cost of the 
program would be, that's part of what we want to make sure we 
understand in this transition period.

                                 THAAD

    Senator Inouye. Well, General Campbell, THAAD has been 
performing well. If this success continues, do we have any 
funding in the Army to take over the system?
    General Campbell. Sir, that--the actual transition and 
transfer is being worked between the Army and the Missile 
Defense Agency, so that we understand principally the 
operational and sustainment costs of the system.
    It is a concern of the Army's; that is, long-term 
affordability. We're working closely with the Missile Defense 
Agency to understand that, so that we can compete that in the 
out-year POMs. So that it's hard to answer your question today 
precisely when we don't know the precise costs yet.

                            COUNTERMEASURES

    Senator Inouye. One of the areas of concern for us would be 
enemy countermeasures. Can you tell us what you're doing about 
this?
    General Obering. Yes, sir. There's several steps. Number 
one, we are launching two space tracking and surveillance 
system satellites this year. This will--these two satellites 
which will go up in tandem on a single launch vehicle will work 
together to demonstrate that we can do precise tracking from 
space. Otherwise, the kind of tracking that we now use our 
land- or sea-based radars to do, we'll be able to do from 
space.
    We have plans for a follow-on to that will get us a small 
constellation that will be sufficient, though, to provide us 
with what we call birth-to-death tracking. From the time that a 
missile is launched, as it goes through its phases, to the time 
that we intercept it, we'll be able to do that tracking. That's 
the first key element of how you deal with countermeasures.
    The second portion is to shoot that missile down while it 
is still boosting and that eliminates any having to deal with 
countermeasures in subsequent phases and, of course, the two 
programs we have there, airborne laser and the kinetic energy 
interceptor, but they're still several years away from being 
operational. So we have to worry about what do we do in the 
interim.
    The next phase is or the next portion of this is to be able 
to do the advanced discrimination that allows us to handle 
those more complex decoys and countermeasures and that consist 
of the more powerful sensors. It consists of the more advanced 
algorithms that we're deploying on those sensors, in fact we 
have some in test right now, that we will be able to use for 
discrimination.
    The final component, a qualitative component, is that we 
will be able to take out more than one credible object. So as 
we go through this process, if we have a very complex threat 
suite with many, many dozens of countermeasures, we will be 
able to sort out down to a manageable number what are credible 
objects or could be credible warheads, and then we basically 
destroy all of those in a shotgun effect with our multiple kill 
vehicle.
    So it is a layered approach that we're taking to this, and 
in addition, as we move in the future, we will be able to deal 
in more inventory numbers that will augment what I just said.
    So we think we're on a path to deal with this. We have some 
of the world's leading experts that are looking at this and, by 
the way, the other thing that we do is we fly these, we fly 
these ourselves. So we have a critical measurements and 
countermeasures program that we employ to do these measurements 
ourselves. We fly critical--I mean very complex countermeasures 
against our own sensors and against our own capabilities and 
that's part of why we are building confidence in being able to 
address this.
    Senator Inouye. Senator Stevens made a suggestion that 
maybe we should have classified hearings and maybe take a visit 
because your agency has a major role in the next, well, 
evolution step of warfare and admittedly we know very little 
about what is happening in your agency and yet we know in our 
guts that it is very important because you are dealing with the 
most potentially dangerous areas, areas that could end up in an 
explosion that would cover the globe.
    So do you think we should have something like that?
    General Obering. Sir, we would welcome that.
    Senator Stevens. I'd have one last question, Mr. Chairman.

                       NUMBER OF GMD INTERCEPTORS

    Are you concerned about the adequacy of the inventory of 
interceptors for testing? I would address both of you. We have 
competing priorities, I'm sure, in the missile defense area, 
but operationally, it seems that to meet the current ballistic 
missile threat, you really have to have a lot of testing.
    Do we have the number of interceptors in our inventory that 
we need?
    General Obering. Sir, I think that from a developmental 
perspective, I would like to be able to add that--for example, 
as we process a long-range interceptor for test or a THAAD or 
aegis, I would like to have another interceptor that we process 
in parallel.
    By the way, the same thing is true with targets because I 
think that gives us the ability to recover from hiccups that we 
have in that processing and so I would very much support that. 
We're trying to balance as much as we can the needs for this, 
as you just described, along with making sure that we at least 
maintain our options for the future. So that's why we 
continually are balancing this equation.
    Senator Stevens. What about you, General Campbell?
    General Campbell. These tests are so critical for the 
users, so that we can better understand the system that we're 
operating today, and I agree with what General Obering said, 
that I like this notion of having a parallel missile available 
should something happen to the primary missile.
    Again, the tests give us critical insights into the system 
that we're operating today and it gives us insights into how it 
behaves and how we can change the behavior of that system.
    Senator Stevens. As you go forward now with the airborne 
laser, will you have to have an increased inventory to deal 
with that?
    General Obering. Sir, we have targets planned for that 
program. We have those programmed into our program.
    Senator Stevens. They're adequate now?
    General Obering. Yes, sir, so far.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Thank you very much, Mr. Chairman. Thank 
you very much, gentlemen.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
     Question Submitted to Lieutenant General Henry A. Obering III
            Question Submitted by Senator Richard C. Shelby
    Question. It seems to me that early and prolonged success of our 
systems will be possible only if we can provide for the adequate 
integration of these forces by somehow netting them together into a 
system of systems. For example, the sensor information could be netted, 
and the warfighters provided with the composite information at the 
appropriate levels.
    What is being done within the Army and Missile Defense Agency to 
bring forward sensor netting technologies that would enable warfighters 
at all levels to share information needed to fight successfully?
    Answer. The MDA is addressing the sensor network challenge of 
creating a real-time multi-sensor track picture of the battlespace that 
the warfighter needs to successfully execute the mission, through what 
is called the Global Sensor Integrated Network (GSIN). MDA is involved 
at all levels of the GSIN work from the top (Committee of Principals) 
down through the two-star level Senior Steering Group and the GSIN 
Transformation Teams. MDA has representatives on four of the five GSIN 
teams and is Co-Leader of the GSIN Technical Implementation Team. 
GSIN's goal is to ``Enable a unified national architecture for 
integrated sensor information in support of theater and strategic 
missile warning, missile defense and space situational awareness 
missions.''
    To build a fused track picture, the BMDS ideally must: globally 
track missiles of all ranges in all phases of flight (birth-to-death 
tracking); maintain single tracks across all sensors per tracked 
object; and combine discrimination information from all sources for 
each object. MDA is aggressively pursuing multiple system level 
functions needed to enable this netted sensor capability. The functions 
MDA is working on include:
  --BMDS System Track.--This C2BMC function will use system track data 
        from the radio frequency (RF) and infrared (IR) geographically 
        distributed BMDS Sensors to create a system track. The track 
        quality will improve over time with additional sensor coverage, 
        spectrum utilization (X-, S-, U-bands), RF/IR diversity, length 
        of time in track, and track geographic diversity. In addition 
        the results of BMD System Discrimination will be included in 
        BMD System Track as well as certain sensor provided target 
        features to enhance system engagement performance. Within 
        C2BMC, the Global Engagement Manager (GEM) will be the vehicle 
        to implement this functionality.
  --BMDS System Discrimination.--This function will integrate the 
        system track, discrimination, and target feature data to make 
        system level evaluations of the lethal object.
  --BMDS Sensor Registration.--This function will ``gridlock'' each 
        sensor to known locations and establish bias and location 
        errors. This is necessary to allow the correlation and 
        discrimination functions to occur and improve sensor netting 
        capability.
  --BMDS Correlation.--This function will associate track, 
        discrimination and feature data from numerous BMDS sensors (RF 
        and IR) into a consistent set of information using advanced 
        correlation techniques.
    The MDA has also entered into a Memorandum of Understanding (MOU) 
with the Army Program Executive Officer (PEO) Missiles and Space in 
March 2007 that directs the two organizations to collaborate on a host 
of common areas and to formalize relationships between various PEO MS 
and MDA elements in support of joint efforts to develop, field and 
support a reliable Integrated Air and Missile Defense (IAMD) system. 
The goal of the MOU is to leverage completed and ongoing initiatives 
leading to an economy of effort and resources. This will potentially 
create a win-win situation, system of system integration at an equal or 
reduced cost. Some of the ongoing collaborative areas include a common 
IAMD Extensible Markup language (XML), an integrated battle planning 
capability, and element/component level testing. This innovative 
strategy across multiple fronts will ultimately benefit the warfighter 
by providing a truly integrated ballistic missile defense capability, 
while potentially saving significant dollars for both the Army and MDA.
    The BMDS C2BMC program has also demonstrated the ability to share 
BMD data (i.e., tracks, engagement status, inventory, launch 
information, missile type, and threatened-assets) via Net Centric 
Standards (XML) to other commands, mission areas, and government 
agencies to improve warfighter integration and situational awareness.
                                 ______
                                 
       Question Submitted to Lieutenant General Kevin T. Campbell
            Question Submitted by Senator Richard C. Shelby
    Question. It seems to me that early and prolonged success of our 
systems will be possible only if we can provide for the adequate 
integration of these forces by somehow netting them together into a 
system of systems. For example, the sensor information could be netted, 
and the warfighters provided with the composite information at the 
appropriate levels.
    What is being done within the Army and Missile Defense Agency to 
bring forward sensor netting technologies that would enable warfighters 
at all levels to share information needed to fight successfully?
    Answer. In March 2007, MDA entered into a Memorandum of 
Understanding (MOU) with the Army that encourages collaboration on a 
host of common areas and to formalize relationships between MDA and 
Army elements in support of joint efforts to develop, field and support 
a reliable Integrated Air and Missile Defense (IAMD) system. The goal 
of the MOU is to leverage completed and ongoing initiatives leading to 
an economy of effort and resources. Some of the ongoing collaborative 
areas include a common IAMD Extensible Markup language (XML), an 
integrated battle planning capability, and element/component level 
testing. This innovative strategy across multiple fronts will 
ultimately benefit the warfighter by providing a truly integrated 
ballistic missile defense capability, while potentially saving 
significant dollars for both the Army and MDA.
    In addition, current Army air defense systems share sensor 
surveillance data (track and identification) and contribute to a Single 
Integrated Air Picture (SIAP) via joint tactical data links (JTDL). 
Joint Land Attack Cruise Missile Defense Elevated Netted Sensor System 
(JLENS), Sentinel and PATRIOT all contribute to a SIAP capability by 
distributing and receiving sensor surveillance data to/from the Link-16 
Joint Tactical Data Network (JTDN). JTDN data sources can include 
Higher Echelon Engagement Operations, joint systems such as Airborne 
Warning and Control System, and/or other Army air defense systems. 
Additionally, JLENS participates on the Navy Cooperative Engagement 
Capability (CEC) and Surfaced Launched Medium Range Air-to-Air Missile 
(SLAMRAAM) participates on the Joint Range Extension Application 
Protocol (JREAP) network.
    Current and new Army air defense systems are actively migrating to 
a net-centric approach to fighting, including the netting and fusing of 
sensor measurements and global tactical track and identification data, 
the use of joint SIAP and tactical data link solutions, and the sharing 
of improved sensor performance capabilities with all network 
participants. Not only does the Integrated Air Missile Defense (IAMD) 
netted approach allow the sharing of sensor data, it facilitates 
technology insertion and evolution of new capabilities, thus prolonging 
the success of our air defense systems. This effort is being led by the 
AIAMD Project Office within the Program Executive Office, Missiles and 
Space. Sensors (e.g. JLENS, PATRIOT and Terminal High Altitude Area 
Defense (THAAD) radars, Sentinel) and weapons (e.g., SLAMRAAM, PATRIOT, 
and THAAD) are being integrated into an Internet Protocol-based, 
Integrated Fire Control Network (IFCN). An IAMD Battle Command System 
(IBCS) is being developed to provide the command and control for this 
System of Systems (SoS). To support the net-centric approach to air 
defense, the IBCS is being designed to be configurable and scalable 
both vertically and horizontally within the operational organizations, 
to support collaborative and distributed planning and engagement, and 
to provide aids to assist the warfighter manage the more complex SoS.

                          SUBCOMMITTEE RECESS

    Senator Inouye. Well, gentlemen, thank you for appearing 
before the subcommittee today. As a result of your response to 
my last question, General Obering, the subcommittee will stand 
in recess until Wednesday, April 30, when we'll meet in closed 
session in S-407 to review your programs.
    General Obering. Thank you, sir.
    Senator Stevens. Thank you very much.
    [Whereupon, at 11:45 a.m., Wednesday, April 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]














       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, MAY 14, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens presiding.
    Present: Senators Leahy, Dorgan, Durbin, Mikulski, Murray, 
Stevens, Cochran, Domenici, and Bond.

                         DEPARTMENT OF DEFENSE

                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF 
            AND COMMANDING, UNITED STATES ARMY RESERVE

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Gentlemen and ladies, the chairman will 
not be here for a while and may not be here at all this 
morning. I want to put his statement in the record and welcome 
all of you, the chiefs of the Reserve components who will 
testify before us on the status of the Reserve components.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today the Subcommittee meets to receive testimony on the 
fiscal year 2009 budget requests for the National Guard and 
Reserve components. From the Reserve we welcome: Chief of the 
Army Reserve, General Jack Stultz; Chief of the Naval Reserve, 
Admiral John Cotton; Commander of the Marine Forces Reserve, 
General John Bergman; and Chief of the Air Force Reserve, 
General John Bradley. And from the National Guard we are 
pleased to have: Chief of the National Guard Bureau, General 
Steven Blum; Vice Chief of the Army National Guard, General 
Clyde Vaughn; and Vice Chief of the Air National Guard, General 
Craig McKinley.
    Gentlemen, as the National Guard and Reserve components 
continue to transition from a strategic to operational reserve, 
you face significant personnel and equipment challenges. 
Currently we have thousands of guardsmen and reservists 
deployed to Iraq and Afghanistan, many of them already on their 
second tour. We are asking a great deal of these service 
members, their families, and employers. Unlike their active 
duty counterparts, they often do not have easy access to 
support services. Today we look forward to hearing what is 
being done to ease the strain through family support and 
reintegration programs.
    It is a credit to the dedication and patriotism of our 
reservists that retention levels remain strong despite the high 
operational tempo and mandated force realignments. We want to 
make sure that you have the resources required to retain these 
talented experienced service members, particularly those in 
high demand career fields. We are pleased to see that 
recruiting has improved for the Air National Guard, and Army 
and Navy Reserves, although we are concerned that many of the 
components face shortfalls in high demand, critical skill 
specialties. We hope to hear today what you are doing to 
continue to attract quality recruits.
    Equipment shortages are another ongoing challenge, 
particularly now that more pre-deployment training is being 
done at home station. While the Subcommittee is pleased to see 
that the Army has dramatically increased procurement requests 
for the Guard and Reserve, existing equipment levels remain a 
concern. We want to ensure that you have the equipment you need 
for training and operations at home and abroad.
    Gentlemen, I look forward to hearing your perspective on 
these issues and your recommendations for strengthening our 
forces during this demanding time. I thank you for your 
testimony this morning.

    Senator Stevens. General Stultz, it is good to see you with 
us again today.
    I understand, Admiral Cotton, this will be your last 
appearance, retiring now after 34 years in the service. We are 
grateful for your service to our country and appreciate all you 
have been able to accomplish to enhance the Reserve components.
    General Bergman, I understand you also will retire now 
after 38 years.
    General Bergman. Yes, sir.
    Senator Stevens. We wish you also the best and sincerely 
appreciate your service to the country.
    And General Bradley, you are retiring after 41 years. It 
has been a pleasure working with you, particularly these last 
few years. I will never forget the F-22s coming in to 
Elmendorf. It was really a great day for us.
    General Bradley. Thank you, Senator Stevens.
    Senator Stevens. I wish you continued success in your 
future.
    The Reserve components have changed drastically since 
September 11, 2001. It has been remarkable how quickly you all 
have been able to transition from what was purely a strategic 
reserve force to an operational one. The total force concept is 
working. I know there are many challenges that still remain as 
the active components rebalance and reset. I am confident that 
you will point your respective services in the right direction 
to fully support the missions that will be presented to you in 
the future. We thank you all for your service and look forward 
to the testimony today.
    As I said, I will put the chairman's statement in the 
record.
    I would call on Senator Leahy.
    Senator Leahy. I will be coming back and I will yield to 
Senator Mikulski. I have to go to a Judiciary matter, but I 
will be back.
    I also echo the comments to Admiral Cotton and the others. 
You have a tremendous lineup here. I know these gentlemen. Of 
course, I know their service as well. I think it is a credit to 
all of us that they are willing to serve and serve so well.
    Senator Stevens. Senator Mikulski.
    Senator Mikulski. Mr. Chairman, in the interest of time, I 
do not have an opening statement. I want to welcome, of course, 
our leadership and look forward to hearing the needs that they 
face in order to fulfill the mission and look forward to it and 
thank them for being here.
    Senator Stevens. Thank you.
    Gentlemen, all of your statements will be put in full in 
the record. We appreciate whatever comments you want to make 
this morning. General Stultz, we will call on you first, 
please.

                    INTRODUCTION OF RESERVE SOLDIERS

    General Stultz. Yes, sir. Mr. Chairman, Senator Mikulski, 
thank you for giving us the opportunity to come and talk to you 
today. As you indicated, I have submitted my statement for the 
record.
    Rather than taking time to make any further opening 
comments, what I did want to do today, sir, is to introduce a 
couple of people that I brought along with me. One, my command 
Sergeant Major, Leon Caffe, the senior enlisted soldier for the 
Army Reserve representing our 200,000 soldiers, who is here 
with me.
    But also I wanted to introduce two great soldiers, just to 
give you a flavor of the quality of what we have got in the 
Reserve components today.
    The first gentleman I have got is Captain Joe Webster. Joe? 
Joe is an Army Reserve soldier. He is a lawyer here in 
Washington, DC, a partner in a firm that handles Indian affairs 
throughout this Nation, very well known.
    What is unique about Joe, though, is in 1990-91, Joe was in 
school at Purdue University, stopped his education, joined the 
Army Reserve, and deployed for Desert Storm as a legal clerk, 
specialist 4, legal clerk. He came back after 1990-91, went 
back to Purdue, finished his undergraduate, went to George 
Washington University here in Washington, DC, and got his law 
degree, and became a very successful partner in a law firm here 
in Washington, DC.
    After 9/11, Joe said, I need to go serve my country again. 
So he joined the Army Reserve again, got into one of our legal 
units. He deployed last year and was in Iraq for the entire 
year last year serving General Odierno of the Multinational 
Corps Iraq on his legal staff handling legal matters. He is a 
true representative of what this Nation is all about: 
individuals that are willing to put their careers, put their 
lives on hold, leave their families, and risk their lives to go 
and serve their Nation on a volunteer basis.
    The other soldier I have with me is Master Sergeant Marie 
Brooks. Sergeant Brooks again represents what this Nation is 
all about. You see, Sergeant Brooks' father is retired 
military. Sergeant Brooks is one of our master sergeants in the 
Army Reserve. Her son is an active duty soldier also, currently 
stationed in Germany as a medic. Three generations of soldiers 
in that family. Sergeant Brooks is a chaplain's assistant for 
us.
    She deployed to Kuwait and Iraq in 2003 as part of a 
medical command, serving as a chaplain's assistant, and 
provided chapel services throughout the theater when we were 
short chaplain officers, as the NCO Corps does, steps up, makes 
it happen, and she was conducting seven different types of 
services at Camp Arifjan Kuwait to service all the soldiers, 
about 20,000-some soldiers that were there to provide religious 
support, counseling, whatever the need while she was deployed 
for that year in 2003.
    She now works also for us helping assist at the Officer 
Candidate School at Fort Benning, Georgia on a regular basis.

                           PREPARED STATEMENT

    But these are two great soldiers, sir, that I just wanted 
to introduce, have the opportunity to talk about what quality 
we have, what dedication we have in our Reserve components.
    I look forward to your questions, sir. Thank you.
    Senator Stevens. Thank you very much. Captain Webster, 
Master Sergeant Brooks, we welcome you and thank you for your 
service.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack C. Stultz
                              introduction
    Chairman Inouye, Senator Stevens, members of the Senate 
Appropriations Defense Subcommittee, thank you for calling this hearing 
on the fiscal year 2009 budget for our Reserve components. As you know, 
after September 11th, the Nation's Reserve components were challenged 
to evolve from a strategic force in reserve to an operational force 
that is constantly deployed. It literally happened overnight. And now 
during the seventh year of this persistent conflict, demand for Army 
Reserve warrior citizens is such that between 25 and 30,000 Army 
Reserve soldiers are mobilized at any given time in the United States 
and in 18 other nations around the globe.
    Last month the Army Reserve celebrated its 100th anniversary. 
During our centennial celebration, soldiers from every State took the 
oath of re-enlistment here on Capitol Hill; committing to at least 
another 2 years of service to our Nation in the Army Reserve. When the 
Medical Reserve Corps originated on April 23, 1908 with 160 civilian 
physicians, it was unforeseen that 100 years later 12 to 15 percent of 
our force would be fully engaged in theater an operational force 
providing key capabilities to the Army.
    We continue to meet our mission because our soldiers are committed 
to serve the Nation, even as we undergo dynamic institutional and 
operational changes that challenge our state of readiness. And like the 
Active Component, the Army Reserve is a force that is out of balance 
but we are not broken. Historically, the Army Reserve has been a cost-
effective, value-added force as evidenced by what we accomplished with 
the fiscal year 2007 budget Congress appropriated to us. That budget 
request of $6.9 billion represented only 3.1 percent of the total Army 
budget, yet we:
  --Mobilized more than 30,400 warrior citizens;
  --Recruited 39,055 soldiers;
  --Retained 19,727 soldiers (119 percent of our retention goals);
  --Launched the Army Reserve Warrior and Family Assistance Center;
  --Accelerated reorganization of the entire Army Reserve Training 
        Structure;
  --Executed two major warrior exercises involving more than 8,000 
        soldiers;
  --Moved 6,700 pieces of unit equipment to regional training centers;
  --Aligned 78 percent of our strength into operational and deployable 
        forces;
  --Overhauled 4,139 pieces of equipment in the $144 million depot 
        maintenance program;
  --Fielded more than 17,000 items of equipment;
  --Increased our aviation force structure by two Blackhawk companies;
  --Activated and deployed the 316th Expeditionary Support Command--the 
        primary logistics command supporting multinational forces in 
        Iraq;
  --Activated the 11th Theater Aviation Command;
  --Activated or converted 386 organizations to new modular structure;
  --Initiated the disestablishment of 12 Regional Readiness Commands;
  --Initiated the establishment of 4 Regional Support Commands and 11 
        Operational Commands;
  --Commissioned two water vessels; and,
  --Initiated 23 BRAC and military construction projects.
    More than 193,900 warrior citizens have mobilized since 9/11; they 
represent America's best and brightest. Our soldiers, their families 
and employers; however, are experiencing an operational tempo unlike 
their comrades in arms who served before them. As you know, earlier 
this year, the report released by the Commission on the National Guard 
and Reserves concluded that the Nation will continue to rely on the 
Reserve components as part of an operational force for missions at home 
and abroad. To accomplish this, the report concluded, reforms are 
needed to ensure the readiness of the Reserve components and to ensure 
our feasibility and sustainability over the long term.
    To achieve our goal of transforming from a strategic force in 
reserve to an integrated, operational force, the Army Reserve relies on 
continued support from Congress via fiscal and supplemental budgets. 
Today, even though our mission has increased, our funding has not moved 
significantly beyond resource levels of the Cold War. Our fiscal year 
2008 budget request of $7.1 billion represents 4 percent of the Army 
base budget. We are grateful for your support, our state of readiness 
relies on it, but our readiness is also impacted by our transformation, 
the operational tempo, the stress on our soldiers, their families and 
employers, and the state of our equipment. All challenges we continue 
to address.
                                overview
    I am here to discuss the President's budget request for fiscal year 
2009 and what it means to the Army Reserve. I will separate the budget 
request in to three categories, Reserve Personnel, Army (RPA); 
Operation and Maintenance, Army Reserve (OMAR); and Military 
Construction, Army Reserve, (MCAR).
    In an environment of scarce human resources, RPA appropriations are 
vital for the Army Reserve to maintain our readiness by recruiting and 
retaining warrior citizens. The RPA appropriation increased 6 percent 
to $3.9 billion which includes $321 million for recruiting and 
retention bonuses. These bonuses are critical to the Army Reserve to 
sustain our effort to exceed our end strength of 205,000 soldiers. For 
the first time in the 35 years since the birth of our all-volunteer 
force, we must recruit and retain our force during a period of 
protracted war. Traditionally, the Army Reserve has not grown its own 
force. We have relied on soldiers who came off Active duty, but that's 
not happening any more. Now, our Reserve soldiers are either leaving 
the service at the end of their commitment or they are going back on 
active duty. Last year 7,107 warrior citizens transferred to the active 
Army. So while our force is contributing to the end strength of the 
Army, we impede our ability to reach our own end strength. We are short 
about 10,000 soldiers and that affects our readiness should our force 
be called to respond to another contingency at home or abroad.
    The RPA also includes $195 million for 47,000 soldiers to attend 
professional military education. These schools are essential for the 
Army Reserve to support higher occupational skill qualification rates. 
We are not only interested in recruiting Army Reserve soldiers who want 
to serve their country--we want to provide soldiers the skills to 
better themselves and to give back to their community.
    Our request for resources to increase the Active Guard Reserve end 
strength by 300 soldiers was also included in the fiscal year 2009 
budget, and we appreciate the President's support. But we must also 
rely on the fiscal year 2009 supplemental request so the Army Reserve 
can continue to evolve to a more fully integrated operational force. 
The Army Reserve has requested $80 million for additional training days 
for approximately 20,000 soldiers and another $82 million to resource 
up to 17 days of special pre-mobilization training. These funds are 
critical for the Army Reserve to properly prepare soldiers and units as 
they ready to deploy.
    As you know, the process that is driving much of our organizational 
change is the Army Force Generation or ARFORGEN model. ARFORGEN aligns 
Army Reserve units into 5-year cyclical training and force sustainment 
packages.
    Full implementation of ARFORGEN will improve our force by providing 
a predictable and rapid capability to synchronize our soldiers and 
resources with national and global mission requirements to increase 
unit readiness and provide a progression of trained, ready, and 
cohesive units. We have aligned approximately 80 percent of Army 
Reserve units into the ARFORGEN process, and we are working toward 
achieving the 4 years at home to 1 year deployed objective.
    The President's fiscal year 2009 budget request is essential to 
implementing ARFORGEN. The $2.6 billion in the budget for OMAR is a 5.8 
percent increase over fiscal year 2008 and includes $66 million to 
support Army Reserve force structure rebalancing, increased training 
events and equipment. Our rebalance will replace less-equipment 
intensive units with more equipment-intensive units resulting in an 
increase demand for fuel, parts and sustained maintenance. Resources 
for base support services to 1,100 Army Reserve activities are funded 
at $548 million, which translates to 92 percent of our essential needs 
with an increased emphasis on family programs and youth services. The 
$256 million for sustainment, restoration, and modernization in the 
President's fiscal year 2009 budget will allow the Army Reserve to 
continue to reduce our facility maintenance backlog by increasing our 
commitment to restore our facilities sustainment program worldwide to 
an adequate readiness level.
    Our operational tempo is particularly difficult on families. 
Although we recruit soldiers, we retain families. Our readiness depends 
on the ability to provide predictability to our soldiers, their 
families and employers. As with RPA resources, the Army Reserve must 
rely on the fiscal year 2008 GWOT supplemental request for OMAR funding 
to ensure we take care of soldiers and their families. Our supplemental 
request includes $22.9 million for family programs, $4.1 million for 
the strong bonds program, $13.7 million for tuition assistance, and 
$3.6 million for post deployment health reassessments. The OMAR 
supplemental request also includes $23.7 million to offset rising fuel 
costs.
    Our warrior citizens are the core of your Army Reserve. Warrior 
citizens bring maturity, experience, and civilian-acquired skills to 
the Army. In theater, you cannot tell the difference between an active 
Army soldier and our warrior citizens. However, off the battlefield, 
the demands on our warrior citizens are great; in many respects greater 
than those an active duty soldier faces. Our soldiers must balance 
civilian careers with military and family obligations; and most of our 
families do not reside near military installations. Warrior citizens 
must manage a delicate balance with employers who are often left with 
one less employee to conduct business. This balance is made the more 
challenging for our soldiers by the Army Reserve's high operational 
tempo and ongoing organizational change.
    The President's fiscal year 2009 budget request for MCAR is $281.7 
million, which will allow the Army Reserve to invest in building five 
Army Reserve centers and to modernize Army Reserve centers in four 
States. The end result will be 15 Reserve Centers supporting nearly 
5,000 warrior citizens and four training ranges. We have also built in 
minor military construction funds to address unforeseen critical needs 
or emergent mission requirements that cannot wait for the normal 
programming cycle.
    The bottom line, this persistent conflict requires the Army Reserve 
to transform from a strategic force in reserve to an operational force. 
The Army cannot sustain this operational tempo without our warrior 
citizens and their contributions to the total force.
    As the Army Reserve evolves to a more fully integrated operational 
force we recognize we cannot overlook the critical contribution 
employers make to national defense. The citizen soldier legacy is built 
on the backbone of citizens and employers sacrificing together to 
ensure our security. Employers are looking for the same skilled, 
capable, disciplined personnel we are. We can and should cooperate with 
industry in a number of ways for our mutual advantage: recruiting, 
training and developing the best and the brightest to serve. For our 
part, the Army Reserve develops discipline, soldier and leader skills 
that are valuable to employers. Working with industry we can help 
employers fill occupational specialties where there have been 
traditional shortages of personnel. While we share an employee's 
talents and skills we can surely find ways to share the cost of 
benefits to our mutual advantage.
    Last month, I was proud to launch our Employment Partnership to 
foster formal relationships between the U.S. Army Reserve and private 
sector. We signed agreements with INOVA Health Systems and the American 
Trucking Association. In the future, we hope to enter into comparable 
partnership projects with law enforcement, corrections, transportation, 
and other industry organizations leveraging Army Reserve core skill 
sets.
    To improve Army Reserve personnel readiness, we rely on continued 
support from Congress to provide stable and predictable resourcing and 
the authority for flexible management of incentives to recruit, retain, 
reassign, promote, and train our personnel.
    As the first Federal Title 10 responder to support civil 
authorities during a domestic emergency, the Army Reserve is an 
important element of the current DOD ``Lead, Support, Enable'' strategy 
for Homeland Defense and Civil Support. Unit readiness for current and 
future peacetime contingency and major combat operations at home or 
abroad requires timely, predictable personnel resourcing and a full 
complement of equipment.
    During our first 100 years, the Army Reserve repeatedly provided 
the most cost-effective Federal force to the Nation. Continued support 
with resources and authorities from Congress ensures your Army Reserve 
is ready to serve the Nation any time, any where, now and in the 
future. Thank you for the opportunity to review the impact of the 
President's fiscal year 2009 budget request for the Army Reserve. I 
look forward to your questions.
                                 ______
                                 
           United States Army Reserve 2008 Posture Statement
                                                     April 1, 2008.
    Today's Warrior Citizens serve our Nation during an era of 
persistent conflict--a role unforeseen when the Army Reserve originated 
on April 23, 1908, as the Medical Reserve Corps. One hundred sixty 
civilian physicians comprised this first strategic reserve, one that 
could be ordered by the Secretary of War to active duty during a time 
of national emergency. A century later, the U.S. Army Reserve is a 
diversified, capable, skill-rich, community-based operational force 
with an authorized end strength of 205,000 Warrior Citizens.
    Throughout our first century of service, our mission was to support 
the Army to ensure mission success, and our Soldiers served with pride 
and distinction. In the final decade of the 20th century, the Army 
Reserve was called upon to support training, coalition-building, and 
stability missions, as well as foreign and domestic contingency 
operations. At the dawn of this century, with further demands placed on 
our Nation's military after September 11, 2001, it became necessary for 
the Army Reserve to transform to a more fully operational force.
    Today, the 21st century Army Reserve Soldier is a Soldier who 
serves in an expeditionary force that is an integral part of the 
world's best Army. Yet, as we have done for the past 100 years, our 
Soldiers live and work in their civilian communities while volunteering 
to serve their Nation in the U.S. Army Reserve. In the past six years, 
190,796 Army Reserve Soldiers have mobilized and deployed in support of 
the Global War on Terror. Currently 27,143 Warrior Citizens from 
communities around the Nation are serving in Iraq, Afghanistan, and in 
18 other countries. They serve at a time when the stakes for our Nation 
and our national security are high, the demands on our force are 
significant, and the need for a strong Army is undeniable.
    As we move forward in our transformation, we are undergoing the 
most dramatic change to our force structure, training, and readiness 
since World War II. However, as we continue to transform, one thing 
does not change--the Army's reliance on our Army Reserve Warrior 
Citizens' civilian-acquired skills, skills that are critical to the 
Army's success. As a result of the continuous state of mobilization and 
a high operational tempo, the Army Reserve has experienced stress on 
our Soldiers and their units, stress on their Families, stress on their 
employers, and stress on our equipment. We have come to realize that 
while we remain a committed, professional, All-Volunteer Force, the 
Army Reserve, like the Active Component, is increasingly out of 
balance.
    To help us build capacity and increase our military effectiveness, 
we have aligned our needs into four imperatives: to sustain our 
Soldiers, their Families, and employers; to prepare our Soldiers for 
success in current operations; to reset and rebuild readiness for 
future operations; and to transform to better meet the demands of the 
21st century.
    To continue our mission for the next 100 years, the Army Reserve 
depends on adequate essential resources in the fiscal year 2009 budget 
and beyond. The firm application of the individual and collective 
skills resident with Army Reserve Warrior Citizens is essential to the 
offense, defense, and stability operations of this persistent conflict. 
Operationalizing the Army Reserve meets the needs of the Army 
Transformation guidelines and strategies and gives taxpayers confidence 
we are using their resources wisely and efficiently. We agree with the 
January 31, 2008, Commission on the National Guard and Reserves 
characterization of the Nation's Reserve Forces; ``The Reserve 
Components are this nation's insurance policy against unexpected 
events, provide a daily connection between the military and their 
civilian communities, constitute a significant pool of pre-trained 
manpower, and are well-suited for a leading role in homeland response 
activities. Their value to the nation cannot be overstated.''
    We will continue to reflect the very best of our Nation by 
defeating the enemies of freedom and the proponents of terror, by 
defending our homeland, and by assisting our Nation to build a better 
future for coming generations. But we cannot fulfill our mission alone; 
we require continued support from Congress and the American people.
    The men and women of the U.S. Army Reserve epitomize what is best 
about America; it is an honor to serve with them. It is humbling to see 
the support our Families give to their Soldiers; for while it is the 
Soldier we recruit, it is their Families that we retain. It is also a 
privilege to work with the civilian employers who support our Soldiers 
in their communities; they continue to motivate us to find solutions 
for managing a shared workforce. Together, our Army Reserve Soldiers, 
their Families, and employers are the strength of the Nation.

                         Lieutenant General Jack C. Stultz,
                                          Chief, U.S. Army Reserve.
                        Command Sergeant Major Leon Caffie,
                         Command Sergeant Major, U.S. Army Reserve.
                           strategic context
Warrior Citizens: An Integral Part of Today's Army
    The quality of our Force is undeniable. Army Reserve Soldiers are 
Warrior Citizens who contribute to their local communities as they 
pursue their civilian careers. In uniform, they also contribute to our 
national security when they train, prepare, watch, and listen for a 
call to arms. Over the last century, Warrior Citizens have repeatedly 
answered that call and have proven the value of citizens serving in the 
Army Reserve to achieve national goals. Today, tens of thousands of men 
and women are in the Army Reserve; when they mobilize, they leave their 
homes, their Families, and their jobs to serve our Nation. And, over 
the course of the coming years, thousands more Army Reserve Warrior 
Citizens will step forward to serve and sacrifice on behalf of their 
friends and neighbors and the strangers they call countrymen--the 
citizens of the United States.
    Our Warrior Citizens are volunteer members of the best trained, 
best led, and best equipped fighting force our Nation has ever fielded. 
The 190,796 Army Reserve Soldiers mobilized since September 11, 2001, 
demonstrate why Warrior Citizens are among those proud to be called 
Army Strong.
    The men and women of the Army Reserve hail from every corner of 
this Nation, ordinary Americans volunteering for extraordinary service. 
They are black (22 percent), white (60 percent), Hispanic (12 percent), 
and Asian and Pacific Islanders (4 percent). Seventy-seven percent are 
men, 23 percent are women. They are young (46 percent are 17-29 years 
old) and they are mature (46 percent are aged 30-49). They don the 
uniform as enlisted Soldiers (81 percent), officers (18 percent), and 
warrant officers (1 percent). Our Warrior Citizens are men and women 
committed to their Families, their communities, and their country. They 
are the strength of our Nation.
    Our Force includes Soldiers like Staff Sgt. Jason Fetty, a civilian 
pharmacy technician from Parkersburg, West Virginia. In the Army 
Reserve, he is a pharmacy specialist with the 339th Combat Support 
Hospital in Coraopolis, Pennsylvania. When he deployed to Afghanistan 
in April 2006, he voluntarily transferred from his medical unit to the 
364th Civil Affairs brigade to join a Joint Provincial Reconstruction 
Team.
    With just a week left on his one-year tour, Fetty encountered a man 
dressed in a hospital lab coat that forever changed his life. On 
February 20, 2007, at a ribbon-cutting ceremony to open the emergency 
room his unit constructed at the Khost City Hospital, Fetty noticed one 
of the doctors acting strangely. He said the doctor looked ``crazy in 
the eyes.'' After ten months in Khost, he knew a lot of the medical 
personnel, and he didn't recognize this man, so he confronted him and 
immediately perceived him as a threat. He was right. The man was a 
suicide bomber.
    Fetty knew he couldn't risk hitting an innocent bystander if he 
were to shoot and miss, so he maneuvered away from the crowd, hoping 
the suicide bomber would follow. He did. Two other U.S. Soldiers began 
firing warning shots at the man, still not realizing he was a suicide 
bomber. After firing a warning shot, Fetty shot the man in the legs. He 
fell, but didn't go down completely so Fetty himself raised his weapon 
again and struck him in the abdomen. When Fetty saw the man slowly put 
his hand under his lab coat, he knew this was an indicator something 
was about to happen. Fetty yelled for everyone to get out of the way 
and he started running. He didn't get far. When the bomb exploded, 
Fetty sustained shrapnel wounds to his face, back, thighs, ankle, and 
elbow. The other two U.S. Soldiers were also wounded, but no one in the 
large crowd gathered for the ribbon cutting ceremony died; no 
civilians, no dignitaries, no Soldiers. Fetty was awarded the Purple 
Heart as he recovered from his wounds at the Task Force medical 
treatment facility at Bagram Airfield. On October 12, 2007, he was also 
awarded the Silver Star in recognition of his heroic service under 
fire. He is the first Army Reserve Soldier to earn this distinction for 
service in Afghanistan. From Fetty's perspective, ``Anyone would have 
done what I did if they were put in the same situation.''
    We are also privileged to have Soldiers like Jennifer J. Johnson in 
our ranks. She was a nurse practitioner who thoroughly enjoyed her 
civilian career in medicine, skills she brought with her when she 
joined the Army Reserve in 1985. But she felt something was missing, 
that perhaps nursing was a bridge to an even greater calling. In 2003, 
she was ordained as a minister and moved from the nurse corps to the 
chaplain corps in the Army Reserve. Of the 393 chaplains serving in the 
Army Reserve, only 29 are female. Chaplain Johnson says there are many 
qualities of nursing that are comparable to the ministry. ``We guide, 
we direct, we nurture,'' she said.
    Chaplain Johnson mobilized for one year in July 2006. Twenty-one 
years after she first joined the Army Reserve, her professional and 
military careers came full circle when she deployed to Iraq in 
September of that year. As the chaplain for the military hospital in 
Tikrit, she provided pastoral care at the 46-bed facility. There she 
saw first-hand how holistic care--taking care of the emotional and 
spiritual well-being of a patient--helps physical healing. Chaplain 
Johnson always carried a Prayer Book for U.S. Forces with her--in the 
operating room, visiting patients, or leading a congregation in 
prayers. She also provided spiritual healing to the medical staff. Like 
many Soldiers, her military duties kept her away from her family for 15 
months. She missed her daughter's first prom, family weddings and 
funerals, and routine family life. But her sense of duty to country by 
serving in the Army Reserve and her responsibility as a person of faith 
kept her focused. When she returned from Iraq, she was hired as the 
chaplain of a large university hospital. Chaplain Jennifer J. Johnson 
is an example of the kind of strength our Soldiers bring to the 
Operational Force as well as to their civilian communities.
    College student Bethany Gunter wanted to challenge herself mentally 
and physically, so she joined the Army Reserve; the educational 
assistance would help defray college expenses. In her Little Rock, 
Arkansas, unit she not only found the challenge she sought; she also 
found a soul mate, Nicholas Horn. After taking a few college courses 
and working for several years in the plumbing business, he was also 
ready for a change. He dreamed of being a Soldier, and the thought of 
becoming a husband never entered his mind, until he met Beth. The two 
Soldiers married shortly before deploying together to Mosul, Iraq, 
where they served with the 43 1st Civil Affairs Battalion. There, Spc. 
Bethany Horn worked in supply, but was trained to drive a 17,000-pound 
up-armored Humvee and to serve as the swiveling turret gunner behind a 
belt-fed machine gun. Sgt. Nicholas Horn was the operations non-
commissioned officer in charge. During his one-year deployment, he was 
awarded a Bronze Star for saving the life of a civilian injured in a 
mortar attack.
    Bethany said their joint deployment forced them to mature, ``We 
couldn't be kids anymore; our day-to-day objective was to survive and 
to try to make a difference in Iraq.'' Nicholas said the deployment 
reinforced to him the fact that marriage is a team effort, especially 
in a combat zone. ``We worked together 24 hours a day, seven days a 
week. We saw each other react when mortars hit and we grew to depend on 
each other, to stay alive as we build our lives together. She's the 
only battle buddy I'll ever need.'' They both believe the skills 
they've learned in the Army Reserve will help them be better leaders in 
their community as they interact with customers and classmates and 
improve their readiness and training with their unit in the Army 
Reserve.
    Our force also includes Soldiers like 1st Lt. Virgilio Villacorta. 
He's a senior scientist who works in algorithm development and image 
processing for defense applications. He earned his Ph.D. in health 
sciences and technology from MIT, where his research was on how the 
brain adapts to acoustic perturbations and resilient speech patterns. 
He joined the Army Reserve in October 2001 because he wanted to serve 
his country. He was commissioned in December 2004 and now serves with 
the 368th Military Intelligence Battalion. He attributes his work in 
military intelligence to providing him with a better understanding of 
the technology Military Intelligence units need in the field and how 
important the design of the technical equipment is to the Soldiers who 
depend on it. Villacorta, like many of our Warrior Citizens, came to 
the Army Reserve with an advanced degree.
    These Army Reserve Soldiers are typical of the patriotic men and 
women who have answered the Nation's call to serve. They are 
illustrative of why our Warrior Citizens are the strength of our 
Nation, are an integral part of today's U.S. Army, and deserve the best 
possible and most thorough training, resourcing, and support from 
Congress and the American people.
The 21st Century: A Century of Leadership and Strength
    The Army Reserve has experienced significant change during our 
first century of service to the American people. Our military forces 
support the American people and are connected directly to American 
communities through Soldiers such as the Warrior Citizens who serve in 
the Army Reserve.
    As we look to the future, we know without a doubt we will continue 
to adapt to change, to transform to a more effective operational force, 
and to meet the needs of the Army. Increasingly, we recognize that the 
uncertain security environment of the future and the challenging fiscal 
responsibilities faced by our Nation require more cost-effective, 
flexible sources of manpower that can be efficiently increased in times 
of need and reduced in a way that economically preserves capability 
when requirements diminish. As the Commission on the National Guard and 
Reserves concluded, ``Fundamental reforms are needed to ensure the 
Reserve Components are feasible in the short-term while sustainable 
over the long-term.'' This will impact the pace of the Army Reserve's 
transformation and how our Force is resourced, manned, and trained.
    We have entered a dynamic era--an era of extraordinary challenges--
an era marked by unprecedented technological and economic advances, 
expanded globalization, and a burgeoning world population. These 
advances have resulted in an increased demand on resources such as 
fresh water, food, and the elements that sustain economic enterprise. 
As the global community becomes more interconnected, an unstable 
natural environment and a growing world population will exacerbate the 
potential for conflict and increase the likelihood of humanitarian 
crises.
    Other contributing factors impacting international stability 
include the struggle for power involving economic and technological 
dominance, religious and cultural conformity, and the infrastructure to 
provide basic human necessities such as food, water, shelter, 
sanitation, medical care, and the economic means to sustain affected 
populations.
    The technological advances of the last century have contributed to 
an increase in the length and quality of life for many of the world's 
inhabitants. But technology has proven to be a double-edged sword. 
While it is used for many productive ends, it may also be leveraged for 
destructive purposes. Unstable governments and well-financed groups who 
seek to exploit weapons of mass destruction for diverse aims seriously 
threaten global peace and must be contained. State-on-state regional 
conflicts, failed states competing for internal and external resources, 
and global terrorism threaten world peace and stability.
    The challenges America faces are many, and the risks are great. We 
are in a position that is both envious and dubious. Global leadership 
demands global responsibility. The United States Army is one of the 
most far-reaching and capable forces available for the country to 
tackle global challenges of the 21st century. The United States Army 
Reserve is an integrated, operational component of the world's greatest 
Army--ready, willing, and able to face these challenges.
    The emerging trends of globalization, population growth, resource 
depletion, climate change and natural disasters, proliferation of 
weapons of mass destruction, and failed and failing states demonstrate 
a global environment of dynamic risk. These risks place high demands on 
our military. The core competencies that reside in the U.S. Army 
Reserve allow the Active Force to mitigate these risks to achieve 
national objectives.
    The Army Reserve is a valuable component of the Army because it is 
dynamic, flexible, and capable, as well as a significant provider of 
combat support and combat service support to the Total Force. The Army 
Reserve is well designed and well suited for operations in a global 
environment of instability. The Army Reserve possesses extensive 
capabilities to respond to nuclear, biological, and chemical weapons 
threats. Army Reserve Soldiers are uniquely suited, by way of the 
extensive civilian-acquired skills that complement military-acquired 
skills, to participate in missions to defeat threats to security, as 
well as stability and reconstruction operations. The Army Reserve also 
possesses unique capabilities and resources to address humanitarian 
contingencies at home or abroad and remains the Nation's first Title 10 
responder to provide support and assistance to civil authorities when a 
disaster or emergency occurs in the United States and its territories.
    The Army Reserve is postured to respond and execute, in real time, 
missions to support the national military strategy. We continue 
improving the Army Reserve's capability and efficiency. We are in the 
midst of restructuring and improving our business practices, reducing 
overhead, and fielding more deployable force structure to meet the wide 
array of missions ongoing or expected in the years ahead.
    The 21st century is proving to be a century in need of the 
capabilities of our Warrior Citizens. The strength of the Nation lies 
with the strength of her citizens to bear the burden, pay the price, 
and to commit and sacrifice for the greater good. Army Reserve Warrior 
Citizens are carrying forth that tradition into a second century of 
service and sacrifice. We are more fully integrating with the Active 
Army to leverage our mutual strengths as we effectively and 
successfully carry out every mission we are called upon to accomplish.
2007: A Year of Success and Achievement
    The year 2007 was one of commitment, sacrifice, and change. 
Although the Army Reserve's fiscal year 2007 budget of $6.9 billion 
represented only 3.1 percent of the $221 billion total Army executed 
budget, the Army Reserve proved itself a cost-effective, successful 
force with a global presence. In fiscal year 2007 we achieved the 
following:
  --Mobilized more than 30,400 Warrior Citizens in support of Operation 
        Enduring Freedom and Operation Iraqi Freedom. Currently, the 
        Army Reserve has 27,143 Warrior Citizens mobilized.
  --Recruited 39,055 Soldiers into the Army Reserve.
  --Trained 16,479 Soldiers as recruiting assistants through the Army 
        Reserve Recruiting Assistance Program.
  --Retained 19,727 Soldiers, which represents 119 percent of our 
        retention goals for first-term and career Soldiers.
  --Launched the Army Reserve Warrior and Family Assistance Center to 
        provide assistance to Soldiers and their Families, supporting 
        more than 900 Warriors in Transition.
  --Conducted 165 Strong Bonds programs for 8,500 Soldiers and Family 
        members to enhance Family and community relationships following 
        deployments.
  --Initiated contact with business leaders to begin a dialogue on how 
        the Army Reserve and employers can better share the skills of 
        our Warrior Citizens.
  --Trained 350 Soldiers, Family members, and teens using Stephen R. 
        Covey's ``7 Habits of Highly Effective Families'' method to 
        provide tools for Family members to communicate and resolve 
        problems effectively.
  --Graduated 33,605 Soldiers from basic, advanced, and skill-specific 
        courses and offered 2,797 courses to our Soldiers. Our 
        professional education requirements are essential to ensure 
        that Army Reserve Soldiers remain vital to the world's premier 
        military force.
  --Graduated 355 commanders and Command Sergeant Majors and more than 
        500 company commanders from pre-command courses.
  --Inaugurated the first two Army Reserve Enrichment Camps attended by 
        100 children of Army Reserve Soldiers.
  --Accelerated reorganization of the entire Army Reserve Training 
        Structure and Training Commands to ensure synchronization with 
        Army Reserve Training Initiatives.
  --Executed two major Warrior Exercises involving more than 8,000 
        Soldiers at Fort Bliss, Texas, and Fort Hunter-Liggett, 
        California. Conducted 16 functional exercises to sharpen 
        Soldiers' technical skills.
  --Processed 5,957 Soldiers through the Rapid Fielding Equipment 
        initiative.
  --Achieved initial entry rotor-wing training for 100 percent of the 
        helicopter pilots residing in the Army Reserve at the U.S. Army 
        Aviation Warfighting Center.
  --Moved over 6,700 pieces of unit equipment to regional training 
        centers in support of the Army Reserve Training Strategy.
  --Aligned 78 percent of Army Reserve strength into operational and 
        deployable forces.
  --Overhauled 4,139 pieces of equipment in the $144 million Depot 
        Maintenance program.
  --Recapitalized 420 High-Mobility Multi-Purpose Wheeled Vehicles and 
        61 Heavy Expanded-Mobility Tactical Trucks.
  --Fielded over 17,000 items of equipment to include: 12 Longbow 
        Apache attack helicopters, Medium and Light Tactical Vehicles, 
        Improved Ribbon Bridge, and communications equipment.
  --Increased Army Reserve Aviation force structure by two Blackhawk 
        companies.
  --Moved to increase Army Reserve operating force by over 16,000 
        deployable spaces by reducing and rebalancing force structure 
        from training and support organizations to deployable modular 
        operational units.
  --Activated and deployed the 316th Expeditionary Support Command, the 
        primary logistics command supporting multinational forces in 
        Iraq (from ``zero to Iraq'' in nine months).
  --Activated the 11th Theater Aviation Command at Fort Knox, Kentucky, 
        and mobilized and deployed a command and control element with 
        Aviation Task Force 49 in support of Operation Enduring 
        Freedom.
  --Activated or converted 386 organizations to new modular structure.
  --Initiated the disestablishment of 12 Regional Readiness Commands 
        and the establishment of four Regional Support Commands and 11 
        Operational Commands to reduce overhead and generate more 
        deployable capability.
  --Initiated 23 Base Realignment and Closure (BRAC) and Military 
        Construction Army Reserve (MCAR) projects to build 14 Armed 
        Forces Reserve Centers (AFRC), five Army Reserve Centers, and 
        four training support projects.
  --Commissioned two Logistic Support Vessels, including the first 
        watercraft in the U.S. military to be named after an African 
        American, Capt. Robert Smalls, a hero from the American Civil 
        War.
                   dynamic change, challenging times
    As the Army Reserve faces the threats of the 21st century security 
environment and responds to the Nation's call to serve, we continue to 
accelerate our transformation to a more effective, efficient, and 
relevant organization. We are carrying out dynamic institutional and 
operational changes in challenging times. We are not moving forward 
blindly, but we are adjusting to current conditions and responding to 
Army needs, as they develop. However, the current operational tempo is 
exacting a toll.
    Army Reserve Warrior Citizens are experiencing competing demands of 
civilian careers, Family, and repeated mobilization and deployments. 
The effect of these demands is most notable with junior noncommissioned 
officers and mid-grade commissioned officers. The Army Reserve faces a 
manning shortfall of experience and expertise at the ranks critical to 
the long-term health and vitality of the force. The Active Component is 
growing and the prospects of repeated long-term separations in rapid 
succession are not sitting well with Soldiers' Families and employers. 
The Army Reserve and the Nation must address these challenges to 
sustain our critical Warrior Citizen capability. This manning shortfall 
is the Army Reserve's most critical challenge.
    The Army's leadership has recognized the challenges impacting the 
force and taken steps to focus time, energy, talent, and resources to 
address these challenges. General George W. Casey, the Army Chief of 
Staff, established seven initiative working groups to tackle the Army's 
most critical challenges; the Army Reserve is engaged in each of these 
groups. The seven Army initiatives are:
  --Grow the Army;
  --Enhance support to Soldiers and Families;
  --Modernize the Force;
  --Transition the Reserve Component to an operational reserve;
  --Develop leaders;
  --Adapt institutional policies, programs, and procedures; and
  --Build strategic communications capability.
    The Army Reserve is addressing elements of all seven of these Army 
initiatives, but we are most focused on growth, enhancing support to 
Soldiers and Families, and transitioning to a more effective 
operational force. We direct our progress in each of these areas 
through the organizing construct of four imperatives: Sustain, prepare, 
reset, transform. To continue to succeed and meet the needs of the 
Nation, we must ensure we recruit and retain the best and brightest for 
our team, support our Soldiers, their Families, and their employers, 
and ensure they have the most efficient and effective organizations and 
processes to successfully accomplish their missions.
    We are organizing to address our personnel shortfall and improve 
the operational effectiveness of our formations. One of the 
cornerstones of our institutional transformation--the process that is 
driving much of our change in response to contemporary demands--is to 
organize Army Reserve units into a deployment cycle to maximize 
stability, predictability, and resource utilization. To increase the 
effectiveness of the Army Reserve and improve our contributions to the 
Active Component, we have aligned our units into synchronized training 
and force-sustainment packages supported by manning, equipping, and 
training processes. Taken together, we call this construct Army Force 
Generation (ARFORGEN), which mirrors and is directly aligned to the 
Army's ARFORGEN model.
    When fully implemented, this ARFORGEN process will improve our 
force by providing a predictable and rapid capability to synchronize 
our Soldiers and resources with national and global mission 
requirements. Based on a five-year training cycle, ARFORGEN involves a 
structured progression through three successive force pools: Reset/
Train, Ready, and Available. By establishing these three distinct force 
pools, the Army Reserve increases unit readiness and ensures a cyclical 
progression of trained, ready, and cohesive units.
    Since 2004, we have aligned 78 percent of our Force into the 
ARFORGEN process. To fully implement the five-year training model, we 
need approximately three years of stabilized Army deployment 
requirements. We have therefore programmed our combat support and 
combat service support into packages of approximately 35,000 Soldiers 
annually in the various stages of ARFORGEN.
    Implementing ARFORGEN has proven that the Army Reserve must fully 
integrate with the development and fielding of Army logistics 
information and management systems to meet our requirements for 
maintaining pre-mobilization readiness. ARFORGEN is an effective tool 
for our force, allowing the Army Reserve to focus on current operations 
while enabling Soldiers, Families, and employers to anticipate future 
Army requirements as a fully operational force.

    ----------------------------------------------------------------

                                ARFORGEN
Reset/Train
            ARFORGEN years one and two
    Activities during the first two years focus on obtaining or 
sustaining individual and squad training as well as refreshing unit 
leaders. Once these small team and section tasks are complete and 
leadership set, the unit will focus on subunit collective tasks or 
mission-specific tasks.
Ready
            ARFORGEN years three and four
    After building on individual and team training, during years three 
and four, the focus shifts to sustaining those skills and training at 
higher collective levels in increasingly challenging environments. This 
phase is designed to reduce post-mobilization training time and to 
provide unit depth or strategic capability that can be surged to meet 
unexpected operational demands. Once units are alerted for deployment 
mission, training is reoriented to prepare for specific missions and 
the conditions the units will likely face. Activities during this phase 
include unit training to support leaders as they prepare for and 
conduct full spectrum operations, growing team capabilities, and 
enhancing individual, collective, and organizational learning.
Available
            ARFORGEN year five
    During this year in the ARFORGEN cycle, Army Reserve units are 
available to mobilize and deploy, to execute specific programmed 
missions, or to stand ready to respond to unexpected events at home or 
abroad.

    ----------------------------------------------------------------

Critical Challenges to Operationalize the Army Reserve
    As the Army Reserve transforms to a more effective operational 
force, we continue to witness a change in how the American public views 
not only the Army Reserve, but also patriotic responsibilities to serve 
our Nation. Immediately after September 11th, Americans answered the 
call to serve. However, after more than six years of war, we recognize 
there is a compelling need to inspire a new generation to public 
service with the Army Reserve. Maintaining the Army Reserve as a world-
class provider of support and stability capability also requires:
  --Timely and predictable funding through base and supplemental budget 
        requests to fund Reserve Personnel, Army (RPA), Operation and 
        Maintenance, Army Reserve (OMAR), and Military Construction, 
        Army Reserve (MCAR).
  --Extend recruiting and retention incentives to assure the Army 
        Reserve enlists and retains the best and brightest to man the 
        force.
  --Extend incentive pay for health care professionals and other 
        specialized occupations to ensure we retain the professional 
        skills we need.
  --Support Army Reserve programmed increases for full-time personnel.
  --Improved employer partnership initiatives to ensure employers do 
        not bear an undue burden for employing Army Reserve Soldiers.
  --Fund Army Reserve Logistics Automation Operations and Maintenance 
        of new equipment training requirements to support the 
        integration of Army Reserve requirements into Army logistics 
        information technology systems.
  --Support Army Reserve request for funding for base operation support 
        and facilities, sustainment, restoration, and maintenance of 
        Army Reserve facilities.
  --Continued funding of depot maintenance to overhaul older generation 
        equipment.
  --Continued support to implement the ARFORGEN process, enabling the 
        Army Reserve to completely transform to an operational force.
  --Maintain momentum to achieve Base Realignment and Closure (BRAC) 
        mandates with modern facilities.
  --Support the Army Reserve program for secure communication systems 
        to ensure integrated capabilities--tactical to strategic--that 
        are plug-and-play, modular, and scalable to achieve jointness 
        and modularity.
  --Fund Army Reserve training program request to sustain four regional 
        training centers and combat support training centers.
             sustain our soldiers, families, and employers
    We live in an era in which Army Reserve Soldiers find themselves 
serving in a persistent conflict. This is the first time in history 
that our Warrior Citizens, who are patriotic, professional, and 
integral to our All-Volunteer Force, have been engaged in such a long 
conflict. No longer can Army Reserve Soldiers plan on one weekend a 
month and two weeks in the summer to fulfill their annual service/
training requirement. The impact of our transformation to an 
operational force, combined with a state of continuous mobilization, 
has put a strain not only on our force, but also the Families and 
employers whose support is vital to our Warrior Citizens.
    Today, the Army depends on the Army Reserve to sustain the tempo of 
deployments demanded by this persistent conflict. For the Army Reserve 
to remain a significant asset to the Army, our Nation, and the 
communities where our Soldiers live and work, it is necessary to take 
care of our most valuable resource--our people. To sustain our force, 
we must do more to ensure our Soldiers, their Families, and our 
Soldier's civilian employers are supported through solid programs and 
supportive communities.
    We care about the physical, spiritual, and mental health of our 
Soldiers and their Families. Sustaining the Army Reserve begins with 
recruiting high-quality men and women and then retaining them and their 
Families, as well as partnering with their civilian employers 
throughout their military careers. Our Soldiers cannot be sharp on the 
battlefield if their focus is the impact their military service is 
having on their Families and employers. We must take care of our 
Families and we must have a relationship with the employers of our 
Warrior Citizens. Without support from Families and employers, we 
cannot sustain our force.
    Sustaining the Army Reserve also reminds us of our moral obligation 
to take care of our Soldiers who are wounded, injured, or ill, as well 
as the Families of our Fallen Soldiers.
Recruit
    Our Warrior Citizens must be physically strong, mentally aware, 
fully trained and equipped, and ready to deploy when the Nation calls. 
In fiscal year 2007, the Army Reserve surpassed its overall recruiting 
goal. Although the Army Reserve is solely responsible for meeting our 
end strength objective, the Army Reserve recruiting mission is shared; 
thus, we do not have direct control of a recruiting budget that affords 
us the opportunity to market and advertise to specific Reserve 
Component demographics. As a result, we rely heavily on targeted 
initiatives such as Army Reserve-specific advertising and the Army 
Reserve Recruiting Assistance Program.
            Army Reserve Recruiting Assistance Program
    AR-RAP is a community-based recruiting program launched in July 
2007. The program leverages the personal contacts our Soldiers have 
within their communities. Essentially, every Army Reserve Soldier is 
now a recruiter who can earn up to $2,000 for each recruit that 
contracts and ships to Basic Combat Training, Basic Officer Leader 
Course, or for each Prior Service Soldier that completes 120 days of 
unit affiliation and attends a Battle Assembly.
Retain
    In an environment of scarce human resources, retaining our Warrior 
Citizens is a top priority. During fiscal year 2007, reenlistment of 
first-term Army Reserve Soldiers reached 155.2 percent of our goal. Our 
fiscal year 2007 goal was to reenlist 5,103 first-term Army Reserve 
Soldiers. We surpassed that number and actually reenlisted 7,887 first-
term Army Reserve Soldiers. We also surpassed our career reenlistment 
goals; we achieved 103.2 percent of that goal. However, our high 
operational tempo has resulted in a decline in our end strength. The 
primary cause of the decline is the number of Soldiers who transfer out 
of the Army Reserve into the Army and the Army National Guard.
    In fiscal year 2007, 7,107 Warrior Citizens transferred to the 
Active Army and 2,375 transferred to the National Guard. Though still 
good for the Army, to ensure Army Reserve readiness and sustain 
personnel strength of units scheduled for upcoming deployment, the Army 
Reserve instituted a policy that Soldiers in units transitioning into 
the fourth year of ARFORGEN are ineligible to voluntarily enlist or to 
be appointed in the Active Army, Army National Guard, or any other 
military service.
    The Army Reserve offers a variety of incentives through our 
selected Reserve Incentive Program to retain Soldiers who endure the 
stress and hardship of multiple mobilizations and deployments. 
Incentive packages are targeted to specific audiences such as Soldiers 
with prior service, those who complete 20 years of service, officer and 
warrant officer accession and affiliation bonuses, enlisted affiliation 
bonuses, and Army Civilian-acquired skills bonus programs. Incentives 
can range from $7,500 up to $20,000. An additional Army Reserve 
retention bonus specifically addresses mid-career officer and non-
commissioned officer shortages. Based on critical skill needs of our 
Soldiers, the Critical Skills Retention Bonus-Army Reserve can pay up 
to $50,000 per Soldier for a 3-year service obligation. This incentive 
is paid out to Captains, Chief Warrant Officers Three, Staff Sergeants, 
and Sergeants First Class who possess a critical military occupation 
specialty. This incentive authority was part of a recent National 
Defense Authorization Act Fiscal Year 2008 change; the Army Reserve is 
awaiting approval from the Office of the Secretary of Defense for 
implementation of enlisted and warrant officer bonuses.
Improve Quality of Life
    The most important element in sustaining the Army Reserve is the 
quality of life we provide our Warrior Citizens and their Families, 
impacted by their Soldiers' commitment to serve. We work aggressively 
to support our Soldiers and their Families with services that address 
health care, family programs, education, and employment. Support from 
our communities is vital to our Army Reserve Families, who do not 
traditionally reside on or near military installations. These Families 
often have more diverse needs than those of Active Component Soldiers. 
It is therefore essential that we continue to improve coordination of 
state and federal agencies, nonprofit organizations, and the military 
community to ensure our Warrior Citizen Families have integrated, 
accessible support available to them.
            Seamless Health Care
    Few programs reflect care for Soldiers more directly than health 
care plans; yet current medical management strategies and structures do 
not adequately support Army Reserve Soldiers and their Families, who, 
unlike the Active Component, transition back and forth between their 
civilian careers and their military careers. The Army Reserve believes 
that seamless health care coverage contributes to the military 
readiness of our Soldiers by preventing our Soldiers from being 
``whipsawed'' between military and civilian health care service 
providers. Additionally, fully supporting Army Reserve Soldiers who 
live in remote locations continues to be a top priority. The Army 
Reserve is working with the DOD to determine how best to solicit health 
care providers to support health care coverage for our Soldiers and 
their Families in communities where TRICARE is unavailable.
  --Restructured TRICARE Reserve Select.--As of October 1, 2007, 
        Selected Reserve (SELRES) Soldiers became eligible for TRICARE 
        health coverage. TRS is available to Soldiers and their 
        Families regardless of any active duty time served. Benefits of 
        the program include: worldwide availability to most Select 
        Reserve members and their Family members; freedom to manage 
        health care with no assigned primary care manager; no referrals 
        required; access to care in a military treatment facility on a 
        space-available basis; and comprehensive health care coverage 
        including a TRICARE prescription drug benefit.
            Strong Bonds Program
    The Strong Bonds program offers Soldier/Spouse and single Soldier 
Family reintegration events after deployment. This training helps 
Families of deployed and deploying Soldiers deal with the stress that 
often accompanies a Soldier's deployment. It is a proven, 
multicomponent program under the supervision of the Office of the Chief 
of Chaplains. As part of this program, the Army Reserve conducted 165 
Soldier retreats, serving more than 8,500 Soldiers and Families in 
fiscal year 2007. The Army Reserve anticipates conducting a comparable 
number of programs and outreach in fiscal year 2008.
            Army Reserve Warrior and Family Assistance Center
    The Army Reserve Warrior and Family Assistance Center was 
established in October 2007 to ensure that Warrior Citizens receive 
appropriate support under the Army Medical Action Plan. This center 
provides a sponsor to each Army Reserve Soldier and Family currently 
assigned to a Warrior Transition Unit, Community-Based Health Care 
Organization, or Veterans Affairs Poly-Trauma Center. The center also 
manages a toll-free hotline (866-436-6290) and Web site (www.arfp.org/
wfac) to provide assistance to Army Reserve Soldiers, Families, and 
retirees on a variety of issues, such as medical, financial, 
administrative, and pastoral concerns.
            Family Programs and Services
    Our commitment to family readiness is further demonstrated by Army 
Reserve Family Programs (ARFP) initiatives that continue to develop and 
evolve to meet the unique needs of our Soldiers and their Families. The 
Army Reserve is hiring Employer Support Program Managers who will be 
assigned to 27 major subordinate commands throughout our Force to meet 
Army Reserve Soldier and Family needs on a full-time basis. Soldiers 
and their Families can log on to www.arfp.org to learn about other 
Family program initiatives including:
  --Virtual Family Readiness Groups where Army Reserve Families can 
        utilize the information and resources provided by the Army's 
        Integrated Family Support Network. Funding and staffing have 
        increased, allowing more face-to-face, as well as telephonic 
        and virtual, contact with Families.
  --Virtual Installations.--The Army Reserve will conduct a pilot test 
        of our Virtual Installation in May 2008. Virtual Installations 
        will consolidate our services and allow Families to stay in 
        touch, stay informed, and stay together. The Virtual 
        Installation represents a conglomerate of Families, volunteers, 
        associations, military programs, and civic organizations such 
        as the American Legion and Veterans of Foreign Wars. Services 
        that will be available online include registering for ID cards, 
        enrollment in TRICARE, and the ability to get counseling, 
        support, financial assistance, job placement, or to take 
        classes.
  --Outreach.--Army Reserve staffers are able to share information, 
        conduct education and training, and provide appropriate crisis 
        response, conflict resolution, or referral to an appropriate 
        helping agency. The first issue of ``Family Strong,'' a full-
        color quarterly publication providing Family readiness 
        information, was distributed to 22,000 households of deployed 
        Army Reserve Soldiers in the fall of 2007. Future issues will 
        be distributed to the entire Army Reserve population.
  --Welcome Home Warrior Citizen Award Program.--This award was created 
        to publicly recognize the sacrifices that Army Reserve Soldiers 
        and their Families have made to the Global War on Terror. Since 
        the program's inception in fiscal year 2004, 124,887 awards 
        have been delivered to Soldiers, their Families, and their 
        employers.
  --Child and Youth Services.--Child and Youth Services ensures that 
        children of our Warrior Citizens understand how their family 
        dynamics may change when a parent is mobilized. Programs and 
        initiatives are designed to meet the needs of children and 
        young adults and include child care, leadership and development 
        conferences, and Army Reserve Enrichment Camps. These camps 
        provide youth an opportunity to learn new skills, develop 
        relationships, and learn more about the Army Reserve. The Army 
        Reserve will host five Enrichment Camps in 2008.
  --Operation Purple Camps are free one-week residential camping 
        programs funded by the National Military Family Association. 
        The camps bring together children who have a parent or guardian 
        experiencing some stage of a deployment. During the summer of 
        2007, 566 children of Army Reserve Soldiers attended these 
        camps; four camps were hosted by Children and Youth Services in 
        partnership with Boys & Girls Clubs of America and 4-H. The 
        Army Reserve will host eight Operation Purple Camps (in 
        partnership with national organizations dedicated to serving 
        youth) in 2008.
  --Civilian Education for Soldiers.--Education benefits clearly 
        enhance the development of Army Reserve Soldiers, as well as 
        our ability to retain Soldiers. During fiscal year 2007, 28,115 
        Army Reserve Soldiers used tuition assistance and 1,265 
        participants earned degrees.
Warrior Care and Transition
    The Army Reserve will never forget its moral obligation to our 
injured and wounded Soldiers and their Families. At the core of our 
service, Army Reserve Warrior Citizens are Army Strong. It is the duty 
of all Soldiers to care for their fellow Soldiers in time of battle and 
in time of healing; our actions exemplify the strength of our Force as 
it supports the strength of the Nation. It is also the duty of all 
Soldiers who are wounded, injured, or ill to focus their energies on 
healing as intently as they focused on their mission in theater.
    The Warriors in Transition Program assists disabled Soldiers who 
suffered severe injuries on or after September 11, 2001, and who have 
been awarded (or are likely to receive) an Army disability rating of at 
least 30 percent. Assistance is provided from initial casualty 
notification through the Soldier's assimilation into civilian community 
services (for up to five years after medical retirement).
            Warrior Transition Units
    Injured Army Reserve Soldiers who are on active duty healing are 
assigned to WTUs. The Army Reserve has approximately 1,400 Soldiers in 
these units. We made available 380 Soldiers to assist the full-time WTU 
staff in manning these units and providing continuous, dedicated 
support to these Warriors in Transition. All Soldiers assigned to WTUs 
are given this mission:
    ``I am a Warrior in Transition. My job is to heal as I transition 
back to duty or continue serving the Nation as a Veteran in my 
community. This is not a status, but a mission. I will succeed in this 
mission because I am a warrior and I am army strong.''
Support to Families of Our Fallen Soldiers
    In support of Operation Enduring Freedom and Operation Iraqi 
Freedom, 156 Warrior Citizens have made the ultimate sacrifice and 
given their lives in service to their Nation, each with a Family back 
home. We recognize the distinguished service, selfless acts of bravery 
and leadership, and the ultimate sacrifice these Soldiers and their 
Families have made for the cause of freedom.
    As part of our commitment to the Families of our fallen comrades, 
the Army Reserve conducts a memorial service to honor their loved one's 
sacrifice, offers chaplain support, and offers ongoing support to help 
the Family through its period of mourning and beyond, with follow-on 
counseling, support, and services. The Warrior Citizens of the United 
States Army Reserve will never leave a fallen comrade. We will also 
never forget Sergeant Ahmed Kousay Altaie of Ann Arbor, Michigan, who 
was assigned to the Provincial Reconstruction Team Baghdad. He was 
declared missing-captured on December 11, 2006.
Employer Partnerships
    The Army Reserve Employer Relations Program fosters better 
understanding between commands, Soldiers, and Soldiers' civilian 
employers. Building enduring partnerships with the civilian employer 
community is vital to Soldier readiness and positively impacts 
retention. It would be impossible for the Army Reserve to sustain our 
force without the support of the nearly 44,000 businesses that employ 
our Warrior Citizens in communities around the country. Employers who 
hire Army Reserve Soldiers earn a great return on their investment: 
they benefit from the values, experiences, and leadership skills that 
Warrior Citizens bring to the workplace. A solid partnership requires 
efforts and sacrifices from all parties through an open and candid 
dialogue based on a clear appreciation of each party's interests and 
requirements.
    In fiscal year 2007, the Army Reserve focused its efforts on 
alleviating the burden on corporate America when their employees, our 
Warrior Citizens, mobilize and deploy. We are working to enhance 
employer support through a systemic blending of grass-roots objectives: 
mitigation, mediation, employer outreach and awareness, and Soldier-
employer relations. Throughout fiscal year 2008 we will continue to 
develop and improve employer relations with the following initiatives:
  --Hiring Employer Support Program Managers for assignment to 27 major 
        subordinate commands throughout the Army Reserve. These 
        managers will participate with state-level Committees for 
        Employer Support of the Guard and Reserve to proactively engage 
        with employers on behalf of the Army Reserve's Warrior 
        Citizens. These managers will provide commanders with the 
        expertise and support required to carry out the employer 
        relations initiatives established by the leadership of the Army 
        Reserve.
  --``Partnering with Industry.'' The Army Reserve is experiencing 
        increased challenges and demands in providing personnel to meet 
        mission requirements abroad and in support of domestic civil 
        authorities. In a tight labor market, employers such as local 
        law enforcement, interstate trucking companies, and medical 
        care facilities are competing for the same qualified pool of 
        talent as the Army Reserve. We continue to look for 
        opportunities to build enduring partnerships with industry and 
        to focus our efforts on ``Optimizing a Shared Workforce'' with 
        and between the Army Reserve and civilian employers. Army 
        Reserve Aviation, for example, has found success by partnering 
        local medical facilities with new air ambulance (MEDEVAC) 
        companies and providing mutual benefits through the 
        credentialing of common but critical skills sets in a shared 
        labor pool.
  --Establishing the Employer Outreach General Officer Steering 
        Committee to ensure Army Reserve Soldiers remain competitive in 
        both their military and civilian careers. The committee 
        consists of general officers who engage with the business 
        community to foster relationships and exchange ideas and 
        methods to support a strong Army Reserve.
  --An initiative currently being reviewed is the creation of a virtual 
        ``job bank'' for Soldiers. This job bank would create a direct 
        and focused link between employers and Soldiers in targeted 
        career fields and specialties across a wide spectrum of 
        positions.
    To sustain our Warrior Citizens, their Families, and their 
employers throughout fiscal year 2008 and beyond, the Army Reserve will 
continue to identify incentives, initiatives, and legislative changes 
to increase recruiting and retention and minimize attrition as we 
transform to a more effective operational force. We cannot realize 
long-term success as a force if we cannot create a stimulating 
environment that fosters growth and personal satisfaction. We must 
continue to maintain and improve the quality of life for our Soldiers, 
Families, and employers. This requires sustained and predictable 
funding to meet our manning objectives. Our focus on the imperative of 
Sustain will help bring the Army Reserve into balance and will support 
our full transformation to an effective, capable, sustainable, and 
enduring operational force.
           prepare soldiers for success in current operations
    The prepare imperative is defined as the readying of Soldiers, 
units, and equipment to succeed in the current operational environments 
of Iraq and Afghanistan and the 18 other countries where Army Reserve 
Soldiers serve. Our military success in the Global War on Terror is 
dependent on our ability to prepare and equip Army Reserve Soldiers as 
full cohesive units for current and future operations. Our Warrior 
Citizens serve the Nation as an operational force for which they were 
neither designed nor resourced; as a result, our primary focus is on 
the demands of current operations. We consume readiness as fast as we 
build it.
    Our mission is enduring: to provide necessary forces and 
capabilities to the Combatant Commanders in support of national 
security and defense strategies. Growing and transforming the force 
during an era of persistent conflict is driving the need for increased 
resources to train Soldiers and units; we risk failure if faced with a 
rate of change that exceeds our capability to respond.
    As outlined earlier in this Posture Statement, Army Reserve 
Soldiers are organized into a five-year cyclical manning, equipping, 
and training process--ARFORGEN--to increase the effectiveness of the 
Army Reserve and to improve our contributions to the Army.
Train Soldiers and Units
    We have updated the Army Reserve training strategy over the past 
year. The update was necessary to accommodate the continued maturation 
of Army ARFORGEN plans and concepts; to implement the Army Campaign 
Plan; to execute DOD mobilization policies; and to prepare for the 
dynamic environment Soldiers and units will face. To accomplish this, 
we revised the following:
  --Command Relationships.--The U.S. Army Reserve Command (USARC) 
        continues to grow into its new role as a direct reporting unit 
        to Headquarters, Department of the Army (previously USARC was a 
        major subordinate command of U.S. Forces Command). This has 
        resulted in additional responsibility and more direct 
        accountability to Army senior leadership for all matters 
        attendant with providing, maintaining, training, equipping, and 
        the readiness of Army Reserve forces.
  --Post-mobilization Training Time.--During the first quarter of 
        fiscal year 2007, the Secretary of Defense announced a policy 
        to limit involuntary mobilization of Reserve Component members 
        to a maximum of one year, inclusive of post-mobilization 
        training. The goal is to provide predictability to Reserve 
        Component Soldiers, their Families, and their employers so they 
        can better prepare for recurring mobilizations. This 
        necessitated a streamlining of pre- and post-mobilization 
        training to increase time in theater conducting combat and 
        support operations. Thus far, the Army has supported our 
        request for additional pre-mobilization training time to 
        perform theater-specified, required training--17 days in the 
        fourth year of ARFORGEN. Training performed to standard during 
        pre-mobilization will not be repeated at the mobilization 
        station.
  --Army Reserve Generating Force Transformation.--Fiscal year 2007 was 
        a year for dramatic and fundamental change for training 
        organization, certification, and support to the Army Campaign 
        Plan. The Army Reserve became the certifying official for all 
        Army Reserve pre-mobilization training. Upon mobilization, the 
        Army continues to validate deployment readiness. Additionally, 
        six Institutional Training Divisions were reorganized into a 
        three-division structure consisting of initial entry training, 
        the Army school system, and battle command staff training. 
        These changes to our generation force resulted in reducing non-
        deployable headquarters structure, yet we retained essential 
        training capabilities.
  --Regional Training Centers.--The Army Reserve began to field the 
        first of four RTCs where units can train Soldiers and leaders 
        on tasks that are too difficult to execute at Army Reserve 
        Centers. On November 1, 2007, Fort Hunter-Liggett, California, 
        was established as the first of these centers. Training began 
        later that month with more than 100 Army Reserve units 
        scheduled to attend pre-deployment training in 2008. Major 
        training conducted at these centers includes weapons 
        qualifications, convoy operations, and live fire. Three 
        additional centers will be established in 2008: Fort Dix, New 
        Jersey, Fort McCoy, Wisconsin, and a location to be determined 
        in the Southeast. These centers are crucial enablers to reduce 
        post-mobilization training time, improve pre-mobilization 
        training, and enhance readiness of Army Reserve forces.
Collective Training
    In 2007, the Army Reserve continued to improve pre-mobilization 
collective training, most visibly through the execution of two Warrior 
Exercises and the continued refinement of functional exercises. Warrior 
Exercises are ARFORGEN year-three events, which focus on collective 
war-fighting skills in eight-day, continuous-operation, field-training 
exercises that replicate the process of mobilization, deployment, and 
employment in theater. In fiscal year 2007, more than 8,000 Army 
Reserve Soldiers participated in Desert Warrior at Fort Bliss, Texas, 
and Pacific Warrior at Fort Hunter-Liggett, California.
    We also conducted 16 functional exercises to sharpen Soldiers' 
technical skills in a tactical environment. Functional exercises are 
ARFORGEN year-two events, which feature branch specific training in a 
field environment at the small team level. For instance, the 
Quartermaster Liquid Logistics Exercise is the prime venue to train 
Army Reserve petroleum, oil and lubricant, and water units. The 
exercise replicates theater-level petroleum and water operations to 
include storage, distribution, and production.
    Collective medical training at Fort McCoy, Wisconsin, Camp Parks, 
California, and Fort Gordon, Georgia, provide Soldiers with hands-on 
training on the latest theater-specific equipment.
    Throughout fiscal year 2007, we continued to support a train alert-
deploy model. We realized that the Army's current installation 
inventory was not capable of meeting demand for training to standard 
Combat Support and Combat Service Support units. Additionally, the 
Army's Combat Training Center community could not sufficiently meet the 
Army Reserve training strategy requirement that all deploying units 
receive a ``Combat Training Center-like'' experience, nor could it meet 
the new mandate to complete many post-mobilization training 
requirements during the pre-mobilization period.
    As a result, in addition to the Regional Training Centers, the Army 
Reserve is developing concepts for Combat Support Training Centers.
    The Combat Support Training Center program will provide the Army 
and Army Reserve with the ability to design training scenarios, 
simulate theater operations in a contemporary environment, and provide 
exercise exit evaluation for the Army Reserve's performance of Combat 
Support and Combat Service Support missions across the full spectrum of 
operating environments.
    The Ready Response Reserve Units initiative is a pilot program 
designed to create units capable of meeting short-notice requirements 
from Combatant Commanders. Test units are manned with volunteer 
Soldiers who are willing to serve on ``part-time active duty''--more 
than 39 days but less than 365 days per year. This is a key initiative 
to fill gaps in force-structure capabilities. Once this pilot program 
validates its proof of principle, it can be expanded and synchronized 
with ARFORGEN to fill gaps in high-demand, low-density units. At 
present, the current pilot directed by the Assistant Secretary of the 
Army for Manpower and Reserve Affairs has identified three categories 
of units to test. These include: Early Entry Operations, Known Surge 
Operations, and Sustainment Operations, all scheduled to begin October 
1, 2008.
Develop Agile and Adaptive Leaders
    Army Reserve senior leaders serve in Army Reserve Operational and 
Functional formations and at all levels of Army Commands throughout the 
force. They bring a unique blend of civilian-acquired skills and honed 
warrior-leader attributes to the fight.
    The Army Reserve continues to explore avenues to increase the 
primary war-fighting skills through direct management, development, and 
utilization of our senior leaders from the Active Guard and Reserve 
(AGR), Troop Program Unit (TPU), and Individual Mobilization Augmentee 
(IMA) ranks.
  --The Senior Leader Training Program.--The Senior Leader Training 
        Program develops the intellectual and strategic-thinking skills 
        senior leaders need to implement, manage, and lead change in 
        the Army Reserve. Topics covered include: strategic leadership 
        skills, ethical decision making, critical thinking, and Army 
        Reserve transformation. The program focuses on general officer 
        and colonel-level leaders with seminars that assist subordinate 
        commanders in working through transformation and organizational 
        change.
  --Pre-Command Courses.--The Army Reserve upgraded brigade and 
        battalion pre-command courses to enhance training to prepare 
        field grade commanders and command sergeant majors to lead Army 
        Reserve Soldiers.
Equipping Soldiers
    The Army Reserve is committed to providing our Warrior Citizens 
with the best, most technologically advanced equipment available when 
they train and deploy. We are implementing innovative initiatives and 
programs to support the Army Reserve Training Strategy to concentrate 
equipment and sustainment capabilities at regional training sites.
    During fiscal year 2007, the Army Reserve was able to mobilize all 
of its sourced units and elements while meeting pre-mobilization 
training objectives. The existence of theater-provided equipment 
relieved some pressure on the Army Reserve to find Modular Force-
compatible equipment for our mobilizing units. However, providing the 
same equipment for pre-mobilization training has forced the Army 
Reserve to expend limited resources to move Modular Force-compatible 
equipment between units and training locations. Over 6,700 items were 
shipped from unit-home stations and equipment-demobilization sites to 
pre-mobilization training sites during fiscal year 2007. We anticipate 
approximately 7,000 pieces of equipment to be shipped to pre-
mobilization sites in fiscal year 2008.
    The Army Reserve has continued to maintain 90 percent or better 
availability of its limited inventory for deployment and training 
through extensive use of overtime and contracting. Much of this success 
can be attributed to the availability of supplemental funds to contract 
for support to offset the shortfall in facilities and manpower and to 
sustain logistics operations in support of the training and 
mobilization of ``next-deployers.''
    The continuing shift of pre-mobilization training objectives under 
the ARFORGEN process not only continues to add pressure to our aging 
and limited equipment inventory for training, it could impact our 
response during a domestic emergency or a second foreign or domestic 
contingency.
    Currently programmed funding for equipment procurement will 
alleviate this concern, but the equipment procured will not be 
completely delivered until fiscal year 2016. At that time, our 
equipment on hand against unit requirements will increase from the 
current 68 percent to approximately 85 percent. The programmed funding, 
however, will only cover current shortages in Modular Force equipment.
    Other critical factors in maintaining the readiness of our 
equipment to support pre-mobilization training and deployment are the 
national level sustainment programs, such as Recapitalization and Depot 
Maintenance. The Recapitalization program affected only two major Army 
Reserve systems, the High Mobility Multi-Purpose Vehicle and the Heavy 
Expanded Mobility Tactical Truck. The Depot Maintenance program, 
however, provides the opportunity to extend the service life, reduce 
life-cycle costs, and maintain safe operation of older items required 
to substitute for Modular Force equipment due to equipment shortages in 
the Army Reserve.
Homeland Defense and Support to Civil Authorities
    As the first Title 10 responder to support civil authorities during 
a domestic emergency, the Army Reserve is in the best position to 
respond to an attack that occurs in the United States. Our personnel 
and equipment are located in 1,200 communities across the Nation. As 
such, the Army Reserve is an important element of the current DOD 
``Lead, Support, Enable'' Strategy for Homeland Defense and Civil 
Support. U.S. military forces organize, train, and equip to operate in 
contaminated environments, as well as manage the consequences of 
chemical, biological, radiological, or nuclear explosion incidents on a 
level unmatched by any other single domestic agency or international 
partner.
    The Chemical, Biological, and Radiological Nuclear Explosion 
Consequence Management Response Force consists of a rotational pool of 
Active and Reserve units from each of the services. When assigned to 
this force rotation, these units are kept on short notice to conduct a 
secondary mission of domestic consequence management should the need 
arise. Forces for direct response to the effects of an incident deploy 
when directed by the President or Secretary of Defense.
    The Army Reserve is uniquely positioned to support the Army and 
protect our homeland with experience, knowledge, capability, and 
competency. During this persistent conflict, the Army Reserve has the 
capabilities to keep watch at home and to respond to domestic 
emergencies. The imperative of Prepare will help bring the Army Reserve 
back into balance by ensuring our Warrior Citizens are prepared to 
succeed in current and future operational environments.
     reset our equipment to restore readiness and depth for future 
                               operations
    To succeed in current and future operations, the Army Reserve must 
take deliberate steps to ensure that our force is reset as a result of 
repeated deployments, and that our Families and employers are 
revitalized between their Soldiers' deployments so they too can sustain 
the continuous state of mobilization that their Warrior Citizens now 
experience. The Reset imperative now focuses on our equipment with the 
goal of undoing the accumulated effects of repeated equipment use by 
repairing, replacing, and recapitalizing our equipment to rebalance the 
Force.
    In response to the ARFORGEN process, the Army Reserve is building 
pools of equipment to support the mobilization of Army Reserve units in 
year five (Available) at strategic deployment sites, where the 
equipment is maintained in controlled humidity storage. If no Army 
Reserve units are mobilized for a contingency, foreign or domestic, the 
equipment will remain ready for the next cycle. The equipment in the 
hands of our units will remain with these units, be inducted into 
national sustainment programs, or be redistributed to meet the needs of 
the Army Reserve units as they enter the Reset/Train phase (year one).
    The Army Reserve does not budget for unplanned requirements. 
Therefore, should any Army Reserve units be mobilized, additional funds 
will be required to reset the equipment assigned to the mobilized units 
when they demobilize. These funds will prevent an adverse impact on the 
Army Reserve's ability to sustain the ARFORGEN process.
    A critical enabler for the Army Reserve during Reset is an array of 
standard Army management information systems, such as the Army Reset 
Management Tool and supplementary logistics information and management 
systems developed and fielded by the Army Reserve.
Repair and Replace Equipment
    Currently, logistics operations and support for the Reset Program 
is managed and executed by the Army Materiel Command and the Army 
Installation Management Command. The fiscal year 2007 supplemental 
budget fully funded the reset of Army Reserve equipment redeployed from 
Operation Enduring Freedom and Operation Iraqi Freedom. In fiscal year 
2007, the Army Reserve significantly reduced its logistics reset 
backlog. We recovered, repaired, and serviced all redeployed equipment 
not inducted into national level maintenance by the Reset program. With 
the shortage of equipment in the Army Reserve, this recovered equipment 
was immediately transferred from redeployed units to ``next deployers'' 
in order to sustain pre-mobilization and pre-deployment training.
    In fiscal year 2007, equipment losses incurred by the Army Reserve 
during mobilization and deployment were identified to the Army for 
integration into procurement and redistribution planning. Equipment is 
programmed for replacement over the next five years. The Reset 
imperative will contribute to restoring balance to the Army Reserve by 
reconstituting our equipment to match the operational tempo of this 
persistent conflict.
   transform the army reserve to meet the demands of the 21st century
    Demand for the authorized 205,000 Army Reserve Soldiers continues 
to verify the value of their contributions to the Total Force. Our 
transformation to a more effective, integral operational force allows 
us to meet today's demands and to position the Force for future 
deployments and contingency operations and commitments at home and 
abroad. Army Reserve Soldiers, Families, and employers continue to be 
an integral part of this transformation as we form and confirm bonds 
that support changes in the way we train, equip, resource, and mobilize 
our Force. The men and women of the Army Reserve are the centerpiece of 
our transformation. They are the strength of the Army Reserve force and 
the Nation--as both Soldiers and Citizens.
    On January 31, 2008, after releasing two interim reports, the 
Commission on the National Guard and Reserves submitted its final 
report to Congress. In it, the Commission concluded, ``The reliance (on 
the Reserve Components) should grow, even after the demands for forces 
associated with current operations are reduced.'' The report noted 
that, ``Their service in the operational force will be required in 
peacetime, and they will continue to provide a cost-effective means of 
ensuring that strategic requirements to meet a large wartime threat are 
also available. . . . Employing the Reserves in this fashion has proven 
necessary and effective and they have been relied on in every major 
military operation since Operation Desert Storm, yet the structural 
foundations of Reserve Component organization have been changed little 
to facilitate this employment.''
    Fully integrating with the Active Component and effectively 
operationalizing the Army Reserve are fundamental to the Transform 
imperative. The implementation of this imperative will return balance 
to the Army Reserve as we seek to grow the Army, modernize, undergo 
organizational and institutional change, and improve communications.
Grow the Army
    As the Army Reserve continues to shape our force in preparation to 
support an era of persistent conflict, the challenge continues to be 
recruiting enough Soldiers to man units and equip new units with modern 
equipment compatible with the units and services with which we 
integrate and serve. Ready units will enable Soldiers as they train and 
prepare for deployment. Once activated, these modular units will 
increase our rotational depth and provide additional flexibility by 
having units that can be tailored to meet specific mission requirements 
for the Army.
    In fiscal year 2007, the Army Reserve programmed to make 
efficiencies and reintegrate 16,000 spaces to build into modular 
operational units. Additionally, we will also add 1,000 spaces to our 
Force Structure Allowance. The approximately 17,000 spaces of structure 
incorporated into our Force will help to mitigate anticipated 
shortfalls in combat support and combat service-support personnel and 
equipment according to the Total Army Analysis. The Army Reserve 
resourced force will then be a force structure of 206,000--with an 
operating force of 145,500, generating force of 48,500, and Trainee, 
Transient, Holding, and Student force of 12,000.
    The process of shifting our command and control from generating to 
operational commands is nearing completion. In the next two fiscal 
years, we will finalize the disestablishment of the 12 two-star 
readiness commands and transfer command and control of subordinate 
units to 11 one- and two-star operational and functional commands. This 
shift enables the Army Reserve to source more operational units from 
the space savings as a result of reductions in headquarters structure 
throughout the Army Reserve. Additionally, we will create structure 
savings as the four two-star Regional Support Commands (RSCs) are 
established during fiscal year 2008 to assume the base operations 
functions in support of more than 1,000 Army Reserve centers throughout 
the United States. These four RSCs will relieve operational commands of 
facility/garrison-type functions and allow these commands to focus on 
unit readiness training. The RSCs will be the Army Reserve's link to 
Installation Management Command to ensure standardization in garrison 
operations.
Modernize
    As a result of historically low levels of modern equipment, the 
Army Reserve still faces equipping challenges, even though no Army 
Reserve unit deploys without a full complement of compatible or 
interoperable deployable equipment. In support of our transformation to 
an operational force, the Army has committed to spending approximately 
$5 billion in new equipment procurements for deploying Soldiers and 
next-deploying units in scheduled equipment deliveries between July 
2007 and June 2010. These deliveries represent some of the Army's most 
modern systems--such as the biological integrated and detection 
systems, armored security vehicles, and various models of tactical-
wheeled vehicles.
    In fiscal year 2007, the Army Reserve fielded the joint biological 
detection system, the self-powered biological warfare agent detection 
and identification instrument suite, the all-terrain lifter Army 
system, and various communications equipment and individual weapon 
systems. The Army Reserve is also gaining aviation capability with the 
delivery of six of 36 HH-60 MEDEVAC helicopters identified in the Army 
Campaign Plan, and 12 AH-64D Longbow Apache helicopters as part of the 
Attack Helicopter Conversion program.
    The centerpiece of Army transformation as well as the biggest 
acquisition challenge is the Future Combat Systems (FCS). FCS will link 
a new generation of 14 manned and unmanned ground vehicles, air 
vehicles, sensors, and munitions. The architectural platforms within 
each of the individual systems will be designed simultaneously, and 
will ensure compatibility and interoperability of combat support and 
combat service support with the combat forces.
    The Army is modularizing all of its formations--in both the Active 
and Reserve Components--representing a net increase of new modern 
equipment required in all components, and allowing the Army to retire 
several obsolete equipment systems. Modularity seeks to make 
independent, deployable organizations at the lowest levels possible. 
Decentralizing logistics support means recreating that capability at 
unit level. Cooks, mechanics, drivers, equipment operators, and 
warehouse personnel--once concentrated above platoon, company, and 
battalion level--are now required to support independent modular units. 
This also increases the requirements for equipment, including: trucks, 
kitchen trailers, material handling equipment, and computers, as well 
as logistics information and management systems. These are items that 
are often already in short supply within the Army Reserve. Modularity 
has put increased stress on a limited inventory of Modular Force and 
Modular Force-compatible equipment available to the Army Reserve.
Organizational Change
    Transformation is changing the way logistics support and operations 
are conducted by the Army Reserve. Command and control and 
responsibility for unit logistics readiness are being transferred from 
the Regional Readiness Commands to Operational and Functional Commands, 
such as the 377th Theater Sustainment Command in New Orleans, 
Louisiana. Four regional support commands will provide logistics 
support for pre-mobilization training and domestic operations. The 
operation of Army Reserve maintenance and storage facilities, such as 
area maintenance support activities, equipment concentration sites, and 
strategic deployment sites, will become the responsibility of the 
regional commands. Critical enablers include renovated or new 
facilities and the required logistics information and management 
technologies for effectively and efficiently managing logistics 
readiness and operations.
    The Army Reserve has a strategic commitment to fulfill the vision 
of the Army Campaign Plan. By 2013, we will have built 77 brigade force 
equivalents to include 12 multifunctional support brigades (nine 
sustainment brigades and three maneuver enhancement brigades) and 53 
functional support brigades (three Army field support brigades, one 
chemical brigade, four engineer brigades, three military police 
brigades, three petroleum, oil, lubricant brigades, one signal brigade, 
ten medical brigades, two information operations brigades, one theater 
aviation brigade, and 25 regional support groups); eight civil affairs 
brigades; and two psychological operations groups.
  --Base Realignment and Closure Execution.--BRAC 2005 has effectively 
        ``flattened'' the hierarchy that characterized the Army Reserve 
        force structure during the Cold War. As we convert to 
        operational commands, we currently have five regional support 
        groups with projected gains of two information operations 
        groups, one combat support brigade, two sustainment brigades, 
        one Army field support brigade, and seven expeditionary support 
        commands. BRAC represents significant cost efficiencies to the 
        American taxpayer via the Army Reserve; its mandate is to 
        improve the support we provide Soldiers.
Institutional Change
    Our transformation to an operational force cannot succeed without 
institutional change to adapt processes, policies, and procedures to 
meet the realities of current and future needs. A critical aspect of 
institutional change is our Business Transformation initiative, which 
challenges the Army Reserve to transform our business methods and 
culture to apply the best civilian business practices to increase 
effectiveness and efficiency.
    Our Business Transformation Office, established in April 2006 at 
the U.S. Army Reserve Command, reviews all business processes for 
waste, inefficiency, and duplication, and assures best business 
practices. One of the most effective business improvement methodologies 
the Army Reserve has adapted from the business world is Lean Six Sigma, 
a business methodology to define and analyze opportunities and to 
measure, improve, and control performance. In order to maximize the 
unique skills and certifications Army Reserve Soldiers have that are 
not normally resident within the Active Component, we have identified 
more than 50 Army Reserve Soldiers highly qualified in Lean Six Sigma 
methodologies as a result of their civilian occupations. Utilization of 
civilian-acquired skills instead of relying solely on contractors 
provides a cost avoidance of approximately $3.5 million.
    Additional best business practice oversight is conducted by the 
Army Reserve Internal Review Program to evaluate risk; assess internal 
controls; improve quality, economy, and efficiency; and foster 
stewardship. In fiscal year 2007, more than 350 internal reviews 
resulted in monetary benefits of over $34 million.
    The Army Reserve, like the Active Army, is also concerned about 
problems in Army contracting; we are, therefore, committed to improving 
our contracting operations across the Army Reserve. Our plan to 
implement improvement initiatives maintains that Acquisition Planning 
is critical for this effort to succeed. World-class acquisitions don't 
just happen--they are planned! Planning is the most pivotal activity 
the Army Reserve must perform in the acquisition process to ensure we 
get what we want, when we need it, for the most cost-effective, value-
added, economical price.
    In the military, we are trained to plan for combat. When planning 
for and conducting combat operations, we focus on the enemy by knowing 
the enemy, developing plans to keep the enemy foremost in mind, and 
strategizing war games that allow us to enhance or adjust the plan once 
enemy contact is made. As a vital component to the Active Army, the 
Army Reserve must approach acquisition planning the same way we 
approach planning for a military campaign. For an acquisition, cost 
overruns, schedule/delivery delays, and performance shortfalls are our 
enemy. We will develop our acquisition plan via market research, and 
finally, war-game the acquisition from start to finish, applying the 
Acquisition Planning Process. We will involve our supporting 
contracting professionals in every step of the process to ensure 
contract operations best practices and proper use of resources.
Communications
    The geographic dispersion of the Army Reserve makes communications 
and information technology (voice, data, and video) services the 
primary means of conducting command and control, managing mobilization 
timelines, facilitating training data exchange, and providing Army 
Reserve ``reach-back'' capabilities to support the Combatant Commander 
and the Soldiers in the field. As the Army Reserve transforms to adapt 
to the emerging Modular Force structure, the Command, Control, 
Communications, Computers/Information Technology infrastructure 
supporting the mission must also adapt and expand mobile services to 
those Modular Forces.
    Over the past two years, we have successfully consolidated 
information technology services including network operations, 
authentication, security/protection, e-mail, and critical application 
hosting, which have resulted in significant improvements in terms of 
systems availability and reliability. In coordination with the Army, 
the Army Reserve is executing a strategy for network convergence that 
will provide more robust access and service to Army Reserve mobile 
forces worldwide, and thereby tremendously improve the availability and 
security of these systems and application data.
    At both organizational and unit levels, the ability to communicate 
via secure video teleconferencing and secure Internet communication are 
paramount for deploying forces. Services directly affected by mission 
changes include expanded bandwidth to relieve network traffic 
saturation; force protection and home-station command operations for 
locations within the continental United States; secure audio and video 
connectivity; and support for ongoing reach-back operations that 
provide logistics and personnel support and satellite operations.
    Progressive change, as outlined in the Transform imperative, is 
essential for the Army Reserve to improve capabilities and to ensure 
our ability to regain balance as an operational federal force.
                      ready for the next 100 years
    The Army Reserve will require considerable resources and several 
years to optimize structure and build capacity for the future. Our plan 
to mitigate near-term risk and regain balance by 2011 centers on the 
four imperatives described in this report: Sustain, Prepare, Reset, and 
Transform. Recent decisions by the President, the Secretary of Defense, 
and Congress have accelerated the growth of the Total Force, increased 
the Army's access to the Reserve Component, and generated momentum 
needed to restore balance for the Army and the Army Reserve. Due to 
current operational demands, however, an imbalance exists between our 
supply of forces and capabilities and the Combatant Commanders' 
requirements for them. To enhance readiness for current operational 
demands and future challenges, we require sustained, predictable 
funding and operational timelines under ARFORGEN for the foreseeable 
future.
    Although we have adapted our training for counterinsurgency 
operations in Iraq and Afghanistan, we must rebuild readiness across 
the Army Reserve to succeed throughout this persistent conflict. 
Funding for the Army Reserve not only affects equipment readiness, but 
also Soldier readiness for current and future peacetime military 
engagements and major combat operations.
            Sustain Army Reserve Soldiers, their Families, and their 
                    Employers
    Failure to provide the resources necessary to sustain Army Reserve 
Soldiers, their Families, and their employers jeopardizes the ability 
for the Army Reserve to respond when the Nation calls. The Army Reserve 
has been able to manage the risk of mission failure thus far because we 
have not faced a major contingency operation in conjunction with 
support to Operation Enduring Freedom and Operation Iraqi Freedom. Such 
a contingency, especially one in the continental United States, would 
compromise the ability of the Army Reserve to train and supply the 
force for deploying missions. To mitigate this risk we continue a two-
pronged approach: (1) provide Soldiers, their Families, and their 
employers the resources, programs, and services they deserve and the 
Army requires to ensure readiness and to sustain the All-Volunteer 
Force; and (2) procure modern equipment, appropriate facilities, and 
the full-time support personnel necessary to train the force and 
maintain equipment.
    Failure to motivate our current and future Warrior Citizens to 
serve their Nation and to take care of our Soldiers, their Families, 
and their employers will adversely impact our ability to transform to 
an operational force.
            Prepare the Army Reserve for Success in the Current 
                    Conflict
    Without an immediate and continuing investment in procuring 
training dollars and sustaining enough Modular Force equipment to 
completely equip the Army Reserve, the ability to meet pre-mobilization 
training and mobilization objectives under the ARFORGEN process will be 
put at risk. Training on obsolete equipment is ineffective and 
wasteful. Failure to fund the maintenance (including parts, full-time 
personnel, and storage facilities) of new equipment will be more 
expensive in the long run. To mitigate this risk, the Army Reserve 
continues to fund the training resource model, including full-time 
personnel and the best available equipment. Additionally, the Army 
Reserve continues to fund and fully integrate Army Reserve logistics 
information technology to sustain future Army requirements.
            Reset the Army Reserve to Rebuild for Future Contingencies
    Shortfalls to repairing and replacing our equipment directly impair 
unit readiness. Lack of retraining and revitalizing our Soldiers 
directly impacts personnel readiness (to include Soldiers' Families and 
their employers). Simply put, failure to fully fund resetting the 
force, including equipment and people, hinders our ability to perform 
our Title 10 responsibilities. To mitigate risk during reset we will 
bring all of our current resources to bear on the problem. We will 
consolidate repair operations whenever and wherever feasible. We will 
consolidate training activities where we can. However, program support 
is critical in order to correct equipment shortages incurred as a 
result of the operational tempo our equipment has endured during this 
persistent conflict.
            Transform the Army Reserve to Meet the Demands of the 21st 
                    Century
    By increasing the depth and breadth of its overall capacity, Army 
Reserve transformation is improving the Army Reserve's ability to 
execute and support protracted operational requirements. Sustained 
resources to continue this transformation will improve the readiness of 
non-deployed Army Reserve forces, reduce stress on Army Reserve 
Soldiers, their Families, and their employers, and improve the 
readiness of Army Reserve equipment and facilities. Failure to support 
Army Reserve transformation compromises the Army's ability to develop 
relevant capabilities to respond to current and future operations. To 
mitigate this risk, the Army Reserve must continue to receive full 
funding of its budget request and retain flexibility to manage the 
force.
            The Next 100 Years
    The Army Reserve is a community-based, All-Volunteer, federal 
force. As the Commission on the National Guard and Reserves recently 
concluded, ``There is no reasonable alternative to the nation's 
continued reliance on the Reserve.'' Ensuring that our force of skill-
rich, Warrior Citizens remains relevant requires a significant 
investment from our Nation. Sustaining the Army Reserve requires 
resources to fund issues such as quality of life, restructuring 
initiatives, and the ability to provide competitive pay and benefits 
for our Soldiers. Recruiting and retaining our Warrior Citizens 
involves support from our communities, Families, and employers.
    During our first 100 years, the Army Reserve repeatedly provided 
the most cost-effective federal force to the Nation. To remain a value-
added, skill-rich Force that is the strength of the Nation requires 
your support to the Army Reserve now and in the future. We remain 
committed as a Force that is Army Strong!

    Senator Stevens. Our next witness is Vice Admiral John 
Cotton, Chief of the Navy Reserve.
STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVY 
            RESERVE
    Admiral Cotton. Good morning, Mr. Chairman, and thanks for 
the nice comments. It has, indeed, been a privilege and real 
honor to serve the past 4 years.
    As a result of our Active Reserve integration efforts in 
the United States Navy, I am proud to say this morning that our 
Navy Reserve is slightly over strength. That is a good position 
to be in. We recruit as a total force and we emphasize sailor 
for life and a continuum of service. It frankly has never been 
better. About 70,000 reservists this morning, about 21,000 on 
orders, about 5,000 are mobilized, and about 4,000 are in 
theater supporting Central Command.
    We are fully funded to support the fleet and the combatant 
commanders, and that is the great news.
    If I look back over the 4 years, the one item that we have 
not fixed that we talked about here 4 years ago is still a 
single pay and benefits system for all the services because 
back here in the States, we have our own systems. We need to go 
forward. It is very tough for the combatant commanders with all 
the joint forces that are there. I know we are working on it. 
We have some solutions, but it always seems to be a couple of 
years out. So I think that is something we need to work on in 
the future.
    We also have all been working together. We mobilize a lot 
better than we used to. We fight extremely well together. We 
demobilize a little bit better. We still need to put a lot more 
attention, I think, into our wounded warrior efforts and 
especially our family efforts. And back in our States, each 
service cannot do it alone. We need to do it jointly, and I 
think that is where the Guard and Reserve components can really 
help out especially the active component members that are going 
forward on IAs and their families move back to their home 
States.

                           PREPARED STATEMENT

    So, sir, I will put my statement in the record. I thank you 
for your support, especially to our National Guard and Reserve 
equipment account that we use to plug the holes where we have 
emergent needs for our warfighters, especially our 
expeditionary maritime security forces. Thank you, sir.
    Senator Stevens. Thank you, Admiral.
    [The statement follows:]
           Prepared Statement of Vice Admiral John G. Cotton
                              introduction
    Chairman Inouye, Senator Stevens, and distinguished members of the 
committee, thank you for the opportunity to speak with you today about 
the capabilities, capacity, and readiness of the dedicated men and 
women who serve in our Navy's Reserve Component (RC).
    With continued emphasis on Active Reserve Integration (ARI), our 
Navy Reserve force is more ready, responsive, and relevant as a full 
partner in the Navy's total force. Alongside Active Component (AC) 
sailors, RC sailors provide integrated operational support to the Fleet 
and Combatant Commands (COCOMs). Nearly 70,000 Navy reservists are 
deployed in support of global coalition forces, at their supported 
commands or in strategic reserve, ready 24/7/365 to surge to homeland 
defense. Since September 11, 2001, over 50,000 Navy reservists have 
been mobilized in support of the global war on terror, and on any given 
day more than 21,000 talented men and women, or 30 percent of the Navy 
Reserve, are on some type of orders as part of the total Naval 
workforce, fully leveraging their military and civilian skill sets and 
capabilities. Included are about 6,000 RC sailors mobilized in support 
of Operations ENDURING FREEDOM and IRAQI FREEDOM (OEF/OIF), and with 
this steady state requirement, we maintain the capacity to rapidly 
increase contingency support with more than 28,000 additional ready 
reservists.
    Whether supporting combat operations in Iraq or Afghanistan, 
providing humanitarian assistance and disaster relief at home or abroad 
or supporting daily Navy missions at every Fleet and COCOM, Navy 
reservists provide integrated operational support while continuing to 
maintain the RC's role as a strategic baseline.
    As demonstrated through force generation, deployment, and 
redeployment, it is clear that RC forces meet two significant needs of 
our Navy. First, reservists deliver a strategic capability and capacity 
in support of major combat operations, and second, they provide 
operational augmentation to meet predictable and periodic routine 
military missions. By continuing to fully develop ARI, our Navy has 
institutionalized an operational Navy Reserve. The Navy simply cannot 
meet all Fleet and global war on terror requirements without the many 
contributions of its Reserve force.
    The vision of the Navy Reserve is ``Support to the Fleet--Ready and 
Fully Integrated.'' Our overall Navy Reserve force effectiveness is 
measured by the level of integrated operational support it provides to 
the Fleet and COCOMs. While some RC sailors are only able to perform 
the minimum contractual requirement of 2 drill-days a month and 2 weeks 
active duty each year, over two-thirds of the force are far exceeding 
these minimums while performing essential operational support. When the 
work is predictable, periodic and requires special skill sets, 
utilizing a ready and responsive reservist is often the most cost 
effective and capable solution.
    On September 29, 2007, Admiral Gary Roughead assumed the watch as 
our 29th Chief of Naval Operations (CNO) and issued his top three 
priorities to the fleet: current readiness, a Navy for tomorrow, and 
people.
                           current readiness
    Maintaining our warfighting readiness demands that we are agile, 
capable, and ready. We generate forces for the current fight and employ 
our Navy much differently than in years past. Simultaneously, we 
provide ready naval forces and personnel for Joint Force Commanders, 
sustain forward presence, fulfill commitments to allies and respond to 
increasing demands in regions where we have not routinely operated, 
specifically South America and Africa.
    To provide sustained combat readiness, the Navy has moved from 
predictable deployment cycles to a more flexible Fleet Response Plan 
(FRP), under which a surge Navy is able to provide a requirement-based 
and continually ready posture which produces greater warfighting 
capability at reduced cost. As part of the FRP, a fully integrated and 
ready Navy Reserve provides an enhanced surge capacity to meet 
validated requirements with individuals and units. Our FRP increases 
operational availability and allows us to operate with greater 
flexibility. The RC continues to emphasize current readiness and is 
capable of engaging future geopolitical challenges as an affordable and 
effective element of our total force.
    Our force readiness is comprised of two interdependent categories: 
sailor and family readiness. Sailor readiness is defined by the 
medical, physical and administrative preparedness of the sailor. We 
also recognize the fundamental contribution of the Navy family to 
overall readiness. Therefore, we must continue to provide families 
better and more responsive assistance which enables them to be prepared 
for their sailor's call to service.
    Medical Readiness.--Navy Reserve continues to be a leader in 
individual medical readiness. Four years ago, Navy Reserve was 63 
percent medically ready to deploy. Today, our force exceeds 84 percent 
medically ready, which leads all military components. Our significant 
improvement can be attributed in part to the Medical Readiness 
Reporting System (MRRS), which has given Navy leadership improved 
visibility of the medical readiness of the Force. As a comprehensive 
web-based management tool, MRRS has enabled leaders to identify 
deficiencies and promptly address them, as well as plan for future 
medical readiness requirements. Due to the success of MRRS in the Navy 
Reserve, all Navy and Marine Corps commands are being incorporated into 
the system, which will automatically report accurate and timely medical 
readiness. Additionally, the United States Coast Guard is also planning 
to implement MRRS this year.
    Physical Readiness.--Navy Reserve continues to emphasize physical 
readiness for all sailors. We have established a culture of fitness by 
emphasizing both individual and command accountability for physical 
readiness. Every Navy unit has a Command Fitness Leader (CFL) who is 
responsible to the Commanding Officer (CO) to administer the unit's 
Fitness Enhancement Program (FEP), which emphasizes individual physical 
readiness. Our COs are held accountable in their personal evaluations 
for their sailors' performance in the FEP. Commanders have visibility 
into the physical readiness of both individual sailors and larger units 
via the web-based Physical Readiness Information Management System 
(PRIMS). CFLs are enabled to enter data from physical readiness tests 
into PRIMS for each member of their command. Commanders then have the 
ability to accurately assess their units' physical readiness and adjust 
the FEP as necessary. Sailor readiness is also a primary discussion 
topic during weekly Reserve force communications, placing further 
command emphasis on the importance of medical and physical 
requirements.
    Administrative Readiness.--The Navy Reserve has enhanced 
administrative readiness through the employment of the Type Commander 
(TYCOM) Readiness Management System--Navy Reserve Readiness Module 
(TRMS-NRRM), which provides a scalable view of readiness for the entire 
force. Commanders can quickly determine readiness information for 
individuals, units, activities, regions, and many other desired 
echelons. TRMS-NRRM, a Navy Reserve developed system, has served as a 
prototype for the Defense Readiness Reporting System--Navy (DRRS-N), 
which is currently under development by Commander, U.S. Fleet Forces 
Command for use by the total force. DRRS-N will provide a database to 
collect and display readiness information across the force enabling 
commanders to make real-time capability-based assessments and 
decisions.
    Navy is considering additional options for total force systems that 
will reduce administrative impediments. The administrative 
inefficiencies created by multiple electronic pay and manpower systems 
create waste and unnecessary burdens on leadership and hinder force 
readiness. A common AC/RC pay system is crucial to the success of our 
Sailor for Life and Continuum of Service initiatives. In the future, 
manpower transactions will ideally be accomplished on a laptop with the 
click of a mouse, and records will be shared through a common data 
repository with all DOD enterprises. Navy fully supports the vision of 
an integrated set of processes to manage all pay and personnel needs 
for the individual and provide necessary levels of personnel visibility 
to support joint warfighter requirements. Manpower management tools 
should enable the ability for a financial audit of personnel costs and 
support accurate, agile decision-making at all levels of DOD through a 
common system and standardized data structure.
    One constraint to these initiatives is the RC order writing 
process. Our current system has roughly 30 types of duty, including 
Inactive Duty for Training (IDT), Inactive Duty for Training-Travel 
(IDT-T), Annual Training (AT), Active Duty for Training (ADT), and 
Active Duty for Operational Support (ADOS). Numerous funding categories 
of orders are inefficient, wasteful and inhibit Navy's ability to 
access reservists and quickly respond to Fleet and COCOM requirements. 
Process delays are especially troubling at a time when we are relying 
on our reservists to serve as ``first responders'' in the case of a 
domestic emergency. A reduction in the number of duty types, coupled 
with a well-developed, web-based personnel management system, will 
enable RC sailors to rapidly surge to validated requirements. In 
addition to multiple types of orders, the disparate funding processes 
are equally complex. The consolidation of most RC order writing to the 
Navy Reserve Order Writing System (NROWS) has been a significant 
evolution in Navy's effort to integrate its Total Force capabilities by 
aligning funding sources and accurately resourcing operational support 
accounts.
    Family Readiness.--We recruit the sailor, but retain the family; 
which means family readiness is more important than ever as we face the 
challenge of constant conflict with the expectations of multiple, 
predictable and periodic deployments. Navy is dedicated to the support 
of our families and is engaged in an ongoing effort to expand family 
support programs. Since our sailors are stationed in all 50 States, we 
have improved access to available family support resources, including 
those of the Guard. We have developed a family support program that 
employs professional administrators at each Navy Region Reserve 
Component Command (RCC) who are knowledgeable in every aspect of sailor 
and family assistance, especially for those mobilized and deployed. 
Recent initiatives include the Returning Warrior Workshops (RWW), 
pioneered by Navy Region Southwest RCC, which assist returning warriors 
and their families with a smooth transition from a deployed status. The 
weekend-long sessions include interactive group presentations by 
trained facilitators, breakout sessions, vendor information, and one-
on-one counseling in a conference-style setting. Qualified facilitators 
help the participants cope with potentially sensitive and emotional 
discussions as they adjust to family life and civilian employment. By 
continually incorporating lessons learned, RWW effectively deal with 
the broad array of issues facing Navy families before, during and after 
deployments. Workshops also provide additional resources for sailors as 
they return to non-mobilized status.
                          a navy for tomorrow
    The global war on terror has demonstrated the increasing importance 
of the Navy's expeditionary capabilities. Emergent requirements enabled 
Navy leadership to program the expansion of our core maritime 
capabilities into the coastal and inland environments, and Navy Reserve 
continues to perform many important roles in these evolving warfighting 
operations. Almost half of the Navy Expeditionary Combat Command (NECC) 
30,000 sailors are reservists. NECC is an adaptable force which deploys 
Navy capabilities in the green and brown water environments and ashore. 
Our sailors perform a variety of global missions, including security on 
North Arabian Gulf oil platforms, counter-improvised explosive device 
operations in Afghanistan and Iraq, customs inspections in Kuwait and 
drilling and developing potable water wells in villages in the Horn of 
Africa.
    Reservists comprise over 90 percent of the Navy Expeditionary 
Logistics Support Group (NAVELSG), a component of NECC. NAVELSG 
performs air cargo handling missions, customs inspections, freight 
terminal operations, and ordnance handling. Navy Customs Battalion 
(NCB) UNIFORM recently deployed with more than 400 reservists and 
typifies the diversity and relevance of the Navy Reserve as it supports 
the war from Main Street, USA. More than 107 Navy Operational Support 
Centers (NOSCs) in 43 States, Washington, DC, Puerto Rico, and Guam 
mobilized our diverse group of UNIFORM sailors who range in age from 21 
to 58, and include; police officers, school teachers, postal clerks, 
safety inspector agents, engineers, trauma nurses, and carpenters. NCB 
UNIFORM is the seventh rotation of Navy Reservists activated to perform 
this unique mission in support of OIF.
    Navy reservists are 60 percent of the Naval Construction Force 
(SEABEES), who help fulfill more than one-third of NECC's manpower 
requirements. SEABEES are engaged throughout Afghanistan and Iraq 
constructing base camps, roads, and airfields, and repairing bridges 
and buildings. Sailors have constructed school dormitories and water 
wells in Djibouti, erected shelters for flood victims in Ethiopia and 
provided humanitarian relief in Pakistan, Indonesia, Bangladesh, East 
and West Timor, and the Philippines.
    The Navy League recently honored a Reserve SEABEE with the 
prestigious Admiral Ben Morell Award for Logistics Competence. Senior 
Chief Equipment Operator (SEABEE combat warfare) Jason Jones, from 
Naval Construction Battalion 21, mobilized and deployed to Kuwait with 
a detachment of 145 shipmates. Drawing from his civilian construction 
skills, he successfully led his sailors to complete several vital 
projects, including the rebuilding of an operationally critical 
airfield in Afghanistan. Similar NECC RC operational support is 
evidenced daily in Naval Coastal Warfare with Embarked Security 
Detachments (ESDs), Maritime Civil Affairs Group (MCAG) and the 
Expeditionary Combat Readiness Center (ECRC). ESD sailors provide force 
protection for naval assets in the Suez Canal, Arabian Gulf, and Strait 
of Hormuz.
    Because of their experience, Reserve sailors frequently train AC 
security team members. The MCAG works directly with civil authorities 
and civilian populations in the maritime environment and is capable of 
addressing issues such as maritime law, marine fisheries, port 
operations, security and immigration. ECRC, 25 percent RC, is a 
dedicated team of more than 200 professionals overseeing the training, 
equipping, deploying and redeploying of augmentation forces.
    Navy Reserve sailors are fully integrated into the Naval Aviation 
Enterprise (NAE) and play critical roles in training, air logistics, 
adversary support, counter narcotics operations and combat support. 
Exemplifying the relevance to the total force, Reserve instructor 
pilots fly nearly 1,000 sorties per week while assigned to squadron 
augment units under the Chief of Naval Aviation Training (CNATRA). 
While only 10 percent of CNATRA's training squadron instructor cadre 
are reservists, they are responsible for about 17 percent of the 
instructional flight events. Fleet Logistics Support Wing assets are 
routinely deployed and provide responsive air logistics support to the 
Fleet and COCOMs. The active and reserve sailors of Helicopter Sea 
Combat Squadron-84 are forward deployed in Iraq in direct support of 
combat operations. The Reserve sailors of Electronic Attack Squadron-
209 recently returned from a 3-month deployment to Afghanistan. The 
Reserve sailors of Helicopter Antisubmarine (Light) Squadron SIX ZERO 
and Carrier Airborne Early Warning Squadron SEVEN SEVEN deploy in 
support of counter-narcotics operations under United States Southern 
Command. The missions that RC sailors perform serve to make the NAE 
more cost-effective and efficient, while capitalizing on the experience 
and maturity of talented reservists.
    Expeditionary Capabilities. The global war on terror examples of 
surge support include:
SEABEES
Engineers
EOD
Supply Corps
Coastal Warfare
Cargo Handling
Customs Inspectors
Civil Affairs
Chaplains
Medicine/Corpsmen
Trainers/Instructors
JTF Staff Augmentation
Intelligence
Linguists
Public Affairs
IT/Network Support
Anti-Terrorism/Force-Protection (AT/FP)
Law Enforcement
Logistics & Logistical transport/airlift
    Navy Medicine.--We value our RC doctors, nurses and corpsmen 
serving on hospital ships during disaster relief and humanitarian 
missions and supporting the Fleet Marine Forces ashore. At Landstuhl 
Regional Medical Center, Germany, 332 of 361 positions are currently 
filled with Navy Reserve medical professionals. When USNS COMFORT (T-AH 
20) left its homeport in June 2007 for a 4-month humanitarian 
deployment, 10 Navy reservists embarked. RC medical professionals are 
critical to Navy's overall readiness, but are often unable to mobilize 
for extended periods due to the requirements of their civilian 
practices. Therefore, Navy is working to provide them flexible service 
options such as shorter but more frequent mobilizations and 
deployments. Feedback from RC medical professionals and potential 
recruits indicates that 90 days is optimum, but up to 6 months can be 
performed with adequate notification.
    Alignment.--Flexibility is a key component to the success of ARI, 
and several initiatives aim to facilitate more effective and efficient 
operational support. Former Reserve Readiness Commanders now serve as 
integrated Navy Region RCCs, responsible to the region commanders for 
RC readiness, training, assets and surge capabilities within the 
region. Additionally, Naval Reserve Centers were renamed Navy 
Operational Support Centers to indicate that our mission is to provide 
ready, responsive, and relevant integrated operational support to their 
supported commands, the Fleet and COCOMs. ARI remains the catalyst for 
aligning our organizations and processes to CNO's guidance and 
strategic goals, providing increased warfighting wholeness and greater 
return on investment to taxpayers. Navy Reserve continues to lead 
change while emphasizing speed, agility, innovation and support to our 
customers; the Fleet, COCOMs, our sailors, and their families.
                                 people
    Our sailors, Navy civilians and contractors are talented, dedicated 
professionals. We must devote our resources and shape our policies to 
ensure they are personally and professionally fulfilled by their 
service. Recruiting, developing, and retaining diverse and capable men 
and women are imperative to the success of our future Total Force. We 
must continually address the changing national demographic in order to 
remain competitive in today's employment market. Only 3 out of 10 high 
school graduates meet the minimum criteria for military service, and 
the propensity of our Nation's youth to serve in the military is 
declining in many areas.
    The next generation, known as ``Millennials,'' is now entering the 
workplace. These young men and women expect to change jobs or career 
fields multiple times, and they expect a life/work balance that permits 
them the opportunity to serve as well as attend to personal and family 
needs. Career path pay and benefits must evolve to a more flexible 
system that supports ``off'' and ``on'' ramps to and from active to 
reserve service, as well as temporary sabbaticals. Born into a 
globalized world saturated with information and technology, Millennials 
comprise 43 percent of our Navy and are more accomplished than previous 
generations. They are a technologically savvy and cyber-connected group 
who may find the military's hierarchical command and control structure 
contradictory to the flat social networks they are accustomed to 
navigating. The different paradigm under which this generation views 
the world and the workplace has implications for how our Navy attracts, 
recruits and retains top talent.
    The members of the Millennial generation are reticent to consider 
military service as their first career option. The Navy must recognize 
and respect generational traits to ensure we appeal to those talented 
young people who we seek to recruit and retain. Today's influencers, 
most of whom have never served in the military, are often not inclined 
to steer Millennials toward a military career. Our focus in the next 
several years is building a variety of service options to entice 
potential recruits and striving to capitalize on the diversity and 
differences of our total force to ensure our Navy is a family-friendly, 
``Top 50'' workplace.
    Our talented personnel are the foundation of all we do, and Navy 
Reserve is dedicated to policies, programs, and initiatives that 
improve the quality of service for our sailors and their families. In 
fiscal year 2007, 12 percent of enlisted and 23 percent of officers who 
transitioned from the AC chose to affiliate with the Navy Reserve. 
Recent initiatives intended to attract transitioning sailors include 
higher affiliation bonuses, mobilization deferment and the Fleet-to-
NOSC Program. Affiliation bonuses as high as $20,000 are offered to 
sailors possessing specific skill sets, particularly those in high 
demand for the global war on terror.
    Mobilization Deferment.--To afford transitioning AC sailors who 
affiliate with the RC ample time to become settled in their civilian 
careers, the mobilization deferment policy was established. All 
veterans who affiliate with Navy Reserve within 6 months of 
transitioning from the AC qualify for a 2-year deferment from 
involuntary mobilization, and those who affiliate with Navy Reserve 
within 12 months are eligible for a 1-year deferment.
    In order to be a competitive employer, our Navy realizes that we 
must offer opportunities for personnel to pursue their respective 
interests. We have initiated the AC to RC transition program, which is 
changing the paradigm of sailors who decide to terminate their AC 
service at the end of their enlistment. By providing veterans an 
informed, systematic option to convert to the RC, we preserve the 
ability to surge their talents and realize a much higher return on 
their initial training investment. Previous force shaping efforts have 
been designed to achieve a specific end strength, or ``fill,'' but our 
focus has shifted to building a competency-based workforce with the 
right skill sets, or ``fit,'' to more rapidly and effectively meet 
emergent global war on terror requirements.
    Created by the Commander, Navy Recruiting Command, the Fleet-to-
NOSC Program streamlines the Navy Reserve affiliation process. Thirty-
two commands are currently participating in the program, and since its 
inception in November 2006, 27 percent more sailors have affiliated. In 
fiscal year 2009, this program will be expanded to allow AC sailors to 
select from vacant Reserve billets prior to transitioning. To 
facilitate the continuation of a Navy career, members will also have 
visibility of Navy Reserve positions located in the geographic area 
where the sailor plans to reside.
    Health Care.--We have some of the finest medical professionals in 
the world serving in our Navy and the health care they provide to our 
sailors is a valuable recruitment and retention incentive. Our missions 
in OEF and OIF increased the demand for medical services in combat and 
casualty care. Another more complex aspect of health care is the mental 
well-being of our sailors returning from combat operations. Medical 
professionals are rapidly learning more about assessing and treating 
the effects of mental health issues associated with war, such as post 
traumatic stress and traumatic brain injury. We are constantly 
integrating these lessons into our health care system.
    Wounded Warrior/SAFE HARBOR Program.--Our care for combat wounded 
personnel does not end at the Military Treatment Facility (MTF). The 
Navy established the SAFE HARBOR Program in 2005 to ensure seamless 
transition for the seriously wounded from arrival at an MTF through 
subsequent rehabilitation and recovery. As soon as our warriors are 
medically stabilized and arrive at an MTF, SAFE HARBOR staff members 
establish close contact with each severely injured sailor. Typical 
assistance provided by SAFE HARBOR includes; personal financial 
management, member or family member employment, permanent change-of-
station moves, non-medical attendant orders for assisting attendants, 
post-separation case management, travel claims, Veterans Administration 
and Social Security benefits and resolving administrative issues. Since 
its inception, 193 sailors, including 29 from the RC, have benefited 
from the program. We are committed to providing the individualized non-
clinical care that each of these sailors and their families deserve.
    Continuum of Service.--Essential to a dynamic, diverse, and capable 
Navy workforce is establishing a continuum of service by which a sailor 
may serve and reserve over the course of a lifetime. A Sailor for Life 
philosophy removes administrative and policy impediments and creates 
more flexibility to transition between active and reserve statuses, 
manage a civilian career, pursue advanced education and account for 
unique life circumstances. The Navy has asked Congress, via the 
Secretary of Defense, for authorization to begin a pilot program in 
fiscal year 2009. We plan to enable sailors to seamlessly navigate 
``off ramps'' to the RC and ``on ramps'' to the AC. Our vision also 
provides the taxpayer a better return on investment by extending the 
opportunities for our personnel to serve, thereby taking full advantage 
of both military and civilian training and work experience. A well-
developed continuum of service will create a Sailor for Life, ready to 
surge in support of national interests and defense.
    Navy continues its total force approach to manpower management by 
utilizing an enterprise framework and providing cost-wise readiness. We 
are improving processes to deliver increased readiness and combat 
capabilities, provide better organizational alignment and recapitalize 
our Navy. The Navy Reserve has the capacity to meet current and future 
requirements and to continue to transform into the right Force for 
tomorrow.
                                summary
    Since September 11, 2001, over 50,000 Navy Reservists have been 
mobilized to support the GWOT. Leveraging unique military and civilian 
skill sets and capabilities, our RC continues to transform and increase 
the effectiveness and efficiency of our commands while meeting all 
Fleet and COCOM requirements. As we strive to provide more responsive 
and relevant operational support, Navy Reserve will strengthen our 
culture of continual readiness while balancing predictable and periodic 
mobilizations for contingencies. Yes, we are asking more of our 
reservists, but they are responding and performing magnificently across 
all Navy enterprises while surging for the GWOT, serving as a strategic 
baseline and maintaining a ready alert posture for homeland 
contingencies. Our total Navy is a powerful force which will continue 
to enhance the opportunities for our sailors and their families to 
serve and reserve. On behalf of the sailors, civilians and contractors 
of our Navy Reserve, we thank you for the continued support of Congress 
and your commitment to our Navy's total force.

    Senator Stevens. The next witness is Lieutenant General 
John Bergman, Commander of the Marine Corps Reserve. General.
STATEMENT OF LIEUTENANT GENERAL JACK W. BERGMAN, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS RESERVE
    General Bergman. Good morning, Mr. Chairman, again and 
thank you so much for your kind words.
    I am not the only one retiring from the leadership of the 
Marine Corps Reserve this summer. My sergeant major, Jimmy 
Cummings, will retire in August with over 30 years of service, 
and he is the reason that I can travel and do things freely 
because I know that those 60,000 to 70,000 young enlisted 
marines that we have under our command are well taken care of. 
In fact, he just returned from Alaska visiting our AT battalion 
up there, and he said they are plenty good on cold weather 
gear, but they need some other weapon strengths. We are going 
to take care of that.
    Over the last several years, as we have realized that we 
are going to be in the long war for literally generations, the 
development of the force generation model within the Marine 
Corps has proven already to be paying dividends. What that 
means is we can tell an individual, we can tell the Congress, 
we can tell OSD when a unit is going with a level of 
predictability that before was not there. It was previously 
kind of a pick-up ball game, to be quite honest.
    With that predictability now to tell that reservist 5 years 
from now you will be headed out with your unit again, it allows 
us to train, first of all, recruit to that unit, then train to 
it, set it up in such a way that over a 4- to 5-year period, 
building blocks of the training can be designed in order to, in 
the short term, prior to a deployment, possibly beyond the step 
of homeland defense, homeland security, humanitarian 
assistance, disaster relief missions, in preparation for a 
worldwide deployment at the end of the dwell time.
    It is adaptable. We know that the enemy changes their 
tactics as quickly as we change ours. With the predictive model 
of the force generation piece, we can adapt our training so 
that when those marines go to fight, they have the latest of 
the tactics, techniques, procedures that are going to enable 
them to fight and win.
    Last, it is affordable. When you predict that far out, you 
know that a unit that is in the beginning of its dwell time may 
not necessarily need the resources and equipment and training, 
but it may need it more on the post-deployment, family support 
side to make sure that everybody assimilates back into society.
    So the force generation model will allow us for the long 
term to be able to tell the people when they are going and to 
be able to tell the Congress and everybody else how much it is 
going to cost in the meantime and where we need to place our 
resources to keep our readiness level up.
    Last, on the family readiness side, the Marine Corps, 
through the efforts of General Conway, has gone to a 
professional family readiness officer group where we are in the 
process of hiring people for full-time support of our units, 
both Active and Reserve, so that at all times, whether they are 
deployed or whether they are home in dwell time, we have a 
professional network that will provide the continued support. 
And that, dovetailing with the Yellow Ribbon Panel and all the 
efforts that are coming out from that, is a nice dovetailed 
approach to increasing the ability of our marines and their 
families and our sailors who serve with us to maintain a 
healthy level of physical and mental readiness.

                           PREPARED STATEMENT

    Sir, again, it is a pleasure to be here with you all today, 
and I look forward to your questions.
    Senator Stevens. Thank you very much.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack W. Bergman
    Chairman Inouye, Senator Stevens, and distinguished members of the 
subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve as a major contributor to the total force Marine 
Corps.
    Your Marine Corps Reserve fully understands that the road ahead 
will be challenging--not only in the immediate conflict in Iraq, but in 
subsequent campaigns of the long war on terror, which we believe to be 
a multi-faceted, generational struggle. In an environment where the 
total force Marine Corps must be able to rapidly adapt to broad 
strategic conditions and wide-ranging threats, your Marine Corps 
Reserve, a primarily operational Reserve, stands ready to meet the 
challenges before us.
    We continue to recruit and retain the best of our Nation's sons and 
daughters. We continue to train them in tough, realistic scenarios and 
we continue to provide them the best equipment available.
    On behalf of all our marines and their families, I would like to 
take this opportunity to thank the committee for your continuing 
support. The support of Congress and the American people reveal both a 
commitment to ensure the common defense and a genuine concern for the 
welfare of our Marines and their families.
                      today's marine corps reserve
    Today's Marine Corps Reserve is firmly committed to and capable of 
war fighting excellence and continues to be a major contributor to the 
total force Marine Corps. We remain steadfast in our commitment to 
provide Reserve units and personnel who can stand as full partners with 
their active component counterparts while seamlessly performing in all 
contingencies. Today's Marine Corps Reserve continues to maintain the 
pace during the longest mobilization period in our history, and will 
continue to meet the challenge of sustaining that pace for the 
foreseeable future.
    Last year I reported to this committee on the implementation of an 
integrated total force generation model that would lay out future 
activation and deployment schedules for Marine units. The model was 
designed to provide predictability for the individual Reserve marine 
who is striving to strike a balance between family, civilian career, 
and service to community as well as country and Corps. I am happy to 
report that implementation has been successful and we are about to 
activate the third rotation based upon the model.
    To date, we have activated and deployed 6,600 marines in two 
rotations to Operations Iraqi and Enduring Freedom based on the model 
and are activating approximately 2,400 in April, May, and June of this 
year in order to train and deploy late summer to early fall. The 
predictability the force generation model provides has been well 
received by the Reserve marine who can now confidently plan for the 
future; whether going to school, building a civilian career, or making 
major family decisions.
    The force generation model continues to assist service and joint 
force planners who can count on a consistent flow of manned, equipped, 
trained, and ready selected Marine Corps Reserve units to support 
future operations in the long war. This steady flow of Reserve force 
packages also supports our active component in reaching their stated 
goal of 1:2 dwell time. The model, based on a 1-year activation to 4-
plus years in a non-activated status, continues to be both supportable 
and sustainable, thus providing the Marine Corps with a truly 
operational Reserve force. Predictable activation dates permit unit 
commanders to focus their training on core mission capabilities early 
in the dwell and then train to specific OIF and OEF mission tasks once 
they are within 12 to 18 months of activation. Furthermore, regularly 
scheduled dwell time enables our units to recover from past activation 
practices that had required substantial cross-leveling while 
simultaneously degrading parent unit cohesion in order to deploy combat 
capabilities. With each subsequent rotation, the requirement to cross-
level Reserve units decreases. In fact, for an upcoming activation of 
2nd Battalion, 23d Marine Regiment, we foresee little to no required 
cross-leveling of enlisted personnel in order to activate a full 
battalion.
    We believe the full benefit of the force generation model will be 
realized once we have completed a full cycle of rotations, which is 
presently nine rotations per cycle, and the active component reaches 
the authorized end strength of 202,000. That, coupled with our use of 
the force generation model, will be instrumental in the Reserve 
component migrating to a 1:5 dwell time.
    In addition to the 6,600 marines activated and deployed in support 
of OIF and OEF, an additional 4,000 marines from Marine Forces Reserve 
deployed worldwide in support of joint/combined security cooperation 
exercises in the past year as we continue to fill the gap left by a 
lack of available active component forces. Between OIF and OEF and 
security cooperation exercises, nearly one-third of our force has 
deployed outside the continental United States both in an activated and 
non-activated status, again, demonstrating the operational nature of 
the Marine Corps Reserve. We believe that this level of operational 
tempo will continue and we are prepared to maintain and sustain this 
pace for the foreseeable future.
    During this past year, more than 3,500 marines from Fourth Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, and truck units. A 
highlight during this past year was the deployment of Battery F, 2nd 
Battalion, 14th Marine Regiment, a Reserve unit from Oklahoma City. 
Battery F was the first Marine Corps High Mobility Artillery Rocket 
System (HIMARS) unit to be deployed in a combat role; thus 
demonstrating the success of horizontal fielding of equipment within 
the total force Marine Corps.
    The Division also deployed two of its regimental headquarters in 
the role of Marine Air Ground Task Forces (MAGTF) command elements. The 
24th Marine Regiment headquarters deployed as a Special Purpose MAGTF 
to U.S. Southern Command to support the new Partnership of the Americas 
series of small combined security cooperation exercises in South 
America, while 25th Marine Regiment headquarters led the MAGTF in 
support of the combined/joint exercise Talisman Sabre in Australia with 
more than 1,500 marines from across Marine Forces Reserve. The Division 
also conducted training to assist our friends and allies in foreign 
militaries from Mongolia to the Republic of Georgia. The Division 
continued its ongoing relationship with the Moroccan military during 
combined exercise African Lion. The upcoming year will be another busy 
one for the Division as they will conduct training in Nigeria, Ghana, 
Tanzania, Korea, the Dominican Republic, Honduras, Brazil, Peru, 
Colombia, Curacao, Aruba, Argentina and Bosnia. They will also be 
returning for exercises in Morocco and the Republic of Georgia.
    Fourth Marine Aircraft Wing has provided necessary exercise support 
and pre-deployment training as the active component squadrons continued 
supporting deployments to Iraq and Afghanistan. The Marine Corps' 
premier pre-deployment training exercise, Mojave Viper, received a 
majority of air support from our fixed wing and helicopter squadrons. 
Fourth Marine Aircraft Wing deployed Marine Wing Support Squadron 473 
to run airfield operations and Light Attack Helicopter Squadron 773 (-) 
to support combat operations for Multi-national Forces--West in Iraq. 
Additionally, they deployed a Marine Transport Squadron Detachment with 
the UC-35 Citation Encore in order to bring time-critical lift 
capability to U.S. Central Command.
    In addition to these missions, the Fourth Marine Aircraft Wing has 
participated in several combined, bi-lateral and joint exercises in 
Africa, Asia, and Australia. Support for these exercises not only 
includes supporting U.S. and Marine Corp forces, but also can focus on 
training and supporting our allies, as in African Lion, when our pilots 
trained Moroccan pilots in techniques of air-to-air refueling.
    Fourth Marine Aircraft Wing is an integral partner in the Marine 
Corps aviation transition strategy. Focused on the long-term war 
fighting capability of total force aviation, the initial steps require 
a transfer of certain Reserve component aviation manpower, airframes, 
and support structure to the active component Marine Corps. As a 
result, two Reserve Fighter/Attack-18 squadrons will be placed in cadre 
status and a Reserve Light Attack UH-1N/AH-1W helicopter squadron, a 
Heavy Lift CH-53E helicopter squadron, an Aviation Logistics Squadron, 
and two Marine Aircraft Group Headquarters will be decommissioned. 
Another Heavy Lift CH-53E helicopter squadron will be reduced in size. 
Additionally, as part of the Aviation Transition Strategy, Fourth 
Marine Aircraft Wing has commissioned two Tactical Air Command Center 
Augmentation Units to reinforce the total force in the prosecution of 
the global war on terror. Long term, to complete the aviation 
transition strategy, Fourth Marine Aircraft Wing will be equipped with 
21st century airframes and C2 capabilities.
    Fourth Marine Logistics Group continues to provide the active 
component with highly skilled, dedicated personnel capable of 
delivering sustained tactical logistics support. During the past year, 
Fourth Marine Logistics Group provided more than 1,800 marines and 
sailors from across the spectrum of combat service support for its 
ongoing support of OIF. Also during this past year, Fourth Marine 
Logistics Group demonstrated the true meaning of total force as they 
provided a headquarters for an engineer support battalion comprised of 
marines from their own 6th Engineer Support Battalion combined with 
active component Marines from 7th and 8th Engineer Support Battalions 
and deployed in support of OIF.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of Operation Iraqi Freedom. Air-Naval Gunfire Liaison Detachments from 
Marine Forces Reserve have augmented the supported Marine Air Ground 
Task Forces and adjacent commands with air/ground fires liaison 
elements. Marine Forces Reserve also continues to provide intelligence 
augmentation for Operation Iraqi Freedom, to include human exploitation 
teams, sensor employment teams, and intelligence production teams.
    The trend in recent years toward increased participation of our 
Individual Ready Reserve (IRR) marines continued in fiscal year 2007. 
During the fiscal year, the Marine Corps Mobilization Command (MOBCOM) 
processed 2,500 sets of active duty orders for IRR marines. 
Consequently, the readiness requirements of our IRR marines and their 
families have also increased. We have modified IRR management practices 
accordingly. In fiscal year 2007, the Marine Corps Mobilization Command 
screened 4,000 more IRR marines than in fiscal year 2006, just short of 
11,000 of the 60,000 marines in our IRR population. MOBCOM accomplished 
this by increasing the number of administrative musters conducted at 
locations throughout the United States and, also, by increasing the 
quality of communications between the Marine Corps and members of the 
IRR. Higher quality communications keeps our marines better informed 
and prolongs their connection with each other and our Corps. We believe 
that these longer-term connections will be critical as we truly seek to 
create the continuum of service necessary to support a sustainable 
operational Reserve and our total force through the long war.
    In summary, more than 6 years into the long war, the Marine Corps 
Reserve continues to serve shoulder-to-shoulder with our active 
component counterparts. Operations Enduring Freedom and Iraqi Freedom 
have required continuous activations of Reserve forces. Accordingly, 
your Marine Corps Reserve continues to focus upon the future challenges 
of the total force and corresponding requirements of modernization, 
training and personnel readiness to ensure that the Marine Corps 
Reserve meets and exceeds its obligations within the total force.
    While we continue to support the long war, it is not without a 
cost. Continuing activations and high Reserve operational tempo 
highlights the fact that we have personnel challenges in some areas and 
we are putting additional strain on Reserve equipment.
                            equipment status
    The Marine Corps Reserve, like the active component, faces two 
primary equipping challenges: supporting and sustaining our forward 
deployed forces in the long war while simultaneously resetting and 
modernizing our force to prepare for future challenges.
    Our priorities for supporting and sustaining our deployed forces 
are: first, to provide every marine and sailor in a deploying Reserve 
unit with the latest generation of individual combat and protective 
equipment; second, to procure essential communications equipment; 
third, to procure simulation training devices that provide our marines 
with valuable training to enhance survivability in hostile 
environments; and fourth, to provide adequate funding to our operation 
and maintenance accounts to sustain training and pre-deployment 
operations.
    Our priorities in support of resetting and modernizing the force 
include the following: first, to procure principal end items necessary 
to reestablish on hand equipment to the level dictated by our training 
allowance, which is the amount of equipment needed by each unit to 
conduct home station training; and, second, to procure the equipment 
necessary to enhance our capability to augment and reinforce the active 
component. Since the Marine Corps procures and fields equipment as a 
total force, equipment modernization efforts of the Marine Corps 
Reserve are synchronized with the efforts of the active component.
    As with all we do, our focus is on the individual marine and 
sailor. Our ongoing efforts to equip and train this most valued 
resource have resulted in obtaining the latest generation individual 
combat and protective equipment: M16A4 service rifles, M4 carbines, 
rifle combat optic scopes, improved helmet pad suspension systems, 
enhanced small arms protective insert plates, modular tactical vests, 
and the latest generation AN/PVS-14 Night Vision Devices, to name a 
few. I am pleased to report, as I did last year, that every member of 
Marine Forces Reserve deployed in support of the long war is fully 
equipped with the most current authorized individual combat clothing 
and equipment to include personal protective equipment.
    Deployed Marine Corps unit equipment readiness rates remain high--
above 90 percent. Ground equipment readiness rates for non-deployed 
Marine Forces Reserve units average 88 percent, based on training 
allowance. the slightly lower equipment readiness posture is primarily 
attributable to home station training allowance equipment shortages 
caused by sustainment requirements of the long war. The Marine Corps 
Reserve equipment investment overseas since 2004 in support of the long 
war is approximately 5 percent of our overall equipment. This 
investment includes various communications, motor transport, engineer, 
and ordnance equipment, as well as several modern weapons systems such 
as the new HIMARS artillery system and the latest generation light 
armored vehicle. This investment greatly adds to the war fighting 
capability of the Total Force while providing minimal impact to our 
home station training requirements. Deliberate planning at the service 
level is currently underway to reset the total force, to include 
resourcing the Reserve equipment investment made to the long war. This 
will allow the Marine Corps Reserve to remain ready, relevant, and 
responsive to the demands of our Corps.
    Reduced supply availability continues to necessitate innovative 
resourcing approaches to ensure Reserve marines can adequately train in 
preparation for deployment, until the effects of supplemental funding 
produce tangible results. Despite ongoing efforts to mitigate 
shortfalls, the inherent latency in procurement timelines and competing 
priorities for resources will continue to challenge the training and 
equipping of Reserve forces for the long war.
    Your continued support of current budget and procurement-related 
initiatives, such as the President's budget submissions, supplemental 
requests, and National Guard and Reserve Equipment Appropriations 
(NGREA), will guarantee our ability to properly equip our individual 
marines and sailors. Marine Corps Reserve equipment requirements are 
registered in each of these as part of the Marine Corps total force 
submissions. Reserve equipment requirements that cannot be timely met 
with these vehicles are identified as the Reserve portion of the 
unfunded priorities list and equipment procurement requirements are 
sometimes resourced by NGREA. It would be impossible for me to 
overstate the value and importance of NGREA to the Marine Corps 
Reserve. We appreciate Congress' continued support of the Marine Corps 
Reserve through NGREA. Since 2002, NGREA has provided more than $200 
million to Marine Forces Reserve for equipment procurements. It is safe 
to say that we couldn't have provided some critical capabilities to our 
Nation without NGREA. Moreover, I want to emphasize this year the value 
of consistent NGREA funding for our Reserve components and 
specifically, the Marine Corps Reserve. In the last 3 years, through 
consistent funding, we have been able to ``close out'' equipment 
purchases--or to buy to our established training allowance--in 32 
different end items. Examples of equipment purchases we have been or 
will be able to close out using fiscal year 2006, fiscal year 2007, and 
fiscal year 2008 NGREA funding are: the Virtual Combat Convoy Trainer; 
the Medium Tactical Vehicle Replacement--Training Systems; the LITENING 
II Targeting Pod; the AN/ARC-210 (V) Multi-Modal Radio system for our 
KC-130 aircraft; the UC-12+ aircraft; and, multiple C2 systems 
components. We've also been able to come close to closing out other 
equipment purchases. If consistent NGREA funding is received in the 
coming year, and if requirements for these and other items of equipment 
do not change, we envision closing out four other equipment purchases 
with fiscal year 2009 funding: the BRITE STAR FLIR; the Tactical Remote 
Sensor System; the Deployable Virtual Training Environment; and, the 
HMMWV Egress Assistance Trainer.
                               facilities
    Marine Forces Reserve is comprised of 183 sites in 48 States, the 
District of Columbia, and Puerto Rico. These sites are comprised of 32 
owned, and 151 tenant sites. In contrast to active duty installations, 
normally closed to the general public, our Reserve sites are openly 
located within civilian communities. This arrangement requires close 
partnering with State and local entities nationwide. The condition and 
appearance of our facilities may directly influence the American 
people's perception of the Marine Corps, the Armed Forces, and our 
recruitment and retention efforts.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Restoration and Modernization (R&M) funding continues to 
be a challenge due to its current $4.5 million programmed funding 
shortfall across the Future Years Defense Plan (FYDP) and an overall 
backlog of $130.2 million created through significant funding 
shortfalls in prior years. Currently, 10 of our 32 owned sites are 
rated C-3 or C-4 under the Marine Corps' facility readiness reporting 
system. Our OSD-mandated objective is to maintain levels of C-2 or 
better. The fiscal year 2009 budget, if approved, will see programmed 
upgrades for eight sites to C-2 or better, with the remaining sites 
programmed to meet C-2 or better by fiscal year 2010. The fiscal year 
2009 budget attempts to bring the R&M program back on track to address 
remaining deficiencies. However, it should be noted that this funding 
does not address the reported backlog created through prior year 
funding shortfalls. As such, we continue to apply internal savings to 
address R&M projects at the end of each fiscal year.
    The programmed R&M funding shortfalls in the current FYDP, when 
combined with lingering R&M requirements carried over from prior fiscal 
years, continue to increase the FSRM backlog exponentially over the 
FYDP. This jeopardizes our ability to meet the C-2 or better rating for 
quality by 2010. The fiscal year 2007 sale of the former Marine Corps 
Reserve Center in San Juan, Puerto Rico, will potentially provide 
funding to address nearly 20 percent of this combined R&M shortfall. 
Further use of Real Property Exchanges (RPX), and other similar laws, 
has been an invaluable tool towards addressing shortfalls and emerging 
requirements. The RPX program extension to 2010 will allow us further 
opportunities to use proceeds from existing older properties to fill 
gaps in minor construction projects for our centers to meet evolving 
needs.
    The Military Construction, Navy Reserve (MCNR) program, including 
Marine Corps Exclusive and Navy-led projects, is addressing critical 
needs for new facilities to replace older buildings and accommodate 
changes in Marine Corps Reserve force structure. The President's 
proposed fiscal year 2009 budget contains $22.8 million for military 
construction and $836,000 in planning and design funding. Congressional 
approval of this budget provides new Marine Corps Reserve Centers in 
Atlanta, Georgia, and at the Naval Air Station Lemoore, California. 
Your continued support for both the MCNR program and a strong FSRM 
program are essential to addressing the aging infrastructure of the 
Marine Corps Reserve. With more than 50 percent of our Reserve Centers 
being more than 40 years old and 35 percent being more than 50 years 
old, support for both MCNR and FSRM cannot be overstated.
    The Base Realignment & Closure (BRAC) 2005 is an area of continuing 
concern due to the limited funding for BRAC military construction 
projects. Unique to the Marine Corps Reserve BRAC program is the 
secondary impact to our Reserve Centers that are part of Army and Navy 
BRAC actions. Of the 25 BRAC actions for the Marine Corps Reserve, 21 
are in conjunction with Army and Navy military construction projects, 
reflecting OSD policies toward shared joint Reserve centers. As a 
result, any funding shortfalls experienced by these two services will 
have a secondary negative effect on the Marine Corps Reserve. 
Escalating prices in the construction industry continue to challenge 
the Reserves in narrowing the gap between funding requirements for 
projects and budgetary allowances. In fiscal year 2007, two of three 
BRAC projects awarded for Marine Forces Reserve required significant 
increases in funding over what was programmed, ranging from $500,000 to 
$3 million over the budgeted amounts. These factors challenge Marine 
Forces Reserve and its designated construction agents, as well as the 
other Reserve components, to award projects and comply with BRAC law 
deadline. The ramifications of this trend are that Marine Forces 
Reserve will have less funding available in later years for any 
overages and be forced to either significantly cut our requirements at 
the cost of facility mission functionality or move funds from other 
required facility programs. Adequate and timely receipt of funding for 
the entire BRAC program, including restoration of the fiscal year 2008 
budget cut no later than fiscal year 2009, is essential to meeting the 
statutory requirements of BRAC 2005. The compounding effect of the 
back-to-back continuing resolutions we have experienced to date, during 
peak BRAC construction years, has heightened the risk that we will not 
meet statutory compliance by September 15, 2011.
    Our Marine Forces Reserve Environmental Program promotes accepted 
stewardship principles as well as compliance with all regulatory 
requirements in support of training both on site and outside the fence 
line. Marine Forces Reserve has initiated a nationwide program to 
reduce waste production and ensure proper disposal at our centers. We 
have also executed several major projects to protect the nation's 
waterways near our drill centers. Continued funding is essential to 
ensure that both emerging environmental requirements are met and 
critical ongoing training continues.
                                training
    Since 9-11, approximately 99 percent of U.S. Marine Corps Reserve 
units have been activated and 98 percent of those units have deployed 
to the U.S. Central Command area of responsibility in support of 
Operations Enduring Freedom and Iraqi Freedom and the global war on 
terrorism. The collective lessons wrought from their experiences abroad 
have helped improve nearly all facets of our current Reserve component 
training. In this regard, one of the most exciting areas where we are 
continuing to transform the depth and scope of our training is in the 
cutting-edge arena of modeling and simulations technology.
    Rapid advancement in modeling and simulation software, hardware, 
and network technologies are providing ever new and increasingly 
realistic training capabilities. Marine Forces Reserve is training with 
and continuing to field several complex digital video-based training 
systems which literally immerse our Reserve Component Marines into 
``virtual'' combat environments, complete with the sights, sounds, and 
chaos of today's battlefield environment in any clime or place, day or 
night, spanning the full continuum of warfare from high-intensity 
conventional warfare to low-intensity urban conflict.
    Some of these new training capabilities that we are training with 
and continuing to field to support our Reserve marines stationed at our 
183 training sites located throughout the country include the Indoor 
Simulated Marksmanship Trainer--XP. This interactive audio/video 
weapons simulator provides enhanced marksmanship, weapons employment, 
and tactical decision making training for a variety of small arms. The 
system consists of infantry weapons instrumented with lasers that 
enable Marines to simulate engaging multiple target types.
    Another system that we addressed in lasts year's testimony that 
continues to prove invaluable in the pre-deployment training of our 
tactical drivers is the Virtual Combat Convoy Trainer--Reconfigurable 
Vehicle System. This is an advanced, full-scale vehicle simulator that 
trains Marines in both basic and advanced combat convoy skills using 
variable terrain and roads in a variety of weather, visibility and 
vehicle conditions. The simulator is a mobile trailer configured 
platform that utilizes a HMMWV mock-up, small arms, crew-served 
weapons, 360-degree visual display and after action review/instant 
replay capability. Marine Forces Reserve was the lead agency for 
initial procurement, training, and evaluation of this revolutionary 
training system, which is now being used to train the total force.
    Starting this summer, we will begin fielding the newly developed 
Deployable Virtual Training Environment. This is an advanced, first-
person, immersive, simulation-based training system, made up of 16 
laptops and peripherals packaged in ruggedized deployable cases. The 
system is capable of emulating and simulating a wide variety of weapons 
systems and generating hi-fidelity, relevant terrain databases in any 
clime or place. It also provides small-unit echelons with the 
opportunity to continuously review and rehearse Command and Control 
procedures and battlefield concepts in a virtual environment. The 
system consists of two components, the Combined Arms Network providing 
integrated first person combat skills and Tactical Decision Simulations 
providing individual, fire team, squad and platoon-level training 
associated with patrolling, ambushes and convoy operations. Additional 
environment features include combat engineer training, small-unit 
tactics training, tactical foreign language training and event-driven, 
ethics-based, decisionmaking training.
    All of these advanced training systems have been rapidly acquired 
and fielded with vital supplemental and NGREA funding. These critical 
funding resources are not only providing a near-term training 
capability in support of combat deployments, but are also providing a 
solid foundation for the transformation of our training environment 
from legacy static training methods to more realistic virtual combat 
training environments that are preparing our Reserve marines and 
sailors to succeed on future battlefields.
                          personnel readiness
    Like the active component, Marine Corps Reserve units primarily 
rely upon a first-term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve marines, their families, and 
employers remains extraordinarily high.
    In fiscal year 2007, the Marine Corps Reserve achieved 100 percent 
of its recruiting goal for non-prior service recruiting (5,287) and 
exceeded its goal for prior service recruiting (3,575). As of April 1, 
2008, we have accessed 1,890 non-prior service and 2,482 prior service 
marines, which reflects 50 percent of our annual mission.
    Our selected Reserve population is comprised of Reserve unit 
marines, active Reserve marines, individual mobilization augmentees, 
and Reserve marines in the training pipeline. An additional 60,000 
marines are included in our Individual Ready Reserve, representing a 
significant pool of trained and experienced prior service manpower. 
Realizing that deployments take a toll on active component marines, 
causing some to transition from active duty because of high personnel 
tempo, we continue to offer the selected Marine Corps Reserve 
Affiliation Involuntary Activation Deferment policy, which was 
instituted in June 2006. This program allows a marine who has recently 
deployed an option for a 2-year deferment from involuntary activation 
if they join a Selected Marine Corps Reserve unit. The intent of the 2-
year involuntary deferment is to encourage good Marines to participate 
and still maintain breathing room to build a new civilian career.
    I do anticipate greater numbers of Marines from the Reserve 
component will volunteer for full-time active duty with the active 
component throughout fiscal year 2008 as they take advantage of new 
incentives aimed at encouraging marines to return to active duty. These 
incentives support our plan to bolster active component end strength. 
the fact is we need good marines to serve longer, either active or 
Reserve.
    Our focus is to provide an environment that attracts and retains 
dedicated, high performing individuals. For the current year, Reserve 
officer retention has thus far remained above historical norms. 
Enlisted Reserve retention is currently slightly lower than the fiscal 
year 2006/fiscal year 2007 average, and is being monitored very 
closely. We continue to offer several incentives for enlisted Marines 
to stay in the Selected Marine Corps Reserve, which includes increasing 
the initial 3-year re-enlistment bonus from the current $7,500 level to 
the maximum allowable $15,000. I greatly appreciate the increased 
reenlistment incentive provided in the fiscal year 2008 National 
Defense Authorization Act.
    Junior officer recruiting and consequently meeting our Reserve 
company grade requirement remains the most challenging area. At the 
beginning of fiscal year 2007, the Marine Corps modified an existing 
program and implemented two new Reserve officer commissioning programs 
in order to increase the number of company grade officers within 
deploying Reserve units and address our overall shortage of junior 
officers in our Reserve units. Eligibility for the Reserve Enlisted 
Commissioning Program was expanded to qualified Active Duty enlisted 
Marines. The Meritorious Commissioning Program--Reserve was established 
for qualified enlisted marines, Reserve and active, who possess an 
associates degree or equivalent number of semester hours. As of May 1, 
the Officer Candidate Course--Reserve (OCC-R) has proven to be the most 
successful of the three programs. Eighty-four candidates have been 
commissioned second lieutenants in the Marine Corps Reserve. The OCC-R 
focuses on ground-related billets. Priorities of fill for recruitment 
of candidates are tied to our force generation model.
    In the long run, if the Marine Corps Reserve is to remain ready and 
relevant, we must begin to implement necessary changes to the 
superseded cold war reserve model. In particular, we must develop a new 
paradigm that allows our top performing marines to extend their service 
to the total force through a continuum of service. We must continue to 
develop policies and procedures that allow the seamless transition of 
individual reservists on and off of active duty and that would permit 
varying levels of participation by the servicemembers over the course 
of a military career. Current administrative policies routinely raise 
unnecessary obstacles to transitions between military jobs and duty 
status creating barriers to volunteerism. Presently, there are a 
significant number of different types of Reserve service, primarily 
tied to the cold war model of a strategic Reserve. In order to 
successfully transition a specified number of individuals and unit 
capabilities to an operational Reserve, that number of duty statuses 
could and should be reduced.
                            quality of life
    Whether we are taking care of our marines in the desert or families 
back home, quality of life support programs are designed to help all 
marines and their families. Because marines and their families make 
great sacrifices in service to our country, they deserve the very best 
support.
    We are aggressively instituting new Family Readiness Programs, 
revitalizing services, and proactively reaching out to our young 
demographic to ensure our programs and services have transitioned to a 
wartime footing.
    As part of widespread Marine Corps reforms to enhance family 
support, we are placing paid, full-time civilian employees to fill the 
position of Family Readiness Officer at the battalion/squadron level 
and above to support the Commander's family readiness mission. Modern 
communication technologies, procedures and processes are being expanded 
to support family members including spouses, children and parents of 
single marines.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. The program is not only beneficial to career 
marines, but also those intending to transition to civilian life. More 
than 1,300 Marine Forces Reserve personnel (active and Reserve) enjoyed 
the benefit of tuition assistance, which paid out more than $2.6 
million and funded more than 4,000 courses during fiscal year 2007. 
Tuition assistance greatly eases the financial burden of education for 
our service members while enabling them to maintain progress toward 
their education goals.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for servicemembers and their families in selecting child care, before, 
during, and after a deployment in support of the long war. The Boys and 
Girls Clubs of America provide outstanding programs for our Reserve 
Marines' children between the ages of 6 and 18 after school and on the 
weekends. Under our agreement with BGCA, Reserve families can 
participate in more than 40 programs at no cost. With NACCRRA, we help 
families of our reservists locate affordable child care that is 
comparable to high-quality, on-base, military-operated programs. 
NACCRRA provides child care subsidies at quality child care providers 
for our reservists who are deployed in support of the long war and for 
those active duty Marines who are stationed in regions that are 
geographically separated from military installations. We also partnered 
with the Early Head Start National Resource Center Zero to Three to 
expand services for family members of our reservists who reside in 
isolated and geographically-separated areas.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (pre-
deployment, deployment, post-deployment, and follow-on) by providing 
educational opportunities at unit family days, pre-deployment briefs, 
return and reunion briefs, post-deployment briefs and through programs 
such as the Key Volunteer Network (KVN) and Lifestyle, Insights, 
Networking, Knowledge, and Skills (L.I.N.K.S.).
    Every Marine Corps Reserve unit throughout the country has a KVN 
program, which is a volunteer-based program that serves as the link 
between the command and family members--providing official 
communication, information, and referrals. The KVN proactively educates 
families on the military lifestyle and benefits, provides answers for 
individual questions and areas of concerns, and enhances the sense of 
community and camaraderie within the unit. L.I.N.K.S. is a training and 
mentoring program designed by Marine spouses to help new spouses thrive 
in the military lifestyle and adapt to challenges--including those 
brought about by deployments. Online and CD-ROM versions of L.I.N.K.S 
make this valuable tool more readily accessible to families of Reserve 
marines who are not located near Marine Corps installations.
    To better prepare our marines and their families for activation, 
Marine Forces Reserve continues to implement an interactive approach 
that provides numerous resources and services throughout the deployment 
cycle. Available resources include, but are not limited to, family-
related publications, on-line volunteer training opportunities, and a 
family readiness/mobilization support toll free number. Family 
readiness educational materials have been updated to reflect the 
current deployment environment. Specifically, deployment guide 
templates that are easily adapted to be unit-specific were distributed 
to unit commanders and family readiness personnel, as well as Marine 
Corps families, and are currently available on our Web site. Services 
such as pastoral care, Military One Source, and various mental health 
services are readily available to our Reserve marines' families.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve Training Centers to support all phases of 
the deployment cycle. Marine Forces Reserve has incorporated this 
resource into post-demobilization drill periods, family days, pre-
deployment briefs, and return and reunion briefs. follow-up services 
are scheduled after marines return from combat at various intervals to 
facilitate on-site individual and group counseling. Additionally, we 
are utilizing these counselors to conduct post-demobilization 
telephonic contact with IRR marines in order to assess their needs and 
connect them to services.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs at our Reserve sites provides families 
of activated and deployed Marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the dependent 
eligibility and enrollment reporting system. During their homecoming, 
our Marines who have deployed consistently cite the positive importance 
of family support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. We believe current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
correspond to current requirements. We are particularly supportive of 
Military One Source, which provides our reservists and their families 
with an around-the-clock information and referral service via toll-free 
telephone and Internet access on a variety of subjects such as 
parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    Marines and their families, who sacrifice so much for our Nation's 
defense, should not be asked to sacrifice quality of life. We will 
continue to be a forceful advocate for these programs and services. We 
will continue to evolve and adapt to the changing needs and 
environments in order to ensure that quality support programs and 
services are provided to our Marines and their families.
               employer support of the guard and reserve
    Marine Forces Reserve continues to be acutely aware of the 
importance of a good relationship between our Reserve marines and their 
employers. We fully support all the initiatives of the Employer Support 
of the Guard and Reserve (ESGR) and have been proactive in providing 
the information to our Reserve marines on the Five Star Employer 
Program, Patriot Award and Secretary of Defense Employer Support 
Freedom Awards, which are tangible ways for us to recognize those 
employers who provide tremendous support to our men and women who go 
into harm's way. I recently directed all of my major subordinate 
commands to appoint a field grade officer to ensure that units have all 
relevant information to take full advantage of ESGR programs. This will 
ensure that the most current information is passed down to Marine 
Reserve units and personnel, and that all units comply with the new 
requirement for annual ESGR training at the company level. Reserve unit 
commanders are strongly encouraged to correspond with Marines' 
employers prior to deployment.
                               conclusion
    The Marine Corps Reserve continues to be a highly ready, relevant 
and responsive component of the Total Force Marine Corps. As our 
Commandant has stated in the past, ``Our Marines and sailors in combat 
are our number one priority.'' There is no distinction between Active 
or Reserve personnel or units regarding that priority. We fight 
shoulder-to-shoulder with our active component counterparts and our 
Reserve Marines have consistently met every challenge placed before 
them. Your consistent and steadfast support of our marines and their 
families has directly contributed to our successes.
    As I've stated in past testimony, appearing before congressional 
committees and subcommittees is a great opportunity to showcase the 
absolutely outstanding long-term contributions and commitment of this 
patriotic group of citizens we have in the Marine Corps Reserve. It has 
been my honor to serve this great Nation and Corps for the past 38 
years, and although I will be retiring from the Marine Corps in the 
near future, I look forward to continuing serving our great country and 
the Marines and families of the Total Force Marine Corps for many years 
to come. Thank you for your continued support. Semper Fidelis!

    Senator Stevens. Next is Lieutenant General John Bradley, 
Chief of the Air Force Reserve. General.
STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE
    General Bradley. Senator Stevens, it is a pleasure to be 
here with you again today. Senator Mikulski, thank you for 
being with us as well, ma'am.
    I am very proud to be the Commander of the Air Force 
Reserve, and as you indicated, my last hearing perhaps here. I 
want to thank you and all of the members of this subcommittee 
for the great support you have given us over these years.
    I am very, very proud of my airmen in the Air Force Reserve 
Command, and I do not usually spend a lot of time introducing 
folks, but I do like to brag about my folks. And I want to tell 
you about our special 70,000 airmen we have doing great work 
for us today around the world.
    Senator Mikulski will know. We have a very large air 
refueling unit in her State who do fabulous work for us in many 
areas around this country, providing air refueling support for 
important fighter cap missions and deployments. They do 
missions in the U.S. Central Command Area of Responsibility 
(AOR). They fly injured soldiers and marines and airmen and 
sailors from Bagram Air Base, Afghanistan, back home 
frequently. So they are a great unit.
    I hope perhaps I can talk to Senator Bond later about a 
fabulous A-10 unit in Missouri that deployed to Afghanistan 
last week for their third Afghan deployment in the last 3 
years, which followed in 2003 a 9-month deployment to Iraq. 
They were on the ground in Iraq and flying missions, doing 
close air support for soldiers and marines in Iraq in 2003 for 
9 months. I am very, very proud of that unit in Missouri, just 
as I am many others.
    I have with me today representing more than 55,000 enlisted 
airmen my command chief, Chief Master Sergeant Troy McIntosh, 
with me in this hearing today, sir. Chief McIntosh helps me 
invaluably keep track of how our airmen are doing and tells me 
about the issues about which they are concerned and what help 
they need. He is a great advisor to me and I am honored to get 
to serve with him. Thank you, Chief.
    I also have with me Colonel Eric Overturf, Senator Stevens, 
who is based at Elmendorf Air Force Base, Alaska. He is the 
commander of the 477th Fighter Group which is our associate F-
22 group flying with the 3rd Fighter Wing at Elmendorf, this 
phenomenal new air superiority fighter, the F-22. I am proud of 
Colonel Overturf and the operations and maintenance folks that 
he has hired to help the 3rd Wing with its important mission in 
Alaska.
    I also have with me Major Karen MacKenzie. Dr. MacKenzie in 
civilian life is a trauma surgeon who lives near Fresno, 
California doing trauma surgery every day. But she volunteered 
for a tour last year and deployed to Al Udeid, Qatar to be on a 
critical care air transport team, which is a team of a doctor 
and a respiratory specialist and a nurse to transport injured 
soldiers, marines, airmen, and sailors, and was involved in an 
alert scramble to Afghanistan following the crash of a Chinook 
helicopter with 22 Army Special Forces soldiers on board. Eight 
were killed in the crash; 14 survived. They were flown to 
Kandahar, Afghanistan, and her team, along with another team 
from Bagram Air Base triaged and took care of those 14 injured 
soldiers, put them on a C-17 within 2 hours and flew them to 
Landstuhl, Germany. She took them to the hospital and all 14 of 
those brave soldiers survived.
    She is a fabulous representative of our medical community 
in the Air Force Reserve. We do 60 percent of the aeromedical 
evacuation for the Air Force in the Air Force Reserve. She is 
one representative of that great community that has saved so 
many lives of those who have been badly injured in Iraq and 
Afghanistan. So I am very proud to have Dr. MacKenzie behind 
me, as well as Colonel Overturf and Chief McIntosh.

                           PREPARED STATEMENT

    I am very proud of all 70,000 airmen I have in the Air 
Force Reserve, the many deployments they do to support this 
Nation and our Air Force.
    And I look forward to your questions, sir.
    [The statement follows:]
        Prepared Statement of Lieutenant General John A. Bradley
    Mr. Chairman, and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today and discuss the 
fiscal year 2009 President's budget request of the Air Force Reserve.
    This year marks the 60th anniversary of the Air Force Reserve. We 
remain an equal partner in the Total Air Force and an integral part of 
our Nation's defense. The Air Force Reserve has provided significant 
contributions during that time, made possible because we remain tier-
one ready for the Air Force. We have frequently responded to global 
events within 24 hours of notification. For the last 17 of our 60 
years, we have maintained a persistent presence in the USCENTCOM area 
of responsibility. It began with Operation DESERT STORM and we have 
been continually engaged, never leaving the Persian Gulf. During the 
intervening years we again responded to the needs of the Nation after 
the attacks of September 11, 2001, protecting the homeland through 
Operation NOBLE EAGLE and supporting operations abroad in Iraq and 
Afghanistan. The Air Force Reserve also supplied humanitarian relief in 
the wake of natural disasters both home and abroad following 
hurricanes, tsunamis and earthquakes. These efforts are possible 
because we have dedicated, professional, highly trained reservists 
volunteering to participate in these noble causes and the support of 
their families and employers.
    The Air Force Reserve is a strong and steady Total Force partner. 
As operational demands continue, we face challenges that can adversely 
impact our readiness and overall combat capability. We are always alert 
to the need to stay ahead of those challenges so we remain strong 
partners in our country's defense. As an unrivaled wingman, we share 
the same priorities as the Regular Air Force: Win Today's Fight, Take 
Care of Our People, and Prepare for Tomorrow's Challenges.
                           win today's fight
Air Force Reserve Global War on Terror Contributions
    I am proud to say that your Air Force Reserve continues to play a 
vital role in support of our nation's Global War on Terror (GWOT). 
Side-by-side with our Air Force and Air National Guard partners, we 
continue to support the war effort primarily in a volunteer status.
    Our Reserve mobility community stepped up with large numbers of 
volunteers and is providing essential support to combatant commanders. 
We currently have seventy-four C-17 and C-5 strategic airlift crews on 
long term active duty orders in support of the GWOT. Ten Reserve KC-10 
crews remain on active duty orders supporting the air bridge, aerial 
refueling and other airlift requirements.
    Our Reserve F-16s and A-10s remain engaged in Operation ENDURING 
FREEDOM and Operation IRAQI FREEDOM with regularly scheduled rotations. 
We provide eighteen crews and twelve fighter aircraft to USCENTCOM 
annually for close air support missions.
    With little fanfare, our Special Operations and Combat Search and 
Rescue units continue their support of combat operations. Although 
rarely receiving public recognition for their actions, our personnel 
are heavily engaged on the ground and in the air.
    To date, sixty percent of the aeromedical evacuation sorties have 
been flown by Air Force Reserve crews, providing a lifeline home for 
the Joint warfighter. Since September 11, 2001 we have flown nearly 
5,000 aeromedical evacuation sorties, safely delivering 26,769 
patients: 11,030 litters, 10,955 ambulatory and 4,784 attendants. I 
could not be more proud of these men and women. Their selfless 
dedication and professionalism have saved countless lives and 
dramatically improved the chances of recovery for those injured in the 
line of duty.
Tier One Ready
    We in the Air Force Reserve pride ourselves on our ability to 
respond to any global crisis or natural disasters immediately or within 
hours. The Selected Reserve is trained to the same standards as active 
duty Airmen for a reason. We are one Air Force engaged in the same 
fight. With a single level of readiness in the Selected Reserve, we are 
able to seamlessly operate side-by-side with the Regular Air Force and 
Air National Guard in the full spectrum of combat operations. As an 
equal partner in day-to-day combat operations, it is critical we remain 
ready, resourced, and relevant.
Combat Training
    As part of the Total Force Integration initiatives, Air Force 
Reserve Officer Training School was moved to Maxwell AFB, Alabama and 
combined with the Regular Air Force Officer Training School. Recently 
the Air Force initiated several programs to incorporate additional 
combat training for our Airmen. For example, officer training now 
teaches fundamentals of unarmed combat to their officer candidates. 
This is just one part of a 70-hour course of expeditionary skills 
training.
    Basic war fighting skills will be incorporated into Basic Military 
Training for enlisted recruits beginning October 1, 2008. This course 
will be two and a half weeks longer in order to produce more lethal and 
adaptable Airmen with emphasis on weapons training and participation in 
an intense exercise that replicates the deployed environment and the 
challenges it presents.
    The Air Force is developing other training total force 
opportunities such as Common Battlefield Airman Training, and Survival, 
Evasion, Resistance, and Escape training because the battlefield 
continually changes shape and venue, and Airmen need to be able to 
react and survive in any situation.
Fiscal Year 2008 National Guard and Reserve Equipment Account
    A significant reason for our relevance as a combat force is the 
National Guard and Reserve Equipment Account (NGREA). The items we 
purchase with NGREA are prioritized from the Airmen in the field up to 
the Air Force Reserve Command Headquarters and vetted through the Air 
Staff. The cornerstone is innovation and the foundation is 
capabilities-based and has been for many years. I am grateful for the 
National Guard and Reserve Equipment Account because those 
authorizations enable us to remain relevant to the fight. The Congress 
provided $45 million in NGREA last year, with which we secured critical 
combat capability for our Airmen in the field.
  --C5A Airlift Defensive Systems.--Protects our aircrews and C-5A 
        aircraft from Infrared Guided Missiles.
  --C-130 Secure Line of Sight/Beyond Line of Sight capability.--
        Provides clear communication, interoperability and improved 
        situational awareness for our C-130 aircrews.
  --C-130 Small Arms Fire Lookout Capability.--Procures troop door with 
        large windows for C-130 aircraft to visually scan for threats 
        to the aircraft and aircrew.
  --F-16 Upgraded Commercial Fire Control Computer.--Enables use of the 
        helmet mounted cueing sight and software improvements for 
        continued upgrades to the aircraft.
  --LITENING POD Spiral Upgrades.--Upgrades current targeting system by 
        providing improved visual and guidance system.
    This account is critical to the combat capability of the Air Force 
Reserve and the safety of our people. Many of the new capabilities 
resulted in top-of-the-line improvements that are directly tied to 
better Close Air Support for our Soldiers and Marines in both Iraq and 
Afghanistan. These capabilities save lives. There is much more we can 
do if we continue to receive your support.
Readiness Challenges
    While we maintain sufficient combat readiness to meet our current 
missions, we are accepting risk in a number of critical areas. For 
example, Depot Purchased Equipment Maintenance is budgeted at seventy-
nine percent. This reduces aircraft availability for training and 
operations. We will continue to work within our budget guidance levels 
to balance this risk and others while accomplishing wartime taskings.
                        take care of our people
Family Support
    It is a long standing belief the Air Force recruits members but we 
retain families, and that statement is as true today as in the past. As 
we continue playing a large role in prosecuting the GWOT, our members 
and their families are making huge sacrifices. While the Air Force's 
Air Expeditionary Force construct provides predictability for members, 
families and employers, we recognize the impact of the demands of 
operations and are committed to providing services and support to the 
families that support us so well. We continue to place considerable 
emphasis on looking for new, innovative ways to reach our Reserve 
families of deployed members as well as to continue to improve programs 
already in place. To meet their needs, our Air Force community support 
programs and services are there for both married and single Total Force 
Airmen, whether at home or deployed. New initiatives include 
predeployment, deployment, and post deployment Airmen and family 
wellness programs. Specific areas of improvement include a standardized 
predeployment checklist as well as mandatory, comprehensive 
redeployment services, post-deployment health assessment and 
reassessment, non-clinical counseling, and education on reunion 
challenges that Airmen and their families face.
    In 2007, several surveys were launched to evaluate the state of our 
members and families. Included were the Community Action Information 
Board Community Assessment Survey, with 8,440 Reserve respondents, and 
the Caring for People Airmen's Questionnaire Assessment, which noted 
family as one of the top concerns. We continue to provide information 
and referral services, assistance with financial questions and 
concerns, family support groups, morale calls and video telephone 
access, volunteer opportunities, reunion activities, letter writing 
kits for children, and a myriad of other services.
    The commuting nature of the Air Force Reserve combined with base 
closures and realignments create additional challenges for reservists 
and their families. Unlike the Regular Air Force, many of our Reserve 
members do not live in the local area of their host unit. In many 
cases, the families are scattered over various geographical regions, 
making access to centralized counselors difficult. With the 
transformation to an operational force, mobilizations and the need for 
more volunteerism, we are engaged in addressing several issues that 
have surfaced with this target population to include adjusting to the 
new steady state (more deployments, less predictable intervals and tour 
lengths, etc.), access to affordable child care, and employment 
opportunities. We are pursuing solutions to these problems and will 
continue to until they are resolved.
Force Shaping in Fiscal Year 2009
    In the 2006 and 2007 President's budget requests, the Air Force 
reduced Total Force end strength by 37,000 full-time equivalents and 
reprogrammed active military, civilian, and reserve end strength funds 
into the modernization and recapitalization accounts. As a result of 
these actions, the Air Force Reserve reduced its end strength from 
74,900 to 67,500. Additionally, BRAC and Total Force Integration 
initiatives impacted nearly twenty percent of our personnel, many of 
whom we transitioned from operating, maintaining, and supporting legacy 
systems to new and emerging missions such as CYBER, Predator, Global 
Hawk, Falconer Air Operations Centers, and Distributed Common Ground 
Systems. Over the past three years the Air Force has made difficult 
choices in respect to its People, Readiness, Infrastructure, and 
Modernization and Procurement accounts. The Air Force is in the process 
of reevaluating its end strength requirements based on new and emerging 
mission types as well as Air Force support for manpower increases 
programmed for the Army and Marine Corps.
Recruiting and Retention
    We met our recruiting goals for the last seven years thanks to our 
great recruiters and the many authorities and funding the Congress has 
provided such as increased bonus incentives, opening TRICARE Reserve 
Select at the lowest premium to all selected reserve members, and 
expanding the Montgomery G.I. Bill eligibility window from 10 to 14 
years. Our retention targets are also being met. While we continue to 
maintain manning levels to meet mission requirements, we anticipate 
significant recruiting and retention challenges in the near term, and 
potentially the long term, due to base closures and mission 
realignments. BRAC also reviewed the Air Force Reserve's new missions 
and realigned some of the locations. We are not allowed to move our 
Reserve Airmen when we close a base or unit, as is done in the Regular 
Air Force. Reductions and displacement of reservists present 
significant recruiting and retention challenges for the Air Force 
Reserve.
    One new mission area is the stand-up of an F-22 associate unit at 
Elmendorf AFB in Anchorage, Alaska, and Holloman AFB in Alamagordo, New 
Mexico. This mission will have reservists associate with their regular 
component partners on the fifth generation fighter. While we are 
excited about the opportunity, we have had to increase the number of 
recruiters for officer, enlisted and Air Reserve Technician positions 
to overcome the obstacles of this challenging recruiting market.
    We must continue to identify opportunities to attract members 
separating from the Regular Air Force. With a shrinking pool of prior-
service Air Force members, recruitment and retention of these 
experienced individuals is vital to avoid the costs of training non-
prior service members. For some of our most critical specialties, 
affiliation and retention bonuses actually provide a greater return on 
investment versus recruiting non-prior service Airmen. Finally, force 
shaping authorities and incentives should be viewed from a Total Force 
perspective to ensure that provisions do not discourage continued 
service in the Reserve components.
                   prepare for tomorrow's challenges
Air Force Reserve Transformation
    The Air Force Reserve is accepting an increased share in the Total 
Force partnership with accelerated mission growth and associations. We 
continue to combine with our Regular and Air National Guard partners to 
deliver 21st Century capabilities in Global Vigilance, Reach and Power.
    The technological skills and civilian experience of Reserve Airmen 
are ideally suited to expanding the Nation's eye in Global Vigilance. 
To support Air Force dominance in space, the 310th Space Group at 
Schriever AFB, CO expanded to become the 310th Space Wing just last 
month. A further example of our growth in space is the increased 
manpower we are adding to associate with the Regular Air Force's 8th 
Space Warning Squadron at Schiever AFB, and the increase of our own 9th 
Space Operations Squadron at the Joint Space Operations Center at 
Vandenberg AFB, CA. The Air Force Reserve also operates a Global Hawk 
unit and other Intelligence, Surveillance and Reconnaissance systems at 
Beale AFB, CA, as well as Predator units at Nellis AFB, NV. All of 
these reservists contribute to the Nation's ability to gain and 
maintain awareness anywhere in the world, to provide warning and fuse 
data together to route relevant information to Combatant Commanders.
    To extend the arm of Global Reach, we are creating Active 
Associations, where the Air Force Reserve has primary responsibility 
for the aircraft and the Regular Air Force will augment with manpower. 
This will occur with our KC-135s at Seymour Johnson AFB, NC and March 
ARB, CA, and with our C-130s at Pope AFB, NC. The Air Force Reserve 
will cease operating at Selfridge ANGB, MI and move manpower to augment 
the regular component in a classic Associate KC-135 unit at MacDill 
AFB, FL. In the third associate model, an Air Reserve Component (ARC) 
Associate, the Air National Guard is providing manpower to augment our 
Reserve KC-135s at Tinker AFB, OK. Additionally, we will host an Active 
Associate C-130 unit at Peterson AFB, CO, as well as an ARC Associate 
C-130 unit at Niagara Falls, NY, the Nation's first-ever combat 
delivery ARC association. These units will provide responsive military 
capability anywhere on the globe to rapidly supply, position, or 
reposition Joint Forces.
    To increase Global Power projection, we are assuming new missions 
by associating with the regular component in the F-22 at Elmendorf AFB, 
AK and will soon begin standing up an F-22 association at Holloman AFB, 
NM. In another new mission area, we will associate in the F-15E at 
Seymour Johnson AFB, NC. In a mission we are very familiar with, we 
will provide experienced instructors to train the Total Force in the A-
10 at Davis-Monthan AFB, AZ and extend operational experience in a 
classic A-10 association at Moody AFB, GA. These new and expanded 
missions help increase the Nation's ability to hold at risk or strike 
any target, anywhere in the world, and achieve swift, decisive precise 
effects.
Commission on the National Guard and Reserves
    The Congressionally directed commission completed an extensive 
review of the Guard and Reserves' role as an operational force. In the 
report the Commission acknowledged that the Air Force Reserve has been 
a leader in developing the force to meet operational requirements while 
maintaining a significant level of strategic capability. The Commission 
recognized the uniqueness of each Service and acknowledged the need to 
develop discretionary authority that provides flexible tools for the 
Service Secretaries to use when meeting requirements. The Department of 
Defense is studying many of the recommendations and part of that review 
will be the impact on the budget if any of the recommendations are 
adopted in fiscal year 2009.
                                closing
    Mr. Chairman, I take pride in the fact that when our Nation calls 
on the Air Force Reserve, we are trained and ready to go to the fight. 
Everyday we have reservists who are training and deploying around the 
globe in support of our Nation's defense. Our ability to respond is due 
to our focus on readiness. In order to maintain this readiness, we 
budget wisely and ensure we have the proper funding levels to support 
our Airmen and weapon systems.
    On behalf of over 67,500 Air Force Reservists, I appreciate the 
support this committee provides to our readiness and combat capability. 
The Air Force Reserve, as with the other Services, is facing many 
challenges. While we maintain our heritage of providing a strategic 
reserve capability, today and into the future, we are your operational 
warfighting Reserve bringing a lethal, agile, combat hardened and ready 
force to Combatant Commanders in the daily execution of the long war. 
We are proud of the fact that we provide the world's best mutual 
support to the United States Air Force and our joint partners.

    Senator Stevens. Well, thank you very much, and we welcome 
Chief McIntosh and Colonel Overturf. I am proud to have an 
Alaskan here. And, Dr. MacKenzie, thank you very much for 
distinguished service.
    Let me call first on Senator Mikulski.
    Senator Mikulski. Well, thank you, Generals and Admiral. Of 
course, all the wonderful men and women in the Reserves, those 
who were introduced here and those here and around the world, 
we would like to just greet so personally, and we want to thank 
them for their service.

                               RETENTION

    My concerns are recruitment--not recruitment, but 
retention. I think during this intense time and this intense 
OPTEMPO, you have done a good job with recruiting, but my 
concern is retention when one thinks about just the tempo of 
being a flight surgeon, if a flight surgeon or a chaplain were 
all that you do. Could you just go down what your retention 
rates are and what other kinds of support services, 
particularly either to the troops themselves or to their 
families, that we should be focusing on?
    My concern is that they are very worried about their 
families and both their financial situation and then the stress 
of the kind of deployments that they are being called upon that 
reserves never originally anticipated. Maybe we could just go 
down the line on that.
    General Stultz. Yes, ma'am. The good news is our retention 
rates are very good. Last year in 2007, we achieved 119 percent 
of our goals in retention. The good news about that is 
traditionally we have made our retention goals on the backs of 
our career soldiers who have 10 to 15 years and they are 
working toward a 20-year retirement.
    Where we have struggled has been with our first-termers who 
joined and now they are trying to make a decision on whether 
they are going to continue. In 2007, our first-term 
reenlistment rate was almost 150 percent of goal. It was 
tremendous, which means these young soldiers, just as was 
epitomized here today that joined after 9/11, knowing what they 
were getting into, are staying with us.
    So it is a good news story that we are meeting our 
retention goals and currently this year, we are on par for 
about 110 percent of goal at a time when we increased the 
overall number of our goal by almost 3,000. So we increased the 
total number, and we are still exceeding what our goals are.
    To your question, though, we recruit a soldier. We retain a 
family. If you do not have the families with us, that soldier 
is not going to stay with us. And I think what we have got to 
do--and some of the panel here have already mentioned things 
like the Yellow Ribbon Program, the family support networks. We 
have got to continue to pay more and more attention to taking 
care of families and taking care of soldiers prior to 
deployment, during deployment, and post-deployment. And we 
cannot have this approach which we have a legacy strategic 
system that said we mobilize the soldier. When he comes back 
from Iraq, we take him off orders and send him back home, and 
fine, thank you for your service. We are done with you.
    We know now that we are seeing things like post-traumatic 
stress, traumatic brain injury, those types of wounds that 
manifest themselves 6 months after the soldier has returned, 
those types of injuries that the soldiers do not know they have 
got until they get back. And what we are looking at is instead 
of the traditional approach--I was gone for 22 months. I was 
gone from October 2002 through August 2004. I got ready to come 
home from Iraq and Kuwait, and they said to me, okay, tell us 
if there is something wrong so we can keep you. I am leaving. 
Okay, I get back to this side to my mobilization station, and 
they ask you the same question. Tell us if there is something 
wrong so we can keep you here. I am going home. We have got to 
change that approach. We have got to say, okay, let us get the 
soldier back with their family and then let us take an approach 
after they get home for the next 3 to 6----

                         YELLOW RIBBON PROGRAM

    Senator Mikulski. General, I appreciate that. I know I have 
limited time on my question.
    I would just like to say to my colleagues--and I am sorry 
Senator Inouye is not here and this has also been very helpful 
to the leadership of General Blum. Our Yellow Ribbon Program is 
something I have been advocating and one of the pioneer States 
was Maryland. It is the military reintegration program for when 
either the Guard or the Reserve comes home.
    I think my colleagues would be stunned to know that the 
civilian leadership at the Pentagon did not include it in this 
year's appropriation request. Fortunately, our bipartisan 
leadership has chosen to include it in the supplemental which 
would pay, I think, $65 million and will cover 15 States and a 
down payment on those States that are initiating the program.
    Our concern with the Yellow Ribbon Program is that it is an 
excellent program as far as it goes. But, General, I think what 
you are saying, even that excellent program does not go far 
enough because it is about an immediate reentry program, but if 
anyone has other issues that go on for a period of time, it 
presents challenges.
    And what we heard at a Maryland roundtable--the Governor 
and I--was that for a lot of people, they do not really know 
what they need until they have been home 1 year, that year of 
just getting cleaned up and the noise level going down and all 
of the things that it takes just to reconnect. Has that been 
your experience that we have to think about the Yellow Ribbon 
Program not only as it is, but really what our men and women 
are experiencing?
    General Stultz. Yes, ma'am. We have got to be able to 
provide that soldier and his family the confidence that we are 
going to take care of them for any kind of related illnesses, 
services, or whatever no matter when it manifests itself.
    Senator Mikulski. Well, I know my time is up. But is this 
pretty much in agreement with what you all would say?

                               RETENTION

    Admiral Cotton. Yes, ma'am. I just want to say retention is 
great for all of us, but it is not just numbers. We call that 
fill. There is also fit. It is the right skill sets. There are 
certain skill sets that are used over and over again. That 
compresses the back-home time. So that is what we have really 
got to work on.
    Thank you to all of you. TRICARE Reserve Select went into 
effect last October 1 for all reservists. So if you are a 
drilling reservist, a selected reservist, a traditional 
reservist, you can buy health care. This is a huge, huge thing 
for our soldiers, sailors, airmen, and marines. And this has 
picked up our retention. So I thank you for that benefit.
    Senator Mikulski. Thank you, Mr. Chairman.
    Senator Stevens. Senator Murray.
    Senator Murray. I think Senator Durbin was here ahead of 
me. He can go ahead. I will wait.
    Senator Stevens. My list shows you came in first. Why do 
you not go ahead?
    Senator Murray. Well, thank you very much, first of all, to 
all of you for all you have done for our country. I really 
appreciate it, and for all the men and women who serve in the 
Guard and Reserve. There are just tremendous tasks that we have 
asked all of them to do, and I want them to know how much we 
appreciate it.

                              KC-X PROGRAM

    But, General Bradley, let me turn to you first for a 
question because I have really been working hard to better 
understand how the KC-X program was run and to what level each 
branch participated in the selection process. As you are aware, 
this program is the number one procurement effort the Air Force 
has, and the selection process has been touted as the most 
thorough and transparent competition. And I wanted to ask you 
this morning if you could please tell this subcommittee what 
input the Air Force Reserve had on that selection process.
    General Bradley. Senator Murray, the Air Force Reserve had 
no input on that process. As a major command like the other 
major commands, we are not in any way connected to the 
acquisition process.
    Senator Murray. So you were not asked to give any input 
about this procurement process even though the Reserves fly a 
number of these tankers?
    General Bradley. No, ma'am. I was not asked at all. I was 
not involved in any way. We do fly the current old tankers, but 
we are not part of the acquisition and no one talked to me or 
my command in any way about this program.
    Senator Murray. I find that interesting.
    Now, you know, this protest is now before the Government 
Accountability Office (GAO). So I know you cannot comment in 
particular.
    But let me ask you a simpler question rather than something 
about that, and it is one I have asked General Moseley and 
Secretary Wynne. And that is, would you be proud to fly the 
Boeing 767, had that been chosen?
    General Bradley. Of course, ma'am. Every airplane we have 
had over the course of my 41 years in the Air Force I think has 
been a very good, capable aircraft. There are many very capable 
aircraft out there. The Air Force is proud to have any 
aircraft. We would be proud to have any.
    Senator Murray. Thank you. I appreciate that.
    General Bradley. Yes, ma'am.

                           FULL-TIME SUPPORT

    Senator Murray. Let me turn to a broader question. Each one 
of you has a full-time support entity within your organization, 
and with the increased usage of the Reserve component, do you 
feel you have the full-time end strength to fulfill your 
obligations to each of your active duty components' 
requirements? And I would like each one of you to respond. 
General Bradley, we can start with you.
    General Bradley. Senator Murray, we have come down in size 
a little over the last couple of years. We have had a 10 
percent personnel cut to help pay for acquisition programs, the 
same kind of cut that the active Air Force underwent. And what 
we have had to do is evaluate what missions the Air Force needs 
us to do the most and what the least, and we have had to cut 
some things out. We have had to do some reorganization. We have 
cut one flying wing out of our organization, as well as doing a 
lot of restructuring and closing of some smaller units.
    That being said, we have enough people to do everything the 
Air Force wants us to do now. There are more things that they 
would like us to do, if there were more funds. So the Air Force 
has on its unfunded requirements list a personnel increase, if 
they had more funds available, and they have included an Air 
Force Reserve piece in that unfunded request, a growth of 
4,200-plus positions over the course of a few years.
    Senator Murray. An unfunded request. So we need this but we 
do not have the funds?
    General Bradley. Yes, ma'am. There are more things the Air 
Force believes it needs to do for this Nation, and they include 
the Air Force Reserve and the Air National Guard and all of 
those kinds of missions in which they are involved and the 
things they see for the future. They believe with the future we 
are presented and the threats we face, there are some more 
things we could do if we had more people and more funds, but we 
do not have enough funds in the budget for it today.
    Senator Murray. Thank you.
    General Bergman. Good morning, Senator. In the full-time 
support category, the active component Marine Corps for decades 
has provided over 4,000 active component marines to support the 
183 sites of Marine Forces Reserves. Those active component 
marines, literally from the rank of corporal through colonel, 
come to serve with the Reserve component for a 2- to 3-year 
period. They bring with them the current tactics, techniques, 
and procedures that the big Marine Corps is using to go to the 
fight. That usage of those 4,000-plus marines over the course 
of the last several decades has paid off big time for us 
because our units were ready to go to the fight from the 
beginning.
    The better news is that when those active component marines 
return to the big Marine Corps, they come with the knowledge of 
the challenges of the Reserve component when it comes to the 
integration piece and how it all works. We also have about 
2,200 AR, Active Reserve, billets which are our equivalent of 
the full-time support. They are Reserve marines on active duty. 
Historically they did administration type of work. The number 
is about right.
    But what we are looking at is providing two things: number 
one, career tracks for that small of a population, very 
challenging, especially on the enlisted side; but number two, 
providing them tours in the appropriate place. So if they are 
going to be viewed by the active component folks as experts in 
the Reserve component, they had better have served with the 
Reserve component in some way, shape or form. Otherwise, they 
are just another marine who may or may not be able to 
articulate the needs of the Reserve component. So we are 
focusing on restructuring those 2,200 billets to provide, 
number one, the career potential and, two, the expertise that 
is needed across the big Marine Corps in order to understand 
the nuances.
    The best opportunity I believe we have for the future here 
is to provide the continued numbers dollar-wise of ADOS money, 
formerly ADSW, to bring now the new qualified reservist on 
active duty for 2 or 3 years and provide them opportunities as 
they work through their personal continuum of service. Now you 
have an individual, whether it be officer or enlisted, who can 
talk both sides of the equation with a level of articulation 
that everybody needs. So that is the big picture of where we 
stand.
    Senator Murray. Excellent. Thank you.
    Admiral.
    Admiral Cotton. The Navy has enough FTS. Just like the 
Marine Corps, we fully integrate them. We have got about 760 
FTS deployed right now in support of combatant commanders 
getting joint experience. The Commission on National Guard and 
Reserve recommended we continue this integration. FTS stands 
for full-time sailor. We are part of the Navy, not separate 
Active and Reserve.
    And I think the highlight of this right now is the 
commander of Task Force 76 off the coast of Myanmar, or Burma, 
is Rear Admiral Carol Pottinger on board U.S.S. Essex, and she 
is a full-time support admiral and she is fully integrated in 
command of a task force. So this is what Navy has done in the 
integration.
    Senator Murray. Excellent.

                      FULL-TIME SUPPORT STRUCTURE

    General Stultz. I echo what Jack Bergman just said. I think 
in the Army Reserve, two things. One is we have got to reform 
the full-time support structure. We have got to get more 
integration with active components and Reserve soldiers moving 
back and forth between assignments so that we get that 
experience level. And we can take a soldier who is coming 
back--let us say he has been with the 101st at Fort Campbell. 
He has done two tours in Iraq. Maybe he comes back and his next 
tour is in a Reserve unit where he gets some dwell time, but 
also he brings that experience back to us and helps us train 
that unit. In the meantime, I take one of my soldiers and put 
him in the 101st and let him get that experience there. So we 
have got to start getting this continuum of service with 
soldiers moving back and forth.
    In terms of the number, though, we still continue to need 
additional full-time support in our forces. Now, when I have 
talked to the Chief of Staff of the Army, General Casey, I have 
said there are two ways to go about it. One is to give me more 
additional full-time authorizations or give me back the full-
time support that are in what I call the above the line. They 
are in the DA staff. They are in the joint staff. They are in 
the COCOM's.
    I have got 2,700 full-time support soldiers that are Army 
Reserve that are serving outside of Army Reserve assignments. 
They are supporting the Army staff. They are supporting the 
joint staff. They are supporting a lot of other operations, 
good experience in some cases, but they are coming out of my 
ranks.
    And so we are looking and saying we need to recapture that 
2,700 whether or not it is an increase in our full-time support 
authorization to make up for that or to give them back to me so 
I can put them back into those units where the readiness really 
needs to be.
    We also need more flexibility. This cycle we keep talking 
about--and it gets to what Senator Mikulski was talking about 
with reintegration. As a unit goes through a 5-year cycle that 
we are going to put them through, when they come back from 
theater and they are in year one, I probably need a full-time 
staff that looks like a supply sergeant to get my equipment 
straight and accounted for, maybe a chaplain for reintegration. 
I probably need a trainer to get school seats for soldiers who 
need to go to school, those kinds of things, some admin people 
to get orders straight, get reassignments and promotions 
accounted for.
    But 2 years from then when they are getting ready to deploy 
again, they are about 2 years from deployment, I probably need 
to change the mix of that full-time structure, and maybe I need 
a full-time commander and a full-time first sergeant and a 
full-time operations NCO. And so I think one of the things we 
have got to do is make the system we have got more flexible.
    Senator Murray. And what is the barrier to doing that?
    General Stultz. Part of it is the type of structure we 
have--military technicians as full-time people who we do not 
have the capability to move around like that. And then our own 
systems of where we designate full-time positions and it takes, 
for lack of a better term, an act of Congress almost to get 
that changed. And that is our own bureaucracy. That has nothing 
to do with you. It is our own bureaucracy. We have got to get 
more flexible in the way we do things.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Durbin.
    Senator Durbin. Thank you, Senator.

                             MENTAL HEALTH

    I would like to address an issue which is not talked about 
a lot, but needs to be. Admiral Mullen briefed us recently and 
gave us a very candid briefing about the state of our military 
in terms of problems they are facing, both in continuing to 
serve in theater and after they return. He spoke, I thought, in 
very candid terms and honest terms about the toll that this war 
has taken on many of our great citizen soldiers, as well as 
those in the regular Army and regular branches of the service. 
And he talked to us about the concern he has about how long we 
can continue to ask these men and women to make the sacrifices 
that they are making.
    We recently received a report through the Veterans 
Administration, November 2007. It found that 42.4 percent of 
National Guard and reservists screened by the Department of 
Defense required mental health treatment after service. Many of 
these citizen soldiers do not live close to VA facilities and 
have some challenges there.
    The recent VA data on suicide deaths among returning 
veterans from Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF) indicate that Guard and reservists 
account for 53 percent of those suicides. Significantly, only 
one in five had been seen at a VA facility before they took 
their lives.
    When it comes to these issues--heartbreaking issues--of 
divorce, mental illness, and suicide, can you tell me what is 
going on in each of your branches now, having watched this war 
over more than 5 years with repeated deployments, longer 
deployments, strains on individuals and families that they 
might never have contemplated? General Stultz?

                                SUICIDES

    General Stultz. Yes, sir. It is a big concern of mine.
    Now, we have looked at the suicides. I will tell you that 
our suicide rates in the Army Reserve have not spiked or 
increased. We are averaging about 20 suicides a year. Now, we 
used to report only those suicides that occurred while the 
soldier was on duty. We changed that policy because I said, no, 
when I lose a soldier, I lose a soldier. It does not matter if 
he is on duty or off duty. And it is my responsibility. So we 
have been tracking them for the last 3 years, and we have 
averaged right at around 20.
    We have looked at the suicides and to date we cannot 
correlate anything with the deployment and the suicide rate. A 
lot of my suicides occur among soldiers who have never 
deployed, who are not facing deployment. They just have some 
kind of traumatic events in their life. And so in that 
relationship, I said, I cannot make the correlation yet. 
However----
    Senator Durbin. Excuse me. The 20 is for Army Reserve?
    General Stultz. Yes, sir.
    Now, that being said, just as I spoke with Senator Mikulski 
about, what does concern me is the stress. What I have told my 
soldiers is everybody suffers stress from deployment. Everybody 
does. When I was gone for 22 months and came back and I went 
back to my civilian life at Proctor & Gamble and I was sitting 
in a board room talking about how many sizes of Charmin toilet 
paper do we need on the shelf, I could not take it. I said this 
has nothing to do with what is the reality in the world. That 
is stress. Now, how you deal with that is one thing.
    But what we have got to recognize is every one of our 
soldiers goes through stress, and to me, every one of them 
needs to go through the mental counseling. Do not make it 
voluntary. Make it mandatory that everybody gets screened so 
that there is no stigma attached to it. And you do it 3 to 6 
months after they come back.
    Senator Durbin. That was an excellent suggestion. I heard 
exactly the same thing from returning guardsmen in Illinois 
when they were sent to Fort McCoy in Wisconsin and asked, 
``Before you go home, do you have any problems?'' The answer 
was, ``Of course not.'' And they did. They just did not want 
to, in any way, be delayed in going home.
    General Stultz. Well, I think the other thing we cannot 
forget is the families and the kids. They suffer stress also. 
They have got to be part of this process.
    I went down to Camp Rockfish last summer, which is one of 
our summer camps we have for children of soldiers that are 
deployed. We have Operation Purple Camps for all services, and 
then we have some Army Reserve camps. And we were talking to 
one of the counselors down there, and he said, you just got to 
understand what is going on in these kids' minds. Two young 
boys sitting there talking to each other and one of them said, 
when my dad comes back, and the other one said, they come back? 
He assumed he had lost his father. We have got to understand 
those kids. We have got to get them reintegrated also. So the 
stress is not just about the soldier. It is about the entire 
family. We have got to address that.
    Senator Durbin. Are you tracking divorce rates as well?
    General Stultz. Not to the extent we probably should, no, 
sir.
    Senator Durbin. Admiral.

                             MENTAL HEALTH

    Admiral Cotton. I agree with everything Jack just said. We 
have had the same experiences.
    I will add one thing, though. Going as a unit is far 
different than as an individual, and we are doing 1-year 
deployments for these provincial reconstruction teams, 15 
months in some cases, prison guard duty, this kind of stuff. So 
it is tough on an individual family. This is where our total 
Navy has come into play, whether Active or Reserve. We shoot it 
exactly the same way. We used to have Reserve centers. We do 
not have them anymore. They are Navy operational support 
centers and they are manned by Active and Reserve in a State, 
Illinois, for example. And so anybody can get assistance there.
    I have said before that we mobilize well and we fight well. 
We do not do well when sailors come home. We have found that at 
the 3-month, 6-month, maybe as late as the 9-month mark, we 
need a celebration of their service through a returning warrior 
workshop. They go to a nice hotel at about $800 per person or 
couple and celebrate who they are, what they did, receive 
certificates, and are treated to a nice dinner. This is also 
when the onset of the PTSD usually kicks in, like Jack said, 
and this is where you have representatives from the VA, other 
organizations there with phone numbers, Web pages, cards, 
handouts, so we aggressively go after these kind of things. And 
that has really helped here. But we have learned this over 
time. So that is one of the solutions we have.
    Senator Durbin. General Bergman?
    General Bergman. Yes, sir. To echo what John and Jack have 
both said, unit deployment is key. Unit cohesion is key. We as 
the Marine Corps Reserve deploy our units largely as infantry 
battalions or squadrons. So they are together before they go. 
They are together after they come back so that minimization of 
isolation, especially after they return, is a big positive 
factor.
    Plus, we only deploy into theater for 7 months, whether you 
are Active or Reserve in the Marine Corps, because we maintain 
a worldwide base forward presence that a 7-month deployment 
works for us as a service. That helps. But that reservist, of 
course, when they mobilize, is still gone for a year whether 
they are across the street or across the world.
    The critical time after returning in our force generation 
model is that first year to allow them to reintegrate into 
their home life, their business life, but maintain whatever 
level of connection with that Reserve unit while they now 
rebalance their personal life. The positive connection helps. 
We do track that.
    A challenge with tracking some of the folks is from the 
IRR, the Individual Ready Reserve, who come from all over the 
country as individuals and then return--our mobilization 
command tracks that better than we did before because we are 
now aware of the numbers that we have involved. And 16,038 
folks today from the IRR are mobilized, and almost all of those 
are forward deployed.
    Sometimes when a person gets back from deployment, they 
leave a unit. We are providing avenues for if they do not stay 
in touch with us, we are not hesitant to stay in touch with 
them. As marines tend to do, we tend to be a little direct at 
times, and it works because they know in that directness we 
care.
    Senator Durbin. Thank you.
    General Bradley.
    General Bradley. Senator Durbin, my colleagues have given 
you some good, thorough answers with which I would completely 
concur.
    What I would say in addition is we do a lot of deployments 
as units, but we do, in the Air Force, a lot of individual 
deployments. I agree having units together is better and we 
have done a lot of restructuring of the deployments that we do 
to the AOR to gather more of our people from a unit together in 
one place. So we gather hundreds of reservists at one place 
instead of spreading people out more. That is helpful.
    We also, when we bring them home, whether they are 
individuals or units, they immediately go to their families. We 
do not send them to a mobilization center or something. So we 
have a different approach on that. I think, as General Stultz 
mentioned a moment ago, getting people back to their families 
fast helps.
    Also, having unit contact. We put great emphasis in our 
units on commanders and supervisors, first sergeants, senior 
enlisted folks, looking after our people and their families 
before deployment, during deployment, after deployment to make 
sure we stay in touch with these folks and have a handle on 
this.
    There are many things we can do better, but I think we look 
after this fairly well. But we still worry about that stress. I 
would not compare the deployments that my airmen do to those 
that General Bergman's or General Stultz' soldiers and marines 
do due to length. Our deployments are maybe 4 months long or 
sometimes even shorter. Theirs are 7 months, 12 months, very 
lengthy, tough deployments. So no comparison there, I think. 
But there is still stress because my units are doing multiple 
deployments. As I mentioned earlier, many have deployed four 
and five times, shorter tours, but it is a lot of turmoil in 
family and their employment life. So that adds stress.

                               EMPLOYERS

    Senator Durbin. Let me ask one last brief question. How 
important is it when employers of your members of the Reserve 
are willing to make up the difference in pay for those who are 
activated? Is that important?
    Admiral Cotton. I would say it is huge. We just had a brief 
yesterday from the Assistant Secretary of Defense of Reserve 
Affairs of a study that was just done on this. And I just have 
to compliment the employers of America and what they are doing 
for our Guard and Reserve. We are in a long war. They have 
stuck with them. If anything, I think it is accelerating at 
home. That is a really good sign.
    Senator Durbin. Thank you. I have tried for 5 years to get 
the largest employer of Guard and Reserve, the Federal 
Government, to do this, and I failed. But I will keep trying. 
Thank you.
    I have also submitted a statement that I would like to have 
entered into the record.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Chairman Inouye and Senator Stevens, thank you for your leadership 
in addressing a very important part of our nation's armed services--our 
National Guard and Reserves.
The Long War
    Over 1.6 million servicemen and servicewomen have now served in 
Iraq or Afghanistan. Over 262,000 have served as Guardsmen and 208,000 
have served as Reservists. We have lost 454 National Guard soldiers in 
Iraq, almost five times as many as were killed in Vietnam.
    The war in Afghanistan has gone on for seven years. It will last 
longer than Vietnam. There still is no end in sight.
    This summer, Illinois will see the largest deployment of its 
National Guard since World War II.
    2,700 Illinois National Guard members will deploy to Afghanistan, 
where they will help train the Afghan National Army and the Afghan 
National Police. For some, the deployment will be their second, third, 
or even fourth during their service.
    These are the outstanding men and women of America. We ask them for 
their service, their strength, their courage and fortitude. They will 
spend a year using their talents to help rebuild Afghanistan.
Looking Out for Reservists
    Deployed Guardsmen and Reservists don't just leave behind their 
families and their jobs. They often leave behind higher civilian 
salaries. A pay cut hurts any family, but it is especially painful for 
a family that also sees a mother or father deployed to war. I've 
offered legislation requiring employers to cover the salary difference 
for Guardsmen or Reservists called to active duty. I think it's right 
thing to so.
    There are several good proposals for improving conditions for our 
Guardsmen and Reservists. Perhaps the most overdue is Senator Webb's GI 
Bill that improves educational benefits for all members of the 
military, including the Guard and Reserve.
``Stop-Loss''
    But it isn't just about the benefits we make available. We need to 
respect the decision to step down from service, when a service member 
decides he or she is ready to move on to the next phase of their lives.
    Today, the Pentagon prevents some from leaving the service even if 
their tour of duty is soon to be completed.
    Defense Secretary Robert Gates issued an order in January 2007 to 
minimize ``stop loss'' for the active and reserve forces. The Army now 
says it will continue this practice well into 2009. At this time last 
year, 8,540 soldiers were serving involuntarily. Today, that number has 
surged by 43 percent.
    We need to end this ``back door draft'' approach--and let these 
brave men and women move on to the next phase of their lives.
Caring for Reserve Veterans
    I know we're here to talk about those who are serving, but we can't 
ignore the toll this service is taking on those who have served.
    Veterans from Iraq and Afghanistan are coming home with higher 
rates of traumatic brain injuries (TBI), post-traumatic stress disorder 
(PTSD), and depression, among other physical and mental wounds.
    One in five suffers from TBI. One in five suffers from PTSD.
    I introduced a TBI bill last year that was enacted as part of the 
Wounded Warriors title in the fiscal year 2008 Defense Authorization 
Act.
    And we've expanded the VA's polytrauma capabilities to help 
veterans--active duty, Guard, or Reservist--suffering from multiple 
traumas, such as traumatic brain injuries, hearing loss, fractures, 
amputations, burns, and visual impairments.
    These injuries are not always obvious or easy to identify, and once 
they are identified they will require a lifetime of care. But we owe 
our men and women in uniform at least that much. We're starting to see 
what happens when we skimp on diagnosing and treating these wounds.
Impact to Illinois
    My home state of Illinois is feeling the impact of this war.
    The Illinois Department of Veteran Affairs, led by Tammy Duckworth, 
launched the Illinois Warrior Assistance Program--a first in the nation 
program that will screen returning Illinois National Guard members for 
a traumatic brain injury (TBI). The program also offers TBI screening 
to all Illinois veterans, and a 24-hour toll-free psychological 
helpline for veterans suffering from symptoms associated with Post 
Traumatic Stress Disorder (PTSD).
    The Illinois Army National Guard needs more equipment. It has 61 
percent of the ``dual use'' equipment it needs--equipment that can be 
used at war and at home for defense or disaster response.
    The 2,700 soldiers deploying to Afghanistan this year serve in the 
33rd Infantry Brigade Combat Team, at Urbana, Illinois.
    To support this mission, the 33rd recently received $80 million for 
equipment. But at the same time, more than 30 percent of the Illinois 
National Guard's vehicles are outdated.
Conclusion
    We need an honest and candid dialogue about the true cost of this 
war--not just the cost of fighting it abroad, but the cost to families, 
employers, and opportunities lost.
    I look forward to learning what more we can do.

    Senator Stevens. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you and thank all of 
you for being here today to be sure we understand and have the 
facts we need to help support your mission and help assure your 
success in defending the security interests of our country. We 
know this is a tough time and there is a lot of stress and 
questions, unknowns out there in the minds of those under your 
commands. And we appreciate the sensitivity that you have and 
that you have indicated this morning to the challenges to 
families and to the stability of communities in our country. We 
thank you for your service.
    I know Admiral Cotton has this returning warrior program. 
You mentioned that a while ago. I am curious to know if the 
other services have anything similar to that. General Stultz.

                       RETURNING WARRIOR PROGRAMS

    General Stultz. Yes, sir. We have had, for some time, a 
reintegration program. Now, part of the challenge we had was 
the policy from the Secretary of Defense that was put out 
initially that said when a unit returns, for the first 90 days, 
there is a blackout period before they are able to drill again 
to come back together. We just recently got that changed 
because we said, no, we need to get our hands on that soldier 
immediately after they come back so that we can get hands on, 
we can talk. Plus, the soldier wants to get back with his 
comrades. So that was the first step, to get that policy 
changed.
    The next step is this Yellow Ribbon Program which the 
Secretary of Defense and others are now pushing us to say we--
they recognize that we have got to get a systematic approach 
that is not just you come back and 2 weeks later you are done. 
It is 3 months, 6 months, whatever approach, just as General 
Bergman said, almost a 1-year integration plan. So we are 
starting to put together those types of programs.
    We do have programs like Strong Bonds, which our chaplains 
put on, where we pay for the couples to come together and talk 
about it like a marriage enrichment retreat. We started last 
year a singles program because we had a lot of single soldiers 
that said, what about us, and helping them dealing with 
problems, get reintegrated.
    But we have got to do better at formalizing that and not 
just making it as here is where we can do this in a case-by-
case basis, but across the force. That is going to take money. 
It is going to take money to pay for, just as John said, 
getting them together in a hotel environment where you can 
bring the family together. It is going to take some money to 
bring in those types of services we need, whether it is mental 
screening or physical screening, or those types. But I think it 
is something we have got to do. If we are going to have an 
operational force, if we are going to be in an age of 
persistent conflict and we are going to call on the reserve 
components as we have to sustain this war, then we have got to 
put those kind of programs in effect.
    Senator Cochran. General Bradley, what about the Air Force? 
What do you have?
    General Bradley. Senator Cochran, sir, we do not have a 
formal program like Admiral Cotton described, but on a unit 
level, we do many things. Different units do this different 
ways, have welcome home ceremonies. They may have a barbecue 
welcoming people back, have their families, et cetera. 
Different units do it different ways.
    We send people out as much as we can. I and other senior 
leaders in the Air Force Reserve try to go out and welcome 
people home off deployments. We like to shake hands when they 
get off the airplane and thank them for their service. And I go 
out as much as I can to visit units and thank people for what 
they do.
    We do not have that kind of formalized program. Perhaps we 
should look at something like that. But each of our wings have 
different ways to introduce them to their families and units 
and thank them for their service, but no formalized program.
    Senator Cochran. General Bergman.
    General Bergman. Yes, sir. Both the Active and Reserve 
components of the Marine Corps have a defined return reunion 
program for the families. It varies after the point where that 
unit demobilizes, and now as the Reserve component, we spread 
out events over that year timeframe because we know for a fact, 
like we joke about in some ways before they leave, if we are 
having a family event right before that unit leaves, those 
folks are not paying attention to what is being briefed. They 
are holding onto their loved one. They know they are leaving.
    When they return, they are still holding onto them because 
they are glad they are back. So we try to make sure that the 
program that is presented meets the immediate needs and keeps 
the door open, so 30 days, 60 days, 90 days down the road, if 
something develops, now they know that they have a place to go 
to get help. That is key.
    Senator Cochran. We appreciate very much your leadership, 
and thank you very much for cooperating with our subcommittee 
and giving us the facts we need to help you and help defend the 
security interests of our country.
    Senator Stevens. Senator Bond.
    Senator Bond. Thanks very much, Senator Stevens.
    I want to say a sincere thank you to the great work that 
you are doing in leading a vitally important part of our 
combined forces. Without the Reserve, we would be in terrible 
condition, and your efforts have made a huge impact.
    I am particularly proud of the Reserve A-10 unit at 
Whiteman Air Force Base which, I believe, has been three times 
to Afghanistan and apparently is preparing to deploy again. I 
would appreciate any comments that you have on that.

                         RESERVE A-10 SQUADRON

    General Bradley. Senator Bond, I was bragging about that 
unit in my opening statement. I am glad you are here because I 
told them I would love to talk to you about it. I am very proud 
of them. In fact, I was honored to be the wing commander of 
that unit almost 20 years ago.
    There is not a better unit in the Air Force Reserve than 
that wing at Whiteman, and they deployed last week to Baghram, 
Afghanistan for the third time. And I am going to visit them at 
the end of this month when I go over to Iraq and Afghanistan. 
And I will be proud to see them. They are fabulous airmen who 
are doing great work for America, doing close air support for 
soldiers and marines, NATO, and other coalition partners there 
in Afghanistan.
    They are indicative of the other airmen we have in the Air 
Force Reserve, but I will tell you they are special. They also 
spent 9 months on the ground and in the air over Iraq from 
March to November 2003. So in 5 years, this is their fourth 
combat deployment, and I am very proud of them. And I will pass 
on your regard to them when I visit.
    Senator Bond. Please do and give them not only our thanks 
and congratulations, but best wishes. Thanks very much.
    General Bradley. Yes, sir, I will. Thank you.
    Senator Bond. Thank you, Senator.
    Senator Durbin. Senator Stevens, if I might just make a 
comment. I would like to acknowledge, if it has not been 
acknowledged, that General Bradley is a few weeks away from 
retirement after more than 41 years of service to our country, 
and thank him personally for all that he has given us.
    General Bradley. Thank you, Senator Durbin, and I have two 
colleagues who are not quite as old as I am who are leaving as 
well. And I am proud to serve with them.
    Senator Durbin. I wish you all the best. Thank you.
    Senator Stevens. Well, thank you very much.
    Senator Mikulski. Senator Stevens, could I also make a 
comment, just a very brief one?
    Senator Stevens. Yes.
    Senator Mikulski. We could talk even more with you, 
particularly in the area of Reserve medical units like the 
Comfort, home-ported in Baltimore.
    But I just want to thank you for your candid, very candid 
presentation here today to really talk about what more--whether 
it is the marines, the Air Force, the Navy, or the Army does. I 
just found the candor and the bluntness in the way you are 
standing up for the reservists to be really refreshing, and I 
wanted to thank you for both your service but really your 
advocacy for the men and women who serve under you.

                        ELMENDORF AIR FORCE BASE

    Senator Stevens. General Bradley, there was an experiment 
really at Elmendorf Air Force Base when you took the Air Force 
Reserve and melded them in with the active duty as far as the 
F-22 is concerned. Now, I understand that experiment is going 
to be followed now at Holloman Air Force Base in New Mexico. 
Would you tell the subcommittee members here what you have done 
and how that improves the whole operation as far as the total 
Air Force is concerned?
    General Bradley. Yes, sir. I would be very glad to.
    What you are talking about at Elmendorf Air Force Base is 
what we in the Air Force refer to as an associate concept where 
we have one set of airplanes that belongs to a particular wing 
and that wing, whether it is Active or Reserve or Guard, owns 
those aircraft. And then we put another organization alongside 
it that associates with it, and they have people who work on 
and fly those aircraft as well. We have done that in Alaska. We 
are hiring maintenance personnel. We are hiring pilots to fly 
our F-22's there.
    And it has been very successful. I saw the active duty wing 
commander, General Tinsley, 2 weeks ago, and he told me he is 
so happy with the way this is working. And his reservists are 
doing tremendous work for him.
    We do this all over the Air Force. Senator Murray is gone, 
but at McChord Air Force Base, Washington, we have a similar 
operation in the C-17.
    We do it in many of the aircraft systems. It provides more 
capability, more people to work on and fly airplanes because 
the airplanes are more capable today than they used to be. And 
we need to keep them in the air more. Just as the airlines like 
to keep airplanes in the air, we need to keep them in the air 
so they can do more work because we have fewer aircraft today. 
So this provides more accessibility of the aircraft to the 
active Air Force and it also provides an experience base of 
guardsmen and reservists who are able to help fly these.
    We have a unit in Senator Durbin's area at Scott Air Force 
Base, Illinois, that does this with distinguished visitor 
airlift and special assigned mission aircraft, Active and 
Reserve working together.
    So at Holloman Air Force Base in New Mexico, as you asked, 
Senator Domenici--I have spoken to him about this. We are going 
to stand up a similar organization at Holloman to the one we 
have at Elmendorf Air Force Base where we will have Air Force 
reservists flying and working on the F-22 right alongside 
active duty airmen who fly and maintain the aircraft.
    It is a great concept. We have been doing it actually in 
some parts of the Air Force Reserve for 40 years in the air 
mobility business. So this association concept works well, and 
we do it whether it is the Reserve associating with the Active 
or Active associating with us. So in different cases, a 
different component may own the aircraft actually and the 
others associate with it. It is a proven concept that works.
    Senator Stevens. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    The chairman and I will have some questions we will submit 
to you. I request you respond to them at your convenience.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Lieutenant General Jack C. Stultz
            Questions Submitted by Senator Daniel K. Inouye
                       yellow ribbon integration
    Question. Gentlemen, the Department is establishing a Yellow Ribbon 
reintegration program for all reserve components. I know that many of 
the reserve components have already been providing reintegration 
programs. What is your component doing to support the reintegration of 
reservists returning from deployment and do you expect your program to 
change significantly with the introduction of the Yellow Ribbon 
program?
    Answer. The Army Reserve currently provides reintegration 
activities to our Soldiers and their Families through the entire 
deployment cycle. Activities include Marriage Enrichment Retreats, 
Single Soldier Retreats, Pre-deployment briefings and homecoming and 
reunion workshops for Family members.
    The Office of the Secretary of Defense Memo dated April 15, 2005 on 
Policy on Involuntary Training Following Demobilization prohibits 
military training for at least 61 days following a deployment. The 
Yellow Ribbon Program will dramatically expand our current 
reintegration activities by allowing us to bring Soldiers on duty 
shortly following deployment along with their Family members 
specifically for reintegration activities. This will help us better 
identify and provide help to our veterans who are experiencing 
difficulties.
    Additionally, our intent is to gather Families at the time of unit 
alert and again at pre-deployment processing to prepare them for 
extended deployments and help identify Families in crisis or those 
requiring additional support. We are developing the curriculum for our 
commands, utilizing medical and community resources, to provide 
counseling and initial intervention for those in need, as well as the 
outlets to help them overcome a myriad of issues based on stress, 
trauma, or Family crisis. While our Soldiers are deployed, Yellow 
Ribbon gives us the ability to invite Family members to the unit, on 
travel orders for one day, approximately 60 days after the start of the 
deployment and again, for one day 60 days prior to their return to 
continue to help the Family with existing or new issues that may arise. 
Once the unit returns home, we will begin the reintegration process by 
conducting three reintegration weekends centrally located to the 
command. The first two reintegration weekends requiring Soldiers and 
inviting Family members to attend will be held regionally and at 
centralized, off-site locations. Contracted professional child care 
will be available to those Soldiers who have small children. The third 
reintegration weekend will be for Soldiers only. All events will focus 
on reintegration back into the Family and community, and help identify 
medical issues that may begin to surface. We are engaging our Combat 
and Operational Stress Teams, the Military Family Life consultants, and 
the U.S. Public Health Service to help provide the expertise and 
classes to accomplish these reintegration events and activities.
    We expect the Army Reserve Yellow Ribbon events to help reduce the 
stress of combat and extended deployment and separation, reduce 
domestic violence, reduce the number of suicides, lessen financial 
difficulties and allow for more timely intervention for those suffering 
from emotional disorder, mild traumatic brain injuries (concussion) and 
post-traumatic stress disorder.
                 army reserve--full time support (fts)
    Question. General Stultz, the Army Reserve has identified a 
requirement of an additional 9,000 full time personnel to support 
training and mobilization activities. The fiscal year 2009 budget does 
not request a significant increase in full time support personnel. Why 
has the Department not supported a significant increase?
    Answer. The Department does not support a significant increase 
because they are currently conducting an extensive study on the Full 
Time Support (FTS) required for an Operational Reserve. In addition, 
the United States Army Reserve is also conducting its own analysis of 
the entire FTS structure.
    Question. And do you believe that the shortage of full time support 
is affecting the operational readiness of the Army Reserve?
    Answer. Yes, today's full-time personnel are major contributors 
across the full spectrum of the United States Army Reserve (USAR) 
operations. Fighting the Global War on Terrorism underscores the vital 
role Full Time Support (FTS) personnel have in preparing units for the 
multitude of missions both at home and abroad. The USAR Army Guard 
Reserve (AGRs) sustain the day-to-day operations of the entire USAR. 
The readiness level of the USAR units is directly tied to its FTS 
program.
    Question. The Army Reserve's full time support personnel (Active 
Guard and Reserve personnel and Military Technicians) currently 
comprise 11.9 percent of its end strength, compared to 34 percent for 
the Air Guard and approximately 17 percent for the other reserve 
components. Only the Army Guard, with 15.9 percent full time support, 
is faced with a similar full time support shortage. A 1998 study, re-
validated in 2006, supported the addition of 9,200 full time support 
personnel, bringing full time support to 16.8 percent of the Army 
Reserve's endstrength. The Army Reserve argues that even more full time 
support is now justified because of GWOT-related training and 
mobilization requirements. A new study is currently ongoing, with a 
December completion date, to re-evaluate full time support 
requirements.
    Recently, the Senate Armed Services Committee authorized an 
additional 3,300 full time support in their fiscal year 2009 bill. The 
Army Reserve has not yet provided cost estimates for this increase. In 
addition, although the Army Reserve is now meeting its recruiting goals 
after a year or two of lackluster performance, it might still be 
difficult for the Reserve to recruit that number of full time personnel 
in one year.
    General Stultz, the Army Reserve has struggled to achieve its 
recruiting mission in previous years, if given the authority and 
funding to increase your full time support levels in fiscal year 2009, 
how many positions could you fill?
    Answer. At this time the United States Army Reserve (USAR) can fill 
3,000 AGR positions in fiscal year 2009 if given the authorizations. 
Although the USAR has struggled in achieving its Troup Program Unit 
(TPU) end strength, we have successfully and consistently met the AGR 
end strength. As a result, we are confident we could fill the 
additional AGR authorizations.
                                 ______
                                 
       Questions Submitted to Lieutenant General John A. Bradley
            Questions Submitted by Senator Daniel K. Inouye
                           force realignments
    Question. General Bradley, the Air Force Reserve has been 
implementing several force structure adjustments as part of the Total 
Force Integration and base closure initiatives. The resulting closures 
and mission realignments have hurt Air Force Reserve retention. Now, as 
an additional cost saving measure, the Air Force is considering closing 
several reserve bases and transferring the units and personnel to 
active duty bases to reduce base overhead costs. How do you think this 
will affect the Air Force Reserve? Are you concerned that this will 
hurt retention levels?
Background
    The Air Force Reserve is undergoing significant force structure 
adjustments. As part of the Total Force Integration plan, the Reserve 
is working to pool equipment and personnel resources with the active 
Air Force to maintain capabilities at a lower cost by associating a 
reserve unit and active unit with the same set of equipment. At this 
same time, the BRAC Commission realigned Air Force assets at over 100 
facilities, recommending some bases close and other realign equipment 
and personnel. These changes affect 26 of the 37 Reserve locations.
    The Air Force Reserve is very concerned about how these additional 
changes are affecting retention. Reserve forces are not as mobile as 
those of the active force so base closures and mission reassignments 
threaten to hurt personnel retention as many airmen choose not to 
follow their unit to another base or to learn a new skill-set to 
perform their unit's new mission. Since these initiatives began in 
fiscal year 2005, the Air Force Reserve has seen a 2.2 percent decrease 
in retention levels with the largest losses coming from 1st and 2nd 
term personnel.
    Now, just as the Air Force Reserve is more than halfway through 
this wave of restructuring, additional cost saving measures are being 
examined. In an effort to reduce base overhead costs, the Air Force is 
considering eliminating many reserve bases and relocating the unit and 
affiliated personnel to an active duty base. This realignment could 
cause the same retention difficulties created by the Total Force 
Integration and BRAC initiatives because many reservists may chose not 
to uproot their families and leave their civilian jobs to follow their 
unit to a new base.
    General Bradley, when do you expect the Air Force to make a 
decision on whether to go ahead with this restructuring?
    Answer. The fiscal year 2009 President's budget request does not 
include any programmatic closing of additional Air Force Reserve bases 
beyond measures directed by the Congress in the 2005 Base Realignment 
and Closure round. The Air Force is currently deliberating its fiscal 
year 2010-15 Program Objective Memorandum (POM) submission to DOD, and 
as such, looks at many possible options to fund Air Force requirements. 
Most of the options discussed during this process never make it into 
the final submission to DOD. Since these options are pre-decisional it 
would be pre-mature to discuss any of the multiple scenarios that may 
be a part of the POM submission in a constrained fiscal environment. 
But Congress will be notified as soon as the fiscal year 2010 PB is 
final and releasable.
                      yellow ribbon reintegration
    Question. Gentlemen, the Department is establishing a Yellow Ribbon 
reintegration program for all reserve components. I know that many of 
the reserve components have already been providing reintegration 
programs. What is your component doing to support the reintegration of 
reservists returning from deployment and do you expect your program to 
change significantly with the introduction of the Yellow Ribbon 
program?
Background
    The Yellow Ribbon program is a reintegration program for reservists 
returning from deployment. The program invites service members and 
their families to attend a weekend reintegration seminar at 30, 60, and 
90 days after returning from deployment. It was started as an Army 
Guard program in Minnesota and is currently operational in a dozen 
states. The fiscal year 2008 authorization bill required the Department 
to establish a Yellow Ribbon program for each of the reserve 
components. To date, efforts are still in their infancy and the reserve 
components have not been given clear guidance about how to implement 
the Yellow Ribbon program and how to integrate it with any existing 
reintegration programs. So far, the Army is the only service to require 
military personnel to attend reintegration training, for the other 
components it is either optional or is incorporated into normal weekend 
drill activities.
    Admiral Cotton, General Bergman, and General Bradley, I have been 
told that currently reintegration training is only mandatory for the 
Army, have you considered requiring your service members to attend 
reintegration activities?
    Answer. Given the purpose of the Yellow Ribbon Reintegration 
Program, it is very likely that the required training will be mandatory 
and although optional for family members, will be strongly encouraged. 
High emphasis will be placed on providing our Airmen and their families 
with sufficient information, services, referrals and proactive outreach 
opportunities throughout the deployment cycle. Our mobilization process 
is often not unit based as compared to the Army and therefore our 
deployment distribution varies widely depending on the mission demands. 
Mass reintegration activities may not be our best avenue to help. We 
would also like the opportunity to personalize our efforts. Therefore, 
we are exploring the most efficient, effective, and creative ways to 
take care of our deploying Airmen and their families. We are currently 
exploring the use of telephonic outreach, screening and advocacy 
services by licensed behavioral health clinicians to personally contact 
and follow our deployed Airmen at the 30/60/90 day intervals. At the 
same time, we are taking a hard look at our current policies and 
perceptions to lessen concerns and stigma associated with seeking help. 
Available counseling services will be presented positively and 
communicated in a way that by electing to receive help, the Reservist's 
career will not be jeopardized. We also realize that trust must be 
built before reintegration activities achieve their intended purpose, 
mandatory or otherwise.
                                 ______
                                 
       Questions Submitted to Lieutenant General John W. Bergman
            Questions Submitted by Senator Daniel K. Inouye
                         reintegration training
    Question. General Bergman, I have been told that currently 
reintegration training is only mandatory for the Army. Have you 
considered requiring your service members to attend reintegration 
activities?
    Answer. Yes. As we move forward in our planning, we envision 
providing some of these activities at mandatory events, such as drills 
or musters.
                         reserve reintegration
    Question. What is your component doing to support the reintegration 
of reservists returning from deployment and do you expect your program 
to change significantly with the introduction of the Yellow Ribbon 
program?
    Answer. Since deployments commenced in 2003, the Marine Corps 
Reserve has developed and implemented programs to support Reserve 
Marines and their families, from predeployment through reintegration. 
The recent authorization to involuntarily activate Marines from the IRR 
introduced new challenges, and we expanded our embrace to Marines who 
had no experience with the Reserve, families who may have had no 
experience with the Marine Corps at all, and families dispersed far 
from any Marine Corps facility. Throughout the deployment cycle, we 
have experienced tremendous support from local communities and 
volunteer agencies, and see the Yellow Ribbon Program (Joint Deployment 
Support and Reintegration Program) as a tremendous asset in 
coordinating all of the available support. We also view the funding as 
an important component of the program, allowing Marines and their 
families to travel to activities that may have been otherwise 
impractical.
    They JDSRP will open many doors for us, allowing the Marine Corps 
to tap into and share assets with other services, the State National 
Guard Bureaus, and the multitude of support services available through 
state and federal Veterans Administrations. It has defined the 
criticality of supporting Marines and their families throughout the 
four stages of deployment, but we are most aggressively formulating 
plans specifically designed to support the reintegration of our 
returning IRR Marines.
    Current reintegration activities include:
  --Tailored in-theater training for our unit leaders, focusing on 
        combat operational stress control (COSC) programs (the symptoms 
        and risks of untreated combat stress, how to recognize it, and 
        both in-theater and home base resources to assist in its 
        treatment).
  --A standardized ``Warrior Transition'' presentation is delivered to 
        each unit prior to leaving the theater of operations by the 
        unit chaplain or CREDO trained chaplains.
  --A standardized ``Return and Reunion for Marines'' presentation has 
        been developed for delivery in theater by Chaplains or other 
        qualified personnel. All Marines receive this brief before 
        returning home.
  --Upon arrival at the home location, Marines are made aware of the 
        supportive services available through the Chaplains, Marine 
        Corps Community Services (MCCS), Medical Treatment Facilities 
        (MTF's) and Military One Source.
  --To the maximum extent possible, Commanders are advised to allow 
        time (through half work days perhaps) for returning Marines to 
        ``decompress'' from their battlefield experience.
  --Upon arrival at the home location, a Command Safety brief takes 
        place prior to Marines being sent on liberty. This usually 
        includes aspects such as standards of conduct, safety, alcohol 
        and substance abuse, sexual harassment, suicide prevention, 
        stress and anger management, and financial management. Our 
        families also receive return and reunion information and 
        support to ensure successful homecomings.
  --Managed Health Network (MHN), one of the nation's leading mental 
        and substance abuse health care organizations, provides 
        counseling specialist(s) to individual units who are remotely 
        located and unable to access local services and/or to augment 
        local counseling providers. MHN is available to assist with 
        pre-deployment briefs, deployment issues and especially return 
        and reunion/reintegration issues.
  --Post deployment telephonic contact for IRR Marines from Managed 
        Health Network care providers at least once per month for three 
        months after return from deployment and periodically for the 
        following nine months.
  --IRR administrative screening musters at Marine Corps Reserve sites, 
        in large metropolitan areas and at Veterans' Administration 
        hospitals which tie Marines into local services and employers 
        as well as introduce them to VA and VA services.
    We envision educating our dispersed families not only through web 
based support but through partnering with other service programs such 
as CREDO and Strong Bonds. We see moving beyond educating our Marines 
and families, and are even now working to build stronger relationships 
with employers and educational institutions, to ensure that our Marines 
have support in all aspects of their reintegration.
    While the ``Yellow Ribbon Program'' is still in its infancy, we 
have provided a Reserve Marine representative to the Joint Deployment 
Support and Reintegration Program office and have worked with them 
already on our specific challenges and potential solutions. We 
coordinated most recently for the JDSRP office and the other Service 
Reserve Agencies, at the annual DOD IRR Conference.
                    recruiting and retention bonuses
    Question. General Bergman, to continue recruiting and retaining 
good people despite the high operational tempo, the Marine Corps 
Reserve has tripled bonuses this year from $5 to $15 million. The 
fiscal year 2009 budget requests only $5 million for bonuses. Do you 
believe that is sufficient to maintain your recruiting and retention 
efforts?
    Answer. The fiscal year 2009 incentive dollar figure of $3.6 
million was the original planning figure submitted during the budget 
programming process in the previous years. The fiscal year 2009 budget, 
like the fiscal year 2008 budget, will be adjusted to meet the Selected 
Marine Corps Reserve recruiting and retention requirements. The 
tentative dollar amount for fiscal year 2009 is $15 million, which we 
believe to be sufficient to maintain our recruiting and retention.
                      operational tempo and morale
    Question. How is high operational tempo affecting morale?
    Answer. One of the methods used to gauge the morale of the troops 
is to look at retention and reenlistment rates. Our reenlistment rates 
have held steady over the past few years, indicating Reserve Marines 
are showing a desire to continue their service even during this period 
of high operational tempo.
    Also, we have had over 200 Reserve Marines so far this fiscal year 
request to augment to active duty. Some of this is due to the fact that 
the active component has been authorized to grow to 202,000 and some 
new incentives have been introduced for augmentation. But also, we have 
seen a good number of Marines request to augment to active duty after 
demobilizing because they get a taste of the active duty lifestyle 
while activated and desire to stay active.
    The Marine Corps Reserve continues to recruit and retain quality 
men and women willing to manage commitments to their families, their 
communities and their civilian careers, and their Corps. In fiscal year 
2007, the Marine Corps Reserve achieved 100 percent of its recruiting 
goal for non-prior service recruiting (5,287) and exceeded its goal for 
prior service recruiting (3,575).
    One of the initiatives we have implemented to help prepare Marines 
to serve during periods of high operational tempo, is the Total Force 
Generation Model.
    The implementation of the integrated Total Force Generation Model 
lays out future activation, deployment and dwell schedules for Marine 
units. This predictability allows the individual Reserve Marine to 
strike a balance between family, civilian career and service to 
community as well as country and Corps by being able to confidently 
plan for the future.
                                 ______
                                 
           Questions Submitted to Vice Admiral John G. Cotton
            Questions Submitted by Senator Daniel K. Inouye
                             yellow ribbon
    Question. The Yellow Ribbon program is a reintegration program for 
Reservists returning from deployment. The program invites service 
members and their families to attend a weekend reintegration seminar at 
30, 60, and 90 days after returning from deployment. It was started as 
an Army Guard program in Minnesota and is currently operational in 
several states. The fiscal year 2008 authorization bill required the 
Department to establish a Yellow Ribbon program for each of the Reserve 
Components (RC). The program is being fully established, with OSD (RA) 
as the lead, to assimilate it with any existing reintegration programs. 
So far, the Army is the only service to require military personnel to 
attend reintegration training, for the other components it is either 
optional or is incorporated into normal weekend drill activities.
    Gentlemen, the Department is establishing a Yellow Ribbon 
reintegration program for all RCs. I know that many of the RCs have 
already been providing reintegration programs. What is your component 
doing to support the reintegration of Reservists returning from 
deployment and do you expect your program to change significantly with 
the introduction of the Yellow Ribbon program?
    Answer. Navy Deployment Support Programs were expanded to support 
Individual Augmentations (IAs) from both the RC and Active Component 
(AC), and they provide support through all phases of the Deployment 
Cycle.
    The primary reintegration event for returning mobilized personnel 
is the Returning Warrior Workshop (RWW), a weekend retreat in a non-
military setting designed to attract spouse participation. The 
participating Sailor and spouse are provided cost orders to attend, and 
it satisfies an RC Sailor's drill obligation. The RWW assists members 
and their families in identifying any immediate or potential issues, 
and provides access to resources to resolve those issues. A key element 
of the program is a dinner honoring the Sailors' service and 
recognizing family members' sacrifices. The desired timeframe to attend 
an RWW event is approximately four to six months after deployment. 
Events are held in a wide variety of geographic locations, enabling 
Sailors and their families to attend. Attendance is voluntary, but 
strongly encouraged.
    The RWW Program has requested and received additional funding, and 
it is undergoing a significant expansion in fiscal year 2008. The 
revised program will meet many of the additional requirements contained 
in the Yellow Ribbon Reintegration Program legislation.
                        reintegration activities
    Question. Admiral Cotton, General Bergman, and General Bradley, I 
have been told that currently reintegration training is only mandatory 
for the Army, have you considered requiring your service members to 
attend reintegration activities?
    Answer. The Returning Warrior Workshop (RWW), a weekend retreat in 
a non-military setting designed to attract spouse participation, 
remains the primary reintegration event for returning mobilized RC 
personnel. Events are held in a wide variety of geographic locations to 
make attendance easier for Sailors and their families. The attending 
Sailor and spouse are provided cost orders to attend, which also 
satisfies the Sailor's drill obligation. The RWW assists members and 
their families in identifying any immediate or potential issues, while 
also providing access to resources to resolve those issues. A key 
element of the program is a dinner honoring the Sailors' service and 
recognizing family members' sacrifices.
    Attendance at an RWW is currently voluntary, but strongly 
encouraged. The RWW Program has requested and received additional 
funding and is undergoing a significant expansion in fiscal year 2008. 
As part of that expansion, we are reviewing alternatives to making the 
program mandatory for Sailors deploying in excess of 180 days. The 
revised program will meet many of the additional requirements contained 
in the Yellow Ribbon Reintegration Program legislation.
                    navy reserve officer recruiting
    Question. Although the Navy Reserve achieved its overall recruiting 
goal in fiscal year 2007 after falling significantly short in fiscal 
year 2006, the Reserve still fell far short of its officer recruiting 
goal. The Navy Reserve fell short of its recruiting goal by 48 percent 
in fiscal year 2007 and 56 percent in fiscal year 2006. In fiscal year 
2008, the Reserve is on track to reach a reduced recruiting goal, 
scaled back to give the recruiting command a realistic target.
    Navy officials attribute the shortfalls to high mobilization rates 
in some Reserve communities and the demographic of officers. Officers 
tend to be older, more likely to be married, have children and have 
better career prospects than many enlisted sailors so those sailors who 
leave the active component, tired of frequent deployments, are unlikely 
to risk frequent Reserve mobilizations.
    In an effort to address the problem, the Navy Reserve increased the 
number of recruiters targeting officers and continues to offer more 
money for officer and medical officer bonuses. Last fall, the Reserve 
increased officer affiliation bonuses. For medical and dental officers 
serving critical wartime specialties, the accession bonus can be as 
much as $75,000 and a monthly stipend of $1,907 while studying in a 
medical residency program. The request for fiscal year 2009 requests 
$14.6 million total for officer bonuses, an increase of $3 million over 
fiscal year 2008 levels.
    Admiral Cotton, in fiscal year 2007, the Navy Reserve fell 48 
percent short of its recruiting goal of 2,000 officers and in fiscal 
year 2008 is recruiting to a reduced goal of 800. What measures are you 
taking to attract and retain more officers?
    Answer. In fiscal year 2007, Navy achieved 52 percent of its 
Reserve Officer recruiting goal. The goal for fiscal year 2008 was set 
at 1,200, as opposed to 800 as stated in the question. We have also 
established upper bands that exceed the goal in several programs to 
allow and encourage overshipping to a level of 2,148. Through the end 
of April, 84 percent of the recruiting goal has been either 
commissioned or selected awaiting commission.
    We are offering several monetary incentives to attract Officers to 
affiliate in the Navy Reserve: a $10,000 affiliation bonus for entry 
into 16 different designators; repayment (up to $50,000) of outstanding 
loans used to obtain certification in Critical Wartime Specialties in 
the Health Professions; special pay of $25,000 per year for Medical 
Corps, Dental Corps, and Nurse Anesthetists and $10,000 per year for 
Medical Service Corps and Nurse Corps; and a monthly stipend of $1,605 
(which will increase to $1,907 on July 1, 2008) for officers in a 
medical residency program or post baccalaureate education program in a 
Critical Wartime Specialty.
    A mobilization deferment was established as a non-monetary 
incentive to encourage Officers leaving active duty to affiliate with 
the Reserves. Those who affiliate within six months of transitioning 
from the Active Component qualify for a two-year deferment from 
involuntary mobilization and those who affiliate within twelve months 
are eligible for a one-year deferment.
    We are making a concerted effort through advertising and other 
initiatives to reach out to Officers before they separate from active 
duty to inform them of opportunities in the Navy Reserve. Initiatives 
include increased advertising on Navy bases and in military newspapers, 
targeted direct mail, and e-mail to the members as well as their 
spouses. We have also encouraged Commanding Officers through the ``Stay 
Navy'' NAVADMIN to regularly discuss Reserve opportunities with their 
wardrooms.
    To ensure continued future success, we have programmed an increase 
in Reserve Officer Recruiters in the field beginning in fiscal year 
2009.
    To improve retention among Selected Reserve officers, we are 
currently conducting analysis to determine which designators may 
benefit from application of a critical skills retention bonus. To 
assist in the retention of skilled medical officers and to encourage 
medical officers to acquire critical wartime subspecialties, 
eligibility for the Medical Special Pay, Loan Repayment, and Stipend 
incentives have been expanded to include current Selected Reservists 
accepted into a residency program.
                     navy reserve officer shortage
    Question. Admiral Cotton, how is the shortage of officers, 
particularly in critical specialties, affecting the readiness of the 
Naval Reserve?
    Answer. For clarification of the first preamble paragraph, the 
following is offered: The Navy fell short of its Reserve Officer 
recruiting goal by 48 percent in fiscal year 2007 and 56 percent in 
fiscal year 2006. In fiscal year 2008, the Navy is on track to reach a 
reduced Reserve Officer recruiting goal to meet end strength 
requirements.
    On a percentage basis, the top three specialties mobilized to date 
are Civil Engineers, Supply Corps, and SEALs. Although inventory is 
below requirements in these communities, the Navy Reserve is able to 
meet current mobilization requirements in all of these specialties, 
therefore maintaining required readiness.
    We are encouraged by the success of this year's recruiting efforts. 
Through April, we are exceeding last year's attainment in all three 
specialties, in both real numbers and percentage of goal attained. To 
support affiliation, Officers in these specialties receive the maximum 
Reserve affiliation bonuses allowed by law, and Veterans transitioning 
from Active Component to Reserve Component within six months after 
their end of obligated active service are provided a two-year deferment 
from mobilization to allow establishment of their civilian careers. A 
retention bonus will be funded for RC Officers as resources are 
available. The retention bonus will target Junior Officers in 
specialties that are determined to be limited supply/high demand by 
Officer Community Managers.
                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, CHIEF, 
            NATIONAL GUARD BUREAU
    Senator Stevens. We are now going to move on to the next 
panel. We do thank you for your service. Again, the three of 
you are retiring as young men. I have recognized that. You 
should follow the advice of my first father-in-law who said 
only in the English language does the word ``retire'' mean 
other than go to bed. So I expect you to have full careers 
after you leave this job. We might even welcome you up here. 
You ought to think about it.
    Thank you very much.
    We will now ask General Blum, General Vaughn, and General 
McKinley to come forward to testify concerning the National 
Guard Bureau.
    Thank you very much. We will now to turn to panel two. Our 
witnesses are Lieutenant General H Steven Blum, Chief of the 
National Guard Bureau, and Lieutenant General Clyde A. Vaughn, 
the Army National Guard Director, and Lieutenant General Craig 
R. McKinley, the Director of the Air National Guard.
    Gentlemen, as we indicated, your statements will be 
included in the record in full. We appreciate if you would make 
your statements or whatever presentations you wish to make to 
the subcommittee. We will first call on General Blum.
    General Blum. Ranking Member Stevens and distinguished 
members of the subcommittee, it is an honor and privilege to be 
before you here today with my two colleagues, General McKinley 
and General Vaughn, my right hand and left hand when it comes 
to the Army and the Air Guard. The leadership of the National 
Guard Bureau is here today, and we brought our senior enlisted 
leaders to talk to you about the readiness of your National 
Guard and answer any concerns or questions you might have.
    At this time, I would ask General Vaughn to introduce his 
senior enlisted advisor and a guest, please.
    Senator Stevens. General.
STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, ARMY NATIONAL GUARD
ACCOMPANIED BY SERGEANT MAJOR JOHN GIPE, ARMY NATIONAL GUARD

    General Vaughn. Senator Stevens, distinguished members, 
thank you very much. It is quite an honor to be here.
    We have an enormously strong Army National Guard. We 
appreciate everything that this subcommittee has done. We just 
could not have come close and stayed here and be in the 
position we are at today. A couple years ago, it was an 
entirely different story. And we have a lot to appreciate from 
this subcommittee.
    I would like to introduce the command sergeant major of the 
Army National Guard, all 358,000 of them. Sergeant Major John 
Gipe.
    Sergeant Gipe. Thank you, sir. Mr. Chairman, it is my 
distinct honor here today to introduce two outstanding young 
Americans from Ames, Iowa, Specialist Jay Winkowski and his 
wife of 9 months, Lisa. Specialist Winkowski mobilized with the 
Iowa Army National Guard in October 2005 with Charlie Company, 
1st Battalion, 133rd Infantry for a deployment to Iraq. They 
arrived in Iraq in March 2006 at Al Asad Air Base in Al Anbar 
Province where he served for 16 months.
    Specialist Winkowski's duties while he was deployed was as 
the battalion commander's driver and communications specialist. 
While deployed, he was honored with being named the battalion 
soldier of the quarter and the soldier of the quarter for Al 
Asad Air Base. He also earned the combat infantryman's badge 
for direct combat action against the enemy.
    When he returned home in August 2007, after being deployed 
for 22 months, he attended the warrior leaders course where he 
graduated as a distinguished graduate.
    It is a great honor to introduce these two fine, 
outstanding young Americans to you. Thank you, sir.
    Senator Stevens. We welcome you and your new bride. Thank 
you.
    General Blum. Similarly, I would like General McKinley to 
have the same opportunity on the Air Guard side.
STATEMENT OF LIEUTENANT GENERAL CRAIG R. McKINLEY, 
            DIRECTOR, AIR NATIONAL GUARD
    General McKinley. Thanks, General Blum.
    It is a pleasure, Senator Stevens, to be with you and your 
subcommittee today representing the great men and women who 
make up the Air National Guard. It is also, indeed a privilege 
for me to introduce my command chief master sergeant. Chief 
Smith from Ohio has served the Air National Guard as its senior 
enlisted advisor for the past 4 years, and he will retire at 
the end of this year. It has been a great honor and privilege 
for me to serve with Chief Smith, and I would like him to stand 
and introduce our special guest.
    Chief Smith. Thank you, sir.
    Mr. Chairman and subcommittee, I would like to introduce to 
you Senior Master Sergeant Donna Goodno. She is from San Diego, 
California. She is a mission support flight superintendent at 
the 147th Combat Communications Squadron in San Diego, 
California. She has three deployments to Iraq, to her credit, 
many great accomplishments that I will not go into while she 
deployed. But because of those accomplishments on her 
deployments, she has recently been selected and named as the 
outstanding senior non-commissioned officer for the entire Air 
National Guard. So it is my honor and pleasure to present to 
you our great American, Senior Master Sergeant Donna Goodno.
    General Blum. If I could, let me add because I think you 
understate her capabilities. When all of the general officers 
could not find their way to get an instrument landing system 
into Kabul, Afghanistan, she found one. When we deployed her to 
Iraq, she immediately identified a systemic problem in the 
communications security that had been missed by everybody that 
had been over there, and she got it corrected very quietly and 
quickly. She is outstanding in every measurable way.
    Donna, we are proud of you.
    Senator Stevens. Sergeant Major, we congratulate and thank 
you for your service.
    General Blum. Senator Stevens, members of the subcommittee, 
when it comes to readiness of your National Guard, it is all 
about having three things. This subcommittee knows it well. You 
have to have people. You have to have the part-time people that 
you need, the citizen soldiers and airmen, but you heard our 
reserve counterparts tell you say that you must have the full-
time cadre to make it work.
    And the reason the Air National Guard works and the reason 
the Air Force Reserve works so well is that they have that 
cadre. They were used as an operational reserve starting 30 
years ago. Their readiness is superb. They can go out the door 
in 72 hours any place on the planet. We need to follow that 
same kind of model now that we are asking General Vaughn and 
the Army Guard to have basically that same kind of readiness 
standard to meet.

                               PERSONNEL

    Full-time manning is a big issue and part-time manning, 
having enough soldiers and enough airmen in the ranks that are 
fully trained and enough airmen and soldiers over strength so 
that your training pipeline does not count against you for 
readiness, in other words, so that everybody in the unit is 
fully trained and ready and those that need to go to school are 
held in school account over and above what your unit 
requirement is what we need.

                               EQUIPMENT

    Second, you need equipment. Everybody in this subcommittee 
knows about that, and thank God for the National Guard and 
Reserve equipment account because of that and because of the 
staunch support of Congress and the interest of Congress and 
now the commitment, serious commitment, on the part of the 
Secretary of Defense and the service secretaries and the chiefs 
of staff of the Army and the Air Force, every single day our 
equipment condition improves. And so the status that I 
presented to you last year is much better today than it was 
last year, and next year it will even be better
    Again, that is because of your continued support for the 
National Guard and Reserve equipment account. When that money 
is authorized and appropriated, we are able to place those 
dollars exactly against buying readiness, nothing but 
readiness. And that readiness is to be able to respond in the 
ZIP code right where your constituents live and raise their 
families. So that is very important.

                                TRAINING

    The third thing is training. We must have the resources to 
train the force so that we do not have to waste time, when 
these forces are separated from their families and from their 
businesses, to get training they should have received before 
they were called up for the service of this Nation.

                           PREPARED STATEMENT

    So with that, Mr. Chairman and members of the subcommittee, 
we await your questions.
    [The statement follows:]
         Prepared Statement of Lieutenant General H Steven Blum
                  introduction and executive overview
     lieutenant general h steven blum, chief, national guard bureau
    In the 371-year history of our National Guard, the year 2007 will 
no doubt be remembered as one of historic proportions. We are members 
of a National Guard in the midst of significant evolution.
    We have become an operational force, fighting side by side with our 
active duty partners, working hard to win the long war against 
terrorism that began some six and half years ago. While we are an 
essential force multiplier in the overseas warfight, we also remain 
focused on and connected to our constitutional roots as the organized 
militia of the states, prepared to rapidly respond domestically under 
the command of our nation's Governors whenever and wherever we are 
needed in the 54 states and territories.
    The President, Congress, the Secretary of Defense, the Secretaries 
of the Army and Air Force, the Governors and the Adjutants General all 
agree: The country needs a National Guard that is manned, resourced, 
ready, and structured to meet the security challenges of the 21st 
century.
                               resources
    Our greatest resources are our Citizen-Soldiers and Airmen. Today, 
these brave men and women are the most professional, most experienced, 
most capable, and most relied upon that our National Guard has ever had 
in its ranks. Hundreds of thousands of our Soldiers and Airmen have 
deployed to the warfight--many more than once. At one point in this 
war, National Guard members made up about half of the ground combat 
forces in Iraq.
    Even in the face of increased deployments, shorter dwell times, and 
extended separations from families and civilian employers, we are 
retaining members of the National Guard at extraordinary rates. Our 
recruiting numbers are equally impressive. Right now, the Army and Air 
National Guard are contributing to the overseas warfight in staggering 
numbers approaching 513,500 (309,786 Army and 203,700 Air) 
mobilizations as of December 31, 2007.
    Parallel to our support of the overseas warfight is our support of 
the nation's Governors as the first military responders to incidents 
and disasters, whether natural or man-made. Each day, an average of 17 
Governors call on their National Guard for everything from weather 
related assistance to suspected anthrax contamination. The National 
Guard does all of this while remaining an all-volunteer force.
    These young men and women who have volunteered to serve are a 
testament to what it means to answer the call to something bigger than 
ourselves. We must continue to work hard to recruit and retain them; 
they are the future of the National Guard and the future of America.
                               readiness
    When looking at the readiness levels of the National Guard, it is 
important to consider two of the core elements of readiness: equipment 
and personnel.
Equipment
    Our objective for the Army and Air National Guard is to have modern 
equipment on a par with that of the Title 10 forces. Make no mistake--
our deploying Citizen-Soldiers and Airmen have the equipment they need 
to deploy overseas, and it is the same equipment our active duty 
Soldiers and Airmen take with them to the warfight.
    However, over a period of years, the domestic levels of equipment 
available to Governors have fallen to unacceptable levels. For example, 
in 2006, the Army National Guard had about 40 percent of its equipment 
available domestically. As of September 30, 2007, that number is about 
61 percent. By the end of 2009, it will be close to 70 percent; and by 
2013, it will be 77 percent. This is just one illustration of the 
unprecedented support and commitment Congress and the Department of 
Defense has given this issue.
    While the Air National Guard has most of its required equipment, 
the primary challenge is modernizing the aging fleet. Continuing Air 
Force and Congressional support will be important as we move to meet 
the Air National Guard equipment challenges ahead. Last year, Congress 
appropriated an additional $800 million for the National Guard and 
Reserve Equipment Account. This support is critical to the National 
Guard Soldiers and Airmen--who are serving a nation at war.
Personnel
    Equally essential to our readiness is having the people necessary 
to accomplish our missions, and America's National Guard needs more 
people. The President's fiscal year 2009 budget asks Congress to 
increase the Army National Guard's end-strength authorization from 
351,300 to 352,600. That request also seeks additional full-time 
support.
    Most of our National Guard Soldiers and Airmen have full-time 
civilian careers and devote a minimum of 39 days each year to military 
training. A far smaller number of full-time active National Guard and 
Reserve technicians are integral to the readiness of the part-time 
force. They perform the administrative, maintenance, readiness and 
training preparation essential to ensuring productive time spent by the 
part-time force as they participate in weekend drills and annual 
training.
                               structure
    On January 28, 2008, the President signed into law the National 
Defense Authorization Act (NDAA) of 2008. This law contains the most 
significant and sweeping reforms in the administration and organization 
of the National Guard Bureau, and indeed the National Guard itself, 
since the National Defense Act of 1916.
    Of significance, the 2008 NDAA designates the Chief of the National 
Guard Bureau as the principal advisor to the Secretary of Defense, 
through the Chairman of the Joint Chiefs of Staff, on matters involving 
non-federalized National Guard forces, and on other matters as 
determined by the Secretary of Defense. The Chief of the National Guard 
Bureau will continue to serve as principal advisor to the Secretaries 
and Chiefs of Staff of the Army and Air Force on the essential role of 
the National Guard as a reserve component of each of these services. 
The law also designates the National Guard Bureau as a joint activity 
of the Department of Defense.
    These and other reforms contained in the 2008 NDAA serve to 
strengthen the role of the National Guard within the Department of 
Defense to meet our growing responsibilities, at home and abroad.
                       state partnership program
    The National Guard's State Partnership Program, establishes 
partnerships between foreign countries and American states and is an 
important contribution to the Department of Defense's security 
cooperation programs conducted by the Combatant Commanders.
    This program was created in 1993 to assist the United States 
European Command's engagement with defense and military establishments 
of former Warsaw Pact nations after the fall of the Berlin Wall. The 
State Partnership Program fosters long-term, mutually beneficial and 
enduring relationships between states and America's friends and allies 
around the globe. National Guard Soldiers and Airmen apply both 
military and civilian skills to support defense reform and military 
transformation, promote democracy, encourage economic development, and 
further regional cooperation and stability.
    The State Partnership Program currently has 58 state partnerships 
throughout the world focused on military-to-military, military-to-
civilian and civil security exchanges with United States security 
partner nations. This high value program will continue to grow in both 
numbers of partner nations and strategic importance to the Combatant 
Commanders.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               the future
    The National Guard remains focused on operational readiness to 
answer the calls of our Governors and the President in doing our part 
to secure America's future. As the nation and our world change, the 
impacts on our force will be significant. The warfight overseas and our 
response to crises here at home are but two important areas of our 
reach. We will continue to invest in our family programs, our youth-
based programs such as ChalleNGe, our counterdrug programs and many 
others.
    As Assistant Secretary of Defense for Reserve Affairs Thomas Hall 
recently noted, ``Today's National Guard members are the continuation 
of the Minuteman spirit that defended our citizens and way of life. 
National Guard members have earned the respect of their fellow 
Americans by performing above and beyond the call of duty.''
    With the 2008 NDAA, Congress gave the National Guard new 
responsibilities and clarified roles. This unity of effort will 
continue to solidify our foundation for the next 371 years of National 
Guard excellence. We will remain ``Always Ready, Always There.''
    The following is a full report on our recent accomplishments and an 
explanation of our requirements for fiscal year 2009.
 lieutenant general clyde a. vaughn, vice chief, national guard bureau 
                   and director, army national guard
                       message from the director
    The Army National Guard (ARNG) continued to step up to new 
challenges as well as confront the ongoing realities of persistent 
global conflict. As fast as units returned home from Iraq and 
Afghanistan, new ones were mobilized, trained and deployed overseas--
some for their second or third such deployments.
    The Army National Guard also defends American borders. Under 
Presidential mandate, Operation Jump Start continued along our nation's 
southwest border. There we worked with U.S. Customs and Border 
Protection to stop illegal immigrants and drug traffickers. Army 
National Guard Soldiers responded to the numerous natural disasters and 
emergencies created by blizzards, floods, tornadoes, hurricanes and 
wildfires.
    In addition to the above accomplishments, we continued our 
transformation to a modular design. Doing so allows the Army National 
Guard to remain an important force in the nation's emergency 
preparedness network with missions both at home and abroad.
    We had an admirable track record of successes in 2007. In 
particular, our continued achievements in recruiting and retention have 
been commendable. Our recruiting and retention efforts are keeping our 
organization strong, and are handing the future of our force to a new 
generation of determined and capable leaders.
    The Army National Guard understands the human price of freedom and 
national security. By maintaining and improving the Army National 
Guard's full potential, we honor the Soldiers who have paid the 
ultimate price. We have redoubled our efforts to provide our units with 
equipment needed to replace that left behind from overseas deployments, 
and lost due to damage or end of serviceable use. With the aid of 
Congressional funding and a new Memorandum of Understanding with the 
Army, we have made considerable headway in rebalancing, resetting and 
re-equipping our force for the future.
    In January 2007, the Secretary of Defense directed that Army 
National Guard units be scheduled for mobilizations of no more than 12 
months. To maximize the availability of National Guard troops to 
Combatant Commanders, we must maximize and certify home state 
(regional) pre-mobilization training.
    The Army Chief of Staff has directed that the Adjutants General 
have certification authority. This will reduce training time away from 
the home state or territory and increase ``boots on the ground'' time. 
We look forward to the full implementation of the Army Chief of Staff's 
policy.
    The following pages summarize the Army National Guard's key 
programs and operations during fiscal year 2007, highlighting 
organizational and transformational changes and outlining requirements 
and goals for the future.
                               readiness
    The U.S. Army uses Army National Guard units as an operational 
force. Units mobilized and deployed for support during the era of 
persistent conflict have maintained high levels of readiness. High 
readiness levels translate to successful missions.
    With lower-than-historical averages of equipment availability, 
increased mobilizations and deployments, and heavy personnel demands 
continued in fiscal year 2007. Despite these difficulties, the Army 
National Guard met all mission requirements and continued to support 
military actions abroad.
    Our ability to respond reflects the value of the National Guard. 
Since September 11, 2001, the Army National Guard has deployed Soldiers 
as follows:

         ARMY NATIONAL GUARD--A TRADITION OF SERVICE TO AMERICA
------------------------------------------------------------------------
                                             Title 10      Title 10 and
                                              Orders         Title 32
------------------------------------------------------------------------
Total ARNG Mobilized Since 9/11.........         309,786         401,840
                                         -------------------------------
Operation or Event                          Service in     Serivce since
                                               2007          9/11/2001
                                         -------------------------------
Operation Iraqi Freedom.................          34,947         172,988
Operation Enduring Freedom (Afghanistan)           5,951          24,109
Operaion Noble Eagle....................             164          35,327
------------------------------------------------------------------------

                                                          <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                          
Full-Time Support
    Full-time support personnel are vital to the full spectrum of Army 
National Guard operations. Meeting readiness needs, especially in an 
era of persistent conflict, underscores the vital role of our full-time 
support personnel.
    Our previously validated Army National Guard full-time support 
requirement is 84,800 (Technician: 42,329, active Guard Reserve: 
42,471). These authorizations are based on the perception of the Army 
National Guard as a strategic reserve. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Transformation through Modular Force Conversion and Rebalancing
    As part of the Army's continuing modular conversion, the Army 
National Guard is restructuring to create forces that are more 
independent and interchangeable (modular). Brigade Combat Teams are 
structured and manned identically to those in the active Army. Because 
of this, they can be combined with other Brigade Combat Teams or 
elements of the joint force, facilitating integration and 
compatibility.
    The Army National Guard has transformed over 1,500 operating force 
units to these new designs. An operating force represents units 
specifically organized to engage in combat and provide service support. 
At the current pace, the Army National Guard will successfully convert 
more than 1,300 additional units to the new modular designs by the end 
of fiscal year 2008.
    DID YOU KNOW?
    The Army is transforming (through Modular Force Conversion) from a 
division-centric force (18,000 Soldiers) to a more flexible brigade-
centric force (4,000 Soldiers) and is restructuring its organizations 
to create forces that are more stand-alone and alike (modular) while 
enhancing their full-spectrum capabilities.
    The Army National Guard's transformation into modular formations 
gives us the ability to function as an interchangeable operational 
force. This effort impacts Army National Guard units across all 54 
states and territories.
Lower-Than-Historical Levels of Available Equipment Affects Rebalancing
    The rebalancing plan also ensures that Army National Guard units--
many under-equipped after leaving deployed equipment behind for follow-
on units--receive replacements equal to their active duty counterparts. 
While the Army National Guard continues to receive more National Guard 
and Reserve Equipment Appropriation funding, equipping levels are still 
lower than historical levels because of transformation and persistent 
conflict requirements. The average non-deployed unit has about 61 
percent of authorized equipment needed to conduct training, handle 
future deployments and respond to domestic missions.
    By subtracting unacceptable/non-deployable substitute items, the 
equipment available falls to an even lower level. The fiscal year 2009 
budget will increase equipment funding levels, increasing the amount of 
equipment on hand available to National Guard units. Despite these 
equipment challenges, the Army National Guard stands ready to respond 
to any federal or state mission.
Dual Mission Operations
    The Army continues to work with National Guard leaders to refine 
requirements for critical dual-use equipment (equipment usable both in 
wartime and in domestic operations) and to ensure that the states and 
territories have sufficient resources during a catastrophe. This 
collaborative effort has successfully garnered Congressional support to 
better equip and modernize the Army National Guard for critical federal 
and state capabilities.
Domestic Operations
    In May 2007, a severe tornado leveled the Kansas town of 
Greensburg, leaving in its wake 10 fatalities, more than 100 injuries 
and a swath of incredible destruction. The Kansas Army National Guard 
was at the ready. The Kansas Guard's 278th Sustainment Brigade 
established a joint task force near the site; the Army National Guard 
deployed an additional 366 Soldiers; and the Air National Guard 
provided 200 Airmen. The National Guard established shelters, 
distributed food and water, and supported first responders with search 
and rescue, power generation, logistical support, debris removal and 
law enforcement assistance.
    In August, the I-35W bridge in Minneapolis collapsed, claiming 13 
lives. It was the worst independent structural disaster since a 1983 
failure on Interstate 95 in Connecticut. A local network of first 
responders was on the scene quickly to work the rescue and recovery 
effort, including the Minnesota Army National Guard.
    That same month, Texas prepared for Tropical Storm Erin, which made 
landfall on August 16 near Lamar, Texas. Erin dropped 3 to 6 inches of 
rain before moving northward, resulting in emergency declarations for 
70 counties, some with up to 10 inches of rain. At least 17 fatalities 
were attributed to the storm, and an already severe flooding problem in 
the state was exacerbated. At the height of the emergency, 151 Texas 
Army National Guard Soldiers worked to help the communities recover.
End-strength: Recruiting and Retention
    The Army National Guard is authorized by law to have a limit of 
351,300 Soldiers. Due to a multiple-program team approach, fiscal year 
2007 was a strong year for recruitment and retention. By March 31, 
2007, the Army National Guard exceeded the 350,000-Soldier goal for 
first time since May 2004. By December 31, 2007, the Army National 
Guard strength stood at 353,979 Soldiers.
    Several innovative programs, Soldier incentives and command 
emphasis helped the Army National Guard successfully achieve and 
maintain Congressionally-authorized end-strength levels. They include:
            Active First Program
    Launched October 1, 2007, and set to run through 2013, Active First 
is a pilot program under evaluation by the Army National Guard. The 
program applies to people with no prior military service. Recruits join 
the National Guard and agree to serve in the active Army first. After 
completing an active duty tour, a Soldier can either re-enlist in the 
active Army or revert back to the National Guard to complete his or her 
military obligation.
    The Active First program increases bonus maximums to $20,000 for 
enlistments, $15,000 for re-enlistments and $15,000 for prior service 
enlistments. The National Guard also raised retention bonuses from 
$5,000 to $15,000.
            Guard Recruiting Assistance Program (G-RAP)
    G-RAP is a recruiting program that employs civilian assistants to 
provide recruiting services. As of December 31, 2007, the Army National 
Guard had approximately 123,000 active recruiting assistants--one of 
whom has single-handedly recruited 49 Soldiers (and counting).
            Every Soldier a Recruiter
    Every Soldier a Recruiter is a referral bonus program established 
by the Army to motivate every Soldier to be a recruiter. Launched in 
January 2006, the program has helped bring nearly 3,700 new Soldiers 
into the Army National Guard.
    Continued success in boosting prospect numbers by offering the 
potential for increased monetary compensation could lead to reductions 
elsewhere, such as recruitment advertising on radio and television. 
Only Soldiers assigned specific recruiting and retention positions are 
excluded from participation in the program.
            Army National Guard Recruit Sustainment Program
    The Army National Guard Recruit Sustainment Program is a formal 
process for transitioning new non-prior military service enlistees into 
the life of an Army National Guard Soldier. The Recruit Sustainment 
Program prepares recruits by endowing them with the physical and mental 
abilities to withstand the rigors of basic training and Advanced 
Individual Training. By doing so, the program works to reduce training 
pipeline losses.
    Since instituting the Recruit Sustainment Program, the Army 
National Guard has reduced training pipeline losses by more than 10 
percent with the rate of graduation from this program exceeding 95 
percent. Long-term prospects of keeping new accessions on duty after 
the first year are also showing improvements with gains leading over 
losses by 88 percent.
Logistics--Depot Maintenance
    The Army National Guard Depot Maintenance Program played an 
integral part of sustainment activities during fiscal year 2007. Unlike 
the active Army, which uses a loaner system, the Army National Guard's 
program is based on a ``repair and return to user'' premise. 
Additionally, program funding must stretch beyond repair work to cover 
testing, measurement and diagnostic equipment calibration.
    Funding for the Army National Guard's surface depot maintenance 
requirement was increased by six percent in fiscal year 2007. During 
fiscal year 2007, the Army National Guard Depot Maintenance Program 
funded the overhaul of 2,276 tactical vehicles.
                                training
WAATS (aka ``Gunfighter U'')
    The Western Army National Guard Aviation Training Site (WAATS) 
gives Army Aviation Soldiers the skills to defend our nation. Its 
mission is to conduct training in support of Army aviation readiness.
    Also known as ``Gunfighter University,'' it provides the Army 
National Guard and active Army counterparts the flexibility to train 
attack helicopter units to meet mobilization requirements. With 
realistic training opportunities in desert, mountainous and urban 
operations, the school is a premier attack helicopter training site. It 
provides skills training in all areas necessary to sustain the AH-64 
Apache Attack helicopters, and their maintenance technicians and 
aircrews.
    In 2007, WAATS supported a significant student load playing a 
critical role in the Army's Aviation Transformation plan as active and 
Army National Guard attack battalions transition to the AH-64D Longbow.
Ground Operating Tempo
    Collective maneuver training is the foundation of unit readiness 
and depends primarily on ground operating tempo (OPTEMPO) funding. 
These funds cover operation and maintenance of authorized equipment and 
training, administration, and housekeeping supplies for all units in 
the Army National Guard. Funding for OPTEMPO impacts Army National 
Guard unit readiness in operations such as Iraq and Afghanistan, 
southwest border security and domestic preparedness.
    In fiscal year 2007, Ground OPTEMPO funding totaled $723 million. 
Significant equipment remains in theater even after a National Guard 
unit's return from deployments. Equipment shortages at home stations 
compel greater use of what is available. These demanding conditions 
accelerate wear and tear resulting in rapid ``aging'' of equipment.
    Maintaining leadership, management oversight and support of the 
ground OPTEMPO program is one of the keystones to maintaining readiness 
of equipment on hand.
                        supporting our soldiers
Medical Readiness
    The Army's community-based health care organizations provide the 
best medical care for Soldiers in the Medical Holdover Program and 
augment medical treatment facilities. This program allows a 
recuperating Soldier to remain at home on active duty during recovery.
    Program highlights include:
  --Manned primarily by mobilized Army National Guard Soldiers;
  --Oversees more than 1,000 Soldiers;
  --Soldier well-being managed by community-based health care 
        organizations;
  --Case managers coordinate health care appointments, track the 
        Soldier's progress and ensure that care is up to standards; and
  --Medical care is focused on returning Soldiers to their pre-
        mobilization health status.
    The Army National Guard has mobilized 11 state and territorial 
medical detachments to staff newly created community-based health care 
organizations. They are: Alabama, Alaska, Arkansas, California, 
Florida, Hawaii, Massachusetts, Puerto Rico, Utah, Virginia and 
Wisconsin. Plans are developing to open additional state medical 
detachments as needed.
Incapacitation Pay
    In March 2007, the Army National Guard started testing the 
Incapacitation Pay software scheduled for release in fiscal year 2008. 
The goal of this paperless process is to legally compensate Soldiers 
who are unable to perform military duties and who demonstrate a loss in 
civilian-earned income resulting from an injury, illness or disease 
incurred or aggravated in the line of duty.
    The incapacitation pay program allows Soldiers to focus on their 
families, concentrate on rehabilitation and work towards a speedier 
recovery without the hardships of income loss.
Family Readiness Programs
    The National Guard Joint Forces Headquarters within each state, 
territory and the District of Columbia coordinates family assistance 
for all military dependents within each respective location.
    Recent accomplishments and activities that help Army National Guard 
families include:
  --The National Guard Bureau Family Program Office which provides 
        training to families to help make them self-reliant throughout 
        the deployment cycle process.
  --The Army Families Online website which provides information of 
        interest to families of National Guard Soldiers 
        www.armyfamiliesonline.org.
  --The Department of Defense (DOD) Military OneSource program which 
        provides benefits to all military families (for example, 
        counseling services, resources for parents, assistance with 
        consumer credit, and free access to online tax return 
        preparation).
  --The DOD Military HOMEFRONT web portal which provides information 
        about Quality of Life programs and services such as childcare, 
        elder care, and programs for resolving domestic abuse or 
        domestic violence problems www.militaryhomefront.dod.mil.
    Family readiness is not an option; it is an essential part of our 
mission.
Family Assistance Centers
    As part of our commitment to those who remain behind when our 
Soldiers deploy, 325 Family Assistance Centers are strategically placed 
in every state and territory to overcome the geographic dispersion of 
Army National Guard families from centralized, installation-based 
service providers. Each Family Assistance Center is staffed monthly 
with military and civilian personnel, members of the Recruiting and 
Retention force, Soldiers on active duty special work orders, contract 
personnel, temporary technicians, state employees and volunteers.
    The continued operation of the Family Assistance Centers in fiscal 
year 2008 is necessary to support services for families' long-term 
welfare during an era of persistent conflict.
Freedom Salute Campaign
    The Freedom Salute Campaign, one of the largest Army National Guard 
recognition endeavors in history, is designed to publicly acknowledge 
Army National Guard Soldiers and those who have supported them in 
service to our nation. So far, the campaign has recognized more than 
100,000 deserving Soldiers, family members, friends, employers, and 
other important persons for their contributions since the terrorist 
attacks on September 11, 2001.
   lieutenant general craig r. mc kinley, vice chief, national guard 
                bureau and director, air national guard
                       message from the director
    Since before the birth of manned flight, Airmen have embarked on 
proving the validity of mastering the third dimension of warfare. Our 
Air Force is the proven leader in this era of air dominance--an 
advantage no other nation on earth has ever matched. However, now is 
not the time for complacency.
    We can't predict what challenges are on the horizon. What we know, 
however, is that the speed of advances in technology is eroding and 
encroaching on our technological advantage. We must remain vigilant and 
prepared to counteract this dangerous erosion.
    We support civil authorities in protecting life and property 
through rapid response airlift, supplementing search and rescue, 
assisting aerial fire fighting, providing wide-area situational 
awareness, and airdropping food and supplies to those isolated by 
floods or blizzards. We also provide support capabilities to primary 
airpower missions such as medical triage and aerial evacuation, civil 
engineering, security force augmentation, infrastructure protection and 
HAZMAT response.
    Ninety-four Air National Guard units provide security at home-
station and deployed locations through law enforcement patrols, 
integrated base defense and antiterrorism/force protection initiatives. 
Security Forces professionals also provide nuclear security, 
information security, combat training, combat arms training and 
maintenance services. Every day, more than 6,000 Air National Guard 
members stand watch, patrolling the skies and assisting civil 
authorities protecting U.S. borders.
    At the same time, approximately 7,000 Airmen are deployed around 
the world fighting terrorism in Southwest Asia and Africa, and 
supporting joint and coalition forces through their airlift, air 
refueling, intelligence, surveillance and reconnaissance capabilities.
    Whether fighting overseas, protecting the homeland, or responding 
to hurricanes, fires and tornadoes, Air National Guard members continue 
to play an integral part in disaster response in communities throughout 
America and abroad.
    In 2007, throughout the world, the Air National Guard:
  --Supported 34,554 activations (31,922 voluntary and 2,632 
        involuntary).
  --Deployed 29,524 (26,920 voluntary and 2,604 involuntary).
  --Deployed service members to dozens of countries on every continent, 
        including Antarctica.
  --Participated in missions in Iraq, Afghanistan and Bosnia; 
        humanitarian airlifts to Southeast Asia and Africa; drug 
        interdiction in Latin and South America; exercises in Europe 
        and Japan; and many other missions.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The Air National Guard is forward thinking. We adapt to ensure we 
have the capability to meet the needs of our nation. In the past year, 
the Air National Guard expanded into new capabilities including 
unmanned aerial systems (MQ-1 Predator and RQ-4 Global Hawk), 
intelligence collection and exploitation (DCGS Sentinel), space 
operations support and cyberspace. Air National Guard members have 
adapted their traditional community-based organizations to associate 
more closely with both active duty and other reserve components. New 
organizational structures are designed to capitalize on the Air 
National Guard's competitive advantage of cost effectiveness and our 
core competency of experience.
    A crucial part of the American military, the Air National Guard 
remains vigilant and prepared. The Air National Guard of the 21st 
century stands as a sleek, efficient and dedicated part of our nation's 
defense.
                homeland defense and domestic operations
Securing the Home Front While Defending the Nation
    In every natural disaster occurring in the United States, the Air 
National Guard provides critical air capabilities to the states. 
Airpower is crucial for protection against unknown eventualities 
including national emergencies. As a nation, we cannot afford to assume 
otherwise.
    Since September 11, 2001, thousands of Air National Guard personnel 
have provided complete air sovereignty across the United States. We 
provide 95 percent of our nation's fighter interceptor aircraft, 85 
percent of the aerial refueling capability, and 100 percent of the air 
defense command and control system. Maximizing the traditional basing 
locations, capitalizing on high experience levels and leveraging a long 
professional history in Air Defense operations, the Air National Guard 
continues to serve as the backbone of this vital mission for the near 
future.
    In early 2007, the Air National Guard provided disaster relief 
during a Colorado snowstorm and a Kansas tornado. Since October 1, 
2007, our Modular Airborne Fire Fighting systems have spread 132,479 
gallons of retardant on wildfires. Air National Guard pararescue and 
special tactics units, highly experienced, reliable and ready forces, 
are not only deployed in combat missions but also serve in homeland 
defense/disaster relief contingencies. Air National Guard squadrons are 
deployed in combat; they secure public safety against missile launches; 
provide rescue coverage for the space shuttle if necessary; and provide 
full-time search and rescue coverage for Alaska.
    Through its counterdrug operations, the Air National Guard provides 
specialized airborne resources critical in the effort to stem the flow 
of drugs and associated violence crossing our borders. Moreover, as a 
strong component of the President's Operation Jump Start and other 
missions, the Air National Guard helps keep America's borders secure.
    Since July of 2006, Operation Jump Start Air Guard has:
  --Flown 984 border sorties (13,922 passengers).
  --Airlifted 1,193 tons of materials and supplies.
    In 2007 alone, the Air National Guard supported Operation Jump 
Start by:
  --Activating 3,250 personnel (3,150 deployed).
  --Participating in infrastructure protection and border surveillance 
        resulting in a 75 percent decrease in illegal border crossings.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    In 2007, the Air National Guard provided 2,676 individuals and 
274,705 duty days using RC-26B aircraft to assist local, state, and 
federal law enforcement authorities in conducting counterdrug 
operations. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       critical to today's fight
    Like the Air Force, the Air National Guard is integrated into 
America's fighting force overseas. Protecting the homeland from 
terrorist threats begins on American soil and extends overseas. On 
September 11, 2001, Air National Guard aircraft were the first to 
respond. Since 1991, the Air National Guard has provided the highest 
percentage of its force, more than any other reserve component, in 
responding to America's needs.
    Over the past six years, we have:
  --Deployed more than 203,700 Airmen (92 percent voluntarily 
        deployed).
  --Flown more than 179,000 missions.
  --Logged more than 558,000 flying hours.
    During the peak of Operation Iraqi Freedom, more than 22,000 Air 
National Guard members were either mobilized or volunteered to support 
today's fight. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    During the same period, in support of Operation Enduring Freedom, 
the Air National Guard flew more than 25 percent of both fighter and 
tanker sorties. In addition, the intelligence, surveillance and 
reconnaissance air support provided by the Air National Guard in both 
Operation Iraqi Freedom and Operation Enduring Freedom contributed 
significantly to safeguarding the troops on the ground while pursuing 
and terminating terrorist leaders.
    In addition to our airborne capabilities, the Air National Guard 
has contributed ground forces in the following manner:
  --15 percent of the Air National Guard's expeditionary combat support 
        was engaged during Operation Iraqi Freedom and Operation 
        Enduring Freedom.
  --60 percent of the Air National Guard security forces made 
        expeditionary combat support contributions.
  --25 percent of the Air National Guard's intelligence, services and 
        weather personnel were mobilized.
                      developing adaptable airmen
    Readiness remains a top priority for the Air National Guard. Our 
goal is to continue to develop adaptable Airmen, service members who 
are always in a state of readiness and are willing and able to 
accomplish the job at hand. Proper funding for continued recruitment 
and training will ensure that the quality of our service members 
remains high. We are developing Airmen for leadership roles to meet the 
needs of our Total Force--today and tomorrow.
                        recruiting and retention
    Adaptable Airmen are critical to the Air National Guard. They are 
combat-ready to defend national interests and balance global strategic 
risk. To preserve these assets, we need significant investment in our 
personnel, operations and maintenance accounts.
    The top priority for Air National Guard recruiting and retention is 
to meet year-end goals, and build and retain a quality force to meet 
mission requirements.
    For fiscal year 2007, the Air National Guard reported an end-
strength of 106,254, or 99.3 percent of our goal. We accomplished this 
goal in the face of challenges like base realignment and closure 
decisions, and Total Force Initiatives implementation.
    Air National Guard retention is also solid and has exceeded annual 
officer retention goals for fiscal year 2007. The Air National Guard 
ended fiscal year 2007 retention at 89.5 percent overall. The Air 
National Guard continues to have an excellent retention rate, which 
decreases the cost of replacing valuable members. To maintain this 
momentum we continue to work to ensure the Air National Guard 
Recruiting and Retention program is adequately funded.
              transforming into a capabilities-based force
    Transforming from a platform-based force to a capabilities-based 
force is critically important for the Air National Guard. We have to 
ensure our force is building the capabilities of the Combatant 
Commanders, Air Force and National Guard need to defeat tomorrow's 
adversary and support our domestic needs.
    The Air National Guard's capabilities-based force realignment 
requires shifting functions, organizational constructs, and realigned 
priorities across the entire force. This has to be accomplished while 
fully engaged in today's fight. Simply put, we will transform at mach 
one speed; we do not have the luxury of pausing operations while re-
equipping and resetting our force.
    Some of our missions demand a different force than the one we have 
today and will affect us in these ways:
  --Mission changes, aircraft movements and programmatic decisions will 
        directly impact about 15,000 Air National Guard members in 53 
        of the 54 states and territories.
  --Estimated cost for fiscal year 2009 is $350 million; and involves a 
        complex interplay of people, training, equipment and 
        facilities.
  --Fully implementing, retraining and rebalancing our force will take 
        5 to 10 years.
    As we shift aircraft and missions, some units are transitioning 
into ground-based capabilities including intelligence, surveillance and 
reconnaissance duties. This transition is necessary for the Air 
National Guard to maintain its essential role as part of our nation's 
defenses.
    In a few years we'll be able to reflect on this period of change 
and recognize how hard work, tough decisions and forward thinking 
reshaped our National Guard into a more capable force.
            equipping and modernizing the air national guard
    Developing and fielding ``dual-use'' capabilities are the 
cornerstones of the Air National Guard's cost effective contribution to 
combat and domestic operations. In fiscal year 2008, with Congressional 
assistance, we will address critical Homeland Defense shortfalls.
    Specifically, we will address:
  --Additional Expeditionary Medical Support suites;
  --Enhanced deployable wireless communication capability;
  --More fire fighting vehicles (current fleet averages 30 years old);
  --Upgraded security weapons;
  --Enhanced explosive ordnance disposal; and
  --Improved hazardous material handling equipment.
    The Air National Guard has forces in every Air Expeditionary Force 
deploying to the current combat theaters. Consequently, the Air 
National Guard must be equipped with the active duty force to meet 
combat mission demands. The age of the fleet, mission demands, and 
combat readiness require a parallel approach to aircraft modernization 
working in tandem with active duty forces.
An Aging Fleet
    Our Air Force is struggling with sustainment bills versus 
recapitalization funding, which directly impacts the Air National 
Guard. More than 42 percent of the Air National Guard fleet is 25 years 
or older:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Navigation and Combat Systems Modernization Needs
    The Air National Guard is critically important to the Air Force's 
Total Force effort. Forty percent of the Air Force's C-130 fleet 
resides in the Air National Guard. In fiscal year 2007, Air National 
Guard C-130s flew over 11,000 hours in support of Operation Enduring 
Freedom and over 4,200 hours in Operation Iraqi Freedom. In support of 
the Aeromedical Evacuation mission, Mississippi Air National Guard C-17 
aircraft returned over 19,000 patients to Germany and the United States 
from Iraq.
            C-130, C-5 and C-17
    The C-130, C-5 and C-17 aircraft all operate in environments of 
increasing levels of threat and complexity. We must ensure these 
aircraft continue to provide our Airmen with the best protection and 
warning systems available.
            Combat Aircraft
    Air National Guard combat aircraft--A-10, F-15 and F-16--comprise 
approximately 30 percent of the Air Force's combat capability. Our 
maintainers continue to keep our fleet combat ready and lethal.
            E-8C Joint Surveillance Target Attack Radar System
    The E-8C Joint Surveillance Target Attack Radar System (JSTARS) 
continues to be the Combatant Commander's command and control system of 
choice. JSTARS supports the warfighter by locating, classifying, and 
tracking ground targets and movement, day or night, in all weather 
conditions, at ranges in excess of 150 miles. All 17 E-8Cs are operated 
by the Air National Guard's 116th Air Control Wing at Robins Air Force 
Base in Georgia. Our challenge is to keep the system modernized while 
maintaining the current operational tempo. The most urgent 
modernization need for the JSTARS includes re-engining.
            Rescue Squadrons
    Air National Guard Rescue Squadrons comprise 30 percent of the Air 
Force's high-demand combat deployable pararescue capability while 
special tactics personnel provide 25 percent of the Air Force's Special 
Tactics capability. These squadrons provide the highly experienced, 
skilled and reliable force for both deployed and domestic operations 
support.
            Predator/Reaper Operations Center
    The Air National Guard conducts predator operations and training in 
Arizona, California, North Dakota, New York, Nevada and Texas Air 
National Guard units. We continue to pursue development and acquisition 
of an integrated Predator/Reaper Operations Center (POC). The POC will 
allow smooth operation and control of current and future 
transformational warfighting and homeland defense missions. The new POC 
design will integrate the multiple systems that currently run 
independently.
            KC-135
    To meet continuous demands of global power projection, the Air 
National Guard KC-135s are effective. These aircraft are crucial to 
supporting the warfighter.
            Operational Support Aircraft
    Finally, Air National Guard Operational Support aircraft--C-40, C-
38 and C-21--meet the special mission transportation needs of 
distinguished visitors and Congressional delegations.
                                training
    Significantly important to the Air National Guard's training of 
Airmen is the Distributed Mission Operations program. The program 
supports all weapons systems. It includes flight and mission crew 
trainers to provide high fidelity, immersive simulators for individual, 
team, inter-team and full mission rehearsal training.
major general william h. etter, acting director, joint staff, national 
                              guard bureau
                       message from the director
    The National Guard Bureau (NGB) enters 2008 with Congressional 
designation as a joint activity of the Department of Defense (DOD) and 
not strictly as a joint bureau of the Army and Air Force. How important 
is that to the history of an institution that has served this nation 
for more than 371 years?
    From a historical perspective, this change in law is on a par with 
the National Defense Act of 1916 which created the term ``National 
Guard'' and made the state militias a component of the U.S. Army.
    New levels of responsibility and authority come with the new law--
requirements for plans and protocols for change. As a joint DOD 
activity, for example, manpower requirements for the bureau are now 
under the purview of the Secretary of Defense in consultation with the 
Chairman of the Joint Chiefs of Staff. The Secretary and the Chairman, 
working in consultation with the Secretaries of the Army and Air Force, 
are responsible for the development of a new charter for the National 
Guard Bureau.
    While there will be changes, one thing will remain constant for the 
Joint Staff and the Chief of the National Guard Bureau. They will serve 
as the channel of communication between the Defense Department and the 
Governors of these sovereign states via their Adjutants General.
    At the end of 2007, National Guard members were doing remarkable 
things in Iraq, Afghanistan, Kosovo, the Horn of Africa, and 40 other 
countries. They were also serving here at home, protecting our borders, 
fighting fires, providing rescue and recovery in the wake of disasters, 
and interdicting the flow of illegal drugs.
                    supporting operation jump start
    In May of 2006, the President asked the National Guard to 
temporarily provide support to the Department of Homeland Security's 
(DHS) effort to secure the southwest border. In 2008, that mission will 
end as originally conceived. While never meant to replace border patrol 
agents with Guardsmen on a one-to-one basis, the National Guard's 
support has provided DHS with time to grow its own capabilities. U.S. 
Customs and Border Protection is now better resourced and equipped than 
when the mission started. National Guard members from every state and 
territory have served in the four southwest border states under the 
command of the Governors and at the direction of U.S. Border Patrol.
    As of November 30, 2007, National Guard members:
  --Helped DHS apprehend more than 169,000 aliens and seize more than 
        269,000 pounds of marijuana, 4,900 pounds of cocaine, and 7,900 
        vehicles.
  --Built more than 37 miles of fence, 18 miles of road and 70 miles of 
        vehicle barriers.
  --Provided support to local, state and federal law enforcement 
        through the Counterdrug program.
  --Conducted non-core border activities which allowed 581 Border 
        Patrol agents to direct border security missions, and to hire 
        and train additional agents.
  --Allowed Border Patrol agents to enhance their law enforcement and 
        border security efforts against all threats--illegal aliens, 
        drugs, weapons and possible terrorists.
  --Aided in apprehending 137,387 aliens in the past year, increasing 
        more than six times the number recorded in the first five 
        months after operations began in June 2006.
                   national guard counterdrug program
    Because of the National Guard's Title 32 status, we are not 
restricted by posse comitatus (the federal law that otherwise prohibits 
support of local law enforcement by members of the uniformed services), 
it serves a particularly unique role for the Department of Defense in 
the fight against illicit drugs. Since Congress authorized the National 
Guard to perform interdiction and anti-drug activities in 1989, the 
program has worked tirelessly with civilian law enforcement agencies 
and community-based organizations.
    Counterdrug program highlights include:
  --Employing more than 2,500 Soldiers and Airmen in the 54 states and 
        territories to support over 5,000 law enforcement agencies at 
        the local, state and federal levels, preventing illicit drug 
        import, manufacture and distribution.
  --Contributing numerous liaison officers to work with State Joint 
        Force Headquarters within the four southwest border states 
        (Texas, Arizona, New Mexico and California).
  --Allowing the states unprecedented access to National Guard Bureau 
        assets resulting in a seamless flow of communication between 
        the Joint Force Headquarters and National Guard Bureau.
  --Reaching about 2.8 million people in fiscal year 2007 through drug 
        demand reduction efforts, the National Guard Counterdrug 
        program has unparalleled relationships within its communities; 
        studies have shown that this can lead to drug use prevention 
        among youth.
  --Participating in nearly 80,000 drug-related actions.
  --Supporting local law enforcement who seized more than 1.4 million 
        pounds of illegal drugs (including more than 3 million 
        ``designer drug'' pills known by the street name, ecstasy).
    In order to continue to support the new light utility helicopter, 
currently used for the counterdrug mission, adequate funding is 
required during all of the acquisition years of 2008-2013. The 
equipment is critical to both counterdrug, as well as in support of 
first responders during natural disasters.
    The National Guard Bureau Joint Staff continues to focus on 
``mission first, people always.'' We continue to increase functions and 
services that enhance the quality of life for the men and women of the 
National Guard and our communities. In the following paragraphs, we 
offer a sampling of the accomplishments that demonstrate our commitment 
to this nation, and the Citizen-Soldiers and Airmen who protect it.
                          domestic operations
Information Sharing Environment Initiatives
    The National Guard Bureau and the State Joint Force Headquarters 
are key partners in the development, implementation and execution of 
the National Strategy for Information Sharing Environment initiatives.
    This partnership was instrumental in assisting a unified command 
leadership to effectively allocate resources and handle hot spots 
during the 2007 California wildfires. The ability for key federal, 
state, local and tribal partners to view a real-time common operating 
picture enhanced command, communications and coordination.
Critical Infrastructure Protection and Mission Assurance Assessment 
        (CIP-MAA)
    The National Guard Bureau is developing 10 National Guard 
Vulnerability Assessment Teams to provide analysis of sites deemed 
critical by the Department of Homeland Security. With a newly developed 
web-based automated reporting tool, the Critical Infrastructure 
Protection and Mission Assurance Assessment office can provide 
continual, detailed readiness information to National Guard Reaction 
Forces in all states and territories.
                      support to civil authorities
    The National Guard Bureau and the 54 states and territories are 
prepared to provide response to a wide variety of homeland defense/
civil support missions.
    The National Guard has supported homeland security missions 
guarding airports, nuclear power plants, domestic water supplies, 
bridges, tunnels, military assets, counterdrug operations and more. 
Across the country, National Guard members have responded to 
hurricanes, snow storms, wildfires, border security and other missions 
requiring individual assistance. During fiscal year 2007 the National 
Guard Bureau Joint Domestic Operations Division provided subject matter 
expertise and facilitated information sharing across federal, state, 
and local agencies in over 554 instances of non-federalized National 
Guard support to civil authorities.
State Active Duty Support to Civil Authorities
    During fiscal year 2007, the National Guard supported hundreds of 
disaster and crisis response missions using state active duty Soldiers 
and Airmen. These humanitarian relief operations included construction, 
security, communications, aviation, medical, transportation, law 
enforcement support, search and rescue, debris clearance and relief 
supply distribution.
    The following is a more detailed list of those disaster and crisis 
response missions:
  --6 Hurricane and Tropical Storms affecting the Gulf Coast states, 
        Guam and the Virgin Islands;
  --20 flood disasters in 14 states;
  --11 tornado recovery responses in 14 states;
  --17 winter and spring storm response missions affecting 23 states;
  --11 water supply and purification missions in 11 states;
  --1 earthquake response in Hawaii;
  --1 bridge collapse in Minnesota;
  --17 missions in support of law enforcement in 14 states; and
  --304 search and rescue missions in 25 states.
    Additionally, the National Guard provided critical infrastructure 
protection for facilities deemed critical by the states. Joint Force 
Headquarters Louisiana alone maintained a cumulative total of 109,500 
duty days in ongoing support of law enforcement for Hurricane Katrina 
in fiscal year 2007. (Possible ``Did you know'' Box)
Joint Enabling Teams and the Liaison Officer Program
    The National Guard Bureau Joint Enabling Team program assists the 
54 states and territories with communication and request flow 
processes.
    Since development of the Joint Enabling Teams in fiscal year 2006, 
they have been successfully employed in live emergency responses to 
Hawaii for an earthquake; Kansas for tornadoes/floods; Hawaii and 
Puerto Rico for hurricanes; Texas for a tropical storm; and California 
for wildfires.
    The Joint Enabling Team program must be maintained in a 
collaborative effort with the supported states and territories to save 
lives and mitigate suffering.
Joint Continental United States (CONUS) Communications Support 
        Environment
    The National Guard continues to provide communication systems for 
non-federalized National Guard Forces involved in domestic operations 
for civil authorities and homeland defense activities. This is an 
essential requirement for non-federalized National Guard domestic 
operations; particularly in those cases similar to Katrina, in which a 
large number of states provided National Guard forces in support of a 
particular Governor. This capability is even more critical with the 
passage of the National Guard Empowerment Act, and we must provide 
Congress clear visibility within the President's budget for the funding 
support required for non-federalized National Guard domestic 
operations.
National Guard Support to Civil Fire Fighting
    The National Guard provides military support to wildland fire 
fighting as a part of the Department of Defense response plan.
    In fiscal year 2007, National Guard assets delivered more than 5.3 
million gallons of retardant during some 6,800 fire suppression drops 
in fire fighting efforts across the country. In September 2007, over a 
five-day period, National Guard helicopters spread more than 35,000 
gallons of retardant on the California Lick Fire, aiding in preventing 
the destruction of homes, commercial buildings and livestock.
    National Guard assets are available year-round but are especially 
focused from April to October--the prime period for forest fires. 
Aviation fire fighting assets reside in North Carolina, California, 
Wyoming, Florida, Nevada, New York and Oregon National Guard aviation 
units and have been greatly successful in past years.
    Throughout the 54 states and territories, National Guard units also 
have 249 ``bambi buckets'' strategically located to combat wildfires 
nationwide. These fire buckets range in size from 144 to 2,000 gallons 
and can be carried by UH-1, UH-60, HH-60 and CH-47 helicopters from the 
Army and Air National Guard. Fire fighting assets and crews assisted 
state and federal forest fire fighting efforts in California, Nevada, 
Florida and Georgia in fiscal year 2007. (Possible ``Did you know'' 
Box)
Vigilant Guard Regional Exercise Program
    Vigilant Guard provides an opportunity for National Guard Joint 
Task Forces and field units to improve command and control, and 
operational relationships with internal, civilian, and military 
partners against homeland security threats. The exercise involves all 
the command elements of Northern Command, National Guard Bureau, 
Department of Defense, U.S. Transportation Command, Department of 
Homeland Security and other supporting U.S. government agencies.
    The states, divided into regions, have four opportunities per year 
to test coordinated tactics, techniques and procedures among state and 
federal civil and military partners in response to a regional level 
incident. The desired outcome is an increase in readiness while 
developing partnerships at all levels to enhance the unity of effort in 
the future.
    Vigilant Guard highlights include:
  --Eight Vigilant Guard regional exercises have involved 34 
        participating states.
  --In May 2007, a combined Vigilant Guard and U.S. Northern Command 
        exercise in Indianapolis tested more than 2,000 National Guard 
        personnel from Indiana and surrounding states.
Joint Interagency Training and Education Center
    An integral part of continuing the National Guard's transformation 
for the future is building relationships and capabilities with our 
interagency partners.
    Joint Interagency highlights include:
  --Interagency training capability has afforded critical training and 
        interaction with over 90 different organizations and agencies 
        in over 800 exercises during more than 30,000 days of training 
        since September 11, 2001.
  --The Defense Department established some funding support to develop 
        National Guard interagency training capability in 2007.
    More than 200 training, exercise, or assessment activities are 
scheduled in 2008. With continuing support from both DOD and Congress, 
the National Guard will continue to transform itself into a premier 
homeland security and defense organization, leveraging state and 
federal responses, capabilities and expertise.
            supporting the warfighter--connect the community
National Guard Family Program
    The National Guard Bureau Family Program provides members and their 
families with education, training, community outreach, and partnerships 
in three critical areas:
  --Family Readiness is a six-step process that prepares families for 
        having a loved one in the National Guard. The process covers 
        all phases of service, including a welcome brief, in 
        processing, training, pre-deployment, deployment, reunion and 
        reintegration.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

  --Family Assistance provides support to military families during long 
        or short-term deployments. Over 400 contracted personnel across 
        the nation provide crisis intervention and community outreach 
        services, as well as information and referral services on 
        legal, financial, medical and dental matters. Help is also 
        available for families online at: www.guardfamily.org.
  --Program Services provides support services, education, and 
        information to assist the National Guard members and family 
        members. This is accomplished through family services, youth 
        programs, community outreach, national volunteer programs and 
        training initiatives.
Home Station Transition Support
    Last year, Congress appropriated funds for National Guard pilot 
programs to help returning veterans reintegrate to their civilian 
lives. Congress also established the Yellow Ribbon Reintegration 
Program in the fiscal year 2008 National Defense Authorization Act. In 
the year ahead, the National Guard Bureau looks forward to working 
closely with the Office of the Assistant Secretary of Defense for 
Personnel and Readiness to implement the program. We will develop these 
capabilities in view of the best practices of the several states that 
have created their own programs. These programs support the difficult 
process of transitioning from a combat deployment to civilian status by 
offering support on civilian employment, the Department of Veterans 
Affairs, educational benefits and health care.
Youth ChalleNGe Program
    The National Guard Youth ChalleNGe Program is a community-based 
concept that leads, trains, and mentors at-risk youths, ages 16 to 18, 
and assists them in becoming productive citizens. The National Guard 
Youth ChalleNGe Program is the second largest mentoring program of its 
kind in the nation--second only to the Boy Scouts of America. ChalleNGe 
is a coeducational program, consisting of a five-month ``quasi-
military'' residential phase and a one-year post-residential phase. The 
young adults targeted to become Cadets in this program are unemployed 
high school drops outs--but must be drug fee and have no police record.
    Since 1993 ChalleNGe has grown to 34 sites in the United States and 
Puerto Rico. The program has graduated over 76,000 young men and women.
    A 1998 Vanderbilt University report placed the value of intervening 
in the life of such young people somewhere between $1.5 and $2 million 
per youth. Today, at an average cost of $14,000 per student per year, 
the taxpayer reaps an estimated savings of $109 million in juvenile 
corrections costs annually.
Veterans Affairs Liaison
    Sustained mobilization of the National Guard since September 11, 
2001 has resulted in a larger number of members eligible for 
entitlements through the Department of Veterans Affairs (VA).
    Since the May 2005 memorandum of agreement was signed to support 
National Guard members, significant progress has been made to improve 
the services available to National Guard members and their families. A 
permanent liaison has been appointed in both the National Guard Bureau 
and Department of Veterans Affairs to work out issues at the federal 
level. Additionally, 57 Transition Assistance Advisors have been 
trained and placed in the Joint Forces Headquarters to act as liaisons 
among the members entitled to VA benefits within a state and the local 
Veterans Affairs, veterans' service organizations and community 
representatives.
Employer Support of the Guard and Reserve
    The basic Employer Support of the Guard and Reserve (ESGR) mission 
continues to be gaining and maintaining the support of public and 
private employers for the men and women of the National Guard and 
Reserve.
    Today, nearly 4,200 volunteers serve on local ESGR committees. With 
resources and support provided by the National ESGR Office and the 
National Guard Bureau, these 54 ESGR committees conduct Employer 
Support and Outreach programs. This includes information opportunities 
for employers, ombudsman services, and recognition of employers who 
support and encourage participation in the National Guard and Reserve.
                     transformation for the future
    The National Guard continues to staff and publish logistics 
doctrine and plans for domestic contingency operations and emergencies. 
The National Guard Bureau is committed to the transformation and 
integration of the best available information technology enablers into 
our joint logistics plans, exercises and operations.
    Important upgrades and new equipment have been fielded for the 57 
Civil Support Teams and 17 Chemical, Biological, Radiological, Nuclear, 
and High-Yield Explosives (CBRNE)-Enhanced Response Force Package 
(CERFPs) locations. The next generation of Civil Support Team equipment 
was fielded for various operational systems; consisting of the Unified 
Command Suite, Analytical Laboratory Suite and Advance Liaison Vehicle. 
Additionally, a ground transportation equipment program for the CERFP 
units was staffed for resource allocation consideration. Staff 
assistance visits were conducted to identify and fill equipment 
shortfalls in the initial 12 CERFP organizations to bring them to the 
same level of capability as the five latest additions to the CERFP 
force structure. Based on these assistance visits, accountability 
procedures and material fielding plans were established to synchronize 
new equipment delivery. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Seventeen CERFPs are currently assigned with at least one in each of 
the 10 Federal Emergency Management Agency regions, with some having up 
          to three based on population density for that area.

    With the ongoing support of Congress and the American people, the 
National Guard will continue to secure the American homeland while 
defending her interests abroad. America can depend on the National 
Guard to be ``Always Ready, Always There.''
                        state adjutants general
    Alabama: Major General Abner C. Blalock Jr.
    Alaska: Major General Craig E. Campbell
    Arizona: Major General David P. Rataczak
    Arkansas: Major General William D. Wofford
    California: General William H. Wade, II
    Colorado: Major General H. Michael Edwards
    Connecticut: Major General Thaddeus J. Martin
    Delaware: Major General Francis D. Vavala
    District of Columbia: Major General David F. Wherley, Jr., 
Commanding General
    Florida: Major General Douglas Burnett
    Georgia: Major General William T. Nesbitt
    Guam: Major General Donald J. Goldhorn
    Hawaii: Major General Robert G. F. Lee
    Idaho: Major General Lawrence F. Lafrenz
    Illinois: Major General (IL) \1\ William L. Enyart Jr.
    Indiana: Major General R. Martin Umbarger
    Iowa: Major General Ron Dardis
    Kansas: Major General Tod M. Bunting
    Kentucky: Major General (KY) \1\ Edward W. Tonini
    Louisiana: Major General Bennett C. Landreneau
    Maine: Major General John W. Libby
    Maryland: Major General Bruce F. Tuxill
    Massachusetts: Brigadier General (MA) \1\ Joseph C. Carter
    Michigan: Major General Thomas G. Cutler
    Minnesota: Major General Larry W. Shellito
    Mississippi: Major General Harold A. Cross
    Missouri: Major General King E. Sidwell
    Montana: Major General Randall D. Mosley
    Nebraska: Brigadier General (NE) \1\ Timothy J. Kadavy
    Nevada: Major General Cynthia N. Kirkland
    New Hampshire: Major General Kenneth R. Clark
    New Jersey: Major General Glenn K. Rieth
    New Mexico: Brigadier General (NM) \1\ Kenny C. Montoya
    New York: Major General Joseph J. Taluto
    North Carolina: Major General William E. Ingram, Jr.
    North Dakota: Major General David A. Sprynczynatyk
    Ohio: Major General Gregory L. Wayt
    Oklahoma: Major General Harry M. Wyatt, III
    Oregon: Major General Raymond F. Rees
    Pennsylvania: Major General Jessica L. Wright
    Puerto Rico: Brigadier General (PR) \1\ David A. Carrion-Baralt
    Rhode Island: Major General Robert T. Bray
    South Carolina: Major General (Ret) Stanhope S. Spears
    South Dakota: Major General (SD) \1\ Steven R. Doohen
    Tennessee: Major General Gus L. Hargett, Jr.
    Texas: Major General Charles G. Rodriguez
    Utah: Major General Brian L. Tarbet
    Vermont: Major General Michael D. Dubie
    Virginia: Major General Robert B. Newman, Jr.
    Virgin Islands: Brigadier General (VI) \1\ Renaldo Rivera
    Washington: Major General Timothy J. Lowenberg
    West Virginia: Major General Allen E. Tackett
    Wisconsin: Brigadier General (WI) \1\ Donald P. Dunbar
    Wyoming: Major General Edward L. Wright

    \1\ Denotes Brevet Rank.
                              in memoriam
    Our Dedication to the men and women of the National Guard who 
sacrificed all for their nation and state.

    Senator Stevens. Thank you very much. We have about 50 
minutes left and there are seven of us. I would urge members to 
just follow the concept of 7 minutes apiece. We have the 
chairman and co-chairman of the National Guard Caucus. So I 
will call on Senator Leahy first and then Senator Bond and then 
those who came in order.
    Senator Leahy. Well, thank you very much. Both Senator Bond 
and I are proud to co-chair the National Guard Caucus. We have 
95 of 100 Senators on it, and it is hard to get 95 to agree on 
the time of day around here. That is because we are proud of 
the 450,000 men and women in the Guard. We are also very proud 
of the three of you, General McKinley, General Blum, General 
Vaughn, for the work you do.
    General Blum, I understand there is still at least a $10 
billion shortfall on the long-range Army budget plans to re-
equip the Guard. That is gear that is absolutely necessary to 
allow the force to carry out its dual missions. I also look at 
the Air National Guard modernization book which reveals our 
best pilots and operators say they need at least $8 billion in 
upgrades just to carry out their missions.
    It seems a little bit better than it has been in recent 
years, but you cannot get around the basic fact that these 
equipping gaps exist. We understand why. With the war in Iraq 
and all, a lot has been drawn down. But we also to prepare for 
natural disasters as well as threats worldwide which simply 
increase every year.
    Can you tell us what plans there are to close these kind of 
gaps?
    General Blum. I will give it to you, Senator Leahy, at the 
macro level. Then if you want further detail in the Army 
program, General Vaughn will provide it or General McKinley 
will provide it for the Air National Guard, if you so desire.
    All three Departments that really influence how we get 
equipped and where the resources come from have re-examined 
their strategies and their priorities as far as the National 
Guard is concerned. There is a serious commitment on the part 
of the Army and the Air Force and the Department of Defense to 
make sure that we have those items of equipment that are 
absolutely necessary to be a Federal reserve of the Army, a 
Federal reserve of the Air Force, to meet our joint 
requirements that are out there, and also to satisfy the 
finally recognized mission of supporting the Governors in a 
realistic manner, no notice, here at home in case of weapons of 
mass destruction, terrorism, or a catastrophic event brought on 
by mother nature, as you have seen this week with the 
tornadoes, the hurricane and----
    Senator Leahy. It is the no-notice part that I worry the 
most about. It is one thing if you have got plenty of time. You 
can ramp up. You can borrow from this guy's unit or that guy's 
unit, given plenty of notice. I am far more worried about the 
no-notice.
    General Blum. Right.
    Senator Leahy. And I am not sanguine enough to assume we 
are not going to have some no-notice problems.
    General Blum. We share that concern and we now finally have 
some partnering with the Department of the Army and the Air 
Force and their responsibilities to help us with that no-notice 
response. This is unprecedented in the historical past of the 
Army and Air Force. It is a good step forward.
    But you have accurately laid out that even with--while I 
have to support and do support the President's budget, if more 
resources were to be applied earlier, then we have the capacity 
to absorb those resources and turn that authorization or that 
appropriation into real readiness capability, meaning the 
equipment that we need to go out the door in a no-notice 
response tonight if necessary or this afternoon.
    Senator Leahy. My staff will continue to work with yours 
and with General McKinley's and General Vaughn's on that 
because I am getting very, very worried that we have gone 
beyond a tipping point.
    General McKinley, you will not be surprised if I talk about 
the 158th Fighter Wing in Vermont. It is proudly flying the F-
16 Fighting Falcon. It is one of over 15 units in the Air Guard 
that fly the aircraft. That is a sizable percentage of the Air 
Force tactical air capabilities. It is getting kind of old--
that airplane. It is going to be around a while until we see 
the F-35 or whatever comes in to replace it.
    What kind of upgrades are needed? Do we have the funding 
for that?
    General McKinley. Senator Leahy, I appreciate your strong 
support, and yes, the Burlington, Vermont unit is one of our 
finest, and I am very proud of them.
    We meet annually. As you know, members of your staff have 
worked with us closely to bring up the types of equipment 
issues that are necessary to keep the legacy fighters that the 
Air National Guard has relevant. And we publish annually a 
modernization book that is really developed by our weapons and 
tactics officers in the squadrons. This is not some theoretical 
concept. This is what the actual fighter pilots who train our 
members use. And so we are able to collect that data. We have 
collated it. Senator, you have a copy of it. And that is where 
we go back to the Air Force, and through your help with the 
National Guard and Reserve equipment account, and try to make 
sure that the legacy fighters continue to serve our Nation well 
because we are going to expect these fighters to continue to 
perform for the next decade or so. So it is vitally important, 
and I thank you again and members of the subcommittee for your 
help to maintain these aircraft.
    Senator Leahy. And I am sensitive to the time and I agree 
with Senator Stevens on that. So you will get at least private 
calls from me on community basing.
    General McKinley. Yes, sir.
    Senator Leahy. I think that is a great idea. I know it is 
growing substantially in Vermont. We talk about other places it 
might go, and we will keep working on that.
    General Vaughn, we talk about the full-time personnel in 
the Army National Guard. I understand the requirements for 
full-time manning have not been reworked since well before 
September 11th when the Guard made up such a high percentage of 
the forces on the ground in Iraq and Afghanistan.
    Can you tell the subcommittee about the role the full-time 
personnel have in Guard units and what kind of requirement is 
there for additional full-time personnel?
    General Vaughn. Thank you, Senator Leahy.
    The full-time support piece, as you talked to, is based 
upon a 1999 strategic reserve model. We think it is out of date 
and we think it needs to be revamped. The Army is working that 
through a study. We think that readiness of our forces to move 
quickly, as you stated earlier, and do the things that the 
Governors and the President need demands that we have a higher 
level of full-time support. We have the capacity and capability 
to grow whatever it is that we are told to grow to. And we 
should grow.
    Senator Leahy. Thank you. Well, you have a sympathetic 
committee here on both sides of the aisle and I applaud all of 
you being here.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Bond.
    Senator Bond. Thank you very much, Senator Stevens. And I 
join with my co-chairman, Senator Leahy, in expressing the 
confidence and the appreciation of the Guard. I welcome General 
Blum, General McKinley, General Vaughn.
    General Blum, thank you for your service. You work so well 
with the National Guard Caucus. We very much appreciate meeting 
with you regularly and we thank you for the good information.
    I would say by summary of what could be a long speech, that 
I really think the Guard is the most respected and capable 
organization we have. Every mission that our Nation has asked 
the Guard to execute, it has done so. Whether it is fighting 
terrorists in Iraq or Afghanistan, protecting the sovereign air 
space over the United States, securing the Southwest border, 
fighting the war on drugs through the counter-drug program, 
creating new futures for at-risk youth through Youth Challenge, 
or leveraging the Guard's civilian skills or ``smart power,'' 
as I like to call it, the Guard has been and will be there.
    With respect to the Guard's smart power, General Vaughn, I 
appreciate your leadership in developing the National Guard 
agriculture development teams in Afghanistan. With roughly 80 
percent of the Afghan population depending upon agriculture, 
they will be training Afghans in sustainable agriculture and 
develop projects that will contribute to rural development.
    Would you give the committee an update on the ag 
development teams? Because I think this is a vitally important 
effort that was referenced, I believe, at least indirectly by 
Secretary Gates in his comments yesterday.
    General Vaughn. Thank you, Senator Bond.
    It plays right to the strength of what we do best and that 
is incorporate the States at every level, especially in a non-
kinetic venture like this. It uses civilian acquired skills, of 
course, that being in this instance farmers. Now, that is kind 
of out of the box because it does not sound like a military 
solution. But it is aimed at the poppies. It is aimed at the 
plight of the farmers that simply need a better way of life, 
and it is about doing good in uniform.
    There are 10 agriculture soldiers from the State of 
Missouri. Missouri has been in the lead. We appreciate your 
great support. We appreciate the great support of Charles Cruz 
with the Farm Bureau. We looked at this and said, you know what 
we need to do is get some energy and support from the farming 
community of a State and link a State with a province. And that 
is exactly what we have done. It is a 50-person team. It has 10 
professional agriculture soldiers on it. The other 40 come from 
agriculture backgrounds. The State of Missouri has wrapped 
their arms completely around these soldiers. It is playing in 
the papers, as you well know. There is great interest in it, 
and they are deployed in Jalalabad today.
    The 82nd Airborne and the 101st have wrapped their arms 
around it, and as you know, there are other States now queued 
up ready to go. Texas is coming next, Nebraska, Tennessee, 
Alabama. I think there is a great deal of support for a non-
kinetic solution at this time.
    Thank you, sir.
    Senator Bond. Thank you very much, General Vaughn. And here 
the Guard is really playing a lead. They have got 17th century 
agriculture, and with what the Guard can bring them in terms of 
know-how, not only training of farmers, but training the people 
who will be training the farmers, have the possibility of 
bringing them up at least a couple of centuries so they can be 
more self-sufficient. And I hope we continue to use that model.
    General McKinley, Senator Leahy, and I recently wrote you 
about the Air Force fifth generation TACAIR procurement 
strategy and the effect on the air sovereignty alert. We know 
the Air Force is facing billions in recapped costs and a 800-
plus aircraft shortfall. Yet, despite the questions we have 
raised, they have refused to come up with a plan B to provide 
the equipment we need. With the number of F-22's capped at 183 
and the F-35 initial operating capability slipping and the cost 
going up, how does this impact the Air Guard's mission, 
particularly the ASA and other paramount flying missions? Where 
are you going to be in terms of aircraft in the very near 
future?
    General McKinley. Thank you, Senator Bond, for your 
advocacy and for your support of the air sovereignty alert 
mission.
    As you know, sir, we have 16 fighter units that presently 
sit alert over the United States of America. They all fly aging 
F-16 and F-15 aircraft. In fact, a unit in your home State, St. 
Louis, Missouri, lost an F-15 earlier this year, a catastrophic 
bulkhead failure. It shows the age of the aircraft.
    The plan B for us, sir, is to continue to extend these 
aircraft, to put modernization into them, but it is not going 
to solve the problem long-term because as early as fiscal year 
2015--General Blum and I have looked at this, and we have 
determined that at that early date, we will start attritting 
aircraft out of this fleet and we will be leaving the combatant 
commander of NORTHCOM unable to meet his requirements. General 
Blum and I are working very closely with the Air Force to make 
sure we do not have that bathtub, but today, as we look at it, 
there is a bathtub.
    Senator Bond. Would newly produced F-16's and F-15's at 
what, I might add, would be about one-third or less the cost or 
the F-22's enable you in the interim to fill that gap?
    General McKinley. Sir, you obviously know those are not in 
the Air Force procurement budget. But either one of those 
aircraft have served this Nation exceedingly well for the past 
20 to 30 years. And we need to modernize an air sovereignty 
alert fleet that can serve this Nation.
    Senator Bond. I believe in that, and I believe that plan B 
is a necessity.
    General Vaughn, let me finish up commending you and the 
Army Guard for pushing the top in recruiting with quality 
recruits. The Army National Guard has the Guard Recruiter 
Assistance Program, which serves as a model.
    Can you provide us an update on the Army Guard recruiting 
effort, and what, if any, are some of the challenges facing you 
for which you may need assistance?
    General Vaughn. Senator Bond, we have done great things. In 
the last 2\1/2\ years, we have grown 28,000 soldiers, and we 
recruit nearly 70,000 soldiers a year. As you referred to, we 
put into place a program that takes advantage of peer 
recruiting, uses our soldiers, incentivizes those soldiers to 
go out and recruit their communities and make their 
organizations to look just like them. You know, we go to 
school, church, play ball with every recruit that is out there. 
We are at 358,000 soldiers.
    The authorization through 2009 is 352,600. We were given 
authority from the Office of the Secretary of Defense to go 
ahead and not slow down this recruiting program that is 
attracting youngsters at a record rate to serve their country.
    And so General Blum mentioned something a while ago. We 
have a couple things going. We have got the equipment piece 
going in the right direction, which we have to monitor. We have 
the full-time support piece that we have to get to work on. The 
other piece is we have to have a serious debate about what the 
real end strength of the Army Guard should be because over 
history, as a dinosaur and as a system that is outdated, we 
have all of our training pipeline sunk into our units, which is 
the wrong thing to do. So we have to look at how much strength 
we really need in the future.
    Senator Bond. Thank you very much, General Vaughn.
    Senator Stevens. Thank you.
    Senator Mikulski.
    Senator Mikulski. Well, good morning, Generals, and thank 
you for both being here and for your service. And as always 
with the Guard, thank you for your candor and the willingness 
to tell it like it is. I appreciate the charts that you have 
given to us that actually identify your budgetary needs and 
where the base shortfalls are. It is rare that we get it and so 
straightforwardly.
    General Vaughn, it is great to see you at this table 
joining with our colleagues in the National Guard Caucus. We 
would like to see you at the Joint Chiefs table.
    But let me get right to my questions. First of all, to you, 
General Blum--my colleagues, General Blum is a fellow 
Marylander and we are very proud of him and his position in our 
military.
    But in the Yellow Ribbon reintegration program, I want to 
thank you for the fact that you furnished Maryland $1 million 
out of your discretionary funds to help with the Maryland 
reintegration program. As of April 1, over 1,000 Maryland 
guardsmen were serving in either Iraq or Afghanistan. Many are 
now on their way home. We wanted to operationalize the program. 
We are one of 15 States, but the civilian leadership at the 
Pentagon had failed to fund it. Your $1 million and Governor 
O'Malley, willing to step up for what is essentially a Federal 
responsibility, with $3 million, we have been able to do it.
    But I want you to know we had a roundtable with guardsmen 
and they are very grateful for what you were able to do, which 
takes me right to the Yellow Ribbon Program.
    We are going to put the money in the supplemental, thanks 
to Senators Inouye and Stevens, and we are looking to 
implementing it here. As I understand it, 15 States have a 
Yellow Ribbon Program. Of course, that means 35 do not. Do you 
anticipate that all 50 States will develop a program, and do 
you see that all 50 States need them?
    General Blum. Senator Mikulski, you are at the essence of a 
very critical issue. Every soldier that we deploy, every unit 
that we deploy and goes into harm's way has to be reintegrated. 
The first panel that was in here--you were spot on, right on 
target on what the needs are. General Stultz told you. We 
recruit soldiers. We retain families. To maintain those 
families, to even put them back to the way they were before the 
deployment requires a systematic reintegration process that 
heretofore we had not paid enough attention to.
    We have a pilot program with 15 States that is proving to 
be tremendously successful in encountering some of the concerns 
of Senator Murray and yourself as to the ill effects of the 
deployment on their families and the soldiers and how they 
reintegrate back into the workplace and into the household. 
Every single soldier and their family deserves this program.
    Now, if they are called by the Governors to do something in 
the State, then the State probably should bear the 
responsibility for that.
    Senator Mikulski. Right.
    General Blum. But when you are called in the Federal 
service of your country and you go overseas for a year, we owe 
them everything we would give any other soldier, airman, 
marine, or sailor in the Armed Forces. The fact that they 
happen to be guardsmen is irrelevant in my view.
    Senator Mikulski. So do I take that as a yes----
    General Blum. Yes.
    Senator Mikulski [continuing]. That you need 35 more?
    General Blum. Yes, ma'am.
    Senator Mikulski. And is the reason that we do not have 35 
more because the pilot did not work or is it a wallet issue? Is 
it a real issue?
    General Blum. It is a resource issue.
    Senator Mikulski. So it is a wallet issue.
    General Blum. The pilot worked magnificently well. As a 
matter of fact, right now I would say Minnesota is the gold 
standard. Maryland is right up there.
    Senator Mikulski. Yes. Do not start that.
    General Blum. Well, what I am saying----
    Senator Mikulski. We will all suit up and fight for our 
guardsmen.
    General Blum. What I am saying is that the States have 
really embraced this, taken it serious. The fact that Governor 
O'Malley would put that kind of money into that program out of 
the State coffers just to jump start it and make it possible is 
very commendable, but it should not be sustained that way.
    Senator Mikulski. So what you are saying is what we have 
now in the supplemental we anticipate will keep the programs 
going for 15, but we really need to face up to the fact that it 
should be integrated, that there should be this substantial 
list for all of the guard units coming home so that they would 
have parity with active duty on a reintegration program.
    General Blum. Yes, ma'am, absolutely. Clyde, do you want to 
add anything to that?
    General Vaughn. Senator, the Army has looked out there and 
seen this, and they have listened. And they integrated the 
family action plan by the Army which, unfortunately, because of 
the resource tail, it is a little further out. They have this 
program, Yellow Ribbon, in this integrated family action plan. 
And it has got to be resourced to make it happen. But they have 
seen the light, and they are working this very hard.
    Senator Mikulski. Let me go then to this. Do you have at 
the Guard really those who are looking at evaluating the 
program? And let us say what you have now is very good. What 
the Guard tells us, as we meet in family roundtables, is that 
when they come home, it is not a linear process. In other 
words, you have it very well sequenced, but some feel they do 
not need the services until maybe they have been home a year or 
they need it when they have been home for 3 months and it dawns 
on them they need it. Or they have assessed the family 
financial situation, and they find that they need a lot of 
counseling just in terms of getting out of debt.
    There are two things going on. One, an evaluation that 1 
year is not enough, that a guardsman can come in at any point? 
And number two is that really the reintegration program should 
have almost like an alumni association where they would 
periodically be able to come back for at least another year 
after they return home or before they deploy again because it 
is after they get home to get reintegrated. But then there is 
that undercurrent of anxiety of the redeployment. So you have 
got two significant dynamics going on in the family: one, to 
reintegrate and then the possibility of saying goodbye all over 
again.
    General Blum. If we are going to have an operational 
National Guard, which this Nation must have, with an All-
Volunteer Force, the only way we can sustain the defense of our 
Nation right now is to optimize and operationalize the Reserve 
component. That includes the National Guard. If we are going to 
have repeated deployments, the conditions, the symptoms that 
manifest themselves come, as you well described, at irregular 
times. They are different for each person, and they really are 
cumulative. If you have deployed two and three and four times, 
the intensity of your symptoms and when they manifest 
themselves is different than if you go one time for a short 
deployment and come back.
    So we want to build as much flexibility in this program 
because we are looking to keeping soldiers and their families 
really for a continuum of service, basically as a career. We do 
not use our most precious resources to bring them in for one 
enlistment and then let them go out the door. We spend a lot of 
time and effort. They become more valuable to us with each 
passing day. We need to realize that in the programs that 
support and sustain these soldiers and their families.
    Senator Mikulski. Well, thank you very much. I know others 
have asked questions related to equipment and retention and so 
on. But thank you and thank all who serve as well. Thank you.
    Senator Stevens. Senator Murray.
    Senator Murray. Mr. Chairman, thank you very much and thank 
you to all of you for your tremendous service and those who 
serve under you and with you.
    I wanted to ask General Blum. I have been following the KC-
X recapitalization effort. And in reading your prepared 
testimony and General McKinley's, I see that the Air Guard flew 
86 percent of the tanker sorties in Operation Iraqi Freedom and 
25 percent of tanker sorties in Operation Enduring Freedom. 
Pretty impressive. So considering that the Air Guard is very 
heavily involved in the operations of these mid-air refueling 
tankers, I am curious how much input you or your staff had in 
the KC-X recapitalization process.
    General Blum. The joint staff did not have any. Did the Air 
Guard staff?
    General McKinley. No, sir.
    General Blum. This is pretty much consistent with what 
General Bradley told you. It would not be normal that the Air 
Guard or the Air Force Reserve would participate in an 
acquisition action.
    Senator Murray. Even though you fly a large majority of the 
sorties.
    General Blum. Pardon?
    Senator Murray. Even though you fly the vast majority of 
the sorties.
    General Blum. Yes. But how new aircraft are acquired does 
not take into account the advice and consultation of the Chief 
of the Air Force Reserve or the Director of the Air National 
Guard.
    Senator Murray. I know that there are going to be 
associated costs with either the Boeing or the Airbus plane. 
But I want to know what impact the difference in size and 
weight of the two tankers would have on our future budgets. And 
there is a lot of costs associated with upgrades of hangars and 
ramps and taxiways.
    Has the National Guard conducted an evaluation of the 
construction costs for the various beddown locations?
    General Blum. That is ongoing. Do you want to handle this, 
General McKinley?
    General McKinley. That, Senator Murray, was done several 
years ago as a what-if drill because----
    Senator Murray. For both the larger tanker, Airbus tanker--
--
    General McKinley. I would have to get that back to you for 
the record. I know we have looked at a larger aircraft tanker 
beddown for Milcon and hangar space. I know that. So I will get 
that to you for the record.
    Senator Murray. So you could provide me with the 
information on both of those planes and the costs?
    General McKinley. Yes, I can.
    Senator Murray. Okay, for the record. Thank you. I 
appreciate that.
    [The information follows:]

    As part of routine tabletop and internal ``what-if'' 
planning drills conducted several years ago, my engineers 
verbally discussed with several Air National Guard (ANG) tanker 
wing commanders potential beddown issues such as facilities, 
ramp space and hangars for future recapitalization efforts.
    At the 20 ANG sites where tanker assets are currently 
based, we estimate the facility costs would be approximately 
$50 million to $275 million for the KC-45 and $50 million to 
$250 million for the Boeing aircraft depending on location. For 
example, at a notional ANG-only base, we estimate costs to be 
approximately $70 million for either aircraft selected. And, at 
a notional civilian location, costs range from $250 million to 
$275 million. These MILCON estimates will be used for potential 
ANG KC-X bases and are intended to assist in the Guard's 
initial planning for potential aircraft replacement. These 
estimates were not part of the Air Force's formal acquisition 
process.
    In coordinating this response, we were informed by the Air 
Force that part of the official KC-X Source Selection process, 
the Air Force calculated and took into consideration MILCON 
cost estimates for representative active duty CONUS/overseas 
locations, as well as sample Guard and Reserve bases. The Air 
Force conducted site surveys at several existing active duty 
tanker bases. These surveys were used as a basis for estimating 
MILCON costs for the Most Probable Life Cycle Cost (MPLCC) 
which would address ANG and overseas locations. It's important 
to note that MILCON cost estimates were not considered in 
isolation by the source selection team, but were included as a 
component of the MPLCC, accounting for approximately 2 percent 
of the total cost.
    When Air Mobility Command coordinates the final KC-45A 
beddown with the MAF and the plan is approved by Headquarters 
Air Force, the National Guard Bureau will lead the site survey 
processes at selected Guard locations. Initial MILCON cost 
estimates will be updated based on the specific requirements of 
each location. Local experts will be an integral part of the 
site survey team, as is the case with all site surveys.

    Senator Murray. And, General Blum, I wanted to ask you 
specifically your opinion on flying the Boeing 767. And the 
reason I am asking that is because shortly after the--well, 
within a day after the announcement of the procurement of the 
Airbus plane was made, Loren Thompson, who is with the 
Lexington Institute, released a paper extolling the benefits of 
the Airbus platform and hinting that somehow the Boeing plane 
was a lesser plane.
    Now, that was before we were given any kind of debriefing. 
Boeing was not given any kind of debriefing. I have been asking 
Secretary Wynne and General Moseley and even Secretary England 
how that could happen, and no one knows.
    But regardless of that, some of the misinformation from 
that analysis has left people wondering whether the 767 is a 
plane that your forces would be willing to fly. And I wanted to 
ask you specifically if you have an opinion about the Boeing 
767.
    General Blum. Well, I am probably the least qualified 
person to comment on that, but I think General McKinley could 
probably offer a more credible opinion on that.
    Senator Murray. General.
    General McKinley. Ma'am, we are under advice that while the 
contract is under protest, the order is under protest, that we 
are supposed to leave it at that.
    So all I can tell you is we have 17 great KC-135 units in 
the Air Guard. They fly great missions. They are looking for 
new equipment. That equipment is very old and needs to be 
replaced very badly.
    Senator Murray. Okay. Well, let me change directions a 
little bit.
    General Vaughn, I had a question for you. I know that the 
psychological issues for our men and women who are returning 
are something that you care about. And I saw that in February, 
the Army released the MHAT-5 report that had a number of 
findings. Some of them were them more positive; some were more 
troublesome. And I was pleased to see that the report said 
morale had increased throughout the ranks of the Army and that 
stigma had decreased for mental healthcare.
    But I was alarmed to see that the suicide rates for 
soldiers who were deployed to Iraq and Afghanistan were up. 
Additionally, that report found a significant increase in 
mental health problems for soldiers deployed to Afghanistan.
    Could you comment a little bit on whether this transition 
to heavy use of the National Guard and operational forces has 
had an impact and what you think we should be doing?
    General Vaughn. Thank you, Senator Murray. Yes, I think 
there is no question it has had an impact, and we are all 
disturbed by the numbers. But it is the stress that probably 
all of us, all services, find ourselves in today with the 
repeated use, and this is what the Nation has asked us to do.
    Now, how do we fix it and what things can we do? I think 
the thing that you may have alluded to--and I had a sister that 
has coached me for years in head injuries. So my concern, after 
the last couple of trips, was with all of the soldiers, 
sailors, airmen, and marines that had taken repeated blows and 
there were in incidents that we had no record of. And so I said 
when I look back at this in the Guard and Reserve especially, 
our soldiers come back and then they return to the civilian 
populace. They are not on active duty any longer. Rather than 
them having to come forward, why is it we cannot do something 
in the integration piece and at 30-, 60-, 90-day checks? And 
then you ask yourself, well, who is it that is going to be 
doing that?
    And when we look around, I think long-term, if we are 
looking at something that is kind of like the Agent Orange 
piece, you know, the Vietnam war, then we should have a 
database on all these soldiers who took these repeated blows in 
a blast or whatever it is, which is an operational nature. What 
I am saying is if they are hurt, they are already captured and 
in the personal side of the medical records, and that is 
protected. But if we did something operationally that said, 
when that soldier comes back for redeployment and if he goes 
through the demobilization station, perhaps the State needs to 
be there with us. Every State probably will handle this a 
little bit differently, but there are head injury counsels out 
there that I think ultimately are going to be kind of the case 
managers and folks that move them in various directions.
    I think our responsibility--and I have had this discussion 
with the hospitals in Afghanistan and Iraq and I have had this 
with the senior leadership in the Army. I think our 
responsibility is to accumulate that track record on each one 
of those soldiers.
    Senator Murray. And that is not being done currently?
    General Vaughn. Ma'am, that particular piece for the Army 
National Guard is not being done currently. And to me it is a 
command responsibility to report it in through chains and for 
us to be able to give it to our great adjutant generals out 
there and get it in to the interagency community of that State. 
And then we will figure out which direction they need to go.
    But rather than them swimming upstream with a stigma and 
saying I have a problem, we ought to know whether this soldier 
is likely to have a problem. And when they look at that, there 
is a database that says, oh, yes, you were this, this, this, 
and this. And that is what we are trying to work right now.
    It is an emotional issue to us, and we have tried to attack 
this, and we are going to keep pushing it. And we would like to 
have all the help we could get.
    Senator Murray. What are the barriers? What can Congress do 
to help you with that?
    General Vaughn. A barrier for us--and I will just be very 
open with this and ask the Chief to throw in, if he wants to. A 
barrier for us is the command relationships with our 
organizations that are deployed today. Our units are spread out 
over such a big area that if our brigades and the command 
relationships were in place where they had command and control 
and the reporting chains were all there, we could get them to 
report this data up through the chains to us. But as it is, 
they are segmented all over the place.
    This is going to take some work, and it will not just be 
Army and Air Guard and the other the Reserve components. It 
will also be the other active soldiers that do not go through 
the 20 years that are not really, really hurt that is going to 
come back into the State environment. So we need to take care 
of it for everyone for good.
    Senator Murray. General Blum, did you want to comment?
    General Blum. I would just add my solid support for that.
    What General Vaughn says is absolutely correct. It is a 
challenge for the Army Guard to document whether Specialist 
Winkowski has been exposed to one improvised explosive device 
(IED) or two IEDs or three IEDs. I do not know. His chain of 
command would know.
    Senator Murray. He just said two? You were exposed to two?
    General Blum. So that is two. That needs to be recorded 
someplace.
    Senator Murray. Was that recorded anywhere for you?
    Mr. Winkowski. I do not know.
    General Blum. He does not know and we do not know, but that 
is information that is very vital to know if we are going to 
understand what we----
    Senator Murray. Well, everything we are being told is that 
symptoms can occur 1 year, 2 years, 3 years later. I thought we 
were asking the question when soldiers came home if they had 
been in the vicinity of an IED. We are not doing that?
    General Vaughn. Ma'am, we are asking that question, but for 
all the right reasons, tough folks want to get home to their 
families, all these things, and plus they miss several of them. 
And then they ask the question, they say, oh, by the way, who 
else was in there with you? And so we need to be accumulating 
this for the soldiers.
    General Blum. Nobody is refusing to do it and nobody does 
not want to do it. We do not have a good system to do it yet. 
We are struggling to do this. This is hard to do for the active 
force. It is even more difficult for the Army National Guard 
because of the unintended consequences of breaking--the way we 
are employing our units today needs to be looked at hard. 
General Vaughn and I are working with Army leadership on this 
because one of the unintended consequences of the way we are 
desegregating our leadership from our units, once we send them 
overseas, in some cases makes what we are describing here an 
almost impossible task.
    So we are not condemning anyone, but this is a problem that 
we must address as senior leaders, and I think this is for the 
Army to fix for the soldiers. And when I am talking about the 
Army, I am talking about the total Army, active, guard, and 
reserve, soldiers I am talking about are active, guard, and 
reserve soldiers.
    Senator Murray. Well, thank you. I am way over my time. 
Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.
    We are very proud of the fact that in Camp Shelby, 
Mississippi, near Hattiesburg there is a National Guard 
training facility. The Army has been there for quite a while, 
since World War II. As a matter of fact, Senator Inouye was 
sent there for initial Army training before he was deployed in 
World War II. So there is a rich tradition and heritage that we 
honor at Camp Shelby.
    Camp Shelby is now engaged in a total immersion training 
program where they have villages and buildings that resemble 
the facilities that you will encounter in the combat zones that 
we have been involved in Iraq and Afghanistan and other places 
around the world.
    The point I am making here is that just recently they had a 
tornado that came through there and tore up some of those 
buildings, damaged some of them severely. And we have asked for 
supplemental funding to repair those and restore those 
facilities so they can continue to be used.
    Is it the plan of the Army National Guard to continue to 
use Camp Shelby as a training facility for guardsmen who are 
being deployed?
    General Vaughn. Senator Cochran, absolutely. When you look 
at the premier facilities all the way around and what generates 
combat power, especially for our brigade combat teams, Shelby 
handles large formations. As you know from the museum out 
there, you can see who all has gone through there. It is just a 
fabulous place and we intend to put the kind of resources that 
it takes to continue to keep that going within our limited 
capabilities. But I also believe that the Army, the big Army, 
the total Army, stood up to do exactly that too. And all we 
need to know is whether something is amiss on that or not 
because we cannot afford for Shelby to be out of step with what 
we are doing today.
    Senator Cochran. Well, I am hopeful and I expect that we 
will include funds in the supplemental to be able to repair and 
put the facilities back in full operation.
    General Blum. Senator, I will take that question for the 
record, but it is my understanding that it has been done. But I 
want to make absolutely sure. And I think General Vaughn is 
right. I think that was done with Army funds. But we will take 
that for the record and we will get it back to you.
    Senator Cochran. Well, thank you very much.
    [The information follows:]

    To date, the Army National Guard has not received any 
federal funds to repair the damage to Camp Shelby caused by a 
tornado on March 4, 2008. This tornado caused extensive damage 
to facilities, including three barracks (36-soldiers capacity) 
and one latrine all of which had to be torn down due to safety 
concerns. The latrine facility was critical since it served a 
block of buildings and rendered them un-usable. The impact was 
a loss of capacity to house soldiers. Work-arounds were 
accomplished by immediate repair where possible, relocation of 
soldiers, and continued use of the minimally damaged buildings. 
One headquarters building and office facilities also incurred 
tornado damage. Emergency or temporary repairs have been 
performed on all facilities to mitigate immediate safety 
hazards. These repairs were completed by diverting scheduled 
maintenance and repair funds. Only the most critical of repairs 
were completed. Funding estimates to repair tornado damage 
include $11.5 million in Military Construction funds and 
$866,000 in Operations and Maintenance funds.

    Senator Cochran. Well, it is a high honor to be a host in 
Mississippi to such a good training facility. I remember when 
my son trained down there when he was in the 155th Combat 
Brigade, a tank platoon leader, in preparation of going to 
Kuwait to deal with that situation. He called me up and he 
said, Dad, I am not sure our training is going to be complete 
by the time that thing is over over there. I think I need to be 
transferred to a unit that is going. And I said, well, I cannot 
do anything about that. The Army knows where they want you. And 
he said, well, I will call Congressman Montgomery then.
    Well, one other thing that I just want to comment on and 
that is the recruiting and retention by the Army National 
Guard. It has been very impressive, particularly at a time when 
deployments to hostile areas and serious combat may be 
involved. I know your recruits have been deployed multiple 
times in support of our national security interests, and I want 
to commend you for the quality of the leadership you have 
provided to these men and women. We are very proud of them in 
our State and they continue to engage in training and are 
serving out their commitments. They are not dropping out. They 
are staying in.
    So at the time when the overall size of the Army Guard is 
growing, are you able to meet your retention goals nationwide? 
I know it is good in Mississippi.
    General Blum. I will let General Vaughn brag about this. 
This is a great success story.
    General Vaughn. Senator, we have met every goal. We set a 
retention factor of 18 percent across the Nation, and we are 
exceeding that. We are much younger than we have been because 
we are attracting so many youngsters, and they are obligors and 
they are staying.
    So attrition and recruiting--there are two elements of 
this: keeping the folks with you and taking care of them. And 
the biggest piece of that is that the community really, really 
shows their affection for them. Both sides of the aisle--you 
know, they are on the side of the soldiers. And they feel not 
like second-class or third-class citizens. They feel like 
first-class citizens. And our communities and Governors and 
congressional delegations have just taken wonderful care of 
these soldiers when they return.
    Senator Cochran. That is reassuring and good to hear. And I 
congratulate you for the great job you all are doing in making 
this happen. Leadership makes a difference.
    General McKinley, I know you are probably aware that the 
186th Air Refueling Wing currently flies KC-135 tankers out of 
Key Field in Meridian, Mississippi. In the base realignment and 
closure process in 2005, these aircraft were reassigned to 
another base. But the Air Force, as I understand it, is 
considering replacing those tankers with joint cargo aircraft, 
but it may not be in time to avoid a gap in the training that 
will be available to air guardsmen at Key Field.
    I would like for you to look into this and see if there is 
any way to reduce that gap or eliminate it if it can be done so 
that the training of highly qualified flight crews and 
maintenance personnel can continue with real-world missions 
assigned to Key Field.
    General McKinley. Thank you for that question, sir. You 
know we have experienced a lot of mission change as a result of 
base realignment. Meridian has a great history and a great 
record. General Blum has worked very closely with the 
leadership of the Air Force on finding this future mission 
which is the C-27. But we are looking collectively as the 
National Guard Bureau on how to bridge the gap between 2011 and 
2015 when those new aircraft come. So I will make sure we get 
back with you or your staff and let you know how we are 
progressing.
    General Blum. And, Senator, you need to know that the 
intent--and Senator Dorgan knows this well because we worked 
his issue early, starting about almost 3 years ago. We had to 
take out the oldest F-16s because of base realignment and 
closure (BRAC) out of North Dakota, and they were not going to 
get the C-27 aircraft in time for it not to be a gap. So we 
arranged a bridge mission for that unit, and we will do the 
same thing for Meridian.
    I have made a commitment to all of the adjutants general 
and Governors that we do not want--we want this to be like a 
relay race or a baton pass where we do not let go of the baton 
until someone has grabbed it. We do not want a gap and drop it. 
If we do that, it will be very costly in terms of recruiting, 
retention, and resources to reestablish that unit after it has 
been disestablished. So it would be much better to have a 
bridge mission to transition it from what it used to be to what 
it is going to be, and we are committed to doing that with you, 
as well as the other States.
    Senator Cochran. Thank you very much.
    Senator Stevens. Senator Domenici.
    Senator Domenici. It is nice seeing all three of you again.
    General Blum, last year a GAO report studied the National 
Guard domestic equipment requirements and readiness and 
indicated that the nondeployed Army National Guard forces in 
New Mexico did not rank very high. As you recall, they ranked 
the last in the Nation in equipment readiness with less than 40 
percent of the total amount of dual-use equipment they were 
authorized to have for warfighting missions.
    Since that report, it is my understanding that things are 
better. The dual-use equipment availability has increased to 61 
percent. According to your posture statement, it looks as if we 
are slowly going in the right direction. Is that correct?
    General Blum. Yes, sir, that is correct. And it is because 
of the extremely helpful assistance we got from this 
subcommittee and the Congress with the National Guard and 
Reserve equipment account. We were able to literally put the 
capability and the capacity exactly where we needed it. We were 
able to apply that $800 million that Congress appropriated and 
authorized last year for the National Guard and Reserve 
equipment account, and New Mexico was one of the beneficiaries. 
You are now at exactly the same as the national level. You are 
coming up at the same rising tide as the rest of the Nation.
    Senator Domenici. How does the 2009 budget request address 
this situation?
    General Blum. If additional resources or funds were made 
available, we could apply them to accelerate moving from the 60 
percent level or the mid-60 percent level where we are and we 
could probably increase that in terms of quantity and quality 
by a rough order of magnitude of 10 percent by next year, which 
I think is probably very useful to do.
    Senator Domenici. I do too.
    The National Guard's role in border security. General, 
again, Operation Jump Start will end this June. We really 
appreciate the fine work that was done by our guardsmen and 
women in supporting Department of Homeland Security (DHS) on 
the border security mission. I also want to thank you for your 
support of our communities and the law enforcement agencies 
with the counterdrug program.
    Can you tell us a little bit more about the National 
Guard's work as part of Operation Jump Start and its 
counterdrug work?
    General Blum. Those two are separate programs, Senator, as 
you well know, but they are somewhat related.
    Senator Domenici. Right.
    General Blum. Before Operation Jump Start ever happened, we 
were on the Southwest border for about 20 years largely through 
the counterdrug program. Lots of good things were done that 
have beneficial effect with some of the issues that the 
Governors and the President had to deal with with our 
international border and our State borders down there.
    Operation Jump Start was a limited operation that was only 
supposed to last 2 years and only funded and authorized for 2 
years. It will come to conclusion in July. We have met and 
exceeded everyone's expectations, the Governors', the 
President's. Everyone is happy with it and we will complete 
that mission at the end of July.
    That does not mean that you will not see the National Guard 
on the Southwest border of the United States. We were there in 
two legitimate ways for many years before Operation Jump Start, 
and I think we will probably be there for the foreseeable 
future, probably using those two programs again.
    One of them is the innovative readiness training program 
that is run out of the Department of Defense where all of the 
Reserve chiefs that were here this morning and us send our 
soldiers, sailors, airmen, and marines to go down there and 
actually practice and perfect their military skills in a way 
that is useful to also helping secure the border and improve 
the infrastructure along the border which helps secure the 
border.
    The second program is the counterdrug program. If the 
counterdrug program were fully authorized and fully funded, it 
could do even more than it is doing right now. And what it is 
doing right now has a very beneficial and synergistic effect 
for border security as well as interdicting illicit drugs and 
people that are trafficking through the border.
    Senator Domenici. General, are you saying that when Jump 
Start ends, there are still some programs, aside from just a 
general involvement, that will perhaps be used on the border 
until it is better taken care of by the fully operational 
Border Patrol activities?
    General Blum. I am not sure I would say it exactly that 
way. I am saying that the National Guard will be involved in 
the counterdrug program in California, New Mexico, Arizona, and 
Texas for sure even after Operation Jump Start is over. And I 
think you will see the Guard and Reserve specialized units, 
engineers, medical communications. The same people that you saw 
for 25 years in the past will probably return to that vicinity 
to do their training which has a synergistic beneficial effect 
as well. But it will not be Operation Jump Start. Jump Start 
was a very limited operation authorized for a specific purpose.
    Senator Domenici. A number of Governors on the border have 
officially asked us to extend Jump Start, and I do not know 
that that is going to happen. But the reason I am inquiring of 
you is what is it going to look like if Jump Start is not 
there. And my understanding is that in an ad hoc way you are 
still involved. You are asked to do things and you do them, but 
it will not be Jump Start.
    General Blum. I think that is an accurate and fair way to 
phrase it. I really do.
    Senator Domenici. Thank you very much.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Well, thank you very much. I believe I am 
last, so I will be mercifully brief. You have had a long 
morning, and I have not been able to be at all of the hearing.
    But I wanted to ask just a couple of questions. One is 
about--well, first of all, I should thank all of you. I will be 
Saturday in Grand Forks, North Dakota, at a coming home 
ceremony for some soldiers that are on their way back from 
their mission in Afghanistan. And all of us do that frequently 
to thank soldiers and their families, especially their families 
who carry on while they are gone. It is always a source of 
great pride. So thanks to the men and women of the Guard and 
Reserve.
    The Air Guard units--particularly in Fargo, the Happy 
Hooligans, of course, are now flying Predators. I am told that 
the Air Guard Predator units are manned to operate one Predator 
unit 24 hours a day, 7 days a week. That is the way they are 
staffed. I am also told that they are now operating two orbits 
with essentially that same staffing. That is a substantial 
tempo for them. Can you tell me what the background is on that 
and will that be relieved at some point?
    General McKinley. Senator, thanks for your support. 
Secretary Gates has testified that the need for increasing ISR 
capability is very necessary. So he has asked the Chief of the 
National Guard Bureau and me to ramp up the training in the 
units that have the Predator in the Air National Guard, as a 
result of base realignment, to pick up the tempo to be fully 
mobilized to do as many airborne combat air patrols as possible 
to help the soldiers and marines on the ground.
    The Hooligans have stepped up in a great way, as well as 
our other units who fly the Predator.
    This mission will probably transition itself from MQ-1 
Predator to MQ-9 Reaper because it will give the combatant 
commander more fire power on the ground overseas. So that 
demand signal has been given. The North Dakota Air National 
Guard has stepped up. It is going to increase and I do not see 
this tempo lessening, Senator, for the foreseeable future.
    General Blum. The good news, Senator, is it works so well. 
The guys like Senator--I mean, Specialist--maybe a future 
Senator, but right now Specialist Winkowski--he depends on them 
greatly to identify who is placing the IEDs, where they are 
placed, who is manufacturing these vehicle-borne IEDs and 
ground-buried IEDs. In an unclassified setting, I will tell you 
they are enormously effective in saving the lives and reducing 
the suffering of our American soldiers deployed. So anything 
that we need to do to provide more orbits for the people in the 
field right now we are doing.
    Senator Dorgan. I had heard reported a statement by 
Secretary Gates. The way the report came out, it seemed to 
imply some concern about the Air Force. I think the Air Force 
and the Air Guard are involved in putting almost everything up 
that they have got and doing, I think, by all accounts of other 
services, a terrific job. I checked too and my understanding is 
that reporting is not exactly what the Secretary of Defense had 
in mind. I think the Secretary of Defense is, from my 
understanding, pleased with the tempo and the work done by both 
the Air Force and the Air Guard with respect to UAVs. This is a 
new part of the Air Force in many ways, used in a new way as 
well.
    I want to ask about the joint cargo aircraft because you 
talked about the bridge with Senator Cochran, I believe, on 
that issue. The budget documents that we have say the Air Force 
plans to buy 24 joint cargo aircraft between 2010 and 2013. And 
I think that there are a number of Guard units that are 
candidates to receive the joint cargo aircraft.
    Can you tell me what we will expect? I mean, we involved 
with you I think several years ago--3 years ago now. What do we 
expect with respect to the Air Guard in Fargo and the Happy 
Hooligans with this bridge mission?
    General McKinley. Chief, thanks. If I could just carve out 
the Air National Guard piece of this. Right now in the Air 
Force budget, there are 26 C-27s in the budget, and the 
allocation right now--we have six units that have been 
designated as receivers of those aircraft, thereby making the 
math easy for four planes per unit on the Air National Guard 
side. And General Vaughn, obviously, is going to get a tranche 
of airplanes for the Army National Guard.
    Senator Dorgan. I understand it then. I was trying to 
reflect those numbers in terms of what General Blum and I had 
talked about previously.
    Well, Mr. Chairman, I will perhaps submit some other 
questions.
    But again, I make one additional observation, and that is 
this. The National Guard has done just a terrific job. I do 
think that now, over a period of a number of years, 5 and going 
toward 6 years, that frankly we are using the National Guard in 
a way that was not previously intended. And that works for a 
while. I mean, you can move things around and units around. It 
will work for a while.
    But I do think that multiple, repeated deployments will--I 
think there is a huge price for that at some point because the 
National Guard is capable of it, but it is not constructed to 
do that. And I think my hope is, as I think the hope is of 
everybody in this Congress, we are able to extract ourselves 
from this war at some point soon. But I also hope that we 
understand, when we get back to more normal times, the specific 
mission of the National Guard.
    General Blum. Senator, if we do not change how we man the 
force with full-time manning and allow over-strength for the 
units for the part-time manning or the traditional guardsmen, 
if we do not equip the Guard to be an operational force and we 
do not resource them and train them to be an operational force, 
then what you said is exactly right. If we do those three 
things, I think we can sustain the volunteer force and the 
citizen soldier indefinitely, particularly if we are allowed to 
grow capacity so that we are not turning the units and the 
individual soldiers as fast as we are today.
    Senator Dorgan. But the short answer to that is we are not 
meeting those needs. There are shortfalls in the percentage of 
equipment that is necessary for the various units. We are 
regrettably not having the resources to make that full 
commitment.
    General Blum. We cannot do things the same old way and use 
the Guard in a whole new way and make it work and sustain it. I 
agree.
    Senator Dorgan. Well, I thank all three of you for your 
leadership.
    Mr. Chairman, thank you for your time.
    Senator Stevens. Thank you. Thank you very much.
    I have sort of restrained myself a little bit here on 
questions today. So I will submit most of the questions.
    But I do want to ask you two things. General McKinley, I am 
told the Alaska Air Guard has the second lowest manning level 
in the Air National Guard. And they are working with the Guard 
Bureau to try to find the personnel to support the C-17 mission 
that is coming there. What is the situation? Are we going to 
have the planes and no people to fly them?
    General McKinley. Sir, General Campbell and I are working a 
plan right now to make sure we put our main effort on the C-17. 
It is critical. It is vital to our Nation. There are ways for 
us to adjust manpower in Alaska. I will be coming to the Chief 
of the Bureau with several courses of action here shortly, but 
it is a high priority. In fact, we have a team in Alaska today 
working those manpower issues with the adjutant general. So I 
share your concern. We are looking for ways to solve those 
issues, and I think we will be able to alleviate the stress.
    Senator Stevens. Well, General Blum, when I asked General 
Campbell about it, my staff and I, we were told there is a 
concept of cross-balancing manpower. Now what is that? I do not 
understand that.
    General McKinley. What we need--and it is an Air Force 
term. What we are looking for is a balance of possibly active 
duty manpower working with Guard manpower to alleviate the 
immediate shortfalls. Working with General Lichte at Air 
Mobility Command, we are looking at all those options. And I 
have not brought to the Chief what our courses of action are, 
but believe me, it is number one on my list.
    Senator Stevens. We are planned to move the Guard unit onto 
Elmendorf Air Force Base. Will that assist at all in this 
concept?
    General McKinley. Well, as you know, sir, that move from 
Kulis to Elmendorf is as a unit, and it has integrity of its 
own right. And we cannot rob manpower from it or we will have a 
similar crisis with another unit. So I think as I bring these 
courses of action to General Blum, we will give several ways to 
remediate this and then we will pass them on and make sure they 
are coordinated with General Campbell.
    Senator Stevens. Okay.
    General Vaughn, I am told that Alaska Army National Guard 
recently transformed the 207th Infantry Group to the 297th 
Battlefield Surveillance Brigade. Now, can you tell us how this 
new mission will improve the role of the Guard as far as its 
support capabilities?
    General Vaughn. Absolutely, Senator. The battlefield 
surveillance brigades are very needed and valuable 
organizations. They have a military intelligence capability but 
they have a scout capability that fits a lot of the kinds of 
structure that we originally had up with the famous 207th Scout 
Group. And so when we looked at the conversion piece, because 
it is a brigade level formation, we looked at it and we thought 
that fits pretty well. That fits Alaska. We talked to the 
adjutant general of Alaska and everybody agreed with that. And 
I think it is a phenomenal piece of structure.
    General Blum. It is a much more capable unit, Senator 
Stevens, and it places strength that has historically been 
demonstrated by Alaska Army Guard. We did the same thing in my 
home State of Maryland, taking the infantry brigade and turning 
it into a battlefield surveillance brigade, far more useful to 
the Governor and far more useful to the United States Army. 
They are a modern, 21st century capability. They really are.
    Senator Stevens. As I said, I have got a bunch of 
questions. I will submit them.
    Let me ask you just generally. How is recruitment and 
retention in our State in Alaska?
    General Vaughn. Excellent. Senator, recruitment and 
retention in Alaska pretty much goes the same all the way 
across the Nation. It is the same phenomenon of youngsters 
stepping forward to serve their country. But it is excellent. 
They are doing great. I was concerned a couple of years back, 
and I think we have just done wonderful.
    Senator Stevens. I was told that one of the units 
reenlisted 100 percent. Is that correct?
    General Vaughn. That is correct. We had some time to visit 
some units that were doing some phenomenal things in 
Afghanistan, for instance, and it just makes you so proud to 
see, regardless of where they are from. But they reenlisted 100 
percent of their soldiers.
    Senator Stevens. Thank you.
    General Blum. When the history of Afghanistan is written 
and brought up to currency, you are going to be quite proud of 
what the Alaska Army National Guard did, particularly down in 
Kandahar. The City of Kandahar may be in the right hands today 
because of the Alaska Army National Guard's contribution, 
frankly.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Well, thank you. I am going to see them 
soon. I will be happy to pass on your comments, General.
    We thank you, General Blum, General Vaughn, and General 
McKinley, for your testimony. I thank everyone today for their 
cooperation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
       Questions Submitted to Lieutenant General Clyde A. Vaughn
            Questions Submitted by Senator Daniel K. Inouye
                 army national guard: ``active first''
    Question. General Vaughn, the Army National Guard has initiated a 
new recruiting program called ``Active First'' which targets new 
recruits who would serve on active duty for a period of time, and then 
transfer to the Army National Guard. Participants can receive bonuses 
of up to $60,000 depending on the length of their commitment. How is 
this program coming along?
    Answer. The program is moving ahead of schedule. Our fiscal year 
2008 goal was to provide the Army with 1,600 Soldiers. We are on target 
and should have these Soldiers transitioned on or before September 1, 
2008. The program kicked off on October 1, 2007 and the first Soldier 
completed his Initial Entry Training (IET) and transition into the 
Active Army was on February 22, 2008. As of June 3, 2008, 86 Soldiers 
have completed their IET and transitioned into the Active Army. There 
have been 1,923 Active First enlistments with 1476 scheduled to access 
into the Active Army.
    Question. Is it meeting expectations?
    Answer. Yes. In order to fully evaluate if the program is meeting 
complete long term expectations, we must wait until the Soldiers return 
to the Army National Guard (ARNG). The program has two expectations: 
one is service in the Active Army and the second is to return as a 
drilling member of the ARNG. The program is unique in that the Soldier 
enlists for eight years without the ability to go into the Individual 
Ready Reserve (IRR). The Soldier must either return to a drilling unit 
in the ARNG or reenlist in the Active Army. Our expectation is that 
between 65 to 70 percent will return to an ARNG unit.
    Question. The Army National Guard has initiated a new program 
called ``Active First'' which is designed to fill up its ranks with 
prior service Soldiers.
    Recruits who enlist under this program serve in the National Guard 
until they complete their initial entry training (basic training and 
job training) and are then transferred to the Army for active duty for 
the time period specified in their enlistment contract (30, 36 or 48 
months). After their active duty period, then can either re-enlist on 
active duty, or serve the remainder of the obligated service in the 
Army National Guard.
    In the past, many Soldiers traditionally enlisted in the Army 
National Guard after serving on active duty. In fact, in years past, 
the Army National Guard got more than 60 percent of their new enlistees 
from prior service Soldiers. However, in the past five years, this 
percentage has dropped by half, most likely because National Guard 
units deploy much more often these days.
    National Guard officials hope this new program will recruit as many 
as 2,000 Soldiers, and expect to see as many as 1,400 of them return to 
the Guard after their active duty period.
    General Vaughn, what factors led to this program being developed 
and offered to new recruits?
    Answer. There were several factors that led to the development of 
the Active First recruiting program. First, the Army National Guard 
(ARNG) was exceeding our end-strength goals and beginning to reach our 
Congressionally-mandated ceiling. This was a means to continue the 
recruiting momentum and also provide a cost-effective means to help the 
Active Component in attaining their ``Grow the Army'' objectives. The 
word ``cost-effective'' is used because the costs associated with the 
program were primarily an opportunity cost. The ARNG managed to recruit 
the Active First Soldiers without adding any additional resources to 
our manpower or to the Army training base. This is of great benefit to 
the taxpayer because the single greatest cost associated with 
recruiting is the expense of our full-time recruiting force, of which 
the ARNG did not add any additional recruiters.
    Secondly, this program supports the continuum of service that the 
Army is trying to attain. Our formations will benefit from the 
experience an Active First Soldier will bring back to the ARNG when 
they return from the Active Component. By allowing our applicants to 
select a choice of going Active First we are also building a future 
base of Soldiers that will return to their communities already duty 
qualified.
                   army national guard--end strength
    Question. General Vaughn, the Army Guard plans to finish fiscal 
year 2008 with 358,200 guardsmen. This is 7,000 more than budgeted and 
is equal to the entire end strength growth planned for the Army Guard. 
Does the Guard intend to continue growing in fiscal year 2009?
    Answer. The Army National Guard (ARNG) has clearly demonstrated the 
ability to grow beyond 358,200 Guardsmen. The Department of Defense 
authorized the ARNG to grow beyond the fiscal year 2008 351,300 
congressionally-authorized and budgeted end strength in accordance with 
the ``Accelerated Grow the Army'' plan supported with the Office of the 
Secretary of Defense-directed reprogramming and supplemental funding. 
This increased authorization leverages the demonstrated momentum of the 
ARNG recruiting force to meet mission manning and readiness 
requirements to support a nation in an era of persist conflict. The 
sustainment of this end strength above the approved Grow the Army ramp 
of 358,200 in fiscal year 2013 is tied directly to continued 
supplemental funding as are each of the other Army components Grow the 
Army plans. To continue to leverage the momentum demonstrated by the 
ARNG, additional funding via supplemental budgets, while substantiating 
the current authorization (358,200) in the base appropriation is 
required.
    As the ARNG Force Structure Allowance (FSA) approaches steady state 
of 358,000 in fiscal years 2010 and 2011, continued end strength growth 
beyond 358,200 will permit the ARNG to address the challenge of having 
the ARNG training pipeline embedded within the operating strength. 
Creating a ``Recruit Sustainment Program'' for end strength above the 
FSA, similar to the Trainees, Transients, Holdees, and Students (TTHS) 
personnel accounts presently in the other Army service components, will 
allow the ARNG to fill the entire operating force with trained 
deployable soldiers to meet mobilization readiness requirements and 
support the transition of the ARNG to an Operational Reserve.
    Question. And how does the Guard plan to pay for the additional 
guardsmen recruited this year?
    Answer. The current level of Army National Guard (ARNG) bonus 
execution at $700 million includes contractual payments for student 
loans, statutory anniversary payments for prior-year accessions, 
critical wartime medical bonuses, and foreign language incentives. To 
resource both non-discretionary bonus payments and to support new 
incentive programs authorized by Congress, the ARNG implements cost 
controls to pinpoint bonuses to force shaping requirements.
    fiscal year 2005 was the first year the ARNG received supplemental 
Recruiting and Retention (R&R) funding and by the beginning of fiscal 
year 2006 those funds along with new recruiting strategies began to pay 
off. Since supplemental funding began the ARNG has demonstrated a 
unique ability to grow its end strength. In fiscal year 2006 the ARNG 
recruited over 19,000 more Soldiers than it did in fiscal year 2005, 
demonstrating that when resourced, the ARNG can meet its recruitment 
and retention targets in a wartime environment. With the recruiting 
successes, both the dollar bonus amounts and eligible recruiting 
populations have increased due to congressional support. In order to 
maintain our current momentum and achieve accession targets at 65,000 
per year, recruiting bonuses must be fully funded to support an 
operational end strength sustainment environment.
    ARNG recruiting bonus costs will maintain a steady state to fiscal 
year 2007 spending. ARNG bonus program growth levels off at fiscal year 
2007 spending after recent National Defense Authorization Act bonus 
amount increases. We do not project a significant increase in bonus 
takers in out-years. It is significant to note that the ARNG requested 
bonus costs for the Program Objective Memorandum 2010-15 are 60 percent 
less than the active component cost for approximately the same number 
of recruits (65,000 vice 71,000).
    Question. The Army's Grow the Force plan had the Army Guard 
increasing by 1,300 soldiers per year. The Guard's actual end strength 
growth has far exceeded the budgeted Grow the Force plan. The Guard 
expects to finish fiscal year 2008 with at least 358,200, which is 
7,000 more soldiers than budgeted and equal to the Guard's final end 
strength under the Grow the Force initiative. The Guard will not say 
whether they plan to keep growing.
    To achieve this growth the Army Guard continues to spend large sums 
of money on recruiting. In fiscal year 2007, the Army Guard spent $417 
million on recruiting bonuses out of a $7 billion military personnel 
budget. In fiscal year 2008, the Guard is planning to spend $720 
million on recruiting bonuses. In fiscal year 2009, the Guard has 
requested $373 million with presumably a large request in the 
supplemental.
    The Army Guard has not yet provided an estimate of the cost of 
these additional personnel in fiscal year 2009. In fiscal year 2008, 
the additional personnel costs are minimal because most recruits are 
still awaiting basic training.
    General Vaughn, after falling short of recruiting goals in fiscal 
year 2005, the Army Guard has turned around its recruiting efforts but, 
to achieve this, the Guard is spending over $700 million per year on 
recruiting bonuses. Are you concerned that this cost is unsustainable?
    Answer. The success of the Army National Guard (ARNG) recruiting 
program is a direct result of a whole program approach. While bonuses 
and other monetary incentives are a significant part of the program, so 
is our innovative marketing and cutting edge recruiting philosophy.
    The current level of ARNG bonus execution at $700 million includes 
contractual payments for student loans, statutory anniversary payments 
for prior-year accessions, critical wartime medical bonuses, and 
foreign language incentives. To resource both non-discretionary bonus 
payments and to support new incentive programs authorized by congress, 
the ARNG implements cost controls to pinpoint bonuses to force shaping 
requirements.
    ARNG recruiting bonus costs will maintain a steady state to fiscal 
year 2007 spending. ARNG bonus program growth levels off at fiscal year 
2007 spending after recent National Defense Authorization Act bonus 
amount increases. We do not project a significant increase in bonus 
takers in out-years. It is significant to note that the ARNG requested 
bonus costs for the Program Objective Memorandum 2010-15 are 60 percent 
less than the active component cost for approximately the same number 
of recruits (65,000 vice 71,000).
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin
                             blast injuries
    Question. Veterans from Iraq and Afghanistan are coming home with 
higher rates of traumatic brain injuries (TBI), post-traumatic stress 
disorder (PTSD), and depression, among other physical and mental 
wounds. One in five suffers from TBI. One in five suffers from PTSD. I 
introduced TBI legislation last year that was enacted as part of the 
Wounded Warriors title in the fiscal year 2008 Defense Authorization 
Act that requires routine brain injury screening tests for military 
personnel. I was disturbed to learn that the Army National Guard is not 
tracking soldiers' exposure to blasts in Iraq. This information would 
be very valuable in assessing and treating TBI in returning service 
members.
    To what extent do you plan to track the incidence of blasts 
soldiers are exposed on the battlefield?
    Answer. The Army National Guard (ARNG) plans to be as proactive in 
this critical area as possible and we thank you for asking the 
question. The ARNG is currently developing and executing a reporting 
process to identify and track all blast exposed Soldiers. The intent is 
to track every Soldier immediately after the event occurs. This system 
will not be tracking Soldiers that have been seen by the medical system 
as they are fully covered and cared for. The Soldiers we will track 
have been exposed to these events (some multiple), not sought medical 
care, and may be at risk for future medical problems both while in 
theatre and after redeployment due to the event. Following up with 
these particular Soldiers will allow for early identification of 
potentially related issues to include traumatic brain injury and post-
traumatic stress disorder and aid in providing needed support to all 
Soldiers, Families, and Employers.
    The result will enable the force to more accurately forecast the 
potential needs related to services in the future. The ARNG will be 
able to identify trends in blast exposure and their impact on Soldiers 
and Families and the force and what programs may be needed their 
futures.
    I have directed all deployed ARNG units to collect and report data 
on Soldiers exposed to blasts. Commanders will have the discretion to 
determine which Soldiers should be included based on their proximity to 
the blast. The intent is to capture data on Soldiers that do not seek 
immediate medical treatment, but may have been impacted by the blast. 
This data will be used to follow up with individually impacted Soldiers 
in theatre and will be maintained in an ARNG database that will be 
provided to states upon redeployment of ARNG units. States will partner 
with appropriate civilian agencies to provide Soldiers with needed 
services, but at a minimum will follow up with Soldiers during the 30, 
60 and 90 day reintegration events.
                                 ______
                                 
        Questions Submitted to Lieutenant General H Steven Blum
            Questions Submitted by Senator Daniel K. Inouye
                        civil support readiness
    Question. General Blum, recent GAO reports have addressed the 
Guard's readiness for civil support missions. According to GAO, the 
Guard is resourced and prepared for average state level events but does 
not have adequate guidance nor planning for a medium to large scale, 
multi-state domestic emergency. What is the Guard doing to improve its 
preparation for these types of events?
    Answer. The National Guard is improving its preparation for 
responding to a medium to large scale, multi-state domestic emergencies 
by conducting exercises titled ``Vigilant Guard'' which reinforces that 
all incidents are local. These exercises demonstrate the capabilities 
of the National Guard Joint Force Headquarters and the Emergency 
Management Assistance Compact--a process where Governors reach out to 
other Governors for more assistance. Specific National Guard homeland 
defense capabilities include the National Guard Reaction Forces, 
Weapons of Mass Destruction (WMD) Civil Support Teams and the Chemical, 
Biological, Radiological and Nuclear Enhanced Response Package teams.
    States that have participated in Vigilant Guard Exercises include 
Tennessee, Missouri, Georgia, Illinois, Indiana, South Carolina, 
Florida, Virginia, North Carolina, and Ohio. States planning to 
participate in future Vigilant Guard Exercises include Hawaii, Nevada, 
California, Guam and Iowa.
    The National Guard Bureau also participates in the National Level 
Exercises (e.g. NORTHCOM sponsored Ardent Sentry), which exercises 
continuity capabilities to include the National Essential Functions, 
Federal Government Essential Functions and to manage emergency from 
dispersed locations. Previous exercises focused on exercising hurricane 
preparedness, response capabilities and responding to terrorist WMD 
threat/attack, to include the integration of Defense Support of Civil 
Authorities.
    These tactical, operational and strategic level exercises allow the 
states and the National Guard Bureau opportunities to capture lessons 
learned in order to improve the processes in which the states plan, 
respond, as well as coordinate additional capabilities and resources 
from other states.
    Question. A recent GAO survey of state adjutant generals (TAGs), 
reported that many TAGs were greatly concerned about their state's 
ability to respond to a medium to large scale, multi-state incident 
while they felt comfortable that their state guard had adequate 
planning and resources to respond to a typical state-level disaster. 
According to GAO, the U.S. government has not adequately planned for 
medium to large scale disasters that require multi-state involvement. 
For this reason, the Department of Defense and National Guard Bureau do 
not have clear guidance as to their roles in these types of events and 
are limited in their ability to plan and equip for these events.
    Detailed state-level emergency response plans exist and help the 
TAGs in planning and equipping for state missions but there is no 
standardized method to track civil support readiness for larger events 
because there is no required table of equipment nor training for civil 
support missions.
    The National Guard Bureau has identified significant Army and Air 
Guard shortfalls in dual-use equipment. These are items that are part 
of the required list of war-fighting equipment but also have civil 
support applications. The Guard estimates the cost to completely 
eliminate this equipment shortfall as $10 billion for the Army Guard 
and $2.5 billion for the Air Guard. However, without clear guidance as 
to the Guard's responsibilities during a multi-state event, it is 
unclear if this equipment requirement is accurate.
    General Blum, GAO has reported that the Guard has not been provided 
with clear guidance on its responsibilities during a medium to large 
scale disaster or other incident. Without this guidance, how does the 
Guard assess its dual-use equipment requirements and prioritize its 
equipment requests?
    Answer. Assessing National Guard Readiness for Domestic Operations 
is a function of understanding the requirement, the required 
capabilities and enablers and management systems for data collection, 
analysis, reporting and information sharing with stake-holders. I have 
asked all 54 State Adjutants General/Commanders to develop a written 
``Joint Combined State Strategic Plan'' that addresses state-specific 
goals and objectives while allowing supporting entities, such as the 
National Guard Bureau (NGB), to have a clear picture of each state's 
external needs. Those assessments are then input to the Joint 
Capabilities Database (JCD). The current authoritative Department of 
Defense (DOD) readiness reporting system, the Global Status of 
Resources and Training System, does not presently assess homeland 
defense missions or emergency response equipment requests by the 
Governors.
    NGB is working closely with the Office of the Under Secretary of 
Defense for Personnel and Readiness as DOD transitions to the new 
Defense Readiness Reporting System to ensure the functionality of our 
JCD is incorporated. The JCD is a complimentary, unclassified, separate 
and unique system of evaluating every state's preparedness for National 
Guard Domestic Operations (NGDO). The JCD captures the readiness of the 
National Guard of every state and territory for Domestic Operations 
missions at two levels: (1) to respond to the most frequent NGDO 
missions experienced over the last ten years, and (2) to respond to 
major catastrophic incidents as articulated in the National Planning 
Scenarios. From this assessment, we've become aware that dual-use 
equipping levels vary from state to state. NGB continues to work 
closely with each state and DOD to ensure critical equipment is pre-
positioned at the optimum locations to ensure maximum effective 
response. If it is in the National Guard, and the Governor needs it, 
they will get it either through national-level coordination efforts or 
through pre-existing state to state Emergency Management Assistance 
Compacts.
                        light utility helicopter
    Question. General Blum, the Army National Guard is slated to 
receive the majority of the new Light Utility Helicopter. However, the 
rising price of that helicopter means that fewer are being requested in 
the President's budget. What effect will slowing the fielding of the 
Light Utility Helicopter have on National Guard homeland defense 
missions?
    Answer. The effect of slowing the fielding of Light Utility 
Helicopter (LUH) (UH-72A Lakota) to the Army National Guard (ARNG) 
would be significant with respect to ARNG aviation support to homeland 
defense missions. However, the Army has ensured the ARNG remains 
positioned early in the Army's overall LUH fielding plan and the 
expectation is that early ARNG LUH fielding will remain true. Required 
aircraft modifications caused some small aircraft quantities to be 
shifted to the out-years, but the Army is addressing those minor 
modifications in the current fiscal years 2010-15 Program Objective 
Memorandum. Additionally, the Army is working to achieve maximum 
production rate within the LUH program. The Security and Support 
Helicopter Battalions (SSHBNs) are currently operating aging legacy OH-
58A/C aircraft. The UH-72A modernizes the SSHBNs and provides an 
enhanced aviation platform to conduct security, support and medical 
evacuation aviation missions and thus better support the National 
Guard's homeland defense requirements.
    Question. The Light Utility Helicopter, or UH-72A Lakota, is a 
commercial helicopter that has been adapted for military use within the 
United States. Its primary missions relate to homeland defense, 
medivac, and movement of small numbers of personnel. The LUH is 
intended to fill these missions in areas with no risk of combat, so 
that the larger, more expensive, and battle-ready Black Hawks can be 
freed up for deployment overseas.
    The price of each LUH rose from $5.3 million to $6.2 million this 
year after early tests found a need to upgrade various equipment. This 
cost growth has reduced the rate at which the Army is procuring the 
helicopters.
    General Blum, the Army National Guard has identified four major 
aviation modernization or upgrade programs: the Light Utility 
Helicopter, the Black Hawk, the Chinook, and most recently, the Apache 
conversions. Since budgets are always limited, how would you prioritize 
those programs?
    Answer. As over 40 percent of the Army's Modified Table of 
Organization and Equipment (MTOE) requirement for helicopters resides 
in the Army National Guard, our reserve component units represent a 
significant portion of the Army's aviation forces available to meet 
National Security challenges. Each of the programs that you mention has 
a distinct and important part in the long-term capabilities of the 
Guard to provide aviation support to the current and future 
warfighters. Because of the discreet mission sets that each of these 
platforms perform it's difficult to put them in a clean-cut prioritized 
list; however, here are the compelling needs for these platforms in the 
order in which they should be addressed.
    The Army National Guard (ARNG) is short more than 18 percent of the 
CH-47s required by our reserve component MTOE units, the largest 
shortage within the National Guard aviation community. While this 
aircraft continues to be in high demand due to its ability to perform a 
myriad of missions in all environments, the ARNG must find ways to fill 
these holes. Additionally, these shortages are exacerbated in the short 
term by the need to take a CH-47D from a unit and induct it into the 
production line to create a CH-47F.
    Four of the eight battalions in the ARNG AH-64 fleet are well on 
their way to being modernized. They are in the process of receiving AH-
64Ds and will then be available for sourcing to the warfight. The 
remaining four battalions need to be accelerated in their modernization 
so that they, too, can be added to the pool of attack helicopter units 
available for utilization in the current fight. The attack community is 
heavily deployed and utilized and these additional assets will 
contribute significantly to our ability to provide aviation formations 
in the future.
    The UH-60 fleet is the largest fleet in the ARNG, but also has the 
most holes in our formations being 113 aircraft short which represents 
over 14 percent of its required numbers. The Blackhawks needed by the 
ARNG predominantly reside within the MEDEVAC community as we try to 
grow the number of MEDEVAC units available for today's deployments. 
Additionally, as the UH-60As first entered service in the late 1970s, 
the modernization of this fleet to UH-60Ls and UH-60Ms is an important 
piece of the ARNG's ability to provide relevant aviation support into 
the future.
    When one talks of ARNG aviation, it's difficult to do so without 
talking about the Joint Cargo Aircraft. It's a critical piece of the 
entire modernization strategy for ARNG aviation and Army aviation in 
general. It is the capabilities of the C-27J that will provide critical 
logistical support for ground commanders well into the future. It is 
also the platform that will provide the ability to divest our 1980 
vintage C-23s and keep this cargo fleet viable well into the 2020s and 
beyond.
    The Light Utility Helicopter (LUH) is the cornerstone of National 
Guard aviation transformation as it has enabled the ARNG to create S&S 
battalions within their Aviation Brigade structure. Its ability to 
satisfy both general support and MEDEVAC aviation missions in 
permissive environments has afforded the Army the opportunity to 
cascade UH-60s to the ARNG in support of the warfight and will also 
enable the Army to divest the remaining legacy aircraft (UH-1s and OH-
58A/Cs).
                                 ______
                                 
      Questions Submitted to Lieutenant General Craig R. McKinley
             Question Submitted by Senator Daniel K. Inouye
                           force realignments
    Question. General McKinley, the Air Guard is undergoing significant 
force structure adjustments as a result of the Total Force Integration 
and BRAC. Many bases have been closed and many units have been assigned 
new missions. These realignments mean that many airmen are being asked 
to either retrain on new equipment, or worse to uproot their families 
and leave their civilian jobs to follow their unit to a new location. I 
understand that this is creating significant challenges in training 
capacity and retention. How is the Air Guard addressing these issues? 
Has the Air Force been supportive in providing the training spaces 
needed to re-train the large number of airmen who have new missions?
Background
    The Air Force is undergoing significant force structure 
adjustments. As part of the Total Force Integration plan, the Air 
National Guard is working to pool equipment and personnel resources 
with the active Air Force to maintain capabilities at a lower cost by 
associating a reserve unit and active unit with the same set of 
equipment. At this same time, the BRAC Commission realigned Air Force 
assets at over 100 facilities, recommending some bases close and others 
realign equipment and personnel. These changes affect 60 percent of all 
Air Guard units.
    Another significant challenge, as reported by GAO in May 2007, is 
finding a sufficient amount of training spaces and funding to re-train 
the large number of airmen who are changing missions. There are also 
concerns with morale as personnel are required to train on new 
equipment mid-career, or worse, to temporarily train on equipment for a 
gap mission only to have to retrain again when the new equipment comes 
on line. To date, the effects on retention have varied by unit.
    Retention levels may have remained strong due to a significant 
increase in bonuses. In fiscal year 2006, the Guard spent $29.5 million 
on re-enlistment bonuses while in fiscal year 2007 the level increased 
to $45.5 million. Fiscal year 2008 projections are comparable to fiscal 
year 2007 levels.
    General McKinley, you have greatly increased the amount of money 
spent on reenlistment bonuses in the last two years. The fiscal year 
2009 budget reverses that trend, requesting only a third of current 
levels. With the retention challenges you are facing, why wasn't more 
funding requested?
    Answer. The Air National Guard faces many budget challenges in 
fiscal year 2009, including recruiting and retention. We recognize the 
level of risk the budget request reflects and are counting on our 
leadership at the unit level as well as the flexibility within the 
budget execution year to continue to help us in the area of retention.
    Due to the importance of achieving retention and recruiting goals, 
often funds are reprogrammed from other programs to address additional 
funding requirements. Unfortunately, we must assume risk in other 
programs to meet the challenges of sustaining a viable reenlistment 
program.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                      new mexico ang f-16 upgrades
    Question. The 150th Fighter Wing at Kirtland Air Force Base has a 
proud heritage as part of the Air National Guard. The 150th used to fly 
Block 40 F-16s, but gave them to the Active Duty force to assist in 
meeting mission priorities. Now the 150th flies Block 30 F-16s, which 
will soon be retired.
    Has there been any thought given to upgrading the Block 30 F-16s 
such as those used by the 150th to enable them to continue providing 
their outstanding service to New Mexico and the United States? What 
type of upgrades?
    Answer. Yes. A portion of the 150th Fighter Wing's F-16 Block 30 
aircraft recently received upgraded radios prior to deployment in 
support of Operation Iraqi Freedom. The Air Force, Air National Guard, 
and Air Force Reserve Command are pursuing the completion of this 
modification for all combat coded Block 30 aircraft. Additionally, the 
150th Fighter Wing's F-16s are fully funded for replacement of the 
aging video tape recording system with a digital video recorder, 
greatly enhancing training effectiveness and post-mission assessment. 
Software releases currently in development will enable employment of 
new weapons such as the small diameter bomb. Numerous hardware 
modification programs for the F-16 Block 30 fleet are detailed in the 
Air National Guard's 2009 Weapons System Modernization Book. These 
efforts include upgraded fire control computers with ethernet 
connections, helmet mounted cueing systems, advanced targeting pod 
improvements, digital radar warning receivers, advanced line-of-sight 
and beyond line-of-sight radios, improved color displays capable of 
image transfer, and advanced interrogators for identification of 
friendly, suspect, and enemy aircraft. With adequate funding, these 
upgrades will greatly enhance the 150th Fighter Wing's ability to 
robustly support in-theater and homeland defense operations.
                          new mexico ang f-35s
    Question. Earlier this year the Air Force Chief of Staff released 
his ``roadmap for the future''. This roadmap names Kirtland AFB as a 
potential bed-down location for the F-35 and the Combat Search and 
Rescue Aircraft (CSAR-X). We are excited that Kirtland AFB and the 
150th Fighter Wing (FW) are included in the roadmap, but there are some 
additional points about Kirtland and the 150 FW that I would like to 
bring to your attention.
  --Kirtland AFB scored the highest of 33 locations on the BRAC 2005 
        score sheet for Air National Guard Fighter sites.
  --Kirtland is the sixth largest Air Force Base in the country with 
        the best airspace, ranges and weather in the country.
  --Multi-role fighter aircraft from Kirtland AFB can provide adversary 
        fighter training for the F-22s at Holloman AFB.
  --These same F-35 aircraft can provide needed air-to-ground fighters 
        for close air support training at Cannon AFB, White Sands 
        Missile Range, and Fort Bliss, Texas
    Kirtland AFB and the 150th Fighter Wing seem to be a natural fit 
for the F-35. What are you doing to develop the F-35 fighter mission 
for the Air National Guard at Kirtland Air Force Base?
    Answer. On January 16, 2008, General Moseley, the Chief of Staff of 
the Air Force, released his strategic roadmap, his long-term plan for 
basing of the next-generation weapon systems. Kirtland Air Force Base, 
New Mexico was listed as a potential bed-down location.
    We assure you Kirtland AFB will receive full consideration and will 
be evaluated to support a potential F-35 mission. Each potential 
location that meets the preliminary requirements is subject to further 
analysis, to include an environmental impact study which is mandated by 
the National Environmental Protection Act. These studies take time and 
will be conducted over the next several years. Kirtland AFB has many 
great qualities which provide for superb flying operations and these 
factors will be considered when the final F-35 basing decisions are 
made.
    The National Guard Bureau continues to advocate for parallel and 
proportional recapitalization of the Air National Guard throughout the 
Air Force's Planning, Programming and Budgeting process. As an 
operational and strategic reserve force, we must continue to meet the 
demands of our mission today while preparing for the challenges of 
tomorrow. Total Recapitalization of our Total Force is vital to our 
Nation's security and we look forward to your support of our efforts.

                          SUBCOMMITTEE RECESS

    Senator Stevens. This subcommittee will next meet on 
Tuesday, May 20, at 11 a.m., at which time we will receive 
testimony from the Secretary of Defense, Robert Gates, on the 
Defense Department's fiscal year 2009 budget request.
    Thank you all very much.
    [Whereupon, at 12:10 p.m., Wednesday, May 14, the 
subcommittee was recessed, to reconvene at 11 a.m., Tuesday, 
May 20.]













       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                         TUESDAY, MAY 20, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:56 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Dorgan, Feinstein, Murray, 
Stevens, Cochran, Specter, Domenici, and Bond.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. ROBERT M. GATES, SECRETARY
ACCOMPANIED BY TINA JONAS, UNDER SECRETARY OF DEFENSE, COMPTROLLER

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I should point out that this subcommittee 
will not tolerate any demonstrations. We expect all of us here 
to conduct ourselves like ladies and gentlemen.
    I have been advised that the Secretary has an important 
meeting at the White House. So we will have to set some time 
limitations. May I suggest 10 minutes?
    Today the subcommittee is pleased to welcome the Honorable 
Robert Gates, Secretary of Defense, and Admiral Mike Mullen, 
the Chairman of the Joint Chiefs of Staff, to testify on the 
administration's budget request for fiscal year 2009.
    Gentlemen, the budget before this subcommittee requests 
$492 billion for the coming year. Of course, this amount 
includes neither funding for military construction nor an 
additional amount for the cost of wars in Iraq and Afghanistan. 
In total, funding for the Department of Defense is at 
historically high levels, unmatched since World War II.
    Mr. Secretary, we have all been impressed with your passion 
and commitment to ensure that our military men and women are 
receiving the best equipment, medical treatment, housing, and 
support. Over the past several months, we have also noted your 
statements in favor of enhancing diplomatic efforts in the 
fight on the war on terror and calling for improvements in ISR 
and innovation in military planning. It has been the most 
impressive performance.
    On this subcommittee, I believe we have followed your lead. 
Congress provided an unprecedented $17 billion budget increase 
in response to your call for MRAPs. In the fiscal year 2008 
supplemental, which is now pending before the Senate, the 
subcommittee has increased resources for healthcare by more 
than $900 million, added $500 million to repair barracks. We 
have recommended increases for ISR capabilities, and done so by 
allowing for the lease of existing assets which can be deployed 
almost immediately to the theater rather than in 14 or 28 
months as traditional procurement would require.
    But, Mr. Secretary, with all due respect, when we review 
your budget request, we find that it is filled with maintaining 
the status quo. As this subcommittee has noted in recent years, 
again this year we find that in the administration's budget 
request, stable production programs are being curtailed or even 
terminated in favor of advancing new technology such as in our 
space systems and shipbuilding, even in Army ground equipment, 
all to encounter some notional future conventional threat which 
is difficult to see looming on the horizon.
    Your healthcare budget assumes $1.2 billion in savings, 
which it is clear will not materialize, leaving a hole that the 
Congress would have to fill.
    Your budget assumes risk in depot maintenance by only 
requesting funding for 75 percent of the normal requirement.
    Mr. Secretary and Admiral Mullen, as we discuss these 
matters today, we will be seeking your candid assessments on 
how this budget can be improved.
    Gentlemen, we commend you for your leadership in managing 
this enormous Department in very challenging times. And we very 
much appreciate your service and look forward to your 
testimony. However, before you proceed, I would like to defer 
to the vice chairman of this subcommittee for any comments he 
wishes to make. Senator Stevens.

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much, Mr. Chairman.
    Secretary Gates and Admiral Mullen, we thank you for your 
service and for your appearance here today.
    I do not disagree with anything that the chairman has said. 
I do believe we are totally in agreement. We have a difficult 
task of balancing the military's competing requirements with 
the amount of funds available. We do look forward to your 
comments today and look forward to the opportunity to work with 
you to meet the pressing needs of the military. It is not going 
to be an easy job, as we all know, and the procedural 
parliamentary situation here is in such disarray, God knows 
where we will come out.
    Thank you.
    Senator Inouye. Thank you very much.
    Senator Specter.

                   STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral Mullen and Ms. Jonas, I join my 
colleagues in welcoming you here. You have a very tough job.
    In the few moments that I am going to have today, I would 
like to focus on the future and most specifically on Iran and 
on the critical issue of talks with Iran and whether talking 
with Iran is really appeasement. We have seen our talks with 
North Korea bear fruition. We have seen the talks with Libya, 
Gaddafi, bear fruition. Gaddafi, arguably the worst terrorist 
in the history of the world, in very tough competition with Pan 
Am 103 and the bombing of the Berlin discotheque, and yet he 
has given up his nuclear weapons and has re-entered the family 
of nations.
    And we have seen the President's comment about appeasement 
with terrorists, but if we do not have dialogue with Iran, at 
least in one man's opinion, we are missing a great opportunity 
to avoid a future conflict. These are views which I have held 
over a long period of time from my service on this subcommittee 
and chairing the Intelligence Committee and the Foreign 
Operations Subcommittee, extensive floor statements, and an 
article in the Washington Quarterly in December 2006-07.
    And I think that your statements on this issue in 
encouraging talks have been extremely productive, and I think 
we really need to focus on that issue.
    Very briefly, I will ask you about the situation with 
Yemen. I am concerned about what is happening with Yemen after 
the killing of 17 sailors on the Cole. Al Qaeda, the worst 
terrorist organization in the world, has been implicated in the 
attack. Verdicts have been handed down. Yet there are troubling 
reports that Yemen has let the individuals convicted in the 
attack go free. It is my understanding that the Department of 
Defense provided Yemen with $31 million in section 1206 aid in 
fiscal years 2006 and 2007, and that the fiscal year 2008 
request will be made shortly. I would like to explore with you 
the reasons for that and whether we could not have some 
leverage to see to it that those terrorists are brought to 
justice or at least not to finance those who were accomplices 
after the fact.
    Thank you very much, Mr. Chairman.
    Senator Inouye. Senator Feinstein, would you care to make a 
statement?
    Senator Feinstein. Thank you very much. I have no opening 
statement.
    Senator Inouye. Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    We welcome Secretary Gates, Admiral Mullen, and I will have 
some questions for you on some TACAIR acquisition things that I 
think are looming large for the military.
    But first, I commend you on your far-sightedness in the 
development not only of the counter-insurgency strategy with 
General Petraeus, but what is a broader concept I believe of 
the non-kinetic force or smart power that is necessary to win 
the long war against those radical terrorists who would attack 
us. My view is the Department of Defense, particularly the 
Army, is way out ahead of anybody else in knowing how to work 
with people in less developed countries who are subject to the 
appeals of terrorists and also to get out the strategic 
information or the campaigns to explain what we are doing.
    I believe at least your staff has had an opportunity to 
meet with LibForAll, the group of moderate Muslims, led by 
former Indonesian President Gus Dur--or Abdurrahman Wahid is 
his real name--that are reaching out to Muslims throughout the 
world, carrying the message of moderate Islam. I would like to 
maybe talk with you in person later on about it. But I commend 
you because I think this is an essential part of the long-term 
battle that you as Secretary of Defense have recognized better 
than anyone else. And I thank you for it and I want to learn 
more about it.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Yes. Mr. Chairman, I am more interested in 
hearing from Secretary Gates.
    I would note that it is nice to see him without his arm in 
a sling and that he made it very clear that it did not come 
from arm twisting here on the Hill.
    I am going to want to talk with him about a number of 
things when we get going, our National Guard, of course, our 
homeland defense, how we respond to disasters. The press was 
talking about the high probability of severe earthquakes out in 
our western part of our country. Obviously, the Guard would be 
called out there. We will go into that, the shortfalls in the 
Guard, equipment, and so on.
    I do want to talk about the Secretary's speech last week in 
which he said we are going to have to engage Iran, including 
through low-level government-to-government talks. I tend to 
agree with him. I remember during the height of the cold war 
when we could have bellicose statements from the head of the 
Soviet Union and the head of the United States, and at the same 
time, we had people going back and forth having discussions and 
how well that worked. We even did, as the Secretary knows, even 
during the height of the Cuban missile crisis. So there are a 
lot of distasteful people we have to talk with around the 
world, but it is realpolitik.
    Mostly, I am pleased that Secretary Gates was willing, at 
what was both personal and financial sacrifice, to come and 
take the position that he has, giving up a dream position when 
he did. I applaud him for it.
    That is all, Mr. Chairman.
    Senator Inouye. Thank you.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I will defer. I do have some 
questions for the Secretary and for Admiral Mullen, but let me 
defer an opening statement so that we can hear the witnesses.
    Senator Inouye. Thank you very much.
    And now may I call upon the Honorable Robert Gates, 
Secretary of Defense.

                  OPENING STATEMENT OF SECRETARY GATES

    Secretary Gates. Thank you, Mr. Chairman. Mr. Chairman, 
members of the subcommittee, it is a pleasure to be here for my 
second and last budget testimony before this subcommittee. 
First, let me thank you for your continued support of our 
military these many years, and I appreciate the opportunity to 
discuss the President's fiscal year 2009 budget request.
    Before getting into the components of the request, I 
thought it might be useful briefly to consider it in the light 
of the current strategic landscape, a landscape still being 
shaped by forces unleashed by the end of the cold war two 
decades ago.
    In recent years, old hatreds and conflicts have combined 
with new threats and forces of instability, challenges made 
more dangerous and prolific by modern technology, among them 
terrorism, extremism, and violent jihadism, ethnic, tribal and 
sectarian conflict, proliferation of dangerous weapons and 
materials, failed and failing states, nations discontented with 
their role in the international order, and rising and resurgent 
powers whose future paths are uncertain.
    In light of this strategic environment, we must make the 
choices and investments necessary to protect the security, 
prosperity, and freedom of the American people. The investment 
being presented today in the base defense budget is $515.4 
billion, or about 4 percent of our gross domestic product (GDP) 
when combined with war costs. This compares to spending levels 
of about 14 percent of GDP during the Korean War and 9 percent 
during Vietnam. Our fiscal year 2009 request is a 7.5 percent 
increase, or $35.9 billion, over last year's enacted level. 
When accounting for inflation, this translates into a real 
increase of about 5.5 percent.
    The difference consists of four main categories which are 
outlined in more detail in my submitted statement. Overall, the 
budget includes $183.8 billion for overall strategic 
modernization, including $104 billion for procurement to 
sustain our Nation's technological advantage over current and 
future adversaries; $158.3 billion for operations, readiness, 
and support to maintain a skilled and agile fighting force; 
$149.4 billion to enhance quality of life by providing pay, 
benefits, healthcare, and other services earned by our all-
volunteer force; and $20.5 billion to increase ground 
capabilities by growing the Army and Marine Corps.
    This budget includes new funding for critical ongoing 
initiatives such as global train and equip to build the 
security capacity of our partner nations, security and 
stabilization assistance, foreign language capabilities, and 
the new Africa Command.
    In summary, this request provides the resources needed to 
respond to current threats while preparing for a range of 
conventional and irregular challenges that our Nation may face 
in the years ahead.
    In addition to the $515.4 billion base budget, the fiscal 
year 2009 request also includes $70 billion in emergency bridge 
funding.
    There is, however, a more immediate concern. Congress has 
yet to pass the pending $102.5 billion global war on terror 
request for fiscal year 2008, and as a result, the Defense 
Department is currently using fourth quarter funds from the 
base budget to cover current war costs. Shortly, two critical 
accounts will run dry. First, Army military personnel. After 
June 15, we will run out of funds in this account to pay 
soldiers, including those in Iraq and Afghanistan. Second, 
operations and maintenance (O&M) accounts. Around July 5, O&M 
funds across the services will run out, starting with the Army. 
This may result in civilian furloughs, limits on training, and 
curbing family support activities.
    If war funds are not available, the Defense Department can 
transfer funds from Navy and Air Force military personnel 
accounts to pay soldiers, but that would get us only to late 
July. Using the limited transfer authority granted by Congress 
would also help get us to late July. Doing so, however, is a 
shell game, which will disrupt existing programs and push the 
services' O&M accounts to the edge of fiscal viability.
    Beyond the Army personnel account and O&M account, other 
programs will be adversely impacted if the pending fiscal year 
2008 supplemental is not passed soon. Among them critically is 
the commander's emergency response program, or CERP, the single 
most effective program to enable commanders to address local 
populations' needs and get potential insurgents in Iraq and 
Afghanistan off the streets and into jobs. Congress has 
provided $500 million of our total CERP request of $1.7 
billion. Without the balance of $1.2 billion, this vital 
program will come to a standstill. The Department does not have 
the authority to extend the funding beyond the $977 million in 
authority provided in the fiscal year 2008 National Defense 
Authorization Act.
    While I understand that the Congress may pass the fiscal 
year 2008 war funding bill before the Memorial Day recess, I am 
obligated to plan for the possibility that this may not occur. 
I will keep Congress informed of these plans in an effort to 
ensure transparency and to minimize possible misunderstandings.
    Delaying the supplemental makes it difficult to manage the 
Department in a way that is fiscally sound and prudent. To 
illustrate this point, I have compared the Department of 
Defense to the world's largest supertanker. It cannot turn on a 
dime and it cannot be steered like a skiff. And I would add, it 
cannot operate without paying its people. And so I urge 
approval of the fiscal year 2008 war funds as quickly as 
possible.

                           PREPARED STATEMENT

    Finally, I would like to thank the subcommittee for all you 
have done to support our troops, as well as their families. In 
visits to the combat theaters and military hospitals and at 
bases and posts at home and around the world, I continue to be 
amazed by their decency, their resilience, and their courage. 
Through the support of the Congress and our Nation, these young 
men and women will prevail in the current conflicts and be 
prepared to confront the threats that they, their children, and 
our Nation may face in the future.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you.
    [The statement follows:]
                 Prepared Statement of Robert M. Gates
    Mr. Chairman, members of the Committee: Thank you for your 
continued support of our military these many years. I appreciate the 
opportunity to discuss the President's fiscal year 2009 Defense budget 
request.
    Before getting into the components of this request, I thought it 
useful to consider it in light of the current strategic landscape--a 
landscape still being shaped by forces unleashed by the end of the Cold 
War nearly two decades ago. In recent years old hatreds and conflicts 
have combined with new threats and forces of instability--challenges 
made more dangerous and prolific by modern technology. Among them: 
Terrorism, extremism, and violent jihadism; ethnic, tribal, and 
sectarian conflict; proliferation of dangerous weapons and materials; 
failed and failing states; nations discontented with their role in the 
international order; and rising and resurgent powers whose future paths 
are uncertain.
    In light of this strategic environment, we must make the choices 
and investments necessary to protect the security, prosperity, and 
freedom of the American people.
    The investment being presented today in the defense base budget is 
$515.4 billion, or about 3.4 percent of our Gross Domestic Product. 
This request is a 7.5 percent increase--or $35.9 billion--over last 
year's enacted level. When accounting for inflation, this translates 
into a real increase of about five and a half percent.
    I also strongly support Secretary Rice's request for the 
international affairs funding. This request is vital to the Department 
of Defense; in the current strategic landscape, we need civilian 
expertise and robust engagement around the world to build goodwill, 
represent United States values and commitment to our partners, 
complement the contributions of our military, and set the long-term 
conditions for peace, prosperity, and an environment inhospitable to 
extremism.
          strategic modernization--future combat capabilities
    The fiscal year 2009 budget request provides $183.8 billion in 
strategic modernization to meet future threats, a 4.7 percent increase 
over the previously enacted level. This category includes more than 
$104 billion for procurement.
Joint Combat Capabilities
    The base budget provides $9.2 billion for ground capabilities, 
including more than 5,000 Humvees and 4,000 tactical vehicles. This 
request provides $3.6 billion to continue development of the Future 
Combat System, the Army's major modernization program, a portion of 
which I saw first-hand at Fort Bliss, Texas about two and a half weeks 
ago. I was impressed by what I saw.
    A total of $16.9 billion is allotted for maritime capabilities, 
with $14.2 billion for shipbuilding, including: The DDG-1000, the next 
generation surface combatant; two littoral combat ships; two joint high 
speed vessels; two logistics ships; and one Virginia-class submarine.
    The ships being built today must provide the capability and 
capacity to maintain the Navy's global presence and influence in the 
future. A fleet sized at 313 ships offers the agility required to meet 
a broadening array of operations and requirements with allies around 
the globe.
    To improve air capabilities, the budget includes $45.6 billion, a 
$4.9 billion increase over last year's enacted levels.
    This includes funding for: F/A 18 Hornet and E/A-18G Growler 
fighters; F-35 Joint Strike Fighters; F-22 Raptors; V-22 Ospreys; 
Unmanned Aerial Vehicles; and recapitalization of various missiles and 
other weapons.
    The Air Force's number one acquisition and recapitalization 
priority is the tanker fleet, specifically the KC-135, which is an 
average of 48.5 years old. This aircraft is increasingly expensive to 
maintain and less reliable to fly every day. The Department believes a 
KC-135 replacement fleet of between 460-580 aircraft, combined with an 
additional 59 KC-10s will provide suitable aerial refueling capacity.
    Retirement of aging aircraft is a vital component of recapitalizing 
our air assets. I urge Congress to continue to authorize aircraft 
retirements, lifting restrictions from previous years to help the Air 
Force maintain readiness and perform missions more safely.
Space
    This request provides $10.7 billion to strengthen joint space-based 
capabilities in several categories, including: Space-based infrared 
systems; and communications, environmental, Global Positioning System, 
and Advanced Extremely High Frequency satellites.
    The Department's heavy reliance on space capabilities is clear to 
potential adversaries, some of whom are developing anti-satellite 
weapons. Protecting our assets in space is, therefore, a high priority. 
In the past, the Department has been slow to address this 
vulnerability, but we are ramping up to properly address this problem.
Research and Development
    As changes in this century's threat environment create strategic 
challenges--irregular warfare, weapons of mass destruction, disruptive 
technologies--this request places greater emphasis on basic research, 
which in recent years has not kept pace with other parts of the budget.
    This request for $11.5 billion will sustain ongoing science and 
technology research. Within this category, the fiscal year 2009 budget 
includes $1.7 billion for basic research initiatives. In total, I have 
directed an increase of about $1 billion over the next five years for 
fundamental, peer-reviewed basic research--a two percent increase in 
real annual growth.
Missile Defense
    The 2009 base budget provides $10.4 billion to continue developing, 
testing, and fielding a multi-layered system to protect the United 
States and its allies from tactical and strategic ballistic missile 
attack.
    The Missile Defense Agency has successfully fielded elements of the 
ballistic missile defense system since 2004. Today, for the first time 
in history, our nation has an initial missile defense capability. In 
coming years, the Department seeks to grow this capability by testing 
against more complex and realistic scenarios, and by negotiating with 
like-minded nations. Since becoming the Secretary of Defense, I have 
been personally involved in ongoing discussions with Poland and the 
Czech Republic on hosting U.S. missile defense assets. I will continue 
to press for increased cooperation with our partners.
                   readiness, operations and support
    The fiscal year 2009 request provides $158.3 billion, a 10.4 
percent increase over last year's enacted level, for operations and 
training, as well as facilities and base support. $68 billion of the 
request will maintain combat readiness, focused on next-to-deploy 
units. The budget invests in readiness measured in terms of tank miles 
driven per month, ship steaming days underway per quarter, and flying 
hours per month. Additionally, this request includes:
  --$33.1 billion for logistical, intelligence, and service-wide 
        support;
  --$32.6 billion for facility and base support;
  --$11.8 billion for equipment maintenance to accommodate increased 
        requirements, expanded scopes of work for repair and 
        refurbishment of equipment, and the transition of systems from 
        development to sustainment in the field;
  --$10.7 billion for training, recruiting, and retention to ensure 
        that the all-volunteer force has the right people with the 
        right skills; and
  --$2.2 billion for sealift efforts and commissary support.
    The Department will continue investing in a number of critical 
initiatives that will have long-term implications for the readiness of 
our forces and the nation's ability to meet future threats.
Global Train and Equip
    The global train and equip authority provides commanders a means to 
fill longstanding gaps in our ability to build the capacity and 
capabilities of partner nations. It allows the State and Defense 
Departments to act in months, rather than years, to help other 
countries build and sustain capable security forces. The program 
focuses on places where we are not at war, but where there are emerging 
threats and opportunities. It creates the opportunity to reduce stress 
on U.S. forces by decreasing the likelihood that troops will be used in 
the future. Combatant Commanders consider this a vital tool in the war 
on terror beyond Afghanistan and Iraq. It has become a model of 
interagency cooperation between State and Defense--both in the field 
and in Washington, D.C. Secretary Rice and I both fully support this 
authority. We discussed its importance to long-term national security 
during joint testimony before the House Armed Services Committee on 
April 15th, and noted that its benefits would accrue to our successors 
in future administrations. The fiscal year 2009 base budget requests 
$500 million, along with a request for $750 million in authority. I 
urge Congress to provide this funding and permanent authority to meet 
enduring requirements.
Security and Stabilization Assistance
    The fiscal year 2009 budget invests $200 million in security and 
stabilization assistance along with a corresponding request to increase 
the authority. This authority will allow the Department to transfer up 
to $200 million to the State Department to facilitate whole-of-
government responses to stability and security missions--bringing 
civilian expertise to bear alongside our military. This would give 
Secretary Rice additional resources to address security challenges and 
defuse potential crises that might otherwise require the U.S. military 
to intervene.
Africa Command
    This request includes $389 million, or $246 million above 
previously enacted funds, to launch the new Africa Command, allowing 
the Department to have a more integrated approach than the existing 
arrangement dividing the continent up among three different regional 
commands. This new command will help: Strengthen U.S. security 
cooperation with African countries; train and equip our partners; 
improve health, education, and economic development; and promote peace 
and stability.
Foreign Languages
    The fiscal year 2009 budget includes $586 million for the Defense 
Language Program, a $52.3 million increase from last year. Thus far, 
our approach to improving language skills is having an impact. 
Proficiency in Arabic has increased 82 percent since September 2001. 
Although the value of foreign languages and cultural proficiency is 
recognized by our Special Forces, these capabilities are essential for 
all forces preparing for irregular warfare, training and advising 
missions, humanitarian efforts, and security and stabilization 
operations.
                            quality of life
    The fiscal year 2009 request includes $149.4 billion in military 
pay, health care, housing, and quality of life for service personnel, 
Department employees, and their families.
    The request provides for $107.8 billion in pay and benefits, an 
increase of 9.8 percent over the fiscal year 2008 enacted level. This 
translates into pay raises of 3.4 percent for the military and 2.9 
percent for civilian employees. Since 2001, basic military pay has 
increased by an average of 37 percent. For example, in fiscal year 
2009, the average enlisted E-6 (Army Staff Sergeant) will see a pay 
increase of $1,289. The pay of the average O-3 (Army Captain or Navy 
Lieutenant) increases by $1,943 in fiscal year 2009.
Family Housing
    The budget request includes $3.2 billion that will construct new 
family housing, improve existing housing, eliminate inadequate housing 
overseas, operate and maintain government-owned housing, and fund the 
privatization of 12,324 additional homes. The Basic Allowance for 
Housing increases by 5 percent and the Basic Allowance for Subsistence 
increases by 3.8 percent.
Wounded Warriors
    We have a moral obligation to see that the superb life-saving care 
that the wounded receive initially is matched by quality out-patient 
treatment. To provide world-class health care to all who are wounded, 
ill, or injured serving the nation, the Department is taking action on 
the recommendations made by the President's Commission on Care for 
America's Returning Wounded Warriors. To do so, we have formed a senior 
oversight committee--chaired by the Deputy Secretaries of Defense and 
Veterans Affairs--to examine several key areas:
  --Case Management--integrate care management throughout the life of 
        the wounded, ill, or injured service member to ensure they 
        receive, as the President made clear, the ``right care and 
        benefits at the right time in the right place from the right 
        person'';
  --Disability and Compensation Systems--streamline the disability 
        evaluation system making it a single, supportive, and 
        transparent process;
  --DOD and VA Data Sharing--ensure appropriate information is 
        accessible and understandable between departments; and
  --Traumatic Brain Injury (TBI)/Psychological Health Issues--improve 
        access and quality of care by reducing the stigma associated 
        with mental health care and establishing new programs, such as 
        a TBI registry.
    Over the past eight months, we have made a concerted effort to 
ensure that counseling for post-traumatic stress does not adversely 
impact a Service member's security clearance. On May 1st, we changed 
the question on the government application for security clearance so 
that, as a general matter, it excludes counseling related to service in 
combat--post-traumatic stress in particular. We hope this will 
encourage more men and women in uniform to seek help.
    In addition, the Department has also approved new standards for all 
facilities housing the wounded. We have already inspected nearly 500 
buildings against these new standards to ensure our people have a place 
to heal that is clean and decent.
    The budget requests $466 million to accelerate and enhance 
construction of health care facilities at Bethesda and Fort Belvoir, as 
well as establishing more Warrior Transition Units. To date, the Army 
has created 35 new Warrior Transition Units, which have helped 10,000 
injured soldiers either return to their units or transition to veteran 
status. I have visited several Warrior Transition Units, and I hope 
Congress will fund these extra-ordinary facilities, along with our 
other health care requests. America's all-volunteer force must know 
that we will do everything possible to care for and heal the men and 
women injured in the line of duty.
Future Health Care Issues
    In fiscal year 2009, DOD military healthcare costs are projected to 
be $42.8 billion in order to maintain benefits for 9.2 million eligible 
military members and their families, as well as retirees--more than 
double the level in 2001. By 2015, the Department's health care costs 
are projected to reach $64 billion, or 11.3 percent of the budget.
    Because of these concerns, the Department is also seeking 
legislation to align out-of-pocket health care expenses for retirees 
under age 65 with general health insurance plans. The Department 
continues to believe that modest increases to TRICARE out-of-pocket 
costs for working-age military retirees are essential to make military 
health benefits affordable and sustainable for current and future 
retired service members.
Global Posture
    The base budget requests $9.5 billion to continue U.S. Base 
Realignment and Closure (BRAC) efforts. For the approved fiscal year 
2005 BRAC recommendations, the budget fully funds 24 major 
realignments, 25 base closures, and 765 lesser actions. The Department 
is continuing to reposition U.S. forces at home and abroad in keeping 
with post-Cold War realities. Consequently, several units stationed 
overseas will be brought home. Accommodations for them are underway. 
For example, there is a tremendous amount of construction at Fort 
Bliss, which will receive an additional 30,000 soldiers and some 40,000 
family members. The commander of European Command has requested that 
the Army activate two heavy brigade combat teams in Germany in 2008 and 
2010 to support near-term security needs and allow time for 
construction in the United States.
                         increase ground forces
    Increasing the size of the Army and Marine Corps will relieve 
stress on the force and enable the nation to meet its commitments at 
home and abroad. This growth in end strength is a continuation of 
growth that began last year and is expected to continue through fiscal 
year 2013.
U.S. Army
    The fiscal year 2009 base budget provides $15.5 billion to continue 
to grow the Army. These funds will pay for 7,000 additional soldiers, 
enabling us to reach the goal of 532,400-person army in the next fiscal 
year. Approximately $7 billion of this amount will be applied to the 
cumulative cost for recruiting, training, and paying the force, and 
$8.5 billion will be applied to equipment, infrastructure, and military 
construction. The Army request includes the cumulative cost of 
personnel added as part of a temporary increase in end strength after 
September 11, 2001--an increase which had previously been paid for in 
supplemental appropriations.
    I am concerned that the percentage of new Army recruits with high 
school diplomas has declined in recent years, and that the number of 
waivers has increased. While still within the minimum standards 
established by Congress, we are watching these numbers closely, and are 
determined to grow the Army in a way that does not sacrifice the 
quality we have come to expect in the all-volunteer force.
U.S. Marine Corps
    The base budget seeks $5 billion to grow the Marine Corps' end 
strength to 194,000 in fiscal year 2009. As with the Army, the Marine 
Corps' request includes the cumulative cost of personnel added after 
September 11, 2001. The Marine Corps' plans to increase end strength to 
202,000, and they are on track to achieve this goal by the end of 
fiscal year 2009--two years earlier than planned. Such growth will 
enable the Corps to build three Marine Expeditionary Force units and to 
increase time at home station between deployments. Thus the Marines 
will continue to be, as it has been historically, a ``two-fisted'' 
expeditionary force that excels at conventional warfare and counter-
insurgency.
                              war funding
    In addition to the $515.4 billion base budget, the fiscal year 2009 
request also includes $70 billion in emergency bridge funding. There 
is, however, a more immediate concern: Congress has yet to pass the 
pending $102.5 billion Global War on Terrorism request for fiscal year 
2008 and, as a result, the Defense Department is currently using fourth 
quarter funds from the base budget to cover current war costs. Shortly, 
two critical accounts will run dry:
  --First, Army military personnel account. After June 15th, we will 
        run out of funds in this account to pay Soldiers--including 
        those currently serving in Afghanistan and Iraq; and
  --Second, Operations and Maintenance account. Around July 5th, O&M 
        funds across the Services will run out, starting with the Army. 
        This may result in civilian furloughs, limits on training, and 
        curbing family support activities.
    If war funds are not available, the Defense Department can transfer 
funds from Navy and Air Force military personnel accounts to pay 
soldiers, but that would get us only to late July. Using the limited 
Transfer Authority granted by Congress would also help us get to late 
July. Doing so, however, is a shell game--a temporary one at that--
which will disrupt existing programs and push the Services O&M accounts 
to the edge of fiscal viability.
    Beyond the Army personnel account and O&M account, other programs 
will be adversely impacted if the pending fiscal year 2008 supplemental 
is not passed soon. Among them, critically, is the Commander's 
Emergency Response Program (CERP) which, as you may recall, I mentioned 
during my testimony to you last May. It is the single most effective 
program to enable commanders to address local populations' needs and 
get potential insurgents in Iraq and Afghanistan off the streets and 
into jobs. Congress has provided $0.5 billion of our total CERP request 
of $1.7 billion. Without the balance of $1.2 billion, this vital 
program will come to a standstill--the Department does not have the 
authority to extend funding beyond the $977 million in authority 
provided in the fiscal year 2008 NDAA.
    While I understand that you may pass the fiscal year 2008 war 
funding bill before the Memorial Day recess, I am obligated to plan for 
the possibility that this may not occur. As I mentioned in a recent 
letter to Senator Byrd and Senator Cochran, as well as other 
Congressional leaders, I will keep you informed of these plans in an 
effort to ensure transparency and minimize possible misunderstandings.
    To that end, if the war funding bill is not passed by Memorial Day, 
the Defense Department will submit reprogramming requests to Congress 
for their approval on May 27th to prevent the depletion of the Army 
Military Personnel Account and the Army Operations and Maintenance 
account. On June 9th, the Deputy Secretary of Defense will issue 
guidance on furlough planning and Service Secretaries will issue 
guidance to their commands and workforce.
    Delaying the supplemental makes it difficult to manage this 
Department in a way that is fiscally sound and prudent. To illustrate 
this point, I have compared the Department of Defense to the world's 
biggest supertanker. It cannot turn on a dime and cannot be steered 
like a skiff--and, I would add, it cannot operate without paying its 
people.
    I urge approval of the fiscal year 2008 war funds as quickly as 
possible.
                               conclusion
    At this, my second and also last opportunity to present a budget 
before this committee, I thank the members of this Committee for all 
you have done to support our troops as well as their families. In 
visits to the combat theaters, in military hospitals, and in bases and 
posts at home and around the world, I continue to be amazed by their 
decency, resiliency, and courage. Through the support of the Congress 
and our nation, these young men and women will prevail in the current 
conflicts and be prepared to confront the threats that they, their 
children, and our nation may face in the future.

    Senator Inouye. Admiral Mullen.
STATEMENT OF ADMIRAL MICHAEL G. MULLEN, UNITED STATES 
            NAVY, CHAIRMAN, JOINT CHIEFS OF STAFF
    Admiral Mullen. Mr. Chairman, Senator Stevens, 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you today.
    We are here, as you know, to discuss with you the 
President's fiscal year 2009 budget submission and more broadly 
the state of our armed forces. Let me speak for a moment about 
the latter.
    The United States armed forces remain the most powerful, 
capable military forces on the face of the Earth. No other 
nation has or can field and put to sea the superb combat 
capabilities resident in our Army, Navy, Air Force, and Marine 
Corps. This stands as a testament, of course, to the brave and 
talented men and women who serve, Active, Reserve, Guard, and 
civilian, as well as their families. They are, as I have said 
many times before, the finest I have ever seen, and I am 
privileged and proud to serve alongside them. Each trip to the 
field, each visit to a base, each bedside I stand beside only 
reaffirms that fact for me. I know you have also made such 
visits and can attest to the same, and I thank you for that.
    And so I also believe our strength speaks well of the hard 
work of this subcommittee and the Congress as a whole as it 
does of the American people who, through you, their elected 
representatives, continue to invest wisely in their national 
defense. We are grateful. We will continue to need that 
support, for however powerful we are today, that power is not 
assured tomorrow.
    That is why the budget the President submitted raises over 
last year's request an additional $5.7 billion for the 
readiness accounts, increasing tank miles for the Army, 
maintaining 45 steaming days for the Navy, and fully funding 
flying hours for the Air Force. That is why it calls for more 
than $180 billion for strategic modernization, fully 35 percent 
of the total request, a figure that includes some $45 billion 
to upgrade an aging air fleet, nearly $10 billion to field new 
ground combat vehicles like MRAP, and $14.5 billion to continue 
to grow the Navy's fleet, as well as a $700 million increase 
for research and development, the total of which is $11.5 
billion.
    And that is why it includes funding to complete the stand-
up of Africa Command to grow the end strength of the Army and 
the Marine Corps, to continue development of a robust ballistic 
missile defense system for Europe, and to improve our cyber 
security and our ISR capabilities.
    I am convinced this budget reveals balance in our vision 
for the future, a realization that while we must continue to 
develop irregular warfare skills needed to effectively wage 
irregular warfare, both today and tomorrow, we must also 
prepare for, build for, and train for a broad spectrum of 
warfighting capabilities.
    The war in Iraq remains our number one strategic priority, 
as it should be. We cannot afford, the world cannot afford to 
have an Iraq unable to govern, defend, or sustain itself in 
effect and in practice as a failed state. If we get it wrong 
there, we place an unacceptable risk on our national interests 
throughout the Middle East. We get it wrong there, and Iran's 
growing and negative influence, Hezbollah's growing extremism, 
or al Qaeda's ability to reconstitute itself only intensify and 
imperil the region that much more.
    That is why we have worked so hard to improve our counter-
insurgency skills and to adapt, when necessary, to changing 
conditions. We have attained far too much experience in this 
type of warfare to ignore the lessons learned or the 
practicalities of application elsewhere. But even in Iraq, the 
counter-insurgency fight is not all of a classic small-war 
flavor. We hit the enemy with precision raids on the ground, 
with precision strikes from the air, and even in his lairs in 
cyberspace. We help protect Iraqi oil flow with our ships at 
sea. We bolster diplomatic efforts with a strong and vibrant 
military presence.
    We are doing well in Iraq as a result of such choices 
including, I might add, the choices of the Iraqi leadership who 
are now taking a much more assertive role in both military and 
civil affairs. We saw that in Basra recently. We are seeing it 
today in Sadr City and Iraqi security forces are leading in 
many areas in our current fight in Mosul. I am encouraged, but 
we are far from done.
    And we are trying, in concert with our North Atlantic 
Treaty Organization (NATO) allies, to achieve similar progress 
in Afghanistan where fresh violence in the south, the 
burgeoning poppy trade, and an increasingly unstable and 
ungoverned border with Pakistan all tear at the very fragile 
seams of security. It is hard work and it is tenuous at best, 
all the more reason we so desperately need the supplemental 
finding still being considered by the Congress.
    I am especially concerned about the availability of funds 
under the commander's emergency response program (CERP), 
authority for which expires next month. CERP has proven in most 
cases more valuable and perhaps more rapid than bullets or 
bombs in the fight against extremism delivering, as it does, to 
local officials the money they need to deliver in turn the 
civil improvements their citizens need. As one young American 
in Afghanistan put it--and I quote--``CERP is small scale, but 
quick impact.'' Without these funds, without the supplemental, 
our ability to have this sort of impact will suffer, and in 
fact, we are beginning to suffer now. Again, our progress is 
tenuous.
    But tenuous too are the long-term risks we take to our 
security commitments elsewhere if we focus too heavily on one 
discipline at the expense of all others if we prove unable to 
free up more ground forces or if we fail to properly address 
the toll being taken by current operations on our equipment, 
our people, and their families.
    The President's decision to reduce to 12 months all active 
Army tour lengths to the Central Command region is both welcome 
and necessary. But we must create even longer dwell times at 
home as soon as possible and pursue the various family support 
and employment initiatives that have been outlined in the 
President's State of the Union address. I was with families of 
deployed soldiers in Germany last week. They are trusting.
    And allow me to add here just how gratified I am to see the 
debate and discussion in these halls over a revised GI bill 
which will increase educational benefits for our troops and 
grant transferability of those benefits to military dependents. 
It is wanted and it is needed. It will go a long way to improve 
the quality of life for our people and their families as did, 
quite frankly, the Wounded Warrior legislation Congress passed 
last year.
    I am pleased that this budget too allocates more than $41 
billion for world-class care and quality of life, but too many 
of our returning warriors still suffer in silence and in fear 
of the stigma attached to their mental health issues. We must 
now turn our attention to better identifying the wounds of war 
we do not see and to treating the trauma and stress we do not 
fully understand.
    Finally, the growth of the Army and Marine Corps will, over 
coming years, provide much needed flexibility in engagement and 
in crisis response, and we must set about the task of restoring 
some of the more conventional and expeditionary capabilities 
these services will require in the dangerous and uncertain 
years ahead. There are young marines who have never deployed 
aboard a Navy ship, and there are Army officers who have not 
spent any time on their specialty of providing artillery fire 
support. These sort of gaps in professional expertise cannot 
persist particularly at a time when we are being called upon to 
stay better engaged around the globe, building our partner's 
capacity for such work, improving international and interagency 
cooperation, and fostering both security and stability.
    The State Department and the Defense Department have asked 
for such authorities in the Building Global Partnerships Act, 
which I strongly urge the Congress to enact. At its core, this 
act will help us solve problems before they become crises and 
help us contain crises before they become conflicts.
    And as I said, the business of war is all about choices. 
Military leaders must make hard decisions every day, choices 
that affect the outcome of major battles, whole nations, and 
the lives of potentially millions of people, choices which 
ensure the instruments of American military power are adequate 
to their purpose and responsibility.

                           PREPARED STATEMENT

    As we head into the latter one-half of this year with 
better and more continuous assessments of our progress in Iraq, 
a new push in Afghanistan, and a continued fight against 
violent extremists, as we consider the depth and the breadth of 
combat capabilities we must improve, please know that I and the 
Joint Chiefs remain committed to making informed choices, 
careful choices, and choices which preserve at all times and in 
all ways our ability to defend the American people.
    Thank you, Chairman. I look forward to your questions.
    [The statement follows:]
            Prepared Statement of Admiral Michael G. Mullen
    Chairman Inouye, Senator Stevens, distinguished members of the 
committee, I am privileged to appear before you and report to you on 
the posture of the U.S. Armed Forces.
    Let me begin by recognizing and thanking our Service members and 
their families. The brave men and women who answer the noble call to 
defend our Nation and the spouses, children and parents who support 
them are our most valuable national asset.
    Your Armed Forces, and their families, have faced the challenges of 
continuous combat for more than six years. Our men and women in uniform 
serve our Nation, accepting unwelcome separation from their loved ones, 
long hard work under difficult circumstances, and in some cases making 
the ultimate sacrifice.
    Military families are equally deserving of our gratitude. They bear 
the brunt of the loneliness, the uncertainty, and the grief that too 
often comes home when our Armed Forces are at war. Acknowledging the 
importance of their support, we must consider new initiatives such as 
transferring GI bill benefits to military spouses and children, 
military spouse employment support, expanded childcare and youth 
programs, and long-term comprehensive support of Wounded Warrior 
families.
    We must provide our Service members and their families with the 
leadership, the resources and the support required to defend the 
homeland, win the Long War, promote security, deter conflict, and win 
our Nation's wars.
                              introduction
    Over the past year your Armed Forces have done much to improve the 
security environment. Operating globally alongside allies and partners, 
often in concert with the interagency and non-governmental 
organizations, they have successfully protected our Nation's vital 
interests: a homeland secure from catastrophic attack, assured access 
to strategic resources, a strong national and global economy, sustained 
military superiority and strategic endurance, and sustained global 
influence, leadership, and freedom of action.
    A diverse set of perils threaten those interests and demand 
sustained action. Those threats include the proliferation of nuclear 
weapons and technology, transnational terrorism and rising regional 
instability. Today, these challenges manifest themselves most clearly 
in the Middle East.
    We face additional challenges in other areas: a number of state 
actors who appear intent on undermining U.S. interests and regional 
stability, a growing global competition for scarce natural resources, 
the constant threat of natural disasters and pandemics, as well as 
increasing cyber and Space threats. Our military is capable of 
responding to all threats to our vital national interests, but is 
significantly stressed while conducting combat operations in Iraq and 
Afghanistan and other operations worldwide as part of this 
multigenerational conflict against violent extremism. A decline in our 
strength or a gap in readiness will undermine the U.S. Armed Forces 
capability to complete its range of missions from combat overseas to 
providing civil support at home. That is why I believe we must reset, 
reconstitute, and revitalize our Armed Forces while balancing global 
risk.
    We do not--and should not--face these challenges alone. Today, more 
nations are free, peaceful, and prosperous than at almost any point in 
history. While each has its own heritage and interests, most share our 
desire for security and stability. Increasing free trade, regional 
security partnerships, treaties, international institutions, and 
military-to-military engagements and capacity building strengthen the 
bonds between us and other nations. Our engagement with allies and 
friends demonstrates our leadership and resolve to fulfill security 
commitments, and works toward the common good. Most often, it is by 
taking collective action--and not going it alone--that we increase our 
ability to protect our vital interests.
    With this context in mind, and in consultation with the Secretary 
of Defense, I have set three strategic priorities for our military. 
First, we need to increase stability and defend our vital national 
interests in the broader Middle East. Second, we must reset, 
reconstitute, and revitalize our Armed Forces. Third, we need to deter 
conflict and be prepared to defeat foes globally by rebalancing our 
strategic risk. Finally, to achieve our objectives in each of these 
areas we need to place increased emphasis not only on development of 
our own capabilities and the capacity of other agencies (State, USAID, 
Agriculture, Treasury, and Commerce and so forth), but also on building 
the capacity of our foreign partners to counter threats including 
terrorism and to promote regional stability.
     defend our vital national interests in the broader middle east
    Although our vital national interests are clearly global in nature, 
the broader Middle East is the epicenter of violent extremism. Too many 
countries suffer from burgeoning populations and stagnant economies, 
which have increased radicalization. State and non-state actors alike 
foment instability. Terrorists and insurgents are at war with 
governments in the region. The confrontational posture of Iranian 
leaders with respect to nuclear proliferation, the Israeli-Palestinian 
conflict, Sunni-Shia rivalries, the threat of terrorism, tensions in 
Pakistan, Hezbollah in Lebanon, political instability in the Maghreb, 
and the existence of Al-Qaeda and like-minded groups, all threaten 
regional stability and, ultimately, our vital national interests.
    My near-term focus remains combat operations in Iraq and 
Afghanistan. The surge of U.S. forces to Iraq, a well executed counter-
insurgency strategy and an Iraqi population increasingly weary of 
violence, and willing to do something about it, have all combined to 
improve security conditions throughout much of the country. Violent 
activities against our forces and against the Iraqi people have 
substantially decreased. These reductions have come about because of 
the hard work of Coalition and Iraqi Security Forces and the decisions 
of the Iraqi people and their leaders. Insurgent activity is down and 
Al Qaeda in Iraq is on the run--although both remain dangerous. Much 
hard fighting remains for Iraqi and Coalition forces before the job is 
done. Increased security has promoted reconciliation in some key 
provinces and the beginnings of national level reconciliation. We are 
working to secure a long-term security relationship with Iraq that will 
serve the mutual interests of both countries. As we continue to 
progress forward, Congressional support of future war funding will 
remain critical to success. An important component of that funding will 
go to building the capacity of increasingly capable Iraqi security 
forces.
    Security is a necessary condition but is not sufficient for 
achieving our strategic end-state in Iraq. Political, diplomatic and 
economic development together with expanded governance and the rule of 
law form the foundations that will underpin long term stability and 
security in Iraq. We are making solid progress, but we still have a 
long way to go. I ask that Congress continue its support for increased 
interagency participation in Provincial Reconstruction Teams, stability 
and reconstruction initiatives, U.S. business investment, DOD business 
transformation efforts, and good governance initiatives. I encourage 
your continued emphasis on the importance of achieving political and 
economic goals. Your visits with the Iraqi government and other Iraqi 
political leaders support the efforts of American, Coalition, and Iraqi 
forces.
    In Afghanistan we are seeing a growing insurgency, increasing 
violence, and a burgeoning drug trade fueled by widespread poppy 
cultivation. In response, more U.S. forces will deploy to Afghanistan. 
At the same time, the Afghan National Army and Police have increased in 
numbers and capability. The Afghan Provincial Reconstruction Teams 
continue to aid the local populations, and President Hamid Karzai is 
reaching out to support the provinces. In the U.S. section of RC East, 
access to basic health care has more than doubled and provincial 
councils have become functioning entities active in development. NATO 
forces provide a credible fighting force, but the alliance still faces 
difficulty meeting its force level commitments and some nations' forces 
in theater must be more operationally flexible. These challenges 
emphasize the importance of retaining U.S. freedom of action on a 
global scale. Just as in Iraq, your continued support for funding U.S. 
operations and efforts there, including PRTs, Afghanistan National 
Security Force development, and infrastructure development, is needed.
    In short, a stable Iraq and Afghanistan that are long-term partners 
and share our commitment to peace will be critical to achieving 
regional stability and security. This will require years, not months, 
and will require the support of the American people, our regional 
allies, and concerted action by the Iraqi and Afghan people and their 
leaders.
    I see daily reminders of other challenges in this part of the 
world. Continued irresponsible actions by Iran's Islamic Revolutionary 
Guard Corps directly jeopardize Iraqi and Coalition forces and 
undermine the Iraqi people's desire for peace. Restraint in our 
response does not signal lack of resolve or capability to defend 
ourselves against threats. Much more worrisome in the long term, 
however, is Iran's hegemonic intent, their continued refusal to 
verifiably suspend uranium enrichment, their continued support of 
terrorism and the resultant instability these actions foster throughout 
the region.
    Al Qaeda safe havens in the under-governed regions of Pakistan also 
contribute to regional instability. In my judgment, the most likely 
near term attack on the United States will come from Al Qaeda via these 
safe havens. Continued Congressional support for the legitimate 
government of Pakistan braces this bulwark in the long war against 
violent extremism.
    Despite--or maybe because of--these diverse challenges, we are 
fortunate to enjoy the cooperation of many courageous partner nations 
in the region. A recent regional commitment to work toward an Israeli-
Palestinian peace accord is one example. We should not inadvertently 
signal ingratitude toward any of these nations. Foreign Military 
Financing (FMF) and International Military Education and Training 
(IMET) are programs that have the potential to have significant 
strategic repercussions. I therefore seek Congressional support to 
ensure the Department of State's FMF and IMET programs remain fully 
funded.
    After three visits to the Middle East since becoming Chairman, I am 
more convinced than ever that we will not achieve regional security and 
stability unless we strengthen all instruments of international 
cooperation, regional partnerships, and national power. We need to 
ensure our plans sustain current gains and chart a course that both 
capitalize on lessons learned while focusing on future demands and 
dynamic conditions on the ground. Our forces must remain in theater as 
long as necessary to secure our vital interests and those of our 
partner nations, and they must operate with the full confidence and 
support of the American people and the Congress.
             reset, reconstitute, and revitalize our forces
    To be successful in defeating our enemies and deterring potential 
foes, U.S. Armed Forces require talented people who are fully trained 
in their specialties and well equipped with warfighting systems. The 
pace of ongoing operations has prevented our forces from fully training 
for the full-spectrum of operations and impacts our ability to be ready 
to counter future threats. This lack of balance is unsustainable in the 
long-term. We must restore the balance and strategic depth required for 
national security. Continued operations without the requisite increase 
in national resources will further degrade our equipment, platforms and 
people.
    Our Nation's servicemen and women--and their families--are the 
primary focus of my efforts to reset, reconstitute, and revitalize our 
forces. Caring for them is a critical consideration in every decision I 
make. Our All-Volunteer Force continues to meet the requirements and 
demands of national security, but with great sacrifice. This is the 
longest time that our All-Volunteer Force has been at war. Our Service 
members, in particular our ground forces and their families, are under 
significant strain. However, they remain dedicated, they are resilient 
and combat hardened, and they are taking the fight to our enemies. I do 
not take their service for granted and recognize that their resilience 
has limits. I am extremely concerned about the toll the current pace of 
operations is taking on them and on their families, on our equipment, 
and on our ability to respond to crises and contingencies beyond 
ongoing operations in Iraq and Afghanistan.
    On April 10, 2008, the President directed the Secretary of Defense 
to reduce deployment lengths from fifteen months to twelve months for 
Army units deployed to the Central Command area of operations beginning 
on August 1, 2008. Upon implementation, deployment cycles will go to 
twelve months deployed/twelve months home for the Army while remaining 
at seven months deployed/seven months home for the Marines and one year 
mobilization with five years back for the National Guard and Reserves. 
To preserve personal, operational, and family readiness, we must shift 
the Army's deployment cycle as quickly as possible to twelve months 
deployed followed by twenty-four months at home. We must do the same 
for the Marine Corps by moving to fourteen months at home for each 
seven month deployment. Therefore, the most important investment in the 
President's fiscal year 2009 budget is the commitment to expand our 
Army, Marine Corps, and Special Operations Forces. This continuation of 
the ``Grow the Force'' initiative is a long-term plan to restore the 
broad range of capabilities necessary to meet future challenges and 
restore a capacity for sustained action. This commitment encompasses 
nearly 33 percent of the total real growth of the DOD budget from 
fiscal year 2008 to 2009.
    Recruiters have a tough job during peacetime and it is made even 
more difficult now given the expansion of both the Army and the Marine 
Corps and the decrease in the propensity of key influencers to 
encourage potential recruits to enlist during this period of war. In 
spite of these challenges, our recruiters are doing exceptional work. 
The military departments met their recruiting goals for fiscal year 
2007 and remain on track for fiscal year 2008. We are also making sure 
we retain the people and the skills we need. The Services are using the 
full range of authorities given to them by Congress in the form of 
retention incentives, and I ask your continued support for these 
programs to sustain our combat-experienced force. Last year, the Army 
and Navy employed the Critical Skills Retention Bonus to retain mid-
career active duty officers who fill key positions. Likewise, the 
Services have offered bonuses to senior enlisted members of our Special 
Operations Forces. Investment in our people as our most important 
resource is vital. The cost of people continues to grow and we need to 
recognize this as we debate the right level of investment in defense.
    Retention challenges impact more than just our active duty forces. 
Though they met their recruiting and retention goals this last year, 
the Army Reserve and National Guard have experienced some shortages in 
company grade officers and mid-grade non-commissioned officers who lead 
our troops. We are overcoming these personnel shortfalls through 
enhanced incentives for Reserve and National Guard service, flexibility 
in terms of service requirements, competitive pay, and enhanced 
retirement benefits. These initiatives are important steps towards 
transitioning the Reserve Components from a ``strategic reserve'' role 
to part of the ``operational reserve,'' creating the depth and staying 
power to respond to multiple global requirements, and maintaining our 
professional Guard and Reserve force.
    Maintaining our professional Armed Forces, however, takes more than 
talented recruiters, attractive incentives, and competitive pay. We 
must understand our next generation of Soldiers, Sailors, Marines, and 
Airmen. Their affinity for technology and collaboration may 
revolutionize the way we fight. The willingness of future generations 
of Americans to serve is directly related to how they, and their role 
models, perceive the veterans of today are treated and appreciated. The 
All-Volunteer Force depends upon the trust and confidence of the 
American people in our institution; it depends on trust and confidence 
in our leaders; and, it depends upon trust and confidence that 
America's sons and daughters will be well-trained, well-equipped, and 
well-cared for in peace and in war.
    While all our service members and their families have done their 
duty with great discipline and honor, one group in particular stands 
out: our returning Wounded Warriors and the parents, spouses and family 
members who care for them when they come home. As a Nation, we have an 
obligation to care for those who have borne the battle and who bear 
both the seen and unseen scars of war. Their sacrifices will not end 
following completion of their initial treatment. We should strive to 
provide only the finest medical and rehabilitative care for them and 
their families for the remainder of their lives.
    As leaders, we must ensure all our Wounded Warriors and their 
families receive the appropriate level of care, training, and financial 
support they need to become as self-sufficient and lead as normal a 
life as possible. Our support can mean the difference not just between 
life and death, but between a life of severe disability and one of 
manageable limitations. To the degree that we fail to care for them and 
their families, and enable their return to as normal a life as 
possible, we undermine the trust and confidence of the American people 
and ultimately put at risk the preservation of our professional All-
Volunteer Force.
    It is also imperative that we retain the experience of our combat 
hardened leaders. We live in a dangerous and unpredictable world and in 
a time of incredible change. I believe this change will accelerate, not 
slow down. Today's combat veterans are the ones that will take our 
military into the future. Their experience in fighting terrorists and 
insurgents as well as caring for those wounded on the fields of battle 
will enable us to better prepare for the challenges of tomorrow, but we 
cannot afford to lose their hard earned experience today.
    In addition to taking care of our people, we must repair, rebuild, 
and replace the equipment that has been destroyed, damaged, stressed, 
and worn out beyond economic repair after years of combat operations. 
As you are well aware, Service equipment has been used at higher rates 
and in harsher conditions than anticipated. In addition to the wear and 
tear experienced by our ground vehicles in Iraq and Afghanistan, our 
airframes and ships are aging beyond their intended service lives. 
Indeed since Desert Storm, seventeen years ago, the U.S. Air Force and 
U.S. Navy have flown near continuous combat missions over the Middle 
East and the Balkans. The impact of this usage is illustrated in the 
groundings of the oldest F-15 Eagle fighters, our repeated request to 
retire some of our C-130 Hercules and KC-135 Stratotankers, and the 
strains placed on our twenty-nine year old P-3 Orion reconnaissance 
aircraft.
    Despite usage levels sometimes five to six times above peacetime 
rates, and in the midst of extremely demanding environments, equipment 
readiness in theater remains high, well above the peacetime goals. Your 
support has been helpful in accomplishing this mark. However, this high 
in-theater equipment readiness comes with a price--namely the impact on 
the remainder of the Service equipment. For example, our ground forces 
borrow equipment from non-deploying units in order to equip deploying 
units. While our deploying units are fully resourced to meet the 
challenges of the fight that they are in, we must get ahead of this 
challenge.
    Our forces are relying upon the balance of funds requested in the 
fiscal year 2008 Global War on Terror request to accomplish equipment 
reset and to address readiness shortfalls. I urge the Congress to 
quickly appropriate the remaining GWOT request for fiscal year 2008, as 
it is essential to have continued, predictable, and adequate funding 
for the repair and replacement of both operational and training 
equipment. I also ask for your continued support for our upcoming 
fiscal year 2009 Global War on Terror funding request.
    Revitalization includes force recapitalization, modernization, 
transformation, re-stationing, and repositioning, along with personnel 
and family support programs. A revitalized force creates a vital 
deterrent effect. Preventing future wars is as important as winning 
wars. Such prevention requires global presence and persistent 
engagement. A revitalized force provides the means to expand 
cooperative relationships with other nations and contribute to a global 
capacity to promote security and stability for the benefit of all. A 
revitalized force will also ensure that we remain prepared to meet our 
global responsibilities.
    Finally, a revitalized force is central to balancing global 
strategic risk. A revitalized force is a balanced total joint force, 
capable of operating across the spectrum of conflict. A balanced force 
possesses the capability and capacity to successfully conduct multiple 
simultaneous missions, in all domains, and at the required levels of 
organization, across the full range of military operations. A 
modernized, balanced total joint force is necessary if we are to 
successfully answer enduring and emerging challenges, and win our 
Nation's wars.
                properly balanced global strategic risk
    Beyond the Middle East, and in addition to revitalizing our forces, 
we must take a worldwide and long term view of our posture and its 
implications for global strategic risk. We have global security 
responsibilities across the range of military operations. The 
challenges in Asia to the vital interests of the United States and our 
allies are an example.
    We must be sized, shaped, and postured globally to leverage the 
opportunities for international cooperation and build the capacity of 
partners for stability, while at the same time, deterring, confronting 
and preparing for profound dangers of the future. I am concerned, as 
are the Combatant Commanders, that we do not have sufficient resources 
to meet all the needs. By working with other growing powers, and by 
helping emerging powers become constructive actors, we can ensure 
today's dynamic environment does not devolve into a prolonged state of 
conflict and disorder.
    The imbalance between our readiness for future global missions and 
the wars we are fighting today limits our capacity to respond to future 
contingencies, and offers potential adversaries, both state and non-
state, incentives to act. We must not allow the challenges of today to 
keep us from being prepared for the realities of tomorrow. There is 
risk that we will be unable to rapidly respond to future threats to our 
vital national interests.
    Funding by the Congress is critical to restoring balance in the 
long term. But resources alone are not enough. We must think more 
creatively, more deeply, and more systematically about how to best use 
our resources. We have learned a great deal about how to leverage 
modern technology and interagency participation to counter terrorism--
those lessons can be shared with our partner nations, and applied to 
other security threats such as our Nation's counter narcotics efforts. 
Similarly, our new maritime strategy emphasizes the importance of 
leveraging other nation's capabilities. The growing interdependency of 
the community of nations will continue to offer similar opportunities. 
I support the United States' accession to the United Nations Law of the 
Sea Convention, and I believe that joining the Convention will 
strengthen our military's ability to conduct operations.
    Our enduring alliances and partnerships promote stability and 
security. The twenty-six nation North Atlantic Treaty Organization 
leads the effort to help extend security and stability inside 
Afghanistan. Australia and Japan have also made key contributions to 
operations in Afghanistan and Iraq. Another key ally, the Republic of 
Korea, has supported Operation Iraqi Freedom for the past three years--
and continues to maintain a robust national commitment to security in 
Northeast Asia. Singapore and the Philippines work with us to counter 
international terrorist threats in Southeast Asia. Colombia's highly 
successful counterinsurgency struggle promotes stability in a critical 
region of South America. Our military to military relationships with 
Mexico and Canada are laying the ground work for greater Homeland 
Security. Enhancing our teamwork with our allies and partners is 
essential if we are to protect our shared interests.
    Persistent engagement and capacity building with allies and 
international partners is a key means of properly balancing global 
strategic risk. Persistent engagement consists of those cooperative 
activities that build partner capacity, provide humanitarian 
assistance, counter common threats, and safeguard the global commons. 
As I noted earlier, we need to fully fund our Foreign Military Finance 
and International Military Education and Training programs and 
streamline the process for executing these and similar funds. Fostering 
and sustaining cooperative relationships with friends around the world 
contributes significantly to our shared security and global prosperity. 
Relationships take time to grow--and they require investment to stay 
strong.
    In many cases, other countries have significant competencies, 
relationships, and resources that can promote security and stability. 
One way to build relationships with other nations is to help them 
accomplish the goals they cannot achieve alone. Helping other nations 
overcome security problems within their borders by increasing stability 
and eliminating terrorist safe havens bolsters our security as it 
boosts theirs. Our Theater Security Cooperation programs also form a 
foundation for shared and interoperable response to contingencies. 
Regional Combatant Commands--such as U.S. Northern Command, U.S. 
Southern Command, and U.S. Africa Command--are being structured with 
interagency and international relationships in mind to boost our 
security and humanitarian assistance capabilities, and to foster long-
term U.S. military relationships with regional nations and security 
institutions.
    Legislation that increases the expeditionary capacity of civilian 
U.S. government agencies is critical to rebalancing global strategic 
risk. Increasing the ability of the U.S. government, as a whole, to 
deal with crises reduces the strain on our military forces. We need to 
empower the State Department to help other countries prevent and 
recover from conflict. I also fully endorse increased support for our 
intelligence agencies' global activities--upon which our Armed Forces 
depend. We additionally need to look at increasing the capacity of 
other U.S. government agencies--such as the Justice and Agriculture 
Departments, which are otherwise oriented on domestic missions--to help 
contribute civil expertise that the military lacks in stabilization and 
capacity building missions overseas.
    Rebalancing strategic risk also means addressing capability gaps. 
The technology advantage that we have long enjoyed has eroded, with 
significant ramifications. Interruption of our access to cyberspace 
could substantively damage our national defense and civil society. 
Addressing this threat, the President's budget for fiscal year 2009 
includes funds to reduce our cyber vulnerabilities. Likewise, freedom 
of action in Space is vital to our economic, civil, and military well 
being. We need to increase our capacity to defend our access to that 
domain. We must also address shortfalls identified by our Combatant 
Commanders in our Intelligence Surveillance and Reconnaissance sensors 
and processing infrastructure.
    Fighting and winning wars is the main mission, but deterring them 
is always preferable. This is even more the case in deterring nuclear 
threats. We now face the prospect that nuclear weapons will be employed 
against us and our allies by non-state actors and rogue states. To 
defend our Nation and assure our allies, we must enhance our capability 
to rapidly locate and destroy targets globally. We seek to improve 
conventional prompt global strike capability, further develop global 
missile defense systems, and modernize our strategic weapons systems 
and infrastructure, to include developing a Reliable Replacement 
Warhead and a conventional ballistic missile. These components of our 
``New Triad,'' together with improved intelligence and planning 
systems, will help to ensure credible deterrence across a range of 
threats in the twenty-first century strategic environment.
                     building partnership capacity
    Building partnership capacity underpins all three of my strategic 
objectives and is an area that requires additional Congressional 
support. Unfortunately, there are serious shortfalls in the U.S. 
Government's ability to build the capacity of foreign partners--both 
within and outside DOD. The Department of Defense conducted a 
systematic review of gaps in authority and developed an omnibus bill 
called the Building Global Partnerships Act which was personally 
brokered by the Secretary of Defense with the support of the Secretary 
of State. I strongly urge Congress to enact all of these authorities.
    Foremost, DOD requires extension and expansion of its Global Train 
and Equip authority. Every single combatant commander cites this as 
DOD's most important authority to counter terrorism and to promote 
regional stability by building the capacity of partner military forces. 
These programs will not get funded or executed properly unless DOD 
funds them and collaborates with State on implementation. Over the past 
three years, all Combatant Commanders, the former Chairman of the Joint 
Chiefs of Staff, the Commandant of the Coast Guard, the Secretary of 
Defense, and the Secretary of State have requested extension, 
expansion, and funding for these programs. Now is the time to make 
Global Train and Equip authority permanent, to increase the ceiling, 
and to provide annual baseline funding.
    The Commander's Emergency Response Program has been enormously 
successful in Iraq and Afghanistan, and other Combatant Commanders have 
requested this same authority to enhance prospects for mission success 
in other regions of the world. Our commanders in the field view this as 
a critical force protection tool that allows them to shape the 
operational environment so force is not required.
    Building the security capacity of our partners is important, but 
partners often need additional assistance to promote stability. 
Stabilization and reconstruction assistance authority allows DOD to 
transfer funds to the Department of State to provide assistance to aid 
foreign police forces, to improve governance, rule of law, economic 
development or essential services, and for humanitarian assistance. 
Stabilization and reconstruction assistance authority recently allowed 
DOD and State to enhance stability in Haiti, Somalia, Nepal, Trans- 
Saharan Africa, Yemen, and Southeast Asia.
    We are in a new national security era that requires building new 
institutional capacity that does not currently exist. Most authorities 
to provide other broader forms of assistance reside at the Department 
of State, where patriotic foreign service officers and development 
professionals are doing everything they can with the force they have. 
But that force is woefully small relative to need. I support Secretary 
Rice's request for the Civilian Stabilization Initiative and ask 
Congress to enact quickly legislation authorizing its creation. I also 
strongly support the significant plus-up in people that the State 
Department and U.S. Agency for International Development are seeking in 
the President's 2009 budget as well as its request for increased 
foreign assistance funding. The increases that Secretary Rice is 
seeking in 2009 are crucial to supporting our foreign policy goals; 
under-funding these activities undermines our national security. 
Personally, I would also support the reconstitution of the U.S. 
Information Agency or an equivalent functional entity to more 
effectively counter extremist ideology. Finally, I appreciate the 
Congress' direction to study the national security interagency system, 
and will strongly support that effort.
                               conclusion
    The past year saw America's men and women in uniform continue to 
engage in combat in Iraq and Afghanistan, while they also provided 
humanitarian assistance, worked with partner nations, and stood guard 
around the globe. Our Soldiers, Sailors, Airmen, Marines, and our 
Nation's Coast Guardsmen are making a positive difference. They do so 
willingly and unflinchingly. Their valor and dedication are inspiring 
and they serve this nation superbly. It is an honor to serve alongside 
them and my most solemn responsibility to represent them.
    The American Armed Forces have evolved throughout our Nation's 
history. During the nineteenth century, while our country was an 
emerging power, the norm for our military included service at either 
small army posts on the Nation's Western frontier or single ship 
patrols off whaling stations in the Pacific. Throughout the twentieth 
century, our military fought--and deterred--large scale conflicts 
against powerful competitor nation-states, or their proxies, around the 
world. Today and for the foreseeable future, we are embarked on 
something new.
    Our military challenge is to protect and preserve the American way 
of life by promoting greater global security, stability, and trust--
building up the strength of our friends, defeating violent extremists, 
and deterring regional conflicts. Our strategic environment requires 
that we have a force that is ready for operations across the range of 
military missions.
    We have yet to fully institutionalize the lessons learned 
particularly as it applies to building the capacity of partners and 
reforming the interagency. America has undertaken a staggering array of 
tasks in the past six years: securing the homeland, fighting global 
terrorism, applying a new counterinsurgency doctrine, expanding 
governance and rebuilding armed forces in shattered countries, and 
increasing our capability and capacity to assist other nations through 
a variety of material aid programs and expeditionary teams. All of 
these efforts have seen successes and setbacks. They have come at 
considerable cost to our Nation's sons and daughters, and to the 
treasure of the American people. We must do more than just document our 
lessons learned. We must accept that the future will likely require 
sustained engagement and continued operations that will focus on 
interagency and international participation. We must go beyond 
pondering and push to embed these lessons into a truly reformed 
interagency. We need continued Congressional support to make this 
imperative a reality.
    As for your Armed Forces, we need a total, joint, expeditionary 
force that is suited to irregular warfare against asymmetric threats as 
well as supporting civil authorities at home and abroad. We also need a 
large-scale total force capable of major combat operations against 
traditional nation-state foes. We cannot do it alone; our forces must 
be part of a more encompassing team that includes other federal 
departments and partner nations. We must also recognize building 
international and interagency capability will take time. In the 
interim, our superb military men and women, and their families, will 
fill the leadership role demanded of them.
    All this takes sustained, robust investment and partnership. With 
your continuing help, our military will be ready for the challenges and 
opportunities ahead. Thank you for your unwavering support in time of 
war.

    Senator Inouye. Thank you very much, Mr. Chairman.
    I would like to advise the subcommittee that because of 
time limitations, all members will have 8 minutes for 
questioning.
    Senator Stevens.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Admiral Mullen, the Secretary has mentioned that the CERP 
funding, if my memory is correct, it was this subcommittee that 
started that with a very small amount for each commander. Now 
it is over $1 billion. Can you give us some idea what the scope 
of the projects is now in terms of how this money is handled? 
We thought it would be just a local commander, a platoon 
leader, et cetera. Now it looks like it is a fairly large 
concept.
    Admiral Mullen. Senator Stevens, I think the growth in the 
request is tied directly to the improvements in security, and 
so in the counter-insurgency strategy, when an area is provided 
more security with a joint security station--in fact, young 
captains are given certain amounts of cash to then essentially 
build projects, restart markets, build schools, and do it very, 
very rapidly. What CERP really provides--and in fact, I now see 
requests coming in from other combatant commanders--it provides 
very rapid response not just on top of the improved security, 
but in order to improve and, in fact, create projects that help 
a village or a town or a city improve, as well as provide 
salaries to local--what we call them in Iraq--Sons of Iraq, 
some 100,000 to 105,000 who are now providing their local 
security. And we have seen it grow from very small amounts and 
distributed over very wide areas. So the more security that is 
established, this has become essentially, as I indicated, the 
ammunition for success throughout Iraq where security has 
improved.
    Senator Stevens. Well, I think at another time, perhaps you 
ought to go into this because it does seem these projects have 
gotten larger and are really rebuilding damage in the war zone. 
Are there any guidelines regarding how much a commander can 
spend? Are there any guidelines as to how much he has to go to 
a senior officer before he spends over a certain amount?
    Admiral Mullen. Yes, sir. My experience in the field is it 
is allocated down again to the 2003 level and that captain in a 
certain area has a certain amount of cash to spend during a 
given quarter. And it is very carefully monitored. And I would 
differentiate where it goes in terms of projects versus 
reconstruction projects, which it is not allocated to.
    Senator Stevens. It boggles my mind a little bit to have it 
trickling down, $1.3 billion down to captains who are getting 
maybe $200 or $300. I do not follow that. This fund is building 
up and up and up. I think we ought to have a special hearing on 
it one of these days.
    Admiral Mullen. Sir, I would be more than happy to go 
through it in detail with you.

                    TROOP DEPLOYMENT AND DWELL TIMES

    Senator Stevens. Secretary Gates, I want to be short here 
because I want everyone to have a chance today. The concept of 
limiting deployments and dwell times--both of you have 
mentioned those now. When are we going to have certainty that 
they will not be changed for the next period? How many years 
will the current practice that has been announced of 1 year 
deployments and then what is it? 18 months at home? Whatever 
that time is, is this guaranteed for our troops or can it be 
changed?
    Secretary Gates. Senator Stevens, beginning with the units 
that deploy on the 1st of August, the deployment period will be 
12 months maximum, initially at least, for most units probably 
12 months at home. With the growth in the Army, particularly 
with the size of the Army and the Marine Corps, our objective 
is to get to 1 year deployed, 2 years at home. I think the 
statistics work out this way--that we will begin to get beyond 
1 year at home sometime during the course of calendar year 
2009. Our hope with the guard is 1 year deployed 4 or 5 years 
at home. And we hope to begin moving in that direction in 
fiscal year 2009 as well.
    I think that one of the surest guarantees that we will be 
able to hold to this trend of longer periods at home and 
shorter periods deployed, the 12 months deployed, is in fact 
the growth of the Army and the Marine Corps. I would say also 
that I would expect that further reductions in the presence in 
Iraq during the course of 2009 and perhaps later this year will 
also contribute significantly to meeting those goals.
    Senator Stevens. Just one clarification. When you say 12 
months deployment and then 12 months at home, does home mean 
leaving the United States? We have people from Alaska who are 
sent maybe to Louisiana and join up in a unit there. Is it 12 
months from the time they are deployed as the larger unit from 
Louisiana?
    Secretary Gates. For a Guard unit, it would be from the day 
they are mobilized they will have 1 year on active duty. For 
the active service, it is a year back at home, a year deployed 
overseas.
    Senator Stevens. Thank you.
    Thank you very much, Mr. Chairman. Appreciate it.
    Senator Inouye. Thank you.
    Senator Specter.

                           DIALOGUE WITH IRAN

    Senator Specter. Thank you, Mr. Chairman.
    Secretary Gates, we have seen that President Reagan 
identified the Soviet Union as the evil empire and shortly 
thereafter engaged in direct bilateral negotiations and very, 
very successfully. As noted before, we have seen President Bush 
authorize bilateral talks with North Korea as well as 
multilateral talks which have produced results. It is noted 
with Libya and Gaddafi the talks have produced very positive 
results. I note that there have been three rounds of bilateral 
talks where United States Ambassador Crocker has had direct 
contact with Iranian Ambassador Kazemi-Qomi. So we are not 
really saying in practice that we will not talk to them. The 
question is to what extent will we talk.
    I am very much encouraged, Mr. Secretary, by the statement 
you made on May 14 of this year that we need to figure out a 
way to develop some leverage and then sit down and talk with 
them. If there is to be a discussion, then they need something 
too. We cannot go to a discussion and be completely the 
demander with them not feeling that they need anything from us.
    Now, the position taken by the Secretary of State has been 
we will not talk to Iran unless, as a precondition, they stop 
enriching uranium. It seems to me that it is unrealistic to try 
to have discussions, but to say to the opposite party, as a 
precondition to discussions, we want the principal concession 
that we are after. Do you think it makes sense to insist on a 
concession like stopping enriching uranium, which is what our 
ultimate objective is, before we even sit down and talk to them 
on a broader range of issues?
    Secretary Gates. Well, Senator, I am not going to disagree 
with the Secretary of State.
    I would say this, though. In all three of the examples that 
you used, the United States either developed or had significant 
leverage when the talks began. President Reagan did not sit 
down with the Soviet leadership almost entirely through his 
first term, and his first meeting with Gorbachev was in 
November 1985 after the United States had embarked on a major 
arms buildup and strengthening of the United States' position 
vis-a-vis the Soviet Union.
    In the case of Libya, Gaddafi wanted to get the sanctions 
lifted that were a result of Pan Am 103 and the international 
sanctions that were applied after that.
    And the financial sanctions against North Korea created 
significant leverage that helped prompt them to come to the 
negotiating table.
    So, as I said in the statement that you read, I think the 
key here is developing leverage either through economic or 
diplomatic or military pressures on the Iranian Government so 
that they believe they must have talks with the United States 
because there is something they want from us, and that is the 
relief of the pressure.
    Senator Specter. Mr. Secretary, we had leverage in 2003 
when we were successful in Afghanistan and in Iraq, and the 
record is pretty clear that we wasted an opportunity to respond 
to their initiatives.
    So the question is, how do we find the leverage? How do we 
find economic, political, or military leverage?
    Well, is it not sensible to engage in discussions with 
somebody to try to find out what it is they are after? We sit 
apart from them and we speculate and we have all these learned 
op-ed pieces and speeches made, and we are searching for 
leverage. But would it not make sense to talk to the Iranians 
and try to find out what it is that they need as at least one 
step in the process?
    Secretary Gates. Well, Senator, I was involved in the very 
first contacts between the United States and the Islamic 
Revolutionary government of Iran in October 1979. And what has 
happened in Iran since then is--most revolutions tend to lose 
their sharp edge over time. It is one of the reasons that Mao 
launched the cultural revolution in the 1960's because he saw 
that happening in China. We saw that beginning to happen with 
the Khatami government when Khatami was president of Iran, and 
I think it was one of the things that created perhaps an 
opportunity that may or may not have been lost in 2003-2004.
    But what we have now is a resurgence of the original hard-
line views of the Islamic revolutionaries with the accession to 
power of President Ahmadinejad who was one of the students who 
occupied our embassy in November 1979. And I might add that 
happened 2 weeks after the first talks between the United 
States and the Iranian Government in Algiers where I was a 
participant.
    So the question is, do you have the kind of government in 
Iran now with whom there can be productive discussions on 
substantive issues? And I think that is an open question 
because this is a different kind of government.
    Senator Specter. So what is the answer? We only have one 
government to deal with.
    Let me put it to you very bluntly, Mr. Secretary. Is 
President Bush correct when he says that it is appeasement to 
talk to Iran?
    Secretary Gates. Well, I do not know exactly what the 
President said. I believe he said that it was appeasement to 
talk to terrorists, to negotiate with terrorists.
    Senator Specter. Well, he said on April 24--in a May 15 
address to the members of the Knesset said, ``Some seem to 
believe that we should negotiate with terrorists and 
radicals.'' He does not say specifically Iran, but I think the 
inference is unmistakable in light of the entire policy of the 
administration.
    I have 12 seconds left, Mr. Secretary, and let me thank you 
for your service. Let me note our personal relationship. We 
went to the same grade school, College Hill in Wichita, Kansas.
    And let me commend you for what I think is a very 
forthright statement you made, really gutsy. And I know you do 
not want to disagree with the Secretary of State, and I know 
you do not want to even more disagree with the President. And I 
have had an opportunity to talk to the President about it 
directly. And I believe he needs to hear more from people like 
you than from people like me, but from both of us, and that is 
it not appeasement and that the analogy to Neville Chamberlain 
is wrong.
    We have only got one government to deal with there. They 
were receptive in 2003. I have had a chance to talk to the last 
three Iranian ambassadors to the United Nations, and I think 
there is an opportunity for dialogue. But I think we have to be 
a little courageous about it and take a chance because the 
alternatives are very, very, very bleak. Thank you, Mr. 
Secretary.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Bond.

                    TACAIR AND JOINT STRIKE FIGHTER

    Senator Bond. Thank you very much, Mr. Chairman.
    Admiral Mullen, I was most interested in your discussion 
about CERP and its successes. We would like to know more about 
the fiscal accountability, but from what I have seen, it has 
made some tremendous successes. I think certainly in my mind 
there is no question about the viability of it.
    I would also call to your attention again and my 
colleagues' the fact that in Afghanistan we have National Guard 
units serving as agriculture redevelopment teams and helping 
bring what has been sometimes referred to as 18th century 
agriculture up almost to modern day and training the trainers. 
These ag units have 10 extension specialists and about 25 
guardsmen, who are their military protectors, who also happen 
to be very skilled agriculturalists. We call them ``farm boys'' 
back home. But I note that a number of States are pursuing it, 
and I commend you. I think this is a tremendous way to help 
Afghan farmers and, thus, Afghanistan get back on track.
    Now for the tougher questions. Mr. Secretary and Mr. 
Chairman, I am very much concerned about the Air Force's TACAIR 
program. Their fifth generation acquisition strategy is going 
to lead to tremendous gaps in the force structure, and it fails 
to address the impact on the industrial base. The Air Force has 
testified that there will be an 800 aircraft shortfall. We are 
falling way behind.

                                 TACAIR

    I could not believe that when the bids were taken for the 
Joint Strike Fighter, it was not a split bid. I told everybody 
that it made no sense to give the entire TACAIR production to 
one company. It has been demonstrated that that warning, 
unfortunately, was correct, and right now the Government 
Accountability Office (GAO) has reported that the F-35 costs 
are to hit $1 trillion. That is trillion with a T. We also will 
see the only competing TAC airline shut down in 2013. If we do 
not do something about developing a plan B for the Air Force, 
such as the Navy has adopted, we are going to see not enough 
aircraft for fully equipping the active or the Air National 
Guard. They are not going to have the aircraft. And it seems to 
me that it is time for the Defense Department and the Air Force 
to come up with a plan to keep upgraded legacy aircraft in 
production so that our fine pilots will have something to fly.
    What is being done about this gap? The Air Force has not 
been able to tell us.
    Admiral Mullen. I certainly, Senator Bond, share your 
concern about the tactical air community at large. Clearly, the 
new airplane that is planned on to relieve that is going to be 
the Joint Strike Fighter. It is a brand new program. It is 
actually done fairly well on schedule. As with all new 
programs, there have been challenges and will continue to be. 
Clearly, the investment on the Navy side, in terms of what has 
happened with respect to the F-18's, the investment there and 
the adaptation to the electronic warfare airplane, the Growler, 
was also I think absolutely on target.
    I have had concern for some time about how far we go with 
the F-22 program. It is a very expensive airplane. The overall 
concern was increased--at least I felt an increased level of 
concern--because of what happened with the F-15s. I mean, we 
had an F-15 literally destroy itself in flight. Old airplanes 
upwards of 25 to 30 years, which is a long time for a tactical 
jet, which certainly increased the risk about this whole TACAIR 
plan.
    That said, I think it is very important to get to the Joint 
Strike Fighter as soon as we can. The President's budget does 
not shut the line down. I have got enough background in 
programs to know that clearly there is not just a principal 
vendor piece of this that we need to be concerned about, but 
there is a supply side, lower-tier vendors that also need to be 
able to anticipate whether they are going to be in business or 
not. So the concern is there.
    There are also huge challenges just from an expense 
standpoint and from an applicability point of view. So I am 
comfortable that we at least will have the F-22 line open and 
that it is open to be determined whether that should continue 
in 2010.
    Senator Bond. Are both of you comfortable with having only 
one TACAIR source? We have seen the military time and time 
again say we need two sources, we need competing sources to 
make sure if one falls back, the other can pick it up. And 
competition does work even in military acquisition. Are you 
comfortable seeing us cut down to one source for TACAIR?
    Admiral Mullen. I would like to see as much competition as 
possible, Senator Bond. It is a decision made, as you know, 
some time ago.
    Senator Bond. And it was a bad one.
    Admiral Mullen. And it is not unique to TACAIR because we 
have made it across the entire industrial base in many, many 
areas. And that consolidation and getting us down to single 
vendors or single lines may seem wise initially, but can cost 
us down the road. So it is a decision that I am not sure I 
would call it fait accompli, but it is one that was made some 
time ago and I think we have to make the best of it--best of 
what we have to produce quality aircraft for the future.
    Senator Bond. Secretary Gates, are you comfortable with one 
TACAIR supplier?
    Secretary Gates. I think as long as we end up with aircraft 
companies that, as we go forward, you have competing companies 
so that you actually do have competition for subsequent 
fighters, for subsequent programs, I think that is where the 
competition is important, is in ensuring that we have several 
of these companies that are in a position to bid for these big 
programs.

                          JOINT STRIKE FIGHTER

    Senator Bond. Right now we are on a path not to have any, 
and you do not need to shut them down. You can solve some of 
the shortfall problems buying upgraded versions of the F-15 and 
the F-16 and maintain that.
    I would point out the Navy is looking at upgrading 350 old 
F/A-18s, the As and Ds, to 10,000 hours. You just talked about, 
Admiral, the possibility that they are starting to fall apart. 
That would cost $4 billion to $5 billion. For $4 billion to $5 
billion, with a multiyear, you could get 200 F/A-18E and Fs and 
keep the line alive. To me that makes sense. What am I missing?
    Admiral Mullen. I think it is a matter of choices. We 
actually do not have a very good history of upgrading 
airplanes.
    Senator Bond. That has been a disaster.
    Admiral Mullen. I mean, it has been difficult in budgets 
putting modernization money into tactical aircraft. So clearly, 
there is a plan to do that. And 10,000 hours is a long time on 
a jet. I think you know that, and at the same time, there has 
been a plan for some time to shut down the F/A-18 line and 
essentially transition into the Joint Strike Fighter. That has 
been the plan of record. It remains that. And I think if the 
Joint Strike Fighter gets there in some kind of timely way, 
that transition will work.
    Senator Bond. If.
    Thank you, Mr. Chairman.
    Senator Inouye. Thank you, Senator Bond.
    Senator Feinstein.

                          WILDFIRE PROTECTION

    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Secretary, I want to begin by thanking you for your 
service. I am very glad you are where you are.
    I want to begin with an easy one. There are parts of my 
State that are under threat of catastrophic fire. The Forest 
Service has committed to us that by May we would have two C-
130Js and the *MATH-2 units. We have learned we are not going 
to be getting them.
    This is a problem. We have lost 4,200 homes in the last 5 
years in the San Diego area. The nearest ones are 1,000 miles 
away, which take 24 hours to get to California. I would just 
like to ask that you look into that and that I can contact you 
and see what we might be able to do about that.
    Secretary Gates. Yes, ma'am.

                       GWOT DETAINEES/GUANTANAMO

    Senator Feinstein. Thank you very much.
    I very much agree with what Senator Specter said. I happen 
to serve on the Intelligence Committee. I have checked. To 
date, there is no contrary intelligence to the fact that Iran 
has not halted its nuclear weapons program. I believe that is a 
window of opportunity. I thought yes when I heard you make that 
speech 1 week ago.
    To the best of my knowledge, it is not the president of 
Iran that counts in these matters. It is the Supreme Leader. 
And it seems to me that we ought to find ways to develop back-
channel or front-channel discussions with this individual. I 
really think the fate of the area depends on it, and I think 
sabre rattling and talking about exercises for military 
intrusions do nothing but escalate the situation. I wanted an 
opportunity to say that.
    At this hearing last year, you said that you were looking 
at ways to close the detention facilities at Guantanamo Bay and 
that you had tasked a group inside the Pentagon to review 
options. Since then, the number of detainees has dropped to 
270. Exactly one person has been convicted. It is my 
understanding that 68 to 70 detainees can be sent back to their 
own country, about the same number charged, and about the same 
number would have to be detained for some time.
    The military commissions process has undergone numerous 
setbacks and most recently included an order by Navy Captain 
Judge Allred to remove Brigadier General Hartmann from the 
Hamdan case and the dropping of charges which Al-Khatami, the 
so-called 20th hijacker, because the evidence against him was 
coerced by torture. I was surprised to read in the New York 
Times that he is virtually senseless and the belief is it is a 
product of the interrogation he has gone through.
    My question to you is, what is the status of your Pentagon 
review and what is the status of the interagency review to 
close Guantanamo?
    Secretary Gates. Senator, I think the brutally frank answer 
is that we are stuck and we are stuck in several ways. One, as 
you suggest, there are about 70 or so detainees that we are now 
prepared to return home. The problem is that either their home 
government will not accept them or we are concerned that the 
home government will let them loose once we return them home. 
And we just had a suicide bomber outside of Mosul, I believe, 
who killed a number of people, who was a released detainee who 
had been sent home and then let go. So that is one problem we 
have.
    A second problem we have is that we just have a hard time 
figuring out--and I have talked to Members of Congress and I 
have talked to the Attorney General and I have talked to 
various people in the administration--what do you do with that 
irreducible 70 or 80 or whatever the number is who you cannot 
let loose, but will not be charged and will not be sent home.
    And that leads to the third area where we are stuck, and 
that is we have a serious not-in-my-backyard problem. I have 
not found anybody who wants these terrorists to be placed in a 
prison in their home State.
    So those three problems I think really have brought us to a 
standstill in trying to work this problem.
    Senator Feinstein. Well, I mean, on the last thing you 
said, the fact of the matter is that the Bureau of Prisons has 
maximum security facilities in isolated areas, and they are 
very maximum. It seems to me that nothing that you have said 
absolves the enormous loss of credibility we have in the eyes 
of the world being called hypocrites, that we have double laws, 
laws for some, and no laws for others. I think that is a real 
problem. It would seem to me that if there are changes in law 
that need to be made to accept some form of administrative 
detention with specific findings, that might be the case. But I 
think for the United States to have this facility--and you felt 
the same way. I have heard you say it----
    Secretary Gates. I still do.
    Senator Feinstein.--in this very chair----
    Secretary Gates. And still do.

                         EMERGENCY SUPPLEMENTAL

    Senator Feinstein.--that you were opposed to Guantanamo, 
that you wanted it shut down. And it is going to take, I think, 
some innovation to do it, but there are many of us in this 
Congress that would like to work with you on it.
    Now, if I might just move on. I am puzzled by this 
emergency supplemental. The Congressional Research Service 
(CRS) apparently says that if you request and Congress approves 
additional transfers of funds to the Army to meet its personnel 
and operational expenses, the Army could finance those needs 
with current funding through July. Also, if DOD receives the 
2009 bridge funds, I am told that DOD could finance war costs 
until June or July 2009. So it is less clear to me why the 
passage of a $70 billion 2009 bridge fund is urgent at this 
time, particularly given that funding for next year is less 
clear.
    If Congress approves the monies requested in its regular 
budget for military personnel and O&M and uses the $5 billion 
in transfer authority requested for 2009, my question is this. 
How long could the Army and Marine Corps, the services most 
taxed by war needs, finance war costs without passage of a 
supplemental, assuming that the five additional brigade combat 
teams brought in for the surge are brought home by the end of 
2008?
    Secretary Gates. Well, first of all, your statements about 
the fiscal year 2008 supplemental, in terms of when we run out 
and how long we could run, both of them being until late July, 
are both correct. And that is what we will do if the 
supplemental does not pass this week. We will begin to draw 
down the Navy and Air Force military pay accounts for 
transferring to the Army. So that will turn out as you just 
described.
    For fiscal year 2009, the problem that I have, Senator, is 
that the combination of delays in the supplementals and 
continuing resolutions has really thrown managing the 
Department out of whack. It is costing the taxpayers money. It 
disrupts programs. It creates enormous problems just from a 
management standpoint because we are always kind of borrowing 
from Peter to pay Paul, and it is very difficult to do a lot of 
things in terms of long-range planning.
    So the notion of having to borrow from the base budget in 
2009 to pay war costs--I mean, we probably could make it work 
for a number of months. But the question is what kind of a 
disruption does that do to all the procurement programs, to 
military expectations because various things get wrapped into 
these supplementals. We have money for barracks. We have money 
for day care centers. We have money for training and equipping, 
for reconstituting the force. And all that money has to come 
from some place. And so the absence of a supplemental to help 
pay for those is just enormously disruptive and creates real 
problems for our troops.
    So can we technically get through some part of fiscal year 
2009 without a supplemental? Probably so. But the question is 
at what cost.
    Senator Feinstein. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Inouye. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman.

                           DIALOGUE WITH IRAN

    Secretary Gates, when Senator Specter spoke to you about 
2003 and the Iranians, there has been a lot in the press about 
their inquiries to us shortly after we went into Iraq. Did we 
make a mistake in not negotiating with them then?
    Secretary Gates. I think this was something that sort of 
tangentially the Iraq Study Group looked at a bit, and I must 
say as did the Council on Foreign Relations task force on U.S. 
relations with Iran that Dr. Brzezinski and I co-chaired in 
2004.
    As I said in the comments last week that Senator Specter 
quoted, at a time when we had overthrown the Taliban and when 
we had overthrown Saddam Hussein, the Iranians clearly were 
very concerned about what we might do next in 2003-2004. And 
you did have a different government there. There was evidence 
that the Iranian Government was doing some things that were 
helpful in Iraq at the same time they were doing some things 
that were not helpful. And what I said last week was it was a 
matter for the historians to look at whether there was a missed 
opportunity around----
    Senator Leahy. Well, that is your view? What is your view? 
You were not here at the time, but you have looked at this.
    Secretary Gates. I was in a happier place.
    Senator Leahy. I understand. I complimented you on being 
willing to leave that.
    You looked at it more than probably anybody else in this 
room. Was an opportunity lost?
    Secretary Gates. You know, the honest answer is I really do 
not know. I mentioned earlier about being in that meeting in 
1979 with Brzezinski, the first meeting with the Iranian 
Government, the prime minister, the defense minister, and 
foreign minister. And I tell people that since October 1979, I 
have been on a quest for the illusive Iranian moderate, and I 
have not found one yet. So the question of whether there was a 
real opportunity, whether it was a strategic opportunity or a 
tactical opportunity, I just do not know. I know that the 
administration was, in fact, having talks with the Iranians at 
that time on a wide range of issues, and I have forgotten why 
those talks were called off. But that may have been an 
opportunity.
    Senator Leahy. Our Government also for years worked 
directly and indirectly with Saddam Hussein, no leading 
moderate he, with the idea that this was a counterbalance to 
Iran. Am I overstating that?
    Secretary Gates. As I recall, particularly the first years 
of the 1980's, the reality is that at one time or another, we 
worked with both Iran and Iraq to make sure that neither one of 
them won the war.
    Senator Leahy. Well, it will be interesting if Iran would 
be anywhere near this influential if oil was still $40 a barrel 
and if the American dollar had not tanked as much as it has.

                       HOMELAND DEFENSE SPENDING

    Secretary Gates, you gave some remarks about your 
priorities in the remaining time in your position. I would 
submit there is a realm of the defense bureaucracy that needs a 
lot of attention. That's the realm of military support to 
civilian authorities in domestic emergencies. We need to make 
sure the military promptly responds to disasters at home. 
Senator Feinstein, of course, represents the largest State in 
population in the Senate and has raised that very clearly. We 
know if a major emergency occurs, whether it is something as 
terrible as the earthquakes that California has faced or God 
forbid, another terrorist attack, the military is going to have 
to be there to support civilian authorities.
    I think we have to have clear budget requests about what 
the Department of Defense is doing to purchase homeland 
defense-oriented equipment. I do not see it in the budget 
request. The Nation's Governors need concrete procedures in 
place to assure that active military personnel that arrive will 
not try to somehow usurp the authority, the Governors' 
authorities. They have not received that. We know back here a 
couple years ago it was slipped into the defense bill a 
provision, which was then repealed, that would have overridden 
Governors' authorities in an unprecedented way.
    We would like to know the Department has plans to implement 
the recently enacted provisions from the National Guard 
Empowerment Act. We have not seen that.
    I would hope you would have time to personally engage in 
this area, Mr. Secretary, before you leave. I mean, we have 
given you enough things to personally engage in to take care of 
the next 12 years of your few months left. But please 
personally engage in that because whether it is coming from a 
little State like mine or a large State of California, we have 
a concern.
    Secretary Gates. Senator, first of all, I am very 
positively inclined toward many of the recommendations of the 
Punaro Commission. I think that was indicated by the fact that 
in their interim report last year, they made 23 
recommendations. We implemented 20 of those 23 recommendations. 
We are in the midst of looking at the 95 recommendations that 
are made in the final report. But I think the fact that we 
leaned forward on the interim report, in terms of implementing 
the recommendations, is indicative of an open attitude toward 
trying to do the right thing.
    Senator Leahy. Well, I should note at this point Admiral 
Mullen spent a great deal of time in my office. He was very 
direct, very forthcoming. And Admiral, I do appreciate that 
meeting. It meant a great deal to me. It was very helpful in 
looking at this. I know it is being looked at.
    I am concerned we see a $10 billion shortfall in the Army's 
long-range budget. The Air National Guard listed $8 billion of 
critically needed upgrades. The Department of Defense metric 
has equipment stocks, the nationwide average, of 60 percent of 
required stocks.
    And I realize a great amount of attention goes to Iraq and 
Afghanistan. I am concerned that we have an equal amount of 
attention here inside the United States because of the things 
that we can face here.
    Secretary Gates. I will tell you, Senator Leahy, I have 
been paying attention to it. We had a 40 percent equipment fill 
for the guard in 2006. It was 49 percent at the end of 2007. It 
will be, as you suggest, by the end of this fiscal year, about 
60 to 65 percent. Over the next 24 months, we will put more 
than $17 billion into National Guard equipment, 16,000 trucks, 
helicopters, the full range of equipment.
    Senator Leahy. But a lot of these things have been gone. I 
mean, I look at my own State where our Mountain Brigade has 
just been alerted for 2010 to go to Afghanistan, joining with 
the military there. And we have a lot of friends in 
Afghanistan, but I see a resurgent Taliban. And I wonder how 
much we are going to have to divert to go there. Do we see any 
light at the end of the tunnel in Afghanistan?
    Are you as concerned about the resurgent Taliban as I am?
    Secretary Gates. Yes, sir, I am. I do not see a diversion 
of National Guard equipment to Afghanistan, though. And I would 
tell you----
    Senator Leahy. But National Guard members are going there.
    Secretary Gates. National Guard members.
    But one of the things that helps us a lot and that we saw 
in the tornadoes in Kansas that destroyed Greensburg was most 
States have agreements with the Guard--with the States that are 
their neighbors in terms of being able to pool equipment when 
units are deployed overseas or are not available. And it is 
that pooling that has a multiplying effect in terms of being 
able to meet the domestic need.
    Senator Leahy. I realize, but we saw, as in Katrina, 
sometimes it could take a long time to get that equipment 
there.
    Mr. Chairman, thank you very much.
    But again, I join in the praise of Secretary Gates. We have 
known each other for 25 years at least and have worked together 
on a number of issues.
    And Admiral Mullen, I thank you again. You took a great 
deal of your time to meet with me and Daniel Ginsberg and 
others the other day, and that meant a lot to me.
    Senator Inouye. Thank you.
    Senator Dorgan.

                              CONTRACTORS

    Senator Dorgan. Mr. Chairman, thank you very much. I have 
five questions I wanted to ask and we will see if we can get 
them done.
    First, I was embarrassed and I assume the Defense 
Department was by the Boston Globe article that said Kellogg, 
Brown & Root (KBR) had 10,500 Americans working in Iraq for 
KBR, but they were not listed as employees for the Houston-
based company. They were employed by a Cayman subsidiary that 
is listed at post office box 847 on Shedded Road in the Grand 
Cayman Islands. They pay $1,000 a year for the post office. No 
one is there and there is no telephone.
    In addition, AIP, which is a contractor, MPRI, which is a 
contractor--all three of these folks are hiring United States 
workers and running their employment through Cayman Island 
subsidiaries to avoid paying United States taxes. The Kellogg, 
Brown & Root spokesperson said they were set up ``in order to 
allow us to reduce certain tax obligations of the company and 
its employees.''
    And the Defense Department says it has known since 2004 
that KBR was avoiding taxes by declaring its American workers 
as employees to the Cayman Islands. Officials from the Defense 
Department said the move allowed KBR to perform the work more 
cheaply.
    Frankly, I think this sort of thing is embarrassing, and I 
put something in the supplemental that would shut this down, 
but I would hope, Mr. Secretary, you would tomorrow just 
describe a rule in DOD that if you are not going to pay your 
taxes, do not bother contracting with us. If you are going to 
run your employees through sham companies in the Cayman Islands 
and you want to do business with the Federal Government but do 
not want to pay your obligation to the Federal Government, do 
not bother coming around.
    Secretary Gates. Senator, first of all, I would tell you 
that I was embarrassed to learn in preparing for this hearing 
that you had written me about this and particularly the KBR 
issue on the 1st of April and I have not responded to you yet. 
I will within the next 48 hours.
    My understanding very briefly of a fairly complicated 
matter is that our regulations are derived from the tax code, 
and one of the reasons, I am told, that I have not gotten a 
letter to sign back to you is that our auditors have been 
trying to work with the Internal Revenue Services (IRS) in 
terms of figuring out the right answer to your question. So 
they are working on that, and I will get you an answer.
    Senator Dorgan. Well, all right. I mean, I think Congress 
will eventually find an answer to this, to say this is 
disgraceful and it is has got to stop. I would hope that you 
could do that by regulation instantly. But----
    Secretary Gates. My understanding is when we think somebody 
is inappropriately using the tax code to benefit themselves, we 
have our Defense Contract Audit Agency taking a look at it, and 
my understanding is they are looking at this at this point.

                      IRAQ SECURITY FORCE FUNDING

    Senator Dorgan. There are $2.5 billion in the supplemental 
for Iraq security forces fund training. That is the training 
and equipping of Iraq's security forces. Iraq has earned one-
third more money than was expected 2004 to 2007 from oil 
revenues. They will earn $70 billion this year. At some point, 
after we have spent close to $20 billion of American taxpayers' 
money training over 400,000 Iraqis for security police, 
soldiers, is it not time that the Iraqis perhaps would spend 
their money for training their troops and equipping their 
troops?
    Secretary Gates. Well, Senator, they are. In 2008, in 
fiscal year 2008, they will spend $9 billion compared to our $3 
billion. The trend line I think is in a direction that you 
would like. We were at $5.5 billion and helping them on 
training and equipping in 2007, down to $3 billion in 2008, and 
it will be $2 billion in 2009. So I think we are headed in the 
right direction.
    I would say that we need to scale this down gradually, 
though, so we can keep an oar in in terms of the quality and in 
terms of making sure that the training is of the kind that we 
want to make sure that they have. And they are beginning to 
move from our giving them equipment to making use of foreign 
military sales.
    Senator Dorgan. I understand the trend line. I appreciate 
that. It is the case that on this $2.5 billion we are going to 
borrow that from somebody and ante up when, in fact, the Iraqis 
are producing a great deal of oil money they did not previously 
expect. I would hope that we would ask them to do even more 
rather than just deal with trend lines.

                                  UAVS

    I want to mention--and I will not ask you about this, but 
the executive agency responsibility for unmanned aerial 
vehicles (UAVs). One of my great concerns--the fact is there is 
waste in the Pentagon. We all know that. A lot of waste in some 
cases. The services want to do exactly the same thing. The Air 
Force has UAVs. The Army has UAVs. The Air Force is producing 
their planes. The Army is producing their planes. The Army 
wants to control their airplanes at 12,000 and 15,000 feet as 
opposed to just tactical control over the battlefield, and it 
seems to me that probably ought to be the Air Force.
    And I understand from an executive agency matter, you have 
described a task force here. I further understand that one of 
my colleagues has put a little piece in a bill last year that 
prevents you from doing anything on this.
    But should we not try to avoid this kind of duplication of 
effort by the services? It has gone on forever and continues to 
go on, especially now with respect to UAVs.
    Secretary Gates. Well, I think that, first of all, this is 
an area where I have spent quite a bit of time over the last 
few months principally in an effort to try and get more 
intelligence surveillance and reconnaissance into Iraq and 
Afghanistan to help the commanders.
    The reality is I think that there are a number of 
bureaucratic problems inside the Department of Defense having 
to do with ISR. And one of my hopes is that after the task 
force has finished its work, we can sit back and look at the 
whole range of UAVs and other ISR capabilities and see the best 
way to organize this thing.
    Senator Dorgan. Well, I appreciate your work on that. We 
have got to avoid this kind of duplication. Each service wants 
to do it. It does not matter what is right for the taxpayer. 
They want to do what the other service does.

                            OSAMA BIN LADEN

    I want to ask you about bin Laden. Admiral Mullen talked 
about the most likely near-term attack on the United States 
will come from al Qaeda via these safe havens. You know, I have 
asked these questions before, but we are talking about 140,000 
soldiers in Iraq now beyond the surge. We are talking about 
borrowing a lot of money, another $102 billion in the 
supplemental, and then $500 billion plus in--and the fact is 
Osama bin Laden is reconstituting his training camps. 
Apparently he is in northern Pakistan or somewhere. And we are 
busy in Iraq when in fact the greatest threat of an attack 
against our country comes from al Qaeda. Is there a disconnect 
here?

                          ATTACK AFTER 7 YEARS

    Tell me what we are doing. I have asked this question 
repeatedly. What are we doing 7 years after our country was 
attacked by those who boasted about the attack to bring them to 
justice because they, in fact, are reconstituting their 
training camps and reorganizing. It seems to me that is a 
failure. And I do not lay that just at your feet. I am just 
saying my observation is here we are spending a lot of money 
and engaged in an area that is apart from what Admiral Mullen 
has described as the greatest threat to our homeland.
    Admiral Mullen. And I would just reiterate it is still my 
belief that if another attack comes, that it will emanate from 
the planning there because that is where the al Qaeda 
leadership is. It is a very difficult problem because this is 
sovereign territory. It is my belief--and we talk often, as we 
should, about Afghanistan, but we need to talk about 
Afghanistan and Pakistan because there is an overlap there. 
There is a border across which, obviously, Taliban come. And I 
think we need a strategy that essentially addresses both those 
countries together, particularly the overlap.
    We have got a new government in Pakistan. It is my belief 
we have got to deal with that government. My individual I deal 
with in Pakistan is the head of the army there, General Kiani, 
who I think has got a strategic view, but it is going to take 
him a while. He is in charge of an army that has not been 
fighting counter-insurgency.
    I think it is a long-term effort clearly and that there are 
some near-term things that we need to do and some things we are 
doing to address it. But it is a very, very difficult problem.
    Senator Dorgan. I would just observe--my time has ended--if 
the greatest threat to this country--an attack against this 
country is shielded by the sovereignty of some other place on 
this globe, there is something wrong with that. There ought not 
be one acre of ground that is safe to walk for Osama bin Laden, 
not an acre anywhere.
    Finally, if I might just in 10 seconds say, Mr. Secretary, 
I am going to send you some information in a letter about the 
issue of privatizing housing on bases. They are fixing to do 
that in two North Dakota bases and turn over brand new housing 
to a private contractor who will then guarantee for 50 years to 
maintain. I have great difficulty with that, and I am going to 
ask a series of questions.
    Having said all that, let me thank you for your service, 
both of you. I was asking questions that were on my mind, but I 
think this subcommittee appreciates the service that both of 
you provide this country. Thank you very much.
    Senator Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. Secretary, all of you, thank you so much for appearing 
today.

            FUTURE OF WEAPONS SYSTEMS AND ACQUISITION COSTS

    Mr. Secretary, there are a lot of important issues before 
us, but I want to focus first on the future of our military and 
the weapons platforms that they use. As you are aware, I have 
been particularly concerned about the KC-135 recapitalization 
effort, how the RFP and the evaluation of those proposals were 
handled. I have had meetings and asked questions of the Air 
Force, the National Guard, the Air Force Reserve, and members 
of your staff regarding cost and process. And I have to tell 
you I am still not satisfied.
    Last Tuesday, Mr. Secretary, you did speak to the Heritage 
Foundation, and I want to quote back to you what you said. You 
said, ``The perennial procurement cycle, going back many 
decades, of adding layer upon layer of cost and complexity onto 
fewer and fewer platforms that take longer and longer to build 
must come to an end. Without a fundamental change in this 
dynamic, it will be difficult to sustain support for these 
kinds of weapons programs in the future.''
    Now, I think you and I share a similar perspective on that 
issue. However, I would like you today to comment on concerns 
that were raised by the GAO in a couple of their reports. The 
first one was from March 6 of last year, titled ``Air Force 
Decision to Include a Passenger and Cargo Capability in its 
Replacement Fueling Aircraft was Made Without Required 
Analysis.'' The second from January of this year is titled 
``KC-135 Recapitalization Analysis of Alternatives Does Not 
Inform Decision-Makers Regarding Cost, Effectiveness, and 
Suitability.''
    So it seems to me from the beginning the Air Force and DOD 
are part of the problem that you have identified by adding 
requirements to a refueling tanker without the mandatory 
analysis. Do you have a comment on that?
    Secretary Gates. The only comment that I would make, 
because I am far from expert on this subject, is that I look 
forward to the completion of the GAO response to the protest 
that was filed to see how they come out on it.
    Senator Murray. Well, it is a problem for me that the Air 
Force did not complete the mandatory analysis and the JROC 
determined that that was okay. So I hope you take a look at 
that.
    And one of the reasons that that analysis is mandatory is 
to prevent purchasing a platform with capability that may not 
be needed. Now, we are talking about a $35 billion platform, 
and although I am being told that it was the most transparent, 
I remain unconvinced because that process was flawed on 
thorough evaluation of military construction, necessary 
maintenance staff, and fuel costs.
    How am I supposed to believe that this program is going to 
be on time and on cost if we do not have a fundamental sense 
and justification for what we are buying?
    Secretary Gates. Well, again, Senator, I am just not 
familiar enough with the details. At this point I think I just 
have to wait for the GAO report--investigation to see what 
their conclusions are on it.
    Senator Murray. Can you give me any sense that this 
program, unlike others, is not going to go over budget and miss 
deadlines because we have not fully evaluated all the costs?
    Secretary Gates. I think a Secretary of Defense who would 
give you an assurance like that prospectively would be on very 
thin ice. I think that happens to so many programs. I mean, it 
is one of the problems in acquisition that we have and that we 
are trying to deal with, frankly.
    Senator Murray. Well, I am worried that the acquisition 
process in general is not serving our needs. I have heard again 
and again that only cost, technology, and capability can be 
considered in an acquisition. You know, perhaps that is not 
enough.
    At the same Heritage Foundation event, you were quoted in 
the Washington Post, I think it was, as saying, ``I believe 
that any major weapons program, in order to remain viable, will 
have to show some utility and relevance to the kind of 
irregular campaigns that I mentioned are most likely to engage 
America's military in coming decades.''
    Now, I have to say I am deeply concerned that the EADS 
platform has a lower score on survivability than the Boeing 
767. Should we not be buying the most survivable tanker? I 
mean, should that not be a higher consideration?
    Secretary Gates. Well, again, I am no expert on this, but I 
would say that just based on our experience, after 5 years of 
war in Iraq, that survivability of our tankers has not been a 
particular problem.
    Senator Murray. Well, let me ask you, do you think we need 
to make changes in the way we do acquisitions to take into 
account everything that is important?
    Secretary Gates. You know, you have quoted the three 
criteria that limit us by law in terms of what we can look at: 
technology, cost, and capability. And the law is very explicit, 
as I understand, that we cannot look at anything else. So the 
only way to correct that would be to change the law.
    But my only caution in changing the law is that all of our 
companies sell a lot of equipment to other countries, and so I 
think we need to be very careful about how we limit access in 
bidding and the criteria we take into account because what we 
gain over here we may lose over there.
    Senator Murray. Well, is it possible--I mean, should we as 
Congress be thinking about the fact that in trying to give our 
warfighters the lowest price possible that we could, in fact, 
be undercutting our own ability to protect our country in the 
future? Should we ever take that into account?
    Secretary Gates. Well, my personal view would be anything 
that affects our long-term national security should be taken 
into account, but as I say, in this particular case, that would 
require a change in the law.
    Senator Murray. Well, as you said, you can only take into 
account cost, capability, and technology, but in Congress, we 
have to take a lot wider purview. We have a duty to do what DOD 
cannot do. We have to look at unfair competition. We have to 
look at the impact of companies who are using illegal means to 
break into the U.S. defense and commercial markets. We have to 
look at the long-term security of the United States. We have to 
look at our industrial base. We have to look at the industrial 
capability of our country far into the future. We have to make 
sure we have a level playing field. In regard to subsidies, 
Barry amendment compliance, all of that. We have to ask if that 
is coming at a cost to our domestic companies.
    So when DOD is limited to just three narrow things, I fear 
that we are handicapping the U.S. industrial base in the 
future. Is that a concern that Congress should be looking at 
from your point of view?
    Secretary Gates. Well, I think I have had a concern about 
our industrial base, particularly for defense and intelligence, 
for about 20 years now, and I think that the consolidation of 
industry and the fewer and fewer companies that are able to bid 
on and produce what we need is a concern.
    Senator Murray. Well, I share that concern, and I know you 
have a close association with higher education. Attracting 
workers into a dynamic field is critically important. In our 
aerospace industry, we need engineers and mechanics and a whole 
range of people thinking into the future. We have to have an 
aerospace industry here that is strong if we want to attract 
people into that field. I would assume you would agree with 
that as well.
    Secretary Gates. Yes.
    Senator Murray. Well, I have a lot of questions about this, 
Mr. Secretary, and some deep concerns, and I hope at some time 
you and I can have a more private conversation about that and 
the acquisition process and what we as Congress have to be 
thinking about and looking at into the future.
    And I only have a second left. I did want to thank you for 
following up last year. We talked about traumatic brain injury 
and making sure that we are tracking our soldiers better. I do 
want you to know we did have a hearing recently with the 
National Guard and there was a young soldier in the audience 
who I asked if he had been tracked. He was in the vicinity of 
two major explosions. And no one had ever asked him. And I just 
want to make sure that we follow up and are doing what you are 
trying to do in the National Guard and Reserve as well to make 
sure that we do not lose those folks when they come home.
    Secretary Gates. Absolutely.
    Senator Murray. Thank you, Mr. Secretary.
    Senator Inouye. Thank you very much.
    Senator Cochran.

                          DOD FINANCIAL STATUS

    Senator Cochran. Mr. Chairman. Secretary Gates, Admiral 
Mullen, thank you very much for your cooperation with our 
committee being here to testify in support of the request for 
supplemental funding.
    In preparation for the hearing, my very able staff provided 
me with information about your dealings with the House 
Appropriations Committee and other committees here in the 
Congress on the subject of adequacy of funding for critical 
programs and challenges that we face in Iraq and elsewhere, our 
overall needs to protect the security interests of our country. 
And I am alarmed by some of the conclusions that I drew from 
this information. I am asking this in the form of a question 
for you to confirm or explain these conclusions that I have 
reached in looking through my briefing papers.
    The Army will run out of personnel funds by mid-June. 
Reprogramming actions will be initiated next week to borrow 
from the other services, but all services will run out of 
military personnel funds by late July. The Army will run out of 
operation and maintenance funds by early July, including funds 
for civilian personnel. Reprogramming will allow operations to 
continue until late July.
    The critical commander's emergency response program is used 
to fund local projects in Iraq and Afghanistan, and it will run 
out of funds in June. And reprogramming actions cannot be taken 
to extend this account.
    Added to this is an observation that we drew from comments 
that have been made by leaders of the subcommittee over on the 
House side that there is a likelihood that consideration of the 
fiscal year 2009 defense appropriations bill may be deferred. I 
wonder what your conclusions would be about the impact that 
would have on the Defense Department in terms of its fiscal 
year 2009 appropriations bill not being passed.
    Secretary Gates, would you like the first crack at that?
    Secretary Gates. Yes, let me start and then turn it over to 
Admiral Mullen.
    First of all, on all of the information with respect to 
what happens in the absence of the fiscal year 2008 
supplemental, war on terror supplemental, what you said is 
exactly right. All of those things will happen just as you 
described them.
    With respect to fiscal year 2009, I must say I was very 
concerned when I read that there may not be a fiscal year 2009 
base budget because--let me just give you a few examples of the 
consequences of a continuing resolution for fiscal year 2009 
for us.
    First of all, we would lose nearly $9 billion, $8.7 
billion, for growing the Army and the Marine Corps. So since we 
can only spend under a continuing resolution in 2009 what we 
spent in 2008, the $8.7 billion additional dollars we need for 
growing the Army and the Marine Corps we would lose.
    We would lose $246 million additional we need to stand up 
the Africa Command.
    We would lose $1.8 billion for base realignment and closure 
(BRAC) which includes barracks, day care centers, family 
facilities, and so on.
    We would lose $1 billion on search and rescue and mobility. 
We have 14 UAVs, Predators, that represent new money in the 
2009 budget, and that we would not have access to as a result 
of a continuing resolution.
    And the list goes on and on. Anything in which there is 
more money in the budget for reconstitution, for rebuilding our 
forces, for improving readiness, any increment between the 2008 
and 2009 budget would be lost under a continuing resolution. So 
a continuing resolution of some length of time would be a real 
problem for you.
    And I will give you an example of the result of this. In 
fiscal year 2007, we did not get the supplemental until May. 
That supplemental had significant dollars in it for BRAC, and 
we then had 4 months to contract and obligate that money out of 
an entire fiscal year. So we lost about $500 million, not to 
mention 8 months in terms of meeting the BRAC statutory 
deadline. So the consequences of these continuing resolutions 
are real for us in the way we manage the Department.
    Senator Cochran. Thank you.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join the members of the 
committee in welcoming Secretary Gates and Admiral Mullen to 
this hearing.
    The witnesses represent over 3 million active duty, 
National Guard and Reserve forces, and civilian employees with 
a presence in over 160 countries around the world many of whom 
have been deployed in the Global War on Terrorism since 
October, 2001.
    Our Armed Forces have also been engaged in humanitarian 
operations in places like Central America, Bangladesh, the Horn 
of Africa, and more recently, the storm ravaged areas of Burma 
and earthquake stricken region of China. I remain proud of our 
men and women who serve in the Armed Forces and the impact they 
have as a force for democracy around the world.
    Secretary Gates, in your written testimony, you mention the 
immediate need for Supplemental Appropriations funding to 
support our men and women in uniform as they perform their 
missions in Afghanistan, Iraq, and the Global War on Terrorism. 
As you know, last week the full Appropriations Committee 
approved Supplemental Appropriations funding for fiscal years 
2008 and 2009, and we are currently considering this 
legislation on the Senate floor--I hope for quick passage.
    Thank you for your leadership and continued service to our 
country and our men and women in uniform.

                               IRAQ TRIPS

    Senator Inouye. Admiral Mullen.
    Admiral Mullen. Doable as the Secretary has previously 
indicated, but consequences of great significance. I will speak 
to two examples.
    In my last two trips to Iraq, I am at a joint security 
station in Baghdad with a young captain who is--and this is 
February timeframe--who has provided the security and has 
essentially allocated all of his CERP money, his emergency 
response money, for the quarter, by the end of March. Now, that 
is as a result of the needle valve that the commanders in Iraq 
were applying because of both authority as well as the funds 
which were due to run out. So the extension of the security 
environment into the area to put Iraqi civilians to work in 
terms of security and to fund local projects, which would 
improve the future of Iraqi citizens, was essentially on hold 
as early as February in this one place.
    Not too long after that, I was with the 3rd Division 
commander who has done extraordinary work, General Rick Lynch, 
and the only thing he asked me about, given what he has done 
from a security standpoint, is he needs that money because he 
has got to fund the security forces, the Iraqi civilians, as 
well as the projects. He had had great success with it. So that 
is real impact on the ground to get where we need to go.
    And then back here, only to re-emphasize what the Secretary 
said, as a former service chief, who has had to go through 
multiple reprogrammings, deadlines like this, it brings the 
organization almost to a halt, and then when you get to 
execute, you execute very inefficient, very late contracts 
which, in fact, is a significant waste of money. Everybody in 
DOD, and particularly the services, start to anticipate not 
having the money. Even knowing it may come, if it comes late, 
it has a devastating impact on the ability to execute, not even 
to speak to new programs similar to what the Secretary has 
spoken to in terms of what would happen in 2009 on a continuing 
resolution.
    Senator Cochran. Well, thank you very much. It grieves me 
to have to acknowledge that we have met the enemy and he is us, 
the old line from Pogo, I think. And I worry that the Congress 
is becoming an impediment to the efficiency and to the 
capability of our Government and our Department of Defense 
particularly and our challenge to protect the security of our 
troops who are put in harm's way and sent on dangerous missions 
and others we are trying to train and get them prepared to take 
over other responsibilities for national security. And all of 
us are going to be at risk in some way because of the slowdown 
and slow-walking of the appropriations process by the United 
States Congress. I think it is unfortunate, but I am afraid it 
is real.
    So your being here and your helping to explain the 
practicalities of our delays is appreciated very much and your 
leadership is deeply appreciated as well. Thank you.
    Senator Inouye. I thank you very much.

                          DRAFT REINSTITUTION

    I realize the time constraints, so I will ask one question, 
the question that no one wants to ask, and I will submit the 
rest to you, Mr. Chairman and Mr. Secretary.
    Mr. Secretary, between 2000 and 2006, military personnel 
compensation costs increased by 32 percent for active duty and 
47 percent for Reserve personnel. We are now spending about 
$180 billion a year on pay, benefits, and healthcare for our 
armed forces. And according to the GAO, this equates to 
$126,000 per service member.
    And my question is, is the cost of maintaining an all-
volunteer force becoming unsustainable, and second, do we need 
to consider reinstituting the draft?
    Secretary Gates. Let me answer and then invite Admiral 
Mullen to answer.
    I think that your commanders would tell you that this is 
the finest Army the United States has ever fielded, 
particularly the Army, but all of the services in terms of 
quality, in terms of resilience, in terms of dedication, and in 
terms of skill.

                            VOLUNTEER FORCE

    I think that there is no question that it is expensive. 
When I was in Ukraine a few months ago, they told me they were 
thinking about going to a volunteer force, and I said, well, 
you better think carefully about it because it will be very 
expensive. And one of the huge differences between a volunteer 
force and a conscription force is the attention that must be 
paid to families and taking care of families of soldiers, 
whether they are deployed or not, and making sure that the 
families have access to the kind of services and so on. So it 
is not just the soldiers.
    I would tell you that I personally believe that it is worth 
the cost, and I think that in some ways the burden--I do not 
know the demographics specifically, but just as an example, I 
know that there are a number of Members of Congress who have 
sons and daughters in the military. There are sons and 
daughters of well-to-do families from across the country who 
are in our military. So I think that it does encompass a 
socioeconomic range in the country so that we do not have just 
one slice of the society that is serving.
    I think that it would be a real problem to try and go back 
to the draft.
    Admiral Mullen. The military with whom I serve now is the 
finest military by orders of magnitude that I believe we have 
ever had and certainly by direct comparison of when I was 
commissioned in 1968. And I believe the single biggest reason 
for that has been the fact that we have gone to an all-
volunteer force, and they emanate excellence in everything that 
they do. This is the most critical investment that we make in 
terms of the Department of Defense in our people.
    That said, your citing of those statistics is of great 
concern to me because a future that argues for or, in fact, 
results in the continuous escalation of those costs does not 
bode well for a military of this size. Eventually--I mean, 
there are limits which we will hit and the constraints that 
exist will force us to a smaller military or force us away from 
any kind of modernization or programs that we need for the 
future or curtail operations. And I think this issue, which is 
such a challenging one, is the top issue with which we need to 
come to grips not just in the near term but in the long term. 
This was cited as well by Arnold Punaro in his report.
    And our military and our families have been incredibly well 
supported. The overall compensation package since the mid-90's 
has gone up dramatically and rightfully so, and nobody knows 
that better than you. We must continue to take care of them and 
at the same time look at how we address this issue long term 
because we cannot--I do not see us as a country being able to 
afford the kind of cost increase at the rate they have occurred 
over the last several years, as you have quoted. That said, we 
have got to have this right for our people or essentially we 
will not have a military to support our national security 
efforts.
    Secretary Gates. Mr. Chairman, let me go back to an issue 
that you raised in your opening statement because it is one 
area that not only concerns us but where we believe we have to 
get it under control, and that is the cost of healthcare. 
Healthcare costs in the military for the Department of Defense 
have gone from about $19.5 billion in 2001 to $42.8 billion for 
fiscal year 2009. By fiscal year 2011, 65 percent of the people 
being served by that budget item will be retirees. Now, the 
problem is many of those are still working retirees. They are 
retired from the military, but they are in reasonably good 
health or very good health and they are working another job.
    And we have not had an increase in the premium, in what the 
service member pays for TRICARE, since the program was 
initiated. It has been a real issue here on the Hill, but it is 
one of those areas where, as you mentioned, we have over a $1 
billion hole in the budget because we keep hoping, as the 
Commission on Military Medicine recommended, that we can get 
agreement to make some modest increase in the TRICARE premium 
for those who are not yet at retirement age, 65 or 62 or 
whatever it is. And so this is an area where we may be able to 
have some kind of impact on those dramatically rising costs 
without impinging on those who are in the service today.
    Senator Inouye. Thank you very much.
    Senator Domenici.

                   REDUCING DEPENDENCE ON FOREIGN OIL

    Senator Domenici. Thank you very much. First of all, Mr. 
Chairman, I apologize for being late. I had three hearings and 
I was very insistent that I make this hearing, as I have tried.
    Let me talk about a subject that I have asked my staff 
about and it has not been broached today, so I will not 
duplicate. Two of my other issues have already been addressed 
and I will not ask about them.
    But let me ask both the Secretary and the Chairman if they 
could talk a minute about the fact that our country is so 
dependent upon foreign oil or foreign energy for our very 
existence, including the existence of our military. We now 
import over 65 percent of what we use. At the same time, we are 
trying very hard to develop alternative sources of energy. Of 
those alternatives, some have to do with the development of new 
technologies and new innovations like--I will just give you an 
example--converting oil shale up in Colorado and Utah to diesel 
fuel at the minimum and then to perfect it even further.
    We are interested now in the new technology of converting 
coal to liquid. That liquid would be of various kinds, but at 
first it would be at least diesel that could be used in all of 
the military equipment of the country.
    So I wonder if anything is going on that you can recall 
that has the military involved in trying to put together this 
kind of package that is going to be required to move this kind 
of technology and development along. Is there anything going on 
like considering purchase agreements for companies that develop 
new sources of alternative energy? That would be one way where 
you could be of great help. Is there anything going on there in 
that field, Mr. Secretary?
    Secretary Gates. Senator Warner raised this with me at a 
breakfast that I had with the Senate Armed Services Committee 
leadership last week, and I promised to get back to him. And we 
will get back to you.
    I think we do have research dollars involved in alternative 
energy programs. I would tell you also that we have some very 
interesting recovery projects. I just visited the Red River 
Army Depot a week or so ago. When they bring back the HMMWV's 
and Strykers and tanks, everything from the theater, they still 
have the fluids in them, the gasoline and oil and so on. And 
they have a contract with a private company that takes all of 
that stuff, re-refines it, and sells it. So they make several 
million dollars back for the taxpayers simply by not throwing 
away this used fuel and petroleum products.

                             FUEL CREATION

    But we can get back to you with the specifics on the energy 
programs that we have underway in alternative energy.
    Admiral, do you have anything?
    Admiral Mullen. The only thing I would add, Senator, I 
think clearly this crisis needs to be addressed and investments 
in those kinds of technologies would be very important.
    I also would praise in particular the Air Force who has 
taken a lead on flying on synthetic fuels and, in fact, has 
flown an awful lot of their aircraft, including a B-52 and I 
believe----
    Senator Domenici. That is correct.
    Admiral Mullen [continuing]. A B-2--a B-1 or B-2. I cannot 
remember. And their initiative and their efforts are 
significant. You know what we invest in each year for fuels, 
and we have got to look for more diversity.
    Senator Domenici. It was a B-1.
    Let me say that I would like to know what kind of money and 
projects you have in alternative fuel creation, but I want to 
stress another point and then I will be through. It is late.
    In order to get some of this technology perfected, we are 
going to reach a point where they are going to want to sell 
their product to Wall Street to finance a $5 billion plant for 
something. In order for that to happen, somebody has to be the 
purchaser of the product, and what seems to me inevitable and 
quite appropriate is that the military could agree to contract 
to purchase the product for 10 years because you are going to 
need that much. You could just document that you need 10 times 
that much, but you would be the assurance to this investment in 
this new technology, that if it proves up, you will buy it for 
a given length of time.
    Now, would you check and see if you have such authority? 
Because if you do not, we ought to give it to you because they 
are going to be knocking on your door in two or three areas 
within the next couple years. One clearly coal to liquid where 
they are going to be building very big facilities and they are 
going to have to have a buyer or two, and they are going to go 
to the military. And that is very appropriate in my opinion. 
You are going to get it at market value anyway. It does not 
matter where you buy it, buy American made or buy it overseas. 
And they will be producing it.
    Believe it or not, Shell Oil, S-h-e-l-l, is only a few 
years away from shale oil conversion right out of the field. In 
situ they call it, as you have heard. And they are just going 
to boil it in the ground and take it out, you know, just take 
it out like you would suck out from a can of Coke. What they 
will be taking out will be a fuel of certain sorts. And 
clearly, they are going to need a purchaser or two so that they 
will have that backed when they finance their bigger projects. 
I just want to get you all involved in thinking about it 
because it is certainly going to be in the ball game, and you 
will be important players.
    And I thank you for listening, and whatever you can give me 
on that, it would help me so we would only bother to add on to 
such authorities if it is needed. Thank you.
    Senator Inouye. Thank you very much, Senator.
    Senator Domenici. Thank you.

                               CONCLUSION

    Senator Inouye. Mr. Secretary and Admiral, we very much 
appreciate your appearance today and your testimony. With this 
hearing, the subcommittee concludes its overview of the defense 
budget. Our final hearing will be with members of the public. 
And I can assure you that this subcommittee will act 
expeditiously as we have in the past.
    As you have heard today, Secretary Gates, the subcommittee 
has many questions regarding your Department and your budget 
requirements, and as we have pointed out, you have offered many 
candid views over the past several months regarding 
shortcomings in the equipping and management of our forces. In 
the next week, the subcommittee will meet to consider your 
defense needs and formulate a set of recommendations for 
funding.
    So, Mr. Secretary, in advance of this review, allow me to 
make this offer. If there are items in the fiscal year 2009 
budget request which you no longer wish to prioritize or items 
which you would like to increase, please feel free to inform us 
officially or unofficially and we will take them under 
consideration.
    Secretary Gates. Thank you, sir.
    Senator Inouye. And, gentlemen, we thank you for your 
testimony and look forward to working with you as we refine our 
views on the fiscal year 2009 defense appropriation 
requirements.

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Secretary, I gather this is your last appearance before 
this subcommittee. I am certain every member of this 
subcommittee appreciates your leadership and your contributions 
to our country.
    Secretary Gates. Thank you.
    Senator Inouye. We thank you very much, sir.
    Secretary Gates. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to Robert M. Gates
             Question Submitted by Senator Daniel K. Inouye
    Question. Mr. Secretary, I am concerned that the Missile Defense 
Agency has decided to cancel the next ground-based flight test instead 
of delaying it a few months until the problem with the ground-based 
interceptor is resolved. This means that no ground-based intercept test 
will be done in fiscal year 2008, even though nearly $300 million for 
two intercept tests was appropriated in the 2008 budget. Why was this 
decision made, and were you consulted about the cancellation of this 
test?
    Answer. A critical test component failed on the test interceptor 
during pre-test operations. Specifically, the Flight Test Ground-Based 
Interceptor (FTG)-04 Exo-atmospheric Kill Vehicle's (EKV) Pulse Code 
Modulation Encoder (PCME) within the flight test telemetry system 
failed during the final interceptor readiness test in the Vandenberg 
Missile Assembly Building. While the PCME is on all EKVs, the PCME is 
only used during flight tests and has no role or impact on an 
operational interceptor. However, because interceptor telemetry is 
crucial in the conduct of a flight test to verify EKV performance post 
flight, the Missile Defense Agency (MDA) decided to not conduct any 
flight test of the Ground-Based Midcourse Defense (GMD) Interceptor 
(GBI) until the cause of the PCME failure was determined and action 
taken to correct the problem. The failure analysis, completed in May 
2008, determined that the EKV had to be returned to the manufacturer 
for disassembly, PCME replacement, and reassembly. Interceptor 
reintegration, emplacement, and post-emplacement operations and testing 
at Vandenberg Air Force Base results in an early December 2008 flight 
test mission.
    The Agency considered several test options to demonstrate multi-
sensor integration and intercept of a target with countermeasures this 
calendar year. The Director MDA, after assessing all flight test 
options, decided to proceed with a non-intercept (simulated GBI fly-
out), multi-sensor integration flight test in the July-August 
timeframe, namely FTX-03. Test objectives relating specifically to the 
FTG-04 intercept will be deferred to FTG-05, the next GMD intercept 
mission is currently scheduled early December 2008. FTX-03 has been 
identified to replace FTG-04. FTX-03 will be a multi-sensor, integrated 
test designed much closer to the FTG-05 test configuration and serves 
as enhanced risk reduction. This approach allows the Agency to 
demonstrate multi-sensor integration and an intercept of a target with 
countermeasure this calendar year. The end result is that all 
objectives of the original FTG-04 and FTG-05 will still be accomplished 
with the conduct of FTX-03 and FTG-05.
    MDA reports directly to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD(AT&L)) on missile defense 
matters. The Director, MDA made the technical decision to change FTG-04 
to a sensor integration test, FTX-03, in consultation with the Under 
Secretary of Defense for Acquisition, Technology, and Logistics and 
notifications were made immediately to the Director, Operational Test 
and Evaluation (DOT&E); USSTRATCOM through the Commander, Joint 
Functional Component Command--Integrated Missile Defense (JFCC-IMD); 
Missile Defense Executive Board (MDEB) members, congressional staff, 
and the Warfighters.
    Additionally, AT&L, Operational Test Agencies (OTAs), and 
USSTRATCOM (JFCC-IMD) participate in MDA's Program Change Board (PCB). 
As changes were made to the test program, these stakeholders have been 
fully informed on the course of action and adjustments will be 
reflected in the Warfighter Operational Readiness and Acceptance 
Program.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                                suicide
    Question. Over the past year, Congress has provided hundreds of 
millions in funding to the military to improve mental health care for 
our troops. Over the past 6 years, the suicide rate for active-duty 
soldiers has grown from 9.8 per 100,000 in 2001 to 17.5 per 100,000 in 
2006.
    What specific actions is the DOD taking to reduce suicide?
    Answer. We deplore the loss of any life to suicide and are saddened 
by the traumatic impact on families and coworkers who are burdened with 
the grief of losing their loved ones and fellow professionals.
    Partnering with civilian institutions, our military departments 
have initiated aggressive suicide prevention programs. They employ a 
myriad of preventive and supportive programs to improve awareness of 
signs of distress; address and resolve contributing factors; and 
provide professional consultants and care givers through referral 
programs. We emphasize suicide awareness and prevention; train 
frontline supervisors to look out for subordinates and intervene when 
subordinates and family members may be at risk; assess and manage 
suicide risk, and increase availability of professional military family 
life consultants to care for service members and their families. Also, 
we use lessons learned from previous suicides to develop suicide 
prevention videos written and directed by military members; and use 
web-based distance learning courses on suicide prevention for refresher 
training and at geographically separated units. Additionally, we 
benefit greatly from our association with, and use of, resources from 
professional civilian organizations like American Association of 
Suicidology and Uniformed Services University of Health Sciences.
    While there are several reasons for suicides, one fact we do know 
is that multiple and lengthy deployments have placed a great stress on 
our families. In an attempt to mitigate some of this stress, the 
services continue to provide aggressive suicide prevention programs. We 
will continue to monitor progress toward our objective of preventing as 
many suicides as possible.
                                tbi/ptsd
    Question. According to a recent RAND study, one in five Iraq and 
Afghanistan veterans suffer from PTSD. 19 percent report a possible 
traumatic brain injury during their deployment. Only half have sought 
treatment because of the stigma attached with seeking treatment and 
because of concerns about the quality of care. According to RAND, half 
of those who request treatment receive only ``minimally adequate'' 
support.
    What steps is DOD taking to encourage servicemen and servicewomen 
to pursue help and to address the reasons why treatment is not sought?
    Answer. The RAND study defined Post Traumatic Stress Disorder 
(PTSD) as the presence of symptoms and did not involve a clinical 
assessment. Symptoms of traumatic stress are to be expected among those 
who have been in combat or had other traumatic exposures. For many, 
these symptoms do not lead to significant distress or impairment and 
for most, these symptoms will resolve with little or no clinical 
intervention. For individuals who do not meet full criteria for PTSD 
there is no universal recommended number of visits.
    Additionally, the RAND study used an arbitrary number of visits as 
its criterion for ``adequate'' treatment. Many Service members improve 
with fewer treatment sessions of treatment and no longer require 
additional visits.
    All of the Services have programs that teach deploying Service 
members the symptoms of deployment-related stress, how to manage the 
stress of deployment, and how to recognize symptoms in others that 
might lead to a clinical concern. These programs stress the importance 
of seeking care if their symptoms cause significant distress or 
impairment in any aspect of daily functioning. These programs are 
provided before deployment and upon return from deployment. They also 
include components of education to family members so that they can 
encourage an evaluation if they observe persisting or troubling 
symptoms.
    Each Service member also receives a post deployment health 
assessment with a clinician at the time of return and a repeat 
assessment three to six months after return. A clinical decision is 
made at that time whether a mental health referral would be beneficial 
to the member. The Army is also piloting programs to better educate 
primary care managers to screen for mental health problems and refer to 
a mental health specialist when appropriate.
    Finally, there is a significant push within the Department of 
Defense for line leadership responsibility for psychological health- 
and resilience-based initiatives within operational units. This is 
consistent with findings that unit morale, unit cohesion, and faith in 
leadership are protective factors in keeping warriors psychologically 
fit. The Defense Centers of Excellence's anti-stigma program, ``Real 
Warriors. Real Battles. Real Strength.'' reinforces this critical 
message of line leadership support.
    Question. Why are military members receiving subpar support? What 
is your response to the finding that half of the treatment received is 
only ``minimally adequate?''
    Answer. A number of initiatives have begun to address increased 
support. The Department of Veterans Affairs (VA) and the Department of 
Defense (DOD) have launched a joint federal care coordination system to 
address the needs of polytrauma patients. Defense and Veterans Brain 
Injury Center/Defense Centers of Excellence has launched a care 
coordination system focusing on Traumatic Brain Injury (TBI) patients 
with persistent needs. These programs are assisting by linking Service 
members with state and local resources in addition to the federal 
resources available to them.
    The Department screens all recently deployed Service members for 
Post Traumatic Stress Disorder (PTSD) and TBI via the Post Deployment 
Health Assessment and Post Deployment Health Re-Assessment. In 
addition, the VA screens for possible PTSD and TBI among all OEF/OIF 
veterans seen for medical care.
    The RAND study defined PTSD as the presence of symptoms and did not 
involve a clinical assessment. Symptoms of traumatic stress are to be 
expected among those who have been in combat or had other traumatic 
exposures. For many, these symptoms do not lead to significant distress 
or impairment and for most, these symptoms will resolve with little or 
no clinical intervention. For individuals who do not meet full criteria 
for PTSD there is no universal recommended number of visits.
    The RAND study used an arbitrary number of visits as its criterion 
for ``adequate'' treatment. Many Service members improve with fewer 
treatment sessions of treatment and no longer require additional 
visits.
    Question. The truth is that mental health treatment remains a 
stigma in our armed forces. Junior enlisted and officers play an 
important role in furthering a frank discussion about the benefits of 
mental health treatment.
    What efforts have been made to have junior leaders, both enlisted 
and officer, trained to identify the symptoms of PTSD?
    Answer. In addition to DOD efforts to reduce barriers preventing 
Service members from seeking help, the Services remain committed to 
training all leaders to identify subordinates, coworkers or friends who 
may require care.
    The Air Force perspective is, most importantly, leaders should be 
proficient in recognizing Airmen in distress and referring them for 
assistance. Prevention education programs (suicide prevention training, 
Landing Gear, Frontline Supervisors Training) all clearly articulate 
the varied symptoms of distress and how to link Airmen with mental 
health care. In particular the pre- and post-deployment prevention 
education program, Landing Gear, does describe the symptoms of PTSD in 
detail.
    Marine Corps Combat Operational Stress Control (COSC) classes are 
currently held in some career schools. The Training and Education 
Command is further developing and standardizing curriculum and 
including standards and tasks in Marine Corps Training and Readiness 
Manuals. Training in established courses and career schools is being 
implemented at all levels, including Command and Staff College 
Symposium (ongoing), Senior Enlisted Symposium (ongoing), enlisted 
professional military education courses (in process), career officer 
schools (in process) and Command and Staff College Distance learning 
(ongoing). The Operational Stress Control and Readiness (OSCAR) program 
embeds mental health practitioners and technicians into ground 
operating forces at the regimental level, to aid prevention and early 
identification of combat stress problems through increased trust and 
familiarity between Marines and the mental health professionals. A 
Leaders Guide for Managing Marines in Distress website and pocket guide 
provide quick access to information and tools for solving high-risk 
problems. Manpower and Reserve Affairs maintains a COSC page on its 
website for junior leader reference and use. Downloadable workshops to 
assist audiences in recognizing and identifying combat stress problems 
are available for senior leaders, marines, sailors and family members 
for pre-deployment, return from deployment, and post-deployment (60-120 
days). The annual USMC COSC Conference provides concurrent workshop 
tracks for leaders, providers, families and other topics. The focus is 
on attendance by Marine leaders at all levels to learn more about 
combat operational stress and leadership responsibilities in 
prevention, identification and treatment.
    The Navy's Combat Operational Stress Control (COSC) for Caregivers 
course has trained over 900 chaplains, nurses, corpsmen, religious 
programs specialists, Fleet and Family Service Center personnel and 
line leaders in early recognition and response to stress injuries. 
OSCAR embeds mental health practitioners and technicians into ground 
operating forces at the regimental level, to aid prevention and early 
identification of combat stress problems through increased trust and 
familiarity between Marines and the mental health professionals. COSC, 
including the stress injury continuum, leader expectations, combat 
operational stress first aid, and peer assessment is incorporated into 
Navy Individual Augmentee training at Fort Jackson, GA. In addition, 
the Navy COSC website and Navy Individual Augmentee Guides for sailors, 
families and commands were published in March 2007.
    In the Army, over 900,000 solders participated in chain teaching 
last year, including the identification of symptoms of PTSD. This 
education on the signs and symptoms of PTSD is continuing as part of 
pre-deployment, deployment and post-deployment cycle of resilience 
training for soldiers and families. Multiple training sites are 
available on various Army web sites to help officer and enlisted 
personnel become more aware of PTSD. Physicians, nurses and medics also 
receive specialized training in the identification of signs and 
symptoms of PTSD as part of clinical training and refresher training 
programs.
    Although Service-specific, the Army's Mental Health Advisory Team V 
study results linked to efforts to train junior leaders appears 
positive, and can most likely be extrapolated to other Service's 
efforts. 85 percent of soldiers who answered the survey about the 
training found the training useful. Soldiers reported significant 
increase in training adequacy for managing the stress of deployments 
and for identifying soldiers at risk for suicide. The number of 
clinical visits for PTSD has gone up; this is probably a combined 
result of increased screening, increased demand, and the chain teaching 
and other related teachings called Battlemind. Soldiers' perceptions of 
the stigma associated with mental health care were significantly lower 
in 2007 compared with 2006. Although the numbers of soldiers screening 
positive for mental health problems in 2007 was similar to 2006 and 
other years, they reported significantly lower levels of impaired work 
performance as a result of stress or emotional problems than in 2006. 
MHAT study results indicate Behavioral Health personnel conducted 
significantly more command consultations in 2007 compared with 2006. 
Soldiers reported receiving more mental health care, and 17 percent had 
received medications for their symptoms. Primary Care personnel report 
significant increase in the number of medications prescribed for sleep, 
depression, and anxiety relative to 2006. Military Health System-wide 
metrics also indicate an overall increase in numbers of in-theater 
mental health encounters. It remains unclear whether these findings are 
a result of increased mental health distress, increased numbers of 
medical personnel or increased awareness on the part of healthcare 
personnel, but in light of other decreased measurements of stress/
emotional impairment of work performance, it would suggest that 
increased awareness on the part of leaders and medical personnel is 
having a positive effect.
    At the DOD level, the Defense Centers of Excellence (DCoE) for 
Psychological Health and Traumatic Brain Injury were established to 
assist in this endeavor by providing leadership, facilitating culture 
change and advocating a consistent, evidence-based approach across the 
Services, tailored to DOD/Service member needs. As of August 27, 2008, 
52 DCoE staff are on board, and staffing numbers are projected to reach 
155 by October 31, 2008. Eight directorates are now at initial 
operating capability: (1) Resilience and Prevention, (2) Training and 
Education, (3) Clearinghouse, Outreach and Advocacy, (4) Psychological 
Health Clinical Standards of Care, (5) TBI Clinical Standards of Care, 
(6) Research, QA Program Evaluation & Surveillance, (7) Telehealth and 
Technology, and (8) Strategy, Plans and Programming. Among many other 
actions, DCoE has already established a public website and a wide-
reaching newsletter for Service members, family members and 
clinicians--all in an effort to educate, facilitate treatment and 
decrease stigma. The Center is actively at work standardizing Service 
curricula. Completion of DCoE CONOPS and internal assessment metrics is 
projected for September 1, 2008. Standardization and centralization of 
DOD data collection and analysis should begin to yield initial 
objective data for DOD-wide assessment of our programs by year's end.
    To encourage Service members to pursue help and to address 
potential reasons why treatment is not sought, the DCoE endorses the 
Resilience Continuum Model which represents a cultural shift from 
treatment of illness to psychological health. The model promotes 
psychological health activities as a readiness issue and combat 
multiplier (seeking care when needed is considered a psychological 
health activity). The model will also be used to teach and train 
commanders and leaders at all levels to encourage their peers and 
subordinates to seek care when needed. There are several reasons why 
Warriors may not seek care. One reason (which is perhaps an under-
recognized reason) is the lack of self awareness. It is common for 
Warriors to be unaware that they are in need of help. The Resilience 
Continuum Model can teach/train Warriors to recognize symptoms of 
distress, including PTSD, and to apply proven tools that build 
resilience to mitigate risk, maximize performance, and prevent 
dysfunction. The Resilience Continuum Model will roll out on November 
18, 2008 as part of the DOD Resilience Conference.
    Question. Should such training be mandatory for leaders before he 
or she assume responsibility for other military members in combat?
    Answer. Marines: Yes, this training should be mandatory. The Marine 
Corps continues to stress the importance of recognizing and combating 
PTSD and other related stress problems incurred during combat 
operations, deployed situations, and demanding garrison support of 
these missions. The Marine Corps will maintain and further develop and 
incorporate standardized COSC training in career schools while 
continuing to stress the importance of utilizing the Leaders Guide for 
Managing Marines in Distress.
    The Air Force believes requiring such training is reasonable and it 
is already incorporated into existing AF practices. All AF leaders are 
required to attend annual suicide prevention training, which provides 
excellent training on recognizing Airmen in distress and referring them 
for help. All professional military education and commander's courses 
include formal suicide prevention training as well, which further 
emphasizes the recognition of and intervention with Airmen in distress. 
In addition, all deploying Airmen, including leaders, will attend the 
Landing Gear training before deploying and receive additional detailed 
information on deployment-related mental health problems (including 
PTSD).
    The Navy's position is yes, this training should be mandatory. The 
Navy continues to stress the importance of recognizing and combating 
Post Traumatic Stress Disorder and other related stress problems 
incurred during combat operations, deployed situations, and demanding 
homeport support of these missions. The Navy will maintain and further 
develop and incorporate standardized Combat Operational Stress Control 
training in career schools while continuing to stress the importance of 
incorporating stress mitigation skills as a core leadership competency.
    Army: Yes, all Soldiers should receive training in recognizing the 
signs and symptoms of PTSD. The resilience training now being taught to 
Soldiers emphasizes how to recognize the signs and symptoms of PTSD, 
how to take action when these signs are identified, and how to use 
coping mechanisms to diminish the impact of the trauma that Soldiers 
might experience. We are implementing resiliency training throughout 
the career life cycle of Soldiers so that these lessons are regularly 
refreshed.
                               stop loss
    Question. You issued an order in January 2007 to minimize ``stop 
loss'' for the active and reserve forces. The Army now says it will 
continue this practice well into 2009. At this time last year, 8,540 
soldiers were serving involuntarily. Today, that number has surged by 
43 percent. We need to respect the decision to step down from service, 
when a service member decides he or she is ready to move on to the next 
phase of their lives. Today, the Pentagon prevents some from leaving 
the service even if their tour of duty is soon to be completed. We need 
to end this ``back door draft'' approach--and let these brave men and 
women move on to the next phase of their lives.
    Why steps are being taken by the Defense Department to eliminate 
the usage of ``stop loss?''
    Answer. The Navy, Marine Corps and Air Force are not using the stop 
loss authority. The Department and Army are reviewing the need to use 
the stop loss authority to meet mission requirements.
        force structure needs (current versus future technology)
    Question. In a recent news article you were quoted as saying ``I 
have noticed too much of a tendency towards what might be called next-
war-itis--the propensity of much of the defense establishment to be in 
favor of what might be needed in a future conflict.''
    How do Defense Department long-term budgets balance resources 
between current and future conflicts?
    Answer. Current operations are resourced with a combination of 
budgeted and supplemental funds. When developing future budgets, the 
Department carefully balances the needs of current and future wars 
according to the President's priorities, excluding any items eligible 
for supplemental funding. The President's budget for fiscal year 2009 
achieves this balance, following a careful, deliberate decision-making 
process in which competing demands were considered.
                               soft power
    Question. You and Secretary Rice have spoken publicly about the 
need for the United States to improve its nation-building capabilities. 
The President's budget request for the State Department includes plans 
to enhance the Office of Reconstruction & Stabilization and to develop 
a corps of professionals who can provide specific, technical assistance 
in post-conflict situations.
    How do you envision the future relationship between the Defense and 
State Departments, particularly in post-war Afghanistan and Iraq?
    Answer. The Department of Defense will continue to work closely 
with the Department of State, both in post-war Afghanistan and Iraq and 
globally. As Secretary Gates has made clear in several speeches and in 
testimony before Congress, the Department sees a strong need for an 
increase in spending on the civilian instruments of national security--
diplomacy, strategic communications, foreign assistance, civic action, 
and economic reconstruction and development. This includes strong 
support for the State Department's Civilian Stabilization Initiative to 
build a cadre of civilians selected and trained to provide 
stabilization assistance.
                        troops to nurse teachers
    Question. Can you speak to the increasing demand for nurses in the 
military as a result of the ongoing war in Iraq?
    Answer. The demand for Army nurses (AN's) has increased 
significantly as a result of the global war on terror. The mission in 
Iraq requires a minimum of 400-500 Army nurses per year. Military 
treatment facilities have experienced an increased demand of nursing 
services for Service members and family members in both the inpatient 
and outpatient settings, particularly for operating rooms, intensive 
care and burn care beds, rehabilitative medicine services, traumatic 
brain injury, and mental health care. We predict an increased demand 
for nurse case managers as our warrior in transition population 
continues to expand. We also predict an increase in demand for military 
nurses as the Army grows. The Army Nurse Corps has 700-plus additional 
positions documented for requirements.
    Question. Recently, the Nurse Corps Chiefs testified on DOD medical 
programs and discussed many of the challenging aspects to military 
nurse recruitment and retention.
    What is DOD doing to recruit and retain nurses?
    Answer. The Department of Defense is using a variety of recruitment 
programs from accession bonuses, Reserve Officer Training Corps, 
tuition assistance and reimbursement, and enlisted to officer programs. 
Retention efforts include Duty Under Instruction for Nursing graduate 
and advanced practice degrees; tuition assistance for graduate degrees 
in Nursing as well as other fields, and advanced practice degrees in 
nursing; and expanded opportunities in assignments to influence health 
care as a whole, particularly in executive medicine. The 2007 Report to 
Congress on the ``Impact of the Nursing Shortage in the Military Health 
System'' provides exhaustive detail and specifics on recruitment and 
retention challenges and interventions.
    Question. Last year, the Defense Appropriations subcommittee asked 
each branch to report on the nursing shortage and efforts in which the 
military is currently engaged or see potential. In the response from 
the Army, General Pollock discussed the faculty augmentation program--a 
partnership between the Army and the University of Maryland. In this 
partnership, General Pollock explains that DOD received no direct 
incentive to begin the partnership, yet the Army still benefits from 
the project.
    Is DOD exploring an expansion or replication of this project?
    Answer. The pilot program may be replicated pending the outcome of 
a research grant from the Tri-service Nursing Research Program. This 
research project will examine the recruiting benefits derived from the 
pilot program. Quantitative data will be collected on the students' 
career choices (military nursing or civilian) to determine motives for 
making their selections. The research program will also review the 
qualitative nurse faculty experience and student experience.
    Question. How can the Senate be helpful?
    Answer. The Department believes encouraging the retired military 
nurse population to pursue post-retirement employment as nursing 
faculty in civilian universities will expose nursing students to the 
benefits of the military while increasing the availability of eligible 
nursing faculty to address the national nursing shortage.
    Question. What has DOD learned as a result of this partnership?
    Answer. The partnership program with the University of Maryland has 
provided the opportunity for the detailed Army Nurse Corps (ANC) 
officers to acquire the education, training, and skills to serve as 
nurse educators. These skills, which are broader than those acquired in 
military centric training environments, include the following: 
curriculum development and implementation, clinical supervision of 
baccalaureate students, establishment of faculty-to-peer relationships 
with academia, development of student evaluation processes in 
collegiate education, development of relevant student testing 
instruments, incorporation of researched based findings into clinical 
practice, methodology for teaching and evaluating critical thinking in 
student populations, integration of medical simulation into the 
education process, evaluation of scholarly writing, and development of 
requisite skill as professional collegiate level faculty. Ultimately, 
the program has better prepared these officers to serve as educators 
and provided them with the skill sets to develop and implement new 
programs of instruction that mirror that of professional academia.
    In addition, the pilot project has already been a successful ANC 
recruiting tool. The entire faculty continues to participate directly 
or indirectly with recruitment. The ANC recruiter remains in contact 
with all six ANC faculty. To date, nine referrals have resulted in 
appointments with the recruiter; four of those appointments led to ANC 
contracts to serve on active duty. The ANC will continue to track the 
recruiting benefits derived from this partnership.
    Question. During the DOD medical programs hearing, the Nurse Corps 
Chiefs expressed support for the Troops to Nurse Teachers program the 
Senate included in fiscal year 2008 DOD Authorization.
    If the program was authorized and funds were appropriated, how do 
you think it would impact the military's recruitment and retention 
efforts?
    Answer. The Departments has a contract with the RAND Corporation to 
assess the proposed program, which will include an assessment of the 
impact on recruitment and retention. The study's projected completion 
date is June 2009.
    Question. One of the major recruitment strategies for the Army and 
other Military Nurse Corps is the Reserve Officers' Training Corps or 
ROTC.
    In recent years, how effective has this program been in recruiting 
and preparing nurses for a career in the military?
    Answer. The Nurse Corps Reserve Officers' Training Corps (ROTC) is 
a long established and important means of accession to military 
service, and has been effective in preparing nurses for a career in the 
military. During the four-year academic and practical nursing training, 
cadets and midshipmen learn the basics of general military education, 
leadership, and behavior. In addition, each Service provides a wide 
range of immersion opportunities for the student from working in 
military treatment facilities to shipboard cruises.
    Upon commissioning the ROTC officer does not have to attend further 
officer training, and is available for immediate assignment as a Nurse 
Corps officer. In all other forms of accession, the Service member must 
attend some form of Service-specific officer training program that 
typically lasts about six weeks. There is an obvious learning curve for 
those who must attend Service-specific officer training, and who are 
unacquainted with the military culture, which typifies Direct 
Commission and Nurse Candidate officers. Former enlisted Service 
members acclimate much easier, but still must make the cultural 
transition from enlisted to officer.
    Army Nurse Corps ROTC recruitment from fiscal year 2002-fiscal year 
2006 comprised, on average 39 percent of their total Nurse Corps 
recruitment. During that same period the Army met, on average 66 
percent of their Nurse Corps ROTC accession goals.
    The Navy Nurse Corps ROTC recruitment from fiscal year 2002- fiscal 
year 2006 comprised, on average, 19 percent of their total Nurse Corps 
recruitment, and they met, on average, 93 percent of their ROTC 
accession goals over the same period.
    The Air Force Nurse Corps ROTC recruitment from fiscal year 2002-
fiscal year 2006 comprised 13 percent of their total Nurse Corps 
recruitment. No data is available on Air Force Nurse Corps ROTC 
accession goals.
    Question. How well does this program recruit underrepresented 
populations to the military?
    Answer. The Reserve Officers' Training Corps (ROTC) programs do a 
good job in attracting underrepresented populations in their Nursing 
programs. The diversity percentage of nurse commissionees has largely 
been at or above the diversity percentage for Service ROTC programs' 
total production over the last five years.

----------------------------------------------------------------------------------------------------------------
                                                                                                    Percent of
                                                                   Total Nurses      Minority        Minority
                                                                                      Nurses          Nurses
----------------------------------------------------------------------------------------------------------------
                              2003
 
Army............................................................             118              43              36
Navy/Marine.....................................................              41              13              32
Air Force.......................................................              20               5              25
                                                                 -----------------------------------------------
      DOD Total.................................................             179              61              34
                                                                 ===============================================
                              2004
 
Army............................................................             153              43              28
Navy/Marine.....................................................              37              14              38
Air Force.......................................................              36               7              19
                                                                 -----------------------------------------------
      DOD Total.................................................             226              64              28
                                                                 ===============================================
                              2005
 
Army............................................................             143              44              31
Navy/Marine.....................................................              39               8              21
Air Force.......................................................              38               8              21
                                                                 -----------------------------------------------
      DOD Total.................................................             220              60              27
                                                                 ===============================================
                              2006
 
Army............................................................             172              54              31
Navy/Marine.....................................................              34               8              24
Air Force.......................................................              40               7              18
                                                                 -----------------------------------------------
      DOD Total.................................................             246              69              28
                                                                 ===============================================
                              2007
 
Army............................................................             155              35              23
Navy/Marine.....................................................              58              14              24
Air Force.......................................................              55              11              20
                                                                 -----------------------------------------------
      DOD Total.................................................             268              60              22
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Last year, the Administration requested $88.3 million for 
the Reliable Replacement Warhead (RRW) program in the fiscal year 2008 
National Nuclear Security Administration budget and $30 million in the 
Department of Defense budget. Congress, on a clear bipartisan basis, 
eliminated all funding for this program in the NNSA budget in the 
fiscal year 2008 Omnibus Appropriations bill. It did provide $15 
million for the Navy to study how to place a Reliable Replacement 
Warhead on a Trident missile.
    Since Congress eliminated funding for the Reliable Replacement 
Warhead program in the NNSA budget, is the Navy still moving forward 
with its study? If so, why? If not, how are the funds being spent?
    Answer. The Navy is conducting an adaptable and integrated arming, 
fuzing, and firing (AF&F) system study. The funding is required to 
support a working group of U.S. Navy, U.S. Air Force and United Kingdom 
engineers and to coordinate requirements across services and countries 
to conduct AF&F system development with multi-platform applicability. 
Although this effort is identified under RRW, the work is needed to 
ensure the appropriate technologies are mature for the current programs 
of record for Navy W88 and AF W78 life extension programs and is 
relevant to the needed modernization of the electronic AF&F systems in 
all current or future weapons.
    Question. The Administration requested $23 million for the Navy for 
RRW for fiscal year 2009. According to the Congressional Research 
Service, the Navy has said that these funds were requested before 
Congress eliminated all funding for RRW in the National Security 
Administration's budget for fiscal year 2008 and that these funds will 
not be spent on RRW. Is that true? If so, how will the funds be spent?
    Answer. The funding is required to support a working group of U.S. 
Navy, U.S. Air Force and United Kingdom engineers and to coordinate 
requirements across services and countries to conduct adaptable and 
integrated arming, fuzing, and firing (AF&F) system development with 
multi-platform applicability. Although this effort is identified under 
RRW, the work is needed to ensure the appropriate technologies are 
mature for the current programs of record for Navy W88 and AF W78 life 
extension programs. The Department of Defense (DOD) reconsidered the 
request for these funds in light of Congress' cut of the fiscal year 
2008 budget request. The DOD determined that it was still necessary to 
request fiscal year 2009 funds and work on the arming, fuzing, and 
firing system development. The nation's existing weapons are using very 
old electronic systems and technologies. For the reliability and 
security of these weapons, the DOD must begin to work on the 
modernization of the AF&F systems in our nuclear weapons.
    Question. The fiscal year 2008 Defense Authorization bill mandated 
the creation of a Congressionally appointed bipartisan commission to 
examine the U.S. strategic posture and nuclear weapons policy. It is 
due to report its findings and recommendations to Congress and the 
President by December 1, 2008. The Defense Authorization bill also 
required the next President to conduct a nuclear posture review and 
issue a report by December 1, 2009. In my view, Congress should not 
provide any funds to RRW until we have had a chance to review the 
findings of these two reports.
    Are you aware of any problem affecting the safety and reliability 
of the warheads in the current U.S. nuclear stockpile that would compel 
us to act now to fund RRW? Is there any new military requirement to 
replace the existing, well tested warheads?
    Answer. The U.S. nuclear weapons stockpile remains safe, secure and 
reliable with certain manageable exceptions. However, as current 
nuclear weapons age, scientists and engineers continue to observe 
unforeseen and unpredicted changes within the nuclear warheads and 
associated subsystems. Additionally, pursuing successive Life Extension 
Programs will inevitably accumulate small changes that take the nuclear 
warheads further away from their original designs that were previously 
certified through underground nuclear testing. As a result, our 
confidence in the reliability of our current nuclear weapons stockpile 
will degrade over time.
    As reliability declines, we must be prepared to repair or replace 
those systems to avoid any capability gaps in our nuclear deterrent. At 
issue will be how to accomplish this task. Current stockpile systems, 
which were designed and built in the 1960s, 1970s, and 1980s, involved 
manufacturing processes that are now difficult or inadvisable to 
replicate, and they lack modern surety features and technologies that 
are often difficult to incorporate during Life Extensions.
    The funding requested for RRW this year will support the completion 
the Phase 2/2A feasibility and cost study. The information from the 
Phase 2/2A effort will inform subsequent decisions and the upcoming 
posture reviews. Future decisions would be deferred until after 
completion of the pending reviews.
                   military energy/fuel alternatives
    Question. Former Secretary of Defense William Perry has stated: 
``On balance, I believe that we could defer action for many years on 
the RRW program. And I have no doubt that this would put us in a 
stronger position to lead the international community in the continuing 
battle against nuclear proliferation, which threatens us all.''
    Do you agree and, if not, why not?
    Answer. I respectfully disagree.
    First, we should not defer action on RRW. As current nuclear 
weapons age, scientists and engineers continue to observe unforeseen 
and unpredicted changes within the nuclear warheads and associated 
subsystems. Additionally, pursuing successive Life Extension Programs 
will inevitably accumulate small changes that take the nuclear warheads 
further away from their original designs that were previously certified 
through underground nuclear testing. As a result, our confidence in the 
reliability of our current nuclear weapons stockpile will degrade over 
time. We must be prepared to replace those systems to avoid any 
capability gaps in our nuclear deterrent. At issue will be how to 
accomplish this task. Funding for the RRW feasibility and cost study 
will inform future decisions on the best path ahead.
    Second, there is no reason to believe that atrophy of U.S. nuclear 
forces will help prevent nuclear proliferation and considerable reason 
to believe that credible U.S. nuclear forces will reduce proliferation. 
The sizable drawdown in U.S. nuclear forces since the end of the Cold 
War, the 16-year U.S. moratorium on nuclear testing, or the fact that 
the United States has not built a new nuclear weapon in nearly two 
decades, has had no impact on the effort of some countries to acquire 
nuclear weapons.
    Despite negotiated reductions and eliminations under INF, START, 
and the Moscow Treaty, and without regard to U.S. unilateral 
reductions, India and Pakistan have become nuclear powers, North Korea 
has tested a nuclear device, Iran continues to pursue nuclear 
capability, Russia is modernizing its nuclear force and China is 
rapidly building up its strategic nuclear capabilities. After surveying 
this international security environment, both the United Kingdom and 
France have recently decided to embark upon modernization of their 
nuclear systems to ensure their strategic deterrents into the mid-
century. By contrast, the United States is the only nuclear weapon 
state that does not have an active nuclear weapons modernization 
program or the capability to produce a new nuclear weapon.
    Finally, robust U.S. nuclear capabilities and a strong commitment 
to extended deterrence have supported the NPT by allowing allies and 
friends, both in NATO and elsewhere, to forgo developing their own 
nuclear weapons. These arrangements are fully consistent with U.S. 
commitments to abide by the NPT.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    Question. The Supplemental Appropriations bill being considered by 
the Senate includes provisions that would limit the length of 
deployments to Iraq, as well as, the dwell times for units returning 
from Iraq. How would these provisions impact the Department's ability 
to manage forces and to provide the commandant commanders with the 
capabilities they need?
    Answer. These provisions would hurt the Department's ability to 
manage forces and provide commanders with the capabilities they need. 
As stated in the White House's May 20th Statement of Administration 
Policy, ``The Administration strongly opposes attempts to limit the 
much needed flexibilities of our commanders in the field during this 
and future conflicts by codifying current policy regarding deployment 
schedules.''
    Question. What efforts are being made to increase the amount of 
funding the Iraqis, or other coalition partners, are contributing to 
the CERP program?
    Answer. The Department is pursuing efforts on both fronts to 
increase support of CERP. We requested authority to accept financial 
contributions to CERP in Iraq and Afghanistan from any person, foreign 
government, or international organization. Once this authority is 
granted, we will be able to engage our partners to financially support 
the very effective CERP program, which enables military commanders to 
respond to urgent humanitarian relief and reconstruction needs within 
their areas of responsibility by carrying out programs that provide 
immediate assistance to the local populace.
    We have also worked with the Government of Iraq (GoI) to establish 
a companion program funded by the GoI. Major General Kevin Bergner, 
Deputy Chief of Staff, Multinational Forces Iraq (MNF-I) and Hak Al-
Hakeem, GoI Advisor to the Prime Minister for Reconstruction Affairs 
and Representative to the Supreme Reconstruction Council, signed a 
Memorandum of Understanding (MOU) in April 2008 to implement the GoI 
Commander's Emergency Response Program (I-CERP). The MOU describes the 
purpose of the program ``to execute urgently needed reconstruction 
projects for the benefit of the Iraq people by using Iraqi funds . . . 
I-CERP seeks eventually to match 2008 coalition CF-CERP 
contributions.'' The implementation annex to the MOU specifies the 
types of projects the GoI will fund, such as school construction, 
health clinics, and water purification facilities. Thus far, the GoI 
has provided close to $300 million for I-CERP projects. The funds are 
administered according to the existing rules laid out for execution of 
the U.S. CERP program.
    The Department believes that successful execution will lead to 
additional Iraq funding and, possibly, funding from Iraq's neighbors.
    Question. You have made additional ISR for combat forces in Iraq 
and Afghanistan a top acquisition priority along with the purchase of 
MRAP vehicles. Could you provide a more detailed explanation of why you 
have made additional ISR in theater a top priority and what the 
greatest needs are at this time?
    Answer. As operations in Iraq and Afghanistan continue to evolve, 
the enduring value of pervasive ISR available to the battlefield 
commanders has never been higher. Although over the last year the 
department has taken multiple steps to increase deployed capability, I 
remain convinced that more must and can be done to provide additional 
tactical ISR capability to our forces deployed in combat. Accordingly, 
I have established an ISR Task Force to provide me recommendation on 
the greatest needs.
    Question. I understand you recently visited Fort Bliss, Texas to 
view some of the latest Future Combat System Technologies. Can you give 
us your impressions of what you saw during your visit?
    Answer. In a speech on May 13, I provided a few observations, which 
address this question: ``A program like FCS--whose total cost could 
exceed $200 billion if completely built out--must continue to 
demonstrate its value for the types of irregular challenges we will 
face, as well as for full-spectrum warfare. I believe that any major 
weapons program, in order to remain viable, will have to show some 
utility and relevance to the kind of irregular campaigns that are most 
likely to engage America's military in the coming decades''.
                                 ______
                                 
              Questions Submitted by Senator Arlen Specter
                              aid to yemen
    Question. According to a May 17, 2008 editorial in the Washington 
Post by Ali Soufan, a former FBI supervisory special agent who was 
directly involved in the investigation of the bombing of the U.S.S. 
Cole, ``Seven years after al-Qaeda terrorists Jamal al-Badawi and Fahd 
al-Quso confessed to me their crucial involvement in the bombing of the 
U.S.S. Cole, and three years after they were convicted in a Yemeni 
court--where a judge imposed a death sentence on Badawi--they, along 
with many other al-Qaeda terrorists, are free.''
    What criteria are used when setting Section 1206 funding levels? 
How does the Department of Defense weigh Yemen's lack of cooperation in 
bringing the Cole bombers to justice when considering aid for Yemen?
    Answer. State and DOD consider all aspects of the bilateral 
relationship with Yemen and the need for counterterrorism cooperation 
when assessing the provision of assistance. As part of that assessment, 
the Departments consider the net impact that any Section 1206 
assistance may have to increase Yemeni capabilities to counter 
terrorist threats identified by Combatant Commanders and Chiefs of 
Mission.
    Yemen faces many challenges, including trying to govern areas under 
tribal, not governmental control. The Department uses Section 1206 to 
help the Republic of Yemen Government's (ROYG) military to establish 
governmental control over these areas and reduce porous borders 
available for exploitation by Al-Qaeda and other terrorist 
organizations. While the United States continues to press Yemen on 
issues surrounding the attack on the U.S.S. Cole, we must also address 
the continued terrorism threat to Yemen and the United States. The 
projects we undertake via Section 1206 funding also provide us with 
more leverage in dealing with Yemen on this and other issues.
    In addition, Ali Soufan's statement above is not accurate. While he 
was free for a short time in October 2007, the ROYG quickly reversed 
their decision and jailed Badawi later that month. Badawi is now 
serving out the rest of his sentence. His sentence was reduced to 15 
years in prison by a Yemen court.
    Question. How much does the Department of Defense plan to request 
for fiscal year 2008 Section 1206 aid for Yemen? When will it make its 
request? What program(s) will the money fund?
    Answer. Because Section 1206 is designed to be able to meet urgent 
and emergent needs, it is impossible to state with certainly what will 
ultimately be requested under Section 1206 authority for fiscal year 
2008. Of programs approved and notified to Congress to date, however, 
none have been for Yemen, nor does the Department have any current 
plans to provide Section 1206 training or equipment to Yemen during 
this fiscal year.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                   military energy/fuel alternatives
    Question. Hybrid technology, Bio-fuels and other ``green friendly'' 
technology is currently providing some near term solutions in the 
civilian sector. Recently, the Air Force demonstrated this technology 
by flying a B-1 Bomber over New Mexico and Texas at supersonic speed 
using a synthetic 50/50 fuel blend.
    What type of fuel alternatives or green technology research and 
development are the services currently working on?
    Answer. The Department is pursuing a variety of efforts in 
alternative fuels, primarily focused on testing and certification, and 
enabling our systems to use different fuels regardless of the feedstock 
or production method. Efforts include improving the combustion process 
of engines using alternative fuels, optimizing fuel composition, 
understanding the equipment and systems impacts of alternative fuel 
use, such as corrosion and wear, and establishing protocols for 
certification.
    For example, the Air Force has certified the B-52 to use a 50/50 
blend of synthetic fuel (synfuel). Tests are underway to certify the C-
17, B-1, and F-22 in the near future, with an objective to certify the 
entire fleet by early 2011, and the Army is testing synfuel in tactical 
vehicles and generators. In December 2007, a C-17 completed the first 
transcontinental flight using a synfuel blend, and a B-1 flew at 
supersonic speeds using a synfuel blend in March 2008. The Air Force 
has a goal to obtain 50 percent of its fuel used in the continental 
United States from domestic sources by 2016.
    The Department also is exploring various technologies for producing 
alternative jet fuels. For instance, the Defense Advanced Research 
Projects Agency is soliciting research proposals to affordably create 
jet fuels using oil rich crops, such as algae, at energy density levels 
sufficient to power military systems.
    Question. How do fueling alternatives affect the development and 
fielding of the Future Combat Systems?
    Answer. The Future Combat System is designed to work with current 
battlefield fuels. The Army will test synthetic and other alternative 
fuels in the Future Combat System, as part of its larger testing and 
certification program.
    Question. Are any current combat vehicles/systems being retrofitted 
to accept alternative fuel?
    Answer. No. The policy is to procure fuels that are compatible with 
existing systems. Certification is underway in some systems, like the 
C-17, B-1 and F-22, to ensure these fuels can be used without causing 
long-term damage to engines.
    Question. The Air Force is currently investigating nuclear, small 
reactor technology as a power plant source for some of its bases.
    What is your opinion on this technology being used by the other 
services?
    Answer. The Air Force is considering small nuclear reactors as a 
way to use underutilized land on its installations. The Department will 
evaluate the feasibility of a larger scale program after we receive an 
assessment from the Air Force.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What mechanisms are in place to ensure all service 
members in theater have sufficient body armor?
    Answer. The Department is committed to providing the best available 
ballistic force protection to its service members and its civilians. 
Each Military Service has a slightly different process, but all ensure 
our deployed personnel have the best protection.
    For the Army, the goal is to field body armor to all deployers and 
next to deploy soldiers in the predeployment phases at Home Station for 
Active Component, Mobilization Station for Reserve Component, or at the 
continental United States (U.S.) (CONUS) Replacement Centers for 
Individual Augmentees. Soldiers or DOD civilians arriving in theater 
without body armor are outfitted at our fixed sites at Camp Buehring 
(Kuwait) and Bagram (Afghanistan) as they go through the Reception 
Staging Onward Movement and Integration (RSOI) process. The Army has 
also provided a stockage of body armor to the U.S. Embassy in Baghdad 
for Department of State personnel serving on Provincial Reconstruction 
Teams. Any capability enhancements to body armor such as the Improved 
Outer Tactical Vest (IOTV) are handled by our fielding teams who travel 
to all camps and Forward Operating Bases upgrading units and soldiers 
based on theater commanders' priorities. Additionally, Program 
Evaluation Office--Soldier, the program manager for body armor, 
conducts a weekly teleconference with theater commanders to coordinate 
deployment upgrades for body armor.
    For the Navy, each individual command that has personnel being 
deployed for the Global War on Terror (GWOT) operations are required to 
outfit its personnel with the complete Table of Allowance (TOA) gear 
that is needed for the region to which they'll be deployed. This is a 
pre-deployment requirement that must be met before the personnel are 
cleared for departure to theater.
    For the Marine Corps, the Program Manager for Infantry Combat 
Equipment (PM ICE) is the Total Life Cycle Manager for USMC Body Armor. 
Fielded assets are delivered to Consolidated Issue Facilities (CIF) for 
follow-on issue to deploying Marines. Combatant Commanders in theater 
will prescribe the use of personal protective equipment (PPE) in 
accordance with higher headquarters direction and based on the 
situation, to include assessment of enemy threat, environmental 
conditions, and the tactical missions assigned to their units. 
Management of fielded assets is executed through the Logistics Command 
(LOGCOM) Albany to ensure optimal distribution of assets is consistent 
with the requirements of the operating force commanders.
    For the Air Force, the Directorate of Logistics Readiness is the 
focal point for Air Force ``enterprise'' purchases of Body Armor and 
individual protective equipment (IPE). The Directorate of Logistics 
Readiness develops policy for the distribution of body armor and IPE at 
home station and in-theater. Body Armor, and other protective gear, is 
prepositioned in three Expeditionary Theater Distribution Centers 
(ETDCs). Most deployers process through one of the three ETDCs to 
obtain protective gear prior to entering the theater. Body Armor, and 
other protective gear, is also prepositioned at nine Expeditionary 
Logistic Readiness Squadrons in the Area of Responsibility (AOR). This 
provides sustainment for lost and/or damaged body armor and IPE. 
Deployers who do not process through an ETDC obtain their body armor 
from their home station or coordinate their equipment requirements 
through their Major Command (MAJCOM), Air Command--Air Force (AFCENT), 
and/or Air Staff. Deployment Reporting Instructions provide guidance on 
how and where to obtain body armor and other protective gear when 
tasked to deploy to specific locations. These processes are in place to 
ensure sufficient gear is available and AF personnel are equipped prior 
to entering the theater.
    Through various processes, reviews and system controls, United 
States Special Operations Command, (USSOCOM) ensures that its forces 
have sufficient body armor in theater. The United States Special 
Operations Command (USSOCOM), because of its unique authorities under 
10 USC 167, relies on a combination of Special Operations Forces (SOF) 
unique equipment, along with service-common body armor provided to each 
of the component commands. For USSOCOM, the mandate is priority 
fielding of body armor systems to individuals through their respective 
component commands. Prioritization is based on unit pre-deployment 
training window, rotational schedule to theater of operations, and 
direction provided from each service component's requirements/logistics 
division representatives. Individuals are sized, issued body armor 
systems, and trained on proper wear and use during their pre-deployment 
training window. Body armor system fielding requirements to SOF are 
reviewed and validated weekly by the Program Management Office with 
each service component. Adjustments to fielding schedule are executed 
as required based on service component changes in deployment 
priorities. Also, residing on the USSOCOM Special Operations Forces 
Sustainment Asset Visibility Information Exchange (SSAVIE) internet 
portal is the Special Operations Forces Personal Equipment Advanced 
Requirements (SPEAR) website. This website provides total asset 
visibility to USSOCOM and Component leaders on body armor systems 
issued to each individual SOF member. Body armor systems are shipped to 
unit supply/property managers for issue to the specific unit 
individuals. Once a body armor system is issued to the individual, the 
transaction is recorded in the SPEAR database. Replacement body armor 
system components are forward staged and managed in the local theater 
of operations to support Joint Special Operations Task Forces and 
expedite replacement of individual body armor systems due to damage or 
combat loss.
    Overall, each Military Service has processes in place to ensure 
sufficient gear is available and DOD personnel are equipped prior to 
entering a theater of operations.
    Question. What kind of oversight has been exercised by the Guard 
and Reserves to ensure that returning American heroes are lawfully 
reemployed by the employers for whom they worked prior to deployment?
    Answer. The Uniformed Services Employment and Reemployment Rights 
Act (USERRA), covers the employment rights of Guard and Reserve 
members. The Department of Labor (DOL) has statutory authority to 
enforce the USERRA statute. The Department of Defense (DOD) has an 
inherent responsibility to take care of its Service members. Employer 
Support of the Guard and Reserve (ESGR), a DOD organization under my 
purview, provides information and education to Guard and Reserve 
members and their employers, about USERRA, and offers a mediation 
service to resolve workplace disputes in an informal manner. Through a 
Memorandum of Understanding between DOD and DOL, ESGR informs Service 
members about contacting DOL if the ESGR mediation is unable to resolve 
a labor dispute within 14 days. We believe this process offers a timely 
and effective mechanism for resolution while providing a means for 
formal investigation by the appropriate authority at DOL.
    ESGR is also working with the Services to raise awareness of USERRA 
and to provide USERRA training to all Reserve component members. In 
fact, in fiscal year 2007, ESGR's 4,500 volunteers provided USERRA 
briefings to more than 232,000 Service members. We also continue to 
work with the appropriate Federal agencies such as DOL's Veterans 
Employment and Training Service (DOL-VETS), the Department of Veterans 
Affairs, and the Small Business Administration, to better communicate 
to Service members and their employers about USERRA, transition 
assistance and reintegration programs. As we have mobilized National 
Guard Brigade Combat Teams during fiscal year 2008, we have worked 
proactively with those units several months before mobilization to 
ensure Service members' rights and responsibilities are understood.
    The single biggest concern we hear from employers and Service 
members is about predictability of rotation schedules and duration. To 
that end, I issued policy guidance in January 2007 to move Reserve 
component use to a predictable cycle. We believe that while this 
guidance may take some time to become fully operational as units reset 
onto this cycle, greater predictability will go a long way toward 
ameliorating USERRA claims. Furthermore, DOD and DOL have established 
interagency working groups to create and execute information awareness 
programs aimed at Reserve component members and their employers.
    All that being said, we have seen employer support remain strong. 
Thousands of employers go beyond the requirements of USERRA to provide 
compensation and benefits to their employees while they are serving 
their military duty. This support is not isolated to large employers, 
but extends to small employers as well as public sector employers.
    Question. I remain concerned about the safety of our troops in 
military vehicles given the frequency and lethality of IED incidents. 
Please provide the following information regarding up-armored vehicles 
and mine-resistant ambush protected vehicles (MRAPs):What vehicles are 
currently in theatre? What is the cost comparison between up-armored 
and MRAP vehicles? What is the total number of OEF and OIF deaths 
sustained in each different type of vehicle currently in theatre? Is 
this information kept by DOD and, if so, is it considered in the 
procurement process? Is safety of the troops the paramount 
consideration of fielding up-armored and MRAP vehicles? What are the 
other competing considerations? How are they weighted in the decision-
making process? What vehicles has the Department prioritized for future 
procurement and why?
    Answer.
    What vehicles are currently in theatre?
    There are several variants of the Mine Resistant Ambush Protected 
(MRAP) vehicles and up-armored High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs) which are outlined below.
    MRAP Vehicles.--There are three distinct categories of the ``Family 
of MRAP vehicles'' provided to the Services, and they support the 
following mission profiles:
  --Category I: Urban combat operations (transport no less than 6 
        personnel).
  --Category II: Multi-mission operations such as convoy lead, troop 
        transport, ambulance, EOD, maneuver battalions, and combat 
        engineering (transport up to 10 personnel).
  --Category III: Mine/IED clearance operations and explosive ordnance 
        disposal (transport no less than 6 personnel, 5 with additional 
        equipment installed).
    Up-armored HMMWVs.--The M1151, also known as the Expanded Capacity 
Vehicles (ECVs), replaces the M1114. The up-armored HMMWVs currently in 
theatre are the: M1151A1: Up-armored armament carrier, M1152A1: Up-
armored troop/shelter carrier, and M1165A1: Up-armored command/troop 
carrier.
    What is the cost comparison between up-armored and MRAP vehicles?
    The range of the cost comparison is considerable in accordance with 
quantity buys. As a result, the average cost, experienced to date, for 
the MRAP vehicles and up-armored HMMWVs are outlined below:
    MRAP vehicles.--Category I: $500,000; Category II: $530,000; and 
Category III: $700,000.
    Up-armored HMMWVs.--M1151A1/B1 (up-armored armament carrier): 
$158,000; M1152A1/B2 (up-armored troop/shelter carrier): $125,000; and 
M1165A1/B3 (up-armored command/troop carrier): $144,000.
    What is the total number of OEF and OIF deaths sustained in each 
different type of vehicle currently in theatre?
    The Department tracks these statistics and can provide you the 
specifics in a classified forum. MRAP vehicles have demonstrated 
increased survivability and force protection against attacks as 
demonstrated in a decreased casualty rate when compared to other 
vehicles operating in Theater.
    Is this information kept by DOD and, if so, is it considered in the 
procurement process?
    The Department makes this information available to all programs to 
assist in the development and procurement process. This information is 
utilized in the development of the System Threat Assessment Report for 
each program with updates provides as required for consideration in the 
development of their acquisition strategies.
    Is safety of the troops the paramount consideration of fielding up-
armored and MRAP vehicles?
    Yes.
    What are the other competing considerations?
    As the Department continues to armor existing vehicles and buy 
heavily armored vehicles, such as MRAP, there is a trade off between 
survivability, payload and performance. By increasing protection 
through armoring, we risk losing some payload and/or performance, thus 
decreasing mobility and maneuverability.
    How are they weighted in the decision-making process?
    Sacrificing performance and payload for protection is a necessary 
concession in places like Iraq where the MRAP has proven to save lives. 
Much of Iraq's existing road infrastructure supports heavy vehicles 
like the MRAP; unfortunately, they do not perform as well in off-road 
situations. Further, their weight and size make them unsuitable for 
alleyways and many unimproved surface roads and bridges. To mitigate 
these tactical considerations, the military maintains an inventory of 
up-armored HMMWVs (UAH); however the additional armor on UAH increases 
their weight, degrades their service life, and increases maintenance 
requirements.
    What vehicles has the Department prioritized for future procurement 
and why?
    The Services are actively engaged in implementing a tactical and 
combat vehicle modernization and recapitalization strategy with the 
intent to recapitalize, modernize and eventually replace its existing 
light, medium and heavy tactical wheeled vehicles with either a new 
next generation vehicle class or more capable recapitalized tactical 
wheeled vehicles that have integrated new technologies and incorporated 
lessons learned from operations involving the Global War on Terrorism. 
Programs such as the Joint Lightweight Tactical Vehicle, Marine 
Personnel Carrier, Stryker, Future Combat System, and MRAP vehicles are 
part of this global view.
    Question. What are the advantages to having so many different types 
of MRAPs in theatre? Would it not be beneficial to have more uniformity 
among the vehicles to streamline training, repair work, etc.?
    Answer: The Department initiated the Mine Resistant Ambush 
Protected (MRAP) vehicle program in January 2007 and formed the MRAP 
Task Force, shortly thereafter, with one primary objective: Field as 
many MRAPs as quickly as possible. This strategy was met by 
establishing procurement delivery orders with all vendors who met 
specific requirements. This led, ultimately, to fielding vehicles from 
five manufacturers, and allowed us to produce and deliver over 1,600 
vehicles to Theater by the end of 2007. The fact that we have multiple 
variants can add complexity to sustainment, but achievement of the 
overall goal--field as many vehicles as fast as possible--saved lives.
    The Services recognize that different types of MRAPs are applicable 
to different missions and threats, and as such provide greater 
flexibility and tactical advantages depending on the situation. There 
are three distinct categories of the ``Family of MRAP vehicles,'' and 
they support the following mission profiles:
  --Category I: Urban combat operations (transport no less than six 
        personnel).
  --Category II: Multi-mission operations such as convoy lead, troop 
        transport, ambulance, explosive ordnance disposal, maneuver 
        battalions, and combat engineering (transport up to ten 
        personnel).
  --Category III: Mine/IED clearance operations and explosive ordnance 
        disposal (transport no less than six personnel, five with 
        additional equipment installed).
    It is always good to maximize commonality and uniformity between 
military systems when possible. However, the Defense Department's 
responsibility is to the Warfighter's requirements. The principle and 
driving thrust for the MRAP program was to get the best systems meeting 
the survivability requirements and deliver MRAP vehicles to the 
Warfighter as quickly as possible, hence the acquisition of multiple 
variants from multiple vendors.
    To counter the logistic requirements induced with this type of 
rapid procurement, the Defense Department has initiated evaluations of 
each vendor's components, and then cross referencing those major sub-
systems which are common across the fleet. For example, Cummins engines 
are used in two models of the MRAP vehicle and the Heavy Expanded 
Mobility Tactical Truck (HEMTT) used by the U.S. Army. It is also very 
popular in the commercial/consumer market for uses in motor homes, farm 
equipment and cross country line haulers.
    Furthermore, the military is discovering that some of the sub-
components used in the MRAPs are common with other military systems 
already in the inventory.
    Another measure the Defense Department is developing is a 
sustainment strategy that will employ a ``Hybrid'' solution using a 
Joint Logistics Integrator (JLI), manufacturer Field Service 
Representatives (FSRs), and government civilian mechanics working in 
concert with an organic military supply chain. The Joint Program Office 
(JPO) developed and contracted for an innovative consortium among the 
five major Original Equipment Manufacturers (OEMs). The consortium 
provides cross-trained FSRs from each company who can service any MRAP 
vehicle. These FSRs are trained on all vehicle variants regardless of 
manufacturer. This will support a flexible and responsive theater 
capability for commanders across theater. The hybrid support solution 
also employs depot mechanics deployed into theater to supplement 
organic and field-level maintenance teams. These depot mechanics are 
also cross trained on each vehicle variant, thereby providing a unique 
and flexible maintenance capability for all vehicle variants. The JPO 
MRAP vehicle consortium guarantees that unit level commanders from all 
Services have a single interface for sustainment and maintenance issues 
with his or her MRAP fleet. This strategy will dramatically reduce the 
in-theater logistics support footprint and increase its effectiveness. 
The JLI will assist the JPO in synchronizing multiple OEM issues into 
one clear operations report and view.
    Question. Last week, Pentagon Press Secretary Geoff Morrell made 
statements that the casualty rate is much higher in an up-armored 
humvee than in an MRAP. If true, why does the military continue to use 
up-armored humvees? Are there any humvee-class MRAP vehicles currently 
being tested for use in theatre by DOD in order to improve the safety 
of our troops? Are there plans to field them in the future? If so, what 
is the status of procurement?
    Answer. Our military forces utilize up-armored High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs) and Mine Resistant Ambush 
Protected (MRAP) vehicles for separate missions. Up-armored HMMWVs 
allow for greater maneuverability in areas where MRAP vehicles have 
limited transportability, payload and off-road capabilities.
    DOD has no HMMWV-class MRAP vehicles currently being tested for use 
in theatre. All HMMWVs, in theater, that operate outside the wire are 
outfitted with up-armored kits. However, the Joint Lightweight Tactical 
Vehicle (JLTV) is a joint program that is viewed as the bridge vehicle 
between a M1152 up-armored HMMWV and the MRAP. JLTV is expected to 
provide the Army and Marine Corps with a family of more survivable 
vehicles and greater payload than the current HMWWV.
    Question. Section 8119 of Public Law 110-116 provides in relevant 
part that:
    ``(a) Notwithstanding any other provision of law, the Department of 
Defense shall complete work on the destruction of the United States 
stockpile of lethal chemical agents and munitions, including those 
stored at Blue Grass Army Depot, Kentucky, and Pueblo Chemical Depot, 
Colorado, by the deadline established by the Chemical Weapons 
Convention, and in no circumstances later than December 31, 2017.
    ``(b) Report.--
            ``(1) Not later than December 31, 2007, and every 180 days 
        thereafter, the Secretary of Defense shall submit to the 
        parties described in paragraph (2) a report on the progress of 
        the Department of Defense toward compliance with this section.
          * * * * * * *
            ``(3) Each report submitted under paragraph (1) shall 
        include the updated and projected annual funding levels 
        necessary to achieve full compliance with this section. The 
        projected funding levels for each report shall include a 
        detailed accounting of the complete life-cycle costs for each 
        of the chemical disposal projects. . . .''
    The report due on June 30, 2008 will be the first opportunity the 
Department of Defense has had to lay out how it plans to comply with 
the 2017 deadline mandated by this statute. Included in these plans 
will be funding levels that the Department believes it needs to comply 
with the law. If in fact the Department decides it needs funding above 
the fiscal year 2009 request to comply with the law, will this need for 
additional funding be conveyed to Congress through a formal budget 
amendment? If not, by what means will the Department formally request 
such additional funds?
    Answer. As required by Section 8119 of the fiscal year 2008 DOD 
Appropriations Act, the Department is currently reviewing various 
options (to include cost estimates) and the feasibility for completing 
the destruction of the chemical weapons stockpile by 2012 and 2017. The 
assessment of these options will be reflected in the semi-annual report 
to Congress in late June 2008, and will be considered during the 
development of the fiscal year 2010 President's budget request.
    Question. How could the repairing and reconditioning of equipment 
for members of the Guard and Reserve be improved?
    Answer. Repair and reconditioning activities involve the necessary 
depot and intermediate level maintenance required to restore equipment 
returning from Iraq and Afghanistan to pre-deployment conditions. The 
key imperative is to provide sufficient funding in time to ensure 
depots can do their work without delay or interruption. Forward 
deployment of Guard and Reserve equipment requires quick turnaround of 
these assets for training. Timely reconstitution funding allows the 
Military Departments to provide Guard and Reserve members with 
replacement capability quickly and to ensure the workload at the depots 
is performed in the most expeditious, cost-effective manner.
                                 ______
                                 
            Questions Submitted to Admiral Michael G. Mullen
            Questions Submitted by Senator Richard J. Durbin
                                suicide
    Question. Over the past year, Congress has provided hundreds of 
millions in funding to the military to improve mental health care for 
our troops. Over the past 6 years, the suicide rate for active-duty 
soldiers has grown from 9.8 per 100,000 in 2001 to 17.5 per 100,000 in 
2006.
    What specific actions is the DOD taking to reduce suicide?
    Answer. While standardized civilian suicide rates (most recent 
2005) remain significantly higher (47 percent) than equivalent age/
gender-matched military suicide rates (2007), the Department is very 
closely monitoring suicide statistics and trends. We are committed to 
creating and improving programs to identify those at risk and provide 
preventive education and appropriate treatment.
    Existing programs include:
  --annual suicide prevention training of Service members and DOD 
        civilian employees;
  --leadership training in suicide prevention;
  --military leadership training to manage Service and family members 
        in distress;
  --frontline supervisor training;
  --dissemination of suicide prevention training materials, videos, and 
        posters;
  --monitoring and analyzing lessons learned from suicides;
  --risk assessment advanced training for providers;
  --executing nationally-recognized best practice suicide prevention 
        initiatives;
  --multiple initiatives to reduce stigma from seeking mental health 
        support;
  --chaplains' initiatives in suicide prevention and absolute 
        confidentiality;
  --suicide prevention week actives;
  --Signs of Suicide programs in DOD school systems for children/
        adolescents;
  --train the trainer workshops in various suicide prevention 
        modalities as Ask your buddy, Care for your buddy, Escort your 
        buddy, Applied Suicide Intervention Skills training, safeTALK;
  --chain teaching programs for suicide prevention;
  --case discussions of suicide prevention;
  --improved access to care with more mental health providers and 7-day 
        routine access standard;
  --postvention support programs for unit members/families of those who 
        commit suicide;
  --confidential behavioral health surveys to monitor risk factors and 
        substance abuse;
  --relationship building programs such as the Strong Bonds Program;
  --civilian services staff training (morale, welfare and recreation, 
        gym, hobby/auto shops, etc.) as the ``Are You Listening?'' 
        program;
  --substance abuse education and training;
  --military family life consultant program;
  --family support programs;
  --family advocacy programs;
  --sexual abuse recovery and support programs;
  --community health promotion councils;
  --integration delivery systems for psychological and other support;
  --community action information boards;
  --family readiness units;
  --financial management training programs;
  --responsible drinking educational programs;
  --deployment support programs--Battlemind, Landing Gear, Operational 
        Stress Control;
  --web-based distance learning programs for suicide prevention;
  --suicide prevention pocket cards and brochures;
  --community awareness marketing for support services;
  --drug demand reduction and prevention services/education programs;
  --personal readiness summits;
  --standardized suicide data reporting and DOD comprehensive database 
        to monitor suicide;
  --annual DOD/Department of Veterans Affairs suicide prevention 
        conferences with leading academics and government agencies;
  --academic collaborations developing suicide nomenclature;
  --DOD-produced public announcements/videos re: suicide prevention; 
        and
  --active DOD Suicide Prevention and Risk Reduction Committee 
        coordinating dissemination and coordination of programs.
                                tbi/ptsd
    Question. According to a recent RAND study, one in five Iraq and 
Afghanistan veterans suffer from PTSD. Nineteen percent report a 
possible traumatic brain injury during their deployment. Only half have 
sought treatment because of the stigma attached with seeking treatment 
and because of concerns about the quality of care. According to RAND, 
half of those who request treatment receive only ``minimally adequate'' 
support.
    What steps is DOD taking to encourage servicemen and servicewomen 
to pursue help and to address the reasons why treatment is not sought?
    Answer. It should first be noted that Service Members seek care for 
psychological health issues at the same rate as their civilian 
counterparts; in the RAND study, roughly half of civilians and military 
members who met the criteria for PTSD or major depression had sought 
help. Stigma is the overarching similarity that keeps both civilians 
and Service members from seeking care. However, acknowledgement of this 
similarity is not stopping us from identifying other causes which 
prevent members from seeking care and working to mitigate these 
factors. In addition to stigma, structural aspects of services (wait 
times, availability of providers) and institutional policies which 
result in real or perceived adverse career consequences for individuals 
who seek treatment are being addressed.
Stigma
    Stigma regarding psychological health services is a significant 
personal and cultural issue which must be addressed by a systematic 
approach in order to encourage Service members to seek care. The 
Defense Centers of Excellence (DCoE) for Psychological Health and 
Traumatic Brain Injury were established to assist in this endeavor by 
providing leadership, facilitating culture change and advocating a 
consistent, evidence-based approach across the Services, tailored to 
DOD/Service member needs. As of August 27, 2008, 52 DCoE staff are on 
board, and staffing numbers are projected to reach 155 by October 31, 
2008. Eight directorates are now at initial operating capability: (1) 
Resilience and Prevention, (2) Training and Education, (3) 
Clearinghouse, Outreach and Advocacy, (4) Psychological Health Clinical 
Standards of Care, (5) TBI Clinical Standards of Care, (6) Research, QA 
Program Evaluation & Surveillance, (7) Telehealth and Technology, and 
(8) Strategy, Plans and Programming. Completion of DCoE CONOPS and 
internal assessment metrics is projected for September 1, 2008. 
Meantime, Psychological Heath and TBI Standardization Workgroup 
meetings are underway with VA, National Institutes of Health, and 
selected academic institution participation to discuss standardization 
of definitions, metrics, outcomes, and instrumentation for 
Psychological Health and TBI surveillance and research. DCoE is 
partnering with the Substance Abuse and Mental Health Services Agency, 
coalition partners and others in the public and private sectors to 
share the stories of line leaders, celebrities and other individuals 
who have volunteered their own stories of overcoming psychological 
health problems. DCoE has established a public website, a wide-reaching 
newsletter and is planning a 24/7 call center for Service members, 
family members and clinicians--all in an effort to educate, facilitate 
treatment and decrease stigma. Service training programs have been 
developed for providers, line leaders, families and community leaders, 
and DCoE is actively at work standardizing these curricula while 
ensuring Service-specific needs are addressed. The Commandant of the 
Marine Corps recently released a videotaped message emphasizing that 
seeking help when needed is courageous, expected and, indeed, a 
fundamental duty of every Marine. Leadership is taking this issue very 
seriously.
    Despite the intense efforts to combat stigma, it remains 
exceedingly difficult to directly quantify, and even more difficult to 
demonstrate a direct causal relationship between efforts and outcomes. 
The Army's Mental Health Advisory Team (MHAT) V Study surveyed 
individuals with five separate questions to assess their perception of 
stigma: when compared with 2006, all five questions demonstrated a 
significant reduction in the perception of stigma. There are many other 
positive, indirect indicators available. For example, despite the 
decreasing numbers of traumatic combat casualties, current Military 
Health System metrics report a 100 percent increase in psychological 
health referrals in the past year. Psychological health referrals from 
Post Deployment Health Assessments rose from 3 to 5 percent. Post 
Deployment Health Reassessment referrals for psychological health 
issues increased from 6 to 8 percent in the first quarter fiscal year 
2008. While it is too early to determine if the increase is the result 
of a reduction in stigma or an increase in psychological distress or 
both, in the context of decreasing combat casualties it appears likely 
that efforts at decreasing stigma are beginning to have a positive 
effect. Standardization and centralization of DOD data collection and 
analysis should begin to yield more definitive Joint data by year's 
end.
Wait Times and Provider Availability
    Wait times are the metric by which DOD measures its success at 
providing care within a predetermined acceptable amount of time. This 
is affected by numbers of episodes of psychological health care sought, 
as well as numbers and availability of health care providers. The 
TRICARE wait time standard for routine psychological health care was 
previously established at 30 days. In order to expedite care delivery, 
DOD has taken three specific actions: (1) the wait time standard was 
decreased from 30 days to 7 days for an initial mental health 
appointment, (2) aggressive measures are underway to increase numbers 
of uniformed and civilian DOD mental health providers and (3) mental 
health functions have been moved into primary care settings to increase 
availability.
    A population based, risk-adjusted staffing model was developed to 
more clearly inform us of the required number of mental health 
providers in given locations. DOD contracted with the Center for Naval 
Analysis to validate the model and expects results later this year. 
Using that validated model, DOD will adjust the requirements and 
disposition of psychological health providers in the next fiscal year. 
In the meantime, we are actively addressing the documented shortage of 
mental health providers.
    Mental Health providers are in short supply across the country--
complicated by hard-to-serve areas, such as remote rural locations. To 
increase providers in these areas, a partnership was initiated with the 
Public Health Service, which will provide 200 uniformed mental health 
providers to the Military Health System. Twenty-five mental health care 
providers are already working in DOD; 35 additional mental health 
professionals have been recruited and are currently in the training 
pipeline destined for DOD MTFs in need; the remaining 145 are yet to be 
recruited, but are anticipated to be on board at full operational 
capability in DOD MTFs by the end of fiscal year 2009. Civilian and 
contract providers are also being employed to increase psychological 
health staff; military treatment facility commanders have hiring 
authority to increase their staffs to meet unique demands. In the past 
few months, the TRICARE managed care support contractors have added 
more than 2,800 new network psychological health providers and reached 
out to thousands of non-network providers to identify clinicians who 
would be available to take on new patients if a network provider could 
not be identified with the established wait times.
    Other initiatives to increase provider availability include 
embedding mental health providers in line units, training primary care 
providers to offer evidence-based mental health care directly to their 
beneficiaries, and building a telehealth network to provide mental 
health services to underserved populations. Special pays for active 
duty psychiatrists have been significantly increased, and some 
psychologists also are now eligible for special pays with the goal of 
increasing retention of experienced active duty mental health 
providers.
Building Resilience
    Lengthy, ongoing, and multiple deployments in our contemporary 
operating environment are stressful, demanding, and challenging on 
every level. More frequent and longer deployments increase the risk of 
stress injury. To foster prevention, encourage Service Members to 
pursue help and to address potential reasons why treatment is not 
sought, the DCoE endorses the Resilience Continuum Model which 
represents a cultural shift from treatment of illness to promotion of 
psychological health. The model promotes psychological health 
activities as a readiness issue and combat multiplier (seeking care 
when needed is considered a psychological health activity). The model 
will also be used to teach and train commanders and leaders at all 
levels to encourage their peers and subordinates to seek care when 
needed. There are several reasons why Warriors may not seek care. One 
reason (which is perhaps an under-recognized reason) is the lack of 
self awareness. It is common for Warriors to be unaware that they are 
in need of help. The Resilience Continuum Model can teach/train 
Warriors to recognize symptoms of distress and to apply proven tools 
that build resilience to mitigate risk, maximize performance, and 
prevent dysfunction. The Resilience Continuum Model will roll out on 
November 18, 2008 as part of the DOD Resilience Conference.
Institutional Policies
    In some cases, DOD and Service policies are at odds with measures 
underway to reduce stigma associated with psychological health care. 
Evaluation of those policies/procedures that result in real or 
perceived adverse career consequences for individuals with 
psychological health problems are being reviewed and changed when 
possible and appropriate.
    The recent change to Question 21 of the SF-86, or national security 
background questionnaire is a good example. Within the military, there 
are numerous vocational specialties that require attention to medical 
readiness or suitability for duty. Certain conditions may disqualify 
individuals from performing their duties within that vocation, either 
on a short-term or permanent basis. In the interest of safety and risk 
management, for example, removing an individual from their duties as an 
air traffic controller (during flight operations) aboard a nuclear 
powered aircraft carrier due to a condition that is associated with 
impairments in attention and concentration is necessary. Question 21 of 
the SF-86 asks whether one has received mental health care. Thus, when 
considering sensitive duties which require a security clearance, there 
has long been a palpable fear among Service members that their military 
and/or professional careers could be jeopardized if they were to 
receive a psychiatric diagnosis/treatment which would than have to be 
reported on a national security background questionnaire. The reality 
is that most who have had a documented mental health condition and/or 
who may have received care for such condition do not often lose their 
security clearance, although they may have their clearance held pending 
an additional psychiatric evaluation. Still, the perception of threat 
or feeling of vulnerability remains. In a recent shift to support 
Service members' efforts to seek psychological health care, we have 
seen a change in Question 21, which now permits applicants to answer 
``no'' if the psychological healthcare was strictly related to 
adjustments from service in a military combat environment. While this 
change does not address all of the concerns that service members have 
about the potential impact on their careers for seeking out 
psychological health care, it is a large step in the right direction.
    Question. Why are military members receiving subpar support? What 
is your response to the finding that half of the treatment received is 
only ``minimally adequate?''
    Answer. The Department of Defense is appreciative of the RAND 
Report, ``Invisible Wounds of War,'' as it supports the lessons we have 
learned since 9/11 and the actions we have been taking in response to 
the congressionally directed Task Force on Mental Health. DOD is well 
down the road in addressing the Task Force's vision of change by 
focusing our efforts on six key objectives: (1) leadership, culture and 
advocacy, (2) access to care, (3) quality of care, (4) resilience 
building and stigma reduction, (5) surveillance, research and 
evaluation and (6) care transition and coordination.
    The RAND study assertions of ``subpar'' support and ``minimally 
adequate'' care are inextricably linked to the RAND definition of 
quality care. In order to be considered ``high quality of care'' in the 
RAND approach, treatment regimens must be evidence-based, efficient, 
equitable and timely. According to RAND's criteria, in order to meet 
the threshold for ``minimally adequate'' psychotherapy, at least eight 
sessions must be provided. It should be noted that in 2007 a committee 
from the Institute of Medicine reviewed scientific studies of PTSD 
treatment and was unable to draw conclusions regarding optimal length 
of treatment with psychopharmacology or psychotherapy. Clearly this is 
an area that deserves further research.
    In the normal medical model, treatment regimens for common 
conditions have been sufficiently researched and scientific data (i.e. 
evidence) is available to substantiate not only what works, but what 
doesn't. This is not necessarily so with PTSD. The Institute of 
Medicine's 2007 report clearly states that of the many psychotherapy 
and medication treatment modalities currently utilized/available, only 
one has been scientifically studied enough to prove its effectiveness 
(exposure therapies). As the Institute of Medicine study notes, this 
does not mean other treatments (psychotherapies and medications) are 
not beneficial, but that they simply haven't been studied enough to 
provide scientific proof yet.
    In today's scenario where only one empirically-validated modality 
currently exists and limited numbers of providers are available to 
provide those visits, and as the RAND authors note, when those 
evidence-based treatments for PTSD are not yet available in all 
treatment settings, gaps in systematic implementation are not 
surprising. The DOD situation is even further complicated by the 
limited numbers of mental health providers available to provide eight 
or more visits to meet the RAND definition of ``minimally adequate'' 
care. That said, gaps in care to our warriors and their families are 
unacceptable, and DOD is actively working to address and close these 
gaps.
    DOD accepts the responsibility to provide the highest possible 
level of care and support to our military wounded, ill and injured and 
to close the systematic implementation gaps as soon as possible. The 
Defense Centers of Excellence (DCoE) for Psychological Health and 
Traumatic Brain Injury were established to assist in this endeavor by 
providing leadership, facilitating culture change and advocating a 
consistent, evidence-based approach across the Services, tailored to 
DOD/Service member needs. As of August 27, 2008, 52 DCoE staff are on 
board, and eight directorates are now at initial operating capability: 
(1) Resilience and Prevention, (2) Training and Education, (3) 
Clearinghouse, Outreach and Advocacy, (4) Psychological Health Clinical 
Standards of Care, (5) TBI Clinical Standards of Care, (6) Research, QA 
Program Evaluation & Surveillance, (7) Telehealth and Technology, and 
(8) Strategy, Plans and Programming.
    $270 million is targeted for Psychological Health initiatives 
across the DOD this year alone, $20 million specifically for quality of 
care improvement efforts. DCoE is leveraging existing expertise by 
integrating functions currently or shortly to be housed within six 
component Centers of Excellence: The Defense Veteran's Brain Injury 
Center (TBI evaluation, treatment, follow-up), Center for Deployment 
Psychology (deployment-related behavioral health training for mental 
health professionals), Deployment Health Clinical Center (medical 
advocacy/assistance for military personnel and families with 
deployment-related health concerns), Center for Study of Traumatic 
Stress (PH research, education, consultation and training), Telehealth 
and Technology Center (leveraging telehealth and other technologies to 
screen, educate, prevent, assess, and treat PH and TBI problems), and 
the National Intrepid Center of Excellence (PH/TBI clinical evaluation, 
diagnosis, treatment plans, family-centered education, telehealth and 
long-term follow-up.) Psychological Health Standardization Workgroup 
meetings are underway with VA, National Institutes of Health, and 
selected academic institution participation to discuss standardization 
of definitions, metrics, outcomes, and instrumentation for 
Psychological Health surveillance and research.
    Clinical research to investigate evidence-based treatment for 
deployment-related psychological health problems, including PTSD, is a 
major stepping stone on the road to the high quality of care our 
Service members need and deserve. These research efforts include 
evaluations of complimentary and alternative treatment approaches. 
DOD's unprecedented $150 million investment in Psychological Health 
studies this year is a direct reflection of our commitment to our men 
and women in uniform. Within 18 months, initial results from these 
studies will begin to objectively guide us as we continue development 
and implementation of these critical, evidence-based programs.
    The recently implemented MHS Dashboard, which is reviewed by 
Service and DOD leaders on a regular basis, brings critical information 
about psychological health and TBI performance to the most senior 
leaders who can then act on this information.
    To ensure the provision of quality, evidence-based care, each 
Service is also implementing Service-specific programs. The Air Force's 
mental health providers are receiving additional training from civilian 
and military experts on current evidence-based treatment techniques for 
PTSD. By the time this training is complete, 300-400 providers will 
receive prolonged exposure and cognitive processing training. Air Force 
Combat and Operational Stress Control programs provide full spectrum 
care to strengthen the war fighter during deployment. Deployed mental 
health providers continue to perform prevention/outreach services, 
outpatient behavioral health services, and combat stress support 
services, 24 hours per day, as needed. In addition a Traumatic Stress 
Integrated Process Team was chartered to address screening, prevention 
and treatment of traumatic stress in deployers and identify profiles of 
risk/vulnerability.
    The Army has implemented Combat and Operational Stress Control 
programs and the Battlemind initiative continues to be implemented as a 
primary tool to enhance recovery and resiliency, with an investment of 
$3.2 million for training, video and personnel.
    Navy medicine (which also provides care to Marines) has provided 
training to psychology and psychiatry trainees and providers on 
appropriate treatments for PTSD, depression and the range of 
psychological health problems associated with combat stress, all 
consistent with VA/DOD Clinical Practice Guidelines. Standardized PTSD 
training was developed and provided for Navy and Marine Corps 
chaplains, primary care physicians, corpsmen and Fleet and Family 
Support Center counselors. The Center for Deployment Psychology, one of 
the component centers of the DCoE has provided training for Navy mental 
health providers and non-mental health providers in deployment-related 
psychological health issues, as well as treatment modalities identified 
in the VA/DOD Clinical Practice Guidelines for the treatment of PTSD, 
with primary emphasis on evidence-based exposure therapy. In addition 
the Marine Corps hosts an annual COSC Conference which is well attended 
by both providers and line leaders, facilitating the sharing of ideas 
and concerns, as well as fostering the all-important collaboration 
between medical and line personnel.
    Despite the intense efforts to expand care to areas in need, train 
healthcare providers in evidence-based modalities, and standardize 
infrastructure/service efforts, it remains difficult to directly 
quantify clinical outcomes, and even more difficult to demonstrate a 
direct causal relationship between efforts and outcomes. Military 
Health System-wide metrics indicate an overall increase in numbers of 
in-theater mental health encounters. It remains unclear whether these 
findings are a result of increased mental health distress, increased 
numbers of medical personnel or increased awareness on the part of 
healthcare personnel, but in light of other decreased measurements of 
stress/emotional impairment of work performance, it would suggest that 
increased awareness on the part of leaders and medical personnel is 
having a positive effect. Standardization and centralization of DOD 
data collection and analysis should begin to yield initial joint data 
by year's end. This will allow us to improve our ability to perform an 
ongoing, objective evaluation of actions taken to date. This 
information will then be used to inform future actions and initiatives.
    Question. The truth is that mental health treatment remains a 
stigma in our armed forces. Junior enlisted and officers play an 
important role in furthering a frank discussion about the benefits of 
mental health treatment.
    What efforts have been made to have junior leaders, both enlisted 
and officer, trained to identify the symptoms of PTSD?
    Answer. All members of all Services receive training on recognizing 
the signs and symptoms of psychological stress symptoms and the 
benefits of mental health treatment when appropriate. This training 
occurs prior to and then is repeated following return from deployment. 
Some components of the training are specifically designed to address 
leaders within the enlisted and officer ranks. Last year the Army 
conducted an additional force-wide program of training for all Army 
personnel to identify the symptoms of Post Traumatic Stress Disorder as 
well as those of traumatic brain injury in themselves and in their 
fellow members. Additionally, this training emphasized the importance 
of receiving an evaluation and potential treatment if such symptoms are 
present.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
    Question. Last year, the Administration requested $88.3 million for 
the Reliable Replacement Warhead (RRW) program in the fiscal year 2008 
National Nuclear Security Administration budget and $30 million in the 
Department of Defense budget. Congress, on a clear bipartisan basis, 
eliminated all funding for this program in the NNSA budget in the 
fiscal year 2008 Omnibus Appropriations bill. It did provide $15 
million for the Navy to study how to place a Reliable Replacement 
Warhead on a Trident missile.
    Since Congress eliminated funding for the Reliable Replacement 
Warhead program in the NNSA budget, is the Navy still moving forward 
with its study? If so, why? If not, how are the funds being spent?
    Answer. The Navy is not funding for the Reliable Replacement 
Warhead program. The Navy has briefed all four defense subcommittees 
and plans to use between $9.7 million and $10 million of the fiscal 
year 2008 funds to support an integrated, adaptable Arming, Fuzing and 
Firing (AF&F) system for strategic warheads.
    The AF&F effort includes the development of requirements for Navy, 
Air Force and coalition partners (U.K.), and the investigation of the 
AF&F concepts, architectures and technologies needed to support those 
requirements, to include an analysis of adaptability.
    This work is critical to the next AF&F system and should be 
applicable to Navy, Air Force or U.K. warheads.
    The remaining $4.5 to $4.8 million will be utilized by the 
Department of Defense for either the Congressional Commission on the 
Strategic Posture of the United States or will be used for further AF&F 
integration efforts.
    Question. The Administration requested $23 million for the Navy for 
RRW for fiscal year 2009. According to the Congressional Research 
Service, the Navy has said that these funds were requested before 
Congress eliminated all funding for RRW in the National Security 
Administration's budget for fiscal year 2008 and that these funds will 
not be spent on RRW. Is that true? If so, how will the funds be spent?
    Answer. Although this effort is identified under RRW, the Navy has 
briefed all four defense subcommittees and plans to use the funding to 
conduct adaptable and integrated Arming, Fuzing and Firing (AF&F) 
development with multi-platform applicability. Funding is required to 
support a working group of U.S. Navy, U.S. Air Force and United Kingdom 
engineers to coordinate requirements across services and countries, 
identify technology development and component demonstration for those 
technologies. The work is also needed to ensure the appropriate 
technologies are mature for the current programs of record for Navy W88 
warhead and Air Force W78 warhead life extension programs.
    Question. The fiscal year 2008 Defense Authorization bill mandated 
the creation of a Congressionally appointed bipartisan commission to 
examine the U.S. strategic posture and nuclear weapons policy. It is 
due to report its findings and recommendations to Congress and the 
President by December 1, 2008. The Defense Authorization bill also 
required the next President to conduct a nuclear posture review and 
issue a report by December 1, 2009. In my view, Congress should not 
provide any funds to RRW until we have had a chance to review the 
findings of these two reports.
    Are you aware of any problem affecting the safety and reliability 
of the warheads in the current U.S. nuclear stockpile that would compel 
us to act now to fund RRW? Is there any new military requirement to 
replace the existing, well tested warheads?
    Answer. At present, the combined impact of the Stockpile 
Stewardship Program and operational adjustments made by our military 
commanders have enabled us to conclude that the current stockpile is 
safe and, with manageable exceptions, reliable. The aging stockpile, 
however, does raise concerns.
    To date, we have been able to resolve stockpile problems without 
underground nuclear testing, but this has not been without some effect 
on the military capabilities of several warheads in the stockpile. The 
current path for maintaining the stockpile by successive refurbishments 
of existing Cold War warheads raises risks in assuring long-term 
reliability. Changes due to aging components and materials result in a 
progression that takes us further away from the well-understood 
configurations that were certified with underground nuclear tests. The 
inevitable result is increasing uncertainty in performance and an 
eroding of our confidence in the safety and reliability of the 
stockpile over the long term.
    The proposed RRW Phase 2A Design Definition and Cost Study would 
provide baseline information on project schedule, cost estimates, and 
impact on certification and the nuclear weapons infrastructure. 
Completion of this phase would provide much needed data for the 
upcoming 2009 Nuclear Posture Review and would directly inform the next 
administration's decisions on a comprehensive national nuclear 
strategy.
    In the near term, we have no choice but to continue to extend the 
life of our aging legacy warheads and accept their decreasing 
performance margins. The RRW, however, offers attractive safety and 
security enhancements that significantly improve protection against 
threats. RRW would also increase long term confidence in the 
reliability of our weapons and allow for production processes that are 
less complex and that enable a responsive nuclear weapons 
infrastructure.
                   military energy/fuel alternatives
    Question. Former Secretary of Defense William Perry has stated: 
``On balance, I believe that we could defer action for many years on 
the RRW program. And I have no doubt that this would put us in a 
stronger position to lead the international community in the continuing 
battle against nuclear proliferation, which threatens us all.''
    Do you agree and, if not, why not?
    Answer. At present, the combined impact of the Stockpile 
Stewardship Program and operational adjustments made by our military 
commanders have enabled us to conclude that the current stockpile is 
safe and, with manageable exceptions, reliable. The aging stockpile, 
however, does raise concerns.
    To date, we have been able to resolve stockpile problems without 
underground nuclear testing, but this has not been without some effect 
on the military capabilities of several warheads in the stockpile. The 
current path for maintaining the stockpile by successive refurbishments 
of existing Cold War warheads raises risks in assuring long-term 
reliability. Changes due to aging components and materials result in a 
progression that takes us further away from the well-understood 
configurations that were certified with underground nuclear tests. The 
inevitable result is increasing uncertainty in performance and an 
eroding of our confidence in the safety and reliability of the 
stockpile over the long term.
    The proposed RRW Phase 2A Design Definition and Cost Study would 
provide baseline information on project schedule, cost estimates, and 
impact on certification and the nuclear weapons infrastructure. 
Completion of this phase would provide much needed data for the 
upcoming 2009 Nuclear Posture Review and would directly inform the next 
administration's decisions on a comprehensive national nuclear 
strategy.
    In the near term, we have no choice but to continue to extend the 
life of our aging legacy warheads and accept their decreasing 
performance margins. The RRW, however, offers attractive safety and 
security enhancements that significantly improve protection against 
threats. RRW would also increase long term confidence in the 
reliability of our weapons and allow for production processes that are 
less complex and that enable a responsive nuclear weapons 
infrastructure.
                                 ______
                                 
               Questions Submitted by Senator Ted Stevens
    Question. As forces level in Iraq come down to pre-surge levels, 
please describe how that will impact the readiness of our non-deployed 
forces.
    Answer. The reduction of forces in Iraq to pre-surge levels, by 
itself, will have minimal impact on the readiness of non-deployed 
forces in the near future. Only when the Army and Marine Corps reach 
their new end-strength goals, the demand signal for BCTs decreases to 
15 or less deployed in support of OIF and OEF and the Army gains steady 
and predictable access to the Reserve Component will their be a 
significant and positive impact on the readiness of non-deployed forces 
in the long term.
    Question. The supplemental budget request includes a substantial 
increase for the Commander's Emergency Response program. Can you please 
describe for us how this funding is being used and why it is such 
valuable tool for commanders in Iraq and Afghanistan?
    Answer. The purpose of the Commanders' Emergency Response Program 
(CERP) is to enable local commanders in Afghanistan and Iraq to respond 
to urgent humanitarian relief and reconstruction requirements within 
their areas of responsibility by carrying out programs that will 
immediately assist the indigenous population. Examples of project 
categories are water and sanitation, food production and distribution, 
agriculture, electricity, healthcare, transportation, civic clean up 
and economic initiatives.
    Commanders are using CERP to win the counter insurgency fight in 
Afghanistan and Iraq. It is a flexible and proven combat multiplier. 
With almost 90 percent of the projects averaging less than $200,000, 
CERP produces immediate results for the Commander in his battle space 
and enables ``continuous effects'' and retention of security gains 
after Coalition Forces depart the operational area. As we continue to 
conduct both kinetic and non-kinetic operations, Commanders must have 
adaptable resources to meet urgent humanitarian needs, rebuild critical 
infrastructure and initiate economic development. CERP provides the 
most flexible and adaptable funding available to meet the needs of the 
local Commanders.
    Question. Some members of Congress have expressed concerns that 
CERP funding is not sufficiently coordinated with other funding sources 
and may lack sufficient oversight and internal controls. What are you 
doing to ensure these funds are spent wisely and are properly accounted 
for?
    Answer. Local Commanders and Provincial Reconstruction Teams (PRT) 
in both Iraq and Afghanistan coordinate project and funding at the 
provincial level. I am confident the controls and coordination 
processes provide a balanced inter-agency approach that provides 
commanders the flexibility they need and the necessary collaboration 
for this extremely important program.
    OSD has strengthened CERP guidance several times since the 
inception of the program, improving the clarity to ensure oversight of 
this critical program. The commanders in Iraq and Afghanistan 
incorporated this guidance and revisions into their own standard 
operating procedures further outlining funds control and 
accountability. Additionally, Multi-National Corps--Iraq (MNC-I) 
developed and fielded procedures to account for the $270 million 
provided by the Government of Iraq in support of the new Iraqi I-CERP 
program.
    Question. Commanders in Iraq and Afghanistan want more full-motion 
video capability from UAV's and other ISR platforms. From and 
operational perspective, what can be accomplished through sensor 
development and wide area surveillance to meet this demand in the near 
future?
    Answer. The department recognizes the significant increases in 
demand for FMV. To that end, we are investing in additional FMV 
capacity, pursuing increased efficiencies out of fielded capabilities 
to realize more FMV hours, and are investing in development of Wide 
Area Airborne Sensing (WAAS) capabilities.
    [Deleted.]
    The USAF WAAS Program Plan to address Service requirements for 
fielding wide area airborne sensors on existing unmanned aircraft 
systems platforms was briefed to the Joint Requirements Oversight 
Council (JROC) on April 24, 2008 and favorably endorsed in JROCM 106-08 
on May 27, 2008. The USAF is currently developing JCIDS documents for 
WAAS Increment 1 while a WAAS concept of employment (CONEMP) document 
has already been drafted.
    Several additional options for rapid development and fielding of 
wide area airborne surveillance sensors have been submitted to the 
Secretary of Defense ISR Surge Task Force. These wide area surveillance 
proposals, in concert with a multitude of other manned and unmanned 
full-motion video capability proposals, are currently being reviewed 
for executability, cost and value.

                          SUBCOMMITTEE RECESS

    Senator Inouye. The subcommittee will now stand in recess 
until Wednesday, June 4 at 10 a.m. when we will receive 
testimony from public witnesses. Thank you very much.
    [Whereupon, at 12:53 p.m., Tuesday, May 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
June 4.]















       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                        WEDNESDAY, JUNE 4, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:06 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Stevens.

                       NONDEPARTMENTAL WITNESSES

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Believe it or not, 20 years ago I was 
chairing this subcommittee, handling two witnesses, the 
Secretary of Defense and the Chairman of the Joint Chiefs. In 
recent times, we have decided that this subcommittee has to 
hear from everyone possible. So all the services, nurses, 
doctors, intelligence, everyone testifies.
    Today we have the privilege of listening to citizens, 
people who handle charitable organizations, men and women who 
are concerned about certain projects, and we'd like to hear 
from you. But because time is of the essence, I hope you will 
work along with us. We have limited presentations to about 3\1/
2\ minutes, but I can assure you that every document that you 
submit will be studied and scrutinized. That I promise you, 
sir.
    So with that, may I call upon the first witness, Dr. Prem 
Paul, the Vice Chancellor for Research and Economic 
Development, University of Nebraska-Lincoln. Dr. Paul.
STATEMENT OF PREM PAUL, Ph.D., VICE CHANCELLOR FOR 
            RESEARCH AND ECONOMIC DEVELOPMENT, 
            UNIVERSITY OF NEBRASKA-LINCOLN; CHAIR, 
            EPSCoR-IDEA COALITION
    Dr. Paul. Mr. Chairman and members of the subcommittee: My 
name, as you mentioned, is Dr. Prem Paul. I'm the Chair of the 
EPSCoR-IDEA Coalition. I'm here today on behalf of the 
Coalition of EPSCoR-IDEA States, a nonprofit organization 
representing 25 States and 2 territories. The coalition 
promotes the importance of a strong national science and 
technology research infrastructure and works to improve the 
research competitiveness of the States.
    EPSCoR ensures enhancing the capabilities of institutions 
of higher education in our States. It develops, plans, and 
executes competitive, peer-reviewed research and engineering 
work that supports identified mission critical needs of the 
Department of Defense (DOD), as stated in the Department's 
broad agency announcements.
    Fiscal year 2009 is the most critical year for the EPSCoR 
program. The administration's fiscal year 2009 budget proposes 
only $2.8 million for DEPSCoR and assumes elimination of the 
program thereafter. Eliminating the program would cripple 
important basic research efforts at our universities across the 
Nation and would abandon a program that has worked for nearly 
15 years to build a national infrastructure of DOD research.
    This subcommittee in fiscal year 2008 responded 
aggressively to the administration's plan to terminate DEPSCoR 
with an allocation of nearly $20 million. The Senate Armed 
Services Committee responded by requiring a federally funded 
research and development center, FFRDC, assessment of the 
program to study the program's success. This assessment will 
comment in a forward-looking way on how the DEPSCoR program 
might be enhanced to ensure that it can meet the goal of 
furthering a national research infrastructure for DOD's basic 
research. This FFRDC is expected to report to Congress later 
this year.
    In addition, the Department now has the ability to expand 
the number of eligible States in the DEPSCoR program to roughly 
35, but we firmly believe that this would not only dilute the 
program, but would abandon the original statutory intent to 
fund only those States that have historically received the 
least amount of funding.
    Our coalition strongly asserts that the administration's 
plan to terminate the program and to delete the request for 
$2.8 million is both shortsighted and risks abandoning 
competitive, mission-critical research being conducted at our 
universities. In addition, any administrative changes to the 
program, including increasing the number of participating 
States, is premature, given that the current FFRDC assessment 
will provide important insight into all administrative and 
budgetary functions of the program.
    The coalition respectfully requests that this subcommittee 
again affirm its support for DEPSCoR by matching its fiscal 
year 2008 allocation of nearly $20 million for the program in 
fiscal year 2009. We also ask that you consider providing 
report language indicating that this subcommittee opposes any 
premature administrative changes to the program in light of the 
FFRDC assessment currently being undertaken.
    Mr. Chairman and members of the subcommittee, we appreciate 
all the support that you have provided in the past. We also 
appeal to you that every State has important contributions to 
make to the Nation's competitiveness and every State has 
scientists and engineers who can contribute significantly to 
supporting the research needs of the DOD. DEPSCoR ensures that 
every State does just that.
    Thank you very much.
    Senator Inouye. I thank you very much, Dr. Paul. [The 
statement follows:]
                 Prepared Statement of Prem Paul, Ph.D.
    Mr. Chairman and members of the subcommittee, my name is Dr. Prem 
Paul and I am the Vice Chancellor for Research and Economic Development 
at the University of Nebraska-Lincoln and chair of the EPSCoR/IDeA 
Coalition (Coalition). I am privileged to be here today on behalf of 
the Coalition of EPSCoR/IDeA States,\1\ a non-profit organization 
representing 25 States and 2 territories. The Coalition promotes the 
importance of a strong national science and technology research 
infrastructure, and works to improve the research competitiveness of 
States that have historically received the least amount of Federal 
research funding.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Puerto Rico, Rhode 
Island, South Carolina, South Dakota, Tennessee, Vermont, Virgin 
Islands, West Virginia, and Wyoming.
    States in bold letters are eligible for the DEPSCoR program. All of 
the States listed above are also eligible for the EPSCoR program.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify before your subcommittee 
regarding the Department of Defense Experimental Program to Stimulate 
Competitive Research (DEPSCoR), and thank you sincerely to the Members 
of this Subcommittee for your continued support of DEPSCoR. It is 
because of your support that DEPSCoR remains a vital program to half 
the States in the Nation and participating institutions.
    The Department of Defense (DOD) EPSCoR program was initially 
established in Public Law 103-337 with two important policy objectives. 
First, DEPSCoR ensures a national research and engineering 
infrastructure by enhancing the capabilities of institutions of higher 
education in DEPSCoR States. Secondly, DEPSCoR develops, plans and 
executes competitive, peer-reviewed research, and engineering work that 
supports identified mission critical research needs of the Department 
of Defense as stated in the Department's Broad Agency Announcements. 
Today, EPSCoR States represent 20 percent of the U.S. population, 25 
percent of the research and doctoral universities, and 18 percent of 
the Nation's scientists and engineers.
    In Nebraska for example, DEPSCoR has funded research projects such 
as supporting the Army in studying the molecular response to biowarfare 
agents that our service members or our civilian population may one day 
encounter. In fiscal year 2008, DEPSCoR funded research for 
advancements in anti-jamming capabilities which significantly improves 
the position, location and timing correction accuracy due to GPS 
receiver implementation. In another study for the Air Force, a wireless 
sensor network that can locate, track and identify multiple moving 
objects was created. This device works both indoors and outdoors where 
global positioning systems do not function. It allows the military, 
especially those stationed in Afghanistan and Iraq, to determine the 
position of friendly assets in difficult environments.
    Mr. Chairman and members of this subcommittee, fiscal year 2009 is 
perhaps the most critical year for the DEPSCoR program since it was 
initially authorized during the 103d Congress. The administration's 
fiscal year 2009 budget proposes only $2.8 million for DEPSCoR in 
fiscal year 2009 and assumes elimination of the program thereafter. 
Clearly, eliminating the DEPSCoR program would cripple important basic 
research efforts at universities across the Nation and would abandon a 
program that has worked for nearly 15 years to build a national 
infrastructure of Department of Defense research. Even at the 
administration's proposed number of $2.8 million, the program cannot 
advance its statutory mission of research infrastructure and support of 
Department of Defense research priorities.
    In fiscal year 2008, the administration first announced its plans 
to terminate DEPSCoR. This subcommittee responded aggressively with a 
very generous allocation of nearly $20 million, an amount which 
returned the program to a level that ensured the program could be 
effective and could make substantial progress in furthering the 
statutory intent of the program. Likewise, the Senate Armed Services 
Committee aggressively responded by requiring a Federally Funded 
Research and Development Center (FFRDC) assessment of the program to 
study the program's success, but also to comment in a forward-looking 
way on how the DEPSCoR program might be enhanced to ensure that it can 
meet the goal of furthering a national research infrastructure for 
Department of Defense basic research. This FFRDC is expected to be 
reported to Congress later this year, and our Coalition has worked 
diligently to produce data and supporting materials so that this study 
can serve as a valuable tool for Congress in determining the future of 
the DEPSCoR program.
    Finally, in response to new statutory flexibility for the 
Department in administering the DEPSCoR program, our Coalition has 
worked tirelessly with numerous Senators, including members of this 
subcommittee, to maintain a DEPSCoR program that serves only the 
historically underfunded States contemplated during the program's 
creation. The Department now has the ability to expand the number of 
eligible States in the DEPSCoR program to roughly 35, but we firmly 
believe that this would not only dilute the program, but it would 
abandon the original statutory intent of the program to fund only those 
States that have historically received the least amount of funding.
    In light of these developments, and in light of the FFRDC 
assessment due later this year, our Coalition strongly asserts that the 
administration's plan to terminate the program and its meager request 
of $2.8 million for fiscal year 2009 is both shortsighted and risks 
abandoning competitive, mission critical basic research being conducted 
at universities across the country. Likewise, our Coalition asserts 
that any administrative changes to the program, including increasing 
the number of participating States, is premature given that the current 
FFRDC assessment will provide important insight into all administrative 
and budgetary functions of the program.
    Accordingly, the Coalition respectfully requests that this 
subcommittee again affirm its support for DEPSCoR by matching its 
fiscal year 2008 allocation of nearly $20 million for the program in 
fiscal year 2009, and consider providing report language indicating 
that this subcommittee opposes any premature administrative changes to 
the program in light of the FFRDC assessment currently being 
undertaken.
    Although the program could be significantly enhanced with an even 
greater allocation than $20 million, we recognize the tight 
discretionary budget constraints faced by this subcommittee and we 
recognize that the FFRDC study will provide an opportunity for a much 
fuller discussion in the next fiscal year. We, therefore, simply ask 
that this subcommittee level fund the DEPSCoR program at the fiscal 
year 2008 level so that we can protect DEPSCoR prior to the issuance of 
the FFRDC study and so that we can ensure an effective basic research 
program in fiscal year 2009.
    Mr. Chairman and members of this subcommittee, every State has 
important contributions to make to the Nation's competitiveness and 
every State has scientists and engineers that can contribute 
significantly to supporting the research needs of the Department of 
Defense. DEPSCoR ensures that every State does just that.
    Eliminating or significantly underfunding the DEPSCoR program will 
create a critical research shortfall in participating States that 
otherwise may not receive an investment of Department of Defense 
research funding. Now more than ever we must invest in research 
programs that will support our national security and will improve our 
readiness and defense capabilities in the future by building a national 
research infrastructure to support to our long-term research capability 
requirements. The participating DEPSCoR States continue to do just 
that, but it will require the continued support of this subcommittee to 
level fund this program at its current allocation of $20 million.
    Mr. Chairman and members of this subcommittee, on behalf of the 
Coalition of EPSCoR/IDeA States, I thank you for your time and for the 
opportunity to testify before the subcommittee on the importance of the 
DEPSCoR program, and I appreciate your consideration of this request.
    Thank you.

    Senator Inouye. I'll call upon the Chair of the Extremity 
War Injuries Project Team, Dr. Andrew N. Pollak.
STATEMENT OF ANDREW N. POLLAK, M.D., CHAIR, EXTREMITY 
            WAR INJURIES PROJECT TEAM, AMERICAN ACADEMY 
            OF ORTHOPAEDIC SURGEONS
    Dr. Pollak. Good morning, Mr. Chairman. I'm Dr. Andy 
Pollak. I'm Chief of Orthopaedic Surgery at Shock Trauma at 
Baltimore. As you mentioned, I chair the Extremity War Injuries 
Project Team for the American Academy of Orthopaedic Surgeons.
    On behalf of military and civilian orthopaedic surgeons and 
researchers, I take this opportunity to very strongly urge this 
subcommittee to continue to provide significant resources for 
peer-reviewed medical research on extremity war injuries. Thank 
you for providing the DOD with funding for this purpose since 
fiscal year 2006.
    Chairman Inouye, we know of your experience involving 
extremity trauma during war and appreciate the fact that you 
have both personal and professional perspectives from which to 
address this issue. We're very grateful for the dedicated work 
of Senators Tom Harkin and Kay Bailey Hutchison, both members 
of this subcommittee. They worked together in sponsoring a 
recent ``Dear Colleague'' letter to you and to Senator Stevens 
requesting $50 million for this critical peer-reviewed research 
program.
    Being from Maryland, I'm proud to acknowledge that 
subcommittee member Senator Barbara Mikulski and Senator Ben 
Cardin also supported the request, which was signed by 15 
Senators in all.
    Mr. Chairman, last August I had the privilege of performing 
surgeries in military facilities at Balad, Iraq, and Landstuhl, 
Germany, on the invitation of Air Force Surgeon General James 
Roudebush. I can assure this subcommittee of the outstanding 
quality of trauma care being delivered by the military health 
system there.
    The problem facing surgeons is the limitation of medical 
knowledge and techniques in this field. We need your help to 
advance the state of the art. Over 80 percent of injuries to 
our service men and women in the global war on terror now 
involve the extremities, often severely mangled and multiple 
injuries to the arms and legs.
    The peer-reviewed orthopaedic extremity trauma research 
program was designed to develop targeted medical research. The 
objective is to help military surgeons to find new limb-sparing 
techniques, with the goal of avoiding amputations and 
preserving and restoring the function of injured extremities. 
The interest and capacity of the U.S. research community is 
very strong. During the past 2 years, the DOD has been able to 
fund 26 top research projects. However, another 177 approved 
highly scored projects have been turned away because of limited 
funding, a situation that will continue into fiscal year 2009 
unless the program receives the significant resources needed to 
achieve an operating budget of $50 million.
    This desperately needed targeted research will lead to 
improvements in quality of life for our injured heroes. The 
funding you provide is being well spent. The new knowledge 
gained is advancing our ability to better understand and better 
treat serious extremity injuries. Our message is 
straightforward: The state of the science must be advanced to 
provide better treatment options for our wounded service 
members who suffer extremity trauma. The current peer-reviewed 
research program has a very large backlog of unfunded top-
quality research proposals that must be addressed, and the DOD 
must be convinced to actively budget for extremity trauma 
research. But until that occurs, we believe that Congress has 
an obligation to ensure that DOD receives the necessary 
resources.
    Mr. Chairman, Mr. Vice Chairman, you've recognized the 
urgent need to finance extremity research over the last 3 
years. We are extremely grateful for that support. Based on the 
level of scientific need and the amount of unfunded research, 
our goal is to see this DOD program achieve an operating level 
of $50 million per year.
    Thank you and the entire subcommittee for your vision and 
leadership in responding to this appeal. We strongly urge your 
continued support. Thank you.
    [The statement follows:]
                 Prepared Statement of Andrew N. Pollak
    Chairman Inouye, Vice Chairman Stevens, members of the Senate 
Defense Appropriations Subcommittee, we thank you for the opportunity 
to testify today. I am Andrew N. Pollak, M.D., and I speak today on 
behalf of the American Academy of Orthopaedic Surgeons (AAOS), of which 
I am an active member, as well as on behalf of military and civilian 
orthopaedic surgeons involved in extremity trauma research and care.
    I am Chair of the Academy's Extremity War Injuries and Disaster 
Preparedness Project Team, past-chair of its Board of Specialty 
Societies, and a subspecialist in orthopaedic traumatology. I am 
Associate Director of Trauma and Head of the Division of Orthopaedic 
Traumatology at the R. Adams Cowley Shock Trauma Center and the 
University of Maryland School of Medicine. My division at Shock Trauma 
is responsible for providing education and training in orthopaedic 
traumatology to residents from eight separate training programs 
nationally, including the Bethesda Naval, Walter Reed Army, and Tripler 
Army orthopaedic residency programs. In addition, Shock Trauma serves 
as the home for the Air Force Center for the Sustainment of Trauma and 
Readiness Skills (CSTARS) program. I also serve as a Commissioner on 
the Maryland Health Care Commission and on the Board of Directors of 
the Orthopaedic Trauma Association.
    Senators, on behalf of all the military and civilian members of the 
American Academy of Orthopaedic Surgeons, please allow me to take this 
opportunity today to sincerely thank you both as well as the members of 
this subcommittee for your vision and leadership in providing funding 
in fiscal years 2006, 2007, and 2008 for the Army's peer reviewed 
medical research program on extremity war injuries.
    We are very grateful for the dedicated work of Senators Tom Harkin 
and Kay Bailey Hutchison--both members of this subcommittee--in 
sponsoring a ``Dear Colleague'' letter this year supporting a request 
of $50 million for this critical peer reviewed research program. I am 
proud to say subcommittee Member Senator Barbara Mikulski also 
supported the request which was signed by the following additional 
Senators, and we are very thankful for their support: Senators 
Barrasso, Brown, Cardin, Chambliss, Colman, Cornyn, Durbin, Inhofe, 
Isakson, Kennedy, Sanders, and Stabenow.
    Mr. Chairman, we very respectfully commend the committee's work in 
including additional resources for this important research in the 
fiscal year 2008 Supplemental Appropriations bill currently under 
negotiation and we strongly urge your continued support of this program 
for fiscal year 2009 at an annual operating level of $50 million. We 
request that you continue that level of resources until the Department 
of Defense (DOD) begins to include funding for extremity trauma 
research in its regular budget request to this committee.
    Our message is simple:
  --the state-of-the-science must be advanced to provide better 
        treatment options for our wounded service members who suffer 
        extremity trauma;
  --the current peer-reviewed research program has a very large backlog 
        of unfunded, top quality research proposals that must be 
        addressed; and
  --the Department of Defense must be convinced to actively budget for 
        extremity trauma research, but until that occurs, we believe 
        that the Congress has an obligation to ensure that the 
        necessary resources are appropriated and directed.
    As these combined wars enter their sixth year, there continues to 
be a profound need in the Nation for focused medical research to help 
military surgeons find new limb-sparing techniques with the goal of 
avoiding amputations and preserving and restoring the function of 
injured extremities.
    Chairman Inouye, we know of your experience with extremity trauma 
during war and appreciate the fact that you have both personal and 
professional perspectives from which to address this issue.
    You may remember that last year we were accompanied by CBS News 
correspondent Kimberly Dozier, who was recovering from severe wounds to 
her legs and head sustained on the streets of Baghdad while covering 
American soldiers on patrol with Iraqi security forces on Memorial Day 
2006. She had been imbedded with the Army's 4th Infantry Division. The 
patrol was the victim of a car bombing which critically injured 
Kimberly and killed her cameraman, soundman, a U.S. Army captain they 
were following, and his Iraqi translator. I am happy to report that Ms. 
Dozier is back to work reporting for CBS. In fact, she recently won the 
prestigious Peabody Journalism Award for her coverage last year of U.S. 
military women who had lost limbs in the line of duty in Iraq. She is 
truly one of those rare individuals willing to put herself in harm's 
way to chronicle the work of our brave American service men and women 
in Iraq.
    Ms. Dozier wrote about her experiences in surviving and recovering 
from the blast of a 500-pound car bomb remotely detonated on a Baghdad 
street. In a Washington Post op-ed article Sunday, September 30, 2007, 
titled ``What I Faced After Iraq,'' she discussed the many medical 
decisions that have to be made by surgeons in the repair and recovery 
phases of treating wounded soldiers. She also detailed many important 
clinical questions that arise where much more medical research is 
needed. ``Like me, future victims of extremity war injuries will 
desperately need the kind of knowledge that could be gained from 
adequate research,'' she concluded.
    During the past year there have been many other accounts of the 
challenges to recovery faced by our wounded warriors with extremity 
injuries. The powerful HBO documentary by James Gandolfini, ``Alive Day 
Memories: Home From Iraq,'' was one of those. The film contains 
interviews with 10 members of the Army and Marines who survived severe 
injuries. Each has their ``Alive Day''--the day they narrowly escaped 
dying. Many spoke of the types of extremity injuries that have been 
sustained by our troops in Iraq and Afghanistan.
    Military researchers have documented that fact that approximately 
82 percent of war injuries suffered fighting the global war on terror 
involve the extremities--often severe and multiple injuries to the arms 
and legs.
    In fact, House Report 110-279 (July 30, 2007, page 402) 
accompanying the fiscal year 2008 Defense Appropriations bill states 
that ``Extremity injuries are the number one battlefield injury . . . 
dynamic research and treatment is necessary to provide service members 
the greatest ability to recover from injuries sustained on the 
battlefield.''
    By funding the Peer Reviewed Orthopaedic Extremity Trauma Research 
Program operated on behalf of all services by the Army's Medical 
Research and Materiel Command, your committee is directly advancing the 
state-of-the-science in this field. Your action will directly result in 
improved treatments for our wounded warriors now and in future 
conflicts.
    It is important to point out that unique to this conflict is a new 
type of patient, a warfighter with multiple and severely mangled 
extremities who is otherwise free of life-threatening injury to the 
torso because of improvements in protective body armor and the 
excellent care quickly delivered through the echelon treatment system. 
Such injuries are rarely, if ever, seen in civilian surgical hospitals, 
even in Level 1 trauma centers. Current challenges that often compound 
the battlefield injuries include serious infections due to the nature 
of the injuries and the environment where they are sustained, and the 
need for immediate transport for more complex surgery.
    The Academy's interest in this effort began in the very early days 
of Operation Enduring Freedom (OEF) when our deployed military Academy 
members began to report the great clinical needs that were emerging as 
they went about their work in surgeries to save injured service men and 
women. Soon studies on the nature of injuries in Iraq and Afghanistan 
documented the high proportion of extremity injuries as well as the 
severity of injuries.
    I was fortunate to travel to Landstuhl, Germany, and Iraq last 
August to initiate the Distinguished Visiting Scholars Program. This 
program is a joint initiative between the AAOS and the Orthopaedic 
Trauma Association. The activity allows civilian orthopaedic trauma 
specialists with demonstrated clinical expertise and national 
recognition for their teaching abilities to volunteer 2 weeks at a time 
to be away from their practices performing surgeries at Landstuhl 
Regional Medical Center. I also had the privilege of performing 
surgical operations in Balad, Iraq, as part of a request by Air Force 
Surgeon General James Roudebush to evaluate the trauma care being 
delivered at the Air Force Theater Hospital and to investigate the 
feasibility and value of extending the Distinguished Visiting Scholars 
Program into Iraq and Afghanistan. Based on my experiences in Balad, I 
can assure this committee of the outstanding quality of trauma care 
being delivered by the military health system there.
    On January 23 and 24 of this year, the third annual Extremity War 
Injuries Scientific Symposium was held in Washington, DC, sponsored by 
our Academy, along with the Society of Military Orthopaedic Surgeons 
and the Orthopaedic Trauma Association. This combined effort of the two 
associations and the United States military began in 2006 in an 
initiative to examine the nature of extremity injuries sustained during 
OEF and Operation Iraqi Freedom (OIF) and to plan for advancing the 
state-of-the-science and treatment of these injuries. The 2008 meeting 
was attended by more than 175 military and civilian leaders in 
extremity medical research and treatment from around the world. We were 
very fortunate to have had Joint Chiefs Chairman ADM Michael Mullen, 
Senator Tom Harkin, and Assistant Secretary of Defense for Health 
Affairs Dr. Ward Casscells each speak to the conference audience about 
their perspectives on injuries being sustained by our armed forces.
    This conference series has produced a widely referenced scientific 
publication describing the clinical challenges posed by extremity war 
injuries, and a research agenda to guide the scientific community and 
the managers of the Peer Reviewed Orthopaedic Extremity Trauma Research 
Program in planning and executing the program.
orthopaedic trauma from operation iraqi freedom and operation enduring 
                                freedom
    The likelihood of surviving wounds on the battlefield was 69.7 
percent in WWII and 76.4 percent in Vietnam. Now, thanks in part to the 
use of body armor, ``up-armored'' vehicles, intense training of our 
combat personnel, and surgical capability within minutes of the 
battlefield, survivability has increased dramatically to 90.2 percent 
as of February 2007.
    The Armed Forces are attempting to return significantly injured 
warriors to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
warriors part of the military team. Moreover, when they do leave the 
Armed Forces, these rehabilitated warriors have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The military believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country and our Academy fully supports those efforts.
    It probably comes as no surprise that the vast majority of trauma 
experienced in Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. A recent article in the ``Journal 
of Orthopaedic Trauma'' reports on wounds sustained in Operation Iraqi 
Freedom and Operation Enduring Freedom based on data from the Joint 
Theater Trauma Registry, a database of medical treatment information 
from theater of combat operations at U.S. Army medical treatment 
facilities. From October, 2001 through January, 2005, of 1,566 soldiers 
who were injured by hostile enemy action, 1,281 (82 percent) had 
extremity injuries, with each solider sustaining, on average, 2.28 
extremity wounds. These estimates do not include non-American and 
civilians receiving medical care through U.S. military facilities. 
(Owens, Kragh, Macaitis, Svoboda and Wenke. Characterization of 
Extremity Wounds in Operation Iraqi Freedom and Operation Enduring 
Freedom. J Orthopaedic Trauma. Vol. 21, No. 4, April 2007. 254-257.)
    An earlier article reported on 256 battle casualties treated at the 
Landstuhl Regional Medical Center in Germany during the first 2 months 
of OIF, finding 68 percent sustained an extremity injury. The reported 
mechanism of injury was explosives in 48 percent, gun-shot wounds in 30 
percent, and blunt trauma in 21 percent. As the war has moved from an 
offensive phase to the current counter-insurgency campaign, higher 
rates of injuries from explosives have been experienced. (Johnson BA. 
Carmack D, Neary M, et al. Operation Iraqi Freedom: the Landstuhl 
Regional Medical Center experience. J Foot Ankle Surg. 2005; 44:177-
183.) According to the JTTR, between 2001 and 2005, explosive 
mechanisms accounted for 78 percent of the war injuries compared to 18 
percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor is very effective 
in protecting a soldier's torso, his or her extremities are 
particularly vulnerable during attacks.
Characteristics of Military Orthopaedic Trauma
    At this point we there have been about 36,000 casualties in the 
global war on terror. as mentioned earlier, the vast majority have 
injuries to their extremities--often severe and multiple injuries to 
the arms, legs, head and neck. Most wounds are caused by exploding 
ordinance--frequently, improvised explosive devices (IEDs), rocket-
propelled grenades, as well as high-velocity gunshot wounds. Military 
surgeons report an average of three wounds per casualty.
    According to the ``New England Journal of Medicine'', blast 
injuries are producing an unprecedented number of ``mangled 
extremities''--limbs with severe soft-tissue and bone injuries. 
(``Casualties of War--Military Care for the Wounded from Iraq and 
Afghanistan,'' NEJM, December 9, 2004). The result of such trauma is 
open, complex wounds with severe bone fragmentation. Often there is 
nerve damage, as well as damage to tendons, muscles, vessels, and soft-
tissue. In these types of wounds, infection is often a problem. 
According to the JTTR, 53 percent of the extremity wounds are 
classified as penetrating soft-tissue wounds, while fractures compose 
26 percent of extremity wounds. Other types of extremity wounds 
composing less than 5 percent each are burns, sprains, nerve damage, 
abrasions, amputations, contusions, dislocations, and vascular 
injuries.
    The sheer number of extremity injuries represents a staggering 
health burden. Between January 2003 and February 2007, more than 14,500 
U.S. warriors have been wounded severely enough to require evacuation 
out of theater. In addition, 780 American patients have lost one or 
more hands or feet (major limb amputation).
Military versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted.
    With orthopaedic military trauma, there are up to five echelons of 
care, unlike in civilian settings when those injured are most likely to 
receive initial treatment at the highest level center. Instead, wounded 
warriors get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be ``medevaced'' to receive care 
and transportation is often delayed due to weather or combat 
conditions. It has been our experience that over 65-percent of the 
trauma is urgent and requires immediate attention.
    Injuries from IEDs and other explosive ordnance in Iraq and 
Afghanistan differ markedly from those of gunshot wounds sustained in 
civilian society. The contamination, infection, and soft-tissue injury 
caused by exploding ordnance requires more aggressive treatment and new 
techniques, especially when the individual is in proximity to the blast 
radius.
    Warriors are usually in excellent health prior to injury. However, 
through the evacuation process they may not be able to eat due to 
medical considerations resulting in impaired body nitrogen stores and 
decreased ability to heal wounds and fight infections. This presents 
many complicating factors when determining the most appropriate care.
    The setting in which care is initially provided to wounded soldiers 
is less than ideal, to say the least, especially in comparison to a 
sterile hospital setting. The environment, such as that seen in Iraq 
and Afghanistan, is dusty and hot, leading to concerns about secondary 
contamination of wounds in the hospital setting. For example, infection 
from acinetobacter baumanni, a ubiquitous organism found in the desert 
soil of Afghanistan and Iraq, is extremely common. In addition, the 
surgical environment is under constant threat of attack by insurgents. 
Imagine teams of medical specialists working in close quarters to save 
an injured serviceman while mortars or rockets are raining down on the 
hospital. Finally, the forward-deployed surgical team is faced with 
limited resources that make providing the highest level of care 
difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, including principles of debridement 
of open wounds, utilization of external fixation and use of tourniquets 
for control of hemorrhage which has been used extensively during the 
current conflict as well as in civilian care.
         future needs of orthopaedic extremity trauma research
    As mentioned earlier, an important development in this scientific 
effort has been the convening of the annual Extremity War Injury 
Symposia, which began in January of 2006. These widely attended medical 
conferences in Washington, DC, bring together leading military and 
civilian clinicians and researchers to focus on the immediate needs of 
personnel sustaining extremity injuries. Discussions at the conferences 
has confirmed that there is tremendous interest and much untapped 
research capacity in the military and civilian research community in 
the Nation.
    These extraordinary scientific meetings were a partnership effort 
between organized orthopaedic surgery, military surgeons and 
researchers. They were attended by key military and civilian physicians 
and researchers committed to the care of extremity injuries. The first 
conference addressed current challenges in the management of extremity 
trauma associated with recent combat in Iraq and Afghanistan. The major 
focus was to identify opportunities to improve care for the sons and 
daughters of America who have been injured serving our Nation. The 
second focused on the best way to deliver care within the early 
echelons of treatment. The third explored the wide spectrum of needs in 
definitive reconstruction of injuries. Scientific proceedings from the 
symposia have been published by our Academy and made available to the 
military and civilian research community. Each conference has continued 
to refine the list of prioritized research needs which I will 
summarize.
Timing of Treatment
    Better data are necessary to establish best practices with regard 
to timing of debridement, timing of temporary stabilization and timing 
of definitive stabilization. Development of animal models of early 
versus late operative treatment of open injuries may be helpful. 
Prospective clinical comparisons of treatment groups will be helpful in 
gaining further understanding of the relative role of surgical timing 
on outcomes.
Techniques of Debridement
    More information is necessary about effective means of 
demonstrating adequacy of debridement. Current challenges, particularly 
for surgeons with limited experience in wound debridement, exist in 
understanding how to establish long-term tissue viability or lack 
thereof at the time of an index operative debridement. Since patients 
in military settings are typically transferred away from the care of 
the surgeon performing the initial debridement prior to delivery of 
secondary care, opportunities to learn about the efficacy of initial 
procedures are lost. Development of animal models of blast injury could 
help establish tissue viability markers. Additional study is necessary 
to understand ideal frequencies and techniques of debridement.
Transport Issues
    Clinical experience suggests that current air evacuation techniques 
are associated with development of complications in wound and extremity 
management although the specific role of individual variables in the 
genesis of these complications is unclear. Possible contributing 
factors include altitude, hypothermia, and secondary wound 
contamination. Clinical and animal models are necessary to help develop 
an understanding of transport issues.
Coverage Issues
    Controlled studies defining the role of timing of coverage in 
outcome following high-energy extremity war injuries are lacking. Also 
necessary is more information about markers and indicators to help 
assess the readiness of a wound and host for coverage procedures. 
Additional animal modeling and clinical marker evaluation are necessary 
to develop understanding in this area.
Antibiotic Treatments
    Emergence of resistant organisms continues to provide challenges in 
the treatment of infection following high-energy extremity war 
injuries. Broader prophylaxis likely encourages development of 
antibiotic resistance. In the context of a dwindling pipeline of new 
antibiotics, particularly those directed toward gram-negative 
organisms, development of new technologies to fight infection is 
necessary. This patient population offers opportunity to assess 
efficacy of vaccination against common pathogens. Partnerships with 
infectious disease researchers currently involved in addressing similar 
questions warrants further development.
Management of Segmental Bone Defects
    A multitude of different techniques for management of segmental 
bone defects is available. These include bone transport, massive onlay 
grafting with and without use of recombinant proteins, delayed 
allograft reconstruction, and acute shortening. While some techniques 
are more appropriate than others after analysis of other clinical 
variables, controlled trials comparing efficacy between treatment 
methods are lacking. Variables that may affect outcome can be grouped 
according to patient characteristics including co-morbidities, injury 
characteristics including severity of bony and soft-tissue wounds, and 
treatment variables including method of internal fixation selected. 
Evaluation of new technologies for treatment of segmental bone defects 
should include assessment of efficacy with adequate control for 
confounding variables and assessment of cost-effectiveness. 
Partnerships with other military research programs may be particularly 
effective in improving clinical capabilities in this area.
Development of an Animal Model
    A large animal survival military blast injury model is necessary to 
serve as a platform for multiple research questions including: VAC v. 
bead pouch v. dressing changes; wound debridement strategy; effect of 
topical antibiotics; modulation of inflammatory response; timing of 
wound closure; and vascular shunt utilization.
Amputee Issues
    Development and validation of ``best practice'' guidelines for 
multidisciplinary care of the amputee is essential. Treatment protocols 
should be tested clinically. Studies should be designed to allow for 
differentiation between the impacts of the process versus the device on 
outcome. Failure mode analysis as a tool to evaluate efficacy of 
treatment protocols and elucidate shortcomings should be utilized. 
Clinically, studies should focus on defining requirements for the 
residual limb length necessary to achieve success without proceeding to 
higher level amputation. Outcomes based comparisons of amputation 
techniques for similar injuries and similar levels should be performed. 
Use of local tissue lengthening and free tissue transfer techniques 
should be evaluated. In the context of current results and increasing 
levels of expectation for function following amputation, development of 
more sensitive and military appropriate outcomes monitors is necessary.
Heterotopic Ossification
    This condition, known as ``H.O.'' by the many soldiers who 
experience it, is abnormal and uncontrolled bone growth that often 
occurs following severe bone destruction or fracture. Animal models of 
heterotopic ossification should be utilized to develop early markers 
for heterotopic ossification that could identify opportunities for 
prevention. Better information is needed about burden of disease 
including prevalence following amputation for civilian versus military 
trauma and frequency with which symptoms develop. Treatment methods 
such as surgical debridement, while effective, necessarily interrupt 
rehabilitation. Prevention could expedite recovery and potentially 
improve outcome.
    the peer reviewed orthopaedic extremity trauma research program
    Senator Inouye, the AAOS and military and civilian orthopaedic 
surgeons and researchers are very grateful for your subcommittee's 
vision in creating the Peer Reviewed Orthopaedic Extremity Trauma 
Research Program in the fiscal year 2006 Defense Appropriations bill. 
This is the first program created in the Department of Defense 
dedicated exclusively to funding peer-reviewed intramural and 
extramural extremity trauma research. Having the program administered 
by the U.S. Army Institute of Surgical Research ensures that the 
funding closely follows the research priorities established by the 
Armed Forces. USAISR has extensive experience administering similar 
grant programs and is the only Department of Defense research 
laboratory devoted solely to improving combat casualty care. Military 
orthopaedic surgeons, in addition to personnel at the U.S. Army Medical 
Research and Materiel Command, Fort Dietrick, have also had significant 
input into the creation of this program and fully support its goals.
    The design of the program fosters collaboration between civilian 
and military orthopaedic surgeons and researchers and various 
facilities. Civilian researchers have the expertise and resources to 
assist their military colleagues with the growing number of patients 
and musculoskeletal war wound challenges, to build a parallel research 
program in the military. As can been seen in reviewing the growing 
numbers of research applications submitted under each RFP, civilian 
investigators are interested in advancing the research and have 
responded enthusiastically to engage in these efforts, and this will 
also provide wide ranging spin-off benefits to civilian trauma 
patients.
    This activity is a targeted, competitively-awarded research program 
where peer reviewers score proposals on the degree of (1) military 
relevance, (2) military impact, and (3) scientific merit. Military and 
civilian orthopaedic surgeons are highly involved in defining the 
research topics and in evaluating and scoring the proposals. This 
unique process ensures that projects selected for funding have the 
highest chance for improving treatment of battlefield injuries.
    The program's first Broad Agency Announcement for grants was 
released on February 13, 2006, and identified the following basic, 
transitional, and clinical research funding priorities: improved 
healing of segmental bone defects; improved healing of massive soft 
tissue defects; improved wound healing; tissue viability assessment and 
wound irrigation and debridement technologies; reduction in wound 
infection; prevention of heterotopic ossification; demographic and 
injury data on the modern battlefield and the long-term outcomes of 
casualties (i.e., joint theatre trauma registry); and improved pre-
hospital care of orthopaedic injuries.
    Almost 100 pre-proposals were received for consideration, with 76 
invited to compete with a full proposal. An upper limit of $500,000 was 
established for any one grant, to give a reasonable number of grantees 
an opportunity to participate. Ordinarily grants would be awarded for 
much higher amounts to support the research required. Larger multi-
institutional studies had to limit what they were proposing.
    Sixty proposals were evaluated and found meritorious and militarily 
relevant, however only 14 grants could be funded for their first year 
of research based on available funding. The amount that would have been 
needed to fund the remaining 46 grants totals $44,852,549.
    A second call for proposals was issued by the Army on March 29, 
2007 based on funding provided in the fiscal year 2007 Appropriations 
bill. This request for proposals generated 144 ``pre proposal'' 
applications. Of those selected to provide full applications, 96 
research leaders from around the country had their projects judged by 
reviewers to be scientifically meritorious, with a total cost of $125 
million ready for award. However, available funding allowed only 12 new 
grants to be funded.
    Significant new funding from the Congress would allow for more 
robust numbers of grants, a broader scope of work and increased multi-
institutional collaboration. Clinical trials and more in- depth 
tracking of long term outcomes would also be possible--important 
components in rapidly advancing the state of the science.
                               conclusion
    With extremity trauma being the most common form of injury seen in 
current military conflicts, it is crucial that significant funding be 
directed specifically to the advancement of research. The AAOS has 
worked closely with the top military orthopaedic surgeons, at world-
class facilities such as the U.S. Army Institute of Surgical Research, 
Brooke Army Medical Center, Bethesda Naval Hospital, Landstuhl Regional 
Medical Center, and Walter Reed Army Medical Center to identify the 
gaps in research and clinical treatment--and the challenges are many.
    Extremity trauma research currently being carried out at those and 
other facilities, and at civilian medical centers, is vital to the 
health of our soldiers and to the Armed Forces' objective to return 
injured soldiers to full function in hopes that they can continue to be 
contributing soldiers and active members of society.
    The 17,000 members of our Academy thank you for sustaining the Peer 
Reviewed Orthopaedic Extremity Trauma Research Program. While Congress 
funds an extensive array of medical research through the Department of 
Defense, with over 80 percent of military trauma being extremity-
related, I can assure you that this type of medical research will 
greatly benefit our men and women serving in the global war on terror 
and in future conflicts.
    Funding is needed to support critical research outlined in the 
targeted research plan developed through scientific collaboration at 
the Extremity War Injury Symposia. Research in the management of 
extremity injuries will lead to quicker recovery times from blast 
injuries for our wounded warriors, improved function of limbs that are 
saved, better response rates to infection, and new advances in amputee 
care in cases where amputation remains the only option.
    As I have demonstrated, the interest and capacity of the U.S. 
research community is very strong. During the past 2 years, the Defense 
Department has been able to fund 26 top research projects--but another 
177 approved, highly scored projects have been turned away because of 
limited funding. The result: more than $157 million in urgently needed, 
high-quality research has gone unfunded and this situation will 
continue in fiscal year 2009 unless the program receives the 
significant resources needed to achieve an operating budget of $50 
million.
    Mr. Chairman and Mr. Vice Chairman, the American Academy of 
Orthopaedic Surgeons, as well as the entire orthopaedic trauma 
community, stands ready to work with this subcommittee to identify and 
prioritize research opportunities for the advancement in the care of 
extremity war injuries. Military and civilian orthopaedic surgeons and 
researchers are committed to pursuing scientific inquiry that will 
benefit the unfortunately high number of soldiers afflicted with such 
trauma and return them to the highest level of function possible. This 
investment to improve treatment for our soldiers will be well spent. It 
is imperative that the Federal Government--when establishing its 
defense health research priorities in the future--continues to ensure 
that research on treating extremity war injuries remains a top priority 
and that the large backlog of unfunded research is eliminated. We 
appreciate your consideration of our perspective on this critical issue 
and urge your continued action on behalf of our Nation's wounded 
warriors.

    Senator Inouye. I have one question, sir.
    Dr. Pollak. yes, sir.
    Senator Inouye. Those veterans who have been residing in 
tropical areas where it's hot and muggy have discarded their 
prosthetic appliances because the old World War II required a 
stump sock, which gets soaked up with sweat, and this huge 
monstrosity called an arm or leg. Can in later life, say 30, 40 
years later, decide that times have changed and equipment has 
changed and that they could fit themselves? Or is there a time 
limit?
    Dr. Pollak. Well, there's no time limit on changing the 
type of prosthesis that they're wearing. There have certainly 
been tremendous advances in prostheses and sockets and the 
ability to wear sockets comfortably, and much of that work, as 
you know, has been done at Walter Reed and San Antonio at Brook 
Army Medical Center and the Center for the Intrepid.
    There are opportunities, and the Veterans Administration 
(VA) needs to work closely with the DOD to share some of the 
tremendous advances that have been made. I can assure that as a 
civilian orthopaedic surgeon right now, the quality of 
prosthesis available for our injured warriors coming out of 
Walter Reed and Brook is far in excess of anything that we can 
get access to for civilian patients with amputations. 
Hopefully, that quality of amputee care can be translated to 
the VA as well.
    Senator Inouye. Thank you very much, sir.
    Our next witness is the Director of the University of 
Dayton Research Institute and Chair of ASME's DOD Task Force, 
Dr. John Leland. Dr. Leland.
STATEMENT OF JOHN LELAND, Ph.D., DIRECTOR, UNIVERSITY 
            OF DAYTON RESEARCH INSTITUTE AND CHAIR, DOD 
            TASK FORCE, AMERICAN SOCIETY OF MECHANICAL 
            ENGINEERS
    Dr. Leland. Good morning, Mr. Chairman, Mr. Vice Chairman. 
As you noted, I'm Chair of the ASME----
    Senator Stevens. Do you want to pull on your mike so the 
people in back can hear you, please? Pull the mike toward you 
and turn it on.
    Dr. Leland. I apologize. As you mentioned, I'm Chair of the 
American Society of Mechanical Engineers (ASME) DOD Task Force 
and Director of the University of Dayton Research Institute. 
I'm pleased to have this opportunity to provide comments to 
this subcommittee on the fiscal year 2009 DOD budget request.
    The ASME is a 127,000 member professional organization 
focused on technical, educational, and research issues. Since 
World War II, the United States has led the world in science 
innovation and technology. However, this lead is quickly 
eroding. Our Nation's engineers play a critical role in 
national defense through research discoveries and technology 
development. Therefore my comments will focus on the DOD 
science and technology budget.
    The administration's fiscal year 2009 request for defense 
science and technology is $11.48 billion, which is $1.2 billion 
or 9.5 percent less than the fiscal year 2008 appropriated 
amount. The 2009 request, if implemented, would represent a 
significantly reduced investment in defense science and 
technology. We strongly urge this subcommittee to consider 
additional resources to maintain stable funding of science and 
technology at a minimum level of $15.4 billion.
    Basic research or 6Y.1 accounts comprise a small percentage 
of RDT&E funds. The programs that these accounts support are 
crucial to fundamental scientific advances and maintaining a 
highly skilled science and technology workforce. The task force 
recommends that basic research be funded at a minimum level of 
$1.7 billion to ensure that these advances and the vitality of 
our future science and technology workforce are maintained.
    With regard to 6.2 applied research I understand full well 
the importance of these funds for developing our future 
scientists and engineers. More than 250 students have the 
opportunity to work on defense research programs each year at 
the University of Dayton Research Institute. Many more enjoy 
opportunities through local defense-oriented companies. The 
proposed 16 percent reduction in 6.2 applied research would 
stifle a key source of technological and intellectual 
development as well as stunt the creation and growth of small 
entrepreneurial companies.
    A 7.7 percent reduction in funding has been proposed in 6.3 
advanced technology development. Without the system-level 
demonstrations funded by advanced technology development 
accounts, companies are reluctant to incorporate new 
technologies into weapons systems. Advanced technology 
development accounts also fund research in a range of critical 
materials technologies, including improved body armor and 
lightweight vehicle armor to protect troops against improvised 
explosive devices. Fortunately, Congress has recognized that 
such cuts are not in the best interest of our troops and has 
appropriated additional resources in past years.
    Investments in science and technology directly affect the 
future of our national security. We urge this subcommittee to 
support an appropriation of $15.4 billion for science and 
technology programs, or 3 percent of the fiscal year 2009 DOD 
budget. This request is consistent with recommendations made by 
the Defense Science Board as well as by senior DOD officials 
who have voiced support for the future allocation of 3 percent 
of total obligational authority as a worthy benchmark for 
science and technology programs.
    The ASME appreciates the difficult choices that Congress 
must make in this challenging budgetary environment, and I 
thank the committee for its ongoing support of science and 
technology. Thank you, Mr. Chairman.
    [The statement follows:]
                   Prepared Statement of John Leland
                              introduction
    The ASME Department of Defense (DOD) Task Force of the Committee on 
Federal Research and Development is pleased to comment on the fiscal 
year 2009 budget request for the Research, Development, Test and 
Evaluation (RDT&E) and the Science and Technology (S&T) portion of the 
DOD budget request.
    With 127,000 members, ASME is a worldwide engineering society 
focused on technical, educational, and research issues. It conducts one 
of the world's largest technical publishing operations, holds 
approximately 30 technical conferences and 200 professional development 
courses each year, and sets many industry and manufacturing standards. 
This testimony represents the considered judgment of experts from 
universities, industry, and members from the engineering and scientific 
community who contribute their time and expertise to evaluate the 
budget requests and policy initiatives the DOD recommends to Congress.
    Our testimony addresses three primary funding areas: Science and 
Technology (S&T); Engineering (RDT&E); and the University Research 
Initiative (URI). Our testimony also outlines the consequences of 
inadequate funding for defense research. These include a degraded 
competitive position in developing advanced military technology versus 
potential peer competitors that could harm the United States' global 
economic and military leadership.
    Since World War II, the United States has led the world in science, 
innovation, and defense technology. However, this lead is quickly 
eroding and within the next few years may be substantially reduced or 
may completely disappear in some areas. A recent study performed by the 
National Academy of Sciences, entitled ``Rising Above the Gathering 
Storm: Energy and Employing America for a Brighter Economic Future,'' 
evaluated the position of the United States in several critical 
measures of technology, education, innovation, and highly skilled 
workforce development. While the report indicated that the United 
States maintains a slight lead in research and discovery, the committee 
states that it is ``deeply concerned that the scientific and 
technological building blocks critical to our economic leadership are 
eroding at a time when many other nations are gaining strength.'' 
Proper attention should be given to the vital role that DOD S&T 
programs play in meeting this challenge.
                 dod request for science and technology
    The fiscal year 2009 budget request for DOD Science and Technology 
(S&T) is $11.7 billion, which is $1.5 billion less than the fiscal year 
2008 appropriated amount and represents a 11.7 percent reduction.
    The fiscal year 2009 request, if implemented, would represent a 
significantly reduced investment in DOD S&T. We strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $15.4 billion for 
S&T to meet the 3 percent of Total Obligational Authority (TOA) 
guideline recommended by a National Academies study and set in the 2001 
Quadrennial Defense Review and by Congress.
    A relatively small fraction of the RDT&E budget is allocated for 
S&T programs. While the fiscal year 2009 S&T request represents only 
about 14 percent of the RDT&E total, these accounts support all of the 
new knowledge creation, invention, and technology developments for the 
military. Funds for Basic Research (6.1), Applied Research (6.2), and 
Advanced Technology Development (6.3) in all categories are programmed 
for significant funding reductions.
    Basic Research (6.1) accounts would increase from $1.6 billion to 
$1.7 billion, a 4 percent increase. While basic research accounts 
comprise only a small percentage over all RDT&E funds, the programs 
that these accounts support are crucial to fundamental, scientific 
advances and for maintaining a highly skilled science and engineering 
workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 States. Almost all of the current high-technology weapon 
systems, from advanced body armor, vehicle protection system, to the 
global positioning satellite (GPS) system, have their origin in 
fundamental discoveries generated in these basic research programs. 
Proper investments in basic research are needed now, so that the 
fundamental scientific results will be available to create innovative 
solutions for future defense challenges. In addition, many of the 
technical leaders in corporations and Government laboratories that are 
developing current weapon systems, ranging from the F-35 Joint Strike 
Fighter to the suite of systems employed to counter Improvised 
Explosive Devices (IED), were educated under basic research programs 
funded by DOD. Failure to invest sufficient resources in basic, 
defense-oriented research will reduce innovation and weaken the future 
scientific and engineering workforce. Several of the proposed 
reductions to individual S&T program elements are dramatic and could 
have negative impacts on future military capabilities. The Task Force 
recommends that Basic Research (6.1) be funded at a minimum level of 
$1.7 billion.
    Applied Research (6.2) would be reduced from $5.05 billion to $4.2 
billion, a 16 percent reduction. The programs supported by these 
accounts apply basic scientific knowledge, often phenomena discovered 
under the basic research programs, to important defense needs. Applied 
research programs may involve laboratory proof-of-concept and are 
generally conducted at universities, Government laboratories, or by 
small businesses. Many successful demonstrations lead to the creation 
of small companies. Some devices created in these defense technology 
programs have dual use, such as GPS, and the commercial market far 
exceeds the defense market. However, without initial support by Defense 
Applied Research funds, many of these companies would not exist. Like 
6.1 Basic Research, 6.2 Applied Research has also funded the educations 
of many of our best defense industry engineers. Failure to properly 
invest in applied research would stifle a key source of technological 
and intellectual development as well as stunt the creation and growth 
of small entrepreneurial companies.
    Advanced Technology Development (6.3) would experience a 7.6 
percent decline, from $6 billion to $5.5 billion. These resources 
support programs where ready technology can be transitioned into weapon 
systems. Without the real system level demonstrations funded by these 
accounts, companies are reluctant to incorporate new technologies into 
weapon systems programs. This line item funds research in a range of 
critical materials technologies, including improved body armor to 
protect troops against IEDs and in developing light weight armor for 
vehicle protection, such as is needed for the Future Combat System 
(FCS). With the problems faced in Iraq with IEDs and the need for 
lighter armor for the FCS it does not seem wise to cut materials 
research. Fortunately in the past few years the United States Congress 
has recognized that such cuts are not in the best interest of the 
country, and has appropriated additional resources to maintain healthy 
S&T programs in critical technologies.
                         dod request for rdt&e
    The administration requested $80.7 billion for the RDT&E portion of 
the fiscal year 2009 DOD budget. These resources are used mostly for 
developing, demonstrating, and testing weapon systems, such as fighter 
aircraft, satellites, and warships. This amount represents growth from 
last year's appropriated amount 2.9 percent. Funds for the OT&E 
function are being reduced by historical standards. The fiscal year 
2008 appropriated amount was $178 million, which is little more than 
half of the 2005 appropriated amount of $310 million. The fiscal year 
2009 request is $189 million, but does not reflect the importance of 
OT&E as mandated by Congress to insure that weapon systems are 
thoroughly tested so that they are effective and safe for our troops.
                        dod request for the uri
    The URI supports graduate education in Mathematics, science, and 
engineering and would see a $6 million increase from $300 million to 
$307 million in fiscal year 2009, a 2.1 percent increase. Sufficient 
funding for the URI is critical to educating the next generation of 
engineers and scientists for the defense industry. A lag in program 
funds will have a serious long-term negative consequence on our ability 
to develop a highly skilled scientific and engineering workforce to 
build weapons systems for years to come. While DOD has enormous current 
commitments, these pressing needs should not be allowed to squeeze out 
the small but very important investments required to create the next 
generation of highly skilled technical workers for the American defense 
industry.
       reduced s&t funding threatens america's national security
    Science and technology have played a historic role in creating an 
innovative economy and a highly skilled workforce. Study after study 
has linked over 50 percent of our economic growth over the past 50 
years to technological innovation. The ``Gathering Storm'' report 
places a ``special emphasis on information sciences and basic 
research'' conducted by the DOD because of large influence on 
technological innovation and workforce development. The DOD, for 
example, funds 40 percent of all engineering research performed at our 
universities. U.S. economic leadership depends on the S&T programs that 
support the Nation's defense base, promote technological superiority in 
weapons systems, and educate new generations of scientists and 
engineers.
    Prudent investments also directly affect U.S. national security. 
There is a general belief among defense strategists that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense. Many members of 
Congress also hold this view. A number of disconcerting trends, such as 
outsourcing of engineering activities and low participation of U.S. 
students in science and engineering, threaten to create a critical 
shortage of native, skilled, scientific, and engineering work force 
personnel needed to sustain our industrial base. Programs that boost 
the available number of highly educated workers who reside in the 
United States are important to stem our growing reliance on foreign 
nations, including potentially hostile ones, to fill the ranks of our 
defense industries and to ensure that we continue to produce the 
innovative, effective defense systems of the future.
                            recommendations
    In conclusion, we thank the committee for its ongoing support of 
DOD S&T. This Task Force appreciates the difficult choices that 
Congress must make in this tight budgetary environment. We believe, 
however, that there are critical shortages in the DOD S&T areas, 
particularly in those that support basic research and technical 
education that are critical to U.S. military in the global war on 
terrorism and defense of our homeland.
    The Task Force recommends the following:
  --We urge this subcommittee to support a $300 million increase in 
        basic research accounts for S&T programs. We are encouraged by 
        the movement toward meeting the recommendations in the ``Rising 
        Above the Gathering Storm'' report that called for a 10 percent 
        increase in defense basic research.
  --We also recommend that the committee support the Pentagon's stated 
        goal of 3 percent of the DOD's budget be spend for the DOD S&T 
        program 6.1 basic research, 6.2 applied research, and 6.3 
        advanced technology development.

    Senator Inouye. Thank you very much.
    Senator Stevens.
    Senator Stevens. Doctor, the Augustine report indicated 
that, while India was graduating 700,000 engineers and China 
400,000, we graduated 70,000. What's the association doing 
about trying to increase recruitment into this profession?
    Dr. Leland. Well, besides the things that the association 
does in terms of raising awareness of engineering, we also 
support a number of scholarship programs in cooperation with 
the DOD, for example the SMART program and the NDSEG program 
and others. But these are small efforts compared to what our 
country has to do as a whole to pull kids back into science and 
engineering.
    Senator Stevens. Well, I was astounded to hear last week 
the number of students that attend 1 year of college and quit. 
I do think that it's up to professionals to start going to 
those schools and trying to interest them in further education 
and not to quit, because we are really falling behind in terms 
of the level of sciences, technology people, medical students. 
We have to turn that around or we're going to be in real 
trouble.
    Thank you.
    Dr. Leland. Thank you.
    Senator Inouye. Thank you very much.
    Our next witness is the Co-chairman of the National 
Military and Veterans Alliance, Captain Marshall Hanson. 
Captain Hanson.
STATEMENT OF CAPTAIN MARSHALL HANSON, USNR (RETIRED), 
            CO-CHAIRPERSON, NATIONAL MILITARY AND 
            VETERANS ALLIANCE
    Captain Hanson. Thank you, Mr. Chairman, Senator Stevens. 
The National Military and Veterans Alliance (NMVA) is again 
honored to testify. The alliance represents 31 military 
retiree, veteran, and survivor associations with more than 3.5 
million members. The NMVA supports a strong national security. 
During this global war on terror, recruiting and retention 
continue to remain paramount.
    While the alliance is well aware that the subcommittee 
faces certain budget constraints, the NMVA continues to urge 
the President and Congress to increase defense spending to 5 
percent of gross domestic product during times of war to cover 
procurement, prevent unnecessary personnel cuts, and afford 
needed benefits for serving members and retirees.
    Recruiting bonuses and incentives continue to be essential 
to encourage participation. It is not enough to offer 
incentives on the initial tour. We have to also encourage our 
seasoned veterans to stay.
    The services face a growing challenge as midgrade officers 
and enlisted face a tough reenlistment choice after 8 years of 
service. The Army is already calling upon first lieutenants to 
fill the jobs that are normally performed by captains and it is 
finding it a challenge to select enough O-3s for promotion to 
major.
    We thank you for funding end strength increases for the 
Army and the Marine Corps. This will reduce the PERS-TEMPO, 
permitting our younger warriors to stay at home longer. But the 
alliance is concerned with continued cuts in the Air Force and 
Navy, as manpower is being reduced faster than the planned 
technology is being procured that would replace airmen and 
sailors.
    It is also important that we have parity in equipment and 
training for the new operational Guard and Reserve. Cuts in the 
strength of the Reserve components seem to be counterintuitive 
to preventing any unforeseen strategic event.
    One inequity we ask your assistance on is the Reserve early 
retirement benefit that was passed last year by the 
authorizers. This benefit only began on January 28, 2008. 
During the war it seems unfair that benefits would differ for 
when service was performed. The reason given for a deferred 
start was the cost. We ask that your staff work with the 
alliance's reserve component committee to find funding to 
correct the eligibility for this benefit to those who have 
served since September 11, 2001.
    It is also crucial that military healthcare be funded. The 
alliance is concerned that the President's DOD healthcare 
budget continues to undercut the military beneficiaries' needs. 
We ask you to continue to fully fund military healthcare in 
fiscal year 2009.
    The NMVA thanks this subcommittee for funding the phased-in 
survivor benefit plan (SBP) and the dependency and indemnity 
compensation (DIC) offset last year. But widows of members who 
are killed in the line of service are continuing to be 
penalized. Even under the present offset, the vast majority of 
our enlisted families receive little benefit from this new 
program because the SBP is almost completely offset by DIC. The 
NMVA respectfully requests that this subcommittee find excess 
funding to expand this provision.
    As the war continues, our Active and Reserve serving 
members face challenges. The alliance is confident in your 
ongoing support and the alliance would like to thank the 
subcommittee for its ongoing efforts and also for this 
opportunity to testify.
    Thank you very much.
    Senator Inouye. Captain, I can assure you that we'll do our 
absolute best to live up to our promises to our veterans.
    Captain Hanson. Thank you, sir.
    Senator Inouye. Thank you very much.
    [The statement follows:]
             Prepared Statement of Captain Marshall Hanson
                national military and veterans alliance
    The Alliance was founded in 1996 as an umbrella organization to be 
utilized by the various military and veteran associations as a means to 
work together towards their common goals. The Alliance member 
organizations are:

American Logistics Association
American Military Retirees Association
American Military Society
American Retirees Association
American World War II Orphans Network
AMVETS (American Veterans)
Armed Forces Marketing Council
Army and Navy Union
Catholic War Veterans
Gold Star Wives of America, Inc.
Japanese American Veterans Association
Korean War Veterans Foundation
Legion of Valor
Military Order of the Purple Heart
Military Order of the World Wars
Military Order of Foreign Wars
National Assoc. for Uniformed Services
National Gulf War Resource Center
Naval Enlisted Reserve Association
Naval Reserve Association
Paralyzed Veterans of America
Reserve Enlisted Association
Reserve Officers Association
Society of Military Widows
The Retired Enlisted Association
TREA Senior Citizens League
Tragedy Assist. Program for Survivors
Uniformed Services Disabled Retirees
Veterans of Foreign Wars
Vietnam Veterans of America
Women in Search of Equity
  

    These organizations have over three and a half million members who 
are serving our Nation or who have done so in the past, and their 
families.
                              introduction
    Mr. Chairman and distinguished members of the committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veterans Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to GEN George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young serving 
members of this war. This phrase can now read, ``The willingness with 
which our young people, today, are willing to serve in this war is how 
they perceive the veterans of this war are being treated.''
    This has been brought to the forefront by how quickly an issue such 
as the treatment of wounded warriors suffering from Traumatic Brain 
Injury or Post Traumatic stress Disorder has been brought to the 
national attention.
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony, hopes 
to address funding issues that apply to the veterans of various 
generations.
                        funding national defense
    NMVA is pleased to observe that the Congress continues to discuss 
how much should be spent on National Defense. The Alliance urges the 
President and Congress to increase defense spending to 5 percent of 
Gross Domestic Product during times of war to cover procurement and 
prevent unnecessary personnel end strength cuts.
                          pay and compensation
    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise exceeds the Employment Cost Index (ECI) by at least half of a 
percent.
    Further, we hope that this committee continues to support targeted 
pay raises for those mid-grade members who have increased 
responsibility in relation to the overall service mission. Pay raises 
need to be sufficient to close the civilian-military pay gap.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay, and other special pays.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty pay IPS) into 
the calculations of Retirement Pay for military health care providers. 
NMVA has received feedback that this would be incentive to many medical 
professionals to stay in longer.
    G-R Bonuses.--Guard and Reserve component members may be eligible 
for one of three bonuses, Prior Enlistment Bonus, Re-enlistment Bonus, 
and Reserve Affiliation Bonuses for Prior Service Personnel. These 
bonuses are used to keep men and woman in mission critical military 
occupational specialties (MOS) that are experiencing falling numbers or 
are difficult to fill. During their testimony before this committee the 
Reserve Chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress, and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. The NMVA 
supports expanding and funding bonuses to the Federal Reserve 
Components.
    Reserve/Guard Funding.--NMVA is concerned about ongoing DOD 
initiatives to end ``two days pay for one days work,'' and replace it 
with a plan to provide one-thirtieth of a month's pay model, which 
would include both pay and allowances. Even with allowances, pay would 
be less than the current system. When concerns were addressed about 
this proposal, a retention bonus was the suggested solution to keep pay 
at the current levels. Allowances differ between individuals and can be 
affected by commute distances and even ZIP codes. Certain allowances 
that are unlikely to be paid uniformly include geographic differences, 
housing variables, tuition assistance, travel, and adjustments to 
compensate for missing health care.
    The NMVA strongly recommends that the reserve pay system ``two days 
pay for one days work,'' be funded and retained, as is.
                           educational issues
MGIB-SR Enhancements
    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of most enlisted as they advance beyond E-6.
    Officers to promote above O-4 are expected to have a post-graduate 
degree. The ever-growing complexity of weapons systems and support 
equipment requires a force with far higher education and aptitude than 
in previous years.
    Both political parties are looking at ways of enhancing the GI 
bill. There are suggested features in legislation be suggested by both 
sides. At a minimum, the GI bill needs to be viewed as more than a 
recruiting and retention incentive. Education is a means to help 
reintegrate our returning veterans into society. A recent survey by 
military.com, of returning military veterans, found that 81 percent 
didn't feel fully prepared to enter the work force, and 76 percent of 
these veterans said they were unable translate their military skills 
into civilian proficiencies.
    Transferability of educational benefits to spouses and children are 
another key aspect that should be included in a G.I. Bill enhancement. 
In addition, for those with existing degrees and outstanding debts, the 
G.I. Bill stipend, should be allowed to pay-off outstanding student 
loans.
    No enhancement can be accomplished without funding. This should be 
viewed as an investment rather than an expense. The original G.I. bill 
provided years of economic stimulus, returning $7 for every $1 invested 
in veterans.
    The National Military and Veterans Alliance asks this subcommittee 
to support funding for suggested G.I. Bill funding.
    The Montgomery G.I. Bill for Selective Reserves (MGIB-SR) will 
continue to be an important recruiting and retention tool. With massive 
troop rotations the Reserve forces can expect to have retention 
shortfalls, unless the Government provides enhances these incentives as 
well.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over 10.
                       force policy and structure
War Funding
    The Alliance thanks the committee for the war funding amended to 
the Supplemental Appropriations Act 2008, H.R. 2642. While the debate 
on Iraqi policy is important, the Alliance would like to stress that 
resulting legislation should be independent and not included as 
language in any Defense Appropriation bill. Supporting the troops 
includes providing funding for their missions.
    NMVA supports the actions by this subcommittee to put dollars for 
the war back into the Emergency Supplemental.
End Strength
    The NMVA concurs with funding increases in support of the end 
strength boosts of the Active Duty Component of the Army and Marine 
Corps that have been recommended by Defense Authorizers. New recruits 
need to be found and trained now to start the process so that American 
taxpayer can get a return on this investment. Such growth is not 
instantaneously productive. Yet, the Alliance is concerned with 
continued end strength cuts to the other services: the Air Force and 
the Navy. Trying to pay the bills by premature manpower reductions may 
have consequences.
Manning Cut Moratorium
    The NMVA would also like to put a freeze on reductions to the Guard 
and Reserve manning levels. A moratorium on reductions to End Strength 
is needed until the impact of an operational reserve structure is 
understood. Many force planners call for continuation of a strategic 
reserve as well. NMVA urges this subcommittee to at least fund to last 
year's levels.
         survivor benefit plan (sbp) and survivor improvements
    The Alliance wishes to deeply thank this subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there is still an issue remaining to deal with: Providing 
funds to end the SBP/DIC offset.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
the servicemember has paid for is offset dollar-for-dollar for the DIC 
survivor benefits paid through the VA. This puts a disabled retiree in 
a very unfortunate position. If the servicemember is leaving the 
service disabled it is only wise to enroll in the Survivor Benefit Plan 
(perhaps being uninsurable in the private sector). If death is service 
connected then the survivor loses dollar-for-dollar the compensation 
received under DIC.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. The program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service-connected death. They are 
different programs created to fulfill different purposes and needs.
    A second group affected by this dollar-for-dollar offset is made up 
of families whose servicemember died on active duty. Recently, Congress 
created active duty SBP. These servicemembers never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present offset in place the vast majority 
of families receive no benefit from this new program, because the vast 
numbers of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are servicemembers who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages, etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    The NMVA respectfully requests this subcommittee fund the SBP/DIC 
offset.
    current and future issues facing uniformed services health care
    The National Military and Veterans Alliance must once again thank 
this committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors, and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years. 
Yet there are still many serious problems to be addressed.
Wounded Warrior programs
    As the committee is aware, Congress has held a number of hearings 
about the controversy at Walter Reed Army Medical Center. The NMVA will 
not revisit the specifics. With the Independent Review Group and the 
Dole/Shalala Commission recommending the closure of Walter Reed, an 
emphasis needs to be placed on the urgency of upgrades at Bethesda, and 
the new military treatment hospital at Fort Belvoir. NMVA hopes that 
this committee will financially support the studies that measure the 
adequacy of this plan.
    The Alliance supports continued funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder, the blinded, and our amputees. 
The Nation owes these heroes an everlasting gratitude and recompense 
that extends beyond their time in the military. These casualties only 
bring a heightened need for a DOD/VA electronic health record accord to 
permit a seamless transition from being in the military to being a 
civilian.
Full Funding for the Defense Health Program
    The Alliance applauds the subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace with these 
increases.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, the Alliance is concerned that the budget 
saving have already been adjusted out of the President's proposed 
budget. NMVA is confident that this subcommittee will continue to fund 
the DHP so that there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    NMVA supports the continued expansion of use of the TRICARE Mail 
Order pharmacy.
    To truly motivate beneficiaries to a shift from retail to mail 
order adjustments need to be made to both generic and brand name drugs 
co-payments. NMVA recommends that both generic and brand name mail 
order prescriptions be reduced to zero co-payments to align with 
military clinics.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy.
    The National Military and Veterans Alliance urges the subcommittee 
to adequately fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
global war on terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance is pleased by Congress' plan to prevent near-term reductions 
in Medicare reimbursement rates, which will help the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.
TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a Government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this committee's consideration of both 
proposals.
                 national guard and reserve health care
Funding Improved TRICARE Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee to continue to support funding of the 
TRICARE Reserve Select program.
Mobilized Health Care--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The Military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.
Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30-day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the 6 months following demobilization if DOD is unable to 
do the restoration.
                     other guard and reserve issues
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip, and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.
    While Defense Authorizers provided an early retirement benefit in 
fiscal year 2008, only those who have served in support of a 
contingency operation since 28 January 2008 are eligible, nearly 6 
years and 4 months after Guard and Reserve members first were mobilized 
to support the active duty force in this conflict. Over 600,000 
Reservists have served during this period and were excluded from 
eligibility. The explanation given was lack of mandatory funding 
offset. To exclude a portion of our warriors is akin to offering the 
original GI Bill to those who served after 1944.
    NMVA hopes that this subcommittee can help identify excess funding 
that would permit an expanded early retirement benefit for those who 
have served.
                     armed forces retirement homes
    Following Hurricane Katrina, Navy/Marine Corps residents from AFRJ-
Gulfport were evacuated from the hurricane-devastated campus and were 
moved to the AFRH-Washington, DC, campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to continue funding upgrades at the 
Washington, DC, facility, and to continue funding to rebuild the 
Gulfport facility.
                               conclusion
    Mr. Chairman and distinguished members of the subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Senator Inouye. Our next panel is made up of: Lieutenant 
General McCarthy, Dr. Suchy, Dr. Boehm-Davis, and Ms. 
Hinestrosa.
    Our next witness is the Executive Director of the Reserve 
Officers Association of the United States, Lieutenant General 
Dennis M. McCarthy, United States Marine Corps, Retired. 
General McCarthy.
STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            USMC (RETIRED), EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION OF THE UNITED STATES
    General McCarthy. Mr. Chairman, Senator Stevens, members of 
the subcommittee: thank you for the opportunity to speak once 
again on the issue of funding for our Nation's Reserve 
components. As I said many times before, in an all-volunteer 
era the United States cannot conduct extended military 
operations without augmenting and reinforcing the Active 
component. That reinforcement must come from one of two 
sources, either a draft or a viable and capable National Guard 
and Reserve.
    The 700,000 men and women of our Nation's Reserve 
components have provided that reinforcing force since 2001. 
They have literally saved the country from a draft. Every 
indication I see and hear is that they can and will continue to 
do so if they're properly trained, equipped, and supported. 
Congress has made great strides in increasing the funding for 
these important needs. But realism demands that we recognize 
that the armed services frequently push their Reserve 
components to a lower priority at times when funding is tight.
    The Reserve Officers Association (ROA)--and I've been 
authorized to speak on this subject for the Reserve Enlisted 
Association as well--urges this subcommittee to specifically 
identify funding for both the National Guard and the Federal 
Reserve components, ensuring that those funds must be spent to 
train and equip the Reserve components and to support their 
families' unique needs.
    Both the Congress and the DOD have been given an excellent 
blueprint for enhancing the Reserve components of the 21st 
century. The report of the Commission on National Guard and 
Reserves will guide policymakers and legislators to many of the 
right answers. I don't personally agree with every word in the 
document, but ROA believes that it has much value and that you 
should give each of its 95 recommendations serious 
consideration.
    At the end of the day, I believe the Nation wants an all-
volunteer force and that it doesn't want a draft. The only way 
to achieve both of these objectives is to ensure that the 
Reserve and the National Guard continue to be filled with the 
same type of great Americans who serve today. To do that, you 
must ensure that they are fully trained, properly equipped, and 
that their families are adequately supported. And you must 
ensure that your appropriation goes where you intend it to go.
    These young men and women, Mr. Chairman, will not come back 
from combat to sit around empty training centers because 
there's no equipment for them to train on. They don't come back 
for a rest, they don't stay in the Reserve components to rest. 
They come back to continue to train and to prepare for whatever 
the next mission is. The equipment simply must be present both 
in the theater, of course, but the equipment must also be 
present in the training centers, so that when they come back 
they can retrain, refit, and get ready for whatever else the 
Nation calls upon them to do.
    Mr. Chairman, again I thank you for the opportunity to 
testify and for the support that you have consistently given to 
our Reserve components.
    [The statement follows:]
      Prepared Statement of Lieutenant General Dennis M. McCarthy
    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
Nation's seven uniformed services and their spouses. ROA was founded in 
1922 during the drawdown years following the end of World War I. It was 
formed as a permanent institution dedicated to National Defense, with a 
goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.'' The mission of ROA is to advocate strong Reserve 
Components and national security, and to support Reserve officers in 
their military and civilian lives.
    The Association's 65,000 members include Reserve and Guard 
soldiers, sailors, marines, airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet critical needs of the uniformed services 
and their families. ROA's membership also includes officers from the 
U.S. Public Health Service and the National Oceanic and Atmospheric 
Administration who often are first responders during national disasters 
and help prepare for homeland security. ROA is represented in each 
State with 55 departments plus departments in Latin America, the 
District of Columbia, Europe, the Far East, and Puerto Rico. Each 
department has several chapters throughout the State. ROA has more than 
450 chapters worldwide.
    ROA is a member of The Military Coalition where it co-chairs the 
Tax and Social Security Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans, and family support organizations.
                             roa priorities
    The Reserve Officers Association CY 2008 Legislative Priorities 
are:
  --Assure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Reset the whole force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Providing adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families, and survivors.
Issues to help fund, equip, and train
    Advocate for adequate funding to maintain National Defense during 
the GWOT.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Fence RC dollars for appropriated Reserve equipment.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and 2 weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation, and 
operational support.
    Keep Active and Reserve personnel and Operation and Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personnel 
protection as Active Duty.
Issues to assist recruiting and retention
    Support incentives for affiliation, re-enlistment, retention, and 
continuation in the RC.
            Pay and Compensation
    Provide differential pay for Federal employees.
    Offer Professional pay for RC medical professionals.
    Eliminate the one-thirtieth rule for Aviation Career Incentive Pay, 
Career Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and 
Hazardous Duty Incentive Pay.
            Education
    Introduce an enhanced GI Bill for the 21st century.
            Health Care
    Provide Medical and Dental Readiness through subsidized preventive 
health care.
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset.
      national guard and reserve equipment and personnel accounts
    It is important to maintain separate equipment and personnel 
accounts to allow Reserve Component Chiefs the ability to direct 
dollars to needs.
Key Issues facing the Armed Forces concerning equipment.
    Developing the best equipment for troops fighting the global war on 
terrorism.
    Procuring new equipment for all U.S. Forces.
    Maintaining or upgrading the equipment already in the inventory.
    Replacing the equipment deployed from the homeland to the war.
    Making sure new and renewed equipment gets into the right hands, 
including the Reserve Component.
Reserve Component Equipping Sources
    Procurement.
    Cascading of equipment from Active Component.
    Cross-leveling.
    Recapitalization and overhaul of legacy (old) equipment.
    Congressional adds.
    National Guard and Reserve Appropriations (NGREA)
    Supplemental appropriation.
                    continued resetting of the force
    Resetting or reconstitution of the force is the process to restore 
people, aircraft and equipment to a high state of readiness following a 
period of higher-than-normal, or surge, operations.
    Some equipment goes through recapitalization: stripping down and 
rebuilding equipment completely. Recapitalization is one of the fastest 
ways to get equipment back to units for use, and on some equipment, 
such as trucks, recapitalization costs only 75 percent of replacement 
costs. A second option is to upgrade equipment, such as adding armor. A 
third option is to simply extend the equipment's service life through a 
maintenance program.
    Operations Iraqi Freedom and Enduring Freedom are consuming the 
Reserve Component force's equipment. Wear and tear is at a rate many 
times higher then planned. Battle damage expends additional resources. 
Many equipment items used in Southwest Asia are not receiving depot-
level repair because equipment items are being retained in theater.
    In addition to dollars already spent to maintain this well-worn 
equipment for ongoing operations, the Armed Forces will likely incur 
large expenditures in the future to repair or replace (reset) a 
significant amount of equipment when hostilities cease. The services 
are currently funding their reset programs in large part through the 
use of supplemental appropriations
                           personnel training
    When Reserve Component personnel participate in an operation they 
are focused on the needs of the particular mission, which may not 
include everything required to maintain qualification status in their 
military occupation specialty (MOS, AFSC, NEC).
  --There are many different aspects of training that are affected.
    --Skills that must be refreshed for specialty.
    --Training needed for upgrade but delayed by mission.
    --Ancillary training missed.
    --Professional military education needed to stay competitive.
    --Professional continuing education requirements for single-managed 
            career fields and other certified or licensed specialties 
            required annually.
    --Graduate education in business related areas to address force 
            transformation and induce officer retention.
  --Loss, training a replacement: There are particular challenges that 
        occur to the force when a loss occurs during a mobilization or 
        operation and depending on the specialty this can be a 
        particularly critical requirement that must be met.
    --Recruiting may require particular attention to enticing certain 
            specialties or skills to fill critical billets.
    --Minimum levels of training (84 days basic, plus specialty 
            training).
    --Retraining may be required due to force leveling as emphasis is 
            shifted within the service to meet emerging requirements.
                              end strength
    The ROA would like to put a freeze on reductions to the Guard and 
Reserve manning levels. ROA urges this subcommittee to fund to at least 
last year's levels.
  --Army National Guard of the United States, 352,600.
  --Army Reserve, 206,000.
  --Navy Reserve, 67,800.
  --Marine Corps Reserve, 39,600.
  --Air National Guard of the United States, 106,700.
  --Air Force Reserve, 67,500.
  --Coast Guard Reserve, 10,000
    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. We 
need to pause to permit force planning and strategy to catch-up with 
budget reductions.
                               readiness
    Readiness is a product of many factors, including the quality of 
officers and enlisted, full staffing, extensive training and exercises, 
well-maintained weapons and authorized equipment, efficient procedures, 
and the capacity to operate at a fast tempo. The pace of wartime 
operations has a major impact on service members.
    The Defense Department does not attempt to keep all active units at 
the C-1 level. The risk is without resetting the force returning Active 
and Reserve units will be C-4 or lower because of missing equipment, 
and without authorized equipment their training levels will 
deteriorate.
               nonfunded army reserve component equipment
    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges have increased and, if left unattended, may 
hamper the reserves' preparedness for future overseas and domestic 
missions.
    To provide deployable units, the Army National Guard and the Army 
Reserve have transferred large quantities of personnel and equipment to 
deploying units, an approach that has resulted in growing shortages in 
nondeployed units. Also, reserve units have left quantities of 
equipment overseas and DOD has not yet developed plans to replace it.
Army Reserve Unfunded Requirements
    Approximately 4 percent of USAR's equipment has been left in 
theater, representing one-third of USAR Heavy Equipment Transporters, 
25 percent of USAR medium non-tactical tractors, and 15 percent of USAR 
HMMWVs.
    Currently, Army Reserve units average a 68 percent of required 
equipment on hand. To meet pre-mobilization training objectives, the 
Army Reserve was forced to expend limited resources to move 6,700 
training items from units to training locations in fiscal year 2007, 
with the expectation to ship another 7,000 pieces of equipment to pre-
mobilizations training sites in fiscal year 2008.
    To address all Army Reserve shortfalls, $6.8 billion is needed in 
NGREA and other accounts for USAR designated equipment.
            Army Reserve Modernization Vehicle Requirements--$1.75 
                    billion
    Light-medium trucks (LMTV) 2.5 Ton Truck; Medium Tactical Vehicle 
(MTV) 5.0 Ton Truck; Truck Cargo PLS 1010 M1075; PLS Trailer; High 
Mobility Multi-Purpose Wheeled Vehicle (HMMWV); High Mobility Multi-
Purpose Wheeled Vehicle, up-armored; and Truck Tractors Line Haul 
(M915A3).
            Recruiting Bonuses--$321 million
    These bonuses are critical to exceed an end strength of 205,000 
soldiers. For 205,000 mission ready soldiers, additional soldiers are 
needed to be in the training conduit. To fully fund just the Army 
Recruiter Assistance Program (ARAP) $28.5 million is needed.
            Professional Military Education--$195 million
    To support higher occupational skill qualification rates.
            Special Pre-mobilization training days--$162 million
    In order to integrate into a fully integrated operational force, 
$80 million for additional training days are needed for 20,000 
soldiers, and another $82 million to resource up to 17 days of pre-
mobilization training.
            Army Reserve Force Structure rebalancing--$66 million
    Increased training events and equipment to replace less-equipment 
intensive units.
            Construction and modernization of Army Reserve Centers--
                    $281.7 million
    To build five Army Reserve centers and modernize other Reserve 
Centers.
            Reduction in Facility Maintenance backlog--$256 million
Army National Guard Top Ten Equipment Requirements
    Priority 1 equipment requirements by the Army National Guard totals 
$2 billion.
            Joint Forces HQ Command and Control--$168.4 million
    Man-portable Communications Support Kits; Joint Incident Site 
Communications and Interim Satcom Incident Site. (JISC & ISISCS); 
Wideband Imagery Satellite Terminals; Army Battle Command Systems; 
Warfighters Information Network Tactical Systems.
            Civil Support Teams (Force Protection)--$88 million
    NBC Reconnaissance Vehicle; Portable Chemical Decontamination 
System; Portable Riot Control Dispenser.
            Maintenance--$48.5 million
    Electrical and Electronic Properties Measuring and Testing 
instruments.
            Aviation--$100.5 million
    UH-60A to UH-60L Upgrade Kits; LUH-72A S&S Mission Equipment 
Package.
            Engineers--$129.2 million
    Horizontal Construction/Heavy Equipment; Route and Area Clearance 
Equipment.
            Medical--$8.75 million
    Expeditionary Medical Vehicles.
            Communication--$145.3 million
    PHOENIX Satellite Upgrade; Radios.
            Transportation--$1.15 million
    FMTV/LMTV Cargo Trucks; HMMWV; HTV 88 Heavy Trucks; Tactical 
Trailers.
            Security--$68.2 million
    Night Vision Goggles; Illuminator, Infrared AN/PEC-15; Commander 
Vehicle CVICV.
            Logistics Equipment--$93.77 million
    In-transit Asset Visibility System; Field Feeding Systems; 
Generator Sets; Tactical Water and Water Purification Systems.
            air force reserve component equipment priorities
    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) for more C-17s and more C-130Js for USAF.
Air Force Reserve Unfunded Requirements
    The Air Force Reserve (AFR) mission is to be an integrated member 
of the Total Air Force to support mission requirements of the joint 
warfighter. To achieve interoperability in the future, the Air Force 
Reserve top ten priorities for ``Other Equipment'' are:
    C-40 D multi-role Airlift(3).--To replace C-9 C's.
    Aircraft Infra-Red Counter Measures (6).--Installs LAIRCM Group A 
and B kits on (6) C-130 H2's and procures all associated spares and 
support equipment.
    Airlift Defensive Systems (16).--Install ADS systems onto (16) AFRC 
C-5As at Lackland Air Force Base against IR missile threats.
    ARC-210 Radio (61).--Procure AN/ARC-210 Group A and B multi-band, 
jam resistant beyond line of sight radios for (61) AFRC C/HC-130 
aircraft to replace VHF radio.
    Infrared Missile Warning System (27).--Modify (27) A-10s with MWS; 
integrates missile warning into the ALQ-213 Counter Measures Set; 
allows faster, automatic responses.
    APN-241 Radar (17).--Modify (17) remaining C-130H2 AC, includes 
group A, B, installs, spares, support equipment, and sustainment 
through the FYDP.
    Infra-Red Counter Measures (42).--Procure and install (42) LAIRCM 
lite systems on AFRC C-5s. Protects high value national assets against 
advanced IR missile threats.
    Missile Warning System (MWS).--Upgrade/replacement--Improve and 
integrate the existing Electronic Attack (EA) for A-10 and F-16 and 
Electronic Protection (EP) for A-10, F-16, and HC-130.
    SAFIRE Lookout Troop Window and Seat Modifications. (61).--A larger 
window in the C-130 paratroop doors will increase the field of view for 
the scanner. A collocated seat will help keep the scanner alert as 
crucial scanning duties are performed.
    C-5 Structural Repair.--Stress corrosion cracking of C-5A Aft Crown 
Skins and Contour Box Beam Fittings requires fleet-wide replacement to 
avoid grounding and restriction of outsize cargo-capable to sustain 
strategic mobility assets.
Air National Guard Top Ten Equipment Requirements
    Priority 1 equipment requirements by the Air National Guard total 
$500 million.
            Joint Forces HQ Command and Control--$27 million
    Cell Restoral; ANG Readiness center Crisis Action Team; Joint 
Incident Site Communications and Interim Satcom Incident Site. (JISC & 
ISISCS).
            Medical--$33.9 million
    Expeditionary Medical System (EMEDS); Tamiflu.
            Communication--$72.3 million
    Wireless Internet; 11xCell Phone Restoral; 11x JISC and ISISCS.
            Logistics Equipment--$15.7 million
    Combat Readiness Training Center; HLS/HLD Mission Essential; Single 
Pallet Expeditionary Field (SPEK) Kitchen Phase IV; Disaster Response 
Bed down Kits.
            Transportation--$52.1 million
    P-19, P-22, P-23 Firefighting Vehicles; Refueling Vehicles.
            Engineers--$31.2 million
    Construction/Heavy Equipment--Loaders, Graders, Evacuators, Mixers, 
Backhoes; Explosive Ordnance Disposal (EOD) IED Equipment.
            Civil Support Teams (Force Protection)--$21.4 million
    PJ/STs Medical Treatment Equipment; Hazardous Material Equipment; 
Fire Fighter Self Contained Breathing Apparatus; CBRNE Incident 
Response Equipment; Personnel Protective Equipment for First Responders 
to WMD.
            Maintenance--$13.4 million
    Standard Asset Tracking System.
            Security--$74.5 million
    Security Forces Body Armor (vests, helmets); Night Vision Goggles; 
Mobility Bag Upgrades; Weapons Upgrades (stocks, racks, rifles, storage 
cases).
            Aviation--$158.5 million
    HH-60 Avionic Upgrades, Para-rescue Specialist upgrades, Special 
Tactics Survivability Upgrades and Modernization Suite; C-21 A Avionics 
upgrades; HC-130 Data Link; HC/MC-120 LAARS V-12; C-130 CDU, NVIS, 
radar, propulsion upgrades; RC-26 Avionics, BLOS, CNS/ATM upgrades.
                    navy reserve unfunded priorities
    Active Reserve Integration (ARI) aligns Active and Reserve 
Component units to achieve unity of command. Navy Reservists are fully 
integrated into their AC supported commands. Little distinction is 
drawn between AC and RC equipment, but unique missions remain.
            C-40 A Combo cargo/passenger Airlift (4)--$330 million
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. This aircraft was designated as the C-40A to replace the 
aging C-9 fleet. The C-40A is able to carry 121 passengers or 40,000 
pounds of cargo, compared with 90 passengers or 30,000 pounds for the 
C-9. In addition, the maximum range for the Clipper is approximately 
1,500 miles more than the C-9.
            C-130J Aircraft (5)--$320 million
    These Aircraft are needed to fill the shortfall in Navy Unique 
Fleet Essential Airlift (NUFEA). C-130 J's are flown by Navy Reserve 
crews for intra-theater support as tactical transport aircraft.
            P-3 Maritime Patrol Aircraft Fixes--$312 million
    Due to the grounding of 39 airframes in December 2007, there is a 
shortage of maritime patrol and reconnaissance aircraft, which are 
flown in associate Active and Reserve crews. P-3 wing crack kits are 
still needed for fiscal year 2009.
            New Accession Training Bonuses--$17 million
    This is the Navy Reserve's only non-prior service accession 
program. The request funds $10 million for bonuses, and $7 million to 
meet increase Reserve Component recruiting.
            DDG-1000 Training Facility, Norfolk--$5 million
    A training facility is needed for both Active and Reserve 
augmentees to the fleet to prepare sailors for the next generation of 
destroyer.
                marine corps reserve unfunded priorities
    The Marine Corps Reserve faces two primary equipping challenges, 
supporting and sustaining its forward deployed forces in the Long War 
while simultaneous resetting and modernizing the Force to prepare for 
future challenges. Only by equally equipping and maintaining both the 
Active and Reserve forces will an integrated Total Force be seamless.
            Training Allowance (T/A) Shortfalls--$187.7 million
    Shortfalls consist of over 300 items needed for individual combat 
clothing and equipment, including protective vests, poncho, liner, 
gloves, cold weather clothing, environmental test sets, took kits, 
tents, camouflage netting, communications systems, engineering 
equipment, combat and logistics vehicles and weapon systems.
            Brite Star FLIR (6)--$7.2 million
    A cost-effective military qualified third-generation multi-sensor 
system that provides TV surveillance, a laser designator, and a laser 
range finder. These are needed to upgrade Reserve aircraft to match 
active duty configuration.
            Virtual Combat Convoy Trainer (1)--$2.75 million
    A mobile self-contained convoy trainer simulates the space and 
physical constraints of the HMMWV. It incorporates small arms and crew-
served weapons response training, mission rehearsal and coordination 
with other units. Can train up to 10 marines at a time and can be 
relocated for convoy training at various Reserve Training Centers.
            Deployable Virtual Training Environment--DVTE (12)--
                    $444,000
    Simulation technologies that will help prepare Reserve Marines for 
combat. It is made up of two components: the Combined Arms Network 
(CAN) and the Infantry Tool Kit (ITK), which contain several tactical 
simulations. Of 184 sites, there are 12 technological suites remaining 
to be purchased.
            Tactical Remote Sensor System--TRSS (3)--$7.98 million
    This is a suite of sensors used by the Ground Sensors Platoons of 
the Intelligence Battalions to accomplish their mission to detect enemy 
movement on avenues of approach.
            MCB Twenty Nine Palms, Vehicle Maintenance Facility--$10.9 
                    million
    Addition to Marine Corp Reserve Training Center for vehicle storage 
and maintenance.
    Ground equipment mission readiness rates for non-deployed Marine 
Forces Reserve Units average 88 percent based on Training Allowance. 
Reduced readiness results from shortages in home station Training 
Allowance. There is approximately a 10 percent readiness shortfall 
across the Force for most equipment.
           national guard and reserve equipment appropriation
    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state for mobilization.
    With the war, the Reserve and Guard are faced with mounting 
challenges on how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and in general replacing that which is gone or aging through 
normal wear and tear. Funding levels, rising costs, lack of replacement 
parts for older equipment, etc. has made it difficult for the Reserve 
Components to maintain their aging equipment, not to mention 
modernizing and recapitalizing to support a viable legacy force. The 
Reserve Components would benefit greatly from a National Military 
Resource Strategy that includes a National Guard and Reserve Equipment 
Appropriation.
                             roa law center
    It was suggested that ROA could incorporate some Federal military 
offices, such as recruiting offices, into the newly remodeled ROA 
Minuteman Memorial building. ROA would be willing to work with this 
committee on any suggestion.
    The Reserve Officers Association's recommendation would be to 
develop a Servicemembers Law Center, advising Active and Reserve 
servicemembers who have been subject to legal problems that occur 
during deployment.
    A legal center would help encourage new members to join the Active, 
Guard, and Reserve components by providing a non-affiliation service to 
educate prior service about USERRA and Servicemember Civil Relief Act 
(SCRA) protections, and other legal issues. It would help retention as 
a member of the staff could work with Active and Reserve Component 
members to counsel those who are preparing to deploy, deployed or 
recently deployed members facing legal problems.
    The Legal Center could advise, refer by providing names of 
attorneys who work related legal issues and amicus curiae briefs, 
encourage law firms to represent servicemembers, and educate and 
training lawyers, especially active and reserve judge advocates on 
servicemember protection cases. The center could also be a resource to 
Congress.
    ROA would set-aside office spaces. ROA's Defense Education Fund 
would hire an initial staff of one lawyer, and one administrative law 
clerk to man the Servicemembers Law Center to counsel individuals and 
their legal representatives.
    Anticipated startup cost, first year: $750,000
                       cior/ciomr funding request
    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of the signatory countries of the North 
Atlantic Treaty (NATO). Presently there are 16 member nation 
delegations representing over 800,000 reserve officers.
    CIOR supports four programs to improve professional development and 
international understanding.
    MIlitary Competition.--The CIOR Military Competition is a strenuous 
3-day contest on warfighting skills among Reserve Officers teams from 
member countries. These contests emphasize combined and joint military 
actions relevant to the multinational aspects of current and future 
Alliance operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-Government body, operating on a limited budget, it 
is not in a position to afford the expense of providing simultaneous 
translation services. The Academy offers intensive courses in English 
and French at proficiency levels 1, 2, and 3 as specified by NATO 
Military Agency for Standardization. The Language Academy affords 
national junior officer members the opportunity to become fluent in 
English as a second language.
    Partnership for Peace (PfP).--Established by CIOR Executive 
Committee in 1994 with the focus of assisting NATO PfP nations with the 
development of reserve officer and enlisted organizations according to 
democratic principles. CIOR's PfP Committee, fully supports the 
development of civil-military relationships and respect for democratic 
ideals within PfP nations. CIOR PfP Committee also assists in the 
invitation process to participating countries in the Military 
Competition.
    Young Reserve Officers Workshop.--The workshops are arranged 
annually by the NATO International Staff (IS). Selected issues are 
assigned to joint seminars through the CIOR Defense and Security Issues 
(SECDEF) Commission. Junior grade officers work in a joint seminar 
environment to analyze Reserve concerns relevant to NATO.
    Dues do not cover the workshops and individual countries help fund 
the events. The Department of the Army as Executive Agent hasn't been 
funding these programs.
                               conclusion
    DOD is in the middle of executing a war and operations in Iraq are 
directly associated with this effort. The impact of the war is 
affecting the very nature of the Guard and Reserve, not just the 
execution of Roles and Missions. Without adequate funding, the Guard 
and Reserve may be viewed as a source to provide funds to the Active 
Component. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects close to 4 percent 
of GDP including supplemental dollars. ROA has a resolution urging that 
defense spending should be 5 percent to cover both the war and homeland 
security. While these are big dollars, the President and Congress must 
understand that this type of investment is what it will take to equip, 
train, and maintain an all-volunteer force for adequate National 
Security.
    The Reserve Officers Association, again, would like to thank the 
sub-committee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Senator Inouye. I thank you very much, General. How would 
you assess the morale of those men and women who have served 
abroad in Afghanistan and Iraq, members of the National Guard?
    General McCarthy. Obviously, Mr. Chairman, I have less 
personal contact than I once did, so I get a lot of secondhand 
reports. But my sense is that it remains very, very good, and 
the fact that the services continue to make their recruiting 
goals and that they continue to retain high quality people I 
think is the very best indication.
    But I'm concerned when I hear about units that come back 
and don't have the equipment and the things that they need. I 
think that's a morale destroyer and something that we need to 
be very watchful of.
    Senator Inouye. I thank you very much, sir.
    Our next witness is the Chairman of the Council on 
Government Affairs of the American Dental Association, Dr. 
Keith Suchy.
STATEMENT OF KEITH W. SUCHY, D.D.S., CHAIRMAN, COUNCIL 
            ON GOVERNMENT AFFAIRS, AMERICAN DENTAL 
            ASSOCIATION
    Dr. Suchy. Good morning, Mr. Chairman and Senator Stevens. 
My name is Dr. Keith Suchy as you stated, Mr. Chairman. I'm 
Chairman of the Council on Government Affairs for the American 
Dental Association (ADA). The ADA represents over 155,000 
dentists, including almost 3,000 dentists in military service. 
We thank you this morning for the opportunity to testify 
regarding military dental research programs. It's a very small 
but valuable program that certainly needs the subcommittee's 
support to continue its work.
    When we last testified in 2004 before this subcommittee, 
the goal of military dental research was simply to keep our 
deployed forces healthy. While oral health is still one of our 
priorities, the wars in Afghanistan and Iraq have dramatically 
changed our dental research agenda. It's been estimated that 
more than 40 percent of the injuries in these conflicts are to 
the head and face, and to date over 1,600 young men and women 
have been treated at Walter Reed and Bethesda alone for such 
injuries.
    These wounds present a unique challenge to the dental 
researchers and to the dentists who are treating these 
patients. The importance of restoring facial features cannot be 
overstated. They really affect the person's ability to 
communicate and embody one's sense of self, and the loss of 
facial features brings with it very adverse psychological 
effects. Re-entering the workforce back home, for example, is 
all but impossible.
    Restoring the facial tissue and structure is complicated 
and currently the maxillofacial prosthetic materials we use are 
not adequately mimicking natural tissues. Naval dentists at 
Great Lakes are working to develop better materials already to 
replace facial skin, ears, and noses, and the dentists at 
Walter Reed and Bethesda Medical Centers are currently 
fashioning skulls and facial bones using synthetic polymers and 
titanium mesh screens.
    In addition, our naval dental researchers are working to 
establish a program where we would take predeployment 3D CT 
scans of every warfighter. This certainly would allow a 
template for the dentists that make cranial and facial 
structures and allow them to work from these CTs to get more 
exact replacements for the wounded. If this method proves 
successful, it has implications for military and non-military 
patients who have lost similar structures through cancers and 
traumas.
    Preventing burns and injuries to the face and head has been 
a top priority of our Army dental researchers for many years, 
and as a result of previous congressional funding the Army has 
developed a lightweight face shield to reduce, if not prevent, 
such injuries. A final prototype is nearing completion and we 
look forward to the field trials with it. We've included a 
picture of this shield in our submitted testimony, and we've 
also detailed several more research projects in our written 
statement along with specific funding requests.
    Mr. Chairman, all of our requests have direct implications 
to combat medicine. All of them are targeted to improve the 
oral health of the deployed personnel, and they can really lead 
to enormous cost savings in the field.
    In 2007, this program was funded for $4 million and the 
current funding is at only $1.2 million, a loss of 70 percent 
of our resources. This current funding level is woefully 
inadequate and we are therefore requesting $6 million in the 
subcommittee's bill to restore and expedite this research. This 
small amount I understand brings with it the risk of being 
overlooked, but it translates into an immense difference for 
the wounded who can once again look into the mirror and see a 
familiar face.
    Thank you, Mr. Chairman. This concludes my testimony and I 
certainly look forward to any questions.
    Senator Inouye. Thank you very much, doctor. I can 
understand what you're trying to tell us.
    Dr. Suchy. Thank you, sir.
    Senator Inouye. There's too many of them.
    [The statement follows:]
               Prepared Statement of Keith Suchy, D.D.S.
    Good morning, Mr. Chairman and members of the subcommittee. I am 
Dr. Keith Suchy, Chairman of the Council on Government Affairs of the 
American Dental Association (ADA), which represents over 155,000 
dentists including almost 3,000 dentists in the military services. 
Thank you for the opportunity to testify to discuss appropriations for 
military dental research.
    This is a small but very valuable program that needs the 
committee's support to continue its work.
    Military dental research is not a new program. The Army began 
formal dental research with the establishment of the Army Dental School 
in 1922, which was a precursor to the establishment of the U.S. Army 
Institute of Dental Research in 1962.
    The Navy Dental Research Facility at Great Lakes was established in 
1947, which subsequently became the Naval Dental Research Institute in 
1967 (now known as the Naval Institute for Dental and Biomedical 
Research). In 1997, both activities were co-located at Great Lakes as a 
result of the Base Realignment and Closure activities of 1991. These 
research programs share common Federal funding and a common goal to 
reduce the incidence and impact of dental diseases and maxillofacial 
injury on deployed troops. This is unique research that is not 
duplicated by the National Institutes of Health or in the civilian 
community.
    In 2004, when we last testified before this committee, the goal of 
military dental research was to keep deployed troops orally healthy. 
While that is still a priority, the war in Afghanistan and Iraq has 
dramatically changed the research agenda.
    It has been estimated that more than 40 percent of the injuries in 
this war are to the head and face. With over 90 percent of wounded 
warriors surviving their injuries, these wounds present a unique 
challenge to dental researchers and prosthodontists and oral surgeons 
who treat the patients.
    Treatment for head and facial wounds, often resulting in traumatic 
brain injury, is usually a long process that requires significant care. 
The initial length of time from injury to restoration is between 5-6 
months, and includes placement in ICU. A long-term stay at Walter Reed 
or Bethesda Naval hospital is often necessary to treat wound 
infections. Once the infection has cleared patients are sent to a 
rehabilitation facility, then back to the hospital for the implant, 
followed by 2 or more years of outpatient therapy for everything from 
motor to sensory to speech skills.
    Preventing and treating these injuries, by investing in military 
dental research could result in significant cost savings to the 
military.
    If you speak with the dentist at Walter Reed in charge of 
fashioning cranial and facial structures and ask what does he need 
most, he will tell you protective head gear to prevent such injuries, 
better restorative materials, and better tissue retention materials. 
These are areas that dental researchers at Great Lakes are researching.
    The importance of restoring facial appearance cannot be 
understated. Facial features affect a person's ability to communicate 
and embody one's sense of self. Loss of a face or facial features also 
brings with it psychological effects. Imagine how hard it is to be 
accepted for employment if you were missing a nose, jaw, ear, or smooth 
facial skin. These are the challenges that confront the patients and 
the dentists who strive to return our wounded troops to society.
    We have included in our testimony, pictures of such wounds so you 
can see to what extent it is necessary to restore bone structure to the 
head and around the eyes, nose, mouth and jaw, and the challenges 
facial skin grafts create. They are hard to look at and because of 
that, they have not been chronicled in the news like other injuries.
    Restoring facial tissue and structure is complicated and unique. 
The maxillofacial prosthetic materials currently available for head and 
neck prosthetic reconstruction do not adequately mimic natural tissues. 
The silicone materials being used today for head/neck and maxillofacial 
prosthetic reconstruction for ears, noses and facial tissue provide 
limited restoration of function. These materials have limited 
durability and are esthetically poor. In addition, the colorants added 
to make the prosthetic materials appear life-like are very unstable. 
Ultimately, these artificially reconstructed features do not look 
natural and have to be replaced.
    Currently, dentists at Walter Reed and Bethesda Medical Centers are 
fashioning bony structures with synthetic polymer materials and 
titanium mesh screens. Using a CT scan of the wounded patient's head, 
they fabricate mirror images of the undamaged bone to fashion the 
replacements. While this process has worked well, it can be improved 
significantly.
    One goal of Navy dental researchers is to establish a technique for 
dentists at military treatment centers to recreate as close as possible 
the original craniofacial shapes and contours using synthetic 
materials. Toward this aim, the use of 3-D imaging to aid in the 
complex treatment planning and surgical reconstruction of traumatic 
craniofacial injuries is being investigated. By taking a pre-deployment 
3-D CT scan of every war fighter, dentists who fabricate cranial 
implants and facial structures can work from them to make more exact 
replacements. They would not have to rely on creating mirror images of 
head and facial structures which might not be exact and therefore would 
require multiple surgeries to correct. If this method proves 
successful, it can also be used for military and non-military patients 
who have lost extensive amounts of head and neck structures as a result 
of facial or oral cancer surgery.
    Dental researchers also hope to develop a means of releasing 
antibiotics from the surface of craniofacial implants to prevent 
infections. Current infection rate is between 10-12 percent. The Navy 
is using nanotechnology to infuse antibiotics in nanoparticles applied 
to the implants that maxillofacial prosthodontists and oral surgeons 
are placing. By using antibiotics that will be released over time they 
hope to prevent long term or recurring infections.
    Before this war, cranial and facial replacements of this magnitude 
for such destructive wounds were rare. Now, over 1,600 young men and 
women have been treated at Walter Reed and Bethesda alone. No one knows 
how well the polymers and titanium will hold up, whether they will lead 
to further infections or deteriorate over time.
    Equally important to naval military dentists at Great Lakes is the 
development of improved head and neck prosthetic materials specifically 
for a young adult population (ages 18-40). Soft tissue facial features 
like ears and noses present unique challenges in restoring function and 
appearance, as well as, improving the systems for attachment of the 
prostheses.
    The facial features must be fabricated from artificial materials 
that match a patient's skin. Current materials being used for the 
replacement of facial features are modeled after middle-aged and older 
skin. The objectives of the research being done by the Navy are to 
characterize selected properties of human skin (i.e., color, 
translucency, elasticity, etc.) of patients in the age group 18-40 
years and to compare those properties to those of existing prosthetic 
materials. The ultimate goal is the development of durable 
maxillofacial prosthetic materials that more closely mimic the skin of 
younger adults. Navy researchers will also determine the small color 
and textural differences between maxillofacial reconstruction materials 
which would be detectable by human observers.
    Preventing injuries and burns to the face and head have been a top 
priority of Army dental researchers for many years. As a result of 
congressional funding, the Army has developed a lightweight face-shield 
to reduce if not prevent such injuries. It is also designed to prevent 
burns. Prototypes were developed and evaluated in spring 2007. The two 
submissions were rated second and third out of seven items evaluated. A 
final prototype is nearing completion and we look forward to field 
trials, the next research step. We have included in our testimony a 
picture of one of these shields.
    As we stated at the beginning of our testimony, research being done 
by Navy and Army dentists at Great Lakes is focusing on war-related 
injuries. However, they have not stopped projects that focus on keeping 
deployed troops orally healthy. Deployed troops can be evacuated from a 
war zone for injuries as well as oral disease.
    A new study published in ``Military Medicine'' this month reports 
that from 2003-2004, oral-facial injuries accounted for 327 evacuations 
from Iraq and 47 from Afghanistan. Of those, 158 (42 percent) were due 
to disease, 136 (36 percent) were due to battle injuries; mostly facial 
fractures and 80 (21 percent) were due to non-battle injuries (such as 
motor vehicle accidents, sports injuries, etc.)
    One reason for evacuations due to disease is plaque-related 
conditions, including trench mouth, which can account for as much as 75 
percent of the daily dental sick call rate in deployed troops. Even 
soldiers who ship out in good oral health can become vulnerable to 
these severe gum diseases if stationed in combat areas where access to 
oral hygiene is difficult. An easy and cost effective way to address 
these conditions is the development of an anti-plaque chewing gum, 
which could be included in every meals ready-to-eat or mess kit. The 
Army has successfully developed such a product. It is a novel 
antimicrobial peptide (KSL-W) that will be incorporated into chewing 
gum to control plaque growth and reduce dental emergencies due to 
plaque.
    When untreated dental plaque leads to oral infections and 
abscesses, affected troops must be evacuated for treatment which can be 
costly and dangerous. Procedure demands that convoys be no less than 
four vehicles, exposing many to attack. The anti-plaque chewing gum is 
a simple and inexpensive solution. It is a direct result of previous 
congressional funding.
    Dehydration continues to be a significant problem, not only for 
soldiers in Iraq and Afghanistan, but with basic trainees as well. 
Extreme dehydration can come on rapidly and result in altered behavior, 
such as severe anxiety, confusion, faintness or lightheadedness, 
inability to stand or walk, rapid breathing, weak, rapid pulse and loss 
of consciousness. If field commanders could detect oncoming dehydration 
it would reduce the number of troops affected and improve missions.
    There is currently no non-invasive method to determine a soldier's 
hydration status in order to prevent heat injuries. Army dental 
researchers at Great Lakes are developing a miniature intraoral sensor 
to monitor hydration rates that could be bonded to a soldier's tooth. 
Health care personnel at a remote site could monitor the sensor and 
alert the deployed forces to administer fluids before the situation 
becomes critical.
    Since we last testified before the committee in 2004, naval 
researchers have licensed and are transitioning to commercial partners 
for final development rapid point-of-care tests for the detection of 
military relevant diseases. This includes devices use properties in 
saliva to: (1) monitor the immune response in recipients of the U.S.-
licensed anthrax vaccine; (2) diagnose tuberculosis; and (3) monitor 
cortisol levels. Congressional funding was key in developing this 
diagnostic device which has great implications for homeland security 
needs.
    These are just a few of the dental research projects being 
conducted at the Great Lakes facility. All have a direct relationship 
to combat medicine, are targeted to improve the oral health of deployed 
personnel and can lead to enormous cost savings for forces in the 
field. Furthermore, while the Army and the Navy do not duplicate the 
research done by the National Institute of Dental and Craniofacial 
Research, many of their findings will have implications within the 
civilian community or other Federal agencies.
    In 2007, the military dental research program at Great Lakes was 
funded at $4 million. Current funding for the program is $1.2 million. 
The ADA believes that if the funding continues to stay at this level or 
be decreased further, it will significantly retard highly needed 
treatments for our wounded.
    Therefore, the Association strongly recommends that the committee 
include in its fiscal year 2009 bill funding for military dental 
research at $6 million to restore and expedite this research for the 
deployed forces.
    The ADA thanks the committee for allowing us to present these 
issues related to the dental and oral health of our great American 
service men and women.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Inouye. Now may I call upon Dr. Deborah Boehm-
Davis, Chair of the Department of Psychology, George Mason 
University. Doctor.
STATEMENT OF DEBORAH BOEHM-DAVIS, Ph.D., CHAIR, 
            DEPARTMENT OF PSYCHOLOGY, GEORGE MASON 
            UNIVERSITY, ON BEHALF OF THE AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Boehm-Davis. Good morning, Mr. Chairman, Senator 
Stevens. I'm submitting testimony on behalf of the American 
Psychological Association, or APA, a scientific and 
professional association of more than 148,000 psychologists and 
affiliates.
    Senator Stevens. Pull the mike back, please, toward you. 
Thank you.
    Dr. Boehm-Davis. For decades, clinical and research 
psychologists have brought their unique and critical expertise 
to meeting the needs of our military and its personnel, playing 
a vital role within the Department of Defense.
    I am a human factors psychologist. The goal of psychology, 
as I'm sure you know, is to understand and predict human 
behavior. Human factors psychologists take that knowledge and 
embed it in systems to enhance safety and productivity. Over my 
career, I've worked in two application areas--human-computer 
interaction and transportation--specifically focusing on 
aviation and highway safety. For the past several years I've 
had the privilege of serving on the Air Force Scientific 
Advisory Board.
    This morning I focus on APA's request that Congress reverse 
administration cuts to the overall DOD science and technology 
(S&T) budget and maintain support for important behavioral 
sciences research on counterterrorism and counterintelligence 
operations within DOD. Specifically, APA urges the subcommittee 
to provide a minimum of $13.2 billion for Defense S&T in fiscal 
year 2009.
    Although the President's budget allows for an increase in 
DOD basic research, it does not provide for bringing this basic 
research into applications for military use. To do so, we must 
strengthen the 6.2 and 6.3 research programs, which face 
substantial cuts in the administration's proposed budget. This 
would be in line with the 2008 report from the National 
Academies on human behavior in military contexts, which calls 
for enhanced research in six areas of behavioral research that 
traditionally have been supported by the military research 
laboratories: the Army Research Institute, the Office of Naval 
Research, and the Air Force Research Laboratory.
    These labs need increased basic and applied research 
funding in fiscal year 2009 to expand their reach even further 
into effectively mapping the human terrain.
    Finally, APA also is concerned with the potential loss of 
invaluable human-centered research programs within DOD's 
counterintelligence field activity (CIFA), due to a current 
reorganization of their structure and personnel strength. APA 
urges the subcommittee to provide ongoing funding in fiscal 
year 2009 for CIFA's behavioral research programs on 
cybersecurity, insider threat, and other counterterrorism and 
counterintelligence operational challenges as they merge into 
other defense agencies, the most likely being the Defense 
Intelligence Agency.
    As a member of an Air Force study team examining 
cybersecurity, I heard concrete data that confirmed what I knew 
as a human factors psychologist and as a behavioral scientist: 
the greatest threat to cybersecurity is people. It is critical 
to understand human behavior and to be able to design systems 
that can counter these threats.
    Thank you and, on behalf of APA, I urge the subcommittee to 
support the men and women on the front lines by reversing 
another round of dramatic, detrimental cuts to the overall 
Defense S&T account and the human-oriented research projects 
within the military labs and CIFA. Thank you.
    [The statement follows:]
             Prepared Statement of Dr. Deborah Boehm-Davis
    The American Psychological Association (APA) is a scientific and 
professional organization of more than 148,000 psychologists and 
affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to human intelligence-gathering. More than ever before, 
psychologists today bring unique and critical expertise to meeting the 
needs of our military and its personnel. APA's testimony will focus on 
reversing administration cuts to the overall DOD Science and Technology 
(S&T) budget and maintaining support for important behavioral sciences 
research within DOD.
                              dod research
    ``People are the heart of all military efforts. People operate the 
available weaponry and technology, and they constitute a complex 
military system composed of teams and groups at multiple levels. 
Scientific research on human behavior is crucial to the military 
because it provides knowledge about how people work together and use 
weapons and technology to extend and amplify their forces.''----``Human 
Behavior in Military Contexts'' Report of the National Research 
Council, 2008

    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad, 
psychological scientists within DOD conduct cutting-edge, mission-
specific research critical to national defense.
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2009 included a renewed commitment to supporting basic, 6.1 
level research. However, the administration also included deep cuts in 
the applied and advanced technology (6.2 and 6.3) programs within the 
DOD S&T account. Funding for overall S&T would fall again in fiscal 
year 2009 to $11.7 billion, a significant decrease from the estimated 
fiscal year 2008 level of $13.2 billion.
    The President's budget request for basic and applied research at 
DOD in fiscal year 2009 is $11.7 billion, a decrease of $1.5 billion 
from the enacted fiscal year 2008 level. APA urges the subcommittee to 
reverse this cut to the critical defense science program by providing a 
total of $13.2 billion for DOD S&T in fiscal year 2009. The increase in 
DOD basic research support is laudable, but the ability to bring this 
basic research into applications for military use relies on maintaining 
and strengthening the 6.2 and 6.3 research programs at the same time.
      behavioral research within the military service labs and dod
    Within DOD, the majority of behavioral, cognitive, and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research; and the Air 
Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense, the Defense Advanced Research Projects Agency (DARPA), and 
DOD's Counterintelligence Field Activity (CIFA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2), and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.
New National Academies Report Calls for Doubling Behavioral Research
    The new National Academies report on Human Behavior in Military 
Contexts (2008) recommends doubling the current budgets for basic and 
applied behavioral and social science research ``across the U.S. 
military research agencies.'' It specifically calls for enhanced 
research in six areas: intercultural competence; teams in complex 
environments; technology-based training; nonverbal behavior; emotion; 
and behavioral neurophysiology.
    Behavioral and social science research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences: Mapping the Human Terrain
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on ``scientific, technical, manufacturing, acquisition process, 
and other matters of special interest to the Department of Defense.''
    In its 2007 report on 21st Century Strategic Technology Vectors, 
the DSB identified a set of four operational capabilities and the 
``enabling technologies'' needed to accomplish major future military 
missions (analogous to winning the Cold War in previous decades). In 
identifying these capabilities, DSB specifically noted that ``the 
report defined technology broadly, to include tools enabled by the 
social sciences as well as the physical and life sciences.'' Of the 
four priority capabilities and corresponding areas of research 
identified by the DSB for priority funding from DOD, the first was 
defined as ``mapping the human terrain.''
       maintaining behavioral research during cifa reorganization
    In addition to strengthening the DOD S&T account, and behavioral 
research within the military labs in particular, APA also is concerned 
with the potential loss of invaluable human-centered research programs 
within DOD's CIFA due to a current reorganization of CIFA's structure 
and personnel strength. Within CIFA, psychologists lead intramural and 
extramural research programs on counterintelligence issues ranging from 
models of ``insider threat'' to cybersecurity and detection of 
deception. These psychologists also consult with the three military 
services to translate findings from behavioral research directly into 
enhanced counterintelligence operations on the ground.
    APA urges the subcommittee to provide ongoing funding in fiscal 
year 2009 for counterintelligence behavioral science research programs 
in light of their direct support for military intelligence operations.
                                summary
    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in modeling 
behavior of individuals and groups, understanding and optimizing 
cognitive functioning, perceptual awareness, complex decision-making, 
stress resilience, recruitment and retention, and human-systems 
interactions. We urge you to support the men and women on the front 
lines by reversing another round of cuts to the overall defense S&T 
account and the human-oriented research projects within the military 
laboratories and CIFA.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic S&T research on both the 
near-term readiness and modernization needs of the department and on 
the long-term future needs of the warfighter.
    Below is suggested appropriations report language for fiscal year 
2009 which would encourage the DOD to fully fund its behavioral 
research programs within the military laboratories and protect 
counterintelligence research.
                         department of defense
Research, development, test, and evaluation
    Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to applied psychological research 
through the military research laboratories: the Air Force Office of 
Scientific Research and AFRL; the ARI and ARL; and the Office of Naval 
Research.
    Human-centered Counterintelligence Research.--The Committee urges 
the DOD to continue supporting human-centered research, formerly 
coordinated through CIFA, as its behavioral science programs are 
reorganized within other defense intelligence entities.

    Senator Inouye. Dr. Davis, thank you.
    Senator Stevens.
    Senator Stevens. Last week, doctor, Dr. Peake, Secretary of 
Veterans Affairs, was in Alaska and we had some discussions 
concerning the use of telemedicine and extending it into the 
psychological and psychiatric side of medicine. Have you done 
any work in that?
    Dr. Boehm-Davis. No, sir, I have not personally. I do know 
that the Army Research Lab in Aberdeen has done work on 
telepresence. I was on a review panel that looked at that work 
some years ago.
    Senator Stevens. Think of the cost of transporting people 
in my State hundreds of miles to come into a veterans clinic or 
a hospital. That would be very cost effective if it could be 
developed. I would encourage your association to go into that. 
These veterans that come from small villages or from rural 
America, to travel long distances and then stand in line 
doesn't make much sense.
    If we can use telepsychiatry, telepsychology, I think it 
would improve the system vastly and really be, as I said, cost 
effective.
    Dr. Boehm-Davis. Thank you.
    Senator Stevens. Thank you.
    Senator Inouye. I've been urging my colleagues to look into 
the problems that you describe very carefully because 
oftentimes they compare World War II with the present war, and 
statistically the differences are of an historic nature. For 
example, in my regiment 96 percent of the men were single, 4 
percent were married. Today it's just the opposite. It's about 
65, 70 percent are married and the rest are unmarried.
    Second, the last phone call you made was when you left home 
and then the next phone call was maybe 2 years later or 3 years 
later. Today they pick up the cell phone and call up Iraq every 
day or carry on conversations on the e-mail, and every so often 
little junior gets on the line and says: ``Daddy, come home.''
    I would think it has an impact upon one's mind. Are these 
things being considered?
    Dr. Boehm-Davis. Those issues are personnel issues and I 
believe that the agencies are looking at those. It's a little 
bit to the side of the work that I personally do, but I can 
look into that and get back to you with more information.
    Senator Inouye. Thank you very much.
    Dr. Boehm-Davis. Thank you.
    Senator Inouye. Now we have the Executive Vice President of 
the National Breast Cancer Coalition, Ms. Carolina Hinestrosa.
STATEMENT OF CAROLINA HINESTROSA, EXECUTIVE VICE 
            PRESIDENT, NATIONAL BREAST CANCER COALITION
    Ms. Hinestrosa. Thank you, Chairman Inouye and Senator 
Stevens, for the opportunity to talk to you about a program 
that has made a significant difference in the lives of women 
and their families.
    I'm Carolina Hinestrosa, now a three-time breast cancer 
survivor. I testify today on behalf of the more than 3 million 
women living with breast cancer. There is no question that most 
of the progress in the fight against this disease has been made 
possible by the Appropriation Committee's investment in breast 
cancer research through the Department of Defense peer-reviewed 
breast cancer research program. This program has launched new 
models of biomedical research that have benefited academia, 
other funding agencies, and both public and private 
institutions, and, most importantly, women. It has changed for 
the better the way research is performed and has been 
replicated by programs focused on other diseases, by other 
countries, and by the States.
    To make sure this unprecedented progress moves forward, we 
ask that you support a separate $150 million appropriation for 
fiscal year 2009. In order to continue the success of the 
program, you must ensure that it maintains its integrity and 
separate identity in addition to the requested level of 
funding. This is important not just for breast cancer, but for 
all biomedical research that has benefited from this incredible 
Government program.
    The hallmark of the Department of Defense peer-reviewed 
breast cancer research program is funding for innovative 
scientific ventures that represent an attempted avenue of 
investigation or novel applications of existing technologies. 
Many of the grant mechanisms developed by this program have 
later been adopted by the National Institutes of Health (NIH) 
and by other prestigious research programs, more recently the 
Howard Hughes Institute. This program has also funded 
unprecedented multi-disciplinary, multi-institution 
collaborations.
    One example of the promising outcomes of research funded by 
the program was the development of the first monoclonal 
antibody targeted therapy, an unprecedented approach that 
prolongs the lives of women with a particularly aggressive type 
of breast cancer.
    The DOD breast cancer research program is extremely 
efficient and accountable. Over 90 percent of funds allocated 
to date have gone directly to research. The program is also 
transparent, as one of the first to report its results 
regularly back to the public at a meeting called Era of Hope. 
The next Era of Hope is June 25 through June 28 this year in 
Baltimore, and we urge you and encourage you to participate.
    The program is unique because it includes consumers as 
voting members of both the scientific peer review panels and 
the programmatic review panels, and consumers work alongside 
leaders in the scientific community in setting the vision for 
the program.
    The competitive peer review process in which research 
proposals are reviewed first for scientific quality and then 
for programmatic relevance was developed by the Institute of 
Medicine (IOM). It has been reviewed favorably by the IOM on 
two separate occasions, in 1997 and 2004.
    Chairman Inouye and Ranking Member Stevens, we have 
appreciated your personal support of this program in the past. 
I am hopeful that you and your subcommittee will continue that 
determination and leadership.
    Thank you again for the opportunity to testify today and 
for giving hope to the 3 million women in the United States 
living with breast cancer and their daughters at risk.
    Senator Inouye. I thank you very much.
    Ladies and gentlemen, in case you've forgotten, the author 
of the breast cancer research funding is the man sitting to my 
left, Senator Stevens. For that move he was highly criticized, 
not only by the Department of Defense, but by the medical 
profession, because the question was what does Defense know 
anything about breast cancer? After all, there are just a few 
women in the Defense Department.
    But he persisted and we've got some cures, I think. You can 
thank Senator Stevens.
    Ms. Hinestrosa. Thank you very much.
    Senator Inouye. Now we'll have--give him a hand.
    [The statement follows:]
  Prepared Statement of Fran Visco, J.D., President, National Breast 
                            Cancer Coalition
    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to testify today about a 
Program that has made a significant difference in the lives of women 
and their families. I am Fran Visco, a 20-year breast cancer survivor, 
a wife and mother, a lawyer, and president of the National Breast 
Cancer Coalition (NBCC or Coalition). I come before you representing 
the hundreds of member organizations and thousands of individual 
members of the Coalition. NBCC is a grassroots organization dedicated 
to ending breast cancer through action and advocacy. The Coalition's 
main goals are to increase Federal funding for breast cancer research 
and collaborate with the scientific community to implement new models 
of research; improve access to high quality health care and breast 
cancer clinical trials for all women; and expand the influence of 
breast cancer advocates wherever breast cancer decisions are made.
    You and your committee have shown great determination and 
leadership in funding the Department of Defense (DOD) peer-reviewed 
Breast Cancer Research Program (BCRP or Program) at a level that has 
brought us closer to eradicating this disease. Chairman Inouye and 
Ranking Member Stevens, we appreciate your longstanding personal 
support for this Program. I am hopeful that you and your committee will 
continue that determination and leadership.
    I know you recognize the importance of this Program to women and 
their families across the country, to the scientific and health care 
communities and to the DOD. Much of the progress in the fight against 
breast cancer has been made possible by the Appropriations Committee's 
investment in breast cancer research through the DOD BCRP. This Program 
has launched new models of biomedical research that have benefited 
other agencies and both public and private institutions. It has changed 
for the better the way research is performed and has been replicated by 
programs focused on other diseases, by other countries and States. To 
support this unprecedented progress moving forward, we ask that you 
support a separate $150 million appropriation for fiscal year 2009. In 
order to continue the success of the Program, you must ensure that it 
maintain its integrity and separate identity, in addition to the 
requested level of funding. This is important not just for breast 
cancer, but for all biomedical research that has benefited from this 
incredible Government Program. In addition, as Institute of Medicine 
(IOM) reports concluded in 1997 and 2004, there continues to be 
excellent science that would go unfunded without this Program. It is 
only through a separate appropriation that this Program is able to 
continue to focus on breast cancer yet impact all other research. The 
separate appropriation of $150 million will ensure that this Program 
can rapidly respond to changes and new discoveries in the field and 
fill the gaps in traditional funding mechanisms.
    Since its inception, this Program has matured into a broad-reaching 
influential voice forging new and innovative directions for breast 
cancer research and science. Despite the enormous successes and 
advancements in breast cancer research made through funding from the 
DOD BCRP, we still do not know what causes breast cancer, how to 
prevent it, or how to cure it. It is critical that innovative research 
through this unique Program continues so that we can move forward 
toward eradicating this disease.
           overview of the dod breast cancer research program
    The DOD peer-reviewed BCRP has established itself as a model 
medical research program, respected throughout the cancer and broader 
medical community for its innovative, transparent, and accountable 
approach. The pioneering research performed through the Program has the 
potential to benefit not just breast cancer, but all cancers, as well 
as other diseases. Biomedical research is being transformed by the DOD 
BCRP's success.
    This Program is both innovative and incredibly streamlined. It 
continues to be overseen by an integration panel including 
distinguished scientists and advocates, as recommended by the IOM. 
Because there is little bureaucracy, the Program is able to respond 
quickly to what is currently happening in the research community. 
Because of its specific focus on breast cancer, it is able to rapidly 
support innovative proposals that reflect the most recent discoveries 
in the field. It is responsive, not just to the scientific community, 
but also to the public. The flexibility of the Program has allowed the 
Army to administer it with unparalleled efficiency and effectiveness.
    An integral part of this Program has been the inclusion of consumer 
advocates at every level. Breast cancer is not just a problem of 
scientists; it is a problem of people. Advocates bring a necessary 
perspective to the table, ensuring that the science funded by this 
Program is not only meritorious, but it is also meaningful and will 
make a difference in people's lives. The consumer advocates bring 
accountability and transparency to the process. Many of the scientists 
who have participated in the Program have said that working with the 
advocates has changed the way they approach research. Let me quote Dr. 
Michael Diefenbach of Mount Sinai School of Medicine:

    ``I have served as a reviewer for the Department of Defense's 
Breast and Prostate Cancer Review programs and I am a member of the 
behavioral study section for the National Cancer Institute . . . I find 
survivors or advocate reviewers as they are sometimes called bring a 
sense of realism to the review process that is very important to the 
selection and ultimately funding process of important research . . . 
Both sides bring important aspects to the review process and the 
selected projects are ultimately those that can fulfill scientific 
rigor and translatability from the research arena to clinical practice. 
I urge that future review panels include advocate reviewers in the 
review process.''

    Since 1992, over 585 breast cancer survivors have served on the 
BCRP peer review panels. As a result of this inclusion of consumers, 
the Program has created an unprecedented working relationship between 
the public, scientists, and the military, and ultimately has led to new 
avenues of research in breast cancer. The vital role of the advocates 
in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This Program now serves as an 
international model.
    It is important to note that the integration panel that designs 
this Program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists know now and the gaps in our knowledge--as well as the needs 
of the public. While this plan is mission driven, and helps ensure that 
the science keeps that mission--eradicating breast cancer--in mind, it 
does not restrict scientific freedom, creativity or innovation. The 
integration panel carefully allocates these resources, but it does not 
predetermine the specific research areas to be addressed.
                      unique funding opportunities
    The DOD BCRP research portfolio includes many different types of 
projects, including support for innovative ideas, networks to 
facilitate clinical trials, and training of breast cancer researchers.
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD Program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. Concept Awards support funding even earlier in the process of 
discovery. These grants have been instrumental in the development of 
promising breast cancer research by allowing scientists to explore 
beyond the realm of traditional research and unleash incredible new 
ideas. IDEA and Concept grants are uniquely designed to dramatically 
advance our knowledge in areas that offer the greatest potential. IDEA 
and Concept grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health and private research programs. They therefore 
complement, and do not duplicate, other Federal funding programs. This 
is true of other DOD award mechanisms also.
    Innovator awards invest in world renowned, outstanding individuals 
rather than projects, by providing funding and freedom to pursue highly 
creative, potentially groundbreaking research that could ultimately 
accelerate the eradication of breast cancer. The Era of Hope Scholar 
Award supports the formation of the next generation of leaders in 
breast cancer research, by identifying the best and brightest 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision of ending breast cancer.
    These are just a few examples of innovative funding opportunities 
at the DOD BCRP that are filling gaps in breast cancer research. 
Scientists have lauded the Program and the importance of these award 
mechanisms. In 2005, Zelton Dave Sharp wrote about the importance of 
the Concept award mechanism:

    ``Our Concept grant has enabled us to obtain necessary data to 
recently apply for a larger grant to support this project. We could 
have never gotten to this stage without the Concept award. Our eventual 
goal is to use the technology we are developing to identify new 
compounds that will be effective in preventing and/or treating breast 
cancer . . . Equally important, however, the DOD BCRP does an 
outstanding job of supporting graduate student trainees in breast 
cancer research, through training grants and pre-doctoral fellowships . 
. . The young people supported by these awards are the lifeblood of 
science, and since they are starting their training on projects 
relevant to breast cancer, there is a high probability they will devote 
their entire careers to finding a cure. These young scientists are by 
far the most important ``products'' that the DOD BCRP produces.''
                                                Zelton Dave Sharp,
                                                Associate Professor, 
                                                Interim Director/
                                                Chairman,
                                                Institute of 
                                                Biotechnology/Dept. 
                                                Molecular Medicine,
                                                University of Texas 
                                                Health Science Center 
                                                (August 2005)

    The DOD BCRP also focuses on moving research from the bench to the 
bedside. DOD BCRP awards are designed to fill niches that are not 
addressed by other federal agencies. The BCRP considers translational 
research to be the application of well-founded laboratory or other pre-
clinical insight into a clinical trial. To enhance this critical area 
of research, several research opportunities have been offered. Clinical 
Translational Research Awards have been awarded for investigator-
initiated projects that involve a clinical trial within the lifetime of 
the award. The BCRP has expanded its emphasis on translational research 
by also offering five different types of awards that support work at 
the critical juncture between laboratory research and bedside 
applications.
    The Centers of Excellence award mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
significant contribution towards the eradication of breast cancer. Many 
of these centers are working on questions that will translate into 
direct clinical applications. These centers include the expertise of 
basic, epidemiology and clinical researchers, as well as consumer 
advocates.
    Dr. John Niederhuber, now the Director of the National Cancer 
Institute, said the following about the Program when he was Director of 
the University of Wisconsin Comprehensive Cancer Center in April, 1999:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
continue to support breast cancer research. To sustain the Program's 
momentum, $150 million for peer-reviewed research is needed in fiscal 
year 2009.
                        scientific achievements
    One of the most promising outcomes of research funded by the DOD 
BCRP was the development of the first monoclonal antibody targeted 
therapy that prolongs the lives of women with a particularly aggressive 
type of advanced breast cancer. This drug could not have been developed 
without first researching and understanding the gene known as HER-2/
neu, which is involved in the progression of some breast cancers. 
Researchers found that over-expression of HER-2/neu in breast cancer 
cells results in very aggressive biologic behavior. The same 
researchers demonstrated that an antibody directed against HER-2/neu 
could slow the growth of the cancer cells that over-expressed the gene. 
This research, which led to the development of the targeted therapy, 
was made possible in part by a DOD BCRP-funded infrastructure grant. 
Other researchers funded by the DOD BCRP are identifying similar kinds 
of genes that are involved in the initiation and progression of cancer.
    Another example of innovation in the Program is in the area of 
imaging. One DOD BCRP awardee developed a new use for medical 
hyperspectral imaging (MHSI) technology. This work demonstrated the 
usefulness of MHSI as a rapid, noninvasive, and cost-effective 
evaluation of normal and tumor tissue during a real-time operating 
procedure. Application of MHSI to surgical procedures has the potential 
to significantly reduce local recurrence of breast tumors and may 
facilitate early determination of tumor malignancy.
    Studies funded by the DOD BCRP are examining the role of estrogen 
and estrogen signaling in breast cancer. For example, one study 
examined the effects of the two main pathways that produce estrogen. 
Estrogen is often processed by one of two pathways; one yields 
biologically active substances while the other does not. It has been 
suggested that women who process estrogen via the biologically active 
pathway may be at higher risk of developing breast cancer. This 
research will yield insights into the effects of estrogen processing on 
breast cancer risk in women with and without family histories of breast 
cancer.
    Another example of success from the Program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has led to a new standard of care for lymph node 
biopsies. If the first lymph node is negative for cancer cells, then it 
is unnecessary to remove all the lymph nodes. This helps prevent 
lymphodema which can be painful and have lasting complications.
                        federal money well spent
    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
Program allows the Army to administer it in such a way as to maximize 
its limited resources. The Program is able to quickly respond to 
current scientific advances and fulfills an important niche by focusing 
on research that is traditionally under-funded. This was confirmed and 
reiterated in two separate IOM reports released in 1997 and 2004. The 
areas of focus of the DOD BCRP span a broad spectrum and include basic, 
clinical, behavioral, environmental sciences, and alternative therapy 
studies, to name a few. The BCRP benefits women and their families by 
maximizing resources and filling in the gaps in breast cancer research.
    The Program is responsive to the scientific community and to the 
public. This is evidenced by the inclusion of consumer advocates at 
both the peer and programmatic review levels. The consumer perspective 
helps the scientists understand how the research will affect the 
community and allows for funding decisions based on the concerns and 
needs of patients and the medical community.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
11,700 publications in scientific journals, more than 12,000 abstracts 
and nearly 550 patents/licensure applications. The American public can 
truly be proud of its investment in the DOD BCRP. Scientific 
achievements that are the direct result of the DOD BCRP grants are 
undoubtedly moving us closer to eradicating breast cancer.
               independent assessments of program success
    The success of the DOD peer-reviewed BCRP has been illustrated by 
several unique assessments of the Program. The IOM, which originally 
recommended the structure for the Program, independently re-examined 
the Program in a report published in 1997. They published another 
report on the Program in 2004. Their findings overwhelmingly encouraged 
the continuation of the Program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD peer-reviewed BCRP commended the 
Program, stating, ``the Program fills a unique niche among public and 
private funding sources for cancer research. It is not duplicative of 
other programs and is a promising vehicle for forging new ideas and 
scientific breakthroughs in the Nation's fight against breast cancer.'' 
The 2004 report spoke to the importance of the program and the need for 
its continuation.
               transparent and accountable to the public
    The DOD peer-reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people every 
2 to 3 years at a public meeting called the Era of Hope. The 1997 
meeting was the first time a federally-funded program reported back to 
the public in detail not only on the funds used, but also on the 
research undertaken, the knowledge gained from that research and future 
directions to be pursued. The fifth Era of Hope meeting will be held in 
Baltimore, Maryland, June 25-28, 2008.
    The DOD peer-reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and facilitated new thinking in breast cancer 
research and research in general. A report on all research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the DOD website and look at the abstracts for 
each proposal at http://cdmrp.army.mil/bcrp/.
           commitment of the national breast cancer coalition
    The NBCC is strongly committed to the DOD BCRP in every aspect, as 
we truly believe it is one of our best chances for finding cures for 
and ways to prevent breast cancer. The Coalition and its members are 
dedicated to working with you to ensure the continuation of funding for 
this Program at a level that allows this research to forge ahead. From 
1992, with the launch of our ``300 Million More Campaign'' that formed 
the basis of this Program, until now, NBCC advocates have appreciated 
your support.
    Over the years, our members have shown their continuing support for 
this Program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    There are 3 million women living with breast cancer in this country 
today. This year, more than 40,000 will die of the disease and more 
than 240,000 will be diagnosed. We still do not know how to prevent 
breast cancer, how to diagnose it truly early or how to cure it. It is 
an incredibly complex disease. We simply cannot afford to walk away 
from this program.
    This April many of the women and family members who support this 
program came to NBCC's Annual Advocacy Training Conference here in 
Washington, DC. More than 600 breast cancer activists from across the 
country, representing groups in their communities and speaking on 
behalf of tens of thousands of others, were here as part of our efforts 
to end breast cancer. The overwhelming interest in and dedication to 
eradicating this disease continues to be evident as people not only are 
signing petitions, but are willing to come to Washington, DC, from 
across the country to tell their members of Congress about the vital 
importance of continuing the DOD BCRP.
    Since the very beginning of this Program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Stevens, you and this entire committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. We 
ask you now to continue your leadership and fund the Program at $150 
million and maintain its integrity. This is research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer.

    Senator Inouye. Now may I call on the next panel, made up 
of Dr. Levine, Mr. Carlebach, Mr. Davis, and Mr. Rick Jones.
    Our next witness is the past President of the American 
Society of Tropical Medicine and Hygiene, American Society of 
Tropical Medicine and Hygiene, Dr. Myron M. Levine.
STATEMENT OF MYRON M. LEVINE, M.D., D.P.P.H., PAST 
            PRESIDENT, ON BEHALF OF THE AMERICAN 
            SOCIETY OF TROPICAL MEDICINE AND HYGIENE
    Dr. Levine. Thank you, Mr. Chairman, Ranking Member 
Stevens, and members of the subcommittee. I welcome the 
opportunity to testify before you on behalf of the American 
Society of Tropical Medicine and Hygiene, or ASTMH. I commend 
the subcommittee for its attention to the vital issue of 
research on infectious diseases of military importance and the 
role of that research in protecting our troops deployed abroad.
    I'm a physician, an infectious disease consultant and 
epidemiologist, and, as you mentioned, have served in the past 
as president of our society, the world's largest professional 
membership organization dedicated to the prevention and control 
of tropical diseases.
    On behalf of our membership, I'd like to make a plea for 
assuring adequate funding for the DOD's infectious disease 
research programs, in particular malaria research. Because the 
U.S. military operates in so many tropical and developing 
regions of the globe, preventing or being able to promptly 
diagnose and treat tropical diseases is often critical to 
mission success. For this reason, and based on the lessons 
learned from decades of deployments and military operations in 
tropical regions, the U.S. military has historically played a 
pivotal role in the development of anti-malarial drugs and 
research on malaria vaccines. Several widely used anti-malarial 
drugs were originally developed by U.S. military researchers.
    Similarly, for three decades the U.S. Army and Navy 
research teams have been at the forefront of malaria vaccine 
research. The new drugs to treat and vaccines to prevent 
malaria that are derived from the research and development 
efforts of U.S. military investigators will also be available 
to protect U.S. civilian travelers to developing areas, and in 
some instances they may be useful for preventing malaria in 
indigenous populations, particularly young children in endemic 
areas.
    The consequence that inadequate prevention of malaria can 
have on a U.S. military deployment was highlighted a few years 
ago during a small peacekeeping operation in Liberia in 2003. 
Of 157 marines who spent one or more nights ashore during this 
operation, nearly one-half contracted malaria, and nearly one-
half of those had to be emergency air-evacuated to Germany, 
where many ended up in intensive care units.
    We need to assure that malaria vaccines will complete their 
development and become licensed as soon as possible, and that 
new drugs will come into the armamentarium to treat malaria 
caused by parasites that are resistant to currently available 
drugs.
    Malaria vaccine research in 2006, the last year for which 
we have data, was approximately $27.8 million. We're concerned 
that this funding level is not commensurate with the health 
threat that this disease poses to military operations. 
Therefore, we respectfully request that the subcommittee 
increase funding for malaria vaccine and new drug research to a 
minimum level of $30 million for fiscal year 2009. We also 
request that subsequent annual increases be planned so that by 
fiscal year 2015 funding will reach at least $76.6 million.
    These increases will support programs that will help ensure 
that our troops are protected from malaria when they serve our 
Nation overseas.
    Mr. Chairman, Ranking Member Stevens, subcommittee members, 
I thank you for the opportunity to speak today on behalf of the 
ASTMH.
    [The statement follows:]
                  Prepared Statement of Myron M. Levin
    Overview.--The American Society of Tropical Medicine and Hygiene 
(ASTMH or Society) appreciates the opportunity to submit written 
testimony to the Senate Defense Appropriations subcommittee. With 
nearly 3,500 members, ASTMH is the world's largest professional 
membership organization dedicated to the prevention and control of 
tropical diseases. We represent, educate, and support tropical medicine 
scientists, physicians, clinicians, researchers, epidemiologists, and 
other health professionals in this field.
    As part of our efforts, we advocate implementation and funding of 
Federal programs that address the prevention and control of infectious 
diseases that are leading causes of death and disability in the 
developing world, and which pose threat to U.S. citizens. Priority 
diseases include malaria, Dengue fever, Ebola, cholera, and 
tuberculosis. Because the military operates in and deploys to so many 
tropical regions, reducing the risk that tropical diseases present to 
service men and women is often critical to mission success.
    For this reason, we respectfully request that the subcommittee 
expand funding for military malaria research and control initiatives, 
providing the following allocations in the fiscal year 2009 defense 
appropriations bill to support the military's readiness for tropical 
disease threats.
  --$30 million to support efforts to develop a vaccine against malaria 
        and to develop new anti-malaria drugs to replace older drugs 
        that are losing their effectiveness as a result of parasite 
        resistance.
    ASTMH also requests that there are consistent increases in the 
overall funding level for Department of Defense (DOD) malaria research 
programs that, along with subsequent annual increases, results in $76.6 
million in funding by fiscal year 2015.
    We very much appreciate the subcommittee's consideration of our 
views, and we stand ready to work with subcommittee members and staff 
on these and other important tropical disease matters.
    ASTMH.--ASTMH plays an integral and unique role in the advancement 
of the field of tropical medicine. Its mission is to promote global 
health by preventing and controlling tropical diseases through research 
and education. As such, the Society is the principal membership 
organization representing, educating, and supporting tropical medicine 
scientists, physicians, researchers, and other health professionals 
dedicated to the prevention and control of tropical diseases. Our 
members reside in 46 States and the District of Columbia and work in a 
myriad of public, private, and non-profit environments, including 
academia, the U.S. military, public institutions, Federal agencies, 
private practice, and industry.
    The Society's long and distinguished history goes back to the early 
20th century. The current organization was formed in 1951 with the 
amalgamation of the National Malaria Society and the American Society 
of Tropical Medicine. Over the years, the Society has counted many 
distinguished scientists among its members, including Nobel laureates. 
ASTMH and its members continue to have a major impact on the tropical 
diseases and parasitology research carried out around the world.
    Tropical Medicine and Tropical Diseases.--The term ``tropical 
medicine'' refers to the wide-ranging clinical work, research, and 
educational efforts of clinicians, scientists, and public health 
officials with a focus on the diagnosis, mitigation, prevention, and 
treatment of diseases prevalent in the areas of the world with a 
tropical climate. Most tropical diseases are located in either sub-
Saharan Africa, parts of Asia (including the Indian subcontinent), or 
Central and South America. Many of the world's developing nations are 
located in these areas; thus tropical medicine tends to focus on 
diseases that impact the world's most impoverished individuals.
    The field of tropical medicine encompasses clinical work treating 
tropical diseases, work in public health and public policy to prevent 
and control tropical diseases, basic and applied research related to 
tropical diseases, and education of health professionals and the public 
regarding tropical diseases.
    Tropical diseases are illnesses that are caused by pathogens that 
are prevalent in areas of the world with a tropical climate. These 
diseases are caused by viruses, bacteria, and parasites which are 
spread through various mechanisms, including airborne routes, sexual 
contact, contaminated water and food, or an intermediary or 
``vector''--frequently an insect (e.g., a mosquito)--that transmits a 
disease between humans in the process of feeding.
    Malaria.--Malaria is highly treatable and preventable. The tragedy 
is that despite this, malaria is one of the leading causes of death and 
disease worldwide. According to the CDC, as many as 2.7 million 
individuals die from malaria each year, with 75 percent of those deaths 
occurring in African children. In 2002, malaria was the fourth leading 
cause of death in children in developing countries, causing 10.7 
percent of all such deaths. Malaria-related illness and mortality 
extract a significant human toll as well as cost Africa's economy $12 
billion per year perpetuating a cycle of poverty and illness. Nearly 40 
percent of the world's population lives in an area that is at high risk 
for the transmission of malaria.
 tropical disease control and prevention: a key component of military 
                              preparedness
    Service men and women constitute a significant proportion of the 
healthy adults traveling each year to malarial regions on behalf of the 
U.S. Government. For this reason, the U.S. military has long taken a 
primary role in the development of anti-malarial drugs, and many of the 
most effective and widely used anti-malarials were developed by U.S. 
military researchers. Drugs that have saved countless lives throughout 
the world were originally developed by the U.S. military to protect 
troops serving in tropical regions during World War II, the Vietnam 
War, and the Korean War.
    Fortunately, in recent years the broader international community 
has stepped up its efforts to reduce the impact of malaria in the 
developing world, particularly by reducing childhood malaria mortality, 
and the U.S. military is playing an important role in this broad 
partnership. The U.S. military also makes significant contributions to 
the global effort to develop a malaria vaccine. But military malaria 
researchers are working practically alone in the area most directly 
related to U.S. national security: drugs designed to protect or treat 
healthy adults who travel to regions endemic to malaria. These drugs 
benefit everyone living or traveling in the tropics but are 
particularly essential to the United States for the protection of 
forces from disease during deployments.
    Unfortunately, the prophylaxis and treatments currently given to 
U.S. service men and women are losing their effectiveness, and 
increased Federal support is required to develop their replacements. 
Drugs such as Chloroquine-Primaquine and Mefloquine that are used to 
prevent or treat malaria in healthy adults are declining in efficacy. 
The reasons vary, but the result is the same: the U.S. Government is 
increasingly unable to send personnel to regions endemic to malaria 
without a significant risk that many of them will become seriously ill. 
Similarly, the residents of regions endemic to malaria are finding that 
existing drugs are no longer as effective at preventing or treating 
malaria.

    ``Malaria has affected almost all military deployments since the 
American Civil War and remains a severe and ongoing threat.''----From 
``Battling Malaria: Strengthening the U.S. Military Malaria Vaccine 
Program'', Institute of Medicine (IOM) Report, 2006

    As the IOM notes in the 2006 report quoted above, current malaria 
prevention strategies are inadequate. The most recent and dramatic 
example of this as it relates to military readiness was in 2003 when a 
small U.S. peacekeeping force was deployed to Liberia. Of the 157 
marines who spent at least one night ashore during this operation, 69 
developed malaria, despite being supplied with anti-malarials. Half of 
the infected Marines had to be evacuated by air to Germany. The 1993 
operation ``Restore Hope'' in Somalia was also impacted by high malaria 
incidence among U.S. troops. If new drugs are not developed soon, U.S. 
operations in sub-Saharan Africa and some parts of Southeast Asia will 
increasingly be at-risk for significant disease casualties.
    To ensure that as many American soldiers as possible are protected 
from tropical and other diseases, Congress provides funding each year 
to support DOD programs focused on the development of vaccines and 
drugs for priority infectious disease. To that end, the Walter Reed 
Army Institute of Research and Naval Medical Research Center--which are 
co-located in the Inouye Building in Silver Spring, Maryland--
coordinates one of the world's premier tropical disease research 
programs. These entities contributed to the development of the gold 
standard for experimental malaria immunization of humans, and the most 
advanced and successful vaccine and drugs current being deployed around 
the world.
    The need to develop new and improved malaria prophylaxis and 
treatment for U.S. service members is not yet a crisis, but it would 
quickly become one if the United States were to become involved in a 
large deployment to a country or region where malaria is endemic, 
especially sub-Saharan Africa. Fortunately, a relatively tiny amount of 
increased support for this program would restore the levels of research 
and development investment required to produce the drugs that will 
safeguard U.S. troops from malaria. In terms of the overall DOD budget, 
that malaria research program's funding is small--approximately $27.8 
million in fiscal year 2006--but very important. Cutting funding for 
this program would deal a major blow to the military's work to reduce 
the impact of malaria on soldiers and civilians alike, thereby 
undercutting both the safety of troops deployed to tropical climates, 
and the health of civilians in those regions.
        requested malaria-related activities and funding levels
    ASTMH maintains that the battle against malaria requires funding 
for a comprehensive approach to disease control including public health 
infrastructure improvements, mosquito abatement initiatives, and 
increased availability of existing anti-malarial drugs. In addition, 
research must continue to develop new anti-malarial drugs and better 
diagnostics, and to identify an effective malaria vaccine. Much of this 
important research currently is underway at the DOD. Additional funds 
and a greater commitment from the Federal Government are necessary to 
make progress in malaria prevention, treatment, and control.
    In fiscal year 2006, the DOD spent only $27.8 million annually for 
malaria vaccine research, this despite the fact that malaria 
historically has been a leading cause of troop impairment and continues 
to be a leading cause of death worldwide. A more substantial investment 
will help to protect American soldiers and potentially save the lives 
of millions of individuals around the world. As noted previously, we 
respectfully request that the subcommittee support the following 
funding levels:
  --$30 million to support efforts to develop a vaccine against malaria 
        and to develop new anti-malaria drugs to replace older drugs 
        that are losing their effectiveness as a result of parasite 
        resistance.
    ASTMH also requests that there are consistent increases in overall 
funding level for Department of Defense malaria research programs that, 
along with subsequent annual increases, results in $76.6 million in 
funding by fiscal year 2015.
    Conclusion.--Thank you for your attention to these important but 
often overlooked military readiness matters. We know that you face many 
challenges in choosing funding priorities and we hope that you will 
provide the requested fiscal year 2009 resources to those programs 
identified above. ASTMH appreciates the opportunity to share its views, 
and we thank you for your consideration of our requests.

    Senator Inouye. Thank you very much, Dr. Levine.
    Senator Stevens and I come from the old generation where we 
were prescribed atabrine. I believe that was the medicine they 
called it. Atabrine?
    Dr. Levine. Yes.
    Senator Inouye. How does it compare to the vaccine that you 
speak of?
    Dr. Levine. Well, when we have the vaccine that fills the 
criteria for protection of troops, for the ideal vaccine there 
will not be need for chemoprophylaxis. The problem with 
chemoprophylaxis is the need for the line officers to make sure 
that the drug, no matter how good it is, is taken on the 
appropriate schedule, and also there are supply issues. With 
the vaccine, this is something that would be done predeployment 
and protection would come from the immunization.
    Senator Inouye. When will it be available under your 
scheme?
    Dr. Levine. Very good question. A first generation of 
vaccines, in great part based on research carried out at Walter 
Reed and at the Naval Medical Research Center, is expected to 
be licensed about 2013 or 2014. That'll be a first generation.
    There is also the beginning of another vaccine, again 
coming out of research with a military history, and that would 
probably be later, perhaps 2017 or so.
    Senator Stevens. When will that be--how long will it be 
effective?
    Dr. Levine. The first generation vaccines may have a high 
level efficacy of only about 6 months. But the improved 
ultimate vaccine would have efficacy that would go more than 1 
year, perhaps 2 years.
    Senator Stevens. Well, I took atabrine for at least 18 
months and turned a little bit yellow, but it worked. What 
about, didn't the marines have atabrine?
    Dr. Levine. There was medication available, but there was 
not good compliance with taking of the anti-malarials.
    Senator Stevens. So half of them got sick with malaria in 
that short a period?
    Dr. Levine. Yes. In West Africa malaria is highly, highly 
seasonal.
    Senator Stevens. Someone should have been courtmartialed.
    Thank you very much.
    Senator Inouye. Well, our next witness is the Ovarian 
Cancer National Alliance representative, Mr. Mark Carlebach.
STATEMENT OF MARK CARLEBACH ON BEHALF OF THE OVARIAN 
            CANCER NATIONAL ALLIANCE
    Mr. Carlebach. Mr. Chairman and Senator Stevens: Thank you 
for the opportunity to testify before you today about the 
ovarian cancer research program at the DOD. My name is Mark 
Carlebach and my wife Lacey Gallagher was diagnosed with 
ovarian cancer on February 5, 2005. Lacey was one of the small 
percent of women diagnosed early with stage 1-C ovarian cancer. 
Unfortunately, her ovarian cancer was of a particularly 
aggressive and chemo-resistant type known as clear cell ovarian 
cancer. Lacey was in remission for almost 2 years after her 
original diagnosis, but it recurred in July 2007 with 
metastases to her lungs.
    Lacey was the most determined and courageous person I've 
ever known. Nonetheless, despite her incredible efforts, that 
involved diet, supplements, many investigational approaches 
that she pursued, in addition to two surgeries, radiation, and 
several chemotherapy protocols, Lacey died of ovarian cancer on 
February 27, 2008, less than 37 months after her original early 
diagnosis. She was 45.
    Lacey felt strongly that awareness and support for curing 
ovarian cancer should reflect ovarian cancer's mortality rate 
and not merely its incidence rate. While ovarian cancer might 
not be as common as other forms of cancer, its mortality rate 
is particularly high and requires more funding as a result.
    Through Lacey's efforts with the Ovarian Cancer National 
Alliance (OCNA), Lacey had hoped to make this argument herself, 
but never recovered sufficiently to be as active an ovarian 
cancer cure advocate as she had hoped. I am honored to be here 
today to speak as a representative for my most amazing wife, 
Lacey, who cannot be here herself.
    As much as anything, Lacey saw herself as an analyst. 
Before she died, Lacey suggested that the OCNA prepare the 
following statistics to support her thesis that spending for 
ovarian cancer is disproportionately low if you use its 
mortality rate rather than its incidence rate as a basis for 
funding decisions. Here is what the OCNA came up with.
    First, last year the congressionally directed medical 
research programs funded $138 million for breast cancer 
research, $80 million for prostate cancer research, and $10 
million for ovarian cancer research. All of these diseases are 
terrible and it's hard to say that any deserves less funding. 
Still, if you look at these numbers as a dollar of investment 
for each cancer death, you would see that this funding 
represents $3,000 for each cancer--for each breast cancer or 
prostate cancer death, but only $650 for each ovarian cancer 
death.
    In other words, the congressionally directed medical 
program, research programs, spent four and one-half times the 
amount per death for breast and prostate cancer than it did on 
ovarian cancer.
    In other Federal programs we see similar statistics. The 
overall amount spent on breast cancer is more than $18,000, on 
prostate cancer is more than $14,000, and on cervical cancer is 
more than $26,000. The amount of money spent on ovarian cancer, 
in contrast, was less than $7,500.
    When Lacey was first diagnosed, I tried to comfort her with 
assurances that researchers were working on treatments and a 
cure. With just a little time and luck, I hoped Lacey would 
benefit from these efforts. She was an optimistic person by 
nature, but challenged me with the sobering fact that ovarian 
cancer is relatively rare, with less research and fewer cures 
on the horizon as a result.
    One way to compensate for this is to at least consider the 
number of deaths from a particular disease as a basis for 
normalizing your funding decisions. We therefore--I'm joining 
with the ovarian cancer community in respectfully requesting 
that Congress provide $25 million for the ovarian cancer 
research program, OCRP, in fiscal year 2009 as part of the 
Federal Government's investment in the DOD congressionally 
directed medical research programs.
    Thank you for your support in the past and in this effort 
in the future.
    [The statement follows:]
                  Prepared Statement of Mark Carlebach
    I thank the subcommittee for this opportunity to submit comments 
for the record regarding the Ovarian Cancer National Alliance 
(Alliance) fiscal year 2009 funding recommendations. We believe these 
recommendations are critical to ensure that advances can be made to 
help reduce and prevent suffering from ovarian cancer.
    I am here through the Alliance, which advocates for continued 
Federal investment in the Department of Defense Congressionally 
Directed Medical Research Programs (CDMRP). The Alliance respectfully 
requests that Congress provide $25 million for the Ovarian Cancer 
Research Program (OCRP) in fiscal year 2009.
                   ovarian cancer's deadly statistics
    According to the American Cancer Society, in 2008, more than 21,000 
American women will be diagnosed with ovarian cancer, and more than 
15,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fifth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 5 
years. When detected early, the 5-year survival rate increases to more 
than 90 percent, but when detected in the late stages, the 5-year 
survival rate drops to less than 29 percent.
    In the more than 30 years since the war on cancer was declared, 
ovarian cancer mortality rates have not significantly improved. A valid 
and reliable screening test--a critical tool for improving early 
diagnosis and survival rates--still does not exist for ovarian cancer. 
Behind the sobering statistics are the lost lives of our loved ones, 
colleagues and community members. While we have been waiting for the 
development of an effective early detection test, thousands of our 
mothers, daughters, sisters, and friends--including one-third of our 
founding board members have lost their battle with ovarian cancer.
    Last year a number of prominent cancer organizations released a 
consensus statement about ovarian cancer identifying the early warning 
symptoms of ovarian cancer. Without a reliable diagnostic test, we can 
rely only on this set of vague symptoms of a deadly disease, and trust 
that both women and the medical community will identify these symptoms 
and act promptly and quickly. Unfortunately, we know that this does not 
always happen. Too many women are diagnosed late due to the lack of a 
test; too many women and their families endure life-threatening and 
debilitating treatments to kill cancer; too many women are lost to this 
horrible disease.
                  the ovarian cancer research program
    The aim of the OCRP is to conquer ovarian cancer by promoting 
innovative multidisciplinary research efforts on understanding, 
detecting, preventing, diagnosing, and controlling ovarian cancer. In 
support of this, the OCRP has distributed $111.7 million from 1997 to 
2007 for research on topics ranging from diagnosis to treatment to 
quality of life.
    Since 1997, research conducted through the OCRP has been published 
and presented widely, helping bolster and expand the limited body of 
scientific knowledge of ovarian cancer. Further, the program attracts 
and retains investigators to the field of ovarian cancer research. The 
OCRP has ample use for increased funds; in fiscal year 2005, the 
program funded less than 15 percent of the successful research 
proposals due to insufficient funds. Only with increased funding can 
the OCRP grow and continue to contribute to the fight against ovarian 
cancer.
    Today, ovarian cancer researchers are still struggling to develop 
the first ovarian cancer screening test. With traditional research 
models largely unsuccessful, the innovative grants awarded by the OCRP 
are integral in moving the field of research forward. The OCRP has been 
responsible for the only two working animal models of ovarian cancer--
models that will help unlock keys to diagnosing and treating ovarian 
cancer. In 2007, researchers announced the discovery of a potential 
biomarker that may be used on ovarian cancer screening. Only with 
sufficient funding will the realization of a desperately-needed 
screening test be possible.
    The OCRP has received a $10 million appropriation for the past 6 
years. The OCRP is a modest program compared to the other cancer 
programs in the CDMRP, and has made vast strides in fighting ovarian 
cancer with relatively few resources. With more resources, the program 
can support more research into screening, early diagnosis and treatment 
of ovarian cancer. In light of this, we request that Congress 
appropriate $25 million for fiscal year 2009 to the OCRP.
                        scientific achievements
    Since its inception, the OCRP has developed a multidisciplinary 
research portfolio that encompasses etiology, prevention, early 
detection/diagnosis, preclinical therapeutics, quality-of-life, and 
behavioral research projects. The OCRP strengthens the Federal 
Government's commitment to ovarian cancer research and supports 
innovative and novel projects that propose new ways of examining 
prevention, early detection and treatment. The program also attracts 
new investigators into ovarian cancer research, and encourages 
proposals that address the needs of minority, elderly, low-income, 
rural, and other under-represented populations.
    The program's achievements have been documented in numerous ways, 
including 371 publications, 431 abstracts/presentations and, 15 patents 
applied for/obtained. The program also has introduced and supported 25 
new investigators in the field of ovarian cancer research, 18 of whom 
are still active in ovarian cancer research. Investigators funded 
through the OCRP have produced several crucial breakthroughs in the 
study of prevention and detection, including: recent research has 
focused on immunotherapy, ovarian cancer stem cells, and the microtumor 
environment.
                                summary
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians, and researchers--I thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer. Thank you in advance for your support of 
$25 million in fiscal year 2009 funding for the Ovarian Cancer Research 
Program.

    Senator Inouye. This is a personal matter, but my wife of 
57 years was infected or afflicted with ovarian cancer and she 
passed away 27 months ago.
    Mr. Carlebach. Sorry to hear that.
    Senator Inouye. I know what you're going through.
    Mr. Carlebach. Thank you.
    Senator Stevens. May I? The incidence of ovarian cancer, I 
know it's a terrible thing, but have you got any figures on the 
incidence of those people that are in the military? We really 
are dealing with treatment of military people in this bill. We 
also handle the NIH bill and I think that's where this emphasis 
should be for ovarian cancer.
    Mr. Carlebach. I don't know the answer to your statistic, 
but I'll work with OCNA and get back to you on that.
    Senator Stevens. Thank you.
    Senator Inouye. Our next witness is the Director of the 
Legislative Programs of the Fleet Reserve Association, Mr. John 
R. Davis. Mr. Davis.
STATEMENT OF JOHN R. DAVIS, DIRECTOR OF LEGISLATIVE 
            PROGRAMS, THE FLEET RESERVE ASSOCIATION
    Mr. Davis. Mr. Chairman, Ranking Member Stevens: Thank you. 
The Fleet Reserve Association (FRA) wants to thank you and the 
entire subcommittee for your work to improve military pay, 
increase base allowance for housing, improve healthcare, and 
enhance other personal, retirement, and survivor programs.
    This year, even with the $100 billion in supplemental 
appropriations, the United States will spend only 4 percent of 
its GDP on defense, as compared to 9 percent annually in the 
1960s. We strongly support funding of anticipated increased end 
strengths in fiscal year 2009 to meet the demands of fighting 
the war on terror and sustaining other operational commitments.
    The association is especially grateful for the inclusion of 
the wounded warrior assistance provisions as part of the fiscal 
year 2008 National Defense Authorization Act (NDAA).
    Authorization is one thing; adequate funding is another, 
and FRA supports funding to effectively implement these badly 
needed reforms, adequate funding to provide for the people, 
training, and oversight mechanisms needed to restore confidence 
in the quality of care and service received by our wounded 
warriors and their families.
    FRA also strongly supports adequate funding for the defense 
health program in order to meet readiness needs, fully fund 
TRICARE, and improve access for all beneficiaries. FRA strongly 
urges the subcommittee to restore the funding in lieu of the 
proposed TRICARE fee increases. FRA believes funding healthcare 
benefits for all beneficiaries is part of the cost of defending 
our Nation.
    The association believes that the DOD must investigate and 
implement other options to make TRICARE more cost efficient as 
an alternative to shifting costs to retiree beneficiaries under 
age 65. That is why FRA supports the authorization of pilot 
programs for preventative healthcare for TRICARE beneficiaries 
under age 65 that are provided for in both the House and Senate 
versions of the NDAA. The association would welcome this 
subcommittee providing adequate funding to ensure success of 
this effort if it is authorized.
    FRA supports annual active duty pay increases that are at 
least one-half a percent above the employment cost index and 
supports the 3.9 percent increase recommended in both the House 
and Senate versions of the defense authorization bills. 
Adequate pay contributes to improved morale, readiness, and 
retention. The value of adequate pay cannot be overstated. 
Better pay will reduce family stress, especially for junior 
enlisted, and reduce the need for military personnel to use 
short-term payday loans for those people who are unaware of the 
ruinous long-term impact of excessive interest rates.
    Military pay and benefits must reflect the fact that 
military service is very different from work in the private 
sector. Also, reforming and updating the Montgomery GI bill for 
the reservists is an important issue to take into account on 
funding.
    Again, thank you, Mr. Chairman and Ranking Member Stevens, 
for the opportunity to present the association's 
recommendations, and I stand ready to answer any questions you 
may have.
    [The statement follows:]
                  Prepared Statement of John R. Davis
                                the fra
    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired, and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
congressionally chartered, recognized by the Department of Veterans 
Affairs (VA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted active duty, Reserve, retired, and veterans of the Sea 
Services.
    FRA is the co-chair of The Military Coalition (TMC) a 35-member 
consortium of military and veterans organizations. FRA hosts most TMC 
meetings and members of its staff serve in a number of TMC leadership 
roles, including co-chairing several committees.
    FRA celebrated 83 years of service in November 2007. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel and other 
members of the Uniformed Services while protecting their rights and 
privileges. CHAMPUS, now TRICARE, was an initiative of FRA, as was the 
Uniformed Services Survivor Benefit Plan (USSBP). More recently, FRA 
led the way in reforming the REDUX Retirement Plan, obtaining targeted 
pay increases for mid-level enlisted personnel, and sea pay for junior 
enlisted sailors. FRA also played a leading role in obtaining predatory 
lending protections for servicemembers and their dependents in the 
fiscal year 2007 National Defense Authorization Act.
    FRA's motto is: ``Loyalty, Protection, and Service.''
                                overview
    Mr. Chairman, ensuring that wounded troops, their families, and the 
survivors of those killed in action are cared for by a grateful Nation 
remains an overriding priority for the Fleet Reserve Association (FRA). 
The Association thanks you and the entire subcommittee for your strong 
and unwavering support of funding the Department of Defense (DOD) 
portion of the Wounded Warrior Assistance provisions in the fiscal year 
2008 National Defense Authorization Act (NDAA). Another top FRA 
priority is full funding of the Defense Health Program (DHP) to ensure 
quality care for active duty, retirees, Reservists, and their families.
    ``The Administration's fiscal year 2009 budget would provide $541.1 
billion in budget authority for national security which is 3.6 percent 
of Gross Domestic Product (GDP) not including war supplemental funding. 
Although the budget increases $10 billion a year through fiscal year 
2013, it would actually decline in terms of GDP to 3.2 percent in 
fiscal year 2013.'' \1\ The defense budget is not only shrinking in 
terms of GDP but is also shrinking in comparison with domestic 
mandatory spending programs.
---------------------------------------------------------------------------
    \1\ Backgrounder, The Fiscal Year 2009 Defense Budget Request: The 
Growing Gap in Defense Spending, Heritage Foundation No. 2110, February 
25, 2008.
---------------------------------------------------------------------------
    FRA believes this budget is woefully inadequate to fight a truly 
Global War on Terrorism (GWOT) and maintain other ongoing defense 
commitments. Even with supplemental war funding, the fiscal year 2009 
Defense budget would total just over 4 percent of GDP. The Association 
supports a more robust financial commitment to the national defense and 
that is why FRA is supporting Senate Joint Resolution 26, sponsored by 
Senator Elizabeth Dole, which supports a base defense budget that at 
the very minimum totals 4 percent of GDP. This base line seems 
reasonable when compared to other time periods. From 1961-1963, the 
military consumed 9.1 percent of GDP annually. In 1986, the military 
consumed 6 percent of GDP and in 1991 (gulf war), the military consumed 
4.6 percent of GDP. According to many experts, the active duty military 
has been stretched to the limit since 9/11/01.
    Over the past several years, the Pentagon has been constrained in 
its budget, even as it has been confronted with rising personnel costs, 
aging weapon systems, worn out equipment, and dilapidated facilities.
    This statement lists the concerns of our members, keeping in mind 
that the Association's primary goal is to endorse any positive safety 
programs, rewards, and quality of life improvements that support 
members of the Uniform Services, particularly those serving in hostile 
areas, and their families, and survivors.
                            wounded warriors
    The good news is that over 90 percent of those wounded in combat in 
Iraq or Afghanistan survive and return home for treatment, as compared 
to 70 percent during the Vietnam conflict. The bad news is that they 
are overwhelming the medical system and uncovered flaws in a lethargic 
and overly bureaucratic system. A two-front war, a lengthy occupation 
and repeated deployments for many servicemembers has put a strain on 
the DOD/VA medical system that treats our wounded warriors. The system 
is being strained not only by volume but by the complexity of injuries 
and the military has shown that it is woefully inadequate in 
recognizing and treating cases of Traumatic Brain Injury (TBI) and Post 
Traumatic Stress Disorder (PTSD).
    FRA is especially grateful for the inclusion of the Wounded Warrior 
Assistance provisions as part of the fiscal year 2008 National Defense 
Authorization Act. Key elements of the House and Senate-passed versions 
of the act, plus elements of the Dole-Shalala Commission 
recommendations establish new requirements to provide the people, 
training, and oversight mechanisms needed to restore confidence in the 
quality of care and service received by our wounded warriors and their 
families. Maintaining an effective delivery system between DOD and VA 
to ensure seamless transition and quality services for wounded 
personnel, particularly those suffering from PTSD and TBI.
    Authorization is one thing--adequate funding is another and FRA 
supports:
  --Adequate funding to allow DOD to improve care, management, and 
        transition of seriously ill or injured warriors, including 
        inpatients as well as out patients.
  --Adequate funding to let DOD, in conjunction with VA, continue to 
        work for improved care for PTSD and TBI.
  --Adequate funding to require DOD, in conjunction with VA, to 
        continue operations of the Senior Oversight Committee to 
        oversee implementation of Wounded Warrior initiatives.
  --Adequate funding to enable the joint DOD VA inter-agency create an 
        effective and usable electronic health record.
  --Adequate funding to provide a sufficient number of Wounded Warrior 
        Recovery Coordinators, if authorized.
    Many of these initiatives approach the jurisdictional boundaries of 
this distinguished subcommittee and some may even go beyond. These 
challenges not with standing, adequate funding is essential to helping 
our wounded warriors recover from their injuries in service to our 
Nation. The Association urges this subcommittee to work with other 
appropriations subcommittees to ensure sufficient funding for 
authorized programs that bridge jurisdictions to help our wounded 
warriors.
                              health care
    FRA strongly supports adequate funding for the Defense Health 
Program in order to meet readiness needs, fully fund TRICARE, and 
improve access for all beneficiaries regardless of age, status or 
location.
    FRA supports adding $1.2 billion in funding to cover the cost of 
the drastic TRICARE fee increases proposed in the DOD fiscal year 2009 
budget that have been rejected by both authorizing committees. The 
Association supports full funding for the Defense Health Program and 
believes that the Defense Department must investigate and implement 
other cost-savings options to make TRICARE more cost-efficient as 
alternatives to shifting costs for TRICARE Standard and other health 
care benefits to retiree beneficiaries.
    Higher health care fees for retirees will significantly erode the 
value of retired pay, particularly for enlisted retirees who retired 
prior to larger and targeted recent pay adjustments enacted to close 
the pay gap. Military service is very different from work in the 
corporate world and requires service in often life-threatening duty 
assignments and the associated benefits offered in return must be 
commensurate with these realities.
    The Association welcomes the Senate Armed Services Committee 
authorizing demonstration and pilot projects that will provide 
incentives for TRICARE beneficiaries' health promotions and urges this 
subcommittee to adequately fund these projects that have proven to save 
money over the long term.
    FRA also supports the funding of other programs important to active 
duty, Reserve Component, and retired members of the Uniformed Services, 
their families, and survivors. The subcommittee's work has greatly 
improved military pay, eliminated out-of-pocket housing expenses, and 
enhanced other personnel, retirement, and survivor programs. This 
support is critical to maintaining readiness and is invaluable to our 
servicemembers and their families serving throughout the world fighting 
the global war on terror, sustaining other operational commitments and 
to fulfilling commitments to those who've served in the past.
                       protect personnel programs
    Active Duty Pay.--FRA supports annual active duty pay increases 
that are at least 0.5 percent above the Employment Cost Index (ECI) 
along with targeted increases for mid-career and senior enlisted 
personnel to help close the remaining 3.4 percent pay gap between 
active duty and private sector pay.
    FRA strongly supports the authorization and funding of a 3.9 
percent fiscal year 2009 pay increase included in the Senate Armed 
Services Committee markup for the fiscal year 2009 Defense 
Authorization (S. 2787).
    Adequate and targeted pay increases authorized in recent years, 
particularly for middle grade and senior petty and noncommissioned 
officers, have contributed to improved morale, readiness, and 
retention. Better pay reduces family stress, especially for junior 
enlisted and may reduce the need for military personnel use of short-
term pay day loans unaware of the ruinous long-term impact of excessive 
interest rates.
    Military pay and benefits must reflect the fact that military 
service is very different from work in the private sector.
    BRAC and Rebasing.--Adequate resources are required to fund 
essential quality of life programs and services at bases impacted by 
the Base Realignment and Closure (BRAC) and rebasing initiatives. The 
House Armed Services Committee Readiness Subcommittee, during its mark 
up of the fiscal year 2009 Defense Authorization bill, noted that base-
closing costs have increased by almost 50 percent and that expected 
savings have declined. FRA is also concerned about sustaining 
commissary access, MWR programs and other support for servicemembers 
and their families particularly at installations most impacted by these 
actions. These include Guam, where a significant number of marines and 
their families are being relocated from Okinawa. The shortage of funds 
is curtailing or closing some of the activities while the costs of 
participating in others have recently increased. Regarding Navy fitness 
centers, the biggest challenge is updating older fitness structures and 
providing the right equipment, and ensuring availability of trained 
staff.
    Family Readiness and Support.--FRA supports funding for a family 
readiness and a robust support structure to enhance family cohesion and 
improve retention and recruitment. DOD and the services must provide 
information and education programs for families of our servicemembers. 
Spousal and family programs are being fine tuned and are successfully 
contributing to the well-being of this community. The Navy's Fleet and 
Family Centers and the Marines' Marine Corps Community Services (MCCS) 
and the family services programs are providing comprehensive, 24/7 
information and referral services to the servicemember and family 
through its One Source links. One Source is also particularly 
beneficial to mobilized Reservists and families who are unfamiliar with 
benefits and services available to them.
    Child and Youth Programs.--MCPON Joe Campa testified before the 
House Appropriations Subcommittee on Military Construction and Veterans 
Affairs on February 7,2008, that there is a need for more childcare 
facilities with more than 8,000 children on annual waiting lists. The 
average waiting time for access is 6 months and up to 12 months in 
fleet concentration areas. ``Parents are waiting too long for services 
and missing days from work due to lack of available childcare.'' Access 
to child care is important and FRA urges Congress to authorize adequate 
funding for this important program.
    Other top Navy requirements are the need for more homeport/ashore 
barracks, and improved health care access via more providers in certain 
fleet concentration areas.
    As an integral support system for mission readiness and 
deployments, it is imperative these programs be adequately funded and 
improved and expanded to address the needs of both married and single 
parents.
    Spousal Employment.--The Association welcomes President Bush's 
State-of-the-Union speech recommending hiring preference for military 
spouses and urges Congress to continue its support of the military's 
effort to affect a viable spousal employment program and to authorize 
sufficient funds to assure the program's success. Today's all-volunteer 
environment requires the services to consider the whole family. FRA 
also supports provisions in the Senate Armed Services Committee Defense 
Authorization markup addressing spousal employment, which is important 
and can be a stepping-stone to retention of the servicemember--a key 
participant in the defense of this Nation.
    Active Duty and Reserve Component Personnel End Strengths.--FRA 
strongly supports adequate end strengths to win the war on terror and 
to sustain other military commitments around the world. Inadequate end 
strengths increase stress on the military personnel and their families 
and contribute to greater reliance on the Reserve Component. FRA 
welcomes the administration's increase of 5,000 marines (from 189,000 
to 194,000) and urges appropriations to cover the associated short- and 
long-term costs.
    Education Funding.--FRA strongly supports funding for supplemental 
Impact Aid for 1,400 highly impacted school districts with military 
children. It is important to ensure our servicemembers, many serving in 
harm's way, have less concern about their children's education and more 
focus with the job at hand. Funding for Impact Aid has been flat for 
several years now. That is why the Association welcomes the additional 
$30 million of Impact Aid included in the Senate Defense Authorization 
bill, the $10 million in special assistance to local education 
agencies, and $5 million for children with severe disabilities.
    Reform of PCS Process.--FRA appreciates that the long-delayed 
implementation of the Families First program which provides full 
replacement value reimbursements for damaged household goods moved 
during servicemembers' PCS relocations. This program and other 
authorized PCS reform initiatives must be adequately funded to ensure 
full implementation and the continuation of this program.
    Family Housing.--The Association welcomes the $337 million increase 
for family housing from fiscal year 2008 to fiscal year 2009. It should 
be noted, however, that the fiscal year 2007 appropriation for family 
housing was more $800 million than the proposed fiscal year 2009 
budget. Adequate military housing that's well maintained is critical to 
retention and morale.
                             reserve issues
    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
being mobilized to augment active duty components. As a result of these 
operational demands, Reserve component is no longer a strategic Reserve 
but is now an operational Reserve that is an integral part of the total 
force. And because of these increasing demands on Reservists to perform 
multiple missions abroad over longer periods of time, it's essential to 
improve compensation and benefits to retain currently serving personnel 
and attract quality recruits.
    MGIB.--FRA supports both ``The Enhancement of Recruitment, 
Retention, and Readjustment Through Education Act'' (S. 2938), and 
``The Post 9/11 Veterans Educational Assistance Act'' (S.22). Both 
bills make substantial improvements to the Reserve MGIB program, and 
the Association urges the subcommittee to fully fund these increased 
Reserve benefits that may be authorized by the United States Senate. 
The increasing number and duration of deployments to fight the war on 
terror and sustain other operational commitments has put a strain on 
families and careers of Reservists and more than justifies improved 
MGIB benefits that would provide needed recognition of this fact and 
enhance retention and recruitment.
    Retirement.--If authorized, FRA supports funding retroactive 
eligibility for the early retirement benefit to include Reservists who 
have supported contingency operations since September 11, 2001. The 
fiscal year 2008 Defense Authorization Act (H.R. 4986) reduces the 
Reserve retirement age (age 60) by 3 months for each cumulative 90-days 
ordered to active duty. The provision, however, only applies to service 
after the effective date of the legislation, and leaves out more than 
600,000 Reservists mobilized since 9/11 for Afghanistan and Iraq and to 
respond to natural disasters like Hurricane Katrina. About 142,000 of 
them have been deployed multiple times in the past 6 years.
    Family Readiness.--FRA supports resources to allow increased 
outreach to connect Reserve families with support programs. This 
includes increased funding for family readiness, especially for those 
geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
most Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
                               conclusion
    FRA is grateful for the opportunity to present the organization's 
views to this distinguished subcommittee. The Association reiterates 
its profound gratitude for the extraordinary progress this 
subcommittee, with outstanding staff support, has made in advancing a 
wide range of enhanced benefits and quality-of-life programs for all 
uniformed services personnel, retirees, their families, and survivors.
    Thank you.

    Senator Inouye. I thank you very much, sir. We do have a 
problem. Our latest numbers tell us that we're spending a 
little over $126,000 per person in the military per year, and 
the total cost for pay, benefits, and health for active duty 
personnel, $180 billion per year. So we're trying our best to 
do what we can to add to that, but, as you know, it's not that 
easy.
    Yes, sir?
    Mr. Davis. I just would like to respond. We fully 
understand that the cost of healthcare is going up in the 
military. It is also going up everywhere else. It's not just a 
military problem. We do support other measures, as I mentioned 
in the testimony and also more extensively in my written 
testimony. Other efforts we think should be made first to try 
and make the healthcare system more cost effective before 
shifting the cost to the retirees.
    Thanks.
    Senator Inouye. Our next witness is the Legislative 
Director of the National Association of Uniformed Services, Mr. 
Rick Jones. Mr. Jones.
STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Thank you, Mr. Chairman. With the longest day, 
D-Day, June 6, 1944, just around the corner, it's an honor to 
testify before you two most distinguished World War II 
veterans. As proud as we are of the World War II generation, we 
are just as proud, perhaps as proud as any person could be, as 
any association could be, in what is going on today with the 
generation serving us overseas and around the globe and 
throughout America. What they do is vital to our security and 
the debt we owe them is enormous.
    Mr. Chairman, quality healthcare is a very strong incentive 
for a military career. At a time when we are relying on our 
armed forces, the DOD's recommendations to reduce military 
healthcare spending by $1.2 billion raises very serious 
questions and concerns. As you know, the DOD plans would double 
and even triple annual fees for retirees, and our association 
asks you to ensure full funding is provided to maintain the 
value of the healthcare benefit. What we ask is what is best 
for our service men and women, who have given a career in the 
armed services.
    Mr. Chairman, the long war fought by an overstretched force 
gives us also a warning about force readiness. There are simply 
too many missions, too few troops. To sustain the service, we 
must recognize that an increase in troop strength is needed and 
it must be resourced.
    We also ask that you give priority to funding operations 
and maintenance accounts to reset and recapitalize and renew 
the force.
    Another matter of great interest to our members is the plan 
to realign and consolidate military health facilities in the 
National Capital Region, specifically Walter Reed Army Medical 
Center in Washington, DC. To maintain Walter Reed's base 
operations support and medical services and to ensure that they 
provide uninterrupted care to catastrophically wounded soldiers 
and marines, we request that funds be in place to ensure that 
Walter Reed remains open, fully operational, fully functional 
until the planned facilities at Bethesda and Fort Belvoir are 
in place and ready to give appropriate care. Our wounded 
warriors deserve the care that we provide and we hope that it 
can be resourced.
    In a seamless transition, we ask that you maintain an 
oversight view on the DOD-VA electronic healthcare records and 
related coordination to ensure there is a bidirectional 
interoperable system, so that no one falls through the cracks. 
That shouldn't occur.
    It is said of traumatic brain injury that it is a signature 
injury of the war, and indeed it is. There's a full spectrum of 
care available. We ask you to recognize that care and fully 
fund it.
    We also encourage the subcommittee to ensure that funding 
for defense programs prosthetic research is adequate to support 
the full range of programs needed to meet the current 
healthcare challenges that our wounded warriors face.
    The Uniformed Services Health University. We ask you to 
recognize that as the Nation's Federal school of medicine and 
graduate school of nursing. The care that comes out of that can 
help our military provide the doctors that are needed. We also 
ask you to ensure that the Armed Forces Retirement Home is 
funded.
    We appreciate the opportunity you've given us to testify 
and thank you very much for your service and for your work here 
in the United States Senate. We deeply appreciate it.
    [The statement follows:]
                    Prepared Statement of Rick Jones
    Chairman Inouye, Ranking Member Stevens, and members of the 
subcommittee, good morning. It is a pleasure to appear before you today 
to present the views of The National Association for Uniformed Services 
on the 2009 Defense appropriations bill.
    My name is Richard ``Rick'' Jones, Legislative Director of the 
National Association for Uniformed Services (NAUS). And for the record, 
NAUS has not received any Federal grant or contract during the current 
fiscal year or during the previous 2 years in relation to any of the 
subjects discussed today.
    As you know, Mr. Chairman, the National Association for Uniformed 
Services, founded in 1968, represents all ranks, branches, and 
components of uniformed services personnel, their spouses, and 
survivors. The Association includes all personnel of the active, 
retired, Reserve and National Guard, disabled veterans, veterans 
community, and their families. We love our country, believe in a strong 
national defense, support our troops, and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
Government is the protection of our citizens. As we all know, we are at 
war. That is why the Defense Appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express a NAUS concern about the amount of 
our investment in our national defense. At the height of the war on 
terror, our current defense budget represents only a little more than 4 
percent of the gross national product, as opposed to the average of 5.7 
percent of GNP in the peacetime years between 1940 and 2000.
    We cannot look the other way in a time when we face such serious 
threats. Resources are required to ensure our military is fully 
staffed, trained, and equipped to achieve victory against our enemies. 
Leaders in Congress and the administration need to balance our 
priorities and ensure our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care, and 
wherewithal we can give them.
    Mr. Chairman, you and those on this important panel have taken 
every step to give our fighting men and women the funds they need, 
despite allocations we view as insufficient for our total defense 
needs. You have made difficult priority decisions that have helped 
defend America and taken special care of one of our greatest assets, 
namely our men and women in uniform.
    And NAUS is very proud of the job this generation of Americans is 
doing to defend America. Every day they risk their lives, half a world 
away from loved ones. Their daily sacrifice is done in today's 
voluntary force. What they do is vital to our security. And the debt we 
owe them is enormous.
    The members of NAUS applaud Congress for the actions you have taken 
over the last several years to close the pay gap, provide bonuses for 
specialized skill sets, and improve the overall quality of life for our 
troops and the means necessary for their support.
    Our Association does, however, have some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces and to address a number of other challenges 
including TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).
                 military quality of life: health care
    Quality health care is a strong incentive to make military service 
a career. The Defense blueprint for military healthcare raises serious 
concern. DOD recommends saving $1.2 billion through sharp increases in 
TRICARE fees and higher copays for pharmaceuticals for 3.1 million 
retirees under age 65 and their families.
    To achieve these savings, Defense officials would institute the 
plan proposed last year. That plan triples annual enrollment fees for 
TRICARE Prime next October for officers, to $875 from $230 a year for 
individuals and to $1,750 from $460 per year for families. For retired 
E-6 and below, the fee would jump nearly 50 percent, to $450/$900 from 
$230/$460. And for E-7 and above, the jump would more than double to 
$595/$1,190 from $230/$460.
    Defense officials also suggest the establishment of a TRICARE 
Standard enrollment fee and an increase in the annual amount of 
deductible charges paid by retirees using Standard coverage. The 
standard beneficiary already pays a 25 percent cost share (and an added 
15 percent for non-participating providers). Should Congress approve 
the DOD request to increase deductibles and initiate an annual fee, the 
value of the benefit earned by military retirees using Standard would 
be greatly diminished.
    In addition, DOD suggests the establishment of an enrollment fee 
for retirees age 65 and over and their families for participation in 
TRICARE for Life.
    DOD officials also recommend changes in TRICARE retail pharmacy 
copayments. Their ideas call for increasing copays for retail generic 
drugs to $15 from $3; for increasing copays for retail brand drugs to 
$25 from $9; and for increasing copays for non-formulary prescriptions 
to $45 from $22. By the way, these would also affect retirees age 65 
and over who use TRICARE for Life.
    The assertion behind the proposals is to have working-age retirees 
and family members pay a larger share of TRICARE costs or use civilian 
health plans offered by employers. Frankly, we are deeply troubled that 
DOD would aim to discourage retirees from using their earned benefits 
with the military medical system.
    The National Association for Uniformed Services is certainly not 
comfortable with DOD estimates that by 2011, if the changes were made, 
144,000 retirees currently enrolled in the TRICARE programs would bail 
out and go to a State or private plan and an estimated 350,000 people 
who earned the benefit would never come into it.
    According to DOD, the Pentagon plan would drive half a million 
military retirees to make a choice that they might otherwise not want 
to make in order to reduce DOD costs this year by $1.2 billion. It is 
not only an extremely poor way to treat military families in times of 
peace or war; it is unfair, unbalanced, and would push 500,000 retirees 
out of TRICARE, the benefit they earned through a military career.
    Mr. Chairman, the National Association for Uniformed Services asks 
you to ensure full funding is provided to maintain the value of the 
healthcare benefit provided those men and women willing to undergo the 
hardships of a military career.
    The provision of quality, timely care is considered one of the most 
important benefits afforded the career military. What Congress has done 
reflects the commitment of a Nation, and it deserves your wholehearted 
support.
    We urge the subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the Nation's 
military uniform. Confirm America's solemn, moral obligation to support 
our troops, our military retirees, and their families. They have kept 
their promise to our Nation, now it's time for us to keep our promise 
to them.
                     military quality of life: pay
    For fiscal year 2009, the administration recommends a 3.5 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on you to put 
our troops and their families first. Our forces are stretched thin, at 
war, yet getting the job done. We ask you to express the Nation's 
gratitude for their critical service, increase basic pay and drill pay 
one-half percent above the administration's request to 3.9 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 4 percent with the January 2008 pay 
increase.
    However, we can do better than simply maintaining a rough measure 
of comparability with the civilian wage scale. To help retention of 
experience and entice recruitment, the pay differential is important. 
We have made significant strides. But we are still below the private 
sector.
    In addition, we urge the appropriations panel to never lose sight 
of the fact that our DOD manpower policy needs a compensation package 
that is reasonable and competitive. Bonuses have a role in this area. 
Bonuses for instance can pull people into special jobs that help supply 
our manpower for critical assets, and they can also entice ``old 
hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
         military quality of life: basic allowance for housing
    The National Association for Uniformed Services strongly supports 
revised housing standards within the Basic Allowance for Housing (BAH). 
We are most grateful for the congressional actions reducing out-of-
pocket housing expenses for servicemembers over the last several years. 
Despite the many advances made, many enlisted personnel continue to 
face steep challenge in providing themselves and their families with 
affordable off-base housing and utility expenses. BAH provisions must 
ensure that rates keep pace with housing costs in communities where 
military members serve and reside. Efforts to better align actual 
housing rates can reduce unnecessary stress and help those who serve 
better focus on the job at hand, rather than the struggle with meeting 
housing costs for their families.
           military quality of life: family housing accounts
    The National Association for Uniformed Services urges the 
subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our servicemembers and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
September 11, 2001, our Guardsmen and reservists have witnessed an 
upward spiral in the rate of deployment and mobilization. The mission 
has clearly changed, and we must recognize they account for an 
increasing role in our national defense and homeland security 
responsibilities. The challenge to help them keep pace is an obligation 
we owe for their vital service.
                     increase force readiness funds
    The readiness of our forces is declining. The long war fought by an 
overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
    The deficiencies in the equipment available for the National Guard 
to respond to such disasters include sufficient levels of trucks, 
tractors, communication, and miscellaneous equipment. If we have 
another overwhelming storm, hurricane or, God forbid, a large-scale 
terrorist attack, our National Guard is not going to have the basic 
level of resources to do the job right.
                    walter reed army medical center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, Maryland, and the closing of the 
existing Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from last year's news reports of deteriorating conditions at 
Walter Reed Army Medical Center, the National Association for Uniformed 
Services believes that Congress must continue to provide adequate 
resources for WRAMC to maintain its base operations' support and 
medical services that are required for uninterrupted care of our 
catastrophically wounded soldiers and marines as they move through this 
premier medical center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our Nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the Nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.
   department of defense, seamless transition between the dod and va
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services calls on the 
appropriations committee to push DOD and VA to follow through on 
establishing a bi-directional, interoperable electronic medical record. 
Since 1982, these two departments have been working on sharing critical 
medical records, yet to date neither has effectively come together in 
coordination with the other.
    The time for foot dragging is over. Taking care of soldiers, 
sailors, airmen, and marines is a national obligation, and doing it 
right sends a strong signal to those currently in military service as 
well as to those thinking about joining the military.
    DOD must be directed to adopt electronic architecture including 
software, data standards and data repositories that are compatible with 
the system used at the Department of Veterans Affairs. It makes 
absolute sense and it would lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our Nation is to ensure that all troops receive timely, 
quality health care and other benefits earned in military service.
    To improve the DOD/VA exchange, the hand-off should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
                  defense department force protection
    The National Association for Uniformed Services urges the 
subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of our enemy and to 
decrease casualties caused by IEDs.
             defense health program--tricare reserve select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of September 11, 2001. The 
mission has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a critical share of the load.
               department of defense, prosthetic research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
 post traumatic stress disorder (ptsd) and traumatic brain injury (tbi)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians, 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for more than 100 years under an assortment of 
different names. For example more than 60 years ago, Army psychiatrists 
reported, ``That each moment of combat imposes a strain so great that . 
. . psychiatric casualties are as inevitable as gunshot and shrapnel 
wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the Government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist servicemembers found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the gulf war demonstrates the concept that we need to 
understand the health of our servicemembers as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the members of the subcommittee to provide for these 
funds and to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
                      armed forces retirement home
    The National Association for Uniformed Services encourages the 
subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH).
    We urge the subcommittee to continue its help in providing adequate 
funding to alleviate the strains on the Washington home. Also, we 
remain concerned about the future of the Gulfport home, so we urge your 
continued close oversight on its re-construction. And we thank the 
subcommittee for the provision of $240 million last year to build a new 
Armed Forces Retirement Home at its present location of the tower, 
which began this past March.
    The National Association for Uniformed Services also asks the 
subcommittee to closely review administration plans to sell great 
portions of the Washington AFRH to developers. The AFRH is a historic 
national treasure, and we thank Congress for its oversight of this 
gentle program and its work to provide for a world-class quality-of-
life support system for these deserving veterans.
   improved medicine with less cost at military treatment facilities
    The National Association for Uniformed Services is also seriously 
concerned over the consistent push to have Military Health System 
beneficiaries age of 65 and over moved into the civilian sector from 
military care. That is a very serious problem for the Graduate Medical 
Education (GME) programs in the MHS; the patients over 65 are required 
for sound GME programs, which, in turn, ensure that the military can 
retain the appropriate number of physicians who are board certified in 
their specialties.
    TRICARE/HA policies are pushing out those patients not on active 
duty into the private sector where the cost per patient is at least 
twice as expensive as that provided within Military Treatment 
Facilities (MTFs). We understand that there are many retirees and their 
families who must use the private sector due to the distance from the 
closest MTF; however, where possible, it is best for the patients 
themselves, GME, medical readiness, and the minimizing the cost of 
TRICARE premiums if as many non-active duty beneficiaries are taken 
care of within the MTFs. As more and more MHS beneficiaries are pushed 
into the private sector, the cost of the MHS rises. The MHS can provide 
better medicine, more appreciated service and do it at improved medical 
readiness and less cost to the taxpayers.
          uniformed services university of the health sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the Nation's Federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force, and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases, and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological, and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders, and healthcare providers across the Nation.
                joint pow/mia accounting command (jpac)
    We also want the fullest accounting of our missing service men and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In recent years, funding for the Joint POW/MIA Accounting Command 
(JPAC) has fallen short, forcing the agency to scale back and even 
cancel many of its investigative and recovery operations. NAUS supports 
the fullest possible accounting of our missing service men. It is a 
duty we owe the families, to ensure that those who wear our country's 
uniform are never abandoned. We request that appropriate funds be 
provided to support the JPAC mission for fiscal year 2009.
              appreciation for the opportunity to testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our Nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our Nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a Nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Senator Inouye. Thank you very much, sir.
    Senator Stevens.
    Senator Stevens. Mr. Jones, I'm just back from a prolonged 
trip to Alaska and I found that, while doctors in Alaska are 
seeing TRICARE patients and veterans patients, they are not 
seeing Medicare patients. We have about 10 times as many of the 
military and veterans as we do the seniors because they're 
leaving the State.
    I sense in your testimony that you think that TRICARE is 
too low. Is that right?
    Mr. Jones. The testimony here is the total funding that the 
Pentagon has suggested--that individuals who have earned the 
healthcare benefit and were promised that are being asked to 
shift, to pay out of their own pockets for their own benefit. 
We're asking you to fill that gap, rejecting the----
    Senator Stevens. That's a family benefit, isn't it? The 
individual is receiving the care, but it's the family benefits 
that's creating the----
    Mr. Jones. Well, there's TRICARE Standard, TRICARE Prime. 
These are the benefits that do provide for families and for 
retirees. As you know, individuals from the military can retire 
after 20 years, oftentimes at an early age. He's eligible for 
those retirement programs.
    Senator Stevens. I'm not opposed to increasing the TRICARE. 
I just wonder about a system that really is paying the Medicare 
patients, physicians who see Medicare patients, so low that 
they won't see them. In our State right now, the medical 
profession won't see senior citizens on Medicare, but they do 
see TRICARE.
    Mr. Jones. That's interesting, because we're concerned with 
the TRICARE reimbursement package that's being discussed now in 
the Senate, and we've recognized that if reductions do go in 
place that our medical care benefit may become hollow. 
Individuals looking for medical procedures may not be able to 
access doctors who deliver those procedures.
    Senator Stevens. I don't think there should be a 
difference.
    Mr. Jones. It's interesting that Alaska----
    Senator Stevens. There should not be a difference between 
the amount we pay to a doctor to see a senior citizen, and the 
patient costs ought to be the same. Today it's not. We'll chat 
about that later, but I do think there ought to be a single 
payment schedule for physicians to see those eligible for 
support from the Federal system for Medicare.
    Mr. Jones. Couldn't agree more with you, sir. The hope is 
that that threshold level is adequate enough to maintain an 
adequate number of doctors who are willing to see those 
patients.
    Senator Inouye. I thank you very much, sir.
    Now we'll have a new panel: Dr. George--Mr. George Dahlman, 
Mr. Martin Foil, Captain Walt Steiner, and Ms. Mary Hesdorffer.
    Our first witness of this panel is the Senior Vice 
President for Public Policy, The Leukemia and Lymphoma Society, 
Mr. George Dahlman.
STATEMENT OF GEORGE DAHLMAN, SENIOR VICE PRESIDENT FOR 
            PUBLIC POLICY, THE LEUKEMIA AND LYMPHOMA 
            SOCIETY
    Mr. Dahlman. Thank you, Mr. Chairman and Senator Stevens. 
As mentioned, I'm George Dahlman, Senior Vice President for The 
Leukemia and Lymphoma Society. I'm also the father of a 
leukemia survivor. Since 1949, the society has been dedicated 
to finding a cure for the blood cancers, and to that end in 
2008 we'll provide approximately $70 million of our own money 
raised privately in research grants.
    A number of our grant recipients receive additional funds 
from the NIH, private foundations, and the DOD through the 
congressionally directed medical research program.
    For fiscal 2009, The Leukemia and Lymphoma Society, along 
with other blood cancer groups--the American Society of 
Hematology, the Aplastic Anemia and MDS International 
Foundation, the International Myeloma Foundation, Lymphoma 
Research Foundation, and the Multiple Myeloma Research 
Foundation--all support a $10 million dedicated stand-alone 
research program for blood cancers in the congressionally 
directed medical research program within DOD.
    The reasons for having a blood cancer research program at 
DOD are the benefit such program would have for the warfighter 
and the fact that blood cancer research has led to 
breakthroughs in the treatment of other cancers. Several 
agencies in the Federal Government have recognized the 
importance of blood cancers to those that serve in our 
military. For example, the VA has determined that service 
members who have been exposed to ionizing radiation and 
contract multiple myeloma, non-Hodgkin's lymphoma, or leukemias 
other than chronic lymphocytic leukemia are presumed to have 
contracted those diseases as a result of their military 
service.
    Second, in-country Vietnam veterans who contract Hodgkin's 
disease, chronic lymphocytic leukemia, multiple myeloma, or 
non-Hodgkin's lymphoma are presumed to have contracted those 
diseases as a result of their military service.
    Because these diseases are presumed to have been service 
connected in certain instances, VA benefits are available to 
affected veterans.
    Furthermore, the IOM has found that gulf war veterans are 
at risk for contracting a number of blood cancers due to 
exposure to benzene, solvents, and insecticides. One example is 
that the IOM has found sufficient evidence of a causal 
relationship between exposure to benzene and acute leukemias.
    In addition, the C.W. Bill Young Department of Defense 
Marrow Donor Program works to develop and apply bone marrow 
transplants to military casualties with marrow damage resulting 
from radiation or exposure to chemical warfare agents 
containing mustard. Bone marrow transplants are also a commonly 
used second line therapy for blood cancers, more so than other 
cancers.
    Finally, research into blood cancers has produced results 
that can help patients with other cancers as well. The idea of 
combination chemotherapy was first developed to treat blood 
cancers in children, but is now common among cancer treatments. 
Bone marrow transplants were first used as curative treatments 
for blood cancer patients, but these successes led the way to 
stem cell transplants and related immune cell therapies for 
patients with other diseases.
    In general, blood cancer cells are easier to access than 
cells from solid tumors, making it easier to study cancer-
related molecules in blood cancers and to measure the effects 
of new therapies that target these molecules that are 
frequently also found in other cancers.
    Several targeted agents designed to kill other cancer cells 
and leave healthy cells undamaged were first developed in blood 
cancer patients and are already helping or being developed to 
help other cancer patients as well.
    So in conclusion, because blood cancer research is relevant 
to our Nation's military and because blood cancer research 
often leads to treatments in other cancers, we collectively 
would urge the subcommittee to include $10 million for a 
dedicated stand-alone blood cancer research program at the 
congressionally directed medical research program at DOD.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of George Dahlman
                              introduction
    Mr. Chairman and members of the committee, my name is George 
Dahlman, Senior Vice President, Public Policy for The Leukemia and 
Lymphoma Society (Society). I am pleased to appear today and testify on 
behalf the Society and the almost 800,000 Americans currently living 
with blood cancers and the 130,000 who will be diagnosed with one this 
year--recently some of whom have been right here in the Senate. 
Furthermore, every 10 minutes, someone dies from one of these cancers--
leukemia, lymphoma, Hodgkin's disease, and myeloma.
    During its 59-year history, the Society has been dedicated to 
finding a cure for the blood cancers, and improving the quality of life 
of patients and their families. The Society has the distinction of 
being both the Nation's second largest private cancer organization and 
the largest private organization dedicated to biomedical research, 
education, patient services, and advocacy as they pertain to blood-
related cancers.
    Our central contribution to the search for cures for the blood 
cancers is providing a significant amount of the funding for basic, 
translational, and clinical research. In 2008, we will provide 
approximately $70 million in research grants. In addition to our 
research funding role, we help educate health care and school 
professionals as needed and provide a wide range of services to 
individuals with a blood cancer, their caregivers, families, and 
friends through our 64 chapters across the country. Finally, we 
advocate responsible public policies that will advance our mission of 
finding cures for the blood cancers and improving the quality of life 
of patients and their families.
    We are pleased to report that impressive progress is being made in 
the effective treatment of many blood cancers, with 5-year survival 
rates doubling and even tripling over the last two decades. More than 
90 percent of children with Hodgkin's disease now survive, and survival 
for children with acute lymphocytic leukemia and non-Hodgkin's lymphoma 
(NHL) has risen as high as 86 percent.
    Just 7 years ago, in fact, a new therapy was approved for chronic 
myelogenous leukemia (CML), a form of leukemia for which there were 
previously limited treatment options, all with serious side effects--5-
year survival rates were just over 50 percent. Let me say that more 
clearly, if 8 years ago your doctor told you that you had CML, you 
would have been informed that there were limited treatment options and 
that you should get your affairs in order. Today, those same patients 
have access to this new therapy, called Gleevec, which is a so-called 
targeted therapy that corrects the molecular defect that causes the 
disease, and does so with few side effects. Now, 5-year survival rates 
are as high as 96 percent for patients newly diagnosed with chronic 
phase CML.
    The Society funded the early research that led to Gleevec approval, 
as it has contributed to research on a number of new therapies. We are 
pleased that we played a role in the development of this life-saving 
therapy, but we realize that our mission is far from realized. Many 
forms of leukemia, lymphoma, and myeloma still present daunting 
treatment challenges. There is much work still to be done, and we 
believe that the research partnership between the public and private 
sectors--as represented in the Department of Defense's (DOD) 
Congressionally Directed Medical Research Program--(CDMRP) is an 
integral part of that important effort and should be further 
strengthened.
        the grant programs of the leukemia and lymphoma society
    The grant programs of the Society have traditionally been in three 
broad categories: Career Development Program grants, Translational 
Research Program grants, and Specialized Centers of Research Program 
grants. In our Career Development Program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator responsible for 
Gleevec's development, was supported by a Translational Research 
Program grant from the Society.
    Our Specialized Centers of Research grant program is intended to 
bring investigators together to form new research teams focused on the 
discovery of innovative approaches to treating and/or preventing 
leukemia, lymphoma, and myeloma. The awards go to those groups that can 
demonstrate that their close interaction will create research synergy 
and accelerate our search for new and better treatments.
    Dr. Druker is certainly a star among those supported by the 
Society, but our support in the biomedical field is broad and deep. 
Through the Society's research grant programs, we are currently 
supporting more than 380 investigators at 134 institutions in 34 States 
and 12 other countries.
    Not content with these extensive efforts, the Society has launched 
a new Therapy Acceleration Program intended to proactively invest in 
promising blood cancer therapies that are in early stages of 
development by industry, but which may not have sufficient financial 
support or market potential to justify private sector investment. In 
addition, the Society will use this program to further facilitate the 
advancement of therapies in development by academic researchers who may 
not have the spectrum of resources or expertise to fulfill the 
potential of their discoveries. Directed early phase clinical trial 
support in this funding program will further advance new and better 
treatments for blood cancer treatments.
                    impact of hematological cancers
    Despite enhancements in treating blood cancers, there are still 
significant research challenges and opportunities. Hematological, or 
blood-related, cancers pose a serious health risk to all Americans. 
These cancers are actually a large number of diseases of varied causes 
and molecular make-up, and with different treatments, that strike men 
and women of all ages. In 2008, more than 130,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 65,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments across a lifetime; and for others treatment options 
are still extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective:
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and fourth in mortality.
  --Almost 800,000 Americans are living with a hematological malignancy 
        in 2008.
  --Almost 65,000 people will die from hematological cancers in 2008, 
        compared to 160,000 from lung cancer, 41,000 from breast 
        cancer, 27,000 from prostate cancer, and 52,000 from colorectal 
        cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The 5-year survival 
        rates are:
    --Hodgkin's disease--87 percent;
    --NHL--64 percent;
    --Leukemias (total)--50 percent;
    --Multiple Myeloma--33 percent; and
    --Acute Myelogenous Leukemia--21 percent.
  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse consequences of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and poor quality of life.
  --For the period from 1975 to 2003, the incidence rate for NHL 
        increased by 76 percent.
  --NHL and multiple myeloma rank second and fifth, respectively, in 
        terms of increased cancer mortality since 1973.
  --Lymphoma is the third most common childhood cancer and the fifth 
        most common cancer among Hispanics of all races. Recent 
        statistics indicate both increasing incidence and earlier age 
        of onset for multiple myeloma.
  --Multiple myeloma is one of the top ten leading causes of cancer 
        death among African Americans.
  --Hispanic children of all races under the age of 20 have the highest 
        rates of childhood leukemias.
  --Despite the significant decline in the leukemia and lymphoma death 
        rates for children in the United States, leukemia is still the 
        leading cause of death in the United States among children less 
        than 20 years of age, in females between the ages of 20 and 39 
        and males between the ages of 60-79.
  --Lymphoma is the fourth leading cause of death among males between 
        the ages of 20 and 39 and the fifth leading cause of death for 
        females older than 80. Overall, cancer is now the leading cause 
        of death for U.S. citizens younger than 85 years of age, 
        overtaking heart disease as the primary killer.
         possible environmental causes of hematological cancers
    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Extreme radiation exposures are clearly associated with an 
increased incidence of leukemias. Benzene exposures are associated with 
increased incidence of a particular form of leukemia. Chemicals in 
pesticides and herbicides, as well as viruses such as HIV and EBV, 
apparently play a role in some hematological cancers, but for most 
cases, no environmental cause is identified. Researchers have recently 
published a study reporting that the viral footprint for simian virus 
40 was found in the tumors of 43 percent of NHL patients. These 
research findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.
                importance to the department of defense
    The Leukemia and Lymphoma Society, along with its partners in the 
American Society of Hematology, Aplastic Anemia and MDS International 
Foundation, International Myeloma Foundation, Lymphoma Research 
Foundation, and Multiple Myeloma Research Foundation, believe 
biomedical research focused on the hematological cancers is 
particularly important to the DOD for a number of reasons.
    Research on blood-related cancers has significant relevance to the 
armed forces, as the incidence of these cancers is substantially higher 
among individuals with chemical and nuclear exposure. Firstly, blood 
cancers are linked to members of the military who were exposed to 
ionizing radiation, such as those who occupied Japan after World War II 
and those who participated in atmospheric nuclear tests between 1945-
1962. Service members who contract multiple myeloma, NHL, and leukemias 
other than chronic lymphocytic leukemia are presumed to have contracted 
these diseases as a result of their military service; hence, they are 
eligible to receive benefits from the Department of Veterans Affairs 
(VA).
    Secondly, in-country Vietnam veterans who contract Hodgkin's 
disease, chronic lymphocytic leukemia, multiple myeloma, or NHL are 
presumed to have contracted these diseases as a result of their 
military service and the veterans are eligible to receive benefits from 
the VA.
    Thirdly, the Institute of Medicine (IOM) has found that Gulf War 
veterans are at risk for contracting a number of blood cancers. For 
instance, the IOM has found sufficient evidence of a causal 
relationship between exposure to benzene and acute leukemias. 
Additionally, the IOM has found there is sufficient evidence of an 
association between benzene and adult leukemias, and solvents and acute 
leukemias. Finally, the IOM has also found there is also limited or 
suggestive evidence of an association between exposure to 
organophosphorous insecticides to NHL and adult leukemias; carbamates 
and Benzene to NHL; and solvents to multiple myeloma, adult leukemias, 
and myelodysplastic syndromes--a precursor to leukemia.
    In addition, research in the blood cancers has traditionally 
pioneered treatments in other malignancies. Cancer treatments that have 
been developed to treat a blood-related cancer are now used or being 
tested as treatments for other forms of cancer. Combination 
chemotherapy and bone marrow transplants are two striking examples of 
treatments first developed for treating blood cancer patients. More 
recently, specific targeted therapies have proven useful for treating 
patients with solid tumors as well as blood-related cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized for a 6-year period when 
Congress appropriated $4.5 million annually--for a total of $28 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the CDMRP. As members of the Subcommittee know, a 
noteworthy and admirable distinction of the CDMRP is its cooperative 
and collaborative process that incorporates the experience and 
expertise of a broad range of patients, researchers and physicians in 
the field. Since the Chronic Myelogenous Leukemia Research Program 
(CMLRP) was announced, members of the Society, individual patient 
advocates and leading researchers have enthusiastically welcomed the 
opportunity to become a part of this program and contribute to the 
promise of a successful, collaborative quest for a cure.
    Many extremely productive grants have been funded through this 
program. For example, from fiscal year 2002-fiscal year 2006 the CMLRP-
funded research with accomplishments that fall into three rather broad 
areas.
Basic science
    A better understanding of disease processes will facilitate the 
development of the next generation of therapeutic agents. The CMLRP has 
funded basic science research that has increased our knowledge of the 
patho-biology of CML, the molecular and cellular processes involved in 
the initiation of CML and the progression of disease. This may be 
exemplified by the work of Dr. Danilo Perrotti of The Ohio State 
University. Dr. Perrotti described the loss of activity of a protein 
phosphatase 2A (PP2A), a tumor suppressor, in CML cells. His research 
then determined that activity of the protein BCR/ABL, expressed in most 
CML cells and associated with disease development, inhibits PP2A 
activity which would allow CML cells to continue to proliferate. Dr. 
Perrotti took this basic understanding of this aspect of CML cell 
biology and took it one step further. He showed that treating cells 
with a compound that increases the activity level of PP2A in cells 
decreased tumor growth by virtually overpowering the negative effects 
of BCR/ABL, indicating that this compound has potential to be developed 
as a new CML treatment option.
Therapeutic development
    Genetic mutations that confer resistance to currently available CML 
treatment agents demonstrates the need for the development of new 
therapeutics that may be used in conjunction with these agents or as 
second line defense options when resistance develops. CMLRP-funded 
scientists have discovered and developed potential new therapeutic 
agents that may be used to combat or halt disease progression. For 
example, after screening a chemical library of small molecules, Dr. 
Joel Gottesfeld of The Scripps Research Institute identified a set of 
molecules that inhibits proliferation of CML cells in a BCR/ABL-
independent manner. Secondly, Dr. Craig Jordan of the University of 
Rochester used an antiproliferative compound, which specifically 
inhibits a molecule involved in the transcription of many genes, to 
inhibit the proliferation of CML cells while not affecting normal 
cells. Thirdly, Dr. E. Premkumar Reddy of Temple University is 
developing an agent that will target CML cells that are Gleevec 
resistant. Finally, Dr. Kapil Bhalla of Medical College of Georgia 
Cancer Center has discovered a new agent that inhibits that activity of 
BCR/ABL.
Model organism development
    Many model organisms are utilized by the scientific community for 
studying genetics, molecular mechanisms, cellular functions, or 
therapeutic efficacy including, but not limited to worms, flies, 
zebrafish, chickens, and mice. The model organism of choice may be 
dependent on a number of variables such as research strategy and 
feasibility, experimental design, statistical needs for data 
interpretation, and budget. In addition, using a variety of model 
organisms to study a disease may be advantageous.
    Many CMLRP-funded researchers have been involved in developing and 
validating new mouse and zebrafish models of CML for understanding 
genetic, molecular and cellular changes that accompany the development 
and progression of CML; and for pre-clinical testing of potential new 
therapeutic agents. Mice are mammals, a potential advantage for 
relating research results to human disease. In addition, a large 
proportion of human genes have a mouse counterpart. However, zebrafish 
also share extensive genetic similarity with humans and have been shown 
to share many features of the innate immune system with those of 
humans. Also, zebrafish have a short generation interval (e.g., 
lifespan) making them very amenable to and useful for genetic analysis.
    In spite of the utility and application to individuals who serve in 
the military, the CML program was not included in January's 2007 
Continuing Resolution funding other fiscal year 2007 CDMRP programs. 
This omission, and the program's continued absence seriously 
jeopardizes established and promising research projects that have clear 
and compelling application to our armed forces as well as pioneering 
research for all cancers.
    With all due respect to our colleagues fighting a broad range of 
malignancies that are represented in this program--and certainly not to 
diminish their significance--a cancer research program designed for 
application to military and national security needs would invariably 
include a strong blood cancer research foundation. DOD research on 
blood cancers addresses the importance of preparing for civilian and 
military exposure to the weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for all who 
suffer from these diseases. This request clearly has merit for 
inclusion in the fiscal year 2009 legislation.
    Recognizing that fact and the opportunity this research represents, 
a bipartisan group of 45 Members of Congress have requested that the 
program be reconstituted at a $10 million level and be expanded to 
include all the blood cancers--the leukemias, lymphomas, and myeloma. 
This would provide the research community with the flexibility to build 
on the pioneering tradition that has characterized this field.
    The Society strongly endorses and enthusiastically supports this 
effort and respectfully urges the committee to include this funding in 
the fiscal year 2009 Defense Appropriations bill.
    We believe that building on the foundation Congress initiated over 
6-year period should not be abandoned and would both significantly 
strengthen the CDMRP and accelerate the development of all cancer 
treatments. As history has demonstrated, expanding its focus into areas 
that demonstrate great promise; namely the blood-related cancers of 
leukemia, lymphoma, and myeloma, would substantially aid the overall 
cancer research effort and yield great dividends.

    Senator Stevens. You know, we have a large sum that covers 
a whole series of research efforts.
    Mr. Dahlman. Correct.
    Senator Stevens. Have you spoken to them, DOD, about the 
emphasis on blood research? I agree with you. I really think 
that this and the others ought to have more intensive 
application of this money. But we already have about $50 
million in that pot.
    Mr. Dahlman. Right.
    Senator Stevens. What do you get out of it now?
    Mr. Dahlman. Senator Stevens, it was sporadically included 
in the peer reviewed program, which is about $50 million, and 
blood cancers was reinstituted this last time, and we are 
working with the Army right now to see if there is any grant 
availability for blood cancers.
    Senator Stevens. Well, I would urge it in the context, but 
I don't know whether we can raise that money. But you're right, 
that research ought to be increased.
    Mr. Dahlman. Thank you.
    Senator Inouye. You just heard the man. We'll increase it.
    Mr. Dahlman. Thanks.
    Senator Inouye. Now our next witness is the Director of the 
National Brain Injury Research, Treatment and Training 
Foundation, Mr. Martin Foil.
STATEMENT OF MARTIN B. FOIL, JR., CHAIRMAN, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT AND TRAINING FOUNDATION
    Mr. Foil. Good morning, Mr. Chairman, Senator Stevens. It's 
an honor and a pleasure to be here. I've been here for over 10 
years.
    Senator Stevens. Would you turn on your mike?
    Mr. Foil. I'll turn it on, thank you. Is that better? Okay.
    As you know, I'm the father of a young man with a severe 
brain injury, and I serve as the Chairman of the National Brain 
Injury Research, Treatment and Training Foundation (NBIRTT). So 
in behalf of NBIRTT, I respectfully request your support for 
the full funding of the Defense Veterans Brain Injury Center 
(DVBIC) as part of the new Department of Defense Center of 
Excellence in Psychological Health and Traumatic Brain Injury. 
We want to see DVBIC continue to be a key program at that 
center of excellence and to be funded at $28 million in 2009.
    In addition, we would like to see $3.75 million go toward a 
pilot project for those suffering from severe traumatic brain 
injury (TBI). For many years, I have come before you and 
requested funding for TBI, but this year's different. You have 
appropriated literally hundreds of millions of dollars in the 
past year for the DOD and the VA to screen, evaluate, provide 
care, rehabilitation, education, and research for our wounded 
warriors with TBI. I commend you and your subcommittee for your 
leadership as it was desperately needed.
    As you know, TBI is the signature injury of the war on 
terror and the impact that TBI continues to have on our troops 
is very enormous. We must be sure to address the needs of all 
our injured troops along the entire spectrum. There are those 
who are walking wounded, don't know that they have this 
problem, only to find trouble after they go home. On the other 
end, there are those folks who are so terribly injured that 
standard modern medicine has little to offer them and they are 
sent to live out their lives in nursing homes.
    We must be sure to address the needs of all TBIs, to 
provide the best our Nation has to offer. For those with mild 
TBI who go undiagnosed, we urge the DOD through the DVBIC to 
coordinate with State agencies and TBI programs which have 
already begun to reach out to veterans groups to provide a 
safety net for our troops who are returning who are undiagnosed 
or underdiagnosed.
    Particularly because returning National Guard and Reserves 
go back to their civilian doctors, we need to educate the 
civilian population on the less visible signs of TBI and help 
injured troops navigate available resources.
    On the other end of the spectrum--those are the wounded 
warriors with severe TBI, who require a longer time to recover, 
who need long-term rehabilitation. If these severely injured 
warriors are sent to nursing homes, they'll never recover 
because neither the VA nor the community nursing homes have the 
expertise or the technology needed.
    We support a pilot program for severe TBI which would work 
through DVBIC at a facility in Johnstown, Pennsylvania. It's 
standing, it's ready to provide for 25 severely injured wounded 
warriors as well as respite care for their families. There are 
187 wounded warriors already awaiting placement into a program 
similar to this.
    We also hope you will urge the DOD to keep the TBI registry 
with the DVBIC instead of moving it over to healthcare.
    We know that your subcommittee is committed to providing 
the resources that the DOD needs to care for our warriors. We 
hope you will be sure to provide the $3.75 million for those 
severely wounded who need to go to a place like Johnstown.
    Thank you.
    Senator Inouye. I thank you very much.
    [The statement follows:]
               Prepared Statement of Martin B. Foil, Jr.
    Dear Chairman Inouye, Ranking Member Stevens and members of the 
Senate Appropriations Subcommittee on Defense: Thank you for this 
opportunity to submit testimony in support of funding the Defense and 
Veterans Brain Injury Center (DVBIC). The National Brain Injury 
Research, Treatment, and Training Foundation (NBIRTTF) urges your 
support for $28 million for the DVBIC in the fiscal year 2009 Defense 
Appropriations bill which would include $3,750,000 for the pilot 
project on the minimally conscious.
    As you well know, my name is Martin Foil and I am the father of 
Philip Foil, a young man with a severe brain injury. I serve as 
Chairman of the Board of Directors of NBIRTT.\1\ Professionally, I am 
the Chief Executive Officer and Chairman of Tuscarora Yarns in Mt. 
Pleasant, North Carolina.\2\
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment, and training.
    \2\ I receive no compensation from this program; rather, I have 
raised and contributed millions of dollars to support brain injury 
research, treatment, training, and services.
---------------------------------------------------------------------------
    My testimony concerns the two extreme ends of the spectrum of 
traumatic brain injury (TBI) in the military--from those who go 
undiagnosed and return to the community and are only later found to 
have brain injuries after experiencing problems, and those who are the 
most severely injured and are left to live out their lives in minimally 
conscious or vegetative states in nursing homes without rigorous 
efforts to help them regain consciousness.
  the national response to tbi in the military and veteran populations
    For 16 years, since the DVBIC was created in 1992, my colleagues in 
the brain injury community and I have requested Congressional support 
to sustain its research, treatment, and training initiatives. What 
started as a small research program, the DVBIC has grown to a nine-site 
network \3\ of state-of-the-art care in collaboration between the 
Department of Defense (DOD) and the Veterans Administration (VA) and is 
now a key component of the Department of Defense Center of Excellence 
in Psychological Health and Traumatic Brain Injury (DCoE).
---------------------------------------------------------------------------
    \3\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, Florida; Naval Medical Center San Diego, San 
Diego, California; Minneapolis Veterans Affairs Medical Center, 
Minneapolis, Minnesota Veterans Affairs Palo Alto Health Care System, 
Palo Alto, California; Virginia Neurocare, Inc., Charlottesville, 
Virginia; Hunter McGuire Veterans Affairs Medical Center, Richmond, 
Virginia; Wilford Hall Medical Center, Lackland Air Force Base, Texas; 
Laurel Highlands Neuro-Rehabilitation Center, Johnstown, Pennslyvania.
---------------------------------------------------------------------------
    We are extremely pleased that over the past year, Congress has 
appropriated hundreds of millions of dollars for screening, evaluation, 
treatment, and support for troops sustaining TBI. We applaud your 
leadership in assuring funding for TBI. Similarly, we were encouraged 
to see that the DVBIC was included in the new TBI initiatives of the 
fiscal year 2008 National Defense Authorization Act (NDAA).
    We remain concerned, however, that the DOD may not fully implement 
all of the initiatives of the NDAA, or may delay their development. It 
is reports like that by USA Today on March 18, 2008,\4\ uncovering 
policies of the DOD to delay screening of troops in fear that the issue 
of TBI may become another ``Gulf War Syndrome'' that makes us ask for 
your support in overseeing DOD. The recent news report that a VA doctor 
suggested that diagnosis of Post Traumatic Stress Disorder (PTSD) be 
redesignated as ``an adjustment disorder'' as well as the ``New England 
Journal of Medicine'' article published in January, by Colonel Hoge who 
argues that TBI is really just PTSD, are also alarming.
---------------------------------------------------------------------------
    \4\ Col.:DOD Delayed Brain Injury Scans, by Gregg Zoroya, USA 
Today, March 18, 2008.
---------------------------------------------------------------------------
    The Rand Corporation issued a study in April,\5\ which found that 
about 19 percent of troops report having a possible TBI. 1.64 million 
troops have served since October 2001, so that means there's a 
possibility of over 300,000 TBIs. Similarly, almost 20 percent of 
returning service personnel have symptoms of PTSD or major depression. 
Unfortunately, only half have sought treatment and they experienced 
delays and shortfalls in getting care.
---------------------------------------------------------------------------
    \5\ Invisible Wounds of War: Psychological and Cognitive Injuries, 
Their Consequences, and Services to Assist Recovery (Tanielian and 
Jaycox [Eds.], Santa Monica, Calif.: RAND Corporation, MG-720-CCF, 
2008).
---------------------------------------------------------------------------
    There are disturbing reports about the 1,000 suicides per month 
among veterans of the conflicts in Iraq and Afghanistan, and the 
connection with PTSD and TBI cannot be overlooked. A May 11, 2008, New 
York Times editorial about the VA's downplaying of a suicide epidemic, 
argued that the solutions are clear: more funding for mental health 
services, more aggressive suicide prevention efforts and more 
efficiency at managing veterans' treatment and more help for their 
families. However, we know well that none of this is simple and funding 
and program proposals are only the beginning and need to be carefully 
monitored. Congressional leadership has been stellar, legislation now 
enacted, but once the DOD and VA have the resources and directives, 
Congressional oversight is still needed.
    The issues of PTSD and TBI in the military are enormous and affect 
both the military and civilian health care systems. If only half of 
troops with symptoms of PTSD and TBI are seeking treatment, it is clear 
that injured service personnel will fall through the cracks and not get 
the neuro-rehabilitation or services they and their families need.
  the need for coordination with state agencies and community services
    On May 13, 2008, LTG Clyde Vaughn, Director of the Army National 
Guard testified before your committee that there needs to be a safety 
net for troops returning who have unidentified PTSD and/or TBI and 
urged a coordination, between the military, veterans agencies and State 
agencies. As to screening, Lieutenant General Vaughn acknowledged that 
the Army National Guard could at one time follow its troops, but now as 
regiments are divided, such an effort would require that all branches 
of the armed services participate.
    The NDAA provided a directive for the military to collaborate with 
civilian entities to ensure community services are available. NBIRTT 
supports the proposal by the National Association of State Head Injury 
Administrators (NASHIA) submitted to the DCoE to collaborate with State 
agencies to provide a continuum of information and resources for those 
troops that we know will fall through the cracks.
    As service personnel return home from Iraq and Afghanistan, an 
increasing number of them and their family members are contacting State 
governmental programs for assistance that states usually provide to the 
civilian population. While many who are seriously injured will be 
treated by military treatment facilities, others with mild or 
undiagnosed TBI--especially the National Guard and Reserves--will 
return to their homes, families, and communities after tour of duty. 
They will often seek medical care from civilian health care 
professionals who may not be aware of the person's exposure to blasts.
    It is often the resulting actions or behaviors and poor judgment of 
these individuals that result in domestic violence, inappropriate 
public outbursts and encounters with law enforcement or unemployment. 
It is under these circumstances that many with TBI are ``discovered'' 
by State and local agencies. These agencies or professionals often do 
not know to ask the question as to whether the person served in Iraq or 
Afghanistan and was exposed to blasts, such as those from roadside 
bombs. It is key for proper assessment and diagnosis that these 
professionals learn the cause or reason for such behaviors or other 
cognitive issues.
    Funding is needed to enlighten the civilian community about TBI and 
related disorders associated with blast injuries incurred in Iraq and 
Afghanistan. National Guardsmen and women and Reservists may exit their 
tour citing no medical difficulties. It is only after a period of time 
that these individuals may find it difficult to manage their jobs, 
interact with their family members or co-workers, manage their emotions 
or engage in activities once considered routine. These individuals are 
at risk of being misdiagnosed and treated inappropriately by medical 
and healthcare professionals.
    The NDAA authorized funding to improve the continuum of care from 
acute, post-acute, rehabilitation, transition, follow-up, community, 
and long-term care and case management/service coordination to 
coordinate resources and benefits for injured troops.
    In general, States have extensive experience in helping civilians 
access services across private (e.g., insurance, workers comp), local 
(e.g., public education, county health and social service agencies), 
State (TBI, mental health and disability programs) and Federal (e.g., 
Medicaid, public assistance, substance abuse, and vocational 
rehabilitation) systems. Now, States need support in collaborating with 
DOD/VA in order to assist those returning servicemembers with ``mild'' 
or undiagnosed TBI to get the services and supports they need, whether 
these services are provided through the VA or through State public 
programs or by civilian healthcare providers. At the same time, States 
can provide information to DOD/VA on community resources for those 
severely or moderately injured service members who are returning to 
their communities and may need life-long care and family supports. This 
requires States and DOD/VA to have knowledge on how to navigate each of 
these complex systems, as well as to have formal relationships for 
transitioning returning service members with TBI and related conditions 
to their home and community and conducting outreach to identify those 
with mild or undiagnosed TBI.
    The Centers for Disease Control and Prevention (CDC), in 
recognition that many civilians who sustain a mild TBI are not 
hospitalized or receive no medical care at all, has updated and revised 
the ``Heads Up: Brain Injury in Your Practice'' tool kit for 
physicians. This toolkit also directs physicians to note potential 
blast related TBIs. This toolkit has also been distributed to State 
agencies hoping that they will educate their medical communities 
regarding this emerging issue.
    If it is true, as was mentioned earlier, the DOD and VA do not 
fully screen and correctly diagnose service personnel with TBIs, it is 
inevitable that troops will return home injured only to fend for 
themselves. We urge your support for a collaborative agreement between 
the DVBIC and DCoE and NASHIA to provide a safety net for troops 
returning home.
     dcoe officials should determine the course of tbi initiatives
    Last year we testified that ``the DVBIC is an important tool to 
assure a continuum of care, but it requires an increased level of POM 
funding and a solid commitment by the DOD to assist in improving the 
military and VA health care systems.'' Now that adequate funding is in 
place, we need to assure that Congressional mandated programs are 
actually implemented. We are pleased that DCoE is headed by BG Loree 
Sutton along with a cadre of professionals and experts in TBI. We hope 
that the DOD will defer to their expertise in deciding the best means 
to develop a true Center of Excellence for TBI.
    DCoE staff recently submitted the proposed budget for fiscal year 
2010, up the chain of command, but bureaucrats within the DOD have not 
supported such programs as the pilot project for the minimally 
conscious. The minimally conscious program was in the NDAA and endorsed 
by experts in TBI treatment and research, as well by officials at DCoE. 
All facets are ready to go and the program in its entirety could be 
stood up by this fall. The pilot project is a unique attempt to provide 
our most injured wounded warriors with cutting edge care to help them 
regain consciousness. There is no other effort like it being done by 
the VA or DOD. Severely injured wounded warriors deserve the most 
cutting edge treatment for a chance to return to their lives. They do 
not deserve misdiagnosis or a decree of futility, only to be sent to 
nursing homes.
The Minimally Conscious Program: Improving Outcomes for Wounded 
        Warriors with Disorders of Consciousness
    Disorders of consciousness (DOC) include coma, the vegetative state 
(VS) and the minimally conscious state (MCS). These disorders are among 
the most misunderstood conditions in medicine and are an important 
challenge for scientific inquiry. Published estimates of diagnostic 
error among patients with disorders of consciousness range from 15-43 
percent. The highly publicized case of Terri Schiavo revealed the depth 
of confusion, misinformation, and unfounded speculation concerning 
these disorders that exists among the public, the media, Government 
officials, and healthcare professionals. To some extent, these problems 
should have been avoidable, because well-accepted definitions, 
diagnostic criteria, and prognostic parameters concerning coma, VS, and 
MCS are available in the scientific literature. Although all of these 
disorders involve severe alteration of awareness of self and 
environment, there is clear and growing evidence that subtle but 
important clinical differences exist between these states of altered 
consciousness that impact access to treatment, management decisions, 
outcomes, family adjustment, and cost of care. Failure to recognize 
these differences may result in misdiagnosis, inaccurate prognosis, 
inappropriate treatment recommendations and improper management of 
fiscal and human resources.
Incidence and prevalence of VS and MCS in the U.S.
    Accurate estimates of the incidence and prevalence of disorders of 
consciousness are challenging to obtain for several reasons. First, it 
is difficult to find persons with these disorders across the many 
different locations where they receive care, and to follow them over 
time to see if they improve. In addition, the lack of International 
Classification of Disease diagnostic codes for MCS makes it difficult 
to track the number of cases using currently available data. Finally, 
the prevalence of both the VS and MCS is influenced by survival, which 
is dependent upon access to care, quality of care and decisions to 
withdraw care.
    As a result of these challenges, knowledge of the epidemiology of 
DOC is extremely limited. It is estimated that at least 4,200 new 
individuals with the VS are diagnosed each year in the United States. 
The incidence of new cases of MCS, including the number of persons who 
transition from VS to MCS, has not been determined. Regarding the 
prevalence, published estimates suggest that approximately 315,000 
Americans are living with a disorder of consciousness, including 35,000 
in VS and 280,000 in MCS. An estimated 40 percent of persons with DOC 
are children. These figures most likely under represent the frequency 
of occurrence of VS and MCS because of the lack of surveillance in 
subacute settings in which most of these individuals reside. Detailed 
information about persons with VS and MCS by age, sex, and cause of the 
disorder has not been reported.
Incidence and prevalence of VS and MCS among wounded warriors
    The exact number of wounded warriors from Operation Iraqi Freedom 
and Operation Enduring Freedom in the vegetative and minimally 
conscious state is unknown. DVBIC reports that 4 percent, or 
approximately 223 individuals with severe TBI have been seen and or 
treated by the DVBIC. This is an underestimation because it does not 
include those seen or treated at other military hospitals and programs.
    The DVBIC/DCoE program could be stood up by this fall if located at 
the Hiram G. Andrews Center in Johnstown, Pennsylvania. The program 
plans to fully assess and research patient conditions and responses, 
wean patients from ventilators, provide complete medical care, get 
patients to the point where they can communicate, involve family and 
consultants via teleconferencing and telerehabilitation, and develop 
assistive devices for the patients to improve quality of life and 
reduce the need for skilled nursing facilities which will decrease the 
burden to both the family and society.
    The DVBIC/DCoE pilot project will utilize the latest technology and 
scientific evidence to treat wounded warriors with TBI. Nothing being 
done by the VA or the DOD comes close to the goals for this pilot 
project. There are numerous stories of young men and women who were 
considered hopeless, only to fully recover conscious and functioning. 
No one better deserves the most cutting edge research and care than our 
wounded warriors. The VA Polytrauma Centers provide excellent state-of-
the-art care for a handful of severely injured. Our troops deserve a 
step above, and all severely injured should be given the opportunity to 
hope for recovery.
    We urge your support for $3,750,000 in the DOD Appropriations bill 
for fiscal year 2009 for the pilot program for the minimally conscious.
    In summary, we request a total of $28 million for the DVBIC, 
understanding that is only a component of the DCoE, we want to be sure 
that the same level of funding for TBI is given next year as was given 
this year.
    As the DOD implements the initiatives of the NDAA and directives 
from appropriations, it cannot lose sight of those wounded warriors who 
may be forgotten because they are at the extremes of the spectrum of 
TBI. Many of the walking wounded do not even know they have TBI. Others 
are so severely injured they are misdiagnosed as hopeless. The DCoE can 
address both of these issues through collaborative efforts with 
communities and developing treatments to provide hope for the most 
injured.
    As we have seen in years past, it is your leadership that has 
assured the care of troops with TBI. If we could rely on the layers of 
bureaucracy to take responsibility for identifying and treating troops 
with TBI, then we wouldn't have had to come before your committee for 
some 15 years asking for plus ups of $5, $10, or $12 million to 
supplement a $7 million base budget. Now that the core commitment by 
the DOD is there, we cannot lose the opportunity to assure that funds 
are directed properly, efficiently and effectively. Time is, and has 
always been, of the essence when it comes to TBI.
    Thank you for your wisdom, support, and leadership in providing 
critical resources to our troops.

    Senator Inouye. Now may I call upon Captain Walt Steiner, 
President of the Naval Reserve Association.
STATEMENT OF CAPTAIN WALT STEINER, UNITED STATES NAVY 
            (RETIRED), PRESIDENT, NAVAL RESERVE 
            ASSOCIATION
    Captain Steiner. Chairman Inouye and Ranking Member 
Stevens: The Naval Reserve Association (NRA) is very grateful 
to have the opportunity to testify today. We want to thank this 
subcommittee for the ongoing stewardship on the important 
issues of national defense and especially the reconstitution 
and transformation of the Navy. Your unwavering support for our 
deployed marines and service members and sailors in Iraq and 
Afghanistan and for the worldwide fight against terrorism is of 
crucial importance and warriors a top priority.
    In keeping with that priority, we urge this subcommittee to 
immediately appropriate 2008 supplemental funds to continue to 
support the ongoing war against terrorism.
    NRA would like to highlight some other areas of concern. We 
support the utilization of Navy reservists in operational 
reserve support roles, but we also believe that Chairman 
Mullen's October 2007 call for a strategic reserve should be 
heeded by the Navy. We interpret ``strategic reserve'' to mean 
capability-based commissioned Reserve units with assigned 
missions and roles and organic equipment, which should be 
maintained in order to ensure that the United States is 
prepared to surge for military operations against near 
competitor states or other threats at any point in the near 
future, or in the future.
    The NRA believes that the administration and Congress must 
make it a high priority to maintain the end strengths of 
already overworked military forces. This includes the Navy 
Reserve. At a minimum, the Navy Reserve should be stabilized at 
68,000 members.
    We continue to have concerns with how the Reserve 
components are being utilized by the Pentagon. Our Navy 
reservists are pleased to be making a significant contribution 
to the Nation's defense as operational Reserve forces. However, 
the reality of it all is that the added stress on the Reserve 
could pose long-term consequences for our country in 
recruiting, retention, family, and employer support. This issue 
deserves your attention.
    Our Navy reservists are fighting the wars in Iraq and 
Afghanistan on the ground, in the air, and on the sea, and at 
sea. Many if not most of these excellent reservists are the 
product of the Naval Reserve that predated Operation Iraqi 
Freedom. As such, the more senior officers and enlisted were 
developed in organized, commissioned and organically equipped 
units where their leadership skills and operational experience 
were tested and hardened by the rigors of unit command and 
responsibility. That tremendous reservoir of operational 
capability must be maintained.
    There is a risk that they will not be able to do so under a 
projection of the present model of utilization, and current 
Active-Reserve integration plans do not call for leadership 
roles for midgrade enlisted or officers.
    Regarding equipment, the NRA does support the Chief of 
Naval Operations' unfunded programs list. We do not agree with 
the Pentagon's position recommending the repeal of separate 
budget requests for procuring reserve equipment and ask this 
subcommittee to continue to provide separate appropriations 
against unfunded NGRE requirements in the NGRE appropriation.
    The Naval Reserve Association strongly believes that 
dedicated Naval Reserve units with their own equipment are a 
major factor in recruiting, retaining, and training the 
qualified personnel in the Navy Reserve. The Reserve should not 
be viewed solely as a labor pool to fill a gap in existing 
active duty manning.
    Specific equipment and funding needs at the Navy Reserve 
that we support include:
    Funding the C-40A aircraft to replace dangerously aged C-
9s. Two aircraft are currently in the 2009 supplemental and 
four in the 2009 annual funding;
    Replace the C-20;
    Fund six C-130Js for the Naval Reserve;
    Increase funding for the Naval Reserve equipment for the 
naval coast warfare mission; and
    Establish a floor of 68,000 for Navy Reserve end strength.
    We thank this subcommittee for consideration of these tools 
to assist the Guard and Reserve in an age of increased 
sacrifice and utilization of these forces. Additionally, we can 
never forget the families and employers of these unselfish 
volunteers who serve our country in uniform.
    Thank you.
    Senator Inouye. Thank you very much, Captain Steiner.
    [The statement follows:]
            Prepared Statement of Captain Walter K. Steiner
    The Naval Reserve Association traces its roots back to 1919, and is 
devoted solely to service to the Nation, Navy, the Navy Reserve, and 
Navy Reserve officers and enlisted. It is the premier national 
education and professional organization for Navy Reserve personnel, and 
the Association Voice of the Navy Reserve .
    Full membership is offered to all members of the services and NRA 
members come from all ranks and components.
    The Association has just under 23,000 members from all 50 States. 
Forty-five percent of the Association membership is drilling and active 
reservists and the remaining 55 percent are made up of reserve 
retirees, veterans, and involved civilians. The national headquarters 
is located at 1619 King Street, Alexandria, VA.
    Mr. Chairman and distinguished members of the committee, the 
Association is very grateful to have the opportunity to testify today.
    Our Association looks at equipment, force structure, and policy 
issues that are not normally addressed by the Office of Secretary of 
the Navy.
    We would like to thank this committee for the on-going stewardship 
on the important issues of national defense and, especially, the 
reconstitution and transformation of the Navy. At a time of war, its 
pro-defense and non-partisan leadership sets the example.
    Your unwavering support for our deployed service members in Iraq 
and Afghanistan and for the world-wide fight against terrorism is of 
crucial importance and warrants a top priority. NRA would like to 
highlight some areas of emphasis.
    As a Nation, we need to supply our service members with the 
critical equipment and support needed for individual training, unit 
training, and combat. Additionally, we can never forget the families 
and employers of these unselfish volunteers.
                            ngrea equipment
    In recent years, the Pentagon has recommended the repeal of 
separate budget requests for procuring Reserve equipment. A combined 
equipment appropriation for each service does not guarantee needed 
equipment for the National Guard and Reserve Components. For the Navy 
Reserve, this is especially true. We do not agree with the Pentagon's 
position on this issue and ask this committee to continue to provide 
separate appropriations against unfunded NG and RE requirements.
    People join the Reserve Components to serve their country and 
operate equipment. Recruiting and retention issues have moved to center 
stage for all services and their reserve components. In all likelihood, 
the Navy will not meet its target for new Navy Reservists and the Navy 
Reserve could be challenged to appreciably slow the departure of 
experienced personnel this fiscal year. We've heard that Reserve chiefs 
are in agreement, expressing concern that senior personnel could leave 
when equipment is not available for training.
    Besides re-enlistment bonuses which are needed, the NRA strongly 
believes that dedicated Navy Reserve equipment and Navy Reserve units 
are a major factor in recruiting, retaining and training qualified 
personnel in the Navy Reserve.
                              end-strength
    In addition to equipment to accomplish assigned missions, the NRA 
believes that the administration and Congress must make it a high 
priority to maintain, if not increase, the end strengths of already 
overworked and perhaps even overstretched, military forces. This 
includes the Navy Reserve. The Navy Reserve has always proven to be a 
highly cost-effective and superbly capable operational and surge force 
in times of both peace and war. At a minimum, the Navy Reserve should 
be stabilized at 68,000 personnel.
                     operational navy reserve force
    We continue to have concerns on how the Guard and Reserve are being 
utilized by the Pentagon, currently mobilizing over 615,000 Guard and 
Reserve. The move away from the traditional mission of the Guard and 
Reserves to an operational part-time fighting force is the only way our 
country could fulfill our immediate defense requirements after 9/11. 
However, for the foreseeable future, we must be realistic about what 
the unintended consequences are from this very high rate of usage. 
History shows that a Reserve force is needed for any country to 
adequately meet its defense requirements, and to enable success in 
offensive operations, when needed. Our current Guard and Reserve 
members are pleased to be making a significant contribution to the 
Nation's defense as operational reserve forces; however, the reality of 
it all is that the added stress on the Guard and Reserve could pose 
long term consequences for our country in recruiting, retention, family 
and employer support. This issue deserves your attention in a continuum 
of benefits that includes pay, compensation, retirement issues, Family 
Support Programs, Transition Assistance Programs and for the Employer 
Support for the Guard and Reserve programs.
    The Navy Reserve has decreased from 86,000 to 66,000 in just 5 
years. At the same time, the Navy Reserve continues to mobilize over 
4,500 sailors in support for the on-going global war on terror. Your 
Navy Reserve personnel are fighting the wars in Iraq and Afghanistan. 
It should be noted that many, if not most, of these excellent 
Reservists are the product of the Naval Reserve policies and force 
structure that pre-date 9/11. As such, and in particular, the more 
senior officers and enlisted were developed in organized, commissioned 
and organically equipped units where their leadership skills and 
operational experience were tested and hardened by the rigors of unit 
command and responsibility. Care must be taken that tremendous 
reservoir of operational capability be maintained and not capriciously 
dissipated. Officers, Chief Petty Officers, and Petty Officers need to 
exercise leadership and professional competence to maintain their 
capabilities. There is a risk that they will not be able to do so in 
the present model of utilization, and current integration does not call 
for leadership roles of mid-grate enlisted or officers.
    That said, we recognize there are many issues that need to be 
addressed by this committee and this Congress. The NRA supports the 
Navy Unfunded Programs list provided by the Chief of Naval Operations.
Specific equipment and funding needs of the Navy Reserve include:
    C-40 funding to replace dangerously aged C-9s. These are war 
fighting logistic weapons systems. Two aircraft are currently 
programmed for fiscal year 2009 supplemental. We have to replace aging 
C-9s to maintain Navy and Marine Corps engagement in the global war on 
terrorism. Our country needs these warfigting systems because;
    First:
  --It is the entire Navy's only world-wide intra-theater organic 
        airlift, operated by the U.S. Navy, and meet critical fleet 
        needs on a daily basis around the clock.
  --Navy currently operates nine C-40As, in three locations: Fort 
        Worth, Jacksonville, and San Diego.
  --A pending CNA study--substantiates the requirements for 31-35 C-
        40As to replace aging C-9s.
    Second:
  --CNO, SECNAV, and Department of Defense (DOD) support the 
        requirement for C-40A's.
  --Commander, Naval Air Force 2007 Top Priority List stated the 
        requirement for at least 32 aircraft.
    Third:
  --Current average age of remaining C-9s that the C-40 replaces is 37 
        years!
  --There will be no commercial operation of the C-9s or derivates by 
        2011.
  --C-9s cannot meet the GWOT requirement, due to MC rates, and 
        availability of only 171 days in 2006.
  --Modifications required to make C-9s compliant with stage III Noise 
        compliance, and worldwide Communications/Navigation/
        Surveillance/Air Traffic Management compliance--are cost 
        prohibitive.
  --There are growing indications that the availability and Mission 
        Capability rates of the C-20Gs.
    Fourth:
  --737 commercial availability is slipping away, if we do not act now; 
        loss of production line positions in fiscal year 2008-09--due 
        to commercial demand would slip to 2013, increase in DOD, 
        service unit costs, and endanger fleet readiness and current 
        operations.
    C-130J procurement funding for six C-130s for the Navy Reserve.
    New Accession Training Bonus is for the Navy Reserve force non-
prior service accession program. This program will pay to meet 
increased Reserve Component recruiting mission. This supports the 
global war on terrorism through accessing Reserve members into: 
Seabees, Master-at-Arms, Intelligence Specialists, and Hospital 
Corpsmen rates.
    A full range of Navy Expeditionary Command equipment for Navy 
Reserve units.
    Overwhelmingly, we have heard Reserve Chiefs and Senior Enlisted 
Advisors discuss the need and requirement for more and better equipment 
for Reserve Component training. The Navy Reserve is in dire need of 
equipment to keep personnel in the Navy Reserve and to keep them 
trained. Approximately 4,500 Navy Reserve personnel are on recall each 
and every month since 9/11. We must have equipment and unit cohesion to 
keep personnel trained. This means--Navy Reserve equipment and Navy 
Reserve specific units with equipment.
Additional issues
            The Reserve Component as a worker pool
    Issue.--The view of the Reserve Component that has been suggested 
within the Pentagon is to consider the Reserve as of a labor pool, 
where Reservists could be brought onto Active Duty at the needs of a 
service and returned, when the requirement is no longer needed. It has 
also been suggested that an Active Duty member should be able to rotate 
off active duty for a period, spending that tenure as a Reservist, 
returning to active duty when family, or education matters are 
corrected.
    Position.--The Guard and Reserve should not be viewed as a 
temporary-hiring agency. Too often the Active Component views the 
recall of a Reservist as a means to fill a gap in existing active duty 
manning. If the active Navy is undermanned for its assigned global 
mission, it is the responsibility of the Pentagon and the Congress to 
address those shortfalls in end-strength. If the Navy wishes to have a 
surge capability in strategic reserve, then it needs to allocate those 
missions to the Navy Reserve, and increase the end-strength of the Navy 
Reserve to support those capabilities.
                          equipment ownership
    Issue.--An internal study by the Navy has suggested that Naval 
Reserve equipment should be transferred to the Navy. At first glance, 
the recommendation of transferring Reserve Component hardware back to 
the Active component appears not to be a personnel issue. However, 
nothing could be more of a personnel readiness issue and is ill 
advised. Besides being attempted several times before, this issue needs 
to be addressed if the current National Security Strategy is to 
succeed.
    Position.--The overwhelming majority of Reserve and Guard members 
join the RC to have hands-on experience on equipment. The training and 
personnel readiness of Guard and Reserve members depends on constant 
hands-on equipment exposure. History shows, this can only be 
accomplished through Reserve and Guard equipment, since the training 
cycles of Active Components are rarely if ever--synchronized with the 
training or exercise times of Guard and Reserve units. Additionally, 
historical records show that Guard and Reserve units with hardware 
maintain equipment at or higher than average material and often better 
training readiness. Current and future war fighting requirements will 
need these highly qualified units when the Combatant Commanders require 
fully ready units.
    Reserve and Guard units have proven their readiness. The personnel 
readiness, retention, and training of Reserve and Guard members will 
depend on them having Reserve equipment that they can utilize, 
maintain, train on, and deploy with when called upon. Depending on 
hardware from the Active Component, has never been successful for many 
functional reasons. The NRA recommends the committee strengthen the 
Reserve and Guard equipment appropriation in order to maintain 
optimally qualified and trained Reserve and Guard personnel.
    The Four ``P's'' can identify the issues that are important to 
Reservists: Pay, Promotion, Points, and Pride.
  --Pay and compensation needs to be competitive. As Reservists have 
        dual careers, they have had other sources of income. But, this 
        is changing with continuous recalls, which they are glad to do. 
        If pay and compensation are out of sync, or expenses too high, 
        a Reservist knows that time may be better invested elsewhere.
  --Promotions need to be fairly regular, and attainable. Promotions 
        have to be accomplished through an established system and be 
        cyclically predictable. We are learning that leadership roles 
        are as important as ever, and that leaders take a long time to 
        develop and if those leadership skills are not constantly 
        exercised, they will atrophy.
  --Points reflect a Reservist's ambitions to earn retirement. The 
        recently passed reserve retirement benefit is a number one 
        priority. Retirement points and the reserve retirement 
        provision are as creditable a reinforcement as pay. Guard and 
        Reserve members are serving their second and third times in 
        OIF/OEF; this is an important issue to them and their families.
  --Pride is a combination of professionalism, parity and awards: doing 
        the job well with requisite equipment, and being recognized for 
        one's efforts. While people may not remember exactly what you 
        did, or what you said, they will always remember how you made 
        them feel.
    In summary, we believe the committee needs to address the following 
issues for Navy Reservists in the best interest of our national 
security:
  --Fund C-40A for the Navy Reserve, per the fiscal year 2009 
        Supplemental; we must replace the C-9s and replace the C-20Gs 
        in Hawaii and Maryland.
  --Fund six C-130Js for the Navy Reserve, per the CNO unfunded list.
  --Increase funding for Naval Reserve equipment in NGREA Naval Coastal 
        Warfare Equipment
  --Establish an End-strength cap of 68,000 as a floor for end strength 
        to Navy Reserve manpower--providing for surge-ability and 
        operational force.
    We thank the committee for consideration of these tools to assist 
the Guard and Reserve in an age of increased sacrifice and utilization 
of these forces.
    Thank you for your ongoing support of the Nation, the Armed 
Services, the United States Navy, the United States Navy Reserve, and 
the fine men and women who volunteer to defend our country.

    Senator Inouye. Now our next witness is the Medical 
Liaison, Mesothelioma Applied Research Foundation, Ms. Mary 
Hesdorffer.
STATEMENT OF MARY HESDORFFER, MEDICAL LIAISON, 
            MESOTHELIOMA APPLIED RESEARCH FOUNDATION
    Ms. Hesdorffer. Chairman Inouye, Ranking Member Stevens, 
and the distinguished members of the Defense Appropriations 
subcommittee: Thank you for allowing me to testify in front of 
you. I'm a nurse practitioner and I work as the Medical Liaison 
for the Mesothelioma Applied Research Foundation. We're 
dedicated to advancing medical research to improve treatments 
for mesothelioma.
    Mesothelioma, as you may know, is one of the rarest and 
most aggressive cancers facing people today. It attacks the 
linings of the lung, the pericardium, and the abdomen. It's 
caused by direct exposure to asbestos. Before we knew the 
properties of asbestos, it was used widely because it had 
wonderful properties. It was used in engines, nuclear reactors, 
decking materials, pipe coverings, hull insulation, pumps, 
gaskets, boilers, distillers, evaporators, rope packing, and 
brakes and clutches on winches. It was used all over the Navy 
ships, even in living spaces, where pipes overhead were lined 
with asbestos. It was used on planes, on military vehicles, 
insulating materials in quonset huts.
    As a result, millions of defense people have been exposed 
to asbestos. In one study in Groton, Connecticut, 100,000 
people who worked in the Navy shipyard were exposed there to 
asbestos.
    I have specialized in treating this disease. There is only 
one approved regimen to treat the disease and the life 
expectancy with that regimen is only 14 months.
    I want to just speak to you a little bit about some of the 
military people who have been exposed and what's happened to 
them. Chief Naval Officer Admiral Elmo Zumwalt, who led the 
Navy during Vietnam, was diagnosed with mesothelioma and died 
within 3 months.
    Another fellow, Lewis Deets, at the age of 18 volunteered 
to serve in Vietnam. He was not drafted; he volunteered. He was 
serving on the U.S.S. Kitty Hawk. A fire broke out in the 
engine room. The engine was covered with asbestos because 
that's how we insulated the boilers. That happened in 1965. He 
developed the disease, he was dead within 4 months.
    Bob Tregget is now alive. He's 57 years old. He served on a 
nuclear submarine. He developed mesothelioma. He's undergone 
surgery where they removed his lung, the lining of his lung, 
the lining of his heart, part of his diaphragm in an effort to 
save his life. The tumor has now since recurred on his other 
lung.
    In addition to these heroes exposed 10 to 50 years ago, 
because we have a very long latency period with this disease, 
at 9/11 we had tons of asbestos that was exposed, that was 
released into the air. My son Alex Plitsas, who is currently 
serving now in Sadr City, was a volunteer fireman at the time 
and was exposed to asbestos during 9/11. So this is very dear 
to my heart, in addition to the known asbestos exposure in Iraq 
today.
    I want to thank the subcommittee because this year in 2008 
you appropriated money and you allowed us to be part of your 
reviewed medical research program. We're urging you again to 
include us in the year 2009. I need to provide hope to my 
patients that I'm in daily contact with, and right now it's so 
difficult to give them hope with a disease that has no cure and 
has only one approved treatment. We desperately need your 
research dollars for all the vets and for all the people who 
have served their country so valiantly in the past and in the 
future.
    Thank you.
    Senator Inouye. I thank you very much, Ms. Hesdorffer. 
We'll do what we can.
    Ms. Hesdorffer. Thank you.
    [The statement follows:]
                 Prepared Statement of Mary Hesodorffer
    Chairman Inouye, Ranking Member Stevens, and the distinguished 
members of the U.S. Senate Defense Appropriations subcommittee: Thank 
you for this opportunity, a week after Memorial Day, to address a 
tragic disease that disproportionately kills our veterans and heroes. 
My name is Mary Hesdorffer. I am a nurse practitioner and the Medical 
Liaison for the Mesothelioma Applied Research Foundation, the national 
nonprofit collaboration of researchers, physicians, advocates, 
patients, and families dedicated to advancing medical research to 
improve treatments for mesothelioma.
                         malignant mesothelioma
    Mesothelioma or meso is an aggressive cancer of the lining of the 
lungs, abdomen or heart, caused by asbestos exposure. The tumor is 
among the most painful and fatal of cancers, as it invades the chest 
wall, destroys vital organs, and crushes the lungs.
            the ``magic mineral''--exposures were widespread
    As you may know, until its fatal toxicity became fully recognized, 
asbestos was regarded as the magic mineral. It has excellent 
fireproofing, insulating, filling, and bonding properties. By the late 
1930's and through at least the late 70's the Navy was using it 
extensively. It was used in engines, nuclear reactors, decking 
materials, pipe covering, hull insulation, valves, pumps, gaskets, 
boilers, distillers, evaporators, soot blowers, air conditioners, rope 
packing, and brakes and clutches on winches. In fact it was used all 
over Navy ships, even in living spaces where pipes were overhead and in 
kitchens where asbestos was used in ovens and in the wiring of 
appliances. Aside from Navy ships, asbestos was also used on military 
planes extensively, on military vehicles, and as insulating material on 
quonset huts and living quarters.
    As a result, millions of military defense personnel, servicemen, 
and shipyard workers, were heavily exposed. A study at the Groton, 
Connecticut, shipyard found that over 100,000 workers had been exposed 
to asbestos over the years at just this one shipyard. The disease takes 
10 to 50 years to develop, so many of these heroes who served our 
country are just now becoming sick.
                     mesothelioma takes our heroes
    For the past 12 years I have specialized in meso, working with 
researchers, caring for patients, developing clinical trials to attempt 
to treat them, and working to manage their pain. I know who they are 
and what they suffer. These are the people who served our country's 
defense and built its fleet. They are heroes like former Chief Naval 
Officer Admiral Elmo Zumwalt, Jr., who led the Navy during Vietnam and 
was renowned for his concern for enlisted men. Despite his rank, 
prestige, power, and leadership in protecting the health of Navy 
service men and veterans, Admiral Zumwalt died at Duke University in 
2000, just 3 months after being diagnosed with mesothelioma.
    Lewis Deets was another of these heroes. Four days after turning 
the legal age of 18, Lewis joined the Navy. He was not drafted. He 
volunteered, willingly putting his life on the line to serve his 
country in Vietnam. He served in the war for more than 4 years, from 
1962 to 1967, as a ship boilerman. For his valiance in combat 
operations against the guerilla forces in Vietnam he received a Letter 
of Commendation and The Navy Unit Commendation Ribbon for Exceptional 
Service. In December 1965, while Lewis was serving aboard the U.S.S. 
Kitty Hawk in the Gulf of Tonkin, a fierce fire broke out. The boilers, 
filled with asbestos, were burning. Two sailors were killed and 29 were 
injured. Lewis was one of the 29 injured; he suffered smoke inhalation 
while fighting the fire. After the fire, he helped rebuild the boilers, 
replacing the burned asbestos blocks. In 1999, he developed 
mesothelioma and died 4 months later at age 55.
    Bob Tregget is a 57-year-old retired sailor who was diagnosed with 
mesothelioma a few years ago. Bob was exposed to asbestos as a sailor 
in the U.S. Navy from 1965 to 1972, proud to serve his country aboard a 
nuclear submarine whose mission was to deter a nuclear attack upon the 
United States. To treat his disease, Bob had what today is the state-
of-the-art for mesothelioma treatment. He had 3 months of systemic 
chemotherapy with a new, and quite toxic, drug combination. Then he had 
a grueling surgery, to open up his chest, remove his sixth rib, 
amputate his right lung, remove the diaphragm and parts of the linings 
around his lungs and his heart. After 2 weeks of postoperative 
hospitalization to recover and still with substantial postoperative 
pain, he had radiation, which left him with second degree burns on his 
back, in his mouth, and in his airways. Recently, the tumor returned on 
his left side, but Bob is hanging on.
    Admiral Zumwalt's, Boilerman Deets', and sailor Tregget's stories 
are not atypical. I have treated many more meso patients who were 
exposed in the Navy, or working in a shipyard. Almost 3,000 Americans 
die each year of meso, and one study found that one-third of patients 
were exposed on U.S. Navy ships or shipyards. That's 1,000 U.S. 
veterans and shipyard workers per year, lost through service to 
country, just as if they had been on a battlefield.
    In addition to these heroes, exposed 10 to 50 years ago and 
developing the disease today, many more are being exposed now and will 
develop the disease in the next 10 to 50 years. There is grave concern 
now for the heroic first responders from 9/11. My son, Alex Plitsas, 
who is currently serving in Iraq, was one of those responders so this 
is very close to my heart. The EPA now acknowledges that hundreds of 
tons of asbestos were released into the atmosphere, and that 
firefighters, police officers, paramedics, construction workers, and 
volunteers who worked in the rubble at Ground Zero are at greatest 
risk. Residents in close proximity to the WTC towers and those who 
attended schools nearby are also at risk.
    Asbestos exposures have been reported among the troops now in Iraq. 
The destruction wrought by Katrina has potentially exposed countless 
more. Asbestos is virtually omni-present in all the buildings 
constructed before the late 1970s. The utility tunnels in this very 
building have dangerous levels. While active asbestos usage is not as 
heavy today as in the past, even low-dose, incidental exposures can 
cause meso. Congressman Bruce Vento, the distinguished member from 
Minnesota, happened to work near an asbestos-insulated boiler in a 
brewery in Minneapolis for two summers while putting himself through 
college. As a result, he died of meso in 2000. His wife Sue Vento now 
champions efforts to raise awareness about this deadly disease and the 
need for a Federal investment in research toward a cure, and testified 
before you last year. For those who could develop mesothelioma as a 
result of all these current exposures, the only hope is effective 
treatment.
                 mesothelioma funding has not kept pace
    Despite this deadly toll on our heroes and patriots, meso has been 
an orphan disease.
    With the huge Federal investment in cancer research through the 
National Cancer Institute (NCI), and billions spent in biomedical 
research through the Department of Defense (DOD) Congressionally 
Directed Research Program, we are winning the war on cancer and many 
other diseases. But for meso, the NCI has provided virtually no 
funding, in the range of only $1.7 million to $4 million annually over 
the course of the last 5 years, and from 1992 until last year, the DOD 
did not invest in any meso research, despite the military-service 
connection. As a result, advancements in the treatment of mesothelioma 
have lagged far behind other cancers. With current treatment options, 
including aggressive surgical procedures, meso patients have an average 
survival of only 4-14 months, ranking it as one of the most aggressive, 
and deadly cancers that our veterans and others face today.
                           new opportunities
    But there is good news. A small but passionate community of 
physicians and researchers is committed to finding a cure. The decades-
long hopelessness that treatment was futile is no longer true. The FDA 
has now approved one drug shown to be effective against the tumor. 
Median survival on this drug averages 12.2 months. This is just the 
beginning as having one drug to treat this aggressive and fatal cancer 
is not enough. Most cancers have over a dozen drugs approved for 
treatment yet meso only has one! Biomarkers for meso are being 
identified and one of them received FDA approval just last year. Two of 
the most exciting areas in cancer research generally--gene therapy and 
anti-angiogenesis--look particularly promising in meso.
    With its seed-money grant funding, the Foundation is supporting 
research in these and other areas. To date we have funded over $5 
million to investigators working on novel, promising research projects. 
Researchers are learning which genes and proteins can give a signature 
for the disease, and which of these also control the pathways that will 
turn a normal cell into a mesothelioma. Now we need the Federal 
Government to partner with us in order to make sure that promising 
findings receive the funding necessary to be fully developed into 
effective treatments for patients. The scientific community believes 
that we can continue to advance the treatment of this disease and 
increase its survivability if the Federal Government makes a concerted 
investment.
    Last year, there was another very hopeful step. At the direction of 
your committee, the DOD last year--for the first time ever--included 
meso as an area of emphasis in the DOD's Peer Reviewed Medical Research 
Program. In fiscal year 2008, this will enable mesothelioma researchers 
to compete for Federal funds based on the scientific merit of their 
work, and provide urgently needed resources to explore new treatments 
and build a better understanding this disease. The DOD just released 
its Program Announcement and the Foundation has heard from dozens of 
meso researchers who are interested in applying.
    To keep the momentum of research interest going, for fiscal year 
2009 we ask you to again include meso in the list of congressionally 
identified priority research areas. This will not expand the Federal 
budget. But it will crucially enable mesothelioma researchers to 
compete for existing Federal funds based on the scientific merit of 
their work. This will translate directly to saving lives and reducing 
suffering of patients and families battling meso. We look to the Senate 
Defense Appropriations subcommittee to continue to provide leadership 
and hope to the service men and women and veterans who develop this 
cancer after serving our Nation. Thank you for the opportunity to 
provide testimony before the subcommittee and we hope that we can work 
together to develop life-saving treatments for mesothelioma.

    Senator Inouye. Our next panel----
    Senator Stevens. Can I just ask one question?
    Senator Inouye. Please do.
    Senator Stevens. Mr. Foil, I'm very interested in your 
testimony because there's an increasing number of young people 
that are involved in automobile accidents that come out with 
brain injuries. You have this Defense and Veterans Brain Injury 
Center. Is that online? Can parents of children who've been 
injured in automobile accidents go online and get some idea 
what kind of treatment's available through your center?
    Mr. Foil. Yes, they can. We field calls like that all the 
time, Senator. That's the way my child was hurt. So I'll 
probably get several hundred calls each year about this, 
saying, where can we go, what can we do? But yes. And there are 
a number of agencies around the country who can do that for 
children. But it depends on the severity of the injury where 
they should go. There are lots of good level one trauma centers 
in the country today, but once you get out of that it's who 
knows.
    Senator Stevens. Well, we're seeing more and more brain 
injuries in young people in single car accidents where, you 
know, we have ice and what-not, they go off the road. But even 
worse in terms of when you hit----
    Mr. Foil. Are you talking about in Alaska, Senator?
    Senator Stevens. Yes.
    Mr. Foil. It's the number one cause of brain injury among 
young people in this country, car accidents. No question.
    Senator Stevens. I want to make sure that--I'm willing to 
help you, but I want to make sure that the information that's 
there is available to non-veterans as well as the veterans. I 
know you can't treat them, but at least some knowledge.
    Mr. Foil. There is information available. They can go to a 
number of web sites. But the Defense and Veterans Brain Injury 
Center really doesn't do that. But at NBIRTT we try and do what 
we can. We are small. We don't even have an office and we all 
do our stuff volunteer.
    Senator Stevens. Okay.
    Mr. Foil. By the way, Senator Inouye, congratulations on 
your new marriage, and much happiness.
    Senator Stevens. Well, I would hope there would be 
someplace that people could go for that, because, as you say, 
your son was involved----
    Mr. Foil. Yes.
    Senator Stevens. But I think these people, particularly in 
rural areas, have to know what to do.
    Mr. Foil. It's a serious problem, particularly when you are 
in rural areas, because those first few hours, that means 
everything.
    Senator Stevens. That's right.
    Mr. Foil. So thank you for your comments.
    Senator Stevens. Thank you very much.
    Thank you, Senator.
    Senator Inouye. Thank you.
    Our last panel: Mr. Ronald Whitten, Mr. Richard Dean, 
Commander John Class, Dr. Wanda Wilson, and Mr. Bob Wolz.
    Our next witness is Mr. Ronald Whitten of the Lymphoma 
Research Foundation.
STATEMENT OF RONALD B. WHITTEN, BOARD MEMBER, GEORGIA 
            CHAPTER, LYMPHOMA RESEARCH FOUNDATION
    Mr. Whitten. Chairman Inouye, Ranking Member Stevens: Thank 
you for the opportunity to speak before you today regarding 
blood cancer research. My name is Ronald Whitten. I am a member 
of the Georgia chapter of the Lymphoma Research Foundation. I 
am also a lymphoma survivor. I was diagnosed in late 1997 with 
stage four non-Hodgkin's lymphoma, occurring above and below my 
diaphragm with bone marrow involvement. An aggressive course of 
treatment led to my complete clinical remission in August 1998.
    The good news is that many of us with less aggressive or 
indolent forms of lymphoma are living longer. This would not be 
possible without the research being conducted by scientists 
within the cancer research community.
    The disconcerting news is that there is no known cure for 
these and many other types of lymphoma. I consider myself very 
fortunate to have been blessed with continued years of 
marriage, family, and the special joy of grandparenting. But 
when I reflect on my survivorship, I am left with mixed 
feelings, knowing that so many people have lost their lives to 
this disease.
    I am saddened by our failure to have done more to find a 
cure. Yet I remain optimistic that some day we will win this 
long war on cancer.
    We'd like to express our appreciation to Congress and to 
this subcommittee specifically for its contributions to the 
battle against cancer. Today we are requesting that the 
subcommittee supplement existing cancer research efforts at the 
Department of Defense by establishing a $10 million dedicated 
stand-alone blood cancer research program. We're asking that 
the new research program encompass all forms of blood cancer, 
including lymphoma.
    We are confident that a research program focused on the 
blood cancers will yield tremendous benefits for the 
approximately 150,000 Americans who will be diagnosed with 
blood cancer this year and the hundreds of thousands who are 
currently living with this disease.
    Perhaps most importantly, the blood cancers are a 
compelling target for DOD investment because of the association 
between military service and the development of certain blood 
cancers. Military personnel may face a significant hazard from 
certain environmental exposures and therefore be at heightened 
risk for a blood cancer diagnosis. The linkage between exposure 
to one particular herbicide, Agent Orange, and blood cancer has 
been established by a special committee of the IOM. As a 
veteran of the Vietnam era and a health professional for more 
than 40 years, I have known and observed far too many veterans 
suffering from a range of psychological disorders and 
physiological diseases, including cancer.
    For many years, we were left with speculation, not science. 
Now we have clear recognition of the increased risk which some 
of our veterans are facing for blood and other cancer forms. 
The progress made by existing research efforts is generating 
optimism that some day a cure will be found, but adequate 
investment must be made to reach our goal. That is why we urge 
the subcommittee to expand the existing cancer research 
programs at the DOD to include this crucial blood cancer 
research component. Such a commitment would be complementary to 
the ongoing efforts by the NIH and private groups like the 
Lymphoma Research Foundation.
    Mr. Chairman, I thank you again for the opportunity to 
testify.
    Senator Inouye. Thank you very much, Mr. Whitten.
    [The statement follows:]
                Prepared Statement of Ronald B. Whitten
    Chairman Inouye, Ranking Member Stevens, and members of the 
subcommittee, thank you for the opportunity to speak before you today 
regarding research on lymphoma and other blood-related cancers. My name 
is Ronald Whitten. I am a board member of the Georgia Chapter of the 
Lymphoma Research Foundation (Foundation) and a member of the national 
organization's Public Policy Committee. The Lymphoma Research 
Foundation is the Nation's largest voluntary health organization 
devoted exclusively to funding lymphoma research and providing patients 
and healthcare professionals with critical information on the disease. 
The Foundation's mission is to eradicate lymphoma and serve those 
touched by this disease. To date, the Foundation has funded over $35 
million in lymphoma research, ranging from basic laboratory science to 
translational research.
    I am a lymphoma survivor; I was diagnosed in late 1997 with Stage 
IV non-Hodgkin lymphoma occurring above and below my diaphragm, with 
bone marrow involvement.
    A course of aggressive chemotherapy was followed by the 
administration of a biological agent, leading to a complete clinical 
remission in August of 1998. The good news is that many of us with less 
aggressive, or indolent, forms of lymphoma are living longer. This 
would not be possible without the research being conducted by 
scientists and physicians within the cancer research community. The 
disconcerting news is that there is no known cure for these and many 
other types of lymphoma.
    Lymphoma is a disease notorious for reoccurrence. Patients often 
repeat a cycle of remission, relapse, and re-treatment. The 5-year 
survival rate for non-Hodgkin lymphoma is 63 percent and the 10-year 
survival rate is only 51 percent. The incidence rate for the disease 
continues to grow. I consider myself very fortunate to have been 
blessed with continued years of marriage, family and the special joy of 
grand parenting. Likewise, to have been able to continue my life's work 
as a university professor, licensed clinical social worker and 
healthcare professional has been immensely rewarding.
    When I reflect on my survivorship, I am left with mixed feelings, 
knowing that so many children and young men and women have lost their 
lives to this disease. I am saddened by our failure to have done more 
to find a cure. Yet I remain optimistic that someday, we will win this 
long war on cancer.
    Today, we would like to express our appreciation to Congress and to 
this subcommittee specifically, for its contribution to the battle 
against cancer and leadership in supporting cancer research. The 
Department of Defense (DOD) has a distinguished history of conducting 
cutting edge research. Specifically, the Congressionally Directed 
Medical Research Program (CDMRP) has supported significant advancements 
in the study of several chronic diseases including breast, prostate, 
and ovarian cancers.
    We believe that a similarly focused research effort could lead to 
new approaches in the study and treatment of lymphoma. That is why we 
are requesting that the subcommittee supplement existing research 
efforts at the DOD by establishing a $10 million dedicated, stand-alone 
blood cancer research program. While my personal experience and the 
mission of the Lymphoma Research Foundation extends only to lymphoma, 
we are asking that the new research program encompass all forms of 
blood cancer, including leukemia, non-Hodgkin lymphoma, Hodgkin 
lymphoma, multiple myeloma, and myelodysplastic syndromes. There are 
benefits to a cross-cutting research effort that includes all of these 
diseases, not the least of which is maximizing Federal research dollars 
in the face of diminishing resources.
    It is important to note that many treatments initially developed 
for the blood cancers routinely lend themselves to the treatment of 
other types of cancer. Lymphoma is often called the ``Rosetta Stone'' 
of cancer research because it has helped unlock the mysteries of 
several other types of cancer. For example, a number of chemotherapy 
agents that are now used in the treatment of a wide range of solid 
tumors were originally used in the treatment of blood cancer. 
Therefore, an investment in blood cancer research will often contribute 
to the study and development of treatments for many other forms of 
cancer.
    Blood cancer research has been funded in the past through the Peer 
Reviewed Medical Research Program, an omnibus research initiative 
within the CDMRP. Although quality research has been supported in this 
manner, the ad hoc funding system has been insufficient to support a 
dynamic blood cancer research program. A stable and consistent source 
of funding is critical if we are to encourage researchers and 
institutions to pursue projects that will identify the origins of these 
diseases and develop treatments for the hundreds of thousands of 
Americans currently suffering from blood cancer.
                       the burden of blood cancer
    Blood cancers are the fourth most commonly-diagnosed cancer in the 
United States; as many as 150,000 new cases of blood cancer and 
myelodysplastic syndrome will be diagnosed this year alone. Of these 
cases, over 74,000 will result in a lymphoma diagnosis.
    Lymphoma is the most common blood cancer and the third most common 
cancer of childhood. In this decade, we have witnessed an over 19 
percent increase in new lymphoma cases, at a pace greater than the 
number of new cancer diagnoses overall.
    Taken together, the hematological or blood-related cancers rank 
second in cancer mortality. More than 53,000 Americans will die from a 
blood cancer in 2008, while 41,000 will die from breast cancer, 29,000 
from prostate cancer and 16,000 from ovarian cancer. Survivors of blood 
cancer also bear a significant burden. Individuals who have been 
treated for a blood cancer may suffer a variety of adverse effects as a 
result of their treatment, including second malignancies, organ 
dysfunction, psycho-social disorders like depression, and other health-
related problems.
                     blood cancer and the military
    While we do not know the cause of most blood cancers, there is 
increasing information to suggest a link between some environmental 
carcinogens, pesticides, herbicides and bacteria, and the risk of 
developing blood cancer. Military personnel may face a significant 
hazard from such environmental exposures and therefore may be at 
heightened risk for a blood cancer diagnosis. The linkage between 
exposure to one particular herbicide--Agent Orange--and blood cancer 
has been established by the Committee to Review the Health Effects in 
Vietnam Veterans of Exposure to Herbicides, a special committee of the 
Institute of Medicine.
    As a veteran of the Vietnam era and a healthcare professional of 
more than 40 years, I have known and observed far too many veterans 
suffering from a range of social and psychological disorders and 
physiological diseases, including cancer. For many years we were left 
with speculation, not science. Now we have clear recognition of the 
increased risk which some of our veterans are facing for blood and 
other cancer forms. We must do more to better serve this population and 
one important way to do this is to expand efforts to identify improved 
treatments through research.
                  the promise of blood cancer research
    This is a particularly critical time to discuss investment in 
research: in the past decade, scientists have made significant 
breakthroughs, bringing blood cancer research fully into the 
translational era. Recent advances in the study of lymphoma have 
provided new insight into the etiology and treatment of the disease.
    One such development has occurred in the study of mantle cell 
lymphoma, an aggressive and rare form of the disease that less than 15 
years ago wasn't even recognized as a separate kind of lymphoma. As a 
result, survival with conventional treatment was so low that patients 
could only expect to live for 3 years. Fortunately, advances in 
research funded by the Foundation have provided a better understanding 
of this disease: since its inception in 2005, the Foundation's Mantle 
Cell Consortium has created a broad program including the work of 
nearly 100 researchers that focuses entirely on this single type of 
blood cancer. As a direct result of this targeted research, patient 
treatment response rates are improving and while we are still years 
away from discussing a cure, mantle cell patients are living longer and 
fuller lives.
    Similarly, advances are being made in the study and treatment of 
follicular lymphoma, the second most common form of non-Hodgkin 
lymphoma. Standard care for follicular lymphoma has often included a 
``wait and watch'' approach, in part because the treatments available 
to patients have numerous negative side effects. As a result, years of 
uncertainty for patients and their families can follow a diagnosis. But 
with the advent of new therapies like Rituxan, the drug that helped to 
bring me into remission, patients now have more options, and most 
importantly, they have more time. More time with their families, more 
time to fulfill promising careers, more time to live out their dreams.
    As we consider the possibilities that new treatment options bring, 
we cannot overlook that for many patients, managing their disease is a 
full-time job. The chronic nature of blood cancer requires diligent 
monitoring accompanied by difficult and often painful treatment. And 
unfortunately, even after remission is achieved, patients and survivors 
are often left dealing with a host of side effects in addition to the 
fear of relapse or a secondary malignancy. A concerted effort to study 
new blood cancer treatments could result in fewer disease 
complications, improve the quality of life of blood cancer patients and 
assist them as they contend with the long-lasting symptoms of their 
disease.
    Research has enabled great strides in the study and treatment of 
blood cancer, yet tens of thousands of patients are still left with 
limited options upon diagnosis. And despite the consistent progress 
being made, these diseases remain incurable. A strong, ongoing 
investment in basic and clinical research is vital if we are to work 
toward identifying more effective treatments and eventually a cure for 
every form of blood cancer.
                               conclusion
    Our Nation faces many challenges, but we believe that a compelling 
case can be made for increasing Federal investment in blood cancer 
research. Learning more about the basic biology of blood cancer will 
show us how to identify disease processes and intervene at the earliest 
possible stages, limiting suffering and the possibility of death.
    The progress made by existing research efforts is generating 
optimism that someday, a cure will be found. But adequate investment 
must be made to reach our goal. That is why we urge the subcommittee to 
expand the existing cancer research programs at the DOD to include this 
crucial blood cancer research component. Such an effort would be 
complimentary to the ongoing efforts by the National Institutes of 
Health and private organizations like the Lymphoma Research Foundation. 
We believe that the results of such an initiative could yield 
substantial benefit not only for members of the military and for our 
Nation's veterans, but for every American facing a blood cancer 
diagnosis.
    As a lymphoma survivor and a volunteer in these endeavors to find a 
cure for lymphoma, I thank you again for the opportunity to testify. I 
am ready to answer your questions about lymphoma, and the Foundation 
stands ready to provide additional information on existing lymphoma 
research and promising avenues for collaboration on lymphoma and other 
blood cancer-specific research initiatives.

    Senator Inouye. Now may I call upon the Chief Executive 
Officer, Air Force Sergeants Association, Mr. Richard Dean.
STATEMENT OF CMSGT JONATHAN E. HAKE, USAF (RETIRED), 
            DIRECTOR OF MILITARY AND GOVERNMENT 
            RELATIONS, AIR FORCE SERGEANTS ASSOCIATION
    Mr. Hake. Good morning, Chairman Inouye. Mr. Dean is at 
Hanscomb Air Force Base today. I'm John Hake, the Director of 
Military and Government Relations with the Air Force Sergeants 
Association (AFSA). Ranking Member Stevens, on behalf of the 
125,000 members of the AFSA, I thank you for your continued 
support of airmen and their families.
    The AFSA is deeply concerned about drawing down end 
strength to fund Air Force weapons systems and modernization. 
The most valuable weapon that America has in its arsenal is the 
men and women that serve. We believe that a course correction 
is needed to avert long-term consequences that have already 
begun to adversely affect morale, retention, and combat 
readiness, and we strongly support increasing and fully funding 
Air Force end strength by 14,000.
    The AFSA is also particularly pleased by the tremendous 
strides that are made to implement and fund the wounded warrior 
programs that were spoken of earlier. Currently 15 percent of 
active duty and 25 percent of the Reserve forces are women. 
Many are serving or have served in Iraq and Afghanistan. We 
support increasing the VA budget to address the unique needs of 
these veterans now and into the future.
    We are deeply concerned about the pending Medicare 
reimbursement rate cuts. When these go into effect there will 
be a profound adverse impact on those that depend on TRICARE. 
During recent field visits our members shared stories about how 
the anticipated cuts were already causing providers, even in 
military-friendly communities like San Antonio and Colorado 
Springs, from accepting TRICARE patients. We strongly urge you 
to provide the necessary funding to avert these projected rate 
cuts for the military members and for the Medicare 
beneficiaries.
    In the area of veterans education benefits, the AFSA is 
extremely pleased so many in Congress are interested in 
reforming veterans education. We know this will have an 
associated cost and respectfully offer the return on investment 
is not just good for the military member and their family, it's 
good for America.
    There are many proposals worthy of consideration and we 
believe two key elements should be included. First, make it 
transferable. Today's all-volunteer force shares the same 
profound love of country and patriotism as previous 
generations. Where they differ is in their education. In many 
cases these men and women have some college credit before 
volunteering and they earn more as they serve. We believe they 
should have the flexibility to use their earned benefit however 
best fits their situation.
    We commend the Senate for making a technical adjustment 
addressing transferability in a recent supplemental bill. 
However, we believe if you truly want to see transferability 
implemented it must be fully funded and not left to the 
service's discretion.
    AFSA understands that a line must be drawn to determine 
eligibility for the revised benefit, which brings me to my 
second point--vesting. We believe those with 36 months time-in-
service on September 12, 2001, should be immediately eligible 
for the entire benefit, and phased in for others as time and 
service requirements are met. This Nation's experienced troops, 
officers and enlisted alike, rapidly responded on 9/11, 
leading, training, and inspiring those that followed and joined 
after the attack. AFSA urges true bipartisan cooperation and 
collaboration in creating an updated education benefit 
reflecting the sacrifices of today's all-volunteer force.
    Again, thank you, Mr. Chairman, for this opportunity to 
share our perspective.
    Senator Inouye. Thank you very much, sir.
    [The statement follows:]
                 Prepared Statement of Jonathan E. Hake
    Mr. Chairman and distinguished committee members, on behalf of the 
125,000 members of the Air Force Sergeants Association (AFSA), I thank 
you for your continued support of airmen and their families. I 
appreciate the opportunity to present our perspective on priorities for 
the fiscal year 2009 defense appropriations.
    The AFSA represents Air Force Active Duty, Air National Guard, Air 
Force Reserve Command, including active, retired, and veteran enlisted 
airmen and their families. We are grateful for this subcommittee's 
efforts, and I can't overstate the importance your work is to those 
serving this Nation.
    You have a daunting task before you and shoulder tremendous 
responsibility as you wisely appropriate limited resources based on 
many factors. The degree of difficulty deciding what can, and what 
cannot, be addressed isn't lost on us. It is significant.
                           air force manpower
    The AFSA strongly believes the aging fleet of legacy Air Force 
systems needs to be modernized. However, we also know the truly most 
valuable weapon America has in its arsenal are those serving this great 
Nation, especially the men and women wearing chevrons of the enlisted 
grades.
    We are deeply concerned about the approach taken to drawdown Air 
Force manpower to fund system modernization and recapitalization. 
Although well-intended, it does not appear to have yielded the results 
envisioned. Some efficiency was gained as airmen exercised innovation 
and continuous process improvement to accomplish missions, reflecting a 
remarkable ``can-do'' spirit.
    Greater operational demands have expanded over this same time--
fielding increased intelligence, reconnaissance, and surveillance (ISR) 
resources, supporting the newest combatant command in Africa, growing 
capabilities to ward off threats from the cyber domain and 
accomplishing the expanding workload associated with more inspections 
and maintenance to keep aging airframes ready. All this, and more, is 
being done with fewer people--it is straining the force and their 
families.
    The AFSA believes a course correction is needed to avert severe 
adverse, long-term consequences that has already begun to effect 
morale, retention, and combat readiness. We strongly support increasing 
and fully funding Air Force end strength by 14,000.
                            quality of life
    If we expect to retain this precious resource we must provide them, 
and their families, with facilities that reflect their level of 
commitment and sacrifice. This impacts their desire to continue serving 
through multiple deployments and extended separations.
    This Nation devotes significant resources training and equipping 
America's sons and daughters--a long-term investment--and that same 
level of commitment should be reflected in the facilities where they 
live, work, and play.
    We caution deferring these costs, especially at installations 
impacted by base realignment and closure decisions and mission-related 
shifts.
    We applaud congressional support for military housing privatization 
initiatives. This has provided housing at a much faster pace than would 
have been possible through military construction alone.
    The AFSA urges Congress to fully fund appropriate accounts to 
ensure all remaining installations eliminate substandard housing as 
quickly as possible. Those devoted to serving this country deserve 
nothing less.
    Tremendous strides have been made to improve access to quality 
child care and fitness centers on military installations, and we are 
grateful to the Department of Defense and Congress for these collective 
efforts. There is still more work to be done. The demand for child care 
continues to grow as a larger percentage of military members have young 
children and a fit force is absolutely essential to enduring the rigors 
of service.
                  veterans affairs healthcare funding
    We believe the healthcare portion of Veterans Affairs (VA) funding 
should be moved to mandatory annual spending. One of this Nation's 
highest obligations is the willingness to fully fund VA health care, 
facilities, and other programs for those who have served in the past, 
are serving today and will serve in the future.
    There are many challenges facing veterans and we are encouraged by 
the initiatives centered on improving access, continuity of care and 
addressing the scars of war, some obvious and others not so, such as 
traumatic brain injuries and post traumatic stress disorders. We are 
particularly pleased by the tremendous strides made to implement and 
fund Wounded Warrior programs.
                    women veterans healthcare issues
    We applaud the actions of various committees and subcommittees to 
directly address the issue of the unique health challenges faced by 
women veterans. Between 1990 and 2000, the women veteran population 
increased by 33.3 percent from 1.2 million to 1.6 million, and women 
now represent approximately 7 percent of the total veteran population. 
By the year 2010, the VA estimates women veterans will comprise well 
over 10 percent of the veteran population. Currently women make up more 
than 15 percent of the active duty force and approximately 25 percent 
of the reserve force with thousands serving, or having already returned 
from serving, in Iraq and Afghanistan. The AFSA urges an increase to 
the VA budget so they can appropriately care for these veterans now and 
in the future.
                               impact aid
    Military leaders often use the phrase, ``we recruit the member, but 
we retain the family'' when talking about quality of life and 
retention. Impact Aid is a program at the very core of this premise, 
because it directly affects the quality of educational programs 
provided to the children of military service members.
    These children lead unique lives, fraught with challenges 
associated with frequent changes in schools, repeatedly being uprooted 
and having to readjust to new communities and friends. Worrying about 
what resources might or might not be available to school administrators 
should not be yet another concern heaped upon them and their parents.
    The Impact Aid program provides Federal funding to public school 
districts with significant enrollment of students with a parent who is 
a member of the Armed Forces, living on and/or assigned to a military 
installation (federally owned land).
    The budget proposed by the administration calls for a freeze in 
funding for this important program. We find this to be very 
disappointing. The implicit statement in this action is military 
children are a lower priority than others in our Nation. We ask this 
committee to take the steps necessary to show our military men and 
women that the education of their children is as important as the next 
child.
    The AFSA is grateful Congress increased Impact Aid funding by $100 
million in fiscal year 2008 and urge similar action in fiscal year 
2009.
                           basic military pay
    Tremendous progress has been made over the last 15+ years to close 
the gap between civilian sector and military compensation. The AFSA 
appreciates these steady efforts and encourage further steps. We 
believe linking pay raises to the employment cost index (ECI) is 
essential to recruiting and retaining the best and brightest 
volunteers. AFSA urges support for efforts to adjust the annual pay 
raise formula to ECI+0.5 percent until the gap is completely 
eliminated. America's sons and daughters understand monetary 
compensation is important, but not the only factor that drives them to 
serve.
                     transition assistance programs
    The all-volunteer military force repeatedly answers this Nation's 
call to duty and at the end of their tours of duty, whether a few years 
or after decades of service, all transition to civilian life.
    Section 502 of the National Defense Authorization Act of Fiscal 
Year 1991, Public Law 101-510, codified in sections 1141-1143 and 1144-
1150 of title 10, United States Code, authorized comprehensive 
transition assistance benefits and services for separating service 
members and their spouses.
    From that legislation grew a valuable partnership between the 
Department of Labor and the Departments of Defense, Veterans Affairs, 
and Homeland Security to provide Transition Assistance Program 
employment workshops, VA Benefits Briefings and the Disabled Transition 
Assistance Program. These programs and briefings provide service 
members valuable job placement assistance, training opportunities, and 
education on veteran benefits so they make informed choices about post-
service opportunities.
    We urge this committee to continue fully funding transition 
assistance programs.
    In addition, we ask you to support the administration's initiative 
to pass legislation and fund a program that would create hiring 
preferences across Federal Government for military spouses. Under 
current law, veterans of America's Armed Forces are entitled to 
preferences over others in competitive hiring positions in the Federal 
Government. We believe the sacrifice of family members warrant this 
consideration as well.
        veterans education benefits--montgomery g.i. bill reform
    The AFSA is extremely pleased by the interest by so many in 
Congress to reform Montgomery G.I. bill (MGIB) educational benefits for 
those that have stepped up to defend America's interests at home and 
abroad.
    No doubt, making the MGIB a more viable benefit will have an 
associated cost and we unequivocally and respectfully offer the return 
on investment is not just good for the military member and his family, 
it is good for America.
    We would like to see the MGIB transformed into something like the 
post-WW II G.I. bill. This would go a long way toward recruiting this 
Nation's best and brightest to serve.
    There are many proposals worthy of consideration and there are at 
least six key elements we believe essential to the final product.
    First, we ask this committee to fund a program that pays for all 
books, tuition, and fees, indexed annually to reflect the actual cost 
of education.
    Second, eliminate the $1,200 user fee for the MGIB. Military 
members earn this benefit by virtue of their service.
    Third, make the the MGIB transferable to immediate family members. 
Today's all-volunteer force shares the same profound love of country 
and patriotism as previous generations. Where they differ is their 
education--in many cases these men and women have some college credit 
before volunteering to serve and often earn more credits during 
accession and technical training, setting them on a course of education 
and training that continues throughout their term of service. We 
believe they should have the flexibility to use their earned benefit 
however best fits their situation including transferring it to their 
immediate family--they sacrifice much and endure hardship too.
    Fourth, provide enlisted members who declined enrollment in the 
Veterans Educational Assistance Program (VEAP) during the late 70s and 
early 80s the opportunity to enroll in the new program. There is 
currently about 10,050 airmen remaining on active duty today in this 
situation. About 5,600 are enlisted members.
    They passed on the VEAP program because of bad advice, lack of 
foresight or with the hope of a better program to come later during 
their careers. Whatever the case, wouldn't it be a travesty to leave 
those who have devoted so many years of their lives to service be left 
without an educational benefit? Time is running out to make this right.
    Fifth, implement a Total Force MGIB. Members of the Guard and 
Reserve contribute to missions in Afghanistan, Iraq, and here at home--
more than 500,000 of these brave men and women have been called up 
since September 11, 2001, and more than 70,000 have pulled two or more 
tours of duty and yet they are denied educational benefits commensurate 
with their service.
    This would rely on two broad concepts--first, consolidate active 
duty and reserve MGIB programs under title 38 and second, restructure 
the MGIB benefit levels according to the level of military service 
performed.
    Sixth, we understand a line must be drawn to determine eligibility 
and a timeline established to earn 100 percent of the revised benefit. 
We simply offer those with 36 months or more time in service on 
September 12, 2001 should be immediately eligible for the entire 
benefit and phased in for others as time in service requirements are 
met. Our Nation's experienced troops--enlisted and officer alike--
rapidly responded on 9/11 leading, training, and inspiring those that 
joined post attack.
    Again, Mr. Chairman, we appreciate your efforts and thank you for 
this opportunity to share our perspective. We realize the many 
difficult decisions this committee must make and hope the information 
we presented proves helpful. As always, we remain ready to support you 
in matters of mutual concern.

    Senator Inouye. Our next witness is Commander John Class, 
Military Officers Association of America. Commander Class.
STATEMENT OF COMMANDER JOHN S. CLASS, USN (RETIRED), 
            DEPUTY DIRECTOR, GOVERNMENT RELATIONS FOR 
            HEALTH AFFAIRS, MILITARY OFFICERS 
            ASSOCIATION OF AMERICA
    Commander Class. Good morning, Mr. Chairman, Ranking Member 
Stevens. The Military Officers Association of America (MOAA) 
thanks you for the opportunity to appear before you today. MOAA 
is grateful for your past support in providing funds to offset 
DOD's planned TRICARE fee increases and ensuring pay raises 
that continue to bring military pay closer to that of their 
private sector counterparts.
    For the third year in a row, DOD has reduced the defense 
health program, assuming Congress would approve the proposed 
TRICARE fee hikes. Once again, Congress has rejected these 
proposals. MOAA urges the subcommittee to restore the $1.2 
billion shortfall that this has created and fully fund the 
defense health program.
    Every year since 1999, Congress has narrowed the gap 
between military and private sector pay. However, a 3.4 percent 
gap still exists. MOAA urges the subcommittee to fully fund a 
3.9 percent pay raise and avoid making the services absorb the 
extra 0.5 percent above what was requested in the President's 
budget.
    Over the past few years Congress, DOD, and the VA have made 
great strides with regard to care of our wounded warriors and 
their families. MOAA hopes the subcommittee will ensure full 
funding of joint DOD-VA initiatives, to include a top-down 
planning and execution of all seamless transition functions.
    Congress has recently moved to include legislation for a 
new GI bill. MOAA believes that a new GI bill will enhance the 
service's ability to recruit and retain quality service 
members. MOAA strongly recommends the subcommittee provide the 
necessary funding for the GI bill changes.
    Robust family support programs continue to be crucial to 
overall military readiness, especially with the demands of 
frequent and extended deployments. MOAA urges the subcommittee 
to support an increase in family support funding to meet the 
growing needs associate with the increased OPTEMPO.
    MOAA is also greatly concerned about the level of support 
services and quality of life programs for members and their 
families in areas affected by BRAC and global repositioning 
initiatives. MOAA urges the subcommittee to ensure sustainment 
of these programs at closing installations until all families 
have left and institution of these programs at gaining 
installations as servicemembers and their families arrive.
    A recent Government Accountability Office (GAO) report 
confirmed that DOD has overcharged those Guard and Reserve 
members who purchased TRICARE Reserve Select healthcare 
coverage. Both Armed Services Committees have included language 
that would require DOD to set future premiums based on cost. 
MOAA realizes that this will cause a budget shortfall and hopes 
that the subcommittee will fully fund the TRS program under the 
new premium schedule.
    Once again, I thank you for this opportunity to represent 
MOAA before the subcommittee and would be happy to answer any 
of your questions.
    Senator Inouye. Commander Class, I thank you very much for 
your participation and contribution.
    [The statement follows:]
             Prepared Statement of Commander John S. Class
    Mr. Chairman and distinguished members of the subcommittee. On 
behalf of the Military Officers Association of America (MOAA) we are 
grateful to the committee for this opportunity to express our views 
concerning issues affecting the uniformed services community. This 
statement provides the views of MOAA which represents approximately 
370,000 current and former officers of the seven uniformed services, 
plus their survivors.
    MOAA does not receive any grants or contracts from the Federal 
Government.
    Mr. Chairman MOAA thanks you and the entire subcommittee for your 
continued, unwavering support of our active duty, Guard, Reserve, 
retired members, and veterans of the uniformed services, to include 
their families and survivors.
                                overview
    Over the past several years, the Pentagon has repeatedly sought to 
curb spending on military personnel and facilities to fund operational 
requirements. In the process, the Defense Department has imposed 
dramatic force reductions in the Air Force and the Navy, tried to deter 
military retirees from using their earned health coverage by proposing 
large TRICARE fee increases, and cut back on installation quality of 
life programs.
    MOAA believes these efforts to rob personnel to fund operations 
will only make the uniformed services more vulnerable to future 
readiness problems. We agree with the Chairman of the Joint Chiefs of 
Staff, who has stated that 4 percent of GDP should be the ``absolute 
floor'' for the overall military budget. If we want a strong national 
defense, we have to pay for a strong military force as well as replace 
and upgrade aging, war-worn weapons and equipment.
    In testimony today MOAA offers its recommendations on what needs to 
be done to address these important issues and sustain long-term 
personnel readiness.
                         wounded warrior issues
    Caregiver Initiatives.--Several wounded warrior provisions in the 
recently enacted NDAA provide additional support for the caregiver of 
the wounded warrior, typically a family member. However, we believe 
more needs to be done to strengthen support for families, to include 
the authorization of compensation for family member caregivers of 
severely injured who must leave their employment to care for the 
service member.
    Joint Research.--Combined Research Initiatives would further 
enhance the partnership between VA and DOD. Since many of the concerns 
and issues of care are shared, joint collaboration of effort in the 
area of research should enable dollars to go much further and provide a 
more standardized system of health care in the military and veteran 
communities. Furthermore, research must also be performed jointly and 
across all Military Departments and with other practicing healthcare 
agencies to ensure timely integration of these findings in the 
diagnosis and treatment of wounded and disabled patients.
    MOAA urges the subcommittee to ensure full funding of joint DOD-VA 
initiatives to include top-down planning and execution of all 
``seamless transition'' functions, including the joint electronic 
health record; joint DOD/VA physical; implementation of best practices 
for TBI, PTSD, and special needs care; care access/coordination issues; 
and joint research.
                          active force issues
    The subcommittee's key challenges will be to fend off those who 
wish to cut needed personnel and quality of life programs while working 
with DOD and the administration to reduce the stress on the force and 
their families already subjected to repeated, long-term deployments. 
Rising day-to-day workloads for non-deployed members and repeated 
extensions of combat tours creates a breeding ground for retention 
problems. Meeting these challenges will require a commitment of 
personnel and resources on several fronts.
    End Strength and Associated Funding.--MOAA was encouraged when the 
subcommittee ensured that the Army and Marine Corps authorized end 
strengths continued to grow in fiscal year 2008, and we are further 
encouraged that the DOD has asked for additional manpower increases for 
the Army and Marine Corps over the next 4 years.
    Congress must ensure these increases are sufficient to ease force 
rotation burdens and the services are fully funded in order to achieve 
the new end strength. Increasing end strength is not a quick fix that 
will ease the stressors on currently serving service members and their 
families.
    Some already speculate that the planned increases may not be needed 
if we can reduce the number of troops deployed to Iraq. MOAA believes 
strongly that the increases are essential to future readiness, 
regardless of force levels in Iraq. We know we didn't have enough 
troops to fight the current war without imposing terrible penalties on 
military members and families, and we must build our force management 
plans to avoid having to do so when the Nation is faced with another 
major unexpected contingency requirement.
    For too long, we have planned only for the best-case scenario, 
which ignores our responsibility to the Nation to be prepared for 
unexpected and less-favorable scenarios, which could well arise 
anywhere around the globe, including the Far East.
    A full range of funding is required to support this necessary end 
strength, including housing, health care, family programs, and child 
care. Having the services absorb these costs out of pocket is self-
defeating.
    MOAA strongly urges the subcommittee to sustain projected increases 
in ground forces and provide additional recruiting, retention, and 
support resources as necessary to attain/sustain them.
    Compensation and Special Incentive Pays.--MOAA is committed to 
ensuring that pay and allowance programs are equitably applied to the 
seven uniformed services. In that regard, MOAA urges the subcommittee 
to be mindful that personnel and compensation program adjustments for 
Department of Defense forces should also apply to uniformed members of 
the Coast Guard, NOAA Corps, and Public Health Service.
    Since the turn of the century, Congress and DOD have made 
significant progress to improve the lives of men and women in uniform 
and their families. Since 1999, when military pay raises had lagged a 
cumulative 13.5 percent behind the private sector pay comparability 
standard, Congress has narrowed that gap to 3.4 percent. Each year 
during that span, Congress has ensured at least some progress in 
shrinking that disparity further. MOAA is grateful for that progress, 
and believes strongly that it should continue until full pay 
comparability is restored.
    MOAA urges the subcommittee to fully fund the 3.9 percent pay raise 
included in the Defense Authorization Bill, and to avoid making the 
services absorb the extra 0.5 percent above what was requested in the 
President's Budget.
    GI Bill.--The Senate and House have voted favorably to include 
legislation for a New GI Bill in the pending Emergency Spending 
Supplemental on the Iraq and Afghanistan Conflicts. However, it will be 
necessary to resolve differences in funding the measure. The Senate 
bill does not fund the New GI Bill, whereas the House proposes to raise 
taxes on high income individuals to support the bill.
    MOAA has been a forceful leader for creating a GI Bill for today's 
warriors and future veterans. Less than 1 percent of the population is 
defending the other 99 percent of the Nation in the war on terror, yet 
our service women and men do not receive educational benefits 
commensurate with their enormous sacrifices. A New GI Bill will support 
quality recruitment, retention and readjustment outcomes and has broad 
bi-partisan support in both chambers.
    MOAA strongly recommends that the committee approve necessary 
funding for a New GI Bill as a priority this year.
    Family Readiness and Support.--A fully funded, robust family 
readiness program continues to be crucial to overall readiness of our 
military, especially with the demands of frequent and extended 
deployments.
    Resource issues continue to plague basic installation support 
programs. At a time when families are dealing with increased 
deployments, they are being asked to do without. Often family centers 
are not staffed for outreach. Library and sports facilities hours are 
being abbreviated or cut altogether. Manpower for installation security 
is being reduced. These are additional sacrifices that we are imposing 
on our families left behind while their service members are deployed.
    In a similar vein, MOAA believes additional authority and funding 
is needed to offer respite and extended child care for military 
families. These initiatives should be accompanied by a more aggressive 
outreach and education effort to improve members' and families' 
financial literacy. We should ensure members are aware of and 
encouraged to use child care, mental health support, spousal 
employment, and other quality-of-life programs that have seen recent 
growth. However, this education effort should also include expanded 
financial education initiatives to inform and counsel members and 
families on life insurance options, Thrift Savings Plan, IRAs, flexible 
spending accounts, savings options for children's education, and other 
quality of life needs.
    In particular service members must be educated on the long-term 
financial consequences of electing to accept the much lower-value 
$30,000 REDUX retention bonus after 15 years of service vice sustaining 
their full High-3 retirement benefit.
    MOAA urges the subcommittee to support increased family support 
funding and expanded education and other programs to meet growing needs 
associated with increased ops tempo, extended deployments and the more 
complex insurance, retirement, and savings choices faced by over-
extended military families.
    Permanent Change of Station (PCS) Allowances.--PCS allowances have 
continually failed to keep pace with the significant out-of-pocket 
expenses service members and their families incur in complying with 
Government-directed moves.
    One way to improve allowances is to recognize that military spouses 
increasingly have their own professional careers that suffer disruption 
when the service member is relocated. The Armed Services Committee has 
recommended a 500-pound additional weight allowance to assist military 
spouses in moving their professional books and equipment.
    MOAA urges the subcommittee to fully fund the 500-pound 
professional goods weight allowance for military spouses.
    BRAC/Rebasing/Military Construction/Commissaries.--MOAA remains 
concerned about inadequacy of service implementation plans for DOD 
transformation, global repositioning, Army modularity, and BRAC 
initiatives. Given the current wartime fiscal environment, MOAA is 
greatly worried about sustaining support services and quality of life 
programs for members and families. These programs are clearly at risk--
not a week goes by that MOAA doesn't hear reports of cutbacks in base 
operation accounts and base services because of funding shortfalls.
    Feedback from the installation level is that local military and 
community officials often are not brought ``into the loop'' or provided 
sufficient details on changing program timetables to plan, seek, and 
fund support programs (housing, schools, child care, roads, and other 
infrastructure) for the numbers of personnel and families expected to 
relocate to the installation area by a specific date.
    MOAA urges the subcommittee to ensure sustainment of adequate 
family support/quality of life programs at closing and gaining 
installations--to include housing, education, child care, exchanges and 
commissaries, health care, family centers, unit family readiness, and 
other support services.
    Morale, Welfare, and Recreation Programs.--The availability of 
appropriated funds to support MWR activities is an area of continuing 
concern. MOAA strongly opposes any DOD initiative that withholds or 
reduces MWR-appropriated support for Category A and Category B programs 
or that reduces the MWR dividend derived from military base exchange 
programs.
    Service members and their families are reaching the breaking point 
as a result of the war and the constant changes going on in the force. 
It is unacceptable to have troops and families continue to take on more 
responsibilities and sacrifices and not give them the support and 
resources to do the job and to take care of the needs of their 
families.
    MOAA urges the subcommittee to ensure that DOD funds MWR programs 
at least to the 85 percent level for Category A programs and 65 percent 
for Category B requirements.
                national guard and reserve force issues
    Every day somewhere in the world, our National Guard and Reserves 
are answering the call to service. Although there is no end in sight to 
their participation in homeland security, overseas deployment and 
future contingency operations, Guard and Reserve members have 
volunteered for these duties and accept them as a way of life in the 
21st century.
    All Guard and Reserve components are facing increasing challenges 
involving major equipment shortages, end-strength requirements, 
wounded-warrior health care, assistance and counseling for Guard and 
Reserve members for pre-deployment and post-deployment contingency 
operations.
    Congress and the Department of Defense must provide adequate 
benefits and personnel policy changes to support our troops who go in 
harm's way.
    Family Support Programs and Benefits.--MOAA supports providing 
adequate funding for a core set of family support programs and benefits 
that meet the unique needs of Guard and Reserve families with uniform 
access for all service members and families. These programs would 
promote better communication with service members, specialized support 
for geographically separated Guard and Reserve families and training 
and back up for family readiness volunteers. This access would include:
  --Web-based programs and employee assistance programs such as 
        Military One Source and GuardFamily.org.
  --Enforcement of command responsibility for ensuring that programs 
        are in place to meet the special needs of families of 
        individual augmentees or the geographically dispersed.
  --Expanded programs between military and community religious leaders 
        to support service members and families during all phases of 
        deployments.
  --Availability of robust preventive counseling services for service 
        members and families and training so they know when to seek 
        professional help related to their circumstances.
  --Enhanced education for Guard and Reserve family members about their 
        rights and benefits.
  --Innovative and effective ways to meet the Guard and Reserve 
        community's needs for occasional child care, particularly for 
        preventive respite care, volunteering, and family readiness 
        group meetings and drill time.
  --A joint family readiness program to facilitate understanding and 
        sharing of information between all family members, no matter 
        what the service.
    MOAA urges Congress to continue and expand its emphasis on 
providing consistent funding and increased outreach to connect Guard 
and Reserve families with relevant support programs.
    Tangible Support for Employers.--Employers of Guard and Reserve 
service members shoulder an extra burden in support of the national 
defense. The new ``Operational Reserve'' policy places even greater 
strain on employers. For their sacrifice, they get plaques to hang on 
the wall.
    For Guard and Reserve members, employer ``pushback'' is listed as 
one of the top reasons for Reservists to discontinue Guard and Reserve 
service. If we are to sustain a viable Guard and Reserve force for the 
long term, the Nation must do more to tangibly support employers of the 
Guard and Reserve and address their substantive concerns, including 
initiatives such as:
  --Tax credits for employers who make up any pay differential for 
        activated employees.
  --Tax credits to help small business owners hire temporary workers to 
        fill in for activated employees.
  --Tax credits for small manufacturers to hire temporary workers.
    MOAA urges the subcommittee to work with the Finance Committee to 
support needed tax relief for employers of Selected Reserve personnel 
and reinforce the Employer Support for Guard and Reserve Program.
    Seamless Transition for Guard and Reserve Members.--Over 615,000 
members of the Guard and Reserve have been activated since 9/11. 
Congressional hearings and media reports have documented the fact that 
at separation, many of these service members do not receive the 
transition services they and their families need to make a successful 
readjustment to civilian status.
    MOAA urges the subcommittee to continue and expand its efforts to 
ensure Guard and Reserve members and their families receive funded 
transition services to make a successful readjustment to civilian 
status.
                           health care issues
    MOAA very much appreciates the subcommittee's strong and continuing 
interest in keeping health care commitments to military beneficiaries.
    The unique package of military retirement benefits--of which a key 
component is a top-of-the-line health benefit--is the primary offset 
afforded uniformed service members for enduring a career of unique and 
extraordinary sacrifices that few Americans are willing to accept for 1 
year, let alone 20 or 30. It is an unusual--and essential--compensation 
package that a grateful Nation provides for the relatively few who 
agree to subordinate their personal and family lives to protecting our 
national interests for so many years.
    Full Funding for the Defense Health Program.--MOAA very much 
appreciates the subcommittee's support for maintaining--and expanding 
where needed--the healthcare benefit for all military beneficiaries, 
consistent with the demands imposed upon them.
    The Defense Department, Congress, and MOAA all have reason to be 
concerned about the rising cost of military health care. But it is 
important to recognize that the bulk of the problem is a national one, 
not a military-specific one. To a large extent, military health cost 
growth is a direct reflection of health care trends in the private 
sector.
    It is true that many private sector employers are choosing to shift 
an ever-greater share of health costs to their employees and retirees. 
In the bottom-line-oriented corporate world, many firms see their 
employees as another form of capital, from which maximum utility is to 
be extracted at minimum cost, and those who quit are replaceable by 
similarly experienced new hires. But that can't be the culture in the 
military's closed personnel, all-volunteer model, whose long-term 
effectiveness is utterly dependent on establishing a sense of mutual, 
long-term commitment between the service member and his/her country.
    Some assert active duty personnel costs have increased 60 percent 
since 2001, of which a significant element is for compensation and 
health costs. But much of that cost increase is due to conscious 
decisions by Congress to correct previous shortfalls--including easing 
the double-digit military ``pay gap'' of that era and correcting the 
unconscionable situation before 2001 when military beneficiaries were 
summarily dropped from TRICARE coverage at age 65. Additionally, much 
of the increase is due to the cost of war and increased optempo.
    Meanwhile, the cost of basic equipment soldiers carry into battle 
(helmets, rifles, body armor) has increased 257 percent (more than 
tripled) from $7,000 to $25,000 since 1999. The cost of a Humvee has 
increased seven-fold (600 percent) since 2001 (from $32,000 to 
$225,000).
    While we have an obligation to do our best to intelligently 
allocate these funds, the bottom line is that maintaining the most 
powerful military force in the world is expensive--and doubly so in 
wartime.
    MOAA objects strongly to the administration's arbitrary reduction 
of the TRICARE budget submission. DOD has typically overestimated its 
healthcare costs as evidenced by a recent GAO report on the TRICARE 
Reserve Select premiums. MOAA deplores this inappropriate budget 
``brinksmanship'', which risks leaving TRICARE significantly 
underfunded, especially in view of statements made for the last 2 years 
by leaders of both Armed Services Committees that the Department's 
proposed fee increases were excessive.
    MOAA understands only too well the very significant challenge such 
a large and arbitrary budget reduction would pose for this subcommittee 
if allowed to stand. If the reduction is not made up, the Department 
almost certainly will experience a substantial budget shortfall before 
the end of the year. This would then generate supplemental funding 
needs, further program cutbacks, and likely efforts to shift even more 
costs to beneficiaries in future years--all to the detriment of 
retention and readiness.
    MOAA strongly urges the subcommittee to take all possible steps to 
restore the reduction in TRICARE-related budget authority and ensure 
continued full funding for Defense Health Program needs.
    Alternative Options to Make TRICARE More Cost-Efficient.--MOAA 
continues to believe strongly that the Defense Department has not 
sufficiently investigated other options to make TRICARE more cost-
efficient without shifting costs to beneficiaries. MOAA has offered a 
long list of alternative cost-saving possibilities, including:
  --Promote retaining other health insurance by making TRICARE a true 
        second-payer to other insurance (far cheaper to pay another 
        insurance's copay than have the beneficiary migrate to 
        TRICARE).
  --Reduce or eliminate all mail-order co-payments to boost use of this 
        lowest-cost venue.
  --Change electronic claim system to kick back errors in real time to 
        help providers submit ``clean'' claims, reduce delays/multiple 
        submissions.
  --Size and staff military treatment facilities (least costly care 
        option) in order to reduce reliance on non-MTF civilian 
        providers.
  --Promote programs to offer special care management services and zero 
        copays or deductibles to incentivize beneficiaries to take 
        medications and seek preventive care for chronic or unusually 
        expensive conditions.
  --Promote improved health by offering preventive and immunization 
        services (e.g., shingles vaccine, flu shots) with no copay or 
        deductible.
  --Authorize TRICARE coverage for smoking cessation products and 
        services (it is the height of irony that TRICARE currently 
        doesn't cover these programs that have been long and widely 
        acknowledged as highly effective in reducing long-term health 
        costs).
  --Reduce long-term TRICARE Reserve Select costs by allowing members 
        the option of a Government subsidy (at a cost capped below TRS 
        cost) of civilian employer premiums during periods of 
        mobilization.
  --Promote use of mail-order pharmacy system via mailings to users of 
        maintenance medications, highlighting the convenience and 
        individual expected cost savings
  --Encourage retirees to use lowest-cost-venue military pharmacies at 
        no charge, rather than discouraging such use by limiting 
        formularies, curtailing courier initiatives, etc.
    MOAA is pleased that the Defense Department has begun to implement 
at least some of our past suggestions, and stands ready to partner with 
DOD to investigate and jointly pursue these or other options that offer 
potential for reducing costs.
    MOAA urges Congress to allocate funds enabling DOD to pursue 
greater efforts to improve TRICARE and find more effective and 
appropriate ways to make TRICARE more cost-efficient without seeking to 
``tax'' beneficiaries and make unrealistic budget assumptions.
    TRICARE Reimbursement Rates.--Physicians consistently report that 
TRICARE is virtually the lowest-paying insurance plan in America. Other 
national plans typically pay providers 25-33 percent more. In some 
cases the difference is even higher.
    While TRICARE rates are tied to Medicare rates, TRICARE Managed 
Care Support Contractors make concerted efforts to persuade providers 
to participate in TRICARE Prime networks at a further discounted rate. 
Since this is the only information providers receive about TRICARE, 
they see TRICARE as even lower-paying than Medicare.
    This is exacerbated by annual threats of further reductions in 
TRICARE rates due to the statutory Medicare rate-setting formula. 
Doctors are unhappy enough about reductions in Medicare rates, and many 
already are reducing the number of Medicare patients they see.
    But the problem is even more severe with TRICARE, because TRICARE 
patients typically comprise a small minority of their beneficiary 
caseload. Physicians may not be able to afford turning away large 
numbers of Medicare patients, but they're more than willing to turn 
away a small number of patients who have low-paying, high-
administrative-hassle TRICARE coverage.
    Congress has acted to avoid Medicare physician reimbursement cuts 
for the last 4 years, but the failure to provide a payment increase for 
2006 and 2007 was another step in the wrong direction, according to 
physicians. Further, Congress still has a long way to go in order to 
fix the underlying reimbursement determination formula.
    Correcting the statutory formula for Medicare and TRICARE physician 
payments to more closely link adjustments to changes in actual practice 
costs and resist payment reductions is a primary and essential step. We 
fully understand that is not within the purview of this subcommittee, 
but we urge your assistance in pressing the Finance Committee for 
action.
    In the meantime, the rate freeze for 2006 and 2007 along with a 
small increase for the first part of 2008 makes it even more urgent to 
consider some locality-based relief in TRICARE payment rates, given 
that doctors see TRICARE as even less attractive than Medicare. 
Additionally, the Medicare pay package that was enacted in Public Law 
109-432 included a provision for doctors to receive a 1.5 percent bonus 
next year if they report a basic set of quality-of-care measures. The 
TRICARE for Life beneficiaries should not be affected as their claims 
are submitted directly to Medicare and should be included in the 
physicians' quality data. But there's been no indication that TRICARE 
will implement the extra increases for treating beneficiaries under 65, 
and this could present a major problem. If no such bonus payment is 
made for TRICARE Standard patients, then TRICARE will definitely be the 
lowest payer in the country and access could be severely decreased.
    The TRICARE Management Activity has the authority to increase the 
reimbursement rates when there is a provider shortage or extremely low 
reimbursement rate for a specialty in a certain area and providers are 
not willing to accept the low rates. In some cases a state Medicaid 
reimbursement for a similar service is higher than that of TRICARE. As 
mentioned previously, the Department has been reluctant to establish a 
standard for adequacy of participation and should use survey data to 
apply adjustments nationally.
    MOAA urges the subcommittee to exert what influence it can to 
persuade the Finance Committee to reform Medicare/TRICARE statutory 
payment formula. To the extent the Medicare rate freeze continues, we 
urge the subcommittee to encourage the Defense Department to use its 
reimbursement rate adjustment authority as needed to sustain provider 
acceptance.
National Guard and Reserve Healthcare
    MOAA is grateful to the subcommittee for its leadership in 
extending lower-cost TRICARE eligibility to all drilling National Guard 
and Reserve members. This was a major step in acknowledging that the 
vastly increased demands being placed on Selected Reserve members and 
families needs to be addressed with adjustments to their military 
compensation package.
    While the subcommittee has worked hard to address the primary 
health care hurdle, there are still some areas that warrant attention.
    TRICARE Reserve Select (TRS) Premium.--MOAA believes the premium-
setting process for this important benefit needs to be improved and was 
incorrectly based upon the basic Blue Cross Blue Shield option of the 
FEHBP. This adjustment mechanism has no relationship either to the 
Department's military health care costs or to increases in eligible 
members' compensation.
    When the program was first implemented, MOAA urged DOD to base 
premiums (which were meant to cover 28 percent of program costs) on 
past TRICARE Standard claims data to more accurately reflect costs. Now 
a GAO study has confirmed that DOD's use of Blue Cross Blue Shield data 
and erroneous projections of participation resulted in substantially 
overcharging beneficiaries.
    GAO found that DOD projected costs of $70 million for fiscal year 
2005 and $442 million for fiscal year 2006, whereas actual costs proved 
to be $5 million in fiscal year 2005 and about $40 million in fiscal 
year 2006. GAO found that DOD estimates were 72 percent higher than the 
average single member cost and 45 percent higher than average family 
cost. If DOD were to have used actual fiscal year 2006 costs, the 
annual individual premium would have been $48/month instead of $81/
month. The corresponding family premium would have been $175/month 
instead of $253/month.
    GAO recommended that DOD stop basing TRS premiums on Blue Cross 
Blue Shield adjustments and use the actual costs of providing the 
benefit. DOD concurred with the recommendations and says, ``it remains 
committed to improving the accuracy of TRS premium projections.'' 
However, GAO observed that DOD has made no commitment to any timetable 
for change.
    Both Armed Services Committees have included language in the fiscal 
year 2009 Defense Authorization Act that would require the Defense 
Department to base TRS premiums on actual program costs--which is 
expected to reduce premiums to the cost-share relationship originally 
envisioned by Congress.
    This means that, since service members will no longer be 
overcharged, the Defense Department will have to start funding its 
proper share of the TRS program.
    MOAA urges the subcommittee to fully fund the TRS program under the 
new premium schedule.
    Reserve Dental Coverage.--MOAA remains concerned about the dental 
readiness of the Reserve forces. Once these members leave active duty, 
the challenge increases substantially, so MOAA believes the services 
should at least facilitate correction of dental readiness issues 
identified while on active duty. DOD should be fiscally responsible for 
dental care to Reservists to ensure service members meet dental 
readiness standards when DOD facilities are not available within a 50-
mile radius of the members' home for at least 90 days prior and 180 
days post mobilization.
    MOAA supports funding dental coverage for Reservists for 90 days 
pre- and 180 days post-mobilization (during TAMP), unless the 
individual's dental readiness is restored to T-2 condition before 
demobilization.
Health-Related Tax Law Changes
    MOAA understands fully that tax law changes are not within the 
subcommittee's jurisdiction. However, there are numerous military-
specific tax-related problems that are unlikely to be addressed without 
the subcommittee's active advocacy and intervention with members and 
leaders of the Finance Committee.
    Deductibility of Health and Dental Premiums.--Many uniformed 
services beneficiaries pay annual enrollment fees for TRICARE Prime, 
TRICARE Reserve Select, and premiums for supplemental health insurance, 
such as a TRICARE supplement, the TRICARE Dental and Retiree Dental 
Plans, or for long-term care insurance. For most military 
beneficiaries, these premiums are not tax-deductible because their 
annual out-of-pocket costs for healthcare expenses do not exceed 7.5 
percent of their adjusted gross taxable income.
    In 2000, a Presidential directive allowed Federal employees who 
participate in FEHBP to have premiums for that program deducted from 
their pay on a pre-tax basis. A 2007 court case extended similar pre-
tax premium payment eligibility to certain retired public safety 
officers. Similar legislation for all active, reserve, and retired 
military and Federal civilian beneficiaries would restore equity with 
private sector employees and retired public safety officers.
    MOAA urges all committee members to seek the support of the Finance 
Committee to approve legislation to allow all military beneficiaries to 
pay TRICARE-related insurance premiums in pre-tax dollars, to include 
TRICARE dental premiums, TRICARE Reserve Select premiums, TRICARE Prime 
enrollment fees, premiums for TRICARE Standard supplements, and long-
term care insurance premiums.
                               conclusion
    MOAA reiterates its profound gratitude for the extraordinary 
progress this subcommittee has made in advancing a wide range of 
personnel and health care initiatives for all uniformed services 
personnel and their families and survivors. MOAA is eager to work with 
the subcommittee in pursuit of the goals outlined in our testimony. 
Thank you very much for the opportunity to present MOAA's views on 
these critically important topics.

    Senator Inouye. May I now call upon the President of the 
American Association of Nurse Anesthetists, Dr. Wanda Wilson.
STATEMENT OF WANDA WILSON, Ph.D., PRESIDENT, AMERICAN 
            ASSOCIATION OF NURSE ANESTHETISTS
    Dr. Wilson. Chairman Inouye, Ranking Member Stevens, and 
members of the subcommittee: Good morning. My name is Wanda 
Wilson and I serve as president of 37,000 members of the 
American Association of Nurse Anesthetists.
    The quality of healthcare America provides our service men 
and women and their dependents has long been this 
subcommittee's high priority. Today I report to you the 
contributions that certified registered nurse anesthetists, or 
CRNAs, make toward our services' mission. I will also provide 
you our recommendations to further improve military healthcare 
for these challenging times. I also ask unanimous consent that 
my written statement be entered into the record.
    Senator Inouye. Without objection.
    Dr. Wilson. Thank you.
    America's CRNAs provide some 30 million anesthetics 
annually, in every healthcare setting requiring anesthesia 
care, and we provide that care safely. The IOM reported in 2000 
that anesthesia is 50 times safer than it was in the early 
1980s.
    For the U.S. armed forces, CRNAs are particularly critical. 
In 2005, 493 active duty and 790 reservist CRNAs provided 
anesthesia care indispensable to our armed forces' current 
mission. One CRNA, Major General Gale Pollock, served as Acting 
Surgeon General of the Army for a time last year. Today CRNAs 
serve in major military hospitals and educational institutions, 
aboard ships, in isolated bases abroad and at home, and as 
members of forward surgical teams as close to the tip of the 
spear as can be. In most of these environments, CRNAs provide 
anesthesia services alone, without anesthesiologists, enabling 
surgeons and other clinicians to safely deliver life-saving 
care.
    But in recent years the number of CRNAs in the armed forces 
has fallen below the number needed. The private market for CRNA 
services is very strong and the military has struggled to 
compete. The services, this subcommittee and the authorizing 
committees have responded with increased benefits to CRNAs, 
incentive special pay, ISP, and the health professionals loan 
repayment program, focusing on incentives for multi-year 
agreements.
    The profession of nurse anesthesia has likewise responded. 
In 2007, accredited nurse anesthesia educational programs 
produced over 2,000 graduates, an 88 percent increase in just 5 
years, to meet the growing demand.
    These combined actions have helped strengthen the services' 
readiness and the quality of healthcare available to our 
service men and women. So our first recommendation to you is to 
extend and strengthen this successful ISP program for CRNAs. 
The authorizing committee has extended the ISP program. We 
encourage this subcommittee to continue funding ISP levels 
sufficient for the services to recruit and retain the CRNAs 
needed for the mission.
    The second is to support the Troops-to-Nurse Teachers, or 
TNT initiative. Today a pilot program sponsored by the Army 
Surgeon General's Office has placed uniformed military nurses 
as instructors in a civilian school of nursing. Under this 
project nurses in the service advance their teaching and 
mentoring skills and the nursing students in an expanded 
program witness military service in the best possible light. In 
addition to our support of the military's highly regarded CRNA 
educational program at Fort Sam Houston, the Uniformed Services 
University, and at Bethesda, we join the chairman of this 
subcommittee to support the TNT program.
    Our third and final recommendation is for the subcommittee 
to encourage all services to adopt the joint scope of practice. 
Standard practice across all services enhances patient safety 
and the quality of healthcare for our service men and women. 
The Navy in particular has made a great deal of progress toward 
adopting the joint scope for independent practitioners. We 
encourage you to adopt this in all services.
    Thank you very much.
    Senator Inouye. I thank you very much, Dr. Wilson.
    [The statement follows:]
                   Prepared Statement of Wanda Wilson
    Chairman Inouye, Ranking Member Stevens, and members of the 
subcommittee: The American Association of Nurse Anesthetists (AANA) is 
the professional association that represents more than 37,000 Certified 
Registered Nurse Anesthetists (CRNAs) across the United States, 
including 483 active duty and 790 reservists in the military reported 
in May 2005. The AANA appreciates the opportunity to provide testimony 
regarding CRNAs in the military. We would also like to thank this 
committee for the help it has given us in assisting the Department of 
Defense (DOD) and each of the services to recruit and retain CRNAs.
           crnas and the armed forces: a tradition of service
    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the Armed Forces of the United States.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today, CRNAs administer some 30 
million anesthetics given to patients each year in the United States. 
Nurse anesthetists are also the sole anesthesia providers in the vast 
majority of rural hospitals, assuring access to surgical, obstetrical, 
and other healthcare services for millions of rural Americans.
    Our tradition of service to the military and our veterans is 
buttressed by our personal, professional commitment to patient safety, 
made evident through research into our practice. In our professional 
association, we state emphatically ``our members' only business is 
patient safety.'' Safety is assured through education, high standards 
of professional practice, and commitment to continuing education. 
Having first practiced as registered nurses, CRNAs are educated to the 
master's degree level, and some to the doctoral level, and meet the 
most stringent continuing education and recertification standards in 
the field. Thanks to this tradition of advanced education and clinical 
practice excellence, we are humbled and honored to note that anesthesia 
is 50 times safer now than in the early 1980s (National Academy of 
Sciences, 2000). Research further demonstrates that the care delivered 
by CRNAs, physician anesthesiologists, or by both working together 
yields similar patient safety outcomes. In addition to studies 
performed by the National Academy of Sciences in 1977, Forrest in 1980, 
Bechtoldt in 1981, the Minnesota Department of Health in 1994, and 
others. Dr. Michael Pine, MD, MBA, recently concluded once again that 
among CRNAs and physician anesthesiologists, ``the type of anesthesia 
provider does not affect inpatient surgical mortality'' (Pine, 2003). 
Thus, the practice of anesthesia is a recognized specialty in nursing 
and medicine. Most recently, a study published in ``Nursing Research'' 
confirmed obstetrical anesthesia services are extremely safe, and that 
there is no difference in safety between hospitals that use only CRNAs 
compared with those that use only anesthesiologists (Simonson et al., 
2007). Both CRNAs and anesthesiologists administer anesthesia for all 
types of surgical procedures from the simplest to the most complex, 
either as single providers or together.
                   nurse anesthetists in the military
    Since the mid-19th century, our profession of nurse anesthesia has 
been proud and honored to provide anesthesia care for our past and 
present military personnel and their families. From the Civil War to 
the present day, nurse anesthetists have been the principal anesthesia 
providers in combat areas of every war in which the United States has 
been engaged.
    Military nurse anesthetists have been honored and decorated by the 
United States and foreign governments for outstanding achievements, 
resulting from their dedication and commitment to duty and competence 
in managing seriously wounded casualties. In World War II, there were 
17 nurse anesthetists to every 1 anesthesiologist. In Vietnam, the 
ratio of CRNAs to physician anesthetists was approximately 3:1. Two 
nurse anesthetists were killed in Vietnam and their names have been 
engraved on the Vietnam Memorial Wall. During the Panama strike, only 
CRNAs were sent with the fighting forces. Nurse anesthetists served 
with honor during Desert Shield and Desert Storm.
    Military CRNAs also provide critical anesthesia support to 
humanitarian missions around the globe in such places as Bosnia and 
Somalia. In May 2003, approximately 364 nurse anesthetists had been 
deployed to the Middle East for the military mission for Operation 
Iraqi Freedom and Operation Enduring Freedom. When President George W. 
Bush initiated Operation Enduring Freedom, CRNAs were immediately 
deployed. With the new special operations environment new training was 
needed to prepare our CRNAs to ensure military medical mobilization and 
readiness. BG Barbara C. Brannon, Assistant Surgeon General, Air Force 
Nursing Services, testified before this Senate Committee on May 8, 
2002, to provide an account of CRNAs on the job overseas. She stated, 
``Lt. Col Beisser, a certified registered nurse anesthetist leading a 
Mobile Forward Surgical Team, recently commended the seamless 
interoperability he witnessed during treatment of trauma victims in 
Special Forces mass casualty incident.''
    Data gathered from the U.S. Armed Forces anesthesia communities 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long, 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harms way.
    In the current mission, CRNAs are deployed all over the world, on 
land and at sea. This committee must ensure that we retain and recruit 
CRNAs for now and in the future to serve in these military deployments 
overseas. This committee must ensure that we retain and recruit CRNAs 
now and in the future to serve in these military overseas deployments 
and humanitarian efforts, and to ensure the maximum readiness of 
America's armed services.
nurse anesthesia provider supply and demand: solutions for recruitment 
                             and retention
    In all of the services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty fell short of the number authorized by the DOD. 
This is further complicated by strong demand for CRNAs in both the 
public and private sectors.
    It is essential to understand that while there is strong demand for 
CRNA services in the public and private healthcare sectors, the 
profession of nurse anesthesia is working effectively to meet this 
workforce challenge. The AANA anticipates growing demand for CRNAs. Our 
evidence suggests that while vacancies exist, the demand for anesthesia 
professionals can be met if appropriate actions are taken. As of 
January 2008, there are 108 accredited CRNA schools to support the 
profession of nurse anesthesia. The number of qualified registered 
nurses applying to CRNA schools continues to climb. The growth in the 
number of schools, the number of applicants, and in production 
capacity, has yielded significant growth in the number of nurse 
anesthetists graduating and being certified into the profession, while 
absolutely maintaining and strengthening the quality and competence of 
these clinicians. The Council on Certification of Nurse Anesthetists 
reports that in 2007, our schools produced 2,021 graduates, an 88 
percent increase since 2002, and 1,869 nurse anesthetists were 
certified. The growth is expected to continue. The Council on 
Accreditation of Nurse Anesthesia Educational Programs projects the 108 
CRNA schools to produce over 2,310 graduates in 2008.
    This committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.
                    incentive special pay for nurses
    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by DOD, a large pay gap 
existed between annual civilian and military pay in 1992. This study 
concluded, ``this earnings gap is a major reason why the military has 
difficulty retaining CRNAs.'' In order to address this pay gap, in the 
fiscal year 1995 Defense Authorization bill Congress authorized the 
implementation of an increase in the annual Incentive Special Pay (ISP) 
for nurse anesthetists from $6,000 to $15,000 for those CRNAs no longer 
under service obligation to pay back their anesthesia education. Those 
CRNAs who remained obligated receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. The AANA is requesting that 
this committee fund the ISP at $50,000 for all the branches of the 
armed services to retain and recruit CRNAs now and into the future. Per 
the testimony provided in 2006 from the three services' Nurse Corps 
leaders, the AANA is aware that there is an active effort with the 
Surgeons General to closely evaluate and adjust ISP rates and policies 
needed to support the recruitment and retention of CRNAs. In 2006, MG 
Gale Pollock, MBA, MHA, MS, CRNA, FACHE, Deputy Surgeon General, Army 
Nurse Corps of the U.S. Army stated in testimony before this 
subcommittee, ``I am particularly concerned about the retention of our 
certified registered nurse anesthetists. Our inventory of CRNAs is 
currently at 73 percent. The restructuring of the incentive special pay 
program for CRNAs last year, as well as the 180 (day)-deployment 
rotation policy were good first steps in stemming the loss of these 
highly trained providers. We are working closely with the Surgeon 
General's staff to closely evaluate and adjust rates and policies where 
needed.''
    There have been positive results from the Nurse Corps and Surgeons 
General initiatives to increase incentive special pays for CRNAs. In 
testimony before the House Armed Services Committee in 2007, Major 
General Pollock stated, ``We have . . . increased the Incentive Special 
Pay Certified Registered Nurse Anesthetist, and expanded use of the 
Health Professions Loan Repayment Program (HPLRP). The . . . Nurse 
Anesthetist bonuses have been very successful in retaining these 
providers who are critically important to our mission on the 
battlefield.'' She also stated in that same statement, ``In 2004, we 
increased the multi-year bonuses we offer to Certified Registered Nurse 
Anesthetists with emphasis on incentives for multi-year agreements. A 
year's worth of experience indicates that this increased bonus, 180-day 
deployments, and a revamped Professional Filler system to improve 
deployment equity is helping to retain CRNAs.''
    There still continues to be high demand for CRNAs in the healthcare 
community leading to higher incomes widening the gap in pay for CRNAs 
in the civilian sector compared to the military. However, the ISP and 
other incentives the services are providing CRNAs has helped close that 
gap the past 2 years, according to the most recent AANA membership 
survey data. In civilian practice, all additional skills, experience, 
duties and responsibilities, and hours of work are compensated for 
monetarily. Additionally, training (tuition and continuing education), 
healthcare, retirement, recruitment and retention bonuses, and other 
benefits often equal or exceed those offered in the military. 
Therefore, it is vitally important that the ISP be supported to ensure 
retention of CRNAs in the military.
    AANA thanks this committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation in the 
annual funding for ISP at $50,000 or more for fiscal year 2009, which 
recognizes the special skills and advanced education that CRNAs bring 
to the DOD healthcare system, and supports the mission of our U.S. 
Armed Forces.
                   board certification pay for nurses
    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain clinicians who are not physicians, including advanced 
practice nurses. AANA is highly supportive of board certification pay 
for all advanced practice nurses. The establishment of this type of pay 
for nurses recognizes that there are levels of excellence in the 
profession of nursing that should be recognized, just as in the medical 
profession. In addition, this pay may assist in closing the earnings 
gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, some remain 
ineligible. Since certification to practice as a CRNA does not require 
a specific master's degree, many nurse anesthetists have chosen to 
diversify their education by pursuing an advanced degree in other 
related fields. But CRNAs with master's degrees in education, 
administration, or management are not eligible for board certification 
pay since their graduate degree is not in a clinical specialty. Many 
CRNAs who have non-clinical master's degrees either chose or were 
guided by their respective services to pursue a degree other than in a 
clinical specialty. The AANA encourages DOD and the respective services 
to re-examine the issue of restricting board certification pay only to 
CRNAs who have specific clinical master's degrees.
     dod/va resource sharing: u.s. army-va joint program in nurse 
             anesthesia--fort sam houston, san antonio, tx.
    The establishment of the joint U.S. Army-VA program in nurse 
anesthesia education at the U.S. Army Graduate Program in Anesthesia 
Nursing, Fort Sam Houston, in San Antonio, Texas holds the promise of 
making significant improvements in the VA CRNA workforce, as well as 
improving retention of DOD registered nurses in a cost effective 
manner. The current program utilizes existing resources from both the 
Department of Veterans Affairs (VA) Employee Incentive Scholarship 
Program (EISP) and VA hospitals to fund tuition, books, and salary 
reimbursement for student registered nurse anesthetists (SRNAs). This 
joint program also serves the interests of the Army.
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. In the future, the program is 
granting degrees through the Northeastern University Bouve College of 
Health Sciences nurse anesthesia educational program in Boston, 
Massachussetts. At a time of increased deployments in medical military 
personnel, this type of VA-DOD partnership is a cost-effective model to 
fill these gaps in the military healthcare system. At Fort Sam Houston, 
the VA faculty director has covered her Army colleagues' didactic 
classes when they are deployed at a moments notice. This benefits both 
the VA and the DOD to ensure the nurse anesthesia students are trained 
and certified in a timely manner to meet their workforce obligation to 
the Federal Government as anesthesia providers. We are pleased to note 
that the VA Acting Deputy Under Secretary for Health and the U.S. Army 
Surgeon General approved funding to start this VA nurse anesthesia 
school in 2004. In addition, the VA director has been pleased to work 
under the direction of the Army program director LTC Thomas Ceremuga, 
Ph.D., CRNA, to further the continued success of this U.S. Army-VA 
partnership. With modest levels of additional funding in the VA EISP, 
this joint U.S. Army-VA nurse anesthesia education initiative can grow 
and thrive, and serve as a model for meeting other VA workforce needs, 
particularly in nursing.
               troops-to-nurse teachers (tnt) initiative
    I also want to express to the subcommittee our profession's support 
for the Troops-to-Nurse Teachers (TNT) initiative. Modeled after the 
successful DOD program established in 1994 to encourage retiring 
military personnel to teach in high-need areas and to teach high-need 
subjects such as math and science, the TNT program as expressed in 
legislation pending in the Senate (S. 2705, Durbin (D-IL) and several 
cosponsors) would help alleviate the nursing shortage by increasing 
faculty in schools of nursing, thereby allowing schools to expand their 
applicant pools.
    One aspect of the TNT intiative would provide opportunities for 
Nurse Corps Officers in the Armed Forces the ability to transition to 
faculty positions at accredited nursing schools after retirement. The 
bill offers a number of incentives. It provides career placement 
assistance, transitional stipends, and educational assistance if needed 
to those who have served a minimum of 20 years in the Armed Forces and 
who are qualified to teach. It creates an educational scholarship 
program to give financial assistance to those members of the Armed 
Forces who have served at least 20 years on active duty are eligible to 
retire and who want to become nurse faculty. And it gives nurse 
officers in the Armed Forces who have a graduate degree in nursing the 
opportunity to serve a 2-year tour of duty as an educator. The school 
of nursing where the faculty teaches then commits to provide 
scholarships to those students who sign-on to become a nurse officer in 
the military after graduation.
    The TNT initiative is also a pilot project now under way within the 
Army Nurse Corps, which has six Army nurses in camouflage uniforms 
serving as faculty to the school of nursing at the University of 
Maryland. The military gets strong, positive visibility in a highly 
regarded educational program, showing nursing students directly what 
kind of future that service in the Army Nurse Corps can provide them. 
According to the chief of the Army Nurse Corps, the University of 
Maryland was able to admit another 151 students to its nursing program, 
helping to meet the tremendous community and national need for 
registered nurses. Last, Army nurse teachers have additional, valuable 
opportunities to develop and strengthen their skills in teaching, to 
help continue improving the quality of healthcare education available 
within the U.S. Army.
    The TNT initiative holds great promise to support both national 
healthcare needs and the mission of the U.S. Armed Forces, and we 
encourage the subcommittee to support it. Current cosponsors of S. 2705 
include Senators Bayh (D-IN), Biden (D-DE), Brown (D-OH), Clinton (D-
NY), Collins (R-ME), Dole (R-NC), Inhofe (R-OK), Inouye (D-HI), 
Lieberman (I-CT), Menendez (D-NJ), Mikulski (D-MD), Obama (D-IL), and 
Reed (D-RI).
                               conclusion
    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. By Congress 
supporting these efforts to recruit and retain CRNAS, the military is 
able to meet the mission to provide benefit care and deployment care--a 
mission that is unique to the military. The AANA would also like to 
thank the Surgeons General and Nurse Corp leadership for their support 
in meeting the needs of the profession within the military workforce. 
Last, we commend and thank this committee for their continued support 
for CRNAs in the military.
    Thank you. If you have further questions, please contact the AANA 
Federal Government Affairs Office.

    Senator Inouye. Our next witness represents the National 
Multiple Sclerosis Society, Mr. Bob Wolz.
STATEMENT OF BOB WOLZ, ON BEHALF OF THE NATIONAL 
            MULTIPLE SCLEROSIS SOCIETY
    Mr. Wolz. Thank you, Chairman Inouye, Ranking Member 
Stevens, and members of the subcommittee, for allowing me to 
provide testimony at this hearing today. My name is Bob Wolz 
and I'm a veteran living with relapsing remitted multiple 
sclerosis, or MS. I'm here today on behalf of the estimated 
400,000 Americans and more than 28,000 veterans who live with 
MS. Together we ask you to help advance MS research by 
providing funding under the congressionally directed medical 
research programs.
    MS is a chronic, unpredictable, often disabling, disease of 
the central nervous system and there is no cure. Every hour 
someone is newly diagnosed with MS. It is the most common 
neurological disease leading to disability in young adults.
    I'm a retired sergeant first class from the United States 
Army. I served more than 20 proud years as a chemical, 
biological, radiological, and nuclear specialist, with two 
tours in Korea, two tours in Germany, Desert Shield/Desert 
Storm, and Operation Iraq Freedom, and various stateside units. 
I believe my MS is a lingering wound from my tour of duty in 
the gulf war. My resulting disease and disabilities have been 
deemed service connected by the VA.
    I first served with the First Armored Division during 
Operation Desert Shield/Desert Storm. In March 1991, we were in 
Kuwait living and working within the dark clouds of the burning 
Kuwaiti oil wells. Additionally, I was located within the 
downwind hazard plume from the Khamisiyah Pit demolition that 
contained sarin and cyclosarin.
    My symptoms started between 1995 and 1996. The first signs 
were muscle weakness on my left side, problems with bowel 
movements, and unusual fatigue. These symptoms continued to 
worsen and more developed. I started walking with a limp and 
noticed muscle atrophy on my left side. These symptoms 
continued even into my deployment to Operation Iraq Freedom 
with the Fourth Infantry Division in 2003, the division that 
caught Saddam.
    One day after a mission, I showered and attempted to trim 
my fingernails, a simple task. I was a soldier, but my left 
hand could not squeeze the clippers to accomplish such a simple 
thing. I left Iraq and returned to Fort Hood, Texas. There I 
had several tests run by an Army neurologist, who said I had a 
reaction to anti-malaria pills. I retired in March 2004.
    Thousands of veterans could share similar stories. Recent 
studies confirm that combat veterans have an increased risk of 
developing MS. Dr. Match Wallin, a neurologist with the VA MS 
Center of Excellence in Baltimore and a professor at Georgetown 
University, treats warfighters like me who live with MS. Dr. 
Wallin has published a professional hypothesis explaining that 
deployed gulf war veterans are at an increased risk of 
developing MS because of their exposure to neurotoxins such as 
sarin gas and burning oil fields.
    A recent study found a twofold increase in MS among Kuwaiti 
residents who lived in the gulf area before, during, and after 
the first gulf conflict. The rapid increase suggests an 
environmental trigger for MS.
    Finally, the congressionally mandated Research Advisory 
Committee on Gulf War Veterans Illnesses found evidence of 
probable links between exposures to neurotoxins and the 
development of neurological disorders.
    I believe that the DOD has a responsibility to identify and 
research all diseases that could be related to military 
service, including MS. Recently Senator Brown and Senator 
Bunning from my home State sent the subcommittee a bipartisan 
letter with the signatures of 27 of your colleagues who support 
a $15 million appropriation for MS research under the CDMRP. 
This effort is also supported by the Paralyzed Veterans of 
America, American Academy of Neurology, the United Spinal 
Association, and the Vietnam Veterans of America.
    We appreciate your consideration. With your commitment to 
more research, we can move closer to a world free of MS. Thank 
you.
    Senator Inouye. I thank you very much, Mr. Wolz.
    [The statement follows:]
                     Prepared Statement of Bob Wolz
                              introduction
    Thank you Chairman Inouye, Ranking Member Stevens and distinguished 
members of the committee, for allowing me to provide testimony at this 
hearing.
    My name is Bob Wolz, and I am a veteran living with multiple 
sclerosis (MS). I am here today on behalf of the estimated 400,000 
Americans and more than 28,000 veterans who live with MS. Together, we 
ask you to help us advance MS research by providing funding under the 
Congressionally Directed Medical Research Programs (CDMRP).
                     no cure for multiple sclerosis
    Multiple sclerosis is a chronic, unpredictable, often-disabling 
disease of the central nervous system. It interrupts the flow of 
information from the brain to the body and stops people from moving. 
Every hour someone is newly diagnosed. MS is the most common 
neurological disease leading to disability in young adults. But despite 
several decades of research, the cause remains unclear, and there is no 
cure. The research must continue.
    The symptoms of MS range from numbness and tingling to blindness 
and paralysis. MS causes loss of coordination and memory, extreme 
fatigue, emotional changes, and other physical symptoms. The progress, 
severity, and specific symptoms of MS in any one person cannot yet be 
predicted. These problems can be permanent, or they can come and go.
    The National Multiple Sclerosis Society recommends treatment with 
one of the FDA-approved ``disease-modifying'' drugs to lessen the 
frequency and severity of attacks, and to help slow the progression of 
disability. But unfortunately, the cost is often financially 
devastating. The FDA approved drugs for MS range from $16,500 to more 
than $30,000 a year, and treatments continue over a lifetime.
                            ms and veterans
    Testimony from individual veterans like me, along with evidence 
from recent studies, suggests that combat veterans have an increased 
risk of developing multiple sclerosis.
    Dr. Mitch Wallin, a neurologist with the Department of Veterans' 
(VA) Affairs MS Center of Excellence in Baltimore and a professor at 
Georgetown University, currently treats warfighters with MS. Dr. Wallin 
recently published a formal professional hypothesis explaining that 
deployed gulf war veterans are at an increased risk for developing MS 
because of their exposure to neurotoxins while in the gulf war theater. 
These neurotoxins include sarin gas, burning oil fields, and more. Some 
of which were purposely used on our soldiers and others a by-product of 
the theatre of war. These same obstacles could be found in our most 
recent conflicts in the Middle East.
    Dr. Wallin hopes to explore this hypothesis through research at the 
VA. He previously authored a letter to the Chairman and Ranking Member 
of this subcommittee urging them to support funding for MS research in 
the CDMRP. In addition to Dr. Wallin's professional hypothesis, I offer 
the following supporting rationale:
  --A recent epidemiological study found an unexpected, two-fold 
        increase in MS among Kuwaiti residents between 1993-2000. This 
        study focused on individuals who lived in the gulf area before, 
        during and after the first gulf conflict. The rapid increase in 
        MS is startling and suggests an environmental trigger for MS. 
        Possible triggers include exposure to air particulates from oil 
        well fires, sarin or infectious agents. By exploring this 
        finding we could learn more about how MS is triggered, how the 
        disease manifests and how to better fight it.
  --More than 28,000 veterans with the diagnosis of MS are receiving 
        care through the VA. However, the VA only treats about one-
        third of the country's veteran population. Therefore, the 
        number of U.S. veteran's with MS could be three times higher. 
        The ``Annals of Neurology'' recently identified 5,345 of these 
        cases to be deemed ``service-connected'' by the VA. That is a 
        very important statistic because I can tell you that running 
        the gauntlet to be deemed service connected is not an easy 
        exercise.
    and finally,
  --The Congressionally-mandated Research Advisory Committee on Gulf 
        War Veterans' Illnesses (RAC) found evidence that supports a 
        probable link between exposures to neurotoxins and the 
        development of neurological disorders. Furthermore, RAC 
        recommended more Federal funding to study the negative effect 
        of neurotoxins on the immune system.
    As news and preliminary evidence circulates of a potential link 
between MS and military service, more and more veterans are coming 
forward with their stories and symptoms. Their stories illustrate a 
unique health concern among our veterans and tell us that there is a 
strong possibility that an environmental trigger could contribute to 
the causes and development of this disease. Learning more about this 
could unlock the mystery of MS.
                            bob wolz's story
    I am a retired Sergeant First Class in the U.S. Army. I served more 
than 20 years as a chemical, biological, radiological, and nuclear 
specialist. I served two tours in Korea and Germany, the gulf war, 
Operation Iraqi Freedom, and various stateside units. I was diagnosed 
with relapsing-remitting multiple sclerosis in the spring of 2006. The 
MS is a lingering wound from my tour of duty in the gulf war, and my 
resulting disease and disabilities have been deemed service connected 
by the VA.
    I served with the First Armored Division, 69th Chemical Company 
during Operation Desert Shield and Operation Desert Storm. There, like 
all veterans. I was given many inoculations, pills, and utilized a 
number of insect repellents. In March of 1991, we were in Kuwait living 
and working within the dark clouds of the burning Kuwaiti oil wells. 
Additionally, I was located within the downwind hazard plume from the 
Khamisiyah Pit demolition that contained sarin and cyclosarin. I 
believe my symptoms started between 1995 and 1996.
    The first signs were muscle weakness on my left side, problems with 
bowel movements (constant diarrhea), and unusual fatigue. To account 
for the weakness, Army doctors felt that I was not doing enough 
physical training and told me to work out more. My diet was allegedly 
the culprit to my problems with bowel movements and it was adjusted 
accordingly. The unusual fatigue was chalked up to insufficient 
physical training and lack of sleep.
    These symptoms continued to worsen and more developed. I started 
walking with a limp and noticed muscle atrophy on my left side. On a 
subsequent visit to the doctor, I was told I probably had a small 
stroke. Blood tests and an EEG were done and everything was reported to 
be normal. The symptoms continued even into my deployment to Operation 
Iraqi Freedom with the 4th Infantry Division in 2003. (This is the 
division that caught Saddam).
    I started experiencing strange blackout conditions. I could hear 
people but their voices were muffled. Constant diarrhea added to my 
fatigue. I consumed a lot of Imodium in an effort to curb the diarrhea, 
so that I could do my job. A couple visits to sick call provided me 
with Cipro and an order to drink more water. One day after getting back 
from a mission, I showered and attempted to trim my fingernails. My 
left hand could not squeeze the clippers to accomplish this simple 
task. I left Iraq and returned to Fort Hood, Texas. Upon my return, I 
had several tests run by a Army neurologist. His diagnosis was that I 
had a reaction to the anti-malaria pills I was taking while deployed. I 
completed my retirement physical for the Army and the VA without 
anything significant being noted except IBS, bad knees, and a bum 
ankle. I retired in March of 2004.
    In 2006, my symptoms continued to worsen and my family doctor ran 
more tests and an ultra sound for a stroke. She was also concerned with 
the size difference in the muscles on my left side as opposed to my 
right. Upon a clean bill of health, I signed up for the VA gulf war 
registry. My appointments started with a visit to the physical 
therapist who told me that I did not have a stroke and there was 
something else going on. After numerous other tests, my MRI revealed a 
19 millimeter lesion on my C4 vertebrae; 1 millimeter on my C1 
vertebrae; and numerous lesions scattered on both sides of my brain. I 
received my diagnosis and started treatment with self-injections three 
times a week in the spring of 2006.
    My current symptoms include partial paralysis on my entire left 
side of my body; muscle weakness on my left side; muscle spasticity, 
stiffness, tremors, and atrophy; foot drop; IBS; ED; MS fatigue; 
intolerance to heat; and cognitive changes that include verbal fluency, 
memory, attention and concentration. Tripping and falling are a usual 
occurrence that has become part of my life.
    The disease has also taken a toll on my family physically and 
mentally. They worry more, watch me at times like a baby, and are 
afraid to let me be alone.
    I have all the reasons in the world to be depressed and invite 
people to swim with me in my pool of pity. I chose not to do that. My 
battle with MS does not compare to the pain I experienced in burying my 
little brother, SGT James Wolz (age 27) in 2000, and my son Jason (age 
20) in 2002. I have the will and ability to fight, not only for myself 
but also for those out there with MS who cannot move, for those that 
will not or cannot speak, and for those who are completely devastated 
by this disease. I walk for them, I speak for them, and I fight for 
them.
                     the need for more ms research
    My story is just one of many. Given this and all the evidence, we 
strongly believe that the DOD has a responsibility to identify and 
research all diseases that could be related to military service, 
including MS.
    Last year Public Law 110-116 made MS eligible for research funding 
under the Peer Reviewed Medical Research Program. This was an important 
step, and we thank you for the opportunity to compete for this funding. 
But given the rationale, the needs of people living with MS--a specific 
program for MS research should be designated under the CDMRP.
    On April 11, Senators Brown and Bunning sent the subcommittee a 
strong bi-partisan letter with 27 of your colleague's signatures urging 
you to support a $15 million appropriation for MS research under the 
CDMRP. This effort is also supported by the Paralyzed Veterans of 
America, the American Academy of Neurology, the United Spinal 
Association and the Vietnam Veterans of America.
    The cause, progress, or severity of symptoms in any one person 
living with MS cannot yet be predicted or cured. But advances in 
research and treatments can help. We appreciate your consideration of 
this request. With your commitment to more research, we can move closer 
to a world free of MS. Thank you.

    Senator Inouye. Now may I recognize the vice chairman.
    Senator Stevens. Thank you very much. I enjoyed the hearing 
very much, Mr. Chairman. I appreciate the witnesses. It was a 
good hearing. Thank you.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Inouye. We have received testimony from Dr. Raymond 
Bye, Jr., Director of Federal Relations, Florida State 
University; Ms. Kathleen Yosko, Chairman of the Board of ARA 
Research Institute. These statements will be made part of the 
record along with any additional statements that the 
subcommittee receives.
    [The statements follow:]
             Prepared Statement of Florida State University
    Mr. Chairman, I would like to thank you and the members of the 
subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capital, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. FSU had over $190 million this past year in 
research awards.
    The University attracts students from every State in the Nation and 
more than 100 foreign countries. The University is committed to high 
admission standards that ensure quality in its student body, which 
currently includes National Merit and National Achievement Scholars, as 
well as students with superior creative talent. Since 2005, FSU 
students have won more than 30 nationally competitive scholarships and 
fellowships including 2 Rhodes Scholarships, 2 Truman Scholarships, 1 
Goldwater, 1 Jack Kent Cooke, and 18 Fulbright Fellowships.
    At FSU, we are proud of our successes as well as our emerging 
reputation as one of the Nation's top public research universities.
    Mr. Chairman, let me summarize three projects of great interest. 
The first project involves improving our Nation's fighting capabilities 
and is called the ``Nanotubes Optimized for Lightweight Exceptional 
Strength (NOLES)/Composite Materials'' Project.
    The U.S. Army's objective of developing effective personnel 
protection and a lighter, stronger fleet of fighting vehicles may be 
achieved through the diminutive nanotubes that (1) are the strongest 
fiber known, (2) have a thermal conductivity two times higher than pure 
diamond, and (3) have unique electrical conductivity properties and an 
ultra-high current carrying capacity [1996 Nobel Laureate Richard 
Smalley]. For producing lightweight multifunctional composites, resins 
impregnated with nanotubes hold the promise of creating structures, 
which, pound for pound, will be the strongest ever known, and hence 
offer maximum personnel and vehicle protection. Benefits are apparent 
not only to defense, but also throughout the commercial world.
    Partnered with the Army Research Laboratory and the top five U.S. 
defense companies--Boeing, General Dynamics, Lockheed Martin, Northrop 
Grumman, and Raytheon--as well as Armor Holdings, one of the Nation's 
largest armor manufacturers, FSU's team of multi-disciplinary faculty 
and students has developed unique design, characterization and rapid 
prototyping capabilities in the field of nano-composite research, 
leading to vital defense applications. For instance, in a partnership 
with Lockheed Martin Missiles and Fire Control--Orlando, FSU 
researchers delivered more than 150 square feet of nanotube/
polycarbonate composites for armor evaluation. The NOLES research team 
is working with the technical staff of General Dynamics in developing 
high performance thermal management materials utilizing nanotubes. The 
NOLES team is collaborating with Boeing and Northrop Grumman to use 
nanotube composites for shielding against electromagnetic interference 
(EMI). In addition, FSU's nanotube composites are being tested for 
missile wings, UAVs and missile guidance systems by several defense 
contractors.
    Two core programs are envisioned for fiscal year 2009: (1) 
developing nanotubes as a material platform for a new generation of 
devices, structures and systems, giving special attention to the design 
and demonstration for defense applications; and (2) utilizing nanotube 
buckypapers and vertically grown nanotube arrays initially for liquid 
crystal display backlighting and eventually for flexible displays. We 
are requesting $4,000,000 for this important program.
    Our second project is also important to our Nation's defense and 
involves our capabilities at sea and is called the ``Integration of 
Electro-kinetic Weapons into the Next Generation Navy Ships'' program.
    The U.S. Navy is developing the next-generation integrated power 
system (NGIPS) for the future war ships that will have an all-electric 
platform of propulsion and weapon loads and an electric power systems 
with rapid reconfigurable distribution systems for integrated fight-
through power.
    On-demand delivery of the large amounts of energy needed to operate 
these types of weapons raises challenging technical issues that must be 
addressed before implementing a combat ready system. These include the 
appropriate topology for the ship electric distribution system for 
rapid reconfiguration to battle readiness and the energy supply 
technology for the weapon systems.
    The goal of this initiative is to investigate the energy delivery 
technologies for electro-kinetic weapons systems and investigate the 
integration and interface issues of these weapons as loads on the ship 
NGIPS through system simulations and prototype tests. The results will 
provide the Navy's ship-builders with vital information to design and 
de-risk deployable ship NGIPS and weapon power supplies.
    With significant support from the Office of Naval Research, FSU has 
established the Center for Advanced Power Systems (CAPS). CAPS has 
integrated a real time digital power system simulation and modeling 
capability and hardware test-bed, capable of testing IPS power system 
components at ratings up to 5MW, offering unique hardware-in-the-loop 
simulation capabilities unavailable anywhere in the world. To support 
this initiative, FSU will partner with the University of Texas--Austin 
and General Atomics. This team combines the best talents for modeling 
and simulation of ship power systems, hardware-in-the-loop testing, 
power supplies for present and future electro-kinetic systems, and 
interfacing the weapon to a power system. University of Texas--Austin 
will work with FSU to provided validated models of system performance 
and in subscale testing to provide more complete model validation where 
needed. General Atomics will provide the power requirements on each 
side of the weapons interface to the shipboard power distribution 
system to better define the interface effort.
    The National High Magnetic Field Laboratory (NHMFL) will utilize 
its research expertise and infrastructure for the proposed development. 
FSU's partnership with University of Florida and Los Alamos National 
Laboratory is a key part of the NHMFL.
    General Atomics is currently involved in the design and development 
of the pulse forming network for the Electromagnetic Rail Gun program 
for the U.S. Navy and the design and development of power distribution 
architectures (i.e., NGIPS and IFTP) for future U.S. Navy all-electric 
combatants. We are seeking $4,500,000 for this important work.
    Finally, the objective of our final project, ``Integrated Cryo-
Cooled High Power Density Systems'', is to approach the goal of 
achieving cryo-cooled high power densities through systems integration, 
management of heat generation, and removal in the electrical system. 
The systems approach begins with identifying type of power system and 
the enabling technologies needed and then pursuing research programs to 
advance the enabling technologies.
    The research activities will be directed in several areas:
  --Systems Analysis.--Extensive system modeling and simulation of the 
        integrated electrical and thermal systems to understand dynamic 
        performance under normal and adverse conditions is necessary to 
        achieve a useful system. Develop prototypes of key technologies 
        and test in hardware-in-the-loop simulations at levels of 
        several megawatts (MW) to demonstrate the technologies.
  --Materials: Conductors, Semi-conductors and Insulation.--
        Characterization of conductor materials (both normal and 
        superconducting), semi-conductors (for use in power electronic 
        components) and insulating materials (both thermal and 
        electrical) at cryogenic temperatures to obtain the data needed 
        to predict system performance and design components. Full 
        understanding of the materials and their characteristics is 
        important.
  --Cryo-thermal Systems.--Optimize thermal system options such as 
        conductive heat transfer systems, fluid heat transfer systems, 
        insulation, packaging and cooling equipment for performance, 
        reliability, and failure modes. Because heat leaks from the 
        ambient to the low temperature environment are critical to 
        successful performance and quite sensitive to quality of 
        construction, the issue of constructability at reasonable cost 
        is a major issue for investigation.
  --System Components.--Consider new concepts for design of system 
        components and interfaces to achieve optimum system 
        integration, such as conductors, motors, transformers, 
        actuators, fault current limiters, and power electronics 
        operating at cryogenic temperatures. High power density cryo-
        cooled systems require the use of new families of materials.
    The NHMFL will be involved in the proposed development. Also FSU 
and the University of Central Florida will provide research on 
integration, efficiency, and capability of pulse tube cryo-coolers. We 
are seeking $4,000,000 for this project.
    Mr. Chairman, we believe this research is vitally important to our 
country and would appreciate your support.
                                 ______
                                 
            Prepared Statement of the ARA Research Institute
    Chairman Inouye, Ranking Member Stevens, and other distinguished 
members of the committee, on behalf of the ARA Research Institute I 
thank you for this opportunity to comment on actions this committee can 
take to address the needs of soldiers who are gravely injured during 
their service. Mr. Chairman, you have been a leader in ensuring that 
the brave men and women of our military have the resources and care 
they need to effectively protect our country. The ARA Research 
Institute applauds your efforts.
    ARA Research Institute, a 501(c)(3) organization based in 
Springfield, Illinois, was founded in 1986 to carry on fundamental 
scientific research and education relating to furnishing, 
administering, and financing medical rehabilitation and physical 
therapy services, and to publish and distribute the findings to the 
Government and the public. Since 2006, the ARA Research Institute has 
funded numerous research projects addressing significant medical 
rehabilitation policy and practice issues. The work of the Institute 
has received strong support by the hospital medical rehabilitation 
field--at a February 2007 ``State of the Science'' symposium, ARA and 
other national organizations brought together the best minds in the 
Nation to review the Institute's research findings from the initial 
projects funded and chart a course defining future projects.
    Policymakers at all levels, and in all political parties, have 
recognized the importance of providing quality medical and 
rehabilitative care to our wounded troops. President Bush's proposed 
fiscal year 2009 budget supports the Veterans Administration (VA) in 
implementing the recommendations of the President's Commission on Care 
for America's Returning Wounded Warriors. Specifically, the President's 
Budget devotes $252 million to research projects focused on veterans 
returning from Iraq and Afghanistan. Indeed, the need is great--the 
injuries sustained in these conflicts are severe and pervasive.
    America now faces a national opportunity to give back to the 
members of the Armed Forces who are selflessly serving our country, 
sometimes at great physical and lifetime peril. In addition to efforts 
by the Government, the plight of returning service men and women facing 
enormous physical and mental disabilities demands a national private 
sector response. Recent media attention has focused national public 
awareness on the catastrophic injuries many of these individuals face 
and certain inadequacies in the current Veterans' health system. We are 
all painfully aware of the large number of veterans who return with 
wounds of massive proportion, as well as potentially undiagnosed 
traumatic brain injuries, many of which are causing both the VA and 
private providers of rehabilitation care challenges heretofore never 
encountered at this magnitude.
    We applaud the VA's leadership on behalf of our Nation's heroes who 
have returned with life-shattering injuries. Unfortunately, public 
providers are not always able to adequately deal with patients with 
missing limbs or multiple serious disabling conditions in geographic 
areas preferable to patients and families. Cases have been brought to 
our attention where injuries presented overwhelming challenges to 
veterans, their families, and their VA providers. In some instances, 
private inpatient medical rehabilitation hospitals and units perhaps 
present the best opportunity of reintegrating persons with such 
injuries into their own communities and our society, yet private 
inpatient rehabilitation hospitals are limited in their ability to 
serve combat veterans returning from the current war. Our country has 
some of the highest quality inpatient medical rehabilitation hospitals 
in the world, and these private sector resources should be equally 
accessible to our returning veterans. It makes no sense to spend 
taxpayer dollars to duplicate capacity and expertise already available 
in the private sector, when the fundamental issue is accessibility.
    Another important component of caring for our wounded soldiers is 
funding research to determine the most appropriate and most effective 
ways to care for them, research to capture best practices, and clinical 
research to improve the care and outcomes of medical rehabilitation. To 
ensure an optimal Federal research investment, private sector inpatient 
rehabilitation hospital research should be funded along with any public 
sector research funding. The ARA Research Institute is a non-profit 
organization dedicated to stimulating research in the medical 
rehabilitation field. The Institute is calling for a Federal-private 
sector partnership to forge an exciting and critically necessary 
research demonstration project designed to provide alternative 
inpatient medical rehabilitation services to returning war veterans.
    The Veteran Rehabilitation Research and Demonstration Project will 
build a bridge between public and private sector resources that can be 
dedicated to bringing these soldiers back to their full human 
potential. Specifically, if Federal funding is made available and with 
additional private sector contributions, the Institute will issue a 
competitive RFP and distribute a number of demonstration grants to 
rehabilitation hospitals and units in various areas of the country to 
provide medical rehabilitation services to injured veterans. These 
hospitals will be required to collaborate with VA resources and their 
peer group of participating hospitals to identify the best practices 
and delineate the most effective ways to treat the needs of these 
soldiers. The Institute has submitted appropriations requests to help 
build this project, and respectfully asks that the committee direct 
funding of this project.
    The national conscience demands that all potential medical 
resources, including research funding, be available to bring our 
soldiers back to their full human potential. We ask the committee to 
include full funding this year for the Veteran Rehabilitation Research 
and Demonstration Project, to ensure private sector participation in 
ensuring that our wounded warriors receive the highest quality of care 
they need and deserve.
                                 ______
                                 
          Prepared Statement of the U.S. Naval Sea Cadet Corps
                                request
    It is respectfully requested that $300,000 be appropriated for the 
Naval Sea Cadet Corps (NSCC) in fiscal year 2009, so that when added to 
the Navy budgeted $1,700,000 will restore full funding at the 
$2,000,000 requirement level. Further, in order to ensure future 
funding at the full $2,000,000 requirement, consideration of including 
the following conference language is requested:

    ``Congress is pleased to learn that Navy has funded the U.S. Naval 
Sea Cadet Corps in the fiscal year 2009 budget as urged by the Senate 
and House in the 2008 Defense Budget Conference Report. Conferees 
include an additional $300,000 for the U.S. Naval Sea Cadet Corps, that 
when added to the $1,700,000 in the fiscal year 2009 budget request 
will fund the program at the full $2,000,000 requested. Conferees urge 
the Navy to continue to fund this program and increase the POM level to 
$2,000,000 for the U.S. Naval Sea Cadet Corps.''
Background
    At the request of the Department of the Navy, the Navy League of 
the United States established the NSCC in 1958 to ``create a favorable 
image of the Navy on the part of American youth.'' On September 10, 
1962, the U.S. Congress federally chartered the NSCC under Public Law 
87-655 as a non-profit civilian youth training organization for young 
people, ages 13-17. A National Board of Directors, whose Chairman 
serves as the National Vice President of the Navy League for Youth 
Programs, establishes NSCC policy and management guidance for operation 
and administration. A full-time Executive Director and small staff in 
Arlington, Virginia, administer NSCC's day-to-day operations. These 
professionals work with volunteer regional directors, unit commanding 
officers, and local sponsors. They also collaborate with Navy League 
councils and other civic, or patriotic organizations, and with local 
school systems.
    In close cooperation with, and the support of the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently more than 362 Sea Cadet units in all 50 States, 
Puerto Rico, and Guam. Registered enrollment is 9,064.
NSCC objectives
  --Develop an interest and skill in seamanship and seagoing subjects.
  --Develop an appreciation for our Navy's history, customs, 
        traditions, and its significant role in national defense.
  --Develop positive qualities of patriotism, courage, self-reliance, 
        confidence, pride in our Nation, and other attributes, which 
        contribute to development of strong moral character, good 
        citizenship traits, and a drug-free, gang-free lifestyle.
  --Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11-13. While it is not part 
of the Federal charter provided by Congress, the Navy League of the 
United States sponsors NLCC. NLCC was established ``. . . to give young 
people mental, moral, and physical training through the medium of naval 
and other instruction, with the objective of developing principles of 
patriotism and good citizenship, instilling in them a sense of duty, 
discipline, self-respect, self-confidence, and a respect for others.''
Benefits
    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem, and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 197 Cadets have received financial assistance 
in continuing their education in a chosen career field at college.
Activities
    Naval Sea Cadets pursue a variety of activities including 
classroom, practical, and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).
Senior leadership
    Volunteer NSCC officers and instructors furnish senior leadership 
for the program. They willingly contribute their time and effort to 
serve America's youth. The Cadet Corps programs succeed because of 
their dedicated, active participation and commitment to the principles 
upon which the Corps was founded. Cadet Corps officers are appointed 
from the civilian sector or from active, reserve, or retired military 
status. All are required to take orientation, intermediate, and 
advanced Officer Professional Development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing an NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space-available air travel in conjunction with carrying 
out training duty orders.
Drug-free and gang-free environment
    One of the most important benefits of the Sea Cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug- and gang-free environment. 
Supporting this effort is a close liaison with the U.S. Department of 
Justice Drug Enforcement Administration (DEA). The DEA offers the 
services of all DEA Demand Reduction Coordinators to provide individual 
unit training, as well as their being an integral part of our boot camp 
training program.
    Among a variety of awards and ribbons that Cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in he areas of leadership, perseverance and courage. 
Requirements include intensive anti-drug program training and giving 
anti-drug presentations to interested community groups.
Training
            Local training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps officers and 
instructors, as well as Navy and Coast Guard instructors.
    Cadets receive classroom and hands-on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, Navy history, naval customs and traditions, and 
other nautical skills. Training may be held aboard ships, small boats 
or aircraft, depending upon platform availability. In their training 
Cadets also learn about and are exposed to a wide variety of civilian 
and military career opportunities through field trips and educational 
tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged and scheduled to 
participate in civic activities and events to include parades, social 
work and community projects, all part of the ``whole person'' training 
concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site and focuses on general 
orientation to and familiarization with, the entire program. It also 
prepares them for their first major away from home training event, the 
2 weeks recruit training which all Sea Cadets must successfully 
complete.
    The Navy League Cadet Corps training program teaches younger Cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability, and a sense of responsibility for shipmates. In 
accordance with a Navy-oriented syllabus, this education prepares them 
for the higher level of training they will receive as Naval Sea Cadets.
Summer training
    After enrolling, all Sea Cadets must first attend a 2-week recruit 
training taught at the Navy's Recruit Training Command, at other Naval 
Bases or stations, and at regional recruit training sites using other 
military host resources. Instructed by Navy or NSCC Recruit Division 
Commanders, Cadets train to a condensed version of the basic training 
that Navy enlistees receive. The curriculum is provided by the Navy and 
taught at all training sites. In 2007, there were 23 recruit training 
classes at 21 locations, including 2 classes conducted over the winter 
holiday break and another held over spring break. About 18 nationwide 
to 22 regional sites are required to accommodate the steady demand for 
quotas and also to keep cadet and adult travel costs to a minimum. Just 
over 2,000 cadets attended recruit training in 2007 supported by 350 
adult volunteers.
    A Cadet who successfully completes recruit training is eligible for 
advanced training in various fields of choice. Cadets can experience 
the excitement of ``hands-on'' practical training aboard Navy and Coast 
Guard vessels, ranging from tugboats and cutters to the largest 
nuclear-powered aircraft carriers. Female Cadets may also train aboard 
any ship that has females assigned as part of the ship's company. 
Qualified Cadets choose from such Sea Cadet advanced training as basic/
advanced airman, ceremonial guard, seamanship, sailing, SEAL training, 
amphibious operations, leadership, firefighting and emergency services, 
Homeland security, mine warfare operations, Navy diving submarine 
orientation and training in occupational specialties, including health 
care, legal, music, master-at-arms, and police science and 
construction.
    The Cadet Corp programs excel in quality and diversity of training 
offered, with more than 7,000 training orders carried out for the 2007 
summer training program. Cadets faced a myriad of challenging training 
opportunities designed to instill leadership and develop self-reliance, 
enabling them to become familiar with the full spectrum of Navy and 
Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of Federal funding for 
2001 through 2007. The NSCC still continues to experience an average 
increased recruit and advanced training attendance of well over 2000 
cadets per year over those years in which Federal funding was not 
available.
    While recruit training acquaints cadets with Navy life and Navy 
style discipline, advanced training focuses on military and general 
career fields and opportunities, and also affords the cadets many 
entertaining, drug free, disciplined yet fun activities over the 
summer. The popularity of the training continues to grow not with just 
overall numbers but also as evidenced with numerous cadets performing 
multiple 2-week training sessions during the summer of 2007.
    Training Highlights for 2007.--The 2007 training focus was once 
again on providing every cadet the opportunity to perform either 
recruit or advanced training during the year. To that end emphasis was 
placed on maintaining all traditional and new training opportunities 
developed since Federal funding was approved for the NSCC. These 
include more classes in sailing and legal (JAG) training, expanded SEAL 
training opportunity, more SCUBA and diving training classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, more aviation-related training, and additional honor guard 
training opportunities. Other highlights included:
  --Maintained national recruit training opportunity for every cadet 
        wanting to participate with 23 recruit training evolutions in 
        2007.
  --Maintained cadet training opportunities beyond the traditional 
        summer evolutions to include advanced and recruit training 
        classes over the Thanksgiving high school recess, the Christmas 
        recess and the spring recess. During 2007, 13 additional 
        classes over these school breaks were conducted with 566 cadets 
        participating. They were supported by another 89 adult 
        volunteers.
  --Continued NSCC's aggressive NSCC Officer Professional Development 
        Program, with three different weekend courses tailored to 
        improving volunteer knowledge and leadership skills. More than 
        500 volunteers attended 2007 training at 37 different training 
        evolutions.
  --Continued placing cadets onboard USCG Barque Eagle for a summer 
        underway orientation training cruise.
  --Expanded seamanship training on the Great Lakes with four underway 
        cruises onboard two NSCC YP's and the NSCC torpedo retriever 
        ``Grayfox''.
  --Continued NSCC cadet opportunity for advanced training in the 
        medical field through the expanded medical ``first responder'' 
        training at Naval Hospital Great Lakes, Illinois, and 
        continuing the very advanced, unique ``surgical tech'' training 
        at the Naval Medical Center in San Diego, California.
  --Continued NSCC's maritime focus through its expanded sail training 
        with basic, intermediate, and advanced sailing classes offered 
        in San Diego, California, and two additional classes on board 
        ``tall ships'' in Newport, Rhode Island.
  --Continued to place cadets aboard USCG stations, cutters, and 
        tenders for what proves to be among the best of the individual 
        training opportunities offered in the NSCC.
  --Placed cadets onboard USN ships under local orders as operating 
        schedules and opportunity permitted.
  --Promoted cadets' orientation of the U.S. Naval Academy and the U.S. 
        Coast Guard Academy by offering tuition offsets to cadets 
        accepted into either academies summer orientation program for 
        high school juniors (NASS or AIM). Twenty-three cadets 
        participated in 2007.
  --Again, as in prior years, enjoyed particularly outstanding support 
        from members of the United States Naval Reserve, the Army, and 
        National Guard, whose help and leadership remains essential for 
        summer training.
            International Exchange Program (IEP)
    For 2007, the NSCC again continued its' highly competitive, merit 
based, and very low cost to the cadet, IEP. Cadets were placed in 
Australia, United Kingdom, Sweden, Netherlands, Hong Kong, Scotland, 
Russia, and Bermuda to train with fellow cadets in these host nations. 
The NSCC and Canada maintained their traditional exchanges in Nova 
Scotia and British Columbia, and the NSCC hosted visiting international 
cadets in Newport, Rhode Island, and at ANG Fort Lewis in Washington 
State for 2 weeks of NSCC-sponsored training.
            Navy League Cadet training
    In 2007, approximately 950 Navy League cadets and escorts attended 
Navy League Orientation and Advanced Training nationwide. Participation 
in 2007 showed an increase over 2006, surmised to be attributable to 
training opportunities. Approximately 244 Navy League cadets and their 
escorts attended advanced Navy League training where cadets learn about 
small boats and small boat safety using the U.S. Coast Guard's safe 
boating curriculum. Other advanced Navy League training sites emphasize 
leadership training. Both serve the program well in preparing League 
cadets for further training in the NSCC, and particularly for their 
first recruit training.
            Scholarships
    The NSCC scholarship program was established to provide financial 
assistance to deserving Cadets who wished to further their education at 
the college level. Established in 1975, the scholarship program 
consists of a family of funds: the NSCC Scholarship Fund; the Navy 
League Stockholm Scholarship; and the NSCC ``named scholarship'' 
program, designed to recognize an individual, corporation, 
organization, or foundation since the inception of the scholarship 
program, 223 scholarships have been awarded to 209 Cadets (includes 
some renewals) totaling over $291,500.
            Service accessions
    The NSCC was formed at the request of the Department of the Navy as 
a means to ``enhance the Navy image in the minds of American youth.'' 
To accomplish this, ongoing presentations illustrate to Naval Sea 
Cadets the advantages and benefits of careers in the armed services, 
and in particular, the sea services.
    While there is no service obligation associated with the NSCC 
program, many Sea Cadets choose to enlist or enroll in officer training 
programs in all the services.
    The NSCC was formed at the request of the Department of the Navy as 
a means to ``enhance the Navy image in the minds of American youth.'' 
To accomplish this, ongoing training illustrates to Naval Sea Cadets 
the advantages and benefits of careers in the armed services, and in 
particular, the sea services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units which occurs during the 
period January through March. The reported accessions to the services 
are only those known to the unit. There are many accessions that go 
unreported, that occur 2-5 years after Cadets leave their units. With 
about 78 percent of the units reporting, the survey indicates that 519 
known Cadets entered the Armed Forces during the reporting year ending 
December 31, 2005. This is an increase over the previous years' 
accessions. Each Cadet entering the Armed Forces is a disciplined, 
well-trained individual and progresses much better than those with no 
experience. Attrition of former cadets prior to their completion of 
obligated service is very low compared to other entrees.

------------------------------------------------------------------------
                          Unit                                Cadets
------------------------------------------------------------------------
U.S. Naval Academy (2006)...............................             159
U.S. Military Academy...................................               7
U.S. Coast Guard Academy................................               7
U.S. Air Force Academy..................................               5
U.S. Merchant Marine Academy............................              12
NROTC...................................................              32
OCS Navy................................................               4
OCS Army................................................               9
OCS Air Force...........................................  ..............
OCS Marine Corps........................................               1
USNA Prep School........................................               5
Navy--Enlisted..........................................          \1\ 38
U.S. Coast Guard--Enlisted..............................              12
Marine Corps--Enlisted..................................              67
Army--Enlisted..........................................              41
Air Force--Enlisted.....................................               9
National Guard--Enlisted................................              11
                                                         ---------------
      Total.............................................             519
------------------------------------------------------------------------
\1\ The U.S. Navy Recruiting Command has advised that out of 20,000 ex-
  Naval Sea Cadets eligible each year, approximately 2,000 join the
  services (Eligible numbers are all ex-Naval Sea Cadets within the
  recruiting eligible age range).

            Program finances
    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance, and training costs. Out-of-pocket costs can reach 
$500 each year--not including the costs for summer training. Assistance 
is made available so that no young person is denied access to the 
program, regardless of social or economic background.
    Federally funded at the $1,000,000 level in fiscal years 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 and $1,700,000 in 
2005 (of the $2,000,000 requested), and $2,000,000 in fiscal year 2006 
and fiscal year 2007 all of these fund were used to offset individual 
Cadet's individual costs for summer training, conduct of background 
checks for adult volunteers and for reducing future enrollment costs 
for Cadets. In addition to the Federal fund received, NSCC receives 
under $700,000 per year from other sources, which includes around 
$226,000 in enrollment fees from Cadets and adult volunteers. For a 
variety of reasons, at a minimum, this current level of funding is 
necessary to sustain this program and the full $2,000,000 would allow 
for program expansion:
  --All time high in number of enrolled Sea Cadets.
  --General inflation of all costs.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements.
  --Lack of on-base transportation, as the navy no longer ``owns'' 
        buses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual Cadet's meal costs.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases.
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2009.

                         CONCLUSION OF HEARINGS

    Senator Inouye. I would like to thank all the witnesses who 
have testified this morning and participated and contributed 
much. We will take all your issues and your suggestions very 
seriously. As I said in the opening, believe it or not, we read 
them.
    This will conclude our scheduled hearings for this fiscal 
year and we will begin working on it. We hope to come out 
before the others do. So with that, I thank you and the 
subcommittee stands in recess subject to the call of the Chair.
    [Whereupon, at 11:51 a.m., Wednesday, June 4, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]













       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

ARA Research Institute, Prepared Statement of the................   687

Bergman, Lieutenant General Jack W., Commander, Marine Forces 
  Reserve, United States Marine Corps Reserve, Department of 
  Defense........................................................   410
    Prepared Statement of........................................   411
    Questions Submitted to.......................................   442
Blum, Lieutenant General H Steven, Chief, National Guard Bureau, 
  Department of Defense..........................................   447
    Prepared Statement of........................................   450
    Questions Submitted to.......................................   492
Boehm-Davis, Deborah, Ph.D., Chair, Department of Psychology, 
  George Mason University, on behalf of the American 
  Psychological Association......................................   608
    Prepared Statement of........................................   609
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Questions Submitted by.......................61, 221, 223, 313, 333
    Statement of.................................................   501
Bradley, Lieutenant General John A., Chief, Air Force Reserve, 
  Department of Defense..........................................   420
    Prepared Statement of........................................   421
    Questions Submitted to.......................................   441
Bruzek-Kohler, Rear Admiral Christine M., Director, United States 
  Navy Nurse Corps, Medical Health Programs, Department of 
  Defense........................................................   281
    Prepared Statement of........................................   283
    Questions Submitted to.......................................   321

Campbell, Lieutenant General Kevin T., United States Army, 
  Commanding General, United States Army Space and Missile 
  Defense Command, United States Army Strategic Forces Command 
  and Joint Functional Component Command for Integrated Missile 
  Defense, Missile Defense Agency, Department of Defense.........   353
    Prepared Statement of........................................   354
    Question Submitted to........................................   376
Carlebach, Mark, on behalf of the Ovarian Cancer National 
  Alliance.......................................................   623
    Prepared Statement of........................................   624
Casey, General George W., Jr., Chief of Staff, Office of the 
  Secretary, Department of the Army, Department of Defense.......     1
    Prepared Statement of........................................     6
    Questions Submitted to.......................................    59
    Statement of.................................................    29
Class, Commander John S., USN (Retired), Deputy Director, 
  Government Relations for Health Affairs, Military Officers 
  Association of America.........................................   668
    Prepared Statement of........................................   669
Cochran, Senator Thad, U.S. Senator From Mississippi:
    Prepared Statements of.............................3, 171, 227, 538
    Questions Submitted by.......................................60, 65
    Statements of...............................................71, 338
Conway, General James T., Commandant, United States Marine Corps, 
  Department of the Navy, Department of Defense..................   112
    Prepared Statement of........................................   114
    Questions Submitted to.......................................   164
Cotton, Vice Admiral John G., Chief, Navy Reserve, Department of 
  Defense........................................................   404
    Prepared Statement of........................................   404
    Questions Submitted to.......................................   444

Dahlman, George, Senior Vice President for Public Policy, The 
  Leukemia and Lymphoma Society..................................   640
    Prepared Statement of........................................   641
Davis, John R., Director of Legislative Programs, The Fleet 
  Reserve Association............................................   626
    Prepared Statement of........................................   627
Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by..............................67, 219, 496, 554
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Statement of...................................................   172
Durbin, Senator Richard J., U.S. Senator From Illinois:
    Prepared Statement of........................................   435
    Questions Submitted by..................65, 317, 323, 492, 544, 559

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by.............................161, 164, 551, 565
Florida State University, Prepared Statement of..................   685
Foil, Martin B., Jr., Chairman, Board of Directors, National 
  Brain Injury Research, Treatment and Training Foundation.......   646
    Prepared Statement of........................................   647

Gates, Hon. Robert M. Secretary, Office of the Secretary, 
  Department of Defense..........................................   499
    Opening Statement of.........................................   502
    Prepared Statement of........................................   504
    Questions Submitted to.......................................   543
Geren, Hon. Pete, Secretary, Office of the Secretary, Department 
  of the Army, Department of Defense.............................     1
    Prepared Statement of........................................     6
    Questions Submitted to.......................................    65
Gipe, Sergeant Major John, Army National Guard, Department of 
  Defense........................................................   447
Gregg, Senator Judd, U.S. Senator From New Hampshire, Questions 
  Submitted by...................................................   161

Hake, CMSGT Jonathan E., USAF (Retired), Director of Military and 
  Government Relations, Air Force Sergeants Association..........   664
    Prepared Statement of........................................   665
Hanson, Captain Marshall, USNR (Retired), Co-Chairperson, 
  National Military and Veterans Alliance........................   585
    Prepared Statement of........................................   586
Hesdorffer, Mary, Medical Liaison, Mesothelioma Applied Research 
  Foundation.....................................................   655
    Prepared Statement of........................................   657
Hinestrosa, Carolina, Executive Vice President, National Breast 
  Cancer Coalition...............................................   612
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Prepared 
  Statement of...................................................     3

Inouye, Senator Daniel K., U.S. Senator From Hawaii:
    Opening Statements of........................69, 169, 225, 337, 499
    Prepared Statement of........................................   379
    Questions Submitted by.......................................  159,
                                162, 164, 218, 223, 307, 315, 321, 327, 
                                440, 441, 442, 444, 489, 492, 495, 543
    Statements of................................................1, 569

Jonas, Tina, Under Secretary of Defense, Comptroller, Department 
  of De- 
  fense..........................................................   499
Jones, Rick, Legislative Director, National Association for 
  Uniformed Services.............................................   631
    Prepared Statement of........................................   632

Leahy, Senator Patrick J., U.S. Senator From Vermont, Statement 
  of.............................................................   502
Leland, John, Ph.D., Director, University of Dayton Research 
  Institute and Chair, DOD Task Force, American Society of 
  Mechanical Engineers...........................................   581
    Prepared Statement of........................................   582
Levine, Myron M., M.D., D.P.P.H., Past President, on behalf of 
  the American Society of Tropical Medicine and Hygiene..........   618
    Prepared Statement of........................................   620

McCarthy, Lieutenant General Dennis M., USMC (Retired), Executive 
  Director, Reserve Officers Association of the United States....   592
    Prepared Statement of........................................   593
McConnell, Senator Mitch, U.S. Senator From Kentucky, Questions 
  Submitted by...................................................   555
McKinley, Lieutenant General Craig R., Director, Air National 
  Guard, Department of Defense...................................   448
    Questions Submitted to.......................................   495
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Prepared Statement of........................................   227
    Questions Submitted by...........................309, 319, 326, 330
    Statement of.................................................   227
Moseley, General T. Michael, Chief of Staff, United States Air 
  Force, Department of Defense...................................   193
    Prepared Statement of........................................   175
    Questions Submitted to.......................................   223
Mullen, Admiral Michael G., United States Navy, Chairman, Joint 
  Chiefs of Staff, Department of Defense.........................   509
    Prepared Statement of........................................   512
    Questions Submitted to.......................................   559
Murray, Senator Patty, U.S. Senator From Washington, Statement of   171

Obering, Lieutenant General Henry A., III, United States Air 
  Force, Director, Missile Defense Agency, Department of Defense.   337
    Prepared Statement of........................................   342
    Question Submitted to........................................   375

Paul, Prem Ph.D., Vice Chancellor for Research and Economic 
  Development, University of Nebraska-Lincoln; Chair, EPSCoR-IDEA 
  Coalition......................................................   569
    Prepared Statement of........................................   570
Pollak, Andrew N., M.D., Chair, Extremity War Injuries Project 
  Team, American Academy of Orthopaedic Surgeons.................   572
    Prepared Statement of........................................   574
Pollock, Major General Gale S., Chief, Army Nurse Corps, United 
  States Army, Medical Health Programs, Department of Defense....   270
    Prepared Statement of........................................   273
    Questions Submitted to.......................................   315

Rank, Major General Melissa A., Assistant Air Force Surgeon 
  General Nursing Services and Assistant Air Force Surgeon 
  General Medical Force Development, Medical Health Programs, 
  Department of Defense..........................................   294
    Prepared Statement of........................................   296
Robinson, Vice Admiral Adam M., Jr., Surgeon General, Department 
  of the Navy, Medical Health Programs, Department of Defense....   235
    Prepared Statement of........................................   238
    Questions Submitted to.......................................   327
Roudebush, Lieutenant General James G., Surgeon General, 
  Department of the Air Force, Medical Health Programs, 
  Department of Defense..........................................   243
    Prepared Statement of........................................   244
Roughead, Admiral Gary, Chief of Naval Operations, Department of 
  the Navy, Department of Defense................................    87
    Prepared Statement of........................................    88
    Questions Submitted to.......................................   162

Schoomaker, Lieutenant General Eric B., Surgeon General, United 
  States Army and Commander, United States Army Medical Command, 
  Medical Health Programs, Department of Defense.................   225
    Prepared Statement of........................................   231
    Questions Submitted to.......................................   307
Shelby, Senator Richard C., U.S. Senator From Alabama:
    Prepared Statement of........................................   172
    Questions Submitted by.....................................375, 376
Specter, Senator Arlen, U.S. Senator From Pennsylvania:
    Questions Submitted by.......................................   553
    Statement of.................................................   500
Steiner, Captain Walt, United States Navy (Retired), President, 
  Naval Reserve Association......................................   651
    Prepared Statement of........................................   652
Stevens, Senator Ted, U.S. Senator From Alaska:
    Opening Statement of.........................................   379
    Prepared Statement of........................................   226
    Questions Submitted by.........59, 67, 312, 321, 327, 332, 552, 566
    Statements of.............................2, 70, 170, 226, 338, 500
Stultz, Lieutenant General Jack C., Chief and Commanding, United 
  States Army Reserve, Department of Defense.....................   379
    Prepared Statement of........................................   382
    Questions Submitted to.......................................   440
Suchy, Keith W., D.D.S., Chairman, Council on Government Affairs, 
  American Dental Association....................................   601
    Prepared Statement of........................................   602

U.S. Naval Sea Cadet Corps, Prepared Statement of the............   688

Vaughn, Lieutenant General Clyde A., Director, Army National 
  Guard, Department of Defense...................................   447
    Questions Submitted to.......................................   489
Visco, Fran, J.D., President, National Breast Cancer Coalition, 
  Prepared Statement of..........................................   614

Whitten, Ronald B., Board Member, Georgia Chapter, Lymphoma 
  Research Foundation............................................   660
    Prepared Statement of........................................   661
Wilson, Wanda, Ph.D., President, American Association of Nurse 
  Anesthetists...................................................   676
    Prepared Statement of........................................   677
Winter, Hon. Donald C., Secretary of the Navy, Office of the 
  Secretary, Department of the Navy, Department of Defense.......    69
    Prepared Statement of........................................    73
    Questions Submitted to.......................................   159
    Statement of.................................................    71
Wolz, Bob, on behalf of the National Multiple Sclerosis Society..   681
    Prepared Statement of........................................   683
Wynne, Hon. Michael W., Secretary of the Air Force, Office of the 
  Secretary, Department of the Air Force, Department of Defense..   169
    Prepared Statement of........................................   175
    Questions Submitted to.......................................   218

















                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

                                                                   Page

Additional Committee Questions...................................   218
Air Force:
    End Strength.................................................   204
    Modernization Strategy.......................................   210
    Special Operations--Cannon Air Force Base, New Mexico........   208
America's Airmen.................................................   192
B-52 Aircraft....................................................   202
Combat Search and Rescue Helicopter..............................   214
Consolidated Communication Facility--Cannon Air Force Base.......   208
Cost Overrun.....................................................   221
Cyber Domain.....................................................   223
C-17s..........................................................196, 197
C-5:
    Aircraft.....................................................   196
    Reliability/RERP.............................................   218
Elmendorf Hospital...............................................   198
End Strength.....................................................   218
Foreign Military Sales F-22......................................   223
Four-Corner Basing Plan F-22.....................................   222
F-22:
    Delivery Schedule to Holloman AFB, NM........................   207
    Military Construction at Holloman Air Force Base, New Mexic206, 207
    Plan B.......................................................   221
F-22A............................................................   207
Joint:
    Basing.......................................................   213
    New Mexico Efforts...........................................   220
KC-X and Military Construction...................................   222
Kirtland AFB BRAC................................................   219
New Mexico ANG...................................................   220
Next Generation Bomber...........................................   203
Prepare for Tomorrow's Challenges................................   185
Recapitalization and Modernization...............................   173
Retirement of C-5................................................   222
Six American Airmen..............................................   193
Strategic Imperative.............................................   176
Take Care of our People..........................................   182
Tanker Replacement Contract Award..............................199, 209
The Nation's Guardians...........................................   175
Total Force Integration..........................................   207
Unfunded List....................................................   219
Unmanned Aerial Vehicle Acquisition..............................   205
Win Today's Fight................................................   180

                         Department of the Army

                        Office of the Secretary

Additional Committee Questions...................................    59
Airlift Requirements.............................................    67
An Out of Balance Army...........................................    41
Army:
    Families.....................................................    52
    Family Covenant..............................................    58
    Medical Action Plan..........................................    52
Contracting Task Force Initiatives...............................    65
Contractor:
    Issues.......................................................    45
    Personnel....................................................    32
Deactivation of High Energy Laser Test Facility (HELSTF).........    44
Deploying Medically Fit Soldiers.................................    62
Education........................................................    42
Engineer Battalion at WSMR.......................................    43
Enlistment Waivers...............................................    36
Facilities to Support Grow the Army..............................    35
Fire Scout Unmanned Aerial Vehicles..............................    66
Fiscal Year 2008 Supplemental....................................    59
Funding for White Sands Missile Range in Fiscal Year 2009........    43
Funding Shortfalls for Reset.....................................    59
Future Combat Systems (FCS)..................................41, 59, 62
Helmet Sensor Program............................................    65
High Energy Laser Test Facility (HELSTF).........................    68
Joint Cargo Aircraft (JCA).......................................    60
Joint High Speed Vessel (JHSV)...................................    60
Joint-Air-to-Ground Missile Request for Proposal Release Date....    41
Lakota...........................................................    60
Language Training................................................    37
Logistics Civil Augmentation Program (LOGCAP) Contract Issues....    47
Mental Health:
    Practitioners................................................    63
    Professionals................................................    54
Monogrammed Towels and Food Service Headcounts...................    47
National Guard Provisions of NDAA 08.............................    64
Nonpotable Water.................................................    47
Out of Balance Army..............................................    44
Preserving the Strength of the Nation............................    16
Progess in:
    Afghanistan..................................................    39
    Iraq.........................................................    39
Recruting and Retention..........................................    34
Reset............................................................38, 50
Seeking Mental Health Treatment..................................    55
Stewardship, Innovation, and Accomplishments.....................    14
Strategic Context................................................     8
Sustain Soldiers and Families in an Era of Persistent Conflict...    61
Two Critical Challenges: Restoring Balance and Funding...........    10
White Sands Missile Range........................................    67
Yellow Ribbon Reintegration Program..............................    57

                         Department of the Navy

                        Office of the Secretary

Additional Committee Questions...................................   159
Aegis Ballistic Missile Defense..................................   158
Amphibious Ship Balance Between Pacific And Atlantic.............   164
Beyond the Horizon--Posturing the Marine Corps for the Future....   136
Bremerton CVN Pier...............................................   158
Comparative Capability of DDG 1000...............................   162
Comparative Cost of DDG 1000.....................................   161
DDG 1000.........................................................   141
Electronic Warfare...............................................   157
Executive Summary................................................   114
Expeditionary Fighting Vehicle:
    Amphibious Assault Vehicle Plans.............................   166
    Key Performance Parameters...................................   166
    Program Improvement..........................................   165
Family:
    Readiness....................................................   151
    Support Services.............................................   149
Guam.............................................................   145
    Relocation:
        Impact of Misconduct Incidents...........................   166
        Personnel Measures for Positive Relationship.............   167
Individual Augmentees (IAs)......................................   156
Joint:
    High Speed Vessel (JHSV).....................................   147
    Light Tactical Vehicle and Up-Armored HMMWVs.................   165
Littoral Combat Ship......................................142, 152, 160
LPD-17.........................................................146, 153
Management Process Improvement...................................    86
Marine Corps:
    Force........................................................   140
    Grow the Force...............................................   144
Marines and Sailors in Combat are our Number One Priority........   115
Maritime Patrol..................................................   145
Mental Health....................................................   154
    Professionals................................................   156
Mine Resistant Ambush Protected Vehicle Strategy.................   165
Modernize for Tomorrow to be ``the Most Ready When the Nation is 
  Least Ready''..................................................   121
MV-22:
    Lack of Mounted Weapons Systems..............................   167
    Performance in Theater.......................................   167
Naval Station Everett............................................   157
Navy End Strength................................................   163
NNMC Bethesda and Walter Reed..................................143, 148
Nuclear:
    Engineers....................................................   161
    Surface Ships................................................   163
Prepare for Future Challenges....................................    83
Prevail in the Global War on Terrorism...........................    75
Priorities for Fiscal Year 2009..................................    89
Provide Our Nation a Naval Force Fully Prepared for Employment as 
  a MAGTF Across the Spectrum of Conflict........................   130
P-3 ``Red Stripe''...............................................   162
Resetting the Force and Preparing for the Next Contingency.......   119
Right-size the Marine Corps for Today's Conflict and Tomorrow's 
  Uncer- 
  tainty.........................................................   116
Sustaining Current Aircraft Versus Investing in Future Programs..   159
Tactical Wheeled Vehicle Strategy Update.........................   165
Take Care of Our People..........................................    80
Taking Care of Our Marines and Our Families......................   133
T-AKE Ship:
    Procurement Plan.............................................   161
    Requirements.................................................   164
Up-Armored HMMWVs and MRAP Vehicles..............................   164
VH-71 Presidential Helicopter....................................   160
Virginia Class Submarine.........................................   161
V-22.............................................................   144

                        Medical Health Programs

Additional Committee Questions...................................   307
Behavioral Health:
    Care Assets..................................................   333
    Resources....................................................   314
    Specialists Shortages........................................   313
BRAC Deadline....................................................   312
Care of the Caregiver............................................   286
Case Management..................................................   324
Collaboration/Innovative Delivery................................   278
Collaborative/Joint Training Initiatives.........................   291
Communication....................................................   294
Comprehensive Recovery Plan....................................311, 331
Contract Nurse Requirements......................................   322
Contracting for Nurses...........................................   317
Department of Veterans Affairs Sharing Initiatives...............   247
Deployment.......................................................   273
    Time.........................................................   266
Education Program and Policies...................................   290
Educational Partnerships.........................................   292
Expeditionary Nursing............................................   296
Eye Trauma.......................................................   314
Families of Wounded Warriors.....................................   330
Family-Centered Care.............................................   285
Force:
    Health Protection and Readiness..............................   238
    Shaping......................................................   286
Grow-the-Army....................................................   312
HPSP.............................................................   329
Humanitarian:
    Assistance...................................................   289
        Disaster Relief Missions (HA/DR).........................   239
    Missions.....................................................   321
Increasing Demand for Nurses.....................................   324
Integrated:
    Care.........................................................   319
    Health Care Teams............................................   330
Joint:
    Endeavors....................................................   301
    Military Health System.......................................   314
Leadership.......................................................   293
    In Research..................................................   277
Medical Center Realignment.......................................   313
Mental Health:
    Providers....................................................   262
    Treatment Research...........................................   322
Mentorship.......................................................   290
Military:
    Eye Trauma Center of Excellence and Eye Trauma Registry......   334
    Health System Governance.....................................   335
    Nurse Recruitment and Retention..............................   323
    To Civilian:
        Conversion...............................................   329
            Standstill...........................................   333
            Benefits of Military Personnel.......................   333
        Reversal Challenges......................................   333
MOUS with Universities...........................................   324
Navy Nurse Corps Support to Army and USMC........................   327
Nurse:
    Case Management..............................................   284
    Corps Age Exemption..........................................   321
    Promotion Rates..............................................   322
    Psychological Health.......................................316, 320
    Pandemic Flu.................................................   315
Nursing:
    Education....................................................   318
    Recruiting...................................................   319
    Shortage.........................................317, 318, 321, 325
Operational......................................................   288
    Currency.....................................................   299
Our Way Ahead....................................................   304
Partnership With University of Maryland..........................   317
Patient and Family Centered Care and Wounded, Ill and Injured 
  Servicemembers.................................................   239
Prepare for Tomorrow's Challenges................................   247
Productivity.....................................................   293
Promotion Selection..............................................   316
Psychiatric and Mental Health Nursing............................   284
Publications.....................................................   292
Quality Care.....................................................   302
Readiness and Clinical Proficiency...............................   288
Recognition......................................................   303
Recruiting.....................................................286, 308
    And retention....................................250, 279, 305, 328
    For Specialists..............................................   307
Recruiting, Retention, and Force Development.....................   302
Recruitment:
    And Retention and Graduate Medical Education.................   241
    From Medical Schools.........................................   252
Research.........................................................   291
    And Development Efforts......................................   242
    And Education................................................   299
Retention........................................................   287
ROTC.............................................................   325
Safe Harbor Program..............................................   327
Scholarships.....................................................   308
School of Nursing................................................   315
Skill Sustainment................................................   298
Specialist Pool..................................................   328
Specialty Pay for Nurses.........................................   315
Stress on Nurses.................................................   326
Suicides.........................................................   263
Support to USMC Growth...........................................   332
Take Care of our People..........................................   245
Total Force Integration..........................................   245
Transformation/Advancing Professional Nursing....................   274
Troops to Nurse Teachers.........................................   323
USUHS Nursing School.............................................   322
Vet Centers......................................................   334
Veterans:
    Care.........................................................   268
    Healthcare...................................................   255
Walter Reed Army Medical Center..................................   309
Warrior:
    Care.........................................................   284
    Transition Units (WTUs)......................................   308
Win Today's Fight................................................   244
Wounded Soldiers' Families.......................................   310
WRNMMC:
    Bethesda Deadline............................................   332
    Deadline Challenges..........................................   332
    Realignment..................................................   332

                         Missile Defense Agency

Additional Committee Questions...................................   375
Advanced Hypersonic Weapon.......................................   366
Air and Missile Defense--An Overview of the Fiscal Year 2009 Army 
  Budget Submission..............................................   357
Airborne Laser.................................................362, 372
American Technical Expertise.....................................   367
Army Infrastructure Contributions................................   357
Base Realignment and Closure (BRAC)..............................   353
Countermeasures..................................................   373
Directed Energy and Lasers.......................................   368
European Missile Defense Site....................................   362
    Negotiations.................................................   361
High Energy Laser System.........................................   369
Highlights of Budget Submission for Fiscal Year 2009.............   345
Kinetic Energy Interceptor.......................................   366
Missile Defense Agency:..........................................
    Engineering and Support Services.............................   353
    Joint Programs--Japan........................................   371
    Need for MIRACL Laser........................................   370
    Targets Shortfall and Failures...............................   371
Missile Defense:
    And NATO.....................................................   365
    Products.....................................................   369
    System Capabilities..........................................   363
New Missile Defense Program Structure............................   344
Number of GMD Interceptors.......................................   374
Organizational Reengineering.....................................   352
Retaining Integrated Decision Authority..........................   351
Satellite Interceptor............................................   341
Setbacks in 2007.................................................   351
THAAD............................................................   373
Threat Update....................................................   343

                             National Guard

Additional Committee Questions...................................   489
Army National Guard:
    ``Active First''.............................................   489
    End Strength.................................................   490
Blast Injuries...................................................   492
Civil Support Readiness..........................................   492
Critical to Today's Fight........................................   460
Developing Adaptable Airmen......................................   461
Domestic Operations..............................................   465
Equipment........................................................   449
Equipping and Modernizing the Air National Guard.................   462
Force Realignments...............................................   495
Homeland Defense and Domestic Operations.........................   459
In Memoriam......................................................   470
Introduction and Executive Overview..............................   450
Light Utility Helicopter.........................................   494
National Guard Counterdrug Program...............................   464
New Mexico ANG:
    F-16 Upgrades................................................   496
    F-35s........................................................   496
Personnel........................................................   449
Readiness......................................................450, 453
Recruiting and Retention.........................................   461
Resources........................................................   450
State:
    Adjutants General............................................   469
    Partnership Program..........................................   451
Structure........................................................   451
Support to Civil Authorities.....................................   465
Supporting:
    Operation Jump Start.........................................   464
    Our Soldiers.................................................   457
    The Warfighter--Connect the Community........................   467
The Future.......................................................   452
Training..................................................449, 456, 463
Transformation for the Future....................................   468
Transforming Into a Capabilities-based Force.....................   461

                        Office of the Secretary

Additional Committee Questions...................................   543
Aid to Yemen.....................................................   553
Attack After 7 Years.............................................   533
Building Partnership Capacity....................................   518
Contractors......................................................   531
Defend Our Vital National Interests in the Broader Middle East...   513
Dialogue With Iran.............................................521, 528
DOD Financial Status.............................................   537
Draft Reinstitution..............................................   539
Emergency Supplemental...........................................   527
Force Structure Needs (Current Versus Future Technology).........   548
Fuel Creation....................................................   542
Future of Weapons Systems and Acquisition Costs..................   534
GWOT Detainees/Guantanamo........................................   526
Homeland Defense Spending........................................   529
Increase Ground Forces...........................................   508
Iraq:
    Security Force Funding.......................................   532
    Trips........................................................   538
Joint Strike Fighter.............................................   525
Military Energy/Fuel Alternatives.........................552, 554, 566
Osama bin Laden..................................................   533
Properly Balanced Global Strategic Risk..........................   516
Quality of Life..................................................   507
Readiness, Operations and Support................................   506
Reducing Dependence on Foreign Oil...............................   541
Reset, Reconstitute, and Revitalize our Forces...................   514
Soft Power.......................................................   548
Stop loss........................................................   548
Strategic Modernization--Future Combat Capabilities..............   505
Suicide........................................................544, 559
TACAIR...........................................................   523
    And Joint Strike Fighter.....................................   523
TBI/PTSD.......................................................545, 560
Troop Deployment and Dwell Times.................................   520
Troops to Nurse Teachers.........................................   548
UAVs.............................................................   532
Volunteer Force..................................................   540
War Funding......................................................   508
Wildfire Protection..............................................   525

                                Reserves

A Navy for Tomorrow..............................................   407
Additional Committee Questions...................................   440
Army Reserve--Full Time Support (FTS)............................   440
Current Readiness................................................   405
Dynamic Change, Challenging Times................................   390
Elmendorf Air Force Base.........................................   439
Employer Support of the Guard and Reserve........................   419
Employers........................................................   434
Equipment Status.................................................   414
Facilities.......................................................   415
Force Realignments...............................................   441
Full-time Support................................................   428
    Structure....................................................   430
Introduction of Reserve Soldiers.................................   381
KC-X Program.....................................................   427
Mental Health..................................................431, 433
Navy Reserve Officer:
    Recruiting...................................................   445
    Shortage.....................................................   446
Operational Tempo and Morale.....................................   444
People...........................................................   408
Personnel Readiness..............................................   417
Prepare:
    For Tomorrow's Challenges....................................   424
    Soldiers for Success in Current Operations...................   396
Quality of Life..................................................   418
Ready for the Next 100 Years.....................................   402
Recruiting and Retention Bonuses.................................   444
Reintegration:
    Activities...................................................   445
    Training.....................................................   442
Reserve:
    A-10 Squadron................................................   438
    Reintegration................................................   443
Reset Our Equipment to Restore Readiness and Depth for Future 
  Opera- 
  tions..........................................................   399
Retention......................................................425, 427
Returning Warrior Programs.......................................   436
Strategic Context................................................   386
Suicides.........................................................   431
Sustain Our Soldiers, Families, and Employers....................   392
Take Care of Our People..........................................   423
Today's Marine Corps Reserve.....................................   411
Training.........................................................   416
Transform the Army Reserve to Meet the Demands of the 21st 
  Century........................................................   399
United States Army Reserve 2008 Posture Statement................   385
Win Today's Fight................................................   422
Yellow Ribbon....................................................   444
    Integration..................................................   440
    Program......................................................   426
    Reintegration................................................   442

                                   - 

</pre></body></html>
